<html>
<title> - Department of the Interior, Environment, and Related Agencies Appropriations for Fiscal Year 2009</title>
<body><pre>[Senate Hearing 110-648]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 110-648

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


Department of the Interior,

Environment, and

Related Agencies

Appropriations


                                                            Fiscal Year
                                                                   2009


                                         110th CONGRESS, SECOND SESSION

DEPARTMENT OF AGRICULTURE
DEPARTMENT OF THE INTERIOR
ENVIRONMENTAL PROTECTION AGENCY
NONDEPARTMENTAL WITNESSES

DEPARTMENT OF HEALTH AND HUMAN SERVICES

NATIONAL ENDOWMENT FOR THE ARTS

GENERAL ACCOUNTING OFFICE

NATIONAL ENDOWMENT FOR THE HUMANITIES
     Department of the Interior, Environment, and Related Agencies 
                         Appropriations, 2009
                     (H.R. 2643/S. 1696) --Part 1
 
41-257 PDF

2008

                                           S. Hrg. 110-648, Pt. 1 deg.

     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________


                      Department of Agriculture
                       Department of the Interior
                    Environmental Protection Agency
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web:http://www.gpoaccess.gov/congress/
                               index.html

                     U.S. GOVERNMENT PRINTING OFFICE
41-257 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                               __________

  
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agenics

                 DIANNE FEINSTEIN, California, Chairman
ROBERT C. BYRD, West Virginia        LARRY CRAIG, Idaho
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        THAD COCHRAN, Mississippi
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            JUDD GREGG, New Hampshire
JACK REED, Rhode Island              WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                           Professional Staff

                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                             Scott Dalzell
                             Chris Watkins
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                         Calli Daly (Minority)

                         Administrative Support

                         Katie Batte (Minority)


                            C O N T E N T S

                              ----------                              

                         Tuesday, March 4, 2008

                                                                   Page

Environmental Protection Agency..................................     1

                         Tuesday, April 1, 2008

Department of Agriculture: Forest Service........................    49

                        Tuesday, April 15, 2008

Department of the Interior: Office of the Secretary..............   159
Nondepartmental witnesses........................................   221

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         TUESDAY, MARCH 4, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Leahy, Stevens, Craig, and 
Allard.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF HON. STEPHEN L. JOHNSON, ADMININSTRATOR
ACCOMPANIED BY:
        MARCUS C. PEACOCK, DEPUTY DIRECTOR
        BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
        SUSAN PARKER BODINE, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
            WASTE AND EMERGENCY RESPONSE


             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN


    Senator Feinstein. Good morning, ladies and gentlemen, and 
welcome to the Interior Subcommittee's hearing on the EPA 
agency's fiscal year 2009 budget.
    This one is a series of budget hearings that the 
subcommittee will be holding. But, I'd like to take a moment 
and set the stage for the challenges that this administration's 
request presents, before we begin with the EPA budget.
    The President has requested $25.715 billion in 
discretionary spending for the agencies and programs in the 
Interior budget. That's a cut of $842 million, or 3.2 percent, 
from the currently-enacted level.
    The real cut, of course, is much higher, when you factor in 
some $300 million in fixed costs that must be covered, an extra 
$200 million for fire suppression to meet the 10-year average, 
and approximately $150 million to cover increased health care 
costs for the services provided by the Indian Health Service.
    In short, this Interior budget is a very difficult one, and 
we are going to have our work cut out for us, as we proceed 
with this year's appropriation process.
    With respect to this morning's hearing the administration's 
request for the EPA's budget is $7.142 billion, a $329 
million--or a 4 percent cut--from the 2008 enacted level. This 
proposal calls for the smallest budget for EPA, since 1997. The 
smallest budget for EPA, since 1997.


                            GRANTS TO STATES


    Grants to States for environmental protection, in general, 
are slashed $304 million, a 10 percent cut, for a total of $2.6 
billion. As in previous years, the largest cut is to the Clean 
Water State Revolving Fund. The administration's request for 
this program is $555 million. That's a 20 percent cut from the 
2008 enacted level.
    Now, this happens despite the fact that EPA just released a 
report, citing a need for $20 billion to keep pace with clean 
water infrastructure funding in the United States over the next 
20 years.
    The budget proposes $186 million in State grants for 
reduction of air pollution--that's a 14 percent cut--and it 
eliminates $9.8 million in funds added to clean up air 
pollution in the San Joaquin Valley, and South Coast air 
districts of my State--the two most polluted air districts in 
the country.
    Finally, EPA budget cuts $14 million in funding for climate 
change programs--including the outright elimination of $3.4 
million added last year for a greenhouse emissions reporting 
rule. This comes, despite the fact that Congress has required a 
final rule on this by June 2009, and we know additional funds 
are badly needed to complete this important work. Under this 
budget, though, that money is just gone.
    We're here today to talk about more than the budget, too. 
As you know, I am strongly opposed to the administrator's 
decision last December to deny the State of California its 
authority to regulate greenhouse gas emissions from 
automobiles.
    I'm going to ask Administrator Johnson to justify how he 
could have reached this decision, that California's need to 
regulate greenhouse gases was not compelling or extraordinary, 
when his decision looks to be plainly contradicted by both the 
Clean Air Act, and by 40 years of agency policy.
    What's even more unprecedented, is that he has denied this 
waiver, without offering a shred of legal or technical evidence 
for this decision. Incredibly, EPA released its justification 
for the waiver decision just last Friday--more than 2 months 
after the decision was made. You would think it would be done 
before the decision was made. I want to know why.
    This issue is much bigger than California. Sixteen States 
around the country have asked to implement California's 
emission standards, and take action against climate change. The 
people in those States deserve answers to these important 
questions.
    I'd like to turn now to our distinguished ranking member, 
Senator Allard, for any opening comments you might make.


               OPENING STATEMENT OF SENATOR WAYNE ALLARD


    Senator Allard. Thank you, Madam Chairman.
    Just to make a brief comment here, I want to thank you for 
holding this hearing, and I want to thank Mr. Johnson for 
joining us this morning to testify on the fiscal year 2009 
budget for the Environmental Protection Agency.
    EPA has one of the most important and difficult missions of 
all Federal agencies. The agency's jurisdiction ranges from 
responsibility for clear-up of Superfund sites, to funding 
clean water and drinking water infrastructure programs, to the 
enforcement of a long list of environmental laws.
    The administration has requested $7.1 billion in total 
budget authority for fiscal year 2009--this is $330 million 
below the enacted level.
    While I'm a supporter of this agency's--and the 
administration's--effort to curb spending, I am concerned that 
the bulk of the reduction in EPA's budget is in the form of is 
in the form of a $134 million to the Clean Water SRF.
    As I have mentioned in past years, I am uneasy with 
continued increases in enforcement budget at EPA. The $9 
million increase above the enacted level, $563 million total 
budget for enforcement. I hope that the agency will work in 
good faith with small and rural communities who do not always 
possess the expertise to comply with new regulations.


                    LEADVILLE MINE DRAINAGE TUNNELL


    Mr. Administrator, I am sure that you are familiar with the 
issues surrounding the Leadville Mine drainage tunnel in Lake 
County, Colorado. I am extremely concerned that Lake County 
officials were forced to declare a state of emergency on 
February 13, to prepare for a possible toxic flood as a result 
of water trapped in a collapsed drainage tunnel.
    Now, EPA is not the only entity that bears responsibility 
for the Leadville Tunnel, but I would like your word, Mr. 
Johnson, that your agency will continue to work toward a long-
term solution for this situation, so that the residents of Lake 
County can rest easy.
    I was pleased that your representative in our Colorado 
meeting took the bull by the horn, so to speak, and came up 
with a short-term solution. So, we're talking about a long-term 
solution for this problem, and I am appreciative of him 
stepping forward at a time when we had a couple of agencies, 
sort of, knowing at each other, and you brought--you took some 
leadership out of your agency and brought about a consensus, 
and I appreciate that.
    Senator Feinstein, I do not necessarily agree on all 
aspects of the greenhouse debate, but I'm concerned by reports 
that the agency may have disregarded standard protocols in 
denying California's Clean Air Waiver Request.
    There are a number of States, including Colorado, which 
would have considered in California's footsteps to adopt a law 
to reduce greenhouse gas emissions from automobiles, if a 
waiver was granted to that State. As a supporter of States' 
rights, I am also troubled by the suggestion that the State of 
California's rights may have been curtailed.
    I'm confident that Senator Feinstein has a number of 
questions for you, Mr. Johnson, on this topic so I look forward 
to a healthy debate during the question round of this hearing.
    Mr. Administrator, thank you again for being here today, 
and I look forward to working with you on the many challenges 
you face at the helm of the agency.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    I'd like to suggest this, that we hear from Mr. Johnson and 
then we have 10-minute rounds. Since it's the two of us, we go 
back and forth--if that's agreeable with you.
    Senator Allard. That sounds fine, thank you.
    Senator Feinstein. Good, thank you.
    Mr. Johnson.


              SUMMARY STATEMENT OF HON. STEPHEN L. JOHNSON


    Mr. Johnson. Thank you, Madam Chairman.
    Chairman Feinstein, and Senator Allard and members of the 
committee, I'm pleased to be here to discuss the President's 
fiscal year 2009 budget request for the Environmental 
Protection Agency.
    This marks the 8th, and final, budget introduced by the 
President during his tenure. As the Bush administration sprints 
to the finish line, I believe this budget will keep EPA on a 
course for a cleaner tomorrow.
    At EPA, we are proud--our Nation's air is cleaner, our 
water is purer, and our land is healthier than just a 
generation ago. So, we appreciate the President's $7.14 billion 
budget proposal, which will help the EPA keep pace with the 
environmental challenges of tomorrow.
    One important challenge is in the arena of clean and 
affordable energy. With both demand and cost on the rise, 
innovators are moving forward to advance the clean power 
solutions. At the same time, industry is searching for new, 
domestic energy supplies, to help reduce the Nation's 
dependency on foreign oil.
    In doing so, we estimate that industry will explore 
thousands of new oil and gas wells on tribal and Federal lands 
alone, as well as proposing many energy projects.
    To ensure these projects move forward in an environmentally 
responsible manner, this budget requests $14 million to hire 
additional technical experts, and provide grants to our 
partners to increase their capacity to review and assess 
proposed projects.
    In addition, the budget contains sufficient funding to meet 
our commitment to addressing the serious challenge of global 
climate change. In order to advance clean air technologies, the 
President requested $49 million for EPA's diesel retrofit grant 
programs.
    Another challenge is to improve our Nation's aging drinking 
water and waste water infrastructure. The budget requests $842 
million to fund Drinking Water State Revolving Fund grants--an 
increase of $13 million from last year. This will help meet the 
President's commitment to achieve a $1.2 billion revolving 
level by 2018.
    For Clean Water State Revolving Funds, the President 
proposes an investment of $555 million in fiscal year 2009. 
This will enable the program to meet its long-term revolving 
target of $3.4 billion by 2015.
    In addition, we once again, propose to create Water 
Enterprise Bonds, as innovative financing tools for State and 
local partners to cost-effectively provide for resident's water 
needs.


                          WATER INFRASTRUCTURE


    As we address our water infrastructure, the budget 
continues to support EPA's collaborative work to protect 
America's great water bodies. It provides $35 million for the 
Great Lakes, $29 million for the Chesapeake Bay, and $4.6 
million for the Gulf of Mexico.
    As you know, EPA is not only a guardian of our environment, 
it is a guardian of our homeland. I'm proud of our response to 
Hurricanes Katrina and Rita, and to a number of other natural 
events in recent years.
    However, we recognize the need to expand our capabilities 
to respond to multiple, simultaneous, catastrophic events. So 
this budget requests an extra $32 million, for a total 
investment of $170 million to train staff volunteers, increase 
decontamination capabilities, and fully fund 5 water 
infrastructure security pilots. This additional funding also 
includes a $5 million increase to support our bio-defense 
research.
    In order to keep pace with the environmental challenges of 
tomorrow, we have a responsibility to advance the state of our 
science. In this budget, the President requested $15 million, 
to help EPA study nanotechnology, as well as $15 million for 
computational toxicology.
    At EPA, we're working with our community partners to pass 
down a healthier, more prosperous future. The President's 
budget provides over $1.2 billion for the Superfund Program--to 
continue transforming contaminated, hazardous waste sites back 
into community assets. This is a $10 million increase from 
fiscal year 2008.
    The President also requested $165.8 million for our 
successful Brownfields program. We project the grantees will 
help assess the renovation of 1,000 properties, and create 
leverage for more than 5,000 jobs.
    So, while cooperative initiatives are important, we must 
continue to vigorously enforce our Nation's environmental laws. 
This budget proposes the highest dollar amount for enforcement 
in EPA's history, $563 million, an increase of $9 million over 
fiscal year 2008.
    As EPA works to fulfill our responsibilities to the 
American people, I'm pleased this budget not only continues to 
deliver environmental results today, and keeps EPA on course to 
deliver a cleaner, healthier tomorrow.


                           PREPARED STATEMENT


    Bottom line--this budget represents good government. It 
helps EPA meet our environmental goals, while being responsible 
stewards of taxpayer dollars.
    Thank you, and I request that my full written statement be 
submitted for the record.
    Thank you, Madam Chairman.
    [The statement follows:]
             Prepared Statement of Hon. Stephen L. Johnson
    Madam Chairman and members of the committee, I appreciate the 
opportunity to discuss our proposed fiscal year 2009 Budget request for 
the Environmental Protection Agency (EPA) budget.
    The President requests $7.14 billion for fiscal year 2009 to 
support EPA's mission to protect human health and the environment both 
directly and through EPA's state, local and tribal partners nationwide. 
Since its founding, EPA has laid a strong foundation of environmental 
progress. Our air, water and land are cleaner today than they were just 
a generation ago. This budget continues this progress, supports the 
environmental commitments that the President and I have made and 
institutionalizes EPA's major management and performance improvements.
    In particular, the budget meets the major priorities that I've set 
for my final year of service:
  --Advancing clean, affordable and safe energy,
  --Safeguarding our nation through stronger homeland security,
  --Encouraging stakeholder collaboration to address energy and climate 
        change issues,
  --Improving our water infrastructure and programs,
  --Continuing Superfund remediation of the most highly contaminated 
        hazardous waste sites,
  --Encouraging economic development through revitalization with our 
        successful Brownfields program,
  --Ensuring full compliance with the nation's environmental laws,
  --Building a stronger EPA for my successor--including strengthening 
        our protection of human health and the environment through best 
        available science, and
  --Demonstrating fiscal responsibility for all our successors.

              ADVANCING CLEAN, AFFORDABLE AND SAFE ENERGY

    We all know that our Nation faces multiple challenges to assure a 
future of clean, affordable and safe energy. With both demand and costs 
on the rise, innovators are moving forward to propose cleaner power 
solutions that are good for our environment and good for our energy 
security. Industry is searching for many new domestic alternatives to 
help reduce our dependence on foreign energy. We estimate that over the 
next several years industry will propose drilling thousands of new oil 
and gas wells on Federal, state, and Tribal lands, apply to renew up to 
100 nuclear plant licenses, consider building dozens of new liquefied 
natural gas terminals, and propose many other projects. This budget 
recognizes that industry's increased efforts will mean a larger 
workload in our existing air and water permitting programs as well as 
our enforcement programs--especially out West.
    This budget includes an additional $14 million to help ensure 
environmentally sound decision-making--with proper permitting and 
review and in full compliance with the law. The $14 million will 
support our state and tribal partners' efforts to increase their 
capacity to review and assess all the proposed energy projects and pay 
for the additional technical experts the Agency needs to meet 
permitting, technical review, and NEPA requirements.
    One related clean energy initiative that I'm glad that we and the 
appropriating committees agreed upon is the Diesel Emission Reduction 
Act (DERA) program grants. In fiscal year 2009, $49 million will fund 
250-300 diesel retrofit grant programs that target older diesel engines 
which are not subject to the new regulations. A combination of 
strategies including engine retrofits, rebuilds or replacements, 
switching to cleaner fuels, and idling reduction strategies can reduce 
particulate matter emissions by 95 percent, smog forming hydrocarbon 
and nitrogen oxide emissions by up to 90 percent and greenhouse gases 
by up to 20 percent. These strategies will allow us to make continued 
progress in five sectors: freight, construction, school buses, 
agriculture and ports.

                           HOMELAND SECURITY

    Homeland Security continues to be one of EPA's top priorities. EPA 
has responded to five major disasters and catastrophic incidents in 
recent years, including response actions to the 9/11 terrorist attacks, 
the anthrax terrorist incidents, the Columbia Shuttle disaster and 
recovery efforts, the Ricin incident on Capitol Hill, and the Gulf 
Coast hurricanes. Our experience from these responses, coupled with 
EPA's externally driven mandates such as Homeland Security Presidential 
Directives and Emergency Support Function mission assignments, lead me 
to propose that EPA heighten its preparedness.
    This budget ensures that we can meet these commitments by proposing 
an additional $32 million over last year's enacted budget for a total 
of $170 million to advance the EPA's capabilities to respond to 
multiple incidents, strengthen bio-defense research, and continue to 
support the Water Security Initiative.
    As a part of this request, we remain committed to funding five 
Water Security Initiative pilots to secure a broad range of data so 
water utilities across the country will have the necessary information 
to install and enhance contamination warning systems. With the fiscal 
year 2009 request we will have initiated all five pilots and expect to 
complete them by 2012. EPA is also advancing its preparedness to 
respond to multiple, large-scale, catastrophic incidents, and in 
particular, potential chemical, biological and/or radiological agent 
terror attacks.

                             CLIMATE CHANGE

    For fiscal year 2009, EPA requests a total of $114.7 million to 
continue to achieve real reductions of carbon dioxide, methane, per 
fluorinated compounds (PFCs) and other greenhouse gases, and continue 
research to better understand climate change and its ramifications.
    EPA will continue to achieve real reductions in greenhouse gases by 
promoting energy efficiency through partnerships with consumers, 
businesses and other organizations. We will continue to see real 
results in the home, building, industrial and transportation sectors by 
spurring our partners' investments in energy efficient and greenhouse 
gas saving technologies, policies and practices. Based on a historical 
analysis, we estimate that for every dollar spent by EPA on its climate 
change programs, greenhouse gas emissions are reduced by up to the 
equivalent of one metric ton of carbon.
    One cornerstone of our partnerships is the ENERGY STAR program, 
which has helped speed new lighting technologies to market, fostered 
development of more energy efficient computers, and increased 
Americans' understanding of how they can help the environment by 
purchasing cleaner and more efficient machines. To give one example, 
ENERGY STAR qualified light bulbs use 75 percent less electricity and 
last up to 10 times longer than traditional bulbs. If every American 
household switched just one traditional bulb to a high-efficiency 
ENERGY STAR bulb, America would save enough power to light more than 
three million homes . . . save $600 million in energy costs . . . and 
prevent greenhouse gas emission equal to more than 800,000 cars 
annually.
    A Washington Post article 2 weeks ago on how pollution can be blown 
to the United States from overseas reminded me that our international 
programs are essential to realizing American ecological goals. If we 
don't help China, India and other developing countries build energy 
efficient technologies into their infrastructure, their increases in 
greenhouse gas emissions will far out-weigh any reduction that we 
achieve here. That is why it remains essential that we move forward 
with the Asia Pacific Partnership, Methane to Markets and other 
international programs.
    In climate change research, EPA will invest $16.4 million to 
continue to better understand climate change and its ramifications. EPA 
will investigate how climate change affects air and water quality to 
protect the gains in public health made by the Agency. We will explore 
opportunities to anticipate the impacts and incorporate climate change 
considerations into regulatory processes. We will use research findings 
to support the development of a proposed rule on the geological 
sequestration of carbon dioxide to ensure that underground sources of 
drinking water are protected. We will continue to reach out to all our 
potential 300 million ``green'' partners by making available free, 
online decision support tools to enable resource managers to 
incorporate climate change considerations into their day-to-day 
operations.

                          COOPERATIVE PROGRAMS

    Our cooperative programs also provide an outstanding example of how 
we can find ``win-win'' solutions that make sense both environmentally 
and economically. They allow us to work with businesses and individuals 
to achieve environmental results while improving the bottom line. They 
allow EPA to start addressing environmental challenges as soon as we 
recognize them and give us the opportunity to test innovative 
approaches to meet today's challenging environmental problems. To date, 
our conservative estimate is that over 20,000 businesses and other 
groups across America have participated in cooperative programs. We are 
proud of the record of success of these programs and want to encourage 
our talented employees to continue to use their creativity in finding 
innovative ways to improve environmental results.

                     WORKING WITH FEDERAL PARTNERS

    Cooperation with Federal partners is also crucial for EPA to meet 
its mission. In the fiscal year 2009 budget, I want to highlight our 
efforts to work with Federal partners to better understand the 
environmental impact of the almost $2 trillion worth of imported goods 
coming into the U.S. annually. To meet this challenge, the President 
directed agencies with import/export responsibilities to work together 
to create an International Trade Data System (ITDS) within an expanded 
Automated Commercial Environment (ACE). EPA's $3.1 million investment 
in fiscal year 2009 will help build the linkage with ITDS to identify, 
track and confirm vital environmental details about imported goods in 6 
areas: (1) vehicles and engines, (2) ozone depleting substances, (3) 
fuels, (4) pesticides, (5) toxic substances, and (6) hazardous waste.
    This is not a pie-in-the-sky dream. It builds on a successful pilot 
test by our Office of Enforcement, which showed that accessing useable 
records lead to timely action. One pilot test identified imported 
engines in several planned shipments that did not meet U.S. 
specifications and allowed us to block their entrance. One bad engine 
can make a big difference in emissions of particulate matter. Another 
pilot test proved that even child's play can be harmful to the 
environment. Detailed records highlight many batches of innocent-
looking ``silly-string'' which contained banned chlorofluorocarbons 
(CFCs). These tests make clear that prompt data retrieval translates 
into prompt protection.
    This is also an example of how our long term planning has paid off. 
EPA can efficiently link to ITDS because of the Agency developed a 
Central Data Exchange, a standard set of IT systems and protocols for 
sharing information among multiple partners.

                   WATER INFRASTRUCTURE AND PROGRAMS

    This President's budget meets our commitments to finance state 
revolving funds, proposes new financing options, continues WaterSense 
and other collaborative water-efficiency projects, strengthens our 
wetlands and watershed protection, and furthers our successful 
geographic initiatives.
    We propose $842 million for Drinking Water State Revolving Fund 
(DWSRF) grants, an increase of $13 million. This funding will help 
achieve the target of 445 additional infrastructure improvement 
projects to public water systems--and help reach a long term target 
$1.2 Billion revolving level. The DWSRF program supports states by 
providing low-interest loans and other assistance to water systems to 
help provide safe, reliable water service on a sustainable basis, 
protect public health and achieve or maintain compliance with the Safe 
Drinking Water Act (SDWA).
    For Clean Water State Revolving Funds (CWSRFs), we propose a fiscal 
year 2009 investment of $555 million to help meet the program's long 
term revolving target of $3.4 Billion. This program is able to meet 
EPA's $6.8 billion total capitalization goal for fiscal years 2004-2011 
with a reduced budget request due to higher than anticipated funding 
levels in previous years. The CWSRF program provides funds to 
capitalize state revolving loan funds that finance infrastructure 
improvements through low interest loans for public wastewater systems 
and other water quality projects.
    The President's fiscal year 2009 budget continues to support the 
Water Enterprise Bond Initiative that proposes financing wastewater and 
drinking water infrastructure projects using Private Activity Bonds 
(PABs) that are exempt from unified state PAB volume caps. We estimate 
this initiative will increase capital investment in the nation's water 
infrastructure by up to $5 billion per year over time through public-
private partnerships. These bonds will complement local efforts to move 
towards full-cost pricing for wastewater and drinking water services, 
help localities become self-financing and minimize the need for future 
Federal expenditures.
    These financing proposals work together with our continuing efforts 
to increase efficiency, protect our wetlands and watersheds, accurately 
monitor the condition of our waters and wetlands and target vital 
geographic areas.
    For example, in June 2006 EPA launched the WaterSense program to 
reduce water use across the country by creating an easy-to-identify 
label for water-efficient products. The WaterSense label certified that 
products had been independently tested to meet strict efficiency and 
performance criteria. In less than two years, WaterSense has become a 
national symbol for water efficiency among utilities, plumbing 
manufacturers, and consumers. More than 125 different models of high-
efficiency toilets and 10 bathroom faucets have earned the label and 
more than 600 manufacturers, retailers, utilities and professionals 
have joined the program as partners. In fiscal year 2009 EPA will 
continue supporting development of new products and working with 
utilities, retailers, distributors, and the media to educate consumers 
on the benefits of switching to water-efficient products.
    EPA's Wetlands Program supports the Administration's goals to 
achieve ``no net loss'' of wetlands in the Sec. 404 regulatory program 
and an overall increase in wetland quantity and quality. Wetlands 
provide numerous ecological and economic services: they help to improve 
water quality; recharge water supplies; reduce flood risks; provide 
fish and wildlife habitat; offer sites for research and education; and 
support valuable fishing and shellfish industries. In fiscal year 2009, 
EPA will work with its state and Tribal partners to promote up-to-date 
wetlands mapping tied with GIS (Geographic Information Systems) 
analysis, strengthen monitoring and assessment programs to report on 
wetlands condition, and improve data to better manage wetlands within a 
watershed context. Two key activities will be implementing the 2006 
Supreme Court decision in the Rapanos case, and working with our 
federal agency partners to accelerate the completion of the digital 
Wetlands Data Layer within the National Spatial Data Infrastructure 
(NSDI).
    Watershed protection runs through our budget and strategic plan as 
one of the overarching principles for clean and healthy communities. 
Our strategic plan, our daily activities and our proposed fiscal year 
2009 budget all reflect the importance of core regulatory and 
stewardship programs prevent water pollution and protect source waters. 
With our partners we launched a Green Infrastructure Strategy on 
January 17, 2008 to reduce sewer overflows and storm-water runoff. We 
also continue to urge Congress to enact targeted, bipartisan clean 
water legislation to encourage ``Good Samaritan'' cleanup of abandoned 
hard rock mines. This simple step will remove legal and bureaucratic 
obstacles, keep environmental safeguards in place, save tax payer 
dollars and help clean up watersheds.
    We continue to place a high priority on improving the states' 
ability to accurately characterize the condition of their waters. In 
fiscal year 2009, we will continue our water quality monitoring 
initiative by providing grant funding totaling over $18.5 million to 
states and tribes that participate in collecting statistically valid 
water monitoring data and implement enhancements in their water 
monitoring programs.
    The fiscal year 2009 budget continues funding for geographic 
initiatives, including:
  --In the Great Lakes, EPA's $35 million investment in the Great Lakes 
        Legacy Act will give priority to working with states and local 
        communities to achieve improvements in water quality and 
        reducing the number of toxic ``Areas of Concern''. ``Areas of 
        Concern'' include areas with damaged fish and wildlife 
        populations, contaminated bottom sediments and past or 
        continuing loadings of toxic and bacterial pollutants.
  --In the Chesapeake Bay, the $29 million investment will be committed 
        to substantially accelerating the restoration of the Bay's 
        aquatic habitat and achieving the pollution reduction targets 
        for 2010.
  --For the Gulf of Mexico, EPA's $4.6 million investment will continue 
        to support efforts to reduce nutrient loadings to watersheds. 
        We will identify the top 100 nutrient-contributing watersheds 
        in the Mississippi River Basin and use a computer model 
        determine the location of major sources of nitrogen and 
        phosphorus and where to target hypoxia- reduction efforts.

   SUPERFUND REMEDIATION OF HIGHLY CONTAMINATED HAZARDOUS WASTE SITES

    The President's budget requests a $10 million increase for a total 
of $1.264 Billion for the Superfund program to continue our progress 
cleaning up contaminated sites and strengthening our emergency 
preparedness and response capabilities. The vital goals of the 
Superfund program remain assuring the health and safety of neighboring 
citizens during cleanups and protecting human health and the 
environment in the long-term. Within this budget request, funding for 
Superfund clean-up remains at essentially the same level as enacted in 
fiscal year 2008.
    EPA takes seriously its responsibility to take actions to protect 
human health by controlling exposure to hazardous substances during 
clean ups. Before or during long-term remedial action, the Superfund 
program often completes removal actions to mitigate immediate health 
threats prior to completing investigations and starting long-term 
cleanup construction. For example, to date, EPA has provided more than 
two million people living near contaminated sites with alternative 
sources of drinking water, has completed more than 9,400 removals at 
hazardous waste sites to reduce the immediate threat to human health 
and the environment, and has conducted 351 emergency response and 
removal cleanup actions in fiscal year 2007 alone.
    Developed more than a decade ago, EPA's construction completion 
measure continues to show substantial progress in the Superfund 
program. As of the end of fiscal year 2007, cleanup construction had 
been completed at 1,030 of the National Priorities List (NPL) sites--66 
percent of the sites listed on the NPL. EPA plans to complete clean up 
construction at 30 sites in fiscal year 2008, and 35 sites in 2009. 
This will keep EPA on track to complete construction at 165 sites 
during the fiscal year 2007 to fiscal year 2011 time period--EPA's goal 
in the current Strategic Plan.
    To better measure long-term progress, the program added a Site-Wide 
Ready for Anticipated Use measure in 2007. This measure tracks the 
number of NPL sites where the remedy is constructed (construction 
complete) and all of the controls are in place to ensure that the land 
is protected for reasonably anticipated uses over the long term. EPA 
expects to make at least 30 sites ready for anticipated use in 2009, 
building upon its 2007 achievement of doubling the original goal of 30 
by making 64 Superfund sites ready for anticipated use.

                  BROWNFIELDS AND LAND REVITALIZATION

    The President's fiscal year 2009 budget request provides $165.8 
million for the Brownfields program, including $93.6 million to fund 
program assessment, cleanup, revolving loan fund, and job training 
grants. This will fund 129 assessment grants, 96 cleanup grants, 7 
revolving loan fund grants, and 12 job training grants. Through this 
work, we project that Brownfields grantees will assess 1,000 
properties, clean up 60 properties, leverage 5,000 cleanup and 
redevelopment jobs, and leverage $900 million in cleanup and 
redevelopment funding.
    Experience has taught us that one of the best ways to clean up 
contaminated sites and to address blighted properties in communities is 
to expressly consider the future uses of this land. The country has 
accepted the economic and ecological importance of recycling various 
consumer products--and our understanding of sound resource management 
must now also embrace the recycling of contaminated properties. In 
addition, by incorporating ``green'' and sustainable approaches into 
Brownfields redevelopment, we can further increase the environmental 
benefits from land revitalization. We remain committed to the goal of 
restoring our nation's contaminated land resources and enabling 
America's communities to safely return these properties to beneficial 
economic, ecological, and societal uses.

                              ENFORCEMENT

    Experience has also shown that we cannot always rely on 
collaboration to attain all our goals. This budget doesn't neglect that 
lesson. Once again I request the largest enforcement budget in history, 
$563 million--an increase of $9 million--to maintain our vigorous and 
successful enforcement program.
    These dollars will prove to be a wise investment. Last year, EPA's 
enforcement programs succeeded in:
  --Having defendants agree to $10.6 billion in investments to reduce 
        pollution;
  --Achieving private party reimbursements of $252 million for 
        Superfund; and,
  --Reducing water pollution by 178 million pounds and air pollution by 
        427 million pounds.
    This all-time record budget request includes a $2.4 million 
increase to a total budget of $52.2 million for criminal enforcement. 
These dollars are vital to help us increase the number of criminal 
investigators.

                      STRONGER EPA--SOUND SCIENCE

    As a 27-year Agency veteran, one of my most solemn duties is to 
leave behind an EPA that is stronger than when I came in. As both a 
scientist and a long time manager--I am convinced that the only way 
that a technical, regulatory agency can meet its mission is by doing a 
lot of hard thinking to ensure that we keep our technical, legal and 
scientific base strong--and that we hone our management goals and 
measures to guide our efforts. This budget builds on the progress we've 
made by strengthening our workforce, sharpening our management and 
performance measurement and increasing our scientific knowledge.
    First, as a scientist, I want to continue to provide strong support 
for research addressing our nation's and our world's critical and 
increasingly complex environmental issues. In fiscal year 2009, I 
propose that EPA invest extra resources to understand two critical, 
growing areas: nanotechnology and computational toxicology.
    For nanotechnology, I ask for an additional $4.5 million, for a 
total budget of $14.9 million to strengthen understanding of health and 
ecological implications arising from new routes of exposure and/or 
toxicities associated with exposure to these novel materials. We must 
identify and develop risk assessment methodologies for use by risk 
assessors, and evaluate the adequacy of current exposure assessment 
approaches. We will coordinate this research closely with the 
President's National Nanotechnology Initiative (NNI), which emphasizes 
the need for the government to understand which processes govern the 
environmental fate of nano-materials and what data are available or are 
needed for accurate nano-material risk assessment. This includes 
determining the release potential of nano-materials in the environment, 
researching the state of science for sampling and measuring nano-
materials in environmental media. We must also study effects on human 
and ecological receptors and determine which technologies and practices 
minimize risk.
    I also remain strongly committed to improving our computational 
toxicology work and ask for a $2.7 million increase--for a total budget 
of $14.9 million for this vital area. In fiscal year 2009, we want to 
improve EPA's ability to more efficiently understand chemicals' 
toxicity through advanced modeling. One aspect of this work that is 
particularly important is that it can reduce the need to use animals 
for toxicity testing.
    To help further these initiatives and ensure EPA's ability to 
attract and retain the highest caliber scientists, the budget proposes 
expanded special authority that will allow EPA to hire up to 40 
scientists quickly and competitively.

                STRONGER EPA--PERFORMANCE AND MANAGEMENT

    As a manager, I want to make sure that we focus on something we can 
all take pride in--delivering results. And I'm proud to tell you about 
what we've accomplished to date in the planning and management fields. 
EPA:
  --Scored ``green'' in the President's Management Agenda on all 
        initiatives in the first quarter of fiscal year 2008--one of 
        only a few agencies to reach that goal, and
  --Improved outcome measures to more directly link the results of our 
        work and resources to environmental, on-the-ground, results.
    We've addressed specific challenges as well. For the first time in 
ten years we've succeeded in removing grants management as a 
``management challenge'' or ``material weakness''. We've fixed problems 
identified by the Government Accountability Office (GAO) and the Office 
of Inspector General (OIG) and built a system of internal controls 
fully integrated into the grants management process that includes:
  --Improved mandatory training,
  --Heightened grants performance standards,
  --Quarterly management close-out reviews,
  --New post-award monitoring orders, and
  --EPA's new grants management system.
    Finally, as I conclude my tenure at EPA, I want to fulfill my 
responsibility to cultivate the next generation of EPA leaders. This 
budget includes funding for a Leadership and Professional Development 
rotation program to ensure that our talented GS-13, 14 and 15 employees 
can expand knowledge and expertise, develop leadership skills and 
enhance professional growth through short term rotational assignments. 
For more senior leadership, we propose to continue our SES mobility 
program to make sure that we populate the highest levels of the agency 
with proven managers.

                               CONCLUSION

    Madam Chairman, when I look at the candidates who are getting the 
opportunity to broaden their skills in these programs, I am heartened 
that I'll be leaving the agency in good hands. I look forward to 
working with you to enact this budget.
    I am confident that this budget gives them an excellent basis on 
which to build. I hope that together we can see prompt action on these 
budget proposals so that we can implement your funding decisions.
    Thank you. I will be happy to respond to any questions you may 
have.

    Senator Feinstein. Thank you very much, Mr. Johnson. Let us 
begin.

                           CALIFORNIA WAIVER

    The legal justification for denying California's waiver 
rests heavily on your view that in 1967, Congress intended that 
waivers would only be issued if California had a unique 
problem. The waiver decision cites 1967 committee reports and 
floor statements 9 times.
    If the pollutant is global, and therefore exists to a 
similar extent in other States, you conclude that this is 
grounds for a waiver denial.
    Well, in 1977, Congress amended the Clean Air Act, changing 
both the words, and intent, of section 209. The House committee 
report from 1977, explains the section 209 revisions by saying, 
and I quote, ``The committee amendment is intended to ratify 
and strengthen the California waiver provision, and to affirm 
the underlying intent of that provision, i.e., to afford 
California the broadest possible discretion in selecting the 
best means to protect the health of its citizens and the public 
welfare. The Administrator, thus, is not to overturn 
California's judgment lightly. Nor is he to substitute his 
judgment for that of the State. There must be clear and 
compelling evidence that the State acted unreasonably, in 
evaluating the relative risks of various pollutants in light of 
the air quality, topography, photochemistry, and climate in 
that State, before EPA may deny a waiver.''
    Your waiver justification document does not mention 
congressional intent in 1977. Why?
    Mr. Johnson. Well, Madam Chairman, as I evaluated the 
petition from California, as you correctly point out, I am 
bound by section 209 of the Clean Air Act, and there are three 
very specific criteria.
    I did not make judgment on two of the criteria. The one 
that I did was that California does not need such California 
standards to meet compelling and extraordinary conditions. 
Again, based upon the record and the evidence before me.
    Clearly, we looked at legislative history--as you pointed 
out--but again, as I point out, even with affording California 
the broadest possible discretion, evaluation under section 209 
does not mean a rubber stamp. It does not mean that it's a 
popularity contest, it means that I need to thoughtfully and 
carefully think evaluate the data that are before me under 
section 209, and in this case, I determined that California did 
not need its own greenhouse gas standards to meet compelling 
and extraordinary conditions.
    Senator Feinstein. Even though that same section allows 
other States to accept California's standards? I mean, it seems 
to me if Congress intended for waivers to be limited to 
problems unique to California, why did it give other States the 
right to adopt the same standards?
    Mr. Johnson. Well, you raise a very good point, Madam 
Chairman, and in fact the section 209, and the law and the 
criteria by which I am to judge the standard does not allow me 
to consider what other States may or may not do--it's very 
specific to California.

                        GREENHOUSE GAS EMISSIONS

    As I pointed out, and I think it's worth pointing out 
here--that the more States that believe that greenhouse gas 
emissions is a problem, are in fact, making the very point that 
California is not unique--it is not exclusive in its need for 
addressing greenhouse gas emissions.
    Rather, it is a national problem, requiring a national 
solution, and that's certainly what my 48-page decision 
document goes through, very carefully, and addresses.
    Senator Feinstein. Thank you.
    According to the Washington Post, you made the decision to 
deny the waiver over the unanimous recommendation of your legal 
and technical staff. Here's the question. When you went around 
that room full of staff, and asked each person's recommendation 
last October, did a single one of your legal and technical 
staff support a flat denial of the waiver?
    Mr. Johnson. Well, when I met with and had a--literally 
hours of briefings with my technical and legal staff, which 
included career as well as my policy staff, as well, they 
presented me with a wide range of options, ranging from 
approving the waiver, to denying the waiver. They were all 
presented to me as legally defensible option.
    Yes, I did seek their comments, I appreciate the ability to 
have that candid input to me. But, according to the Clean Air 
Act, and certainly I take the responsibility very seriously, 
the decision rests with me, and me alone, and I made the 
decision as is evidenced in our final agency decision document.
    Senator Feinstein. Yeah, let me understand, then. You are 
saying that technical staff, and legal staff, gave you a 
recommendation to deny the waiver, is that correct?
    Mr. Johnson. The technical and legal staff presented me 
with a range of recommendations, which included improving the 
waiver, and included denying the waiver. That, based upon their 
input, based upon my evaluation, thoughtful and careful 
consideration of the record before, and what the requirements 
are under the Clean Air Act under section 209, I determined 
that California did not meet the waiver criteria.
    Senator Feinstein. Did you ask them what they thought? As 
individuals?
    Mr. Johnson. I--generally it is my approach on all agency 
decisions to ask for input, and if people want to give their 
person input, that's fine. If they choose to pass, that's fine. 
But I routinely, at least what I recall--as routinely as for 
all major decisions, seek input.
    Senator Feinstein. Well, I mean, we've been told, 
informally, that none of the staff was for denying California's 
waiver.
    Mr. Johnson. Well, as I said, I received a range of 
options----
    Senator Feinstein. I understand, it's not what I'm asking.
    Mr. Johnson [continuing]. I also, I also----
    Senator Feinstein. I receive a range of options on many 
things--here's the best case this way, here's the best case 
that way--but what do you think? Is my question.
    Mr. Johnson. Well, I----
    Senator Feinstein. Did any of the legal or technical staff 
believe you should deny the waiver? You can say yes, if yes is 
the answer.
    Mr. Johnson. Well, again, I appreciate the ability to have 
candid comments from my staff, and I want to protect that 
ability to, for them to give me candid advice. What I said is, 
is that I received a--not only a wide range of options, clearly 
as both the record indicates, and certainly the press 
indicates--there's a wide range of opinions. It's not--my 
decision is not based upon, again, a popularity contest of the 
opinions. It has to be based--and was based--on what the law 
directs me to do.
    Senator Feinstein. Bottom line, Mr. Johnson, you're not 
answering my question. But there's nothing I can do, other than 
to believe what a non-answer to the question means.

     DETERMINE WHETHER CARBON DIOXIDE CONTRIBUTES TO CLIMATE CHANGE

    Let me go on. You are under remand from the United States 
Supreme Court to determine whether carbon dioxide contributes 
to climate change, and endangers public health and welfare, and 
I would like to know by when you intend to respond. You have 
missed your own deadline of completing this finding by the end 
of 2007. In January, you told the Senate Environment and Public 
Works Committee that EPA's reaction to the Supreme Court's 
remand had been delayed by passage of the Energy Independence 
and Security Act, even though this new law did not amend 
section 202 of the Clean Air Act which governs your decisions 
regarding endangerment.
    We are rapidly approaching the 1-year anniversary of that 
landmark decision. Will you commit that your agency will 
respond to the remand of the highest court in the land, by the 
anniversary of this ruling, which is April 2, 2008?
    Mr. Johnson. Well, Madam Chairman, what I will commit to is 
we will be responding to the Supreme Court decision. As, I 
believe I have indicated--or staff have indicated in 
correspondence with you regarding funding issues for this year, 
is that right now I am in the process and, if you will, to have 
taken a step forward and said, we have, obviously, the Mass v. 
EPA decision that is pending before the agency. We also have 
the implementation of the Energy Independence and Security Act 
and again, congratulations, Madam Chairman and Senator Allard, 
for great work, for--and certainly the President signing that.
    We are looking to, and working on the implementation 
regulations for that. We also have a number of pending 
petitions before the Agency, as well as a number of corridor 
deadlines.
    One of the unique things is----
    Senator Feinstein. Excuse me, my time is--all I'm asking of 
you is when might we expect this, which was due in 2007?
    Mr. Johnson. Well, what I was--as I've communicated with 
you, I don't have a date, but I can assure you we will be 
responding to the Mass v. EPA, and that what I was beginning to 
try to explain is that we have many pending actions before the 
agency, and I'm assessing those before I make a final 
determination as to what the next steps are on all of them--
including Mass v. EPA.
    Senator Feinstein. My time is up.
    Senator.
    Senator Allard. Thank you. As I mentioned in my opening 
remarks, I have some concerns about enforcement from the 
perspective that I hope that EPA's approach to many of the 
infrastructure problems that we have in meeting some of your 
rules and regulations will take more of a helpful approach to 
small communities, because they don't have the staff and the 
expertise--as opposed to just a strict enforcement approach.

                             ARSENIC LEVELS

    We have a couple of issues in Colorado where this is 
brought--one of them is the arsenic levels which was passed by 
the Congress, and you don't have a lot of flexibility in that--
but we do have communities that have--they're small 
communities, so they don't have a large tax base--are faced now 
with the increased arsenic levels of reducing that arsenic 
level in their drinking water.
    Now this is a natural background level, it's been there for 
years, we've tightened it up, and now they have to spend the 
money to improve that water over and beyond what the natural 
background level of arsenic would be. Yet those standards are 
below the public health requirements, but the Congress felt 
necessary to go below that. So that creates a real problem for 
small communities, and I'd like to know what you're doing to 
help them out.
    You have--you just promulgated or are working on a radon 
rule. Again, it's a small community problem, Colorado has a lot 
of uranium in their soil, naturally, the background radiation 
in Colorado is higher than most States, and so radon is around, 
but what they need is help in developing the technology and 
being able to afford this, as opposed to straight enforcement, 
because it's naturally in the background level. There's no 
industry in that water stream, that stream, that's causing the 
problem, it's there naturally.
    So I'd like to have you comment as to what you're doing to 
assist small and rural communities in meeting new regulations, 
instead of just imposing fines.
    Mr. Johnson. Senator, thank you. There are really three 
things that I would like to point out. One is that a request 
for increased funding for the Drinking Water State Revolving 
Loan Fund of $13 million, that will help. Obviously, we think 
other steps will help, whether it is Good Samaritan legislation 
to help with these abandoned mines, or private activity bonds--
all of those will help from a financial standpoint, and 
environmental.
    Second is, we have been investing--and again, thanks for 
your collective support--of new technologies; technologies that 
help, that are particularly focused on small communities, and 
actually I have some statistics, I'd be happy to share with 
you.
    Then the third is what you started out with, is the 
importance of flexibility. We want to make sure, and ensure, 
that small communities are able to meet the new health 
protective standards, but we want to be able to do so in a way 
that recognizes the limitations that may exist at a community, 
small community level--local level--and the need for 
flexibility to achieve those is very important.
    Senator Allard. Now, I have a small community that wants to 
find out about these technologies--how do they go about getting 
that information from the Environmental Protection Agency?
    Mr. Johnson. Well, you've just asked, and we'd be happy to 
respond.
    Senator Allard. Okay, thank you.
    [The information follows:]

    EPA has developed a set of user-friendly multimedia products to 
help small drinking-water utilities meet revised regulations to control 
arsenic. The tools will provide owners and operators with information 
to guide them in making treatment decisions. The anchor product of this 
suite of tools is the Arsenic Virtual Trade Show, a learning portal for 
arsenic-treatment technology. The website features a database of 
vendors, a treatment ``decision tree,'' and tips for evaluating and 
selecting treatment options. Other products on the website include:
    1. A brochure, Evaluating Arsenic Treatment Providers: A Guide for 
Public Water Systems, which includes a checklist of questions that 
owners and operators of small utilities should ask treatment providers.
    2. A CD-ROM disk, Interactive Workshop on Arsenic Removal from 
Drinking Water, features commentary from the nation's top experts. The 
disk is a companion to 11 arsenic-training events EPA held across the 
country during 2005.
    3. A DVD collection of videos, the Arsenic Treatment Technology 
Showcase, which highlights arsenic treatment technologies currently 
being pilot-tested through EPA's Arsenic Treatment Technology 
Demonstration Program.
    The website is located at www.arsenictradeshow.org

    Mr. Johnson. Just to give you--we've been doing 
demonstration projects through our Office of Research and 
Development, that, in fact, are now 37 sites that have 
treatment systems that have been installed. Twenty-seven 
completed projects and systems are now being installed for 
those. We have 14 sites that are under development, we have 15 
different technologies that we've been evaluating, and as a 
result--at least as of the most recent data that I have, which 
is August 2007--about 2,400 of the estimated 4,100 effective 
systems are now meeting the new standard of 10 parts per 
billion.
    So, we want to continue and certainly have our commitment 
to continue to work with your State and all States and local 
communities to see that the health protective standard is met 
in a flexible and appropriate way.
    Senator Allard. I appreciate that last paragraph on your 
comments, I appreciate the willingness to be able to work with 
those small communities.

                           ENERGY DEVELOPMENT

    Let me move on to the energy development--I'm pleased that 
the administration included the additional $14 million for EPA 
to meet the Nation's need for clean and affordable energy 
development and production.
    Can you tell me how the agency intends to use the 
additional $14 million for energy development if the dollars 
are appropriated?
    You know, we have a lot of energy development systems that 
happens at the Department of Energy.
    Mr. Johnson. Yes.
    Senator Allard. So what are you doing that would be 
separate from what they're doing in the Department of Energy, 
or if it is what they're doing, and you're doing similar--what 
effect is that having, an added effect on your efforts?
    Mr. Johnson. Sure, and again, I appreciate the--your 
interest in this, and certainly appreciate the President's 
recognition and support for this additional $14 million.
    There are three offices that will be within EPA, will be 
the principal recipients of these additional monies. In 
addition to monies made available to States and tribes, our 
Office of Air has responsibilities for permanent application 
NEPA reviews, our Office of Water is working on carbon 
sequestration regulations, as we speak, and also has NPDS 
Permit responsibility, and our enforcement Office also has 
responsibilities under the NEPA program, as well.
    So, those are the three areas which are unique. In 
addition, out of that $14 million, I think it's approximately 
$6.3 million has been identified to help support State, local, 
and tribal activities in this area, and the permitting area.
    So, we think it's a well-rounded proposal that helps us at 
EPA, but also will help our partners at the State, local, and 
tribal level.
    Senator Allard. I want to cover the Leadville Mining 
Drainage Tunnel again, that's another issue that I alluded to, 
in my remarks.
    On February 21, in Colorado, I hosted with the staff from 
the EPA's regional aid office, and the Bureau of Reclamation, a 
meeting on the Leadville Mining Drainage Tunnel problem.
    As you well know, this situation had reached untenable 
proportions and required immediate attention, and I'm 
cautiously optimistic about the briefing that I received from 
the folks in the Region 8 office. Can you give me an update on 
how things are progressing since the briefing we received out 
in Colorado?
    Mr. Johnson. Well, yes, sir. Again, thank you for your 
leadership on this very important issue. In fact, on February 
27, EPA began pumping water from the shaft, to help to relieve 
some of the pressure. We've been working on a new well that 
would be in the tunnel. I'm told that we're--that effort is 
underway. I'm also told that by March the 7th we will have a 
more permanent pump in place that will help.
    Again, I appreciate the good comments about Robbie Roberts, 
our Regional Administrator--he's been doing a fantastic job of 
helping to stay on top of it, and certainly you have my 
assurance, to stay on top of it and to do everything that we 
can.
    Senator Allard. Is this going to require a new treatment 
plant, or expansion of that current treatment plant there?
    Mr. Johnson. I'm not aware of, certainly, what I've been 
told that some of the early analysis of the water that's being 
pumped was okay, from an environmental standpoint. But, I think 
we'll, you know, that's something we need to continue to 
monitor and watch.
    Senator Allard. So, they talked about cadmium and zinc and 
those two and, let's see, another product that they thought 
might be elevated, but you didn't pick up any of that in the 
water that you pumped out?
    Mr. Johnson. My understanding, at least in the initial 
sampling we did not, but that's something, we certainly will go 
back and continue to watch.
    Senator Allard. Good. All right, now, I guess, again I hope 
that you would continue to work on a long-term solution, I hope 
we can get a commitment to work on that long-term solution to 
that--the way that water's trapped in there. It probably will 
just be a matter of time before that tunnel is going to break 
open, which was caused by collapse of the tunnel and then so 
we've got about a billion gallons of water backed up in that 
system of tunnels. So, again, I think it's important to work on 
a long-term solution, we have your commitment on that?
    Mr. Johnson. Yes, yes.
    Senator Allard. Okay, thank you.

                            ABANDONED MINES

    Mr. Johnson. Yes. Senator, if I might, just to add one 
other comment that--what we're finding around the United States 
is some number approximating 500,000 abandoned--key word--
abandoned mines. That we have a citizen army of volunteers that 
want to go in and help to clean these up--again, key word, 
abandoned--and they are reluctant, in fact, won't, because of 
liability concerns.
    We see the Good Samaritan as a wonderful legislative fix to 
allow Good Samaritans to go in and help clean up these 
abandoned mines, and certainly would encourage you and the 
members of the Committee to strongly consider Good Samaritan 
legislation, because it makes sense--it make sense for the 
environment, it certainly makes sense for water, water quality 
and also----
    Senator Allard. Those States like Colorado that have a lot 
of abandoned mines, and you're right--abandoned--there's no 
interest in there, nobody--there's no ownership of them, 
they're just a hole in the ground that are causing pollution 
problems, there are people that would like to have those mining 
sites for various reasons, but they won't--most of it--and in 
order for them to use it for whatever reason they want to, they 
have to clean it up.
    You don't have the discharge into the river, which causes 
problems for wildlife and quality of the water. I think it's 
kind of a common sense piece of legislation, and I'm hoping the 
Congress will see that--it's no loophole for any kind of 
solution, and I'm glad to hear you agree with that, it's a 
common sense solution, where we can get a volunteer group out 
there, working in cleaning up the pollution from these old 
abandoned mines.
    So, I appreciate your comments in this regard.
    Mr. Johnson. Thank you.
    Senator Allard. Thank you, Madam Chairman, I see my time's 
expired.
    Senator Feinstein. Thank you very much, Senator.
    We are joined by Senator Leahy--it's great to have you 
here, Senator, we're on 10-minute rounds.
    Senator Leahy. Thank you.
    Senator Feinstein. At the present time, so I'll recognize 
you.
    Senator Leahy. Thank you. Appreciate it, and I appreciate 
your holding this hearing. I think it's very important, 
certainly the questions you've raised on California's efforts--
a very commendable efforts--to protect the environment are 
significant.

                           MERCURY POLLUTION

    I'm going to just divert just a moment, Administrator, from 
the budget proposal, I want to talk about an issue that's 
extremely important, also, in my State, and I've been working 
on it for years, for decades, actually, and that's mercury 
pollution.
    Your agency had the Clean Air--what you called the Clean 
Air Mercury Rule to regulate mercury admissions from power 
plants, it turned out that part of it was just written by the 
lobbyists from same power plants--somehow the fox got in the 
chicken, came to mind.
    I said at the time that I thought it was wrong, I raised 
that question with you that it was wrong, urged that there be a 
change, and on February 8 this year the U.S. Court of Appeals 
for the D.C. Circuit--a very conservative, Republican-oriented 
court--agreed with my position, they struck down EPA's Mercury 
Rule as insufficient to protect public health. I think if your 
agency had been willing to listen to some us on the Hill, it 
could have saved taxpayers an awful lot of legal fees.
    Now, there are cost-effective technologies today that can 
dramatically reduce mercury emissions from power plants, far 
beyond what your administration has proposed. So, I'm asking, 
does EPA, under your leadership now, plan to abide by the Clean 
Air Act, will it abide by what the Court said, will it issue a 
mercury regulation that will follow the law, will protect human 
health, and the environment from this harmful neurotoxin?
    Mr. Johnson. Well, Senator----
    Senator Leahy. Are you going to follow the law, in other 
words?
    Mr. Johnson. Thank you for the question. Yes, and I always 
follow the law, sir.
    In the case of the mercury decision, we--both EPA and 
Department of Justice are currently evaluating the decision you 
refer to. We haven't decided what our next steps are. Having 
said that----
    Senator Leahy. An easy one--an easy one would be simply to 
follow the law as the decision said.
    Mr. Johnson. Having said that, that we--we also recognize 
that because of the--another rule that I put in place, the 
Clean Air Interstate Rule, which controls SO<INF>X</INF> and 
NO<INF>X</INF> emissions, upwards to 70 percent, also have 
early reductions of mercury--which we certainly think that 
that's a good thing.
    However, saying that--we are disappointed, in face this is 
the first regulation of mercury from coal-fired power plants in 
the Nation's history that would have achieved a 70 percent 
reduction.
    Senator Leahy. Well, I think----
    Mr. Johnson. The Court decision did not get into the merits 
of cap-and-trade or using section 111 as the vehicle. It was 
focused on the delisting.
    Senator Leahy. Well, the Court----
    Mr. Johnson. Regardless, we're evaluating that now.
    Senator Leahy. You'll have to issue new regulations now, 
based on that Court--the Congressional Review Act will come in 
place, if they're not strong enough, but I'm also thinking the 
Court based their actions on what they heard from the 
arguments. During that hearing the EPA represented to the Court 
that States could adopt more protective mercury provisions, 
should they wish, and EPA would not disapprove of those plans 
solely on the basis that the States opted out. Made it clear 
that they're not going to threaten the States.
    But then, the Associated Press now reports that EPA 
officials had threatened States with disapproval for adopting 
more protective mercury control programs, or the Department, 
EPA's approach that they use a more protective way. They said 
it's not their job to pressure States, that's what they said in 
court, but it appears that they had. Now, I'll ask that--not 
only is it appropriated, but wearing another hat as chairman of 
the Senate of the Judiciary Committee, if there is a 
misrepresentation by the government to the Federal Courts in 
this area, that becomes a fairly serious matter, as you can 
well imagine. Has anyone with the EPA ever pressured any State 
against instituting more restrictive mercury regulations 
because they conflicted with the agency's mercury rule?
    Mr. Johnson. I'm unfamiliar with the Associated Press 
report, and I don't have any firsthand knowledge of what you 
speak, but----
    Senator Leahy. No, I'm asking you a very specific question, 
has anyone at the EPA ever pressured any State against 
instituting more restrictive mercury regulations?
    Mr. Johnson. As I said----
    Senator Leahy. Because they conflicted with your rule?
    Mr. Johnson [continuing]. I don't recall having any 
firsthand knowledge of that. What I was going to say----
    Senator Leahy. I'm not asking you if you have any 
firsthand--do you know whether they have, yes or no?
    Mr. Johnson. I don't know that they have, no. I don't know.
    Senator Leahy. Okay, well then let me ask for the record, 
will you go back and check. Remember it's very--you're in a 
congressional hearing, will you tell me whether EPA has ever 
pressured any State against instituting more restrictive 
mercury regulations because it conflicted with what we now see 
by the Court ruling, was a flawed mercury rule from your 
agency?
    Mr. Johnson. I'd be happy to respond, for the record.
    [The information follows:]

                         State Mercury Programs

    EPA did not pressure any State to not institute mercury regulations 
because they restricted mercury emissions more than the agency's 
mercury rule.
    The environmental stringency of a State program was never an issue 
for us as long as the State was at least as stringent as CAMR. If a 
State chose to participate in the multi-state CAMR trading program, its 
program was required to be consistent with certain core requirements in 
the rules promulgated in 2005 that did not prevent them from being more 
stringent. These core requirements were included in the rules to ensure 
that the trading program would work correctly.
    Unfortunately, that has apparently been misinterpreted by some--as 
reflected in the AP story--as an EPA effort to discourage States from 
providing stronger, more protective programs, as they are entitled to 
under the Clean Air Act. That was never our intent, and I believe the 
record of our review of state programs bears that out.
    States were permitted to be more stringent than the Federal 
requirements. States could, and some did, seek greater emission 
reductions than CAMR required and were in the process of approving 
those plans.
    EPA offered States considerable program flexibility to meet their 
assigned mercury budgets. In addition to the option of joining the 
multi-state emissions trading program that we offered to run, states 
could have source-specific control requirements, have intrastate 
trading, combine trading with source-specific controls, or go from 
trading to source-specific controls over time.
    If a state did not adopt EPA's multi-state trading program, EPA 
evaluated the State's plan to ensure it was at least as stringent as 
EPA's trading program. This evaluation included determining whether the 
mercury emissions from all of the state's EGUs would remain at or below 
the annual state emissions cap each year, and ensuring that these 
emissions would be measured and reported using specific rigorous 
protocols. Based on this type of evaluation, EPA proposed approval of 
Pennsylvania's stringent source-specific control program and was 
working towards approval of source-specific controls in final state 
plans in seven additional States.
    If a state chose to participate in the multi-state trading program, 
there were certain core provisions that we required that they adopt. 
These core requirements were intended to ensure the program was 
environmentally- and cost-effective. For example, allowances had to be 
allocated and available sufficiently ahead of compliance deadlines, and 
had to be freely transferable, so that companies could use allowance 
trading where it would be cost-effective and would result in compliance 
with the emissions cap.
    EPA had issued final approval of trading programs for Louisiana, 
Iowa, and Missouri and proposed approval of the Kansas trading program. 
EPA was working toward approving trading programs for 18 more States, 8 
of which had either added source-specific control requirements or had 
tightened the emissions cap by not distributing all the state's 
allowances. This latter group of 8 State programs was more stringent 
than CAMR would have been. At the time of the court decision, 36 States 
had adopted rules and 2 others were in the rule development process.
    Sixteen of these State plans were more stringent than CAMR and we 
were in the process of approving them when the court decision was 
issued.

    Mr. Johnson. I was going to point out that you raise 
another important issue, in our evaluation, is given the recent 
court decision, not only what are our next steps as an agency 
working with the Department of Justice, but then, what does 
that mean with respect to State programs? That's another 
important question that I don't know the answer today, but 
certainly, we're working on.
    Senator Leahy. Okay, well, I appreciate that, and I would 
like to know the answer, because if the Associated Press is 
correct, then the EPA gave misleading information to the 
courts, which would be an extremely serious matter, the courts 
would consider it extremely serious, the Judiciary Committee 
would consider it a very, very serious matter. I'm sure that 
the lawyers doing it would value their licenses, probably 
consider it serious.
    Now, you also adopted the Mercury Trading Rule in 2005, and 
you committed to--you, EPA--committed to remedying mercury hot 
spots. There's a 2006 peer-reviewed study co-authored by EPA 
scientists who found that coal combustion was the dominant 
contributor to mercury deposition, in an enhanced monitoring 
site in Steubenville, Ohio. Then a meteorological analysis 
found that a majority of the mercury deposition found at the 
site was due to local and regional sources.
    In the 2007 peer-reviewed study documented biological 
mercury hot spots in fish and wildlife, in the Northeastern 
United States, in the area I'm from, and I live in. Do you have 
a plan to address these, and other documented hot spots?
    Mr. Johnson. Well, again, that's another important question 
that has come up as, post the publication of our final rule. Of 
course, we haven't decided what we're doing with the final 
rule, at this point, given the court decision. Obviously 
there's science--which we certainly support--continues to 
evolve and get a better understanding.
    Certainly, at that time it was our belief that given the 
way the cap-and-trade program would work for mercury that it 
was likely that those--if there were potential hot spots, that 
they would be the first ones that would be addressed, just by 
the nature of how companies sign up to cap-and-trade, but 
that's certainly an important question as the science has 
continued to evolve.
    Senator Leahy. But, if you know of hot spots now, do you 
have a plan to take the known hot spots and address them?
    Mr. Johnson. Well, again, that's part of our--what are our 
next steps, given the court decision, we haven't decided yet.
    Senator Leahy. Will you let us know when you decide?
    Mr. Johnson. Yes, sir. We will be happy to.
    Senator Leahy. The court matter, I would like a detailed 
response on that, because if the court wasn't misled, it's one 
thing. If they were misled--and I'm asking you the question 
because I don't know, if they were misled as the story appears, 
then I think we'd all agree that we have a very, very serious 
matter. But I'd be happy to hear your response.
    Mr. Johnson. Thank you.
    Senator Leahy. Thank you.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator and we're 
joined by Senator Craig.
    We are in 10-minute rounds, Senator, so----
    Senator Craig. Thank you.
    Senator Feinstein. Please proceed.
    Senator Craig. Thank you, Madam Chairman, and Administrator 
Johnson, it's good to see you again. Serving at EPW, we get two 
bites at you----
    Mr. Johnson. So to speak.
    Senator Craig. So to speak. So today I won't chew quite as 
hard.

           NEW STANDARDS FOR LARGE ANIMAL CONFINED OPERATIONS

    But I do want to come back to an issue that I discussed 
with you at EPW as it relates to your new standards for large 
animal confined operations, and what you plan to do as it 
relates to change. I know--I sense there are steps in the right 
direction, however, I believe some media reports might have 
misconstrued the rule, particularly in making references to 
changes in the Clean Air Act requirements.
    Can you clarify the scope of the regulations and perhaps 
correct the record so, as to what will be continued to be 
required of these animal operations, versus what no longer will 
be required?
    Mr. Johnson. Well, it a very important issue, or the KFOE 
issue, as it's known.
    Senator Craig. Yes.
    Mr. Johnson. We are working to finalize regulations that 
will move forward. Our intent is we--as I think you're well 
aware--next year we do have compliance dates that are in place.
    Senator Craig. Right.
    Mr. Johnson. So, we want to keep those compliance dates in 
place while we work to finalize the regulations.
    In addition to that, I think as you're well aware, and 
certainly appreciate everyone's support of, the National 
Academy of Sciences' recommendation, and that was to conduct 
the first-ever nationwide study of air emissions, particularly 
from poultry and dairy and swine, from the animal feeding 
operations. It's a 2-year monitoring study I believe last year 
was the first year that the actual monitoring began.
    So, as we get that information and certainly as we move to 
look at the final regulations, and we move to ensuring 
compliance, all of this will help better inform our approach on 
this important issue.
    Senator Craig. Well, timeliness is going to be very 
important here, I think the industry is anxious to move toward 
compliance, and the flexibility to get there is going to be 
important, I think, as we get there. So, your urgency on this 
is appreciated.

                        BLUEGRASS FIELD-BURNING

    Let me become very regional or parochial at this moment, if 
I can. A very big industry in my State is bluegrass seed. And 
one of the only ways to get rid of the stubble and to stimulate 
next year's crop into a level of production that's profitable 
are to burn the fields. Field-burning, of course, has become a 
very difficult issue for Idaho, in an area that is not only the 
largest bluegrass seed raising area in the Nation, it is also a 
beautiful recreation destination location.
    Now, after lengthy processes and lengthy issues, we've come 
to an agreement, between EPA Region 10 and the State of Idaho, 
the State legislature is now moving to implement the necessary 
policy language--it's going to be extremely helpful for Region 
10 to expedite the evaluation and the approval of the newly 
negotiated State Implementation Plan so that the burning in 
some areas under this Plan can resume.
    It is just a big chunk of a very important economy, at the 
same time, it is controversial, there's balance been struck, so 
I guess that's not a question as much as it is a flag going up. 
All things are moving in the right direction, at the moment to 
most everyone's satisfaction, including your office in Seattle, 
and in Region 10. So, timeliness, again, there--once the State 
has acted--is going to be important.
    Mr. Johnson. Well, again, thank you. It's an issue that I 
am aware of and I know that we have had a very cooperative and 
collaborative working relationship with State officials to be 
able to make sure that air quality is being maintained at the 
same time, recognizing the use of field burning to be able to 
produce high-quality bluegrass seed. I will be happy to get 
back to you for the record as to what our, what we believe are 
the next steps, and a sense of the timing for that. Again, 
understand the importance of the issue.
    [The information follows:]
                         Bluegrass Seed Burning
    EPA is expecting to receive new regulations from Idaho allowing 
burning within the next several months. We are working closely with the 
State of Idaho to coordinate the schedule for processing the State's 
regulations, taking every opportunity to expedite the process. 
Specifically we are dedicating extra resources to work with the State 
upfront during its development of its regulations and for expedited 
processing once the regulations are received. Once the regulations are 
submitted, EPA will process them under the Federal Clean Air Act, which 
requires a 30-day public comment period and EPA to respond to all 
comments before it takes final action. The time it takes to finish the 
process will depend in part on the level of public interest.

             DECREASE OF CLEAN WATER STATE REVOLVING FUNDS

    Senator Craig. Okay, thank you very much. Last question, 
Madam Chairman, I didn't get a chance to ask it, although it 
was discussed and I understand that Senator Allard had 
mentioned it in his comments--what was your reason behind the 
decrease of the Clean Water State Revolving Funds by such a 
large amount? They have been so critical to States like mine 
and others--Colorado and California, I think, has similar 
problems?
    Mr. Johnson. Well, first, we recognize that there is a 
significant need. In fact, Madam Chairman, you spoke of $20 
billion, in fact our clean water survey actually showed $202 
billion, is my recollection. So, there's no doubt a large need.
    What the President has done is said, ``Look, we recognize 
there's a large need. Here is the commitment, and the 
commitment for the Clean Water State Revolving Loan Fund was to 
achieve a revolving level of $3.5 billion.'' So the budget 
reflects that commitment, in fact, it does reflect that we did 
receive higher-than-anticipated levels in enacted prior year 
budgets.
    It's, again, here's the target, what the commitment is--and 
again, it's $3.5 billion. But at the same time, we recognize 
both for clean water, as well as for drinking water, the needs 
are large. They are in the, literally, hundreds of billions of 
dollars.
    So, that's why, yes, SRF plays an important role, but all 
steps that we can take--whether it's private activity bonds, 
whether it's helping clean up abandoned mines, whether it is 
other steps that we can take, like we're doing with our Water 
Sense program, helping consumers to make better choices, such 
as we have for Energy Star on the energy side--all of those add 
up, and of course as a rate-payer, rate-payers also have a 
responsibility, as well.
    Senator Craig. Understanding all of that--how lenient will 
you be? When there's a good effort on the part of a location to 
respond and comply, but it's obviously--you said there's a need 
but here's all we can do, here's what we will sustain, when 
maybe it ought to be over here. Because it is a Federal 
mandate, where in almost every instance compliance is being 
struggled with and there are other costs involved--when there's 
reasonable due diligence on the part of the locale, depending 
which the issue--how's the lenience going to fit into that if 
the government says, ``This is all we can do, get in line, it 
may be 5, 10 years before you get there.''
    Mr. Johnson. Well, we want all of the communities to be 
able to meet the health protective standard of whatever the 
contaminant might be--arsenic or radio nucleides or whatever it 
might be. But we also recognize that we have to be flexible in 
achieving that. An unintended consequence would be if there's a 
small community water system that is working to achieve that, 
if it's forced so quickly--to quickly--and the community water 
system is shut down, people still need water, and they dig 
wells, and then the water quality hasn't changed.
    So, we recognize that we need to one, do everything that we 
can to help communities achieve the health protectiveness, but 
do so in a reasonable and flexible way. That's what we have 
been working on, and that's what we will continue to work on.
    Senator Feinstein. Thank you very much.

                           CALIFORNIA WAIVER

    Let me see a couple of things on the California waiver. 
We've--my staff has reviewed all of the documents and I believe 
very clearly that your legal staff and your technical staff 
were in favor of a waiver, unless you tell me that is not the 
case, that is what we have found.
    My question is--did anyone outside of EPA, part of this 
government, weigh in with you against the waiver?
    Mr. Johnson. Well, Madam Chairman----
    Senator Feinstein. The answer to that is yes, or no.
    Mr. Johnson. I received many opinions, the point is, is 
that under the Clean Air Act it was my decision, my decision 
alone, nobody directed me to make the decision I made, I made 
the decision, on my own, and the record will indicate that, 
does indicate that and it's the right decision. I know you 
disagree, and I know that there are others that would 
disagree----
    Senator Feinstein. Did you discuss it with the White House?
    Mr. Johnson. As I have said in previous testimonies, yes, I 
discuss major issues with the White House, I think that's good 
government, I discuss it with my colleagues across the 
administration. But, again, the decision, the final decision, 
rests with me, and I made the decision--mine, mine alone--and I 
recognize that people disagree with it, as I've said earlier, 
the 48 pages goes into great detail as to how I came to the 
decision I did, on the scientific basis, as well as what the 
legal rationale is for making that.
    Senator Feinstein. Well, candidly, I read the 48 pages, and 
I find them not at all impressive. But, that's your view. I 
obviously very much regret it. I think it is harmful--not only 
to our State, but to our country. I think the recalcitrance 
with respect to global warming is harmful to the people's 
health of this country.
    I'd like to go back to the remand. You have not given me a 
firm date, I have asked in writing, I'd like to enter those 
records into the--those letters into the record.
    I'd also like to enter a letter to Mr. Bookbinder of the 
Sierra Club, in which you again say you do not have a specific 
time, and I'd like to read you the Supreme Court decision on 
this subject.
    ``Under the clear terms of the Clean Air Act, EPA can avoid 
taking further action only if it determines that greenhouse 
gases do not contribute to climate change, or if it provides 
some reasonable explanation, as to why it cannot or will not 
exercise its discretion to determine whether they do.
    ``To the extent that this constrains agency discretion to 
pursue other priorities of the administration, or the 
President, this is the Congressional design.''
    So, as I read this--and I believe as your lawyers will 
probably tell you--this is the decision of the Supreme Court. I 
don't understand--you've got 4 people working on this, you've 
had one thing or another as to why you can't do it. The only 
conclusion that I can draw, is that you are under pressure not 
to do it.
    Mr. Johnson. Well, I'd like to----
    Senator Feinstein. I find this unbelievable, on behalf of 
what is called an Environmental Protection Agency, not an 
Administration Protection Agency, but an Environmental 
Protection Agency.
    Mr. Johnson. Well, I respectfully----
    Senator Feinstein. There's a finding of the United States 
Supreme Court telling you to do something.

                             CLEAN AIR ACT

    Mr. Johnson. Well, Madam Chairman, I respectfully disagree 
that this is an easy decision. In fact, when the Supreme 
Court--and if you refer back to, I think, Justice Scalia, 
actually set it us as, in essence, a three-part test for me, 
and this would be my brief summary. That is, if the Agency 
finds--if I find that there's endangerment, then under the 
Clean Air Act I must regulate. If I find that there is not, 
that's test one. If I find that there is not endangerment then 
I should not regulate. Or third, if there are other 
circumstances, including--and then goes through some 
description of that.
    What I have found is I have looked at and continue to 
evaluate the issue of endangerment. It's that it's not only 
just the science of, and the endangerment, but it's also--what 
is the potential impact of that decision?
    The way that the Clean Air Act operates, is that a decision 
in the area of mobile sources, could have a significant impact 
on what happens in stationary sources. That is all part of the 
reason why I'm taking time, I think appropriate--I know people 
are anxious for me to get on with business, but I believe that 
it's important--this is an issue that's been debated since 
1978. It's clearly--as I said, climate change is a serious 
issue, and it's one that I'm carefully considering. Mass v. 
EPA, the issue of endangerment, but also we have a number of 
pending petitions before the Agency, including airlines, 
including off-roads, including marine, including stationary 
sources, including NSPS, including PSD, and I can go on and on.
    I have a responsibility----
    Senator Feinstein. Let me ask you this. All right, let me 
ask you this question--how many personnel, right now, are 
working on the endangerment finding.
    Mr. Johnson. I don't know how many people, specifically, at 
this time, how many people are or are not working on specific 
pieces of our work.
    Senator Feinstein. Well, we've been told no one is working 
on it, currently.
    Mr. Johnson. Well, I would have to check with----
    Senator Feinstein. Well, if you would ask your staff, I 
would appreciate knowing what the answer is.

                        RENEWABLE FUEL STANDARD

    Mr. Johnson. Well, I know that we are focusing our 
attention on the moment on several parts. One is, working on 
the regulation to implement what the Congress and the President 
signed on the Energy Independence and Security Act, the 
renewable fuel standard. Working with----
    Senator Feinstein. Is anyone working on this, at the 
present time, Mr. Johnson? This isn't a question I shouldn't 
answer, this is a question to which I'm entitled to know the 
answer.
    Mr. Johnson. Well, we are--I know I am working on what are 
the next steps, what's the framework that I should be 
evaluating the endangerment issue, as well as, as has been the 
traditional practice, of endangerment, and what the regulatory 
approach would be, and that's what I'm currently evaluating.
    Senator Feinstein. How many members of your staff are 
currently working on this?
    Mr. Johnson. I don't know the answer to that.
    Senator Feinstein. Does anybody know the answer? You have 
numerous staff in this room, somebody must--this is a Supreme 
Court finding--you quote the dissenter, not the majority 
opinion.
    Mr. Johnson. As I said, we are evaluating--I am currently 
evaluating what are the next steps that the agency should take, 
in response to the Supreme Court, in response to the Energy 
Independence and Security Act, in response to the myriad of 
petitions that are pending before the agency. That 
responsibility rests with me, and as I make the decision as to 
what the next steps are, then we will be deploying staff--as I 
said, I know I have staff that are working on a myriad of 
issues, from renewable fuel standard to carbon sequestration 
and injection under the UIC program. I know we have people who 
are working on the major economies, I know that we have people 
that are reviewing McCain-Lieberman legislation, the scientific 
piece of that--we have a lot of activities, important 
activities, not the least of which, you mentioned, the 
greenhouse gas registry that we're working on, as well. So, we 
have a lot of activities that our staff are working on.

                              STONEWALLING

    Senator Feinstein. Well, the answer that I deduce from your 
answer is that you have no one currently working on it. I want 
the record to reflect that, unless some--and I give you every 
opportunity to change that, to give me a number. If you can't 
give me a number, on something that is a Supreme Court finding, 
and that has asked you to respond, then I've got to believe 
you're stonewalling. I want the record to reflect that.
    Mr. Johnson. Madam Chairman, I am not stonewalling, I've 
shared with you very openly and candidly of the importance of 
the issue of endangerment, not only in the mobile source 
context, but in the context of the Clean Air Act, and that we 
are--since the Energy Independence and Security Act which 
again, complement--it's been 32 years since the CAFE standard 
has been changed--that's significant and very important. But 
we're looking at--I am looking at--all of these, and then 
determining what our best steps should be in deploying our 2008 
resources. That's what I'm working on.
    Senator Feinstein. Okay.

                           EMISSION REDUCTION

    I think, let me ask this--at my request, Congress included 
$9.8 million in funding last year for emission reduction 
projects for the San Joaquin Valley, and the South Coast air 
management districts. These districts face an almost-impossible 
task of meeting Federal air quality standards for particulate 
matter and ozone, including requirements to be in attainment 
for particulate matter by no later than 2015. They are not 
going to be able to meet that standard, which triggers some 
very complicated and special things which can have disastrous 
economic impacts on both of these districts.
    Last year at this hearing, you gave me your commitment that 
you would work with me to come up with solutions to help these 
districts, and yet, your budget now eliminates this funding to 
help these regions improve their air quality. Why was it not a 
priority for EPA to continue this funding?
    Mr. Johnson. Well, Madam Chairman, as has been routinely 
the case, certainly my 27 years at EPA is that the President's 
budget does not carry over congressionally-directed funding, 
the so-called earmarks, from year to year----
    Senator Feinstein. Yes, this is an earmark, I admit it, and 
I put it in.
    Mr. Johnson. This was, and this is the reason.
    Now, having said that--having said that, we recognize, and 
certainly the President recognized the importance of dealing 
with diesel emissions, and that's why the President is asking 
for $49 million.
    Further, we believe that it's very important for us to 
focus attention on the ports, and as you know, because I've had 
the great pleasure of visiting the Port of Los Angeles area and 
the need for helping, particularly in the ports.
    So, we have identified $15 million of the $49 million, to 
focus on ports, and help in this area.

                          EARMARKS ELIMINATED

    Senator Feinstein. So, you are saying to me that because 
this was an earmark, you've taken it out, and you're not going 
to do it. Have you taken every earmark out of this budget? 
Because you'll be sure--you can be sure of one thing, that I'm 
going to find that out.
    Mr. Johnson. I am told by our budget staff, the answer is 
yes.
    Senator Feinstein. So, any congressional add, is 
essentially eliminated from your budget.
    Mr. Johnson. Every earmark has been eliminated.
    Senator Feinstein. That's a congressional add. That's the 
only way we can add.
    Okay, that should be very interesting. Well, let me give 
you another one--$8 million in the fiscal year 2008 omnibus to 
accelerate cleanup activities at the Hunter's Point Naval 
Shipyard. EPA must continue to work with the Navy to ensure and 
do everything in its power to ensure that this site is cleaned 
up. Have those funds been transferred to the Navy yet, so they 
can be used promptly?
    Mr. Johnson. Well, Madam Chairman, I know we have been 
working very diligently with the city of San Francisco and the 
Navy in establishing both a timetable, as well as a cleanup 
strategy of construction of either a football stadium, or 
commercial and/or residential use. The $8 million, I'm told, 
will be transferred from EPA to the Navy very soon, and I'd be 
happy to keep you posted on that.
    Senator Feinstein. I would appreciate it.
    Thank you very much, my time is up.
    [The information follows:]

    The agency is currently engaged in the apportionment approval 
process for the $8.0 million in funding for the Hunters Point Naval 
Shipyard site along with other agency funding. There were several legal 
and technical issues to resolve regarding this new account, and we are 
working to finalize the apportionment in order to transfer the funds to 
the Navy as soon as possible.

    Senator Feinstein. Senator Allard.

                         CLEAN AIR MERCURY RULE

    Senator Allard. Mr. Chairman, I just have three more 
questions and they have been--those issues have been asked to a 
certain degree, I want to follow up on those three areas a 
little bit more and then I will wrap up what questions I have 
for the Administrator.
    It's been a year now since Colorado submitted a program 
which meets EPA's Clean Air Mercury Rule, and provides--in our 
view--a cost-effective mercury reduction for coal-fired 
powerplants, and you approved that.
    So, then the court has overturned that. So, where does that 
put States like Colorado's proposal? That wasn't clear, and 
Senator Leahy was focusing more on the legal argument, we're 
focusing more on the practical aspect--so where do we stand? Do 
we--does that rule for the State continue to stand until you 
come out with a new one, or do we have to consider--we'll be 
in--will we be in a position where we have to re-do that rule?
    Mr. Johnson. Well, you're asking the very question we're 
asking ourselves. Given the court's decision, what does this 
mean for the State programs? Either ones that have been 
approved, or ones that are pending. I don't know the answer to 
that, and that's certainly part of the conversation that we're 
having, is in light of the Court's decision, what should be our 
next step? As I've already mentioned, that EPA and Department 
of Justice are looking at that to determine what our next steps 
are, and then that may or may not impact where States are.
    So, it's an important question we're looking at, and 
obviously the clock continues to tick, and we will--we are 
expeditiously looking at that, and I hope to have a response, 
soon.
    Senator Allard. These mercury levels do become kind of an 
industry issue, between soft coal and hard coals--perhaps 
you're aware. I know, States like Colorado, we have hard coal, 
and we market a lot of our hard coal to the East, because they 
burn soft coal and there's a lot of discharge, and so we clean 
up the air by burning our coal, and then if you have a mercury 
requirement on that--how does that impact those cities that 
have to require, on the hard coal, to meet the Clean Air 
standards?
    Mr. Johnson. Well, again, we think that mercury is a 
problem, we are disappointed in the court's decision, because 
it's the first time in the Nation's history that we've 
regulated mercury from coal-fired power plants, and our program 
was designed to eliminate 70 percent. So, we believe that it's 
a neurotoxin, we need to deal with it. Again, our next steps, 
we're not sure.
    I did want to point out, I did have the opportunity, 
because mercury is not just from coal-fired powerplants, but if 
you own an automobile that was before the vintage of about 
2003--not every one, but many--had little mercury switches, 
about the size of a pencil eraser. Working with industry and 
the environmental community and others--put together a program 
to actually collect these.
    Senator Allard. I remember that.
    Mr. Johnson. I had the opportunity last week to pull the 
millionth switch from an automobile. Doesn't sound like much, 
but just the switches alone in all of these old automobiles 
account for about 75 tons of mercury that would have otherwise 
gotten into the environment.
    Senator Allard. Well, we under----
    Mr. Johnson. So, we take our responsibilities very 
seriously, and whether it is dealing with the air issue or 
mercury switches, we need to continue to eliminate these.
    Senator Allard. I don't think anybody's arguing with you on 
the toxicity of mercury. You know, we've pretty well 
established that.
    Mr. Johnson. I trust not.
    Senator Allard. You don't see mercury thermometers anymore.
    I just, my question was, you know, it does have an economic 
impact on some of those communities that have to use hard coal 
to burn their soft coal. Is mercury a problem to those 
communities that have to use that coal for, to reduce air 
pollution?
    Mr. Johnson. We believe, and certainly in our final 
regulation, believe that a cap-and-trade program was the most 
efficient way of eliminating mercury, and that our experience 
indicated that those communities that may have had more of a 
problem were ones likely--that those industries would have 
adopted the newest technology to help with that.
    Again, we're now evaluating this court decision, and 
deciding what's our next step.

                       DIESEL EMISSIONS REDUCTION

    Senator Allard. Now, again, this is another program that 
was mentioned--it's your Diesel Emissions Reduction Grant 
Program. You clarified that $15 million of the $49 million 
requested for DERA has been set aside for EPA's Sustainable 
Ports Initiative. I'd like to have you explain in more detail 
how this $15 million is going to be used, that was appropriated 
for a new initiative?
    Mr. Johnson. In the 2009 budget, what our plan is, is to 
actually run a competitive program among the ports, and that is 
obviously, will be designed once we are sure that we have those 
appropriated funds.
    But, we recognize that diesel emissions are a challenge and 
one that is a great opportunity for improving the environment. 
One of the statistics is to bulldozers, which I think--
certainly I have grandchildren, and they--grandsons--that 
understand a bulldozer--but to retrofit 100 bulldozers--just 
retrofitting 100 bulldozers, eliminates 16 tons of pollution 
every year.
    Senator Allard. That's particulate matter, because usually 
diesel, because the----
    Mr. Johnson. It's that black puff of smoke that we're all 
very familiar with.
    Senator Allard. It's the visible part of air pollution, not 
the invisible.
    Mr. Johnson. It is, it is the visible part that you see. 
So, we recognize that investment in clean diesel--whether it's 
retrofitting, whether it's replacing--is a great investment in 
protecting public health.

                              CLEAN WATER

    Senator Allard. Okay. Let me move on to the Clean Water, to 
the State Revolving Fund, I think Senator Craig brought that 
up. Again, in light of what I mentioned here, on my first 
question, about some of these mandates that are requiring 
problems for small communities to comply with--can you tell me 
how EPA intends to help rural and poor communities maintain 
sewage plants and mitigate non-profit source pollution, in the 
face of those reductions in the State Revolving Fund?
    Mr. Johnson. Well, again, we believe it's multiple 
approaches. One is through support of the SRF; two, for 
continuing to provide flexibility in implementation; three, 
research and development; four, through a variety of--what I 
would characterize as--innovative approaches, whether it's, 
again, dealing with runoff from these abandoned mines to 
private activity bonds, which we have seen very successful 
implementation, to the technology that we're continuing to do 
our research and development.
    Again it's--unfortunately----
    Senator Allard. Now, if----
    Mr. Johnson. We do have a challenge. It's going to take all 
of those pieces coming together to really, I believe, 
accelerate the progress that we all want to make.
    Senator Allard. If the Congress puts more money in the 
State Revolving Fund, how are you going to treat those dollars?
    Mr. Johnson. Well, I support the President's budget, and 
look forward to continuing to work with you and other Members 
of Congress as you consider the fiscal year 2009 request.
    Senator Allard. What was the commitment that you said that 
you had made, you would just fund a certain percentage of that, 
and that has been met, and you felt that justified a reduction 
this year in the State Revolving Fund because they put extra 
money in there in previous years. So, how do you--so, again, if 
we put more money in there, what happens to that money--does it 
just sit there, does it end up getting diverted over to another 
program, or does it stay in the State Revolving Fund and you 
spend it out?
    Mr. Johnson. Again, all dependent upon how--if you Members 
of Congress made a decision to appropriate funds to that 
account, it is at least my experience that we recognize that 
and honor that commitment.
    Again, look forward to working with you, the President's 
budget recognizes that there's a need, the President's budget 
recognizes a commitment that he's made to achieve a revolving 
loan fund, both in drinking as well as safe water----
    Senator Allard. I understand----
    Mr. Johnson. Also recognizes that as the Madam Chairman has 
pointed out--it's a challenge.
    Senator Allard. I understand the President wanting to stay 
to the bottom line figure, but----
    Mr. Johnson. It would just go to the States with the rest 
of the money.
    Senator Allard. Okay, yeah. Yeah, I understand the 
President's need to try and reach the balance, you know, that 
total budget figure for your agency, or agencies. I understand 
that, but, you know, we can shift money around a little bit, we 
can take--we can get money someplace else and put in here and 
do those kind of things.
    So, I just wanted to know how you would treat that.
    Thank you.
    Mr. Johnson. Thank you.
    Senator Allard. Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator.

                       PERCHLORATE CONTAMINATION

    I have three questions, they are California-related 
questions. The first relates to perchlorate. As you know, it's 
a by-product of rocket manufacture, it leeches into the ground, 
it contaminates ground water. We have many drinking water wells 
that are contaminated.
    The small city of Rialto has 22 of them, has had to declare 
water emergencies. Santa Monica has had half of its water 
supply contaminated by perchlorate, and we have a half million 
residents in San Bernardino now who, for 6 years, have had 
additional charges on their water bill, to try to clean up 
perchlorate.
    Local water people--both locally elected officials as well 
as water contractors have requested that EPA seek replacement 
orders that require that parties who contaminated the water, in 
the first place, to help provide a solution. However, EPA does 
not appear to have taken any significant action.
    In 1999, I worked with EPA, other Members of Congress, on 
this similar situation in Santa Monica, and EPA did issue a 
water replacement order against Shell Oil Company. That was an 
effective solution, it cleaned up the MTBE contamination in 
Santa Monica. So, there's a track record of success, using this 
mechanism.
    I've been asked, by the locally-elected officials, and by 
the water contractors, to ask you to sit down with us and see 
if we can't work out a solution. It can't go on the way it's 
going, because there is so much insecurity about water, and the 
need to increasingly have water emergencies in this area--
particularly in San Bernardino County. So, I'd like to ask you 
if you would be willing to do that.
    Mr. Johnson. Madam Chairman, I would be pleased to have our 
staffs sit down. Again, I appreciate the great collaborative 
work that we have enjoyed through the years, and you certainly 
have my commitment. We will sit down and see if we can identify 
a solution.
    Senator Feinstein. All right, I would appreciate that, very 
much.

           MARINE DIESEL AND LOCOMOTIVE EMISSION CONTROL RULE

    Now, the press has reported that OMB has approved the final 
Marine Diesel and Locomotive Emission Control Rule. Is that 
true? If so, when can we expect the final rule to be released?
    Mr. Johnson. It is my understanding that, in fact, the 
Marine Diesel Rule--a very important rule, as you're well 
aware--is just cleared Interagency Review, and we and the 
Agency are now--and particularly my team--are looking at 
communication and rollout strategy for that. I expect us to be 
able to roll out that final rule soon, within the next few 
weeks.
    Senator Feinstein. Oh, good. Good. That's the first good 
thing I've heard, thank you.
    Mr. Johnson. Well, thank you.
    Senator Feinstein. Now, under Federal law, the deadline in 
South Coast to attain the annual particulate matter 2.5 
national ambient air quality standard is 2015. So, the district 
is thus required to demonstrate that attainment in the year 
2014.
    I'm informed that the district needs advance control of 
nitrogen oxides created by locomotives, i.e., Tier 4 standards, 
to comply with this deadline. I also understand that the Draft 
Locomotive Rule EPA issues, only requires such advanced 
controls for locomotives first sold in 2015. This is after the 
Federal attainment deadline. What will the final rule do to 
speed up this schedule to ensure that Southern California can 
meet Federal attainment deadlines?
    Mr. Johnson. Well, Madam Chairman, as you correctly point 
out, that was what our proposal was, of 2015, and that's also 
one of the issues that did come up during the public comment 
period for the agency, and that will be addressed in our final 
rule. So, a very important issue, and I look forward to moving 
our final rule in this area, again, because the diesel 
emissions, we understand the significant opportunity to advance 
public health protection. So, that issue will be addressed in 
our final rule.
    Senator Feinstein. All right.

                      SUSTAINABLE PORTS INITIATIVE

    Your budget includes a new proposal to target $15 million 
of the $49 million you request for Diesel Emissions Reduction 
Act grants toward a Sustainable Ports initiative. This 
initiative will provide a low-cost way for ports to pay for 
diesel retrofits, or other emission controls.
    As you know, California is home to some of the world's 
busiest ports--L.A. Long Beach has 40 percent of the container 
traffic coming into the Nation, coming into this port. Goods 
movement through these ports is a major contributor to ozone 
and particulate matter.
    How will these new funds be spent? How will EPA prioritize 
those funds so that the lion's share will reach ports like Long 
Beach L.A., because they handle so much of the traffic?
    Mr. Johnson. I thank you for the opportunity to actually 
visit the L.A. port, and I've had the opportunity to visit 
other of our Nation's busiest ports, as well. It was very clear 
to me of a need and an opportunity and that's why we have 
designated $15 million, to help in this arena.
    Our plan is to develop a competitive program that, when 
they--would enable us to get these advanced technologies, 
whether it's replacing or new equipment or retrofitting, and to 
look at those areas that both have the greatest need and the 
opportunity for making a difference. Making a difference, not 
only from an environmental, but from a public health 
standpoint. So, we're still working on what the criteria would 
be for competitive, but that's the general area.
    Certainly, there is a need and an opportunity. We're going 
beyond that, because we're also, certainly, recognize the 
opportunity internationally, and we're working as part of the 
IMO arena, in the International Marine Organization and others, 
of what steps can be taken both in the area of clean diesel 
fuel, as well as in the technology for these large, ocean-going 
vessels.
    Certainly we have funded as an agency--through Congress' 
support, and the President's support--some innovative 
approaches in helping to reduce that air pollution. So we're 
going to continue on that front, as well.
    Senator Feinstein. Well, I appreciate that.
    I'd just like to add, and you probably know this--that 
people living in areas related to this now have a 1 in 500 risk 
of achieving cancer from air pollution. I want you to know that 
it is a very serious problem in the area, that the asthma rate 
is going up, and that if you ask people in the Los Angeles 
area, this is going to be one of their major environmental 
concerns.
    We're joined by Senator Stevens, and Senator, I think 
everybody has come and gone, so I'll turn it over to you for 
any questions you might have.
    Senator Stevens. As Senator Simpson said once, 
``Everything's been said, but not everyone's said it.''

                      ALASKA NATIVE VILLAGE GRANTS

    I've come by from--we've just had a hearing with Homeland 
Security in the other subcommittee, and I've come by to discuss 
some of the problems that we've got in Alaska, and in 
particularly, I want to raise the question to you of the Alaska 
Native Village grants--this is part of the Alaska Native Rural 
Program.

                         ANTI-EARMARK SYNDROME

    We had hoped that we could go forward with that list of 
priorities--there's now an anti-earmark syndrome around here, 
as you know, but it seems this budget has been written with the 
idea that we would increase several items, because in the past 
we've done that.
    Did you take into account, at all, the probability that the 
various earmarks that members have put in, in the past, would 
probably not be achievable this year?
    Mr. Johnson. Well, Senator, as we prepared the budget, and 
certainly as the President made decisions as to what the budget 
should look like across the government, we as an agency--and 
that's certainly been my experience, as I've commented earlier 
to Madam Chairman--as an agency, we don't carry over 
congressionally directed funding, or so-called earmarks, and we 
did not in the 2009 budget, as well.
    Then, we constructed the budget based upon where the 
priorities are, where we think there is significant opportunity 
for delivering results to the American people.
    Senator Stevens. Do you carry over the funds if you don't 
spend them?
    Mr. Johnson. Many of our funds are 2-years funds, and so 
those funds--for example, like the Greenhouse Gas Registry--in 
the omnibus appropriation, we have $3.5 million this year--
those are 2-year funds, and so we'll use those this year for 
working on the Registry, as well as next year as we move 
forward in developing one. So, that's just an example.
    Senator Stevens. Well, we--I thought we had an 
understanding, sort of a plan with the administration going 
back to 2007, when there'd be a target for 92 percent coverage 
for drinking water and sanitation in rural Alaska villages. 
Last year, for 2008, we had a request for $15.5 million, we 
raised that $9 million. We're still not going to achieve the 
goal of having even 92 percent of the villages of Alaska have 
water and sewer facilities.
    There was the Federal Government--if they don't have water 
and sewer, they have higher costs, basically, of medical costs, 
frankly. We've traced a lot of the diseases that the children's 
had to bad disposal systems for sewage, we call them ``honey 
buckets.'' Now, this budget goes back to $15.5 million.
    Did you spend the money we gave you last year? Have you 
obligated it for 2008?
    Mr. Johnson. I'll have to check with our--I don't believe 
that we've obligated it, Senator Stevens. I also just want to 
make sure, because the staff have pointed out that the Alaska 
Native Village Funding increase is not considered an earmark, 
however, we did not sustain the 2008 increase in the budget.
    Senator Stevens. Not considered an earmark? Do you have a 
definition for earmarks that I don't know of? I raised a budget 
item in this subcommittee from $15.5--I raised it $9 million 
last year.
    Mr. Johnson. I think the current funding of the 2009 
President's budget is----
    Senator Stevens. Fifteen point five.
    Mr. Johnson. Fifteen point five.
    Senator Stevens. That's what it was last year, and we added 
$9 million on top of that. I don't think it was spent, but 
beyond that, we had a target of--hopefully of trying to reach 
100 percent of the villages to be covered by 2011, currently 
your--by the way, when we started this we were at about 41 
percent--we've done pretty well with the program, and people in 
the area are very appreciative. But it looks like we're 
abandoning the program. It's not going to keep up the level we 
had last year.
    Now, how did you--you said that was not considered an 
earmark? When I asked the subcommittee, and they did increase 
that by $9 million, that wasn't an earmark?
    Mr. Grumbles. Senator, it was an increase, however, we 
didn't sustain that 2008 increase as we went through and made 
tough budget decisions.
    Senator Stevens. What do you mean, you mean you didn't even 
plan to spend it?
    Mr. Johnson. No, no. Whatever has been appropriated we will 
spend, and spend as directed.
    Senator Feinstein. Excuse me, you just told me you weren't 
going to spend any money that was an earmark.
    Mr. Johnson. No, no--there was a--let me make sure that 
it's clear--my Deputy, Marcus.

                         ALASKA NATIVE VILLAGES

    Mr. Peacock. Well, I have some familiarity with this 
program, although this budget, not recently. It's a 
longstanding program, as you know, Senator, to as you pointed 
out to help the Alaska Native Villages. We've kept the funding 
flat despite the fact that it was increased last year, in our 
proposal for 2009. As you pointed out, it has been successful 
but we have had problems in the past, in terms of getting the 
money spent, once it was obligated.
    Senator Stevens. Well, you have trouble getting the money 
spent if you don't put it up and give it to the area office.
    Mr. Peacock. The vast majority of it has been obligated--
not all of it--for this year. But the vast majority of it has 
been obligated for this year.
    Senator Stevens. Well, am I to report to my people that you 
decided that 2011 is not the target for 100 percent of water 
and sewer for these villages?
    Mr. Peacock. Within the budget constraints, we think the 
same amount that was, that we requested last year is sufficient 
for 2009.
    Senator Stevens. That's not my question. Have you abandoned 
2011 for 100 percent of all of these villages having water and 
sewer?
    Mr. Peacock. I think our goal has remained the same, but 
we'll have to get back to you after we talk to the Office of 
Water. We do try and, of course, what we want to make sure is 
that not only Alaskan villages, but that all of the water 
systems throughout the country eventually reach the goal of 100 
percent.
    Senator Stevens. Well, eventually is, you know, I'm trying 
to seek reelection right now, but 6 years is 6 years. You know? 
We've been involved in this one for longer than 6 years, 
already. I do not understand why it's been reduced.
    I would like to have you put in the record what you 
consider to be the date for completion of the water and sewer 
facilities for Alaska rural villages under this program. Our 
target was 100 percent, at one time. Is that--put in the 
record--is that still your target? If so, what's the date for 
that?
    Mr. Peacock. We'll get that information to you, Senator.
    [The information follows:]

    EPA and the State of Alaska estimate that the EPA Alaska Native 
Village infrastructure program will be able to provide 100 percent of 
``serviceable'' rural Alaska homes with access to drinking water and 
wastewater services by the end of fiscal year 2018. This fiscal year 
2018 end date is based on current EPA and USDA funding levels. 
(Unserviceable homes are defined as residences that cannot be serviced 
due to reasons such as being structurally unsound, seasonally occupied, 
or located in areas that are too costly to serve. In addition, whole 
communities may be unserviceable due to the dangers of erosion and 
flooding or because they are financially unable to operate water/
wastewater systems due to local economic constraints or limited 
community size.)

    Senator Stevens. All right.
    I'm a little concerned about the $134 million reduction in 
the Clean Water State Revolving Fund, could you explain that to 
me?
    Mr. Johnson. Yes, sir. As you said, this issue has come 
up--the President's budget invests $555 million, and that it 
meets the President's commitment to achieve $3.4 million----
    Senator Stevens. You guys put the President--what did you 
ask the President for?
    Mr. Johnson. As I said, this represents----
    Senator Stevens. What did you ask the President for? On 
this item?
    Mr. Johnson. This is what I represented to the President, 
this is again, meeting the President's commitment, and----
    Senator Stevens. Don't tell me that.
    Mr. Johnson. I support the President's budget.
    Senator Stevens. What was the amount you requested from the 
Office of Management and Budget for this account?
    Mr. Johnson. As I said, I support the President's budget, 
and this is an important area----
    Senator Stevens. Are you going to answer my questions, 
Mister?
    Mr. Johnson. Well, as I said, this is the President's 
budget, it doesn't----
    Senator Stevens. I didn't ask you that. I asked you, what 
did you ask OMB for?
    Mr. Johnson. Senator, may I ask Ben Grumbles to come to the 
table? He's head of our water program.

                    CLEAN WATER STATE REVOLVING FUND

    Mr. Grumbles. Senator, in the process, through the Chief 
Financial Officer in the engagement and the development of the 
2009 budget, what was agreed to back in 2004 was a long-term 
plan for the Clean Water State Revolving Fund that would be 
reflected in each of the President's budget requests, including 
fiscal year 2009. So, when we engaged with the OMB in terms of 
the national water program, we looked at what Congress had 
previously appropriated, and measured that against the level, 
and that's how we came up with the $555 million.
    But, we didn't have a separate dollar amount, other than 
looking at, well, the previous year we had asked for $600 
million in the 2008 President's budget request we had requested 
$688 million. We then looked at what Congress had appropriated 
for the fiscal year 2008 budget and based on that, and the 
math--taking into account the 2004 commitment to provide $6.8 
billion through 2011--that's how we came up with the $555 
million. Jointly with OMB, Senator.
    Senator Stevens. What I'm hearing you to say is that you 
set a target back several years ago----
    Mr. Grumbles. Yes, sir.
    Senator Stevens. This year, you looked at how much had been 
appropriated by Congress, so far, toward that target?
    Mr. Grumbles. That's correct.
    Senator Stevens. You asked for the balance, is that right?
    Mr. Grumbles. That's the way it would work out, yes.
    Senator Stevens. Did you--that's the amount now, I asked--
you know, I sat at those tables when I was with the Eisenhower 
administration. I know what you're under in terms of what you 
can and can't do. But you can tell me what you requested of OMB 
for this year, can't you? There's no par on that.
    Mr. Grumbles. Right. We----
    Senator Stevens. How much did you ask OMB for this year?
    Mr. Grumbles. We requested--when we went to OMB, we 
requested the amount that would be consistent with our 2004 
commitment that we reached with OMB, in terms of the 
administration's $6.8 billion request. So, we went to OMB 
saying, ``Let's do the math, and figure out what the 
appropriate level is.'' So, that's how we jointly got----
    Senator Stevens. Was that amount, that 2004 level, was that 
approved by Congress?
    Mr. Grumbles. No, it was part of the present--the 
administration's vision on how much continuing seed money to 
put into the Clean Water SRF and each budget request since then 
has been consistent with that. Budget requests have declined 
over the last several years, taking into account----
    Senator Stevens. What you're telling me, I hope you're 
hearing this, Madam Chairman, because they decline based on how 
much we put up--you reduce the next year by the amount we added 
to the previous year, in effect.
    Mr. Grumbles. That, coupled with the vision on sustainable 
infrastructure and the innovative technologies, and the full-
cost pricing--that has been the approach on the State Revolving 
Fund to get to a final level that revolves at $3.4 billion a 
year.
    Senator Stevens. This is not a spending program, this is a 
loan program. You understand that, don't you?
    Mr. Grumbles. Yes, sir.
    Senator Feinstein. Senator, what the staff just informed 
me, is that we have never agreed to this. They just arbitrarily 
did it.
    Senator Stevens. I understand that. We've never agreed to 
it, and as a matter of fact, until last year, we didn't even 
know about it. But this policy of having an ongoing--the more 
Congress adds, the more it's reduced in succeeding years is an 
additional--it really forces earmarks. Because you're saying, 
in order to maintain the same level that we had last year, 
we've got to earmark the additional monies. I've never heard of 
it.
    I really think--if you'll pardon the phrase--it's 
bureaucratic arrogance. Having served a, you know, 8 years in 
the administration--another administration--I want you to know 
I don't appreciate that. We didn't have that kind of arrogance, 
and I really think you ought to listen to what Congress is 
doing, in terms of setting national goals.
    It sounds to me like your 2004 decision was sacrosanct as 
far as the Federal Government was concerned--nothing Congress 
can do about it, you just keep reducing down by the amount we 
increase. It's a crazy system.

                        GREENHOUSE GAS REGISTRY

    Now, let me ask you about another one, though. That is the 
Greenhouse Gas Registry. The White House proposed no funding 
for this new program, it was put into the appropriations bill 
in December, Senator Klobuchar came and talked to me, as a 
matter of fact, and others about it. But--why didn't you put 
money in for the Greenhouse Gas Registry? There's so much talk 
about this, but without such a Registry, no one is really going 
to know what they're talking about.
    Mr. Johnson. Well, we have $3.5 million this year as part 
of the omnibus appropriation. We are working on a draft 
regulation, we intend to meet the omnibus, congressionally 
directed schedule, which we expect that by the--September of 
this year, that we will have a proposed regulation on 
Greenhouse Gas Registry.
    We've also begun the work with the States--there's 
California, plus, I believe either 6 or 7 other States that 
have, or are developing, registries, and we think that's a good 
thing. But we're working on developing--and intend to have a--
proposed regulation by what the schedule that was in the 
omnibus appropriations was, as I recall, September.
    Senator Stevens. Let me tell you--is there any direction 
Congress would give you with regards to spending money, you 
would follow?
    Mr. Johnson. Well, we are, sir. We're following the 
direction and----
    Senator Stevens. I haven't heard any so far.
    Mr. Johnson. Well, we're working on----
    Senator Stevens. What you're saying is, the money we put up 
for 2008, you take into account as you reduce 2009.
    Fully understanding that there is a new paradigm, no add-
ons. No earmarks. So, that under the rules here, that program 
is going to have to be slashed.
    Senator Feinstein. Senator, you're right--I put in the $3.5 
million last year. It takes 2 years. So, they need $3.5 million 
this year, assuming they're doing it.
    Senator Stevens. I agree.
    Senator Feinstein. So that would have to be, I guess, an 
earmark, which they are now saying, they won't follow.
    Senator Stevens. That's right.
    Mr. Johnson. Madam Chairman, just to make clear for the 
record, we area working on a draft regulation, and I intend to 
make sure that we meet our mandate of having a proposal, and I 
believe the date is September.
    Senator Stevens. Did you know how the Congress dealt, no, 
the administration--Congress dealt with an administration 
official that wouldn't follow their suggestion, back in the old 
days, the Bureau of Land Management? The next bill, they just 
eliminated the job of the person that would refuse to obey 
their direction.
    Senator Feinstein. Well, I'll tell you, this budget is 
disastrous when you look----

                    LAND PROTECTION AND RESTORATION

    Senator Stevens. I've never seen such arrogance as there is 
in this EPA budget, as a matter of fact. The Land Protection 
and Restoration line item for oil spills response was slashed 
by $183,000 for 2009. Why?
    Mr. Johnson. Are you referring to our----
    Senator Stevens. The Land Protection and Restoration line 
item for oil spills response was reduced by $183,000.
    Mr. Johnson. Let me ask Susan Bodine who heads up our 
program.
    Ms. Bodine. Yes, we believe we can still--we can carry out 
the program within the requested amounts. So, we don't 
anticipate----
    Senator Stevens. What led you to that belief? What led you 
to believe that we don't need money for land response for oil 
spills?
    Ms. Bodine. We have funding for the oil spill program.
    Senator Stevens. But you reduce it by $183,000 over 2008.
    Ms. Bodine. That's correct, but----
    Senator Stevens. But what was the rationale for bringing it 
down?
    Ms. Bodine. The rationale was that we believe we can carry 
out our responsibilities within the requested amount of 
funding.
    Senator Stevens. I don't know, I'm really disturbed at some 
of the things they're doing, because the administration is 
taking the position that you can't have earmarks, we're not 
supposed to make add-ons. But at the same time, they're using 
formulas which punish us for past earmarks, and past add-ons. 
And it puts us in an absolutely untenable position as to 
maintaining a level of ongoing programs that we've funded in 
the past.
    Senator Feinstein. I was thinking the same thing. I 
outlined the percent cuts. The percent cuts in critical 
programs are very large. This means there is no way for us to 
restore those cuts, if they're going to ignore any 
congressional add, which they call an earmark.
    I don't even know if we want to pass this budget, if that's 
the case. I mean, at some point, you've got to the conclusion, 
why run for the Senate of the United States, why sit as an 
appropriator--I come from a State that gives far more in taxes 
than it gets back in services. If you've got a major 
environmental problem in the State--and we have several, I've 
outlined the non-attainment standards for Fresno, and for the 
Los Angeles area, the port problems--yet we can't add money to 
solve those problems. So, why put out--why put our names on a 
budget that we know is going to fail to accomplish the purpose? 
I think that's the problem we have.
    Senator Stevens. Well, that's the conclusion that's got to 
be reached, that we're better off under the 2008 budget. We're 
better off not to give you anything for 2009, and just to 
travel on a continuing resolution into October 2009. The 
programs that affect my State would be better off under 2008, 
than they would under 2009. Did you ever think about that?
    Mr. Johnson. Again, we believe that this budget is a good 
budget, it balances the needs of moving forward with the pace 
of environmental protection, at the same time recognizes that 
we have to be good stewards of taxpayers dollars.
    Senator Stevens. I don't have any more questions. I don't 
think it's--you might carry back the message that, in all 
probability, if the Senate follows my advice, we'll give the 
President a continuing resolution for 2009.
    Senator Feinstein. You know, it's very hard, because we 
have a 20 percent cut in the Clean Water State Revolving Fund, 
a 10 percent cut in grants to States for environmental 
protection, a 14 percent cut in State grants for reduction of 
air pollution, and it goes on and on and on.
    I, you know this--for the first time he's said, in so many 
words, ``We're not going to recognize any congressional add.'' 
Well, maybe we join the issue, and we don't pass a budget. 
Because I don't know why you'd want to run for the United 
States Senate--particularly, I come from 37.2 million people--
and not be able to do anything that benefits a real need of my 
State.
    If the President doesn't do it, then what you're saying, 
the President conditions all spending, and the Congress has no 
voice. So, we don't even need an Appropriations Committee, if 
that's the case.
    Senator Stevens. They ought to read the Constitution. 
That's for sure. Well, we can talk and talk but I share your 
feelings about this, and I think there is a total breakdown in 
regard to the process that we're involved in. I've been through 
this process now for well over 30 years, and I've never seen it 
in worse shape. But, it's because of what we're getting from 
downtown. You refuse to recognize what we've done in the past, 
which was approved by the President. What you do is, then, 
offset that against a goal you set in 2004? Notwithstanding, 
all the goals we set in, we established in legislation and the 
President signed in 2005, and 2006, and 2007 and 2008. That's 
arrogance. Pure arrogance.
    Senator Feinstein. Well, I--no, I think there is no 
jointness with this administration. There is no real 
consultation with the Congress. There is no real understanding 
that the Congress plays a role in all of this. It's that we're 
to be a rubber stamp for the President's request, and----
    Senator Stevens. It's really not the President.
    Senator Feinstein. Well, Mr. Johnson pointed out, over and 
over again during this hearing, ``This is the President's 
budget.''
    Senator Stevens. He's says that, but I don't think the 
President even knows of some of these items, I'm sure he 
doesn't it is the OMB and the Assistant Secretary in each 
Department dealing with this budget process.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

          CALIFORNIA WAIVER DECISION/GREENHOUSE GAS REGULATION

    Question. The ``Federal Register Notice of Decision Denying a 
Waiver of Clean Air Act Preemption for California's 2009 and Subsequent 
Model Year Greenhouse Gas Emission Standards for New Motor Vehicles'' 
(The Notice of Decision) concludes that Congress intended that waivers 
would only be issued if California had a ``unique'' problem, based on 
both Committee Reports and Floor statements from 1967. In 1977, 
Congress amended the Clean Air Act, changing both the words and intent 
of section 209. The Federal Register notice does not mention 
congressional intent in 1977.
    a. Did you consider the intent of Congress in 1977 when making your 
decision?
    b. If so, why didn't the Federal Register Notice discuss this 
intent?
    c. Is it correct to infer that you do not find the 1977 amendments 
relevant to your decision to deny a waiver to California?
    Answer. In 1977, Congress amended section 209, but did not change 
section 209(b)(1)(B), the waiver criterion at issue in this waiver 
decision. The decision document describes in detail the bases for the 
decision including the legislative history of section 209(b)(1)(B). The 
decision document discusses the issue of deference to California's 
judgments, at 73 FR 12158 and 12162, noting that EPA's role in applying 
section 209(b)(1)(B) is not to substitute its judgment for California's 
on the value or benefit that might be derived from a specific set of 
greenhouse gas standards, and noting that with respect to sections 
209(b)(1)(A) and (C) EPA is not addressing or changing its approach to 
deferring to California's policy judgments on the best way to protect 
the public health and welfare of its residents. This discussion of 
deference is based in part on the 1977 legislative history behind 
section 209.
    As explained in the decision document, EPA appropriately exercised 
its own judgment in determining the limits or confines of state 
authority established by section 209(b)(1)(B). This does not change 
EPA's consistent view that within such confines it should give 
deference to California's policy judgments.
    Question. The Notice of Decision asserts that in 1967 Congress 
intended waivers to address problems ``unique'' to California. But in 
1977, Congress added section 177 to the act, which allows other States 
to adopt California's standards. If Congress intended for waivers to be 
limited to problems unique to California, why did it give other States 
the right to adopt the same standards?
    Answer. The decision document discusses in detail EPA's 
interpretation of section 209(b)(1)(B), including the legislative 
history of that provision. That waiver criterion was not amended by 
Congress in 1977. In the 1977 amendments, Congress did afford States 
the option of adopting and enforcing California's motor vehicle 
emission standards, under section 177, if certain conditions were met. 
The legislative history indicates that section 177 was added to give 
States more flexibility in determining how to ``protect public health 
while still permitting reasonable new growth Still another element of 
flexibility for States that is afforded in this section is the 
authority for States with nonattainment areas for automotive pollutant 
pollutants (other than California) to adopt and enforce California new-
car emission standards if adequate notice is given . . . this should 
pose no significant burden to the manufacturers. It permits the State 
to decide whether or not such standards should be adopted in order to 
permit more stationary source growth and jobs in the State.'' [Report 
by the Committee on Interstate and Foreign Commerce (95th Congress, 1st 
Sess. Report No. 95-294, at pgs. 213 and 310-311)].
    Question. In 1984, EPA Administrator William Ruckelshaus issued a 
waiver decision that stated, in part:

    ``Motor Vehicles Manufacturing Association, Auto International 
Association, General Motors and Volkswagen also argue that in order to 
be granted a waiver for its particulate standards California must have 
a `unique' particulate problem; i.e., one that is demonstrably worse 
than in the rest of the country. However, as CARB points out, there is 
no indication in the language of section 209 or the legislative history 
that California's pollution problem must be the worst in the country, 
for a waiver to be granted.''

    The Notice of Decision asserts that the legislative history of 
section 209 requires that California's pollution problem must be 
``unique.'' Upon what legal basis have you rejected the precedent set 
by the 1984 ruling?
    Answer. EPA's waiver decision discusses in detail the 1984 waiver 
decision at 73 FR 12159-12160. As stated in the 1984 waiver decision, 
the phrase ``compelling and extraordinary conditions'' refers to 
``certain general circumstances, unique to California, primarily 
responsible for causing its air pollution problem,'' like thermal 
inversions, topography, and California's motor vehicle population. 
Thus, in 1984, EPA reasoned that the term compelling and extraordinary 
conditions ``does not refer to the levels of pollution directly.'' 
Instead it refers primarily to the factors that tend to produce higher 
levels of pollution--``geographical and climatic conditions (like 
thermal inversions) that, when combined with large numbers and high 
concentrations of automobiles, create serious air pollution problems.'' 
73 FR 12160.
    EPA's waiver decision concerning California's greenhouse gas 
standards does not reject the focus of the 1984 decision on the factors 
that cause air pollution. EPA's decision document describes the 1984 
waiver decision, which addressed a local or regional air pollution 
problem like ambient levels of particulate matter and discusses in 
detail the appropriate way to implement section 209(b)(1)(B) in the 
very different context of a global air pollution problem, like elevated 
concentrations of greenhouse gases. In the context of greenhouse gases, 
EPA determined that the appropriate criteria to apply is whether 
emissions of California motor vehicles, as well as California's local 
climate and topography, are the fundamental causal factors for the air 
pollution problem of elevated concentrations of greenhouse gases, and 
in the alternative whether the effect in California of this global air 
pollution problem amounts to compelling and extraordinary conditions. 
73 FR 12162.
    Question. Mr. Johnson, you are under remand from the United States 
Supreme Court to determine whether carbon dioxide contributes to 
climate change and endangers public health and welfare. I have 
requested that you set an internal deadline by which you intend for EPA 
to respond, and you have refused.
    a. Please provide a detailed list of benchmarks that EPA must meet 
before it can respond to the Supreme Court's remand.
    b. Please determine how many of these benchmarks have been 
completed to date.
    c. Please state how many EPA staff members are working on each 
remaining benchmark at this time.
    d. Please provide an explanation for why you stated in your March 
3, 2008 letter that ``I am currently unable to provide you and the 
Committee with the `detailed timeline' requested.''
    e. Please explain what impedes the EPA from setting a timeline for 
completion of this work.
    f. Please explain why it was possible for EPA to set such a 
timeline in 2007, but it is not possible to set a timeline today.
    Answer. As you know, EPA had previously planned to issue a proposed 
endangerment finding and vehicle GHG standards under the Clean Air Act 
(CAA) by the end of last year. However, after enactment of the Energy 
Independence and Security Act in December, it was appropriate for the 
agency to consider the impact of the new law, with its requirement for 
tighter vehicle fuel economy standards, on EPA's regulatory plans.
    As I explained in my March 27, 2008 letter to you, I have decided 
that the best course of action for responding to the Supreme Court's 
remand is to issue an Advanced Notice of Proposed Rulemaking (ANPR) 
later this Spring. That notice will build on the agency's work to date 
on a potential endangerment finding and vehicle GHG standards under 
Clean Air Act section 202. It will also explain the broader Clean Air 
Act implications of taking such actions. My letter describes some of 
those implications and explains why it is important to consider them in 
developing a strategy for potentially regulating GHGs under the CAA.
    I have asked my staff to develop an ANPR for publication by late 
Spring. Because of the breadth of issues the ANPR will cover, including 
the regulatory implications for stationary sources if the vehicle GHG 
standards are set under the act, staff from several offices within the 
Office of Air and Radiation as well as staff from the Office of General 
Counsel are involved in drafting the notice. They are drawing from, and 
in some cases adding to, the information that was developed and 
compiled last year as part of EPA's efforts to respond to the Supreme 
Court's decision and the President's 20-in-10 Executive order.
    The ANPR will give the public an important opportunity to comment 
on the many issues that need to be considered in moving forward with 
any Clean Air Act regulation of GHGs. Following the public comment 
period, I will assess how best to respond to the Supreme Court's 
decision in light of the comments received. While I cannot give you a 
detailed timeline for issuance of the ANPR or for next steps following 
receipt of public comments, I can assure you that I intend to proceed 
expeditiously and lay a solid foundation for future decisions on 
addressing climate change.

                    AIR POLLUTION IN NATIONAL PARKS

    Question. EPA recently participated as the science lead in the 
Western Airborne Contaminants Assessment Project (WACAP) to determine 
the levels and sources of airborne pollutant deposition in ecosystems 
that are traditionally regarded as the most pristine and intact 
ecosystems in the America: western national parks. The National Park 
Service recently released the results of this study and they are 
alarming: over 70 different contaminants, including toxic heavy metals 
like Mercury and pesticides such as DDT, were found at significant 
levels in parks from Sequoia-Kings in California to Glacier in Montana 
to Denali in Alaska.
    In many parks, the toxicity levels in native fish in high mountain 
lakes exceeded the recommended consumption guidelines, not only for 
humans, but for other mammals and birds that rely on fish as a key 
source of caloric intake. These contaminants are weakening the 
ecosystems of national parks and a potential danger to human health.
    1. What are the implications of the WACAP study in terms of the 
ability of current regulations to effectively prevent air pollution, 
not only in our national parks, but across our country? Do these 
results not suggest additional action to improve air quality is 
warranted?
    2. Will EPA present policy recommendations for Congress and/or the 
Administration in the wake of these results? Please provide details.
    Answer. EPA commends the National Park Service and the interagency 
contributors for the WACAP study. This valuable research has 
demonstrated that a number of environmental contaminants are more 
persistent and widely distributed than previously understood. The study 
also showed that, for many contaminants, local and regional sources may 
contribute more to contamination in the western parks, outside of 
Alaska, than international or intercontinental transport of airborne 
contaminants.
    All of the contaminants identified by the study as being of highest 
concern are the subject of existing regulations or on-going regulatory 
actions under the Clean Air Act, the Federal Insecticide, Fungicide, 
and Rodenticide Act, and the Toxic Substances Control Act. In addition, 
most of the contaminants identified in the study as being of potential 
concern are subject to existing regulations or are being considered for 
further regulation under these statutes. Many of these contaminants and 
their sources are also subject to state and local controls. EPA is 
aware that the National Park Service is working at the level of 
individual parks to address the few local sources identified in the 
study. While the study did not address how the levels of contamination 
in the parks would be affected by further environmental regulations, 
EPA will evaluate this study, as well as other recent and ongoing 
studies (e.g., EPA's Great Waters program and newly-initiated National 
Academy of Sciences study on the significance of the international 
transport of air pollutants), in determining future research and 
regulatory needs for these pollutants.
    Many of the contaminants identified by the study are the subject of 
international cooperation, through bilateral and trilateral 
relationships with Canada and Mexico and through multilateral 
institutions, such as the Stockholm Convention on Persistent Organic 
Pollutants (POPs) and the United Nations Environment Programme's 
Mercury Programme. The United States' ability to address some of the 
contaminants of concern, particularly those that are no longer used in 
this country, would be significantly enhanced if Congress were to 
complete legislation enabling the United States to ratify the Stockholm 
Convention, as well as the Rotterdam Convention on the Prior Informed 
Consent Procedure for Certain Hazardous Chemicals and Pesticides in 
International Trade (PIC) and the Convention on Long Range 
Transboundary Air Pollution POPs Protocol (LRTAP POPs), and to work 
through these institutions to reduce their use globally.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

    Question. Recently, the Rhode Island Treasurer, the Rhode Island 
Department of Health, and the Rhode Island Clean Water Finance Agency 
contacted my office regarding a proposal by the EPA Office of the 
Inspector General to prevent states from using revenue bonds to provide 
the necessary 20 percent match for the State Revolving Funds. Is EPA 
considering changing this policy? If so, what process is EPA using to 
evaluate if this change is necessary?
    Answer. The fiscal year 2009 President's budget continues the 
policy of allowing States to use revenue bonds repaid from interest 
earnings to provide the State match for the State Revolving Funds. No 
decision has been made on how or whether to change this policy.
    Question. For over 10 years, EPA has failed to issue a final rule 
to protect children from lead poisoning during home renovation and 
remodeling in target housing, despite a 1992 congressional mandate to 
adopt a rule by October 28, 1996. The fiscal year 2008 Consolidated 
Appropriations conference report included language requiring EPA to 
finalize its Renovation, Repair, and Painting Rule by March 31, 2008, 
and encouraging that the rule be at least as protective as HUD's Lead-
Safe Housing Rule. What progress has EPA made towards finalizing the 
Renovation, Repair, and Painting Rule by the deadline at the end of 
this month, and what are the plans for implementation of the rule in 
fiscal year 2009? Specifically, how does the agency plan to provide 
sufficient training and outreach opportunities within the bounds of the 
current budget request?
    Answer. EPA finalized its Renovation, Repair, and Painting Program 
rule on March 31, 2008 (available at: http://www.epa.gov/lead/pubs/
renovation.htm). Implementation of this program is a priority for our 
lead poisoning prevention program. We expect many States to seek 
authorization to run the program and will be working with our State 
partners to develop efficient approaches to implementation.
    EPA will work with a broad range of stakeholders, including States, 
community groups, trade associations and other industry groups in 
conducting outreach and training. Central to this outreach is the 
pamphlet Renovate Right: Important Lead Hazard Information for 
Families, Child Care Facilities and Schools. This brochure, which is 
jointly sponsored by EPA and the Department of Housing and Urban 
Development (HUD), provides renovation-specific lead hazard information 
for persons who contract for or perform renovation, repair and painting 
projects in pre-1978 target housing and child-occupied facilities. EPA 
is also developing information specifically for contractors, including 
the brochures Contractors Lead Safety During Renovation and Steps to 
Lead-Safe Renovation & Remodeling. To effectively conduct outreach and 
training within the current budget request, the agency will build on 
the infrastructure and successes of its outreach and training program 
for abatement activities.
    EPA will facilitate having training providers for abatement expand 
their training courses to include formal training of renovators by 
developing a model training course for renovators required by the 
regulation. In addition, EPA will continue to encourage the training of 
a broad range of stakeholders, including community groups, in the use 
of lead-safe work practices.
    Question. The fiscal year 2008 Appropriations language encouraged 
the EPA Renovation, Repair, and Painting Rule to be at least as 
protective as HUD's Lead-Safe Housing Rule. What steps has the agency 
taken to respond to concerns about the proposed rule, in particular, 
the fact that the proposed rule did not ban dangerous lead practices 
(such as dry sanding), and did not include requirements to test for 
lead dust at the end of a renovation, painting or repair job involving 
lead-based paint in older housing?
    Answer. The final rule prohibits or restricts the use of dangerous 
practices such as removing lead paint by power sanding, use of a torch 
or by the use of a high temperature heat gun. EPA is allowing the use 
of dry hand sanding based on the results of a study the Agency 
conducted of renovation activities. In this study, when the work 
practices being required by EPA's rulemaking were used, including 
containment and specialized cleaning, renovation activities involving 
dry hand sanding did not result in lead levels above EPA's regulatory 
hazard standards.
    The work practices required by this rule have been demonstrated to 
be effective at protecting children from the lead-based paint hazards 
generated by renovation activities. Renovations covered by this rule 
will be performed in many homes all over the country. They will be 
performed for many reasons, most of which have nothing to do with lead-
based paint or lead-based paint hazards. Moreover, EPA has determined 
that the work practices in the final rule, including containment and 
specialized cleaning effectively minimize exposure to lead-based paint 
dust generated during renovations. Thus, EPA has determined that 
requiring dust clearance sampling and clearance, which is required for 
abatements in which all lead hazards must be removed, is not warranted. 
In addition, dust clearance sampling and clearance would not provide 
added value in terms of protecting children to balance the time and 
effort and the cost to home and building owners associated with 
requiring this additional step to the work practices.
    Question. Last year the Supreme Court ruled that the Clean Water 
Act only applied if there was a ``significant nexus'' of jurisdictional 
waterways. This test put a significant onus on the agencies to make a 
determination of what waters were or were not under the protection of 
the Federal Pollution Control Act. In response to this the U.S. Army 
Corps of Engineers increased the amount of funding to go toward these 
jurisdictional judgments, but no increases have been seen in the EPA's 
budget for this additional work. How is the agency addressing these 
increased demands and where is the funding coming from to deal with the 
increased bureaucratic burden?
    Answer. The U.S. Army Corps of Engineers is given the primary 
responsibility under the Clean Water Act (CWA) for work related to the 
issuance of section 404 permits. These responsibilities include 
conducting CWA jurisdictional determinations and review and issuance of 
permits. It is these activities where workload has increased the most 
in recent years as a result of, for example, recent court decisions. 
While EPA's workload has increased somewhat as a result of these same 
factors, EPA expects to be able to continue to meet our 
responsibilities under the CWA by adjusting the level of resources 
applied to the 404 regulatory program from within the available 
wetlands protection resources.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

 DELAY IN IMPLEMENTING A SOLUTION TO THE LEADVILLE MINE DRAINAGE TUNNEL

    Question. We now have a locally declared emergency situation in 
Leadville involving a Superfund Site declared in 1983, 25 years ago. 
Why is this the case 25 years after recognizing the need for a 
solution?
    Answer. The California Gulch Superfund Site (Site) was listed on 
the National Priorities List (NPL) in 1983 to address hazardous 
releases associated with historic mining activity. The Site is 
comprised of approximately 17.9 square miles of mountainous terrain in 
and around the Town of Leadville in Lake County, Colorado. Since 1983, 
this large and complex Site has been divided into 12 separate Operable 
Units (OU). EPA has conducted studies, removal actions and remedial 
actions at various OUs, and many of the OUs have been completed in part 
or in full. Two OUs have been deleted from the NPL and EPA is in the 
process of deleting parts of other OUs. The emergency situation 
referenced in your question is a relatively new development. Since 
2001, additional investigations have indicated that groundwater and 
mine pool levels are increasing over time, and are likely due to 
blockages in the Leadville Mine Drainage Tunnel (LMDT). Over the last 
three years, EPA, the State and local community have become concerned 
that the increasing mine pool levels may cause an uncontrolled release 
of contaminated water.
    In view of the recent concerns of rising groundwater and mine pool 
levels, EPA, in coordination with the Bureau of Reclamation and the 
State of Colorado, is now conducting a removal action. This work 
commenced in February 2008 and includes two major activities. EPA 
installed a pumping system in the Gaw mine shaft and has been pumping 
at a rate of 450 gallons per minute since late February. This action 
may lower water levels in the mine pool. In addition, it appears to 
have diminished seeps and springs that had recently appeared in the 
lower California Gulch. Second, EPA is taking steps to drill a relief 
well into the LDMT to lower the level of water in the LMDT and mine 
pool. EPA plans to have the relief well, pump and pipe to the LMDT 
installed and ready to operate in Summer 2008.
    Question. As you know, the Bureau of Reclamation is responsible for 
the Leadville Mine Drainage Tunnel and the EPA is responsible for the 
Superfund site. In your view, what has prevented the various involved 
entities (EPA, Bureau of Reclamation, the State of Colorado, locally 
elected officials) from fixing this well known problem?
    Answer. EPA issued a Record of Decision (ROD) in 2003 for Operable 
Unit 6 (OU6) of the California Gulch Superfund Site (Site). Part of the 
remedy included addressing the Leadville Mine Drainage Tunnel (LMDT).
    Specifically, the OU6 ROD called for:
  --Installing an engineered plug, approximately 4,300 feet from the 
        LMDT portal.
  --Installing dewatering wells in the tunnel to manage tunnel and 
        hydrologically connected mine pool water levels behind the 
        engineered plug.
  --Installing a pumping system to deliver water to the LMDT treatment 
        plant from the dewatering well.
    The LMDT is owned by the Bureau of Reclamation (Reclamation), as is 
the LMDT treatment plant.
    In view of the recent concerns of rising groundwater and mine pool 
levels, EPA, in coordination with Reclamation and the State of 
Colorado, is now conducting a removal action \1\ to install dewatering 
wells in the tunnel and a pumping system to deliver water to the LMDT 
treatment plant. EPA, Reclamation and the State are working on a plan 
to implement a long-term solution to address these concerns and long-
term operation and maintenance.
---------------------------------------------------------------------------
    \1\ While Section 111 of CERCLA limits EPA's authority to expend 
Superfund dollars to carry out remedies (i.e., remedial actions) at 
federally owned facilities, EPA's authority to conduct certain removal 
actions under CERCLA is not limited. However, the Federal agency that 
owns the facility is required to provide reimbursement pursuant to 
Executive order 12580, section 9(i) ``Funds from the Hazardous 
Substance Superfund may be used, at the discretion of the Administrator 
or the Coast Guard, to pay for removal actions for releases or 
threatened releases from facilities or vessels under the jurisdiction, 
custody or control of Executive departments and agencies but must be 
reimbursed to the Hazardous Substance Superfund by such Executive 
department or agency.''
---------------------------------------------------------------------------
    Question. Why is the EPA, rather than the Bureau, now the lead 
Federal agency on the Leadville situation? Who made that decision and 
for what reasons?
    Answer. That decision has not been made. EPA is the lead Federal 
agency with respect to the California Gulch Superfund Site. EPA, the 
Bureau of Reclamation and the State are working on a plan to implement 
a long-term solution to address the high water levels in the mine pool 
and the Leadville Mine Drainage Tunnel. Among the items under 
discussion is what authority to use to implement that solution.
    Question. What can the EPA do to permanently fix this mine drainage 
problem?
    Answer. EPA, acting alone, cannot permanently fix this problem. 
EPA, the Bureau of Reclamation and the State are working on a plan to 
implement a long-term solution to address the high waters in the mine 
pool and the Leadville Mine Drainage Tunnel.
    Question. When is the mine pool (elevated ground water) going to be 
at a level that is not a threat to residents, local water supply and 
the environment? What level is considered a safe level?
    Answer. The Bureau of Reclamation is conducting a risk assessment 
that may help determine the appropriate mine pool level. Lowering the 
elevation of the groundwater will decrease risk to residents, the local 
water supply and the environment.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

               ARSENIC STANDARDS AND COMMUNITY ASSISTANCE

    Question. In January 2006, the EPA began enforcing a new arsenic 
standard that requires public water systems to reduce arsenic levels to 
10 ppb, down from 50 ppb. My home State of New Mexico has high levels 
of naturally occurring arsenic in its volcanic soils which filter into 
the water supply. New Mexico is also one of the poorest states in the 
Union, with high levels of poverty.
    The costs of compliance facing New Mexico run upwards of $500 
million. According to the New Mexico Bureau of Geology and Mineral 
Resources, 20 percent of the State's municipalities will have to treat 
their drinking water to meet the standard. The new arsenic standard 
disproportionately impacts my State because only 5.5 percent of 
municipalities nationwide will have to treat their drinking water to 
meet the standard.
    Of the communities in New Mexico requiring water treatment, 93 
percent of them are small communities that probably cannot afford the 
cost associated with meeting this new standard. Indeed, for the average 
New Mexican, meeting the standard could increase the cost of water by 
$50-$90 per month.
    Would you discuss what resources, if any, are being marshaled by 
EPA to assist communities faced with the extraordinary costs in meeting 
the new arsenic standards?
    Answer. EPA has promoted the use of the Drinking Water State 
Revolving Loan Fund (DWSRF) for arsenic projects, and has worked with 
The Department of Agriculture's Rural Utilities Service to make arsenic 
treatment a priority for their funding programs. Currently 167 loans, 
totaling approximately $380 million, have been made for arsenic 
compliance through the DWSRF. Together with the Rural Utilities Service 
loan program, nearly $500 million as been made available to communities 
for arsenic compliance.
    To help reduce water utility costs for arsenic treatment, the 
Agency has developed a toolkit that facilitates decision-making, 
including choosing the most cost-effective technology. The kit includes 
websites (epa.gov/safewater/arsenic and arsenictradeshow.org), a print 
brochure, a training CD and a treatment technology DVD. Program 
managers and scientists at EPA have collaborated to promote the latest 
high-performing, cost-effective advancements in arsenic treatment 
technologies, particularly through EPA's Office of Research and 
Development's Arsenic Treatment Technology Demonstration Program. In 
addition, EPA has partnered with technical assistance providers such as 
the American Water Works Association (AWWA), National Rural Water 
Association (NRWA) and Rural Community Assistance Partnership (RCAP) to 
provide training opportunities and innovative outreach materials.
    Question. Would it be appropriate to try and assist those 
communities faced with debilitating costs in trying to meet the high 
standard through some legislative means, perhaps in targeted assistance 
in treatment facility construction?
    Answer. We believe that Congress has already provided an 
appropriate vehicle for assistance through the Drinking Water State 
Revolving Loan Fund (DWSRF). Since 1997, the EPA, through the DWSRF, 
has leveraged approximately $8.1 billion in federal grants to States 
into $14.4 billion in funds available to assist with drinking water 
infrastructure needs, including compliance with new arsenic standards. 
Through these funds, over 5,300 loans for over $12.6 billion have been 
made to projects to address the public health goals of the Safe 
Drinking Water Act. Almost all of these loans are provided at a reduced 
interest rate and almost 600 with some principal forgiveness. Nearly 75 
percent of loans go to communities with 10,000 people or fewer.
    Question. Because New Mexicans do not exhibit a higher rate of 
cancer due to the States higher levels of arsenic, and because studies 
released after the EPA issued its new arsenic standard do not tie the 
new arsenic standard to reduced health impacts, have you considered 
reviewing whether this more stringent arsenic drinking water regulation 
is appropriate?
    Answer. The agency is currently performing its second review of 
existing drinking water standards and we expect to release the 
preliminary results by summer of 2009. One of the key steps in our 
review uses a final, peer-reviewed health risk assessment. While 
arsenic is one of the 70 plus drinking water regulations included in 
the second review effort, the Agency is currently updating the arsenic 
risk assessment and it is not expected to be complete in time to 
consider for this review.
    For the revised risk assessment, EPA is considering all relevant 
studies published since the 2001 Arsenic Regulation. We presented the 
draft cancer assessment to EPA's Science Advisory Board (SAB) in 
September 2005. EPA is considering the SAB's June 2007 final report \2\ 
and public comments as the Agency works to update and finalize the 
arsenic risk assessment.
---------------------------------------------------------------------------
    \2\ Available at http://yosemite.epa.gov/sab/sabproduct.nsf/
EADABBF40DED2A0885257308006741EF/$File/sab_07_008.pdf.
---------------------------------------------------------------------------
    Question. What conclusions has the EPA drawn from the two studies 
conducted by Dr. Steven Lamm and published by the NIH, which challenge 
the data from Taiwan used by EPA to establish the current standard?
    Answer. Dr. Lamm presented his findings to EPA's Science Advisory 
Board (SAB) in September 2005. And the SAB record of the arsenic 
advisory meetings, report development and public meetings \3\ contains 
Dr. Lamm's subsequent comments and responses (to SAB), representing his 
2003, 2005, and 2006 studies.\4\ The final 2007 SAB report \5\ directed 
EPA to identify criteria to evaluate all relevant human studies and 
include information on the factors that affect the risk estimates. EPA 
is considering the 2007 SAB report and public comments as the Agency 
works to update and finalize the arsenic risk assessment.
---------------------------------------------------------------------------
    \3\ Available at http://yosemite.epa.gov/sab/sabproduct.nsf/
WebProjectsbyNameBOARD!OpenView.
    \4\ Lamm SH, DM Byrd, MB Kruse, M Feinleib, and S-H Lai. (2003). 
Bladder Cancer and Aresnic Exposure: Differences in the Two Populations 
Enrolled in a Study in Southwest Taiwan. Biomedical and Environmental 
Sciences 16:355-368.
    Lamm SH and MB Kruse. (2005). Arsenic Ingestion and Bladder Cancer 
Mortality--What do the Dose-Response Relationships Suggest About 
Mechanism? Human and Ecological Risk Assessment, 11:433-450.
    Lamm SH, A Engel, CA Penn, R Chen, and M Feinleb. (2006). Arsenic 
Cancer Risk Confounder in Southwest Taiwan Data Set. Environmental 
Health Perspectives 114:1077-1082
    \5\ Available at http://yosemite.epa.gov/sab/sabproduct.nsf/
EADABBF40DED2A0885257308006741EF/$File/sab_07_008.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
               Questions Submitted by Senator Harry Reid

    Question. EPA's budget request only briefly mentions the 
environmental standards that the Agency is required by statute to 
develop for the proposed Yucca Mountain Project. In 2004, a Federal 
Court of Appeals rejected the EPA's original standards. Over three 
years later, EPA still has not promulgated final radiation standards. 
When will EPA release its final standards?
    Answer. The radiation standard for Yucca Mountain has not yet been 
determined and is the subject of ongoing rulemaking proceedings. There 
are many complex issues involved in establishing regulations applicable 
for up to one million years that make it difficult to predict when 
these rulemaking proceedings will conclude. EPA continues to review 
public comments on its proposed rule and participate in the interagency 
review process pursuant to Executive Order 12866. Accordingly, EPA is 
not in a position to state when its final rule will be promulgated.
    Question. What is EPA's reason for not finalizing the radiation 
standards?
    Answer. The radiation standard for Yucca Mountain has not yet been 
determined and is the subject of ongoing rulemaking proceedings. There 
are many complex issues involved in establishing regulations applicable 
for up to one million years that make it difficult to predict when 
these rulemaking proceedings will conclude.
    Question. Where is the EPA's final radiation standard in the 
rulemaking process?
    Answer. EPA continues to review public comments on its proposed 
rule and participate in the interagency review process pursuant to 
Executive Order 12866. Accordingly, EPA is not in a position to state 
when its final rule will be promulgated.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. Well, let me sum up by saying, this is a 
very unhappy budget, and we'll have to consult among ourselves, 
and come up with a course of action.
    I thank you very much. The subcommittee will stand in 
recess.
    [Whereupon, at 11:55 a.m., Tuesday, March 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Domenici, Bennett, Craig, 
Allard, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF HON. MARK E. REY, UNDER SECRETARY FOR 
            NATURAL RESOURCES AND ENVIRONMENT, 
            DEPARTMENT OF AGRICULTURE
ACCOMPANIED BY:
        ABIGAIL KIMBELL, CHIEF, FOREST SERVICE
        LENISE LAGO, BUDGET DIRECTOR, FOREST SERVICE

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The subcommittee's oversight hearing on 
the administration's fiscal year 2009 budget request for the 
Forest Service will come to order.
    I would like to welcome Mark Rey, the Under Secretary of 
Natural Resources and Environment at the USDA, and Forest 
Service Chief Gail Kimbell. They are accompanied by Lenise 
Lago, the Budget Director for the Forest Service. Thank you, 
three of you, for joining us, and we look forward to hearing 
your testimony.
    Because the Forest Service manages 20 percent of the land 
in my State, California, this agency and its budget are 
incredibly important to the State from an environmental 
protection, recreation, and public safety perspective. Keeping 
that in mind, I would like to note that overall the 
administration's request totals $4,109,000,000. Now, that's a 
cut of $379 million. Now, that's a full 8 percent from the 2008 
level. In reality, though, the cuts are much deeper.
    If you factor in the $77 million needed to fund fixed 
increases, and the $148 million needed to increase needed to 
cover the 10-year fire suppression average, and the Forest 
Service budget is $600 million less than what is needed just to 
do that, bottom line here is that under the administration's 
proposal, the way we look at it, the Forest Service is being 
cut nearly 15 percent.
    I might say for me, and what we look at as the future in my 
State, that's unacceptable.
    Specifically, firefighter readiness is cut 13 percent; 
hazardous fuels reduction work is cut 4 percent; Law 
Enforcement programs are cut 12 percent; capital improvement 
and maintenance programs are cut 14 percent; recreation 
programs are cut 8 percent; and research programs are cut 10 
percent.
    I don't know how anyone could really consider this a 
serious budget proposal, so rather than take time here to go 
through the budget line by line, let me say for the record that 
I hope to work with my distinguished ranking member, Senator 
Allard, and the other members of the committee, including 
Senator Domenici, who has had such a long-standing interest in 
this. The three of us all come from States that are critically 
affected by this budget.
    I hope we can undo these cuts, and I hope we can restore 
the Forest Service budget to a reasonable level.
    I'd like in my questions to talk about what progress the 
agency is making on Lake Tahoe restoration; what's happening 
with respect to firefighter retention, particularly in the 
southern California effort, and what can be done to overcome 
the challenge of implementing the Quincy Library Group pilot 
project. Those are three big issues in my State, and, as you 
know, a Governor's commission has just found that the three 
forests adjoining Lake Tahoe are in immediate threat of 
catastrophic fire. So we have big problems.
    I would like to turn to our distinguished ranking member, 
Senator Allard, for any opening remarks he might care to make.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman. I agree with 
many of your comments that you made. I would also like to just 
take this opportunity and welcome the Under Secretary for 
Natural Resources and Environment, Mark Rey, and the Chief of 
the Forest Service, Gail Kimbell, to the subcommittee today.
    I hate to get too sour about this budget but to tell you 
that I do feel that is a budget that has me very deeply 
concerned. The proposed fiscal year 2009 budget for the Forest 
Service is more troublesome to me than any other in the bill, 
and my record on fiscal restraint I think is pretty clear; 
however, I believe the proposed reductions in the Forest 
Service just simply are not justified.
    We're facing a forest health crisis in this country unlike 
anything I've ever seen in my lifetime; however, your budget 
proposes to reduce the forest health programs of the agency by 
nearly half. The issue, of course, health, is very personal to 
me and to my constituents. We have a pine beetle epidemic in 
Colorado that is beyond description. You simply have to see it 
with your own eyes to understand the magnitude of the 
devastation.
    Experts say that within 5 years all of Colorado's remaining 
lodgepole pine forests could be wiped out--that's 6 million 
acres--over the next 5 years. I simply can't support a budget 
that slashes support for programs that address these problems.
    Mark, I appreciate that you have agreed to testify at a 
field hearing in Colorado that this subcommittee will hold in 
May on the pine beetle epidemic, and I hope that we can come up 
with some better strategies for dealing with the forest health 
problem than those that are reflected in this budget.
    Other proposed cuts in the agency's budget are similarly 
without merit to me. For example, the Fire Preparedness is cut 
by $77 million. The real cut in terms of program delivery is 
actually $88 million because you have not provided for 
mandatory salary increases and other fixed costs that must be 
paid.
    With fire seasons becoming worse each year, I can't 
understand why we would reduce the funds that go to train and 
equip our firefighters. This will lower the agency's initial 
attack capability and lead to more catastrophic fires. It is 
essential that we have a robust initial attack capability to 
catch fires when they are small so that they don't escape 
containment and become the catastrophic fires that we see on 
the nightly news every summer. It is these large fires that end 
up consuming the lion's share of the fire budget. In my view, 
reducing the preparedness budget will ultimately increase 
costs.
    I also don't understand why your budget documents how you 
can cut fire preparedness by 13 percent, yet claim that through 
efficiencies you will maintain the same number of firefighters, 
hot shot crews, and engines in the field. I'm all for 
efficiency, but I've watched firefighting costs skyrocket over 
the last few years. So forgive me if I am a bit skeptical and 
you've suddenly found this level of efficiency in your 
operations.
    I could go on with the litany of all of the cuts in this 
budget that I find objectionable, but I won't take up the 
committee's time. To me, the crux of the problem with the 
Forest Service budget boils down to this: There is a 
fundamental difference in the way that the Office of Management 
and Budget treats the Forest Service compared to other land 
management agencies at the Department of the Interior.
    The Bureau of Land Management, the Fish and Wildlife 
Service, the National Park Service are not singled out 
consistently for dramatic cuts each year as the Forest Service 
continues to be. I believe this disparate treatment is 
explained by the fact that as the tenure average for the Forest 
Service firefighting program rises, this year by $148 million, 
OMB has taken the position that these costs must be borne on 
the back of the agency's other programs.
    Apparently, OMB believes that this will provide incentives 
for the agency to reduce its firefighting costs, and I, 
fundamentally, disagree with this approach. No one would 
disagree that the Forest Service fire program could also strive 
to maintain costs, but escalating costs shouldn't come at the 
expense of the agency's other programs.
    Indeed, many of these increasing costs can be traced to 
issues that are beyond the control of the agency: More 
development adjacent to Forest Service lands, persistent 
drought in the West, forest health programs like the pine 
beetle that have reduced entire forests to tinderboxes and the 
lack of active forest management caused by endless lawsuits.
    Perhaps even more troubling is that OMB slashing of other 
agency programs to fund firefighting has led to many well-
intentioned, but in my view misguided, proposals in Congress to 
move parts of the fire program off budget. As an appropriator 
and as a fiscal conservative, I find these proposals 
unacceptable. Moving parts of the fire program off budget is 
tantamount to giving the agency a blank check which will lead 
to abuses and take away any incentive to control costs. There 
is no reason that the fire program can't be provided with the 
funds it needs each year on budget, and the other Forest 
Service programs be provided with the funds that are necessary 
to run effectively.
    Forgive the pun, but I believe it is critical that we, as 
the Appropriations Committee, hold the agency's feet to the 
fire each year to justify their requests for firefighting and 
be ever vigilant about containing costs.
    I noticed with some interest last week an article in The 
Washington Post, about a GAO study which is analyzing whether 
the Forest Service should be moved from the Department of 
Agriculture to the Department of the Interior. While I have not 
had the opportunity to fully consider the implications of such 
a reorganization, when I look at the unequal treatment of the 
Forest Service compared to the Department of the Interior, then 
when it comes to the budget, it makes me wonder whether such a 
move might be worth some serious thought.
    Thank you for joining us. I look forward to listening to 
your testimony and asking you some questions later in the 
hearing. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much for that, Senator 
Allard.
    The committee will follow the early-bird rule, and we will 
go to 7-minute rounds of questions when the time comes. The 
next person up is the distinguished Senator from New Mexico.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Madam Chairman. This 
can be my opening statement, not questions, right?
    Senator Feinstein. It's your opening statement, if you 
wish.
    Senator Domenici. Thank you.
    I have two issues that I want to bring up. There are many 
others, and I thought that these two were very important:
    First of all, we all know that the cost of wildland 
firefighting is consuming too much of our Forest Service's 
discretionary budget, and it's likely to get worse. We know 
that dealing with environmental documentation, appeals and 
litigation is stopping hazardous fuels cleanup in many areas, 
work which could reduce the intensity of fires and reduce the 
cost of fighting these fires. I believe these problems have to 
be dealt with. Failing to do so will only hasten the day when 
our national forests become a wasteland, and no one will be 
proud of them.
    We have also failed, and we have also allowed the job of 
our Federal firefighters to expand into areas where they never 
were meant to deal with. I guess when I said one, I have three. 
I just gave you one, that we have to address the issues of 
documentation and appeals. You all know what that's doing; 
that's adding 1 full year minimum, sometimes 2 or 3, to any 
activity going into an area that has been burned to see what 
you can do to clean up and revitalize the forest.
    We ought to be bold and just change that, and just a few 
words would fix it where they couldn't use this process. This 
process is being abused.
    My second position has to do with something that has 
happened to us where, over time, we are letting our Federal 
firefighters move into areas that they were never meant to deal 
with. We send a significant number of personnel on emergencies 
like cleaning up after major disasters, and now it seems that 
we may be turning our firefighters into first responders for 
traffic accidents.
    That may be going on, Madam Chair, in the State of 
California. All of these efforts are laudable, but all of them 
cost money, and I would urge that this committee review this 
mission creep and refuse to let it continue by refocusing the 
job of wildland firefighting back into the primary mission. I 
don't know how much that would be, but it would be some, and, 
certainly, what I have just described is right and fair.
    In our efforts to ensure the highest standards of safety, 
we impose reporting and training requirements. My third point 
has to do with training requirements. Our actions have 
unintended consequences. We imposed additional training 
requirements, and the agency has been attempting to provide 
that training.
    But the Office of Personnel Management, Madam Chairperson, 
is not questioning whether the additional training is 
acceptable and wants it to be provided as part of an accredited 
college curriculum. Confusion between OPM and the Forest 
Service human resources specialists is causing people who have 
invested time and money to give up applying for positions in 
fire because no one knows which courses are acceptable to the 
OPM.
    The result is that we are on the cusp of having several 
hundred highly trained and experienced wildland firefighters 
quit because they feel that the rules have been changed 
unfairly. Thus, we may be filling key positions with recent 
college graduates who have little or no real wildland fire 
experience, but who have the sheepskin being demanded by the 
OPM. I hope this committee will step forward and keep this from 
happening.
    Madam Chairman, I would have liked to have spoken about 
some of the funding requests in this budget that concern New 
Mexicans and myself, but they pale in comparison with the need 
for the committee and Forest Service to deal with wildland 
fires and wildland firefighters.
    Thank you for the opportunity, and, hopefully, we can work 
together on this problem.
    Senator Feinstein. Thank you very much, Senator Domenici.
    The order is Senators Alexander, Craig, and Bennett, and no 
one need feel compelled to make an opening statement if you 
don't choose to do so.
    Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Madam Chairman. I will try to 
make a succinct opening statement.
    Number one, Mr. Rey, I want to thank you for making, as a 
priority, an additional $4 million in Federal funding for the 
acquisition of Rocky Fork in Eastern Tennessee.
    That's a very important project. There's broad support for 
that, and the Federal Government's role in that is a big help, 
and there may need to be some discussion in order to make it 
all work; to discuss something I usually don't support, but 
which would be to do some land swap of less desirable Forest 
Service land in order to get the 10,000 acres of Rocky Fork. 
I'm not ready to propose that at the moment, but we would only 
do that in conjunction with the conservation fund and other 
environmental groups that are involved in this and make sure 
that it was a big net plus in terms of conservation environment 
and Forest Service protected property.
    So I just wanted to make you aware of that, and thank you 
for making that a priority.
    Second, I'm interested in your comments today on what's 
already been discussed about fire protection, and the other 
functions in the Forest Service. We don't want to just make the 
Forest Service into a fire service, as important as the fire 
service projects are.
    Senator Allard has spoken eloquently about how he thinks 
that should be done. I would like to hear from you, perhaps, 
during your testimony about whether we ought to separate a fire 
suppression service into a separate account, or separate 
budget, or separate agency even, so that we don't continue to 
run the risk of damaging the traditional functions of the 
Forest Service by taking money away for fighting fires.
    The Forest Service superintendents in Tennessee say the 
increase in fire suppression funding at the expense of Forest 
Service operations and programs is one of the biggest problems 
they face. So, if you could in your testimony talk about some 
of the pros and cons of separating the functions or 
consolidating them, I'd be very interested in that. Thank you 
for being here.
    Senator Feinstein. Senator Craig, I think you're the next 
up.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Madam Chairman, it isn't by accident that 
Western Senators and even a Southern Senator is focused on 
fire, and fire suppression with the Forest Service and our 
chief today. It is without question a front issue to all of us 
in public land States and large forest States who have gone 
through the last decade of a fire scenario that ramps up on an 
annual basis, Chief, and a real concern, not only about the 
actual fires themselves.
    But, as I have lamented in working with Mark Rey over the 
years, and as Senator Alexander just lamented, the old style of 
funding fires doesn't work anymore because you don't have cash 
flow. That went out the door with the green sales a decade ago, 
and you are now an agency that, in my opinion--and I say it 
rather publicly--is bankrupt: bankrupt on the standards and the 
payments and the cash flows of a century of green sales, and a 
timber program that largely doesn't exist today in a comparable 
way to two decades ago, which then means that if you're still 
borrowing from accounts that do all these other things, and we 
are not replacing the money, those accounts go wanting. The 
true needs of the management on the ground of our Forest 
Service goes wanting, and in my opinion, that's happening.
    Last week, I met with the supervisor of the Sawtooth for a 
variety of reasons. It was kind of a typical exchange between a 
policymaker and an agency head as to how we manage and what we 
do. We talked about bighorn sheep and how you manage those with 
domestic lifestock grazing. Forest Service letters actually 
said a decade ago: We want to put sheep in where they once 
existed, but they in no way will conflict with domestic 
grazing.
    Now that the sheep are there, we're kicking the domestic 
grazers off the land through court action and indecision on the 
part of the Forest Service. It just so happens on the Sawtooth, 
they probably got it under control, because they haven't been 
sued yet, and they're trying in a proactive way to avoid these 
interrelationships between domestic livestock and wildlife, and 
I hope it works.
    But I can't imagine that when you have a tradition of 
public grazing, and you write a letter and you make it policy 
that we will in no way displace the domestic sheep, but we want 
to try this experimentally. Then the experiment works. In come 
the lawsuits and out go the domestic sheep, and down goes a 
couple of ranchers, and down goes the economy in local 
communities because of a public policy not effectively managed 
by the Forest Service.
    We also talked about something that is very typical of 
wildland firefighting that Senator Domenici talked about, that 
Lamar has talked about. As you know, in the Castle Rock fire 
last year out in Idaho, we had an unprecedented situation. 
Large wildfire started on our public land, started on the 
Forest Service land, and ultimately threatened the Sun Valley, 
Ketchum area, the grand old ski resort known as Sun Valley 
worldwide. We fought and you fought, and you had your best 
people in there to save that community, and so did we.
    Now, the fire started on your land. The fire then moved to 
threaten private property, and we are now negotiating a $5 
million fire bill with the city of Ketchum. You know, it's 
awfully hard for me to understand when we don't manage the 
public land and the public land threatens private property, 
then we bill the private landowner.
    Now, there's going to be a lot of negotiation going on 
between State and community and the Forest Service, and I'm 
going to hold my tongue for a time. But it is typical of the 
situation we now find ourselves in, and that is that you, the 
Forest Service, are spending more time protecting private 
property than you are saving natural resource watershed 
wildlife habitat in this wildfire scenario.
    Of the 10 million acres last year that burned, 2 of them 
were in Idaho, and our skies were full of smoke all summer, and 
our air quality was dramatically lessened. The beautiful, clear 
blue skies of our State were gray and smoky all summer. You 
were violating clean airspace and clean air everywhere you 
went, and I'm always appalled that we slap the private sector 
when they damage air quality, but we say the public sector, 
when it damages air quality, is simply a natural event. That 
gets my ire up a little bit when we just oh-ho-hum, as a public 
attitude--you don't, and I'm not suggesting you do.
    Madam Chairman, I have questioned the Forest Service before 
the Energy and Natural Resources Committee, and the last time 
we visited was a month ago. As of December 1, 2007, we've had 
28 mill closures across the United States. Since we visited, 
I've lost another mill, 60 employees down, won't come back. 
They're going to tear it down.
    They had planned to take it down in a couple of years, but 
the timber issue is so bad that I don't know that you've let a 
sale, or there's been a successful sale of timber in Idaho off 
the public lands yet in 2008, and this mill is now down not to 
come back. They say it won't come back to the market for at 
least 2 years, more than likely, based on inventory both of 
logs in yard and dimensional in yard.
    My point is, we struggle to fund our country schools and 
the Craig-Wyden bill hasn't been fully funded. We have hundreds 
of school districts across the United States whose budgets are 
being cut anywhere from a quarter to a third with no way of 
raising new dollars. Now we have a flat timber market; even the 
best expectations that we all might have for some slight 
increases may well go out the window. It's very hard to come to 
a Congress today that's so dramatically in deficit and try to 
find the kind of money we need for these thousands of schools 
districts.
    Well, Madam Chair, tough issues with an agency that I know 
that the parties in front of us, both the Chief and the Deputy 
Secretary worked awfully hard at making work, but I think I 
agree with Senator Alexander. I know that Mark Rey and I have 
had those conversations.
    We've got to think out of the box about new methods of 
funding fire and doing a lot of other things, because, in my 
opinion, you're broke. You no longer have a cash flow. You have 
to come begging before the general fund, a grand old agency 
that used to fund itself and have surplus money that it put 
into the general fund is today in a very different environment 
than it was simply a decade ago.
    Thank you.
    Senator Feinstein. Thank you very much, Senator Craig.
    I don't see Senator Bennett, but if he comes back we'll 
allow him some time, and I'd like to begin with Mr. Rey now for 
his testimony, and then the Forest Service.
    How long do you believe you need, Mr. Rey?
    Mr. Rey. Oh, I think that----
    Senator Feinstein. I beg your pardon?
    Mr. Rey [continuing]. I can be done in the usual 5 minutes.
    Senator Feinstein. That would be excellent if we could do 
that. I think for this hearing the questions, really, are the 
most beneficial, so thank you very much.
    Mr. Rey. Sure, and I will summarize for the record----
    Senator Feinstein. If we could begin the clocks, please. 
Thank you.

                 SUMMARY STATEMENT OF HON. MARK E. REY

    Mr. Rey. What I'll touch on in my testimony is three 
issues: First the Wildland fire programs and management 
reforms; second, the proposal for reauthorization of the Secure 
Rural Schools legislation; and, third, the State and Private 
Forestry programs.
    The 2009 budget proposes a total of $1.97 billion for 
Wildland Fire Management programs, including $994 million for 
suppression, $588 million for preparedness, and $297 million 
for hazardous fuels.
    Senator Feinstein. Could you speak up, please? I think your 
mike's on, it's just hard to hear you.
    Mr. Rey. I'm not sure that the mike is live, actually. Is 
it?
    Senator Feinstein. It's working.
    Mr. Rey. Okay.
    Senator Feinstein. We need you to----
    Mr. Rey. I'll try to get in to it closer.
    Senator Feinstein. Maybe because it's a bad budget, you 
don't want to speak too loudly.
    Mr. Rey. I'm speaking softly.
    Additionally, the Forest Service is adopting significant 
management reforms to ensure equitable fire suppression cost-
sharing between Federal and other firefighting entities. We are 
fully implementing the Risk Informed Appropriate Management 
Response and an acting cost-containment accountability 
throughout the Wildland Fire program.
    Despite having more fires in 2007 than we did in 2006 and a 
49 percent increase in acres burned, the cost of suppressing 
fires was $127 million lower in 2007 due to aggressive 
implementation of appropriate management response and other 
cost-containment measures.
    In southern California, you may recall that when we 
testified on December 13, we compared our experiences in the 
2007 southern California fire season with our experiences in 
the 2003 season, noting that in almost every available index 
our performance was superior in 2007 even given more dire 
circumstances.
    We have recently completed a draft of the annual report for 
the Fire and Aviation Management program, and I will submit 
that for the record.
    [The information follows:]

  Draft Fire and Aviation Management Year Review--Fiscal Year 2007 \1\
---------------------------------------------------------------------------

    \1\ The U. S. Department of Agriculture (USDA) prohibits 
discrimination in all its programs and activities on the basis of race, 
color, national origin, age, disability, and where applicable, sex, 
marital status, familial status, parental status, religion, sexual 
orientation, genetic information, political beliefs, reprisal, or 
because all or part of an individual's income is derived from any 
public assistance program. (Not all prohibited bases apply to all 
programs). Persons with disabilities who require alternative means for 
communication of program information (Braille, large print, audiotape, 
etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and 
TDD). To file a complaint of discrimination, write USDA, Direct, Office 
of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 
20250-9410, or call (800) 795-3272 (voice) or (202) 720-6382 (TDD), 
USDA is an equal opportunity provider and employer.
---------------------------------------------------------------------------

                    Letter From Director Tom Harbour

    The greatest accomplishment of fiscal year 2007 was being safe and 
successful. Human safety is, and always will be, our first priority as 
we strive to protect and manage the public lands entrusted to us. I am 
thankful every day that in 2007 we have not had to mourn the loss of 
any Forest Service firefighters on the fireline. We, in the Fire and 
Aviation Management program, have faced many challenges this year and 
made measurable accomplishments. We are strategically preparing for the 
years to come.
    Fire and Aviation Management is at a crossroads. Critical analysis 
of the program's function and purpose over the past 10 years has led to 
various documents, policies, management reviews and the integration of 
fire with ecosystem management. As the agency looks forward to the next 
decade, Fire and Aviation Management must significantly increase 
efficiency, manage organizational structure and lead the charge to 
improve land conditions.
    We are continually challenged by the growth of communities into 
previous wildland areas--80 percent of our population lives in urban 
environments; and as the Chief has pointed out, they need to understand 
the connection of natural resources to their homes and communities, as 
well as the effects of climate change, the importance of protecting 
water resources and of maintaining healthy forests. Fires are a natural 
part of forested landscapes; but each year, wildfires come earlier and 
last longer. Fires burn hotter and bigger; they have become more 
damaging and dangerous to people and property.
    As wildfires and their associated risks increase, controlling the 
cost of fighting wildland fire continues to be one of our greatest 
challenges. Gone are the days of ``throwing everything but the kitchen 
sink'' at each and every fire. We are making the transition from 
``overwhelming mass'' applied to every fire to using the doctrinal 
approach of speed, agility and focus. Make no mistake, I am not 
suggesting that overwhelming mass will cease to be an objective for 
some fires, but I am suggesting that a variety of wildland and 
prescribed fire will benefit from the application of a doctrine which 
considers speed, agility and focus.
    To accomplish this transition, we and our interagency partners have 
adopted management efficiencies, focused on wildfires, which were 
categorized into the areas of Leadership, Operations and Management. 
These management efficiencies were practiced with some great success 
during the 2007 fire season--realizing a savings of approximately $200 
million. This, coupled with the doctrinal approach to wildland 
firefighting, will allow us to create an organization guided by well-
stated doctrinal principles which represent the reality of the work, 
the environment and our mission.
    Finally, the basis for our accomplishment is anchored in people. 
Partnerships among Federal, State, tribal, and local firefighting 
agencies continue to expand and improve the efficiency and 
effectiveness of wildland fire management across agencies and 
boundaries. We need to incessantly build a strong, well-trained 
workforce who can teach others, think and react to the future in a 
professional, trustworthy manner, and always, with integrity.
    As public servants, we are accountable to those who trust we will 
do our jobs and do them prudently, professionally and effectively, in 
collaboration with our other Federal, State, tribal, and local 
partners. This publication is intended to be a reflection of the year 
past--a report card of sort, which will detail some of the challenges 
we've faced, as well as our accomplishments and successes. It will be 
centered on certain ``themes,''--the goals identified in our National 
Fire and Aviation Strategic Plan which ties back to the Forest Service 
Strategic Plan. Those goals include: technology and science; protection 
of life, property, natural and cultural resources; hazardous fuels and 
restoration; community assistance; effective communications; and 
promoting workforce capacity and diversity. We recognize our future is 
decided with people and that having strategic goals and a doctrinal 
approach to managing wildland fire is vital. We will continue to work 
toward those goals.
    The challenges are many; but with our talented, dedicated employees 
and the support of our partners, we will continue to progress. I look 
forward to working together to meet the challenges in the years ahead.
                                               Tom Harbour,
                                                          Director.

                  Part I.--2007 Fire Season Discussion

    Agency suppression expenditures have increased in recent years due 
to the effects of the wildland urban interface and climatic and 
ecological changes. As a result, protection of life, property and 
natural resources from wildland fire has become more complex, demanding 
and expensive.
    In fiscal year 2007, the Forest Service continued implementation of 
an aggressive hazardous fuel reduction program, accelerated the use of 
risk-informed management, initiated operational efficiencies and 
adopted rigorous management controls. More specifically, these actions 
included:
  --focus on hazardous fuels treatments in wildland urban interface 
        areas and in fire-adapted ecosystems that present the greatest 
        opportunity for restoration;
  --accelerated development and deployment of decision tools similar to 
        the Wildland Fire Decision Support System (WFDSS) to support 
        risk-informed incident management;
  --implemented operational efficiencies such as management of national 
        and critical resources for maximum flexibility and expanded the 
        use of Exclusive Use aviation contracts; and
  --the execution of management controls akin to the establishment of 
        the Inter-Deputy Group, the Chief Principle Representative, the 
        Line Officer certification process for incident management, and 
        the enhancement of fiscal monitoring and oversight.
    Fire and Aviation Management (FAM) has worked aggressively with 
other agency programs and cooperators to implement these strategies and 
manage suppression expenditures. These actions resulted in 
significantly lower suppression expenditures than would have occurred 
under previously implemented strategies.
Fire Suppression Expenditure Forecast
    Fire and Aviation Management utilizes a model developed by the 
Rocky Mountain Research Station to forecast fiscal year fire 
suppression expenditures. The model has been used since fiscal year 
1998 and relies on Predictive Services' forecasts, historical and 
current year-to-date expenditures to estimate future expenditures. A 
2005 analysis indicated this respective model does extremely well 
forecasting suppression expenditures. The fiscal year 2007 August 
forecast indicated a range of Forest Service expenditures from $1.4 to 
$1.75 billion with a median forecast of $1.57 million. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Forest Service expended $1.37 billion at the conclusion of 
fiscal year 2007--below the 1 percent probability forecast of $1.4 
billion and $200 million below the median forecast of $1.57 billion, 
achieving the agency's projected $200 million of savings in fiscal year 
2007. The savings were realized as a direct result of the agency's 
aggressive implementation of risk-informed management, operational 
efficiencies and management controls.
Fiscal Year 2007 Wildland Fire Management Appropriation Highlights
    In February 2007, the President signed the Revised Continuing 
Appropriations Resolution, 2007 (Public Law 110-5), which included 
funding for the Forest Service through September 30, 2007. The full-
year Continuing Resolution sustained all requirements, authorities, 
conditions, limitations and other provisions of the fiscal year 2006 
Appropriations Act with the exception of emergency funding. The act 
also stripped all earmarks from bill and report language.
    The full-year Continuing Resolution included specific amounts for 
Wildland Fire plus an additional amount for pay-costs--the total 
Wildland Fire appropriation was approximately $1.82 billion. In May 
2007, an Emergency Supplemental (Public Law 110-28) authorized $370 
million for Fire Suppression bringing the total available Wildland Fire 
funds to $2.29 billion. There were several other notable changes from 
fiscal year 2006:
  --Total funds for Preparedness increased by $5 million. Regional 
        allocations were increased $29 million to ensure readiness 
        capability was commensurate with congressional intent.
  --Funds for Hazardous Fuels increased by $21 million. Regional 
        allocations increased $14 million. These numbers do not reflect 
        funds from other programs or appropriations. The agency also 
        initiated use of a newly developed risk based allocation 
        process.
  --Total funds for Suppression Operations increased by $51 million. 
        This increase was based on the inflation-adjusted 10-year 
        moving average of suppression expenditures. An Agency Severity 
        fund limitation of $35 million was established which included 
        regional limitations.
  --The remaining funds for all other Wildland Fire accounts remained 
        relatively constant.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Wildland Fire Management represented 42.1 percent of the Forest 
Service's Discretionary budget in fiscal year 2007--a significant 
portion and a 1.4 percent increase over fiscal year 2006. The agency 
expended $1.374 billion on fire suppression in fiscal year 2007, 
necessitating a $100 million transfer of funds from other program 
areas.
    Fire and Aviation Management aggressively pursued budget planning 
strategies to enhance efficiency and cost effectiveness through risk-
informed allocation of preparedness resources (Fire Program Analysis), 
alternative methods of funding suppression activities (Fire 
Partitioning), risk-informed prioritization of hazardous fuel 
treatments (Ecosystem Management Decision Support), and prioritization 
of funds to States (State and Private Forestry Re-Design).

                    Part II.--Major Accomplishments

                                OVERVIEW

    Fiscal year 2007 started where 2006 left off with a volatile, 
active fire season in southern California that extended well into the 
winter months. Predictive Services forecasted significant wildland fire 
potential throughout the 2007 season. Critical conditions influencing 
the wildland fire outlook were:
  --drought conditions expanding and intensifying across large portions 
        of the West and Southeast;
  --low snow pack, warmer-than-normal forecasted temperatures and 
        earlier snow melt over most of the West--likely to dry out 
        timber fuels and cause an early onset of fire season in some 
        areas;
  --the abundance of new and carryover fine fuels expected to green up 
        and cure early, leading to an active, prolonged grassland fire 
        season; and
  --a hotter than normal summer was projected for the West.
    These projections were realized early in the season when by the end 
of June 2007, drought and high temperatures resulted in wildfires 
burning of over 1.1 million acres in the southern area and more than 
161,000 acres in the eastern area of the United States and Canada. 
Preparedness Level 5 was declared on July 19, 2007, with 61 active 
large fires occurring across 9 geographic zones.
    For the 2007 fire season, the Forest Service secured firefighting 
forces comparable to those available during the 2006 season and added 
two interagency National Incident Management Organization (NIMO) teams 
ready to respond to wildland fire incidents.
    Escalating fire suppression costs continued to be a concern, as the 
wildland fire seasons in recent years have generally lasted longer and 
acreage figures have grown. In fiscal year 2007, the Wildland Fire 
Management Appropriation represented 42.1 percent of the Agency's 
Discretionary budget--a 1.4 percent increase over 2006.
    Over the past several years, various studies and assessments 
dedicated to fire suppression costs have been conducted. As a result of 
these reviews, several hundred recommendations were made. Fire and 
Aviation Management has taken those recommendations seriously; and this 
year, aggressively pursued cost efficiency and management strategies to 
enhance the efficiency and cost effectiveness of fighting fire. 
Management efficiencies were adopted that included cost control 
measures focused on leadership, operations, and aviation and general 
management practices. The implementation of these management 
efficiencies proved effective during the 2007 season, and their 
components and successes are discussed in further detail throughout 
this report.
The Successes
    Throughout the season, incident managers adopted risk-informed 
strategies to manage wildfires within the context of the geographic and 
national situation. They implemented long-term plans with established 
primary protection objectives, strategies and tactics to achieve those 
objectives in an efficient, effective manner within the limits dictated 
by individual fires. The Forest Service realized great successes in the 
areas of aviation efficiencies and contracting, hazardous fuels 
treatments--exceeding 3 million acres treated this year across 
boundaries, partnership accomplishments, international cooperation and 
input into the National Response Plan. Those endeavors are detailed in 
the sections that follow. As always, collaboration is expected. Other 
Federal, tribal, State, and local partners continue to be an integral, 
vital part of the Forest Service success in meeting the expectations of 
Congress, as well as those of the American people.

                  MANAGEMENT CONTROLS AND EFFICIENCIES

    Management efficiencies are the cost control measures focused on 
leadership, operations, aviation and general management practices. 
These efficiencies were developed after numerous reviews and 
evaluations centered round fire suppression and large fire costs were 
conducted by independent, outside sources and other Federal regulatory 
agencies. More than 300 recommendations were generated from these 
reviews. These suggestions were integrated into the current management 
efficiencies--a number were implemented in 2007 with good success, 
others will be implemented over the long term. When fully implemented 
they will serve to ensure the following:
  --Clear, concise understanding of Appropriate Management Response 
        (AMR) or choosing the best suppression strategy for the 
        resources and values at risk (Policy Transition to Risk-
        Informed Management).
  --Expanded knowledge, skills and abilities for agency administrators 
        responsible for managing large or nationally significant fires 
        (Line Officer Certification).
  --Increased oversight from the Regional and Washington offices on 
        incidents of national significance (Chief Principle 
        Representative).
  --Increased support in support of the agency administrator in the 
        development and implementation of decisions (Fire Suppression 
        Decision Support).
  --Severity funds are used within limits (Severity Authorization 
        Limitations).
  --Monitor expenditures and provide oversight on total cost of each 
        incident.
  --Critical, high demand resources such as Type 1 firefighting crews, 
        helicopters and heavy air tankers are managed in a more 
        centralized fashion to achieve more flexibility (National 
        Shared Resources).
  --Revision of the current aviation strategy ensuring the safe, 
        financially prudent use of firefighting aircraft (Aviation 
        Resource Cost Management).
    This segment of the report will strive to describe each of the 
management efficiencies implemented in 2007 and some of the success 
experienced by each.

Stratified Cost Index--Performance Measure for Large Fire Suppression 
        Costs
    Due to growing fire suppression costs and the lack of a 
quantifiable performance measure for suppression expenditures, 
congressional appropriation language in 2005 directed the Forest 
Service, in collaboration with the Department of the Interior, to 
develop an interim performance measure for suppression expenditures and 
to begin reporting on this measure in fiscal year 2006.
    The interim performance measure called for by Congress was a 
stratified cost index (SCI), originally specified in the appropriation 
language as cost per acre/energy release component. After discussions 
between the Forest Service, Department of the Interior representatives 
and economists at the Rocky Mountain Research Station (RMRS), the 
decision was made that the SCI would assess a variety of factors 
influencing suppression expenditures, rather than focusing solely on 
energy release component.
    Built using data over the past 10 years of nearly 2,000 large--
greater than 300 acres, Forest Service wildfires, the SCI calculates 
the expected suppression cost of a large fire considering each specific 
fire's characteristics. The cost calculated by SCI is subsequently 
compared to actual suppression expenditures.
    SCI was incorporated into the Wildland Fire Decision Support System 
(WFDSS) process during the 2007 fire season. Problems were encountered 
when SCI considers complexes--or multiple fires, because part of what 
the model uses is the ignition point. When you have a complex of fires, 
rather than a single fire, SCI loses that part of the equation. FAM is 
reviewing how to deal with complexes from both the management and data 
standpoint. Additionally, the incorporation of SCI in WFDSS created 
some concerns considering that the spatial data used for SCI is limited 
in history.

The Success
    Although refinement of SCI is needed, its use this season assisted 
agency administrators and the Chief's Principle Representatives with 
evaluating current costs of fires as compared to past fires with 
similar fuel types and ignition sources. SCI allowed officials to 
better evaluate the tactics and strategies from an historical cost data 
viewpoint as compared to today's costs. From that data, officials were 
able to see if the proposed approach was comparable. If the costs were 
higher, SCI afforded them the ability to determine the reasons.
    The Rocky Mountain Research Station is in the process of evaluating 
the SCI model and will provide Forest Service leadership feedback after 
a sensitivity analysis of the model concerning the use of ignition 
point.

                      FEDERAL WILDLAND FIRE POLICY

    Federal Wildland Fire policy has changed greatly since 1935 when 
the agency instituted the ``10 a.m. Policy,'' under which all new fires 
were to be controlled by midmorning on the day after they were 
reported. Existing policy gives Federal fire managers a high degree of 
flexibility in managing wildland fire. Current implementation direction 
requires that fire managers apply an Appropriate Management Response 
(AMR) to every wildland fire event, allowing a common sense approach to 
the management of a fire by applying fire management resources at 
places and times where they can be effective and efficient. Beginning 
with the initial response and continuing throughout the incident, all 
decisions consider firefighter and public health and safety, fire 
cause, current and predicted weather and fire behavior, fire effects, 
values to be protected from fire, management priorities, resource 
availability, cumulative effects of the fire, and cost effectiveness.
    In 2007, Forest Service regions applied flexibility afforded by 
Federal Wildland Fire Policy to develop and implement wildland fire 
responses commensurate with availability of firefighting resources, 
protection and resource objectives, coupled with the probability of 
success. Regional application of the appropriate management response 
concept freed up firefighting resources for initial attack and focused 
fire management efforts on critical portions of wildland fire 
incidents.

Wildland Fire Decision Support System (WFDSS) Tools
    Recently, new tools were developed to assist fire managers and 
agency administrators in making decisions regarding strategies and 
tactics on wildland fires. The use of these tools has the potential to 
improve the understanding of wildland fire decisions and the rationale 
behind them. This year, they were available for priority fires.

WSDSS--Fire Spread Probability Model (FSPro)
    WFDSS-FSPro is a spatial model that calculates and maps the 
probability of fire spread, in the absence of suppression, from a 
current fire perimeter or ignition point for a specified time period. 
Combining data layers that include the standard fuel models, current 
weather projections, historical weather scenarios, fuel moisture 
classification, and wind speed and direction, WFDSS-FSPro can project 
probabilities of fire spread in specified increments of 7, 10, 13, 30, 
and 90 days. It is not a fire perimeter like a FARSITE map. WFDSS-FSPro 
assists managers prioritize firefighting resources based on 
probabilities of fire spread. The model helps to assess a fire's growth 
potential. Managers can then match appropriate strategies, tactics and 
resource allocations. The program can also aid in communications with 
affected partners and the public.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


WFDSS--Rapid Assessment of Values at Risk (RAVAR)
    WFDSS-RAVAR is also a spatial model, showing the primary resource 
values to be protected and/or at risk by ongoing large fire events. The 
program can be directly integrated with the WFDSS-FSPro model, as 
demonstrated above, to identify the likelihood of different resources 
being threatened. The most important data layer generated by the WFDSS-
RAVAR model is the structure layer, using local parcel records but is 
not limited to the assessment of threatened structures. Any resource 
value that has been spatially mapped may be included within a WFDSS-
WFDSS-RAVAR assessment including power lines, road networks, gas 
pipelines, recreation facilities, sensitive wildlife habitat, cultural 
heritage sites and municipal water intakes. WFDSS-WFDSS-RAVAR assists 
fire managers in the prioritization of firefighting resources based on 
values to be protected segmented by the risk categories from WFDSS-
WFDSS-FSPro.
    The WFDSS tools can be used on any fire. Use of these tools is 
mandated on fires anticipated to reach expenditures of $10 million or 
more and recommended for fires anticipated to reach, $5 to $10 million.
National Multi-Agency Coordination Group (NMAC) National Shared 
        Resources
    Managing of national shared resources such as aircraft, equipment, 
Type 1 crews, incident management teams and overhead, Fire Use Teams, 
smokejumpers, military and international assets and other national 
contract resources are now all being treated as national agency assets 
and managed in a centralized fashion. They are moved to areas and 
incidents based on Predictive Services and planning levels. The goals 
are to enhance responsiveness of the assigned resources and eliminate 
concentration of resources in a geographic area. Specifically, the 
National Multi-Agency Coordination Group implemented:
  --Management of Type 1 Crews, heavy and medium helicopters was done 
        in a more dynamic manner. Geographic Areas provided the 
        National Interagency Coordination Center (NICC) with specific 
        action points or priority objectives along with resource 
        requirements. Resources were then allocated and/or reallocated 
        to meet these objectives. This allowed successful actions on 
        multiple fires, rather than the standard practice of an 
        automatic 14-day commitment once they are on an incident.
      This management philosophy provided greater flexibility in the 
        command and control strategy of moving resources to the 
        critical areas through the draw down of geographic area 
        resources. The strategy engages a certain level of risk, placed 
        on the providing geographic area; however, the risk is 
        mitigated with the ability to quickly redeploy if the situation 
        changes.
  --The National Incident Management Organization (NIMO) was assigned 
        to manage large complex incidents and implement long-term fire 
        planning and response, where in prior years, the agency would 
        have had long Type 1 and Type 2 incident management teams 
        rotating in and out every 2 weeks with the same anchor and 
        flank strategy. Where possible, strategies, other than full 
        suppression, were implemented and were successful in mitigating 
        risk to lives, property and communities. The use of the NIMO 
        teams provided opportunities to allow other Type I teams to be 
        available for the shorter duration but highly complex 
        incidents. In addition, part of the cost savings generated 
        above the mobilization and demobilization costs is due to the 
        reduced size of the NIMO teams who operated with less than a 
        full incident management team compliment of personnel.
      The NIMO team also provided an opportunity for the New York Fire 
        Department Incident Management Team to shadow and assist on a 
        complex Type 1 incident. This not only provided support to the 
        NIMO team but also allowed the agency to build capacity in 
        support of all-hazard incidents in the future.
  --Incident Management Teams in many cases were assigned to manage 
        more than one or multiple fires using a range of wildland fire 
        and response strategies.
      The utilization of Fire Use Teams (FUMT) also changed this year 
        to allow for more flexibility in meeting the demand for teams 
        but also saving funds by implementing appropriate management 
        response strategies, whereas a Fire Use Management Team--fully 
        qualified to handle any Type 2 incident, already assigned to an 
        incident would also take on the management of a new incident 
        rather than filling the request with another Type 2 IMT. This 
        occurred several times throughout the season, but was utilized 
        to the largest degree on the Payette and Salmon-Challis 
        National Forests in Idaho.
  --Another strategy utilized by NMAC this year was to allow an 
        existing incident management team to manage fire use incidents 
        if they were already managing a wildland fire or multiple fires 
        with the addition of a Long-Term Analyst (LTAN) to their 
        personnel. This provided for increased flexibility in the 
        incident management teams use of existing resources and 
        eliminated the requirement for demobilization of the incident 
        management team and the mobilization of a FUMT and related 
        resources.
      The final piece worth noting is that NMAC required the geographic 
        area submit a detailed rationale when a team request was 
        submitted. NMAC would review the request and rationale, respond 
        back with not only the available resources to fulfill the 
        request, but also they would also suggest other items and 
        strategies for managing the situation. This allowed for 
        controlling the number of resources to be assigned in cases 
        where management of incidents/complexes and strategies could be 
        refined.
    In applying all the strategies and utilizing appropriate management 
response and long-term planning the following cost comparisons display 
the estimated cost savings:

                                          FISCAL YEAR 2007 FIRE SEASON
----------------------------------------------------------------------------------------------------------------
                                        Duration      Total                                            Cost per
            Incident \1\                 (days)       acres         Team  assigned       Total cost      acre
----------------------------------------------------------------------------------------------------------------
Ahron Fire..........................           25       41,260  Type I Team...........   $6,500,000         $157
Rattlesnake.........................           23       29,652  Type II Team..........    6,200,000          209
Poe Cabin...........................           14       54,500  Fire Use Team.........    5,400,000          99
----------------------------------------------------------------------------------------------------------------
\1\ The comparisons above display how utilizing the appropriate decision models, current predictive services
  information, managing resources on a geographic area basis versus incident only basis can contribute to
  reducing the costs of large fires. The same principles and development of long-term plans and protection
  points were incorporated into managing the large complexes in Idaho and California, as well.

         APPROPRIATE MANAGEMENT RESPONSE (AMR)--SUCCESS STORIES

Prioritizing Scarce Fire Management Resources to Mitigate Risk and 
        Minimize Loss Northern Rockies Geographic Area 2007
    The Northern Rockies Geographic Area experienced a fire season 
setting records for high temperatures, low relative humidity and 
extreme fire danger. Despite the conditions favoring the rapid spread 
and development of high intensity wildfires, initial attack efforts 
achieved a 98 percent success rate. Fires escaping initial attack due 
to fire behavior conditions and resource availability would require 
significant commitment of fire management resources to obtain perimeter 
control or be managed as long-duration events until a season ending 
weather event occurred. In order to minimize costs and maintain initial 
attack effectiveness, a regional strategy for managing these fires was 
implemented to ensure the safety of all fire management personnel and 
the public while deploying firefighting resources when and where they 
would be most effective in mitigating economic and natural resource 
loss.
    In 2007, at a strategic level, the Northern Rockies Multi-Agency 
Coordination Group (MAC) and the represented agencies adopted a primary 
strategy of cost effectiveness where learning how to work smarter was 
emphasized over a cost efficiency strategy of simply working harder. 
Using this regional strategy, they aggressively implemented the 
flexibility afforded them by Federal Wildland Fire Policy. The region 
applied a wide-range of strategic and tactical options to manage 
wildland fires which met protection and fire use management objectives 
as described in their respective land management plans.
    When planned conditions were met in areas where wildland fire use 
was allowed, after a Wildland Fire Implementation Plan (WFIP) was 
completed, lightning fires were managed as wildland fire use events to 
achieve resource benefit. In areas not appropriate for wildland fire 
use, after the Wildland Fire Situation Analysis (WFSA) was completed, 
long-term implementation plans were developed for fires where assigning 
additional resources would have little chance for successful perimeter 
control. Decision support system tools were critical elements used in 
both the WFIP and WFSA development.
    A key component of the Northern Rockies strategy was the approach 
taken to prioritize and allocate fire management resources. The 
prioritization process allocated critical firefighting resources to key 
management action points--not to individual fires. The use of 
management action points for both wildland fire use events and long-
duration events allowed the precise application of resources to key 
sections of a fire where the consequences of management actions were 
greatest and did not allow commitment of resources to the ``siege'' 
fire events where effectiveness and outcomes were uncertain.
    Priorities were established through the use of a decision model 
which used defined criteria, evaluated the relative importance of the 
criteria and rated potential management actions accordingly. Key 
criteria used in the evaluation included values at risk, probability of 
success and duration of commitment of firefighting resources. The 
decision model process enabled open discussion of evaluation criteria 
by leadership and facilitated documentation of decisions regarding 
prioritization and allocation of resources.
    Long-term management strategies were developed for over 20 
incidents, and Wildland Fire Implementation Plans were created for more 
than 64 wildland fire use events. The geographic area monitored fire 
management costs and accomplishments for individual wildfires and fire 
use events. This type of monitoring allowed further evaluation and 
understanding of the effectiveness of these strategies and the 
utilization of resources, thereby providing a basis for future fire 
management operations.

                 CHIEF'S PRINCIPLE REPRESENTATIVE (CPR)

    An incident becomes one of national significance when it has the 
potential to reach a magnitude and intensity that will capture national 
attention and/or could become a significant drain on response 
personnel, resources and budget. Wildfires, projected to exceed $10 
million in total cost, are generally considered to be of national 
significance.
    In the infrequent situation where an incident reaches national 
significance or when requested by a Regional Forester, a Chief's 
Principle Representative (CPR) is assigned and available to assist 
agency administrators in reaching incident management decisions that 
will achieve safe, effective and efficient operations commensurate with 
local protection objectives and national priorities. The CPR assists 
the agency administrator to assure appropriate management and fiscal 
controls are in place and functioning.
Roles and Responsibilities of CPR
    The agency administrator continues to carry incident decision 
authority associated with their respective position; however, the CPR 
is responsible for:
  --providing assistance and advice to the Regional Forester relative 
        to national policies, budgetary objectives and incident 
        management priorities;
  --sharing risks associated with incident decisions; and
  --providing advice to the Regional Forester relative to line officer 
        certification and incident management performance.
    The CPR reviews decisions made and decision support information 
previously developed on the incident. They review scarce or critical 
resources deployed on the incident along with the availability of or 
need for those resources nationally. The CPR will provide a national 
perspective to the risk-informed decision process and priority 
deployment of resources for consideration in future agency 
administrator decisions on the incident. They assist in development of 
public information products to ensure that risk-inform decision logic 
and discussions of national priorities are incorporated. Throughout the 
incident, the CPR will document activities associated with the 
incident, provide fiscal oversight, assist the Regional Forester in 
developing a budget for the incident and ensure that effective, 
positive communications occur across all levels of the agency and 
organization.

Deployment
    A flexible approach to meeting the needs of each individual 
situation applies to the deployment of a CPR. In some cases, the CPR 
will be sent to the incident to work directly with the agency 
administrator and Regional Forester. In other cases, the CPR may work 
remotely through telecommunication means. The CPR may be accompanied by 
a small decision support group staffed to provide support not already 
available on the incident.
    Chief's Principle Representatives were deployed to eight incidents 
of national significance during fiscal year 2007.

         CHIEF'S PRINCIPLE REPRESENTATIVE (CPR)--SUCCESS STORY

    During fiscal year 2007, eight Chief's Principle Representatives 
were deployed to incidents of national significance throughout the 
United States. Each was responsible for preparing a report at the 
conclusion of their assignment. Collectively, these reports were 
reviewed and the following reveals some common observances by the 
Chief's Principal Representatives:
  --The CPR concept is an excellent idea. Assigning a member of the 
        National Leadership to represent the Chief and to assist agency 
        administrators in reaching incident management decisions that 
        will achieve safe, effective and efficient operations, 
        commensurate with local protection objectives and national 
        priorities and to help the agency administrator assure that 
        appropriate management and fiscal controls are in place and 
        functioning should be continued.
  --Appropriate Management Response and the use of Wildland Fire 
        Decision Support System tools are the keys to cost efficiency 
        when managing wildland fire.
  --The use of a CPR on incidents affords the opportunity for the 
        mentoring of line officers with limited fire experience.

                       LINE OFFICER CERTIFICATION

    All line officers will meet enhanced qualifications prior to being 
designated as the responsible official for an incident. The 
certification process has been developed and is designed to improve 
decision-making and risk management on large fires. Certification will 
be at three levels. In addition, a mentoring network has been 
established of experienced line officers to provide training and share 
experience to enhance performance skills.

                 AVIATION EFFICIENCIES AND CONTRACTING

    A full-time National helicopter coordinator is in place to provide 
interagency national oversight for the assignment and positioning of 
helicopters. This year, the Forest Service shifted to more ``exclusive 
use'' (EU) versus ``call when needed'' (CWN) contracts for helicopters. 
This change in contracting procedures greatly reduced large fire 
suppression costs with the potential cost savings in the tens of 
millions of dollars per year. The agencies are pursuing longer term 
aviation contracts for all aviation resources with increased 
performance-based contacting.
    The National Interagency Aviation Committee (NIAC) has prepared an 
overarching strategic plan to address the interagency strategic 
direction. The NIAC plan was constructed with input from participating 
interagency partners. This strategy contains an overview of aviation 
doctrine, mission requirements, currently available aviation assets, 
the role of Federal and State governments in the utilization and 
management of aviation assets, and future infrastructure and technology 
needs.
    The National Interagency Aviation Committee (NIAC) has prepared an 
overarching strategic plan to address the interagency strategic 
direction. The NIAC plan was constructed with input from participating 
interagency partners. This strategy contains an overview of aviation 
doctrine, mission requirements, currently available aviation assets, 
the role of Federal and State governments in the utilization and 
management of aviation assets, and future infrastructure and technology 
needs.
    The Forest Service and other agencies involved with the plan 
development realized the need for more specific strategies to address 
individual agency needs. The Forest Service has developed a supplement 
to this plan to bring the overall interagency strategic direction to 
the agency level. The Forest Service supports this national strategy 
with the following initiatives:
  --Safety remains the highest priority. A detailed plan to complete 
        airworthiness assessments for all Forest Service firefighting 
        aircraft in compliance with NTSB recommendation A-04-29 will be 
        formulated by January 31, 2009.
  --Control of the escalating cost of aviation assets is the second 
        priority. Centralized management of airtankers and Type 1 
        helicopters, pre-positioning of aircraft and a greater reliance 
        on speed and accuracy will be used to operate more efficiently 
        and maintain adequate delivery capacity without sacrificing 
        safety. Work together with other firefighting agencies to share 
        aircraft, intelligence and other resources in a more 
        collaborative manner.
  --Rebuild the aging fleet of firefighting aircraft is the third 
        priority. The Forest Service is measuring the loads incurred by 
        firefighting aircraft and developing structural specifications 
        that will identify appropriate aircraft sufficient to carry out 
        the mission in a firefighting environment for the long term. 
        Rebuilding toward a smaller, stronger and more agile fleet that 
        takes advantage of modern technology is a part of this 
        priority.
          AVIATION EFFICIENCIES AND CONTRACTING--SUCCESS STORY

Exclusive Use Contracting for Aircraft Saves $14,475,000
    The 2007 fire season was extremely active requiring activation of 
all aviation assets on contract. Exclusive Use (EU) helicopter 
contracts were utilized, yet there was a need for additional 
helicopters--requiring Call When Needed (CWN) helicopters to supplement 
the fleet of EU helicopters. The following demonstrates common 
practices utilizing EU helicopters before CWN and identifies points 
that indicate when and why CWN resources may be used.
  --Pre-season placement of EU helicopters in areas with higher fire 
        potential can lessen the need for last minute CWN resources. EU 
        Helicopters are utilized under their pre and post-season option 
        to limit the activation of the more costly CWN resources.
    The National Interagency Coordination Center (NICC) dispatches 
helicopters based on:
    date/time needed,
    emerging fire or existing large campaign fire, or preposition,
    estimated duration of incident,
    mobilization cost,
    daily availability rate, and
    hourly flight rate.
    The length of need is also addressed at each step of the ordering 
process to ascertain which resource could be utilized most efficiently 
for the lowest cost. The WildCad dispatch analysis program calculates 
cost of resource, length of need, proximity to the incident and 
determines the lowest cost option to meet the need. There are instances 
when ordering a CWN helicopter is significantly cheaper than activating 
an EU asset. In those instances, CWN helicopters were ordered.
    Incidents routinely cycle out CWN resources when EU helicopters are 
available if it provides a better value to the incidents needs--the 
NICC Helicopter Coordinator assisted in this transition.
    When the need reaches a level where nearly all helicopters on 
contract are required, EU resources were utilized first to assist in 
the success on initial attack incidents. The complement of personnel on 
an EU resource makes this an excellent use of the resource. On the 
other hand, CWN helicopters do not come with personnel and are better 
served on large incidents rather than initial attack if they are used 
at all.
    The Helicopter Coordinator position works to utilize EU helicopters 
whenever possible instead of CWN resources, finds aviation personnel to 
assist incidents, and tracks aircraft movements and utilization daily 
to ensure and realize the greatest efficiencies.
    Exclusive Use helicopters are contracted to guarantee their 
availability for the duration of the time period contracted. The 
average national EU contract period is 90 days. CWN aircraft have the 
ability to work for us one day and someone else the next; there is no 
commitment from the vendor under the CWN.
    The efficiencies identified above led to an estimated cost savings 
of $14,475,000 for the fiscal year based on utilizing the aircraft 
under exclusive use. Total cost savings estimate for entire life of the 
contracts is $26,441,486.

                    HAZARDOUS FUELS ACCOMPLISHMENTS

    The hazardous fuels treatment and ecological restoration job that 
lies before Federal land management agencies, tribes, States, counties, 
and local communities is enormous. The best opportunity to protect 
communities and valuable resources in the event of a problem fire is to 
reduce hazardous fuel accumulations through active management, aligning 
programs and leveraging resources to bring the full capability of the 
agency and partners to bear on the problem. Despite an extremely busy 
fire season, the Forest Service was able to reduce hazardous fuels on 
over 3 million acres from all vegetation management programs in 2007.
    The Forest Service remains committed to the reduction of hazardous 
fuels adjacent to communities. Since the National Fire Plan was 
instituted in fiscal year 2001, nearly two-thirds of all hazardous fuel 
reduction funds have been invested in the wildland urban interface 
(WUI), treating more than 7 million acres directly adjacent to 
communities--an area comparable in size to the State of Maryland. In 
2007, the Forest Service treated 1.4 million acres of WUI. Fuel 
reduction in the WUI is the most complex, costly work done, balancing 
the risk, weather conditions, access, smoke concerns, and important but 
intricate, collaborative relationships with communities, stakeholders 
and partners.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                        Fiscal year
     Forest Service hazardous fuels reduction accomplishments     --------------------------------------------------------------------------------------
                                                                     2000       2001       2002       2003       2004       2005       2006       2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Acres Treated- HF..........................................   772,400  1,361,600  1,248,300  1,453,300  1,803,400  1,663,700  1,454,300  1,725,400
    WUI Acres....................................................  ........    611,600    764,400  1,114,100  1,311,000  1,187,900  1,045,100  1,138,500
    Non-WUI Acres................................................  ........    750,100    494,000    339,200    492,400    476,000    409,200    586,900
Other Programs:
    Restoration..................................................  ........  .........  .........  .........    550,200    730,300    839,500    821,200
    SFA Grants...................................................  ........  .........     40,100    136,300    146,000     76,600     82,000    216,000
    Wildland Fire Use............................................    37,900     62,600     59,400    290,900     60,900    251,100    171,700    264,100
--------------------------------------------------------------------------------------------------------------------------------------------------------

          HAZARDOUS FUELS PRIORITIZATION AND ALLOCATION SYSTEM

    Increased numbers and frequency of large fires have drawn attention 
to the agency's hazardous fuels reduction program and the method by 
which areas are prioritized for treatment and funding. In order to 
identify high priority areas and integrate hazardous fuels treatments, 
the agency developed a consistent, spatially relevant process to inform 
funding allocation decisions. By implementing this system, the Forest 
Service is able to more effectively implement hazardous fuels projects 
and funding in order to have the greatest impact.
    The prioritization and allocation methodology for the hazardous 
fuels reduction program is now used by both the Forest Service and the 
Department of the Interior. Nationally-consistent geospatial 
information is modeled to prioritize Regions for hazardous fuels 
funding. The following decision criteria determine the priorities:
  --wildfire potential (based on fuels potential, weather potential and 
        large fire occurrence potential);
  --negative consequence associated with catastrophic fire (values at 
        risk); and
  --past performance and other opportunities (other funding sources and 
        restoration objectives).
    LANDFIRE is a 5-year, multi-partner project producing the only 
consistent and comprehensive national vegetation and fuel maps covering 
all ownerships in the United States. In its fourth year of development, 
the project continues to make good progress with anticipated completion 
of the continental United States by fiscal year 2008. A contract will 
be awarded to continue the development process for Alaska and Hawaii. 
LANDFIRE products help land managers prioritize areas for hazardous 
fuel reduction and ecological restoration, and are routinely used to 
support wildland fire suppression decisions.
    LANDFIRE products are used by the Hazardous Fuels Prioritization 
Allocation System, Fire Program Analysis, Wildland Fire Decision 
Support System, and the State and Private Forestry Redesign Analysis 
Tool. It will also feed directly into the Southern States Wildfire Risk 
Assessment. The project has an approved Operations and Maintenance 
Plan, and is on time and on budget.

                    HAZARDOUS FUELS--SUCCESS STORIES

Fuel Treatments Help Firefighters Save 100 Homes on Tin Cup Fire, 
        Darby, Montana
    Hazardous fuel treatments on public and private lands significantly 
contributed to the success of firefighters when containing the Tin Cup 
Fire, outside Darby, Montana, during the 2007 fire season. The fuel 
reduction projects resulted from partnerships between the Forest 
Service, Montana Department of Natural Resources and Conservation, the 
Bitter Root Resource Conservation and Development Area, Incorporated, 
and private landowners. The locations of these treatments were guided 
by priorities established in the Bitterroot Valley's Community Wildfire 
Protection Plan.
    The Bitterroot National Forest treated 214 acres during the months 
preceding the fire; and the Bitter Root Resource Conservation and 
Development, working through grants from the Forest Service and the 
Montana Department of Natural Resources and conservation, assisted five 
landowners in treating an additional 102 acres during the previous 5 
years.

 PREPARATION SPARES COMMUNITY DURING GRASS VALLEY FIRE, SAN BERNARDINO 
                      NATIONAL FOREST, CALIFORNIA

    Tammy Hopkins awoke just after 4:30 a.m., on Monday, October 22, 
2007, to hear her 8-month-old son crying and realize the power was out 
to her home. As the Lake Arrowhead area resident scooped her son out of 
his crib, flashlight beams raked her darkened walls; and she heard the 
honking of a neighbor coming down the road. Back in the master bedroom, 
the sliding glass doors, normally opened to a panoramic view of the 
canyon, revealed a red glow that could only mean one thing--a fire and 
a big one at that.
    The firefighter's wife was only concerned with protecting the young 
couple's two sons. She knew she had to do it alone. Her husband had 
been called to a fire that began earlier in the recent siege of 
southern California fires. She gathered her things and headed to her 
husband's grandparents down the block to help them.
    In the 15 minutes it took to alert the elderly couple and get them 
into the car, a power line had fallen across the exit route; and the 
group had to retreat, heading back toward the fire in order to reach 
another roadway. ``At that point, I could see flames from the canyon 
below my house,'' Tammy relates. ``But the engines were coming down the 
street, and we had the fuel break.''
    The fuel break Tammy makes reference to was a 150-foot wide 
clearance, or ground fuels treatment, funded by the Forest Service 
through the California Fire Safe Council. It had been something of an 
experiment. Fire Chief George Corley summarized the project by saying, 
``We wanted to use our grant to show that you could do a little work 
along the edge of the interface and get paid extensive dividends. We 
trimmed up trees and removed ground fuels on the slope beneath the 
homes.''
    The experiment worked. In the aftermath of the 1,247-acre Grass 
Valley Fire, Chief Corley recounted, ``What we did gave fire crews 
enough time to anchor off it (the fire from the fuel break). 
Firefighters didn't have to struggle with fires in the backyards, so 
the structure protection units were able to keep moving down the 
street. Unfortunately, the first house outside the project area burned 
to the ground. But that's how you know this works; you can stand here 
and see it. This project only cost $40,000, but it saved millions of 
dollars worth of homes.''
    CAL FIRE's San Bernardino Unit Chief Tom O'Keefe added, Arrowhead 
Fire Safe Council and San Bernardino County Fire ``prevented these 
losses 6 months ago.''
williams trail fuel break tested during the galion fire, huron-manistee 

                       NATIONAL FOREST, MICHIGAN

    In an effort to protect a small subdivision from wildfire, a shaded 
fuel break was constructed adjacent to homes along Williams Trail in 
2002. The fuel break was about one-half mile long and 200 to 300 feet 
wide. The construction consisted of tree thinning to increase the 
distance between the tree crowns, and several homeowners prepared for 
potential wildfire events by establishing defensible space around their 
homes and thinning flammable tree species such as jack and red pine.
    On August 30, 2007, the Galion Fire erupted to the south of the 
Williams Trail subdivision. The fire quickly transformed into a running 
crown fire heading toward the Williams Trail subdivision; however, once 
the fire hit the fuel break, its intensity reduced to a ground fire. 
Although the ground fire continued through the fuel break and into the 
subdivision and destroyed several structures, most remained damage 
free; home owners who had prepared ahead of time suffered little or no 
damage to their homes or outbuildings.
    The fire stopped later that day as the weather moderated and ran 
into the moister, riparian area of Silver Creek. In total, 557 acres 
burned. Two homes were lost in the subdivision adjacent to the fuel 
break.
    The fire was controlled with assistance from the Michigan 
Department of Natural Resources; the Grant Township; Tawas City, East 
Tawas and Plainfield Township Fire Departments; Michigan State Police; 
Iosco County Sheriff; United States Fish and Wildlife Service and the 
United States Forest Service.

Camp Caloosa Project, Lee County, Florida
    Camp Caloosa is an 80-acre property located in Lee County, Florida, 
and is designated as a high wildfire risk area. The camp is owned by 
the Southwest Florida Girl Scouts and is used as a residential camp and 
instructional retreat. Most of the 80 acres are pine flatwoods with a 
significant accumulation of dense palmettos reaching 10 to 12 feet tall 
and areas with dense melaleuca growth.
    Efforts to reduce the hazardous fuels began in the area following a 
request by the local fire department in 2006. The fire department 
responded to a small wildfire and experienced difficulty accessing the 
property. They were concerned about the dense vegetation and the need 
for additional fuels management of the camp. Following a meeting with 
Scout staff at the camp, a management plan for the property was 
developed that included a comprehensive mitigation plan.
    During the initial phase of the mitigation plan, walking trails 
through the camp were widened by the Intermountain Region Mitigation 
Team. The widened trails were used to define prescribed burn units for 
the next phase of the work.
    On April 4, 2007, a wildfire burned into the northwest boundary of 
the camp. The widened trails served as firebreaks that stopped or 
slowed the fire enough for suppression equipment to work effectively. 
The trails were also wide enough for brush truck access. As a result, 
the fire burned only eight acres before it was contained.
    The cost of this project, including Intermountain Region team 
personnel, equipment and local district personnel working jointly on 
the mitigation project was approximately $9,000; however, the project 
protected 21 structures with an estimated value of $3,675,000 in the 
face of wildfire. The per structure cost in order to provide this 
additional protection was only $426.

EFFECTS OF VEGETATION TREATMENTS ON THE VINCENT FIRE, APACHE-SITGREAVES 
                        NATIONAL FOREST, ARIZONA

    The Vincent Fire started on the morning of May 29, 2007, outside 
the treatment units contained in White Mountain Stewardship Projects 
Dutch Joe A and Dutch Joe B. These projects were designed to reduce the 
threat of wildfire to adjacent private lands. Aggressive thinning and 
slash removal had been completed in 2006 under the Dutch Joe A project; 
similar actions were in progress under the Dutch Joe B project.
    In each project unit, the understory was thinned and trees up to 18 
inches in diameter were removed. Remaining slash was chipped and 
transported to be burned at a 24 mega-watt biomass plant. Large 
diameter trees were retained, but tree spacing was increased and ladder 
fuels (branches in the lower part of the trees) were removed.
    Once ignited, the Vincent Fire grew rapidly in size due to dense 
forest conditions, low humidity and moderate winds. The ground fire 
quickly moved into the canopy of untreated ponderosa pine stands, and 
tree torching and running crown fires were observed.
    Once the fire reached the area treated by the Dutch Joe A and B 
projects, it dropped from the tree crowns (upper portions of the trees) 
to the ground, demonstrating that thinning and slash treatments are 
effective tools to moderate fire behavior--far easier and safer to 
control.

                      PARTNERSHIP ACCOMPLISHMENTS

    The Partnerships program identifies, develops and coordinates with 
other organizations to achieve shared goals. The result is a 
synergistic approach to issues such as wildland urban interface fire, 
national emergency response, fire prevention, fire in the ecosystem, 
State and local unit cooperation and coordination, and many other 
issues that affect a wide variety of national interest groups.
    By collaborating with groups such as the National Association of 
State Foresters, International Association of Fire Chiefs, Federal 
Emergency Management Agency, National Fire Protection Association, and 
many others, the agency facilitates a cooperative course of action that 
yields integrated solutions to common issues.
    The Partnerships Program includes Cooperative Fire Protection which 
deals with Volunteer Fire Assistance, State Fire Assistance, and 
Federal Emergency Personal Property. It also includes Fire Prevention, 
Firewise, the Wildland Urban Interface Fire program, and All-Hazard 
Emergency Answer. The Partnerships program also coordinates any 
requests for international programs and cooperation for Fire and 
Aviation Management.

                      PARTNERSHIP--SUCCESS STORIES

Cooperative Fire
    The Forest Service Cooperative Fire program provides support and 
grant opportunities to assist State and local agencies prepare for and 
respond to wildland fire. The two most important grant opportunities 
include the State Fire Assistance and Volunteer Fire Assistance 
programs. Many other important initiatives are supported either through 
collaborative efforts or grants. Examples include grants provided to 
the National Association of State Foresters, International Association 
of Fire Chiefs, The Advertising Council, and National Fire Protection 
Association, as well as collaboration with the Federal Emergency 
Management Agency. The Forest Service is continuing our commitment, as 
detailed in a Memorandum of Understanding, to work with the Department 
of Homeland Security and the Department of the Interior to coordinate 
wildland fire grant programs. Another important achievement of the 
Cooperative Fire program was the coordination with interagency partners 
to gain approval of an updated template for preparing cooperative 
wildland fire agreements with the States. The new template was approved 
by the National Fire and Aviation Executive Board in January 2007 and 
will help improve efficiency and facilitate coordination during 
wildland fire and also Stafford Act emergency responses.

State Fire Assistance
    Forest Service funding in 2007 provided in excess of $79 million 
for technical and financial assistance to the States for all fire 
management activities, including training, planning, hazardous fuel 
treatments, and the purchase and maintenance of equipment. State Fire 
Assistance funding assisted 33,332 communities in the form of risk 
assessments, fire prevention programs, fire management planning, and 
hazardous fuel mitigation projects. An emphasis in funding was placed 
on wildland-urban interface (WUI). The State Fire Assistance program 
provides key support to successful community programs such as Firewise 
Communities/USA and Fire Safe Councils, as well as support for an 
expanded national public service fire prevention program. In addition, 
many communities and local fire departments, in collaboration with 
State foresters, developed community wildfire protection plans (CWPP's) 
to prioritize hazardous fuels treatments and reduce structural 
ignitability in communities that receive support from State Fire 
Assistance funding. State Fire Assistance grants treated approximately 
215,000 acres of hazardous fuels in the WUI, helping to protect over 
6,000 communities at risk from catastrophic wildfire.

Community Wildfire Protection Plans and Communities at Risk
    In fiscal year 2007, assistance was provided for hazard assessments 
and funding was provided for Community Wildfire Protection Plans 
(CWPP's) for communities at risk (CAR). CWPP's address issues such as 
wildfire response, hazard mitigation, community preparedness, and 
structure protection. They provide communities with a tremendous 
opportunity to influence where and how Federal agencies implement fuels 
reduction plans on Federal lands and how additional Federal funds may 
be distributed for projects on non-Federal lands. State Foresters 
evaluate the progress made at reducing risk in communities at risk 
(CAR). A CAR may be considered at reduced risk by the State Forester if 
the community has mitigated high priority fuels according to the CWPP, 
has achieved Firewise or equivalent recognition, or has enacted 
mitigation or fire prevention ordinances. The following chart 
illustrates the current status of CWPP's, as well as Communities at 
Risk.

                       STATUS OF COMMUNITY WILDFIRE PROTECTION PLANS--COMMUNITIES AT RISK
----------------------------------------------------------------------------------------------------------------
                                                                                    Communities
                   NASF region                      States with      Total CAR      covered by    CAR at reduced
                                                   CAR list/map                       CWPP's           risk
----------------------------------------------------------------------------------------------------------------
West............................................              17           6,169           3,145           1,412
South...........................................              13          40,984           1,160             888
Northeast.......................................              19           4,459             457           1,514
                                                 ---------------------------------------------------------------
      Total.....................................              49          51,612           4,762           3,814
----------------------------------------------------------------------------------------------------------------

Volunteer Fire Assistance
    The Volunteer Fire Assistance (VFA) program provides grants to 
rural and volunteer fire departments which serve communities of fewer 
than 10,000 people. The grants are made by the State foresters and 
funded at a 50/50 cost share. Generally, most grants are for less than 
$5,000 and average $2,000 for a fire department. The grants are used 
for training, firefighting equipment, and safety equipment, including 
personal protective equipment. They are also used for organizing fire 
departments. Application for these funds is made by the fire 
departments to the respective State Forester. In fiscal year 2007, the 
VFA program accomplished the following:
  --increased firefighting capacity by providing technical assistance, 
        training, supplies, and equipment to approximately 10,157 
        small, rural communities;
  --provided nearly $14 million for technical and financial assistance 
        to States to enhance firefighting capacity at State and local 
        levels; and
  --supported the organization or expansion of 53 fire departments.

                              VFA SUCCESS

West Virginia uses Volunteer Fire Assistance Funding to Train Wildland 
        Firefighters
    Rural fire protection in the 20 States served by the U.S. Forest 
Service Northeastern Area State and Private Forestry relies heavily on 
volunteer fire departments (VFDs) and their members. While State 
forestry agencies are legally responsible for the prevention and 
suppression of wildland fires, local VFDs provide the initial attack 
capabilities on most wildland fires. For the local communities and the 
State forestry agencies, a well-trained, equipped workforce is critical 
to the suppression of these fires.
    In 2003, the West Virginia Division of Forestry (WVDOF) developed a 
program to train volunteer firefighters in the suppression of wildland 
fires. Using funding from the Volunteer Fire Assistance Program, the 
WVDOF trains VFP personnel and university students in three courses 
that will enable them to fight wildland fires more safely and 
effectively--Basic Incident Command, Fire Weather Behavior and Basic 
Firefighter training. Upon successful completion of these courses, 
firefighters each receive a set of personal protective equipment--Nomex 
yellow shirt and green trousers. Firefighters are also eligible to take 
the work capacity test; and if successful, they receive an incident 
qualifications card--``red card,'' enabling them to participate on out-
of-state fires with the WVDOF.
    Since 2003, the WVDOF has trained more than 390 wildland 
firefighters under the VFA Training Grant. This includes members from 
more than 83 fire departments, 49 students from the Forestry Department 
of the West Virginia University and 28 members of the West Virginia Air 
National Guard. The WVDOF has been able to increase its firefighting 
workforce while instilling proper wildland firefighting techniques and 
safety procedures in their firefighters.
    This training program has increase personnel available for the 
WVDOF's wildland fire crews for both in and out-of-state fire 
assignments. Since 2003, the WVDOF has conducted eight pack tests and 
issued more than 180 ``red cards.'' In addition, the firefighter 
training program has become a permanent part of the West Virginia 
University's School of Forestry curriculum.

Prevention
    Smokey turned 63 years old in 2007, and his message is still 
needed. Many wildfires are carelessly started by humans each year, 
including the Angora Fire near Lake Tahoe, California, during the 2007 
fire season. The Angora fire ignited when an illegal warming fire was 
left unattended. It burned more than 3,100 acres, cost $12.7 million to 
suppress, and destroyed more than 250 homes.
    Fire Prevention Education Teams were deployed throughout the Nation 
before and during the 2007 fire season. The Southern Region leads the 
Nation with more than 400 trained prevention team members.
    The teams produced public service announcements (PSA's) for 
television and radio, created fliers and posters, and conducted 
Firewise Awareness workshops. One of the most notable team achievements 
was the PSA developed Georgia for national comedian Jeff Foxworthy who 
stated ``Even a 5th grader knows you shouldn't start a wildfire. Cut it 
out!'' The PSA's were aired throughout the Southern Region during their 
busy fire season.
    The prevention message across the country stressed the role of 
individuals in protecting homes and public lands from wildland fires. 
Prevention teams worked with partners at the University of Nevada--Reno 
Extension, to develop a `one-stop-shopping' website to educate 
residents on creating defensible space.
    The Fire Prevention Branch continued the partnership with the Ad 
Council and Radio Disney to increase the awareness of the Ad Council 
campaigns. The Smokey Bear Fire Prevention Campaign remained at the top 
of Radio Disney's list of campaigns.
    More than $12.9 million in media services were donated in the first 
quarter of 2007. Radio and outdoor/transit (billboards, bus signs, 
etc.) media accounted for 62 percent of total donated media support. 
Highlights of the media campaign's first quarter, when compared to the 
same quarter a year ago, include the following:
  --378 percent increase in newspaper-donated media;
  --187 percent increase in magazine-donated media;
  --687,801,976 impressions (each time a target audience member is 
        exposed to the message) on the internet, including the New York 
        Times, National Geographic, and Google websites; and
  --Spanish and English radio activity dominated air play with the 
        public service announcements Smoke :60 and Sprinkler :60.
    Smokey Bear was the only PSA costumed icon at the ``Move it! Summer 
2007,'' mall tour, in 42 major markets during July through August. 
Smokey Bear was one of only six PSA campaigns featured at the Eisner 
Museum of Advertising and Design in Milwaukee. The exhibit continues 
through March 2008 and is estimated to be viewed by over 20,000 
visitors.
    The Southern Region, with help from Eastern and Pacific Southwest 
Regions, coordinated the Smokey Bear advertisement campaign for the 
Little League World Series. This Advertisement--American Traditions 
(Apple pie, the American flag, and Smokey Bear)--was spearheaded with 
help from the Virginia Department of Forestry; and the ad was located 
in each region's souvenir program guide. The National Gardens Clubs and 
the Forest Service annual poster contest reached 300,000 students.
restoring fire adapted ecosystems: a forest service, department of the 

              INTERIOR AND NATURE CONSERVANCY PARTNERSHIP

    The Forest Service, Department of the Interior and Nature 
Conservancy continue to partner to accelerate fire restoration across 
the country. Restoring Fire Adapted Ecosystems is designed to advance 
the common goals of the sponsoring partners, while focusing on 
collaborative outreach, education, training, and community-based 
conservation. In 2007, the program centered on developing and promoting 
a common national fire education message that emphasizes the role of 
fire in the ecosystem. Fire and Aviation Management funded the public 
education campaign stressing fire's natural and beneficial role. The 
campaign complements Smokey Bear's message of preventing unwanted 
human-caused wildfires. This partnership supports the 10-Year Strategy 
Implementation Plan and the philosophies behind the Chief's program, 
``Kids in the Woods,'' which encourages the education of youth in order 
for them to understand the link between their homes and the natural 
resources.

                 WILDLAND URBAN INTERFACE FIRE PROGRAM

    The 2007 fire season started early and got big fast with the Sweat 
Farm and Bugaboo fires in the Southern Region. Once again, wildland 
urban interface issues took the forefront. Development in the WUI 
continues to grow exponentially and along with it the cost of fire 
suppression and the danger to private property. The growth vastly 
outpaces available resources to protect the structures from wildland 
fire threats.
    Firewise is the best tool for homeowner mitigation of risk from 
wildland urban interface fires. Partnerships' grant and cooperative 
agreement with the National Fire Protection Association (NFPA) supports 
the program. Its principles, when implemented, significantly increase 
defensible space and survivability. It provides a layer of safety for 
structures, homeowners and firefighters. Through this program, the 
Forest Service encourages and teaches property owners to take 
responsibility for mitigation on private land. Every dollar invested in 
the Firewise program yields $14 in matching funds or in-kind 
contributions.
    In 2007, Firewise principles were implemented in every State of the 
Nation, and Firewise Communities were in place in 36 States. There are 
Firewise liaisons in 45 States, and over 300,000 people live in 
Firewise communities.
    Overall visibility and awareness of Firewise and its principles has 
increased nationwide as a result of targeted outreach to media. Print 
and broadcast media reached over 30 million people with the Firewise 
message in 2007 alone. NFPA provided over 150,000 printed or audio-
visual items, mostly free of charge, to fulfill orders received through 
the on-line catalog.
    The Firewise web site received an average of 40,000 individual hits 
per month during the peak of fire season, and those individuals visited 
an accumulated total of a million times on the site after logging in. 
More than 8,400 people are registered on the site to receive monthly 
Firewise Alerts--e-mails with items of interest and upcoming events 
such as chat sessions which are held monthly. Online learning 
enrollment for fire related topics is also increased.
    Assessing Wildfire Hazards in the Home Ignition Zone (HIZ) training 
sessions reached many more with train-the-trainer sessions in five 
locations across the country. The HIZ training sessions were so 
successful that they will be continued in 2008.
    Partnerships piloted a Firewise Hazard Mitigation Team during the 
2007 fire season. The concept concentrated on addressing issues 
resulting from increased growth in the wildland urban interface.

Federal Excess Personal Property Program (FEPP)
    The Federal Excess Personal Property (FEPP) program allows the loan 
of Forest Service owned property, including high demand equipment and 
supplies, to State foresters in order to assist State and rural 
agencies and volunteer firefighters in preparedness for suppression and 
pre-suppression missions on Federal, State, and community lands. The 
FEPP program provides items from gloves to fire trucks, thereby 
effectuating substantial savings to the taxpayers.

FEPP Success
    In 2007, a total of 393 trucks and 218 trailers were assigned to 
State cooperators. In most instances, these items were equipped with 
tanks, generators and pumps to assist firefighters on wildland and 
brush fires. Approximately 17 pieces of heavy equipment were loaned to 
State cooperators to help maintain and build fire roads. In fiscal year 
2007, the State forestry agencies have acquired nearly $30 million 
worth of FEPP. Currently, 49 States and 5 territories participate in 
the FEPP program.

Department of Defense Firefighter Property Program (FFP)
    The Firefighter Property Program (FFP) is a new authority that 
began in March of 2006. The FFP allows a State to acquire title to 
excess military equipment and then assign that equipment to rural fire 
departments. The Department of Defense (DOD) authorized the Forest 
Service FEPP program to manage the transfer of DOD property through a 
Memorandum of Agreement.
    The major difference between the FFP and the FEPP program is the 
ownership of the items acquired. All items acquired in the FEPP program 
remain the property of the Forest Service, while items acquired under 
the FFP are transferred to the recipient. The FFP property is screened 
at a higher level, therefore, making better quality and larger quantity 
of property available for the firefighting agencies. The program also 
acquires items for emergency services such as search and rescue, 
hazardous material spills and emergency medical services (EMS) 
equipment in addition to firefighting equipment, making it beneficial 
to participating agencies. These functions often fall within the 
firefighting agencies' responsibilities but are not applicable to the 
FEPP program.

FFP Success
    Currently, 23 States are able to acquire FFP through the program--
Alabama, Arkansas, Colorado, Connecticut, Florida, Idaho, Kansas, 
Kentucky, Maine, Massachusetts, Michigan, Minnesota, Missouri, Montana, 
Nebraska, North Carolina, North Dakota, Ohio, Oklahoma, Pennsylvania, 
South Dakota, Texas, and Washington. New agreements between other 
States and the Forest Service are in the process, with most States 
expected to be signed up within the next 1 to 2 years.
    In 2007, more than $38 million in equipment went to 23 States. 
North Carolina Division of Forest Resources acquired two backhoes for 
clearing fire roads, providing a cost savings of more than $6 million 
to the State agency and its taxpayers.
    The FFP has allowed State cooperators to acquire more than 400 
refurbished trucks, equipped with pumps and generators to assist in 
rural in wildland firefighting in 2007. With an original acquisition 
cost of over $18 million, these free-issue vehicles provided an 
enormous savings to rural and volunteer fire departments not only in 
resources to fight fire but in the level of protection and safety there 
are able to provide their communities.

Fire Management Today
    Founded in 1936, Fire Management Today has served the wildland fire 
community for more than 70 years by providing information on new 
techniques, technologies and ideas. In 2007, a new column was added 
``Anchor Point,'' penned by Tom Harbour, Director of Fire and Aviation 
Management. This column focuses on the challenges and changes to Fire 
and Aviation Management. Another landmark event occurred in 2007 for 
Fire Management Today--the initiation of the Forest Service website 
(http://www.fs.fed.us/fire/fmt/) which has been updated with many 
previous issues bookmarked to provide ease in finding information.

                         NATIONAL RESPONSE PLAN

    The Forest Service is a land management agency with a unique 
combination of people, skills and resources that add significant value 
to the agency's national all-hazard response capability. The agency 
accepts their all-hazard role under the National Response Plan (NRP) as 
complimentary to its overall land management mission. In recent years, 
there has been a major increase in the number and complexity of all-
hazard incidents resulting in unprecedented demands on Forest Service 
employees and its partners in emergency response.
    The NRP has been revised and the new draft is called the National 
Response Framework (NRF), which establishes a comprehensive all-hazards 
approach to enhance the ability of the United States to manage domestic 
incidents. It forms the basis of how the Federal Government coordinates 
with State, local, tribal governments and the private sector during 
incidents. Partnerships staffs took the lead for agency participation 
in the revision of the NRP by the Department of Homeland Security/
Federal Emergency Management Agency (DHS/FEMA).
    The Forest Service is the Primary Agency and coordinator for 
Emergency Support Function 4, Firefighting (ESF4) under the NRP, and 
this role continues under the NRF. The function of ESF4 is to enable 
the detection and suppression of wildland, rural, and urban fires 
resulting from, or occurring coincidentally with, an incident of 
national significance. ESF4 manages and coordinates firefighting 
activities, including the detection and suppression of fires on Federal 
lands, and provides personnel, equipment, and supplies in support of 
State, tribal, and local agencies involved in rural and urban 
firefighting operations.
    To successfully accomplish this function, the Forest Service has 
close working relationships with partner departments and agencies. 
Department of the Interior agencies provide staffing support for ESF4, 
and wildland fire resource support for mission assignments during all-
hazard responses. The U.S. Fire Administration (USFA) provides subject-
matter experts and expertise regarding structural/urban/suburban fire 
and fire-related activities. The Forest Service, in conjunction with 
USFA, is developing a standardized training program for ESF4 personnel 
and the production of job aids and other ancillary materials for use 
during ESF4 activations.
    There have been many changes to Federal disaster response based on 
lessons learned from the 2004 and 2005 hurricane seasons. ESF4 
personnel participated in exercises to test the procedures resulting 
from the changes. Several exercises, involving many Federal departments 
and agencies, were held during 2007. The Forest Service was an active 
participant in these exercises at both the national and regional 
levels.

                NATIONAL RESPONSE PLAN--SUCCESS STORIES

    Some highlights of the Forest Service's all-hazard support to the 
National Response Plan during fiscal year 2007 include:
  --Kansas tornados--when a tornado destroyed the town of Greensburg, 
        Kansas, in May 2007, FEMA activated ESF4 regionally at the RRCC 
        in Kansas City. ESF4 deployed a Forest Service National 
        Incident Management Organization (NIMO) incident management 
        team and an Interagency Hotshot Crew to establish and manage a 
        base camp for emergency responders.
  --Micronesia floods--when salt water intrusion from storm surge and 
        unusually high tides in May 2007 wiped out the subsistence food 
        crops in Chuuk, Micronesia, FEMA activated ESF4 regionally to 
        deploy Forest Service personnel as part of a preliminary damage 
        assessment team and later to establish and manage a food 
        distribution program, providing quality assurance and technical 
        assistance to a USDA feeding program.
  --Hurricane Dean--Hurricane Dean was one of the strongest hurricanes 
        on record; and at one point, threatened several U.S. 
        territories and States. As a precaution, FEMA activated ESF4 
        regionally at the Regional Response Coordination Centers (RRCC) 
        in New York (for Puerto Rico) and Denton, Texas; and at the 
        National Response Coordination Center (NRCC) in Washington, 
        D.C. Logistics Section personnel were deployed to provide 
        expertise, quality assurance and technical assistance to FEMA 
        for the establishment of a base camp.

           NATIONAL INCIDENT MANAGEMENT SYSTEM (NIMS) SUPPORT

    The NIMS outlines a standard approach to incident management and 
response that follows the wildland fire model--one used by the Forest 
Service and other fire agencies for years. It integrates effective 
practices in emergency response into a comprehensive national framework 
for incident management. In addition, it enables responders at all 
levels to work together more effectively and efficiently to manage 
domestic incidents no matter what the cause, size or complexity.
    Partnerships took the lead for agency's participation in the 
upgrade of the National Incident Management System (NIMS) by the DHS/
FEMA. Partnership subject matter experts were embedded in the senior 
steering committee for NIMS and chaired the working group which 
developed guidelines for resource typing, credentialing, multi-agency 
coordination, emergency operations centers and an emergency response 
guide book.
    NIMS is of supreme importance for national incident management, but 
its update will have minimal impact on the agency since the Forest 
Service's current system is grounded in the NIIMS and has been for 
years. Impact to the agency includes:
  --training of agency personnel (IS-700 and IS-800);
  --review of Emergency Plans at the District, Forest, and Regional 
        levels;
  --review of agreements to ensure NIMS compliance; and
  --resource typing of non-fire assets for disaster service.
    Each Region has identified a NIMS contact to assist in coordination 
of information and to ensure compliance.
    Over 600 Federal, State, local, tribal, non-profit, and private 
company representatives assisted in the process. Partnerships staffs 
were part of the ten-person final adjudication committee. The upgraded 
NIMS document was ready for release by the June 1, 2007, timeframe 
established by the White House. The NRP is awaiting final review and 
comment.

         FIRE AND AVIATION MANAGEMENT INTERNATIONAL ACTIVITIES

    Over 100 years of wildland firefighting experience has earned the 
U.S. Forest Service a worldwide reputation. This experience, along with 
the technical and professional expertise of fire specialists in the 
Forest Service, provides the basis for FAM's international involvement.
    Partnerships staff both coordinate and manage fire requests for 
international programs. FAM builds and maintains strategic national 
alliances through emergency firefighting arrangements with Canada, 
Mexico, Australia, and New Zealand.
    Some examples of the success experienced by this program are as 
follows:
  --When firefighting resources became scarce during the 2007 western 
        wildland fire season, Canada provided support through the 
        Canada/United States Reciprocal Forest Fire Fighting 
        Arrangement. The United States also provided firefighting 
        support to Australia in January and February 2007 through the 
        United States/Australian Participating Agencies Arrangement.
  --FAM employees traveled to Greece as part of a Disaster Assistance 
        Support Program (DASP) wildfire technical assessment team in 
        September 2007. The team provided technical assistance and 
        support to the government of Greece during their disastrous 
        fire season.
  --FAM employees provided instruction in all aspects of fire 
        management on assignments to Mexico, India, Jamaica, and 
        several countries in the Association of Southeast Asian Nations 
        (ASEAN).
  --Fire and Aviation Management has been an active member of the 
        Forest Commission (NAFC) Fire Management Working Group (FMWG) 
        for over 40 years. The NAFC is one of six regional forestry 
        commissions of the Food and Agriculture Organization of the 
        United Nations (FAO). NAFC, which was established in 1958, 
        provides a forum for fire policy and technical information 
        sharing for member nations (Canada, Mexico and the United 
        States) to discuss and address North American forest and fire 
        issues. The FMWG, established in 1962, is one of nine working 
        groups under the NAFC.
  --In May 2007, Fire and Aviation Management supported the NAFC-FMWG 
        by co-sponsoring the 4th International Wildland Fire Conference 
        in Seville, Spain. FAM and NAFC-FMWG supported the exchange of 
        experiences and technological advances by hosting a study tour 
        Australians and New Zealanders. The tour visited sites and 
        studied current fire management issues throughout Canada and 
        the western and southern United States during September 2007.

                   Part III.--Looking Ahead for 2008

    In fiscal year 2008, Fire and Aviation Management will continue to 
support the Chief's initiatives through the deployment of a program 
with specific focus areas and planned activities. These emphasis areas 
and activities, highlighted below, will enhance the program and 
agency's performance and efficiency. They, and others, will be integral 
components in Fire and Aviation Management's Strategic Plan.

                           CHIEF'S INITIATIVE

    Fire and Aviation Management will continue to support the Chief's 
``Climate, Water and Kids'' initiative through an integrated program 
which includes:
  --reduced hazardous fuels and the integration of fire within 
        ecosystems;
  --expanded use of Appropriate Management Response and Wildland Fire 
        Use;
  --protection of vital watersheds during wildland fires and through 
        the restoration process; and
  --an education program, reaching all ages, that emphasizes fire 
        prevention, the natural role of fire in fire-adapted 
        ecosystems, and the connection of natural resources to the 
        homes and communities surrounding the national forests and 
        grasslands.

                              FOCUS AREAS

Management Controls and Operational Efficiencies
    Fire and Aviation Management (FAM) will maintain its emphasis on 
management controls and operational strategies which improve program 
oversight, delivery, effectiveness and efficiency. Utilizing rigorous 
management controls such as the Chief's Inter-Deputy Group to provide 
Executive level fiscal leadership and oversight; the Chief's Principle 
Representative for fires of national significance; and the Line Officer 
certification process for incident level oversight will emphasize cost 
containment. Strategic use and deployment of firefighting resources and 
implementation of aviation efficiencies such as centralizing aviation 
services and assets will be underscored.

Risk-Informed Management
    The Forest Service will continue to accentuate the importance of 
decision support technology development for risk informed management 
strategies to support implementation of Appropriate Management Response 
and prioritization of hazardous fuels. Development and refinement of 
systems and services such as the Wildland Fire Decision Support System, 
the Ecosystem Management Decision Support System and Predictive 
Services are essential to the agency's success. These systems and other 
tools will support managers in making informed decisions, thereby 
increasing the likelihood of success and potentially reducing costs.

Integrated Fuels Management
    The Forest Service will continue to work collaboratively with other 
Federal, State, local, tribal, government and non-governmental 
organizations, and other partners to ensure the accomplishment of 
mutual objectives. Program funding will be prioritized and integrated 
to accomplish Healthy Forests Initiative (HFI) and Healthy Forests 
Restoration Act (HFRA) objectives, efficiently and effectively. 
Continued emphasis will be placed on the integration of Community 
Wildfire Protection Plans (CWPP) with Federal hazardous fuels 
mitigation priorities.

                           PLANNED ACTIVITIES

Readiness Capability and Mobilization
    The Forest Service will provide readiness resources comparable to 
fiscal year 2007, including approximately: 10,480 firefighters, 120 
helicopters and 20 airtankers. The agency will use Predictive Services 
and other resources to analyze potential fire activity to guide 
strategic placement of resources. All actions will occur with 
firefighter and public safety as the primary consideration.

Fire and Aviation Management Strategic Planning
    FAM continues to develop a Fire and Aviation Management Strategic 
Plan linked in part to the current Program Assessment Rating Tool 
(PART) Improvement Plan. The strategy will define program components 
relative to incentives, accountability and cost containment while 
considering risks and establishing objectives to evaluate if strategies 
are being achieved in an effective and efficient manner.

Reduce Hazardous Fuels
    The Forest Service will continue hazardous fuels reduction efforts 
by treating approximately 2.9 million acres of hazardous fuel and 
reducing flammability of the forests, woodlands, shrublands and 
grasslands including 2 million acres in the wildland urban interface 
(WUI) and 868,000 acres in areas outside the WUI areas. Additionally, 
fuel loads will be reduced on approximately 1.5 million acres as a 
secondary benefit through other vegetation management activities, 
wildland fire use events, Hazardous Mitigation Grants awarded under the 
State Fire Assistance program, and activities of southern Nevada Public 
Lands Management Act.
    The Forest Service will continue participation in the Federal Woody 
Biomass Utilization Working Group to promote and support the 
utilization of woody biomass and woody biomass products from forest and 
woodland treatments.

Restoration and Post-Fire Recovery of Fire Adapted Ecosystems
    The agency will continue to promote the increase of wildland fire 
use consistent with land and resource management plans and public and 
firefighter safety. These acres will be reported annually. On lands 
that are severely burned by wildland fire in fiscal year 2008, 
emergency stabilization, rehabilitation and restoration treatments will 
be implemented. Burned areas will continue to be reforested through a 
5-year cost-share agreement with American Forests for Wildfire ReLeaf. 
Additionally, the Interagency Program to Supply and Manage Native Plan 
Materials--a long-term strategy to improve nursery and plan material 
center infrastructure and monitor restoration effects and public/
private partnerships, will be continued.

Promote Community Assistance
    FAM will partner with the National Fire Protection Association, 
State, Federal and nonprofit partners to encourage community 
responsibility for hazard mitigation through land use planning, 
building codes, landscaping codes, zoning and community fire protection 
planning through the Firewise Communities Program.
    Technical assistance, training, supplies and equipment will be 
provided to more than 6,500 small rural communities and 5,075 volunteer 
fire departments. Firefighting capacity will be increased by providing 
technical assistance, training, supplies and equipment to rural 
communities through Volunteer Assistance Fire Assistance (USDA Forest 
Service) program.

    Mr. Rey. I will also submit for the record of the hearing 
continued progress in over 40 other areas of cost containment, 
and, finally, concluding the remarks on fire, we will submit 
for the record of this hearing the Firefighting Retention Study 
that the committee requested that we do and that we made 
available to your staffs earlier this week.
    [The information follows:]

               MANAGEMENT CONTROLS AND OPERATIONAL EFFICIENCIES: LEADERSHIP UPDATED--APRIL 9, 2008
----------------------------------------------------------------------------------------------------------------
    Management controls and                            Parties involved
       efficiencies \1\              Benefits \2\             \3\         Action required \4\        Status
----------------------------------------------------------------------------------------------------------------
L-1
Appropriate Management          Decision-maker has     Fire and          Clearly articulate     Letter from the
 Response (AMR).--Promote AMR    the greatest           Aviation          the policy for         Chief sent to
 provisions of 2005 Federal      flexibility in         Management        consistency across     field units
 Wildland Fire Management        management of          (FAM),            all units.             regarding
 Policy in a clear, concise      incident from the      Ecosystem        Develop                 policy and AMR
 manner. Reaffirm leaders'       onset, which can be    Management        accountability         ,on April 19,
 intent for full                 supported through      Coordination      standards for IMT      2007.
 implementation of AMR--enable   decision-making        (EMC),            and Line Officer      On March 24,
 full range of tactical          tools.                 interagency       performance.           2008, WFLC
 options.                       Consistent              partners.        Review policy with      approved the
                                 implementation of                        interagency partners   next step in
                                 AMR will lead to                         to allow movement      AMR development
                                 greater flexibility                      between suppression    to establish
                                 in wildland fire                         and WFU as needed.     WFDSS prototype
                                 management.                              Remove the             units for the
                                                                          distinction between    2008 fire
                                                                          WFU and suppression.   season.
                                                                         Develop an AMR          Information
                                                                          Guidebook              collected and
                                                                         FAM and budget should   lessons learned
                                                                          modify handbook        from those
                                                                          direction for          prototypes will
                                                                          suppression            be used in the
                                                                          authority to support   consideration
                                                                          WFU.                   of national
                                                                                                 policy
                                                                                                 adjustments for
                                                                                                 2009.
                                                                                                Agency Savings
                                                                                                 est. at $200M
                                                                                                 total all
                                                                                                 items.
L-2
Land and Fire Management        Enhanced decision      FAM, EMC........  Decision by NLT to     Interagency
 Plans.--Land and Fire           making environment                       have FAM and           group developed
 Management Plans (LMP and       provides support for                     planning work          a FMP template,
 FMP) for each unit should       decision makers who                      together on FS         which includes
 consider a full range of AMR,   select AMRs that may                     Manual changes.        AMR. Template
 including point protection as   entail higher risk.                     Provide decision        will be used in
 an equally acceptable                                                    criteria to allow      revision or
 approach to perimeter control.                                           for consideration of   future
                                                                          investments in         development of
                                                                          reducing or            FMP's.
                                                                          maintaining fuel      The template
                                                                          profiles rather than   will be
                                                                          simply the cost of     distributed to
                                                                          suppression.           the field for
                                                                                                 their use May
                                                                                                 2008.
L-3
Line Officer Certification.--   Improved decision-     Line Officer      LOT team work in       Developed and
 Enhance skills in incident      making ability at      Team (LOT), FAM.  conjunction with FAM   implemented an
 decision making in high risk    the onset of a new                       to reevaluate          interim
 environments. Line Officers     incident when the                        current policies in    certification.
 (LO) core competencies should   greatest benefits                        manual.               Letter to RF's 6/
 be certified on criteria        can be achieved.                        Develop Line Officer    01/07.
 including:                     Enhanced skills in                        Certification
  --Cost containment and         the preparation of                       Process.
   Delegation of Authority       DOA, specifically in                    Develop a template
   (DOA).                        development of                           for RFs (Regional
  --Incident management and      language on how to                       Foresters) to use
   processes.                    manage the incident.                     for interim
  --Wildland Fire Situation     Line Officers are                         certification,
   Analysis/Wildland Fire        certified                                available for
   Implementation Plan (WFSA/    commensurate with                        implementation prior
   WFIP) and other decision      the complexity of                        to 2007 fire season.
   support tools.                the incident.                            (see core
  --Situational awareness of                                              competencies
   resource availability and                                              framework developed
   allocation.                                                            in R9). This interim
  --Working knowledge of fire                                             certification will
   ecology and behavior.                                                  be used until
  --Safety....................                                            certification
  --IMT (Incident Management                                              procedures are in
   Team) review and                                                       place.
   evaluations.
L-3a
Line Officer Simulation.--      Better informed        LOT team working  FAM to develop         Under
 Build Line Officer competency   decision-makers at     with  FAM.        proposals for          consideration
 through the use of simulation/  the local level.                         approval by LOT team.  with LO items
 sandtable exercises.           Practice high risk                       Consider LO             for AAR (xxxxx)
                                 decisions in low                         certification with     of successes
                                 risk environment.                        420/520 type           and gaps.
                                                                          simulations.
L-3b
Shadow Assignments.--Organize   Provide for better     LOT team,         LOT team is            Shadow and
 and manage a program to         decision-making in     Regional          developing shadow      mentoring
 provide support and training    early phases of        Foresters, FAM.   protocols.             program
 for inexperienced agency        incident, as well as                    Regions should          implemented in
 administrators.                 increased experience                     develop and maintain   2007.
                                 base for future Line                     a list of qualified
                                 Officer assignments.                     line officers for
                                                                          implementation.
                                                                          Incorporate the LO
                                                                          items for increasing
                                                                          their skills and
                                                                          abilities.
L-3c
WFSA Training.--Ensure          Consistent             FAM.............  FAM to work with       Regions
 adequate WFSA training for      application of WFSA                      research.              accomplished
 line officers and fire          development and                         Identify and develop    WFSA training
 management personnel,           alternatives with                        an implementation      using
 focusing on capturing           better decision                          strategy to            centralized
 ``commanders' intent'' in the   making and long-term                     accomplish WFSA        methods.
 development of alternatives     reduction of costs.                      training. Consider    Training is
 as opposed to the technical                                              distance learning      incorporated
 use of WFSA program \5\.                                                 and web-based          into Fire
                                                                          training               Management
                                                                          opportunities.         Leadership
                                                                         Develop a mandatory     (FML) for Local
                                                                          one-day module for     Line Officers.
                                                                          line officer and      Focused on WFDSS
                                                                          fire management        implementation.
                                                                          personnel.
L-4 (recommendation linked to
 GO-3)                          Local units would      LOT, National     LOT to develop         Complete.
Chief's Principle                receive decision       Leadership Team   criteria for roles    CPR's were
 Representative (CPR).--         support from the       (NLT).            and responsibilities   assigned by the
 Assigned by the Chief to        national and                             of CPR.                W.O. to all
 provide decision support on     regional level                                                  fires over $10
 incidents of national           including the use of                                            million.
 significance. This position     a decision support                                             8 CPR's assigned
 would be assigned to any fire   team of experts.                                                in fiscal year
 exceeding or projected to       Provides opportunity                                            2007.
 exceed $10 million of Forest    for mentoring of
 Service (FS) expenditures.      line officers with
Regional Foresters               limited fire                                                   Anything to add
 Representative (RFR):           experience. Goal is                                             about RFRs for
 Assigned by the Regional        to reduce the cost                                              2007 season.
 Forester to provide decision    of long term fires
 support. RFR would be           projected to cost
 assigned to any incident        over $10 million.
 exceeding $5 million of FS
 expenditures.
L-5
Line Officer Authority.--Use    Current WFSA process   LOT, NLT........  FAM develop policy     Approving levels
 current benchmarks of $2        is only authority to                     and criteria for       were not
 million, $10 million and $50    spend--once                              manual change to be    changed.
 million for Line Officer        approved, authority                      approved by NLT.      RFR's were
 approval. Tie this to the       still stays with                                                assigned for
 development of Line Officer     local agency                                                    fires over $5
 competencies in L-3.            administrator.                                                  million.
                                Consistent with                                                 LO training
                                 current chain of                                                provided for
                                 command established                                             complex fire
                                 in the manual.                                                  situations.
                                Ensures
                                 organizational
                                 authority
                                 commensurate with
                                 incident
                                 significance.
                                Improve decision-
                                 making ability at
                                 the onset of an
                                 incident.
L-6
Decision Support (Current).--   Improved decision-     FAM, research,    WO letter to the       The April 19,
 Ensure units develop a fully    making process at      LOT, NLT.         field directing        2007 letter
 considered Most Cost            all phases of                            units to do pre-       from the LOT
 Effective Alternative in the    incident, which will                     season work for WFSA/  included key
 WFSA \6\.                       reduce costs through                     WFIP requirements.     points for the
Emphasis pre-season work for     the duration of the                     Emphasize designation   Line Officers
 WFSA and WFIP development       incident.                                of analysts and pre-   which included
 such as fire costs, historic                                             season updates of      their
 costs and other data layers.                                             WFSA data during       involvement
 This is necessary in order to                                            preparedness reviews.  with WFSA.
 make initial decisions under                                            At a minimum,           Manual
 AMR.                                                                     revalidate WFSAs and   modifications
Ensure WFSA strategy                                                      traditional cost       are ongoing.
 implemented is achievable.                                               benchmarks when team
                                                                          rotations occur.
                                                                          Ensure that IMTs
                                                                          adequately reflect
                                                                          the selected WFSA
                                                                          alternative and DOA
                                                                          as they report daily
                                                                          in the ICS-209.
                                                                         FAM and LOT work
                                                                          toward FSM
                                                                          modifications.
                                                                         Tie in direction set
                                                                          in WO letter into
                                                                          proposed training
                                                                          module.
L-7
Decision Support (Future).--    Improved decision-     FAM, research,    FAM working with LOT   WFDSS and other
 Continue investment and         making process at      LOT.              team and research to   tools were
 expansion of decision support   all phases of         Integrate DOI      ensure decision        available to
 system technologies; FSPro,     incident will reduce   into this         making support is      the field and
 RAVAR, and SCI for use with     costs through the      project.          supported (WFDSS)      used
 Wildland Fire Decision          duration of the                          and provide more       extensively
 Support System (WFDSS).         incident.                                opportunity to         throughout
WFDSS needs to equally          Provides well                             utilize new tools      fiscal year
 consider Fire Use for           documented and                           such as FSPro early    2007.
 resource benefit with other     repeatable protocols                     on.                    Investment is
 suppression-oriented portions   that demonstrate the                    Establish Decision      ongoing. WFDSS
 of AMR. WFSA and WFIP need to   cost effectiveness                       Support Teams to       development is
 be integrated into one          of suppression                           assist units with      continuing.
 product \7\.                    strategies.                              development of        The Forest
                                                                          incident strategies.   Service begins
                                                                          Require FS PRO and     transitioning
                                                                          RAVAR on fires         from WFSA to
                                                                          projected to cost      WFDSS during
                                                                          over $10 million.      fiscal year
                                                                                                 2008 for full
                                                                                                 implementation
                                                                                                 in fiscal year
                                                                                                 2009.
L-8
Stratified Cost Index.--Make    Sets specific          FAM, NLT, LOT,    FAM develop policy     SCI is under
 full use of the SCI for IMT/    benchmarks for cost    research.         and criteria for       development.
 Line Officer evaluations for    containment                              manual change to be    SCI highlighted
 cost efficiency,                regardless of the                        approved by NLT.       problems with
 effectiveness and performance.  socio-political                         Review and develop a    reporting and
Utilization of SCI to            environment.                             guide for              tracking
 establish an incident budget   Data used comes                           implementation of      dollars.
 is required for fires           directly from units                      SCI.                  DOI will begin
 projected to cost over $5      Provides true                            Establish a system to   using SCI in
 million.                        incentive for using                      address the need for   the future as
                                 least cost option                        additional authority   well. Should
                                 under WFSA.                              and provide for        develop an
                                Provides the ability                      incentives and         interagency
                                 to analyze spending                      disincentives.         guide if this
                                 trends of IMTs.                                                 occurs.
                                                                                                 Development of
                                                                                                 performance
                                                                                                 standards for
                                                                                                 line officers
                                                                                                 and Incident
                                                                                                 Management
                                                                                                 Teams is in
                                                                                                 progress.
L-9
Incentives.--Provide            Line Officer           LOT, NLT,         FAM and LOT with       Interagency task
 incentives related to getting   decisions resulting    research.         concurrence of NLT     group
 ``credit'' for acres burned     in lower costs                           to work on policy      established to
 that meet management            should have the                          development.           develop policy.
 objectives whether WFU or       capability of                           Stratified Cost Index   WFLC approved
 suppression. IA effectiveness   directing a                              should be              the shift to
 should also be a measurement    percentage of the                        incorporated.          managing
 based on the Stratified Cost    savings back to                                                 wildland fire
 Index for a particular unit.    their home unit.                                                as wildland
 Federal Fire Policy must be                                                                     fire use and
 changed.                                                                                        suppression
                                                                                                 concurrently 3-
                                                                                                 24-2008.
L-10
Predictive Services for Line    Improved early and     FAM, interagency  FAM to propose study   An interagency
 Officers.--Make Line Officers   successive decision    partners.         on Predictive          review of the
 aware of current tools and      making, leads to                         Services through       predictive
 decision models. Expand the     lower costs on large                     (NFLT). Commit         Services
 use of new decision models,     fires. Better                            resources to expand    organization
 including FSPro, earlier in     effectiveness for                        predictive             was completed.
 the decision-making process.    initial attack.                          capabilities, make     A national
                                 Improved national                        services widely        program is
                                 mobilization of                          available.             developed and a
                                 resources.                              Expand and redefine     charter was
                                Also relates to                           the objective of       signed this
                                 operational                              Predictive Services.   year.
                                 recommendations.                         Include operations    FSPro was used
                                                                          staff in discussions.  widely in
                                                                                                 fiscal year
                                                                                                 2007.
L-11
Comptroller.--Developed as a    Assists Line Officers  Associate Deputy  Establish policy and   Complete.
 National Inter-Deputy Command   in managing            Chief S&PF, NLT.  roles for the Inter-   Implemented in
 Group to provide large fire     suppression costs.                       Deputy Command Group.  fiscal year
 and transactional oversight.   Transactional                            The position will       2007 and
Inter-Deputy group is            oversight will                           develop a set of       continuing in
 comprised of Deputy Chief for   result in cost                           accountability         fiscal year
 State and Private Forestry      savings associated                       measures to be         2008.
 (SPF), Deputy Chief for         with ABCD                                reviewed at all       Developed as a
 National Forest System (NFS),   miscellaneous funds,                     levels..               National Inter-
 Director of Fire and Aviation   DOI/FS offset, etc.                                             Deputy Command
 Management (FAM), and                                                                           Group to
 Director of Program and                                                                         provide large
 Budget Analysis (PBA).                                                                          fire and
                                                                                                 transactional
                                                                                                 oversight.
                                                                                                Inter-Deputy
                                                                                                 group is
                                                                                                 comprised of
                                                                                                 Deputy Chief
                                                                                                 for State and
                                                                                                 Private
                                                                                                 Forestry (SPF),
                                                                                                 Deputy Chief
                                                                                                 for National
                                                                                                 Forest System
                                                                                                 (NFS), Director
                                                                                                 of Fire and
                                                                                                 Aviation
                                                                                                 Management
                                                                                                 (FAM), and
                                                                                                 Director of
                                                                                                 Program and
                                                                                                 Budget Analysis
                                                                                                 (PBA)
L-12
Cost Containment Reviews.--     Implementation of SCI  FAM, fiscal.....  FAM request fiscal to  Cost containment
 Modify current cost             and AMR may                              drop requirement.      review begins
 containment review team         eliminate the need                                              when the
 process. Begin the process at   for post-event cost                                             incident begins
 onset of the incident.          containment reviews.                                            by utilizing
                                                                                                 decision
                                                                                                 support tools
                                                                                                 and predictive
                                                                                                 modeling, RFR,
                                                                                                 and CPR.
                                                                                                Forest Service
                                                                                                 developed and
                                                                                                 utilized a
                                                                                                 Large Fire Cost
                                                                                                 Review
                                                                                                 Guidebook in
                                                                                                 fiscal year
                                                                                                 2007. An
                                                                                                 interagency
                                                                                                 guidebook is in
                                                                                                 review.
L-13
Cost Containment Training.--    Ensures consistency    Interagency       FAM (AD for risk       Regional pre-
 Assess existing training to     of cost containment    training          management) review     season meetings
 ensure cost containment is a    training nationwide    groups.           LFML curriculum for    held discussing
 focus, particularly among       which translates                         appropriate level of   cost
 cadres currently working on     into clearer                             cost containment.      containment and
 revisions to curriculum.        expectations in the                                             decision making
                                 DOA to the IMT from                                             specific to
                                 the Line Officer.                                               fire. Two
                                                                                                 training
                                                                                                 sessions for
                                                                                                 OIG reviewers
                                                                                                 were held in
                                                                                                 fiscal year
                                                                                                 2007. Two more
                                                                                                 were held in
                                                                                                 fiscal year
                                                                                                 2008.
L-14
Structure Protection.--         Consistent             USDA-FS, USDI,    WO FAM policy          A letter was
 Evaluate current structure      understanding of       State, and        discussion with NWCG.  sent to the
 protection policies to          roles and              local            Develop National        field
 determine better utilization    responsibilities in    governments.      Wildland Fire          transmitting
 of local rural fire             the Wildland Urban                       Policy.                the policy in
 departments for increased       Interface.                              Define the mission in   the FSM on
 capacity.                                                                the Wildland Urban     August 13,
                                                                          Interface as defined   2007. This will
                                                                          in the National Fire   be discussed at
                                                                          Plan.                  NWCG in fiscal
                                                                                                 year 2008.
L-15
MAFFS.--Over the past 5 years,  The new MAFFS units    Department of     Chief discuss with     Task group
 Modular Airborne Firefighting   will provide for an    Defense (DOD),    Secretary of           associated with
 Systems (MAFFS) operations      opportunity to         FAM,              Agriculture for        the aviation
 have continued to increase in   streamline             interagency.      potential              feasibility
 cost due to military adding     operations on both                       implementation.        study is
 requirements. Explore           sides and would                         Initiate discussion     reviewing this.
 utilization of MAFFS through    facilitate                               with DOD to identify   Information
 different venues such that      additional cost                          potential              will be
 cost savings can be realized.   efficiencies.                            efficiencies in the    submitted by
 Pursue cost sharing with       Potential Cost                            mobilization,          the end of
 military rather than full       Savings: $5 million.                     support, and           2007.
 reimbursement.                                                           demobilization of     MAFFS were not
                                                                          the MAFFS operations.  utilized in
                                                                         Explore venues in the   2007--discussio
                                                                          private sector for     ns occurred at
                                                                          use with MAFFS.        National Multi-
                                                                                                 Agency
                                                                                                 Coordination
                                                                                                 Center (NMAC)
                                                                                                 to ensure cost
                                                                                                 savings
                                                                                                 remained a
                                                                                                 focus item.
                                                                                                Estimated
                                                                                                 savings of
                                                                                                 $955,000 per
                                                                                                 week for a
                                                                                                 period of at
                                                                                                 least 8 weeks.
----------------------------------------------------------------------------------------------------------------


                                 MANAGEMENT CONTROL AND EFFICIENCIES: OPERATIONS
----------------------------------------------------------------------------------------------------------------
    Management controls and
         efficiencies                  Benefits        Parties involved     Action required          Status
----------------------------------------------------------------------------------------------------------------
                                              Aviation Operations
 
AO-1
National Helicopter             Immediate savings      Dispatch,         Assistant Director     Completed.
 Coordinator.--Lack of real      through utilization    aviation          for Operations to      Employee start
 time field intelligence for     of appropriate         community, end    NICC Coordinator.      date 04/27/
 appropriate tracking and        helicopter resources.  users.           Establish a permanent   2008.
 assignment of helicopter       Potential Cost                            full-time position    Total savings
 resources.                      Savings: $2-3                            for helicopter         estimated $15-
                                 million annually \8\.                    oversight and to       20 million by
                                                                          manage the             managing the
                                                                          Helicopter Cost        exclusive use
                                                                          Efficiency Program     and limiting
                                                                          (HCEP) database.       Call When
                                                                                                 Needed (CWN).
AO-1a
Performance-Based Aircraft      Best performing        Dispatchers,      FAM will modify        HCEP program
 Dispatching.--Frequently,       resource for field     Acquisition       current aircraft       updates
 dispatched aircraft do not      conditions will        Management        dispatching            identified
 meet operational performance    provide most           (AQM), Agency     practices to           after beta test
 needs in the field.             efficient and cost     Aircraft          implement best-value   currently
                                 effective              Inspectors, end   aircraft dispatching   underway. New
                                 utilization.           users.            tool called            version
                                Potential Cost                            Helicopter Cost        scheduled for
                                 Savings.--$1.5                           Efficiency Program     field use in
                                 million annually \9\.                    (HCEP). Develop        2008.
                                                                          communication
                                                                          strategy to gain
                                                                          field acceptance
                                                                          immediately.
AO-1b
Centralization (C&C) of         Reduction in severity  FAM, dispatch,    FAM Director will      Type 1 and Type
 Exclusive Use Helicopters.--    costs by linking       Predictive        initiate decision      2 helicopters
 Utilization of aircraft will    resources to           Services,         and begin              are now
 be based on Predictive          Predictive Services.   Assistant         implementation         consolidated
 Services. All helicopters       This would also        Director for      strategy.              into two
 will be considered national     reduce the use of      Operations.      Remove regional         national
 resources rather than           CWN resources.                           boundaries for         contracts.
 National Fire Management       Potential Cost                            aircraft utilization.  Managed as
 Analysis System (NFMAS) model   Savings.--$1.5                                                  national shared
 of Most Efficient Level         million based on                                                resources.
 resources \10\.                 reduction of CWN
                                 aircraft
                                 mobilization under
                                 severity needs.
AO-2
Exclusive Use Helicopters.--    The addition of        FAM, AQM........  Review Type III costs  Completed.
 Utilize the ``Wildland Fire     exclusive use                            with intent to add     Appropriate
 Management Aerial Application   helicopters will                         additional Type III    number of Type
 Study'' (August 2005) to        increase                                 helicopters for        1 and 2
 determine the number of Type    preparedness costs,                      exclusive use.         helicopters
 I and Type II Exclusive Use     but will result in a                    Reduce CWNs.            determined for
 helicopters to be added to      substantial                                                     maximum cost
 the system.                     reduction in                                                    efficiency
                                 suppression costs                                               based on actual
                                 due to fewer CWN                                                use statistics.
                                 helicopters.                                                    Aircraft have
                                Potential Cost                                                   been contracted
                                 Savings: $39.8                                                  under AO-1b
                                 million ($6.1                                                   recommendation.
                                 million for Type II
                                 aircraft, $33.7
                                 million for Type I
                                 aircraft) \11\.
AO-3
Performance-Based Contracts.--  Improved               AQM, Department   Revise the             Completed.
 Helicopter contracts are        effectiveness of the   of the Interior   contracting system     Linear
 currently awarded based on      airframes in the       (DOI), vendors.   by implementing the    optimization
 antiquated aircraft typing      field, resulting in                      best value             model developed
 criteria.                       cost reductions in                       helicopter             for technical
                                 price/lb delivery.                       performance-based      evaluation and
                                 We would obtain more                     contracting.           best-value
                                 modern aircraft with                    FAM submit request      award for
                                 better safety                            for contract action    national
                                 features. Improved                       and performance        helicopter
                                 customer service and                     based requirements     contracts.
                                 support during                           to AQM.
                                 dispatching process.
                                Potential Cost
                                 Savings: $581,000
AO-4
Long-Term Aviation Contracts.-- Services will cost     FAM, AQM,         FAM submit request     Completed. 2008
 Develop long term contracts     less due to greater    industry,         for contract action    large airtanker
 to achieve an overall           availability of        interagency.      and requirements to    contract is a 5
 reduction in helicopter and     aviation resources.                      AQM. Look at adding    year fixed
 airtanker costs.                Longer contracts are                     additional Exclusive   length.
                                 more cost effective.                     Use helicopters.       National
                                 Provides industry                       Explore partnerships    helicopter
                                 stability, thereby                       across regional and    contracts are
                                 creating a greater                       agency boundaries as   transitioning
                                 incentive to invest                      well as multi-         to a 4 year
                                 in new technology.                       mission capability.    cycle.
                                Potential Cost
                                 Savings: $4.8
                                 million for 180 day
                                 contracts, $24
                                 million for 5 year
                                 contracts.
AO-5
Limiting Aviation Resources.--  More resources for     FAM, Incident     FAM will establish     Geographic Multi-
 Consider limiting/re-           initial attack or      Management        benchmarks for long    Agency
 evaluating use of aviation      reassignment. Forces   Teams, NLT.       term aviation use.     Coordination
 resources as an incident        consideration of                         Justify extended use   Center (GMAC)
 increases in scale and          aviation needs/costs                     under WFSA             managed
 duration and costs approach     in strategy                              alternative.           helicopters at
 benchmarks.                     development on long                                             the geographic
                                 term incidents.                                                 area level in
                                Potential Cost                                                   fiscal year
                                 Savings: $3 million                                             2007. Also,
                                 per \1/4\ incident                                              utilized
                                 time \12\.                                                      priority
                                                                                                 setting
                                                                                                 criteria for
                                                                                                 moving
                                                                                                 helicopters
                                                                                                 around.
                                                                                                 Established
                                                                                                 long-term fire
                                                                                                 plans for
                                                                                                 incidents to
                                                                                                 efficiently
                                                                                                 utilize all
                                                                                                 resources.
                                                                                                 Ongoing.
AO-6
Airtanker Base Efficiency.--    Cost savings as a      FAM, airtanker    Identify appropriate   Airtanker base
 Airtanker base infrastructure   result of reduced      base personnel,   blend of aircraft      efficiency
 has not changed with the        facility expenses      retardant         types for year-round   study completed
 decrease of available large     and a decrease in      contractors.      versus partial         in 2007.
 airtankers.                     FTEs.                                    contract. Convert      Awaiting
                                                                          bulk contracts to      decision on
                                                                          full-service           implementation.
                                                                          contracts for
                                                                          existing bases.
                                                                          Evaluate existing
                                                                          bases for re-
                                                                          designation as
                                                                          mobile or reload
                                                                          bases.
 
                                               Ground Operations
 
GO-1
Severity Funds.--Consider       Allows for longest     Fiscal, FAM.....  FSM, Letter of         Letter to the
 applying a cap to approvals     distribution of                          Instruction.           field Limiting
 of no more than $1 million      severity funds over                     Review use of ABCD      severity
 per pay period or a             season nationally                        Miscellaneous          authorizations
 percentage of the WFPR          and displays                             Accounts in lieu of    by Region May,
 allocation for each Regional    assertive management.                    severity requests.     2007.
 severity request.              Review of ABCD                           Pre-positioned NSRs    Allocated a
                                 Miscellaneous                            in lieu of severity    ceiling of $30
                                 accounting will                          when available.        million and
                                 bring everyone to                                               moved authority
                                 parity and                                                      around as
                                 consistent                                                      needed.
                                 implementation.                                                Actual severity
                                Potential Cost                                                   spent about \2/
                                 Savings: $21 million                                            3\ of $35
                                 \13\                                                            million
                                                                                                 ceiling.
GO-2
National Shared Resources       Consistent definition  Mobilization      Strategy Operations    Included the
 (NSR).--Treat these resources   of NSRs. Efficient     System, Fire      Plan, National         utilization of
 without regional boundaries,    process of             Operations, MAC   Operations Plan.       national shared
 and move to areas based on      mobilization.          Group. While     Reconsider definition   resources in
 projections by Predictive       Process provides for   interagency in    of National Shared     the national
 Services. Depending on          consistent use of      scope, can be     Resources.             operations
 planning Levels, hold a         ABCD Miscellaneous     implemented FS-- Centralize funding      plan. NMAC
 percentage of NSRs at each      funds and reduced      only through      and management of      moved IHC's
 level for IA rather than        severity needs.        Assistant         national cache         when needed due
 large fire support.            Simultaneous increase   Director for      system.                to potential
                                 in percentage of       Operations.      Hold funding for NSRs   activity or
                                 resources held for                       at the national        critical fire
                                 IA with increased                        level instead of       needs.
                                 planning levels.                         distributing to       Funding has not
                                National level                            local units.           been held at
                                 funding ensures                          Establish agreements   the national
                                 consistent use of                        with host units to     level yet for
                                 NSR funds across                         cover fixed costs.     these resources
                                 regions.                                                        or the caches
                                Increases National                                               due to the
                                 flexibility in the                                              issue of WO
                                 assignment of                                                   ceiling.
                                 resources.                                                      Discussions
                                Increases                                                        need to take
                                 availability of                                                 place between
                                 resources by                                                    FAM and PBA.
                                 eliminating                                                    DOA from Chief
                                 concentration of                                                of FS, Deputy
                                 resources in a                                                  Secretary of
                                 geographic area.                                                Interior,
                                                                                                 Administrator
                                                                                                 of U.S. Fire
                                                                                                 Administration,
                                                                                                 and President
                                                                                                 of National
                                                                                                 Association of
                                                                                                 State Foresters
                                                                                                 to NMAC on 6/19/
                                                                                                 07.
GO-3 (recommendation linked to
 L-4)                           Provides additional    FAM, Predictive   Immediate direction    Decision Support
National Operational             expertise to local     Services,         to NIMO Incident       Group was
 Oversight.--Provide review of   Line Officers in       National          Commanders (ICs)       assigned with
 incident strategy from          making strategic       Incident          from WO.               the RFR and the
 organizational level above      decisions on           Management       Develop a national      CPR. NMAC
 the Line Officer.               potential mega         Organization      operations decision    utilized a
                                 fires. Early           (NIMO).           support group.         support group
                                 strategic decisions                      Supply Chiefs          to provide
                                 significantly                            Principle              intelligence
                                 influence long term                      Representative as      for decision
                                 fire costs.                              decision support       making.
                                                                          with team.
GO-4
Incident Complexity.--Many      Keeping an incident    Type III          Letter from WO,        NWCG engaged the
 incidents can be managed        at Type III can        organization:     through NLT,           IOSWT to review
 safely and effectively under    reduce costs.          FAM, NLT.         mandating each         complexity and
 a Type III organization.       Potential Cost         Complexity         Forest/sub-            team typing.
 Current complexity analysis     Savings: $1.5 to 10    analysis:         geographic area        NWCG will
 occasionally leads to a         million per incident   National          establish a Type III   continue to
 higher level incident           that does not go to    Wildfire          organization.          work on this.
 management team than needed.    T1/T2.                 Coordinating     FAM request to NWCG     Will review the
                                                        Group (NWCG).     to revise current      capability in
                                                                          complexity analysis    each region
                                                                          to reduce ambiguity    this winter.
                                                                          and better
                                                                          differentiate
                                                                          between various
                                                                          incident levels.
GO-5
Length of Assignment.--The      Reduces mobilization   NWCG, LOT, FAM..  FS recommend through   Area Commands
 current 14-day rotation is      costs, improves                          NWCG changes to        assigned this
 not optimal for NSRs and        transition-related                       Redbook,               season will
 IMTs, including Area Command.   safety issues and                        Mobilization Guide,    recommend a
 Manage fatigue in order to      promotes better                          FSM, and FSH.          review at the
 gain optimal utilization of     local community                         IMTs adopt methods to   NMAC/GMAC end
 resources assigned to an        relations.                               monitor accidents,     of year
 incident.                      Potential Cost                            illnesses, and other   meeting.
14-day rotation policy will      Savings: $1.7                            safety concerns       Pacific
 continue to apply to other      million annually                         throughout             Northwest (PNW)
 resources.                      \14\.                                    incidents. Safety      used longer
                                                                          Council would assist   assignments.
                                                                          in monitoring         NIMO 30 days
                                                                          accidents, trends      <greek-e> 3.
                                                                          and near misses and
                                                                          facilitate peer-
                                                                          reviews.
GO-6
Constrained Resources.--        Increased efficiency   FAM, NLT, NMAC..  Request development    Have not
 Constrain resources to an       by requiring a true                      and implementation,    officially
 incident to eliminate           prioritization of                        through GMAC, of a     initiated this
 concentration of resources on   actions and                              ``Stratified           request.
 a few incidents and increase    assignment of                            Resource Index.''     However
 resource availability to a      resources by the IMT/                    Analysis would         Geographic
 wider range of incidents.       Line Officer.                            determine the          Areas utilized
Assign a set number of          Equalizes the use/                        ``average'' number     long term
 resources based on planning     availability of                          of resources that      planning
 levels to an incident.          resources during                         would be assigned to   relative to
Assignment of additional         major weather events                     an incident            their incidents
 resources would be approved     across geographic                        commensurate with      and implemented
 at GMAC or NMAC levels and      areas.                                   conditions and         this philosophy
 only after an analysis         Increases National                        resource values.       by moving
 assisted by FS Pro and RAVAR    and geographic area                     Develop and implement   resources
 that develops an alternative    flexibility in                           a ``constrained        internally to
 in the WFSA for the specific    assignment of                            resource approach''    assist in
 conditions and duration of      resources.                               in the assignment of   managing fires
 use.                           Develops a                                firefighting           during peak/
                                 suppression resource                     resources to           critical times.
                                 baseline to serve as                     incidents that        Area Commanders
                                 a foundation for                         progress beyond the    will develop a
                                 constraining the                         extended attack        recommendation
                                 number of resources                      stage.                 on a process to
                                 made available to an                                            be adopted
                                 incident.                                                       nationally.
GO-7
Coordination Centers.--With     Fewer intermediate     Mobilization      Related to fiscal      Dispatch
 full implementation of ROSS,    stops in dispatch      system,           year 2008 Dispatch     Feasibility
 is the need for the current     system may reduce      interagency       Feasibility Study.     Study was
 number of Geographic Area       cost as well as        partners.        Consider re-            completed. No
 Coordination Centers            provide for resource                     engineering of         decision as of
 necessary?                      order filling                            mobilization system    3/1/08. Outcome
                                 efficiencies.                            from 3 Tier to 2       of study will
                                Potential Cost                            Tier Mobilization.     help determine
                                 Savings: $650,000                                               where
                                 per unit \15\.                                                  efficiencies
                                                                                                 will be gained
                                                                                                 and
                                                                                                 implemented.
GO-8
Standardization.--Identify      Standardization will   Engineering, FAM  FAM to work with       The Fleet
 efficiencies that may be        reduce long term                         engineering to         Feasibility
 gained through engine           costs of fleet                           establish a national   Study is
 standardization. All            management, due to                       policy for engine      completed, but
 geographic area needs will be   standardization of                       standardization and    has not been
 considered in the selection     equipment.                               develop a series of    released.
 of standard models.                                                      common models to be   FAM will
                                                                          used nationally.       establish a
                                                                                                 small task
                                                                                                 group to
                                                                                                 develop
                                                                                                 recommendations
                                                                                                 for fleet make-
                                                                                                 up and
                                                                                                 standardization
                                                                                                 for engines.
GO-9
Review Traditional              Allow all resources    NWCG or consider  Formal FAM request to  A request has
 Operations.--Review             to be configured in    contracting the   NWCG.                  not been made
 traditional organization, use   the most cost          development and  Establish a study       yet to NWCG.
 and structure of Area           efficient manner       review or         group to perform
 Command, IMTs and NSRs.         possible.              utilize NIMO.     review. Consider
                                                                          multi-mission, year-
                                                                          round capability,
                                                                          size, configuration,
                                                                          etc. Consider
                                                                          contracting the
                                                                          development and/or
                                                                          the review.
GO-10
Local Resources.--Incorporate   Using local resources  USFS leadership   WO FAM policy          Geographic Areas
 local fire agencies into the    would reduce costs     with  NASF.       discussion with NWCG.  utilized local
 IA and extended attack          related to                              Develop strategy to     resources per
 organization for each           mobilization of                          pilot initial attack   their
 National Forest.                national resources.                      support through        established
                                 Local resources                          local government.      agreements.
                                 provide immediate                                              FAM strategy
                                 and often less                                                  development is
                                 expensive support                                               on-going.
                                 \16\.
GO-11
Contract for Contingency        Contracting provides   AQM, GSA, NICC..  FAM should identify    FAM is working
 Resources.--Look into           for additional                           critical shortages     with
 development of contracting      resources where                          and needs--            contracting to
 buying teams, logistics and     critical shortages                       coordinate with AQM    develop the
 planning modules,               exist. This relates                      to develop contract    requirements.
 particularly for all-hazard     more to resource                         packages.              Will be
 support.                        availability than to                                            submitting a
                                 direct cost savings.                                            request for
                                                                                                 contract action
                                                                                                 in 2008.
GO-12
Smokejumper Program.--          Greater efficiency     FAM, DOI........  Annually update        ADFF was
 Reevaluate smokejumper          for Initial Attack                       National Operations    completed in
 program and all its support     would promote long-                      Plan.                  December 2007.
 requirements for cost/          term savings.                           Complete and            Results will
 benefits. Include the number                                             Implement ADFF         feed the NIAC
 of bases necessary to support                                                                   Phase 3 and the
 a national program with                                                                         aviation
 delivery systems.                                                                               feasibility
                                                                                                 study group for
                                                                                                 potential
                                                                                                 strategies and
                                                                                                 recommendations
                                                                                                 .
----------------------------------------------------------------------------------------------------------------


                                MANAGEMENT CONTROLS AND EFFICIENCIES: MANAGEMENT
----------------------------------------------------------------------------------------------------------------
    Management controls and
         efficiencies                  Benefits        Parties involved     Action required          Status
----------------------------------------------------------------------------------------------------------------
M-1
Hazardous Fuels Support.--      Increased              FAM, fire         Identify internal and  Have not begun
 Support hazardous fuel          productivity,          operations,       interagency            this.
 treatments among agencies       standardization, and   fuels, and        capability to form
 with internal and interagency   efficiencies to both   interagency       and mobilize
 resources. Identify more        suppression and        partners. FS-     resources. Expand
 efficient business practices    hazardous fuels        only: implement   ROSS capability to
 to facilitate this.             organizations.         through           meet this need.
                                Reduced overhead        Assistant        Initiate discussions
                                 costs                  Director for      with DOI and FS Fire
                                Increased               Operations and    Directors to review
                                 coordination among     Assistant         cross billing policy
                                 interagency partners   Director for      to allow for better
                                 at the local level.    Fuels.            utilization of
                                                                          resources as the
                                                                          local level.
M-2
Return on Training              Reduced reliance upon  Interagency       Risk management AD     Initiated review
 Investment.--Focus training     administratively       community, but    begin needs analysis   of training
 dollars to meet the needs of    Determined (AD)        can be started    for FS in 2007.        curriculum and
 critical shortage positions.    personnel and          FS-only          Develop requirement     qualifications.
Assign mobilization targets      contractors to         immediately.      for personnel to       Began gathering
 (e.g. 50 percent of red-        compensate for lack                      utilize completed      data relative
 carded personnel respond to     of available                             training. Require      to number
 incidents).                     resources.                               trainees to complete   qualified and
                                Better utilization of                     training assignments   what positions.
                                 training funds for                       as early in the       Utilized the
                                 target positions                         season as possible.    qualifications
                                 based on needs                          GACCs will work with    system and ROSS
                                 analysis.                                their partners to      in fiscal year
                                                                          ensure adequate        2007 to assist
                                                                          training               the regions
                                                                          opportunities on       with personnel
                                                                          IMTs.                  for
                                                                                                 assignments.
M-3
Long Term Fire Behavior         Provide skills         FAM, HR.........  FAM work with HR to    LTANs were
 Analyst (LTAN).--Currently a    necessary to                             consider possibility   provided with
 critical shortage of LTANs.     evaluate the latest                      of incentives to       in the national
 Long term planning skills are   technology for                           encourage additional   and regional
 critical for the successful     consideration of                         LTAN training.         support groups
 implementation of AMR.          long term strategies.                                           to assist with
 Operational decision-making    Increased decision                                               decision
 needs to consider the full      support for AMR.                                                making.
 range of AMR.                   Decision makers will                                           Have not
                                 be able to quantify                                             initiated
                                 values, costs and                                               anything with
                                 benefits, as well as                                            HR. Depending
                                 short and long term                                             on M-2 and the
                                 effects.                                                        success of
                                                                                                 fiscal year
                                                                                                 2007 season
                                                                                                 practices, may
                                                                                                 move forward
                                                                                                 with HR.
M-4
Mega Fires.--Work with          Potential cost         Research, FAM...  FAM to request         On-going
 research to evaluate past       savings if early                         research focus.        project.
 mega-fires to compare           stage decisions can                                             Results of
 investments to resource         be identified that                                              report will be
 protection to identify and      contribute to mega-                                             shared and
 establish the thresholds for    fire status.                                                    evaluated for
 diminishing returns.                                                                            implementation.
M-5
Fire and Aviation Facility      Eliminate costly       National Fire     Proposal developed     Although haven't
 Realignment.--Develop a         facilities that no     and Aviation      and presented to       started this
 process similar to the          longer meet our        Executive Board   WFLC for action.       process, some
 military's Base Realignment     primary needs of       (NFAEB),                                 is related to
 and Closure (BRAC) to           rapid mobilization     engineering,                             the aviation
 evaluate on an interagency      of NSRs.               legislative                              feasibility
 basis needed facilities and    Potential Cost          affairs.                                 study and the
 recommend realignment and       Savings.--$50                                                   priority
 closures for cost saving        million estimated                                               setting for
 benefits.                       initial reduction.                                              funding
                                                                                                 requests for
                                                                                                 facility
                                                                                                 maintenance.
M-6                                                                                             ................
Cost-Benefit of IFPM.--Better   Potential cost         Training          FAM..................
 understand the true long term   savings of training    Officers, FAM.   Conduct a cost
 costs and benefits of IFPM.     dollars with long                        benefit analysis of
                                 term cost savings                        IFPM
                                 possible.                               Assess continuing
                                                                          education needs
                                                                          relative to job
                                                                          function. e.g., fire
                                                                          management,
                                                                          Emergency
                                                                          Coordination Center
                                                                          (ECC) managers,
                                                                          safety
                                                                          professionals, etc.
M-7
Contracting.--identify the      Reduce overall cost    FAM, AQM........  Continue work already  FESSA group
 appropriate procurement tool    of obtaining                             started by Fire        established a
 for obtaining contracted        equipment and                            Equipment Services     procurement
 resources in order to           services through pre-                    and Supplies           plan for
 influence costs by              planning, formal                         Acquisition (FESSA)    standardization
 competition and best value.     competition and                          and NWCG through the   of equipment
                                 standardization.                         Incident Business      for procurement
                                                                          Practices Working      procedures. New
                                                                          Team (IBPWT).          program is
                                                                          Establish standards,   being developed
                                                                          specifications and     to facilitate
                                                                          requirements in        hiring and
                                                                          order to gain          utilization of
                                                                          efficiency in          contracted
                                                                          procurement and        services/
                                                                          tactical utilization.  equipment.
                                                                         Develop Virtual
                                                                          Incident Procurement
                                                                          System (VIPR).
M-8
Medical Standards.--Review      Reduce potential       Interagency,      AD for Risk            The program is
 Medical Standards Program       redundancy for         Unions.           Management discuss     being reviewed
 with an emphasis on reducing    measuring health                         combining              on an
 costs and complexity.           capacity.                                requirements to        interagency
 Evaluate the possibility of                                              eliminate              basis. Some
 including the work capacity                                              duplication with       changes are
 test under MSP.                                                          Medical Standards      being
                                                                          Team.                  implemented
                                                                                                 during the 2008
                                                                                                 season.
M-9
ASC/ISO Impacts.--With the      Mitigations conducted  Business          Evaluate the true      The Branch Chief
 centralization of the ASC,      by fire management     Operations,       needs of an incident   for Incident
 support to fire for critical    are costly and could   FAM, ISO.         for communication      Business worked
 positions has become a          be reduced through                       and finance support    with ASC to
 concern (particularly           greater partnership                      needs.                 facilitate
 communications and finance      with ASC.                               Preparation of          personnel
 support).                                                                service level          support on
ASC--Albuquerque Service                                                  agreement              incidents. ASC
 Center                                                                                          staff toured a
ISO--Information Solutions                                                                       couple of fires
 Organization                                                                                    to gain an
                                                                                                 understanding.
                                                                                                 The IBPWT will
                                                                                                 submit a
                                                                                                 proposal to
                                                                                                 NWCG requesting
                                                                                                 they evaluate
                                                                                                 current
                                                                                                 business
                                                                                                 practices in
                                                                                                 the Finance
                                                                                                 section, and
                                                                                                 identify
                                                                                                 methods to
                                                                                                 change the
                                                                                                 business where
                                                                                                 efficiencies
                                                                                                 can be gained.
----------------------------------------------------------------------------------------------------------------
\1\ Briefly describe the issue followed by the proposed control and/or efficiency. With this protocol other
  solutions or opportunities might become apparent.    \2\ Describe the benefits. Actual cost savings may be
  known or possible to gather in this venue but describe how the actual dollar savings would be determined.
  \3\ Who has ownership and who needs to be involved with the coordination?    \4\ Include who, what, and when
  any documents or manuals, handbooks etc. that would have to be changed would be here.    \5\ All WFSA
  recommendations can be cross-referenced to TriData report.    \6\ Congressional Intent from 2005
  Appropriations language.    \7\ Dependent upon changes in Federal Wildland Fire Policy as identified in the
  AMR management efficiency description.    \8\ Implementing this position as an FTE would also save $50,000
  annually in salary, travel and lodging for detailers to maintain the helicopter database.    \9\ Based on
  historic utilization of local CWN and Exclusive Use Type 3 helicopters, each region could save $100,000 to
  $150,000.    \10\ This links to the discussion of NSRs in Operations section.    \11\ Based on conversion of
  25 Type I and 25 Type II contracts.    \12\ Estimate based on reducing aviation resources every one-quarter of
  incident time. Figures utilized from Tripod incident.    \13\ Calculated using a 2 percent cap per Regional PR
  budget.    \14\ Estimate based on 51 rotations total with 50 people per team. Estimated cost per mobilization/
  demobilization is $100,000.    \15\ Estimate based on salary/support costs of $400,000 and $250,000 rent/
  utilities.    \16\ See 12/2003 NAPA Report ``Utilizing Local Firefighting Forces.''

    Fire and Aviation Management Recruitment and Retention Analysis

                         [USDA Forest Service]

                            INTRODUCTION

    This report is in response to the following language in the 
Explanatory Statement accompanying the Consolidated Appropriations Act 
of 2008 (Public Law 110-161).

    ``The Appropriations Committees are aware that the Forest Service 
is facing challenges to recruit and retain wildland firefighters in 
Region 5, particularly on southern California forests, due to the 
agency's vastly different pay scales and personnel policies and the 
high cost of living in the region. The Forest Service should examine 
Federal firefighter pay and personnel policies and provide the House 
and Senate Committees on Appropriations with a proposal to increase 
recruitment and retention for southern California forests no later than 
February 1, 2008.''

    The Forest Service (FS) appreciates the patience of the 
Appropriations Committees in allowing Region 5 and the national 
headquarters to develop a thorough analysis of this complex set of 
issues. The dynamics studied in this proposal are controversial and 
will not be solved quickly or easily. For that reason, our proposal 
includes a series of long term suggestions to address the issues 
identified above.
    It is important to note two things about the national context 
surrounding this report. First, the efficacy of Forest Service initial 
attack response has not diminished. The success continues to stay 
around 98 percent for all initial attack incidents. The agency is 
committed to maintaining this high level of success. Second, recent 
increases in Fire Suppression expenditures have been well documented, 
as has the resulting impact on other agency programs. In response, 
Forest Service leadership has aggressively implemented cost containment 
measures, resulting in decreased Suppression costs in fiscal year 2007. 
It is essential that the proposals related to Region 5 firefighter 
recruitment and retention support both continued initial attack success 
and cost containment efforts.
    The issues highlighted by this report will continue to be closely 
monitored.

                            ISSUES EXAMINED

    The issues examined in the report are widely circulated and are 
frequently polarizing; therefore the methods used to complete the 
analysis relied on data from a variety of sources. Rates of attrition 
were from Region 5 records, Forest Service Human Capital records and 
the Office of Personnel Management. Pay data was from employees' W-2's 
both CAL FIRE and U.S. Forest Service. The reasons for leaving were 
provided from exit interviews in Region 5.
    Forest Service Human Capital Management staff reviewed pay act and 
authorities and determined there are actions available locally, 
regionally and nationally. The Regional Forester and other line 
officers have discretion in the application of these authorities.
    There is a perception, as noted by the Appropriations Committees 
and confirmed through informal employee sensing, the Forest Service 
faces recruitment and retention challenges in southern California. 
While a detailed analysis shows the region has some retention 
challenges, it also suggests the problems are manageable.
    A 10-year analysis of permanent fire workforce in Region 5 reveals 
several important trends.
    (1) The total number of permanent Fire and Aviation Management 
staff in the region nearly doubled between 1997 and 2007, from 1,257 to 
2,290. An 82 percent increase indicates successful recruitment efforts, 
not the opposite.
    (2) In 2007 the Region 5 Fire and Aviation Management staff 
experienced 370 retirements, resignations and transfers. However, 
recruitment resulted in a net gain of 68 employees, or 3 percent.
    (3) The overall Forest Service attrition rate in southern 
California (9.4 percent) is actually lower than the national Federal 
attrition rate (13.4 percent).
    These statistics indicate that recruitment is outpacing attrition 
in Region 5. Furthermore, attrition within southern California is well 
within national averages. Based on these trends, it appears that 
recruitment and retention are within expected norms. However, there are 
areas within the statistics cited above which deserve closer 
examination, and which the proposals of this report will address.
    First, the largest component of separations within the Region 5 
Fire and Aviation Management organization come at the GS-4 level, where 
the attrition rate is 46.6 percent. Attrition rates above the GS-4 
level do not differ significantly from regional or national averages.

    FIGURE 1.--ATTRITION RATES BY GRADE IN SOUTHERN CALIFORNIA, REGION 5, FOREST SERVICE AND FEDERAL SERVICE
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                             Pacific       Forest
                            Grade                               Southern    Southwest     Service      Federal
                                                               California     Region        wide       service
----------------------------------------------------------------------------------------------------------------
GS-04.......................................................         46.6         32.1         23.6      ( \1\ )
GS-05.......................................................          8.7         10.9         12.3      ( \1\ )
GS-06.......................................................          3.9          2.9          2.1      ( \1\ )
GS-07.......................................................          4.2          2.4          1.5      ( \1\ )
GS-08.......................................................          1.1          0.7          0.3      ( \1\ )
GS-09.......................................................          1.1          1.2          0.9      ( \1\ )
GS-11.......................................................          0.2          0.6          0.6      ( \1\ )
Overall.....................................................          9.4          7.2          6.3        13.4
----------------------------------------------------------------------------------------------------------------
\1\ UNK
Notes:
    Includes series only 0462 and 0401 both fire and non fire positions.
    Data retrieved from NFC Reporting Center.
    Southern California includes Angeles, Cleveland, Los Padres, and San Bernardino National Forests.
    The rate of attrition for Cal Fire is currently unknown.

    Second, a higher percentage of separations are due to resignations 
(as opposed to retirement or transfers) than the regional or national 
average (Figure 2). Exit interviews indicate that 44 percent of those 
leaving the Forest Service went to CAL FIRE or local fire departments 
(Figure 3).
Figure 2: Resignations as a Percentage of Total Separations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Third, these trends are most pronounced on the Angeles National 
Forest and the San Bernardino National Forest, which saw the most 
resignations of any Region 5 forests. Of the resignations on these two 
forests in 2007, 45 percent were at the GS-4 level, and 61 percent went 
to State, county or local fire departments. The attrition rates for the 
two forests were 12.2 percent and 9.3 percent in 2007, according to 
Region 5 data.
Figure 3. Reason for Leaving Forest Service

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          PAY SCALES, COST OF LIVING , AND PERSONNEL POLICIES

    Local perception, as noted by the Appropriations Committees, is 
Forest Service pay scales and personnel policies, coupled with the high 
cost of living in southern California, make it difficult to attract and 
retain Fire and Aviation Management workforce in the region. Upon 
closer examination, the perception of the effects of pay scale and 
personnel policy discrepancies and high cost of living appears to be 
unsupported by the data.

Pay Scales
    Comparison of Forest Service and CAL FIRE payment and hours worked 
data for 2007 suggests that actual hourly rates of pay are comparable. 
It was difficult to determine the appropriate metric for comparison as 
the pay, staffing and personnel policies differed greatly. Wages as 
shown on W-2 forms were chosen as a measure. Cal Fire employees on 
average for the three positions examined worked about 62 percent more 
hours (4,457 v. 2,768) than their Forest Service counterparts. The 
comparison of pay and hours is not straight forward due to personnel 
policy differences, such as portal-to-portal pay and planned overtime 
that guarantee Cal Fire firefighters more total hours annually.
    Nonetheless, when accounting for all hours worked, overtime and 
hazard pay rates (see Figure 4):
  --Average pay of Firefighter II is $2.81/hour higher in FS than CAL 
        FIRE
  --Average pay of Fire Engineer is $5.36/hour higher in FS than CAL 
        FIRE
  --Average pay of Fire Captain is $7.08/hour higher in FS than CAL 
        FIRE
    Although Forest Service hourly pay is equal or higher, staffing 
plans guarantee CAL FIRE employees more hours and consequently more pay 
annually. In addition, Cal Fire employees work a 72 hour, three day 
shift, benefit from 24 hour pay while on fire assignments, and have a 
more generous retirement plan. Federal wildland fire staffing is 
closely tied to the threat of wildland fire activity, which occurs 
within a defined season. To ensure initial attack success and public 
safety during the fire season at the most reasonable cost to taxpayers, 
the Forest Service uses variable staffing, seasonal aviation 
contracting and seasonal employees.

                       FIGURE 4.--PAY COMPARISON CAL FIRE AND U.S. FOREST SERVICE (HOURS)
----------------------------------------------------------------------------------------------------------------
                                                     Additional                                          Average
                                         Base pay    base hours     Planned    Unplanned     Annual      hourly
                                                    included \1\   overtime    overtime   compensation    rate
----------------------------------------------------------------------------------------------------------------
Cal Fire FFTR II \2\..................     (2,080)    \1\ (676)        (988)       (561)      (4,305)     $15.04
                                           $33,324                   $16,973     $14,463      $64,760
USFS SoCal FFTR II \3\................     (2,080)  ............  ..........       (838)      (2,918)      17.85
                                           $35,014                               $21,082      $56.096
Cal Fire Engineer.....................     (2,080)    \1\ (676)        (988)       (734)      (4,478)      18.50
                                           $39,900                   $20,322     $22,633      $82,855
USFS SoCal Engineer...................     (2,080)  ............  ..........       (548)      (2,628)      23.86
                                           $44,987                               $17,716      $62,702
Cal Fire Captain......................     (2,080)    \1\ (676)        (988)       (844)      (4,588)      20.63
                                           $43,776                   $22,296     $28,572      $94,644
USFS SoCal Captain....................     (2,080)  ............  ..........       (679)      (2,759)      27.71
                                           $51,360                               $25,078      $76,438
----------------------------------------------------------------------------------------------------------------
\1\ Included.--Means money is included in base salary number. Cal Fire calculates base pay and overtime (planned
  and unplanned) in accordance with their bargaining unit agreement.
\2\ Full Time Employee.
\3\ Seasonal Employee.

    The data in the table above (figure 4) was developed from actual 
2007 W-2 data randomly selected from a sample of Forest Service 
employees in southern California. It includes overtime and hazard pay. 
The Cal Fire data is actual 2007 compensation provided by their agency. 
Cal Fire employees do not receive hazard pay. The average hourly rate 
is computed by dividing the total compensation by the total hours 
worked. Unplanned overtime is highly variable for employees of both 
agencies.
    Forest Service employees at the GS-04 and 05 grades are Permanent 
Seasonal employees either 13/13 or 18/08 (guaranteed at least 13 pay 
periods or 18 pay period of employment out of a total of up to 26). Cal 
Fire employees are all full time employees.
    Cal Fire employees work a 72 hour schedule each week which is paid 
as 53 base hours and 19 planned overtime hours. Any time in excess of 
212 in a 28 day period is paid as unplanned overtime.
    It should be noted the two agencies have very different work 
schedule expectations and pay rules therefore actual compensation was 
averaged to determine the unplanned overtime.
Cost of Living
    Analysis performed by the Office of Personnel Management (OPM) 
indicates that Federal employees in southern California do experience 
pay disparities compared to non-Federal workers. However, Los Angeles 
and San Diego are not the only localities where this is true, nor do 
they experience the most severe disparities. In fact, the pay disparity 
in Los Angeles is below the national average, and San Diego's is 
comparable. Below is a table of 2007 pay disparities for comparison.

------------------------------------------------------------------------
                                                             Disparity
                        Locality                              Percent
------------------------------------------------------------------------
Atlanta.................................................           23.21
Boston..................................................           25.35
Chicago.................................................           23.06
Dallas..................................................           22.42
Los Angeles.............................................           21.82
New York................................................           26.67
Phoenix.................................................           25.02
San Diego...............................................           25.20
San Francisco...........................................           28.62
Seattle.................................................           23.39
Washington DC...........................................           36.30
Average (all of United States)..........................          22.97
------------------------------------------------------------------------
(http://www.opm.gov/oca/payagent/2007/PayDisparities.asp

Personnel Policies
    Comparing personnel policies of Federal wildland fire agencies with 
local and State fire agencies is complex. While it is natural for 
employees to compare their job descriptions, compensation, and benefits 
with those of similar workers in close proximity, there are also 
important distinctions and valid differences between them. Forest 
Service fire management personnel in southern California and across the 
Nation are Forestry Technicians. This title reflects their land 
management orientation. In the course of their work, they collaborate 
with State and local employees of fire departments. This is a subtle 
but key difference. Even though both Federal wildland firefighters and 
fire department firefighters focus on fire, the mission purposes of the 
agencies differ, and so too do the roles and responsibilities of their 
respective personnel. Fire departments generally have an emergency 
responder role that includes traffic collisions, medical calls and 
other actions that are not wildland fires. That is to say, the Forest 
Service is a land management agency that employs wildland firefighters 
to accomplish land management objectives, while the mission of fire 
departments personnel focus on preserving life and property. Because of 
differing responsibilities, it is both impossible and inappropriate for 
the Forest Service to pay and staff the same way as these fire 
departments. For example the Forest Service does not allow fire 
fighters to enter structures to suppress these fires.
    The tendency of our employees, partners and the public to compare 
Forest Service fire management responsibilities to State and local fire 
departments points to a larger issue the agency is facing regarding the 
need for a clear mission and definition of responsibilities for our 
firefighters in the wildland urban interface. Fires in recent years 
have become larger and more difficult to control due to a variety of 
factors, including climate change, historic fire suppression efforts 
resulting in increased density of hazard fuels, and expansion of 
residences in the wildland urban interface (WUI). This situation is 
acutely felt in southern California where over 189,000 new homes have 
been built since 2003 in the Wildland/Urban interface. This growth 
poses a higher level of complexity on Wildland firefighting in fire 
adapted ecosystems. Therefore, the agency must clearly express its 
emergency response role, and clarify distinctions between State and 
local fire department.

                            PROPOSED ACTIONS

    The analysis outlined above suggests that the perceptions around 
recruitment and retention in southern California are hard to 
substantiate based on data. An analysis of available data confirms that 
while issues regarding perceptions around recruitment and retention in 
southern California may exist, they cannot be objectively 
substantiated. Absent such substantiation, recommendations that the 
Office of Personnel Management depart from standard Federal pay rates 
or the agency seek other special personnel authorities are unwarranted. 
Further, such actions may have the unintended consequence of negatively 
affecting recruitment and retention elsewhere in the Nation.
    Accordingly, key actions to be undertaken immediately by the Forest 
Service will be internal and external communication around these 
findings:
  --Region 5's Fire & Aviation Management recruitment rate is greater 
        than its attrition rate.
  --The attrition rate in southern California is below national 
        averages.
  --On average, Forest Service hourly pay rates are actually greater 
        than those for comparable CAL FIRE positions.
  --Federal workers in southern California are paid less than their 
        counterparts in the private sector, but other parts of the 
        country experience similar or worse rates of disparity.
    In the course of this analysis, additional issues outside the scope 
of the requested report have become evident; clearly there are morale 
issues which need leadership's attention and action. We refrained from 
making recommendations addressing these in the report as it is outside 
the scope of the committee's request. Additionally, these morale issues 
will take more time to review, validate and resolve. Leadership will 
focus attention on this important area and will keep the committees 
apprised of the situation and the progress to resolve the issues.
    In addition to increased communication around key issues, the 
Forest Service will consider specific long-term actions. These 
recommendations will consider potential morale and budget impacts 
resulting from providing special benefits solely to firefighters in 
southern California. Changing public and agency perceptions and 
ensuring employee morale will require active management over years. The 
recommendations below may be tools in that process.
  --Review and strengthen commitment to Wildland fire mission with 
        Federal, State, and local partners.
  --Strategically apply individual retention allowances and/or special 
        pay authorities within the discretion of the agency.
  --Encourage use of optional work schedules and tours of duty.
  --Improve employee housing and working facilities.
  --Improve communications connectivity, training, and access.
  --Determine cost and feasibility of special pay in identified high 
        cost areas.
  --Renegotiate cooperative agreements to provide more equity for 
        Forest Service employees.
  --Monitor issues identified and adjust as necessary.

    Mr. Rey. The Secure Rural Schools and Community Self-
Determination Act of 2000 was enacted to provide transitional 
assistance to rural counties affected by the decline in revenue 
from timber harvests in Federal forests. That legislation was 
extended for an additional seventh year under the terms of 
Public Law 110-28.
    The 2009 budget of the Forest Service includes a 
legislative proposal that provides $200 million above the 
current baseline for a 4-year extension of the legislation, and 
that proposal was included with our budget. The 2009 budget 
focuses resources on national forest and grassland 
responsibilities, which we've talked about at length already 
today, but it also reflects redesigned State and Private 
Forestry program approach.
    Funding is proposed in the 2008 farm bill in addition for 
purposes and activities similar to those supported by the State 
and Private Forestry program. The Conservation, Forestry, and 
Energy titles of the farm bill authorize nearly $10 billion in 
incentives to State and local governments and nonindustrial 
private forest landowners to pursue conservation, forest 
restoration, and biomass energy.
    I will submit for the record a summary of what's included 
in each, the administration, the House, and the Senate farm 
bill proposals.
    [The information follows:]

          2008 FARM BILL USDA/HOUSE/SENATE SIDE BY-SIDE SUMMARY
------------------------------------------------------------------------
 Item  USDA proposal summary      House summary        Senate summary
------------------------------------------------------------------------
 T8-1 No comparable         Sec. 8001 National    Sec. 8001 National
       provision.            Priorities for        Priorities for
                             Private Forest        Private Forest
                             Conservation.--Amen   Conservation.--Very
                             ds Cooperative        similar language to
                             Forestry Assistance   House version.
                             Act (CFAA) to
                             establish 3
                             priorities:
                              (1) Conserving and
                               managing working
                               forests.
                              (2) Protecting and
                               restoring forests
                               from a range of
                               threats.
                              (3) Enhancing
                               public benefits
                               from private
                               forests.
                              Secretary must
                             submit report on
                             outcomes to
                             Congress by 2011.
 T8-2 Sec. 8002             Sec. 8002 Long-Term,  Sec. 8004.
       Comprehensive         State-wide            Comprehensive
       Statewide Forest      Assessments and       Statewide Forest
       Planning.--Authoriz   Strategies for        Planning.--Directs
       es up to $65          Forest Resources.--   States to do
       million for States    States must do        assessments of
       to produce            assessments of        forest resource
       comprehensive         forest resource       conditions as a
       forest plans that     conditions as a       requirement to
       identify critical     requirement to        receive funds for
       forest landscapes     receive funds for     CFAA programs.
       and set management    all CFAA programs.    Similar to House
       priorities            Assessments           language, but
                             coordinated among     includes:
                             State forester or     Establishment
                             equivalent, State     clause directing
                             forest stewardship    Secretary to create
                             coordinating          the planning
                             committee, State      program; specifies
                             wildlife agency and   that community
                             State technical       wildfire protection
                             committee. Can use    plans should be
                             up to $10 million     considered in the
                             in available funds.   assessment; a plan
                                                   for achieving the
                                                   national priorities
                                                   (sec. 8001);
                                                   clarifies that the
                                                   Statewide plan
                                                   replaces all CFAA
                                                   planning and
                                                   assessment
                                                   requirements; must
                                                   also coordinate
                                                   with Federal land
                                                   management agencies
                                                   and the State lead
                                                   agency for the
                                                   Forest Legacy
                                                   Program. Authorizes
                                                   $10 million.
 T8-3 Sec. 8001 Community   No comparable         Sec 8002 Community
       Forests Working       provision.            Forest and Open
       Lands Program.--                            Space Conservation
       Authorizes up to                            Program.--Provides
       $65 million per                             financial support
       year in technical                           for acquisition of
       and financial                               community forests
       assistance for                              and emphasized
       local communities                           technical
       to purchase and                             assistance to
       manage community                            communities.--The
       forests.                                    program would be a
                                                   competitive grant
                                                   process open to
                                                   tribes, local
                                                   governments, or non-
                                                   profit land trusts.
                                                   There is a 50
                                                   percent cost-share
                                                   requirement. The
                                                   community forests
                                                   should provide
                                                   economic,
                                                   environmental,
                                                   educational
                                                   technical
                                                   assistance, and
                                                   recreational
                                                   benefits. The
                                                   program requires
                                                   that community
                                                   forests are open to
                                                   public access and
                                                   managed consistent
                                                   with the purposes
                                                   of the program. Up
                                                   to 10 percent of
                                                   program funds are
                                                   available to State
                                                   foresters or
                                                   equivalent tribal
                                                   officials for
                                                   program
                                                   administration and
                                                   technical
                                                   assistance.
 T8-4 No comparable         Sec. 8003 Assistance  Sec. 8005 Assistance
       provision.            to the Federated      to the Federated
                             States of             States of
                             Micronesia, the       Micronesia, the
                             Republic of the       Republic of the
                             Marshall Islands,     Marshall Islands,
                             and the Republic of   and the Republic of
                             Palau.--Amends CFAA   Palau.--Identical
                             by striking, ``the    language to House
                             Trust Territory of    version.
                             the Pacific
                             Islands'' and
                             inserting, ``the
                             Federated State of
                             Micronesia, the
                             Republic of the
                             Marshall Islands,
                             the Republic of
                             Palau''.
 T8-5 No comparable         Sec. 8004 Changes to  No comparable
       provision.            Forest Resource       provision.
                             Coordinating
                             Committee.--Modifie
                             s and expands the
                             Forest Resource
                             Coordinating
                             Committee at
                             Secretary level to
                             include the chiefs
                             of FS and NRCS and
                             administrators of
                             FSA and CSREES. Non-
                             Federal reps with 3-
                             year terms include
                             3 State foresters
                             or equivalent, a
                             representative from
                             a State technical
                             committee State
                             fish and wildlife
                             agency, NIPF owner,
                             Industry,
                             conservation orgs.,
                             land grant
                             university,
                             consultants, and
                             others. Coordinates
                             national efforts to
                             NIPF landowners.
                             Clarifies roles and
                             responsibilities--a
                             dvises on
                             allocation of
                             competitive funds,
                             and provides annual
                             report to Secretary
                             and Congress.
 T8-6 No comparable         Sec. 8005 Changes to  No comparable
       provision.            State Forest          provision.
                             Stewardship
                             Coordinating
                             Committees.--Replac
                             es requirement for
                             a statewide forest
                             stewardship plan
                             with statewide
                             assessment and
                             strategies for
                             forest resources.
                             State committees
                             make
                             recommendations on
                             the statewide
                             assessment. Adds a
                             representative from
                             the State technical
                             committee.
 T8-7 No comparable         No comparable         Sec. 8003 Forest
       provision.            provision.            Legacy
                                                   Applications.--Amen
                                                   ds CFAA by stating
                                                   applications
                                                   submitted by Indian
                                                   tribes do not have
                                                   to pass through the
                                                   State coordinating
                                                   committee.
 T8-8 No comparable         Sec. 8006             No comparable
       provision.            Competition in        provision.
                             Programs Under
                             Cooperative
                             Forestry Assistance
                             Act of 1978.--
                             Requires a portion
                             of CFAA funds, as
                             determined by the
                             Secretary, be
                             available
                             competitively to
                             State foresters.
                             State foresters are
                             the only eligible
                             entity. Secretary
                             to consult with new
                             forest resource
                             coordinating
                             committee to
                             determine
                             competitive
                             allocation of funds.
 T8-9 Sec. 8003 Landscape   Sec. 8007             No comparable
       Scale Competitive     Cooperative Forest    provision.
       Grant Program.--      Innovation
       Authorizes up to      Partnership
       $30 million per       Projects.--No more
       year in competitive   than 5 percent of
       grants for large,     CFAA funding for
       landscape scale       innovative
       forest conservation   national, regional,
       and restoration       or local education,
       projects.             outreach, or tech-
                             transfer projects
                             to meet the
                             national
                             priorities. Must
                             have 50 percent
                             cost share,
                             including in-kind
                             donations. Funds
                             eligible to States,
                             tribes, local
                             gov't, land-grant,
                             or private entities.
T8-10 No comparable         Subtitle B--          Conservation Title
       provision.            Amendments to Other   Sec. 2331 Healthy
                             Laws                  Forest Reserve
                            Sec. 8101 Healthy      Program.--Reauthori
                             Forest Reserve        zed through 2012.
                             Program               Changes language
                             Reauthorized until    from ``an easement
                             2012. Sec. 508.       of not more than 99
                             Funding. Authorizes   years'' to ``a
                             $10,000,000 in        permanent
                             funding.              easement.''
                                                   Authorizes ``such
                                                   sums as are
                                                   necessary''.
T8-11 No comparable         Subtitle B--          Conservation Title
       provision.            Amendments to Other   Sec. 2398 Emergency
                             Laws                  Landscape
                            Sec. 8102 Emergency    Restoration
                             Forest Restoration    Program.--Available
                             Program.--Provides    to NIPF owners to
                             Emergency Forest      restore landscapes
                             Restoration Program   damaged by fire,
                             for development and   drought, flood,
                             implementation        hurricane force or
                             plans of NIPF         excessive winds,
                             owners who have       ice storms or
                             sustained loss or     blizzards, or other
                             damage to forest      resource-impacting
                             from fire,            natural events.
                             hurricanes, storms,   Priority for
                             drought, insects,     activities
                             disease, or           protecting human
                             invasive species.     health and safety.
                             Plan addresses        Funding subject to
                             reforestation,        appropriation. Up
                             restoration, BMPs     to 75 percent cost
                             and stewardship. Up   share.
                             to 75 percent cost-
                             share, but not more
                             than $50,000/year
                             per owner. Owner
                             has 10 years to use
                             funds. Allows NIPF
                             lands to be
                             eligible for
                             emergency
                             restoration funds
                             if the Secretary
                             determines that
                             insects or diseases
                             pose an imminent
                             threat of loss or
                             damage to those
                             lands. Funding
                             would be through an
                             emergency
                             supplemental.
T8-12 Sec. 8202 Office of   Sec. 8101 Office of   Sec. 8202 Office of
       International         International         International
       Forestry.--Extends    Forestry.--Reauthor   Forestry.--Reauthor
       the authorization     ized through 2012.    ized through 2012.
       for appropriations
       (does not specify
       amount) through
       2012 for the Office
       of International
       Forestry
       (International
       Programs).
T8-13 Sec. 8203 Rural       Sec. 8104 Rural       No comparable
       Revitalization        Revitalization        provision.
       Technologies.--Auth   Technologies.--Iden
       orizes                tical Language--
       appropriations of     reauthorized
       $5 million for each   through 2012. This
       fiscal year 2008-     authority is used
       2012 for the Forest   to administer the
       Products Lab to       biomass utilization
       accelerate adoption   grants..
       of technologies
       using biomass and
       small-diameter
       materials and
       provide assistance
       and information to
       small businesses.
T8-14 Sec. 8201 Renewable   Included in Research  Sec. 8201 Renewable
       Resources Extension   Title. Extends        Resources Extension
       Activities.--Author   authority through     Activities.--Reauth
       izes $30 million      2012.                 orized through 2012
       for each fiscal                             at $30 mil each
       year 2008-2012 for                          fiscal year.
       the Renewable
       Resources Extension
       Program
       administered by
       CSREES through
       State universities
       to provide
       technical
       assistance to
       landowners.
T8-15 No comparable         No comparable         Sec. 8101
       provision.            provision.            Definitions.--Provi
                                                   des definitions for
                                                   Indian, Indian
                                                   tribe, and National
                                                   Forest System that
                                                   will be used under
                                                   Subtitle B of this
                                                   bill--Tribal-Forest
                                                   Service Cooperative
                                                   Relations.
T8-16 No comparable         No comparable         Sec. 8111 Forest
       provision.            provision.            Legacy Program.--
                                                   Amends CFAA to
                                                   allow include
                                                   Indian tribes to
                                                   participate in the
                                                   Forest Legacy
                                                   Program. Tribes are
                                                   eligible to receive
                                                   grants to carry out
                                                   FLP projects.
T8-17 No comparable         No comparable         Sec. 8112 Forestry
       provision.            provision.            and Resource
                                                   Management
                                                   Assistance for
                                                   Indian Tribes.--
                                                   Authorizes the
                                                   Secretary to
                                                   provide assistance
                                                   to tribes to access
                                                   NFS land for
                                                   religious and
                                                   cultural reasons,
                                                   and coordinate
                                                   resource
                                                   management.
                                                   Authorizes
                                                   conservation
                                                   education projects
                                                   and technical
                                                   assistance on
                                                   Indian forest
                                                   lands. Directs
                                                   Secretary to
                                                   develop rules
                                                   within 18 months in
                                                   coordination with
                                                   tribes and DOI.
T8-18 No comparable         No comparable         Sec. 8121. Purposes--
       provision.            provision.            Cultural and
                                                   Heritage
                                                   Cooperation
                                                   Authority (Secs.
                                                   8121-27).--Authoriz
                                                   es reburial of
                                                   tribal remains on
                                                   NFS lands, provides
                                                   access to NFS land
                                                   and forest products
                                                   for cultural
                                                   purposes, and
                                                   prevents the
                                                   disclosure of
                                                   burial site
                                                   locations and other
                                                   sensitive
                                                   information.
                                                   Authorizes the
                                                   temporary closure
                                                   of NFS land for
                                                   cultural purposes.
T8-19 No comparable         No comparable         Sec. 8122.
       provision.            provision.            Definitions.--Provi
                                                   des definitions for
                                                   terms used in this
                                                   Subsection.
T8-20 No comparable         No comparable         Sec. 8123 Reburial
       provision.            provision.            of Human Remains
                                                   and Cultural
                                                   Items.--Authorizes
                                                   the reburial of
                                                   human remains and
                                                   cultural items,
                                                   including those
                                                   repatriated under
                                                   NAGPRA (25 USC 3001
                                                   et seq.) on NFS
                                                   land. Prevents
                                                   unauthorized
                                                   disclosure of
                                                   information on
                                                   burial sites.
T8-21 No comparable         No comparable         Sec. 8124 Temporary
       provision.            provision.            Closure for
                                                   Traditional and
                                                   Cultural Purposes.--
                                                   The Secretary shall
                                                   ensure access by
                                                   Indian tribes to
                                                   NFS land. The
                                                   Secretary may, to
                                                   the maximum extent
                                                   practicable and for
                                                   the minimum period
                                                   of time,
                                                   temporarily close
                                                   from public access
                                                   specifically
                                                   designated NFS land
                                                   to protect the
                                                   privacy of tribal
                                                   activities for
                                                   traditional and
                                                   cultural purposes.
T8-22 No comparable         No comparable         Sec. 8125 Forest
       provision.            provision.            Products for
                                                   Traditional and
                                                   Cultural Purposes.--
                                                   Authorizes the
                                                   Secretary to allow,
                                                   to the maximum
                                                   extent practicable,
                                                   access to NFS land
                                                   by Indians and
                                                   Indian tribes for
                                                   traditional and
                                                   cultural purposes.
T8-23 No comparable         No comparable         Sec. 8126
       provision.            provision.            Prohibition on
                                                   Disclosure.--Author
                                                   izes Secretary to
                                                   protect
                                                   confidentiality of
                                                   certain
                                                   information,
                                                   including
                                                   information this
                                                   culturally
                                                   sensitive to Indian
                                                   tribes.
T8-24 No comparable         No comparable         Sec. 8127
       provision.            provision.            Severability and
                                                   Savings
                                                   Provisions.--Preser
                                                   ves all existing
                                                   tribal rights, all
                                                   existing agreements
                                                   among tribes and
                                                   the FS, existing
                                                   trust
                                                   responsibilities,
                                                   and other
                                                   outstanding rights
                                                   to use of NFS
                                                   lands.
T8-25 No comparable         Sec. 8201 Hispanic-   No comparable
       provision.            Serving Institution   provision.
                             Agricultural Land
                             National Resources
                             Leadership
                             Program.--Competiti
                             ve grants to
                             Hispanic serving
                             institutions for
                             undergraduate
                             scholarship
                             programs in
                             forestry. Promotes
                             professional work
                             in Federal and
                             State agencies in
                             natural resources.
                             Authorized ``such
                             sums as may be
                             necessary''.
T8-26 No comparable         No comparable         Sec. 8203 Green
       provision.            provision.            Mountain National
                                                   Forest Boundary
                                                   Adjustment.--Author
                                                   izes small
                                                   modification of the
                                                   boundary of Green
                                                   Mountain National
                                                   Forest.
T8-27 No comparable         No comparable         Sec. 8204 Prevention
       provision.            provision.            of Illegal Logging
                                                   Practices.--Amends
                                                   the Lacey Act
                                                   Amendment to
                                                   include trees in
                                                   the definition of
                                                   ``plant''.
T8-28 No comparable         No comparable         Sec. 8205 Sale and
       provision.            provision.            Exchange of
                                                   National Forest
                                                   System Land,
                                                   Vermont.--Authorize
                                                   s sale/exchange of
                                                   certain parcels of
                                                   land on the Green
                                                   Mountain NF in
                                                   Vermont.
T8-29 No comparable         No comparable         Sec. 8301 Qualifying
       provision.            provision.            Timber Contract
                                                   Options.--Allows
                                                   the Secretary to
                                                   cancel or re-
                                                   determine
                                                   qualifying timber
                                                   contracts if the
                                                   rate at which a
                                                   qualifying contract
                                                   would be advertised
                                                   on the date of an
                                                   enactment of this
                                                   language is at
                                                   least 50 percent
                                                   less than the
                                                   original purchased
                                                   rate of the
                                                   contract.
      Sec. 8201 Forest
       Wood to Energy
       Program.--Mandates
       $15 million per
       year for
       accelerating the
       development of
       renewable energy
       from woody biomass--
       including
       cellulosic ethanol
       and other
       bioenergy.\1\
------------------------------------------------------------------------
      \1\ Energy Title.--Similar provisions included in House and Senate
        Energy Titles.


    Mr. Rey. I think the point I'm trying to draw here is that, 
in evaluating the State and Private Forestry budget, you have 
to put it alongside the farm bill proposal, because what we are 
proposing to do is to broaden the reach of some of the 
conservation title programs to make them accessible to serve 
some of the interests that the State and Private Forestry 
functions of the Forest Service serve.
    So just looking at the 2009 Forest Service budget proposal 
doesn't give you the full picture of all of that proposed 
activity.

                           PREPARED STATEMENT

    In closing, then, I'd like to respond to Senator 
Alexander's question. We have, as have our colleagues at the 
Department of the Interior, evaluated in the past whether it 
makes sense to try to establish a separate firefighting agency. 
What we have concluded is that doing that then separates the 
firefighting function from the land management function, and 
probably doesn't buy you much in the way of program reforms or 
advantages. The issue of appropriate funding for firefighting 
would still remain even if that kind of change was made.
    With that, I'll turn the podium over to Chief Kimbell.
    [The statement follows:]

                   Prepared Statement of Mark E. Rey

                                OVERVIEW

    Madam Chairman and members of the subcommittee, I appreciate the 
opportunity to discuss the President's fiscal year 2009 budget for the 
Forest Service during today's hearing. I am pleased to join Forest 
Service Chief Gail Kimbell at this hearing today.
    In my testimony, I will discuss three issues that relate to the 
2009 budget. First, I will address Wildland Fire programs and 
management reforms. Next, I will address the need to provide 4 years of 
further transitional assistance to rural counties that received 
benefits under Secure Rural Schools and Self-Determination Act of 2000. 
Finally, I will discuss the redesign of Forest Service State and 
Private Forestry programs and related Federal investments proposed in 
the 2008 farm bill.

                             WILDLAND FIRE

    The 2009 budget proposes a total of $1.977 billion for Wildland 
Fire Management programs, including $994 million for Suppression, $588 
million for Preparedness, $297 million for Hazardous Fuel Reduction, 
and continued funding for other National Fire Plan activities. 
Additionally, the Forest Service is adopting significant management 
reforms to ensure equitable fire suppression cost sharing between 
Federal and other firefighting entities, fully implement risk-informed 
Appropriate Management Response, and enact cost containment 
accountability throughout Wildland Fire programs.
    The 2007 fire season illustrated the continued success of the 
Forest Service fire organization, but also the challenges we face. 
Fires in recent years have become larger and more difficult to control 
due to a variety of factors, including climate change, historic fire 
suppression efforts resulting in increased density of hazard fuels, and 
expansion of residences in the wildland urban interface (WUI). As a 
result, fire activity in 2007 was above normal by many standards. 
Across all jurisdictions, wildland fires totaled more than 78,000 
incidents burning over 9 million acres. Thirteen different fires burned 
over 100,000 acres each, and the Nation was in Preparedness Level 5 for 
33 days--the highest level of fire activity during which several 
geographic areas are experiencing simultaneous major incidents. Despite 
more fires than in 2006 and a 49 percent increase in acres burned, the 
cost of suppressing Forest Service fires was $127 million lower in 2007 
due to aggressive implementation of Appropriate Management Response and 
other cost containment measures.
    The southern California fires at the end of the 2007 fire season 
further exemplified the successful coordination and risk mitigation 
activities that have made the Forest Service fire organization a model 
the world over. Compared to similar events in 2003, the 2007 fires had 
more fire starts (271 compared to 213) and more large fires that 
escaped initial attack (20 compared to 14), yet much less resulting 
damage. Only 65 percent as many acres were burned, 60 percent as many 
structures were destroyed, 60 percent as many firefighters were 
injured, and 40 percent as many civilian fatalities occurred compared 
to 2003. Improvements are attributable to pre-positioning efforts, 
investments in hazardous fuels treatments and community capacity, and 
coordination with other Federal, State, and local entities.
    In spite of these signs of success, the 2007 fire season still 
resulted in nearly $1.4 billion of expenditures on fire suppression. As 
application of Federal firefighting resources on both Federal and non-
Federal land has grown, annual suppression expenditures escalate, as 
does the 10-year average of annual fire suppression expenditures, which 
determines the program's budget request. The 2009 Fire Suppression 
request is $994 million, over $250 million higher than it was just 2 
years ago, and nearly $150 million more than the current enacted level. 
The total Wildland Fire Management program, including continued focus 
on the National Fire Plan, makes up over 48 percent of the agency's 
discretionary budget request. The Forest Service is adopting 
substantive management reforms to mitigate this cost trend.
    In fiscal year 2009, the Wildland Fire Management program will 
continue to improve performance through attention to policy, training, 
oversight, decision support tools, and after action performance 
analysis. Management policy is set at the national level, and provides 
clear guidance for the role of Federal firefighters in the Wildland 
Urban Interface. Management policy also provides strategies of 
Appropriate Management Response, expectations concerning national 
shared resources and aviation resource cost management, and limitations 
to Severity funding. Mandatory training keeps agency administrators up 
to date on national policy. During an incident, the Chief's Principal 
Representative provides oversight, while decision support tools such as 
RAVAR and FSPro offer the incident commander information on fire spread 
probability, resource values at risk, and historic costs for similar 
fires. After action reviews, including use of the Stratified Cost 
Index, provide lessons and best practices to include in subsequent 
updates to management policy. This performance improvement process 
resulted in lower than projected suppression expenditures in 2007, and 
will enable the agency to maintain Fire Preparedness resources within a 
$588 million program budget, a decrease of $77 million from 2008.
    Several additional wildfire management reforms are based on 
recommendations of a USDA Office of Inspector General report that 
examined large fire suppression costs. The report documented 
inequitable apportionment of fire protection responsibilities between 
Federal and local entities in residential areas that abut national 
forests. In response, the Forest Service is renegotiating master 
protection agreements to clarify roles and ensure equitable and 
appropriate allocation of wildland urban interface firefighting costs 
between the agreement parties. Additionally, the Forest Service will 
implement a science-based methodology to encourage the cost-effective 
practice of using unplanned wildfires to reduce hazardous fuels when 
appropriate.
    We expect that the management improvements implemented and underway 
will make managers better prepared for wildfires; facilitate better 
decision making during firefighting operations; and provide the tools 
necessary to analyze, understand and manage fire suppression costs. 
While the factors of drought, fuels build-up in our forests and 
increasing development in fire prone areas have the potential to keep 
the number of incidents and total cost of wildfire suppression high for 
some time to come, we are confident in our strategy to address wildland 
fire suppression costs and are committed to action. We believe that the 
measures discussed today promise to expand efficiency and reduce 
suppression costs. We look forward to continued collaboration with our 
Federal, State, local, tribal, and other non-Federal partners to 
address our shared goal of effectively managing wildfire suppression 
costs.

CONTINUING TRANSITIONAL SUPPORT TO RURAL COMMUNITIES THROUGH EXTENSION 
                    OF SECURE RURAL SCHOOLS PAYMENTS

    The Secure Rural Schools and Community Self-Determination act of 
2000 (SRS) (Public Law 106-393) was enacted to provide transitional 
assistance to rural counties affected by the decline in revenue from 
timber harvests in Federal lands. Traditionally, these counties relied 
on a share of receipts from timber harvests to supplement local funding 
for school systems and roads. Funding from SRS has been used to support 
more than 4,400 rural schools and to help maintain county road systems. 
In addition SRS has authorized the establishment of over 55 Resource 
Advisory Committees (RAC) in 13 States, which has increased the level 
of interaction between the Forest Service, local governments, and 
citizens--resulting in greater support and understanding of the 
agency's mission. The Forest Service has distributed more than $2.5 
billion under this legislation since 2001 to assist counties in 
maintaining and improving local schools and roads. Of this amount, $213 
million have been used by RACs to implement more than 4,400 resource 
projects on national forests and grasslands and adjacent non-Federal 
lands.
    Though the Secure Rural Schools Act expired in 2006, Congress 
extended payments for a 7th year under Public Law 110-28. The final 
year of payments were made in December 2007, and included distribution 
of more than $389 million in Forest Service revenue to 41 States and 
Puerto Rico for improvements to public schools, roads and stewardship 
projects.
    The 2009 budget underscores the President's continuing commitment 
to States and counties impacted by the ongoing loss of receipts 
associated with lower timber harvests on Federal lands. The Budget 
includes a legislative proposal that provides $200 million above the 
current baseline for a 4-year extension of USDA and Department of the 
Interior forest county safety net payments, which will be targeted to 
the most affected areas, capped, adjusted downward each year, and 
phased out. For administrative convenience, USDA will make the payments 
on behalf of both agencies. Offsets for the administration's proposal 
are provided within the topline of the President's Budget throughout 
the Department of Agriculture and elsewhere. For the 2008 payment (to 
be made in 2009), the administration continues to be prepared to work 
with Congress to identify mutually agreeable offsets.

              STATE AND PRIVATE FORESTRY PROGRAM REDESIGN

    The 2009 budget focuses resources on national forest and grassland 
responsibilities, but it also reflects a redesigned State and Private 
Forestry program approach.
    The State and Private Forestry program connects the agency's 
research and public lands-based programs to those of States and private 
individuals and entities. Through a coordinated effort in management, 
protection, conservation education, and resource use, State and Private 
Forestry programs help facilitate sound stewardship across lands of all 
ownerships on a landscape scale, while maintaining the flexibility for 
individual forest landowners to pursue their objectives.
    In fiscal year 2007, the Forest Service and the National 
Association of State Foresters agreed to redesign State and Private 
Forestry. The intent of the redesign is to focus and prioritize 
resources to better shape and influence forest land use on a scale and 
in a way that optimizes public benefits from trees and forests for 
current and future generations. The foundation for the redesign 
approach is a national assessment of conditions, trends, and 
opportunities relevant to forests of all ownerships. The initial phase 
of national implementation has begun, including a new competitive 
process for a portion of S&PF funds. The Forest Service has committed 
to monitor implementation of the redesign approach, facilitate an 
annual review, and implement changes as needed.
    As a result, the Forest Service will prioritize work using the best 
available technology and information focused on three national themes: 
(1) Conserve working forest landscapes; (2) Protect forests from harm; 
and (3) Enhance benefits from trees and forests. Comprehensive 
assessments will be conducted at the State and national levels to 
identify conditions, threats, and ecosystem services. The assessments 
will then be used to integrate program delivery with partners through a 
variety of tools and approaches and ensure appropriate skills and 
organizational structures are in place to support priority work.
    In addition, funding is proposed in the 2008 farm bill for purposes 
and activities similar to those supported by State and Private Forestry 
programs. The Conservation, Forestry, and Energy titles of the farm 
bill authorizes nearly $10 billion in incentives to States, local 
governments, and nonindustrial private forest landowners to pursue 
conservation, forest restoration, and biomass energy. The products and 
process of State and Private Forestry redesign have helped focus 
collaborative efforts around important national priorities which will 
also receive significant attention and support in the 2008 farm bill.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Feinstein. Thank you very much, Mr. Rey. Chief 
Kimbell, welcome.
    Ms. Kimbell. Thank you.

                  SUMMARY STATEMENT OF ABIGAIL KIMBELL

    Ms. Kimbell. Madam Chairman, Mr. Allard, members of the 
subcommittee, it's a privilege to be here today to discuss with 
you the President's proposed budget for fiscal year 2009 for 
the U.S. Forest Service. Each of you have in your packets my 
full testimony, and I'd like to just cover some of the comments 
from that, but I'd like my full testimony added into the 
record, if I could, please.
    Senator Feinstein. Without objection.
    Ms. Kimbell. Thank you. First I'd like to describe the 
general context that this budget is presented in. I certainly 
recognize the Forest Service is just one small part but a very 
important part to me and to many of you of the Federal budget, 
and that our requests have to be balanced against competing 
needs and opportunities across Government for limited funds.
    It's important to explain how we, as an agency, crafted the 
budget proposal in front of you now. It is helpful for me to 
visualize things in a tangible, practical way, so I see our 
budget as a bucket. A bucket only has a certain size, it only 
holds so much, and in our case the bucket is decided after the 
Nation's highest priorities are taken care of such as 
supporting the war on terror, strengthening Homeland Security, 
and promoting sustained economic growth.
    With support of those priorities in mind, the Forest 
Service bucket is $4.1 billion in size, about the same size as 
last year's request, and about $380 million below what was 
appropriated for 2008. Our bucket starts a little smaller, but 
it also has to hold some programs that are bigger this year. 
The fire suppression request is decided by the 10-year average 
of fire suppression costs, an arrangement agreed to by both 
Congress and the administration.
    The 10-year average this year is $994 million, $250 million 
higher than it was just 2 years ago, and nearly $150 million 
higher than the current enacted level. Because fire suppression 
is the first thing in the bucket, and because it is 
considerably bigger than the past years, and because the bucket 
in only so big, other programs are reduced to make up the 
difference. Rather than simply ratchet all programs down by a 
similar percentage to make up that difference, this budget 
reflects a very difficult strategic decision. We are focusing 
limited resources on core National Forest System programs since 
we are the sole landlord for these lands. As a consequence, 
there is significant reductions in the requests for State and 
Private Forestry programs.
    In spite of these difficult cuts, I strongly believe that 
the Forest Service continues to be a good investment for the 
funds we receive. In 2007, we received our sixth clean audit in 
a row. That was no small feat. We have reduced indirect cost to 
less than 10 percent of our total expenses. We increased 
partnership contributions to challenge car-share projects by 35 
percent over that of 2006. We collected over $700 million in 
revenue and receipts.
    Forest Service scientists filed two patents. Thirteen 
Forest Service scientists were recognized with a share of the 
Nobel Peace Prize for their contributions to climate change 
research. We maintained 60,000 miles of road and another 26,000 
miles of trail. We sold 2.5 billion board feet of timber. We've 
reduced hazardous fuels on 3 million acres, and we provided 
fire assistance grants to 62,000 communities. We protected over 
88,000 acres of forest land from conversion through the Forest 
Legacy Program, and the list goes on.
    We are positioned to make the most of the resources we 
receive. Our agency is in the midst of a difficult but 
necessary transformation which will ensure a higher percentage 
of funds going into project work. We are encouraging our 
managers to focus on integrating programs and working with 
partners to achieve multiple objectives, and we are proposing 
innovative ecosystem services demonstration projects that will 
forge important partnerships with States, local governments, 
tribes, or nonprofit organizations to restore, enhance, and 
protect ecosystem function on national forests.
    The Forest Service is relevant, and we have a leading role 
in issues affecting the Nation and the world. We have 
dedicated, professional, and very hard-working employees who 
come to work every day looking for better ways to solve complex 
problems. I am confident we add value to the resources with the 
taxpayer funds you invest in us.

                           PREPARED STATEMENT

    Thank you for the opportunity to describe how our budget 
was formulated and why I am optimistic about our future. I'm 
happy to answer any questions that you may have.
    Senator Feinstein. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Abigail Kimbell

    Madam Chairman and members of the subcommittee, it is a great 
privilege to be here today to discuss the President's budget for the 
Forest Service in fiscal year 2009. One year ago, sitting here before 
you discussing the fiscal year 2008 budget was one of my first public 
acts as Chief of the Forest Service. I am grateful for the support this 
committee has shown the Forest Service, and over the past year I have 
been able to see firsthand many of the issues raised by its members. I 
look forward to our dialogue today.
    I can report to you that the state of the Forest Service is sound. 
The agency continues to sustain and restore the national forests and 
grasslands. Our researchers continue to push the frontiers of 
knowledge, and 13 have been recognized by the Nobel Prize panel for 
their efforts. Our partnerships with other Federal agencies, States, 
communities, and tribes have broadened and deepened, as together, we 
have faced growing threats from fire and other disturbances. The 
outstanding competence and professionalism of our employees is admired 
by forestry organizations around the world. Entering the second century 
of service, the Forest Service can reflect with pride on its 
accomplishments.
    Yet for all these achievements, the Forest Service faces 
significant issues, and can do better. The issues are every bit as 
challenging as those faced by our predecessors. America's population 
will likely increase by 50 percent in the next 50 years, and pressures 
on the land will increase and change. In an era of globalization, the 
world is shrinking, jobs are growing more complex, and the value of 
forests and grasslands is greater than ever.
    Among the challenges and opportunities facing our agency, three 
themes stand out in particular: climate change, water issues, and the 
loss of connection to nature, especially for kids. I truly believe that 
history will judge my leadership of the Forest Service by how well we 
as an agency respond to these challenges, and the 2009 budget is 
crafted with that in mind.
    The fiscal year 2009 Forest Service budget request totals $4.109 
billion in discretionary appropriations, an 8 percent decrease from the 
fiscal year 2008 enacted level. The President's Budget reflects our 
Nation's highest priorities, including supporting our troops, 
strengthening our homeland security, and promoting sustained economic 
growth. The administration's pro-growth economic policies, coupled with 
spending restraint, are key to keeping us on track to continue to 
reduce the deficit in the coming years.
    Within the framework of the agency's 2007-2012 Strategic Plan and 
the themes I've laid out, the Forest Service budget for 2009 focuses on 
core responsibilities, maintaining program effectiveness, and 
addressing on-going management challenges. The 2009 budget aligns 
Forest Service spending to reinforce the agency's commitment to caring 
for the 193 million acres of national forests and grasslands, and 
providing for the highest priority activities that can demonstrate 
performance in a transparent manner.

                        WILDLAND FIRE MANAGEMENT

    The responsibility to protect people and property from wildfire is 
one the Forest Service performs professionally and honorably. Fires in 
recent years have become larger and more difficult to control due to a 
variety of factors, including climate change, historic fire management 
practices resulting in an increased density of hazardous fuels, and 
residential developments expanding in the wildland urban interface 
(WUI). As application of Federal firefighting resources on both Federal 
and non-Federal land has grown, these costs escalate, and so too does 
the 10 year average of annual fire suppression expenditures, which 
determines the program's budget request. The 2009 Fire Suppression 
request is $994 million, over $250 million higher than it was just 2 
years ago, and nearly $150 million more than the current enacted level. 
The total Wildland Fire Management program, including the National Fire 
Plan, makes up over 48 percent of the agency's discretionary budget 
request. The Forest Service is adopting substantive management reforms 
to mitigate this cost trend.
    Several wildfire management reforms are based on recommendations of 
USDA Office of Inspector General report that examined large-fire 
suppression costs. The report documented inequitable apportionment of 
fire protection responsibilities between Federal and local entities in 
residential areas that abut national forests. In response, the Forest 
Service is renegotiating master protection agreements to clarify roles 
and ensure equitable and appropriate allocation of wildland urban 
interface firefighting costs between the agreement parties. 
Additionally, the Forest Service will implement a science-based 
methodology to encourage the cost-effective use of unplanned wildfires 
to reduce hazardous fuels when appropriate.
    In fiscal year 2009, the Wildland Fire Management program will 
continue to improve performance through attention to policy, training, 
oversight, decision support tools, and after action performance 
analysis. Management policy is set at the national level, and provides 
clear guidance for the role of Federal firefighters in the Wildland 
Urban Interface and the strategies of Appropriate Management Response 
(AMR). Mandatory training keeps agency administrators up to date on 
national policy. During an incident, the Chief's Principle 
Representative provides oversight, while decision support tools such as 
Rapid Assessment of Values at Risk (RAVAR) and Fire Spread Probability 
(FSPro) offer the incident commander information on fire spread 
probability, resource values at risk, and historic costs for similar 
fires. After action reviews, including use of the Stratified Cost Index 
(SCI), provide lessons and best practices to include in subsequent 
updates to management policy. This performance improvement process will 
enable the agency to maintain Fire Preparedness resources within a $588 
million program budget, a decrease of $77 million from 2008.

                            HEALTHY FORESTS

    The fiscal year 2009 Forest Service budget focuses resources on 
maximizing the effectiveness of core national forest and grassland 
programs. Implementation of the Healthy Forests Initiative and the 
Northwest Forest Plan are key initiatives which receive increased or 
similar levels of funding compared to fiscal year 2008 enacted--Forest 
Products is requested at $323 million, Hazardous Fuels at $297 million, 
and Vegetation & Watershed Management at $165 million. These 
investments will yield over 4.9 million CCF (2.5 BBF) of timber volume 
sold, including 1.6 million CCF (0.8 BBF) of timber volume offered from 
full implementation of the Northwest Forest Plan. Other priority 
program outputs include establishing or improving over 2 million acres 
of forest and rangeland vegetation, and 1.5 million acres of hazardous 
fuel reduction with an additional 800,000 acres of treatments 
accomplished by other land management activities to reduce fire risk. 
Capital Improvement and Maintenance of Roads is requested at $227 
million to provide the necessary infrastructure to support priority 
program activities and manage the roads system on national forest 
lands.

               ORGANIZATIONAL EFFICIENCY & TRANSFORMATION

    The Forest Service is continuing its restructuring process that 
will improve its organizational structure and maximize resources 
available for on-the-ground mission delivery. Our current 
organizational structure, designed in the 1950s, does not take 
advantage of the communication technologies and integrated operating 
systems available in today's business environment. By the end of fiscal 
year 2009, the Forest Service will reduce operating costs by 
approximately 25 percent in the regional offices, the national 
headquarters, and the Northeastern Area. This will result in a higher 
proportion of funds going to the field and an organizational structure 
better equipped to meet the natural resource management challenges of 
the 21st century.

     RECOGNIZING INTEGRATED PROGRAM AND PARTNERSHIP ACCOMPLISHMENTS

    Another strategy to ensure maximum on-the-ground achievements 
relates to accomplishment tracking. In fiscal year 2008 the Forest 
Service is changing reporting rules to incorporate accomplishments 
achieved through integration between program areas and/or partnerships 
with external groups. This change is designed to shift from a program-
by-program approach to one that aligns programs and partner 
organizations to achieve multiple goals. By changing how 
accomplishments are counted, the agency hopes to change how managers 
plan and implement their work, increase incentives for working with 
partners, and ensure maximum value per dollar of Federal expenditure.
    I will now discuss the program budget requests for the Research, 
State and Private Forestry, National Forest System, Capital Improvement 
and Maintenance, and Land Acquisition accounts.

                      FOREST & RANGELAND RESEARCH

    The Forest Service Research Program is a globally recognized leader 
developing scientific information and technologies that address the 
ecological, biological, social, and economic issues challenging natural 
resource management and conservation in the modern era. Approximately 
500 Forest Service scientists conduct this research at 67 sites located 
throughout the United States. The 2009 budget funds research at $263 
million. This is equal to the 2008 President's budget, and an 8 percent 
decrease from the enacted level of $286 million. The budget eliminates 
funding for congressional earmarks, employs investment criteria to 
align research projects with strategic priorities, and retains support 
of the Forest Inventory and Analysis program at $62.3 million.
    Forest Service Research & Development is a world leader on the 
global climate change issue. Thirteen Forest Service scientists 
participated in the Intergovernmental Panel on Climate Change (IPCC), 
which shared the 2007 Nobel Peace Prize with former Vice President Al 
Gore.
    The fiscal year 2009 budget includes $31 million for research on 
how climate change, air and water pollution, land use, and extreme 
events affect forest and rangeland sustainability and the associated 
benefits they provide to society. In addition, the program prioritizes 
research in the areas of Resource Management and Use ($79 million), 
Invasive Species ($30 million), and Wildland Fire and Fuels ($23 
million).

                        STATE & PRIVATE FORESTRY

    The State and Private Forestry program connects the agency's 
research and public lands-based programs to those of States and private 
individuals and entities. Through a coordinated effort in management, 
protection, conservation education, and resource use, State and Private 
Forestry programs help facilitate sound stewardship across lands of all 
ownerships on a landscape scale, while maintaining the flexibility for 
individual forest landowners to pursue their objectives.
    In fiscal year 2007, the Forest Service collaborated with the 
National Association of State Foresters to redesign the focus, 
priorities and delivery of the agency's State and Private Forestry 
programs. As a result, the Forest Service will prioritize work using 
the best available technology and information, focusing on three 
national themes: (1) Conserve working forest landscapes; (2) Protect 
forests from harm; and (3) Enhance benefits from trees and forests. 
Comprehensive assessments will be conducted at the State and national 
levels to identify conditions, threats, and ecosystem services. The 
assessments will then be used to integrate program delivery with 
partners and ensure appropriate skills and organizational structures 
are in place to support priority work.
    The 2009 budget funds State and Private Forestry at $110 million, a 
decrease of 58 percent from the 2008 enacted level. Forest Health 
programs, including those funded under the National Fire Plan, will 
receive almost $80 million and treat over 450,000 forest and rangeland 
acres for invasive and native pests with a focus on early detection, 
evaluation, and monitoring of new invasive species, such as the Sirex 
wood wasp, emerald ash borer, and sudden oak death. Cooperative Fire 
programs, including those funded under the National Fire Plan, will 
receive nearly $75 million and assist over 18,000 communities through 
grants to State and local fire agencies. In addition, $25 million will 
fund the Forest Stewardship, Forest Legacy, Urban & Community Forestry 
and International Forestry programs.

                         NATIONAL FOREST SYSTEM

    The National Forest System account provides funds for the 
stewardship and management of national forests and grasslands. The 2009 
budget requests $1.345 billion for this account, which is equal to the 
2008 President's budget request, but a decrease of $125 million or 9 
percent from the enacted level. This budget level reflects successful 
implementation of the organizational efficiency & transformation 
efforts which will direct a higher proportion of funds to on-the-ground 
mission-critical work.
    The 2009 budget includes a legislative proposal authorizing five 
Ecosystems Services Demonstration Projects that will bring new partners 
together with the Forest Service in a broad effort to advance market-
based conservation. States, local governments, tribes or non-profit 
organizations will have the opportunity to provide up to $10 million of 
funds or in-kind services for activities that restore, enhance, and 
protect ecosystem function on National Forest System lands. The 
projects will also introduce and refine methodologies that may be used 
in potential or emerging markets to quantify and value ecosystem 
services related to clean water, carbon sequestration and other 
critical benefits.
    Other important National Forest System programs are increased in 
the fiscal year 2009 budget. As mentioned earlier, the fiscal year 2009 
budget supports full funding for the Northwest Forest Plan within the 
$323 million for Forest Products. Land Management Planning funding is 
proposed at $53 million, an 8 percent increase from the 2008 enacted 
level. The additional funds will focus on implementation of the revised 
Planning Rule, acceleration of work on 35 planned Land Management Plan 
(LMP) amendments that respond to energy corridor decisions, and 
completion of 18 LMP revisions currently scheduled for fiscal year 
2009.
    A number of National Forest System programs will be maintained at 
the fiscal year 2008 President's budget level including, $146 million 
for Inventory and Monitoring programs to facilitate efficient 
implementation of the 2008 Planning Rule, which establishes 
Environmental Management Systems on each NFS unit. The Recreation, 
Heritage, and Wilderness programs are proposed at $237 million, which 
will enable completion of travel management plans for 86 percent of 
National Forest System lands and Recreation Facility Analyses on 74 
percent of national forests by the end of fiscal year 2009. Wildlife & 
Fish Management, funded at $118 million, will focus on continued 
partnerships with States, non-governmental organizations and tribes to 
actively manage wildlife and fisheries habitat for the benefit of the 
36 million people that visit national forests and grasslands annually 
to hunt, fish, or view wildlife. The $47 million funding request for 
Grazing Management will support effective management of rangeland 
resources on approximately 90 million acres of NFS lands and compliance 
with the Recisions Act schedule for completed grazing allotments. The 
$115 million request for Law Enforcement Operations, a $17 million 
decrease, will be focused on combating drug-trafficking organizations 
along the southwest and northern borders, responding to emergency and 
life-threatening situations, and conducting arson investigations.

                   CAPITAL IMPROVEMENT & MAINTENANCE

    The Capital Improvement & Maintenance Program maintains the 
infrastructure for many Forest Service programs, including the 
transportation networks necessary for management and visitor access; 
the recreational infrastructure, including trails that serve many 
diverse populations; and facilities that house Forest Service 
employees. The 2009 Budget funds Capital Improvement & Maintenance at 
$406 million, a decrease of $69 million from the enacted level, which 
included a $25 million one-time transfer from the Purchaser Election 
Program. The $120 million proposed in Facilities funding will support 
maintenance of approximately 22,500 facilities and capital improvement 
of 34 facilities in fiscal year 2009. The $227 million Roads program 
includes maintenance of more than 70,000 miles, reconstruction and 
capital improvement of 2,000 miles, and decommissioning of 
approximately 600 miles of Forest Service roads. 17,300 miles of trails 
will be maintained and 700 miles relocated or constructed with the $50 
million Trails request. Legacy Roads & Trails, established by Congress 
in 2008, is not included in the budget.

                               CONCLUSION

    I present this budget within a management environment that demands 
more than dollars to ensure organizational success. The budget supports 
national priorities of deficit reduction, maintains a safe and 
effective fire suppression organization, and maintains other high 
priority programs. Just as importantly, it proposes an ecosystem 
services approach to on-the-ground work in partnership with key 
stakeholders to protect watersheds, enhance economic and social values, 
and improve biodiversity. Combined with State & Private Forestry 
redesign, Wildland Fire Management reforms, and organizational 
management transformation, this suite of initiatives will enable the 
Forest Service to continue to deliver outstanding science and 
effectively manage the resources of the national forests and grasslands 
while adapting to the challenges of the coming decades.

                  FIREFIGHTER ATTRITION IN CALIFORNIA

    Senator Feinstein. We will begin the question phase. I just 
want to point out that this year California will be sponsoring 
the Tahoe Summit; I'm going to put it together, and deal with 
forests and forest fires. I'd like to invite both of you to 
attend and participate. I've asked Al Gore to speak on how 
fires, forest fires, affect global warming, or how global 
warming affects forest fires. So I think it should be very 
interesting. Then we'll hear from all of the fire districts 
around the Lake. So I hope you will be able to come.
    As you know, I wrote you a letter about the very high 
attrition rate of Federal firefighters in the southern 
California area. I've just been looking at your answer, and I 
gather you know the attrition rate in one of your charts is 
actually above 40 percent. You have a pie chart here which 
States that the reason for leaving the Forest Service, 44 
percent went to Cal State, county, local fire departments. It's 
a huge attrition rate, and yet you then compare the wages and 
point out that the wage, federally, is higher.
    Now, I mean, these people aren't stupid. They go to local 
jurisdictions because they get more money. So where is the 
difference in pay?
    Ms. Kimbell. Senator, the analysis that you have includes 
the description of the different kinds of work schedules that 
the employees with the Forest Service have versus employees 
with Cal State. There is quite a difference in the work 
schedule.
    There's also quite a difference in the mission that these 
different people perform in their different employment. Our 
wildland firefighters are not typically, across the rest of the 
country, involved in the kinds of activities some of the other 
committee members refer to as first responder and other 
responses that the Federal firefighters in California, State of 
California firefighters, and certainly the local firefighters 
are continuously involved with.
    There is a difference in the number of hours that these 
different employees put in; there's a difference in their work 
schedules; there's a difference in our firefighters being 
seasonal and at the lower-graded levels. The State and county 
firefighters, being year-round employees, results in a 
difference at year end in how much they make over a year.
    Senator Feinstein. I want to stop you because I've got 
that.
    Ms. Kimbell. Okay.
    Senator Feinstein. As you know, Senator Allard and I held a 
hearing, and Mr. Rey was good enough to be there in San Diego. 
One of the things that one anticipates in southern California 
is more catastrophic fire.
    You're saying, essentially, that people are going to Cal 
Fire because they work more hours, therefore they get more pay. 
Let me ask you this: As we go into the fire season, how many 
positions will be unfilled in those critical fire areas?
    Ms. Kimbell. We have instituted a new hiring process in 
California, specifically, with a roster, and over the last year 
we have hired 1,000 people into the firefighting organization 
in California. We anticipate to be fully staffed at the funding 
level.
    Senator Feinstein. So we can anticipate that when we come 
to fire season and I look at this, every position is going to 
be filled?
    Mr. Rey. Yes.
    Senator Feinstein. I heard that definitive ``yes.'' I 
appreciate it. It is noted in the record.
    Mr. Rey. Occasionally, we can give short answers.

              ILLEGAL DRUG OPERATIONS IN NATIONAL FORESTS

    Senator Feinstein. Excellent. All right, thank you.
    We have another problem. Our forests, as you know, are 
inundated by Mexican drug trafficking organizations growing 
marijuana, and over the past 2 years I, specifically, added to 
the Forest Service enforcement budget $17 million to deal with 
that.
    I see your budget eliminates this increase and funds your 
program at $115 million. I supported Operation Alicia and 
Operation Green Acres, two major interagency drug operations 
that took place last season that netted literally hundreds of 
arrests and destroyed millions of marijuana plants.
    I met recently with your people as well as DEA. I came away 
from that meeting not satisfied: Not satisfied with the plan 
which I believe should be to clean the marijuana out of our 
forests--out of our parks and forests. I'd really like to get 
both of you on record as to what the intention is this year.
    What I gained from the meeting was that there was going to 
be much more emphasis on the development of intelligence 
related to cartel activity than actual strike force activity, 
and I'm interested, candidly, in the strike force activity.
    Mr. Rey, would you like to answer that?
    Mr. Rey. Sure. We are going to be doing at least four major 
strike force actions during the course of the summer. For 
obvious reasons, I don't think I want to describe where they're 
going to be or when they're going to happen, but there will be 
a significant stepping up of that kind of activity in 
cooperation with both DEA and with local law enforcement. I'll 
submit for the record some of the details associated with those 
proposals.
    [The information follows:]

              Marijuana Eradication Efforts in California

    Forest Service Law Enforcement and Investigations (LEI) personnel 
will participate in four multi-agency drug eradication operations in 
Region 5 during fiscal year 2008. LEI officers will work with personnel 
from DEA, CAMP, HIDTA marijuana investigative teams, local sheriff 
departments, California National Guard, and the Joint Task Force North 
in the planning and execution of these operations. Each operation will 
have between 20 and 40 personnel assigned to it. Between June 15 and 
October 15, a total of 34 LEI personnel will be dedicated to drug 
enforcement operations on NFS lands.
    The program goals in California for fiscal year 2008 are to 
increase by 30 percent the number of plants eradicated, sites raided, 
and felony arrests over fiscal year 2007. The results will be 2.4 
million marijuana plants eradicated, 418 garden sites raided, and 94 
felony arrests.

    Mr. Rey. We do not intend to reduce the funding or the 
staffing that we've developed in Region 5 in California until 
we've turned the corner in dealing with the drug activity in 
California. So, while we may be leveling funding in other areas 
where we don't have this depth of difficulty, we're going to 
keep the California operations moving forward.
    Senator Feinstein. Thank you, I appreciate that very much.

                     TAHOE REGIONAL PLANNING AGENCY

    Chief Kimbell, last year I urged you and the Tahoe Regional 
Planning Agency to renegotiate an MOU to better streamline the 
permitting process to reduce hazardous fuels on Forest Service 
land in the Tahoe Basin. Can you give us a status update on the 
negotiations, and what assurances can you provide that this 
will be done before this year's fire season?
    Ms. Kimbell. We've been working very closely with TRPA, and 
TRPA provided a draft----
    Senator Feinstein. Stay with that: The Tahoe Regional 
Planning Agency?
    Ms. Kimbell. Tahoe Regional Planning Agency, thank you. 
Sorry. They provided a draft. It was of concern to a number of 
people given the amount of process that was included in that 
redrafting of the MOU.
    The Governors of California and Nevada appointed a fire 
commission. That commission delivered a report on March 21 with 
a number of recommendations and suggestions. We are reviewing 
that report from the fire commission right now, and we'll 
continue working with TRPA. Before the 1st of June, we 
anticipate having a final memorandum of understanding for 
signature.
    Mr. Rey. We have a good three-page summary of where 
everything's at right now that the Forest supervisor for the 
Tahoe Basin Planning Unit provided. We'll submit that for the 
record for the hearing.
    Senator Feinstein. I would appreciate that. Are there signs 
that the Tahoe Regional Planning Agency is being more realistic 
now in view of the threat of fire in easing some of its 
regulations so that pine needles can be picked up, so the trees 
that overhang houses can be reduced in bulk and size, and 
ground cover reduced?
    Mr. Rey. There are signs, but it's a long, slow process. I 
would say that the sharpened focus of thinking that the Angora 
fire created has sort of been dulled with the winter rains, and 
I think we've still got a couple of rounds of negotiations with 
the Regional Planning Authority before we're at the point where 
we want to be.
    Senator Feinstein. Thank you. Well, I'd appreciate that 
memo, and if you could keep me advised, I'd appreciate that as 
well.
    [The information follows:]

    I've been requested to provide information for the Senate Interior 
Appropriation Hearing. My response will center on the efforts 
associated with the California-Nevada Tahoe Basin Fire Commission (the 
``Commission''). Many of the recommendations address the situation and 
concerns I identified in my August 8, 2007 memo. I've combined and 
summarized the ones that will have the most impact on accomplishing 
fuels work in the Lake Tahoe Basin.

                               BACKGROUND

    In the aftermath of the Angora Fire, the Governors of California 
and Nevada established an emergency Commission to look at what happened 
and what can and should be done to prevent another catastrophic fire in 
the Basin. The Commission met approximately 19 times and the LTBMU 
actively participated in all facets of the process. A draft report has 
been prepared and is expected to be finalized sometime in April. There 
are 48 findings and 90 recommendations recommended by the Commissioners 
in the draft report.
    The finding and recommendation getting the most attention is the 
recommendation to declare the Lake Tahoe Basin a state of emergency. 
The Governors from both States would have to declare separate 
emergencies and then request President Bush declare a national 
emergency. When this was voted on, Jim Pena abstained as a Federal 
official.
    The findings and recommendations (``F&Rs'') that will help the 
LTBMU most are the ones that will:
  --Remove the impediments to getting fuels work done
  --Allow us the opportunity to work more efficiently which results in 
        cost effective measures
  --Potentially change the permitting processes
  --Increase the capacity and capability to implement projects
  --Address the roles and responsibilities of the regulatory agencies 
        we work with
    Based on these criteria, following is a summary of the F&Rs we 
consider to have the most impact on the Basin. I've attached a list of 
these findings and recommendations summarized for this memo.

A. Revision of Memorandums of Understanding
    Immediately after the fire, Senator Feinstein requested information 
on how we worked with the TRPA and the Lahontan Regional Water Quality 
Control Board and what could be done to streamline the process. My 
August 8, 2007 memo that went to Senator Feinstein through the RO and 
WO addressed those issues. As we streamlined regulatory processes, we 
continued to provide the appropriate protection for water quality. 
Since August, progress has been made and I am continuing the dialogues 
with both agencies and working on revising our MOUs. Specifically:
  --LTBMU and TRPA are working to revise the 1989 MOU for fuels 
        projects to apply to all FS projects after completion of the 
        MOU revision
  --LTBMU is drafting the language with advice and review from OGC
  --TRPA's October 2007 draft MOU was unacceptable to LTBMU and OGC 
        because of increased bureaucracy
  --By June 1, LTBMU will give TRPA another draft that takes into 
        consideration the Commission F&Rs
  --LTBMU will revise MOU with Lahontan

B. Reducing Redundant and Complex Permitting
    The Commission found that the existing system to permit fuel 
reduction projects is often confusing, redundant and overly complex. 
Also, the system used in Nevada is different than that in CA because of 
an added regulatory layer (Lahontan). The Commission recommended:
  --The Governors direct regulatory and implementing agencies to 
        simplify the system, including waiving certain restrictions on 
        use of mechanized equipment and vehicles within SEZs.
  --Lahontan and TRPA and land managers develop common list of 
        equipment and accepted best management practices (BMPs) for 
        mechanical work in SEZs.
  --TRPA, Lahontan and the FS allow equipment use on slopes greater 
        than 30 percent based on current and future technology.
  --Lahontan transfer its water quality permitting responsibility to 
        TRPA for water quality issues relating to fuels reduction 
        projects. This has already been done in Nevada by Nevada 
        Division of Environmental Protection.

C. Reduce Permitting for Mechanized Equipment in SEZs
    Several F&Rs identified ways for work to be accomplished in SEZs 
and still protect water quality and increase cost effectiveness. The 
Commission recommended:
  --Governors direct TRPA to allow use of mechanized equipment in SEZs 
        including revising the Lake Tahoe 208 Water Quality Plan.
  --Governors should direct agencies to consider fire hazard reduction 
        an overriding priority with applications for mechanized 
        equipment use.
  --Lahontan change its interpretation of regulations and allow pile 
        burning and spreading chipped material in SEZs.

D. Increase Burn Days
    In Nevada, air quality agencies do not regulate burn days and 
leaves it to the land managers' discretion to determine acceptable 
conditions. Below are elements of F&Rs that will allow us to increase 
burn days:
  --More comprehensive air quality and meteorological information 
        should be implemented and further analyzed at the Basin scale 
        to provide for additional burn days.
  --The California Air Resources Board should develop a test program to 
        see if additional burn days can be added to the Basin without 
        adversely affecting the region's air quality.
  --Nevada land managers should continue to follow existing practices.

E. Funding the Recommendations
    The Commission recognized that the Federal Government is not the 
only answer to funding the recommendations. It directed the States and 
local governments, as well as private parties to look for ways to share 
in funding fuels work in the Basin. However, it was also recognized 
that additional Federal funding will be necessary to accomplish the 
needed work. The Commission also recognized that the Southern Nevada 
Public Land Management Act (SNPLMA) is not the only funding mechanism. 
With decreasing land sales in Clark County, Nevada, future funding is 
on a downward trend and funds other than SNPLMA should be identified.

F. What the LTBMU is Doing that Aligns with Findings and 
        Recommendations
    Even before the fire, the LTBMU has been working toward better 
working relationships with regulatory agencies. The Commission 
identified many things they would like to see happen. We are already 
engaged in many, including:
  --TRPA and LTBMU working together on permitting fuels projects under 
        existing MOUs to prevent delays once NEPA decision is made 
        (i.e. Round Hill, Angora Hazard Tree removal along FS trails/
        roads)
  --TRPA concurred on Round Hill project which authorized 2 different 
        treatment methods:
      --72 acres of whole tree yarding
      --3 acres of mechanical treatment in SEZ
      --Total project treatment is 952 acres in NV
  --Engaging in a joint process with Lahontan, i.e., working with and 
        going forward at the same time on environmental requirements 
        (NEPA and CEQA) instead of one after the other for our South 
        Shore Fuels Reduction and Healthy Forest Restoration Project:
      --largest fuels project analyzed in the LT Basin
      --33,000 acres analyzed; 10,000 acres proposed for treatment in 
        CA
      --550 to 640 acres of mechanical treatment proposed in SEZ
      --2,100 to 3,800 acres whole tree yarding proposed
  --Renegotiating and revising the MOUs discussed earlier

    Senator Feinstein. I call on the ranking member, Senator 
Allard.
    Senator Bennett. Madam Chairman----
    Senator Feinstein. You have not had an opportunity for an 
opening statement.
    Senator Bennett. Yeah, and I have to be called out, so 
could I make a quick----
    Senator Feinstein. A quick--yes.
    Senator Bennett [continuing]. A quick comment?
    Senator Allard. I'll yield to the good----

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. I apologize to you both, but I simply want 
to make a comment, Mr. Rey. You've made reference to it in your 
opening statement about the Secure Rural Schools and 
Communities Self-Determination Act, and I am pleased that the 
Department is taking steps to provide a safety net for payments 
to States that they would have received under that act that 
expired in 2006. But I think we have to do more.
    It's an act that's very important to Utah's rural counties. 
I think we in Congress have to work to reauthorize the act, and 
these funds are used for all kinds of things--roads, public 
schools, other important uses that are critical to our western 
counties. The expiration of the act means that PILT payments 
will be reduced, so we have to use the rural school payments to 
offset PILT and stretch all of those funds even more.
    So I don't want to let the opportunity pass without making 
a comment about it, thanking you for your attention to it, and 
I look forward to working with you on this.
    With that, thank you, Madam Chairman. Thank you for your 
courtesy.
    Senator Feinstein. Thank you very much, Senator Bennett.
    Senator.

                   HAZARDOUS FUELS TREATMENT PROGRAM

    Senator Allard. Thank you, Madam Chairman. You know, 
there's an axiom in veterinary medicine that prevention is a 
lot less expensive than treatment, and I think we're seeing the 
impacts on the Forest Service budget now.
    You know, we've disallowed a judicious cutting of trees and 
thinning of forests and whatnot, and adequate treatment of 
these forests because of some of the policies we had put in 
place and right now we're paying the price in less income into 
the Federal Government because we don't allow the cutting; the 
more money being spent for fires because disease has taken over 
these fires. We get more burnable timber out there that burns 
hotter and faster, and the result is that we're spending a lot 
more money now in fire suppression and, you know, taking care 
of fires. I hope that we can move back to a more sensible 
policy than what we have now.
    We have in California and Colorado a pine beetle problem. 
We have in the southern part of this country a beetle problem. 
The beetle problem that they have with the spruce bark beetle 
in Alaska is extremely prevalent up there. They've got some 
really serious problems.
    So my question is, can you explain the large cuts in this 
particular program with the enormous problems that we have with 
the pine beetles?
    Mr. Rey. Well, I don't think we look at what we've proposed 
in its totality as a large cut. If you look at the Fire 
Management program in its entirety, both USDA's, Forest 
Service, and the Department of the Interior, we're proposing a 
$927 million program as compared to last year's program, which 
in regular appropriations was $962 million.
    Now, last year was an all-time record of funding, so we're 
down a little bit from that record. We have tried to make the 
implementation of the Healthy Forests Initiative one of our 
budget priorities, keeping the line items that contribute to 
that initiative as close to at-record levels as we could.
    So, I don't think that we would concur that they are a big 
reduction. Yes, it's down about $35 million from last year's 
levels, but last year's levels were the highest levels that 
those programs had ever been funded.
    Senator Allard. I got that point. Now, if we were to give 
you additional money, could you give us some idea of how many 
more acres you could effectively treat, and at what cost?
    Mr. Rey. Sure. We can break that out for you in, say, $10 
million increments in terms of the acreage comparison for what 
we would be able to reach. That's of course, assuming that 
appeals and litigation don't get in the way, obviously. But we 
can give you a step-wise progression there.
    Senator Allard. You know, I want to sit down--I want our 
staffs to work with you a little bit because we come up with 
different conclusions when we look at the figure that we have 
here before us under the 3-year summary of the appropriations 
and whatnot.
    Mr. Rey. What I was giving you was the documentation on 
page K-1 of our budget's submission, appendix K.
    Senator Allard. Okay. Well, we'll review that, and we'll 
want to continue to have that discussion with you.

                       FIRE PREPAREDNESS FUNDING

    Now, on the Fire Preparedness, you say through efficiencies 
you'll maintain the same numbers of firefighters, the same 
number of hot shot crews and engines. Can you describe what the 
efficiencies are and how that can be so large, and justify so 
large a reduction in spending?
    Mr. Rey. I can give you some examples, and then, for the 
record, we can flesh out, you know, larger numbers of them. But 
let's take aviation assets, planes, for instance. Last year we 
did a review of how we contract for aircraft and modified the 
use of exclusive use contracts, which resulted in a net savings 
of about $14 million. The experience that we gained from those 
changes is going to result in savings that we can carry 
forward.
    We have put cost control measures in place in large 
incident fires, and it's important in the fire budget to 
recognize less than 2 percent of the fires would account for 85 
percent of the cost. That's where the real cost savings can be 
found in managing the cost associated with extended attack on 
large incident fires. So we've added cost-containment staff to 
those incidents that have resulted in some savings as well.
    What we believe is that as a consequence of those savings, 
we've reduced real expenses from those which were projected by 
about $200 million. Now what you're seeing in our 2009 budget 
proposal is a recognition of those savings in some slight 
reductions in preparedness.
    Now, you've given us the authority that if we fall short in 
preparedness dollars to use suppression funding if that becomes 
necessary. So we've got a backstop if we prove to be too 
optimistic in projecting the effects of some of these savings. 
If need be, we'll draw from the suppression account to deal 
with that.
    But if we're going to make these kinds of investments in 
cost savings, then we ought to reflect that in the way we 
budget. That's what we think.
    Senator Allard. So you can assure us that at this level of 
preparedness funding, the agency's initial attack success rate 
won't be reduced and lead to more catastrophic fires?
    Mr. Rey. The preparedness budget is built on maintaining 
the historic initial attack success rated upwards of 98 percent 
fires suppressed on initial attack.

                          FOREST PLANNING RULE

    Senator Allard. Okay, let me just move on. The time is 
escaping us here. On the forest planning process, under the old 
forest planning rules the time and expense to complete the 
forest plans have become incredibly expensive. The plans 
designed to last for 15 years now are taking 6 to 8 years to 
complete and cost many millions of dollars. That's for the last 
15 years.
    This administration streamlined that process with the new 
planning rule put in March of last year. A Federal court in the 
9th District enjoined the agency from implementing the new 
planning rule.
    Can you tell us what the status of your new planning rule 
is?
    Mr. Rey. It will be out in ``The Federal Register'' in a 
matter of days.
    Senator Allard. Do you believe you have cured the defects 
found by the court?
    Mr. Rey. We believe we have cured the defects found by the 
court. I daresay we won't get the last word on that, though. It 
will probably be the court that determines that.
    Senator Allard. Yes, and how do you anticipate the cost for 
individual forest plans that were reduced by the new rules? 
Will they, do you think, add to the cost or reduce the cost?
    Mr. Rey. I think we'll reduce the cost by a factor of two-
thirds from what it was costing us to develop plans under the 
1982 regulations.
    Senator Allard. You feel comfortable that there's been 
adequate public participation in the new forest planning 
process?
    Mr. Rey. I think, if anything, there has been a greater 
degree of public participation in the plans that have been 
developed under these new rules.
    Senator Allard. Well, I think you're rather optimistic, and 
I appreciate it, but we'll see.
    Senator Craig. This panel has voted, and we agree.
    Senator Allard. Okay. I see my time has expired.
    Mr. Rey. There's a vote there. I'm always looking for the 
opprtunity here.
    Senator Allard. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Domenici.

                           SERVICE OF MR. REY

    Senator Domenici. First, let me thank all of you for your 
service, especially Mark, you, for your long service here, and 
it's been a very difficult job. I was talking to my friend 
here, Senator Craig about your activities and performance, and 
we're very lucky to have somebody that stays on this kind of 
difficult job that has the knowledge that you have. We are glad 
that you share it with us. We're very sorry that you can't 
implement much of it in the field because it is not just 
Congress and you, the outsiders have a lot to do with what you 
can do, and they find ways to make it very difficult for you, 
and we understand that. We have not been able to change that 
very much.

               EDUCATIONAL REQUIREMENTS FOR FIREFIGHTERS

    My first question, however, is to you, Ms. Kimbell. I 
talked to you a little bit about this qualification the OPM has 
imposed with reference to degrees and courses and 
qualifications. I understand that the folks out in the field 
are having some difficult, extremely difficult getting 
definitive answers regarding this situation from your human 
resources specialists. Many are very frustrated.
    How serious is this problem?
    Ms. Kimbell. I think it's a very serious problem, Senator, 
and we've put together a team of people working with our fire 
leadership and with our human resources people in Albuquerque 
to more quickly process all that different information. That 
way, we can give employees answers in writing specific to the 
kind of course work that they've had and which of those courses 
will or will not qualify them in the 401 Series as per OPM 
guidelines.
    Senator Domenici. What percentage of your field managers 
are at risk of losing their qualifications in 2009?
    Ms. Kimbell. The exact percent, there are 30 people, 
actually, that we have been granted an extension to be able to 
get them the course work that they need by June 2009.
    Senator Domenici. Why did this OPM intervention occur, and 
do you think the training provided by a college or a university 
is superior to the on-the-job training, your in-house courses 
and the experience that your fire managers have gained through 
their years of fighting fires?
    Ms. Kimbell. Well, that's the larger question with all of 
this. The course work--the courses that we provide through the 
Wildfire Coordinating Group--is recognized as world-class. 
There are people who attend from around the world. It's very 
practical, it's hands on, it's taught by very experienced, 
knowledgeable people. Yet those are courses that the Office of 
Personnel Management hasn't been willing to recognize as 
qualifying under the positive education requirements.
    Senator Domenici. Okay. Well, I wanted to say, speaking for 
myself, I think what's happening is very, very wrong, unfair, 
and unneeded. I cannot believe that we're going to lose 
experienced managers and experienced firefighters because OPM 
says they have to have a certain kind of college degree or 
effort toward a degree. So, from my standpoint I'd like for you 
to provide the committee with information as to how we would 
provide a waiver, a waiver that you sought, and how we would 
provide that. I think that that would be good for us to have.
    Ms. Kimbell. Senator, we'd be very interested in working 
with you on that, and we'll also continue working with the 
Department of the Interior. We entered into this whole 
arrangement with the Secretaries of Agriculture and the 
Interior, and we need to be together as we work through this.
    Mr. Rey. Yes, there are some Interior firefighters who are 
in similar situations, so we'll have to readdress this----
    Senator Domenici. Oh, very good.
    Mr. Rey [continuing]. With the departments together.
    Senator Domenici. Very good. So there's more than just you 
fighting the fight.
    Ms. Kimbell. There are 500 firefighters in Interior who are 
also affected, and there are an additional 200 Forest Service 
firefighters who will become affected here shortly.
    Senator Domenici. Madam Chairman, do you understand how 
critical this issue is?
    Senator Feinstein. I do. We'll take----
    Senator Domenici. Now, are you willing to work with me----
    Senator Feinstein. Yes.
    Senator Domenici [continuing]. On my----
    Senator Feinstein. We certainly are, and we will.
    Senator Domenici. Thank you very much.

          FIREFIGHTER RESPONSIBILITIES IN SOUTHERN CALIFORNIA

    Under Secretary Rey, I understand that the Forest Service 
wildland firefighters on at least four southern California 
forests now respond not only to wildland fire calls but also 
calls to deal with other emergencies like traffic accidents. Is 
that correct?
    Mr. Rey. It's correct, but it's unique to those four 
forests. It goes to how our memorandum of agreement with the 
local firefighting authorities are written. So it's not a 
situation that's comparable anywhere else in the system.
    Senator Domenici. Well, can you tell me approximately how 
many of these traffic calls are nonwildfire calls for service? 
Requests for firefighters' response in 2007? Do you require 
your wildland firefighters in all States to perform these type 
of duties?
    I guess you've answered the second question. You don't 
require that they do it in other districts, is that correct?
    Mr. Rey. That's correct. Based on the records that we have, 
we responded to about 3,200 nonfire calls from Forest Service 
stations in those four national forests last year.
    Senator Domenici. That's a good number, but 3,200 out of 
what?
    Mr. Rey. 3,200.
    Senator Domenici. 3,200 out of what?
    Ms. Kimbell. It's approximately 70 percent of the calls 
that are nonfire.
    Senator Domenici. Okay, and yet we're paying for them as 
firefighting under this Department's budget, is that right?
    Mr. Rey. That's correct.
    Senator Domenici. Well, why should we continue this? I 
mean, it sounds like a nice thing to do for some areas, but----
    Mr. Rey. Well, this will be one of the things that we look 
into as we continue to work on the retention issue in southern 
California. But I guess the simple answer is that as we work 
through our local agreements with the county fire organizations 
in southern California, this was something we agreed to do, and 
in exchange they've agreed to do some things for us. So there 
is some degree of reciprocity in how we organize ourselves.
    Senator Domenici. All right. Then are you suggesting, are 
you saying to the committee that, as the man in charge, you 
think this is a good practice that ought to continue? Or should 
it be put in a stage where it's being diminished annually so 
that it won't remain at this high level forever.
    Mr. Rey. Well, I think what I would say is that it's 
something we ought to look at as we move to update the 
agreements that we have with the local fire authorities. It's 
not something I think we should change precipitously, if these 
local authorities aren't capable of picking up the slack, 
because that means we'll be putting citizens at risk to a less 
effective initial response.
    It's a situation that has evolved because of the unique 
nature of the fire organizations in southern California. It's 
like many of our agreements with State and local firefighting 
agencies. This is one thing that we need to nail down so that 
the Federal role is clear and appropriate, and that, to the 
extent that we are doing work that benefits another 
jurisdiction, that the Federal Government is compensated for 
that.
    Senator Domenici. All right. Thank you very much. On the 
OPM issue we will continue to see what we can do and work with 
our staff and the chairman on that issue.
    Ms. Kimbell. Yes, thank you.
    Senator Feinstein. Thank you very much, Senator Domenici.
    Senator Domenici. Thank you for the time this morning and 
your cordiality. I appreciate it.
    Senator Feinstein. You're very welcome. Thank you.
    Senator Craig.
    Senator Craig. Madam Chairman, thank you very much.

                           FIREFIGHTING FUND

    Chief, if the chairman of this committee and I were to do 
something we did a year ago against your better judgment, and 
that was put $500 million in your fire fund to fight the fires 
that you fought last summer, would you oppose that against your 
current budget?
    Ms. Kimbell. I'm not certain I understand the nuance in 
what you've----
    Senator Craig. The nuance was we felt you had substantially 
underfunded yourself for the fire season that was ahead of you.
    Ms. Kimbell. Oh.
    Senator Craig. The history is now in, and it was shown that 
you did, and we saw that coming and advanced you some money.
    Ms. Kimbell. We absolutely appreciate the money you 
advanced us.
    Senator Craig. Okay. Thank you.
    Ms. Kimbell. We've put it to very good use.
    Senator Craig. Yes, you did. None of that's disputed.

                EDUCATIONAL REQUIREMENT FOR FIREFIGHTERS

    I'm sitting here listening to this question about the 
Office of Management and Budget and who's the most talented. 
There are probably few in this room who have fought fires. I 
have a young man staffing me as my legislative assistant in 
this area who was a wildland fire firefighter. He just handed 
me a note that said if he had a minor in fire science from a 
university, he would now be his boss's boss, who might have had 
8 or 10 years more experience than he.
    When you're out on a wildland fire, I'll opt for experience 
every day before I'll opt for a college degree. College degrees 
get burned, tragically enough, if they don't have the knowledge 
and the experience that goes down the road toward a year-after-
year fire knowledge.
    I don't know where OMB's coming from other than the green-
eyeshade people got way out in front of themselves on this one. 
And you ought to fight it aggressively and with passion as it 
relates to experience on the ground. We'll help you there. This 
is just silliness, absolute silliness on the part of a 
Government agency run amok on this issue. I don't know of any 
more dramatic way to say it.
    If we're opting for a college degree versus ground 
experience, and the kind of work and the professionalism you've 
built into your fire corps over the years, both the BLM and the 
Forest Service--I see it out at the interagency in Boise--the 
talent that comes with the experience. We know that the fires 
we fight today cannot be diagrammed in a textbook. They are 
hotter, they're more dramatic, you've learned some tremendously 
tragic lessons over the last good number of years of how to 
engage, when not to engage, when to step back, where to fight, 
when to fight, all of those kinds of things.
    So let us help you do that.
    Ms. Kimbell. Thank you, Senator.
    I'm sitting beside and in front of a number of people who 
have been wildland firefighters, and I think they'd absolutely 
agree they'd rather be working for somebody with 8 to 10 years 
of experience than someone with simply a degree without the 
experience.
    Senator Craig. Thank you. I think that's important for the 
record. OMB, listen: Don't hide your head in a bunch of 
paperwork.

                   STATE AND PRIVATE FORESTRY FUNDING

    I'm frustrated, Secretary Rey, throughout the U.S. Forest 
Service's strategic plan for fiscal years 2007 through 2012, 
references are made to the necessity and the high value of 
partnerships, especially with respect to State and Private 
Forestry programs. Please explain how the proposed 58 percent 
reduction in 2009, in State and private forestry appropriations 
will help the Forest Service attain the goals and objective set 
forth in the strategic plans.
    Mr. Rey. As I said in my opening statement----
    Senator Craig. It wasn't clear.
    Mr. Rey [continuing]. We look at the full context of what 
we're proposing in the State and private forestry area as 
including not just our fiscal year 2009 budget proposal, but 
also the proposals that the administration made and that 
Congress is considering in the 2008 farm bill.
    What we've proposed in that farm bill and what, for the 
most part, the House and Senate bills have carried forward is a 
substantial broadening of the use of conservation title funding 
to make it accessible to both State forestry organizations as 
well as forest landowners. The amount of money in that title, 
in the conservation title, is substantially greater than the 
amount of proportional reductions that we've made in the State 
and private forestry programs.
    So in the full context, if you look at those two proposals 
together, what we would submit is that you're probably seeing 
an increase in funding available for State and private forestry 
rather than a decrease. But you have to look at both pieces to 
get to that point.
    Senator Craig. Okay. Well, I'll try to look at it from a 
different approach, then, because I'm not sure that what's in 
the budget now fits.

                      SECURE RURAL SCHOOLS FUNDING

    Chief Kimbell, in your statement--and I don't mean this as 
a criticism--you gave a reasonably rosy scenario as it relates 
to where the Forest Service is today. Let me step back to 
communities of interest, because there are a lot of communities 
in my State that are--were, not are today--but were tied 
directly to the Forest Service because they were dependent upon 
the Forest Service.
    The great minds that created our forest reserves suggested 
that those communities ought never disengage or be disengaged 
from that relationship. But we've watched that happen over the 
last several decades. No longer is the Forest Service or that 
which flows from the Forest Service lands a majority employer 
of those communities. There seems to be a growing isolation and 
frustration from the communities that the Forest Service is no 
longer the great neighbor and provider and asset that it once 
was.
    No longer does the mill exist, the green sales are gone. 
Now you're posing--you're developing road plans that are 
closing as much as a third to a half of the roads, so access to 
the public lands is rapidly being denied, and it's even 
suggested that you will enforce them once you've closed them, 
and you might start arresting people for trespassing in certain 
areas.
    The story goes on and on; Forest Service offices are 
closed, the number of employees are down, the relationships 
have dramatically changed. I don't see that as for the better 
in many instances; I see it as a kind of a growing isolationism 
between a Federal agency and Federal lands and citizens of a 
State in a community that are tied to that.
    I know that we have struggled on the timber-dependent 
school and county issue. Of course, we crafted Craig-Wyden, 
funded it for a time, you heard Senator Bennett speak to it 
today. If you would, either you, Chief Kimball, or Secretary 
Rey, speak to how much you currently have in the budget and 
what we might be able to do to plus that up.
    I have school districts that by June are going to have to 
dramatically cut budgets for the coming year, lay off people, 
cut programs, diminish the quality of education to their 
children, struggling with State's and limited resources to see 
if they can't do some emergency funding because of their 
dependency upon a relationship with the public land that they 
are now being denied. Why? Because of public policy.
    Could you respond to that?
    Mr. Rey. Sure. We've proposed in our budget an additional 
4-year extension to the Secure Rural Schools legislation, and 
we have provided a couple of hundred million dollars over 
baseline that's available without offsets for that purpose.
    It's our judgment that that extension should eventually 
start to phase down in terms of the guaranteed payments, but, 
we're happy to work with the committee and with the Congress in 
deciding what the rate formula for the distribution of those 
payments are, and in a mechanism for reauthorizing the 
legislation.
    It will require additional legislative activity to 
continue, because the 2000 legislation has now expired.
    Senator Craig. Right.
    Mr. Rey. So we would be eager to work with the committee 
and the Congress to reauthorize the legislation; to continue 
the work of the resource advisory committees, which I think 
have had a material benefit in improving the relationship 
between local communities and the Federal land managing 
agencies; and to see the guaranteed payments extended for at 
least a time into the future.
    You know, it's interesting that we are now in the 100th 
anniversary of the first time that we made payments available 
to local governments that was enacted with legislation. It was 
passed by Congress in 1908 in the last year of the Roosevelt 
presidency. For about the first 50 years, those payments didn't 
amount to very much, really, in the broad scheme of things.
    It wasn't until the early 1950s that the Forest Service 
became much more active in the timber sales arena, and those 
payments began to increase. They increased pretty much every 
year from about 1950 through 1969, and then they leveled off, 
and the Forest Service endeavored, in a pre-endangered species 
era, to keep those payments level. They were level from about 
1970 until about 1990, and then, of course, they started to 
decline, precipitously, because of endangered species and other 
concerns. Now they're starting to trend back up again, 
slightly.
    But, you know, the agreement in 1908 was never that the 
communities were going to be given x amount of money; it was 
always that they were going to be given x percentage of 
whatever the receipts were. We have now extended the highest 
level of receipts for a period of time 1990 to present as long 
as the high level of timber receipts that preceded that 
existed.
    Senator Craig. Yes.
    Mr. Rey. So we do think that the communities in some cases 
have adjusted so that they're not so dependent on it, and in 
other cases still need some time to adjust which is why we're 
proposing an extension.
    Senator Craig. Madam Chairman, it's an issue that, 
obviously, impacts greatly northern California especially, 
along with my State, Oregon, Washington, and then, of course, 
all timber or forested public land States and counties.
    Secretary Rey, I appreciate the history. I repeat it often 
to superintendents and chairmen of school boards only to have 
their eyes glaze over.
    Mr. Rey. OK.
    Senator Craig. Because some of these transitions are 
difficult to come by. There is a dependency.
    Madam Chair, last year Senator Wyden and I crafted a new 
approach toward just in part exactly what Secretary Rey spoke 
of: a scaling down. The community of interest, the association, 
the group that came together headed by a gentleman from your 
State understands that, accepts that.
    I would really hope that we could match with some money 
that which Secretary Rey has talked about that's in this budget 
and possibly extend in at least a 4-year period, a similar 
formulation that we've talked about that takes us down and 
sends the message again to these communities that they really 
have to diversify and change as best they can, as rapidly as 
they can.
    This committee's going to, I think, play a tremendous role 
in that. You've got school districts that are heavily impacted 
as do I, and very little ability to offset these losses without 
some emergency funding from the States.
    Senator Feinstein. If we're having a discussion on this, I 
think we're going to have to get together and do it in the 
emergency supplemental----
    Senator Craig. I think you're right.
    Senator Feinstein [continuing]. That that's going to be the 
only way to get this thing done this year.
    Senator Craig. Oh, I don't think much else will be moving, 
yes, if we don't do that.
    Senator Feinstein. Right.
    Senator Craig. Thank you, I'd be more than happy, as would 
Senator Wyden and a good many others, including Senator Bennett 
to work with you on trying to accomplish something like that.
    Senator Feinstein. I realize now. Good.
    Senator Craig. Thank you.
    Senator Feinstein. That would be my intent to try and put 
something in.
    Senator Craig. Thank you
    Senator Feinstein. In any event, I think we're almost 
completed.
    I have one quick question, if I might. Mr. Rey, perhaps 
you'll remember we met with the seven fire chiefs----
    Mr. Rey. Yes.

               TAHOE AREA COMMUNITY FIRE PROTECTION PLANS

    Senator Feinstein [continuing]. Of Tahoe, and the community 
fire plans, and my understanding is Secretary Kempthorne put in 
the money to fund it. Have you had a chance to review that? Are 
they going well? Are they getting carried out? Is it worth 
continuing that effort?
    Mr. Rey. I think it is worth continuing the effort. I think 
a lot of progress has been made since last summer, and we are 
getting a lot more of the implementation of those plans 
completed.
    Senator Feinstein. Good. All right, thank you very much. 
That completes my questions.
    Senator, do you have a question?
    Senator Craig. Madam Chairman, I do have several questions, 
if I might.
    Senator Feinstein. All right. I have to excuse myself. 
Would you take over and conclude this?
    Senator Allard [presiding]. I'd be glad to, and I'll wrap 
it up as soon as----
    Senator Craig. Can we set funding levels?
    Senator Allard. We'll not abuse the trust that you've put 
in----
    Senator Feinstein. I understand that. I understand that, 
thank you.

                                GRAZING

    Senator Allard. I want to bring up grazing permits. Senator 
Craig mentioned something on grazing permits in his opening 
comments, and I want to follow up a little bit on these grazing 
permits.
    As you will recall, there was the 1995 Recision Act that 
Congress put a schedule in place for the renewal of the grazing 
permits, and the schedule requires the National Environment 
Policy Act document to be completed on all allotments by 2010. 
That's only 1 year after this budget's completed.
    In the fiscal year 2005 appropriations bill, the committee 
provided additional funds to address the backlog of allotments, 
and also at that time they provided a categorical exclusion 
from NEPA for grazing allotments that met certain conditions, 
and that cap was 900 allotments on this authority.
    By the end of this year, we have used 900 of these 
categorical exclusions. The answer is yes?
    Ms. Kimbell. Yes.
    Senator Allard. Okay. Has this been an effective tool in 
helping you catch up on the backlog of grazing permits that 
must be completed?
    Ms. Kimbell. This has been a very effective tool, and it 
would be a great thing to have it extended, if that was 
possible.
    Senator Allard. How many short are you in meeting the 2010 
deadline as far as you can tell?
    Ms. Kimbell. We expect to complete 460 this year, and 455 
next year. We have been working to keep that schedule updated. 
We will be almost 1,800 short of having all of the allotments 
completed with environmental analysis by the end of 2010.
    Senator Allard. So if we extend these categorical 
exclusions, how far out do you think would be appropriate time 
on it?
    Ms. Kimbell. We can provide that to you, Senator, with some 
real specifics region by region and project by project. But the 
categorical exclusion has been a very helpful tool and would be 
a real good thing to have to meet those.
    Senator Allard. We'll have our staff work with you on that.
    Ms. Kimbell. Great. Thank you.
    Senator Allard. You'll be able to complete the NEPA on 
these allotments consistent with the Recisions Act schedule, 
you think?
    Ms. Kimbell. Consistent with the schedule, the previous 
language allowed for a readjustment of this schedule, and we 
have that prepared and ready to present.
    Senator Allard. Okay. Do you have a follow-up on that, 
Senator Craig?
    Senator Craig. I would like to follow up, because I had 
mentioned the issue out in Idaho as it relates to the conflict 
between domestic sheep grazing, in this instance, and the 
bighorns.
    I don't question the need to create some kind of 
geographical buffer to keep these two different animals apart. 
But what happens is the inability of the Forest Service to 
operate in any timely fashion to make adjustments. You are, 
bureaucratically, tied up.
    For example, you have a good many grazing allotments in 
Idaho that are underutilized or not grazed at all. You could 
propose moving the domestic sheep over to another grazing 
allotment and creating those buffers and those separations. But 
you can't do it because you don't have a plan, and it takes 
years, and that sheep man's out of business.
    Yet, and, of course, these lawsuits have been brought by 
interests who want all grazing off public lands anyway, and 
you're falling right into their game plan by your inability to 
move in a timely fashion. You just talked about how long it's 
now taking you to bring about in a forest plan something that, 
while we need to be very observant of it and its impact on 
resource, it appears that the Forest Service really doesn't 
seem to care about grazing anymore in a timely fashion.
    Of course, in many Western States, when you take that 
ranching community down, you take the community down. Again, I 
talked about that hostility of relationship or, shall I say, a 
growing indifference as to your value and your presence. That's 
part of it. You no longer seem to be able to function.
    I guess my frustration is, okay, we've got a problem, the 
science is still out on the problem, clearly, definitively, so 
let's avoid the problem by a separation. I know that's what 
your regional forester in Missoula would like to do, but can't 
do. How do we deal with that?
    Ms. Kimbell. Senator, the agency remains very committed to 
our multiple use mission, and grazing is an important part of 
that mission. This is not an easy issue with the bighorn sheep 
and the domestic sheep, but we are working with the most 
current science in Idaho.
    With people working together, we really hope for a sheep 
plan, a sheep management plan, for the State of Idaho that is 
agreed to by all the many parties who have an interest in sheep 
grazing and in wild sheep populations. But we remain very 
committed to our multiple use mission.
    Mr. Rey. What we've tried to impress on our Forest Service 
range management and line officers is that the importance of 
maintaining these ranches is crucial to not seeing them 
subdivided and converted into developments, subdivisions, and 
thereby increasing the environmental impacts associated with 
that, including the cost of firefighting.
    So we've gone a long way towards trying to instill in our 
folks the notion that ranching is a preferred land use as 
compared to the alternative that we're seeing in large parts of 
the West.
    With the bighorn sheep, what we've got is a problem that's 
maybe temporary, that's a result of some of the success we've 
had in bighorn sheep reintroduction, and that may be solved, 
eventually, by the help of science as we learn more about how 
to prevent disease transmission between wild and domestic 
flocks.
    So we've got a little problem right now, but----
    Senator Craig. Mr. Secretary and Chief Kimbell, my only 
problem is time is not on our side as it relates to the life of 
that rancher.
    June turnout dates are critical; you don't make them, 
they're gone. There's no other place to go. Once you sell down 
your sheep and you're gone, then guess what happens. We 
subdivide, we build the megahomes, because the last asset that 
goes is the base property that's private. Then you're going to 
be fighting fire to protect the megahome built on the private 
property adjacent to the forested land because you could not 
act in a timely way to make a decision.
    Time is not on anybody's side on this issue, including the 
life of the rancher and possibly the life of the bighorn.

                             TIMBER BUDGET

    Senator Allard. Let me move on. I want to talk a little bit 
about the timber budget. It's one of the few programs that were 
not cut, and within this budget you provided full funding for 
the Northwest Forest Plan, an increase of $16 million. Even 
though the regions encompassed by the plan were only capable to 
accomplish 60 percent of their targeted sales volume last 
year--now, I acknowledge there are promises that were made to 
the timber industry in the Northwest Plan--but I wonder whether 
such a large increase aimed primarily at two regions of the 
Forest Service, covering Washington and Oregon, is the most 
efficient use of timber dollars.
    I guess the question I have, aren't there still some 
litigation problems with timber sales in Oregon and Washington 
which means they'll not be able to spend the dollars we're 
going to be providing them in the 2010 budget?
    Mr. Rey. Well, first, they do have the capability to spend 
that increase wisely and in a way that does result in 
additional timber outputs.
    Second, you're correct, there are still litigation 
challenges in that region, but then they're not unique in that 
regard; that litigation challenge is elsewhere as well.
    Third, and I guess most importantly, the allocation of 
those dollars is something that we'll work with the committee 
on to achieve whatever the most equitable result is.
    Senator Allard. Well, the point is that they only spent 60 
percent of their dollars in the last budget.
    Mr. Rey. They spent all their dollars; they only hit 60 
percent of their accomplishments.
    Senator Allard. Okay.
    Mr. Rey. Much of the difference was a result of litigation.
    Senator Allard. Okay.
    Mr. Rey. Some of those were sales that were not offered, 
but that have been freed from litigation and appeals, and will 
come on line as they work their way through the lawsuits.
    Senator Allard. Since the overall budget, timber budget is 
flat, if you look at all the whole budget, you know, including 
the Northwest, large increases to this section of the country, 
isn't that an expense to all of the other regions?
    Mr. Rey. What we endeavored to do in our first allocation 
was to give that region the largest increase commensurate with 
our commitment to fully implement the Northwest Forest Plan 
without disadvantaging any of the other regions. They would be 
largely where they were at in 2008.
    Senator Allard. But, you know, we've talked about paying 
for some of the programs that we have in other parts of the 
country--Colorado and Idaho and what not--and yet the response 
I've gotten back off the record was, you know, we get a large 
amount of money, it goes to the Northwest and it's not 
available to you folks.
    So I'd like to know if you can quantify for us the cuts 
being imposed on other regions. Maybe they're not cuts; maybe 
they're lack of program dollars that need to be made available 
to meet their program objectives in a region. What is the 
dollar value to that?
    Mr. Rey. We can break out the regional allocations for you.
    Senator Allard. We'd appreciate it.
    [The information follows:]

                                                              VEGETATION MANAGEMENT SUMMARY
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                Regional
 BLI           Fiscal year final allocation             R-1       R-2       R-3       R-4       R-5       R-6       R-8       R-9      R-10     subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
 NFTM Forest Products                               $21,877   $18,320    $9,157   $13,472   $26,416   $45,970   $24,763   $23,801   $14,519   $198,295
 SSSS Salvage Timber                                  8,701     1,007       659     1,028     5,729     6,495     2,652     7,357       762     34,390
 CWK2 K-V Forest Products                               700  ........     2,000  ........     6,200     2,300     4,900     4,900  ........     21,000
 WFHF Hazardous Fuels                                15,290    23,815    35,714    16,531    46,128    28,362    32,838     9,001       944    208,623
 WFHF Emer. Supplemental/Omnibus Earmarks          ........       800     2,600  ........    42,000  ........  ........  ........  ........     52,600
 PEP2 Sec. 423 Forest Health                          2,921     3,011     1,463     1,545       804       910     1,779     2,567  ........     15,000
                                                  ------------------------------------------------------------------------------------------------------
            Total                                    49,489    54,153    51,593    32,576   127,277    84,037    66,932    47,626    16,225    529,908
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Note.--PEP2 allocation is based upon fire condition class, insect and disease risk, as well as timber sale unit costs.


    Mr. Rey. We are deeply cognizant that the Congress has a 
role in making those allocations, so we'll be working with you 
on that.
    Senator Allard. I understand. Okay, thank you.
    Let's see, we've pretty well covered that.

                         WILDLAND FIRE OUTLOOK

    Now, on the wildland fire outlook for this year, I know 
you're trying to project the severity of the upcoming fire 
season, and it's pretty difficult at this point in time. But 
we're likely to be marking up the supplemental appropriation 
bill later this month.
    With that in mind, can you give us some sense of how severe 
you might expect this fire season to be, based on what you know 
now?
    Mr. Rey. Sure.
    Senator Allard. About snowfalls and those type of things.
    Mr. Rey. Our initial predictions were for above average 
fire activity this year. We're still in a drought situation in 
the Southeast, so we have predicted that we'd hit the fire 
season there earlier than normal. We have gotten near record 
amounts of snowfall in the Northern Rockies and in other parts 
of the West, so depending on how fast that melts that might 
modulate what we were predicting as above average fire year.
    But at least for right now, we think it's going to be an 
above average fire year, comparable to the last couple.
    Senator Allard. So you think you're going to have 
sufficient resources available to get you throughout the year 
without having to borrow any massive sums from other nonfire 
programs?
    Mr. Rey. Past experience would say that that's not likely.
    Senator Allard. Can you give us a figure?
    Senator Craig. I think he's saying past experience with 
this committee would suggest that we're going to help them.
    Senator Allard. I'm looking for a figure that we might be 
able to help you with.
    Mr. Rey. That would be hard to project in anything but an 
arbitrary fashion this early in the season. If, you know, we 
get a cold, wet spring, kind of the same weather pattern that's 
there now in the Northern Rockies, if that holds for awhile, we 
could have a relatively mild fire year in that part of the 
country. But, on the other hand, if we get a hot spell, and 
that snow just all melts really fast, we'll get a flush of 
vegetation and that might prove to be a difficult fire year.

     POTENTIAL MOVE OF FOREST SERVICE TO DEPARTMENT OF THE INTERIOR

    Senator Allard. Mark, you've been with the Department of 
Agriculture now for 7 years, and I'd like to know what your 
assessments are on the pros and cons of some suggestion that 
the Forest Service might be moved to the Department of the 
Interior. I value your objective observations in this. I wonder 
if you could share those with the committee.
    Mr. Rey. You know, we agreed to participate in the GAO 
study that the House Appropriations Committee asked for, and 
we're going to do that in as honest a way as we can.
    What strikes me, generally speaking, is that most of the 
issues we've been discussing today aren't issues that lend 
themselves to structural solutions. So no matter where the 
Forest Service is, it's still going to have problems that we've 
been discussing, and those problems aren't going to change if 
we change the structure of the agency or who it reports to.
    So, what I look at in executive branch governance is the 
proposition that form ought to follow function, and if you're 
still arguing about how well the functions are working or what 
some of the functions should be, you probably ought to resolve 
that first before you try to fiddle with the form.
    But----
    Senator Allard. That was a nice nonanswer.
    Mr. Rey. It was about as good as I could give you. What I 
think we'll find as we get into this study, is: That one of the 
aspects of level budgets in discretionary spending have forced 
executive branch agencies to do as much together as they can. 
So what I think the GAO analysts are going to find is that 
we're already doing a lot of things together with the 
Department of the Interior land managing agencies.
    We have a unified command firefighting system that's not 
going to be materially improved by moving the Interior agencies 
to Agriculture or the Forest Service to Interior.
    We have a unified recreation reservation system. We have 
the Service First Initiative where we share staff with 
particular technical expertises.
    Similarly, if you look at the other direction between the 
Forest Service and the other USDA agencies, we've unified a lot 
of functions there. Just, for instance, we have all of the 
payroll work centralized, done in a centralized institution, 
the National Finance Center in New Orleans. We have a common 
computing environment. We have staff that we share with the 
Natural Resources Conservation Service.
    So what you're probably going to find is that, yes, there 
are some efficiencies by making some changes, but there are 
going to be some offsetting inefficiencies that are going to be 
created. Should we decide at the end of that study, for 
instance, to move the Forest Service to the Department of the 
Interior, we'll probably be having to figure out how to justify 
upwards of $100 million in computer expenses that have already 
been incurred to unify the computer systems throughout USDA 
agencies so that we can talk to one another.
    Senator Allard. Since we are waltzing around this question, 
I have a couple more for us to dance around.
    Mr. Rey. Okay.
    Senator Allard. You know, the one thought that's been 
expressed is that the Secretary of Agriculture is so busy with 
the farm programs and what not, he doesn't have the time that 
he probably ought to be allocating to forest issues and land 
management issues. The Department of the Interior, Secretary of 
the Interior, is more experienced in land management issues 
because of their jurisdiction which they now cover.
    I'd like to have you respond to that question. Then the 
other argument that we hear out there is that, well, if you 
move from Agriculture to the Interior, you change the mission, 
where the mission of the Interior--you subtlely change it--
where the mission of the Interior has been more towards 
preservation.
    Then we get from the Department of Agriculture more of a 
multiple use concept, and I think, at least on this side of the 
aisle, most of the members would like to support the multiple 
use concept. So I wondered if you'd address those two 
questions.
    Mr. Rey. Sure. At least as far as it involves the two 
incumbent secretaries, they actually have very similar 
backgrounds and a similar level of interest in natural 
resources management. They're both Western Governors from 
States with a substantial amount of federally-owned land. It so 
happens that Secretary Schafer, being from North Dakota, is 
much more familiar with the management of the national 
grasslands, which are part of the National Forest System, 
because North Dakota has a very small national forest acreage.
    Secretary Kempthorne, obviously from Idaho, has a great 
deal more national forest acreage, but I think at least as far 
as the two incumbents are concerned, they're both equally 
interested in natural resources management. It's probably not 
an accurate summary to suggest that Secretary Schafer doesn't 
have some background experience and interest therein.
    Both Secretaries, obviously have to focus on what's before 
them at a particular point in time as far as their respective 
agencies are concerned. I don't know that you can generalize 
and say that the Secretary of the Interior or the Secretary of 
Agriculture is more or less interested in natural resources 
management on a continuing basis. At least today, with the two 
incumbents, I'd say they're equally interested in and pretty 
much equally versed in it in most respects.
    In terms of the agency missions, you know, those are pretty 
much set by the statutes. The BLM and the Forest Service are 
going to remain multiple use agencies because the organic 
legislation directs that as the way they approach the issues 
that they have to deal with.
    The Park Service and the Fish and Wildlife Service have 
organic missions that are somewhat narrower. In the case of the 
parks, they have two main initiatives, and that is to preserve 
the resources that they're entrusted with and to make them 
available for visitors. So it's a preservation and recreation 
mission that's somewhat narrower than BLM or the Forest 
Service.
    But I don't think, unless you change those missions as 
they're embodied in their organic statutes, that you're going 
to much change the agencies by moving them from one department 
to another. Just my take on it.
    Senator Allard. Okay. One last question. Did you have some 
questions?
    Senator Craig. I'll only make one observation as to the 
Secretary's evaluation of this proposal. If you stay in 
Washington long enough, I think there is a relatively standard 
axiom that you can accept that bad ideas continue to resurface.
    I think when I first got here in the early 1980s, we were 
talking about the bringing of the agencies together, and I 
think we did that in the mid-1990s. So you see, the House is 
really being very creative: They're repeating a bad idea and 
will study it like mad. We will not be able to break down all 
of the stakeholders of interest that, in part, determine the 
policy and most important, determine the politics of it.
    While I think, Senator Allard, there are some commonalities 
that the Secretary has already spoken to that we can bring 
together, we have a commonality that's created a unifying 
resource group out in Idaho called the Interagency Fire Center 
which pools resources for a variety of broad public 
firefighting interests. That's fine, but there are very 
distinctively different missions in some of these that are 
unique to the BLM and unique to the Forest Service, vis-a-vis 
Agriculture and Interior.
    So when I first began to hear about it, I thought, well, 
it's probably worth the analysis, but it will conclude in 
drawing nothing but dust on the shelves, and out of it may come 
some ideas that are implementable as it relates to cooperative 
interagency relationships. But beyond that I would seriously 
doubt that over the last decade a bad idea has become a good 
idea.
    Mr. Rey. I can tell you from visiting with the GAO auditors 
that they are going to take a very thorough approach to the 
task, and their stated goal is to lay out a variety of 
alternatives for the Congress--most likely the next Congress--
to consider because they're planning on concluding their study 
sometime late this year.

                        COHESIVE FUELS STRATEGY

    Senator Allard. Well, GAO has been somewhat critical about 
having developed any cohesive strategy that allows us to look 
at long-term results and effects and what not.
    They have also found that the firefighting agencies have 
yet to develop a better process for allocating fuel reduction 
funds to the various regions. Despite these calls from GAO, the 
agencies--you've not developed any cohesive strategy that I'm 
aware of that would allow us to look at a long-term investment 
in hazardous fuels funding, for example, and their impacts on 
the costs of firefighting.
    Can you respond to that question?
    Mr. Rey. Sure. We've been engaged in what I'll call a 
fairly lengthy ongoing dialogue with GAO about what they think 
is lacking in our current cohesive fuel strategy which we 
developed jointly with the Department of the Interior. We are 
in the process of augmenting that strategy to meet some of the 
things that they have indicated they'd like to see.
    Where I think we still are struggling to reach an accord 
with GAO is in the question of how much sense it makes to try 
to project out fuels treatment priorities very far into the 
future and to put dollars around those priorities in out years.
    The reason we take a somewhat skeptical view of the benefit 
of that is that those fuels treatment priorities are going to 
change over time by necessity. We're going to have new 
subdivisions develop in places where they aren't now that's 
going to elevate a certain area to a higher level of priority 
for treatment that we can't necessarily predict right now.
    But I'd say that we're probably pretty far along the way to 
closing out disagreement with them. The question isn't whether 
we have a cohesive fuel strategy or not, we do; the question is 
whether it meets all of the standards for information the GAO 
would like to see in it, and the answer is it doesn't now, but 
likely will as we add components to it over the next several 
months.

                     PROGRAM ASSESSMENT RATING TOOL

    Senator Allard. We're on the issue of accountability. I'm 
also one who pays particular attention to the Government 
Performance and Results Act. It's also known as PART, under the 
President's plan. I'm going to let you off kind of easy on that 
question.
    I have noticed that there are four programs, I think, that 
fall on this budget that are classified as nonperforming. I 
would ask that you submit to the committee and also to my 
office your explanation of why they're nonperforming. I know 
there may be some legitimate reasons, and I just want on the 
record for you to give an opportunity of why you don't--if you 
don't agree with them, fine; if you see that there are some 
shortfalls, what you're doing to correct those.
    Those four programs--one's the USDA Wildland Fire 
Management, and the other one is the Wildlife Habitat Incentive 
Program; the third one is the Forest Service Invasive Species 
Program. Then, finally, one that's very popular with Members of 
Congress but I think we need some explanation, and that is the 
Department of the Interior Land and Water Conservation Land 
Acquisition Fund.
    So those four, if we just have some explanation.
    Mr. Rey. I think we can give you the information on three 
of the four. We'll have to work with Interior on the last one.
    Senator Allard. Okay.
    Mr. Rey. Because it's a joint program.
    [The information follows:]

    PART Ratings That Several Forest Service Programs Received for 
                             Nonperformance

        WATERSHED CURRENT PART RATING--RESULTS NOT DEMONSTRATED

    The Forest Service is responding to the Watershed PART Assessment 
by developing new policy, protocols, and tools to improve program 
delivery and effectiveness. The agency has identified a consistent 
approach for determining watershed condition on National Forest System 
(NFS) lands, supporting efforts to prioritize watershed improvement 
activities. The Forest Service has also developed aquatic inventory and 
monitoring protocols for NFS lands and GIS-based tools to help States 
identify and prioritize critical forest areas on non-Federal lands. 
Through these applications and others, the NFS and State and Private 
Forestry deputy areas are exploring meaningful ways to measure 
effectiveness of programs pertaining to watershed improvement.
    The agency is beginning to implement elements of the PART 
Improvement Plan to improve the program's rating. These actions consist 
of (1) developing a nationally consistent methodology for determining 
watershed condition class as basis for prioritizing watersheds 
management and (2) developing a national approach to describe and 
monitor the status and trend of aquatic resources. Additionally, the 
Forest Service and OMB recently negotiated an ``Action Plan for the 
Development of a Watershed Efficiency Measure and a National Watershed 
Condition Class Rating System,'' establishing a process and timetable 
for improvement.

 CAPITAL IMPROVEMENT AND MAINTENANCE CURRENT PART RATING--RESULTS NOT 
                              DEMONSTRATED

    The PART process for Capital Improvement and Maintenance aligned 
the Forest Service with USDA and OMB's Real Property Initiatives and 
Asset Management Plans. The performance measures developed as a result 
of the assessment have improved planning and assessment of the agency's 
infrastructure, resulting in better priority setting criteria and 
project selection. Better planning and assessment supports the agency's 
effort to determine an optimal infrastructure level, keeping only what 
is necessary to implement the agency's mission and meet public needs. 
To further inform infrastructure maintenance, the agency has adopted 
the industry standards for the Facility Condition Index. The Index is a 
general metric that tracks national trends in the condition of the 
agency's portfolio with respect to the deferred maintenance backlog. 
The Index allows decision makers at the local level to prioritize 
individual assets for funding, repair, or disposal, based on relative 
conditions.
    The Forest Service is developing long-term outcome-based 
performance measures that fully cover the program, including safety, 
condition sustainability and environmental suitability, utilization, 
and mission dependency. It will also develop and implement a strategy 
to prioritize road, facility, and trail improvements that reflect 
investment strategies as common criteria for reducing the deferred 
maintenance backlog. Finally, the agency has used disposal authorities 
to convey excess or unneeded properties through the Facilities 
Realignment and Enhancement Act.

         WILDLAND FIRE MANAGEMENT CURRENT PART RATING--ADEQUATE

    In fiscal year 2007, the Forest Service addressed the following 
actions contained in the PART Improvement Plan: refining program 
delivery, improving procedures for allocating hazardous fuels reduction 
funds, and improving data to reduce the risk of catastrophic fire.
    The Forest Service developed a technical guide that identifies the 
items and strategic nature of discussions in land management plans in 
fiscal year 2007, and is currently developing a new Forest Plan 
template, which should be available by the end of fiscal year 2008.
    Several large fire cost containment audit reports were issued in 
fiscal year 2007. The Office of Inspector General (OIG) issued a report 
containing 18 recommendations on cost containment needs. The Forest 
Service has completed actions on two recommendations, including 
development of a new Master Cooperative Wildland Fire Management 
Agreement template. Work is ongoing on all open recommendations.
    The Forest Service is working with a multi-agency taskforce to 
develop a cost management strategy formulation process to provide a 
better picture of fire suppression costs over the life of an incident, 
establish short-term cost plans for fire resource ordering and 
procurement, and reaffirm the regional and national role in pricing 
fire resources (Federal, State, and local, private contractor, and 
military).
    A post-incident recovery team is developing policy, guidance, and 
tools to provide rapid assessment of rehabilitation needs following 
fires and other events. These actions will enable the agency to 
prioritize the rehabilitation work, along with the regular program of 
work, to ensure the highest priority of work is funded and 
accomplished.

             INVASIVE SPECIES CURRENT PART RATING--ADEQUATE

    As a result of the Invasive Species PART Assessment, the Forest 
Service has focused the program around outcome-based activities that 
reduce the impact of invasive species on priority Federal and non-
Federal forests and grasslands and tie directly to the USDA and agency 
strategic plans. Performance measures track treatment prioritization 
based on risk, treatment efficacy, and implementation costs; 
development, delivery, and use of tools; and customer satisfaction with 
tools produced. The Forest Service is also implementing an improved 
system of tabular and spatial record keeping for all invasive species 
management projects.
    New performance measures tracking outputs, outcomes, and 
efficiencies--developed during the PART Assessment process--help the 
agency to better determine program success. Field units have been 
tracking these measures for the past 2 years.

                  ENERGY CURRENT PART RATING--ADEQUATE

    In response to the PART assessment on the oil and gas energy 
resources program, the Forest Service refined performance measures to 
track compliance with agency strategic plan goals and objectives, 
emphasizing the agency's ability to process lease applications in a 
timely manner. The new performance measures have helped the agency to 
direct funding and resources to reduce project processing times while 
assuring compliance with remediation measures. Also a result of the 
PART assessment, the Forest Service now holds regular coordination 
meetings with the Bureau of Land Management, with which it manages the 
energy minerals program. Regular meetings have eased implementation of 
MOUs, facilitating more efficient program delivery.

             LAND ACQUISITION CURRENT PART RATING--ADEQUATE

    The Forest Service has used the PART process to improve land 
validation, ensuring that land purchases and donations meet the 
agency's strategic plan goals and objectives. The agency has adopted 
two new measures for land acquisition into the Performance and 
Accountability System and Workplan, systems that agency uses to manage 
and track project funding and performance. The Forest Service has also 
updated the Agency Land Purchase Digest system to include case-specific 
information for these performance measures, as well as three new 
efficiency measures. With these improvements, the agency will be able 
to more accurately assess program effectiveness.

    FOREST LEGACY PROGRAM CURRENT PART RATING--MODERATELY EFFECTIVE

    Following its PART assessment, the Forest Legacy Program (FLP) 
developed seven performance measures and national strategic direction 
to further ensure that Federal dollars are spent on those projects of 
highest national importance. FLP revised its national scoring guidance 
for the annual project selection panel to increase the emphasis on 
protecting nationally important resources that fit within a larger 
regional or national conservation landscape level plan. In addition, 
FLP is reducing the average length of time it takes to complete a 
project. FLP is also working to ensure timely quality appraisals to 
reduce the average project completion time.

          RECREATION CURRENT PART RATING--MODERATELY EFFECTIVE

    The Forest Service is using the PART assessment to focus business 
planning and improve cost accounting in the developed recreation sites 
program. The agency is currently going through a Recreation Facility 
Analysis (RFA) process to prioritize recreation site improvements, to 
reduce deferred maintenance, and improve cost analysis. Under this 
analysis, national forests weigh and compare facilities' ability to 
serve public needs and wants with the forest's capacity to operate and 
maintain existing structures at desired quality standards. One of the 
primary goals of RFA is to reduce recreation site deferred maintenance 
by 20 percent in 5 years on each national forest.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. Very good. Well, at least from your 
perspective on the last, if you would, and we'll go to Interior 
and ask them for their side of it.
    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

              FIREFIGHTER RETENTION IN SOUTHERN CALIFORNIA

    Question. In your analysis, you acknowledge a morale problem among 
firefighters on these forests, but your analysis also claims that the 
``perceptions around recruitment and retention in southern California 
are hard to substantiate based on data.''
    Part of your claim is that the overall attrition rate is lower than 
the average attrition rate of all Federal employees, which is 13.4 
percent. However, your analysis also showed that your attrition rate 
among southern California fire personnel was 9.4 percent last year--49 
percent greater than the agency's overall firefighter attrition rate of 
6.3 percent. On the Angeles National Forest, you report an attrition 
rate of 12.2 percent, which is double the Forest Service's firefighter 
attrition average. It also showed that the Forest Service lost 46 
percent of your entry-level firefighters last year in southern 
California--twice the agency's overall attrition average.
    How did the agency compile the attrition rate data presented to the 
Committee?
    Answer. Rates for employees leaving the agency were compiled from a 
10-year database of permanent workforce in California. The position 
series used were 0462 and 0401 for both fire and non-fire positions 
since there is no way to isolate fire positions based on the series. 
The data itself comes from the data warehouse maintained by the 
National Finance Center (NFC)
    Question. You use these data to represent trends in firefighting 
employment, but acknowledge that the data used in your analysis contain 
both fire and non-fire personnel. Is it appropriate to make decisions 
about firefighter retention using data that include an unknown number 
of other personnel? Did the agency conduct an analysis to see how many 
non-fire positions were included in the data?
    Answer. Because there is not a specific job series for wildland 
firefighters, it is not possible to easily isolate firefighters among 
the other job functions included within the 0401 and 0462 job series. 
However, in Region 5 the majority of employees in the 0401 and 0462 job 
series are fire employees. We believe using these job series provide 
the most accurate available data set which encompasses the entire fire 
organization.
    Question. Why did the agency choose to compare the attrition rate 
of firefighters against the attrition rate for all Federal employees as 
the basis of determining whether it has the appropriate retention 
level? Why and how did you decide that was the appropriate baseline?
    Answer. The agency did not utilize this comparison as the sole 
basis of determining whether it has the appropriate retention level. A 
number of factors were assessed in the report including the change in 
permanent fire workforce over the period from 1997-2007, which 
indicated an 82 percent increase in permanent Fire and Aviation 
Management staff. We also used 2007 data on retirements, resignations 
and transfers, which indicated a net gain of 68 employees an increase 
of 3 percent. In short, within Region 5 there are significantly more 
firefighters today than there were 10 years ago. The comparison to 
Forest Service wide and all Federal Service were used to illuminate the 
attrition of firefighters in California in context with broader 
attrition rates of natural resource professionals in the Forest Service 
and Federal Government.
    Forest Service leadership recognizes that some employees have left 
the agency and that this is most visible in the fire organization. As 
noted in the letter to Senator Feinstein from Under Secretary Rey, 
dated May 6, 2008, the Forest Service has a number of initiatives to 
address retention in the fire organization.
    Question. What are the trends over time for attrition rates of 
Forest Service firefighters, both in Region 5 and for the four southern 
California forests? Please provide the Committee with the annual 
attrition rate of all firefighting employees for each of the Region 5 
forests for each of the past 10 fiscal years.
    Answer. Data for this question is readily available only from 1997 
to 2006 and is based upon calendar years instead of fiscal years. 
Please see attachment 1. In general, the number of Region 5 permanent 
firefighters at the end of fiscal year 2006 is more than 50 percent 
higher than the fiscal year 2000 levels, even assuming attrition.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. What effect has this attrition had on the experience 
level and the institutional memory of the Region's firefighting corps?
    Answer. The analysis indicates that the greatest numbers of 
employees leaving the agency are at the GS-04 entry level, where 
employees are in seasonal positions and are more likely to be at the 
beginning of their careers. Experience and institutional memory 
principally lie with permanent employees at grade levels GS-06 and 
above, and there is minimal attrition at that level. Further, because 
the overall number of firefighters in Region 5 remains over 50 percent 
above the number of permanent firefighters at the end of fiscal year 
2000 even accounting for attrition, the amount of institutional and 
professional knowledge available to the Forest Service is greater than 
the pre-2000 levels.
    Even as the Forest Service has expanded its permanent firefighter 
workforce compared to the pre-2000 levels, we share the concerns about 
maintaining institutional memory and experience into the future and are 
committed to actions that provide a continuing qualified, 
knowledgeable, and safe firefighting cadre. Our current recruiting 
efforts and apprenticeship program are focusing on hiring entry-level 
employees, and increasing promotion rates into higher ranks and 
permanent positions by promoting as soon as they acquire the necessary 
skills and experience. This ensures that new employees have a tangible 
career ladder and thus create an incentive to remain with the Forest 
Service. These employees will become our future leaders and will gain 
experience and institutional knowledge as they continue their careers.
    Question. Though it claims that recruitment is outpacing retention, 
the analysis does not provide data on actual vacancy rates that are 
caused by attrition or other factors. Please provide data on planned 
versus actual firefighter employment, by pay-grade and by forest, for 
each of the Region 5 forests as of April 1, 2008. Please provide 
specific statistics for both permanent and temporary firefighters.
    Answer. Please see attachment 2.
    Question. Please provide data on planned versus actual firefighting 
personnel in Region 5, by forest, for each of the past 10 fiscal years.
    Answer. This data is not readily available on a forest by forest 
basis. Please see attachment 3 for a chart describing planned and 
actual hires for permanent, apprentice, and temporary employees 2000-
2007.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. How will the agency monitor hiring and retention to 
ensure that its firefighting positions are filled to capacity before 
the beginning of fire season? How many positions currently remain to be 
filled? By what date will staffing be complete?
    Answer. The agency's goal is to ensure that we have the capacity to 
meet our wildland fire mission. In the Pacific Southwest Region (Region 
5) the Forest Service has planned for 4,432 permanent, temporary, and 
apprentice positions for the 2008 fire season. It is important to note 
that staffing in the firefighting organization will fluctuate 
throughout the season. As the fires season progresses, Forest 
Supervisors monitor staffing decisions to address the firefighting 
mission and if extreme fire danger warrants, have the ability to hire 
additional resources. There are currently 363 vacant positions in 
Region 5. The region is planning to have another round of fire hiring 
in early July to fill these vacancies before the California fire season 
commences in earnest.
    Question. While the analysis provides a number of short-term 
recommendations that may be considered to improve firefighter morale, 
including retention bonuses, flexibility of scheduling and other 
quality of life improvements, it fails to provide concrete 
recommendations as requested by my directive in the fiscal year 2008 
Consolidated Appropriations Act (Public Law 110-161). It is essential 
that your agency take action immediately to improve morale, and 
additional inducements may also be critical to your efforts to fully 
staff your firefighting positions for this fire season.
    What process will the agency use to determine which of these 
recommendations will be employed? How will you solicit input from local 
firefighters?
    Answer. Region 5 is taking the lead to address these issues. Four 
teams, each led by one or more Forest Supervisors and including one or 
more forest fire managers, have been established to develop 
recommendations, on four key areas: mission, pay, workplace 
improvement, and facilities.
    Region 5's current recruiting efforts and apprenticeship program 
are focusing on hiring entry-level employees, where the attrition rate 
is greatest. The region is increasing promotion rates into higher ranks 
and permanent positions for these employees as soon as they acquire the 
necessary skills and experience.
    It is recognized that the high cost of living in California is an 
important factor affecting employees. Region 5 is working with local 
forests to determine if retention allowances can immediately assist 
with retaining employees.
    Question. When and by whom will a decision on to implement 
recommendations be made?
    Answer. The team's recommendations will be completed by June 30. 
The Regional Forester will make a decision on the recommendations at 
that time and implementation will begin immediately.
    Question. What is the agency's long-term plan for analyzing the 
agency's firefighting mission, and for addressing firefighter pay and 
benefits issues, both in California and agency-wide?
    Answer. The agency has begun an assessment of mission related 
activities and workload within the wildland-urban interface and is 
assembling the appropriate information for analyzing mission related 
activities across the Nation, as well as functions that are less 
congruent with the agency's land management mission. We will review the 
finding of this assessment and determine the need to make national or 
regional decisions based on this analysis.
    In terms of pay and benefits for fire fighters in California, the 
Regional Forester has created teams specifically focused on pay and 
workplace improvement. In addition the region is evaluating and 
implementing actions related to focused recruitment and retention 
bonuses ensuring that employees have a tangible career ladder. Beyond 
California there is currently no indication that significant issues 
exist agency-wide with firefighter pay and benefits.
        fuels/use of healthy forest restoration act authorities
    Question. According to your agency's Healthy Forests Report 2007, 
you have only treated 295,000 acres under HFRA Title I authorities over 
the past 3 years, while 12.8 million acres were treated using other 
authorities. You treated 163,000 acres using HFRA authorities in fiscal 
year 2007, which is a fraction of the agency's authorized HRFA limit of 
20 million acres.
    Why is the agency still only treating a fraction its acres using 
HFRA authorities? Why is the pace of implementation so slow?
    Answer. Most of the acres treated are being carried out under pre-
existing authorities. The planning authorities available under HFRA are 
important tools to help the agency achieve its goals for restoring 
forest and rangeland health, reducing hazardous fuels, and creating 
sustainable conditions to facilitate protection of communities and 
resources. Land managers and communities are often focused on outcomes 
and not on the use of a particular authority. While accomplishments 
achieved under other authorities do not count as ``HFRA acres'' they 
nevertheless contribute to the overall objectives of the act.
    Question. How many acres will the agency treat in fiscal year 2008 
using HFRA authorities? How many acres are planned for treatment under 
HFRA in fiscal year 2009?
    Answer. Each year the number of acres treated using HFRA 
authorities increases and we expect this trend to continue. In fiscal 
year 2007, a total of 163,000 acres were treated using HFRA, an 
increase of 65 percent above the 2006 level. Treatments using 
authorities under Healthy Forest Initiative accounted for an additional 
417,000 acres.
    In fiscal year 2008 and fiscal year 2009 we anticipate further 
expanding the use of HFRA authorities. The use of HFRA and HFI 
authorities has been on an increasing trend and lands treated under 
those authorities in fiscal years 2008 and 2009 will meet or exceed the 
580,000 acres treated using both HFRA and HFI in fiscal year 2007.
    Question. What specific steps has the agency taken to increase the 
number of acres treated under HRFA authorities in the past fiscal year?
    Answer. The Forest Service has taken several actions to support 
accomplishment of all vegetation treatments that contribute to the 
overall HFRA objectives. For example:
  --Increased Leadership at the National Office to support use of HFRA 
        authorities.--The National Office has conducted an assessment 
        of the impacts of the recent U.S. Ninth Circuit Court of 
        Appeals decision declaring the Hazardous Fuels Reduction 
        Categorical Exclusion (HFRCE) developed under the President's 
        Healthy Forest Initiative invalid. The Chief has directed the 
        Forest Service to refrain from approving new projects using the 
        HFRCE, and avoid advertising or awarding contracts to implement 
        decisions made after October 8, 2004 approved under the HFRCE. 
        We expect additional use of HFRA authorities due to this 
        direction.
  --Increased Focus on Improving Communication and Sharing Success 
        Stories.--Considerable information about the requirements of 
        HFRA, and tools to help in understanding its application are on 
        the Washington Office intranet. One of these tools is a Web 
        Guide that walks the reader through the decision process to 
        determine whether HFRA authorities might be used in particular 
        situations. Another is the Healthy Forests Initiative and 
        Healthy Forests Restoration Act Interim Field Guide (Field 
        Guide) providing a wealth of information on the law's 
        interpretation and application.
  --Increased Use of Strategic Assessments.--Regions are capitalizing 
        on leadership of States and local government in the development 
        of community wildfire protection plans (CWPPs). Nearly 5,000 
        communities are now covered by CWPPs.
  --Increased Focus on Training and Reviews.--Several regions are 
        targeting training to Line Officers, Planners, and Resource 
        Specialists on use of the entire suite of authorities to manage 
        vegetative conditions in collaboration with communities.
  --Enhancing Stewardship Contracting to Build Collaborative Capacity 
        and Accomplish Restoration.--Many of the successes in our use 
        of stewardship contracting are a direct result of the 
        development and implementation of projects through 
        collaborative partnerships with groups of diverse interests.
  --Forest Restoration Framework and Policy.--The Forest Service has 
        completed a strategic, science-based framework for restoring 
        and maintaining forest and grassland ecological conditions 
        titled the ``Ecosystem Restoration Framework.'' This framework 
        has informed the development of an agency wide restoration 
        policy--expected to be released late spring 2008. The policy 
        addresses requirements to plan, implement, monitor, and 
        evaluate ecological restoration activities in consideration of 
        current and future desired conditions and the potential for 
        future changes in environmental conditions, including climate 
        change.
  --Release of the Forest Service Woody Biomass Utilization Strategy.--
        The strategy describes how Forest Service programs can better 
        coordinate to improve the use of woody biomass in tandem with 
        forest management activities on both Federal and private land.
    In addition, the following direction was included in the fiscal 
year 2007 and fiscal year 2008 program direction to the field: 
``Project planning and implementation associated with a Community 
Wildfire Protection Plan must take priority over other projects within 
the Region or Forest, unless prevented by extenuating circumstances.'' 
A large number of community wildfire protection plans have been 
prepared under HFRA. The numbers climb each year as managers 
effectively facilitate successful collaborative planning efforts, and 
this approach becomes the planning standard.
    Question. Does the agency evaluate each of its proposed fuel 
treatment projects for possible use of HFRA authorities? If not, how 
does the agency choose which projects to evaluate for possible HFRA 
use?
    Answer. Every project is evaluated for the suitability of utilizing 
an HFRA authority. The decision authorities provided by the HFRA are a 
tool that line officers consider when evaluating the most effective and 
efficient means of accomplishing their hazardous fuels reduction and 
ecological restoration objectives.
    Question. Your recent Healthy Forests report from December, 2007 
indicates that only 16 percent of all acres treated with hazardous 
fuels dollars last year were mechanical treatments, while approximately 
84 percent of acres accomplished were treated through prescribed fire. 
How does the agency decide how many acres to treat through mechanical 
thinning versus prescribed burns? Why isn't the agency using mechanical 
thinning for a greater proportion of its fuels acres?
    Answer. Our total hazardous fuel reduction accomplishment includes 
acres treated by other program areas with a secondary benefit of 
reduced hazardous fuels, such as mechanical treatment, not just those 
acres treated with hazardous fuels dollars. When considering all 
hazardous fuels reduction from all funding sources, 38 percent of the 3 
million acres treated in fiscal year 2007 were accomplished using 
mechanical methods. Accomplishing our hazardous fuel reduction 
objective includes use of all management tools available to us, 
including both prescribed burning and mechanical fuel reduction. 
Managers select the appropriate treatment method based on site 
conditions; opportunity for commodity recovery via timber sale or 
biomass removal; accessibility; proximity to wildland urban interface 
or other high valued resources; and the potential to use prescribed 
fire safely. Mechanical treatments can approximate the impacts of a 
natural disturbance regime through fire, but it cannot completely 
replace fire's beneficial effects on the site which include nutrient 
cycling, preparation of the seed bed, and selection of fire-adapted 
plants. Fire must continue to be an important part of our management of 
fire-adapted ecosystems.

                         TRAVEL MANAGEMENT RULE

    Question. What is the agency's schedule for implementing the travel 
management rule, which calls for the agency to codify its cross-country 
motorized vehicle use? Who or what determined this schedule?
    Answer. The planned schedule has all administrative units 
identifying those roads, trails, and areas which are open to motor 
vehicle use and publishing a Motor Vehicle Use Map by December 31, 
2009. The Chief of the Forest Service determined the planned schedule.
    Question. Is the agency preparing a travel analysis for each 
individual National Forest?
    Answer. Travel analysis is a pre-NEPA process explained in the 2005 
Motor Vehicle Route and Area Designation Guide and in regional training 
sessions. Proposed directives published in the Federal Register on 
March 9, 2007 also included proposed direction regarding travel 
analysis. We expect final directives to be published some time this 
year. Currently, some national forests are conducting travel analysis 
as a part of travel management planning.
    Question. Is there a standard policy that each forest must follow 
in order to make travel management decisions? How is the Forest Service 
ensuring that its policies are being applied consistently?
    Answer. Subpart B of the Travel Management Rule at 36 CFR 212 
provides direction on how to identify routes and areas open for motor 
vehicle use. The Rule identifies the requirement for public 
participation; coordination with Federal, State, county and other local 
governmental entities, and tribal governments; and criteria which must 
be considered when making designation decisions. The proposed 
directives include a process for completing travel management planning. 
The 2005 Motor Vehicle Route and Area Designation Guide provides a 
process framework that may be used. To enable consistent interpretation 
of the Rule and its implementation, regional training sessions were 
conducted.
    Question. Is there a formal process that each forest will use to 
decide whether to add or remove additional routes? Who participates in 
this process?
    Answer. The Travel Management Rule identifies criteria that must be 
considered when making decisions regarding which roads, trails, and 
areas to designate for motor vehicle use. The Rule requires that the 
public be given the opportunity to participate, and requires 
coordination with governmental entities and tribal governments.
    Question. Is there universal standard for public participation in 
the travel management decision-making process? What is that standard?
    Answer. The Travel Management Rule identified two specific 
requirements for public participation. First, that the public be 
allowed to participate in the designation process, and second, that 
advance notice be given to allow for public comment. Public 
notification, including publishing of the Motor Vehicle Use Map, is 
sufficient where motor vehicle use is already restricted to designated 
routes and areas.
    Question. How much funding has the agency spent to date on the 
travel management planning process? How much will the agency spend in 
fiscal year 2008 on this process? How much do you propose to spend in 
fiscal year 2009?
    Answer. Over the past 2 years the agency has spent an estimated 
$200,000 for national training on route designation, issuance of Forest 
Service manual and handbook direction, and implementation support. It 
is estimated that an additional $25 million per year over 4 years will 
be spent on the full range of travel planning activities, although 
these costs are not clearly distinguishable from other program 
management costs and vary widely from forest to forest depending on the 
local situation and issues. Funding provided for travel management 
planning is used to: (1) assemble and review existing motor vehicle 
travel management information; (2) inventory, analyze, and complete the 
requirements established by the National Environmental Policy Act for 
travel management decisions; and (3) publish Motor Vehicle Use Maps.
    Question. How many miles of motorized trails do you anticipate that 
the travel management process will add to the National Forest System 
trails system nationwide? How many miles will be specifically added in 
California?
    Answer. Decisions on which trails to designate for motor vehicle 
use are made by local responsible officials. Since most national 
forests have not yet made their designation decisions, we do not have 
an estimate as to how many miles may be added to the National Forest 
System of trails. The same would be true for California.
    Question. How many miles of motorized trails have already been 
added to the National Forest System to date by this process? How many 
of these are in California?
    Answer. Between fiscal year 2006 and 2008 it is estimated that the 
total miles of National Forest System (NFS) trail open to motor vehicle 
use increased by 1,400 miles. There are a number of factors which 
influence this figure. Changes to the miles of NFS trail open to motor 
vehicle use include both additions and subtractions, and may or may not 
be a result of route designation decisions. Many of the added miles 
represent the conversion of NFS roads to NFS trails. Currently no miles 
of trails open to motor vehicle use have been added for California 
during this same timeframe.
    Question. Do you have any estimates of what additional funding--
construction, maintenance, enforcement--will be required for additional 
routes that have been or will be designated? Please provide the 
Committee with these estimates, if applicable.
    Answer. Implementation of the travel management rule is a Forest 
Service priority and available funding within the agency's budget will 
be used to cover travel management decisions. Preliminary budget 
projections once route designations are completed are shown below. 
These projections do not include maintenance, decommissioning of 
routes, road route markers and signs, and law enforcement needs as they 
are not currently known at this time.
  --Route markers and junction signs for trails--$3-7 million (one time 
        cost)
  --Forest Service Educational and Patrol Personnel--$9-$16 million/
        year
  --Volunteer Program Management--$8 million/year
  --Bulletin Boards and Kiosks--$15 million (one time cost)
  --Signs at entrance to forest areas--$6 million (one time cost)
  --National educational efforts--$1.5 million (one time cost)
    Question. What role do budget resource considerations play a role 
in determining what routes may or may not be added?
    Answer. The Travel Management Rule requires the consideration of 
the availability of resources for needed road and trail maintenance and 
administration. That consideration is one amongst a variety of other 
considerations including effects to natural and cultural resources, 
public safety, provision for recreation opportunities, access needs, 
and conflicts among uses of National Forest System lands.
    Question. What kind of analysis is the Forest Service preparing to 
ensure adding additional trails is not damaging the watersheds, 
wildlife habitat or other natural resource values?
    Answer. The Travel Management Rule requires the consideration of 
various criteria for designation of trails. The responsible official is 
required to consider effects to natural resources including, potential 
damage to soil, watershed, vegetation, and other forest resources, and 
harassment of wildlife and significant disruption of wildlife habitats.

                      OPM FIREFIGHTER CREDENTIALS

    Question. What is the purpose or goal of transitioning your upper 
level fire managers to the professional GS-0401 classification series?
    Answer. This effort began several years ago as a result of wildland 
fire incident reviews. The death of 14 wildland firefighters on Storm 
King Mountain in 1994 was a turning point. These studies highlighted 
the fact that we needed more stringent, uniform qualification standards 
for employees in certain fire management positions to assure 
firefighter safety. The fire organizations worked with the Office of 
Personnel Management (OPM) to establish an appropriate series. The 0401 
series is similar to other resource management professional series and 
stresses a positive education element that strengthens analytical 
skills and resource management fundamentals. These two elements are 
essential to both the safety of the workforce and Forest Service 
resource management mission.
    Question. Why did the educational requirements for upper-level 
firefighters change?
    Answer. The change was not the education requirements, rather it 
was the acceptable standard necessary for meeting the education 
requirement. This policy change was effective on February 15, 2005.
    Question. What was the agency's initial plan to meet these 
requirements? Did you work with OPM on this? Was a supplemental 
qualification standard for your fire managers developed and approved by 
OPM?
    Answer. The plan to meet OPM requirements is the Interagency Fire 
Program Management (IFPM). Yes, OPM was involved in this effort. Among 
the components of the IFPM Standard is the Office of Personnel 
Management-approved Supplemental Qualification Standard for GS-0401 
Fire Management Specialist positions which was originally issued in 
July of 2002.
    Question. What is the OPM policy change that excludes your in-house 
courses? When was it implemented? When and how did the agency first 
become aware of it? When were your field employees notified?
    Answer. The specific policy change that excluded our in-house 
coursework is the revision to Part E.4 (a) of the General Policies and 
Instructions, located in the Operating Manual for Qualification 
Standards for General Schedule Positions. This policy change was 
effective on February 15, 2005. The Forest Service became aware of the 
change in April, 2007 when an OPM representative, and numerous human 
resources personal attended an IFPM implementation meeting in order to 
discuss this change. Informal communication on this issue began almost 
immediately. A formal letter informing agency employees of this policy 
was signed and sent May 31, 2007.
    Question. Did you request a waiver from OPM to allow your in-house 
courses to continue to count toward meeting the positive education 
requirement? If so, how did OPM respond to your request?
    Answer. Yes, the Forest Service requested a waiver from OPM asking 
us to continue using our in-house courses (Technical Fire Management 
(TFM) and the National Wildlife Coordinating Group (NWCG) classes) 
toward meeting the positive education requirement. We received an OPM 
response that stated they could not approve our proposal because that 
course of action would not resolve the fundamental issue that all 
Federal employees must meet the educational requirements prescribed by 
the qualification standard for the series to which their positions are 
classified, as specified by Title 5, Code of Federal Regulation, par 
338, section 301. The OPM response stated the courses requested for 
waiver do not meet the requirement that all courses must receive credit 
from an institution with accreditation status from a body recognized by 
the Secretary of the Department of Education in order to be creditable 
when determining qualifications for Federal positions.
    Question. It is our understanding that the intent of the new OPM 
policy at issue here is to exclude credits bestowed by ``diploma 
mills'' from meeting positive education requirements needed to qualify 
for Federal employment. In your discussions with OPM, did OPM ever 
indicate that an analysis had been performed or criteria applied to 
determine that the exclusion of your in-house courses was consistent 
with this intent?
    Answer. No indication was provided. We defer to OPM regarding their 
analyses.
    Question. How many of your fire program managers have been or are 
scheduled to be converted to GS-0401 positions? How many have lost 
credits as a result of the OPM policy change? When will those who do 
not obtain the required academic credits be removed from their 
positions?
    Answer. From the time of the new policy in May, 2007 a total of 820 
employees from the 5 Federal agencies were identified for conversion 
within the IFPM GS-0401 management positions. We initially estimate 200 
Forest Service employees have lost credits. OPM has offered to extend 
the removal date to October, 2010 for employees who do not meet the 
requirements. The agencies have requested written confirmation of this 
offer, given verbally April 11, 2008.
    Question. What is the estimated financial cost to the agency 
associated with assisting incumbent employees in replacing their lost 
credits? What are the estimated human capital costs, i.e., effects on 
morale and retention?
    Answer. The estimated financial cost is $1,000 per credit, and an 
average of 5.5 credits required. The Forest Service has approximately 
200 employees in this situation requiring an investment of about 
$1,100,000. This is an estimate of the average travel costs which 
employees may incur. This does not include university fees or employee 
time. Initial indications showed that this change had moderately to 
seriously affected employee morale. Over time the situation has 
improved. There has been no known indication of employee retention 
problems related to the IFPM program.
    Question. How many accredited colleges or universities award a BS 
in wildland fire program management or an equivalent field of study?
    Answer. Very few institutions award a specific Bachelor of Science 
in Wildland Fire Management degree. A handful of institutions offer 
minors in fire management. The 0401 series requirements may be achieved 
through a number of different science programs which may or may not 
include courses in Wildland Fire Management such as fire weather, fire 
behavior, and fire ecology.
    Question. How many accredited colleges or universities provide 
courses equivalent to the National Wildfire Coordinating Group (NWCG) 
courses originally envisioned as counting toward the GS-0401 basic 
education requirement? How does the cost of these courses compare to 
the cost of providing identical training in-house?
    Answer. Currently somewhere between 20 and 25 colleges or 
universities provide these types of courses. The additional expenses 
range from 20 to 100 percent more expensive than in-house training.
    Question. Are there any other barriers faced by employees seeking 
to meet the GS-0401 education requirement of which we should be aware?
    Answer. No, with the 1 year extension provided by OPM employees 
have both the time and institutional support to meet these 
requirements.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg

    Question. In fiscal year 2009, the President's budget includes only 
$12.5 million for the Forest Legacy Program. This is more than a 70 
percent cut in the program from the fiscal year 2008 enacted levels. In 
addition, there are only three projects recommended for funding 
nationwide. Yet, my understanding is that this year 45 States submitted 
a total of 87 projects, including New Hampshire. Again, your budget 
request seems to contradict the Forest Service's own research reports, 
``Forests on the Edge'' and ``Cooperating Across Boundaries.'' These 
reports highlight increased development and the loss of open space as 
significant threats to America's forests which provide substantial 
environmental and economic benefits to communities across the United 
States. When the Forest Legacy Program was reviewed by this 
administration, it received one of the highest scores for success 
agency-wide. Given the pressing need to prevent forest fragmentation, 
as your own agency well documents, and the fact that this program is 
clearly working well, can you please explain the dramatic drop in your 
funding request this year?
    Answer. The agency maintains high regard for the accomplishments of 
the Forest Legacy Program. We had to make very difficult choices in the 
fiscal year 2009 budget request and reduced or eliminated programs 
whose needs can be served using non-Forest Service funds. The 
administration's proposal for the 2008 Farm Bill explicitly includes 
forests, forestry, and NIPF landowners and provides new funding for the 
same key programs for which many cooperators receive funding from the 
Forest Service.

                          SUBCOMMITTEE RECESS

    Senator Allard. Okay. Thank you very much. I don't have any 
more questions and there are no other committee members here, 
so I declare the committee recessed.
    [Whereupon, at 11:45 a.m., Thursday, April 1, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        TUESDAY, APRIL 15, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Dorgan, Nelson, Allard, Craig, 
Stevens, Cochran, and Alexander.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. DIRK KEMPTHORNE, SECRETARY
ACCOMPANIED BY:
        JAMES CASON, ASSOCIATE DEPUTY SECRETARY
        PAM HAZE, DIRECTOR, OFFICE OF BUDGET

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The meeting will come to order. This is 
the Interior Subcommittee on Appropriations, and we are having 
a hearing this morning on the Interior Department's budget.
    The distinguished Secretary of the Interior has joined us, 
and I understand he has to be at the White House in the late 
morning and must be out of here by 11:30. So for all members' 
advisement, please know that and we will try to move along as 
rapidly as possible. Question rounds will be 5 minutes and we 
will use the early bird rule.
    Testifying is the Secretary of Interior. Joining him is Jim 
Cason, the Department's Associate Deputy Secretary, and Pam 
Haze, the Director of the Office of Budget. We would like to 
welcome all three of them.
    Mr. Secretary, with the change of administration set for 
next year, this will most likely be your last appearance before 
this subcommittee, and I want you to know--and I think I speak 
for all my colleagues when I say that we deeply appreciate the 
degree of dedication you have brought to your job. I have had 
the privilege of working with you, as had Senator Craig, as a 
Member of this body. I do not think Senator Alexander or Allard 
did.
    Senator Allard. I did.
    Senator Feinstein. You did? Well, let me speak for Senator 
Allard then, as well.
    Your collegiality is always very much appreciated.
    Secretary Kempthorne. Thank you very much.
    Senator Feinstein. You have brought a very distinct level 
of cooperation to us and our staff. We think you exemplify 
public service and we sincerely wish you the very best in all 
of your endeavors.
    Secretary Kempthorne. Thank you.
    Senator Feinstein. Turning now to your budget, though, this 
is a horse of another color. I want to thank you for retaining 
some of the programmatic increases the Congress provided in the 
2008 bill. The extra funding for park operations, for refuge 
operations, for maintenance of refuges, and for law enforcement 
on Indian lands are all critically important to us, and we 
think they will make a real difference in the field.
    But despite those successes, this proposal leaves us in a 
very difficult position, and I think the best I can offer is 
please work with us as we work on this budget.

                          2009 BUDGET REQUEST

    All in all, the Department's 2009 request is a reduction of 
$189 million, or just 2 percent from the current level. The 
real cut, however, we find is much larger when you factor in 
the $165 million in fixed cost increases that have to be 
covered and the additional $45 million needed to meet the 10-
year average for fire suppression. Taking these costs into 
account, the request more realistically represents a reduction 
of nearly $400 million, or 4 percent below the 2008 level.
    Now, to be fair, there are two sizeable increases: the $160 
million for park operations and an additional $45 million for 
fire suppression. But those increases are offset by hefty cuts. 
Consider construction at parks, refuges, and Indian schools cut 
$99 million, or 21 percent; land acquisition at parks and 
refuges cut $51 million, or almost 60 percent; Bureau of Indian 
Affairs overall cut $100 million, down 4 percent; and Payments 
in Lieu of Taxes, fondly known around here as PILT, cut $34 
million, or 15 percent; State and local historic preservation 
projects cut $25 million, or 19 percent; and State land 
acquisition grants cut $25 million. That is 100 percent.
    As we look at these cuts, it is clear to me that the budget 
is the product of some rather arbitrary decisionmaking at the 
Office of Management and Budget. Given the size of the backlog 
maintenance problem, for example, there is simply no way to 
justify a 21 percent reduction in the construction programs, 
nor can a $100 million cut at the Bureau of Indian Affairs be 
explained away as good public policy. BIA may be a lot of 
things, but overfunded it is not. So I suspect that as we begin 
drafting this appropriations bill, members of the subcommittee 
will largely be in agreement that many of the proposed 
reductions are untenable and need to be fixed.
    Before turning to our distinguished ranking member for any 
opening comments, I want to thank you for your leading role in 
negotiating the San Joaquin River Restoration Settlement 
Agreement and the implementing legislation as well. I am one 
that believes that a negotiated settlement is much better than 
a judge becoming master of this river, and I want you to know 
how much I appreciate your help in the outcome. I think it is 
going to be marked up in the Energy Committee in May or June of 
this year. So I am very pleased about that.
    I would now like to turn to my distinguished ranking 
member, Senator Allard, for any comments you may care to make.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Madam Chairman, and I 
would like to just reiterate your comments at the first of your 
opening statement about what a pleasure it has been to work 
with Secretary Kempthorne both as a colleague, as well as head 
of the Department of the Interior.
    I want to thank you, Madam Chairman, for calling this 
hearing today.
    I appreciate, Secretary Kempthorne, you joining us this 
morning to testify on the fiscal year 2009 budget for the 
Department of the Interior. Again, I know this will be your 
last year, most likely, at the helm of that Department, and you 
probably will not miss us much, but we will definitely miss you 
at Interior.
    I think I speak for all of us in saying that we, again, 
appreciate your leadership. It is not an easy job. It is a 
controversial job. You have handled the challenges 
exceptionally well despite those challenges.
    Your Department administers 507 million acres, or roughly 
one-fifth of the land area of the United States. The most 
beautiful public lands you manage are in my State of Colorado. 
For example, Rocky Mountain and Mesa Verde National Parks rival 
anyplace in North America for their majestic scenery, as well 
as their cultural importance.
    Your Department also controls some of the most economically 
important public lands in Colorado, in particular, the oil and 
gas resources of the Roan Plateau which are under the 
jurisdiction of the Bureau of Land Management. There is 
vigorous debate among the people of Colorado about how best to 
manage the resources of the Roan. I think most people want 
responsible development of this area, but at the same time, 
they want it done in an environmentally sound way. I share this 
view and hope to discuss the development of the Roan Plateau 
with you further today and hopefully get a commitment from you 
to work together with me and others in delegation to address 
this issue that is so critical to my State.
    The chairman went through most of the budget numbers, so I 
will just mention a few that are of particular interest to me. 
The total request of the Department is $9.8 billion for the 
programs under this subcommittee's jurisdiction, which is $199 
million less, or 2 percent below the fiscal year 2008 enacted 
level. But most of the proposed cuts have come from the land 
acquisition and construction programs of the Department.

                       NATIONAL PARKS CENTENNIAL

    Similar to last year, the most significant increase in the 
Interior budget by far is $160 million for the National Park 
Service as part of the Centennial Initiative. There is also 
legislation pending before the Energy and Natural Resources 
Committee that would provide an additional $100 million 
annually in mandatory spending on a matching basis for the 
Centennial Challenge Fund.
    Since the authorizers had yet to act on this proposal in 
fiscal year 2008, this subcommittee provided $25 million in 
matching funds to kick off the centennial matching funds 
initiative last year, and I understand that you will be 
announcing the recipients of those matching funds later this 
month.
    While I support providing these matching funds, it is my 
hope that we will not do that again this year. But do not get 
me wrong. I am a strong advocate of our national parks. 
However, in my view this subcommittee does not have the 
resources to fund the centennial matching fund initiative that 
is appropriately before the authorizing committee. If we 
continue to go down this path by funding what is intended to be 
a mandatory program each year out of our limited discretionary 
dollars, my fear is that in lean budgetary times, the 
centennial matching program may well come at the expense of the 
basic operations of our national parks.
    I will be interested in hearing today about your efforts to 
work with the authorizing committee to pass the centennial 
matching fund legislative initiative.

                       PAYMENTS IN LIEU OF TAXES

    There are a couple of cuts in your budget that I find 
especially disappointing. First, once again, I see that PILT 
has been reduced dramatically by $34 million. This is 
absolutely critical to many of our rural communities in the 
West that are dominated by Federal lands, as you are well aware 
of, I am sure, Mr. Secretary.

                        NAVAL OIL SHALE RESERVES

    Second, I cannot support the budget proposal to cancel 
$24.7 million of balances in the Naval Oil Shale Reserve site 
restoration fund account. You have been working with me on 
certifying this site so that the cleanup can commence, and I 
appreciate that. But if the Department had not taken so long to 
reach the point of certifying the site, then half of the money 
that is going into the fund from oil and gas production, which 
currently is about $2 million per month, would be going to the 
State of Colorado pursuant to the Mineral Leasing Act. It is my 
intention to work with the chairman to see that all these funds 
do not simply go to the Treasury, but that Colorado receives 
its rightful share of these royalties that were derived from 
oil and gas development in my State.
    That concludes my opening statement, and once again, I 
appreciate the Secretary appearing before the subcommittee 
today and I look forward to asking him some questions this 
morning.
    Senator Feinstein. Thank you very much, Senator. I 
appreciate your testimony.
    It would be my intent to proceed directly to the Secretary 
because of his time constraints, unless members really want to 
speak. Is that agreeable with everyone?
    Senator Allard. Certainly.
    Senator Feinstein. Thank you very much.
    Mr. Secretary, we will turn it over to you.

               SUMMARY STATEMENT OF HON. DIRK KEMPTHORNE

    Secretary Kempthorne. Madam Chairman, thanks very much and 
thank you for the very kind remarks which you made at the 
beginning of your statement. Senator Allard, thank you as well.
    Senator Allard, you said that I may not miss you. I would 
say that I know that I will miss all of you because when I made 
the conscious decision to leave the U.S. Senate to run for 
Governor, I left behind tremendous friendships, and this 
position has allowed me to reconnect and to work with you 
again. Madam Chairman, our friendship began when you were mayor 
of San Francisco and I was mayor of Boise and then to have had 
the great pleasure and honor of serving with Senator Allard, 
with Senator Cochran, Senator Craig, who is one of the great 
men of Idaho. Then, to have the friendship of Senator Alexander 
and Senator Nelson where we established that when we both 
walked the paths as Governor, you know about collegiality. I 
think that Senator/Governor Alexander and Senator/Governor 
Nelson would say that there is not quite the same collegiality 
between a Governor and his or her legislature.
    So I do enjoy this camaraderie.
    I want to thank you for your strong bipartisan support that 
this committee provided in enacting our budget request with 
fixed costs and our 2008 budget initiatives. I appreciate your 
leadership.
    In 2008, we charted a course of excellence for our national 
parks. We broadened our planning horizons to achieve Healthy 
Lands, while securing energy for the Nation, and we put the 
needs of Indian country center stage.

                              2009 BUDGET

    In 2009, we build on these commitments, but more challenges 
confront us, challenges that will require our action. We are 
proposing four new initiatives in 2009 to address water crises, 
manage our oceans, reverse the dramatic decline in wild birds, 
and protect our borders. Our 2009 budget also retains many of 
the increases that you provided in key areas, such as refuges.
    Our 2009 budget is $10.7 billion and it benefits every 
American each day in some way. This budget slightly exceeds our 
2008 request. You will see that our budget includes strategic 
reductions primarily in construction, land acquisition, and for 
congressional earmarks. For programs under the purview of this 
subcommittee, the $9.8 billion budget is $199 million, or 2 
percent, below the 2008 enacted budget.

                           OPERATING BUDGETS

    Despite this overall decrease, we propose operating 
increases of 4 percent over 2008 for our land management 
bureaus. Strong funding of base operations supports ongoing 
programs in conservation, recreation, and resource management 
on public lands. This budget will allow them to continue to 
serve America in continued and new ways through 2008 and 
through 2009.

                       NATIONAL PARKS CENTENNIAL

    Last year we announced our National Parks Centennial 
initiative. We held listening sessions across the country. We 
asked Americans to tell us their vision for our parks. The 
public spoke and we listened. We are adding 3,000 seasonal park 
rangers this year to enrich visitor experiences. Our 2009 
request for park operations is historic. We are requesting an 
increase of $161 million, or 8 percent. Together with 2008 
funding, the 2-year increases total $283 million, or 14 
percent. With these increases, the total park operating budget 
is $2.1 billion.
    Our initiative also proposes the National Parks Centennial 
Challenge, which would provide up to $100 million in mandatory 
funding to match philanthropic contributions to enhance our 
national parks in time for the 100th anniversary of the park 
system in 2016. I am particularly appreciative, Chairman 
Feinstein, that you and Senator Allard provided the first 
segment of funding for the National Parks Centennial Challenge 
matching projects. It is greatly appreciated by many.
    We are preparing to announce the projects that will be done 
with the $25 million appropriated in 2008. We have received 321 
written letters of commitment from Americans across the country 
pledging $301 million of their money for centennial projects. 
Once Congress approves the Centennial Challenge matching fund 
legislation, those pledges and the matching Federal funds will 
be available to benefit parks all around the country.

                        HEALTHY LANDS INITIATIVE

    Interior's responsibilities extend beyond parks to 258 
million acres of public lands in the West, lands key to 
communities and economies of the West. In some of these areas, 
world-class wildlife habitat sits on top of world-class energy 
reserves. We must maintain healthy lands, sustain wildlife, and 
secure energy for this Nation. Our Healthy Lands Initiative 
launched in 2008 provides that holistic framework. It allows us 
to maintain wildlife corridors while providing continued access 
to significant energy resources. Our 2009 budget proposes a $14 
million, or a 200 percent, increase over the 2008 funding 
level.

                           INDIAN INITIATIVES

    Last year we also launched two initiatives in Indian 
country: one to battle the drug scourge from the drug cartels 
invading reservations; and the other to bring hope to Indian 
youth by improving their schools. Both of these initiatives 
received overwhelming support by this Congress.

                   SAFE INDIAN COMMUNITIES INITIATIVE

    Under the Safe Indian Communities Initiative, we proposed 
an additional $16 million last year to battle the scourge of 
methamphetamine that threatens an entire generation of Native 
Americans. Congress supported our proposal and added an 
additional $8 million to this initiative. The bipartisan 
message is clear. We must get drug dealers off reservations and 
behind bars.
    In 2009, we sustain the full $24 million in funding 
increases provided in 2008, and we propose to add $3 million 
more for the initiative, for a total of $27 million.

                       IMPROVING INDIAN EDUCATION

    In 2008 under the Improving Indian Education initiative, we 
proposed increases of $15 million to help Native American 
children reach their potential. Congress endorsed our vision 
for Indian education, funding our request and investing another 
$9 million, bringing our initiative total to $24 million in 
2008.
    In 2009, we uphold our promise to Indian children. We 
sustain the 2008 funding and provide another $2 million, 
investing a total of over $25 million. The issues of safety and 
education go beyond the budget. They are at the very heart of 
the future of Indian country. We must act now to ensure that 
the dreams of today's youth will become the realities of 
tomorrow.

                      WATER FOR AMERICA INITIATIVE

    As I mentioned earlier, we also have four new initiatives 
in our budget, initiatives that address some of the most 
critical issues facing this Nation. Last year the National 
Science and Technology Council reported that ``abundant 
supplies of clean, fresh water can no longer be taken for 
granted.'' Water scarcity is not just a problem of the West. It 
is a problem of this Nation. America increasingly faces water 
scarcities, particularly in areas of rapid population growth. 
We are seeing prolonged droughts and water conflicts in areas 
such as the Southeast where people are used to having unlimited 
water.
    We are proposing a Water for America Initiative to ensure 
that communities have reliable water supplies in this 21st 
century. Under this initiative, we will partner with States to 
conduct the first water census for this Nation in 30 years. The 
initiative includes $8 million for the U.S. Geological Survey.

                OCEANS AND COASTAL FRONTIERS INITIATIVE

    Our second new initiative advances our knowledge of our 
oceans and protects spectacular ocean ecosystems. Under our 
oceans initiative, we are proposing an additional $8 million to 
support the President's Ocean Action Plan. Our ocean initiative 
will broaden our knowledge, and we will undertake extensive 
mapping of our extended outer continental shelf. Coastlines are 
littered with marine debris ranging from soda cans and small 
plastic objects to derelict fishing gear and abandoned vessels. 
We are losing coastal wetlands that protect us from major 
storms, purify water, and serve as nurseries for marine 
fisheries. Through our oceans initiative, we will join with 
partners worldwide to embark on a global marine debris and 
coral reef campaign.

                        BIRDS FOREVER INITIATIVE

    Together we have another task before us, reversing the 
decline in bird populations across America. Our initiative 
addresses the sharp decline of many populations of wild birds. 
On average, populations of common birds have plummeted 70 
percent since 1967. We add $9 million in 2009 for our Birds 
Forever initiative to help us reverse these trends. Our budget 
sustains $36 million in refuge increases funded in the 2008 
budget. We will improve over 200,000 acres of vital stopover 
habitat for migratory birds, the equivalent of over 150,000 
football fields.

                               DUCK STAMP

    We are also proposing the first increase in the sale price 
of the Duck Stamp in over 15 years. This increase will result 
in protections of an additional 17,000 acres of habitat.

                      SAFE BORDERLANDS INITIATIVE

    Our final new initiative addresses another issue in the 
Nation's headlines, an initiative that I raised with you last 
year and I have witnessed firsthand, and that is border 
security. The Department of the Interior manages public lands 
along more than 40 percent of our southwestern border with 
Mexico. Our employees, residents, and visitors face daily 
dangers. In many locations, families can no longer live or 
recreate without fear of coming across drug smugglers. As urban 
borders become more secure, illegal activity is shifting to 
remote areas. Drug cartels run violent drug smuggling 
operations across the border, as evidenced by the nearly 3,000 
pounds of cocaine and 740,000 pounds of marijuana seized in 
2007.
    We are proposing an $8 million increase in the 2009 budget 
to aggressively confront this problem. Combined with increased 
funding in 2008, we will place additional officers along the 
border.

                            ENERGY SECURITY

    Another critical issue facing this Nation is energy 
security. With the price of oil rising ever higher, it is 
imperative that we continue to offer access to our energy 
resources. Our new 5-year plan for offshore energy development 
provides access to an additional 48 million offshore acres. The 
Minerals Management Service will invest over $8 million in 
preparations for new leasing activity as identified in the 5-
year plan. Our recent lease sales in the Chukchi Sea and in the 
Gulf of Mexico generated $5.5 billion in bonus bids, 
historically high levels for lease sales. We will also help 
broaden the Nation's energy mix by providing opportunities to 
implement renewable energy on public lands and offshore.

                           PREPARED STATEMENT

    So, Madam Chairman, it is a budget we place before you. I 
look forward to working with you for your good thoughts and 
ideas as we achieve some very fine things together. Thank you.
    Senator Feinstein. Thank you very much, Mr. Secretary.
    [The statement follows:]

               Prepared Statement of Hon. Dirk Kempthorne

    Madam Chairman and members of this subcommittee, I appreciate the 
opportunity to present our 2009 budget priorities and to update you on 
our progress in implementing our 2008 programs. I thank this 
subcommittee for your support of our 2008 budget request. Support by 
the chairman and members of this subcommittee for the Parks Centennial, 
Healthy Lands, Safe Indian Communities, and Indian Education 
initiatives resulted in significant funding to advance our goals. I 
look forward to continuing our collaborative relationship as we pursue 
these priorities and address emerging challenges of water scarcity, 
ocean management, declining bird populations, and borderland security.

                              INTRODUCTION

    The Department of the Interior's mission is complex and 
multifaceted. Our programs and mission stretch from the North Pole to 
the South Pole and across 12 time zones, from the Caribbean to the 
Pacific Rim. Our extensive mandate rivals any government agency in its 
breadth and diversity--and its importance to the everyday lives of 
Americans. In a recent poll of Federal agencies, the Department of the 
Interior received the highest rating for its public service.
    Nearly every American lives within a 1-hour drive of lands or 
waters managed by the Interior Department. With 165,000 facilities at 
2,400 locations, Interior is second only to the Department of Defense 
in managed assets. The Department's law enforcement agents, over 4,000, 
comprise the third largest civilian law enforcement presence in the 
Federal Government.
    Approximately 31 million people in the West rely on drinking water 
provided through water systems managed by the Department. Interior 
irrigation systems deliver water to farmers who generate over half of 
the Nation's produce.
    The lands and waters we manage generate one-third of the Nation's 
domestic energy production. Managing these areas, Interior generates 
$18 billion annually in revenues that exceeds Interior's $10.7 billion 
appropriated budget.
    Interior fulfills special responsibilities to Native Americans as 
the manager of one of the largest land trusts in the world--over 10 
million acres owned by individual Indians and 46 million acres held in 
trust for Indian Tribes. In addition to lands managed in trust, the 
Department manages over $3.3 billion of funds held in over 1,800 trust 
accounts for approximately 250 Indian Tribes and over 370,000 open 
Individual Indian Money accounts. Interior also operates one of only 
two school systems in the Federal government, the Bureau of Indian 
Education school system. The Department of Defense operates the other. 
A total of $65.5 billion in revenues from offshore and onshore mineral 
leases collected from 2001 to 2007 provided resources for Tribes, 
States infrastructure and other Federal programs.

                      OVERVIEW OF THE 2009 BUDGET

    The 2009 budget request for current appropriations is $10.7 
billion, $388.5 million or 3.5 percent below the level enacted by 
Congress for 2008, excluding fire supplemental funding, but $59.0 
million above the amount requested in the 2008 President's budget.
    Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress will provide an 
additional $6.0 billion, for a total 2009 Interior budget of $16.7 
billion. Including permanent funding and excluding 2008 fire 
supplemental funding, the 2009 budget for Interior is $83 million above 
2008 amounts.
    The 2009 request includes $9.8 billion for programs funded by this 
subcommittee. Excluding fire supplemental funding, this is a decrease 
of $198.9 million, or 2 percent, below the level enacted for 2008. The 
2009 budget sustains and enhances funding for parks and public land 
health, the safety of Indian communities, and Indian education. The 
2009 budget funds these initiatives and addresses other nationally 
significant issues within a budget that maintains the President's 
commitment to fiscal restraint.
    We focus funding on these priorities while proposing reductions in 
construction and land acquisition, as well as programs that are 
duplicative or receive funding from alternative sources. We also 
propose to cancel some unobligated balances.

                          THE CHALLENGES AHEAD

    Interior's responsibilities are expanding as the Nation looks to 
its public lands for energy, water, wildlife protection, and 
recreation. Since 2001, the Nation has created 13 new parks and 15 
wildlife refuges. Population has grown dramatically near once-rural or 
remote public lands, increasing access to public lands and complicating 
land management. In the last 10 years, 60 percent of the new houses 
built in America were located in the wildland-urban interface. Changing 
land conditions, including the effects of a changing climate, have 
heightened threats from fire and other natural hazards, complicating 
land management.
    The Department is improving program efficiency, setting priorities, 
and leveraging Federal funds through partnerships and cooperative 
conservation to meet these challenges. Interior's accomplishments have 
been many and varied, with noteworthy advances in management 
excellence.
    Interior has made progress on all dimensions of the President's 
management agenda--a result achieved despite decades-long challenges in 
Indian trust management, a highly decentralized organization structure, 
and a highly dispersed workforce. In 2001, Interior had 17 material 
weaknesses reported in the annual financial and performance audit. With 
the annual audit just completed for 2007, we have eliminated all 
material weaknesses. Despite these successes, as public lands become 
increasingly important to the economy, national security, and the 
public, continued success will require a strategic focus of resources 
to address emerging challenges, achieve key priorities, and maintain 
current levels of success.

                       INTERIOR'S ACCOMPLISHMENTS

    The Department's accomplishments exemplify Interior's core values: 
Stewardship for America with Integrity and Excellence. Our 
achievements, in combination with an outstanding workforce, create a 
strong foundation for continued stewardship of the Nation's resources. 
Since 2001, the Department has:
  --Restored or enhanced more than 5 million acres and 5,000 stream and 
        shoreline miles through cooperative conservation.
  --Restored, improved, and protected wetlands to help achieve the 
        President's goal to protect, enhance, and restore 3 million 
        acres by 2009.
  --Improved park facilities for visitors by undertaking over 6,600 
        projects at national parks and earning a 96 percent 
        satisfaction rate from park visitors.
  --Reduced risks to communities from the threat of catastrophic fire, 
        conducting over 8 million acres of fuels treatments on Interior 
        lands through the Healthy Forests Initiative.
  --Enhanced energy security by more than doubling the processing of 
        applications for permits to drill and increased the production 
        of renewable energy with new wind, solar, and geothermal 
        projects.
  --Awarded $9.8 million to 140 Preserve America projects involving 
        public-private partnerships that serve as nationwide models for 
        heritage tourism, historic preservation, education, and other 
        Federal programs.
  --Leveraged a four-to-one investment through a water conservation 
        challenge grant program, generating more than $96 million for 
        122 water delivery system improvements and conserving over 
        400,000 acre-feet of water to help meet the water needs of 
        people across the West.
  --Completed planned lease sales and generated a new 5-year plan for 
        2007-2012 that opens up an additional 48 million acres to 
        leasing and has the potential to produce 10 billion barrels of 
        oil and 45 trillion cubic feet of natural gas over the next 40 
        years, enough to heat 47 million homes for 40 years. The 
        October 2007 Central Gulf of Mexico OCS lease sale generated 
        $2.9 billion, $1.6 billion more than originally estimated.
  --Removed the American bald eagle from the endangered species list 
        and put in place a set of management guidelines to secure the 
        future of our Nation's symbol.
  --Advanced protection of the Papahanaumokuakea Marine National 
        Monument in Hawaii, the largest marine protected area in the 
        world, with the publication of regulations codifying management 
        measures.
  --Hosted over 464 million visitors to parks, refuges, public lands, 
        and Bureau of Reclamation sites and increased the number of 
        fishing programs on refuges by 24 and the number of hunting 
        programs on refuges by 34.
  --Established a new Recreation Reservation Service, a unified pass to 
        public lands, and clarified entrance and recreation fees, in 
        coordination with other agencies.
  --Distributed over $79 million to individual Indian money account 
        holders whose whereabouts were previously unknown and archived 
        400 million pages of trust documents in a state-of-the-art 
        facility.
    Our 2009 budget continues investments the Congress provided in 2008 
for our top priorities. We continue our Centennial Initiative with 
record funding levels for park operations. We propose to augment 
funding for our landscape-scale Healthy Lands Initiative to protect 
wildlife and assure access to energy resources on public lands. We 
propose to sustain funding increases in 2008 to combat the 
methamphetamine scourge in Indian country and improve education 
programs for students in Indian schools.
    Fulfilling the President's commitment to cooperative conservation, 
since 2001, the Department has provided $2.5 billion in conservation 
grants to achieve on-the-ground protection, restoration, and 
enhancement of lands and waters with partners. This commitment 
continues with $321.7 million requested for cooperative conservation in 
2009 for challenge cost share and partnership programs that leverage 
Federal funding, typically more than doubling the Federal investments 
with matching funds.
    We also propose four new initiatives. We request $21.3 million for 
a Water for America initiative that will enhance knowledge of water 
resources and improve the capacity of water managers to avert crises 
caused by water supply issues and better manage water resources to 
assist in endangered species recovery. We will advance efforts to 
improve the status of birds, including migratory birds, and avert 
further declines in bird populations with an increase of $9.0 million 
for a Birds Forever initiative. The budget continues the $35.9 million 
refuge funding increase provided by the Congress in 2008, which will 
restore 200,000 acres of bird habitat. The 2009 budget seeks an 
increase of $7.9 million to collect data that is needed to define U.S. 
jurisdiction of the extended continental shelf under the Law of the 
Sea, protect wildlife and habitat in ocean environments from marine 
debris, and conduct high priority research to support coastal 
restoration. Lastly, the 2009 budget includes $8.2 million to increase 
the protection of employees, visitors, lands and resources that are 
increasingly at risk from illegal activities at parks, refuges, public 
lands, and Indian lands along the border with Mexico.

                     THE NATIONAL PARKS CENTENNIAL

    Last May, we responded to the President's charge to prepare for the 
National Park Service's 100th anniversary. Our report to the President 
on the National Parks Centennial initiative encompassed the ideas and 
input from 40 listening sessions and 6,000 public comments. The report 
frames the 10-year effort to strengthen visitor services and other 
programs in parks in time for the National Parks Centennial. On August 
23, 2007, we announced more than 200 centennial proposals eligible as 
potential partnership projects in national parks as part of the 
National Parks Centennial Challenge.
    The 2008 President's budget set forth the initial investments to 
achieve the goals of the Centennial initiative, with $100.0 million in 
operating funds for the Parks Centennial initiative to fund new levels 
of excellence in parks. The President's proposal received broad 
bipartisan support in Congress. With the 2008 funding, our parks will 
hire 3,000 seasonal national park rangers, guides and maintenance 
workers; repair buildings; enroll more children in Junior Ranger and 
Web Ranger programs at the parks; and expand the use of volunteers in 
parks.
    The administration also introduced Centennial Challenge Fund 
legislation that would authorize the use of $100.0 million per year of 
Federal mandatory funding to match $100 million or more in 
philanthropic donations to the National Park Service. Both the House 
and Senate introduced bills based on the administration's legislative 
proposal. While the Congress continues to work on passage of the bill, 
the 2008 appropriation included $24.6 million in discretionary funding 
to begin the Centennial Challenge and match private philanthropic 
contribution for signature projects. I appreciate the strong support of 
this Committee for these matching funds.
    In 2009, our budget continues the President's commitment to the 
parks with a historic $2.1 billion budget request for the Operation of 
National Parks. This increase of $160.9 million, or 8 percent above the 
2008 enacted level would provide the largest budget ever for park 
operations. Cumulatively over 2 years, park operations increase by 15 
percent. This funding will allow the parks to preserve our Nation's 
natural and cultural heritage, improve the condition of parks and park 
facilities, and prepare a new generation of leaders to guide NPS into 
the 21st century. The budget also supports the President's proposed 
Centennial Challenge matching fund of up to $100.0 million annually.
    The 2009 budget will continue to build park operational capacity, 
including increases for core operations, facility management, U.S. Park 
Police operations, and youth partnership programs. The increase will 
improve the health of natural and cultural resources and continue to 
bring park assets into good condition using a predictive maintenance 
cycle. We will also develop a 21st century workforce with enhanced 
organizational capacity and employee development through a professional 
development program, performance management tools, and an expanded 
safety program. I am committed to addressing management issues raised 
in a recent report of our Inspector General on the U.S. Park Police.
    Complementing park operations, the 2009 budget includes a combined 
$25.0 million for Preserve America and Save America's Treasures. 
Launched in 2003 by the President and First Lady, the Preserve America 
initiative encourages States and local communities to partner with the 
Federal Government to preserve the multi-textured fabric of America's 
story. The administration has submitted legislation to the Congress to 
permanently authorize the Preserve America and Save America's Treasures 
programs. To date, 585 communities in all 50 States and the U.S. Virgin 
Islands have been designated as Preserve America communities.
    Through $9.8 million appropriated to the National Park Service 
through 2007, the program has supported 140 projects in communities 
throughout America. The 2008 appropriation will support an additional 
95 projects. The 2009 budget request includes $10.0 million for 
Preserve America grants, an increase of $2.6 million over the 2008 
enacted level. The budget also provides $15.0 million for Save 
America's Treasures grants, $4.0 million more for competitive grants 
than what was appropriated in 2008.

                        HEALTHY LANDS INITIATIVE

    In 2007, the Department initiated the Healthy Lands Initiative--a 
major, long-term effort to improve the health of public and private 
lands in the West. Through the Healthy Lands Initiative, Interior 
agencies are working with State and local governments, private 
landowners and other interested groups to conserve and restore vital 
habitat. This Initiative will preserve our public lands for recreation, 
hunting and fishing, and for their significant habitat for species, 
while helping to secure energy for this Nation. The Healthy Lands 
Initiative takes, for the first time, a landscape-scale approach to 
restoration and land-use planning. The Initiative considers the health 
of the land from ridge-top to ridge-top instead of acre by acre.
    Using $3.0 million in 2007 as a model for our Healthy Lands 
Initiative, BLM funded improvements to 72,000 acres of BLM land. The 
investments improved wildlife habitat conditions on 45,896 acres of 
shrubs, grass and woodland; reduced woody fuels and improved the 
composition of herbaceous vegetation on 18,377 acres outside the 
wildland urban interface and 4,986 acres within the interface; and 
improved 580 acres of wetlands. BLM leverage this funding with partner 
investments to treat additional acres within the same critical 
watersheds on non-BLM lands.
    With Congress's support for the initiative, in 2008 we will be 
expanding these efforts to $7.9 million and improving the health of 
Western landscapes impacted by drought, wildfire, weed invasions, and 
stresses associated with population growth and increased development 
and use of the public lands. The Healthy Lands Initiative will restore 
and maintain habitat for many species such as the sage grouse, a 
species almost entirely dependent on sagebrush ecosystems. Some 72 
percent of sage grouse habitat is under Federal management. The current 
range of the greater sage grouse has declined an estimated 45 percent 
from the historically occupied range, prompting recent petitions to 
list the species under the Endangered Species Act. The Initiative will 
also focus on protecting wildlife corridors as we take a holistic 
perspective in our land use planning process for energy development and 
recreation.
    The 2009 budget provides $21.9 million for the Healthy Lands 
Initiative, an increase of $14.0 million over the 2008 enacted level, 
including an increase of $10.0 million that BLM will deploy to 
accelerate and increase efforts at the original six geographic focus 
areas; expand one of the focus areas; and add a seventh focus area in 
California. The Initiative includes increases of $3.5 million for USGS 
and $492,000 for FWS to provide critical scientific support and 
complement BLM's on-the-ground conservation and restoration efforts.

                        SAFE INDIAN COMMUNITIES

    In 2008, Interior proposed the Safe Indian Communities initiative 
to help Indian Country resist organized crime and foreign drug cartels. 
These cartels have taken advantage of the widely dispersed law 
enforcement presence on tribal lands to produce and distribute drugs, 
resulting in a violent crime rate in some communities that is 10 to 20 
times the national average.
    The 2008 enacted appropriation provided increases totaling $23.6 
million for the Safe Indian Communities initiative to increase our 
capacity to combat this growing epidemic. In 2009, we sustain this 
funding and request an additional $2.9 million, for a total Safe Indian 
Communities initiative of $26.6 million. With a cumulative investment 
of $50.2 million over 2 years, Interior will assist Tribes to suppress 
the production and distribution of methamphetamine by organized crime 
and drug cartels, address related effects including drug abuse, child 
neglect and abuse, and increase staffing at detention centers.
    In 2009, Interior will provide: (1) additional officers for law 
enforcement; (2) specialized drug training for existing officers; (3) 
public awareness campaigns for the Indian public; (4) additional 
resources to protect tribal lands located on the United States border; 
and (5) additional social workers. Combined, the 2008 and 2009 funding 
increases will put 193 additional law enforcement agents on the ground 
in targeted communities in Indian Country and invest in more training 
for the current force to more effectively combat the problem. The BIA 
will also expand the use of a mobile meth lab to train tribal police 
and others about methamphetamine labs, environmental and personal 
safety hazards, and interdiction and investigation strategies. Funding 
will target communities based on a needs analysis that looks at the 
violent crime rate, service population, and current staffing levels.

                       IMPROVING INDIAN EDUCATION

    In 2008, Interior proposed the $15.0 million Improving Indian 
Education initiative to enhance student performance in Bureau of Indian 
Education schools. As one of just two Federal school systems, the BIE 
system of 184 schools should be a model of excellence and achievement 
of the goals of the No Child Left Behind Act. Student performance, 
however, has lagged. In 2006, just 30 percent of Indian schools were 
achieving their annual progress goals. Through this initiative, the 
Department is implementing a set of education program enhancements to 
increase the number of schools reaching adequate yearly progress goals 
to 33 percent by 2009. Though we still have much work to do, our 
assessment for 2007 shows 31 percent of schools now achieving Annual 
Yearly Progress.
    The 2008 appropriation provided an increase of $24.1 million over 
the 2007 level for programs to improve student achievement. Our 2009 
budget continues the increased funding Congress provided for these 
programs and adds another $1.4 million over 2008 for certain activities 
for a total of $25.5 million. This request includes $5.2 million for 
Education Program Enhancements to restructure schools under the No 
Child Left Behind Act and for reading programs, tutoring, mentoring, 
and intensive math and science initiatives. In 2008, Congress provided 
$12.1 million for these enhancements. With the 2008 boost in funding 
and the continued $5.2 million in 2009, BIE will focus on improved 
student achievement. The budget also includes a $6.3 million increase 
in funds allocated to all schools to improve per student funding. 
Funding allocated by formula is the primary source of funding for BIE's 
170 elementary and secondary schools and 14 dormitories. This funding 
directly supports all schools for core costs of operating education 
programs such as salaries for teachers, aides, administrators, and 
support staff; supplies; and classroom materials.
    The 2009 budget increases funding for four new initiatives: Water 
for America, Birds Forever, Ocean and Coastal Frontiers, and Safe 
Borderlands.

                           WATER FOR AMERICA

    In 2007, the National Science and Technology Council reported that 
``abundant supplies of clean, fresh water can no longer be taken for 
granted.'' The Council of State Governments echoed this concern, 
concluding that ``water, which used to be considered a ubiquitous 
resource, is now scarce in some parts of the country and not just in 
the West. The water wars have spread to the Midwest, East, and South, 
as well.''
    Competition for water is increasing because of rapid population 
growth and growing environmental and energy needs. These water needs 
are escalating at a time of chronic drought and changes in water 
availability resulting from a changing climate.
    In 2009, our budget includes a Water for America initiative to help 
communities secure reliable water supplies through information, 
technologies, and partnerships. This collaborative effort, which 
involves the Bureau of Reclamation and the U.S. Geological Survey, will 
help address the water needs of the Nation.
    Knowing how much water is available--and how much we consume--lies 
at the foundation of good water management. Yet this Nation has not 
completed a water census in over three decades. Our Water for America 
initiative will fill this void. The U.S. Geological Survey request of 
$8.2 million will fund the first water census in 30 years. USGS will 
begin a nationwide assessment of water availability, water quality, and 
human and environmental water use. The census, planned for completion 
by 2019, will generate information to assist others in managing water 
in a context of competing demands. The census will provide a national 
groundwater information system, new technology that integrates surface 
and groundwater information, and better measurements that result in 
better management of water resources.
    In addition to the census, through our Water for America 
initiative, we will modernize the Nation's 7,000 streamgages. In the 
first phase of modernization, USGS will upgrade 350 streamgages and 
reinstate 50 streamgages that were shut down previously.

                             BIRDS FOREVER

    In June 2007, the National Audubon Society issued a report, Common 
Birds in Decline, based on analysis of the Society's Christmas bird 
counts and breeding bird surveys performed by the U.S. Geological 
Survey. The report indicated significant declines occurring in 20 
common species. On average, populations of common birds have plummeted 
70 percent since 1967.
    As manager of one-fifth of the Nation's lands, Interior, working 
with a Nation of citizen stewards, can help reverse these declines. 
Since 2004, Interior has improved the status of five migratory bird 
species. Current efforts focus on ensuring that more than 62 percent of 
the Nation's migratory bird species thrive at sustainable levels.
    On October 20, 2007, the President announced a new effort to 
conserve migratory birds. This effort included cooperative conservation 
with Mexico to protect birds that know no border, expanded migratory 
bird joint ventures, and production of a State of the Birds report. The 
Department's Birds Forever initiative builds upon the President's 
initiative.
    Madam Chairman, we appreciate your strong support for the Nation's 
National Wildlife Refuges. Our budget sustains the FWS refuge budget 
increase of $35.9 million provided by Congress in 2008. Conserving 
migratory birds is a primary goal of the Refuge System and the 
increased funding in 2008 will support migratory bird conservation and 
habitat protection. More than 200,000 acres of habitat will be 
improved, some of which will directly benefit migratory birds.
    Our 2009 budget also proposes to improve the status of wild birds, 
including migratory birds, and avert further declines in populations 
with $9.0 million in increased funding for FWS joint venture 
partnerships, inventory and monitoring, and habitat restoration 
programs and the U.S. Geological Survey's strategic habitat 
conservation and monitoring efforts such as the breeding bird survey. 
These funds, together with refuge increases, will help reverse the 
decline in bird populations by focusing on species of greatest concern 
and leveraging Federal investments through partnerships.
    The initiative targets 36 species that are part of the FWS Focal 
Species Strategy. By emphasizing these priority species, benefits will 
accrue to other species as well because they often have similar 
conservation needs and utilize the same habitats. Employing this 
strategy, FWS and USGS will improve understanding of these species, 
restore habitat, and monitor species status and trends. Through 
collaborative projects with States and others, these efforts will lead 
to improved protection of habitats that are important to these bird 
species. Interior will complete action plans for 30 focal species and 
coordinate them with State Wildlife Action Plans.
    Interior collaborative efforts with nonprofit organizations, State, 
and Federal programs through Joint Ventures will set conservation 
priorities and increase investments through extensive leveraging. 
Interior will focus on Joint Ventures along the coasts and central 
flyways including the Atlantic Coast, Texas and Gulf Coast, and Prairie 
Potholes and Playas. Working in coordination with these programs 
through the Birds initiative, States will be able to leverage their 
funds against Federal grant program dollars to target multi-state bird 
conservation priorities. The Fish and Wildlife Service has signed Urban 
Bird Treaties with cities such as New Orleans and Houston to preserve 
bird habitat in urban environments. With five treaties in place, FWS 
will sign up more cities and promote partnerships that will conserve 
parks and tree islands for bird habitat and engage the citizens in 
conservation activities.

                      OCEAN AND COASTAL FRONTIERS

    Healthy and productive oceans, coasts, and Great Lakes waters are 
vital to America's prosperity and well-being. The President's U.S. 
Ocean Action Plan sets forth a pioneering vision for ocean management 
premised on regional partnerships, State leadership, and Federal 
coordination.
    Interior has extensive ocean and coastal responsibilities, managing 
35,000 miles of coastline, 177 island and coastal refuges, 74 park 
units comprising 34 million acres, 92 million acres of coral reef 
ecosystems that include 3.5 million acres of coral reefs, and 1.8 
billion underwater acres of Outer Continental Shelf lands. Interior 
also assists the U.S. Territories and Freely Associated States in the 
management of 3.6 million square miles of oceans in the U.S. 
Territories and Freely Associated States. The Department also conducts 
the science needed to guide better decisionmaking in managing these 
resources.
    The 2009 budget request includes $7.9 million to support the 
Department's diverse ocean, coastal, and Great Lakes program activities 
and to implement the highest priorities of the U.S. Ocean Action Plan. 
Included is an increase of $4.0 million for mapping the extended 
continental shelf to assure that the United States defines the 
boundaries for these areas potentially rich in energy and mineral 
resources.
    Our budget also funds partnerships to reverse the trend of marine 
debris accumulating in waters and coasts of Midway Atoll National 
Wildlife Refuge and conserve coral reefs and improve ocean science at 
the Palmyra Atoll National Wildlife Refuge. Marine debris kills marine 
life, interferes with navigation safety, negatively impacts shipping 
and coastal industries, and poses a threat to human health.

                      SAFE BORDERLANDS INITIATIVE

    The Department's land management bureaus manage lands along 793 
miles, or 41 percent, of the southwest border. This includes seven 
national wildlife refuges, six national parks, lands managed by the 
Bureau of Reclamation along 12 miles of the border, and public lands 
managed by the Bureau of Land Management along 191 miles of the border. 
In addition, five Indian reservations are on the international boundary 
with Mexico.
    These remote, once pristine landscapes are home to many unique 
plants and wildlife, some of which are endangered species. However, the 
situation along our international border with Mexico has changed. In 
some locations, our employees, residents, or visitors are facing 
significant risks from illegal activities and portions of the public 
lands are closed to visitors. Employees who live on site and residents 
of Indian communities contend with the potential threat of vandalism, 
theft, and confrontation with illegal activities. Wildlife populations 
and their habitats and cultural resources are affected and damaged by 
these activities.
    Increased border enforcement in urban areas has resulted in a shift 
in the flow of illegal drugs and unauthorized people to rural areas and 
the lands managed by the Interior Department. The number of illegal 
entrants crossing public lands has increased 11-fold since 2001. 
Narcotic traffickers, smugglers, and other criminals, who operate 
extensively near the border, impact public lands and resources.
    There has been loss to human life. National Park Service Ranger 
Kris Eggle was shot and killed in 2002 at Organ Pipe Cactus National 
Monument by a drug runner. At San Bernardino National Wildlife Refuge, 
drug smugglers threatened an officer and his family at his home if he 
didn't return a load of marijuana seized earlier in the day. These are 
not isolated incidents. Interior employees are concerned that they are 
under constant surveillance by drug smugglers who establish observation 
posts on our lands and are equipped with assault weapons, encrypted 
radios, night vision optics, and other sophisticated equipment. 
Employees cannot go to some areas of some of the parks, refuges, and 
other public lands without an escort. The impacts to lands and 
resources are extensive, including abandoned vehicles and personal 
property, roads and trails through sensitive areas, and elevated 
threats to at-risk species.
    The Department is requesting an $8.2 million increase for our Safe 
Borderlands initiative to enhance safety of public land visitors, 
residents, and employees and reduce the impacts affecting Interior-
managed lands along the southwest border. The Safe Borderlands 
initiative targets resources toward multiple bureaus and high-priority 
areas. The Department will coordinate border efforts among the land 
management bureaus and the Bureau of Indian Affairs, deploying 
additional law enforcement personnel into five high-priority areas with 
the highest safety risks. We propose to focus on Interior borderland 
responsibilities, including public lands management and visitor and 
employee safety.
    We also propose to mitigate environmental damage along the 
southwest border. Trails and illegal roads made by smugglers are 
destroying cactus and other sensitive vegetation impacting the 
ecological health of many of the national parks, wildlife refuges, 
national monuments and conservation areas Interior manages. Projects 
include repairing and maintaining roads and trails on BLM lands; 
improving signage for visitors; assisting with environmental compliance 
for border infrastructure projects; removing tons of abandoned personal 
property such as vehicles from bureau and tribal lands; and closing 
abandoned mine lands on BLM lands in New Mexico and California where 
illegal aliens hide.

                  SUPPORTING THE DEPARTMENT'S MISSION

    The 2009 budget aligns resources to achieve these and other high-
priority goals guided by the Department's integrated strategic plan. 
The Department's strategic plan links the Department's diverse 
activities into four common mission areas: Resource Protection, 
Resource Use, Recreation, and Serving Communities. A fifth area, 
Management Excellence, provides the framework for improved business 
practices, processes, and tools and a highly skilled and trained 
workforce.
    Key to attaining these strategic goals is our 2009 request for 
fixed costs. Pay and benefits for the Department's 70,000 employees are 
a significant cost component of Interior's core programs, comprising 51 
percent of operating budgets. The proportion of Interior's budget 
committed to personnel costs places it among the top three Federal 
agencies. This workforce composition largely reflects the need to 
maintain staff at the geographically dispersed locations that serve the 
public including 391 parks, 548 refuges, and 71 fish hatcheries.
    Interior's programs by their very nature require staff. Interior 
continues to utilize the services of over 200,000 volunteers and 
extensive seasonal employees. However, the workforce capacity of the 
Department's programs is an essential ingredient for the uninterrupted 
delivery of programs and services to the American public.
    The 2009 budget includes $142.5 million to keep apace with most 
increased costs in pay and benefits and other fixed costs. The pay and 
benefits component is $128.6 million, including a 3.5 percent 2008 pay 
raise, a 2.9 percent 2009 pay raise, and a 3.0 percent increase in 
health benefits. A total of $22.5 million in pay and health benefits 
costs is absorbed. There is a reduction of $16.9 million for one less 
pay day in 2009. The request fully funds nondiscretionary bills from 
others, including space rental costs and associated security charges; 
workers compensation and unemployment compensation; and centralized 
administrative and business systems, services, and programs financed 
through the Working Capital Fund.

                        OTHER BUDGET PRIORITIES

    In addition to the initiatives already highlighted, the 2009 budget 
includes funding for programs key to achieving the Department's goals 
and objectives.
    Cooperative Conservation Programs.--Through partnerships, Interior 
works with landowners and others to achieve conservation goals across 
the Nation that benefit America's national parks, wildlife refuges, and 
other public lands. The 2009 budget includes $321.7 million for the 
Department's cooperative conservation programs, $10.4 million more than 
the 2008 enacted level. These programs leverage Federal funding, 
typically providing a non-Federal match of 50 percent or more. They 
provide a foundation for cooperative conservation to protect endangered 
and at-risk species; engage local communities, organizations, and 
citizens in conservation; foster innovation; and achieve conservation 
goals while maintaining working landscapes.
    Challenge cost share programs in FWS, NPS and the Bureau of Land 
Management are funded at $18.1 million. These cost share programs 
provide resources to land managers to work with adjacent communities, 
landowners, and other citizens to achieve common goals through 
conservation and restoration of wetlands, uplands, riparian areas and 
other projects.
    The 2009 cooperative conservation budget incorporates the 
Department's $21.9 million Healthy Lands initiative. Building on the 
$7.9 million enacted in 2008 for Healthy Lands, the 2009 budget 
increases resources for this multi-agency initiative to enlist States, 
local and tribal governments, industry and non-government entities to 
restore habitat on a landscape scale.
    The 2009 budget for FWS cooperative conservation programs proposes 
$14.9 million for the Migratory Bird Joint Ventures program, including 
an increase of $4.0 million to focus on improving the status of focal 
species of birds as part of the Migratory Bird initiative. The 2009 
budget also includes $13.2 million for the Coastal program, $48.0 
million for the Partners for Fish and Wildlife program, $4.9 million 
for the Fish Passage program, and $5.2 million for the National Fish 
Habitat Action Plan.
    The 2009 request for cooperative conservation programs includes 
$195.9 million for FWS grant programs, an increase of $1.9 million. 
This includes $42.6 million for the North American Wetlands 
Conservation Fund, an increase of $666,000 above the 2008 enacted 
level. The 2009 budget for the Cooperative Endangered Species 
Conservation Fund is $75.5 million (including $80.0 million in new 
budget authority reduced by a cancellation of $4.5 million in 
unobligated balances). This request is an increase of $1.7 million 
above the 2008 level. The 2009 budget includes $4.0 million for the 
Neotropical Migratory Bird program, a reduction of $470,000 from the 
2008 level, and $73.8 million for the State and Tribal Wildlife Grant 
program, sustaining the 2008 funding level.
    Enhancing Energy Security.--The Interior Department helps to meet 
the Nation's energy needs and ensure energy security. Roughly one-third 
of the energy produced in the United States each year comes from 
Federal lands and waters managed by Interior. Interior's 2009 budget 
enhances energy security with a program that seeks to increase 
production while achieving important environmental protections, 
attaining energy conservation goals, and expanding the use of new 
technologies and renewable energy sources. The 2009 budget provides 
$528.1 million for energy-related programs, an increase of $15.1 
million over the 2008 enacted level.
    The BLM will continue to support implementation of Section 349 of 
the Energy Policy Act to address the environmental risks posed by 
legacy orphaned wells. The 2009 request includes an increase of $11.2 
million for the remediation of the Atigaru site on the Alaska North 
Slope. In addition, BLM will increase its capacity for conducting oil 
and gas inspections in 2009.
    In 2009, as in 2008, legislation is proposed to repeal the permit 
processing fund and the prohibition on charging cost recovery fees for 
processing applications for permits to drill. Estimated cost recovery 
collections for Applications for Permit to Drill are $34.0 million in 
2009, an increase of $13 million from the 2008 proposed level. The 2009 
budget relies on permanent legislation to allow cost recovery for APDs, 
rather than the $4,000 APD fee included in the 2008 Consolidated 
Appropriations Act.
    In 2009, MMS will apply $8.5 million to increase environmental 
studies, resource assessments, and leasing consultations in areas of 
new leasing activity in Alaska and the Gulf of Mexico as identified in 
the 2007-2012 Five Year Plan. These lease sales could produce as much 
as 10 billion barrels of oil and 45 trillion cubic feet of natural gas 
over the next 40 years, enough energy to heat 47 million homes for 40 
years. With an additional $1.0 million, MMS will implement its 
alternative energy responsibilities by funding environmental work and 
permitting for offshore alternative energy projects. This increase 
builds on the increased funding level provided in 2008 for alternative 
energy and provides a total funding level of $6.6 million.
    The MMS will also use a $1.1 million increase to improve its 
information technology system to keep pace with industry's use of 
geoscientific analysis of resources and ensure that lease bids meet 
their fair market value; provide $2.0 million for improvements to 
mineral revenue compliance operations; and apply $1.7 million to 
implementing automated interest billing, allowing MMS to streamline and 
expedite interest invoicing, enhance internal controls, reduce manual 
intervention, allow the closure of audit cases sooner, and redirect 
staffing to other high-priority projects.
    Climate Change.--With lands that range from the Arctic to the 
Everglades, Interior's managers are observing the sometimes dramatic 
effects of a changing climate, including melting permafrost and melting 
glaciers, apparent long-term changes in precipitation patterns, dust 
storms, and sea level rise. In this dynamic context, Interior managers 
need the information, tools and resources to understand on-the-ground 
landscape changes and develop strategies to adapt to these changes. As 
one of the largest land managers in the world, Interior is positioned 
to pioneer adaptive management approaches to address the effects of 
climate change.
    Interior's science agency, the U.S. Geological Survey, has been an 
active participant in the Federal Global Climate Change Science 
project. In 2008, the Congress provided an increase of $7.4 million to 
expand high-priority research and establish a National Global Warming 
and Wildlife Science Center.
    Work has begun to examine the most pressing issues faced by land 
managers, including the impacts of melting permafrost on energy and 
other infrastructure, modeling of watersheds to better manage timing 
and delivery of water by taking into account changing precipitation 
patterns, and investigation of the potential for geologic formations to 
sequester carbon. Interior has also undertaken habitat restoration to 
promote carbon sequestration and has pioneered use of alternative 
energy and energy conservation in its facilities and transportation 
systems. Approximately 18 percent of Interior's facility electricity 
comes from alternative energy technologies, a ratio six times greater 
than required for the Nation in the Energy Policy Act.
    The 2009 budget for the U.S. Geological Survey continues its 
climate change program of $31.4 million, sustaining $5.0 million of the 
increases enacted in 2008 by the Congress. The 2009 budget will focus 
on priority climate change needs to fill critical information gaps. The 
2009 budget and the Department's climate change management priorities 
will benefit from the results of the Secretary's Task Force on Climate 
Change. The three subcommittees that comprise the task force will guide 
Interior's comprehensive approach to the study and modeling of the 
impacts of climate change on lands, waters, and wildlife, as well as 
guide adaptive management programs for the Department's land managers.
    Indian Trust.--From 1996 through 2008, the Department will have 
invested $4.4 billion in the management, reform, and improvement of 
Indian trust programs. These investments have allowed Interior to 
better meet fiduciary trust responsibilities, provide greater 
accountability at every level, and operate with staff trained in the 
principles of fiduciary trust management. The 2009 budget proposes 
$482.3 million for Indian trust programs. This amount includes a net 
program increase of $2.9 million over the 2008 enacted budget. The 2009 
Unified Trust Budget reflects savings from the completion of certain 
trust reform tasks as well as new investments in probate services.
    The 2009 budget of $482.3 million for Indian trust programs 
includes $181.6 million in the Office of the Special Trustee and $300.7 
million in the Bureau of Indian Affairs. The budget for Office of the 
Special Trustee includes $125.2 million for operation of trust 
programs, an increase of $1.2 million above the 2008 level. The 2009 
budget proposal includes $56.4 million to support the Office of 
Historical Trust Accounting. The Office of Historical Trust Accounting, 
which is included in the Unified Trust Budget, plans, organizes, 
directs, and executes the historical accounting of 365,000 Individual 
Indian Money and Tribal Trust accounts. The OHTA expects to allocate 
approximately $40 million to historical accounting for individual 
Indian accounts, with the balance used for tribal trust accounting.
    The remainder of the funding supports work on tribal trust cases, 
for a total of $16.4 million. At present, there are 102 tribal trust 
lawsuits, including a class action case seeking certification of a 
class of over 250 Tribes. The workload associated with these cases 
includes tribal reconciliation reports, document production, data 
validation, litigation support, analyses of mismanagement claims, 
historical accountings, and settlement negotiations.
    The 2009 BIA budget provides $300.7 million to meet the 
requirements outlined in the Fiduciary Trust model and continue trust 
reform initiatives, including a funding increase of $10.6 million that 
will address a number of priority activities including the probate 
backlog.
    The 2009 budget also includes an increase $2.6 million for BIA and 
OST to meet the ongoing demand for probate services, while continuing 
to reduce the excess probate caseload. This funding increase will also 
support the Office of Hearings and Appeals and their role in resolving 
probate cases.
    The 2009 budget reduces funding by $9.8 million and eliminates the 
Indian Land Consolidation program. Although the program is terminated 
in 2009 the Department will explore other options for addressing the 
critical issue of fractionation.
    Financial and Business Management System.--The Financial and 
Business Management System, an enterprise-level, integrated, 
administrative management system, is replacing the Interior 
Department's existing legacy systems. When fully implemented, the 
project will support the business requirements of all Interior bureaus 
and offices including core accounting, acquisition, personal property 
and fleet, travel, real property, financial assistance, budget 
formulation, and enterprise management information.
    In 2006, the Minerals Management Service and the Office of Surface 
Mining were successfully migrated to the Financial and Business 
Management System. These bureaus are now conducting financial and 
accounting operations on this new system. In 2007, the acquisition 
module was deployed to MMS and OSM. In 2008, the Department anticipates 
that it will deploy core financial, acquisition, property, and grants 
components of FBMS to BLM. The 2009 budget request of $73.4 million 
includes an increase of $33.3 million for additional deployments that 
will eventually allow the Department to retire duplicative legacy 
systems currently in operation, including 27 acquisition systems, 16 
finance systems, 43 vendor databases, and 107 property management 
systems.
    Payments in Lieu of Taxes.--PILT payments are made to local 
governments in lieu of tax payments on Federal lands within their 
boundaries and to supplement other Federal land receipts shared with 
local governments. The 2009 budget proposes $195.0 million for these 
payments, an increase of $5.0 million over the 2008 President's budget, 
reflecting an adjustment to keep abreast of inflationary cost 
increases.

                         LEGISLATIVE PROPOSALS

    The 2009 budget is accompanied by legislative proposals that will 
affect receipt or spending levels in 2009 or in future years. These 
proposals will be transmitted to the Congress for consideration by 
authorizing committees.
    Many of these legislative changes were presented in the 2008 
President's budget, including proposals for: full payment of bonuses on 
all new coal leases at the time of lease sale, modification of the 
Federal Land Transaction Facilitation Act, net receipts sharing for 
energy minerals, discontinuation of the mandatory appropriation from 
the BLM Range Improvement Fund, reallocation of the repayment of 
capital costs for the Pick-Sloan Missouri Basin program, and 
authorization for the San Joaquin River Restoration settlement.
    The budget also assumes the enactment of legislative proposals to 
repeal provisions of the Energy Policy Act related to permit 
processing, geothermal revenues and geothermal payments to counties, 
and ultra-deepwater research. The budget assumes enactment of 
legislation that would open the 1002 area of the Arctic National 
Wildlife Refuge to exploration with lease sales to begin in 2010, 
generating estimated bonus bids of $7 billion in 2010 and future 
streams of revenue from royalty collection once production commences.
    The 2009 budget assumes enactment of legislation to provide a new, 
dedicated source of funding for the Centennial Challenge providing up 
to $100.0 million per year for 10 years of mandatory funding to match 
contributions for projects and programs that will fulfill the 
commitment to prepare parks for their next century.
    The 2009 budget also assumes enactment of legislation to authorize 
an increase in the price of the Federal duck stamp. The price of the 
stamp has remained at $15.00 since 1991. At the same time, the price of 
land has increased significantly in the past 17 years. The Duck Stamp 
fee increases will generate more revenues to support the acquisition of 
fee title and easement areas that would provide 17,000 additional acres 
of important breeding, migration resting, and wintering areas for 
birds.
    The 2009 budget proposes to cancel $5.0 million from multiple 
accounts, as the balances have remained unused for some time. The 
budget proposes to cancel $24.7 million of balances in the Naval Oil 
Shale Reserve Account that are excess to the estimated remediation 
costs and to cancel $4.5 million in the Cooperative Endangered Species 
Fund for uncommitted funding that was recovered from funds surplus to 
project needs.
    The 2009 budget proposes $34.0 million in increased cost recovery 
fees for the Bureau of Land Management oil and gas program and 
estimates an increase of $11.0 million in offsetting collections from 
rental receipts and cost recovery fees by the Minerals Management 
Service's OCS program.

                               CONCLUSION

    Our 2009 budget will--in its entirety--make a dramatic difference 
for the American people. We will continue efforts to improve our 
national parks, protect our wildlife and its habitat, and make 
investments in Indian Country for safe communities and Indian 
education. In addition, we will help communities address water supply 
needs, conserve wild birds and ocean resources, improve the safety of 
public lands along the border for employees and visitors, and continue 
to address other ongoing mission priorities. We look forward to working 
with the Subcommittee on these challenges this year. Just as we did in 
2008, I feel confident that we can collaboratively craft a 2009 budget 
for this Department that will address all of the priorities I've 
discussed. This concludes my overview of the 2009 budget proposal for 
the Department of the Interior and my written statement. I will be 
happy to answer any questions that you may have.

    Senator Feinstein. Let me see. The order will be after my 
questions, Senator Allard. Then it will alternate. Senator 
Nelson, Senator Craig, Senator Alexander, and Senator Cochran.

                         RURAL FIRE ASSISTANCE

    I think one of the things that I find really objectionable 
in the budget is the zeroing out of the $6 million for the 
wildland fire grants. When I left the office, Mr. Secretary, 
CNN was on my television, and it said a wide swath of the 
United States is under threat of catastrophic fire. I think to 
cut these grants right now is really a mistake.
    My understanding is you are taking that money and you are 
putting it in the Healthy Lands initiative. You are proposing a 
Birds Forever by taking money away from initiatives to protect 
native fish, and we have just had the entire salmon run 
collapse in Oregon and California.
    So why are you singled out for the elimination of rural 
fire assistance grants?
    Secretary Kempthorne. Madam Chairman, it is a very fair 
question. We do have a very close cooperative working 
relationship with the U.S. Forest Service where they provide 
many of the same programs. We do retain grants that help us 
with the training. We utilize funds from the preparedness 
budget to do so.
    You are right about the devastation of these fires. You 
experienced them firsthand when I called you in October and we 
talked about the Santa Ana winds that were whipping up, and 
where we were able to anticipate that, pre-deploy our assets, 
rolling stock, aircraft, and personnel and were able to make 
the best of a very bad situation.
    We do use it for the Healthy Forest initiative because if 
we can continue to thin these forests, if we can remove the 
fuel load, that is going to save not only acreage but lives and 
certainly lives of the fire fighters.
    Senator Feinstein. Yes, but for me it is a catch 22. I want 
the Healthy Lands money, but I also want the wildland fire 
protection money. So if you take one from the other, you 
essentially diminish both. At least, that is my view on it. So 
I just want you to know up front that is a real problem for me.

                            ABANDONED MINES

    Another problem in California is we have roughly 47,000 
abandoned mines, and 13,000 are on lands managed by the BLM. 
Thousands have safety or water quality hazards. Last month I 
introduced a bill, the Abandoned Mine Reclamation Act. It 
created an abandoned mine cleanup fund, but unlike the House 
bill, it has three sources of revenue for that cleanup. I added 
$1.9 million in the 2008 bill to help BLM and the National Park 
Service identify and remediate hazardous abandoned mines in 
California. Your budget request removes this funding.
    My first question is, does your Department have a 
prioritized list of abandoned mine sites on public lands?
    Secretary Kempthorne. This is a critical issue for us. I 
will get back to you if, in fact, there is a prioritization of 
mines. The categorizing and the inventorying of abandoned mines 
has been occurring by the BLM and by the National Park Service.
    Senator Feinstein. Well, I would like to ask you to do a 
prioritized list, and I would like you to share it with this 
committee. I mean, I think we are entitled to know where 
abandoned mines on public lands create real hazards for people 
who use those public lands.
    Secretary Kempthorne. Yes. Madam Chairman, the National 
Park Service--I believe it was five abandoned mines they 
addressed based on funds that you provided in the current 
budget last year.
    Senator Feinstein. Right. But you removed the funding.
    Secretary Kempthorne. Yes.
    Senator Feinstein. Why is that?
    Secretary Kempthorne. In most cases, Madam Chairman, where 
there were additions by Congress, we had to remove those 
earmarks.
    Senator Feinstein. Why?
    Secretary Kempthorne. To remain within the budget that was 
given as the guidance by the administration.
    Senator Feinstein. Well, you know, I feel if the 
administration is not going to regard our concerns of 
priorities, I do not know why we should observe theirs. I mean, 
the fact of the matter is we have got 13,000 abandoned mines on 
Interior properties in California, and people use those lands 
and we need to do something about it. So I am really concerned 
about that, and you will be hearing more.

                            U.S. PARK POLICE

    Let me go to the Park Police. The IG's report stated, 
``Park Police have failed to adequately perform either mission, 
either protecting the national monuments or functioning as an 
urban police department.'' So this has resulted in deficient 
security at national icons and monuments.
    My understanding is you do have money in the budget for 
that, for additional police officers. Your current staffing is 
590. You request an additional $4.7 million so you can increase 
staffing by 36. How many of those 36 will be sworn officers, 
and how many are administrative?
    Secretary Kempthorne. I believe, Madam Chairman, that those 
officers will be sworn officers.
    Senator Feinstein. So all 36 of your new people will be 
sworn officers.
    Secretary Kempthorne. Yes. I will tell you that it will 
take a little bit of time to achieve this. We are adding 12 new 
officers this month. We are then putting 15 more in the Federal 
Law Enforcement Training Center. The goal is that by the end of 
2009, we will have 630 sworn officers. Our objective is to 
reach 639 sworn officers, which we believe can be accomplished 
at the beginning of 2010.

                                 SALMON

    Senator Feinstein. All right. If I can quickly, I would 
like to go to the Pacific Fisheries Council recommendation for 
a complete closure of the Oregon and California salmon fishery 
for the first time in 150 years. News articles suggest that 
part of the problem may be deteriorating ocean conditions 
caused by climate change.
    What is your finding? What is the cause of this?
    Secretary Kempthorne. Well, Madam Chairman, we have been 
working with NOAA and the National Marine Fisheries Service, 
which has jurisdiction for this. There has been an 
identification at this point that conditions in the sea which 
provide the food source for the salmon are one of the key 
factors. There is continuing discussion as to what may be the 
reason for all of that, but it is the jurisdiction of the 
National Marine Fisheries Service. We will continue to work 
with them.
    Senator Feinstein. I would hope you would. I would hope you 
would take a major role. I mean, fishing on our coasts is an 
important industry. It is estimated that this disaster is $150 
million. People lose their homes. They lose their boats. They 
lose everything because they cannot make payments. They have no 
job. So I would just like to request that Interior play a role 
in really delving into this and coming up with some solutions--
--
    Secretary Kempthorne. Yes.
    Senator Feinstein [continuing]. Or I think we are in deep 
trouble with respect to fish.
    Secretary Kempthorne. It is very serious, and I am very 
familiar with it, as Senator Craig would be as well from the 
State of Idaho, because we too have the salmon fish runs. It is 
an issue that we have been working on for some years.

                            U.S. PARK POLICE

    Madam Chairman, perhaps before we leave this hearing, I 
could address a little further about the Park Police.
    Senator Feinstein. Certainly. My time is expired. Let me 
turn to the others and then on the second round, if it is 
agreeable with you, we will go to the Park Police first up.
    Secretary Kempthorne. That would be great. I appreciate it.
    Senator Feinstein. Senator Allard.

                            NAVAL OIL SHALE

    Senator Allard. Thank you, Madam Chairman. Mr. Secretary, I 
would like to go first to the Naval Oil Shale question.
    Secretary Kempthorne. Yes.
    Senator Allard. In the President's budget, you requested a 
proposal to cancel $24.7 million of balances in the oil shale 
reserve. Now, this is money over and above what it would take 
to clean up the Anvil Point area and cleanup costs in that 
particular area. I oppose it. In my view, those funds are--at 
least the half that represents the royalties that would be paid 
under the Mineral Leasing Act belongs to the State of Colorado. 
This has been provided for in legislation that was passed by 
the Congress.
    The Naval Oil Shale restoration account fund is growing at 
the rate of $2 million per month, and royalties are not being 
paid to the State only because the Department of the Interior 
has dragged their feet in the certification of those funds to 
clean up the site. I believe that everyone now acknowledges 
that there are more than enough funds in the account to do the 
cleanup.
    I would like to have you tell me when you would expect to 
be able to certify this site so that Colorado can start 
collecting its fair share of royalties being generated at the 
Naval Oil Shale Reserve, which we also share with the Federal 
Government, by the way.
    Secretary Kempthorne. Senator Allard, I appreciate working 
with you on this issue. As you know, there was a key point in 
January this year when the State of Colorado agreed with the 
cleanup proposal by the Federal Government, by the Bureau of 
Land Management. I sent you and Senator Salazar and Governor 
Ritter letters on this. It allows us to now move forward.
    We anticipate that by June of this year, we can have a 
contract let that would then allow us to go forward with the 
actual cleanup. We believe that in this fund will be sufficient 
monies to cover that cleanup.
    I must say specifically to the $24 million that you are 
referencing, the Solicitor's interpretation of the law passed 
by Congress does not provide for that to be distributed to the 
State of Colorado because it is to begin distribution of funds 
to Colorado once certification begins on prospective collection 
of monies. That is the determination of what the law currently 
reads.
    Senator Allard. Well, we have had some discussion on their 
interpretation on certification, and we will probably continue 
to have that discussion. I think if you look at the intent, I 
think the intent of the legislation is pretty clear. I frankly 
feel that their interpretation does not match with the rest of 
the language.
    I guess I still need an answer. You have let the contract--
you are letting out in June.
    Secretary Kempthorne. Yes.
    Senator Allard. So then does this immediately lead to 
certification once that contract is let? When does 
certification occur after the contract is let?
    Secretary Kempthorne. There would be additional elements, 
details that would have to be worked out, but we are going to 
move expeditiously so that we can achieve that certification.
    Senator Allard. So you cannot give us a time specifically 
when you think they would. So you are saying that letting the 
contract is the first step. There are several steps after that, 
and we do not know what is going to happen on those steps. That 
is my concern.
    Secretary Kempthorne. Right. Senator, I would say letting 
the contract is probably not the first step. The identification 
of the game plan of how to clean this up, and then to have the 
State of Colorado agree in January with that proposed cleanup 
was a huge step. I believe we can now move expeditiously and 
get you to the point that you have certification.
    Senator Allard. Well, we will continue to push you on that 
particular issue, Mr. Secretary. I will continue to make a 
nuisance of myself I guess.
    Secretary Kempthorne. Well, it is no nuisance because I can 
understand where you would be coming from.
    Senator Allard. Well, thank you.
    As you know, there is a planned lease sale by BLM on the 
Naval Oil Shale Reserve this summer that could bring in as much 
as $1 billion in bonus bids. If certification has not happened 
by that point, the State of Colorado, in effect, will lose $500 
million, and this is simply not acceptable. I just want to have 
your assurances from the Department that you will continue to 
work on this issue so that we can get this resolved prior to 
the lease sale.
    Secretary Kempthorne. Senator, you have my assurance.
    Senator Allard. There is a good bit of urgency here.
    Secretary Kempthorne. I fully respect that and understand 
it.
    Senator Allard. Thank you.

                   APPLICATIONS FOR PERMITS TO DRILL

    On the backlog of applications for permits to drill, I have 
been hearing from many energy companies throughout the interior 
of the West that it is taking longer and longer to get their 
applications for permits to drill approved by the BLM. This is 
particularly frustrating to me. I do not like increasing fees 
particularly, but we increased fees, allowed that to $4,000 
last year, and we have put this in place. Now with the increase 
in fees, they are complaining that they are getting slower and 
slower service and things are being dragged out, which I think 
the anticipation was that if you increased the fees, there 
would be more employees and there would be a quicker processing 
of their permits.
    What are you doing to address this backlog that is 
happening?
    Secretary Kempthorne. Senator, your characterization of 
dragging their feet I would not concur with. BLM is doing 
everything that it possibly can. I will give you a sense. Over 
the last 7 years, BLM has processed over 47,000 APD's and 
approved over 39,000 APD's. APD's processed have increased from 
a low of 2,300 in 1999 to an all-time high in 2007 of nearly 
9,000. It is a sheer number of APD's that we are dealing with 
as opposed to just a static line that remains flat. It is the 
increased APD's, but we are doing all that we possibly can.
    The 2009 budget seeks cost recovery of a higher fee. 
Funding will be retained by BLM for these APD's.
    Senator Allard. I see. Okay.
    Now, how many people are you anticipating that you are 
going to be needing to handle the workload that you have now?
    Secretary Kempthorne. I do not believe, sir, that we are 
adding any personnel.
    Senator Allard. Do you need to?
    Secretary Kempthorne. We will examine that again, but at 
this point we are not requesting that.
    Senator Allard. So how can we speed up the process if we 
are not hiring more people? What is being done by the 
Department to have that happen?
    Secretary Kempthorne. It would be possible to make 
modifications in the information that is provided and look at 
what the long-term plan would be. We can evaluate information 
on the employees at BLM.
    Senator Allard. I would assume that you have some offices 
that are facing a greater workload on applications than other 
offices.
    Secretary Kempthorne. We are.
    Senator Allard. So it is a difference in having personnel 
on hand to process in those cases, is it not? So for those 
offices that are being pushed so hard because of oil and gas, 
just changing the processing and everything else does not seem 
to help them. How do you help them out?
    Secretary Kempthorne. Well, we will examine that, but 
again, at this point from BLM, I have no request for additional 
personnel.
    Senator Allard. Well, we would like to talk to you about 
that so we fully understand how these applications are being 
processed.
    My time is expired. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Madam Chair.
    Mr. Secretary, it is good to see you. I would like to have 
you confirm that in your position, you get to hunt and fish 
anywhere in the country on company time.
    Secretary Kempthorne. As long as I buy a license.
    Senator Ben Nelson. As long as you buy a license. All 
right.

                     PLATTE RIVER RECOVERY PROGRAM

    Last fall, the Senate passed what is called the 
Consolidated Natural Resources Act, which contained the Platte 
recovery implementation program. I am hopeful that the House is 
going to be able to pass it soon and that the President will 
sign the bill so that we can begin to move forward with this 
program. If it gets signed into law soon, it authorizes over 
$157 million for the Department to carry out its provisions, 
whereas I believe in the Department's budget, there were only 
about $11 million provided.
    So my question is, in terms of priority, if this bill is 
signed into law, will the Department be able to aggressively 
pursue the content of the legislation on behalf of this 
recovery of a very important and vital river in our country, 
the Platte River?
    Secretary Kempthorne. Yes. Senator, that is our full 
intent. We have been very supportive of the agreement that had 
been reached.
    Senator Ben Nelson. Including the invasive species, as well 
as water flow issues and hydrologic issues as well?
    Secretary Kempthorne. Yes.
    Senator Ben Nelson. The entire picture of the recovery that 
we would like to see. We hope that that is a high priority 
within the Department.
    Secretary Kempthorne. Yes. Senator, again, when you speak 
of invasive species, that is critical. The proliferation of 
these species and then the loss of habitat, the loss of the 
native plants, native aquaculture.
    Senator Ben Nelson. The consumption of water that the 
invasive species involve as well.
    Secretary Kempthorne. Correct.
    Senator Ben Nelson. Okay. Well, we will be watching. It may 
not all happen under your watch because of the time frame, but 
we certainly hope it gets started under your watch.

                 SPECIES CONSERVATION ON PRIVATE LANDS

    Last year, regarding the species conservation on private 
lands, the landowner incentive program was eliminated. The 
focus of that program was to help landowners become involved in 
species conservation on their lands, and while eliminated, the 
committee did direct the Department to work with the States to 
develop a new grant program as part of State and tribal 
wildlife grants that would direct funding to species 
conservation projects on these private lands.
    Now, the Fish and Wildlife Service requested flat funding 
in their fiscal year 2009 budget for State and tribal wildlife 
grants. Obviously, that concerns me that while we directed the 
Department to move on these private conservation matters, Fish 
and Wildlife seems to have taken a different approach or at 
least have not provided funding that would satisfy, in my 
opinion, that they take this seriously or that it is a priority 
for them.
    Secretary Kempthorne. Senator, it is taken seriously 
because it is a good program. In the Department's budget, we 
have a variety of grants which we believe through other 
programs, we can still provide the objectives of the program. 
It is just a different set of funding sources.
    Senator Ben Nelson. Well, but is it a bigger pie or is it 
just the same pie that is going to be cut into smaller pieces 
now?
    Secretary Kempthorne. I would say that it is at the same 
level. We have been able to at least hold the same level in a 
time of budget constraint, but without loss.
    Senator Ben Nelson. What assurances can we have that we 
will see the money directed to the States and to the tribal 
lands or whether the grant requests that are put in will truly 
have that high priority that this committee has given them?
    Secretary Kempthorne. Well, Senator, I would be happy to 
work with you on determining how you would like to have that 
communique.
    Senator Ben Nelson. Because you can say that the money is 
available. Then, of course, the other priorities will prevail. 
Unless this is given a high priority, we cannot be sure that 
there will be that priority by the bureaucracy.
    Secretary Kempthorne. Senator, I understand what you are 
saying. Just to affirm, it is a good program. It is achieving 
some very fine results. These are competitive grants among the 
States, but the funds are there. I would be happy, again, 
Senator, with your experience as Governor, to work with you on 
this.
    Senator Ben Nelson. Well, with our experience as Governor, 
we understand the bureaucracy. The we be's. We be here when you 
come. We be here when you go.
    That is what we want to overcome and make sure that this 
does have that high priority.
    Secretary Kempthorne. Right.
    Senator Ben Nelson. Thank you, Mr. Secretary.
    Secretary Kempthorne. Thank you, Senator.
    Senator Feinstein. Very good, Senator. Thank you very much.
    Senator Craig.
    Senator Craig. In fact, Madam Chair, I would suggest that 
oftentimes the Senate says that of administrations. We be here 
when you come. We be here when you go.

                              INITIATIVES

    Let me approach it from a slightly different angle because 
I love the artistry of your words, Mr. Secretary. Here with 
your budget you call these initiatives. In fact, you speak of 
four new initiatives, and you fund them from what were once 
Senate earmarks. Might we call those administrative earmarks, 
those new initiatives?
    I think, Madam Chair, we ought to turn our phrase a bit and 
suggest that we have a variety of initiatives. In fact, many of 
us who lecture on this issue might suggest that we only gave 
you the authority to be here and present a budget less than 40 
years ago, and constitutionally that responsibility rests 
solely with the Congress and not with the executive branch of 
Government.
    So we do appreciate your initiatives and the artistry of 
your words, but we have noted that you have funded them by 
defunding Senate initiatives. Now, that is simply rhetoric, Mr. 
Secretary. I want to be kind to you for the balance of my time, 
but I was sitting here listening to the artistry of those 
marvelous words and not in any way questioning the validity of 
the concepts and the programs as it relates to oceans, as it 
relates to birds, certainly as it relates to the kinds of 
initiatives you have launched in Indian country. This committee 
has not disagreed with any of them.
    So may I suggest, Madam Chair, that there is so much to do 
and so little money? What we have is, on the other hand, the 
taking from the other hand. That in itself is a bit of a 
frustration.
    Secretary Kempthorne. May I respond?
    Senator Craig. Well, okay.
    Senator Feinstein. Before you do, Mr. Secretary, do you see 
the sensitivity of this?
    Secretary Kempthorne. Of course.
    Senator Feinstein. We feel we are equals in the budget.
    Senator Craig. Oh, no, that is not true constitutionally, 
Madam Chair. Uphold your responsibility.
    Senator Feinstein. So it is very difficult when this kind 
of thing happens.
    Secretary Kempthorne. You can, I hope, appreciate that I 
used to sit up there and I remember asking an administration 
about the budget, so I understand where you come from.

                                EARMARKS

    On the part of earmarks, this process is as you described 
it to be. We do not have the opportunity to add earmarks after 
the process. Many of the earmarks that you have provided--for 
example, on the initiatives of 2008, you plused-up Indian 
country. The administration retained those and is now 
recommending additions to that. With regard to the parks, the 
$25 million, that was tremendous. The refuges which, Madam 
Chairman, you referenced. We have retained those because it was 
a committee process, and it was building upon a budget which 
the administration had proposed to you. I do not believe that 
we are taking from your earmarks and simply putting on it the 
name ``administration earmarks.'' These are initiatives that we 
are placing properly before the committee for your deliberation 
and your good counsel.
    Senator Craig. Well, I appreciate that. I think our 
frustration remains when you propose, as you do, in your budget 
four new initiatives in a relatively flat or declining budget. 
That money has to come from somewhere.

                              PREPAREDNESS

    Now, for example, in the area that the chairman has already 
approached, I would guess that you and the Department of 
Agriculture, the Forest Service and BLM, did not sit down and 
do this with your fire money because if you had, you would have 
both recognized substantial cuts in both Departments as it 
relates to preparedness.
    You were out, as was I, and traveled over one of the 
largest fires in the grasslands of southwestern Idaho this last 
summer. Following that, I spent a good deal of time with all of 
the parties involved. There is no question in my mind and in 
the locals' and the State's mind that had we prepared a little 
better, had local people been a little more involved, had the 
teams been in place a little more, that that fire might not 
have been as bad as it was. Nearly a quarter of the land burned 
in the country last year. A near unprecedented fire season 
happened in our State of Idaho. So preparedness is critical.
    The Forest Service has slashed its budget. You have cut 
yours substantially. You are the two primary fire agencies of 
our Federal Government. We have that cooperative tool in Idaho 
known as the National Interagency Fire Center, and yet, I am 
not quite sure I can go back to Idaho not yet knowing what the 
fire year will be--we do not yet--and suggest that we are going 
to be better off this year than we were last year.
    Take us through that scenario a little bit, if you would, 
Mr. Secretary.
    Secretary Kempthorne. Sure. Our strategy is to attack 
fires. We have a 97 percent success rate of attacking fires so 
that they do not get out of hand and become the enormous fires 
that begin to go.
    We are entering a new phase of fire behavior, much of it 
because of the 10 years of drought, and the bug infestation. 
The fuel load is there. As you know, Senator, it is not unusual 
during the summer that you may get 2,000 lightening strikes in 
a day, and to have as many resources as we have, but there are 
some fires that are going to get away.
    I would also point out that part of the budget is based 
upon the 10-year average of the fire costs. Because of the 
nature of the fires that are getting so much larger, that 10 
years still keeps some of the low numbers included. A 5-year 
view would be a different number.
    Senator Craig. I was just going to say you ought to average 
on 5 years now versus 10 because----
    Secretary Kempthorne. It would be a different number.
    Senator Craig [continuing]. The landscape has changed 
dramatically.

                                 SALMON

    My time is up. Madam Chair, let me make another comment as 
it relates to salmon and your concern and expression.
    I will get you the address of probably one of the leading 
fish scientists in the University of British Columbia's Marine 
Biology Center who a decade ago said quite simply at a time 
when Idaho and Oregon and Washington were embattled over salmon 
on the Snake and Columbia system. He said it quite simply. 
Because of the change of temperatures and ocean waters and, 
therefore, the biota and the food sources for fish, no matter 
how many young fish you send us, meaning the ocean, it will not 
send them back because the habitat has changed dramatically in 
the oceans.
    The problem is the take has not, and you have to couple it. 
We are spending as much as $300 to $400 a fish on the Snake and 
the Columbia system by ratepayers paying their power bills so 
that the fish industry can continue to fish. There is a 
subsidy. You are just not putting it in your budget. It is in 
the ratepayers' base of the public power systems of those 
States.
    Now, that is a reality that nobody wants to deal with 
because we are so frantically trying to save these fish, and 
yet we must. I suspect the science is now going to suggest that 
our oceans simply cannot sustain those populations if the take 
continues to be as large.
    I will come back for a second round. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Alexander, you are up.
    Senator Alexander. Thank you, Madam Chairman.

                              STEWARDSHIP

    Mr. Secretary, you have had a very effective stewardship. I 
compliment you on it. I especially want to give you credit for 
the conceptual design of--I will give the President the credit 
for the proposal, but the Centennial Challenge. It is a 
brilliant idea. We welcome you as you are coming back to the 
Great Smokey Mountains area on April 28 to the Governor's 
Sustainable Tourism Conference for Gateway Communities. I think 
it is your third visit to the Great Smokeys in a relatively 
short period of time.
    Secretary Kempthorne. Yes, sir.
    Senator Alexander. We appreciate a westerner recognizing 
the importance of eastern national parks.
    I have two areas I would like to discuss briefly.

                    LAND AND WATER CONSERVATION FUND

    Twenty years ago, I was chairman of President Reagan's 
Commission on Americans Outdoors. One of our recommendations 
was that we use money from offshore drilling to fully fund the 
Land and Water Conservation Fund. We have never done that.
    I notice in your testimony that you talk about MMS doing 
studies in Alaska and the Gulf of Mexico that might produce 10 
billion barrels of oil, 45 trillion cubic feet of natural gas. 
Even if you take the Alaska part out, that is a lot. It 
provides, it seems to me, an opportunity here because 2 years 
ago, thanks to Senator Domenici's leadership, when we approved 
a new lease for Lease 181 in the Gulf of Mexico, we created the 
conservation royalty really for the first time to give funding 
to the Land and Water Conservation Fund from offshore drilling. 
Fifty percent went to the Feds; 37.5 to the States; 12.5 
percent to the Land and Water Conservation Fund.
    My goal is that we get the Land and Water Conservation Fund 
up to $450 million Federal, $450 million State. There is a lot, 
particularly in the East, city parks, open space, greenways, 
communities that could use that.
    My question to you is would it be possible that a part of 
the planning by the Department of the Interior could identify 
those areas where the so-called Domenici one-eighth, the 12.5 
percent, of the proposed new drilling for oil and gas in the 
Gulf of Mexico especially, or anywhere else, could go to fully 
fund the Land and Water Conservation Fund?
    Secretary Kempthorne. Senator Alexander, in fiscal year 
2009, the stateside Land and Water Conservation Fund will begin 
to receive revenue from that source.
    Senator Alexander. From Lease 181?
    Secretary Kempthorne. Correct. It is a little over $6 
million. That will continue to grow now because of this new 
formula that has been put in place. It does give us for the 
first time, as you have stated, an identified source of funds 
for the Land and Water Conservation Fund.
    Senator Alexander. Well, I would hope that in your 
planning, you could include this concept, and I would say to 
the chairman of the subcommittee that as we look ahead at the 
Land and Water Conservation Fund, here may be a source of 
royalties for it. In a way, we have the worst of both worlds 
because some of the environmentalists do not like any drilling, 
and some of the western Senators do not like any more Federal 
land. But in the East, we have a need for that. Perhaps we can 
resolve that.
    Secretary Kempthorne. Senator, to highlight what you are 
saying, I think it makes a great deal of logical sense that 
when you extract a natural resource, that a portion of the 
benefit of that is reinvested back into nature.
    Senator Alexander. That was the concept really 40 years ago 
when the Land and Water Conservation Fund was created, that 
there would be an environmental burden and an environmental 
benefit.

                  GREAT SMOKEY MOUNTAINS NATIONAL PARK

    Now, my last question would be about base funding for the 
Great Smokey Mountains National Park, which you have been very 
attentive to, and we appreciate it very much. Take four of our 
major parks that we all admire: the Smokeys, Grand Canyon, 
Yellowstone, and Yosemite. The Smokeys has twice as many 
visitors as Grand Canyon, three times as many as Yellowstone, 
about three times as many as Yosemite. It has about the same 
number of trails and roads as Yellowstone and Yosemite and more 
than the Grand Canyon. Yet, when we add all the dollars 
together, fees and Federal funding, we spend three times as 
much on Yellowstone, two times as much on Yosemite, one and a 
half times as much on Grand Canyon as we do on the Great 
Smokeys.
    Senator Feinstein. Be careful, Senator. Be careful where 
you are going.
    Senator Alexander. I know.
    If the Senator from California were--she is an eminently 
fair person. She would want all these four grand parks to 
have--it is hard for me to understand how there could be three 
times as much spending on one of these parks.
    Now, one part of the answer is the fees that the other 
three parks have. The Smokeys, of course, were given to the 
Federal Government by the States and the people under the 
express agreement there would not be an entrance fee. That was 
the deal in the 1930's. But even when you take the fee out, 
Grand Canyon, Yellowstone, and Yosemite have more of a base 
operation than the Smokeys.
    I am aware of the increase this year. We are very grateful 
for that. I have talked with Ms. Bomar about that. I would urge 
you to continue to look as an element of fairness. I do not 
want to hurt the other three parks, but the most visited 
national park by far in America is the Great Smokeys. For us to 
be spending three times as much and two times as much and one 
and a half times as much on other grand parks as we do on the 
Smokeys does not seem right to me or the people in Tennessee 
and North Carolina that I represent.
    Secretary Kempthorne. Senator, you represent an absolutely 
beautiful part of the country. The Great Smokeys, I believe, 
has the highest visitorship of any of our national parks.
    Senator Alexander. Twice as much.
    Secretary Kempthorne. In the base budget for the Great 
Smokey Mountains, other than the Grand Tetons, it actually gets 
more than Grand Canyon, Yellowstone, and Yosemite, slightly 
more than Yosemite. These are the 2009 increases.
    Senator Alexander. Well, that might be increase. Madam 
Chairman, I know my time is up, but my information is--you can 
correct me--in fiscal year 2008, the Smokeys get $18.6 million; 
Grand Canyon, $21 million; Yellowstone, $33 million; Yosemite, 
$27 million, and that is before any of the fees.
    Secretary Kempthorne. Right. Being cognizant of that, that 
is why in the 2009 base we propose beginning to raise funds to 
the Great Smokeys.
    Senator Alexander. I thank you, and I hope that interest 
continues.
    Secretary Kempthorne. Thank you.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator. We will have more to 
comment on that later.
    Senator Cochran.
    Senator Cochran. Madam Chairman, thank you.

              HURRICANE KATRINA BARRIER ISLAND REBUILDING

    Mr. Secretary, Hurricane Katrina dealt a very serious blow 
to the State of Mississippi and other gulf coast States. Since 
that hurricane hit, we have seen no construction undertaken to 
replace structures, shaded areas in the Mississippi coastal 
area on the barrier islands and on previously very popular 
sites for sunbathing, fishing, and just access to the beautiful 
outdoors in that gulf coast area.
    It is my hope that someone can be designated by the 
Department to get with Governor Haley Barbour and try to map 
out a plan for restoration and repair and rebuilding an 
appropriate number of facilities that would restore that area 
to its previous popular vacation, boating, and fishing area. I 
do not have a specific suggestion, a dollar amount of money, 
but there is no request for funding in this budget from the 
Department, and I would hope we would look at it and see what 
you think would be a fair amount to designate for that purpose.
    Secretary Kempthorne. Senator Cochran, I appreciate that 
you have identified that. I have had conversations with 
Governor Barbour. One of the things, too, that we are working 
with the U.S. Geological Survey on is to get what had been the 
footprint of the barrier islands in 1917, which is our 
baseline, because there has been a dramatic, as you know, loss 
of much of those barrier islands. That would be part of this 
whole restructuring.
    Senator Cochran. Well, I appreciate the fact that you are 
aware of the challenge we face there, and we look forward to 
working with you. We will be glad to help, through the 
appropriations process, provide the funds that we agree ought 
to be spent there.

                             HERITAGE AREAS

    One other issue I wanted to raise was the National Park 
Service's National Heritage Program. This is a program to 
identify areas where Federal funds could be used to protect, 
restore, enhance the appreciation within the National Park 
Service of sites that are important to preserve and protect for 
the benefit of future generations. I had introduced legislation 
specifically creating two heritage areas in our part of the 
country, but there is nobody at the Department we have been 
able to talk with or find to be interested in working with us.
    I would like to ask you to see if there could be some 
administrative staff of the Department designated or given the 
responsibility of helping us with this program, at least 
discussing what we could use and what would be consistent with 
the administration's policy on the National Heritage Area 
program.
    We had hoped that we would have more money. Instead of 
more, we are getting a decrease of $8 million from last year's 
enacted level, and that is a problem as far as we are 
concerned. We do not think we are going to see any progress at 
all made if we do not appropriate some money.
    Secretary Kempthorne. Senator Cochran, as you stated, the 
administration's process, is to do an analysis, a survey, and a 
study. We would be happy to work with you on that.
    Senator Cochran. Thank you very much.
    Secretary Kempthorne. Yes.
    Senator Cochran. Thanks, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Cochran.
    Senator Stevens.
    Senator Stevens. Thank you, Madam Chairman.
    Good morning, Mr. Secretary.
    Secretary Kempthorne. Good morning.

                             MARINE MAMMALS

    Senator Stevens. I am a little disturbed about the 
reduction in funding for the marine mammals program off our 
coast. For instance, there is a reduction in the monitoring of 
walrus along the Chukchi Sea coast. Yet, we have an enormous 
proposal out there to start producing oil and gas, which we 
support. But I do not know why we would reduce, actually 
eliminate, funding for the Pacific walrus.
    Can you tell us why that happened?
    Secretary Kempthorne. Senator, there is a reduction in the 
Fish and Wildlife, but the Minerals Management Service 
continues a study and then NOAA is also doing a study on the 
mammals in that area.
    Senator Stevens. All right. Well, I will check with NOAA 
then to make sure that is the case.

                            REVENUE SHARING

    I am concerned that as we go forward now with the Chukchi 
Sea development, that Alaska has not received the same type of 
revenue sharing as other coastal States have. We have provided 
revenue sharing for Florida even for Lease Sale 181 that is 
140-150 miles off their shore. We have got revenue sharing for 
Louisiana and Texas, and Alaska has two-thirds of the outer 
continental shelf of the United States and no development 
primarily because there continues to be opposition since there 
is no funding that would come to the State from development off 
our shores.
    Can the Department change its position on revenue sharing? 
It seems to me if we had revenue sharing, we would have a 
greater support base from Alaskans for development off our 
shores.
    Secretary Kempthorne. Senator Stevens, I think it is a 
sound concept, which you have identified. With the revenue 
sharing that currently takes place in the Gulf Coast, I think 
that continues to incentivize the States. As you know, in the 
5-year plan, we have now included the State of Virginia. I 
think absent revenue sharing, I do not know that Virginia will 
pursue offshore development, but with revenue sharing, I think 
it does provide a great incentive. I think it also, as Senator 
Alexander has pointed out, is an opportunity for funds that can 
be directed toward the Land and Water Conservation Fund.
    Senator Stevens. We would be pleased to have some direction 
over the funds, and I personally would like to see part of it 
directed--the State's share of revenue sharing be directed to 
indigenous people along the coast who face the greatest risk 
and really need funds. If you are not going to manage the 
walrus and keep track of the walrus, they would. They certainly 
would keep track of all the mammals since they depend on them 
so heavily.
    But I would hope that you speak up as a member of the 
cabinet for revenue sharing for the State of Alaska. I do not 
think you are going to have oil and gas development off our 
shores until we get it. Frankly, there are so many people up 
there opposed to oil and gas development, with the risks 
involved and based upon their memories of the Exxon Valdez 
spill, that it is just a built-in situation. Why go forward and 
have a risk unless there are some funds that are built up to 
help offset that risk?
    Secretary Kempthorne. I appreciate your point.

                              ENERGY COSTS

    Senator Stevens. I do not know how much time I have got, 
but I am really worried about the basic problem of keeping up 
with the increased cost of energy in our State. You know, we 
pay really substantially more than the rest of the United 
States for oil and gas and yet we produce substantial amounts 
of oil and gas. I really wonder somehow if there is not some 
way we can make the country understand and maybe some of the 
people at this table understand that the problem we have in the 
country, as we continue to import so much oil--and now I 
understand we are going to start importing natural gas. They 
told me last week 40 percent of our natural gas will come to us 
from offshore by 2013. Now, that is an enormous cost. At $100 a 
barrel, the 7 million barrels a day, day in and day out, 
sending money out of the country. That is what is causing the 
price of gasoline to go up. There is no investment in the 
United States in domestic resources.
    I see the President has an item in the budget for 
proceeding with ANWR. I really do not see much of a drive from 
the administration to fulfill that item in the budget. How are 
we going to get the support we need for development of 
alternative and renewable resources unless we have a cash flow 
from our own resources? Why has there not been more talk from 
the administration about this?
    Secretary Kempthorne. About ANWR in specific?
    Senator Stevens. Well, about the concept of domestic 
production.
    Secretary Kempthorne. Senator, I believe that in a variety 
of forums, it is discussed. I know that I discuss it. I know 
that Secretary Bodman, the Secretary of Energy, discusses it, 
and I know that it is discussed often at the White House.
    Senator Stevens. It is headlines today that Russia's 
production is declining and they are going to face a financial 
crisis because of it. Well, ours is gone and we face a 
financial crisis. I do not think anyone has connected our 
financial crisis here at home to the fact we are sending so 
much money out of the country to buy oil and gas we could 
produce.

                             ALASKA FUNDING

    I see my time is over. I do not want to speak beyond the 
time. I have questions here concerning the allocations to our 
State from the various functions here. From national parks, we 
have 51 million of the 78 million acres. Yet we get 2.4 percent 
of the budget. We have 76 million acres or 85 percent of the 
wildlife refuge lands. We get 8 percent of the budget. In terms 
of wildlife refuge lands, the overall concepts of the Federal 
lands, we have more than half of the Federal lands in every 
category and we have more than two-thirds of every category 
that are reserved Federal lands. Yet, we get less than 10 
percent of the money in every category.
    Why is that? Why do you allocate the budget based on 
population instead of acreage?
    Secretary Kempthorne. Well, I understand from your 
perspective why you would be concerned about that.
    Senator Stevens. My perspective. It is the people of the 
United States that go see those lands. They cannot get into 
them. There are no roads. There is no access. You have to fly 
into most of these places with a twin engine float plane. Do 
you know how many commercial twin engine float planes are left 
in my State? Three. There is no access. With the increased cost 
of flying, it is going to disappear entirely. I do not 
understand it. I think you have got to find a way to start 
working out ground access to all of this land that has been 
reserved for the public, but the public cannot get there.
    You are a great friend. I hate to speak that way to you.
    Secretary Kempthorne. That is all right. I have gotten used 
to it.
    Senator Feinstein. I did before.
    Senator Stevens. Well, I do speak that way, but I do not 
lose friendships, I hope.
    Thank you.

                                REVENUES

    Secretary Kempthorne. Senator, if I could just respond to 
that. When you consider the last sale that we had--and I 
believe it was Sale 206 in the gulf coast last month--it 
brought in record bonus bids, the highest ever in United States 
history. The Chukchi Sea, which we went forward with, which OMB 
had scored at $68 million, we actually brought in $2.66 
billion. The 205 back down in the gulf coast, we brought in 
over $9 billion in the last 6 months, moving us toward further 
energy development.
    The concerns which Senator Allard has raised about the 
Roan, but we believe that there are tremendous oil resources 
there.
    In the State of New Mexico, we believe that there--excuse 
me, North Dakota. We believe that there are tremendous 
resources.
    Part of it is we are being criticized by the pace by which 
we are proceeding with this, but we are using technology that 
has been learned from offshore oil and gas drilling. Now, 
onshore what traditionally used to be 10 acres for a wellhead, 
we are now down to a footprint of half an acre. We have learned 
from Alaska the use of ice roads so that in the spring, when 
the ice disappears, there is no footprint on the land in 
getting out to those wellheads. We are now doing the same thing 
with wooden pallets as roads onshore and then removing those 
wooden pallets once the construction is done. There has been no 
disturbance. We really are, I believe, moving as aggressively 
as we can on oil and gas development because of both our 
national security, our energy security, and our economic 
security.
    Senator Stevens. Well, our State alone can produce more oil 
than Iraq, and we spent a hell of a lot of money to protect the 
oil in Iraq, but none to make our oil available from Alaska.
    Senator Feinstein. Thank you very much, Senator. Senator 
Dorgan.
    Senator Dorgan. Mr. Secretary, thank you very much for 
being here.
    Secretary Kempthorne. Thank you.

                              BAKKEN SHALE

    Senator Dorgan. Last Thursday, we announced the USGS 
assessment of 3.6 billion barrels of recoverable oil in the 
Bakken shale formation. Some of us have worked to open up Lease 
181. We got less of that opened up than we should. The greatest 
resource in the outer continental shelf is in the Gulf of 
Mexico first, California second, and Alaska third. We do need 
to do more production, and I have legislation to open up more 
of Lease 181.
    But, Mr. Secretary, let me ask you. You and I talked some a 
while ago. I am going to ask you about some Indian issues.

                           DETENTION CENTERS

    There is an Indian jails report that you paid for by 
Shubnum Consulting. It is done, and I cannot get it. I called 
you about it, and the BIA says it is not available. We had 
testimony in the Congress last year, almost a year ago now, 
saying that it was going to be available in a matter of a month 
or 2. Then they said Christmas. Yet, the taxpayers have paid 
for that. If it is available, I want to see it. Have you been 
able to check on that and tell me why we are not able to access 
it?
    Secretary Kempthorne. Yes. Senator Dorgan, as late as 
yesterday, I have checked on this. The report, while it is 
bound, and it looks like it is a final report--there are still 
questions that are now being answered and added to this report.
    Also, it is a snapshot of the situation, but it does not 
have an implementation plan. It does not have what is the next 
step. What should we be doing in 2009, 2010, and 2011? That is 
what they are working now to identify. What does this mean, and 
therefore, what can we bring to Congress and say, here is the 
game plan.
    Senator Dorgan. But, Mr. Secretary, I think the Indian 
jails are in desperate condition, and I think this report 
probably is going to upset somebody. But if there is not a 
follow-on plan with it, why was that not part of the consulting 
contract?
    Whatever the consulting contract is and has been paid for, 
why not share it with this committee, with the Indian Affairs 
Committee? I mean, we are in the process of trying to evaluate 
what kind of resources we should allocate to Indian jails. Yet, 
I am told by the head of the BIA and you and others, well, this 
is kind of done, but for whatever reasons, we cannot see it. We 
paid for it. I would like to see it, Mr. Secretary.
    Secretary Kempthorne. Yes.
    Senator Dorgan. I would like to see it soon.
    Secretary Kempthorne. Senator, again, I will send a team up 
here.
    Senator Dorgan. Just send the report up. I forget what 
Senator Stevens said. You are a great friend of mine. But you 
know, you sent people up before. I do not want people. I want 
the report. We paid for the report, and you have it. The BIA 
and the Department of the Interior, I think, should give it to 
us. So I will wait by the mailbox for the next several days.
    Senator Feinstein. Bring your lunch.
    Senator Dorgan. We are great friends. I think he is going 
to send it this week.

                    UNITED TRIBES TECHNICAL COLLEGE

    Mr. Secretary, let me ask you a question about what is 
judged to be one of the finest Indian schools in the country. 
The United Tribes Technical College serves Indians from about 
34 States, and it has been authorized by the Congress. It has 
always been funded up until this administration took office, 
and then it fell out of the budget. I remain disappointed by 
that again this year. I mean, it is zero funding for that 
college. It is judged to be one of the really terrific Indian 
colleges in the country.
    I know you cannot do much about that. This goes to OMB, and 
they do their grading or whatever they do with budgets. Then 
they send it up to the White House, and then it gets some 
cosmetics and is sent down here. Everybody says how beautiful 
it is, at least to those that sent it.
    But I really think that zeroing out funding for the United 
Tribes Technical College makes very little sense. I mean, I 
feel the same way about the Johnson-O'Malley program, which is 
so important to Indian children across the country. So I 
understand that you have to come up here.
    The last time we had a fellow named Mike Parker come up to 
the Hill, and in a fit of uncommon candor, when asked by 
Senator Bond in another appropriations subcommittee, do you not 
think these programs are underfunded, the former Congressman 
Mike Parker said, yes, I do. I think that they are underfunded. 
The next morning he was fired. So I understand the answer you 
must give me at this point.
    But I do not want the moment to pass without telling you 
that we will almost certainly fund this tribal college. We are 
going to try to do everything we can to improve the situation 
of the tribal jails and other things. But I do regret that 
somehow in this budget process the priorities get somewhat 
skewed with those issues.
    Secretary Kempthorne. Yes. If I may, Senator Dorgan. You 
have been a champion for Indian country. I acknowledge that. 
You are a pleasure to work with.
    You and Senator McCain, a little over a year ago, when I 
met with you, asked if we would come forward with an 
administration number to try to settle the Cobell case. As you 
know, that was difficult, but we, at least for the first time 
ever, came forward with a number, which was $7 billion, in 
response to you.
    You mentioned the Johnson-O'Malley. There is also the 
tribal technical colleges program. There is the housing 
program. Johnson-O'Malley--we believe there is a funding source 
in the Department of Education that will cover that.
    We believe that on the housing, it would help 200 families, 
but that there is a program in HUD identified that would help 
them. We have made a real effort with regard to the classrooms 
of the schools, and that is why that plus-up, which you made, 
we have retained and added to that. It is $27 million to help 
in the classroom so that these kids are ready for higher 
education.
    The methamphetamine. Indian leaders say this is the second 
smallpox epidemic to hit Indian country, and so that is why we 
have made it a priority.
    We truly are addressing, with limited resources, but Indian 
country is critical. Of our four initiatives in 2008, two of 
them were for Indian country because I too believe in our role 
to help the Indians.
    Senator Dorgan. Madam Chairman, in just 30 seconds, let me 
just say this, however, about the United Tribes Technical 
College. It is a great disappointment to see, once again, zero 
funding for it because it is judged to be a remarkable and an 
effective institution that all of us should celebrate. All of 
us ought to say this is a great place. They are graduating and 
giving opportunities to so many young men and women. So my hope 
is this is the last year where we will have this complaint, and 
this wonderful school will receive the funding Congress has 
always insisted upon providing this school.
    I have overstayed my welcome here.

                              2009 BUDGET

    Senator Feinstein. No, you have not. Thank you. I think 
members of this committee agree with you. I think this is an 
unacceptable budget. I think it is going to receive change, and 
I think that we are going to work our will on this budget. So 
thank you.
    I just want to take this opportunity, because I know you 
have to leave. We will try to get as many people in as we 
possibly can. I think most people do not realize that now in 
the end of 2008, 72 percent of the monies spent went for 
entitlements and interest on the debt. Seventy-two percent. 
Twenty percent went for defense, and everything else was 18 
percent of the money that was spent.
    Now, in many respects, Mr. Secretary, you have the crown 
jewels of this country, the beauty of our parks, our 
wilderness, all of the things that people love to go to, care 
about that makes this country particularly great. My feeling is 
that people do want to spend the money that is necessary to 
protect those things.
    But we have to come to grips clearly. I hear candidates 
saying, oh, you know, I will cut all discretionary spending. 
Well, only 18 percent of what is spent is discretionary. 
Defense really is not. Ergo, you can cut 18 percent of 
everything and not solve the budget problem that this Nation 
faces. So we have got to come to grips with it.
    A quick question, if I might.
    Secretary Kempthorne. Madam Chairman, for those who wish to 
remain, I am happy to respond to your questions.
    Senator Feinstein. We can take some additional time?
    Secretary Kempthorne. Absolutely.
    Senator Feinstein. All right. Excellent.

                  MMS INFORMATION TECHNOLOGY INCREASE

    Oil and gas royalties. In the 2008 appropriation, we 
provided $2.3 million for systems improvements, and that is the 
recommendations of Kerrey-Garn, the Mineral Revenue Committee. 
Your 2009 request includes increases of $3.7 million to 
continue these ongoing enhancements and develop a risk-based 
automated compliance tool for use.
    My question to you is, does this $3.7 million complete it? 
Will it be functioning? Because $6 million seems to me is an 
awful lot of money to spend for this.
    Secretary Kempthorne. Madam Chairman, can I get back to you 
with a response on that?
    Senator Feinstein. Sure. Would you please do it before we 
do the budget, though?
    [The information follows:]
        Minerals Management Service--Minerals Revenue Management
    The Department's fiscal year 2008 and 2009 requests for MRM 
encompassed not only a risk-based compliance tool, but three additional 
system components and 8 additional FTE as summarized in the table and 
the bullets below.

----------------------------------------------------------------------------------------------------------------
Fiscal                                                            FTE                      System       Total
 year                        Initiative                         request     FTE amount     amount      request
----------------------------------------------------------------------------------------------------------------
 2008Adjustment Line Monitoring                                       4     $520,000     $420,000     $940,000
 2008Interactive Payment Reconciliation and Billing         ...........  ...........    1,450,000    1,450,000
 2009Implement OIG Compliance and Audit Recommendations               4      480,000    1,520,000    2,000,000
      including a risk-based compliance tool
 2009Improve Automated Interest Billing to Companies        ...........  ...........    1,700,000    1,700,000
                                                           -----------------------------------------------------
           2008-2009 Total                                            8    1,000,000    5,090,000    6,090,000
----------------------------------------------------------------------------------------------------------------

    In relation to the requested ongoing enhancements, the Minerals 
Revenue Management Support System (MRMSS) was designed and implemented 
between 1998 and 2001; therefore some of its design elements and 
underlying technology are approaching a decade old. Spending $5 million 
over a 2-year period on system enhancements to a major integrated 
financial system is not out of line with government and industry 
benchmarks.
    The enhancement initiatives requested for 2008 and 2009 address 
three areas of system improvement:
    1. Technology enhancements that were not yet mature or economically 
feasible in the late 1990's.
  --Interactive Payment Reconciliation and Billing Initiative.--These 
        system improvements will automate MMS's interface with its 
        customer base on numerous activities, and enhance online 
        reporting and verification capabilities, as well as enforcement 
        efforts. The funding will address an area of concern in the 
        Bureau's financial audit, as well as provide a strong return on 
        investment.
  --Improved Automated Interest Billing to Companies Initiative.--This 
        initiative continues MRM's commitment begun in 2007 and 2008 to 
        improve the timeliness and efficiency of the interest 
        assessment to payors by implementing system enhancements to the 
        MRMSS interest module.
    2. Implementation of new legislation that was not an initial 
priority in the design of the new system in the late 1990's.
  --Adjustment Line Monitoring Initiative.--The requested systems 
        improvements and staff to perform this function are required to 
        ensure company adjustments are made only within allowable time 
        frames.
    3. Address new mission requirements and recommendations.
  --Implement OIG Compliance and Audit Recommendations Initiative.--
        This proposal ensures MRM's ability to address recommendations 
        by the OIG in its December 2006 report regarding MRM's 
        Compliance Review activities. The requested funding will allow 
        MMS to increase the audit staff by 4 FTE, to expand company and 
        property compliance coverage, and to develop and implement a 
        risk-based automated compliance tool for use in targeting audit 
        and compliance resources.
    MMS expects that the funding requested for these improvements will 
be sufficient to ensure full functionality and complete these 
initiatives.

                         ROYALTY POLICY REPORT

    Secretary Kempthorne. Yes. May I add? You mentioned the 
Garn-Kerrey report. They made 110 recommendations to us, and 19 
have been implemented. We are now moving on a large number of 
others. Twenty-two of those 110 mirrored what the Inspector 
General had recommended. I think out of all of that, there will 
be three that we will have to come and ask for legislative 
help, but we are moving because it was a very fine report by 
former members of this institution and other talented people 
who work with them. I think it really has helped us.
    Senator Feinstein. Thank you.

                              POLAR BEARS

    One other quick question. Is the polar bear on its way to a 
finding of endangerment?
    Secretary Kempthorne. I cannot answer that. I will tell you 
that we are proceeding with a decision on the issue of the 
polar bear. I will tell you, Madam Chairman, that January 2007 
the Fish and Wildlife Service issued a proposed listing with 
regard to the polar bear. I asked the U.S. Geological Survey 
then to take a significant portion of that and examine the 
science. They came back with nine different reports, all peer-
reviewed. We knew then, upon receipt of this new science and 
data by USGS, that it was going to cause us to have to take 
additional time. We knew that at that point.
    We also felt it was incumbent upon us, based on this data 
from USGS, to now reopen the public comments and even to extend 
that. We have 670,000 comments that we have received. It is a 
tremendously critical, important issue. I want to ensure that 
we do it properly with the right science and the right legal 
input.
    Senator Feinstein. So what you are saying is the decision 
will likely be made by the next administration.
    Secretary Kempthorne. No.
    Senator Feinstein. No, you are not.
    Secretary Kempthorne. No.
    Senator Feinstein. So the decision will be made this year.
    Secretary Kempthorne. Yes.
    Senator Feinstein. Thank you very much.
    Secretary Kempthorne. Absolutely.
    Senator Feinstein. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Madam Chairman. Just a couple 
things I want to follow up on.

                         CANYON OF THE ANCIENTS

    Also in the Canyon of the Ancients down in southwestern 
Colorado, there is a draft resource management plan that was 
kicked out. It is a national monument. There is a resource 
management plan that has been kicked out. It seemed to 
deemphasize the importance of oil and gas development on the 
management plan. There are a lot of cultural resources down 
there, and I support that. But my impression is with the 
current technology we have and everything, that we can 
accommodate both without injuring the other.
    The question I have is, does the BLM have an obligation to 
ensure that oil and gas exploration can coexist with culturally 
rich areas?
    Secretary Kempthorne. Senator, I do not believe that they 
are by their very nature mutually exclusive. They have to be 
done with all sensitivity. We have to find the balance so that 
we do not overlook our responsibility with regard to the 
cultural and historic values.
    Senator Allard. That is a very sensitive area on the 
cultural.
    Secretary Kempthorne. Yes. It has to be done carefully, but 
our attitude is to find the means that you can do it. That is 
why, as I have said earlier, you have world-class habitat 
sitting right above world-class energy resources. They are not 
mutually exclusive, but you have to do it holistically. You 
have to find the sensitive balance to this.

                              ROAN PLATEAU

    Senator Allard. I would like to go back to the Roan Plateau 
again. These are parochial issues. We have a lot of oil and gas 
development in Colorado, as you are aware, because we have huge 
reserves there.
    There is an estimate of about 8.9 trillion cubic feet of 
natural gas within the area known as the Roan Plateau, and 
obviously, with that much reserve, it would play a vital role 
in our country's energy security and being less dependent on 
foreign oil.
    Now, it is my understanding that the resource management 
plan for this area, which was released by the BLM in 2006, is 
the most restrictive in the agency's history. I appreciate what 
your Department, specifically Steven Allred, has done in 
working with the Governor of Colorado and other existing 
parties on this management plan.
    Now, two of the most unusual parts of the plan is the 
surface occupancy restrictions and the unitized operator 
approach. Now, under the BLM plan, the surface occupancy on top 
of the plateau would be limited to 1 percent at any one time.
    Secretary Kempthorne. Correct.
    Senator Allard. Which means that about 350 acres can be 
disturbed, and before you can disturb any more, you have to 
reclaim all that, which seems reasonable to me.
    Now, it is my understanding the Governor's primary 
outstanding concern is the request for phased leasing rather 
than selling all the leases at once as the Department plans to 
do.
    Can you tell me why the Department decided against the 
approach of phased leasing?
    Secretary Kempthorne. Senator, the thoughts of the BLM are 
that the phased leasing would lead to a greater disturbance on 
the surface. Again, the objective is to keep the disturbance to 
a minimum.
    Senator Allard. Can you tell me whether you feel this would 
have any effect on the length of the process to develop the 
Roan management plateau plan and what kind of time line you 
might have on that in your plans?
    Secretary Kempthorne. On a time line, really, I would 
rather get back to you with a very accurate, detailed response 
on that.
    [The information follows:]
                Bureau of Land Management--Roan Plateau
    The Department does not recommend phased leasing to develop the 
Roan Plateau.
    Under the BLM's plan for phased development all leaseholders 
participate in a single federal unit and there are strong incentives 
for minimizing disturbance and reclaiming lands more quickly and 
efficiently. The sooner one phase is developed and reclaimed, for 
instance, the sooner the next phase can begin. All leaseholders have a 
financial stake in this profit-sharing Federal unit. Under the phased 
leasing approach, the financial incentive to ensure timely 
development--and especially reclamation--is not nearly as strong. 
Because each lease is issued competitively, the lessee may not be a 
part of the profits in the next ``phase.'' The phased leasing approach 
provides no incentive in this instance for minimizing disturbance or 
hastening reclamation efforts. Phased leasing and reclamation standards 
would significantly extend the timeframe for leasing the Roan Plateau.

    Senator Allard. Well, that is fine. You have worked a lot 
with local governments and local governments have been having 
their input in there. The State has had input working with the 
BLM, and we all appreciate the fact that everybody has worked 
together on that.

                       COLORADO OIL AND GAS RULES

    Now, there has been some discussion about the new draft 
rules regulating oil and gas development in Colorado which has 
been proposed by the Oil and Gas Conservation Commission. Have 
you had a chance to review the proposed rules? If you have, can 
you share with the subcommittee some of the rules and how they 
would affect your Federal activities?
    Secretary Kempthorne. What I would ask you is if I could 
have Steve Allred provide an evaluation of that.
    Senator Allard. Okay, very good. We will have some 
questions on that when you get a chance to follow up on it.
    Senator Feinstein. Thank you. Excuse me, Senator.
    Senator Allard. Go ahead. My time is expired.
    Senator Feinstein. If you have another question, go ahead.

                       NATIONAL PARKS CENTENNIAL

    Senator Allard. Just one thing briefly, if I might. We 
provided you with $25 million in the matching grant funds for 
the centennial initiative.
    Secretary Kempthorne. Yes.
    Senator Allard. You will be announcing those awards 
shortly. However, the legislation you sent up last year to the 
authorizing committee, which would set up the annual $100 
million mandatory matching grant fund for the centennial, has 
not been acted upon.
    Can you tell us where this legislation stands?
    Secretary Kempthorne. Yes. We now have legislation that has 
been introduced both in the House and in the Senate. In the 
House, the issue thus far has been the offset. There seems to 
be bipartisan agreement on the concept, but it is what is the 
offset for the $100 million mandatory spending each year 
leading up to 2016. There have been five different proposals 
that have been placed on the table. For a variety of reasons, 
there has not been consensus on any of the five.
    Senator Allard. You are continuing to pursue this 
vigorously with the authorizing committee?
    Secretary Kempthorne. Yes, we are.
    Senator Allard. Because it is important because if we have 
a limited amount of resources here and then they need to pick 
up their burden on this.
    Secretary Kempthorne. I agree. We are very actively working 
with both Members in the Senate and in the House and also 
actively having discussions with OMB.
    Senator Allard. Oh, good.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much.
    Senator Craig, you have another question?

                      SAFE BORDERLANDS INITIATIVE

    Senator Craig. One last question, Madam Chair, because I 
know the Secretary, from his very first days in office, 
expressed frustration. It is a commonality that you and I share 
and have worked very closely on, Madam Chair, as it relates to 
providing a legal foreign national workforce for our country. 
In fact, the chairman and I are now engaged in trying to save 
American agriculture's workforce that is dramatically 
diminishing, in part because of our successes along the border 
and effective enforcement.
    You have added to your budget about $8.2 million for 2009 
as it relates to the DOI's management of the 793 miles of 
southern border. Would you visit us with that issue a little 
bit about the safe borderlands initiative that you are working 
on and where we are with that?
    Secretary Kempthorne. Yes, thank you.
    With regard to the border security, as the country has 
become more successful and effective at closing illegal 
crossings of drugs and individuals at the urban centers, it has 
caused them to go to the remote areas, and that is where our 
properties come into play. We work closely with the Department 
of Homeland Security. There are significant areas along the 
border that are not safe for American families to visit, to 
spend an overnight camping opportunity because of the drug 
smuggling that is taking place by the national drug cartels. So 
as the efforts continue that include personnel, that include 
radio interoperability, and that include the fencing, it will 
help us to then have a safe border that meets the 
responsibility and the goals of this country.
    Senator Craig. Well, I thank you for that.
    Madam Chair, I had the Mexican Government in last week to 
talk about the joint initiative between the United States and 
Mexico in relation to drug apprehension. The Ambassador made 
the most stark statement that sticks in my mind. They 
apprehended a fellow who was a major sourcer of the input of 
meth, the product coming out of China, interestingly enough, 
coming through a major port in California and then moving 
through to Mexico to be processed. They discovered in one room 
in this apprehension $210 million in $100 bills that this one 
man had stacked up in a room. In fact, it was a room, they 
said, about the size of my office at the time and it was 
stacked about 5 feet deep. That was sourced out of China 
through a California port into Mexico to be processed and back 
into the United States. I know our Presidents are working on 
that initiative now.
    Senator Feinstein. If you would excuse me just for a moment 
because I did this precursor chemical bill, and I have got to 
take a look at exactly what that is because those precursors, 
even in transit should not be coming in.
    Senator Craig. You are right. They should not be and there 
is every effort to stop it. But that was a pretty stark reality 
of the phenomenal organizational effort and the money involved 
in this.
    We have got Organ Pipe I think is one of the areas that you 
talked about where it is no longer safe for the citizen to be 
even out on our national lands. So I appreciate the effort 
underway here by BLM and the Park Service as a part of the 
total.
    Senator Feinstein. This was a congressional add that we 
added.
    Senator Craig. Yes, that is right.
    Senator Feinstein. This was an earmark.
    Senator Craig. It is now an initiative. It is a good idea.
    Secretary Kempthorne. I love your initiatives.

                            U.S. PARK POLICE

    Senator Feinstein. In any event, you wanted to speak about 
the Park Police.
    Secretary Kempthorne. I would like to, Madam Chairman, just 
very briefly. This is an organization that goes back to 1791. 
The officers, the men and women, that proudly carry the badge 
of the U.S. Park Police are not properly reflected in some of 
these items that have been brought to our attention, management 
issues. It is management issues. It is not the officers. With 
regard to the issue of qualifications of weapons, the safety 
equipment such as their Kevlar vests, we now are correcting 
that, and we put an urgency on that.
    Senator Feinstein. San Francisco and----
    Secretary Kempthorne. Absolutely.
    Also, though, Madam Chairman, I would just say that when 
you add all of the law enforcement that we have within the 
Department of the Interior, we are the third largest law 
enforcement entity in the Federal Government. I am using the 
information from the Inspector General to go across the entire 
Department with regard to qualifications, safety equipment, 
interoperability of equipment.
    I will have a meeting this month with my assistant 
secretaries, the bureau directors and the chiefs of our 
respective law enforcement entities so that they know this is a 
priority. It is not lip service. These officers deserve our 
full support and backing.
    Senator Feinstein. We certainly will support them any way 
we can.
    Let me make one other point about drug money in your 
budget.
    Secretary Kempthorne. Yes.

                           MARIJUANA IN PARKS

    Senator Feinstein. You know, I met with DEA, FBI, everybody 
that was working on marijuana in the parks. I think we put 
what? $18 million. Oh, we did it in the Forest Service.
    Secretary Kempthorne. Yes.
    Senator Feinstein. But Interior is also part of that.
    It is really very important that these surges continue and 
that you clean out the parks because California parks are 
riddled with marijuana growth, and it is run directly by 
Mexican cartels and foreign nationals. They carry weapons and 
it is very problematic. I will not get into your weapons 
policy, but as you know, I really worry about people walking 
into these parks with weapons and you have got cartels with 
weapons and what might happen. So you need to help clear the 
parks out.
    Secretary Kempthorne. I agree with you, Madam Chairman. As 
you have identified, we have used the surge of BLM, National 
Park Service, BIA, and Fish and Wildlife Service in a concerted 
effort going into these areas. We have been successful. We 
appreciate your help on that.
    You are correct. Those that are tending these gardens have 
been told that they are to defend those gardens with their 
life. It is all being driven by the national drug cartels. Some 
of those individuals, it is our understanding, that are tending 
those gardens are themselves----
    Senator Feinstein. It is more than gardens. Gardens means 
small. These sometimes are huge.
    Secretary Kempthorne. Plats.
    Senator Feinstein. Yes, with millions of plants.
    Secretary Kempthorne. But under threat that if they do not 
defend it with their life, members of their family, their 
children, will be executed back in Mexico. We are dealing with 
ruthless, ruthless thugs that are peddling this poison.
    That is why both in the Indian initiative, Safe Indian 
Communities, the Border Patrol--you mentioned Senator Craig 
Organ Pipe. We estimate that $1 million a day of illegal drugs 
are going through that national park. That is where Chris 
Eggle, one of our law enforcement rangers, was shot down and 
killed in 2005. We cannot send our staff to carry out normal 
functions in these refuges, parks, and Bureau of Land 
Management and reservations without two armed officers with 
them. That is how tough this area is.
    Senator Feinstein. Well, I tell you, we will put in what 
you need.
    Secretary Kempthorne. That is greatly appreciated.
    Senator Feinstein. So, I mean, forget OMB. I mean, we are 
not going to see our parks get loaded with drugs. That is just 
the way it is going to be. If they want to come up and arm 
wrestle us, so be it.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will leave the record open for questions from other 
committee members.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Ben Nelson

    Question. Last year, unfortunately the Landowner Incentive Program 
was eliminated. As you know the focus of this program was to help 
landowners become involved in species conservation on their lands. 
While eliminated, the committee did direct the Department to work with 
the States to develop a new grant program as part of State and Tribal 
Wildlife Grants that would direct funding to species conservation 
projects on private lands.
    Excerpt from the fiscal year 2008 Interior Appropriations report 
110-91 as adopted by the Senate Appropriations Committee and carried as 
part of the fiscal year 2008 Consolidated Appropriations Act:
    In fiscal year 2008, the Committee accepted the Department's 
decision to discontinue the private stewardship and landowner incentive 
grants programs but recognizes the need for species conservation 
efforts on private lands to continue. The Committee urges the Service 
to work with the States to develop a new subset of funding under the 
State and tribal wildlife grant program that can direct grants toward 
species conservation projects on private lands. The Committee is 
receptive to ideas from the Service and the States on how best to 
accomplish the goal of continued Federal support for conservation on 
private lands within the framework of the State and tribal wildlife 
grant program
    Question. What has the Fish and Wildlife Service thus far 
accomplished with respect to creating this new subset of funding for 
directed grants toward species conservation projects on private lands?
    Answer. The Service is currently working with States to review 
draft criteria for a competitive program developed as a subset of 
funding under the State and Tribal Wildlife Grants program. The grants 
will be awarded to the highest ranking cooperative conservation 
projects that are in State Wildlife Conservation Plans. Priority will 
be given to cooperative conservation projects with an emphasis on 
performance and outcomes. At this time, one of several proposed ranking 
criteria is directed at species conservation projects on private lands.
    Question. The Fish and Wildlife Service requested $74 million in 
their fiscal year 2009 budget request for State and Tribal Wildlife 
Grants. Of that amount, how much is going to be used for this new 
subset of grant funding for species conservation projects on private 
lands?
    Answer. Presently, there is no subset of State and Tribal Wildlife 
Grant funding being directed exclusively towards species conservation 
projects on private lands. However, such projects could be eligible for 
the State apportioned funding and possibly some of the competitive 
funding if identified as a strategy in the State's Wildlife Action 
Plan.
    Question. When do you anticipate this new grant program being 
implemented?
    Answer. The Service anticipates that the competitive program of the 
State and Tribal Wildlife Grant program, authorized in fiscal year 
2008, will be implemented by no later than September 30, 2008.
                                 ______
                                 

               Questions Submited by Senator Wayne Allard

                   NATIONAL PARK SERVICE/PARK POLICE

    Question. Recently, the Department's Inspector General (IG) did a 
report on the U.S. Park Police and found many disturbing problems. He 
found low morale, many key positions at headquarters are vacant, and 
the number of officers is at a 20 year low when the force is charged 
with many additional anti-terrorism responsibilities in the aftermath 
of September 11th.
    Can you update us on what you are doing in response to the IG's 
report?
    Answer. The Secretary of the Interior established a Management 
Oversight Team (MOT) to address the recommendations contained in the 
IG's report. The members of the MOT include Associate Deputy Secretary 
James Cason; Assistant Secretary for Fish, Wildlife and Parks, Lyle 
Laverty; and National Park Service Director Mary Bomar. These 
individuals are being assisted by Deputy Assistant Secretary for Law 
Enforcement, Security and Emergency Management, Larry Parkinson; 
Principal Deputy Assistant Secretary for Fish, Wildlife and Parks, 
David Verhey; and National Park Service Deputy Director, Dan Wenk. The 
MOT established a Command Management Team (CMT) to take responsibility 
for the daily operations of the United States Park Police and to 
finalize and implement an Action Plan to address 19 of the 20 
recommendations contained in the report. The MOT is responsible for 
addressing the 20th recommendation.
    Question. The CMT, led by Salvatore R. Lauro in the position of 
Acting Assistant Chief of Police, has been in place since March 3, 
2008. The CMT has been aggressively addressing the OIG recommendations, 
with priority being given to matters affecting officer safety, icon 
protection and staffing. The MOT meets weekly with the CMT to review 
progress and provide guidance. The MOT also provides the Secretary of 
the Interior with regular project updates.
    Can you assure the public that the many icons the Department is 
responsible for like the Statue of Liberty, Ellis Island, and the 
Washington Monument are adequately protected?
    Answer. In the aftermath of 9/11, as a result of increased emphasis 
on homeland security and icon protection, the U.S. Park Police (USPP) 
has reallocated its resources from some of its more routine and patrol 
enforcement activities to icon protection. The USPP have also employed 
a number of efforts to protect the icons while ensuring these national 
treasures remain open and accessible to the public, including utilizing 
USPP officers and security personnel to provide 360 degree coverage on 
a 24-hour basis at the Statue of Liberty and the three National Mall 
icons; constructed physical security barriers to prevent vehicle-borne 
threats; using Closed Circuit Television cameras to monitor activities 
within and around the Statue of Liberty and the three National Mall 
icons on a 24-hour basis; employing magnetometer and x-ray machines to 
screen visitors entering the Washington Monument; partnering with 
public and private research entities to test and evaluate emerging 
security technologies at the Statue of Liberty, where three screening 
facilities are utilized to screen all persons and packages traveling to 
Liberty Island and/or entering the Statue; employing USPP explosives 
detection canines to screen ferry boats transporting visitors, staff, 
and supplies to the Statue; maintaining a 150-yard maritime restricted 
security zone around the Statue (efforts are currently underway with 
the U.S. Coast Guard to expand this security zone in the waters between 
Liberty and Ellis Islands to further divert vessel traffic away from 
the Statue); and, assigning USPP officers or commissioned NPS rangers 
to the Washington Field Office FBI--Joint Terrorism Task Force (JTTF), 
the Washington Field Office FBI--Fairfax County Regional Intelligence 
Center, the Department of Homeland Security Operations Center, the New 
York Office FBI--JTTF, and the NYPD Counterterrorism Unit.
    Question. I see that your budget proposes a $7.6 million increase 
for the Park Police, will part of this be used to recruit new officers?
    Answer. In addition to the fixed costs request of $1,909,000 and 
$1,000,000 for Inaugural related activities the budget proposal for the 
USPP includes funding of $4.8 million to increase the number of sworn 
officers. Anticipating average attrition, this reoccurring funding will 
allow us to recruit, hire, train and equip a total of 630 officers by 
the end of 2009.
    Question. What do you believe is the necessary number of officers? 
When will you reach that level, and what will it cost?
    Answer. In December 2004, the Department completed a comprehensive 
review of the mission, priorities, and responsibilities of the Park 
Police. This effort was coordinated with the National Academy of Public 
Administration (NAPA), which undertook two major reviews of the Park 
Police. Using a methodology developed by NAPA, the Department assessed 
and prioritized each function performed by the Park Police--including 
monument security and all local law enforcement responsibilities--and 
concluded that a targeted staff of 639 sworn law enforcement officers 
was appropriate.
    If the $4.8 million increase requested in the 2009 President's 
Budget is appropriated, we anticipate approaching the 639 officers 
during fiscal year 2010.

               KERR MC GEE CASE/DEEPWATER OFFSHORE LEASES

    Question. We held a hearing earlier this year with the Assistant 
Secretary for Lands and Minerals, Steve Allred, about several issues 
relating to the Outer Continental Shelf (OCS) leasing program. I wonder 
if you might update us on a few things we discussed then. For example, 
last October, in the Kerr-McGee litigation, the district court held 
that price thresholds are not permitted in any leases under the 
Deepwater Royalty Relief Act.
    Can you tell us the status of this litigation?
    Answer. On December 21, 2007, the Department of Justice filed a 
timely notice of appeal with the Federal District Court to protect the 
interests of the United States in the Kerr-McGee litigation.
    Question. Given the Kerr McGee case, is there anything that the 
Department is doing or that it can do to encourage more companies to 
come to the table and pay royalties on the 1998-1999 leases that were 
issued by the Minerals Management Service without price thresholds?
    Answer. We remain open to discussing resolution of this issue with 
the companies that hold Deep Water Royalty Relief Act leases from sales 
held in 1998 and 1999. We do not believe that any additional lessees 
will agree to price thresholds until they see the outcome of the Kerr-
McGee case.
    Question. What is happening with respect to royalty collection from 
companies holding leases from 1996, 1997, and 2000? Have any of them 
indicated that they will not continue to pay?
    Answer. In a March 10, 2008 ``Dear Reporter'' letter to industry, 
MMS issued guidance regarding companies royalty payments in light of 
the October 30, 2007, decision of the United States District Court for 
the Western District of Louisiana in Kerr-McGee Oil & Gas Corp. v. 
Allred. Because the Kerr-McGee decision may be the subject of 
additional litigation, we advised all affected payors and lessees to 
make no adjustments regarding their prior or ongoing royalty payments 
until there is a final, non-appealable judgment entered in the case.
    Question. As you know, there have been legislative efforts to force 
the oil companies with these leases to renegotiate their contracts. You 
have had several recent sales in the Gulf of Mexico and in Alaska that 
have generated close to $3 billion each in bonus bids--would forcing 
companies to renegotiate jeopardize these revenues because the leasing 
program might be enjoined altogether?
    Answer. The most prominent effort to force companies to negotiate 
royalty payments involves barring companies that refuse to come to 
terms from participating in future lease sales. It certainly seems 
likely that these companies would sue the government to determine if 
this is a legal remedy or not. It is not unreasonable to expect that it 
could take several years to resolve this issue. If such a suit were to 
delay leasing for 3 years we estimate that the government would lose 
approximately $13 billion over a 10-year time period.
    Question. If the Kerr-McGee case is upheld on appeal, what is the 
potential loss to the Treasury?
    Answer. If Kerr-McGee is successful in their lawsuit, we estimate 
that the total royalties at stake could range from about $23 billion to 
$32 billion. Our original estimate, reported by GAO, was $60 billion. 
Since that time we have updated that work and have reported the updated 
estimates to Congress in 2007 in two installments.
    The first installment applied only to those DWRRA leases sold in 
1998 and 1999, and was reported in June 2007. This work indicates that 
the future royalty potential, as of January 1, 2007, from the 1998-1999 
DWRRA leases ranges from $5.3 billion to $7.8 billion.
    The second installment, reported in February 2008, applied only to 
those DWRRA leases sold in 1996, 1997, and 2000. This work indicates 
that the future royalty potential, as of October 1, 2007, from the 
1996, 1997, and 2000 DWRRA leases ranges from $15.7 billion to $21.2 
billion.
    Looking backward, as of the end of fiscal year 2007, we estimate 
that $1.37 billion would have been paid on DWRRA leases issued in 1998 
and 1999 had price thresholds been in place. In addition, over $1.1 
billion in royalties have already been paid on DWRRA leases issued in 
1996, 1997, and 2000.
    Question. Do you have any recommendations for what Congress should 
do if the government loses the case on appeal?
    Answer. The legislation to address this situation that was passed 
by the House had a high potential for causing litigation by modifying 
existing contracts. We believe that efforts to recoup these moneys 
should not jeopardize our nation's energy security or the future 
revenues from upcoming OCS sales.
    Applying fixes that could result in litigation could easily cost 
the United States billions over the next decade and result in reduced 
annual production levels. We still remain committed to the sanctity of 
our contracts; companies need to know that the United States negotiates 
in good faith. We are also still committed to working with Congress to 
try to resolve this issue as long as any effort to recoup royalties is 
fully thought through and protects the integrity of the government and 
energy security for the American people.

                 ADMINISTRATIVE FEES ON ONSHORE LEASES

    Question. The fiscal year 2008 Interior bill authorized the Bureau 
of Land Management to charge a fee this year of $4,000 on Applications 
for Permits to Drill. It is my understanding that the Administration is 
proposing an amendment to the Energy Policy Act of 2005 that would 
authorize the Department to issue a rule making these fees permanent 
and also to raise them. This concerns me if it creates a disincentive 
for increased domestic production and does not take into account 
differences in the costs of production in different States.
    In Colorado, the costs of production are very high. Will this rule 
take into account the differences among the States in terms of the cost 
of production when setting fees?
    Answer. At this time, we do not anticipate the rule taking into 
account the differences among the States in terms of the cost of 
production when setting the fee. The proposal is for a cost recovery 
fee that takes into account the BLM's cost to process an application 
for permit to drill (APD). If it is determined that the costs for 
processing an APD vary from State to State, then the final cost 
recovery fee may, likewise, vary from State to State. The proposed 
interim fee represents a very small fraction of the development and 
production costs for any new well.
    Question. Won't charging higher fees upfront to process these 
applications hurt smaller producers?
    Answer. No. The proposed fee represents a very small fraction of 
the development and production costs for any new well, so the effect of 
the fee on small producers should be negligible. The fee may cause all 
operators to be more prudent when applying for drilling permits, so 
that they only apply for permits for those wells that they actually 
intend to drill.
    Question. How long will it take the BLM to issue this rulemaking?
    Answer. At the latest, we expect to release the final rulemaking by 
the end of calendar year 2009. To avert any shortfall in funding for 
APD processing, in the event that the cost recovery rulemaking has not 
been implemented for all of fiscal year 2009, the legislation submitted 
by the Administration will impose, by statute, an interim fee of 
$4,150, to ensure the estimated $34.0 million in fees are collected.
    Question. How much in fees does the agency plan to collect if it is 
implemented?
    Answer. As noted in the preceding response, we estimate that we 
will collect $34 million in fiscal year 2009, either solely through 
cost recoveries, or through some combination of cost recoveries and a 
statutory interim processing fee.

               BLM/NATIONAL LANDSCAPE CONSERVATION SYSTEM

    Question. One of your predecessors, Secretary Babbitt, created the 
so called National Landscape Conservation System (NLCS) out of many of 
the most significant BLM lands, including the Grand Staircase-Escalante 
National Monument and the Headwaters Preserve. There are currently 
legislative efforts in the house to codify this NLCS system.
    Can you tell me what your position is on these legislative efforts?
    Answer. The administration supports the House and Senate bills that 
codify the NLCS.
    Question. Could activities that are currently allowed on these 
lands like grazing be curtailed if this system is codified into law?
    Answer. No. Both the House and Senate bills propose to establish in 
statute the current administrative structure of the NLCS--the bill 
would not alter the management of individual units. There is a 
multiple-use component to the NLCS, and the proposed codification will 
not change this. Existing management policies and restrictions would 
remain in effect.

                  WILDLAND FIRE OUTLOOK FOR THIS YEAR

    Question. We recently had the Chief of the Forest Service here and 
I asked this question and I think it's relevant for you as well. I know 
that trying to predict the severity of the upcoming fire season at this 
point in the year is difficult at best. However, we are marking up a 
supplemental appropriations bill later this month.
    With that in mind, can you give us some sense of how severe you 
expect this fire season to be based on what you know now?
    Answer. The Wildland Fire Outlook for the period June 2008 through 
September 2008 reveals that significant fire potential is forecast to 
persist or increase in portions of California, the Southwest, Western 
Great Basin, Rocky Mountain and Northern Rockies. Significant fire 
potential will decrease across Florida, eastern New Mexico, western 
Texas, Alaska, and southeastern portions of the Rocky Mountain Area. 
The primary factors influencing this outlook are:
  --Even with a rather wet period during the latter half of May, most 
        of the West has been drier than normal this spring.
  --Drought conditions continue over portions of the West and 
        Southeast. However, improvement is expected in the Southeast 
        and to a lesser degree over Texas and New Mexico.
  --Abundant fine fuels across portions of the Southwest, southern 
        California deserts and Front Range of the Rockies may lead to 
        an above normal fire season in these areas.
  --Fire potential should begin to wane over the Southwest and Florida 
        in July due to the onset of the Southwest monsoon and 
        increasing humidity and showers in the Southeast.
    Would additional funds on the supplemental be helpful to the 
Department?
    Answer. It is still too early in the fire season to tell whether or 
not additional suppression funds will be needed. In addition, DOI and 
FS are actively implementing cost containment measures to help 
constrain suppression spending. Even if fire conditions are extreme, 
funds will be available for ongoing suppression operations, as DOI has 
unobligated funds in its non-fire accounts that are available under 
current law if wildfire activity is unexpectedly high and suppression 
funds become exhausted.

                FISH AND WILDLIFE/ESA POLAR BEAR LISTING

    Question. The current focal point of the global warming debate is 
the polar bear. The environmental community is using the Endangered 
Species Act to make the bear the face of global warming. I understand 
that the January 9th deadline came and went without any decision on the 
listing of the Polar Bear, and that subsequently a law suit was filed 
in Federal court to force a decision.
    Would you please explain where the Department is in this process of 
listing the polar bear and why this particular listing decision may 
require more time than others that you deal with?
    Answer. On January 9, 2007, (72 FR 1064) the Fish and Wildlife 
Service proposed to list the polar bear as threatened, citing loss of 
habitat resulting from receding sea ice. In September 2007, USGS 
scientists supplied new research to the Service, updating population 
information on the Southern Bering Sea polar bear population. USGS also 
provided additional data on arctic climate, sea ice trends and effects 
to polar bear populations throughout the species' range.
    As a result of the new USGS research findings, the Service reopened 
and later extended a second comment period to allow the public time to 
review and respond to the USGS findings. The Department asked for 
additional time to complete its listing decision on the polar bear in 
order to examine the thousands of comments on the new research findings 
submitted in September 2007 by USGS. As a result of this review, the 
decision to list the bear as threatened was made on May 14, 2008.
    Question. I know you may not be able to comment on this, but it 
seems to me that the Endangered Species Act (ESA) is not designed to 
handle situations like we have with the polar bear. From what I 
understand, any decline in the bear's population is because of the loss 
of ocean ice pack. There is nothing that the ESA can provide in the 
form of a remedy to resolve that, unless we are going to expand ESA to 
be used for regulating all carbon emissions in the economy. This is 
not, in my view, what the law was intended for, nor is it a sound basis 
for doing so. All the factors that would go into such a far reaching 
regulatory scheme have simply not been debated by the Congress.
    Answer. On May 14, 2008 Secretary of the Interior Dirk Kempthorne 
made the decision to list the polar bear as a threatened species under 
the Endangered Species Act (ESA). The listing is based on the best 
available science, which shows that loss of sea ice threatens and will 
likely continue to threaten polar bear habitat. This loss of habitat 
puts polar bears at risk of becoming endangered in the foreseeable 
future, the standard established by the ESA for designating a 
threatened species.
    The listing will be accompanied by administrative guidance and a 
rule that defines the scope of impact the decision will have. While the 
legal standards under the ESA do not provide discretion not to list for 
economic or other social considerations, the listing will not stop 
global climate change or prevent sea ice from melting. A real solution 
to climate change requires action by all the world's major economies. 
The ESA was never intended to regulate global climate change. The ESA 
is not the right tool to set U.S. climate policy.

      NATIONAL WILDLIFE REFUGE SYSTEM/IMPACTS ON COLORADO REFUGES

    Question. The total fiscal year 2009 budget request for the 
National Wildlife Refuge System is $434.1 million, a $5.3 million 
decrease from the fiscal year 2008 enacted level. The budget request 
proposes significant program decreases from the fiscal year 2008 
enacted level in Wildlife and Habitat Management (-$930,000), Visitor 
Services (-$1.7 million), and Refuge Maintenance (-$2.4 million).
    With such a large cut to maintenance, will the agency be able to 
keep up with regular cyclical maintenance on schedule? Will we see an 
increased backlog of deferred maintenance projects?
    Answer. The President's budget request for the National Wildlife 
Refuge System is essentially level funded with the 2008 appropriated 
level when 1.56 percent across-the-board reduction in section 437 of 
the Consolidated Appropriations Act is included. The President's 
request of $136.2 million for refuge maintenance prioritizes funding 
for the most critical health and safety maintenance needs. This 
represents the highest budget request in the history of the Refuge 
System and the Service believes that the request supports its priority 
maintenance needs. The request provides funding for 280 deferred 
maintenance projects identified in the Service Asset Maintenance 
Management System (SAMMS).
    The Refuge System maintains an inventory of deferred maintenance 
and capital improvement projects and maintains a deferred maintenance 
five year plan to guide the allocation of funding. New projects are 
added to the SAMMS each year and others are removed as they are 
addressed. The Service uses the Facility Condition Index (FCI), a 
measure of the ratio of the repair costs to the replacement costs for 
each asset, as one factor in the prioritization of the use of 
maintenance funding. In addition, an Asset Priority Index (API) is 
utilized to indicate the relative importance of an asset to 
accomplishment of the Refuge System's mission. The Refuge System 
continues to prioritize these maintenance needs through improved data 
that underlies development of five-year budget plans. The Service's 
five-year deferred maintenance plan for the National Wildlife Refuge 
System for fiscal years 2009-2013 contains 1,882 projects for an 
estimated total of $211.2 million.
    Question. I am specifically concerned that this proposed funding 
decrease for the National Wildlife Refuge System will not provide 
sufficient funding for the Rocky Flats, Rocky Mountain Arsenal, and 
Baca wildlife refuges in my home State of Colorado to remain fully 
staffed and operational in fiscal year 2009. Would you please provide 
me the specific funding breakdown for these three refuges in the fiscal 
year 2009 request compared to the fiscal year 2008 enacted level?
    Answer. These three refuges are funded as complexes, funding for 
the two complexes is:

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                 Fiscal year
                                   -------------------------------------
                                           2008               2009
------------------------------------------------------------------------
Rocky Mt. Arsenal NWR, Rocky Flats              1,657              1,657
 NWR, Two Ponds NWR...............
Alamosa NWR, Monte Vista NWR, Baca              1,265              1,265
 NWR..............................
------------------------------------------------------------------------

    Question. I understand that the Rocky Mountain Arsenal National 
Wildlife Refuge clean-up and remediation is on target for completion by 
2011. As the remediation process comes to an end, the Fish and Wildlife 
Service must begin the process of standing-up the refuge. Is the 
necessary funding in place for this transition and for the Refuge 
Visitor Center that the regional office is in the process of designing?
    Answer. An initial 4,930 acres of lands of the Rocky Mountain 
Arsenal were officially transferred to the FWS in 2004; in 2006 an 
additional 7,266 acres were transferred to the FWS. Upon completion of 
cleanup in 2011, roughly 3,000 additional acres will be transferred to 
the refuge.
    The Refuge Visitor Center is in the planning and design phase. The 
Service has $4,690,100 from the proceeds of the sale of some of the 
Arsenal land, pursuant to the Rocky Mountain Arsenal National Wildlife 
Refuge Act of 1992. These funds are set aside for the visitor center. 
The Service will use $150,000 of these funds this year for a conceptual 
plan for the center. Currently, the majority of refuge operations 
funding is provided through reimbursable agreements with the U.S. Army, 
Shell Oil Company, and Environmental Protection Agency. These 
agreements will expire when cleanup is complete in 2011. The fiscal 
year 2009 President's budget provides sufficient funds for operation.
    Question. The Department of Interior directed that bison be 
reintroduced to the Rocky Mountain Arsenal National Wildlife Refuge in 
March 2007; however, no additional funding or facilities were provided 
to the refuge for the herd (21 to date) at that time. Does the fiscal 
year 2009 budget request include the resources necessary to properly 
maintain the bison on this refuge?
    Answer. Yes, the 2009 budget provides sufficient funding, $56,000, 
for managing the bison herd.

                            SAFE BORDERLANDS

    Question. The Refuge Law Enforcement budget request includes a $1 
million increase to provide six Refuge Law Enforcement Officers along 
the southwest border for increased security in relation to illegal 
border crossings and other illegal activities on refuges. Recently, 
Department of Homeland Security (DHS) Secretary Chertoff invoked his 
authority under the REAL ID Act of 2005 to waive Federal law in order 
to build the southwest border fence through the Lower Rio Grand 
National Wildlife Refuge in Texas.
    I know you have visited the southern border many times; how does 
the Department of Interior address border enforcement, illegal 
immigration and wildlife issues on the public lands it manages along 
the southwest border?
    Answer. The Department's land management bureaus manage 793 miles, 
or 41 percent of the Southwest border. These lands include seven 
national wildlife refuges, six national parks, 12 miles managed by the 
Bureau of Reclamation, and 191 miles of public lands managed by the 
Bureau of Land Management. In addition, five Indian Reservations span 
the international boundary with Mexico.
    The impacts of illegal border crossings on Interior and tribal 
lands are startling. As an Administration, we have taken aggressive 
steps to add resources to reduce the flow of illegal drugs and aliens 
across the border into the United States. Our initial focus to control 
traffic through urban ports of entry has resulted in substantially 
improved control in those areas. However, it has also resulted in a 
migration of illegal traffic to more rural, less populated areas along 
the border. As a result, Interior's 793 miles of border are being 
impacted to a greater degree.
    The Safe Borderlands Initiative provides a holistic approach to the 
growing problems caused by the increasing illegal border crossings, 
with resources targeted to multiple bureaus and high-priority areas. We 
propose to coordinate border efforts among the Department's land 
management bureaus, the Bureau of Indian Affairs, and the Office of Law 
Enforcement, Security, and Emergency Management. The initiative was 
developed through a collaborative process that involved representatives 
from each of the bureaus. The additional law enforcement officers will 
protect employee housing areas, recreational areas, and other high-use 
sites in an integrated fashion. The initiative includes $5.2 million 
for the National Park Service; $1.0 million for the Bureau of Land 
Management; $1.0 million for the Fish and Wildlife Service; and $1.0 
million for the Bureau of Indian Affairs.
    A significant component of the initiative is a $2.0 million 
increase allocated between the Bureau of Land Management and the 
National Park Service to mitigate environmental damage on lands near 
the southwest border. Trails and illegal roads made by smugglers are 
destroying cactus and other sensitive vegetation, impacting the 
ecologic health of many of the national parks, wildlife refuges, 
national monuments and conservation areas Interior manages. This causes 
a disruption of wildlife and their habitats and the destruction of 
cultural and historic resources. Projects will protect and restore 
habitat for species, as well as improve safety by closing some 
abandoned mines on BLM lands.
    Question. Does the Department of Interior (DOI) have sufficient law 
enforcement presence for adequate coordination with the Department of 
Homeland Security (DHS)?
    Answer. The Safe Borderlands Initiative includes an additional $5.8 
million to improve safety, which includes providing 52 additional law 
enforcement personnel on public lands along the border. These officers, 
in addition to 11 new officers funded with a $3.2 million investment in 
2008, will patrol campgrounds, recreational areas, and other lands 
where smuggling activities threaten visitors. They will also deter 
illegal activity in employee housing areas and provide security for 
employees conducting field work, such as biologists conducting wildlife 
surveys and monitoring activities. Additionally, they will educate 
visitors and employees on border security risks and safety measures and 
coordinate with partner agencies to enhance Interior's efforts. The 
funding for the Bureau of Indian Affairs will support additional law 
enforcement officers to address illegal smuggling of drugs and 
immigrants on reservations on or near the Mexican border. These efforts 
will assist law enforcement agencies who have jurisdiction at the 
international borders.
    Question. What type of working relationship does DOI have with DHS?
    Answer. Through the Safe Borderlands Initiative, Interior proposes 
to enhance coordination with DHS by placing an Interior employee in DHS 
offices funded by DHS to represent Interior issues as DHS implements 
its Secure Borders initiative. Already, the Interior Department has 
signed an agreement with DHS to secure cooperating agency status in 
environmental reviews. Additionally, the Department will enhance 
coordination with the Department of Justice on drug smuggling and 
cross-border interdiction efforts through a Memorandum of Understanding 
with the Drug Enforcement Agency.

      FWS LAW ENFORCEMENT/IMPORT AND EXPORT OF THREATENED SPECIES

    Question. The total fiscal year 2009 budget request for Law 
Enforcement is $57.4 million, a $3.3 million decrease from the fiscal 
year 2008 enacted level. This request eliminates $3 million in 
unrequested funding, better known as Congressionally directed funding.
    The Fish and Wildlife Service's Law Enforcement office is charged 
with protecting plants and animals native to the United States that 
have been listed as endangered or threatened from illegal trade or any 
harmful activity that threatens the species or its habitat; enforcing 
wildlife trade laws on companies that import and/or export wildlife to 
ensure safety, fairness and efficiency in the legal wildlife trade; and 
to combat illegal trafficking in wildlife that is not only a threat to 
the survival of numerous species, but may also be a catalyst for other 
illegal smuggling activities.
    Question. Can law enforcement officials maintain a level of 
inspections and investigations necessary to accomplish these numerous 
and varied tasks with the limited resources provided in the budget?
    Answer. The President's budget provides sufficient funding for 
Service Law Enforcement investigations and inspections focused, among 
the numerous and varied tasks, on activities to address issues of the 
greatest conservation concern, including protecting Federal trust 
species.
    Question. What percentage of inspections of imports and exports 
does this budget request support on an annual basis?
    Answer. The Service's target physical inspection rate for shipments 
is 25 percent; document inspections (examining declarations, shipping 
invoices, airway bills, bills of lading, permits, licenses, etc) are 
conducted for shipments not subject to physical inspection.
    Our target physical inspection rate reflects both workload 
realities (i.e., the size of our wildlife inspector workforce; our 
shipment-to-inspector ratio, which stood at approximately 1,615 
shipments per inspector in fiscal year 2007; and the time required to 
conduct physical inspections) and the need to balance inspector effort 
between compliance inspections of declared shipments (which help 
facilitate legal wildlife trade) and proactive efforts to intercept 
smuggled wildlife (which target global wildlife trafficking). Higher 
physical inspection rates would not necessarily translate into larger 
numbers of seizures since the majority of declared imports/exports are 
in compliance with Federal wildlife laws and violations can often be 
detected based on document inspections.
    Declared shipments are selected for physical inspection based on 
Service enforcement priorities (which are designed to ensure that we 
make the most effective use possible of our staff resources) and the 
assessment of such risk factors as violation history of the importer or 
exporter; known or suspected trafficking in the past involving the 
particular species or commodity; and past problems with shipments from 
the same country of origin or re-export.
    Question. How many investigations lead to criminal convictions each 
year? Would increased funding lead to additional convictions?
    Answer. Service special agents and wildlife inspectors worked on 
12,755 cases in fiscal year 2007; most investigations undertaken by the 
Service eventually result in some type of legal action, including 
civil, or administrative penalties, or criminal convictions. We believe 
this has a deterrent effect on illegal conduct. Increased funding would 
not necessarily lead to additional convictions as there are many 
factors outside of the Service's control that contribute to 
convictions.
    Question. What initiatives has law enforcement undertaken to 
dissuade people from engaging in illegal activities pertaining to 
wildlife trafficking or other activities harmful to species and 
habitats?
    Do you have the resources necessary to be proactive in preventing 
illegal activities?
    Answer. In addition to investigative and enforcement activity, 
Service Law Enforcement continues to support ``Suitcase for 
Survival''--a recently revamped public education initiative to teach 
the public about the threat of illegal wildlife trade. Service officers 
conduct training programs for importers/exporters, brokers and other 
groups and staff public outreach displays at events across the country 
(including Earth Day celebrations and sportsmen's shows) to promote 
compliance with wildlife laws. Service brochures such as ``Buyer 
Beware'' target international travelers. Current and requested budgets 
provide adequate funding to support such initiatives.
fws/upper colorado river endangered fish recovery program and san juan 

              RIVER BASIN RECOVERY IMPLEMENTATION PROGRAM

    Question. Partners of the Upper Colorado River Endangered Fish 
Recovery Program and the San Juan River Basin Recovery Implementation 
Program, including the States of Colorado, Wyoming, Utah, Arizona, and 
New Mexico, have been working cooperatively to recover endangered 
Colorado River fish species and improve water quality, while striving 
to meet the growing energy and water needs of the Intermountain West. 
The fiscal year 2009 budget request includes $697,000 for the Upper 
Colorado and $200,000 for the San Juan recovery programs, which is 
greatly appreciated.
    Public Law 106-392 requires the Secretary to submit recommendations 
to Congress regarding the continued use of power revenues to support 
the Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Implementation programs. It is my understanding that 
continued use of power revenues is supported by the programs' 
participants, including the power customers.
    What is your position regarding use of power revenues?
    Answer. The Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program have made 
progress toward achievement of their objectives since 2000 , in part 
through the use of power revenues pursuant to Public Law 106-392. The 
Department will be able to determine its position on the use of power 
revenues after the completion and release of the report required under 
Public Law 106-392.
    Question. When may we expect to see your recommendations and 
report?
    Answer. The report is currently being reviewed and should be 
available for release in the near future.
    These programs have greatly streamlined and reduced the cost of the 
administration of the Endangered Species Act for the government and the 
regulated community, while full compliance is achieved. Small water 
users achieve compliance without having to hire lawyers, biologists and 
engineers.
    Question. How is the Department using this experience to improve 
administration of the Endangered Species Act nationwide?
    Answer. The Department believes that cooperative solutions are the 
best way to implement the Endangered Species Act. We are continuing to 
foster partnerships between Federal and non-Federal entities to help 
protect endangered species.

          U.S. GEOLOGICAL SURVEY/WATER FOR AMERICA INITIATIVE

    The USGS budget request includes an increase of $9.5 million for 
the Water for America Initiative, for a total of $29.8 million in 
fiscal year 2009. This is in addition to the $31.4 million provided 
within the Bureau of Reclamation's budget request. For the first time 
in over 30 years, the Department proposes to initiate a Water Census in 
order to collect information about our Nation's water resources and 
track changes in our water availability, water quality, and water use 
by 2019.
    The budget request indicates that you intend to track changes 
through 2019. Will the requested funding in fiscal year 2009 support 
these activities over the next 10 years, or will there be annual 
funding requests for each of the subsequent fiscal years through 2019? 
If so, what level of funding is anticipated for each fiscal year?
    Answer. The estimate for completion of the Water Census in 2019 
assumes that base funding will remain constant over the next 10 years. 
This projected timeframe is a preliminary estimate, and will depend on 
funding priorities within the Department.
    Question. In most of the West water is considered property, the 
ownership of which is passionately guarded. In fact, there is an old 
saying that ``whiskey is for drinking and water is for fighting!'' Do 
you anticipate that this Census could have any effect on water rights 
in States where such rights exist? Will the Department work with States 
to ensure that all parties are comfortable with what the Federal 
Government is doing?
    Answer. Authority to manage water resources is largely delegated to 
States, Tribes, and municipalities. The water census will not change 
this. To effectively address water-supply challenges, Federal, State, 
local, and Tribal governments must collaborate to find out how much 
water we have, expand, conserve, and protect supplies to meet 
increasing demands, and plan for the Nation's water future. The 
Department will continue to work through existing partnerships that 
include 1,400 State and local water agencies, State geological surveys, 
State Water Resources Research Institutes, the U.S. Army Corps of 
Engineers, the National Oceanic and Atmospheric Administration, and the 
National Science Foundation.
    Question. Do you see the Water Census becoming a cyclical event 
like that conducted by the Bureau of the Census at the Department of 
Commerce every 10 years? Would a 10 year cycle be often enough in order 
to maintain an accurate analysis of our Nation's water resources, or 
would it need to occur more frequently?
    Answer. A cyclical water census is a promising idea, but to date 
there has not been a detailed analysis on the appropriate timing for 
such an approach. The Department's current priority is to conduct a 
Census over the next 10 years that will provide crucial baseline 
information on the nation's water resources.
    Question. Who are the intended end-users of the information 
collected? How will the information be used? How will it be useful to 
the average citizen in his or her daily life?
    Answer. The intended users include water managers at the local 
level, water districts and utilities, State and local governments, 
Tribes and water users such as fishers and farmers and other 
irrigators. A census will provide information on the current status of 
water in aquifers and reservoirs, rivers, lakes, groundwater and 
surface water, water quality and water use. The information will be 
used to provide objective methods to quantify environmental flows 
needed for aquatic life; improve the ability to predict the impact of 
regional water development on the flow, temperature, and chemical 
quality of rivers; and improve our understanding of the effects of 
climate variability and potential changes on water resources.

                        BIRDS FOREVER INITIATIVE

    Question. The USGS budget request includes an increase of $1 
million for the Birds Forever Initiative, for a total of $1.25 million 
in fiscal year 2009. This is in addition to the $8.1 million increase 
included in the U.S. Fish and Wildlife Service's budget request. The 
USGS will use this increased funding to expand its monitoring and 
surveillance of migratory birds through the Breeding Bird Survey. Given 
that some of our most common bird species have declined by as much as 
70 percent in the last 40 years, this seems like a critical activity.
    Is the Birds Forever Initiative a one-time increase, a permanent 
increase to the program base, or an ongoing, multi-year program that 
will require continued funding for a number of years until reaching the 
``end'' of the initiative?
    Answer. The Birds Forever Initiative in the USGS and Fish and 
Wildlife Service will improve understanding of 36 focal species, 
restore habitat, and monitor species status and trends. Many factors 
will influence funding decisions in the future for this initiative such 
as accomplishment of the initiative goals and future National, 
Department, Service, and program goals and priorities.
    Question. One of the proposed objectives of the initiative is to 
expand the geographic scope of the Breeding Bird Survey into Mexico, 
since birds don't recognize borders and can't be stopped by the wall we 
are building along the Southwest Border. What is required in terms of 
an agreement with Mexico to conduct this work south of the border?
    Answer. The Migratory Bird Treaty Act provides the authority for 
the U.S. Geological Survey and U.S. Fish and Wildlife Service to work 
cooperatively with the Mexican government on migratory bird surveys. 
Existing agreements are sufficient to allow this work.
    Question. Since funding for the Birds Forever Initiative is 
included in the Fish and Wildlife Service's budget request as well, are 
the activities within each agency so linked that one increase is 
dependent upon the other?
    Answer. The Birds Forever Initiative was developed as cross bureau, 
cross program initiative involving the U.S. Geological Survey and the 
Fish and Wildlife Service. The most effective and efficient means of 
accomplishing the initiatives goal is through linked efforts and is how 
we have designed the initiative.

                        HEALTHY LANDS INITIATIVE

    Question. The USGS budget request includes an increase of $3.5 
million for the Healthy Lands Initiative, for a total of $5 million in 
fiscal year 2009. This is in addition to the $2 million requested 
through the U.S. Fish and Wildlife Service and the $14.9 million 
requested through the Bureau of Land Management, for a total 
Department-wide program funding level of $21.9 million. This is a $14 
million increase over the fiscal year 2008 enacted level.
    The budget request defines the Healthy Lands Initiative as a 
``long-term science-based effort''. For the purposes of this 
initiative, how have you defined ``long-term''? Is there a projected 
end to this program?
    Answer. There is no projected end to this program, as the 
challenges to maintain and enhance land health will continue into the 
future. The partnership among USGS, BLM, FWS, and others is a long-term 
science-based effort to assess and enhance aquatic and terrestrial 
habitats at a landscape scale to maintain and improve habitat to 
prevent species from being listed so that we can continue to provide 
access to the public lands for multiple uses, including responsible 
energy development. Tools and technologies developed in this effort 
will be transferable to other areas in the Nation for many years where 
there are similar issues of energy development and impacts to wildlife 
habitat. Results of these effort and completion of ecological 
assessment in future years will provide the information and knowledge 
for decision-makers to build and implement adaptive management 
solutions to ensure the long-term viability of wildlife and habitats in 
these areas.
    Question. What type of data and information has been gathered to 
date that will be beneficial to future energy development?
    Answer. Healthy Lands Initiative activities focus on projects that 
focus on land resource rehabilitation, protection, and management for 
multiple land uses. Some project planning actions in the USGS to date 
include highly detailed mapping and assessment of the sagebrush 
habitat; evaluation of the cumulative effects of development; 
identification of key drivers of landscape change, including effects of 
climate change; identification of the most effective and needed 
restoration, reclamation, and mitigation activities; and detailed 
species habitat needs assessments and monitoring studies. The USGS will 
assemble all available data and information into a clearinghouse that 
will be accessible by all the Federal, State, and local partners in 
this activity.
    Question. How will this initiative reduce resource conflicts 
between the environmental community and industry?
    Answer. The Healthy Lands Initiative (HLI) is an approach to land 
management that increases the pace of and more effectively implements 
land health treatments across multiple jurisdictions. It has already 
had great success in bringing together partners with a shared interest 
in protecting, restoring, and enhancing our multi-resource ecosystems. 
HLI funding is leveraged with funding provided by other Federal 
agencies, State, local, and tribal governments, philanthropic 
organizations, advocacy groups, and industry partners. In 2008, BLM has 
initiated on-the-ground work in several emphasis areas (UT, NM, 
Southwest WY, Southeast OR-Southwest ID-Northern NV, South-central ID, 
and Western CO), and has begun working with USGS, FWS, and other 
partners to implement projects based on the highest priority integrated 
science identified through workshops and meetings with stakeholders. 
For example, in the Southwest WY Landscape Conservation Initiative 
Area, in order to strengthen the collaboration, a coalition of Interior 
bureaus along with the U.S. Forest Service, the Wyoming Game and Fish 
Department, and the Wyoming Department of Agriculture has formed a 
partnership called the Wyoming Landscape Conservation Initiative. The 
partners are extending the existing Memorandum of Understanding to 
include additional local stakeholders such as county commissioners and 
conservation district managers. Together, these partners participate in 
strategies and actions to maintain and improve area landscapes.

     U.S. GEOLOGICAL SURVEY/OCEAN AND COASTAL FRONTIERS INITIATIVE

    Question. The USGS budget request includes an increase of $7 
million for the Ocean and Coastal Frontiers Initiative, for a total of 
$16.1 million in fiscal year 2009. This is in addition to the $900,000 
increase included in the U.S. Fish and Wildlife Service's budget 
request. The USGS will also work in partnership with numerous other 
Federal Government agencies including: the National Oceanic and 
Atmospheric Administration (NOAA), U.S. Environmental Protection Agency 
(EPA), U.S. Army Corps of Engineers (USACE), Minerals Management 
Service (MMS), National Park Service (NPS), and the Office of Insular 
Affairs (OIA).
    Given that the Ocean and Coastal Frontiers Initiative cross-cuts so 
many agencies, is there one centralized programmatic control mechanism 
in place to ensure that there aren't any duplications of effort or 
funding?
    Answer. As part of the formulation of the fiscal year 2009 
President's Budget, the Department reviewed each bureau's participation 
in the Ocean and Coastal Frontiers Initiative, to ensure there is no 
duplication of effort.
    Question. Are the agency's activities so intricately linked that 
the funding streams are dependent upon one another? Does it make sense 
to provide $7 million to USGS for this initiative if NOAA doesn't 
receive its share of funding through the Department of Commerce budget?
    Answer. USGS will coordinate with the other Federal agencies in 
implementing the Ocean and Coastal Frontiers Initiative to ensure the 
most effective use of Federal funds. NOAA has already received $8.0 
million in 2008 for ocean exploration efforts related to this work. The 
geological data collection by USGS, when combined with the bathymetric 
data collected by NOAA, will form the basis for successful 
establishment of the U.S. continental shelf.
    Question. One of the tasks of the USGS is mapping the geology and 
boundaries of the extended continental shelf to determine the increase 
of public lands for which the Department would have regulatory 
responsibility ($4 million of the $7 million increase is for this 
activity). How long do you anticipate that it will take USGS to 
complete this activity?
    Answer. Full delineation of U.S. ECS boundaries would require both 
bathymetric and seismic/geophysical mapping in several regions. Current 
funds are for focused mapping in the Arctic, which may take several 
years depending on ice conditions, which are highly variable. Estimates 
for mapping the Atlantic will be better defined after an Atlantic 
workshop takes place in July, 2008 bringing together Federal and 
academic expertise to identify outstanding issues and data 
requirements. Furthermore, there may be additional seismic data 
required in the Pacific Islands.
    Question. Will additional funds be required in future fiscal years?
    Answer. Funding for future ECS mapping activities will respond to 
the President's budgetary priorities, which will take into account 
recommendations the Interagency Task Force on the Extended Continental 
Shelf in the context of Departmental needs and activities. Additional 
factors affecting future funding for ECS mapping will include progress 
on current data collection, as well as needs for legal, analytical, and 
other costs associated with the mapping.

                 U.S. GEOLOGICAL SURVEY/LANDSAT PROGRAM

    Question. Within the Land Remote Sensing program, the fiscal year 
2009 budget request includes an increase of $2 million for the National 
Land Imaging Program. USGS will act as the lead agency in this multi-
agency initiative to begin planning for an operational program to 
collect images of the Earth's surface. The USGS budget justification 
says that implementation of this new program will ``require significant 
additions, upgrades, and changes to the staffing and facilities of the 
Department''.
    Who made the determination that USGS was the most qualified to be 
the lead agency for this next generation of Land Remote Sensing? Why 
wouldn't NASA or the Department of Commerce's NOAA satellite office be 
the more appropriate lead agency?
    Answer. The Office of Science and Technology Policy issued a plan 
for the U.S. National Land Imaging Program (NLIP) in August of 2007, 
which called for NLIP to be established in the Department of the 
Interior. The current budget allocation for NLIP does not create a 
long-term program within Interior, but rather is meant to initiate an 
assessment of needs related to the next Landsat satellite. The 
Administration has not made a final determination on the role of USGS 
in the next Landsat, which will entail significant out year funding 
commitments. Instead, the current funding will lay the groundwork for 
future planning.
    Question. What is USGS's current working relationship with these 
other land imaging users?
    Answer. USGS has a good working relationship with the other land 
imaging users, and has frequent meetings with them on both specific 
topics and broad issues relating to Landsat. We will be consulting them 
in our upcoming efforts.
    Question. What kind of ``additions, upgrades, and changes'' will be 
necessary to support this new program? What costs are associated with 
these changes? Will this require the addition of a construction budget 
for USGS?
    Answer. The Department has not made any final determination on the 
need for future upgrades. If USGS is designated the appropriate entity 
for future Landsat satellites, arrangements could be parallel to NOAA's 
funding stream for operational oceanic and atmospheric satellites. In 
this case, recurring satellite-development funding would be over $100 
million per year. Additional funding determinations will consider 
planning and partnership efforts developed in 2009.
    Question. What exactly will the $2 million requested for fiscal 
year 2009 buy us? That isn't much money when you are talking about 
satellite programs, so I'm very curious about the out-year costs 
associated with the National Land Imaging Program. Does the Department 
have a long-term budgetary plan for this activity?
    Answer. The $2 million is to initiate planning and design efforts 
by assessing needs related to the future of Landsat satellites. This 
activity may support long term budgetary plans at the Department or 
within other agencies.
    Question. Although NASA and NOAA are the preeminent Federal 
Government agencies when it comes to satellites, those programs have 
been plagued with problems and are consistently behind schedule and 
over budget. Why should we create another satellite program within an 
agency that has neither the structure nor the expertise to handle such 
an activity?
    Answer. As previously stated, no final determination on the ideal 
agency to procure and operate Landsat has been made by the 
administration. The recommendation by the Office of Science and 
Technology Policy that NLIP be established within the Department of the 
Interior is reflective of a number of factors, including the success 
USGS has achieved in its Geographic Research, Investigations and Remote 
Sensing program.

        OFFICE OF THE SPECIAL TRUSTEE/INDIAN LAND CONSOLIDATION

    Question. The process of Indian Land Consolidation was begun in 
1999 and to date the Department has spent nearly $170 million and 
purchased over 360,000 fractionated Indian lands in an attempt to 
consolidate them into more manageable land holdings for accounting 
purposes.
    Given that the Department continues to stress how costly it is to 
manage the ever-growing fractionation of the Individual Indian owned 
land, why is the Indian Land Consolidation program proposed for 
elimination in the fiscal year 2009 budget request?
    Answer. Since 1999, the Indian Land Consolidation Program has spent 
nearly $170 million to purchase over 360,000 interests, yet this has 
done little to reduce fractionation or decrease the costs for managing 
the trust. Most of these ownership interests were less than two percent 
of the entire parcel. In addition, provisions in the American Indian 
Probate Reform Act have greatly reduced the rate of fractionation for 
these small interests. It is clear that purchasing interests, one at a 
time, will not result in a satisfactory solution to fractionation.
    Question. The issue of accounting for the land holdings does not 
disappear with the elimination of funding for this activity. What 
alternatives to outright purchase of the land interests have been 
considered?
    Answer. The Special Trustee Advisory Board which includes one 
former and three current tribal leaders have suggested using a model 
similar to the Rosebud Tribe's Tribal Land Enterprise whereby 
individual fractionated interest holders can contribute their interest 
to the Enterprise in exchange for an equity interest equal in value to 
their land interest. We have asked ITMA to begin a consultation project 
with Indian Country to discuss the fractionation problem and advise us 
on solutions developed from tribes and individual interest holders 
prior to the Department advocating any particular solution.

             INDIAN TRUST LITIGATION/COBELL VS. KEMPTHORNE

    Question. In 1994, Congress passed The American Indian Trust Fund 
Management Reform Act of 1994, requiring the Secretary of the Interior 
to ``account for the daily and annual balance of all funds held in 
trust by the United States for the benefit of an Indian tribe or an 
individual Indian which are deposited or invested pursuant to the Act 
of June 24, 1938 (25 U.S.C. Sec. 4011(a)). '' In July of 2001, the 
Office of Historical Trust Accounting (OHTA) was created by Secretarial 
Order to plan, organize, direct, and execute the historical accounting 
of Tribal Trust Fund accounts and Individual Indian Money (IIM) 
accounts.
    The Department and OHTA are involved in the Cobell vs. Kempthorne 
class action lawsuit, which has been ongoing for 12 years, to determine 
whether or not the Department has unreasonably delayed the completion 
of the Historical Accounting. On January 30, 2008, Judge James 
Robertson of the United States District Court for the District of 
Columbia, in his Findings of Fact and Conclusions of Law stated that 
``it is now clear that completion of the required accounting is an 
impossible task''.
    Given that the Judge has deemed the Historical Accounting an 
``impossible task'', why is it necessary to continue to fund the Office 
of Historical Accounting at $56.4 million in fiscal year 2009?
    Answer. The Department remains committed to seeking an appropriate 
resolution of the case in concert with Congress and other interested 
parties. The Budget request of $56 million for historical accounting 
includes approximately $36 million for the accounting related to 
Individual Indian Money (IIM) account holders with the remainder 
dedicated to accounting for tribes and Special Deposit Accounts. The 
judge did not relieve us of the requirement to continue the historical 
accounting for IIM accountholders, which we estimate under our current 
plan, will require approximately $108 million over the next 3 years to 
complete, for a total of $271 million since the implementation of the 
original 2003 plan. The judge said while the statute would require an 
accounting of ``all funds held in trust by the United States'' he did 
not believe that Congress would ever appropriate sufficient money to 
pay for such an accounting. The judge did, however, recognize the need 
for a solution. At a hearing on March 5, 2008, the Court scheduled a 
trial to begin on equitable disgorgement of funds allegedly held back 
from IIM account holders by the Government. Interior continues to work 
with the Justice Department to evaluate the Court's findings and 
conclusions.
    Question. What do you see as the next major milestones in this 
litigation?
    Answer. There are several ways in which this case can be resolved: 
a judicial settlement as decided by the Court; congressional action to 
narrow the scope of the historical accounting requirements that could 
realistically be completed; or funding in the billions of dollars 
sufficient to conduct the historical accounting, as interpreted by the 
courts, under the current law.

             BUREAU OF INDIAN AFFAIRS/DETENTION FACILITIES

    Question. I understand that several adult and juvenile detention 
facilities constructed on Indian reservations nationwide over the past 
several years are either sitting empty or are staffed and operated at 
levels far below the intended effective capacities. Tribal communities 
need these detention facilities operating at full capacity to address 
their growing law enforcement needs. Offenders that should be detained 
in these new federally-financed units are now scattered widely, across 
several States. The many juvenile offenders involved are now detained 
in places where no treatment and rehabilitation is possible, creating 
future difficulties both in terms of public safety and long term 
correctional and social costs that will be borne largely with public 
resources.
    Please provide the subcommittee with a detailed accounting of where 
and in what amounts Indian Affairs allocated funding to the staffing 
and operations of tribal adult and juvenile detention facilities in 
fiscal year 2007 and fiscal year 2008, and where anticipated funding 
would go if the fiscal year 2009 requested funding is provided.
    Answer. The fiscal year 2009 budget request for Detention and 
Corrections is $64.6 million, an increase of $5.6 million over the 
fiscal year 2008 level. The increase includes fixed costs. Increased 
funding is essential to address staffing needs for newly constructed 
detention facilities, as well as existing facilities within the 
corrections program. The proposed funding increase will allow the 
Division of Corrections to staff its detention centers to safe and 
secure levels in line with National Institute of Corrections 
guidelines. Funding allocations for 2009 will not be completed until 
the funding has been enacted.
    In 2007 and 2008 funding was distributed across Indian Country to 
increase staffing in order to meet minimum safety requirements and to 
fill positions at recently opened facilities. The attached chart 
details the funding that was provided to each facility in 2007 and 
2008.

                         BIA CORRECTIONS FUNDING
------------------------------------------------------------------------
                                                 Fiscal year
                                   -------------------------------------
                                                       2008 funding with
    Corrections Program Funding                           operational
                                           2007            increases/
                                                          decreases &
                                                            paycost
------------------------------------------------------------------------
District. CO
    K0L400  CORRECTIONS--Contract           6,564,956          7,935,837
     Bed Space....................
District. CO......................          6,564,956          7,935,837
                                   =====================================
District.--1:
    A0L400  DISTRICT I CORRECTIONS           $279,304           $306,504
    A0L410  WINNEBAGO DETENTION...             64,763            299,658
    A0L430  STANDING ROCK                     401,850          2,135,021
     DETENTION....................
    A0L460  TURTLE MOUNTAIN                   321,433            922,815
     DETENTION....................
    A0L470  FT TOTTEN DETENTION...            286,549            785,444
    A0L480  LOWER BRULE DETENTION.          2,071,069          2,506,340
    A0L490  YANKTON DETENTION.....          2,000,000          2,000,000
                                   -------------------------------------
      Subtotal....................          5,424,968          8,955,782
                                   -------------------------------------
District.1--638  Tribal Programs:
    KLA002  CHEYENNE RIVER........          1,238,973          1,238,973
    KLA003  OGLALA SIOUX..........          3,015,890          3,015,890
    KLA004  ROSEBUD...............          1,942,977          2,018,247
    KLA005  OMAHA.................            183,954            205,284
    KLA015  MENOMINEE.............            365,400            374,344
    KLA022  THREE AFFILIATED......          2,620,564          2,620,564
    KLA024  SISSETON-WAHPETON.....             95,429             98,436
                                   -------------------------------------
      Subtotal....................          9,463,187          9,571,738
                                   -------------------------------------
      Total Corrections Funding            14,888,155         18,527,520
       for District 1.............
                                   =====================================
District.--3  BIA Programs:
    H0L400  DISTRICT 3 CORRECTIONS            275,614            317,712
    H0L410  EASTERN NEVADA                  1,801,336          2,379,952
     DETENTION....................
    H0L430  UINTAH & OURAY                     80,000            233,899
     DETENTION....................
    H0L440  HOPI DETENTION........            672,860          1,235,016
    H0L490  TRUXTON CANON                   2,020,594          2,868,410
     DETENTION....................
                                   -------------------------------------
      Subtotal....................          4,850,404          7,034,989
                                   -------------------------------------
District.--3  638 Tribal Programs:
    KLH001  COLORADO RIVER INDIAN             273,903            300,677
     TRIBES.......................
    KLH002  FORT MOJAVE INDIAN                 44,880             59,992
     TRIBE........................
    KLH003  WHITE MOUNTAIN APACHE             634,621            643,435
     TRIBE........................
    KLH004  TOHONO O'ODHAM NATION           2,504,307          2,534,931
     OF ARIZONA...................
    KLH008  SAN CARLOS APACHE               2,672,645          2,737,206
     TRIBE........................
                                   -------------------------------------
      Subtotal....................          6,130,356          6,276,241
                                   -------------------------------------
      Total Corrections Funding            10,980,760         13,311,230
       for District 3.............
                                   =====================================
District.--4:
    M0L400  DISTRICT 4 CORRECTIONS            354,465            385,466
    M0L450  UTE MOUNTAIN UTE                1,592,091          2,064,568
     DETENTION....................
                                   -------------------------------------
      Subtotal....................          1,946,556          2,450,034
                                   -------------------------------------
District.--4  638 Tribal Programs:
    KLM005  PUEBLO OF LAGUNA......            239,339            246,162
    KLM014  PUEBLO OF ZUNI........            734,559            753,760
    KLM016  NAVAJO NATION.........          2,654,807          2,785,633
                                   -------------------------------------
      Subtotal....................          3,628,705          3,785,555
                                   -------------------------------------
District.--4  Self-Governance
 Programs:
    D4  Pueblo of Taos............             29,450             29,450
                                   -------------------------------------
      Subtotal....................             29,450             29,450
                                   -------------------------------------
      Total Corrections Funding             5,604,711          6,265,039
       District 4.................
                                   =====================================
District.--5:
    C0L400  DISTRICT 5 CORRECTIONS            275,905            340,899
    C0L410  CROW DETENTION........            360,648            634,391
    C0L420  NORTHERN CHEYENNE               1,803,484          1,931,064
     DETENTION....................
    C0L430  WIND RIVER DETENTION..            400,034            633,628
    C0L450  SPOKANE DETENTION.....            355,299            562,452
    C0L480  BLACKFEET DETENTION...            345,941            670,765
                                   -------------------------------------
      Subtotal....................          3,541,311          4,773,199
                                   -------------------------------------
District.--5  638 Tribal Programs:
    KLC001  BLACKFEET TRIBAL                  243,437            250,101
     BUSINESS COUNCIL.............
    KLC002  FT. BELKNAP COMMUNITY              77,724             79,618
     COUNCIL......................
    KLC003  ASSINBOINE AND SIOUX            1,700,579          1,743,130
     TRIBE FORT PECK..............
    KLC004  CONFEDERATED TRIBES OF          2,452,778          2,500,260
     COLVILLE.....................
    KLC006  CHEHALIS BUSINESS                   7,967              7,967
     COUNCIL......................
    KLC010  CONFEDERATED TRIBES OF            201,432            206,858
     WARM SPRINGS.................
    KLC018  YAKAMA TRIBAL COUNCIL.            404,092            404,092
    KLC021  SHOSONE BANNOCK (Fort             360,208            372,407
     Hall)........................
                                   -------------------------------------
      Subtotal....................          5,448,217          5,564,433
                                   -------------------------------------
District.--5  Self-Governance
 Program:
    D5  Nisqually.................            350,000            350,000
                                   -------------------------------------
      Subtotal....................            350,000            350,000
                                   -------------------------------------
      Total District 5 Corrections          9,339,528         10,687,632
       Funding....................
                                   =====================================
District.--6  638 Tribal Program
    KLS016  MISSISSIPPI BAND OF             2,316,574          2,316,574
     CHOCTAW INDIANS..............
                                   -------------------------------------
      Total District 6 Corrections          2,316,574          2,316,574
       Funding....................
                                   -------------------------------------
      Total Corrections Funding...         49,694,684         59,043,832
------------------------------------------------------------------------

                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. Three years post-Hurricane Katrina, the Gulf Islands 
National Seashore is still suffering from a lack of facilities. It has 
come to my attention that fewer funds are being directed to this area, 
and that the Mississippi Gulf Coast is subject to downsizing 
facilities, rangers, and equipment. It is troubling that no 
construction has begun to replace shade areas or restrooms for Ship 
Island, which despite maintaining few temporary structures, continues 
to be a popular tourist spot on the Gulf Coast. Why does the Park 
Service feel it necessary to downsize Mississippi's presence within the 
Gulf Islands National Seashore?
    Answer. Recovery work following Hurricane Katrina continues to this 
day in multiple parks throughout the southeast. The project on Ship 
Island has undergone several changes since it was initiated. In the 
aftermath of the hurricanes in 2005, initial estimates were used to 
guide the planning for replacement facilities. As planning and design 
progressed, estimates have been firmed-up.
    In addition, in accordance with the DOI and NPS regulations and 
government-wide policies, a value analysis study was conducted on 
multiple Hurricane Katrina projects, including West Ship Islands 
Buildings. Efficiencies discovered allowed for a reduction of more than 
4,500 square feet from the original complex. We do not believe we are 
downsizing our presence but rather taking this opportunity to address 
needs in the most efficient manner possible.
    The final project including scope modifications was permitted by 
the Regional Office, and was presented to the NPS Director's Advisory 
Board in November 2007. The board recommended approval.
    The scope of the project includes 10 structures totaling 9,580 
square feet at a cost of $2,876,695. The project is currently being 
reviewed for approval by the Development Advisory Board.
    Question. The National Park Service's National Heritage Area 
program is proposed to decrease by $8 million, from last year's enacted 
amount. I have introduced legislation creating two Heritage Areas 
recently, and I understand there are very few administrative staff 
assisting this program. How is the National Park Service working to 
improve this program, with far fewer funds than necessary?
    Answer. The administration requested a reduction of funding to 
support national heritage areas based upon the lack of comprehensive 
heritage program legislation that contains clear criteria for 
designating new areas and establishes clear timelines for phasing out 
Federal support for long-established areas. Without such legislatively 
enacted parameters, there may be as many as 15 newly authorized 
heritage areas by October 1, 2008, and perhaps as many as 100 areas 
within the next few years. The Service will provide technical 
assistance and advice to heritage areas, with priority given to 
assistance with cooperative agreements, site visits to established 
areas, management planning, and liaison between the National Heritage 
Areas and other National Park Service staff, including planners and 
park staff in adjacent National Park System units. The Service will 
also distribute available funding based on a merit-based system, after 
ensuring new areas have sufficient funds to complete their management 
plans.

                         CONCLUSION OF HEARINGS

    Senator Feinstein. Thank you all very much. The 
subcommittee will stand in recess subject to the call of the 
Chair.
    [Whereupon, at 11:45 a.m., Tuesday, April 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
       Prepared Statement of the Alamo Navajo School Board, Inc.
    Honorable Chairman: Please accept this expression of our concerns 
about the information circulated by the Department of Interior related 
to the fiscal year 2009 budget requests in a brochure entitled Bureau 
Highlights-Indian Affairs (no date) (BH-79 to BH-88). Our specific 
interests are in the budget requests for Indian Education listed by 
Interior as 31 percent of the operation of Indian Programs. Having 
reviewed the document carefully, we are significantly disappointed; we 
will be adversely served, if the plan is implemented as described; and 
we are quite confused by contradictions, illogical statements, and 
poorly framed reasons for some proposed actions. For example, the 
Interior Department proposed ``. . . to dedicate $5.2 million to 
enhance education programs at lower performing schools.'' (p. BH-82) 
These funds would not be distributed through the Indian School 
Equalization Formula (ISEF). However, their source is not evident. Is 
it a budget increase, or a transfer of funds from other accounts? If 
these funds, or any portion of them are taken from ISEF, it would lower 
the per-student amount for distribution, thus adversely affecting 
contract and grant schools' basic funding as well BIE schools. Any loss 
of basic school operational funding is unacceptable. Additionally, if 
BIE dedicates $5.2 million as supplemental aid, for hiring education 
specialist, tutoring, et cetera, because certain BIE operated schools 
have not achieved Adequate Yearly Progress (AYP), it would be 
appropriate if a proportionate ratio of similar funds were requested 
for contract and grant schools because they have the same kinds of 
needs and for the same reasons.
    In the mission statement, Interior asserts that, ``The mission of 
BIE is to provide quality education opportunities from early childhood 
through life.'' (p. BH-79) Yet, in the section discussing ``Improving 
Indian Education (p.BH 81-82), the request for funding tribal 
scholarships is reduced by $5.9 million in order to shift focus to its 
core responsibility of operating the BIA school system. Students that 
graduate from our high school already have to compete for tribal 
scholarships. Any reductions in scholarship funds means that more 
graduates in the Class of 2009-2010 will be denied the opportunity to 
attain higher education goals. It makes the phrase ``from early 
childhood through life'' ring very hollow.
    The BIE estimates that five tribes will apply for grants to operate 
their own schools in fiscal year 2009. Additional funding of $1.5 
million was added to its request as a result. However, their 
presentation goes on to explain that ``. . . the increase will be used 
primarily for the costs associated with the displacement of employees 
who do not continue to work at the school . . . .'' No mention is made 
of how the additional administrative costs, that each new grant will 
incur, will be funded. If no new funding is requested by BIA for these 
new grant schools for administrative purposes, current contract and 
grant schools, such as Alamo Navajo School, will face additional 
shortages for their administrative costs, already insufficient at 72 
per cent of need. Information relayed to us from reliable sources 
suggests that BIE already knows that the funds to supply administrative 
costs grants to all schools fully are insufficient.
    As it has for the past few years, the administration calls for the 
elimination of Johnson O'Malley (JOM) funding of $21.4 million, 
describing these grants as ``. . . duplicative of grants available to 
Tribes from the Department of Education.''(p. BH-83) Their attempt to 
eliminate the JOM program in fiscal year 2008 met Congressional 
resistance and congress continued to fund it. The House Committee 
report reprimanded the Administration by saying, ``The feckless 
justification for the termination of this program--that Department of 
Education programs can take the place of these grants--has never been 
substantiated or explained to any level of adequacy. The Committee 
implores the Administration to include this program in future 
requests.'' (emphases added) (HRpt. 110-187, p. 70). At Alamo Navajo 
School, JOM funds provide salaries for a home/school community liaison 
who plays a key role in improving students' school attendance; in 
keeping parents and the community-at-large informed about school 
policies, activities, and special events; in providing valuable 
cultural/traditional instruction and learning opportunities; and in 
assisting instructional staff in group activities, such as field trips. 
The funds also provide 3- and 4-year-old children with radio programs 
of an educational nature, such as Sesame Street, with booklets for 
parents and follow-up activities, which address the mission statement 
of the program and of the BIE. Without JOM funding, we would be forced 
to discharge a valuable local staff member and would experience a 
severe impact on our radio programming for young children in those most 
formative years and parents who benefit from the help in preparing 
their children for kindergarten and beyond in language acquisition and 
multi-cultural understanding.
    Concomitantly, Early Childhood Development Programs are to be 
reduced by $2,754 million and limited to Family and Child Education 
(FACE) for pre-school children. From ANSB's perspective, this request 
appears to be shortsighted and inadequate because it does not take into 
account the long period of time that this successful program, FACE, has 
been funded. The FACE program goes well back in to the 1990s and, 
through all of these years, its funding level has been relatively flat. 
Year after year, ANSB received practically the same amount each year, 
regardless of the significant changes and influences to be dealt with, 
such as requirements for more highly trained, licensed personnel; 
increased numbers of participants necessitating more materials and 
additional staff. The pre-school target population presents one of the 
best opportunities for reaching developing children's capabilities. 
Funding levels to support such opportunities and potential development 
should be increased in proportion to changes in socio-economic 
conditions, to technological advances, and to increased knowledge of 
health and human development.
    The BIE requests $46,912 million for Student Transportation for 
fiscal year 2009, a reduction of $932,000 from the fiscal year 2008 
enacted budget. The cause for concern here is that the rate-per-mile 
formula and procedure historically has not provided sufficient funding 
to operate and maintain our school's buses, which results in ANSB 
having to use regular ISEF program funds to supplement its 
transportation budget. It seems ironic that the cost of getting 
students to the school results in having fewer or reduced learning 
opportunities when they get there. Our hope, realizing that it is 
unlikely that an increase in the school transportation budget can be 
obtained, is that the fiscal year 2008 level of funding can be 
maintained for fiscal year 2009.
    Thank you for your attention and for your consideration of our 
concerns. We know that, as you have demonstrated to us so many times in 
the past, you will act in the best interests of our children, of our 
State, and of our Nation.
                                 ______
                                 
 Prepared Statement of the Aleutian/Pribilof Islands Association, Inc.

    The principal concern of the Aleutian/Pribilof Islands Association, 
Inc. (APIA) with respect to the Indian Health Service (IHS) proposed 
budget for fiscal year 2009 is the continued significant underfunding 
of both program and administrative costs for the operation of the St. 
Paul Health Center, which was completed in the fall of 2005. Our 
request is:
  --IHS funding for the St. Paul Health Center of $555,957 of which at 
        least $253,541 must be available to pay indirect costs of 
        operating the health center.
  --A significant increase in IHS contract support dollars.
  --Provision that the increase in contract support dollars be 
        available to address the contract support requirements of new 
        and expanded programs.
    St. Paul Island is located, as this subcommittee knows, in the 
Bering Sea and it is almost 1,000 air miles away from our nearest 
referral center in Anchorage. It is also the only Health Center in the 
most dangerous fisheries area in the country. APIA must serve a huge 
influx of seasonal fisheries workers and our staff must be of a caliber 
to handle major disasters with no ready assistance. Our population 
balloons to over 2,000 during the fishing seasons. Due to the dangerous 
nature of fishing in the Bering Sea, many of our cases are of an 
emergency nature--for instance, we have provided emergency response 
services for shipwrecks, explosions, and fishing-related injuries. In 
addition to the large numbers of persons--Native and non-Native--who 
fish in our waters, we also attend to emergency health needs of the 
many people who visit our area for bird watching. We are, in fact, 
``the only act in town'' when it comes to health care, and thus we need 
to be as self-sufficient as possible in the provision of health care.
    As noted in our testimony submitted to this subcommittee on March 
18, 2005, the Indian Health Service, in preparing the budget for fiscal 
year 2006, made a mistake as to when the health center would be 
completed and ready to operate. APIA had been notified by our IHS 
project manager in a letter dated February 17, 2005, that the center 
would be completed and ready to operate by September 30, 2005. However, 
when submitting the budget for fiscal year 2006 IHS assumed that the 
center would operate for only one quarter in fiscal year 2006 and asked 
only $260,000 in program funds as against $1.4 million required for a 
full year. We are grateful that the Indian Health Service responded to 
our request by providing some one-time funds in fiscal year 2006 to 
help bridge this gap until funding was provided in fiscal year 2007. 
However, the lack of the additional funding to cover contract support 
costs has had a remarkably devastating impact on our ability to provide 
the services envisioned when planning and construction of this facility 
first occurred. This has had a demoralizing affect on the staff and 
community of St. Paul Island.
    The failure to fund contract support costs for the health center in 
full has a complex history. During fiscal year 2006 IHS was able to 
locate $1,097,584 to allocate for additional program funds to permit 
the operation of the new center. APIA has expressed its gratitude 
already to IHS for the effort it took to locate these funds and permit 
the opening of the center. However, before releasing the program funds 
to APIA, IHS insisted that we amend our fiscal year 2006 funding 
agreement (Funding Agreement 58G950030, Amendment 5) under the Alaska 
Tribal Health Compact to agree that we would not be entitled in 2006 to 
any contract support funding to support administrative costs of the new 
facility.
    We feel that this seemingly draconian demand by IHS violates both 
the letter and the spirit of Title V of the Indian Self-Determination 
Act (ISDA) under which our IHS-funded health program operates. We 
understand that the IHS lead negotiator's position on this issue was 
one that he felt he could not compromise without compromising the 
agency; likewise we felt that we needed to agree to this language in 
order to receive the limited funding appropriated for our staffing 
package. As a result of IHS's refusal to provide for the administrative 
overhead at St. Paul, as well as the failure to fund the full program 
funding planned ($1.4 million), we have been able to open the center 
but not to provide the level of service for which it is designed. Our 
23.1 percent overhead rate negotiated with the Department of Health and 
Human Services must be paid from the amount of funding provided to 
programs in the clinic which results in a real reduction of $253,541 
below the reduced program funding. Thus we have for operation of the 
clinic $555,957 less than we should have. As a result, in the new 
center we provide to the people of St. Paul about the same level of 
service which was provided in the old, outdated facility, it just looks 
better.
    Specifically, we have not been able to: fill two FTE midlevel 
provider staff positions, fill one FTE Contract Medical Services 
Director, expand Dental Health access by two visits/year, provide case 
management for our chronic care patients, provide travel access funds 
for patients requiring specialty services and emergency medevac 
transport, pay for biomedical support for new equipment, expand our IT 
capacity for the new health center, and provide administrative support 
necessary to ensure quality care is provided.
    Most of the funds received have first gone to support increased 
facilities expenses including heat and other utilities, routine 
maintenance, benchstock, specialty subcontract facilities operations 
and engineering expenses. Very little is left over for actual provision 
of medical services to optimize the use of this beautiful new facility. 
In fact, we have had to seek and rely on non-recurring non-IHS grant 
funds to meet some of our short-term needs for this new facility.
    Continuing litigation on the question of whether the ISDA requires 
the payment of contract support funds by the Bureau of Indian Affairs 
and IHS and the present IHS position that it will pay no contract 
support funding appropriated by Congress (even where the fiscal year 
2008 appropriation statute states that up to $5,000,000 of the amount 
appropriated to IHS may be expended for new or expanded contracts) 
leaves it very uncertain as to whether APIA is barred or not from 
receiving full contract support funding. IHS has told APIA that its 
contract support deficiency will be alleviated by allocating all 
shortfall funding to ongoing contracts and nothing to a program 
expansion either for fiscal year 2007 or fiscal year 2008. It has not 
worked out that way so far. The effect of fiscal year 2007 funding 
distribution of contract support funds based on IHS' own figures was to 
reduce APIA's level of contract support need funded from 75.12 percent 
in fiscal year 2006 to 70.96 percent in fiscal year 2007. The total 
amount of our funding agreement was reduced by $105,694 from 2006 to 
2007. Now in fiscal year 2008, APIA is renegotiating its indirect rate 
to be at 39.1 percent based on increased costs, most of which relates 
to facilities costs and higher energy expenses. This creates an even 
greater shortfall that will need to come out of program dollars.
    We therefore turn to the Congress to address this injustice at 
least in fiscal year 2009 by (1) appropriating a significant increase 
in contract support dollars and (2) providing that the increase will be 
available to address the contract support requirements of new and 
expanded programs, including programs like APIA's new St. Paul Health 
Center which came into operation in fiscal year 2006. This action will 
require the IHS to correct the gross injustice which it inflicted on 
the Native Village of St. Paul by requiring the health services budget 
for the new center to absorb all administrative costs based on APIA's 
negotiated indirect cost rate. Congress made very clear its intent that 
such costs should be paid for over and above the sums which would be 
used by APIA to provide the same services. See 25 U.S.C.  450 j-1. IHS 
claims that it is unable to treat APIA fairly in accordance with this 
statute because Congress has failed to provide appropriations 
consistent with the wording of the statute. We are left with no 
alternative therefore but to appeal to you to make it possible for the 
new health center to provide the level of services which the IHS and 
Congress intended it to provide when its construction was approved.
    We have brought this particular matter to your attention as it is a 
high priority of our organization and of the Native Village of St. 
Paul. In addition, we support the testimony of the Alaska Native Health 
Board on the need to increase funding for health services in Alaska, 
especially to fully fund contract support.
    Thank you.
                                 ______
                                 
Prepared Statement of the Alliance for Community Trees; American Forest 
Foundation; American Forests; American Nursery & Landscape Association; 
 The Hardwood Federation; Michigan United Conservation Clubs; National 
 Association of State Foresters; National Plant Board; The Ohio State 
University, Department of Entomology; Purdue University, Department of 
  Entomology; Society of American Foresters; The Nature Conservancy; 
 Union of Concerned Scientists; and the University of Georgia, Center 
                for Invasive Species & Ecosystem Health

    We urge the Subcommittee on Interior, Environment, and Related 
Agencies to appropriate adequate funding for the USDA Forest Service to 
manage non-native insects and plant diseases that threaten America's 
forests. We recommend an fiscal year 2009 appropriation of $123 million 
for the USDA Forest Service Forest Health Management Program. This 
level is about $44 million above the administration's request and 
approximately equivalent to the current level of funding. We appreciate 
your leadership in past years in securing funding for this vital 
program at levels significantly above the administration's request.
    Our proposed funding level would maintain the program's current 
level. Under the administration's request, funding for programs vital 
to protecting America's forests from such highly damaging introduced 
insects and diseases as the emerald ash borer, sudden oak death, 
hemlock woolly adelgid would be reduced by two-thirds or more; funding 
for the Asian long-horned beetle would be eliminated altogether. 
Funding targeting the Sirex woodwasp and gypsy moth would be reduced by 
almost two-thirds. The Forest Health Management program also counters 
other introduced insects that have attracted less attention, but that 
still cause significant damage to America's forests. These include 
Laurel wilt, which is killing redbay and sassafras trees in coastal 
Georgia and South Carolina; and several insects and pathogens on the 
islands of Hawaii and Guam.
    Maintaining current funding levels would also enable the USDA 
Forest Service to continue vital support for the pest eradication and 
containment programs carried out by the USDA Animal and Plant Health 
Inspection Service. Forest Service expertise in the pests' biology and 
detection and management methodology is crucial to the success of these 
programs. Failure to complete eradication of the Asian longhorned 
beetle will expose to destruction hardwood forests reaching from New 
England into Minnesota and smaller areas of the West. Particularly 
threatened are the hardwood timber, maple syrup, and autumn foliage 
tourism industries of the Northeast, and street trees across the Nation 
valued at $600 billion.
    The threat posed by the emerald ash borer is particularly critical. 
If its spread from the upper Midwest to the rest of the country is not 
prevented, it is will cause losses of urban trees worth as much as $60 
billion. Losses to the timber industry would be $25 billion in Eastern 
states. It is vitally important that the Forest Service effort 
targeting this insect not be reduced.
    The USDA Forest Service has the lead responsibility for detecting 
and responding to any outbreaks of sudden oak death in the hardwood 
forests of the East. These detection programs must not be halted as the 
risk of this pathogen being spread by infected nursery plants has not 
been eliminated. Furthermore, greater vigilance is needed to prevent 
introductions from Europe or elsewhere of other pathogens threatening 
to cause similar levels of damage.
    Finally, the Forest Health Management Program needs adequate 
funding to expand its Early Detection project. This program has been 
responsible for detecting more than a dozen introduced insects, 
including two which threaten the economically important pine forests of 
the Southeast: the Sirex woodwasp and Mediterranean pine beetle. Steady 
or increasing funding is necessary to expand this program to cover all 
states and to develop and deploy methodologies to detect the highly 
damaging wood-boring beetles.
    We recommend an increase of $3 million above the President's 
request for the ``Invasives R&D'' line item within the Forest Service 
Research program. This would permit maintaining at approximately 
current levels research aimed at improving detection and control 
methods for the Emerald Ash Borer, Hemlock Woolly Adelgid, sudden oak 
death (also called the phytophthora leaf and stem blight pathogen), 
gypsy moth, and other non-native forest pests and diseases. Funding at 
our recommended level would also allow expanded research on the Sirex 
woodwasp, which poses a serious threat to pine resources across the 
continent.
    The agency bearing the principal responsibility for eradicating 
newly introduced forest pests is not the USDA Forest Service, but 
rather the USDA Animal and Plant Health Inspection Service (APHIS), an 
agency under the jurisdiction of the Agriculture Appropriations 
subcommittee. The USDA Forest Service plays a critical support role by 
providing both management expertise and critical research. 
Nevertheless, the subcommittee cannot achieve its goal of protecting 
the Nation's forests' health as long as funding shortfalls undermine 
USDA APHIS eradication programs. We encourage the subcommittee to work 
with the Agriculture Appropriations Subcommittee to find ways to 
increase funding for forest pest line items in the USDA APHIS Emerging 
Plant Pest account.
                                 ______
                                 
           Prepared Statement of the Alliance to Save Energy

    The Alliance to Save Energy (``the Alliance'') is a bipartisan, 
nonprofit coalition of business, government, environmental, and 
consumer leaders committed to promoting energy efficiency worldwide to 
achieve a healthier economy, a cleaner environment, and greater energy 
security. The Alliance, founded in 1977 by Senators Charles Percy and 
Hubert Humphrey, currently enjoys the leadership of Senator Mark Pryor 
as Honorary Chairman; Duke Energy President and CEO James E. Rogers is 
the Co-Chairman; Representatives Ralph Hall, Zach Wamp, Steve Israel, 
and Ed Markey, and Senators Jeff Bingaman, Susan Collins, Larry Craig 
and Byron Dorgan serve as Honorary Vice-Chairs. More than 145 companies 
and organizations support the Alliance as Associates.
    The Alliance is submitting this testimony in support of funding for 
the Energy Star Program within the Climate Protection Division of the 
Office of Air and Radiation at the United States Environmental 
Protection Agency. We are requesting that the subcommittee approve 
funding in the amount of $100 million for the EPA Energy Star Program 
in fiscal year 2009, for the benefits set forth below.
    I am pleased to submit testimony in support of one of the most 
successful voluntary Federal programs which has achieved a market 
transformation by enabling consumers to find and purchase energy-
efficient products, buildings and services by awarding the well 
recognized ``Energy Star'' label. Energy Star is a completely voluntary 
partnership program which has successfully removed marketplace barriers 
to existing and emerging technologies, provided information on 
technology opportunities, generated awareness of energy-efficient 
products and services, and educated consumers about life-cycle energy 
and cost-savings. The Energy Star program is working with companies, 
States, utilities, and others to deliver energy efficiency into our 
homes, commercial buildings, and industry The program helps consumers 
understand the benefits through lower energy bills of paying a modest 
additional cost for purchasing more efficient, smarter technologies.
    Energy Star's voluntary partnership program--which includes Energy 
Star Buildings, Energy Star Homes, Energy Star Small Businesses, and 
Energy Star Labeled Products--has made a significant contribution to 
reducing consumer energy use, however a wide array of important, 
additional opportunities to use the program to promote energy 
efficiency remain unfulfilled. Considering the rapidly escalating 
energy prices and concerns about electricity reliability, natural gas 
supplies, and air pollution and global warming, it makes little sense 
to decrease funding for a successful program that makes a significant 
down payment every year in reducing the carbon footprint.
    Increased investment by the Federal Government in the Energy Star 
Program will translate to increased energy savings. The EPA has 
estimated that every Federal dollar spent on the Energy Star Program 
results in an average savings of $75 or more in consumer energy bills, 
the reduction of about 3.7 tons of carbon dioxide emissions, an 
investment of $15 in private sector capital and the contribution of 
over $60 to the economy. That's an impressive return on investment for 
$1 in Federal spending.
    The Alliance to Save Energy has consistently advocated doubling the 
funding for Energy Star over the next 5 years, to enable the program to 
label additional products, update its criteria, increase consumer 
education campaigns, and address energy efficient home improvements 
nationwide. This year, at a very minimum, we strongly urge you to 
reject the recommended cut in funding for EPA Energy Star and fund the 
program at last year's appropriated level. But we strongly urge you to 
go beyond merely keeping the program level funded.
    The Alliance urges the Subcommittee to consider the following 
program areas where we recommend increased funding:
  --Expanded program on energy-inefficient existing homes.
  --Expanded energy performance ratings systems to all building types
  --Expanded program for medium and small manufacturing and small 
        business;
  --Expanded program at the K through 12 level;
  --New program for emerging utilities and other energy efficiency 
        program sponsors in energy efficiency program development and 
        implementation
  --Expanded outreach to State and local governments
  --Exploring new technologies and practices
    Specifically, the Alliance to Save Energy recommends that our 
requested $55 million in increased funding (over the administration-
requested funding level of $44.2 million in fiscal year 2009) be 
directed at the following programs:
  --Expanded program on Nation's energy-inefficient existing homes 
        (beyond products).--Homeowners can save 10 to 20 percent on 
        their home energy bills--which now average $1,900 a year--with 
        a set of new ENERGY STAR programs that go beyond the labeling 
        of efficient products. [$12.5 million] These include:
    --Home Performance with ENERGY STAR.--A whole home retrofit 
            program--that can be offered by a State, utility or other 
            local program sponsor in partnership with EPA--that 
            provides homeowners with trained building professionals, 
            information on the best home improvement projects for their 
            home, and QA/QC on the work performed in their home. This 
            program is being offered in a dozen locations around the 
            country and is providing homeowners with 20 percent savings 
            on average on their home energy bills. Additional funding 
            would bring this program to many more cities and homeowners 
            around the country and help improve the building envelopes 
            (going beyond the products in the home) of millions of 
            post-1950 homes, among others, that were built prior to 
            building codes and other energy efficiency policies.
    --Quality Installation of Heating and Cooling Equipment.--EPA and 
            its partners would expand its program to improve the 
            installation and maintenance of heating and cooling 
            equipment, in concert with utilities and other program 
            partners. Many air conditioners are oversized and 
            improperly installed so that consumers receive low 
            efficiency and pay high bills even with a high efficiency 
            unit. Energy demand for air conditioners is a high cost for 
            consumers and drives the need for new power plants. 
            Programs to effectively address installation and 
            maintenance have just been developed and piloted. 
            Additional funding would spread these program models 
            broadly across the country.
  --Expanded Energy Performance Rating Systems for the Nation's 
        Buildings.--Information on energy use per square foot is 
        powerful in motivating energy efficiency improvements for 
        buildings. EPA has established an energy performance rating 
        system that offers standardized, consistent measurement that 
        applies to more than 60 percent of U.S. commercial building 
        space, and this system has already been used to assess the 
        energy use of about 10 percent of U.S. building space. 
        Additional funding could expand this system to apply to the 
        vast majority of the Nation's buildings and help EPA partner 
        with States, local governments, builders and other 
        organizations in its use. [$7.5 million]
  --Expanded Focus on Medium and Small Manufacturing and Small 
        Business.--EPA has developed a sector approach for working with 
        medium-sized manufacturers and an approach for providing 
        assistance to diverse small businesses. These efforts could be 
        greatly expanded. ENERGY STAR could enlist many small 
        businesses as partners in the proper delivery/installation of 
        high efficiency services and products since small businesses 
        constitute about half the economy and consume about half the 
        energy. [$10 million]
  --Outreach to Utilities, States, Local Governments, Elementary and 
        Secondary Education and Other Energy Efficiency Program 
        Sponsors in Program Development and Implementation.--EPA 
        already partners with hundreds of utilities, States, local 
        governments and other organizations as they run efficiency 
        programs. There is growing interest at the State level in 
        funding organized energy efficiency programs when energy 
        efficiency costs less than new generation. The ENERGY STAR 
        energy efficiency platform can assist these emerging program 
        sponsors in developing programs quickly and based on existing 
        best practices for overall greater effectiveness and cost-
        effectiveness. There should also be expanded outreach for 
        programs at the K through 12 level of elementary and secondary 
        education. [$10 million]
  --Expanded Outreach to State and Local Governments.--State and local 
        governments can save significantly through energy efficiency. 
        State and local governments could dramatically enhance 
        attractive investments in energy efficiency through expanded 
        outreach and sharing of best practice policies and programs, 
        including improving the efficiency of water and wastewater 
        treatment facilities, alternative financing approaches, 
        effective school energy efficiency programs, etc. Matching 
        funds for innovative State programs could be established. [$10 
        million]
  --Exploring new Technologies and Practices.--Technologies are 
        advancing quickly in many areas and offer new opportunities to 
        improve the efficiency of new homes, buildings, and products. 
        There are large benefits to achieve by increasing EPA's ability 
        to look at emerging technologies and focus earlier in the 
        technology development process on how best to bring them into 
        the ENERGY STAR program and deploy them in the marketplace. [$5 
        million]
    Energy efficiency is the quickest, cheapest, and cleanest way to 
address the linked issues of energy prices, energy security, air 
pollution, and global warming. With strong public policies and adequate 
Federal funding, this resource can be more widely and quickly deployed 
to help address the critical energy and environmental imperatives the 
United States faces today. The EPA Energy Star program is a shining 
example of a voluntary Federal partnership program that works and 
produces quantifiable benefits for consumers in terms of lower energy 
bills, and to our beleaguered planet in terms of the promotion of clean 
technology and products.
    The administration's fiscal year 2009 budget fails to provide the 
funding necessary to match the national imperative to create a 
sustainable energy future. Once again, we must rely upon the Congress 
to provide adequate funding for proven initiatives like the EPA Energy 
Star Program. On behalf of the Alliance to Save Energy, I strongly urge 
the subcommittee to approve $100 million in funding for the EPA Energy 
Star Program in fiscal year 2009.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists

    To the Chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on behalf of the American Association 
of Petroleum Geologists (AAPG) about the importance of the geological 
programs conducted by the U.S. Geological Survey (USGS).
    AAPG, an international geoscience organization, is the world's 
largest professional geological society representing over 33,000 
members. The purpose of AAPG is to advance the science of geology, 
foster scientific research, promote technology and advance the well-
being of its members. With members in 116 countries, more than two-
thirds of whom work and reside in the United States, AAPG serves as a 
voice for the shared interests of energy geologists and geophysicists 
in our profession worldwide. Included among its members are numerous 
CEOs, managers, directors, independent/consulting geoscientists, 
Federal and State regulators, educators, researchers and students.
    AAPG strives to increase public awareness of the crucial role that 
the geosciences, and particularly petroleum geology, play in our 
society. The USGS is crucial to meeting these societal needs, and 
several of its programs deserve special attention by the Subcommittee.

                     GEOLOGIC RESOURCE ASSESSMENTS

Energy Resources Program
    The USGS Energy Resources Program (ERP) conducts both basic and 
applied geoscience research focused on geologic energy resources (both 
domestic and international), including oil, natural gas, coal, coalbed 
methane, gas hydrates, geothermal, oil shale, and bitumen and heavy 
oil. ERP also conducts research on the environmental, economic, and 
human health impacts of the production and use of these resources. This 
research provides both the public and private sectors with vital 
information.
    An urgent problem that the ERP is currently working on is the 
preservation of geological and geophysical data. The Energy Policy Act 
of 2005 (EPACT 2005, Public Law 109-58) includes section 351 
Preservation of Geological and Geophysical Data. This program is 
designed to preserve geological, geophysical data, and engineering 
data, maps, well logs, and samples. It further envisages creating a 
national catalog of this archival material, and providing technical and 
financial assistance related to the archival material. As the act 
stipulated, the USGS has developed a plan to conduct this program, and 
is ready to go. It awaits sufficient appropriated funds to achieve the 
goals and objectives set forth in EPACT 2005.
    Why is preservation important? Responsible management and efficient 
development of natural resources requires access to the best available 
scientific information. Over many years industry, such as petroleum and 
mining companies, has invested billions of dollars to acquire 
geological and geophysical data. Because of changing company focus and 
economic conditions this data may no longer have value to the company 
that acquired it, and is in jeopardy of being discarded.
    But this data still has value to society. The data is valuable for 
further natural resources exploration and development, and can be 
applied to basic and applied earth systems research, environmental 
remediation, and natural-hazard mitigation. It is the type of data that 
will enable future generations of scientists and policy makers to 
address the Nation's energy, environmental, and natural-hazard 
challenges of the 21st century.
    The EPACT 2005 section 351 program was authorized at $30 million 
from fiscal year 2006 through fiscal year 2010. The fiscal year 2008 
allocation for this program is $1 million, just over 3 percent of 
authorized levels. Funding for previous fiscal years was even lower. 
These funding levels are insufficient to achieve this program's 
objectives.
    AAPG urges the subcommittee to fund existing Energy Resources 
Program activities at a minimum level of $26.6 million as the 
Administration requested, and to additionally appropriate $30 million 
authorized by EPACT 2005 for the preservation of geological and 
geophysical data, bringing the total Energy Resource Program budget to 
at least $56.6 million.

Mineral Resources Program
    The USGS Mineral Resources Program (MRP) is the only Federal source 
for comprehensive information and analysis of mineral commodities and 
mineral materials. The United States is the world's largest consumer of 
mineral commodities, and processed materials of mineral origin 
accounted for over $575 billion of the U.S. economy in 2007.
    It is therefore essential to this Nation's economic and national 
security that the Federal Government understands both the domestic and 
international supply and demand for minerals and mineral materials. 
This data is used throughout government (Departments of Commerce, 
Interior, Defense, and State; the Central Intelligence Agency; the 
Federal Reserve) and the private sector. There is no other source for 
this data and information.
    Yet, the President's fiscal year 2009 budget request calls for a 
$24.5 million cut in the MRP budget, reducing it by nearly 50 percent. 
The impact of such a dramatic reduction would be the elimination of 210 
of the 334 currently occupied scientific and technical positions in the 
program. At a time when we are seeing dramatic growth in demand for 
mineral commodities, such action is unwise.
    AAPG urges the Subcommittee to reject the Administration's proposed 
funding cut and appropriate funds for the Mineral Resources Program at 
fiscal year 2005 appropriated levels of $54 million.

                GEOLOGIC LANDSCAPE & COASTAL ASSESSMENTS

National Cooperative Geologic Mapping Program
    AAPG supports the National Cooperative Geologic Mapping Program 
(NCGMP). This unique partnership between the Federal and State 
governments and the university community further demonstrates of the 
importance of geoscience to society. The geologic maps produced by this 
program are used for natural resource management, natural hazard 
mitigation, water resource management, environmental conservation and 
remediation, and land-use planning.
    NCGMP deserves special commendation for its EDMAP initiative. This 
university partnership enables students, working in a close mentoring 
relationship with faculty, to produce maps while learning essential 
mapping skills. As such, the program delivers an immediate return on 
the Federal investment in terms of beneficial maps, as well as a future 
return in the form of a trained and competent next generation 
workforce.
    AAPG supports the President's fiscal year 2009 request for $27.4 
million for the National Cooperative Geologic Mapping Program, and 
urges the Subcommittee to consider further increases to this program.
    Thank you for the opportunity to present this testimony to the 
Subcommittee. And thank you for your leadership and support for the 
geosciences. As you deliberate appropriate funding levels for these 
USGS programs, please consider the important public policy implications 
these choices entail.
    If you would like additional information for the record, please 
contact me at AAPG's Geoscience and Energy Office--Washington, D.C. at 
202-684-8225, fax 703-379-7563, or 4220 King Street, Alexandria, VA 
22302.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association

    On behalf of the American Forest & Paper Association (AF&PA), I am 
pleased to submit the following testimony regarding the fiscal year 
2009 Forest Service budget. AF&PA is the national trade association of 
the forest products industry, representing forest landowners, pulp, 
paper, paperboard, and wood products manufacturers. Our companies are 
in the business of producing products essential for everyday life from 
renewable & recyclable resources that sustain the environment.
    The forest products industry accounts for approximately 6 percent 
of the total U.S. manufacturing output and employs more than a million 
people with an estimated annual payroll exceeding $50 billion. The 
management of the National Forests, key research programs, and programs 
which promote the management of the Nation's private forests are vital 
to the sustainability of our Nation's forests. The forest products 
industry is vitally interested in ensuring that these programs are 
funded at levels that reflect the high priority that forests should 
have as this nation grapples with challenges like climate change, 
mounting wildfire suppression costs, and major economic concerns facing 
the wood products sector. We recommend the following priorities as you 
build a budget for fiscal year 2009:

                      FIX THE FIRE FUNDING PROBLEM

    We believe firmly that a sound forest management program for the 
National Forests should be the foundation of the Forest Service budget. 
In order to achieve this, Congress must find a better way to fund fire 
suppression costs. We are encouraged by efforts in the House to 
establish an ``emergency'' account that can be managed separately from 
the rest of the Forest Service budget, and urge the Senate to take 
similar action. Without that separation, it is extremely unlikely that 
the agency will be able to meaningfully implement a forest management 
program that restores forest health, prevents emissions of significant 
amounts of greenhouse gases, and maintains a strong forest products 
infrastructure.
    The USDA Forest Service is in serious danger of becoming the 
National Fire Service. While firefighting is an important part of the 
agency's history and core mission, the way it is currently funded 
causes severe disruption in the delivery of every resource management 
program. Fire transfers have resulted in the diversion of over $2.2 
billion between 1999 and 2003, with over $450 million of that amount 
never repaid. The Knutson-Vandenberg (K-V) fund lost over $2.3 billion 
since the mid-1980s, with over $150 million transferred from K-V in 
fiscal year 2006 and not repaid.
    Fire suppression costs now make up almost half of the discretionary 
budget for the Forest Service, and many other important programs are 
suffering as a result. We look forward to working with you to enact 
changes in funding large fire costs in a manner which does not raid 
important land management programs. Cost containment measures taken by 
the agency, while critical and needed, are clearly not enough to 
achieve this goal.

 INCREASE FUNDING FOR THE FOREST PRODUCTS PROGRAM AND BEGIN RESTORING 
                          DEPLETED TRUST FUNDS

    AF&PA views active forest management as vital to reducing hazardous 
fuel loads and preventing long-term forest health and wildfire 
disasters. Fuels reduction programs are much more effective and cost-
efficient over the long term when there is a strong forest products 
industry presence. An integrated program that at once addresses fuels 
reduction and stand resilience to disturbance while providing a 
reliable and sustainable supply of wood and fiber is critical to 
sustaining current industry infrastructure. We therefore suggest that 
at least a 5 percent ($16 million) increase over the fiscal year 2008 
enacted level in the forest products line item is needed to implement 
an integrated and sustainable program as called for in forest plans in 
all regions of the country.
    The volume of fiber sold through timber sales is well below 
sustainable harvest levels, and is insufficient both ecologically and 
economically. With Forest Service data indicating that growth exceeds 
harvest five-fold, the lack of active management is exacerbating the 
already dire situation regarding wildfire threats and insect and 
disease epidemics. Economically, diminished industry infrastructure 
hampers the ability of the agency to conduct needed work. While several 
budget line items contribute to the agency's ability to conduct active 
management, the forest products line item is the most significant. 
Sufficient funding for this program would help return the Forest 
Service to a ``forest management'' agency, not a ``fire service'' 
agency.
    We appreciate the language that was included in the current fiscal 
year's appropriations omnibus that placed a high priority on regional 
capability in the distribution of forest products funding, and would 
encourage similar language in this year's spending bill. We also value 
this committee's past attention to accountability within the Forest 
Service, and encourage similar language this year directing the agency 
towards greater efficiencies and adherence to performance standards.
    The Forest Service is currently facing significant depletion of its 
trust funds, such as K-V and the Salvage Sale fund. This depletion, as 
well as the agency's growing reforestation backlog, is the direct 
result of wildfires. Reforestation following timber harvest is paid for 
out of receipts from the timber sold. Wildfires, however, create 
immediate reforestation needs and no source of funds to pay for them. 
Over 1 million acres are in need of reforestation because of this. 
Congress can take some initial steps to implement important 
reforestation, rehabilitation, and habitat work by repaying the $159 
million in K-V funds that were transferred for fire borrowing.
    The administration proposes continued reductions in Washington 
Office and Regional Office administrative expenses. We urge the 
committee to hold the agency accountable for these cuts, which have 
been promised in prior years but have, to our knowledge, not 
materialized. Currently, fully 30 percent of forest products funds are 
not reaching the field. If the agency is directed to reduce 25 percent 
of the fiscal year 2009 forest products Washington Office and Regional 
Office funds, this frees up $30 million for program implementation at 
the field level.
    We are also extremely concerned about the language included in the 
Forest Service's budget justification regarding timber markets. The 
Forest Service must not base projected accomplishments on the volatile 
market for lumber, but instead must focus on forest health and sound 
management of its forest lands, and be aware that failure to deliver a 
forest health timber sale program will lead to further mill closures. 
Ultimately, the agency will find itself faced with fewer customers and 
higher costs for land management when the industry infrastructure 
contracts even further. The Congress should direct the agency to 
maximize program outputs given the available budget, while integrating 
hazardous fuels reduction more fully into the program.

  INTEGRATE HAZARDOUS FUELS REDUCTION WITH OTHER LAND MANAGEMENT GOALS

    The hazardous fuels reduction program is a critical component to 
restoring forest health on federal lands. We therefore support a 15 
percent increase ($45 million) over the fiscal year 2008 enacted level 
to the hazardous fuels reduction budget. Where hazardous fuels 
reduction is the primary goal of land management efforts, the Forest 
Service must have the flexibility to use hazardous fuels funds to 
complete projects, including those requiring timber sales to meet 
management objectives. The forest products industry can play a key role 
in reducing hazardous fuels from federal lands. The costs of mechanical 
hazardous fuels reduction are frequently significantly lower in regions 
with a substantial forest products industry presence. The agency must 
take advantage of these synergies.
    It is also critically important that the agency move away from 
using ``acres treated'' as the sole metric of accomplishment in the 
hazardous fuels reduction program. Continued focus on this measure 
incentivizes the agency to treat low priority acres repeatedly, and 
discourages them from treating higher priority forested acres in 
condition class 3. More aggressive pursuit of mechanical treatments, 
including greater use of Healthy Forest Restoration Act authorities, 
will result in treatments that produce usable wood fiber and longer-
lasting and more meaningful positive impacts on the long-term fire 
problem.

             MAINTAIN PROGRAMS TO PROTECT PRIVATE FORESTS:

    We are concerned about the proposed reductions for key programs 
such as Cooperative Forest Health, Cooperative Fire Assistance, Forest 
Legacy Roads, Forest Stewardship, and Forest Legacy. We understand the 
budgetary pressures that produced the President's budget proposal, but 
we cannot support these reductions. With ongoing droughts, invasive 
species infestations, and significant forest health problems in many 
corners of the country, these cuts leave valuable private forest 
resources vulnerable to damage from pests or fires that do not respect 
boundary lines between public and private lands. Similarly, 
deteriorating roads in upper watersheds on national forest land will 
ultimately deposit the problem on downstream private lands and streams 
unless corrective actions are funded and applied to all affected areas.
    We urge you to provide funding for these important programs at the 
current level of spending, which represents a minimum need to ensure 
the health of these productive timberlands. Private timberlands provide 
the bulk of the Nation's wood fiber supply, while also sequestering 
huge amounts of carbon from the atmosphere, providing millions of acres 
of wildlife habitat, and supplying clean drinking water for millions of 
Americans. These programs protect these resources from threats that are 
beyond the capability of small landowners to effectively combat.

           FUND CRITICAL RESEARCH ON FORESTS, FOREST PRODUCTS

    Targeted research and data collection is needed to support forest 
productivity, forest health, and economic utilization of fiber. 
Increased funding for the Research and Development budget area is 
needed in order to allow the agency to focus on several critical 
priorities. The Forest Inventory and Analysis (FIA) program is the 
backbone of our knowledge about the nation's forests, and is a critical 
tool that allows us to assess their sustainability and health. We are 
concerned about the reduced budget proposed in the President's request 
and urge you to provide funding at the fiscal year 2008 enacted level. 
This level is needed to allow the Forest Service to cover 100 percent 
of U.S. forest lands and expedite data availability and analysis.
    We also recommend increased funding within the Forest Service R&D 
program in support of the Agenda 2020 Technology Alliance. Working in 
partnership with universities and the private sector, Forest Service 
funding for the Agenda 2020 program supports research to develop and 
deploy wood production systems that are ecologically sustainable, 
socially acceptable, and economically viable, in order to enhance 
forest conservation and the global competitiveness of forest product 
manufacturing and biorefinery operations in the United States. Finally, 
we encourage greater support for research on forest products and 
utilization at the Forest Products Lab and Research Stations. 
Innovative wood and fiber utilization research, including 
nanotechnology research, contributes to conservation and productivity 
of the forest resource. The development of new forest products and 
important research on the efficient use of wood fiber directly address 
the forest health problem through exploration of small diameter wood 
use and bioenergy production.

                               CONCLUSION

    Congress must use this year's Forest Service budget as an 
opportunity to create a clear division between fire suppression funding 
and critical natural resource management programs. Congress has 
recognized that catastrophic wildfires are a land management problem, 
but now the next step must be taken. Programs such as hazardous fuels 
reduction and timber management must be protected from raids to pay for 
catastrophic fires. Forest management that reduces fuel loads and 
improves condition class must be a top priority. Forest products 
programs must focus on managing for forest health, not just in fire 
prone forests but in other forest types that benefit from periodic 
harvest. Thank you for the opportunity to provide input on the fiscal 
year 2009 Forest Service budget.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    Thank you for this opportunity to provide the American Geological 
Institute's perspective on fiscal year 2009 appropriations for 
geoscience programs within the subcommittee's jurisdiction. We ask the 
subcommittee to support conservative and fiscally responsible increases 
relative to proposed cuts by the administration for the United States 
Geological Survey (USGS), and the National Park Service within the 
Department of the Interior (DOI). The President's request for fiscal 
year 2009 for DOI is $10.7 billion, which is almost the same as the 
enacted budget of $10.675 billion in fiscal year 2003. Unfortunately, 
DOI continues to suffer from flat to decreasing funding over too many 
years and cannot sustain vital work to understand and manage natural 
resources without wise investments now.
    If the President's request were enacted, the USGS would receive a 
total budget of about $969 million, a nearly 4 percent decrease 
compared to last year's funding. Regrettably, the request proposes 
significant cuts to mineral resources, water programs and hazards 
investigations. The Mineral Resources Program would be cut by more than 
$24 million, Earthquake Hazards would be cut by $5 million and water 
programs would be cut by more than $17 million. If enacted, these 
reductions would hamper the Survey's ability to carry out its important 
objectives to monitor environmental conditions and provide resource 
assessments for economic development and national security. 
Specifically, we ask the subcommittee to restore funds to the Mineral 
Resources Program as well as several hazards and water programs and to 
support a $1.3 billion overall budget for USGS. Such a moderate budget 
increase of almost $300 million would allow essential, but consistently 
under funded, programs throughout the agency to fulfill their basic 
mission. Such a request is robustly supported by the 70 organizations 
of the USGS Coalition as well as other stakeholders. AGI is a charter 
member of the USGS Coalition.
    We also seek support for fiscally responsible increases relative to 
proposed cuts for water programs at the Environmental Protection Agency 
(EPA) and research at the Smithsonian Institution as well as support 
for the Geologic Resources Division of the National Park Service. For 
the Environmental Protection Agency (EPA), the proposed fiscal year 
2009 is $7.1 billion, continuing a steady decline from a budget of $8.4 
billion in fiscal year 2004. The budget would cut more than $318 
million for the clean water programs, brownfields programs, healthy 
ecosystems and watershed grants. The proposed budget would also cut 
more than $11 million from the Smithsonian Institution's budget for 
public programs, exhibitions and research.
    AGI is a nonprofit federation of 44 geoscientific and professional 
associations that represent more than 100,000 geologists, 
geophysicists, and other earth scientists who work in industry, 
academia and government. The institute serves as a voice for shared 
interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role that the geosciences play in society's use of resources and 
interaction with the environment.

                         U.S. GEOLOGICAL SURVEY

    For the sixth year in a row, the USGS faces cuts in the 
administration's request. AGI thanks the subcommittee for its record of 
restoring critical funds and recognizing the Survey's essential value 
to the nation. The USGS is a critical Federal science agency and it 
should receive increased funding like the proposed increases in the 
America COMPETES Act for the National Science Foundation and the Office 
of Science within the Department of Energy. The USGS performs 
complementary research, analysis and education and should be part of 
competitiveness initiatives to advance innovation in energy, climate 
change, water resources and hazards mitigation, assess natural resource 
needs, which are the foundation of a strong economy, and ensure 
American competitiveness in science and technology through basic 
geologic and geographic research.
    Virtually every American citizen and every Federal, State, and 
local agency benefits either directly or indirectly from USGS products 
and services. As was made clear by the National Research Council report 
Future Roles and Opportunities for the U.S. Geological Survey, the 
USGS's value to the nation goes well beyond the Department of the 
Interior's stewardship mission for public lands. USGS information and 
expertise address a wide range of important problems facing this 
Nation: earthquakes and floods, global environmental change, water 
availability, waste disposal, and availability of energy and mineral 
resources. At the same time, the Survey has a responsibility to provide 
scientific support for its sister land management agencies at Interior; 
an important mission that needs to be well executed if land management 
decisions are to be made with the best available scientific 
information. AGI asks the subcommittee to continue its efforts to help 
the administration better understand the Survey's value to the nation 
as a whole.
    Mineral Resources Program.--The value of domestically processed 
nonfuel mineral resources is estimated to be about $542 billion in 2006 
and growing. The USGS Mineral Resources Program is the only entity, 
public or private, that provides an analysis and assessment of the raw 
materials and processed minerals accessible from domestic and global 
markets. This highly regarded research program is the nation's premier 
credible source for regional, national and global mineral resource and 
mineral environmental assessments, statistics and research critical for 
sound economic, mineral-supply, land-use and environmental analysis, 
planning and decision-making. AGI urges the subcommittee to reject the 
Administration's requested cuts to this program and to fund it at the 
fiscal year 2005 appropriated level of $54 million. The huge cut, 
leaving the program with less than $30 million in fiscal year 2009 
would decimate the program. It would cost about 200 of 380 full time 
positions and would eliminate or reduce global mineral resource 
assessments of mineral commodities, research on industrial minerals, 
research on inorganic toxins, materials flow analyses, and the Minerals 
Resources External Research program.
    The data and analyses of the MRP are used by the Department of the 
Interior, Department of Defense, the Central Intelligence Agency, the 
Department of State, the Federal Reserve, other Federal, State and 
local government entities, foreign governments, private companies and 
the general public. We urge the subcommittee to restore the Mineral 
Resources Program to its fiscal year 2005 level of $54 million so that 
it may perform its core missions effectively and efficiently.
    National Cooperative Geologic Mapping Program.--AGI is encouraged 
by the administration's continued requests for small annual increases 
for the National Cooperative Geologic Mapping Program and values 
Congress' past support for much larger increases. This important 
partnership between the USGS, State geological surveys, and 
universities provides the Nation with fundamental data for addressing 
natural hazard mitigation, water resource management, environmental 
remediation, land-use planning, and raw material resource development. 
The program was authorized (Public Law 106-148) to grow from a starting 
level of $28 million in fiscal year 1999 to $64 million in fiscal year 
2005, but did not receive even 10 percent of the annual funding level 
in any given year. AGI strongly supports re-authorization of the 
National Cooperative Geologic Mapping Program at $64 million per year 
over the next 5 years.
    Natural Hazards.--A key role for the USGS is providing the 
research, monitoring, and assessment that are critically needed to 
better prepare for and respond to natural hazards. The tragic 
earthquake/tsunami in the Indian Ocean, hurricanes Katrina and Rita 
striking the gulf coast and the massive earthquake in Pakistan, remind 
us of the need for preparation, education, mitigation and rapid 
response to natural hazards. A 2006 National Academies report, Improved 
Seismic Monitoring, estimates that increased seismic monitoring leads 
to increased future savings from the damaging effects of potential 
earthquakes. With great forethought, the Earthquake Hazards Reduction 
Authorization Act of 2000 (Public Law 106-503) called for a significant 
federal investment in expansion and modernization of existing seismic 
networks and for the development of the Advanced National Seismic 
System (ANSS)--a nationwide network of shaking measurement systems 
focused on urban areas. ANSS can provide real-time earthquake 
information to emergency responders as well as building and ground 
shaking data for engineers and scientists seeking to understand 
earthquake processes and mitigate damage. ANSS has been allocated about 
10 percent of its authorized funding level per year, which is not 
nearly enough to deploy the 7,000 instruments called for in the law.
    We would like to commend the subcommittee for your leadership in 
securing previous increases for ANSS and ask for full funding in fiscal 
year 2009. The National Earthquake Hazards Reduction Program (NEHRP) 
was reauthorized in 2004 (Public Law 108-360) and AGI supports the 
appropriation of full funding of $88.9 million for the USGS component 
of NEHRP in fiscal year 2009 with not less than $36 million of these 
funds for the continued development of ANSS.
    Water Programs.--AGI applauds the proposed increases for a National 
Water Census to be conducted by the USGS as part of the Water for 
America Initiative. Increases for the National Streamflow Information 
and Ground-Water Resources programs as part of the census and to meet 
core mission objectives is excellent. We do request that the proposed 
termination of the State Water Resources Research projects and cuts to 
the National Water Quality Assessment (NAWQA) and the Hydrologic 
Research and Development programs be opposed by the Subcommittee. In 
particular, the NAWQA program has for more than a decade provided the 
Nation with critical information on status and trends in surface and 
ground water quality. Such information has been extremely valuable to 
policymakers at local, state and national levels in areas such as 
identifying emerging contaminants, the effectiveness of policies and 
regulations, and the impact of land-use changes on water quality. We 
also support the restoration of funding to water research programs 
conducted by State Water Resource Research Institutes and within the 
USGS. Research is critical to expanding the knowledge base to improve 
the design and implementation of assessment programs like NAWQA, to 
build the next generation of world-class water scientists, and to 
ensure that the Nation is conducting insightful and effective water 
monitoring.

                    ENVIRONMENTAL PROTECTION AGENCY

    The President's budget proposal would cut more than $274 million 
from the Clean and Safe Water Goal and more than $36 million from the 
Healthy Communities and Ecosystems Goal at the Environmental Protection 
Agency. AGI opposes these proposed cuts and instead asks for modest 
increases for these programs to deal with rising costs and help the EPA 
carry out its mission of monitoring water quality, assuring safe 
drinking water, cleaning up contaminated waters, protecting and 
maintaining water infrastructure, monitoring and protecting watersheds 
and cleaning up superfund and brownfield sites.

                        SMITHSONIAN INSTITUTION

    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the subcommittee to build up Smithsonian research with steady 
increases that are a tiny fraction of the overall budget, but would 
dramatically improve the facilities and their benefit to the country. 
We support increased funding for Smithsonian research in fiscal year 
2009 and request that proposed cuts of more than $11 million (with a 
loss of more than 100 full time employees) for research, public 
programs and exhibitions be removed from consideration.

                         NATIONAL PARK SERVICE

    The national parks are very important to the geoscience community 
as unique national treasures that showcase the geologic splendor of our 
country and offer unparalleled opportunities for both research and 
education of our fellow citizens. The National Park Services' Geologic 
Resources Division was established in 1995 to provide park managers 
with geologic expertise. Working in conjunction with USGS and other 
partners, the division helps ensure that geoscientists are becoming 
part of an integrated approach to science-based resource management in 
parks. AGI would like to see additional support for geological staff 
positions to adequately address the treasured geologic resources in the 
national parks, especially as the National Parks approach their 100th 
anniversary. AGI supports funding for the National Parks Centennial 
Initiative, but is disappointed by the overall decrease of about 2 
percent for the National Park Service in the President's request. The 
Service needs steady increases in order to keep pace with rising costs, 
to hire new staff and to carry out their core missions.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
           Prepared Statement of the American Hiking Society

    American Hiking Society fiscal year 2009 trail and recreation 
funding recommendations include:
    USDA Forest Service (FS):
  --Recreation Management, Heritage and Wilderness: minimum of $285 
        million
  --Capital Improvement and Maintenance--Trails: minimum of $85 
        million, including $10.345 million for National Scenic and 
        Historic Trails
  --Legacy Roads and Trails Remediation Program: $75 million
    National Park Service (NPS):
  --Rivers, Trails and Conservation Assistance program: $12 million
  --National Trails System (NTS), Operations: $14.546 million; NTS 
        Construction: $2.095 million; NTS Feasibility Studies and 
        Planning: $1.061 million; NTS GIS: $1.253 million; NTS 
        Challenge Cost Share: $1.5 million
    Bureau of Land Management (BLM):
  --National Landscape Conservation System: $70 million
  --National Trails System: $6.0 Million to a new subactivity, or, 
        failing that, distributed amongst Recreation Management 1220, 
        Cultural Resources 1050, Annual Maintenance 1652, and Challenge 
        Cost Share 1770 Subactivities
  --Recreation Management: $70 million, including Travel and 
        Transportation Management: $15 million; Field Staff for Trail 
        Maintenance: $5 million; Public Outreach, Information 
        Management, and Education: $1 million
    U.S. Fish & Wildlife Service:
  --National Wildlife Refuge System: $514 million
    Land and Water Conservation Fund (LWCF):
  --Stateside LWCF (NPS): $125 million
  --Federal LWCF: $220 million, including National Scenic and Historic 
        Trails as follows: Appalachian NST: $10.645 million (FS), 4.275 
        million (NPS); Ice Age NST: $4.75 million (NPS); Florida NST: 
        $7 million (FS); Nez Perce NHT (BLM): $2 million; North Country 
        NST: $2 million (NPS), $8.25 million (FS); Oregon NHT (BLM): $5 
        million; Overmountain Victory NHT: $1 million (FS); Pacific 
        Crest NST: $16.25 million (FS)
    Madam Chairwoman and members of the Subcommittee, American Hiking 
Society is the only national nonprofit organization that promotes and 
protects foot trails and the hiking experience. We represent thousands 
of individual members, more than 285 member organizations, and speak 
for the 75 million Americans who hike. Our nation's trails provide 
unparalleled opportunities for hiking, enjoyment and appreciation of 
natural and cultural resources, healthy physical activities, and 
economic development for local communities. Hiking can also motivate 
people to protect the places they love and preserve them for posterity. 
We greatly appreciate the Subcommittee's past support for trails and 
recreation and urge you to support strong funding in fiscal year 2009 
that will keep our trails open, safe, and enjoyable today and for 
future generations. Despite the growing importance of recreation and 
our treasured lands and waters to the American people, the federal 
investment for trails, recreation, and land conservation has not 
increased accordingly. This lag has resulted in high maintenance 
backlogs, deteriorating infrastructure, loss of open space, and 
negative impacts to resources. In order for Americans to enjoy the 
outdoors, experience our rich natural heritage, and find healthy places 
to recreate, we need well-maintained trails and protected open spaces. 
We recommend the following appropriations to protect resources and 
ensure high-quality recreational experiences for future generations:

USDA Forest Service, Recreation Management, Heritage and Wilderness: 
        minimum of $285 million
    Although recreation makes up the greatest use of National Forest 
System lands, recreation remains severely underfunded and understaffed. 
Facilities deteriorate faster than upgrades and maintenance can be 
accomplished, and the dire shortage of recreation staff on-the-ground 
means obligatory agency functions--resource protection, provision of 
information and assistance to visitors, enforcement of laws and 
regulations, and performance of routine maintenance--often go 
unfulfilled or unsatisfactorily accomplished. Funding is also required 
for travel management planning for completion of motorized road and 
trail designations by 2010 in accordance with the 2005 travel 
management rule.
    The President's fiscal year 2009 proposed funding level, excluding 
any cost of living increases or inflationary pressures, would result in 
a RMHW program reduction of $25.6 million and 296 FTEs from fiscal year 
2008. The Forest Service requires increased funding for recreation 
management and wilderness to protect critical resources; upgrade 
recreation facilities; reduce the $200+ million deferred maintenance 
backlog; augment on-the-ground recreation and wilderness staff; improve 
recreation resource analyses and planning; and more effectively utilize 
partnerships and volunteers. We urge the subcommittee to prioritize 
Forest Service funding and ask for your continued strong support of the 
world-class recreation heritage of our National Forest System.

Forest Service, Capital Improvement and Maintenance--Trails: minimum of 
        $85 million
    The Forest Service manages 140,000 miles of trails. Visitor safety, 
protection of natural resources, provision of public access, and 
supporting economic growth all depend on a greater commitment of funds 
to trails. The Forest Service requires increased funding to restore, 
maintain, and improve its thousands of trail miles; reduce the $224 
million deferred maintenance backlog; prevent and mitigate resource 
impacts; and provide safe, high-quality recreational experiences for 
millions of hikers and other trail enthusiasts. The President's fiscal 
year 2009 proposed funding level, excluding any cost of living 
increases or inflationary pressures, would result in a program 
reduction of $26.3 million (34 percent decrease) and 249 FTEs from 
fiscal year 2008. American Hiking is a member of the Partnership for 
the National Trails System (PNTS) and endorses the specific funding 
requests for the individual national scenic and historic trails 
submitted by the PNTS totaling $5.49 million for operations and $4.855 
for construction. 2008 marks the 40th Anniversary of the National 
Trails System Act, and we urge your continued strong support for these 
national treasures as we embark on the Decade for National Trails 
leading up to the 50th Anniversary in 2018.

National Park Service
    American Hiking supports increased funding for national park 
operations, as included in the administration's fiscal year 2009 
request of $2.132 billion and also strongly urges increased funding for 
key NPS recreation and conservation programs including the Rivers, 
Trails and Conservation Assistance program and national scenic and 
historic trails.

NPS, Rivers, Trails, and Conservation Assistance program (RTCA).--$12 
        million
    The RTCA program implements the natural resource conservation and 
outdoor recreation mission of the NPS. Through technical assistance and 
partnerships, RTCA helps communities and agencies across America 
restore rivers and habitat, develop trail networks, preserve open 
space, and revitalize communities--all contributing to improved quality 
of life and close-to-home recreation. RTCA is a highly successful 
program, but its funding has remained relatively flat during the last 
decade and lagged well behind the rate of inflation, resulting in 
significant cuts to staff and reduced participation in on-the-ground 
projects. Current demand greatly exceeds the program's capacity. The 
administration fiscal year 2009 request calls for a $492,000 decrease, 
which would be a devastating hit to this small, yet extremely worthy, 
results-oriented NPS program. RTCA requires at least a $12 million 
appropriation to remedy the program's continued erosion, compensate for 
losses due to inflation, and enable the program to respond to growing 
needs and opportunities in communities and with national parks 
throughout the country.

NPS, National Trails System (NTS): Operations: $14.546 million; 
        Construction $2.095 million
    For most of the twenty national scenic and historic trails 
administered by the NPS, barely one-half of their congressionally 
authorized length and resources are protected and available for public 
use. At least $14.546 million for operations is needed in fiscal year 
2009 for resource protection, trail maintenance, interpretation, and 
volunteer coordination and support. We endorse the individual requests 
for national scenic and historic trails submitted by the PNTS for 
administration and construction for the NPS-administered trails.

Bureau of Land Management (BLM), National Landscape Conservation 
        System: $70 million
    We request at least $70 million for the National Landscape 
Conservation System in fiscal year 2009--a modest increase over 
historic funding levels, accounting for the growth of the System, 
increased visitation, inflation and uncontrollable costs. We urge 
Congress to allocate at least $6 million of this total NLCS increase, a 
permanent base increase of $3.456 million over the permanent base shown 
in the President's request, to accomplish the objectives of BLM's 
National Trails Plan and provide for the continuing maintenance and 
operation of the BLM's National Trails.
    This funding should be permanently established in a new National 
Scenic and Historic Trails Subactivity account, without which BLM 
cannot plan for, achieve, or report upon objectives related to national 
trails. If this new subactivity is not created, the equivalent increase 
could be applied to the Recreation Management 1220, Cultural Resources 
1050, Annual Maintenance 1652, and Challenge Cost Share 1770 
Subactivities for use specifically related to BLM's national trails. 
Generally, we urge the NLCS office to prioritize Recreation Management 
Subactivity funding to fund planning, establishment, and maintenance of 
hiking trails on-the- ground throughout the Conservation System.

BLM, Recreation Management.--$70 million
    The BLM manages 261 million acres of lands in the fastest growing 
states in America, with use in some areas increasing by 300 percent. 
Unfortunately, BLM receives barely sustainable funding to provide the 
rapidly increasing number of visitors safe and convenient access to the 
public land recreation resources they demand. Our request focuses on 
several areas of greatest need:
    Travel and Transportation Management: $15 million.--BLM is 
committed to travel management planning for its hundreds of thousands 
of miles of primitive roads and trails, a process crucial to ensuring 
that recreational trails are sustainable and safe. Additionally, 
adequate signage and maps are frequently unavailable on BLM trails, 
precluding safe access for many user groups.
    Field Staff for Trail Operations: $5 million.--Ninety percent of 
BLM recreation staff is primarily office-based, with little opportunity 
to directly maintain and protect trails. As a result, many BLM areas 
have few publicly available trails, and users face increasing threats 
from migrant traffic, methamphetamine manufacture, and poorly 
maintained and unmarked trails. Increased funding in this area would 
enable BLM to hire and train law enforcement and recreation technician 
staff to complete needed inventory, repair, and maintenance functions.
    Public Outreach, Information Management, and Education: $1 
million.--BLM is far behind the other land management agencies in 
informing the public about the recreational resources available on its 
lands. Many BLM field offices are unable to provide accurate 
information about trail resources, and many of the BLM recreation 
websites are nonfunctional. Increased funding is crucial to give BLM 
basic abilities to communicate recreational opportunities to the 
public.''

U.S. Fish & Wildlife Service, National Wildlife Refuge System: $514 
        million
    The National Wildlife Refuge System protects myriad species and 
critical habitat and provides recreational opportunities on 
approximately 2,500 miles of land and water trails for nearly 40 
million visitors annually. The operations and maintenance backlog for 
the system totals more than $3 billion, and approximately 200 refuges 
do not have any staff. Without adequate staff, important management 
activities such as trail maintenance, habitat restoration, and 
educational programs will be diminished or eliminated. A minimum 
increase of $15 million is necessary to prevent ``no net loss'' for the 
system, meet cost of living increases and inflationary pressures, and 
keep refuges from cutting public use programs.

Land and Water Conservation Fund (LWCF): $125 million Stateside; $220 
        million Federal
    The LWCF provides and protects hiking opportunities nationwide 
through federal land acquisition and State recreation grants. More than 
40,000 LWCF projects have been completed in virtually every county 
across America. Authorized at $900 million annually, the fiscal year 
2009 administration request represents one of the lowest proposed 
funding levels in the program's history. LWCF is critical to the future 
protection of our public lands, national trails, and provision of 
close-to-home recreation opportunities. We strongly oppose the 
administration's recommendation to zero out the stateside LWCF program.

                               CONCLUSION

    American Hiking is dedicated to building, maintaining and 
protecting hiking trails and their natural corridors so that current 
and future generations can experience the many joys and benefits of 
hiking and are inspired to protect this legacy. Through our Volunteer 
Vacations and National Trails Day programs, we engage thousands of 
volunteers in trail projects every year. Volunteerism is essential to 
trails and recreation; however, volunteerism on public lands must not 
be perceived as a panacea to declining agency budgets. We greatly 
appreciate the Subcommittee's past support for trails and recreation 
and look forward to continued strong support. Thank you for the 
opportunity to testify and for considering our requests.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which comprise the American Indian Higher Education Consortium (AIHEC), 
thank you for this opportunity to present our fiscal year 2009 
Appropriations recommendations for the 26 colleges funded under the 
Tribally Controlled College or University Assistance Act (Tribal 
College Act), our two tribally controlled postsecondary career and 
technical institutions, the two Bureau of Indian Education 
postsecondary institutions, and the Institute of American Indian Arts. 
The U.S. Department of the Interior, Bureau of Indian Education, 
administers these programs, save for the Institute of American Indian 
Arts, which is funded directly by the Interior Department. In fiscal 
year 2009, TCUs seek $70.7 million to fund all of the programs under 
the Tribal College Act; and a total of $7.0 million for our two 
tribally controlled postsecondary career and technical institutions.
    Under the Tribal College Act, we seek $68.1 million for 
institutional operations grants; of which, $50.4 million would be for 
Title I grants (funding 25 TCUs) and $17.7 to fund Title II (Dine 
College). This request is an increase of $6.2 million for Title I 
grants and a $5.8 million increase for Dine College over fiscal year 
2008 levels and a total of $12.1 million over the President's fiscal 
year 2009 budget request for institutional operations funding. 
Additionally, we seek funding for the technical assistance contract 
authorized under the Act [25 USC 1805] at the same amount as available 
in both fiscal year 2008 and the President's fiscal year 2009 budget 
and $2.0 million to help establish and fund endowments under Title III 
of the act.
    Tribal Colleges ask that Congress reject the administration's 
latest recommendation to eliminate Department of the Interior funding 
for United Tribes Technical College and Navajo Technical College and to 
appropriate funds at $4.5 million and $2.5 million, respectively. 
AIHEC's membership also includes three other TCUs funded under separate 
authorities within Interior Appropriations, namely: Haskell Indian 
Nations University; Southwestern Indian Polytechnic Institute; and the 
Institute of American Indian Arts. AIHEC supports the independently 
submitted requests for funding the institutional operations budgets of 
these institutions.
    Forward Funding of Institutional Operations Grants: For the past 
several years, basic institutional operations funding has not been 
available to the TCUs until well after October 1 of the relevant fiscal 
year.
  --In fiscal year 2006, despite the early August enactment of the 
        Interior spending bill, almost 2 months prior to the start of 
        the fiscal year, funds were not distributed to the TCUs until 
        late November, 2 months into the new fiscal year--3 months into 
        the school year.
  --In fiscal year 2007, due to the protracted appropriations process, 
        TCUs did not receive operating funds until mid-March; 5 months 
        into the fiscal year and 6 months after the academic year 
        began.
  --This year (fiscal year 2008), TCUs did not gain access to their 
        initial partial payment, made in order under the first 
        continuing resolution, until December 13--a month into the 
        second continuing resolution. TCUs were 2 months into the new 
        fiscal year, and 3 months into the academic year, and unable to 
        access even a partial payment toward their basic day-to-day 
        operating budgets.
    Securing a one-time payment of $60 million to transition to a 
forward funded program for TCU institutional operations would correct 
this unfortunate cycle of delayed payments, expensive short-term loans, 
and lay-offs that perennially plague TCUs and--for the first time--
would give these institutions the resources they need at the start of 
each academic year. Forward funding is authorized under the Tribal 
College Act and is consistent with the existing funding practices of 
other Indian education operating accounts within the Department of the 
Interior. Recognizing the fiscal constraints that this Congress is 
laboring under, TCUs recommend an incremental approach aimed at 
securing the funds necessary to transition the TCU grants program to 
forward funding over the next 3 years. We request an additional $20 
million be appropriated each year for the next 3 fiscal years (2009-
2011), resulting in the $60 million necessary to finally establish the 
TCU institutional operating grants program as a forward funded program.

                   BACKGROUND AND FUNDING DISPARITIES

    Today there are 36 TCUs located in 14 States, which were begun 
specifically to serve the higher education needs of American Indians. 
Annually, these institutions serve students from more than 250 
federally recognized tribes, more than 80 percent of whom are eligible 
to receive Federal financial aid.
    TCUs are accredited by independent, regional accreditation agencies 
and like all institutions of higher education, must undergo stringent 
performance reviews on a periodic basis to retain their accreditation 
status. In addition to college level programming, TCUs provide much 
needed high school completion (GED), basic remediation, job training, 
college preparatory courses, and adult education.
    Title I of the Tribal College Act authorizes funding for the basic 
institutional operating budget of one qualifying institution per 
federally recognized tribe based on a full-time American Indian student 
enrollment formula. Despite the much appreciated increases that 
Congress has appropriated over the last several years, TCUs remain 
chronically underfunded. Today, 27 years after the act was first 
funded, the TCUs are receiving $5,304 per Indian student, still below 
the authorized level. If you factor in inflation, the buying power of 
this appropriation is $1,270 LESS per Indian student than it was in the 
initial fiscal year 1981 appropriation, which was $2,831 per Indian 
student. While the other TCUs' operations funding is not enrollment 
driven and therefore the disparity is not as easily illustrated, they 
too suffer from a lack of adequate basic operating funds. This is not 
simply a matter of appropriations falling short of an authorization; it 
effectively impedes our institutions from having the necessary 
resources to grow their programs in response to the changing needs of 
their students and the communities they serve.

                             JUSTIFICATIONS

    (a) TCUs provide critical access to vital postsecondary education 
opportunities. Tribal Colleges and Universities provide access to 
higher education for American Indians and others living in some of the 
Nation's most rural and economically depressed areas. The average 
family income for a student first entering a TCU is approximately 
$14,000, which is 33 percent below the Federal poverty threshold for a 
family of four ($21,200). In addition to serving their students, TCUs 
serve their communities through a variety of community outreach 
programs.
    (b) TCUs are producing a new generation of highly trained American 
Indians as teachers, tribal government leaders, engineers, nurses, 
computer programmers, and other much-needed professionals. By teaching 
the job skills most in demand on their reservations, TCUs are laying a 
solid foundation for tribal economic growth, with benefits for 
surrounding communities. In contrast to the high rates of unemployment 
on reservations, graduates of TCUs are employed in ``high need'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, and nurses/health care providers. Just as 
important, the overwhelming majority of tribal college graduates remain 
in their tribal communities, applying their newly acquired skills and 
knowledge where they are most needed.
    (c) TCUs meet the strict standards of mainstream accreditation 
boards offering top quality academic programs and serve as effective 
bridges to 4 year institutions of higher learning. A growing number of 
TCUs have attained a 10 year accreditation term, the longest term 
granted to any higher education institution. While most TCUs are 2 year 
institutions offering certificates and associate degrees, their 
transfer function is significant. A survey of TCU graduates conducted 
by Harder + Company Community Research, San Francisco, CA for the 
American Indian College Fund, indicated that more than 80 percent of 
respondents who attended a mainstream college prior to enrolling at a 
tribal college did not finish the degree they were pursuing at the 
mainstream college. The rate of completion markedly improved for those 
who attended a tribal college prior to pursuing a degree at a 
mainstream institution. After completing tribal college coursework, 
less than half of respondents dropped out of mainstream colleges, and 
nearly 40 percent went on to obtain a bachelor's degree. This suggests 
TCUs have a profound impact on the persistence of American Indian 
students in pursuit of baccalaureate degrees. The overwhelming majority 
of respondents felt that their tribal college experience had prepared 
them well for further education and noted that it had a very positive 
impact on their personal and professional achievements.

                         SOME ADDITIONAL FACTS

    (a) Enrollment Gains and New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since they were first 
funded, the number of tribal colleges has quadrupled and continues to 
grow; Indian student enrollments have risen by over 300 percent. In 
fiscal year 2005, Saginaw Chippewa Tribal College (Michigan) and Tohono 
O'odham Community College (Arizona) became eligible to receive funds 
under the Tribal College Act. In fiscal year 2007, Ilisagvik College 
(Alaska) became eligible for funding, and White Earth Tribal and 
Community College (Minnesota) will be eligible in fiscal year 2009. 
TCUs are in many ways victims of their own successes. The growing 
number of tribally chartered colleges and added students has forced 
TCUs to slice an already inadequate annual funding pie into even 
smaller pieces.
    (b) Local Tax and Revenue Bases.--TCUs cannot rely on local tax 
base revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. On reservations where TCUs are located, the 
unemployment rate can well exceed 60 percent. In comparison, the 
current national unemployment rate is 4.8 percent.
    (c) Trust Responsibility.--The emergence of TCUs is a direct result 
of the special relationship between American Indian tribes and the 
Federal Government. TCUs are founded and chartered by their respective 
American Indian tribes, which hold a special legal relationship with 
the Federal Government, actualized by more than 400 treaties, several 
Supreme Court decisions, prior Congressional action, and the ceding of 
more than one billion acres of land to the Federal Government. Beyond 
the trust responsibility, the fact remains that TCUs are providing a 
public service that no other institutions of higher education are 
willing, or able, to provide by helping the Federal Government fulfill 
its responsibility to the American people, particularly in rural 
America. Despite the fact that only students that are enrolled members 
of a federally recognized Indian tribe are counted when determining an 
institution's share of the operating funds, TCUs have open enrollment 
policies. Approximately 20 percent of TCU enrollments are non-Indians. 
They are simply and effectively removing barriers that have long 
prevented equal access to higher education for reservation community 
residents.

            THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST

    The President's fiscal year 2009 budget includes level funding at 
$56.0 million for institutional operating grants for 26 TCUs. Over the 
past few years several new TCUs have become eligible for funding under 
Title I of the Tribal College Act. In fiscal year 2009, White Earth 
Tribal and Community College in Mahnomen, MN will join the list of 
eligible institutions. We are hopeful that Congress will build on the 
President's fiscal year 2009 budget. Additionally, the fiscal year 2009 
budget once again recommends eliminating Department of the Interior 
funding for the two tribally controlled postsecondary career and 
technical institutions, we trust that Congress will again reject the 
President's recommendation and adequately fund these two vital 
institutions.

              APPROPRIATIONS REQUEST FOR FISCAL YEAR 2009

    TCUs respectfully request a total appropriation of $70.7 million 
for all of the programs authorized under the Tribal College Act [25 
U.S.C. 1801 et seq.]. Specifically, TCUs seek $68.1 million for 
operating grants under, of which, $50.4 million would be for Title I 
grants (funding 25 TCUs) and $17.7 to fund Title II (Dine College). 
This request is an increase of $6.2 million for Title I grants and a 
$5.8 million increase for Dine College over fiscal year 2008 levels and 
a total of $12.1 million over the President's fiscal year 2009 budget 
request. Additionally, we seek funding for the technical assistance 
contract [25 USC 1805] at the same amount as available in fiscal year 
2008 and in the President's request. These funds help address technical 
assistance needs of TCUs in securing and maintaining their 
accreditation and to fund data collection and analysis necessary to 
comply with Congressional and Department data requests. Additionally, 
we request $2 million for Title III of the Act, which helps our 
institutions to build endowments. The President's budget reduces this 
program to just $109,000. Lastly, we request an additional $20 million 
be appropriated each year for the next 3 fiscal years (2009-2011), 
resulting in the $60 million necessary to finally establish the TCU 
institutional operating grants program as a forward funded program
    For our two tribally controlled career and technical institutions, 
we support $4.5 million for United Tribes Technical College; and $2.5 
million for Navajo Technical College to restore and expand the funding 
for these programs that the fiscal year 2009 President's budget once 
again recommends eliminating.

                               CONCLUSION

    Tribal Colleges and Universities provide quality higher education 
to many thousands of American Indians who might otherwise not have 
access to such opportunities. The modest Federal investment that has 
been made in TCUs has paid great dividends in terms of employment, 
education, and economic development. Continuation of this investment 
makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your serious 
consideration of our fiscal year 2009 appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) encourages the 
committee to provide the Environmental Protection Agency (EPA) with at 
least $646.5 million for the Office of Research and Development (ORD) 
for fiscal year 2009. Within this amount, we encourage you to provide 
at least $181 million for human health and ecosystem research. We also 
support additional funding for important programs within ORD, such as 
research in endocrine disruptors and global change.
    AIBS is a nonprofit scientific association dedicated to advancing 
biological research and education for the welfare of society. Founded 
in 1947 as a part of the National Academy of Sciences, AIBS became an 
independent, member-governed organization in the 1950s. AIBS is 
sustained by a robust membership of some 5,000 biologists and nearly 
200 professional societies and scientific organizations; the combined 
individual membership of the latter exceeds 250,000. AIBS advances its 
mission through coalition activities in research, education, and public 
policy; publishing the peer-reviewed journal BioScience and the 
education website ActionBioscience.org; providing scientific peer 
review and advisory services to government agencies and other clients; 
convening meetings; and managing scientific programs.
    As EPA's scientific division, ORD performs valuable research needed 
to solve the environmental challenges facing the United States today 
and potential challenges in the future. EPA's environmental research 
plays an integral role in pollution prevention and protecting human 
health.
    Scientists in EPA's human health research program uniquely 
incorporate many environmental science disciplines to build a strong 
foundation for risk assessment and improve understanding of toxic 
chemical exposure and health effects. For instance, EPA scientists have 
conducted research on the chemical atrazine, an agricultural herbicide 
in use since the late 1950s, to understand its effects on human health.
    The EPA's Ecological Research Program is responsible for improving 
and protecting ecosystem services, such as clean air and water, rich 
soil for food and crop production, pollination, and flood control, 
which are often taken for granted. Research conducted by the Ecological 
Research Program provides scientific data, methods, models, and tools 
needed by states, communities, and tribes to understand the cost and 
benefits of using ecosystem services.
    The Endocrine Disruptor Research Initiative enhances our 
understanding of the effects of endocrine disruptors; the initiative 
determines how exposure to endocrine disruptors affects human and 
wildlife populations, and is developing tools to screen and test for 
disruptors. Funding for the initiative is imperative as it was 
identified as one of the ORD's top six research priorities in 1996 and 
continues to be a vital research program at the EPA.
    Funding for research programs at the EPA has steadily declined 
since fiscal year 2004, when ORD was funded at $646.5 million. The 
President's budget request for fiscal year 2009 would allocate $540.7 
million for the ORD, which is approximately $7 million less than the 
fiscal year 2008 enacted amount and is over $100 million less than what 
was appropriated in fiscal year 2004. Consequently, research in human 
health and ecosystems within the ORD would be allocated $144.7 million, 
$8.3 million less than fiscal year 2008 enacted funding and $36.5 
million less than funding enacted in fiscal year 2004.
    Over the past several years, the EPA Science Advisory Board has 
made multiple requests to EPA Administrator Stephen L. Johnson for a 
revitalization of ecosystem research and increased funding for 
ecological research. Dr. M. Granger Morgan, Chair of the Science 
Advisory Board, wrote to Administrator Johnson in March 2006 expressing 
concerns about funding declines and ``systematic bias against ecosystem 
research'' stating that ecosystem research at the EPA has ``sustained a 
decrease of nearly 26 percent since 2004.'' Dr. Morgan stated that the 
Board was distressed that instead funding has been cut and work has 
declined.
    We urge Congress to consider the Board's concerns and advice and 
provide the EPA with at least $646.5 million for the ORD for fiscal 
year 2009 and at least $181 million for human health and ecosystem 
research. Providing these amounts to the ORD, human health and 
ecosystem research, and other important biological science research 
will restore them to fiscal year 2004 levels, thus allowing vital 
research in ecosystem services and healthy communities to continue 
productively.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
        Society of America, and Soil Science Society of America

    Chairwoman Feinstein, ranking member Allard and members of the 
subcommittee: On behalf of the American Society of Agronomy, Crop 
Science Society of America, Soil Science Society of America (ASA-CSSA-
SSSA), we are pleased to submit comments in strong support of enhanced 
public investment in the U.S. Forest Service and U.S. Geological Survey 
as critical components of Federal appropriations for fiscal year 2009 
and beyond. With more than 25,000 members and practicing professionals, 
ASA-CSSA-SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA-CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

                                SUMMARY

    ASA-CSSA-SSSA understand the challenges the Senate Interior and 
Environment Appropriations Subcommittee faces with the tight budget for 
fiscal year 2009. We also recognize that the Interior and Environment 
Appropriations bill has many valuable and necessary components, and we 
applaud the efforts of the Subcommittee to fund the U.S. Forest Service 
and U.S. Geological Survey.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations. Soils are a vital component of 
forest management, and their understanding is essential to achieve the 
agencies strategic goals. The Societies are concerned with the overall 
8 percent decrease in the fiscal year 2009 President's budget for USFS. 
Vital programs that are essential for improved soil quality have been 
consistently under-funded. We urge the subcommittee to increase 
discretionary funding for the U.S. Forest Service budget to 
$4,800,000,000, about a 7 percent increase over the fiscal year 2008 
enacted levels ($4,448,428,000), thus putting the agency back on track 
towards properly managing the 749 million acres of forests in the 
United States for the services they provide: clean water and air; 
recreational opportunities; hunting; fishing; forest products; and, 
scenic values.
    The U.S. Geological Survey is an essential agency for the United 
States, providing reliable scientific information to describe and 
understand the Earth; minimize loss of life and property from natural 
disasters; manage water, biological energy, and mineral resources; and 
enhance and protect our quality of life. For fiscal year 2009, we urge 
the subcommittee to fund the U.S. Geological Survey at $1.3 billion, 
about an 8 percent increase over the recommended funding level in 
fiscal year 2008 ($1.2 billion). This growth rate is similar to the 
annual growth rate the President originally proposed for science 
agencies in the American Competitiveness Initiative order to double 
their budgets in 10 years.

                           U.S FOREST SERVICE

Forest and Rangeland Research
    The Forest Service Research (FSR) soils program examines key 
environmental issues: nutrient cycling, impact of acid rain on soil 
function, management impacts on soil productivity, plant nutrition, 
soil moisture, plant growth relationships, soil microbial functions and 
soil quality concepts. Past investments in soils research have yielded 
great benefits to the Nation, e.g. Research soil scientists described 
the environment-plant-soil carbon relations in the very carbon-rich 
black spruce forests needed to assist forest managers in understanding 
how to manage the soil carbon pool after fire disturbance, which is 
predicted to increase in a warming climate. ASA-CSSA-SSSA recommend 
increasing funding for Forest and Rangeland Research by 7 percent to 
$306,000,000 in fiscal year 2009. Within Forest and Rangeland Research, 
we urge the subcommittee to fund Resource Management and Use at 
$91,759,990 for fiscal year 2009, a 7 percent increase above fiscal 
year 2008 enacted budget. If these funding increases do not occur, the 
Forest Service will be unable to replace recently retired research soil 
scientists, and there will also be a loss of capability to maintain 
measurements on the national Long Term Site Productivity study that 
guides Forest Service sustainability requirements.

National Forest System
    Fresh water is a critical resource that is becoming scarce in many 
regions. It is essential that we continue to manage our forests to 
promote healthy watersheds, through effective monitoring. ASA-CSSA-SSSA 
are concerned with the President's proposed steep cuts to Inventory and 
Monitoring (-11 percent), Vegetation and Watershed Management (-5 
percent), Establish Forest Vegetation (-6 percent), Maintain and 
Improve Watershed Conditions (-7 percent) and Minerals and Geology 
Management (-15 percent) programs within NFS for fiscal year 2009. ASA-
CSSA-SSSA recommend 7 percent increases for each of these programs for 
fiscal year 2009 as follows: Inventory and Monitoring ($178,240,600), 
Vegetation and Watershed Management ($189,857,590), Establish Forest 
Vegetation ($41,942,930), Maintain and Improve Watershed Conditions 
($55,676,380) and Minerals and Geology Management ($90,033,000). Within 
Minerals and Geology Management, we urge a funding level of $10,374,720 
for the Manage Environmental Risk program. Soil is the natural filter, 
often overlooked, vital for healthy watersheds. Past investments in NFS 
have yielded enormous benefits to society including: Soil scientists 
annually provide critical soil resource information to Burned Area 
Emergency Response teams evaluating the environmental effects and 
developing rapid management responses for of hundreds of wildfires. 
Unless funding is restored to NFS, USFS will be unable to start a 
resource inventory of the remaining 59.7 million acres of National 
Forest land currently scheduled; adequately continue monitoring the 
effects of land management activities on forest and range 
sustainability as required by the National Forest Management Act of 
1976; and maintain a viable scientific knowledge base when retiring 
soil scientists are not replaced.

                         U.S. GEOLOGICAL SURVEY

Water Resources Investigations
    Water is a limiting resource for many regions of the United States; 
certain regions have been in a sustained drought for several years. The 
additional $9,500,000 proposed by the Bush administration will help the 
Water for America Program map future water availability. The 
President's fiscal year 2009 proposed a $10,645,000 cut for the 
National Water-Quality Water Assessment (NAWQA) program will seriously 
affect ground water monitoring capacity in USGS. Aquifers are the 
leading source of fresh water across the country and it is essential we 
monitor and maintain this ecosystem service. Nutrient loading of the 
Mississippi River has been linked to the hypoxia zone in the Gulf of 
Mexico. January 2008, NSF released a press release (08-010) that 
concluded agriculture is changing the chemistry of the Mississippi 
River due to increased carbon and water loading. As more farm acreage 
is converted to biofuels, there is increasing potential for these 
systems to load major river systems. The Societies recommend an 
increase of $6,080,000 (9.5 percent) over fiscal year 2008 enacted 
($63,912,000) for National Water-Quality Water Assessment program which 
will allow for annual monitoring at the 113 active sites, demonstrating 
the government's commitment to providing clean available water under 
increasing demands. ASA-CSSA-SSSA request a funding level of $8.8 
million for the Water resources research institutes which assist 
Federal and State agencies in promoting and facilitating the research 
and technology transfer they need to carry out their missions to 
protect human health, environmental resources, and economic 
sustainability.

Climate Change
    Climate change is a major focus for many agencies in fiscal year 
2009, as well as an important focus for the Societies. With increasing 
attention focused on climate change, ASA-CSSA-SSSA are interested in 
the role agriculture can play to mitigate climate change. The Societies 
applaud the reorganization of the separate areas focused on climate 
change into a single program; however we are concerned that some 
programs may not be transferred over. The new budget activity for USGS 
Global Climate change activities shifts focus from research to data 
collection and assessments. While data collection and assessments are 
essential for land management decisions, potential improvements in 
management will remain undiscovered without adequate funding for 
research. The continual proposed decline in research regarding climate 
change will severely inhibit the United State's ability to create new 
innovative management systems. Funding for Biological Research in 
fiscal year 2009 should be increased ($6,000,000) from 2008 enacted 
($5,007,000), not cut by $5,007,000 (100 percent reduction) as the 
President proposes. The $1,071,000 proposed reduction in funding for 
the Geographic research program will adversely affect the United 
States' ability to affectively reduce domestic greenhouse gas emissions 
in agriculture. The Geographic research program contributes to the 
Carbon Research Program, carried out by USGS, USDA, and other 
international partnerships. We recommend increasing funding levels for 
terrestrial carbon to $2,000,000 rather than reducing them. There are 
many factors that affect terrestrial carbon sequestration and continual 
United States support of these programs will enhance our knowledge of 
these factors, as well as develop potential new management practices.

Geographic Research, Investigations, and Remote Sensing
    Land use and change are major issues of concern for the Nation. 
Satellite imagery is used by a variety of stakeholders: government 
agencies such as USGS, EPA, NSF, and USDA; Universities-land grants and 
private; as well as the private sector environmental managers and 
planners. These images have become essential tools for land managers to 
assess land change, as well as, more effectively develop management 
plans. Precision agriculture utilizes remote sensing, in combination 
with GIS and GPS, to develop farm-specific management maps reducing 
over-application of nutrients and loss in sensitive areas. ASA-CSSA-
SSSA feel that a 35 percent cut in funding for Geographic Analysis and 
Monitoring (GAM) would cause huge setbacks to many important programs. 
Within GAM, the Societies do commend the president's budget proposal 
that increases funding for the Remote Sensing Missions and Data 
Acquisition program, which funds Landsat. The $2.1 million increase 
will continue to fund this vital program, encouraging further 
utilization of these data by land managers to help increase their 
ability to manage lands more effectively. However, ASA-CSSA-SSSA do not 
support the proposed $984,400 cut to the educational support for remote 
sensing which would eliminate affordable access to remotely sensed data 
at the State level to educational institutions. Of great concern to 
ASA-CSSA-SSSA is the proposed $1,013,000 cut to the Geographic Research 
program under Geographic Analysis and Monitoring which would 
effectively eliminate funds for continuing partnerships with other 
Department bureaus and the USDA for identifying the amount of carbon 
currently stored in ecosystems of the United States and select 
ecosystems around the world.
    Thank you for your thoughtful consideration of our requests. For 
additional information or to learn more about the American Society of 
Agronomy, Crop Science Society of America and Soil Science Society of 
America (ASA-CSSA-SSSA), please visit www.agronomy.org, www.crops.org 
or www.soils.org or contact:
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following statement on the fiscal year 2009 appropriation for the 
U.S. Environmental Protection Agency (EPA) research and education 
programs. The ASM is the largest single life science organization with 
more than 42,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and 
environmental well-being.
    The EPA relies on sound science to safeguard both human health and 
the environment. The EPA Office of Research and Development (ORD) 
sponsors innovative research that provides the solid underpinning of 
science and technology for EPA regulatory and public outreach 
activities. ORD conducts research on ways to prevent pollution, protect 
human health, and reduce risks from a variety of hazardous chemicals 
and microbes. The work at ORD laboratories, research centers, and 
offices across the country helps improve the quality of air, water, 
soil, and the way we utilize resources. ORD's mission is to: (1) 
Perform research and development to identify, understand, and solve 
current and future environmental problems; (2) Provide responsive 
technical support to EPA's mission; (3) Integrate the work of ORD's 
scientific partners (other agencies, nations, private sector 
organizations, and academia); and (4) Provide leadership in addressing 
emerging environmental issues and in advancing the science and 
technology of risk assessment and risk management.
    The ASM is very concerned with the diminishing budget for EPA's 
research and development programs. Optimal EPA oversight clearly 
depends upon the agency's access to scientific expertise and its 
ability to respond quickly to our changing environment. Investments in 
research and development programs support both access to expertise and 
development of the best responses to environmental demands. The fiscal 
year 2009 budget request for the ORD is $541 million, a 1.3 percent, or 
a $7 million, decrease from fiscal year 2008, and a 3 percent decrease 
from fiscal year 2007. These decreases are part of a longer term 
pattern of erosion that is deteriorating the scientific foundation that 
is essential for EPA to make decisions on and formulate regulations 
designed to protect human health and the environment. The ASM urges 
Congress to provide at least $595 million for the ORD in fiscal year 
2008, the same as the funding level provided in fiscal year 2006.

                      STAR GRANTS AND FELLOWSHIPS

    The proposed budget decreases for ORD include a reduced level of 
spending for the Science to Achieve Results (STAR) program. The ORD 
budget proposes only $61 million for STAR, a 2 percent reduction from 
fiscal year 2008, which is substantially less than the fiscal year 2002 
level of $102 million, even without correcting for inflation. The 
proposed decreases would continue seven consecutive years of cutting 
this important program. The funding request for STAR includes $55 
million for the STAR Grants, and $6 million for the STAR Fellowships. 
The ASM urges Congress to increase funding for the STAR grants program 
to at least the fiscal year 2002 level of $102 million.
    The STAR Grants fund research in numerous environmental science and 
engineering disciplines through a competitive solicitation process and 
independent peer review. The program engages the Nation's best 
scientists and engineers in targeted research that complements EPA's 
laboratory research and research conducted by our partners in other 
Federal agencies.
    Reductions in the STAR program will severely limit the ability of 
EPA to draw upon critically needed scientific expertise from the 
academic community, a valuable source of research insights and 
personnel for EPA programs. Reductions will also limit U.S. 
competitiveness in the areas of environmental research, training, and 
development of new technologies for solving environmental problems.
    The STAR program revitalizes all areas of EPA research and fosters 
workforce development in environmental science and technology through 
fellowships. In December 2006, EPA reported results from several STAR 
funded studies on biomarkers, which are substances or processes that 
can be measured in biological samples, such as blood, that indicate 
toxic exposure or predict disease. Extramural researchers confirmed 
that easy to collect saliva can be used to assay pesticide exposure in 
children and adults; other grantees used biomarkers to demonstrate that 
specific insect management techniques effectively reduce prenatal 
pesticide exposure. STAR recently supported a grant that will 
potentially provide managers with both an enhanced forecast of harmful 
algal blooms and information needed to formulate bloom management and 
prevention strategies. Such forecasts are important because the 
frequency and intensity of toxic cyanobacteria blooms has increased in 
recent decades, causing a plethora of acute, chronic, and fatal 
illnesses in animals and humans.

                          CLEAN AND SAFE WATER

    Congress has mandated that the EPA ensure the safety of our 
drinking and recreational waters, an enormous regulatory and assessment 
task that relies on sufficient EPA funding and personnel resources. The 
ASM is concerned with the proposed 2.8 percent cut to the Drinking 
Water and Water Quality programs at ORD. The Drinking Water Program 
suffers the greatest, with an 8 percent proposed decrease from fiscal 
year 2008. Cutting the research program for safe drinking water is 
unacceptable at a time when more than 10 percent of the U.S. population 
served by community drinking water systems does not receive drinking 
water that meets all applicable health-based standards.
    The potential for health problems from microbial contaminated 
drinking water is demonstrated by localized outbreaks of waterborne 
disease. Many of these outbreaks have been linked to contamination by 
bacteria or viruses, probably from human or animal wastes. For example, 
in 1999 and 2000, there were 39 reported disease outbreaks associated 
with drinking water, some of which were linked to public drinking water 
supplies.
    The ASM supports the following priority research areas included in 
the fiscal year 2009 budget request for drinking water and water 
quality: (1) Studies on aquifer storage and recovery on the safety of 
drinking water and the impacts of subsurface carbon dioxide 
(CO<INF>2</INF>) storage on drinking water quality; (2) Revising 
aquatic life guidelines, recreational water criteria, the effects of 
emerging contaminants, nutrients, biocriteria, and multiple stressor 
effects on stream biota; (3) Watershed management work that supports 
diagnoses of impairment, mitigations, and pollutant load reduction from 
headwater streams and isolated wetlands; and (4) Improving the control 
of microbial releases from publicly owned treatment works (POTWs) 
during periods of significant wet weather events. It is also imperative 
that the EPA continue to develop analytical methods for accurately 
measuring contaminant levels in drinking water and surface water; 
ensure proper certification and assessment of laboratories that analyze 
drinking-water samples; and conduct research that strengthens the 
scientific basis for standards that limit public exposure to 
contaminants. Topics of growing concern include, among others, the 
dissemination into the environment through water and wastewater 
treatment systems of diverse anthropogenic compounds, such as 
pharmaceuticals and estrogens or estrogen-like compounds. These 
compounds are now ubiquitous, but their fates in the environment and 
impacts on humans and other organisms are inadequately known.
    The ASM supports the proposed $1 million increase for the Water 
Quality program. Continued investment in this area can build upon the 
successful outcomes already obtained. Increased research is needed to 
protect the Nation from waterborne illnesses. According to the Centers 
for Disease Control and Prevention (CDC), Cryptosporidium, a protozoan 
parasite causing gastroenteritis in humans, has become the leading 
cause of recreational water associated outbreaks of gastrointestinal 
illness. In 2003-2004, this parasite accounted for 61.1 percent of 
gastrointestinal outbreaks associated with disinfected swimming venues 
such as swimming pools and water parks. This is likely due to its high 
resistance to free chlorine, the main barrier to infectious disease 
transmission in pools. Since 2005, cryptosporidiosis reporting has 
increased substantially.
    EPA researchers have aggressively sought improved techniques for 
water quality assessment, building ``toolkits'' of assays and 
computational models that can be used by local and State public health 
officials. Recent examples include a new rapid DNA analysis test to 
quantify Enterococci and Bacterioides bacteria in water. This new test 
reduces the time for detecting these sewage contaminants from 24 hours 
to just two hours and makes possible same day decisions on beach 
warnings or closings. Other current ORD research efforts include 
developing laboratory cell lines and assays to measure chemical 
interactions with human hormone receptors and using new genomics 
technologies to assess risks from widely used conazole fungicides.

             RENEWABLE ENERGY AND WASTEWATER INFRASTRUCTURE

    The EPA is a stakeholder in ensuring a sustainable environment, 
meeting the needs of the present without compromising the ability of 
future generations to meet their own needs. Renewable energy research 
is essential to ensuring sustainability. The ASM encourages EPA to 
pursue collaborative efforts with the National Science Foundation 
(NSF), Department of Energy (DOE), and the U.S. Department of 
Agriculture (USDA).
    In order to provide safe and secure drinking water for its 
citizens, the Nation must improve the sustainability and energy 
efficiency of its water distribution systems from sources to end users. 
Energy efficiency is an important but often overlooked consideration. 
At present, the Nation's water distribution infrastructure consumes 
approximately 5 percent of total electricity use. The development of 
non-fossil fuel energy sources to work water distribution systems 
cannot only contribute to a more secure water supply, but can also 
contribute to the Nation's energy security. Coupling microbial activity 
during wastewater treatment to electricity generation provides one 
example for increasing energy efficiency.
    Researchers, supported by the NSF and the USDA, have made great 
strides in advancing the technology of microbial fuel cells to benefit 
wastewater treatment plants. Microbial fuel cells work through the 
action of bacteria, which can produce electricity in fuel cells. In the 
process, the bacteria consume organic matter in the wastewater and 
improve water quality. This approach uses the bacteria that naturally 
occur in wastewater, requiring no special bacterial strains or unusual 
environmental demands. The benefit of microbial fuel cell applications 
is that while they generate electricity, they purify wastewater, a goal 
of wastewater treatment facilities that usually requires the 
consumption of energy.
    The ASM urges Congress to support a collaborative relationship 
between the EPA, DOE, NSF, and USDA to explore energy production from 
waste treatment, and to develop mechanisms for improving energy 
efficiency in water distribution.

                             CLIMATE CHANGE

    Climate change affects all of earth's life, including microbes that 
often dominate the living mass of many ecosystems. Extreme temperatures 
can lead directly to loss of life, while climate-related disturbances 
in ecological systems, such as changes in the range of infective 
parasites, can indirectly affect the incidence of serious infectious 
diseases. In addition, warm temperatures can increase air and water 
pollution, which in turn harm human health. The impact of these changes 
on microbial activities is often unpredictable, but microbes play major 
roles in water quality, environmental integrity and human health, it is 
essential that the EPA retain and expand its ability to support 
research on climate change and subsequent impact on both beneficial and 
pathogenic microorganisms.
    The ASM is concerned with the proposed 15 percent cut to the Global 
Change research program at ORD because it is clear that certain 
diseases and pathogens are sensitive to climate changes. The 
Intergovernmental Panel on Climate Change released a report in 2007 
that noted that the global population at risk from vector-borne malaria 
would increase by between 220 million and 400 million in the next 
century. Other ``vector-borne'' diseases, such as dengue fever, yellow 
fever, and encephalitis, carried by mosquitoes and other insects 
serving as biological reservoirs and vectors are also projected to 
spread into new areas due to global warming. While most of the increase 
is predicted to occur in Africa, some increased risk is projected in 
Britain, Australia, India, and Portugal. Climate change may increase 
the risk of other infectious diseases, particularly those diseases that 
appear in warm areas and are spread by pathogens having a water 
habitat. Warming of U.S. costal waters in recent years has caused 
shellfish-borne outbreaks of gastroenteritis caused by the aquatic 
bacterium Vibrio parahaemolyticus to become an increased risk to humans 
by consuming these infected shellfish. In addition, algal blooms could 
occur more frequently as temperatures warm, particularly in areas with 
polluted waters, potentially causing diseases such as cholera that tend 
to accompany algal blooms to become more frequent.

                               CONCLUSION

    Sound science is necessary for the protection of human health and 
the environment. The ORD is an integral component for conducting 
research needed to answer many of the challenges we face, such as 
climate change, renewable energy, and clean and safe water. The ASM 
urges Congress to provide at least $595 million for the ORD and $102 
million for the STAR program in fiscal year 2008.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2009 appropriation for the EPA.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    The Animal Welfare Institute (AWI) respectfully requests that the 
Senate Appropriations Subcommittee on Interior and Related Agencies 
appropriate a total of $37.1 million to the U.S. Fish and Wildlife 
Service (FWS) including an additional $33.1 million to increase and 
expand activities of the Office of Law Enforcement ($26 million for 
special agents, $3.1 million for ports of entry, $4 million for the 
Clark R. Bavin National Fish and Wildlife Forensics Laboratory) as well 
as $4 million for the Multinational Species Conservation Fund. The 
President's fiscal year 2009 proposed budget falls far short of 
providing the funds needed by agencies within the Department of the 
Interior to protect, preserve, recover and manage America's wildlife, 
including threatened and endangered species, as required by law and by 
their public trust obligations to the American people. AWI also asks 
Congress to reign in the Bureau of Land Management (BLM) by including 
language preventing funds to be used for the implementation of the 
BLM's wild horse program's sales authority language.

                       OFFICE OF LAW ENFORCEMENT

    A seeming increase for this function in the President's budget is 
actually a decrease when higher uncontrollable and fixed costs are 
taken into account. AWI requests that an additional $33.1 million be 
allocated to the FWS to increase and expand the activities of its 
Office of Law Enforcement (OLE) in its critical role of combating 
wildlife crime. The OLE investigates both domestic and international 
wildlife crimes that involve the transgression of over a dozen federal 
wildlife and conservation laws. Though it is well known that the 
illegal trade in wildlife and wildlife products is second only to the 
trade in narcotics in terms of revenue generated globally, and despite 
the fact that the United States remains a source of or destination for 
much of this contraband, the OLE has consistently been underfunded and 
understaffed and, thus, shortchanged in its efforts to combat this 
illegal trade.
    The FWS has cut its covert wildlife crimes investigation unit in 
half. Yet, given the severity of the illegal wildlife trade problem and 
the inherent underground nature of the trade, covert investigations are 
essential for enforcing wildlife laws and identifying, capturing, and 
prosecuting those responsible for wildlife crimes. The OLE and its 
employees cannot effectively enforce federal wildlife laws without a 
covert investigations unit. Congress must direct the Secretary of the 
Interior to reinvigorate the OLE, including its covert investigations 
unit and provide the funding necessary to restore the OLE as the 
preeminent wildlife law enforcement organization in the world.
    FWS Special Agents.--Wildlife law enforcement agents perform what 
is consistently ranked as one of the most dangerous jobs as they 
attempt to fulfill their mandate to protect our wildlife heritage. In 
fiscal year 2007, FWS agents pursued over 12,000 investigations 
resulting in over $14 million in fines, 32 years of jail time for the 
perpetrators, and 557 years of probation. FWS cases documented illegal 
trafficking in U.S. leopard sharks, coral reef organisms, live 
reptiles, and paddlefish. On the global front, agents broke up 
smuggling rings dealing in sea turtle skins and products from Mexico 
and sea turtle shell from China. They snared smugglers dealing in over 
$540,000 worth of sperm whale teeth and sent individuals trafficking in 
endangered live eagle owls eggs to prison.
    Despite these impressive statistics, the illegal trade in wildlife 
and wildlife products continues to imperil wildlife species in the 
United States and around the world. The ability of the OLE to expand 
its efforts to combat this trade requires far greater funding than what 
has been proposed in the fiscal year 2009 budget.
    Currently, there are only 191 FWS agents responsible for the 
enforcement of federal wildlife laws throughout the entire United 
States. This number is 11 fewer than in fiscal year 2007, which was 16 
fewer than existed in 2006. There are 70 agent vacancies. Filling these 
vacancies is essential to protecting wildlife and stemming the 
increasing threat of illegal trade. AWI respectfully requests an 
additional $14 million ($200,000 each) to fill these 70 agent vacancies 
and an additional $12 million to ensure sufficient operational funds 
for the existing agents and for those hired in the future.
    Port Inspectors.--Given the events of September 11, 2001, and the 
recent scrutiny applied by Congress on the security of U.S. ports, the 
value of FWS inspectors should be indisputable. In addition to being 
the first and only line of defense against the illegal import of 
protected wildlife and wildlife products into this country, FWS 
inspectors along with their colleagues from the U.S. Coast Guard, 
Department of Homeland Security, and other agencies involved in port 
inspections, represent America's best hope of intercepting bioterrorism 
agents or items that may represent a security threat to America. Often 
contraband is hidden in the body cavities of wildlife or in their 
transport containers; who except FWS wants to look inside the box of a 
poisonous snake or other dangerous animal?
    Though it may be hard to see that thwarting an illegal shipment of 
wildlife is as important as thwarting an illegal shipment of weapons, 
wildlife pose much greater risks to America due to the potential for 
the wildlife to be vectors for non-native diseases or insects that 
could pose a threat to public health (e.g. avian flu), domestic 
wildlife health, domestic livestock health (e.g. Newcastle's disease, 
foot and mouth disease), or to our native flora. A recent news report 
noted that ``five of the six diseases the [CDC] regards as top threats 
to national security are zoonotic. . . .'' Because legal shipments, 
which amounted to 650 million animals in the last 3 years, are not 
screened properly, Americans are left ``vulnerable to a virulent 
disease outbreak that could rival a terrorist act.'' \1\ Couple the 
threats from the legal trade with those from the illegal trade, 
including the surge in the amount of bushmeat entering the country, and 
the potential for catastrophe is mind boggling.
---------------------------------------------------------------------------
    \1\ (``Imports of exotic animals mean health risks,'' AP, Nov. 27, 
2006).
---------------------------------------------------------------------------
    The North American Free Trade Agreement has exacerbated the problem 
through increased movement of wildlife and wildlife products across the 
U.S. border with Mexico. Such contraband includes highly endangered 
neotropical parrots, cacti, reptiles, and exotic wildlife leather 
products. The U.S. border with Canada is a conduit for the illegal 
import of a variety of international species including the Asian 
arowana fish, the rare Madagascar radiated tortoise, and protected 
corals and domestic species including black bear gall bladders, bald 
eagle parts, and other wildlife products. The current lack of 
sufficient operational funds for the FWS port inspection program 
weakens FWS efforts to promote the conservation of species of 
international concern, to protect all natural resources, and to sustain 
biological processes. The virtually unregulated smuggling of parrots 
not only has put new pressure on Western hemisphere parrot species, 30 
percent of which are already on the brink of extinction, but also 
presents a disease transmission risk to the U.S. poultry industry and 
native U.S. birds. The illegal import of parrots into California has 
been linked to an outbreak of Newcastle's disease in that state. 
Moreover, smugglers are dealing in both illegal wildlife and illegal 
aliens. For example, a cooperative investigation by FWS, Immigration 
and Customs Enforcement (ICE), and the U.S. Coast Guard documented the 
smuggling of illegal aliens and live Clarion angelfish from Mexico. A 
Los Angeles man was sentenced to 46 months in federal prison and 
ordered to pay a $60,000 fine.
    In fiscal year 2007, Service wildlife inspectors processed over 
179,000 wildlife shipments entering or leaving the United States. An 
example of how understaffed the FWS port inspection staff may be can be 
found at the U.S./Canada border crossing at Blaine, Washington, where a 
single inspector is responsible for inspecting all imports even though 
that point of entry has experienced a 45 percent increase in the number 
of wildlife shipments in the past decade. Clearly, then, to protect 
domestic and international wildlife and to secure our borders, Congress 
must provide the funding to hire and train a sufficient number of FWS 
inspectors to ensure round-the-clock coverage at each designated U.S. 
port of entry. $3.1 million is requested for the ports of entry.
    The Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory.--The FWS forensic laboratory is a key resource used by FWS 
investigators and inspectors for prosecuting wildlife crimes. It uses 
complex tests and tools to identify wildlife products as to species, 
determine cause of death, and make other findings critical to a 
successful legal case. All such findings must adhere to exacting 
evidentiary standards to be used in court, thus increasing the cost of 
testing each sample. Due to an increasing backlog of samples, the lab 
is running several months behind in its casework, causing FWS 
investigators, inspectors, and federal prosecutors to wait longer to 
continue their investigations or initiate prosecutions. Analysis of 
newly-submitted computer cases is backlogged 7 to 8 months and the 
analysis itself takes another 4 to 5 months to complete. The new 
protocols that will be needed in the crackdown on shark finning will 
only worsen this problem. This lab is the only such facility in the 
world and it has historically aided the fish and game departments of 
all 50 States and the 162 CITES countries. But the backlog jeopardizes 
this cooperation and has forced it to stop accepting samples from state 
and international wildlife investigators, weakening the longstanding 
partnerships supporting cooperative conservation efforts in this 
country and around the world. The backlog is largely a product of 
staffing shortages. These shortages, combined with a loss of expertise 
when seasoned veteran forensics experts retire before new experts are 
trained, threaten our ability to help solve wildlife crimes. To reduce 
both these staffing shortages and existing analytical workload and 
backlog, $4 million is requested for the lab. Such funds would allow 
for the construction of a new 8,000 square feet building to house the 
lab's critical comparison standards collection ($1.1 million), the 
hiring of six forensic scientists (forensics branch chief, senior plant 
morphologist, and four forensic examiners in the areas of birds, 
reptiles, plants, and analytical chemistry), four new technicians, and 
much needed spending on training, travel, equipment and supplies.

                        WILD HORSE AND BURRO ACT

    With more wild horses and burros now in captivity than on the 
range, the BLM continues to use virtually its entire budget simply to 
remove and warehouse wild horses and burros without the scientific data 
to justify its actions. This, despite the fact that numerous herds have 
already been eliminated and many others are currently managed at 
population targets that seriously jeopardize their genetic health and 
viability.
    To make matters worse, the BLM has embraced the devastating 
``Burns'' amendment, which altered the Wild Free-Roaming Horse and 
Burro Act of 1971 to require the sale of certain wild horses and burros 
without restriction. With no legal authority to protect these horses 
once sold under the changed law, they can be re-sold for slaughter--the 
very thing that prompted Congress to act to protect wild horses over 30 
years ago.
    AWI therefore respectfully requests that Congress instruct the BLM 
that, until such time as the agency either finds qualified adopters for 
those animals now being held and/or returns significant numbers of 
animals to suitable herd areas (particularly those from which all wild 
horses and burros have been removed or whose populations are not self-
sustaining), that no funds be used to conduct further round-ups, 
particularly in the absence of sound census data to support such 
actions.
    In addition, we request that Congress instruct the BLM to use its 
statutory authority to explore the potential for further designating 
and maintaining specific ranges on public lands as sanctuaries for the 
protection and preservation of wild horses and burros as provided in 
the Wild Free-Roaming Horse and Burro Act of 1971.
    Finally, we urge Congress to insert into the fiscal year 2009 
Senate Interior Appropriations bill the following language:
    ``None of these funds shall be used to implement or carry out Sec. 
1333(e)--Sale of excess animals--of the Wild Free-Roaming Horse and 
Burro Act of 1971''.

                           YELLOWSTONE BISON

    The National Park Service/Yellowstone National Park (NPS/YNP) is 
the lead agency in a failed cooperative state/federal bison management 
plan that, since 2000, has resulted in the unnecessary killing of 
nearly 3,000 park bison. Yellowstone bison represent the last 
continuously free-roaming herd of bison in the United States. They are 
of immense scientific, aesthetic, and spiritual value to millions of 
people from around the world. The current bison management plan has 
cost the American taxpayer up to $3 million per year since it was 
implemented in 2000 yet the three-step plan has failed to progress 
beyond step 1. In addition, though based on the concept of adaptive 
management, the plan has not been substantively adapted despite 
compelling new evidence documenting the existence of at least two 
genetically distinct bison subpopulations in the park. By ignoring this 
new evidence, the agencies, led by the NPS, may be permanently and 
adversely impacting the genetic health and viability of park bison as a 
result of their relentless lethal management efforts. During the 
current winter, nearly 1,300 bison have been killed or are awaiting 
slaughter. Of this total, nearly 940 have been captured inside YNP by 
the NPS. To prevent the ongoing misuse of federal taxpayers' dollars 
and to protect park bison from the very agency that is mandated to 
conserve and protect park wildlife, AWI respectfully requests that 
Congress include language in the fiscal year 2009 Interior 
Appropriations bill to specify that no federal funds are to be used by 
the NPS for the purpose of killing or participating in the killing of 
YNP bison.

                MULTINATIONAL SPECIES CONSERVATION FUND

    Since 1988, the U.S. Congress has made clear its commitment to 
global conservation efforts through the passage of a number of funds to 
benefit specific species. These funds include the African Elephant 
Conservation Fund, the Asian Elephant Conservation Fund, the Rhinoceros 
and Tiger Conservation Fund, and the Great Ape Conservation Fund. To 
address these problems, AWI respectfully requests that Congress 
appropriate an additional $4 million above the President's request for 
each of these funds.
                                 ______
                                 
       Prepared Statement of the Association to Preserve Cape Cod

    Madam Chairman and honorable members of the committee: I appreciate 
the opportunity to present testimony in support of an appropriation of 
$2 million from the Land and Water Conservation Fund for the Cape Cod 
National Seashore in Massachusetts.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    The Association to Preserve Cape Cod (APCC) is the largest and most 
prestigious environmental advocacy organization on Cape Cod, with more 
than 5,200 families comprising its membership. APCC's mission is to 
promote programs and policies that protect the natural resources of 
Cape Cod. As such, APCC has been in the forefront of all of the most 
important efforts to protect Cape Cod's rich natural heritage for four 
decades.
    APCC is particularly interested in the Cape Cod National Seashore, 
which we consider to be the shining star of Cape Cod and emblematic of 
all that our organization seeks to safeguard. Cape Cod has a simple 
geography--it is a land of sand and of water. Nowhere is this 
simplicity and grace more apparent than at the Cape Cod National 
Seashore. Thus, when APCC learned that the National Park Service (NPS), 
which manages the Seashore, has the opportunity to acquire the 57-acre 
North of Highland Campground, a family-run private campground within 
the Seashore's congressionally authorized boundary in Truro, we began 
working with The Trust for Public Lands and our U.S. congressional 
delegation, Senators Kennedy and Kerry and Congressman Delahunt, to 
advocate for purchase of this land by the NPS.
    The Cape Cod National Seashore, designated by Congress in 1961 to 
preserve its precious resources for future generations, includes 40 
miles of coastline and boasts some of the world's most beautiful white 
sand beaches. With over 4 million visitors a year, the Cape Cod 
National Seashore is one of the most heavily visited places in the 
National Park system, with peak visitation occurring during the summer 
months.
    There are many recreational opportunities at the seashore, 
including six swimming beaches--including the popular Head of the 
Meadow Beach that provides some of the most exciting body-surfing 
available in the area. The seashore has more than 11 miles of self-
guided nature trails, a variety of picnic areas, scenic overlooks, 
historic building tours and many fishing opportunities. The seashore 
also maintains three bicycle trails that wind through forests and past 
sand dunes, marshes and kettle ponds.
    Nestled in the pines with trail access to the nearby Head of the 
Meadow Beach, the 57-acre North of Highland Campground, is a seashore 
in-holding completely surrounded by National Park Service lands. It has 
been owned and managed since 1954 as a family-oriented campground. The 
campground operates from mid-May through mid-September and includes 
four bathhouses, a camp store, two dwellings and 237 sites for camping. 
The property also contains seven acres of wetland habitat. Preferring 
not to sell the land to a developer who would likely build houses, the 
owners of the campground have been working with the NPS to place the 
campground in NPS ownership to ensure that it is not developed and 
remains open to the public.
    In fiscal year 2009, an appropriation of $2 million from the Land 
and Water Conservation Fund will provide the final funding needed to 
protect this property, helping to ensure that the campground remains 
open to the public, thereby maintaining affordable recreational 
opportunities for the public in one of most heavily visited national 
parks in the country. Thanks to your efforts, Congress has already 
provided nearly $4 million for this public acquisition in fiscal year 
2007 and fiscal year 2008.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of the appropriation of $2 million for Cape Cod 
National Seashore.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy

    In behalf of the Appalachian Trail Conservancy, for reasons 
described below, I am requesting a fiscal year 2009 appropriation from 
the Land and Water Conservation Fund in the amount of $4.525 million 
for the National Park Service and $10.645 million for the USDA Forest 
Service for the acquisition of lands and interests in lands surrounding 
or bordering the Appalachian National Scenic Trail (ANST) in the States 
of Virginia, New Hampshire, Tennessee, and North Carolina.

                               BACKGROUND

    The Appalachian Trail (A.T.) is America's premier long-distance 
footpath. Initially established between 1923 and 1937 as a continuous 
footpath extending from western Maine to northern Georgia, the trail 
gained Federal recognition in 1968 with the passage of the National 
Trails System Act. Amendments to that act in 1978 expanded the 
authorization for Federal and State land acquisition to establish a 
permanent, publicly owned right-of-way as well as a protective corridor 
or ``greenway'' along the trail. Since 1978, with the strong support of 
the subcommittee and the Congress as a whole, the Appalachian National 
Scenic Trail land-acquisition program of the National Park Service and 
USDA Forest Service has become one of the most successful land-
conservation efforts in the Nation's history with the acquisition of 
more than 187,000 acres, more than 3,360 parcels, in 14 States. Today, 
only approximately 7 miles of the 2,176-mile Appalachian Trail remain 
to be protected through public ownership.

                        RESOURCE CHARACTERISTICS

    The Appalachian Trail is a 2,176-mile footpath extending along the 
crests and valleys of the Appalachian Mountains through 14 States from 
Maine to Georgia. Often characterized as a ``string of pearls,'' the 
trail, a unit of the National Park System, connects eight National 
Forests, six other units of the National Park System, and approximately 
60 State parks, forests, and game-management units. With an estimated 
three to 4 million visitors per year, it ranks among the most heavily 
visited units of the National Park System and also ranks among the top 
10 natural resource park units. Based on inventories conducted in the 
1990s, more than 2,000 occurrences of rare, threatened, and endangered 
flora and fauna have been identified at more than 500 discrete sites 
within the trail corridor.
    The Appalachian Trail is equally well known as a remarkable public/
private partnership. Since the initial construction of the trail in the 
1920s and 1930s, volunteers affiliated with the Appalachian Trail 
Conservancy (ATC) have constructed, reconstructed, and maintained the 
footpath as well as a system of more than 250 shelters and associated 
facilities such as privies, improved campsites, bridges, signs, and 
parking lots. In 2007, for example, more than 6,000 volunteers 
contributed approximately 200,000 hours of labor along the trail. As an 
outgrowth of a 1984 agreement between the National Park Service and 
ATC, the Conservancy has accepted management responsibility for more 
than 110,000 acres acquired by that agency along the trail. ATC, 
through its network of 30 club affiliates, is now responsible for 
virtually all phases of ``park'' operations, ranging from trail and 
facility maintenance and construction to land and resources management 
to visitor education and services. Overall, working with other public 
agencies, ATC provides ongoing, volunteer-based stewardship for trail-
related lands totaling more than 250,000 acres.

                        NEED FOR APPROPRIATIONS

    As noted previously, while the Appalachian National Scenic Trail 
protection program represents one of the most successful land-
acquisition programs in the history of the conservation movement in the 
United States, that program is not yet complete. Although our hope had 
been to complete the program by the year 2000, escalating land values 
coupled with diminished administrative capacity in the affected 
agencies have conspired to delay full program completion. Nowhere are 
those trends more apparent than in the southeastern region, in the 
National Forests of Virginia, Tennessee, and North Carolina. 
Nevertheless, a number of critical parcels are now ``ripe'' for land 
acquisition and we are seeking fiscal year 2009 LWCF appropriations to 
secure those properties. A brief description of each of those critical 
parcels follows. More detailed descriptions, along with maps and 
photographs of each of the referenced properties, were provided earlier 
this year to subcommittee staff.

             NEW RIVER, VIRGINIA/JEFFERSON NATIONAL FOREST

    For more than 30 years ATC and the USDA Forest Service have sought 
to establish a final alignment for the Appalachian Trail adjacent to 
the New River in Giles County, Virginia. The current route crosses a 
property owned by Celanese LLC immediately adjacent to a busy highway 
(US 460) directly across from a large Celanese industrial facility 
offering no real scenic or recreational value. After many years of 
negotiations, Celanese representatives have expressed an interest in 
selling--potentially at a bargain-sale price--a 400-acre parcel in fee 
and an additional 25-acre scenic easement that will permit a relocation 
of the footpath to a much improved location along a more remote and 
scenic portion of the property. Additional scenic-easement interests 
also are being sought along the back portions of approximately a dozen 
private lots bordering the eastern edge of the property. Due to limited 
land-acquisition capability on the Forest, ATC has requested the 
National Park Service to assist with the acquisition of this property 
and pre-acquisition work, such as title research and appraisal work, 
has been initiated. While total project costs are estimated to be $1.6 
million, ATC is requesting an fiscal year 2009 LWCF appropriation of 
$1.25 million for the National Park Service.

            TILSON FARM, VIRGINIA/JEFFERSON NATIONAL FOREST

    This 170-acre property is situated near the northern boundary of 
Smyth County on the Smyth/Bland county line near the town of Ceres, 
Virginia. The property is adjacent to a narrow Appalachian Trail 
corridor that was acquired many years ago. Acquisition of the property 
will provide an important scenic buffer along the A.T., conserve the 
headwaters of the North Fork of the Holston River, provide an 
opportunity to develop a 5-mile loop trail, conserve the site of an 
early settler cemetery on the property, and consolidate Forest 
ownership. The current property owner has expressed an interest in 
selling the tract at a favorable or bargain-sale price. Due to limited 
land-acquisition management capability on the Forest, ATC has asked the 
National Park Service to acquire the property. An appraisal has been 
ordered. Total project costs are estimated at $400,000. ATC is 
requesting an fiscal year 2009 LWCF appropriation of $300,000 for the 
National Park Service.

           MAHOOSUCS GATEWAY/SUCCESS TOWNSHIP, NEW HAMPSHIRE

    This project, involving 4,772 acres, is part of a larger 
conservation and economic-development focus area involving a consortium 
of conservation organizations as well as several local communities. The 
Mahoosuc Mountain Range is one of the most remote and rugged areas 
along the Appalachian Trail. Straddling the border between New 
Hampshire and Maine, it provides a scenic gateway to both States. In 
partnership with a timberland owner an opportunity exists to conserve a 
6-mile corridor along the northern edge of the narrow Appalachian Trail 
corridor there, including two of the most prominent mountain peaks in 
the area: Bald Cap and North Bald Cap. Conservation of the property 
would provide protection for a number of existing side trails in the 
area as well as the watersheds of numerous streams flowing into the 
Androscoggin River. The property also includes a number of ecologically 
significant features and natural communities. While total project costs 
are estimated to be $4.8 million, ATC and The Conservation Fund are 
requesting an fiscal year 2009 LWCF appropriation of $2.75 million for 
the National Park Service.

             ROCKY FORK, TENNESSEE/CHEROKEE NATIONAL FOREST

    The Rocky Fork property is a 10,000-acre property in eastern 
Tennessee situated midway between Johnson City and Asheville, North 
Carolina. It represents the largest privately owned in-holding within 
the southern National Forest System and is the number one land 
acquisition priority of the USDA Forest Service nationwide. Named for 
the cool waters of one of several prominent streams that pass through 
the property, it is adjacent to 22,000 acres of designated wilderness 
or inventoried road-less areas. For many years, the Tennessee Wildlife 
Resources Agency has leased the property for its game and non-game 
wildlife values, including 16 miles of ``blue-ribbon'' trout streams 
and outstanding black bear, white-tailed deer, and wild turkey habitat. 
The property also contains a number of Federal species of concern or 
state-listed species in need of management. The property includes 1.2 
miles of the Appalachian National Scenic Trail with no protected right-
of-way.
    The Rocky Fork property is readily accessible from Interstate 26 
and has been marketed for primary- and second-home development. 
However, in 2007, Timbervest, in behalf of the property owners, entered 
into a purchase and sales agreement with The Conservation Fund (TCF). 
ATC is working closely with TCF, the Southern Appalachian Highlands 
Conservancy, and a number of other conservation and sportsmen 
organizations to secure the property. Total estimated costs are 
approximately $43 million. However, ATC and its partners already have 
secured financial support from the State of Tennessee and through a 
number of private-sector donations. ATC and The Conservation Fund are 
requesting an fiscal year 2009 LWCF appropriation of $8 million for the 
USDA Forest Service.

            SHOOK BRANCH, TENNESSEE/CHEROKEE NATIONAL FOREST

    This 20-acre property is situated in eastern Tennessee in the 
Cherokee National Forest. The Appalachian Trail currently follows a 
dangerous road-walk and crosses US 321 at a location with limited site 
distances to on-coming traffic. A proposed new route has been 
identified and a number of parcels have been acquired by the Forest 
Service to establish the route. The Shook Branch property is necessary 
in order to complete the proposed relocation. The current property 
owner has expressed a willingness to sell the property. ATC is 
requesting an fiscal year 2009 LWCF appropriation of $500,000 for the 
USDA Forest Service.

         WESSER BALD, NORTH CAROLINA/NANTAHALA NATIONAL FOREST

    This 82-acre property is situated in western North Carolina in the 
Nantahala National Forest. The A.T. passes within 100 feet of the 
property and affords a number of outstanding scenic views at several 
locations along the northern portion of the property and from a viewing 
platform atop the Wesser Bald fire tower with 360-degree views 
encompassing the Great Smoky Mountains skyline, the Nantahala 
Mountains, and northern Georgia. The upper 35 acres was acquired in fee 
in 2007 by the Southern Appalachian Highlands Conservancy with the aid 
of a bridge loan from The Conservation Fund and the requested LWCF 
appropriation will be used to repurchase that portion of the property 
at a bargain-sale price with ownership transferred to the Forest 
Service. SAHC also has secured a conservation easement affecting an 
additional 41 acres of the property. The total value of the fee and 
easement interests is $950,000. ATC is requesting an fiscal year 2009 
LWCF appropriation in the amount of $270,000 for the USDA Forest 
Service.

         ROAN HIGHLANDS, NORTH CAROLINA/PISGAH NATIONAL FOREST

    The 442-acre Roan Highlands tract rises to an elevation of 5,200 
feet above the Roaring Creek Valley along the North Carolina/Tennessee 
border within the proclamation boundary of the Pisgah National Forest. 
Its spectacular open summit is visible for miles along the Appalachian 
Trail and the property borders The Nature Conservancy's Big Yellow 
Mountain Preserve. The Trust for Public Lands in partnership with the 
Southern Appalachian Highlands Conservancy and ATC has obtained a 
letter of intent from the owner to protect the property through a 
combination of 290 acres in fee-simple ownership and 150 acres under a 
conservation easement to be held by SAHC. ATC is requesting an fiscal 
year 2009 LWCF appropriation in the amount of $1.875 million for the 
USDA Forest Service.
    With the acquisition of the above-described properties, ATC hopes 
to complete a substantial portion of the remaining land-acquisition 
needs in the Appalachian National Scenic Trail program. Again, we 
respectfully request an fiscal year 2009 Land and Water Conservation 
Fund appropriation of $4.525 million for the National Park Service and 
$10.645 million for the USDA Forest Service. Thank you for the 
opportunity to submit this testimony and for your consideration of our 
request.
                                 ______
                                 
          Prepared Statement of the Appalachian Mountain Club

    Madame Chair and honorable members of the committee: On behalf of 
our almost 90,000 members, the Appalachian Mountain Club (AMC) is 
honored to present this testimony in support of much needed funding for 
conservation programs in the fiscal year 2009 Interior, Environment, 
and Related Agencies Appropriations bill, including:
  --$120 million for the USDA Forest Service Forest Legacy Program,
  --$403 million for the Department of the Interior Land and Water 
        Conservation Fund (including $278 million for federal-side and 
        $125 million for state-side programs),
  --$11 million for the Department of the Interior Highlands 
        Conservation Act, and
  --$12 million for the National Parks Service Rivers, Trails, and 
        Conservation Assistance program (RTCA).
    These programs provide tremendous economic, ecological and 
recreational benefits across the country. Land conservation and 
recreational program support are vital to maintaining the health and 
well being of the Nation's lands and our citizens. As you know the 
demands on these programs are great and funding in recent years has 
diminished alarmingly. There are a number of extremely important 
projects in the Northeast and Mid-Atlantic alone.
    The AMC is the Nation's oldest recreation and conservation 
organization. Founded in 1876, our mission is to promote the 
protection, enjoyment, and wise use of the mountains, rivers and trails 
of the Appalachian region. With 12 chapters from Maine to Washington, 
DC, AMC is proud of our long tradition of stewardship and engagement in 
the outdoors.
    Open space conservation in the East is a vital investment that 
ensures clean air and water, a sustainable supply of timber products 
produced from private and public forests, local food and farm products 
for millions of people, and diverse recreational opportunities 
including hiking, cross-country skiing, wildlife viewing, and paddling. 
Conservation of these resources is needed now more than ever. According 
to the recent Forests on the Edge report published by the U.S.D.A. 
Forest Service, over 44 million acres of private forests will be 
developed in the next 30 years.

 PRIORITY FISCAL YEAR 2009 FOREST LEGACY PROGRAM NEEDS IN THE NORTHEAST

    For fiscal year 2009, we have assembled a list of exemplary Forest 
Legacy projects in the Northeast. Some of these projects, like the 
Katahdin Forest Expansion in Maine, Southern Monadnock Plateau II in 
Massachusetts, and Crotched Mountain in New Hampshire, need this 
funding to be completed. Others, such as the Metacoment-Monadnock 
Forest and Westfield Heritage Woodlands projects in Massachusetts, Lake 
Waubeeka in Connecticut, and Tree Farm #1--Mount Hope Tract in 
Pennsylvania, are new priorities that would protect unique and critical 
forests in the eastern United States.
    Congress should fund the Forest Legacy program at no less than $120 
million in fiscal year 2009. The Forest Legacy Program has protected 
over 1.5 million acres of forestland since 1990. However, despite this 
subcommittee's best efforts, funding for this program has decreased in 
recent years. While we are grateful for the inclusion of the Katahdin 
Forest Expansion project in the administration's fiscal year 2009 
budget, we are disappointed that the budget recommends only $12.5 
million for 3 projects nationwide. These projects total only 300 acres. 
For fiscal year 2009, 82 conservation projects were submitted (by 41 
States and three territories) for Forest Service considerations, 
representing a total of $202 million in Forest Legacy Program need to 
protect 400,000 acres of forestlands valued at almost $400 million.
    For fiscal year 2009, the AMC supports funding requests for the 
following Forest Legacy projects:

------------------------------------------------------------------------
                   State                               Project
------------------------------------------------------------------------
ME........................................  Katahdin Forest Expansion
ME........................................  Machias River Phase III
NH........................................  Crotched Mountain
MA........................................  Metacoment-Monadnock
MA........................................  Westfield Heritage Woodlands
MA........................................  Southern Monadnock Plateau
                                             II
CT........................................  Lake Waubeeka
NY........................................  Fishkill Ridge-Hudson
                                             Highlands State Park
NY........................................  Route 28 Corridor
NJ........................................  Passaic Ramapo Watershed II
PA........................................  Tree Farm #1--Mount Hope
                                             Tract
------------------------------------------------------------------------

  PRIORITY FISCAL YEAR 2009 LAND AND WATER CONSERVATION FUND PROGRAM 
                         NEEDS IN THE NORTHEAST

    While the AMC believes strongly that the Land & Water Conservation 
Fund (LWCF) program should be funded fully as authorized by Congress, 
we recognize the budget pressures you face this year, and so we request 
that the Federal program be funded at $278 million with an additional 
$125 million for the LWCF state-side grants. These figures obviously 
fall far below LWCF's $900 million annual authorization, but they 
represent the minimum required to secure crucial in-holdings that might 
otherwise be lost to private sale and development this year.
    The LWCF will provide critical protection to the Appalachian Trail 
Corridor--Mahoosucs Range in New Hampshire and Maine; the Lake Umbagog 
Wildlife Refuge in New Hampshire and Maine; the Silvio O. Conte 
National Wildlife Refuge for projects in its four-state region of New 
Hampshire, Vermont, Massachusetts, and Connecticut; two projects in the 
Delaware Water Gap National Recreation Area in Pennsylvania and New 
Jersey, and the Wallkill National Wildlife Refuge in New Jersey.
    In fiscal year 2009, the AMC supports the following LWCF projects 
in our region:

------------------------------------------------------------------------
                   State                          Federal Land Unit
------------------------------------------------------------------------
NH/VT/MA/CT...............................  Silvio O. Conte NWR
NH/ME.....................................  Lake Umbagog NWR
NH/ME.....................................  Appalachian Trail Corridor--
                                             Mahoosucs Range
PA/NJ.....................................  Delaware Water Gap National
                                             Recreation Area
NJ........................................  Wallkill NWR
------------------------------------------------------------------------

           FISCAL YEAR 2009 HIGHLANDS CONSERVATION ACT NEEDS

    The Highlands Conservation Act (HCA), passed in 2004, is landmark 
legislation authorizing land conservation partnership projects and open 
space purchases from willing sellers in the four-state Highlands region 
of Pennsylvania, New Jersey, New York, and Connecticut. The Act 
includes authorization of $10 million in annual grants to the Highlands 
states and nonprofit conservancies from the Department of the Interior 
for land acquisition and easements. It also includes $1 million 
annually in technical assistance from the USDA Forest Service to work 
with Highlands states and local municipalities to implement the 
conservation strategies outlined in the three comprehensive Forest 
Service studies of the region completed in 1992, 2002, and 2008.
    Unfortunately, this program has received only $3.75 million since 
it was initiated 4 years ago. While we greatly appreciate the 
subcommittee's efforts to support this program, we are in dire need of 
additional funds so that the purposes of the HCA can be fulfilled. 
According to a study by the USDA Forest Service, open space in New York 
and New Jersey alone is disappearing at a rate of 5,000 to 6,000 acres 
a year. The 4-State Highlands Region is the backyard for the more than 
25 million people living in or around the large cities of the Mid-
Atlantic States, and provides critical drinking water, wildlife 
habitat, and abundant and accessible recreation opportunities. We 
strongly urge the subcommittee to fund this program at its authorized 
level of $10 million in fiscal year 2009 for land protection projects, 
and an additional $1 million per year to support research and technical 
assistance in the Highlands by the USDA Forest Service. Current 
projects in Pennsylvania, New Jersey, New York, and Connecticut share 
strong local support, commitments from State and private sources to 
provide matching funding, and will protect important water supplies, 
forests, farmland, recreational opportunities and wildlife habitat.
    In fiscal year 2009, the AMC supports funding for the following HCA 
projects:

------------------------------------------------------------------------
                   State                               Project
------------------------------------------------------------------------
CT........................................  Ethel Walker II
NY........................................  Great Swamp
NY........................................  Greater Sterling Forest
NJ........................................  Wyanokie and Farny Highlands
NJ........................................  Ramapo Mountains
PA........................................  Cooks Creek Watershed
PA........................................  South Mountain
------------------------------------------------------------------------

         PRIORITY FISCAL YEAR 2009 RECREATIONAL PROGRAMS NEEDS

    In addition to the important land conservation projects from the 
Machias River in Maine to the Cooks Creek Watershed in Pennsylvania, 
the AMC respectfully urges the subcommittee to ensure the viability of 
programs that support outdoor recreation in America. The AMC echoes the 
testimony of the American Hiking Society in support of diverse and 
strong funding levels for important recreational priorities.
    One of the most effective programs supporting human-powered 
recreation and community-based conservation planning is the National 
Park Service (NPS) Rivers, Trails, and Conservation Assistance (RTCA) 
program. AMC is currently receiving technical assistance from this 
program as we work to create a network of trails throughout the 
thirteen-county Pennsylvania Highlands. This trail project will create 
recreational opportunities for the millions of rural, suburban and 
urban families living throughout the Pennsylvania Highlands. The AMC 
endorses the testimony of the Rivers and Trails Coalition, of which we 
are a member, and supports funding of $12 million for the NPS RTCA 
program in fiscal year 2009.
    Thank you for the opportunity to submit this testimony for your 
consideration.
                                 ______
                                 
    Prepared Statement of APS a Subsidiary of Pinnacle West Capital 
 Corporation, Colorado River District, Central Utah Water Conservancy 
District, Denver Water, the Jicarilla Apache Nation, Northern Colorado 
Water Conservancy District, Pueblo Board of Water Works, San Juan Water 
Commission, Southern Ute Indian Tribe, Southwestern Water Conservation 
District, PNM/San Juan Generating Station, Tri-County Water Conservancy 
    Distict, the Navajo Nation, and the Utah Water Users Association

    I am requesting your support for appropriations in fiscal year 2009 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the Subcommittee's past support and request 
your assistance for fiscal year 2009 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators

    Who We Are.--James D. Taft, Executive Director, on behalf of the 
Association of State Drinking Water Administrators (ASDWA), is pleased 
to provide testimony to the Interior and Related Agencies Subcommittee 
on fiscal year 2009 Appropriations for the U.S. Environmental 
Protection Agency. ASDWA represents the State drinking water programs 
in each of the 50 States and territories and the Navajo Nation in their 
efforts to ensure the provision of safe drinking water to more than 275 
million consumers nationwide. ASDWA's primary mission is the protection 
of public health through the effective management of State drinking 
water programs that implement the Safe Drinking Water Act (SDWA).

                           SUMMARY OF REQUEST

    ASDWA respectfully requests that, for fiscal year 2009, the 
Subcommittee appropriate funding for three State drinking water 
programs at levels commensurate with Federal expectations for 
performance and at levels that continue to ensure appropriate public 
health protection. Specifically, ASDWA requests an appropriation of 
$124 million for the Public Water System Supervision (PWSS) program; $1 
billion for the Drinking Water State Revolving Loan Fund (DWSRF) 
program; and $7 million for State drinking water program security 
initiatives. A more complete explanation of the needs represented by 
these requested amounts and a further explanation of these particular 
requested levels follows.

                      HOW STATES USE FEDERAL FUNDS

    States Need Increased Federal Support to Maintain Overall Public 
Health Protection.--State drinking water programs strive to meet their 
public health protection goals through two principal funding programs: 
the Public Water System Supervision Program (PWSS) and the Drinking 
Water State Revolving Loan Fund (DWSRF) Program. These two programs, 
with their attendant State match requirements, provide the means for 
States to work with drinking water systems to ensure that American 
citizens can turn on their taps with confidence that the water is both 
safe to drink and that the supply is adequate. In recent years, State 
drinking water programs have accepted additional responsibilities to 
work with all public water systems to ensure that critical drinking 
water infrastructure is protected and that plans are in place to 
respond to both natural and manmade disasters.
    The PWSS Program.--To meet the requirements of the SDWA, States 
have accepted primary enforcement responsibility for oversight of 
regulatory compliance and technical assistance efforts for 160,000 
public water systems to ensure that potential health-based violations 
do not occur or are remedied in a timely manner. Going beyond these 
longstanding core responsibilities, since 1996, State drinking water 
programs have participated in the development and implementation of 
over 25 new Federal regulations and strategic initiatives designed to 
enhance the protection of public health. States are also implementing 
an array of proactive initiatives to protect public health from 
``source to tap.'' These include source water assessments and controls; 
technical assistance with water treatment and distribution; and 
enhancement of overall water system performance capabilities. State 
activities go well beyond simply ensuring compliance at the tap.
    The DWSRF Program.--In a little over 10 years, States have 
leveraged Federal and State funding for the DWSRF program into more 
than $11 billion in loans to thousands of communities as a means to 
help them improve the quality and quantity of the water they drink. 
State drinking water programs have also used DWSRF funds to support the 
technical assistance and training needs of small drinking water systems 
and to help these water systems obtain the technical, managerial, and 
financial proficiency needed to meet the requirements of the SDWA.
    State Drinking Water Security Responsibilities.--Since the events 
of September 2001, as well as the more recent experience of Hurricane 
Katrina, States have taken extraordinary measures to meet the security 
and emergency response-related needs of the drinking water community. 
State drinking water programs have responded to a significant number of 
requests for assistance, training, information, and financial support 
from the water systems under their purview as well as supported 
utility-based ``mutual aid'' networks. States have also been 
instrumental in providing support and assistance to systems in 
assessing whether a contamination event has occurred and, if so, 
evaluating the magnitude of the public health implications as well as 
the steps needed to recover. States have devised training and technical 
assistance programs, initiated new communications structures, and begun 
the work of integrating the concepts of enhanced security concerns 
throughout all aspects of the drinking water program.

                WHY INCREASED FUNDING IS URGENTLY NEEDED

    State Drinking Water Programs are Hard Pressed.--States must 
accomplish all of the above-described activities and take on new 
responsibilities while responding to escalating pressures to further 
cut their budgets, streamline their workforces, and operate with less 
state-provided financial support. State drinking water programs have 
always been expected to do more with less and States have always 
responded with commitment and ingenuity. However, State drinking water 
programs are now in crisis. Congress and the executive branch, through 
EPA, have implemented national program guidance calling for both States 
and water systems to continually improve their contaminant rule 
compliance rates. However, many States are now experiencing declining 
compliance rates in the face of declining or stagnant financial 
resources. Decreases in available Federal dollars increase the 
likelihood of a contamination event that puts public health at risk.
    State Funding Gap Continues to Grow; States Cannot Keep Up.--
Although the 1996 SDWA Amendments authorized the PWSS Program at $100 
million per year, appropriated amounts have only recently reached or 
come close to that originally-authorized level. ($97.55 million [after 
rescissions] was appropriated for the PWSS program in fiscal year 
2008.) Since August 1996 (the date of reauthorization of the SDWA), 
States have been denied over $250 million in funds for the PWSS grant 
program that were called for by the authorized levels. However, even 
the fully authorized level of $100 million annually is now, 11 years 
after enactment, woefully inadequate for the enormity of the task faced 
by State drinking water programs. In fiscal year 2006, State drinking 
water program administrators identified an annual shortfall nationally 
of approximately $360 million between available funds and those needed 
to administer their programs. That gap only continues to grow and has 
consequences. Many States are simply unable conduct complete the timely 
implementation of major provisions of the newer regulations, leaving 
the work undone or ceding the responsibility back to EPA where it is 
likely to languish because of their own resource constraints and lack 
of ``on the ground'' expertise. This situation could create a 
significant implementation crisis in several regions of the country and 
ultimately delay implementation of several critically needed public 
health protections. Similarly, for the DWSRF, the authorized level of 
$1 billion per year has never been appropriated. States have received 
less than 80 percent of the $12 billion authorized for the DWSRF 
program since 1996. The underfunding of these programs, coupled with 
the decline in the spending power of these dollars due to inflation and 
cost of living increases, has severely hampered State drinking water 
programs' ability to fulfill their mission and provide critically 
needed support to drinking water systems.

      FISCAL YEAR 2009 REQUEST LEVELS AND SDWA PROGRAM OBLIGATIONS

    The PWSS Program.--The State PWSS program request level in the 
administration's fiscal year 2009 budget is $99.1 million. This 
reflects an alarming downward trend from prior year administration 
requests and the enacted budget high point of $101.9 million 
appropriated just 5 years ago--in fiscal year 2004. The eroding effects 
of inflation have further eaten away at these inadequate funding 
levels. State drinking water programs are hard pressed to understand a 
justification for the decreased funding since this is the year when 
they must begin critical phases of implementation of the LT 2/Stage 2 
Rule cluster--two very sophisticated and complex initiatives as well as 
prepare to implement the recently promulgated Ground Water Rule and 
changes to the Lead and Copper Rule. States want to offer the 
flexibilities allowed under these and other rules; however, fewer 
dollars mean less opportunities to work one-on-one with water systems 
to meet their needs. Looking ahead, States expect that new rules for 
contaminants on EPA's Contaminant Candidate List will be forthcoming. 
Revisions to the Total Coliform Rule and possibly, a new distribution 
system rule are planned over the next few years. The number of 
regulations requiring State implementation and oversight as well as 
performance expectations continue to grow while, at the same time, 
Federal funding support necessary to maintain compliance levels and 
meet expectations is in decline.
    ASDWA, therefore, respectfully requests that the fiscal year 2009 
funding for the PWSS program be appropriated at $124 million. This 
figure represents a baseline of $101.9 million, as appropriated in 
fiscal year 2004, plus an additional 3.5 percent increase over the past 
5 fiscal years and into fiscal year 2009 to adjust for inflation.
    The DWSRF Program.--The fiscal year 2009 DWSRF program request in 
the President's budget is ``flat-lined'' at $842 million, reflecting no 
change from the fiscal year 2008 request and continues the downward 
funding trend of the three previous years--an $8 million decrease. The 
primary purpose of the DWSRF is to improve public health protection by 
facilitating water system compliance with national primary drinking 
water regulations through the provision of loans to improve drinking 
water infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy. For instance, industries 
have opted not to move to locations with inadequate electricity, water, 
and/or wastewater capacity to meet their needs. States have very 
effectively and efficiently leveraged Federal dollars with State 
contributions by turning over $11 billion from the DWSRF into well over 
$13 billion in water infrastructure loans since 1997. In so doing, 
States have provided assistance to almost 5,000 projects improving 
health protection for over 100 million Americans. Nearly 72 percent of 
projects and 39 percent of assistance has been provided to small 
communities (serving less than 10,000 people). However, EPA's most 
recent National Drinking Water Infrastructure Needs Survey (2003) 
indicated that water system needs total $276.8 billion over the next 20 
years to comply with SDWA mandates. Despite these indicators of success 
and documented needs, the maximum amount requested by the 
administration for the DWSRF has been $850 million and Congress has 
always appropriated less than those requested levels. Without 
reasonable increases, the DWSRF will never be able to meet the SDWA 
compliance and public health protection goals for which it was 
designed.
    ASDWA, therefore, respectfully requests that the fiscal year 2009 
funding for the DWSRF program be appropriated at authorized level of $1 
billion.
    Security Responsibilities: The administration's fiscal year 2009 
budget request includes $4.9 million for State drinking water programs 
to continue to expand their security activities, particularly for small 
and medium water systems and support utility-based mutual aid networks 
for all drinking water systems. While States are appreciative of the 
funding, once again it is difficult to understand why the request level 
is decreased from previous years. Given the realities exemplified by 
ongoing Homeland Security initiatives, the anticipation of metrics 
under the National Infrastructure Protection Plan, and the lessons 
learned from Hurricanes Katrina and Rita, State drinking water programs 
are working more closely than ever with their water utilities to 
evaluate, assist, and support drinking water systems' preparedness and 
response capabilities. Beyond the mandates of the Bioterrorism Act of 
2002, States are being directed to expand their efforts to reflect an 
``all hazards'' approach to water security and to focus their efforts 
toward smaller water systems not covered by the act. These systems are 
much less likely to have the organizational or financial wherewithal to 
better secure either their physical or cyber infrastructures and rely 
on the States to help them meet their needs and identify potential 
funding sources (DWSRF). There is no dedicated fund to support or 
assist these smaller systems.
    ASDWA therefore respectfully requests that the fiscal year 2009 
funding for the State security initiatives program be appropriated at 
$7 million. This figure represents a very modest increase over the 
security grant received over the past few years (i.e., on average, this 
would represent an increase of less than $40,000 per State). This 
increase is more commensurate with the security tasks State drinking 
water programs must take on and would help address the eroding effects 
of inflation since the originally appropriated level of $5 million in 
fiscal year 2002.

                               CONCLUSION

    In conclusion, ASDWA respectfully recommends that both State and 
Federal fiscal year 2009 budget needs for the provision of safe 
drinking water be adequately funded by Congress. The subcommittee can 
meet those needs through relatively modest increases in funding over 
the administration's requested fiscal year 2009 budget or by a 
``budget-neutral'' reallocation of funding within the overall budget of 
the U.S. Environmental Protection Agency. ASDWA calls the 
subcommittee's attention to the State-recommended fiscal year 2009 
budget developed by the Environmental Council of the States (ECOS) as a 
constructive starting point for these discussions.
    A strong drinking water program supported by the Federal-State 
partnership will ensure that the quality of drinking water in this 
country will not deteriorate and, in fact, will continue to improve--so 
that the public can be assured that a glass of water is safe to drink 
no matter where they travel or live. States are willing and committed 
partners. However, additional Federal financial assistance is needed to 
meet ongoing and ever growing regulatory and security needs. In 1996, 
Congress provided the authority to ensure that the burden would not go 
unsupported. For fiscal year 2009, ASDWA asks that the promise of that 
support be realized.
                                 ______
                                 
  Prepared Statement of the Association of State and Interstate Water 
                    Pollution Control Administrators

    The States are responsible for implementing the Clean Water Act. 
They set standards, monitor and assess water quality, develop total 
maximum daily loads (TMDLs), issue permits, assure compliance and 
implement other watershed protection. The Nation depends on these State 
clean water programs to protect public water supplies, recreational 
waters, aquatic life, wildlife and other water uses.
    The mandates and workload USEPA expects of States continues to 
grow. The permitted universe has increased over 500 percent; standards 
must be set for complex and challenging pollutants; TMDLs must be 
developed and implemented, etc. According to the State Water Quality 
Management Resource Analysis Report ``At the highest level of 
aggregation. . . . State agencies are receiving less than one-half of 
the resources they need to fully implement the requirements of the 
Federal Clean Water Act.'' With a funding gap of over $900 Million, 
based on conservative projections, States do the best they can to 
address priority water quality problems with the resources available.

                        STATE MANAGEMENT FUNDING

    State efforts are undermined by OMB and USEPA setting aside 106 
funds. The underlying message this sends is that USEPA is on the path 
to significantly de-fund the State/Federal partnership. First it was a 
setaside for monitoring, then national probabilistic monitoring, then a 
permit fee incentive rule (fiscal year 2007 Budget) and then State 
scale probabilistic networks (fiscal year 2008 Budget). Cumulatively, 
the setasides total about $27 Million (over 25 percent of the funds 
States would have otherwise received). USEPA has no statutory authority 
to do this.\1\ Of equal importance, these funds are urgently needed in 
States to identify and solve important water quality problems. 
Diverting 106 funds from core efforts to fulfill water quality 
management obligations is not sustainable. States need flexibility to 
leverage the limited 106 funds appropriated to achieve environmental 
results.
---------------------------------------------------------------------------
    \1\ Section 106 states the funds are ``for grants to State and to 
Interstate Agencies to assist them in administering programs for the 
prevention and elimination of pollution.'' The funds are to be allotted 
based on ``the extent of pollution.'' Accordingly, States worked with 
USEPA to establish an equitable formula.
---------------------------------------------------------------------------
    The setasides for the permit fee incentive rule and State 
probabilistic monitoring networks add insult to injury, creating 
incentives for some States by decreasing 106 funding to others.
    Clean Water State Revolving Loan Fund (CWSRF): ASIWPCA is deeply 
concerned about the Federal dis-investment in the CWSRF, because the 
CWSRF is under capitalized. Documented needs total over $300 billion. 
This figure does not fully consider: (1) the Nation's growing 
population which increases demands on infrastructure; (2) the higher 
levels of treatment that will be required at traditional permitted 
facilities for pollution; (3) treatment of sources such as stormwater, 
combined sewer overflows and separate sanitary overflows; and (4) 
repair and replacement of aging infrastructure. As a key partner in 
meeting these challenges, the CWSRF needs to be better funded and is 
well worth the investment:
  --Each dollar in Federal capitalization leverages an even greater 
        amount at the State and local level;
  --Each Billion loaned saves communities $350 million in interest, and 
        generates over 40,000 jobs and $1.9 billion in long term 
        economic benefits;
  --77 percent of funds loaned are to improve water quality, 67 percent 
        to protect and restore fisheries and recreational waters, and 
        19 percent to protect and restore drinking water; and
  --55 percent of funds loaned are to achieve compliance with the Clean 
        Water Act
    The Association makes the following recommendations for fiscal year 
2009:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Section 106...........................................             270.3
319...................................................             241.5
Clean Water State Revolving Loan Fund.................       \1\ 1,500.0 
------------------------------------------------------------------------
\1\ Fiscal year 2004 level.

    We ask the Committee to:
  --Preclude USEPA from promulgating or implementing a NPDES permit fee 
        incentive rule.
  --Require that appropriated section 106 funds be allotted to States 
        and Interstate Agencies in accord with the allotment formula as 
        defined in 40 CFR Part 35.162 (a)-(c).
    Maintaining and protecting the Nation's water resources is crucial 
to public health, the environment, and the Nation's economy. The 
Association appreciates the support the Appropriations Committee has 
given State and Interstate Agency Clean Water Programs and looks 
forward to working with you on these important issues.
                                 ______
                                 
 Prepared Statement of the ASME Environmental Protection Agency (EPA) 
       Task Force of the ASME Environmental Engineering Division

                              INTRODUCTION

    The EPA Task Force of the Environmental Engineering Division (EED) 
of ASME is pleased to have this opportunity to submit its position 
statement on the fiscal year 2009 budget request for Science and 
Technology (S&T) programs in the Environmental Protection Agency (EPA). 
ASME is a worldwide engineering society focused on technical, 
educational, and research issues. It sets many industrial and 
manufacturing standards, holds numerous technical conferences and 
professional development courses each year, and is one of the largest 
publishers of technical and engineering information worldwide.

                               BACKGROUND

    Scientists and engineers have a long-standing professional interest 
in applying science and technology to improve the environment and human 
health. Mechanical engineers increasingly collaborate with other 
professionals in the environmental field to develop innovative and 
cost-effective environmental technologies and systems.
    The EPA plays an essential role in the nation's efforts to protect 
human health and safeguard the environment and EPA's S&T research and 
development (R&D) activities should be important to improve 
environmental protection in a sound, sustainable, and cost-effective 
manner. R&D efforts are needed to improve environmental health and 
ecology, environmental monitoring, environmental technology development 
and implementation, pollution prevention, and address the emerging 
concerns of climate change, and the environmental issues of homeland 
security and infrastructure protection.
    The President's fiscal year 2009 budget request for EPA S&T 
programs would increase funding by $3.4 million over fiscal year 2008 
to $763.5 million. Despite this increase, the EPA R&D budget has 
decreased, when adjusted for inflation, to the lowest levels in over 
two decades. Lower R&D funds could undermine major programs and also 
impair responses to climate change, terrestrial carbon sequestration 
and management, biofuels and oil shale waste issues, and nanotechnology 
development.
Overview of the ASME Task Force Review
    We will focus our analysis on the R&D activities within the S&T 
portfolio within the EPA's Office of Research and Development (ORD) and 
the Superfund program that support eight strategic programmatic 
research areas:
    I. Clean Air and Global Climate Change
    II. Clean and Safe Water
    III. Land Preservation and Restoration
    IV. Human Health and Ecosystems
    V. Compliance and Environmental Stewardship
    VI. Toxic Research and Prevention
    VII. Sustainability
    VIII. Homeland Security
    The change in funding levels supporting these core objectives 
between fiscal year 2008 and fiscal year 2009 is as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year
                                       ----------------------   Change
                                           2008       2009
------------------------------------------------------------------------
Clean Air.............................       99.6       96.9       -2.7
Clean Water...........................      104.3      101.4       -2.9
Land Protection and Restoration.......       10.5       13.3       +2.8
Human Health and Ecosystems...........      223.6      217.3       -6.3
Toxic Research and Prevention.........       24.4       26.5       +2.09
Sustainability........................       22.1       19.9       -2.1
Homeland Security.....................       54.1       73.9      +19.8
                                       ---------------------------------
      Total...........................      538.6      549.2      +10.6
------------------------------------------------------------------------

                 EPA OFFICE OF RESEARCH AND DEVELOPMENT

    Through research and technical assistance, ORD provides the 
scientific foundation for EPA by performing research and development to 
identify and solve present and future environmental issues and 
providing responsive technical support to its scientific partners. The 
ORD administers programs addressing both foundational research to 
improve the scientific tools used to understand and evaluate 
environmental health as well as problem-driven research designed to 
provide scientific solutions to high-priority environmental problems. 
It is an invaluable national resource.
    We remain concerned that EPA's science and technology investments 
continue to fall below the level of inflation. An evaluation of EPA's 
resources is needed to ensure that it can balance between existing 
priorities and new challenges. Program specifics issues are outlined 
below:

                           CLEAN AIR RESEARCH
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year
                                       ----------------------   Change
                                           2008       2009
------------------------------------------------------------------------
Global Change.........................       19.6       16.3       -3.3
Clean Air.............................       79.9       80.5        +.59
                                       ---------------------------------
      Total...........................       99.6       96.9       -2.7
------------------------------------------------------------------------

    Funding for Global Change research has dropped at a time when the 
nation views this as a critical issue. We urge Congress to appropriate 
additional funds for Global Change to at least the fiscal year 2008 
level. The Task Force supports increased research funding to at least 
the fiscal year 2008 level.

                          CLEAN WATER RESEARCH
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year
                                        ----------------------   Change
                                            2008       2009
------------------------------------------------------------------------
Drinking water.........................       48.7       45.2       -3.5
Water quality..........................       55.5       56.1        +.6
                                        --------------------------------
      Total............................      104.3      101.4       -2.8
------------------------------------------------------------------------

    Overall, the fiscal year 2009 budget request calls for a decrease 
of about $2.8 million over the fiscal year 2008 appropriated amount. 
This reduction could hurt the long-term development of infrastructure 
related to water quality issues. The Task Force is concerned about the 
reductions for Clean Water Research and urges Congress to increase 
funding for the Drinking Water and Water Quality programs to at least 
the fiscal year 2008 Appropriated amount.

                     LAND PROTECTION AND RESTORATION
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year
                                        ----------------------   Change
                                            2008       2009
------------------------------------------------------------------------
Land protection research...............       10.5       13.3       +2.7
------------------------------------------------------------------------

    The $2.7 million, or 27 percent, increase in land protection and 
restoration research comes as ecosystem research and sustainability and 
environmental management are being reduced in funding. The Task Force 
recommends that funding for land protection and restoration be 
appropriated at requested levels for fiscal year 2009.

                       SUSTAINABILITY RESEARCH \1\
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year
                                        ----------------------   Change
                                            2008       2009
------------------------------------------------------------------------
Sustainability \2\.....................       22.1       20.0       -2.1
------------------------------------------------------------------------
\1\ The Economics and Decision Sciences (EDS) and Environmental
  Technology Verification (ETV) programs have been zeroed out.
\2\ No longer part of Land Protection and Restoration.

    Funding for Sustainability research is slated for a reduction of 
$4.6 million for this year, and nearly $10 million below the fiscal 
year 2007 level. Additionally, programs such as the Environmental 
Technology Verification (ETV) and the Economics and Decision Sciences 
(EDS) were eliminated in the fiscal year 2008 Budget request.
    The Task Force recommends restoring funding to the ETV and EDS 
programs. Funds for Sustainability research should be increased to at 
least fiscal year 2008 levels.

                      TOXIC RESEARCH AND PREVENTION
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year
                                       ----------------------   Change
                                           2008       2009
------------------------------------------------------------------------
Pesticides and Toxics Research........       24.4       26.5       +2.09
------------------------------------------------------------------------


                       HUMAN HEALTH AND ECOSYSTEMS
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year
                                       ----------------------   Change
                                           2008       2009
------------------------------------------------------------------------
Human Health \1\......................       77.2       74.7       -2.5
Ecosystems \1\........................       75.7       69.9       -5.7
Human health risk assessment..........       38.3       39.3        +.98
Endocrine disruptors..................       10.3        9.5        -.82
Fellowships...........................        9.8        8.8        -.96
Computational toxicology..............       12.1       14.8       +1.9
Human Research........................      153.0      144.7       -8.2
                                       ---------------------------------
      Total...........................      223.6      217.3       -6.3
------------------------------------------------------------------------
\1\ No longer a part of the Human Health and Ecosystems program.
  Separated in the fiscal year 2008 Budget.

    Funding for Healthy Communities and Ecosystems research is slated 
for a reduction of $6.3 million for this year, over $20 million from 
fiscal year 2007. Despite that other agencies are receiving increased 
funding for research to support long-term energy reliability and 
sustainability, such as oil shale, biofuels, and carbon capture and 
sequestration, EPA has not received funding to assess the ecosystem 
impacts of these major initiatives. The Task Force believes that the 
substantial budget cuts in ecosystems research will impede new 
technologies that minimize future environmental damage. The Task Force 
recommends increasing funds to at least fiscal year 2008 levels to 
support these areas.

                            HOMELAND SECURITY
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year
                                       ----------------------   Change
                                           2008       2009
------------------------------------------------------------------------
Critical Infrastructure Protection....       15.3       27.1      +11.7
Decontamination.......................       20.4       28.8       +8.36
Preparedness, Response, and Recovery..       38.1       46.2       +8.0
                                       ---------------------------------
      Total...........................       54.1       73.9      +19.8
------------------------------------------------------------------------

    Homeland security activities are a significant element of EPA's S&T 
activities, focusing on critical infrastructure protection and disaster 
preparedness and response. The Task Force believes that the new 
emphasis on homeland security at EPA is justified and that the increase 
is more then adequate to meet the program's objectives. Continued 
support should be provided to improve water security and enhance 
preparedness for biological and chemical threats.
Environmental Education
    The fiscal year 2009 EPA budget requests $8.8 million to support 
research fellowships, a decrease of $1 million from the previous fiscal 
year. The STAR (Science to Achieve Results) fellowship program is the 
only federal fellowship program designed exclusively for students 
pursuing advanced degrees in environmental sciences and engineering. 
This is an important investment and the Task Force fully supports this 
program. The Task Force urges Congress to increase funding for STAR 
fellowships. It is essential to encourage students to pursue careers in 
environmental science and engineering. Such investments are critical to 
addressing environmental concerns, bolstering our nation's workforce, 
and maintaining its competitiveness.

                               CONCLUSION

    While the proposed fiscal year 2009 EPA Science and Technology 
budget includes increases in a few program areas, the overall research 
budget is historically low. We recommend that the ORD budget be 
increased by a minimum of $7 million to a level of $548 million. This 
is necessary to preserve EPA's important contribution in meeting the 
challenges of our natural resource and policy issues in compliance with 
its regulatory mission.
    ASME is a non-profit technical and educational organization with 
120,000 members worldwide. The Society's members work in all sectors of 
the economy, including industry, academia, and government. This 
statement represents the views of the EPA Task Force of the ASME 
Environmental Engineering Division and is not necessarily a position of 
ASME as a whole.
                                 ______
                                 
               Prepared Statement of Audubon Connecticut

    Madame Chairman and honorable members of the committee: Audubon 
Connecticut appreciates the opportunity to testify on behalf of funding 
through the Land and Water Conservation Fund to support the addition of 
three significant habitat areas to the National Wildlife Refuge (NWR) 
system in Connecticut. A total $6 million is being requested for 
additions to the Stewart B. McKinney National Wildlife Refuge and 
$5.065 million for additions to the Silvio O. Conte National Fish and 
Wildlife Refuge.
    Audubon Connecticut, the State organization of the National Audubon 
Society with more than 12,000 members statewide, works to protect 
birds, other wildlife and their habitats using science and 
conservation, education, and legislative advocacy for the benefit of 
people and the earth's biological diversity. The NWR system in our 
state protects key habitat areas for birds, wildlife and plants, and 
provides opportunities for scientific research, environmental 
education, and fish and wildlife-oriented recreation. These refuges, 
the Stewart B. McKinney National Wildlife Refuge along the coast of 
Long Island Sound and the Silvio O. Conte National Fish and Wildlife 
Refuge covering the watershed of the Connecticut River, represent two 
of our Nation's most unusual and important Refuges located in a densely 
populated and highly developed four-state region including Connecticut, 
Massachusetts, New Hampshire and Vermont.
    The Stewart B. McKinney National Wildlife Refuge is dedicated to 
protecting migratory bird habitat along 60 miles of Long Island Sound 
shoreline in Connecticut. The Refuge is used by more than 300 species 
of birds including raptors, waterfowl, shorebirds and Neotropical 
migratory landbirds. Several individual units are recognized as Audubon 
Important Bird Areas, part of a global network of sites that are 
essential to birds at some point in their life cycle. The Stewart B. 
McKinney NWR provides critical habitat for federally endangered Roseate 
Terns, federally threatened Piping Plovers, and a globally significant 
nesting population of Salt Marsh Sharp-tailed Sparrows, listed by the 
State of Connecticut as a Species of Special Concern and as Globally 
``Vulnerable'' by BirdLife International.
    The Silvio O. Conte National Fish and Wildlife Refuge.--The 
Nation's only Fish and Wildlife Refuge--consists of approximately 
180,000 acres in 48 identified ``special focus areas'' within the 7.2 
million acre watershed of the Connecticut River in Connecticut, 
Massachusetts, New Hampshire and Vermont. These areas contribute 
substantially and in unique ways to supporting natural diversity in the 
watershed and provide habitat for numerous species of birds including 
our nation's symbol, the Bald Eagle. Two individual units in 
Connecticut are recognized as Audubon Important Bird Areas. The areas 
currently proposed for acquisition would constitute only the second 
acquisition of property in the State of Connecticut by the Conte 
Refuge.
    Audubon Connecticut strongly supports the following 2008 Land and 
Water Conservation Fund requests:
  --$6 million for phase I of a multi-year effort to acquire the Long 
        Beach/Pleasure Beach project in Stratford and Bridgeport, 
        Connecticut that would conserve a 70-acre barrier beach 
        adjacent to the State's largest city, a distressed and targeted 
        community. This will be first of several phases for this 
        project. The beach shelters the 700-acre estuarine system of 
        the Stratford-Great Meadows Unit of the Stewart B. McKinney 
        National Wildlife Refuge, and represents the most important 
        remaining block of nesting habitat for the federally threatened 
        Piping Plover and State threatened Least Tern in Connecticut. 
        Long Beach and Pleasure Beach represent 20 percent of 
        Connecticut's remaining undeveloped coastline. More than 270 
        bird species utilize this area, and the addition of the Long 
        Beach/Pleasure Beach property to the Refuge would create one of 
        the premier birding areas in all of New England. Acquisition of 
        this area by the USFWS will simultaneously improve public 
        access, improve resource management for federally listed 
        species and provide a new amenity to Connecticut's largest 
        city, Bridgeport. With both municipalities willing to sell 
        their sites to USFWS, this is a unique opportunity to conserve 
        critical bird habitat while also providing high quality 
        wildlife-oriented recreation opportunities in an urban 
        environment.
  --$2 million for acquisition of the Elm Camp/Johnson property, three 
        (3) parcels that would add a total of 389 acres along the 
        pristine Salmon River, a tributary to the Connecticut River, to 
        the Salmon River Division of the Silvio O. Conte National Fish 
        and Wildlife Refuge, as well as $3.065 million (a total request 
        of $5.065 million) for additional properties in Massachusetts, 
        New Hampshire, and Vermont as part of a four-State coalition 
        effort to permanently protect key areas in this unique Refuge 
        that runs through the four-State region and spans the watershed 
        of New England's longest river. The Salmon River Division in 
        Connecticut represents critical wintering habitat for Bald 
        Eagles and nesting habitat for American Black Ducks, Wood 
        Ducks, and Mallards, along with critical wetland, forest and 
        shrubland habitat for many other species of conservation 
        concern. The Elm Camp/Johnson property would represent only the 
        second unit of the Refuge in Connecticut and the first addition 
        to the Salmon River Division. The property contains 3,360 feet 
        of frontage on Pine Brook, a high-quality stream that provides 
        outstanding cold-water fish habitat, as well as 1,440 feet on 
        the west bank of the Salmon River where there have been 
        extensive State and Federal efforts to restore anadromous fish 
        runs, including the Atlantic salmon. Pine Brook is the only 
        major Salmon tributary free of artificial barriers to migratory 
        fish.
    The acquisition of these parcels by the U.S. Fish and Wildlife 
Service will continue efforts to protect bird habitat along the highly 
developed coastline of Long Island Sound and watershed of the 
Connecticut River. If funding is not made available in fiscal year 
2009, there is a strong possibility that these parcels could be 
developed and Connecticut would lose more of the already-rare salt 
marsh and riverine habitats found on the subject properties. On behalf 
of Audubon Connecticut, I respectfully request your support in the 
fiscal year 2009 Interior Appropriations bill to ensure the success of 
these important conservation projects that will benefit the people of 
our State and our Nation for generations to come.
    Thank you for your consideration of these requests.
    Audubon Connecticut, the State organization of the National Audubon 
Society with more than 12,000 members statewide, works to protect 
birds, other wildlife and their habitats using science and 
conservation, education, and legislative advocacy for the benefit of 
people and the earth's biological diversity. Through our network of 
nature centers, protected wildlife sanctuaries, and local volunteer 
Chapters, we seek to connect people with nature and inspire the next 
generation of conservationists.
                                 ______
                                 
       Prepared Statement of the Audubon Society of New Hampshire

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to provide testimony on behalf of the Audubon 
Society of New Hampshire in support of an appropriation of $1 million 
from the Federal Land and Water Conservation Fund to acquire a 2,450-
acre tract known as the Mollidgewock Brook Project (Phase II) for the 
Lake Umbagog National Wildlife Refuge (Lake Umbagog NWR) in Errol, New 
Hampshire. The Audubon Society of New Hampshire is a nonprofit 
statewide membership organization whose mission is to protect New 
Hampshire's natural environment for wildlife and for people. Our 
organization has offered programs in wildlife conservation, land 
protection, environmental policy, and environmental education since 
1914.
    My name is Carol R. Foss, Director of Conservation for the Audubon 
Society of New Hampshire, where I have worked in various professional 
capacities for more than 30 years. I hold a Bachelor's degree in 
Biology from Colby College in Waterville, Maine, a Master's Degree in 
Zoology from the University of Connecticut in Storrs, and a Ph.D. in 
Wildlife Ecology from the University of Maine in Orono. I have more 
than 25 years of field experience in northern New Hampshire and western 
Maine, including considerable time in the vicinity of the Lake Umbagog 
NWR. I have participated in a number of collaborative efforts to ensure 
the long-term conservation of our state's northern forest landscape, 
serving on numerous advisory committees and expert panels focused on 
land conservation and management around Umbagog Lake and elsewhere in 
the region. In my current position I administer a staff of six 
additional scientists, several of whom have also conducted field 
research in the forests and wetlands of northern New Hampshire.
    Set in the foothills of the rugged Mahoosuc Mountains and 
straddling the state border between northern New Hampshire and western 
Maine, Umbagog Lake is the westernmost link in the chain of Rangeley 
Lakes, famed for their excellent recreational opportunities as well as 
for possessing some of the finest wildlife habitat to be found in the 
two states. The 20,513-acre Lake Umbagog NWR, which encircles Umbagog 
Lake, includes 8,700 acres of open water, dozens of miles of shoreline, 
numerous sheltered coves and hidden backwaters, and extensive and 
diverse wetlands. These wetland features are surrounded by a variety of 
upland and lowland forest types in a broad array of successional age 
classes.
    Umbagog Lake offers scenic wilderness opportunities for 
recreationists throughout the year. In the warmer months, kayakers, 
canoeists, and boaters explore the lake's coves and the rapids and 
backwaters of the Magalloway, Rapid, and Dead Cambridge rivers, the 
lake's major tributaries, as well as the Androscoggin River which flows 
out of the lake. Primitive shoreline campsites offer rustic canoe 
camping in a magnificent northwoods setting. Hunters, hikers, nature 
photographers, and wildlife watchers find nearly unlimited 
opportunities for exploration. The watershed is a well-known and 
sought-after fishing destination that offers anglers the opportunity to 
fish for both cold water and warm water species. Winter recreational 
activities include snowmobiling, ice fishing, snowshoeing, cross-
country skiing, and dog-sledding.
    Lake Umbagog NWR protects exemplary habitats for many types of 
northern forest wildlife, especially for wetland-dependent, migratory, 
and state-listed threatened or endangered bird species. Wetland areas 
on the Refuge are particularly notable for the diversity and abundance 
of migrating and nesting waterbirds. The Refuge supports the highest 
concentrations of nesting American black ducks, ring-necked ducks, and 
common loons in New Hampshire. Significant numbers of several birds of 
prey of state conservation concern in New Hampshire or Maine are found 
in and around the Refuge, including breeding populations of bald 
eagles, ospreys, peregrine falcons, and northern harriers. Many 
neotropical migrant songbirds associated with northern forest habitat 
types are plentiful on the Refuge, including several declining species 
such as Canada warbler, bay-breasted warbler, and rusty blackbird.
    Critical ecological values protected by the Lake Umbagog NWR have 
been recognized by a long list of interagency, academic, and non-
governmental organizations, working groups, and committees. In the New 
Hampshire Wildlife Action Plan, sections of the Refuge are rated as 
``Tier 1'' habitat, a classification used by conservation planners to 
designate habitat areas with the highest condition ranking in the 
state. The North American Waterfowl Management Plan's Atlantic Coast 
Joint Venture recognizes portions of the Refuge in both Maine and New 
Hampshire as high priority sites. The Refuge is located at the center 
of the Nulhegan-Rangeley Complex, one of only five waterbird focus 
areas designated in New England. Within the North American Bird 
Conservation Initiative, the Lake Umbagog NWR falls within the Atlantic 
Northern Forest Bird Conservation Region (BCR-14); many of the Priority 
Species identified by BCR-14 occur on the Refuge. The National Park 
Service has specifically designated one unique 850-acre tract of boreal 
bog habitat within the Refuge as the Floating Island National Natural 
Landmark.
    Available for acquisition in fiscal year 2009 is the 2,450-acre 
Mollidgewock Brook Project (Phase II) located in the town of Errol, New 
Hampshire. Conservation of this parcel is a top priority for the Lake 
Umbagog NWR and the support of a variety of local and statewide 
conservation groups and natural resource agencies, including the 
Appalachian Mountain Club, the New Hampshire Fish and Game Department, 
and other conservation groups and natural resource agencies. The entire 
5,016-acre Mollidgewock Brook Project (Phases I, II, and III) 
encompasses the majority of the Mollidgewock Brook wetlands--an 
extensive complex of low-gradient stream, boreal forest swamp, alder 
swamp and emergent marsh. A large block of lowland spruce-fir forest 
surrounds the wetlands, and early successional northern hardwood and 
mixed forest covers the property's gently rolling uplands.
    Specifically, Phase II of the Mollidgewock Brook Project 
encompasses 276 acres of wetlands as mapped by the National Wetlands 
Inventory, including at least 10 different wetland types. These 
extensive and varied wetlands provide ideal habitat for waterfowl, such 
as hooded merganser, common goldeneye, and the regionally declining 
American black duck. Field data obtained by the U.S. Fish and Wildlife 
Service document that this property also supports a variety of forest 
types, including lowland mixed hardwood-spruce forest, tamarack and 
spruce bogs, and regenerating stands of spruce-fir and northern 
hardwoods. Conifer stands on the property have historically provided a 
large wintering area for white-tailed deer, the State's most important 
game species. These forests also provide ideal habitat for lynx and 
American marten, both species of regional conservation concern. The 
forests support breeding populations of many neotropical migrant 
songbirds, including more than 20 species of warblers. Ospreys and 
northern harriers breed on the property, and bald eagles utilize it as 
foraging habitat throughout the year.
    Conservation of this property will provide critically important 
ecological connectivity between the recently conserved 5,300-acre Errol 
Community Forest and the existing 20,513-acre Lake Umbagog NWR. This 
will benefit many types of wildlife by creating and preserving 
extensive wildlife travel corridors that extend from Umbagog Lake to 
the nearby Androscoggin River and to adjacent upland forests. This 
connection will help facilitate long-term conservation of important 
wetland and upland wildlife species, including migratory birds, large 
mammals, and endangered species. Addition of this 2,450-acre property 
to the Lake Umbagog National Wildlife Refuge will further accomplish 
the original purposes for the establishment of the Refuge in 1992, 
including protecting wetlands, wetland-associated wildlife, and 
migratory birds. Permanent protection of the Mollidgewock Brook and 
wetland complex will assist the Refuge in achieving these goals, as 
well as complement and enhance conservation efforts of several partner 
organizations elsewhere in the region. Additionally, acquisition of 
this property will support efforts to preserve outdoor recreational 
opportunities in the upper Androscoggin Valley.
    An appropriation of $1 million from the Land and Water Conservation 
Fund is needed to complete the acquisition of Phase II of the 
Mollidgewock Brook Project. This investment will be leveraged by over 
$900,000 in State and private money that will support Phase I and Phase 
III in order to complete the entire 5,000-acre project. Timely action 
on this request is needed to complete conservation of the Phase II 
parcel, which had been at risk of subdivision for second homes by 
virtue of its proximity to Umbagog Lake, the Androscoggin River, and 
other desirable recreational amenities of the region. With your support 
of this appropriation, we have an opportunity to conserve threatened 
acreage and add it to the Lake Umbagog NWR. Acquisition of this parcel 
will support the Refuge in its efforts to protect important wildlife 
habitat and link it to other conservation lands which are already 
protected by various Federal, State, and municipal agencies.
    The Mollidgewock Brook Project is one of many worthy acquisition 
proposals nationwide seeking LWCF funding. Unfortunately since fiscal 
year 2002, LWCF funding has diminished by about 75 percent, and the 
fiscal year 2009 Federal budget proposes even further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers many in-holdings and adjacent lands which 
have been identified as critical to protect and enhance recreational 
access, historic sites, wildlife habitats, scenic areas, water 
resources, and other important features. If we fail to act in a timely 
manner to conserve treasured natural and cultural resources while we 
have an opportunity, many may soon be lost or severely degraded. I urge 
the subcommittee to increase overall funding available for LWCF in 
fiscal year 2009.
    Thank you again for the opportunity to provide testimony in support 
of this important conservation initiative in northern New Hampshire.
                                 ______
                                 
             Prepared Statement of the Blue Goose Alliance

    Mr. Chairman and members of the committee, the following is offered 
on behalf of the Blue Goose Alliance regarding the fiscal year 2009 
appropriations for Operations and Maintenance accounts of the National 
Wildlife Refuge System. We urge the committee to allocate an increase 
of $81 million, thereby advancing the funding to $514 Million for 
Refuge System operations in the coming year. Further, we ask that the 
Land and Water Conservation Fund (LWCF) appropriations for fiscal year 
2009 be retained at the fiscal year 2008 level of $20.676 million. 
These funds are vital to assure continuation of a viable effort to 
address exchanges, inholdings, emergencies and hardships affecting 
habitats for endangered species, neotropical migrants and depleted 
populations of migratory birds.
    The Blue Goose Alliance is a national 501(c)(3) conservation 
organization. Its mission is to promote the legislative establishment 
of a National Wildlife Refuge Service within the U.S. Department of the 
Interior. To assist the accomplishment of that mission, the Alliance 
informs the public and Congress on needs and benefits of the Refuge 
System, and works independently or with other organizations to defend 
individual refuges against threatening projects or proposals.

                                SUMMARY

    The Alliance thanks you, Madam Chairwoman, for your leadership last 
year as this committee worked to increase funding for the Refuge 
System. Those efforts were noteworthy given the difficult budget 
climate. Once again we urge you to move the Refuge System and its vital 
wildlife conservation programs forward by increasing funding in fiscal 
year 2009. A large group of organizations are working to establish 
adequate core program funding for the Refuge System by fiscal year 
2012. The level we endorse for fiscal year 2009 ($514 million for NWRS 
O&M) represents a logical and very important step towards that well-
justified goal.
    We are deeply concerned with the administration's fiscal year 2009 
budget request for the National Wildlife Refuge System, which proposes 
damaging decreases within basic refuge programs. Each year rising basic 
costs erode the purchasing power of the funding provided by this 
committee so that an additional $15 million each year is necessary 
merely to maintain refuge programs at the previous year's level. The 
real need is to go beyond the inflation costs and allow refuges to 
increase activities and public benefits to higher levels.
    It is incomprehensible to us that the Fish and Wildlife Service 
(FWS) requested severe program cuts by diverting some fiscal year 2008 
funds, ``refusing'' money allocated to it, and attempting to confine 
some subactivities to fiscal year 2007 levels even as they continue 
refuge workforce reductions. Those tactics conflict with the 
Appropriations Act and directions provided by this committee.
    We also respectfully ask the subcommittee for an additional $1 
million to fund an independent study of the Refuge System. The National 
Wildlife Refuge Association in October 2007 first proposed such a 
study. It should detail the obscure stature of the Refuge System within 
the Department and FWS with consequent lack of leadership attention, 
weak decisions, forced staff reductions and inadequate funding 
undermining of the biological integrity, diversity, and environmental 
health of refuges. These factors also impede vital public outreach, 
foster lawlessness on refuges and limit the ability of field stations 
to mitigate and adapt to habitat and wildlife population changes 
wrought by global climate changes. The study would gauge the Refuge 
System's status and efforts to implement the 1997 Refuge Improvement 
Act.
    While the fiscal year 2009 President's budget request for the FWS 
attempts to look like an effort to reduce government spending, it 
actually diverts funds from basic refuge programs originating in the 
1997 statute, and funds new initiatives in the FWS and Department. This 
is a chronic problem for the System and a main reason the Blue Goose 
Alliance exists. We believe such diversions would cease if the Refuge 
System had full agency autonomy within the Department of Interior.

                 REFUGE SYSTEM PROGRAM RECOMMENDATIONS

    The FWS has asked for a decrease of $930,000 for subactivities 
within the Wildlife and Habitat Management subactivity. The proposal 
``eliminates'' a congressional add-on in last year's appropriations. We 
support an increase of $25 million in this fundamental program. As 
Global Climate Change continues to impact coastal areas and especially 
northern Alaska, refuge wildlife and habitats must have the resources 
to help mitigate and adjust to the changes. Inland areas such as the 
prairie pothole region of north central States and the arid southwest 
are also feeling early effects of the greenhouse phenomenon. America's 
fish and wildlife require time to adjust to expected habitat changes; 
refuges can serve as assisting agents for those adjustments. Refuges 
need to improve wildlife surveys and monitoring activities, increase 
the health of all refuge wildlife populations and habitats, and 
anticipate coming changes.
    The FWS has asked for a decrease of $1,733,000 in the Visitor 
Services subactivity, again redirecting resources to ``other needs 
within the Fish and Wildlife Service'' at a time when National Wildlife 
Refuges are, more than ever, a destination point for people as well as 
wildlife. Refuge visitation continues to grow as birdwatching becomes 
ever more popular and refuges offer premier opportunities found nowhere 
else. Birding now has 82 million participants, having grown by 8 
percent since the year 2000. Today 35.4 percent of Americans 16 and 
older take active interest in birding. Altogether, over 8 billion 
birding days are expended each year, yet another increase in nature 
observations in general as humans seek balance in a stress-filled 
world.
    Environmental education is an especially important activity on 
refuges, and is increasingly popular with schools all across the 
Nation. Within the refuge system many refuges have a top quality EE 
program. Investments in EE are especially important as they reach our 
young people, the decision-makers of tomorrow. Volunteerism is another 
notable success story on refuges. Volunteers contribute 20 percent of 
the work hours performed on refuges. Rather than reduce this vital 
subactivity and programs, this is an opportune time for enhancement. In 
total, the Alliance supports an increase of $20 million for the Visitor 
Services subactivity.
    The FWS proposes a program decrease of $1,027,000 in Conservation 
Planning. The congressional mandate for completing Comprehensive 
Conservation Plans (CCP) for all 554 units of the Refuge System by 2012 
draws near. The larger, more complex refuges are only now beginning to 
be planned. A decrease in support at this juncture is unwarranted and 
unwise. An increase of $5 million in this subactivity would best 
support the necessary data collections and other activities required 
for quality planning. The recent tendency by the planners to use 
``boiler-plate language'' in the CCPs should be replaced with sound 
planning and deeper thinking on upcoming issues to be addressed by the 
individual refuges. Global climate change has not been included in most 
of the plans completed to date. Because the plans are intended to guide 
the refuges for the next 15 years, and since early effects from climate 
changes are being noted, it is crucial to invest in completion of plans 
appropriate to the times.
    We support an even larger increase for the Law Enforcement 
subactivity than is included in the FWS budget request. The wildlife 
refuges along our Nation's southern border require increased capability 
given the often dangerous situations being encountered. Refuge law 
enforcement in general is lagging at a time of increased visitation and 
needs an important boost for visitor and wildlife protection. Overall 
plans have been developed but funds for equipment, training, and new 
personnel must be made available. We support an increase in this 
subactivity of $5 million.
    The FWS proposes to reduce the Refuge Maintenance subactivity by 
$2,384,000 while the National Wildlife Refuge Service continues to be 
crippled by a growing maintenance backlog currently exceeding $3 
billion. We propose an increase of $25 million in this vital program 
area. The present level of funding is inadequate and should be raised 
to provide a capacity more responsive to the initial investments and 
standards of responsible upkeep.

                               CONCLUSION

    The 2007 ``Banking on Nature'' report States that recreational 
visits to national wildlife refuges generate substantial economic 
activity. In fiscal year 2006, 34.8 million people visited refuges 
outside of Alaska for recreation. Their spending generated almost $1.7 
billion of sales in regional economies. As this spending flowed through 
the economy, nearly 27,000 people were employed and $452.8 million in 
employment income was generated. Visitation projections for the coming 
year exceed 40 million people. It is time to recognize this economic 
contribution of the Refuge System by moving a strong step above the 
fiscal year 2008 funding for operations and maintenance. Such a move 
will enable the Service to better shelter its fish, wildlife and plants 
while providing important benefits for the visiting public and other 
supporters. It is an investment that continues to pay dividends in 
several ways. We hope that members of this committee agree.
    The proposed FWS fiscal year 2009 Budget for National Wildlife 
Refuges would reduce the ability of every refuge in the System to 
successfully conduct important science based biological programs and to 
hire vital new staff. It would also diminish opportunities for the 
public to engage in compatible wildlife-dependent recreation.
    The Blue Goose Alliance urges the subcommittee to provide an 
increase of $81 million for the National Wildlife Refuge System in 
fiscal year 2009, raising the Operations and Maintenance funding level 
to $514 million, and to fund an important and much needed independent 
study of the System. This sorely needed surge in funding will continue 
the reversal of deteriorating refuge conditions started by last year's 
appropriations. It will permit reopening several visitor contact 
stations and allow new or upgraded environmental education programs, an 
increase in volunteer programs and resulting output, and improve 
services to visitors. We also consider it vital that $20.7 be retained 
for the LWCF to assure an acquisition program commensurate with the 
need to save habitats for migratory birds and endangered wildlife.
    Thank you Madam Chairwoman for this opportunity to comment on the 
appropriation needs of the National Wildlife Refuge System.
                                 ______
                                 
     Prepared Statement of the Bonneville Shoreline Trail Committee

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present this testimony in support of an 
appropriation of $1.5 million for the Forest Service to acquire the 
150-acre North Ogden property for the Bonneville Shoreline Trail.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    For years, the residents of Salt Lake, Weber, Davis, Utah, and 
Cache Counties have benefited from their unique geographical location 
along the slopes of the Wasatch Range, which provides recreational 
opportunities, an escape from urban pressures, and a sense of community 
pride and identity. Development pressure poses the most serious threat 
to this valuable resource and will increase as the Wasatch Front 
population doubles within the next 10 to 15 years. This population 
growth and increased public use of these lands have raised issues of 
landowner liability and put pressure on these property owners either to 
sell their land or to restrict access to the trails, raising the 
possibility that this vital public recreational system could be 
impaired or lost.
    In 1990, representatives of the Wasatch-Cache National Forest, 
Weber County, the City of Ogden, and other citizens groups concerned 
about the fragile thread that holds the trail system together, began 
meeting in an effort to protect and expand the trail corridor along the 
foothills of the Wasatch Mountain Range. As a result, the Bonneville 
Shoreline Trail (BST) project was developed, with a broad goal of 
extending the existing but threatened trail corridor already in place 
in the city of Ogden south to Provo, following the prehistoric 
shoreline of Lake Bonneville within the national forest. This 
partnership has been so successful that the communities in Cache and 
Box Elder County have worked to extend the trail north.
    Available for acquisition in fiscal year 2009 is the 150-acre North 
Ogden property in Weber County, a high priority for protection by the 
U.S. Forest Service. The property serves as important habitat for deer 
and elk and as an important buffer for fire protection for the rapidly 
developing area along the Wasatch Front. The property also provides 
watershed protection for neighboring areas in addition to key 
recreational resources.
    The North Ogden program is a partnership effort to provide a new 
stretch of the BST along the northern boundaries of North Ogden and 
Pleasant View, within the boundaries of the national forest. In 2005, a 
5-mile stretch of the BST along North Ogden and Pleasant View was 
secured through a trail easement along an existing utility corridor 
granted to the nonprofit Weber Pathways. The property available for 
protection this year is critical to the North Ogden program because it 
will bring Forest Service ownership to this stretch of the BST and add 
critical trail access to the citizens in this area of the State. 
Protection of this property will also protect beautiful views of the 
foothills of the Wasatch Front and Ben Lomond Peak, one of Weber 
County's most important landmarks, while conserving important wildlife 
habitat and winter range along this rapid growth area.
    In fiscal year 2009, $1.5 million is needed to acquire this BST 
property that is critically important to furthering the goals of the 
trail. If not protected, this area will be developed. Public access to 
this portion of the BST could be lost forever, and adjacent forest and 
wilderness lands would also be put at risk.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation

    The Bristol Bay Area Health Corporation (BBAHC) submits this 
statement regarding the fiscal year 2009 Indian Health Service budget. 
BBAHC is a consortium of 34 tribes in Southwest Alaska and was formed 
by the tribes of the region in 1973. We were the first tribal 
organization in the United States to use an Indian Self-Determination 
(Public Law 93-638) contract to manage and operate an Indian Health 
Service Unit, and have been managing and operating the Kanakanak 
Hospital and Bristol Bay Area Service Unit since 1980. We provide 
health services in a 40,000 square mile area--larger than the state of 
Ohio and with no roads. Our energy costs are enormous. Heating oil is 
now $5 a gallon in Dillingham and double that in the villages--in some 
cases heating oil has to be flown in, exacerbating the costs. Gasoline 
is $11 per gallon in the villages. Medevac services are $20,000 per 
flight.
    BBAHC is struggling to meet health needs with high costs and 
woefully inadequate facilities as reflected in our IHS budget requests:
  --$5.5 million increase for the Village-Built Lease program over a 3-
        year period with at least a $3 million increase in fiscal year 
        2009 and a pro-rata share of any increase for BBAHC.
  --$2 million to complete the replacement of the boiler plant at 
        Kanakanak Hospital.
  --Authority for IHS to accept non-IHS built facilities and to issue 
        use permits for these facilities to tribes.
  --$3.8 million for design and construction of a dental building.
  --$2 million for design of an expansion and remodeling of the 
        Kanakanak Hospital.
  --$1.4 million for BBAHC's Medivac program. This is the amount needed 
        just so we can continue services at the current level.
  --Resources to stop the shoreline erosion--IHS owns the property 
        underlying the Kanakanak Compound, and there is considerable 
        contamination and beach erosion.
  --Funding is needed for water and sewer installation.
    We also strongly support the fiscal year 2009 IHS recommendations 
of the Alaska Native Health Board for:
  --A 20 percent increase in the IHS budget--$666 million increase over 
        fiscal year 2008.
  --Full funding for contract support costs, a $100 million increase 
        over fiscal year 2008. Nearly half of the CSC shortfall is in 
        Alaska.
  --Funding for the Electronic Health Records Technology program--
        BBAHC's costs for this is $500,000.
  --Sanitation Construction--a $20 million increase over fiscal year 
        2008.
  --Community Health Aide Program--a $3 million increase over fiscal 
        year 2008.
    Boiler Plant Replacement.--Of great urgency is the need to complete 
the replacement of the hospital's boiler plant. Of the $5.4 million 
cost, we have obtained $3.4 million from various sources. We need an 
additional $2 million to complete the job. If the replacement is not 
completed soon we face a breakdown of the current system and closing of 
the hospital.
    The boiler plant will be in a new stand alone pre-fabricated 
building. A buried underground piping system will be added to connect 
the new building with the existing hospital heating system. A system of 
pipe anchors, pipe guides, and expansion joints will be provided to 
allow proper expansion of the steam piping system. The project will 
also incorporate space in the new boiler plant for the future 
relocation of the 500 kW standby generator system, which provides 
reliable power for the campus as a back-up to the utility power system.
    Village-Built Clinic Leasing Program.--The IHS lease program for 
village-built clinics has absolutely stagnated and it is not able to 
come close to keeping up with village needs. Funding for the IHS lease 
program is $3.7 million, the same as it has been for 19 years! We have 
not even had funding for inflationary increases.
    Thanks in part to assistance through the Denali Commission we have 
seen much needed expansion of some village-built clinics and new ones 
established. However, lease amounts for clinics that have expanded have 
not been increased, and indeed, are far below what one would consider 
reasonable local rates. And those clinics which have not expanded are 
also being leased at unreasonably low rates when one considers their 
rural, remote locations. An example is Ekwok, which has an annual 
clinic lease rate of only $9,146. Overall the current lease funding 
covers only approximately 55 percent of the operating costs, and those 
cost are expected to continue to increase as energy costs continue to 
skyrocket in rural Alaska.
    As new clinics have been added, they must be on a waiting list for 
clinic leases. In order for continued funding from the Denali 
Commission for clinic construction, the IHS leasing program funds must 
be increased. Such an increase would make an important difference in 
the provision of health services at the village level.
    Medevac Travel.--We request $1.4 million in recurring funding for 
BBAHC to support the high costs of Medevac services in the Bristol Bay 
region. As this subcommittee knows, there are few roads in Alaska and 
there are many instances where we must transport patients via air to 
the hospital in Dillingham, and, in instances where our hospital cannot 
provide the type of care needed, to Anchorage. Medevac transport costs 
$20,000 per flight.
    We receive $111,564 for Medevac but our costs are closer to $2 
million. We have received no increase since 2001! We aggressively 
pursue third party collections, but it can in no way make up for the 
huge shortfall we have in Medevac costs. Medicare and Medicaid 
reimbursements cover less than half of Medevac costs. Due to high 
energy and increased costs over the previous year we absorbed $500,000 
in Medevac costs last year.
    DHHS Hindering the Use of Facilities Built with Non-IHS Funds.--In 
the past BBAHC has used non-IHS funds to pay for the construction of an 
emergency room and substance abuse treatment and behavioral health 
facilities, which we added to the Kanakanak Compound property owned by 
the IHS. Once built, these facilities were given to the IHS, which in 
turn has allowed BBAHC to utilize them to provide services under our 
compact in accordance with the terms of a use permit. DHHS has been 
micro-managing how IHS deals with the accepting and permitting of these 
facilities, and in so doing has prevented us from utilizing this 
arrangement for future construction projects. These actions make no 
sense to us because Congress does not appropriate sufficient funds for 
the IHS to pay for the needed construction projects at Kanakanak 
Compound. We, as well as other tribal health providers in Alaska, are 
compelled to seek other funding sources to build desperately needed 
facilities in an effort to carry out our mission of providing quality 
health care services. Beneficiaries in our regional have greatly 
benefited from our emergency room and substance abuse and behavioral 
health facilities. However, you should know that in completing the 
behavioral health facility, we lost two construction seasons due to 
lags in the ``gifting process''. We ask this Subcommittee to urge DHHS 
to delegate to the IHS the authority to accept these types of gifts and 
to continue issuing use permits to tribes as it has done in the past.
    Dental Building.--Funding for a dental building involves 
considerably more than just funding for a facility. In our case:
  --There is a significant amount of contaminated soils at the current 
        location.
  --New dental equipment will cost $600,000.
  --We will need to relocate a sewer line, light poles, and a manhole.
  --Footings for new main entry will need to be completed with this 
        project.
  --Information Technology Space & Independent Servers for Digital 
        Image.
    Beach Erosion.--Our tribal consortium utilizes IHS-owned property 
for the Kanakanak Hospital and Compound in providing health services 
under the Indian Self-Determinatin and Education assistance Act. When 
we took over this federal facility under a use permit, the government 
agreed to be responsible for hazardous conditions resulting from prior 
federal use of the property, including pockets of oil underground due 
to years of spills, leaks and overflows.
    The erosion of the shoreline of the hospital compound has increased 
this problem. The erosion has brought oil to the surface and well as 
materials from old garbage dumps and, very disturbing, human remains 
from a cemetery dating back to about 1900. The cemetery was used by a 
federally operated orphanage and school--and is now part of the IHS 
property on which Kanakanak Hospital is located. IHS needs to obtain 
the resources to stop the erosion and clean up the site. If this 
situation is not corrected it will eventually put the hospital itself 
at risk. The problem needs to be addressed immediately and the cost 
should not diminish the resources available for Alaska Native health 
care.
    Water and Sewer Installation.--While we have a water and sewer 
system in downtown Dillingham, the outlying areas of town are not on 
the system, and this is a similar scenario for several of our villages. 
Several have wells and septic systems where a sewer system is too 
costly. We are very concerned with the age of many systems that will 
fail and need to be replaced as they are outdated and inadequate to 
meet needs.
    Twenty Percent Increase in IHS Budget.--As mentioned above, we 
support the ANHB request for a 20 percent increase in the IHS budget, 
or $666 million over the fiscal year 2008 enacted level. While the IHS 
budget has not kept up with inflation and other built-in costs such as 
pay raises and population growth, the administration's proposed fiscal 
year 2009 budget would make matters dramatically worse. The 
administration proposes not one penny for built in costs, and by its 
own conservative estimates tribal and IHS program would have to absorb 
$144 million for built-in costs in fiscal year 2009. When you add to it 
the generally insufficient funding over the years for built-in cost and 
the $200 million that has been rescinded from the IHS budget since 
2000, a 20 percent increase is not at all out of line, even in this 
tight budget environment.
    Thank you for your consideration of our needs.
                                 ______
                                 
     Prepared Statement of the California State Coastal Conservancy

                            PROJECT REQUESTS
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
FUNDING FOR THE DON EDWARDS SAN FRANCISCO BAY                 $4,000,000
 NATIONAL WILDLIFE REFUGE (FWS, CONSTRUCTION)........
MONITORING OF SAN FRANCISCO BAY SALT PONDS (USGS,              1,150,000
 BIOLOGICAL RESEARCH AND MONITORING).................
CALIFORNIA SEAFLOOR MAPPING PROGRAM (USGS, COASTAL             1,500,000
 AND MARINE GEOLOGY PROGRAM).........................
------------------------------------------------------------------------

                                SUMMARY

    On behalf of the California State Coastal Conservancy, I want to 
thank the subcommittee for the opportunity to present our priorities 
for fiscal year 2009 and, at the same time, express our appreciation 
for your support of the Conservancy's projects in the years past. The 
Conservancy respectfully requests needed funding for the following 
critical projects during fiscal year 2009: $4 million for the Don 
Edwards San Francisco Bay National Wildlife Refuge for project costs 
associated with the South San Francisco Bay Salt Ponds Restoration 
Project; $1,150,000 for the USGS Biological Research and Monitoring 
Program in support of the South San Francisco Bay Salt Ponds 
Restoration Project, and; $1,500,000 for the USGS Coastal and Marine 
Geology Program in support of the California Seafloor Mapping Program.

                         CONSERVANCY BACKGROUND

    The California Coastal Conservancy, established in 1976, is a State 
agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore. We work in partnership with local governments, other public 
agencies, nonprofit organizations, and private landowners to accomplish 
these goals.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy: protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has: 
helped build more than 300 access ways and trails, thus opening more 
than 80 miles of coastal and bay lands for public use; assisted in the 
completion of over 100 urban waterfront projects; joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups, making local community involvement an integral part of the 
Coastal Conservancy's work and completed projects in every coastal 
county and all nine San Francisco Bay Area counties. In addition, we 
currently have over 300 active projects that are benefiting the 
citizens of California.

         SOUTH SAN FRANCISCO BAY SALT POND RESTORATION PROJECT

    The Conservancy is seeking two project requests before the 
subcommittee in support of this critical project. Our requests include 
$4 million in funding for the Don Edwards National Wildlife Refuge 
under the Fish and Wildlife Service's Construction account and a 
$1,150,000 request from the U.S. Geological Survey through the agency's 
Biological Research and Monitoring account. Both requests will be used 
to further construction of this project during fiscal year 2009 and 
will continue to keep us on schedule for the completion of Phase one of 
the restoration effort.

Fish and Wildlife Service Funding Request--$4 million
    Specifically, the $4 million being requested for the Don Edwards 
National Wildlife Refuge will provide the Fish and Wildlife Service 
with the funding they need to effectively manage these lands, including 
installation and management of water control structures, levee 
maintenance, and the monitoring of the salt ponds. Of the total 
requested amount, $3,000,000 is requested to match California State 
funds for implementation of Phase I of the South Bay Salt Pond 
Restoration Project. Phase I includes continued construction and 
restoration of various salt ponds at the Don Edwards National Wildlife 
Refuge. This funding will also be utilized for additional planning for 
the long-term habitat restoration plan which will be complete in 2008.
    In addition, $1 million of the requested funding will be utilized 
by Fish and Wildlife staff for levee maintenance at the Refuge that is 
need to provide continued protection for the Silicon Valley. This 
funding is critical to the project and the local community as it will 
protect the project area from tidal flooding prior to implementation of 
the permanent flood control solution by the Corps of Engineers which is 
currently ongoing.

U.S. Geological Survey Funding Request--$1.15 million
    The Conservancy is also seeking $1.15 million from the U.S. 
Geological Survey in support of the South San Francisco Bay Salt Ponds 
Restoration Project. This funding is critical to the current and future 
success of this groundbreaking project as project progression is based 
on adaptive management principles. This funding will be utilized by 
USGS to conduct interdisciplinary monitoring (biological, hydrological, 
and water quality studies) of Salt Ponds in the San Pablo Bay and San 
Francisco Bay. With restoration work occurring in both the South Bay 
and North Bay salt ponds, there is an urgent need for monitoring to 
guide planning and implementation efforts. In fact, the continuance of 
the project and current and future restoration activities are all 
dependent upon the successful implementation of the monitoring this 
funding will provide. Monitoring costs for the project during the 
fiscal year are expected to be in the amount of $900,000.
    Included in this request is $150,000 for the creation of a lead 
scientist position associated with the South San Francisco Bay Salt 
Ponds Restoration project. This position would greatly expand our 
ability to monitor the hydrological and biological changes occurring in 
the Bay as a result of project implementation and would provide 
consistency in accomplishing this task. Funding for both the monitoring 
of the project area and the creation of a lead scientist position is 
greatly needed as it will ensure a sound scientific and technical basis 
for the plan's implementation, ultimately resulting in a leveraging of 
Federal investment, wiser expenditure of funds in the long term and a 
more effective and efficient project. The fiscal year 2008 
appropriation for this request was $500,000.

                 CALIFORNIA SEAFLOOR MAPPING INITIATIVE

    The California State Coastal Conservancy, in conjunction with 
numerous State and Federal partners, is ambitiously pursuing the 
mapping of the entirety of the seafloor directly off the coast of the 
State of California. This project will produce detailed bathymetric 
maps of some of the most productive ocean waters in the United States 
and the world and as such is critical for a multitude of reasons.
    A large number of ocean management decisions can be made more 
effectively with accurate statewide mapping of seafloor substrate, 
marine habitat types, and bathymetry (underwater topography) of 
California's coastal and nearshore waters. This information will inform 
the designation of new marine reserve areas as well as the monitoring 
of all reserve areas along the California Coast. High resolution 
seafloor maps will distinguish underwater habitats and highlight 
faults, chasms, fissures, crevices and pinnacles and will help identify 
and understand known and unknown fault dynamics along the seismically 
active California Coast. This information will then be utilized by 
scientists and resource managers to identify potential biological hot 
spots to aid their understanding of the highly productive and diverse 
ecosystem along the California Coast. Further, information concerning 
the size and extent of activity associated with known and unknown 
underwater fault lines will allow our communities to better prepare for 
the possibility of cataclysmic seismic activity of the California 
Coast.
    In addition, the project will provide extensive navigational 
benefits as it will identify hidden reefs, sunken obstacles and other 
navigation hazards in California's near and offshore waters. This 
information is essential for the safety of maritime commerce vessels, 
and subsequently the economies of California and the Nation. These maps 
will provide greater knowledge and understanding of navigational 
channels and hazards surrounding the Ports of Los Angeles, Long Beach, 
and Oakland, the Nation's 1st, 2nd and 4th busiest port facilities 
respectively, which collectively are responsible for 50 percent of the 
Nation's total container cargo volume.
    Examples of some additional applications that would benefit from 
marine mapping and data include: understanding sediment transport and 
sand delivery, identifying dredging and dumping sites, regulation of 
offshore coastal development, and illuminating the dynamics of 
fisheries and other marine species. Detailed bathymetric maps are also 
critical in the development of an ocean circulation model that will 
allow us to better predict ocean response to natural and human-induced 
changes.
    In support of this effort the Conservancy is seeking $1.5 million 
during fiscal year 2009 from the U.S. Geological Survey's Coastal and 
Marine Geology Program. This funding will be utilized for scientific 
data collection (hydrographic surveys of the seafloor, video ground-
truthing of remotely collected data to verify habitats and geologic 
structure, and seismic profiling to determine geologic stability) and 
for final map production associated with the project. Although most of 
the hydrographic survey data will be collected by private industry, the 
Coastal and Marine Geology Program of the USGS is uniquely qualified to 
ground truth the accuracy of the data, and in coordination with the CA 
Geological Survey, create finished map products.
    We are committed to the success and completion of the project and 
as such have secured $12.5 million from the State of California Ocean 
Protection Council (OPC) to date for the advancement of the project. 
The OPC also intends to appropriate an additional $7.5 million in 
fiscal year 2009 if funds become available. We are also working with 
the Packard Foundation to determine the potential of financial support. 
In addition to these efforts, we are seeking $6.3 million in Federal 
funding during fiscal year 2009 which includes the $1.5 million being 
requested from the subcommittee for USGS.
                                 ______
                                 
           Prepared Statement of the Cascade Land Conservancy

    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to provide testimony on behalf of an 
important land acquisition funding need at Mount Rainier National Park. 
I am supporting an appropriation of $2.5 million from the Land and 
Water Conservation Fund (LWCF) in fiscal year 2009 to continue the 
acquisition of important parcels within the recently expanded 
boundaries of the national park.
    As you know, Madam Chairman, these projects are some of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Mount Rainier National Park was established on March 2, 1899, the 
first of three national parks in Washington state. Today it encompasses 
235,625 acres, ranging in elevation from 1,610 to 14,410 feet above sea 
level. Mount Rainier itself is an active volcano, encased in over 35 
square miles of snow and ice and surrounded by old-growth forest and 
stunning wildflower meadows. The park is also rich in cultural 
resources and was designated a national historic landmark district as 
an outstanding example of early park planning and national park rustic 
architecture.
    The proximity of the park to large cities like Seattle, Tacoma and 
Portland makes the park a busy tourist destination. Nearly 2 million 
people come to enjoy the grandeur and beauty of Mount Rainier each 
year--hiking its trails, climbing the summit, snowshoeing or cross-
country skiing on its slopes, camping along its glacier-fed rivers, 
photographing wildflower displays in subalpine meadows, or just 
admiring the view.
    Ensuring access for the park's many visitors has been a particular 
concern at the northwest entrance. The Carbon River Road has frequently 
been washed out, preventing visitors from reaching the Ipsut Creek 
campground and picnic area, as well as day-use parking for access to 
the Carbon Glacier and Wonderland Trail. To address this problem, and 
to eliminate the considerable maintenance costs necessitated by the 
frequent flooding, Congress passed legislation in 2004 extending the 
park's northwestern boundary 3 miles along the Carbon River Valley.
    The addition of these new lands will allow the National Park 
Service to establish a new campground with associated roads and 
parking, new hiking trails, and riverfront fishing areas. The new roads 
will permit the current road to be eventually converted to a hiking-
and-biking trail, and the Ipsut Creek campground will become a 
backcountry camping site. The expansion will also afford much needed 
protection to the beautiful Carbon River Valley, conserving habitat for 
endangered and threatened species such as the marbled murrelet, 
northern spotted owl, and Chinook salmon. The valley contains one of 
the last inland old-growth rainforests in the United States, and 
connects wildlife corridors from the park to Puget Sound.
    There are two principal targeted acquisitions for 2009. Of most 
importance to our organization is the Carbon River Ranch, formerly 
owned by the Thompson family. Acquisition of the remaining 100 acres of 
this parcel is critical to the expansion, as it would form the new 
entryway to the National Park. The property is along the Carbon River 
and is prime recreational land. If the Park Service does not acquire 
this land, it would likely be developed. Also critical to the expansion 
of the Park is the Carbon River Gateway, a 440-acre parcel now owned by 
a timber company. Acquisition of this parcel would link current Park 
Service lands with other previous and planned acquisitions. The Carbon 
River flows through this parcel, which also contains timber that could 
be logged if the Park Service does not acquire this land.
    An appropriation of $2.5 million in fiscal year 2009 will allow the 
National Park Service to complete the acquisition of the Carbon River 
Ranch (the Thompson property) and to acquire the Carbon River Gateway 
parcel. These acquisitions will be a critical step towards attaining 
the recreational, management, and environmental goals of the boundary 
expansion.
    Madam Chairman, and distinguished committee members, I want to 
thank you for this opportunity to testify on behalf of this important 
national protection effort in Washington at Mount Rainier National 
Park.
                                 ______
                                 
           Prepared Statement of the Cascade Land Conservancy

    Madam Chairman and honorable members of the subcommittee: Thank you 
for this opportunity to testify in support of a fiscal year 2009 Land 
and Water Conservation Fund appropriation that will make possible a big 
leap forward in protecting a valuable wildlife ecosystem and recreation 
area in Washington's Central Cascades. This appropriation of $4 million 
will permit the U.S. Forest Service to acquire three critical 
properties with multiple public benefits and further consolidate land-
protection investments already made in this region. These properties 
include forestland in the Mount Baker-Snoqualmie and Wenatchee national 
forests at Big Creek, Jim Creek, and Sawmill Creek.
    The Mount Baker-Snoqualmie and Wenatchee national forests are part 
of the majestic forests of Washington's Cascade Mountains. The Mount 
Baker-Snoqualmie National Forest extends more than 140 miles along the 
western slopes of the Cascades from the Canadian border to Mount 
Rainier National Park. The forest is rich in diversity with glacier-
covered peaks, volcanoes, old-growth stands of timber, wild and scenic 
rivers, wilderness, and a multitude of plant, animal, and fish species. 
The Wenatchee, situated in the heart of Washington State, encompasses 
8,000-foot volcanic peaks of basalt, pumice, and ash. These mountains 
simultaneously shelter secluded alpine lakes and glacier cirques that 
resemble giant cathedrals of granite and ice. Its shrub-steppe habitat 
bridges the lush ecosystem of Puget Sound with the rugged high desert 
of eastern Washington. Sagebrush at lower elevations surrenders to 
pine-covered slopes and eventually to the sparse vegetation atop the 
Cascades' volcanic summits.
    The central Cascades are bisected by the Burlington Northern Santa 
Fe Railroad and by Interstate 90. The original railroad through the 
Snoqualmie Pass was constructed by the Northern Pacific Railway, which 
received land grants from the Federal Government in alternating square 
miles along the route. The legacy of this 19th century land grant 
system is the large checkerboard ownership pattern that now threatens 
this critical area of wildlife connectivity. The Washington Cascade 
Ecosystem project area is strategically located amid several key 
landscapes. To the north lie the Alpine Lakes, Glacier Peak, and 
Pasayten wilderness areas, providing wildlife connectivity as far as 
Canada. To the south lie the Norse Peak, William O. Douglas, and Goat 
Rocks wilderness areas alongside Mount Rainier National Park. Because 
of the checkerboard pattern in the central Cascades and the relatively 
limited amount of protected land, this region has acted as a bottleneck 
for migratory wildlife. A number of threatened or endangered species 
inhabit the area, including grizzly bear, wolf, spotted owl, marbled 
murrelet, steelhead, wild salmon, and bull trout. Additionally, the 
area provides habitat for an abundance of other wildlife--elk, deer, 
cougar, coyote, bobcat, and an occasional moose.
    The rising cost of housing in King County and the increasing 
traffic congestion caused by a growing population make the Cascades 
attractive for those seeking less expensive first homes and more 
extravagant second homes, exacerbating the challenges presented by the 
pattern of checkerboard ownership. Fragmented forestlands present 
difficulties for forest managers with respect to fire suppression, 
containment and eradication of invasive species, limits on public 
access, and protection of watersheds.
    Both the Mount Baker-Snoqualmie and Wenatchee forestland and 
resource management plans address the need for significant land 
acquisition for recreation and ecosystem protection. Acquisition of 
parcels in this area is part of an ongoing program of consolidating 
lands in the central Cascades, which has long been a Forest Service 
priority. This program seeks to consolidate Federal land management and 
prevent future fragmentation due to subdivision and other development.
    The Cascade Land Conservancy, which includes both King and Kittitas 
counties within our focus area, has worked for numerous years in 
partnership with other non-profits and Federal and State agencies to 
protect lands within the central Cascades area. Over the years, our 
partners have leveraged Federal funds with private philanthropic 
support as well as State funds to protect several important parcels in 
the area and increase recreational access and wildlife connectivity. 
However, these efforts will fall short if we cannot continue to acquire 
critical inholdings within the National Forests that knit this amazing 
landscape together.
    Available for acquisition in fiscal year 2009 are three properties 
near the crest of the Cascade Mountains. The proposed acquisitions are 
all within the boundaries of the Mount Baker-Snoqualmie and Wenatchee 
national forests, which share a common border that runs north and south 
along the crest of the range. The Pacific Crest Trail traverses the 
crest of the Cascades between these two national forests. This is a 
mountainous area of intermingled ownership, which places citizens and 
private property at increased risk from catastrophic wildland fire and 
restricts public access to our national forests and outdoor 
recreational opportunities.
    The Big Creek and Jim Creek parcels are located south and east of 
the Pacific Crest Trail in the Wenatchee NF. Each is 640 acres, and 
they are named for the Yakima River tributaries of Big Creek and Jim 
Creek, which flow respectively through each parcel. Much of the Big 
Creek property possesses incredible forest reserves due to its roadless 
nature. Many trails that feed into the Pacific Crest Trail traverse 
this property, giving the public greater access to these lands for 
recreation. The upper slopes are blanketed with old-growth forests, 
while second growth is found on the lower slopes. Under Forest Service 
ownership, these lands will be available to the public for hiking, 
fishing, camping, and cross-country skiing.
    The Sawmill Creek South parcel is named for the primary creek 
running adjacent to this 190-acre parcel, which contains luxuriant old-
growth trees. These trees provide habitat for the threatened northern 
spotted owl and marbled murrelet. In addition, these forests provide a 
protective buffer for Sawmill Creek, which hosts a distinct population 
of trout. Given the strategic location of the Sawmill Creek South 
parcel, its acquisition will provide additional protection for the City 
of Tacoma's drinking water.
    The acquisitions of the Big Creek, Jim Creek, and Sawmill Creek 
South properties will improve forest management, enhance recreational 
activities, protect water quality, and secure vital wildlife migration 
corridors. An fiscal year 2009 Forest Service appropriation of $4 
million from the Land and Water Conservation Fund is needed to acquire 
and permanently protect these lands as part of the Washington Cascade 
Ecosystems program.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Madam Chairman, thank you for this opportunity to provide testimony 
in support of this critical forest protection effort.
                                 ______
                                 
        Prepared Statement of the Center for Plant Conservation

    We respectfully request increased appropriations to a total of $10 
million for the BLM Native Plant Materials Development Program and $5 
million for the U.S. Forest Service Native Plant Materials Development 
Program. In addition we request $5 million in increased funding for the 
Endangered Species program in the Bureau of Land Management to begin to 
address dramatically increasing plant conservation needs. Further, we 
request an increase of a minimum of $100 million in additional funding 
for the U.S. Fish and Wildlife Service Recovery Program budget to help 
address the imbalance in funding for recovery plan development and 
implementation for plants. We also appeal to the subcommittee to revise 
the current definition of wildlife used in the State Wildlife Grant 
Program, which excludes plants. Current guidance does not allow these 
funds to be expended for projects whose main objective is recovery of 
declining plants, and has further aggravated the imbalance in plant 
conservation activities and availability of resources at the state 
level.
    The Center for Plant Conservation is a conservation organization 
whose mission is to conserve and restore the rare native plants of the 
United States. We are a coordinated, science-based network of 36 
botanical institutions working for the recovery of our most imperiled 
native species on public and private lands nationwide. Our network 
represents a wealth of expertise and experience. Our organization works 
through professional staff in botanical institutions, hand-in-hand in 
productive partnerships for plant conservation and recovery. We have 
provided match resources of nearly $750,000 in our cooperative work 
with the Bureau of Land Management, U.S. Forest Service, and National 
Park Service in the last few years, and implement approximately $3 
million in plant recovery research and restoration each year.
    We rely on our public agencies as administrators of our public 
natural resource laws, and stewards of our public land plant trust 
resources. Public lands are instrumental in maintaining healthy 
environmental systems and serve as a primary source of the increasingly 
valuable natural resource plant biodiversity represents for the Nation.

               NATIVE PLANT MATERIALS DEVELOPMENT PROGRAM

    The Center for Plant Conservation regards the Native Plant 
Materials Development Program as one of the most significant public 
works projects of our times, and has been an active partner for five 
years. The NPMD program works to collect, develop and distribute native 
plant seed to agency partners and industry for increase and use in 
Federal land restoration efforts following fire and other disturbances. 
Expanding the variety and quantity of native plant materials will 
create new business opportunities for the private sector, reduce cost 
for Federal land restoration, and improve availability for public and 
private uses.
    In 2001 Congress directed the BLM and the Forest Service, working 
through the Plant Conservation Alliance (PCA), to develop a long-term 
program to manage this effort. The program is funded through ``burned 
area rehabilitation program funds'' in BOTH the Dept of Interior BLM 
appropriations and USDA Forest Service (NFN3 line item) in 
appropriations bills. Program success is contingent on consistent and 
increased funding.
    While seed collection has moved forward well, more work is needed, 
as well as seed increase projects before seed can be released to the 
commercial sector. These projects require several more years of effort 
to reach target needs.
    BLM developed a 10-year funding strategy, identifying a need for a 
relatively modest $120 million from 2003-2012. In spite of great 
progress, to date the BLM's NPMD program has received only $27.3 
million. The BLM strategy works with a nationwide collaboration of 
partners to secure seed, and has engaged many organizations. Positive 
collaborative partnerships for public lands have been fostered 
nationwide, and partners have invested over $5 million of non-federal 
match, making the program cost effective.
    In addition to the fire rehabilitation program, other BLM programs 
will benefit from improved native plant materials (oil and gas, range, 
wildlife and recreation) and current funding could be increased through 
their fiscal participation. We request an appropriation of $10 million 
for the BLM Native Plant Materials Program appropriation. In the 
President's budget $0 has been recommended for the U.S. Forest Service 
Program. Abandonment of this USFS program which has made significant 
progress in developing new stocks for public and private benefit is 
fiscally wasteful. We request continued funding for the USFS Native 
Plant Materials Development program (line item NFN3 in their budget) as 
well, in the amount of $5 million.

                  BLM PLANT CONSERVATION PROGRAM NEEDS

    The President's energy plan will increase significant disturbance 
of large areas of BLM lands for energy development. Challenges to the 
integrity and productivity of BLM lands from invasive species and 
global climate change have also increased potential impacts to 
significant numbers of federally listed and BLM special status plant 
species.
    The BLM is one of our largest Federal landholders, and therefore 
one of our most significant agencies in conserving plant biodiversity. 
The CPC recognizes the leadership of the BLM in establishing a Plant 
Conservation Program to take an integrated approach to these 
significant issues. This agency needs increased funding to evaluate 
impacts, secure wild populations, and plan and implement restoration 
and management practices to preserve valuable plant biodiversity on the 
262 million acres of BLM lands.
    Additional botanists are needed for BLM field offices, as well as 
funds to support planning and implementation of identified program 
needs. We request an increase of $5 million in BLM Endangered Species 
Program funds (approximately 2 cents an acre) to help address these 
emerging needs, and recommend these funds be administered through the 
Plant Conservation Program.

            U.S. FISH AND WILDLIFE SERVICE RECOVERY PROGRAM

    The President's budget would cut the U.S. Fish and Wildlife Service 
Recovery Program by 7.5 percent, over $5 million. This would be 
catastrophic for our federally listed plants, which are historically 
under-funded and under-served in recovery programs. While 57 percent of 
the federally listed species under the Endangered Species Act (ESA) are 
plants, they historically receive only 3-5 percent of federal agency 
expenditures for listed species recovery.
    Our research has demonstrated that approximately 75 percent of our 
federally listed plant species have fewer than 100 individuals 
remaining in the majority of remaining sites, and are at a high risk of 
extinction within 20-25 years unless intervention is initiated quickly. 
We have also shown that 87 percent of federally listed plant species 
are very closely related to agronomically important species. Given the 
high natural resource value of our wild plants for healthy air and 
water, mediating global climate change, the raw material for plant 
breeding in support of sustainable agriculture, and potential medically 
and economically significant products, this imbalance presents a real 
threat to the future economic well-being of our nation. More botanists 
and more dollars for recovery actions are needed.
    As noted above, the Center for Plant Conservation renders 
tremendously valuable public benefits in recovery efforts for our most 
imperiled plants, but we cannot garner the resources to solve this 
problem for the nation solely through private efforts. The backlog of 
work needed to properly respond to recovery needs for all federally 
listed species has been estimated to be well over $300 million.
    Rather than reducing recovery efforts, an increase in the USFWS 
Recovery Program Budget is needed to begin to address the most 
critically imperiled plant and animal species. We are requesting an 
increase of $100 million in the USFWS Recovery Program Budget. Further, 
we believe $80 million should be dedicated to implementation of 
recovery activities for priority listed plant species, which have been 
so long neglected. At least $20 million of this appropriation should be 
designated for recovery for Hawaiian plant species, as Hawaii has long 
been documented as our greatest national treasure for plant 
biodiversity.
    Thank you for the opportunity to present testimony regarding the 
proposed Department of the Interior Appropriations. We hope you will be 
able to respond to these urgent needs for these valuable national 
resources.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma

    Mr. Chairman and distinguished members of the committee, I thank 
you for allowing me an opportunity to submit the Choctaw Nation of 
Oklahoma testimony that outlines our funding requests for fiscal year 
2009 budgets of the Bureau of Indian Affairs (BIA) and Indian Health 
Service (IHS) in the bill making appropriations for interior, 
environment and related agencies.

                        CHOCTAW SPECIFIC REQUEST

    Last year, Chief Pyle submitted testimony (presented by Mickey 
Peercy, Executive Director of Health for the Choctaw Nation and Joy 
Culbreath, Executive Director of Education) before this subcommittee 
during consideration of the Budget proposal for fiscal year 2008, of 
the Choctaw Nation's desire to restore a tribally controlled academic 
program for Jones Academy, near Hartshorne, Oklahoma. Named for the one 
of the great Chiefs of the Choctaw Nation of Oklahoma, Jones Academy 
has been operating for over 100 years, and, until the BIA terminated 
all academic programs in the 1950s, provided excellent educational 
services to students from many Tribes.
    The Choctaw Nation of Oklahoma was one of the first American Indian 
Tribes to provide tribally supported education to all children, boys 
and girls. We opened schools soon after our removal over the Trail of 
Tears in the 1830s, and until these schools were absorbed by the new 
BIA system in the 1880s, they were Tribally controlled. The BIA used 
the schools as a tool of assimilation and, until the 1950s, many of our 
schools were either BIA schools, or were the basis for the new State of 
Oklahoma system.
    The BIA shut down the academic program of Jones Academy and 
required us to send children residing at Jones to the public schools of 
the Hartshorne, Oklahoma School District (hereinafter HSD). Our 
experiences, and, more importantly, our students' experiences, in the 
public schools were not as positive or successful as we desired. Our 
Tribe continued to provide many tribally sponsored services such as 
tutoring, mentoring, Foster Grandparents and other tools, but our 
children did not achieve the academic results that we felt were 
possible.
    When Tribal Self Determination became the policy of the United 
States in the 1970s and through today, our hope was that it would lead 
to a resurrection of tribally controlled education, particularly for 
our elementary school children. We believed, and continue to believe, 
that if they have a firm foundation, they can succeed in any setting. 
Today, with more Tribal resources and renewed hope and determination, 
we ask you to grant us access to this Tribal right.
    Since the 2003-2004 Academic year, our Tribe has operated a 
separate program providing small classes, special services, and 
assistance to our children in grades 1-6. Under the authority of an 
agreement with the HSD, we operate a separate site on the Jones Academy 
campus. Our students in grades 7 through 12 continue to attend HSD site 
schools, and our relationship with the school district has changed. HSD 
receives funding for Jones Academy students from the U.S. Department of 
Education. The Tribe augments this funding by providing a quarter of a 
million dollars in tribal funds for Jones Academy, a commitment of 
which we are proud. Our older students will continue in classes at HSD, 
and we look forward to continuing our work with them.
    However, for our youngest scholars, grades 1-6, we want to assume 
full tribal control of the policy and academic program, and to do so 
while maintaining our Federal Trust relationship with the Federal 
Government. This means we are requesting an exemption from the 
moratorium on distribution of Indian Student Equalization Formula 
funds, which has been included in each fiscal year Appropriations Act 
for a decade.
    The moratorium was not originally put in place over academic 
concern. It was put in place because of concerns regarding the 
implementation of a new construction and facilities improvement and 
maintenance program. It was never explained as being permanent and we 
do not believe that was the intent. While it may be an effective 
control over Indian education for the Bureau, it is unfair in 
situations such as ours.
    This limitation on funding of ``new'' or ``expanded'' programs has 
been interpreted as an absolute bar to any discussion of academic 
programs with Tribes, including the resumption of our terminated 
academic program. While we have met in the past 5 years with BIA 
officials who sympathize with our problem and admit they see the 
dichotomy, the BIA says we must start with the appropriations members.
    That is what was presented in the testimony of last year. Things 
have changed substantially in the past year. I will cite these changes, 
and renew our request.
  --We have completed construction and equipping of a new $10.2 million 
        state of the art facility for grades 1-6. The Choctaw Nation 
        paid for this facility and asks for no federal construction/
        facilities or improvement and repair funding. We are proud of 
        this achievement and excited about what it means for the future 
        of our students.
    The moratorium purpose does not apply to us.
  --Last year, after the testimony, the BIA told your staff that 
        allowing us to resume programs was a bad idea, since there are 
        a lot of Tribes in the same position. Since then, we have tried 
        to find any information that can identify a Tribe which (1) had 
        an academy program terminated in the Termination Period, (2) 
        which has built a new school for such a program, showing 
        commitment and faith in the future and (3) which has a proven 
        track record of academic performance for a program under its 
        day-to-day control. We have been unable to locate such a 
        program. What we have discovered is that the BIA has allowed 
        expansions of program in tribally built facilities.
  --Last year, during Floor consideration the Chairman conducted a 
        colloquy with our Congressman, Dan Boren, regarding concern 
        that the moratorium was stifling Self Determination, and, more 
        specifically, unfairly penalizing the Choctaw Nation. Mr. Boren 
        pointed out that the BIA was ignoring this subcommittee's 
        directive, included in the report accompanying the fiscal year 
        2006 appropriations bill for the Department of the Interior, 
        that it develop guidelines and methods to allow consideration 
        of expanded and re-instated academic programs. We were 
        encouraged by your agreement that this was an issue the 
        subcommittee needs to address.
  --Finally, Mr. Chairman, I am very proud to relate a success story 
        for Jones Academy.
    In January of this year, teachers at Jones Academy received 
monetary awards from the State of Oklahoma for being recognized as one 
of only 3 schools in the State to receive #1 in Academic Performance 
Index (API) scores. This information can be found in the news releases 
on the Oklahoma State department website www.sde.state.ok.us.
    While we mean no disrespect, it is a fact that such performance has 
not been achieved in the past or in other settings. It is made possible 
because of an on-site program run by personnel over whom we have day to 
day management. However, for the basic policy, we are still under 
limits set by the HSD. Imagine what we could do if we were free to 
determine all programs, set new academic courses and horizons and to 
renew our Choctaw heritage in education. Imagine this in a setting, 
which renews and continues our unique relationship with the Federal 
Government. We ask for your permission for such a chance.

                       NATIONAL FUNDING CONCERNS

    The Choctaw Nation of Oklahoma supports the requests of the 
National Indian Health Board and the National Congress of American 
Indians in restoring funds for National Urban Indian Health programs. 
In addition:
Indian Health Service
  --$160 million increase for 100 percent full funding of IHS Contract 
        Support Cost, including Direct Service Cost
  --$486 million increase for IHS mandatory, inflation and population 
        growth
  --$152 million increase for Contract Health Service
  --Restore $21 million for health care facilities construction
  --Maintain annual funding for the Special Diabetes Programs for 
        Indians at $150 million until new authority is enacted
  --$5 million increase in the Office of Tribal Self-Governance 
        (Restore $4.7 million and $.3 million in shortfalls, pay costs 
        increases and inflation)
Bureau of Indian Affairs
  --$25 million increase for Tribal Priority Allocations (TPA)--general 
        increase for core programs
  --Tribal Government--Self-Governance: Restore HIP @ $13.6 million and 
        JOM @ 21.4 million
  --Support increases to Tribal Education Programs and Tribal college 
        operations
  --$50 million increase for 100 percent full funding of Direct and 
        Indirect contract support costs
  --Annual increases in Tribal Public Safety and Justice programs in 
        Tribal communities
  --$500,000 for Office of Program Data Quality
  --Support increases in the Office of Self-Governance for IT and 
        Staffing
    On behalf of the Choctaw People, again, we thank you for this 
opportunity to submit our requests for fiscal year 2009 in the Bureau 
of Indian Affairs and Indian Health Services Appropriations.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission

    The Chugach Regional Resources Commission requests that the 
subcommittee restore $350,000 in recurring base funding in the BIA 
Trust-Natural Resources budget. The Commission also seeks an additional 
$150,000 to support the Alutiiq Pride Shellfish Hatchery.
    The Chugach Regional Resources Commission (CRRC) is an Alaska 
Native non-profit organization that was created by the seven Villages 
of the Chugach Region (Tatitlek Village IRA Council, Chenega IRA 
Council, Port Graham Village Council, Nanwalek IRA Council, Native 
Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe) to 
address environmental and natural resource issues and to develop 
culturally-sensitive economic projects at the local level that support 
the sustainable development of the natural resources. The mission of 
CRRC is to work with our seven member villages to promote and develop 
sound economic resource-based projects and to work collectively to 
address any natural resource and environment-related issues that affect 
the Native people of the Chugach Region.

                            FUNDING HISTORY

    CRRC normally receives its base funding through a self-
determination contract with the Department of the Interior. The Indian 
Self-Determination and Education Assistance Act, Public Law No. 93-638, 
authorizes the Secretary of the Interior to enter into contracts with 
Indian tribes and tribal organizations to deliver services that would 
otherwise have been delivered by the BIA. CRRC entered into its 
original three-year contract in 1993, and that contract has been 
renewed several times by the Secretary in the years since.
    The act requires Interior to provide ``not less than the 
appropriate Secretary would have otherwise provided for the operation 
of the programs'' covered by the contract (the so-called ``Secretarial 
Amount'') plus additional ``contract support costs.'' 25 U.S.C.  450j-
1(a)(1)-(2). The act further specifies that Interior generally cannot 
reduce the contract funding amount from one year to the next. Despite 
this legal obligation to provide consistent annual funding to CRRC 
through the contract, the BIA has in recent years tried to avoid its 
funding obligation by failing to request funding for CRRC in its 
budget. We ask Congress to restore this funding in order to assist BIA 
in meeting its legal obligation.
    CRRC received $350,000 as part of the BIA's base budget from fiscal 
year 1994 though fiscal year 2002. Beginning in fiscal year 2003, CRRC 
was not included in the BIA budget (despite contractual obligations), 
but the program was restored each year with the help of Congress. In 
fiscal year 2006, the BIA unilaterally reduced CRRC's funding to 
$300,000--a significant cut from our previous level of funding. After 
across-the-board reductions, CRRC received approximately $270,000 in 
fiscal year 2006.
    In fiscal year 2007, Congress again provided $300,000 for CRRC, but 
the BIA seized on the absence of associated earmark language to 
redirect CRRC's funding elsewhere in its budget. Despite repeated 
appeals to the agency and despite its contractual obligation to pay, 
the BIA did not provide CRRC with any funding in fiscal year 2007. As a 
result, CRRC was forced to take out a bank loan of $100,000 just to 
avoid closing its operations entirely. We were also forced to lay off 
many employees, and several of our projects were put on hold because of 
the lack of employees.
    In fiscal year 2008, the BIA again sought to withhold all funding 
and in fact tried to cut off CRRC's contract (which is illegal under 
the Self-Determination Act). CRRC was forced to expend several thousand 
dollars in legal fees to file suit in order to obtain its rightful 
funding for fiscal year 2008. We fear that without congressional 
assistance in the form of an earmark, we will be forced to sue the BIA 
every year in order to obtain the funding that CRRC should rightfully 
receive pursuant to its contract.

                               EMPLOYMENT

    CRRC has provided employment for 35 Native people in the Chugach 
Region, an area where Native people face high levels of unemployment. 
As a result of the reduction and elimination of funding in fiscal year 
2006 and fiscal year 2007, CRRC had to lay off several employees, 
including most of our Village employees. The impact of approximately 
six families per village losing this income in a village with an 
average population of 100 strikes a devastating blow to the local 
community economy. If funding is not restored, CRRC will be unable to 
resume village projects and rehire our employees. These families will 
create a much larger burden on State and Federal financial resources, 
as they will be forced to depend upon State and Federal welfare 
programs to provide funding for necessary living expenses.

                           COMMUNITY PROJECTS

    Over the past 16 years, CRRC funding has supported the development 
and operation of many programs that have assisted communities in 
providing meaningful employment opportunities as well as valuable 
services and products, including:
  --Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
        Hatchery is the only shellfish hatchery in the State of Alaska. 
        A 20,000 sq. ft. shellfish hatchery located in Seward, Alaska, 
        the hatchery houses shellfish seed, brood stock, and algae 
        production facilities. The hatchery employs four individuals 
        and is operated by CRRC. Alutiiq Pride is undertaking hatchery, 
        nursery and grow out operations research to adapt mariculture 
        techniques for the Alaskan shellfish industry.
  --King Crab Research.--Recently, CRRC staff have begun conducting 
        scientific research on blue king crab and red king crab. This 
        research is part of a larger federally-sponsored program. 
        Because Alutiiq Pride is the only hatchery in the state, CRRC 
        is the only organization in Alaska that can carry out this 
        research.
  --Natural Resource Curriculum Development.--Partnering with the 
        University of Alaska, Fairbanks and the National Oceanic and 
        Atmospheric Administration, CRRC is developing and implementing 
        a model curriculum in natural resource management for Alaska 
        Native students, integrating traditional knowledge and Western 
        science. The goal of the program is to encourage more Native 
        students to pursue careers in the sciences. So far, there are 
        15 students enrolled in the program who have earned a total of 
        nine university credits each that can be applied toward a 
        certificate in natural resource management.
  --Alaska Migratory Bird Co-Management Council.--CRRC is a member of 
        the Council responsible for setting regulations governing the 
        spring harvest of migratory birds for Alaska Natives.

                      HATCHERY OPERATIONS FUNDING

    CRRC also seeks annual funding of $150,000 for hatchery operating 
expenses and research and development funding to develop new shellfish 
species until we are self-sustaining. Once the hatchery is self-
sustaining, CRRC plans to expand its production so that it can support 
some of CRRC's base operating costs as well. Alutiiq Pride has been 
successful in culturing geoduck and razor clam species but additional 
research and development funding is needed to assist in the nursery, 
growth and marketing stages. Last year, Alutiiq Pride produced 4 
million oyster seed. This year, the Hatchery anticipates sales of 8 
million oyster seed. Revenue from such sales, however, is quite modest 
($40,000). The geoduck shellfish farming industry is expected to grow 
rapidly. If Alutiiq Pride can sell geoducks and razor clam seeds, the 
production potential from only 2 million seed sales can approach 
$400,000, a tenfold revenue increase.
    The shellfish industry in Alaska has not yet grown to the point 
where seed sales cover the cost of operations. Oyster sales have 
matured and geoduck seed sales will coincide with the expected growth 
of that industry. Alutiiq Pride is undertaking hatchery, nursery and 
grow out operations research to adapt mariculture techniques for the 
Alaskan shellfish industry. The hatchery has recently become involved 
in king crab research, as described above. Until the hatchery is self-
sufficient in 3-5 years, however, it requires operations and research 
and development funds if it is to meet the State's growing demand for 
shellfish seed.

                                 BUDGET

    CRRC's base operating funding supports the continued operation of 
the various community projects. The total operating budget for CRRC, 
Alutiiq Pride, and the community projects is close to $2 million. 
Specific projects receive independent funding from sources such as the 
Administration for Native Americans, Environmental Protection Agency, 
NOAA, and the U.S. Fish & Wildlife Service. However, base operating 
funding is essential to continue work on these projects. Building on 
its base funding, CRRC has been able to build several community 
programs and partnerships, as described above. Our base budget is as 
follows:

------------------------------------------------------------------------
                                                         Projected cost
------------------------------------------------------------------------
A. Chugach Region Shellfish Mariculture Development..            $75,000
    --Oyster grow-out operations in Tatitlek
    --Oyster marketing
B. Nanwalek Sockeye Salmon Development Project.......             20,000
    --Seek funds for disease free water engineering
     study
    --Operate smolt out-migration weir
C. Port Graham Pink Salmon Hatchery..................             75,000
    --Broodstock development
    --Sockeye and pink salmon fry production
    --Training and education for hatchery crew
D. Program Development/Regional Office Operations....            180,000
    --1 staff person/supplies/quarterly board
     meetings
    --Biological Professional Assistance
    --Project development and Planning
    --GIS Mapping
    --Resource Evaluation and Management
                                                      ------------------
      Total Direct Costs.............................            350,000
Indirect Cost (27.7 percent).........................             96,950
                                                      ------------------
      TOTAL PROJECTED BASE BUDGET....................            446,950
Alutiiq Pride Shellfish Hatchery Operations..........            150,000
                                                      ------------------
      TOTAL..........................................        \1\ 596,950
------------------------------------------------------------------------
\1\ $500,000 requested.

                                 ______
                                 
  Prepared Statement of the Citizens Committee to Complete the Refuge

    The Citizens Committee to Complete the Refuge (Don Edwards San 
Francisco Bay National Wildlife Refuge) appreciates the opportunity to 
comment on the fiscal year 2009 Budget, and strongly urges the 
subcommittee to appropriate $514 million for operations and maintenance 
of National Wildlife Refuges.
    Senior members of our organization have advocated for refuges, 
locally and nationally, for more than 40 years. The magnificent 
American wildlife that existed historically has survived because of 
President Theodore Roosevelt's remarkable idea in 1903 to establish 
protected regions for indigenous plant and animal life.
    We have become aware of the esteem in which our 100 million-acre 
National Wildlife Refuge System is held worldwide, having been visited 
by people from all continents who have sought to learn American methods 
of protecting wildlife and valuable habitats. With that in mind, we 
deeply regret what inadequate funding for years has brought about in 
refuges nationwide. In some, staffing has been greatly reduced or even 
eliminated; decreased maintenance has led to unsafe conditions; vital 
biological research has been hampered; and fewer programs are available 
to the public.
    We are members of the National Wildlife Refuge Association, and 
wish to support the testimony of its president, Evan Hirsche. In 
addition to operations and maintenance funds, he requests funding for 
other important programs listed here:
    Partners for Fish and Wildlife Program ($55.1 million)
    Volunteers and Invasives Program ($1 million)
    LWCF ($100 million or more)
    Infrastructure ($25 million)
    State and Tribal Grants ($85 million)
    NFWF ($10 million)
    Climate Change Planning ($30 million)
    Prevent land exchange at Izembek NWR
    Finally, I wish to thank the subcommittee for its support of 
refuges, our own included, the San Francisco Bay National Wildlife 
Refuge Complex. In the midst of 7 million people, it has contributed 
remarkably to our quality of life. It has provided flood control, clean 
air and clean water, places of peace and serenity, preservation and 
restoration of extremely endangered species, and great recreational 
opportunities.
    This Complex also offers a rare opportunity to respond to the 
threat of climate change and rising sea level because it preserves so 
much of the shoreline of San Francisco Bay. At this moment, the bay is 
the site of one of the most remarkable restoration projects undertaken 
in the United States. The restoration of thousands of acres of salt 
ponds can bring back the biodiversity that existed decades ago.
    Surely the actions of your subcommittee in supporting the National 
Wildlife System is government at its finest. This is a legacy that we' 
are leaving for those that come after us.
                                 ______
                                 
                 Prepared Statement of Michael S. Clark

    Madam Chairman and honorable members of the subcommittee: Thank 
you, Madam Chairman, for the opportunity to present this testimony in 
support of an appropriation of $4 million from the Land and Water 
Conservation Fund (LWCF) to acquire the first of two phases of 1,470 
acres of patented mining claims on Montana forestlands near the 
boundaries of Yellowstone National Park. These funds would protect 
roughly half of the claims, which lie on the headwaters of three major 
tributaries of the Yellowstone River, immediately adjacent to 
Yellowstone National Park and the Absaroka-Beartooth Wilderness Area.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately, 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent and the fiscal year 2009 Budget proposes further cuts despite a 
rising need for funds to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources and 
other important features. I urge the subcommittee to increase overall 
LWCF funding to at least $278 million for this important program in 
fiscal year 2009.
    My testimony today is directed toward acquisition of land lying 
within the New World Mining District, an area that lies within the 
Custer and Gallatin Forests, immediately adjacent to our Nation's first 
national park and one of our largest wilderness areas in the Lower 48 
States. The District lies at the very heart of the Greater Yellowstone 
Ecosystem, an 18-million acre region in Montana, Idaho and Wyoming that 
includes Yellowstone and Grand Teton national parks and portions of 
seven different national forests and three national wildlife refuges.
    The Greater Yellowstone Ecosystem contains some of the best 
wildlife habitat in the country. Living within its boundaries are 
grizzlies, lynx, moose, mountain lions, wolverines, big horn sheep, 
black bears and the largest elk herds in North America. With the 
successful reintroduction of the gray wolf, the region now contains the 
full range of mammals that lived in the region during the time of Lewis 
and Clark.
    The lands we wish to acquire with this appropriation are old mining 
claims that form the core of the New World Mining District near Cooke 
City, a historic mining town and now a center of recreational tourism 
near the northeast entrance to Yellowstone National Park.
    The New World Mining District was created in recognition of the 
historic concentration of gold, silver and copper mines that operated 
around Cooke City beginning in the 1870s. Over time, the New World 
Mining District became the second largest producer of gold in Montana 
and remained an active producing area until the mid-1950s. Industrial-
scale mining ceased in the area around 1958 and did not appear to be 
viable until new exploration technologies revealed that up to 2 million 
ounces of recoverable ore still remained in the ground.
    In 1989, Crown Butte Mines, a subsidiary of Canadian mining giant 
Noranda, Inc, proposed a massive gold mine in this location, in the 
midst of the headwaters of three major tributaries that flow through 
either Yellowstone Park or the Absaroka Beartooth Wilderness Area or 
into the Clarks Fork River that flows from Montana into Wyoming. The 
proposal sparked an international controversy because of the threat the 
mine posed to Yellowstone National Park and the surrounding wild lands.
    In 1996, after years of controversy, law suits, international media 
attention, and scientific debate, the mining company reached an 
agreement with the Clinton Administration and a coalition of 
environmental groups to cease development of the mine. As part of the 
settlement, the company would receive $65 million to stop the mine 
development. In return, the company would set aside $22.5 million to 
clean up past contamination of the mine sites.
    One of the company's key partners in the mining venture was a 
retired schoolteacher named Margaret Reeb, who had acquired a range of 
mining claims including some that she had inherited from her father who 
was a gold prospector for many years in the Cooke City area. Ms. Reeb 
was an outspoken advocate for mining in the area, and the mining 
company was unable to convince her that she should sell her claims as 
part of the original settlement agreement between the company, the 
Federal Government and the various environmental organizations, who had 
banded together to stop the mine. In the wake of the agreement to stop 
the mine, Ms. Reeb continued to hold on to her land, although she did 
agree to stop her efforts to mine gold there. The lands owned by the 
Canadian mining company were turned over to the Forest Service. And, in 
a key follow-up move, Congress also passed legislation, formally 
withdrawing all of the land that the Federal Government owned in the 
district (including all of the claims that it had acquired from the 
mining company) from Federal mineral location and entry, effectively 
wiping out the threat of other mining companies trying to patent the 
land again. At her death 2 years ago, Ms. Reeb's lands passed into the 
hands of her nephews who have now agreed that their aunt's mining 
claims should be put into public ownership as was originally proposed 
by the agreement in 1996 to stop development of the New World Mine.
    In the years since the agreement was signed, the Forest Service has 
carried out an excellent reclamation effort to clean up the historic 
mine waste sites, which had contaminated the land and water in the 
area. Using the $22.5 million, which had been set aside under the 
agreement, the reclamation project has turned the area into what is 
perhaps the finest high-altitude hard rock mine reclamation effort in 
the western United States.
    Now, with this opportunity to acquire the Reeb lands, the final 
chapter in this dramatic story can be brought to a successful 
conclusion. With the Reeb lands passing into public ownership, the 
threat of an industrial mining operation next to Yellowstone Park and 
the Absaroka-Bearthooth Wilderness area will completely disappear. In 
addition, the threat of these lands succumbing to second-home 
developments in the middle of very wild country above 8,000 feet in 
elevation will also be erased.
    Over the past 136 years since the creation of Yellowstone National 
Park, our government has wisely invested enormous resources in the 
management and protection of the park and the surrounding national 
forest lands. Today, this concentration of public wild lands contains 
one of the most diverse and intact ecosystems on the face of the earth. 
As our people continue to use our national public lands for recreation 
and as our scientists continue to expand their knowledge of the genetic 
and natural diversity of these lands, the need to ensure their 
comprehensive and permanent protection becomes ever more important.
    LWCF monies are critical to achieving public ownership of these 
lands and ensuring that these high-altitude resources are forever 
protected and preserved.
    As the lead negotiator for the conservation groups who fought 
against Crown Butte Mines' plans and who has subsequently watched the 
amazing transformation of these lands over the past decade as they have 
been cleaned up and restored, I respectfully urge the committee to 
approve the $4 million appropriation that is needed to complete the 
first phase of this 2-year project We owe it to ourselves and to future 
generations.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    In support of $5,900,000 to assist in Colorado River Salinity 
Control, Title II from the Soil, Water and Air Management effort, and 
with support for the President's request for that activity. Also a 
request that $1,500,000 be spent on identified salinity control related 
projects and studies.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for the subactivity that assists the Colorado River 
Basin Salinity Control Program authorized by the Congress. The BLM 
budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management Program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal 
and international agreements to control salinity of the Colorado River.
    The BLM's Budget Justification documents have stated that the BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation (USBR) and the U.S. 
Department of Agriculture (USDA), and report salt-retaining measures in 
order to further the Plan of Implementation of the Federal Salinity 
Control Program in the Colorado River Basin. The Colorado River Basin 
Salinity Control Forum (Forum) believes that fiscal year 2009 funds 
appropriated by the Congress for the Soil, Water, and Air Management 
Program should be used, in part, for reducing saline runoff in the 
Colorado River Basin.
    The seven Colorado River Basin States, through the Forum, have 
engaged the BLM in a partnership with the Basin States as has been done 
previously with the two other Federal agencies implementing salinity 
control in the Basin. The Forum has requested and the BLM has selected 
a salinity control coordinator for this basinwide effort. This person 
now serves with the two full-time coordinators in place for the USBR 
and the USDA efforts. This enhanced working relationship has taken 
advantage of the availability of Basin States' cost-sharing monies to 
leverage Federal funds. The Forum is encouraged by the words in the BLM 
budget document. The Forum supports the funding request for the Soil, 
Water, and Air Management Subactivity. As one of the five principal 
Soil, Water, and Air Program priorities, the Forum believes that the 
BLM needs to specifically target $5,900,000 to activities that help 
control salt contributions from BLM managed lands in the Colorado River 
Basin. In the past, the BLM has used $800,000 of the Soil, Water and 
Air Program funding for proposals submitted by BLM staff to the BLM's 
salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council has 
recognized that the BLM has now identified projects that in fiscal year 
2009 could use $1.5 million. For years, Congress has dedicated $800,000 
on the effort and now the Forum believes $1.5 million should be so 
designated.
    The success of the BLM in controlling erosion and, hence, salt 
contributions to the Colorado River and its tributaries is essential to 
the success of the Colorado River Basin Salinity Control Program, 
including adherence to the water quality standards adopted by the seven 
Colorado River Basin States and approved by the U.S. Environmental 
Protection Agency (USEPA). Inadequate BLM salinity control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that the BLM program can move ahead at a pace that is needed 
to sustain these water quality standards.

                                OVERVIEW

    This testimony is in support of funding for a portion of the Title 
II program. The Colorado River Basin Salinity Control Program was 
authorized by the Congress in 1974. The Title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through a minute of the International Boundary & 
Water Commission, to Mexico specific to the quality of water being 
delivered to Mexico at the international boundary. Title II of the act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly enacted Clean Water Act. Initially, the Secretary of 
the Interior and the USBR were given the lead Federal role by the 
Congress.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. In response to the Basin States' requests, the Congress 
revised the act in 1984 to give new salinity control responsibilities 
to the USDA and to the BLM. That revision, while leaving implementation 
of the salinity control policy with the Secretary of the Interior, gave 
new salinity control responsibilities to the USDA and to the BLM. The 
Congress has charged the administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin States are strongly supportive of that concept and 
have proceeded to implement salinity control activities for which they 
are responsible in the Colorado River Basin.
    Since the congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $330 million per year and 
there are very significant additional damages yet to be quantified. 
Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration, and
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 mg/l increase in salinity concentrations, there is $75 
million in additional quantified damages in the United States.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-state coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the USEPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report analyzing the salinity of the Colorado 
River, anticipated future salinity, and the program elements necessary 
to keep the salinities at or below the concentrations in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.

                             JUSTIFICATION

    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the BLM is heavily laden with salt. Past management practices, which 
include the use of lands for recreation; for road building and 
transportation; and for oil, gas, and mineral exploration have led to 
man-induced and accelerated erosional processes. When soil and rocks 
heavily laden with salt erode, the silt is carried along for some 
distance and ultimately settles in the streambed or flood plain. The 
salts, however, are dissolved and remain in the river system causing 
water quality problems downstream.
    The Forum believes that the Federal Government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. The Congress has explicitly directed specific 
Federal agencies, including the BLM, to proceed with measures to 
control the salinity of the Colorado River, with a strong mandate to 
seek out the most cost-effective options. It has been determined that 
rangeland improvements can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the USBR and by the USDA. They are very 
environmentally acceptable as they will prevent erosion, enhance 
wildlife habitat, increase dependable stream flows and increase grazing 
opportunities.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of Federal and State agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the BLM's portion of the Colorado River Salinity Control 
Program as set forth in the Forum's adopted Plan of Implementation.
                                 ______
                                 
     Prepared Statement of the Colorado River Commission of Nevada

    As a Nevada representative of the Colorado River Basin Salinity 
Control Forum and Advisory Council, the Colorado River Commission of 
Nevada (CRC) supports funding for the Bureau of Land Management (BLM) 
for the Soil, Water, and Air Management Subactivity that assists the 
Colorado River Basin Salinity Control Program. As one of the five 
principal Soil, Water, and Air Program priorities, the CRC believes 
that the BLM needs to specifically target $5,900,000 to activities that 
help control salt contributions from BLM managed lands in the Colorado 
River Basin.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations that support the Colorado River Basin 
Salinity Control Program is essential to move the program forward so 
that the congressionally directed salinity objectives are achieved.
                                 ______
                                 
     Prepared Statement of the Confederated Tribes of the Colville 
                              Reservation

    On behalf of the Confederated Tribes of the Colville Reservation 
(Colville Tribe or the ``Tribe''), I appreciate the opportunity to 
provide testimony to the subcommittee on two programs of interest of 
the Colville Tribe and to other Indian tribes nationally: (1) 
restoration of $630,000 for the Lake Roosevelt Management-Enforcement 
program; and (2) a $1.5 million programmatic increase for the Bureau of 
Indian Affairs' (BIA's) Indian energy programs. Both of these programs 
are administered in the Trust-Natural Resources Management account and 
the Tribe has worked, and continues to work, with Senator Patty 
Murray's and Senator Maria Cantwell's offices on these requests.
    Before discussing these programs, I would like to take this 
opportunity to provide some brief background on the Colville Tribe. 
Although now considered a single Indian tribe, the Confederated Tribes 
of the Colville Reservation is, as the name states, a confederation of 
12 smaller aboriginal tribes and bands from all across eastern 
Washington State. The Colville Reservation encompasses approximately 
1.4 million acres and is located in north central Washington State. The 
Colville Tribe more than 9,300 enrolled members, making it one of the 
largest Indian tribes in the Pacific Northwest. About half of the 
Tribe's members live on or near the Colville Reservation.

 RESTORATION OF $630,000 IN FUNDING FOR THE LAKE ROOSEVELT MANAGEMENT-
                          ENFORCEMENT PROGRAM

    As the subcommittee is aware, Lake Roosevelt Management/Enforcement 
funds enable both the Colville Tribe and the Spokane Tribe of Indians 
to employ law enforcement officers to patrol Lake Roosevelt and its 
shoreline to enforce Federal laws (through cross-deputization 
arrangements) and tribal health and safety laws. Lake Roosevelt is the 
151-mile reservoir of the Grand Coulee Dam, the largest hydroelectric 
power plant in the United States and the third largest in the world. As 
a national tourist destination, Lake Roosevelt receives approximately 
1.5 million visitors annually.
    The law enforcement patrols funded by Lake Roosevelt Management/
Enforcement funds have become increasingly critical since the September 
11 terrorist attacks. Tribal personnel funded by Lake Roosevelt 
Management funds have in recent years worked cooperatively with the 
Bureau of Reclamation and the National Parks Service to increase their 
patrols to correspond with the heightened security of the Grand Coulee 
Dam. To this end, Lake Roosevelt Management/Enforcement funds play a 
direct role in protecting public safety by ensuring that a key access 
point to the Grand Coulee Dam, Lake Roosevelt, remains patrolled.
    The enforcement patrols funded by the appropriations are an 
integral part of combating ongoing smuggling activity involving float 
planes from Canada. Unmarked aircraft use Lake Roosevelt and other 
waterways on the Colville Reservation as a smuggling route for cocaine, 
ecstasy, and other contraband. In March 2006, Colville tribal officers 
funded by the appropriations apprehended one of the pilots of a float 
plane and recovered an estimated $2 million in illegal drugs. The 
Colville Tribe continues to receive several reports of sightings of 
these planes every month.
    Funding for Lake Roosevelt Management/Enforcement program was 
included in the Department of the Interior's annual budget beginning in 
the early 1990s under the terms of an agreement between the tribes, the 
Secretary of the Interior, and other federal agencies. When the funds 
were omitted from the budget without explanation in fiscal year 2001, 
the tribes have had to seek Congress's assistance to restore the funds 
through the appropriations process. The Tribe appreciates the 
Subcommittee's continued support for this program and respectfully 
requests that the Subcommittee include this activity in its bill at the 
full $630,000 level.

 $1.5 MILLION PROGRAMMATIC INCREASE FOR THE BUREAU OF INDIAN AFFAIRS' 
                         INDIAN ENERGY PROGRAMS

    The Colville Tribe also respectfully requests that the subcommittee 
consider a $1.5 million programmatic increase for the BIA's Indian 
energy programs. The BIA's Indian energy programs are administered by 
the Office of Indian Energy and Economic Development (IEED). As the 
Colville Tribe can attest from its productive experience with the IEED 
in recent years, these programs bring much needed technical assistance 
and capacity building to Indian country and enable Indian tribes to 
maximize, leverage, and develop energy resources on tribal lands in two 
critical ways:
    Grants.--The IEED provides grants to Indian tribes to assess energy 
resources on tribal lands, build capacity, conduct feasibility studies, 
and for other purposes. Since 2005, the Colville Tribe has received 
grants from this program that have allowed the Tribe to begin 
development of a new cogeneration facility on the Colville Reservation 
that will utilize woody biomass. A programmatic increase for this 
activity would enable more Indian tribes to receive grants for energy 
development activities. Since fiscal year 2000, 70 Indian tribes have 
received grants for energy related activities under this program.
    Tribal Energy Resource Agreements (TERAs).--Authorized under Title 
V of the Energy Policy Act of 2005, TERAs are agreements between Indian 
tribes and the Secretary of the Interior that are intended to maximize 
tribal oversight and management of energy resource development. Once 
the IEED determines that a tribe possesses the requisite management 
capacity and approves a TERA, the tribe can then engage in a variety of 
energy development activities under an entirely new, flexible mechanism 
for entering into energy-related business agreements with third 
parties. The BIA published its final rule implementing the TERA program 
on March 10, 2008, and numerous applications are expected. A 
programmatic increase would provide the IEED with sufficient resources 
to ensure that Indian tribes are able to take advantage of this new 
economic development tool.
    The tribal energy programs carried out by the IEED are administered 
in the Minerals and Mining account within the BIA's Trust-Natural 
Resources Management budget activity. Within that account, the 
President's Budget includes a total of $2 million for tribal energy 
activities for fiscal year 2009. Of that $2 million, $1.4 million is 
for grants (encompassed within the $6.93 million requested in the 
Minerals and Mining Projects line item), and $600,000 is for the IEED 
to consult with Indian tribes and begin the TERA review process 
(encompassed within the $1.49 million requested in the Minerals and 
Mining Central Oversight line item). The Tribe seeks an increase of $1 
million for grants to Indian tribes and $500,000 for TERA 
implementation. To this end, the Tribe suggests the following report 
language: Changes to the Request include increases to Minerals and 
Mining of $1 million for grants for tribal energy activities and 
$500,000 for implementation and approval of Tribal Energy Resource 
Agreements. Other Indian tribes and tribal organizations support this 
programmatic increase, including, among others, the Council of Energy 
Resource Tribes and the Southern Ute Indian Tribe.
    Thank you for the opportunity to provide this testimony and for 
your consideration of these issues. Should the subcommittee have any 
questions, please feel free to contact me directly via e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3dedad8d69dded2c1d0dbd2ddd7f3d0dcdfc5dadfdfd6c7c1dad1d6c09dd0dcde">[email&#160;protected]</a>, by phone at (509) 634-2218, or via 
facsimile at (509) 634-4116.
                                 ______
                                 
 Prepared Statement of the Confederated Tribes of the Umatilla Indian 
                              Reservation

    Honorable Chairwoman Dianne Feinstein, ranking member Wayne Allard, 
and members of the committee: I am Antone C. Minthorn, chairman of the 
board of trustees of the Confederated Tribes of the Umatilla Indian 
Reservation (CTUIR), home of the Umatilla, Cayuse and Walla Walla 
Tribes.
    Once again the proposed budget for Indian Affairs does not support 
strong tribal self-government and self-determination. In fact, the 
fiscal year 2009 proposed budget goes in the opposite direction as 
there is $100 million in proposed budget cuts. The proposed budget does 
not help meet the trust responsibilities the Federal Government owes to 
treaty tribes because the total Office of Indian Programs budget is 
still below the fiscal year 1994 enacted level, without adjusting for 
inflation.
    Tribal governments are like State governments in many ways--
providing critical services, shaping values, and promoting jobs and 
growth. Though Federal spending for Indians has lost ground compared to 
spending for the U.S. population at large, tribal self-government has 
proven that the Federal investment in tribes pays off. Unfortunately, 
tribal governments are treated differently than States because we are 
forced to compete for funds to address local needs rather than directly 
receiving those funds. Real per capita income of Indians living on 
reservations is still less than half of the national average. Indian 
unemployment is nearly quadruple the rest of the country and the 
poverty rate is three times the national average. Thus, while the work 
of tribal self-determination is well under way, much work remains. 
These long enduring socio-economic disparities, and the success of 
tribes in addressing them, warrant continued Federal investment in 
tribal self-determination.
    With respect to the Indian Affairs budget, the CTUIR will address 
several issues beyond the total amount of funds that are currently 
proposed. These include:
  --Proposed reductions to specific line items in the Tribal Priority 
        Allocations (TPA) will have disproportionate impacts on 
        different tribes;
  --The CTUIR is adamantly opposed to any redistribution of TPA funds 
        based upon a needs analysis and asks that Congress prohibit the 
        Department from pursuing any such plan.
    The CTUIR Requests That the Water Rights Negotiation/Litigation and 
Litigation Support/Attorney Fees Programs be Restored to at Least 
Fiscal Year 2004 Budget Levels.--Apparently this administration does 
not consider water an important resource or a trust asset of tribes. In 
fiscal year 2004 the Water Rights Negotiation/Litigation and Litigation 
Support/Attorney Fees component of the BIA budget was $15.5 million. By 
fiscal year 2008 the funding dropped to $9.95 million and there is a 
further proposed $1.0 million reduction for fiscal year 2009, a 42 
percent reduction since fiscal year 2004. The justification for this 
cut was ``to ensure other core responsibilities to American Indians/
Alaska Natives were met''. The CTUIR has a strong interest in the BIA 
budget for Water Rights Negotiations. In 2007, after CTUIR requests 
pending for a decade to assess the water rights of the CTUIR and the 
prospect for settling those water rights in the Umatilla Basin, 
Secretary Kempthorne appointed a Federal Water Rights Assessment Team. 
The CTUIR has been working closely with the State, Irrigation Districts 
and other stakeholders for the past 25 years to restore salmon and to 
meet the water needs of the CTUIR without harm to existing water rights 
holders. In 2009, the CTUIR expects to be requesting the appointment of 
a Federal negotiation team for a comprehensive settlement of the 
Tribe's water rights in the Umatilla Basin. The CTUIR will need BIA 
financial assistance under the Water Rights Negotiation line item to be 
successful in our negotiations. The success the CTUIR has had in the 
Umatilla and Walla Walla basins is recognized as a national model for 
bringing together diverse water interests and cooperatively solving the 
multi-dimensional problems around use of water.
    The CTUIR Requests That the Water Management Program be Restored to 
at Least Fiscal Year 2004 Budget Levels.--Water Management Planning and 
Pre-Development is another component of the BIA budget that now plays a 
significant role in tribal efforts to adjudicate their water rights. 
Again this program has seen sharp decreases, going from $8.1 million in 
fiscal year 2004 to $5.6 million in fiscal year 2008, a 30 percent 
reduction. According to the budget justifications, these ``funds are 
being used to conduct water management and planning projects for the 
purpose of managing and conserving Indian water resources.'' At the 
CTUIR these funds play an important role in our water management 
program, in determining the amount of water available on the 
Reservation and the amount of water required for various purposes such 
as municipal service, agricultural irrigation, fish passage and 
measuring water quality standards.
    The CTUIR Strongly Objects to the Continuing Decline in Resources 
for Trust--Natural Resources Management and Requests That Funding be 
Restored to at Least Fiscal Year 2006 Levels.--The budget 
justifications indicate that these programs support the goal of 
fulfilling Indian fiduciary trust responsibilities and assisting tribes 
in the management, development and protection of Indian trust land and 
natural resource assets. The justification further States that a 
significant portion of these activities are carried out by tribes under 
contracts/compacts--in other words, these programs are having a 
positive impact at the reservation level. In the fiscal year 2007 
Operating Plan the BIA reduced funding for these activities by $7.5 
million or 5 percent. While Congress restored $2 million of the 
reduction in fiscal year 2008 the proposed fiscal year 2009 budget 
still includes $5.4 million in cuts. We have identified a need for an 
increase of $310,000 for 6.5 additional FTE's to our local budget. 
These funds are required to implement the Forestry, Agriculture, and 
Range Management Plans that will be adopted this year. It does not make 
sense to build up a system to track funds when the natural resources 
cannot be managed in such a way as to generate those funds.
    The CTUIR Requests That Under the Trust--Real Estate Services 
Budget Category the TPA Trust Services be Increased by at Least $5 
Million and the $7.4 Million Requested for Probate Backlog be Added to 
the TPA Probate line Item.--Increases to the TPA base directly increase 
services to individuals and tribes at the local level where the needs 
are most acute and the greatest benefits are achieved. In fiscal year 
2006 the BIA conducted a review of the local services and recommended 
that two additional real estate staff be added to meet the work load. 
More recently we conducted a review of the staffing needs and found 
that three additional real estate staff and one additional probate 
staff were needed to meet the increasing work load demands being 
created by the implementation of the To Be Trust Model and to reduce 
the current probate and realty backlogs.
    The CTUIR Requests That $3 Million Over the FIscal Year 2008 
Enacted Level be Added to the Tribal Court TPA Line Item to Increase 
Resources at the Local Level.--In fiscal year 2008 Congress increased 
this line item by $2.3 million but the proposed budget removes this 
increase. The increases to law enforcement have not been accompanied by 
increases to the tribal court budget even though it has resulted in 
increasing the court's work load. Additionally, as the Tribe has grown 
its economy, the demands on the court system have increased. The Tribe 
has adopted a number of codes, all of which call for final dispute 
resolution to be heard by the Tribal Court. In fiscal year 2006 an 
independent review of our Tribal Court system showed it is working, but 
additional resources to support the basic infrastructure that allows 
for the timely adjudication of criminal cases as well as for the 
expanded role in civil matters needs to be provided.
    The CTUIR Requests That Welfare Assistance Funding be Restored to 
at Least the Fiscal Year 2005 Enacted Level.--A $14.4 million reduction 
in fiscal year 2009 is being proposed on top of the $5 million 
reduction imposed in fiscal year 2007. The budget justifications 
indicate this represents the removal of able bodied adults from the 
roles. However, that program change cannot be made until the 
regulations are amended, a process to our knowledge that has not begun. 
As pointed out above, Indian Country remains the poorest of the poor in 
this country. This program is not duplicative of other Federal and 
State programs as claimed because clients must apply for services from 
all other sources that they are eligible for before receiving 
assistance. Due to the already extremely constrained resources, the 
CTUIR can serve less than 50 percent of the eligible clients per month.
    The CTUIR Requests That the JOM and Scholarships/Adult Education 
Programs be Restored at a Minimum to the Fiscal Year 2004 Budget Levels 
and That These Programs be Moved Back to the BIA Structure.--The budget 
justifications for the newly created Bureau of Indian Education (BIE) 
make it very clear that the entire focus of the new Bureau will be on 
BIE operated and funded schools. While such improvements are clearly 
needed, the BIE is completely leaving out the 93 percent of Indian 
children that receive their education from public schools. If the BIE 
does not want to contend with tribally controlled TPA funding, then the 
programs need to be moved to an environment that supports tribal self-
determination. The Johnson O'Malley (JOM) program is again proposed to 
be completely eliminated despite Congress's continuing support. The 
assertion that these funds are duplicative of the Title VII program is 
simply not true. These funds go to tribal governments to provide 
support and services to Indian children, while Title VII funds 
generally go to school districts and tribes have little or no say over 
how they are used. Recent data shows that of the 552 tribal students 
from our reservation who attend local schools, 40 percent are not 
meeting the statewide standards in English/Language or in Math and are 
in need of the additional services provided by the JOM program. The 
fiscal year 2009 proposed budget also calls for a $5.9 million or 20 
percent reduction to the TPA scholarship/adult education line item. As 
tribes build their local economies, these programs are essential to 
having a well educated work force and to provide basic skills and 
opportunities to adults to participate in those economies.
    The CTUIR Requests the Restoration of the Housing Improvement 
Program.--The budget justification States that this program is being 
eliminated to meet higher priority items in the budget. What could be a 
higher priority than providing safe housing to the least well off 
individuals on the reservation? The assertion that these needs can be 
met through the HUD program demonstrates a lack of understanding by 
Washington bureaucrats of how programs operate in the field.
With respect to non Indian Affairs components of the bill the CTUIR 

        WOULD LIKE TO OFFER THE FOLLOWING COMMENTS

    The CTUIR Opposes the Proposed Elimination of the Land 
Consolidation Program in the Office of Special Trustee.--This program 
is recognized as being highly successful in reducing the fractionation 
of Indian allotments, thereby reducing the accounting nightmare and 
saving the government substantial sums of money by not having to track 
very tiny interests. The elimination of this program does not meet the 
needs of the United States or tribes. The OST has given some indication 
it will be rolling out some form of new concept for land consolidation, 
but to date we are unaware of any discussions with Tribal leaders.
    The CTUIR Supports an Increase to the National Park Service's 
NAGPRA Activities.--These funds have remained constant over the past 
several years while the number of tribes trying to access the funds has 
continued to grow. There has been a large increase in the number of 
NAGPRA activities with the return of many museum collections and the 
increased awareness.
    The CTUIR Adamantly Opposes the Proposed 8 Percent Reduction to the 
U.S. Forest Service budget.--In the 1855 Treaty the CTUIR ceded 6.4 
million acres of land to the U.S. Government but reserved the rights to 
hunt, fish, gather foods and medicines and graze livestock on 
``unclaimed lands'' within the aboriginal area. The majority of the 
open lands are now under the control of three different National 
Forests. Past staffing and funding cuts already prevent the Forest 
Service from meeting even their most fundamental mission. Proposed 
budget cuts will only make the problems worse for future 
administrations, magnifying the damage and increasing the cost to 
repair. Over the past several years the Tribe has worked diligently to 
develop a cooperative relationship with the USFS and to educate them 
about the Tribe's treaty rights and their responsibility to protect 
those rights. A 10 percent staff reduction would jeopardize that 
relationship as USFS personnel would just not have the time to deal 
with these matters. Finally such a reduction would put the CTUIR and 
all rural communities at risk because of the reduced capacity to 
implement fire prevention projects.
                                 ______
                                 
       Prepared Statement of The Conservation System Alliance \1\
---------------------------------------------------------------------------
    \1\ The Conservation System Alliance is a coalition of over 75 
conservation, historic preservation, faith-based, recreation, business 
and place-based friends groups representing millions of Americans 
nationwide. The Alliance aims to protect, restore and expand the 
National Landscape Conservation System by making it permanent, well-
funded, well-managed, and inclusive of the best natural and cultural 
resources under the care of the Bureau of Land Management (BLM). This 
testimony is submitted by John Garder, Public Lands Associate at The 
Wilderness Society, on behalf of the Alliance.
---------------------------------------------------------------------------
    Mr. Chairman, the Conservation System Alliance would like to thank 
you for the opportunity to provide recommendations and comments on the 
fiscal year 2009 Department of the Interior and Related Agencies 
Appropriations bill. On behalf of our millions of members, we provide 
below our fiscal year 2009 funding recommendation for $70 million, and 
increased budget clarity and accountability, for the Bureau of Land 
Management's National Landscape Conservation System.
    The Conservation System is comprised of the most spectacular lands 
and waters under the stewardship of the BLM, like National Monuments, 
Wild and Scenic Rivers, and National Scenic and Historic Trails, that 
have been designated for protection by Congress or the President. 
Created in 2000, the System provides economic benefits to neighboring 
communities across the West through unparalleled opportunities for 
solitude, adventure and recreation such as hunting, fishing, and 
wildlife watching. These lands and waters offer opportunities for 
science, education, economic growth and recreation, and uses as diverse 
as hunting and archaeological research. Yet with bare-bones funding for 
management and land stewardship, the BLM is unable to keep its most 
extraordinary 26 million acres healthy, wild, and open.
    Adequate funding for the Conservation System is vital to protect 
BLM landscapes that are vital components of America's natural and 
cultural heritage. These lands and waters are a network of the last 
places where visitors can still experience the history and wild beauty 
of the American West. These areas provide a uniquely American visitor 
experience; they are places where people can bring their families to 
escape the crowds and create their own adventure. Furthermore, they are 
a living classroom for academic researchers and outdoor educators. 
Congress can ensure that Conservation System lands and waters will 
remain valuable resources for present and future generations of 
recreators, ecologists, archaeologists, educators, and others by 
protecting these intact landscapes for public enjoyment, scientific 
research and outdoor education.
    However, Conservation System lands will not remain resource-rich 
without active stewardship. These extraordinary places are being ruined 
by vandalism, reckless off-road vehicle use, irresponsible resource 
extraction, and neglect. With an average of less than one ranger for 
every 200,000 acres, BLM lacks sufficient staff to adequately protect 
these lands. As a result, the agency spends more to repair damage than 
it would to provide the necessary staff and other resources to protect 
and restore invaluable cultural sites, riparian habitat, and other 
culturally and naturally significant places. Continuing damage to 
System lands and waters poses considerable threats to the integrity of 
these historically and biologically extraordinary landscapes.

       CONSERVATION SYSTEM BUDGET ACCOUNTABILITY AND TRANSPARENCY

    Clarity in the System's budget is critical to ensuring that its 
units receive needed resources. The Alliance commends BLM for providing 
new Subactivities for Monuments and National Conservation Areas in the 
fiscal year 2009 budget, and for giving this spectacular System 
increased attention in budget documents, important first steps towards 
giving the System needed budgetary attention and clarity. However, we 
are disappointed that BLM failed to provide line item program elements 
for the Conservation System's Wild and Scenic Rivers and National 
Scenic and Historic Trails, though directed to do so in the fiscal year 
2008 Omnibus Appropriations Committee Report. Budget clarity for all 
System units is needed to ensure that all System managers can 
adequately plan and accurately track expenditures and to ensure 
accountability to Congress and the American public. We ask the 
Appropriations Committee to direct the Bureau to provide Subactivities 
for the Conservation System's Trails and Rivers and provide greater 
clarity for the Conservation System in future budget documents.

FISCAL YEAR 2009 OPERATIONS, MAINTENANCE AND PLANNING BUDGET NEEDS FOR 
                               THE SYSTEM

    If enacted, the President's fiscal year 2009 budget would be the 
lowest level of funding ever for the Conservation System: $51.8 
million, or less than $3 an acre. This constitutes a destructive cut of 
over $8 million from the final fiscal year 2008 enacted budget, after 
one-time additions (source: BLM). The System warrants funding of at 
least $70 million in fiscal year 2009--a modest increase over historic 
funding levels when accounting for the growth of the System, growth in 
visitation, inflation and significant uncontrollable costs, such as 
insurance increases. The administration's total proposed budget of just 
$51.8 million would leave critical BLM responsibilities and needs 
unmet, including law enforcement, management of illegal off-road 
vehicle traffic, archaeological site protection, control of invasive 
species, and the implementation of new Resource Management Plans.
    We respectfully request that the Committee provide $70 million as 
permanent base funding for operations and management of the 
Conservation System. Priority needs include additional rangers and 
field staff, investments in monitoring and restoration to sustain the 
System's unique resources, cultural and historical site protection, and 
volunteer program support.
    This funding level would enable the BLM to restore needed services 
lost to recent funding cuts, while providing additional capacity to 
address areas of acute need, including:
  --Law Enforcement and Visitor Management.--A 2005 survey of 15 
        Monuments and Conservation Areas in the System found that only 
        one-third has more than one full-time law enforcement ranger. 
        On average, one ranger patrols 200,000 acres. Enforcement staff 
        capacity needs to keep pace with growth in use; in some areas, 
        visitor numbers have quadrupled in the past 5 years.
  --Science and Natural Resource Monitoring.--The BLM cannot meet its 
        responsibility to obtain adequate information on the health of 
        flora and fauna, riparian condition, water quality, and other 
        resources--a problem recently highlighted by the Heinz Center 
        and the Government Accountability Office.
  --Cultural Resource Management.--BLM does not have the personnel to 
        meet its congressionally mandated responsibility to identify, 
        evaluate, and nominate historic properties to the National 
        Register of Historic Places, and to protect cultural sites.
  --Support for Volunteer Programs and Conservation Partnerships.--The 
        Conservation System relies heavily on volunteers to help 
        educate visitors, restore areas damaged by illegal off-road 
        vehicle use, monitor cultural sites, and more. While volunteers 
        provide free work, BLM still needs at least modest resources to 
        create, run, and expand volunteer programs; ``partner'' groups 
        need support for their work as well. Few areas have adequate 
        resources to capitalize on the good will and free labor that 
        volunteers supply.
    The System offers innumerable examples where currently bare-bones 
funding is leading to irreparable resource damage. For example, 
Arizona's Grand Canyon-Parashant National Monument, spanning over a 
million acres, needs $1.2 million for stabilization of twelve of its 
historic and cultural sites, including old ranches and homesteads. 
Colorado's McInnis Canyons National Conservation Area, where visitor 
use has increased nearly 90 percent in the last 5 years, needs $150,000 
to hire a full time law enforcement officer and two seasonal rangers to 
protect resources and ensure visitor safety.
    We also respectfully ask the Committee to give serious 
consideration to any member requests for increasing programmatic 
funding or land acquisition funding for Conservation System units in 
the fiscal year 2009 appropriations bill. These increases should be 
allocated in addition to, not in lieu of, funding already budgeted for 
each System unit in the BLM's fiscal year 2009 budget.
    conservation system land and water conservation fund priorities
    The President's fiscal year 2009 budget would provide less than 
$4.5 million for BLM land acquisition via LWCF, which would be the 
lowest level ever and far below historic levels. We support the 
projects proposed for funding from the Land and Water Conservation Fund 
in the President's request, but they are insufficient. We strongly 
recommend at least an additional $16 million for projects in Santa Rosa 
and San Jacinto Mountains National Monument and California Desert 
Wilderness (CA), Las Cienegas National Conservation Area (AZ), Nez 
Perce National Historic Trail (MT), Kasha-Katuwe Tent Rocks National 
Monument (NM), Cascade Siskiyou National Monument and the Crooked and 
Sandy Wild and Scenic Rivers (OR). These projects offer willing 
sellers, local support, and opportunities to resolve inholder/access 
issues and protect recreational opportunities and biological integrity.
support the protection of cultural resources on land managed by the blm
    The fiscal year 2009 budget proposes only $13.5 million for BLM's 
1050 account for cultural resource management and protection. This is a 
16 percent reduction from the fiscal year 2008 enacted level and a 19 
percent decline from 2007. In fact, the $13.5 million request would be 
below fiscal year 1991 funding levels after adjusting for inflation. 
The administration's request for cultural resource management fails to 
keep pace with increased energy development and recreational uses that 
have the potential to damage or destroy significant archaeological 
sites on BLM lands. We encourage the Interior Appropriations 
Subcommittee to increase funding for the BLM's cultural resource 
program by at least a modest $3 million for a total of at least $16.5 
million. Funds from the 1050 account pay for archaeologists in BLM 
Field Offices but have never been sufficient to pay for proactive 
surveys and the protection of significant cultural resources. A 
reduction in funds only exacerbates this problem and insures there will 
be costly conflicts between energy development and recreational use and 
the protection of cultural sites on BLM land.

 RESTORE NEEDED FUNDING FOR THE NATIONAL TRAILS SYSTEM AND RECREATION 
                               MANAGEMENT

    BLM created a 10-year Strategy to ensure safe public access to its 
13 National Scenic and Historic Trails while preserving their critical 
natural, historic, and cultural resources. Funding is needed to 
implement this Plan, including actions to administer the Iditarod, El 
Camino Real de Tierra Adentro, and Old Spanish National Historic 
Trails, to continue progress toward completing the Continental Divide 
National Scenic Trail, and to protect the Pacific Crest National Scenic 
Trail. To implement the Trail Plan, we urge Congress to allocate at 
least $6 million as permanent base funding for the National Scenic and 
Historic Trails, an increase of $3.5 million over the permanent base 
shown in the President's request. This funding should be established in 
a new National Scenic and Historic Trails Subactivity account. 
Alternatively the funding should be allocated within the Recreation 
Management 1220, Cultural Resources 1050, Annual Maintenance 1652, and 
Challenge Cost Share 1770 Subactivities. We urge the Conservation 
System office to prioritize Recreation Management Subactivity funding 
for planning, establishment, and maintenance of hiking trails on the 
ground throughout the Conservation System.

Appendix.--Additional Examples of Funding Needs in Fiscal Year 2009 for 
            the BLM's National Landscape Conservation System
    The list of Conservation System funding needs assembled in the 
accompanying fact sheet (Support our Western Heritage: Invest in the 
BLM's National Landscape Conservation System) is by no means intended 
to be comprehensive. This appendix, though also not intended to be all-
inclusive, lists some additional examples that further convey the need 
for increased funding for the Conservation System.
Funding Priority #1: Cultural Resources Research and Protection
    Additional needs include:
  --Arizona's Agua Fria National Monument has over 400 recorded sites, 
        among them multi-room pueblos dating from 1250 to 1450 that 
        provide crucial archaeological pieces to the Southwest's 
        historic puzzle. Located within an hour of fast-growing 
        Phoenix, the Monument needs funding for two critical positions: 
        an outdoor recreation planner (to help manage off-road vehicle 
        use and other visitor pressures) and a full-time archaeologist.
  --Other examples include Arizona's Sonoran Desert National Monument, 
        which lacks a full-time archaeologist; Ironwood Forest National 
        Monument, which is home to two historic districts, yet has no 
        archaeologist to solicit needed public involvement in 
        protecting cultural resources there; Las Cienegas NCA, which 
        has a several million dollar backlog for historic site 
        preservation; and California's Carrizo Plain National Monument, 
        which needs $100,000 to stabilize cultural and historical 
        sites.

Funding Priority #2: Rangers for the Conservation System
    Additional needs include:
  --Widespread marijuana cultivation on BLM lands--including 
        Conservation System lands--is causing significant resource 
        damage and threatening public safety. The problem has grown 
        extensively, such that BLM law enforcement from other areas are 
        re-assigned to help with detection and enforcement. However, 
        even with reassignments, the BLM cannot keep up with this 
        important public safety issue. At least nine BLM California law 
        enforcement staff positions are needed to restore affected 
        areas and protect public safety. This would prevent the 
        temporary transfer of much-needed officers from Conservation 
        System and other lands. $2 million would allow for twenty 
        additional BLM officers to focus on this important public 
        safety problem, relieving full or part-time Conservation System 
        officers and allowing them to focus on other needed management 
        priorities.
  --Colorado's Gunnison Gorge National Conservation Area struggles to 
        curb illegal trash dumping, target shooting, theft from fee 
        stations, and vandalism. Just one enforcement officer patrols 
        all 64,000 acres, in addition to areas outside the NCA. 
        $100,000 would fund an officer.
  --Other examples include Agua Fria, Carrizo Plain and Cascade 
        Siskiyou National Monuments, which each need an additional law-
        enforcement officer; Headwaters Forest Reserve, which needs a 
        ranger; and the Wild and Scenic Rivers, which need four 
        seasonal rangers. These positions require approzimately 
        $680,000.

Funding Priority #3: Sound Science, Monitoring, and Restoration
    Additional needs include:
  --Oregon's Cascade-Siskiyou National Monument is an ecological wonder 
        with high biological diversity at the nexus of three different 
        ecosystems. An unmet priority is to monitor the impacts of 
        grazing and rangeland health on biological objects that the 
        Monument was created to protect, including a rich mosaic of 
        grass and shrublands, black oak woodlands and more. Other 
        priority needs include mapping to inform invasive species 
        control and road decommissioning to restore landscapes.
  --Alaska's Steese National Conservation Area was established to 
        protect habitat for wildlife, including Dall sheep and caribou. 
        $200,000 would enable BLM to carry out baseline caribou 
        monitoring as land managers attempt to rebuild the population, 
        as well as fund two seasonal staff to assess the interactions 
        between caribou health, recent wildfires, and invasive species.
  --Other examples include Wild and Scenic Rivers, which are in need of 
        $335,000 for inventorying, monitoring and restoration; Sonoran 
        Desert National Monument, which needs a natural resources 
        specialist; Las Cienegas NCA, which has an unfunded operational 
        need of $350,000 for recreation site maintenance, 
        implementation of recreation site construction, biological 
        monitoring, road maintenance, interpretive supplies and more; 
        San Pedro Riparian NCA, which is in need of $40,000 for water 
        gap construction to prevent livestock, off-road vehicle and 
        flash flood damage to critical riparian areas; Carrizo Plain 
        National Monument, which is in need of $100,000 to contract 
        university wildlife research to better determine the needs of 
        numerous threatened and endangered species; Headwaters Forest 
        Reserve, which needs a natural resources specialist, as well as 
        $15,000 for monitoring of numerous bird species; and King Range 
        NCA, which has a priority need of $85,000 for the monitoring of 
        Pacific Salmon.

Funding Priority #4: Support for Volunteer Programs and Conservation 
        Partnerships
    Additional examples of substantial benefits from volunteers through 
partnership funding are:
  --In Red Rock Canyon National Conservation Area near Las Vegas, 
        volunteers provide the equivalent of 8-9 full-time staff 
        people.
  --At Colorado's Canyons of the Ancients National Monument, a 
        volunteer workforce contributes more than 10,000 hours annually 
        at the Monument's Anasazi Heritage Center, as well as outdoors 
        in the Monument gathering data, monitoring archaeological 
        sites, and restoring lands--time worth $174,000.
  --Friends of Nevada Wilderness organizes volunteer restoration 
        projects in Conservation System wilderness to eliminate 
        unnecessary roads and disguise illegal routes with rocks and 
        vegetation.
  --However, Headwaters Forest Reserve benefits from a supportive 
        regional coalition but lacks capacity to perform outreach and 
        establish a place-based friends group.

Funding Priority #5: Ensuring Adequate Recreation Management
    Other examples include:
  --In Arizona, in BLM's Phoenix District, which includes several 
        flagship Conservation System units in the fastest growing 
        county in America, in one of the fastest growing States in 
        America, there are only four permanent outdoor recreation 
        planners. This lack of Outdoor Recreation Planners hinders 
        their ability to keep recreational trails safe, accessible and 
        enjoyable.
  --Arizona's San Pedro Riparian NCA is in need of funds for site 
        improvement and maintenance on the eleven regularly visited 
        trailheads and two major facilities that receive high visitor 
        use.
  --Other examples include the Vermilion Cliffs National Monument, 
        which is in need of two recreation positions; the Carrizo Plain 
        National Monument, which needs ongoing maintenance and 
        enhancement of recreational programs; the King Range NCA, which 
        needs additional funding to facilitate special recreation 
        permits and collect camping fees; Santa Rosa and San Jacinto 
        Mountains National Monument, which needs $200,000 to upgrade 
        existing camping sites and add additional sites, and to upgrade 
        the public water system; Pompeys Pillar National Monument, 
        which needs operating funds for its visitors' center; the Upper 
        Missouri River Breaks National Monument, which needs funding 
        for plan implementation, including travel planning; and Kasha-
        Katuwe Tent Rocks National Monument, which needs $140,000 for 
        recreation maintenance and other materials.

Funding Priority #6: Educational Outreach
    Additional needs include:
  --The California Coastal National Monument would like to initiate 
        kiosks and other public educational materials to minimize 
        coastal damage and enhance resource education and development. 
        Local groups are raising financial support for a series of 
        public ``gateways,'' but BLM staff lack funds and staff to 
        fully pursue the opportunities that come with working to 
        involve local people in the management of their resources.
  --A University of Utah student has volunteered to write a public 
        geology guide for Arizona's Vermilion Cliffs National Monument 
        but lacks $12,000 in BLM funding.

 SUPPORT OUR WESTERN HERITAGE: INVEST IN THE BLM'S NATIONAL LANDSCAPE 
                CONSERVATION SYSTEM IN FISCAL YEAR 2009

    The Bureau of Land Management's (BLM) National Landscape 
Conservation System is a network of the last places to experience the 
history and beauty of the American West. The System brings together BLM 
lands and waters designated for protection by Congress or the 
President, like National Monuments, National Historic Trails and Wild 
and Scenic Rivers. Yet with bare bones funding for management and land 
stewardship, the BLM can't keep its most extraordinary 26 million acres 
healthy, wild, and open.
    If enacted, the proposed funding level for fiscal year 2009 would 
be the lowest since the Conservation System's inception in 2000: just 
$51.8 million, or less than $2 an acre. Meanwhile, needs have increased 
and staff is minimal. Historic sites are vandalized and resources lost 
before they are even identified. With eleven of the 15 fastest growing 
States in the country in the West, the Conservation System is people's 
new backyard for recreation. These sites are also natural draws for 
local tourism and sustain local economies. While representing just 10 
percent of BLM lands, the System receives about a third of all visitors 
to BLM's 260 million acres. In some parts of the System, visitor use 
has more than tripled in the past 5 years. Yet the System receives less 
than 3 percent of BLM's funding.
    The BLM's Conservation System warrants funding of at least $70 
million in fiscal year 2009--a modest increase over historic funding 
levels when adjusting for inflation and uncontrollable costs, such as 
unemployment and health insurance, workers' compensation, and salary 
increases. Priority funding needs include additional rangers, field 
staff, investments in monitoring and restoration to sustain the 
System's unique resources, cultural and historical site protection, 
volunteer program support, recreation management and community 
educational programs.

Funding Priority #1: Cultural Resources Research and Protection
    The Conservation System includes thousands of cultural sites--from 
entire settlements of ancient peoples to historic ranches; there is a 
tremendous need for rangers and outreach professionals to discourage 
vandals and prevent off-road vehicle incursions on sensitive sites. 
Most monuments lack a full time archaeologist to assess and monitor 
archaeological resources. Examples include:
  --Arizona's Vermilion Cliffs National Monument staff has identified 
        the first evidence of interacting Puebloan cultures, which 
        previously were not known to have co-existed, but do not have 
        adequate staffing to inventory the resources, which are known 
        to vandals and at a continuous risk of being looted. Two 
        archeologists--at a total cost of $180,000--are needed to 
        proactively inventory and protect these invaluable sites.
  --Arizona's Grand Canyon-Parashant National Monument spans over a 
        million acres. Twelve of its historic and cultural sites, 
        including old mines, ranches and homesteads, are in need of 
        stabilization. $1.2 million would restore and prevent loss of 
        these important sites.

Funding Priority #2: Rangers for the Conservation System
    On average, each ranger in the Conservation System patrols 200,000 
acres. With that scant presence, irreparable damage results from 
vandals, pothunters and uninformed but well-meaning visitors who simply 
lack guidance from signs, maps, or staff on how and where to recreate 
safely and responsibly.
  --At Colorado's McInnis Canyons National Conservation Area, visitor 
        use has increased nearly 90 percent in the last 5 years. The 
        NCA needs a full time law enforcement officer and two seasonal 
        rangers, but budget freezes have prevented filling the 
        positions. $150,000 is needed.
  --Arizona's Ironwood Forest National Monument has an abundance of 
        natural and archaeological resources in need of protection, but 
        management is challenged by traffic from undocumented 
        immigrants. A second ranger--at a cost of $70,000--is needed to 
        ensure public and staff safety and to educate visitors.
  --The 15-million acre California Desert District, including the Santa 
        Rosa and San Jacinto Mountains National Monument, parts of the 
        California Desert Conservation Area, and 67 wilderness areas, 
        has numerous vacant positions due to funding shortages, many in 
        highly populated areas. Tens of thousands of weekly visitors 
        pose extensive challenges for managing off-road vehicles and 
        other recreation and some areas have been determined to be 
        unsafe for family recreation due to high drug and alcohol use. 
        BLM employees are also subjected to life-threatening 
        situations, experience a high burnout rate and frequently seek 
        reassignment. $1.5 million would fund twelve needed positions 
        to ensure public safety and the protection of cultural and 
        natural resources.

Funding Priority #3: Sound Science, Monitoring, and Restoration
    The BLM must protect the natural and cultural resources for which 
its Conservation System units were designated--like threatened and 
endangered species, clean water, wetlands, and fragile deserts. 
Protection requires monitoring. Yet, the BLM does not have adequate 
resources to collect and assess high-quality data about the state of 
Conservation System ecosystems and resources, and to incorporate that 
data into management decisions. An investment in this area is also an 
opportunity to allow the Conservation System to function as an outdoor 
laboratory for science and best management practices across the BLM-
managed lands--offering insights on geology, land and wildlife health, 
and invasives. Nearly every area would benefit from investments in 
monitoring programs and science-focused partnerships, including:
  --Arizona's Grand Canyon-Parashant National Monument requires 
        $100,000 per year for needed staff to monitor cultural sites, 
        wildlife and off-road vehicle use. An additional $100,000 
        annually is needed to manage the restoration of native 
        vegetation that is being lost as a result of fire. $250,000 
        annually is needed for ecosystem restoration.
  --California's Santa Rosa and San Jacinto Mountains National Monument 
        is in need of $1 million for adaptive trails planning for 
        research that will facilitate recreation while proactively 
        protecting wildlife including bighorn sheep. $100,000 annually 
        is also needed for the eradication of tamarisk, which depletes 
        invaluable water resources and competes with native vegetation.
  --National Scenic and Historic Trails are in need of more accurate 
        trails mapping. Of the nearly 5,500 miles of National Scenic 
        and Historic Trails managed by BLM (more than any other 
        agency), only 400 miles have been mapped to a reasonable 
        standard of accuracy, complicating the location--and therefore 
        protection--of natural and cultural resources, as well as BLM's 
        ability to provide a safe and quality experience for 
        recreational users.

Funding Priority #4: Support for Volunteer Programs and Conservation 
        Partnerships
    Like the National Parks, BLM's Conservation System relies heavily 
on volunteers to help educate visitors, restore areas damaged by off-
road vehicle use, monitor cultural sites, remove invasive plants, and 
more. While volunteers donate their time and labor, BLM still needs at 
least modest resources to create, run, and expand volunteer programs; 
``partner'' groups need support for their work as well. Few areas have 
adequate resources to capitalize on the goodwill and free labor that 
volunteers supply. Examples of substantial benefits from volunteers 
through partnership funding are:
  --The WildCorps program establishes youth work crews at $200,000 each 
        annually to assist with the management of National Monuments, 
        Wilderness Areas and more. The program reconnects youth with 
        America's natural treasures while training the next generation 
        of land managers and efficiently using Federal dollars to 
        perform needed restoration at a fraction of the cost.
  --In Utah's Grand Staircase-Escalante National Monument, volunteers 
        donate 6,000 to 10,000 hours annually to assist BLM staff and 
        scientists with projects ranging from fence repair to prepping 
        specimens for exhibits. Monument funding has dropped 26 percent 
        over the last 5 years. Due to this decrease in budget, they are 
        heavily dependent on interns and volunteers.
    Yet, many Conservation System units lack sufficient staff to 
coordinate willing volunteers and nourish partnerships. For example, 
the California Coastal National Monument, with more than 20,000 small 
islands and the full 1,100 miles of the California coast, has only one 
full-time staff, so is unable to focus resources on developing 
partnerships with key management partners such as the California Fish 
and Game. Six additional staff are needed at $100,000/person to perform 
outreach. BLM also needs funding to establish several ``Gateways'' 
along the California coast. By coordinating with management partners, 
museums, marine labs and other local groups, Monument staff hopes to 
use the Monument as a way to develop stewardship partnerships through 
the State of California and enhance public education and development.

Funding Priority #5: Ensuring Adequate Recreation Management
    The Conservation System receives about a third of all BLM visitors, 
yet lacks the resources to adequately manage recreational opportunities 
to protect valuable cultural and natural resources while ensuring 
unparalleled recreational opportunities such as river rafting, hiking, 
hunting and more.
  --$10 million is needed for the National Trails System: The BLM 
        administers 5,454 miles of three National Historic Trails and 
        manages 5,485 miles of thirteen National Scenic and Historic 
        Trails. There are only two employees to fulfill BLM's 
        administrative responsibilities for the 5,454 miles of Historic 
        Trails. These three trails have no stable operating funding, 
        greatly hindering planning and the ability to coordinate with 
        Park Service co-administrators and non-profit partners that 
        perform the bulk of trail maintenance and purchase basic 
        administrative supplies. Funding is also lacking for the 
        implementation of congressionally mandated Comprehensive 
        Management Plans for these trails. $1.6 million is also needed 
        for completing Trail Visitor Centers to complete exhibits 
        interpreting the historical and recreational resources of the 
        trails for visitors. $2.8 million is needed to fully operate 
        four Trail Visitor Centers.
  --Alaska BLM's Eastern Interior Field Office has lost numerous staff 
        over the last 5-6 years. With five Conservation System units to 
        manage, the staff shortage makes it especially difficult to 
        manage the world-renown rafting and other recreational 
        opportunities there. For example, there is only one half of one 
        position to monitor the entire 392 miles of the Fortymile Wild 
        and Scenic River.
  --At Arizona's Grand Canyon-Parashant National Monument, BLM needs 
        $50,000 annually to implement the Monument's Resource 
        Management Plan (e.g., to manage roads, post signs and 
        implement route designations).

Funding Priority #6: Educational Outreach
    Increased attention has recently been placed on the important 
public health and conservation benefits of reconnecting America's youth 
with public lands. The House Interior Appropriations Committee noted in 
their fiscal year 2008 report that they ``recognize that the growing 
disconnection of America's children from the natural world impacts the 
children's health as well as the future of natural resource 
conservation. Within the . . . National Landscape Conservation System 
[budget], the Bureau should implement projects that help connect 
children and their families with nature.'' Conservation System lands 
offer a critical opportunity for public education of youth and other 
visitors, but programs are difficult or impossible to sustain or 
initiate without funding.
  --California's Headwaters Forest Reserve has active educational 
        programs for youth in nearby schools, who comprise 8 percent of 
        Headwaters visitation. BLM environmental education staff has 
        developed programs in local schools to promote interest in land 
        stewardship for the Reserve. Teachers have optional curriculum 
        packets with lesson plans directly tied to State standards. 
        Rangers teach at local schools, and then have children explore 
        lessons in the Reserve.
  --Utah's Grand Staircase-Escalante National Monument staff has an 
        active community educational program building relationships 
        with local schools in surrounding counties, but is increasingly 
        unable to fulfill the schools' requests due to a 26 percent 
        funding decrease over the last 5 years. Monument staff 
        developed State-approved curricula for schools, but have lost 
        their environmental education position due to funding cuts. 
        $100,000 is needed to refill the position. Monument staff also 
        seeks to build on a biology program through partnerships with 
        local universities.
  --Colorado's Gunnison Gorge NCA receives far more requests for 
        education programs than it can accommodate. Visitors and local 
        residents would benefit from an interpretive/education 
        specialist who would develop improved signs and educational 
        materials, including school curricula.
    For more information, contact John Garder, The Wilderness Society, 
at 202-429-2641 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="553f3a3d3b0a323427313027152122267b3a2732">[email&#160;protected]</a>, Denise Ryan, National Wildlife 
Federation at 202-797-6864 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="502229313e34103e27367e3f2237">[email&#160;protected]</a> or Seth Levy, American 
Hiking Society, at 301-565-6704 Ext. 302 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f1829d948788b1909c94839892909f99989a989f96df9e8396">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement

    The Cooperative Alliance for Refuge Enhancement (CARE) represents 
over 14 million people that care deeply about America's National 
Wildlife Refuge System. This testimony is submitted on behalf of CARE's 
22 member organizations:
    American Birding Association, American Fisheries Society, American 
Sportfishing Association, Assateague Coastal Trust, Association of Fish 
and Wildlife Agencies, Congressional Sportsmen's Foundation, Defenders 
of Wildlife, Ducks Unlimited, Izaak Walton League of America, National 
Audubon Society, National Rifle Association of America, National 
Wildlife Federation, National Wildlife Refuge Association, Safari Club 
International, The Corps Network, The Nature Conservancy, The 
Wilderness Society, The Wildlife Society,Trout Unlimited, U.S. 
Sportsmen's Alliance, Wildlife Forever, and the Wildlife Management 
Institute.
    Chairwoman Feinstein, ranking member Allard, and members of the 
subcommittee: Thank you for the opportunity to offer comments on the 
fiscal year 2009 Interior Appropriations bill. The National Wildlife 
Refuge System stands alone as the only land system in the world with a 
mission that prioritizes wildlife conservation over all other 
activities. Since 1995, CARE has worked to showcase the needs of the 
remarkable Refuge System and to secure a strong congressional 
commitment for protecting America's shorelines, wetlands, deserts, 
tundra, and forests. CARE wishes to express our deep gratitude to the 
subcommittee for the funding increase in fiscal year 2008 and the 
dramatic turnaround it represented. To continue enacting the 
conservation vision that President Theodore Roosevelt first espoused 
more than a century ago, CARE respectfully requests a funding level of 
$514 million for the Operations and Maintenance accounts of the 
National Wildlife Refuge System in fiscal year 2009.
    A recent detailed analysis by CARE found that our National Wildlife 
Refuge System needs $765 million in annual Operations and Maintenance 
funding to properly administer its nearly 100 million acres, 
educational nature programs, habitat restoration projects, and much 
more. Reaching a level of $514 million in fiscal year 2009 is the next 
essential step along the pathway toward $765 million, and will enable 
wildlife refuges across the country to shelve the downsizing plans that 
call for a devastating 20 percent reduction in staff and return to what 
refuges do best: protecting America's wildlife and water quality, 
providing a haven for threatened and endangered species, and 
guaranteeing a positive experience for 40 million annual visitors, 
whether hunting, fishing, birding, or learning from educational 
programs.
    When refuges are short-staffed, it doesn't only affect activities 
inside refuge boundaries. Refuges are also unable to dedicate 
sufficient attention to threats beyond refuge boundaries, such as water 
rights disputes, upstream contamination, adjacent landfill sites, or 
planned developments. And as in recent years, when staff levels are 
reduced to only one or a few staff per refuge, opportunities to partner 
with other interested stakeholders are lost, dramatically and adversely 
affecting volunteer involvement and the leveraging of additional 
dollars. For example, consider that the reasonably well-staffed San 
Luis Refuge Complex in central California is often able to effectively 
triple its annual budget through creative partnerships. With this extra 
income, more trees are planted, invasive species are being eradicated, 
hunting programs are thriving, and staff can closely monitor outside 
threats. This situation demonstrates how much is possible with a 
critical mass of staff able to capitalize on funding and partnering 
opportunities, and how much is now being lost at other refuges.
    In addition to their integral role in American wildlife 
conservation, refuges are critically important on local and regional 
scales, as visitors in 2006 generated more than $1.7 billion in sales 
to local economies, creating over 27,000 U.S. jobs and $543 million in 
personal income. While these figures are undeniably significant, it is 
widely recognized that the Refuge System's potential remains largely 
untapped. In addition to being local economic engines, America's 
wildlife refuges also provide innumerable environmental benefits to 
communities. For example, many refuges in urban or suburban settings 
filter storm water before it runs downstream to municipal water 
supplies and, in many areas, reduce flooding by capturing excess 
rainwater and attenuating coastal storm surges. The native vegetation 
on many of America's refuges helps absorb pollution and captures carbon 
from the air, while natural filtration and sound water management 
promotes healthy fisheries within and beyond refuge boundaries. And 
importantly, refuges provide a way for children to connect with the 
natural world.
    There is a national wildlife refuge within an hour's drive of every 
metropolitan area in the United States. As children spend more and more 
time inside on computers, watching television or playing video games, 
the need for a place to bring our youth to experience and explore the 
outdoors has never been more important. Many refuges work with local 
volunteer organizations such as ``Friends'' to provide environmental 
education programs to local schools; but when budgets are tight, they 
are often the first programs to be curtailed.
    Prior to the generous fiscal year 2008 appropriation, many years of 
inadequate budgets rapidly ballooned the Operations and Maintenance 
backlog to $3.5 billion and forced many refuges to eliminate all staff. 
Today, over one-third of America's wildlife refuges have no staff; 
nobody to open the gates, teach the school children, repair the levees, 
pull the weeds, or even clean the bathrooms. While the increase in 
fiscal year 2008 helped immensely, many years of decline and 
degradation cannot be undone overnight. So refuge visitors still show 
up to find roads and visitor centers closed, viewing platforms and 
hiking trails in disrepair, and habitat restoration and school 
education programs eliminated. Non-native, invasive plants have 
degraded over 2.3 million acres and crime is on the rise as only 180 
full-time law enforcement officers are asked to do the job of over 840.
    Unfortunately, President Bush's fiscal year 2009 budget proposal 
for the National Wildlife Refuge System does not improve the situation. 
The administration's request does not consider rapidly rising 
inflationary costs. Each year, just to keep fuel in the trucks, pay for 
rising utilities and building rent, allow for salary adjustments and 
other fixed costs, the Refuge System needs a $15 million increase. With 
the current surge in fuel prices expected to continue through the year, 
that number is certain to climb dramatically. Therefore, to return the 
Refuge System to inflation-adjusted fiscal year 2004 levels and ensure 
a ``no net loss'' budget, the Refuge System needs a minimum of $466 
million in fiscal year 2009.
    In a Nation with ever-shrinking natural areas, we must act quickly 
to safeguard our unique natural heritage for the benefit of wildlife 
and millions of present and future Americans. It was Teddy Roosevelt 
who reminded America that ``our duty to the whole, including the unborn 
generations, bids us restrain an unprincipled present-day minority from 
wasting the heritage of these unborn generations.'' CARE agrees that 40 
million refuge visitors and all future Americans deserve the 
opportunity to see 100 million acres of the most visually stunning and 
biologically rich lands and waters in North America. Quite simply, the 
only way to ensure a future with clean water, thriving wildlife 
populations, and hunting and fishing opportunities is to increase the 
Refuge System's fiscal year 2009 appropriation to $514 million.
    On behalf of our over 14 million members and supporters, CARE 
thanks the subcommittee for the opportunity to offer comments on the 
fiscal year 2009 Interior Appropriations bill and extends our sincere 
appreciation for the Subcommittee's strong commitment to America's 
National Wildlife Refuge System.
                                 ______
                                 
                Prepared Statement of the Corps Network

    The Corps Network urges you to fully fund the Public Lands Corps 
Healthy Forests Restoration Act of 2005 (Public Law 109-154), which was 
signed into law in 2005. It authorizes $12 million for the Secretaries 
of Agriculture and Interior to contract with qualified youth and 
conservation Corps to carry out projects on public lands that are 
consistent with the goals of the Healthy Forests Act. It authorizes $8 
million for priority projects and $4 million for other appropriate 
conservation projects.
    When funded, the act will enable the Departments of Agriculture and 
Interior to engage Service and Conservation Corps in projects: ``(A) To 
reduce wildfire risk to a community, municipal water supply, or other 
at-risk Federal land; (B) To protect a watershed or address a threat to 
forest and rangeland health, including catastrophic wildfire; (C) To 
address the impact of insect or disease infestations or other damaging 
agents on forest and rangeland health'' and for other purposes. In 
addition, to these conservation and protection aims, The Act also seeks 
to provide opportunities for disadvantaged and the communities in which 
they reside by creating two preferences; one for projects and the other 
for Corps.
    The Public Lands Corps provides five important benefits:
  --Helps to Improve and Protect Public Lands and the Environment.--PLC 
        Corpsmembers join the fight against wildfires, invasive 
        species, other threats to our public lands and other disaster 
        prevention and relief activities.
  --Helps to Reduce the Impacts of Climate Change.--By planting and 
        managing vegetation to restore ecological processes and 
        functions, including the recharging of streams and aquifers.
  --Engages Disadvantaged Young Adults.--The PLC engages young people, 
        particularly those who are disadvantaged, in these efforts and 
        connects young people with nature.
  --Is Cost-Effective.--Federal land managers will be able to deploy 
        resources in a more cost-effective manner--to fight the effect 
        of fires and invasive species as well as completing backlogged 
        maintenance projects--because in the PLC, government cannot pay 
        more than 75 percent of the cost of any project. The remaining 
        25 percent must be provided in cash or in-kind from nonfederal 
        sources.
  --Creates a new Generation of Diverse Environmental Stewards.--
        Because the statute contains language providing for non-
        competitive hiring status for PLC Corpsmembers, the PLC also 
        creates a pipeline of skilled and diverse recruits; the next 
        generation of environmental stewards that the National Park 
        Service can hire non-competitively.
    The Public Lands Corps can, and should, play a key role in the 
implementation of the National Fire Plan, especially with regard to 
rehabilitation, hazardous fuels reduction, and community assistance. 
Corps can help to insure that the necessary resources are available to 
respond to fires. Across the Nation, they participate in emergency 
stabilization and rehabilitation activities like reforestation, road 
and trail rehabilitation, fence replacement, fish and wildlife habitat 
restoration, and replanting and reseeding with native or other 
desirable vegetation. They have experience reducing hazardous fuels to 
reduce the risks of fires to people, communities, and natural 
resources. Corps also have experience in helping communities that have 
been or are at-risk of fire by educating citizens on the effects of 
fire and doing community fire protection planning.
    According to the Climactic Data Center of the Department of 
Commerce, in 2007 some 85,583 fires consumed 9.3 million acres; the 
second worst year for fires since mid 1990s and well above the 10 year 
average of 7.9 million acres burned. Federal agencies spent more than 
$2 billion on fire suppression in 2007. One factor that increases the 
wildfire threat is the growing number of new homes in the wildland/
urban interface; about 8.4 million new homes, or 60 percent of new 
homes, were built in the interface during the 1990s.
    In 2004 the National Fire News noted that ``After a wildland fire . 
. . land management specialists and volunteers jumpstart the renewal of 
plant life through seeding and planting with annuals, trees, and native 
species that help retain soils and fight invasive weeds. It's a long 
term process that comes alive as the wildland fires die down.''
    Reducing the impacts of climate change, restoring balance to the 
ecology, and connecting young people to nature is the kind of work at 
which Corps excel and can play an even greater role. Corps are an 
experienced, cost-effective, and valuable resource in the fight against 
fires and infestation. Corps do fuels reduction work, create firescapes 
around new communities as cities spread into previously rural areas, 
provide logistical support to firefighters, and educate homeowners and 
others about how to prevent fires. They also partner with community-
based organizations in disaster preparedness and relief activities. 
Examples of Corps service include:
  --Reducing Maintenance Backlogs.--The Northwest Youth Corps works 
        with the Washington Trails Association to brush, clear, repair, 
        and extend trails in Mount Rainier National Park and Mount 
        Baker-Snoqualmie National Forest, among other sites. In August 
        2007, park officials reported that they were still fixing 
        damage caused by storms in October 2003.
  --Restoring the Environment.--The Nevada Conservation Corps works 
        with The Nature Conservancy to return the Truckee River and 
        wetlands to a more natural condition.
  --Disaster Relief.--Eleven Corps have sent more than 250 young people 
        and staff to the Gulf Coast. Corps from across the country 
        helped residents rebuild their homes and their lives by 
        clearing debris, repairing roofs in Mississippi, managing a 
        supply warehouse in Louisiana, serving displaced residents 
        aboard ships in Alabama, and installing temporary ``hard 
        roofs'' on historic buildings in New Orleans.
  --Wildfire Prevention.--In 2004, the Montana Conservation Corps (MCC) 
        completed over 600 acres of wildfire fuels reduction projects 
        in partnership with national parks, State agencies on private 
        lands, and local conservation districts. Its priority has been 
        to create defensible space around historic buildings in the 
        national parks and around campgrounds. In West Yellowstone, MCC 
        partnered with the Chamber of Commerce to remove 300 hazardous 
        trees lining the popular Rendezvous Ski Trails, site of 
        national ski races, and an important economic asset in a 
        community trying to diversify from the traditional snowmobile-
        based economy.
  --Emergency Response And Prevention.--The Western Colorado 
        Conservation Corps (WCCC) has done work in the urban interface 
        in the Black Canyon of the Gunnison National Park housing area 
        to insure safe passage for emergency response workers. 
        Corpsmembers have been trained in firescaping around new 
        suburban neighborhoods as cities spread into rural areas. They 
        help to provide both visually aesthetic and fire resistant 
        landscape around structures and along the avenues of emergency 
        response.
  --Fire Prevention and Community Improvement.--The Coconino Rural 
        Environment Corps located in Flagstaff, Arizona, thins hundreds 
        of acres of Federal, State, county, city, and private lands 
        every year. The Corps has created multiple partnerships in 
        local communities to mitigate the hazards of catastrophic wild 
        fires including one to provide local Native American 
        communities with more than 400 cords of firewood.
    Invasive species are another large and growing threat to our public 
lands. Almost half of the plants and animals listed as endangered 
species by the Federal Government have been negatively affected by 
invasive species. Purple loosestrife, for example, diminishes waterfowl 
habitats, alters wetland structure and function, and chokes out native 
plants. The Asian long horned beetle destroys valuable city trees and 
could spread. Invasive plants are estimated to infest 100 million acres 
in the United States. A Bureau of Land Management study (1996) 
estimated that 4,600 acres of additional Federal public natural areas 
in the Western United States are negatively affected by invasive plant 
species every day. According to one study, in 1999 the United States 
spent an estimated $590 million to prevent and control invasive 
species.
    Corps have also been mobilized in a number of States including 
Washington, California, Montana, Colorado, New Mexico, and Utah to 
remove invasive species and to combat agricultural pests and insects. 
For example:
  --The Western Colorado Conservation Corps (WCCC), based in Grand 
        Junction, Colorado, have been actively involved in tamarisk 
        removal for several years. The WCCC has partnered with the 
        Colorado State Parks Department and the State Division of 
        Wildlife, the Audubon Society, and the Tamarisk Coalition to 
        eradicate tamarisk and Russian Olive from a 50 mile stretch of 
        the Colorado River and from the Utah State line to Palisade, 
        Colorado.
  --Working under the direction of the California Department of Food 
        and Agriculture, Corpsmembers have fought the Mediterranean 
        fruit fly, gypsy moth, white fly, red imported fire ants and 
        the glassy-winged sharpshooter.
  --The Montana Conservation Corps is partnering with the National 
        Forest Foundation, Gallatin National Forest, and Gallatin/Big 
        Sky Weed Management Area Committee to undertake an extensive 
        invasive weed mapping and removal project in the Lee Metcalf 
        Wilderness.
    Established in 1985, The Corps Network is the voice of the nation's 
116 Service and Conservation Corps. Currently operating in 41 States 
and the District of Columbia, Corps annually enroll more than 21,000 
young men and women who contribute almost 17 million hours of service 
every year. Corps annually mobilize almost 300,000 community volunteers 
who contributed millions of additional hours of service.
    Our member Corps are direct descendents of the Civilian 
Conservation Corps (CCC) of the Depression-era that provided work and 
vocational training for unemployed single young men through conserving 
and developing the country's natural resources. Between 1933 and 1941 
the CCC had employed almost 3.5 million men who planted an estimated 
2.5 billion trees, protected 40 million acres of farmland from erosion, 
drained swamp land, replanted almost a million acres of grazing land, 
built 125,000 miles of roads, fought fires, and created 800 State parks 
and 52,000 acres of campgrounds. But the biggest legacy of the CCC may 
have been the hope it provided both the young men and their families.
    Today's Corps are a proven strategy for giving young men and women, 
many of whom are disadvantaged and out-of-work and/or out-of-school, 
the chance to change their own lives and those of their families, as 
well as improve their communities. Of the Corpsmembers enrolled in 
2007, 57 percent had no High School diploma, 53 percent reported family 
income below the Federal poverty level, 30 percent had previous court 
involvement and, at least 5 percent had been in foster care. Corps 
provide thousands of young people the opportunity to earn a second 
chance in life.
    In the Corps model, Corpsmembers are organized into crews of 8-12 
to carry out these projects while being guided by adult leaders who 
serve as mentors and role models as well as technical trainers and 
supervisors. For the past 25 years Corps have re-engaged society's most 
vulnerable young people through a comprehensive approach of full-time 
service, a minimum-wage based stipend, job training, life skill 
development, career counseling and education. Most importantly, these 
young men and women learn to value their personal contribution, learn 
the importance of teamwork and experience the recognition that comes 
from making a positive investment in their community.
    In return for their efforts to restore and strengthen their 
communities, Corpsmembers receive: (1) a living allowance, (2) 
classroom training to improve basic competencies and, if necessary, to 
secure a GED or high school diploma, (3) experiential and environmental 
service-learning based education, (4) generic and technical skills 
training, and (5) a wide range of supportive services. Research has 
shown that youth who complete Corps programs have higher rates of 
employment and earn more than their counterparts. Corpsmembers also 
score higher on measures of personal and social responsibility and are 
more likely to earn a college degree. Corps generate a positive return 
for every dollar invested.
    The Public Lands Corps will provide work experience to 
disadvantaged Corpsmembers between the ages of 16-24, giving them the 
chance to develop the skills and habits they will need to become 
employed and productive citizens. It offers them a pipeline into 
Federal service, a win-win situation for the Forest Service and for the 
Corpsmember. This experience will help Corpsmembers help themselves, 
their families, and their communities. It will also enable Federal land 
managers to cost-effectively complete critical backlogged maintenance 
projects.
    We urge you to provide $12 million to support this program and we 
appreciate your attention to this request.
                                 ______
                                 
      Prepared Statement of the Council of Energy Resource Tribes

    On behalf of the Council of Energy Resource Tribes (CERT), I am 
pleased to submit for the subcommittee's consideration the following 
statement on Indian energy funding needs as the subcommittee begins its 
work on its fiscal year 2009 spending bill. I appreciate the 
opportunity to provide testimony to the subcommittee on two programs of 
interest to CERT and its member tribes: (1) a $1.5 million programmatic 
increase for the Bureau of Indian Affairs' (BIA's) Indian energy 
programs; (2) funding the Indian Guaranteed Loan Program account at the 
$12,186,000 level; and (3) restoration of funding for the Office of 
Minerals Evaluation.
    By way of background, CERT was founded in 1975 by Indian Tribes to 
chart a new course for the prudent, tribally-driven development of 
tribal energy resources. CERT's mission is to support member Tribes as 
they develop their management capabilities and use their energy 
resources as the foundation for building stable, balanced, self-
governed economies. CERT is governed by a Board of Directors comprised 
of the principal elected leadership of CERT's 57 member Indian tribes. 
The Board directs CERT's policy and the Board has made Federal 
appropriations CERT's top priority for this year. Against this 
backdrop, CERT has the following funding priorities for fiscal year 
2009 for the Interior and Related Agencies spending bill:
$1.5 million programmatic increase for the bia's indian energy programs
    CERT respectfully requests that the subcommittee consider a $1.5 
million programmatic increase for the BIA's Indian energy programs. The 
BIA's Indian energy programs are administered by the Office of Indian 
Energy and Economic Development (IEED). These programs bring much 
needed technical assistance and capacity building to Indian country and 
enable Indian tribes to maximize, leverage, and develop energy 
resources on tribal lands in two critical ways:
  --Grants.--The IEED provides grants to Indian tribes to assess energy 
        resources on tribal lands, build capacity, conduct feasibility 
        studies, and for other purposes. Since fiscal year 2000, 70 
        Indian tribes have received grants for energy related 
        activities under this program. A programmatic increase for this 
        activity would enable more Indian tribes to receive grants for 
        energy development activities.
  --Tribal Energy Resource Agreements (TERAs).--Authorized under Title 
        V of the Energy Policy Act of 2005, TERAs are agreements 
        between Indian tribes and the Secretary of the Interior that 
        are intended to maximize tribal oversight and management of 
        energy resource development. Once the IEED determines that a 
        tribe possesses the requisite management capacity and approves 
        a TERA, the tribe can then engage in a variety of energy 
        development activities under an entirely new, flexible 
        mechanism for entering into energy-related business agreements 
        with third parties. The BIA published its final rule 
        implementing the TERA program on March 10, 2008, and numerous 
        applications are expected. A programmatic increase would 
        provide the IEED with sufficient resources to ensure that 
        Indian tribes are able to take advantage of this new economic 
        development tool.
    The tribal energy programs carried out by the IEED are administered 
in the Minerals and Mining account within the BIA's Trust-Natural 
Resources Management budget activity. Within that account, the 
President's budget includes a total of $2 million for tribal energy 
activities for fiscal year 2009. Of that $2 million, $1.4 million is 
for grants (encompassed within the $6.93 million requested in the 
Minerals and Mining Projects line item), and $600,000 is for the IEED 
to consult with Indian tribes and begin the TERA review process 
(encompassed within the $1.49 million requested in the Minerals and 
Mining Central Oversight line item). CERT seeks an increase of $1 
million for grants to Indian tribes and $500,000 for TERA 
implementation. To this end, CERT suggests the following report 
language: Changes to the Request include increases to Minerals and 
Mining of $1,000,000 for grants for tribal energy activities and 
$500,000 for implementation and approval of Tribal Energy Resource 
Agreements. Other Indian tribes support this programmatic increase, 
including, among others, the Confederated Tribes of the Colville 
Reservation and the Southern Ute Indian Tribe.

                     INDIAN GUARANTEED LOAN PROGRAM

    CERT also asks respectfully requests that the subcommittee fund the 
Indian Guaranteed Loan Program account at the $12,186,000 level, a $4 
million increase over the President's fiscal year 2009 Request. While 
CERT is pleased that the President's fiscal year 2009 Request includes 
a $2 million increase for this account over fiscal year 2008 enacted 
levels, more funding is needed to facilitate economic development in 
Indian country and encourage private investment on Indian lands.
    The Indian Guaranteed Loan Program is among the most flexible and 
efficient tools to encourage tribal economic development, including 
energy development. The BIA provides approximately 50 new loans 
annually under the program. Existing loans range from $250,000 to $18 
million. Every dollar appropriated to the program is leveraged at least 
16-fold, thereby maximizing the funding available to Indian country 
from private lenders. A $4 million increase would therefore result in 
at least $64 million in new loan funding being available to Indian 
country for energy development or other economic development projects.

                   THE OFFICE OF MINERALS EVALUATION

    The President's fiscal year 2009 request does not include funding 
for the Office of Minerals Evaluation (OME). CERT respectfully requests 
that the subcommittee fund this activity at at least the fiscal year 
2008 enacted level. OME performs subsurface economic evaluation to 
determine the value of the subsurface estate for Indian trust 
restricted property. For Indian tribes and individual Indian land 
owners, this is an important step to obtain Secretarial approval for 
mineral leases. Without this evaluation, it is impossible for the 
Secretary to determine that the Indian interest owner is obtaining fair 
value. CERT understands that the Department is considering outsourcing 
these appraisals, a move that CERT opposes. The OME is uniquely 
situated to utilize data from Indian tribes and within the Department 
to generate fair appraisals that the Indian landowners have confidence 
in. Any plan to outsource this function would erode this confidence.
    I appreciate the opportunity to provide this written testimony. 
Should the subcommittee have any questions, please feel free to contact 
me via e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d6d3dbd2c4c3d2c5f7d4d2c5c3c5d2d3d2d6c5c3df99d4d8da">[email&#160;protected]</a>, via telephone at (303) 282-
7576, or via facsimile at (303) 282-7584.
                                 ______
                                 
      Prepared Statement of the Council of Western State Foresters

    The Council of Western State Foresters (CWSF) is pleased to submit 
the following testimony on the proposed fiscal year 2009 U.S. Forest 
Service Budget related to the funding of the State Fire Assistance 
program. The State Fire Assistance Program is funded through both State 
and Private Forestry and Wildland Fire Management under the U.S. Forest 
Service. The CWSF and the National Association of State Foresters 
(NASF) recommend that the fiscal year 2009 budget for the State Fire 
Assistance Program be funded at a combined $145 million.
    The Council of Western State Foresters supports NASF's fiscal year 
2009 Appropriations recommendation testimony that has been submitted to 
the U.S. Senate Committee on Appropriations Subcommittee on Interior, 
Environment, and Related Agencies. The State Fire Assistance program is 
of primary importance to the West. For this reason, the CWSF submits 
the below text from a letter sent to Congress on April 9, 2008 that 
highlights the SFA program and the broad and diverse support that has 
rallied around this USDA Forest Service program. A complete list of the 
organizations that support increased funding for the SFA program is at 
the bottom of the letter.
    Chairman Byrd, ranking member Cochran, Chairman Feinstein, and 
ranking member Allard: The respective organizations identified in this 
letter represent a coalition with the shared goal of improved State and 
community wildfire protection. This coalition was formed in early 2007 
to advocate on behalf of the State Fire Assistance Program (SFA). The 
SFA budget is funded through the U.S. Forest Service's State and 
Private Forestry (S&PF) and Wildland Fire Management budget areas. The 
program provides critical cost-share grants to State forestry agencies 
to facilitate wildland fire preparedness, by integrating State and 
private lands into landscape-scale fuel mitigation and planning.
    In recent years SFA has been the subject of recurring reductions 
proposed by the administration. The administration proposed a 30 
percent reduction in SFA for fiscal year 2007, a 14 percent reduction 
for fiscal year 2008 and a 25.5 percent reduction for fiscal year 2009. 
We appreciate that your committee has consistently provided stable 
appropriations in response to on-the-ground needs. This coalition again 
requests your leadership to restore and enhance SFA funding. The 
National Association of State Foresters has estimated SFA funding needs 
at $145 million for fiscal year 2009 to reflect current and emerging 
community wildland fire preparedness and protection needs. Although the 
diverse undersigned groups individually support varying levels of 
funding for SFA, all agree that the SFA program is a vital component of 
effective community wildland fire preparedness and mitigation.
    The State Fire Assistance Program is the fundamental Federal 
assistance program that States use to develop preparedness and response 
capabilities for wildland fire. Improved response efficiency provided 
through State Fire Assistance funding is critical to reducing 
suppression costs, which have continued to skyrocket, reaching over $1 
billion in 5 of the last 7 years. In fiscal year 2007, 12,080 
communities increased their capacity through local fire department 
training, upgrades of equipment and formation of new departments, due 
in large part to SFA funding. This training and capacity building has 
enhanced interagency coordination for wildland fire management on 
State, Federal, and private lands. Moreover, wildland-urban interface 
hazardous fuel reduction is a major component of the SFA program and 
funds have been used by communities to mitigate high-priority hazard 
fuel loads on over 470,000 acres within the Wildland Urban Interface 
(WUI).
    Lastly, SFA is an essential funding source for the development of 
Community Wildfire Protection Plans (CWPPs). As of 2007, thanks in part 
to significant SFA funding, over 4,700 communities at risk have 
developed CWPPs, a 46 percent increase over 2006. Many of these 
communities also received funding through SFA to accomplish their fire 
plans and implement fuels reduction priorities on both private and 
federal lands, as shown by the 3,814 communities that reduced risk 
through fuel mitigation and firewise activities.
    However, current analyses such as the SFA-funded Southern Wildfire 
Risk Assessment and the NASF report on SFA and Volunteer Fire 
Assistance (VFA) estimate that more than 51,612 communities are still 
at risk. At current funding levels, that would mean each of these 
communities would receive only about $1,560. In addition, Western State 
Fire Managers were only able to fund 47 of the 171 applications for 
mitigation assistance provided by SFA in fiscal year 2008. These 
examples clearly indicate a need for enhanced SFA funding.
    As you know, in 2001 the Secretaries of Agriculture and the 
Interior, western Governors, counties, State foresters and diverse 
stakeholders developed a 10-year collaborative strategy for reducing 
wildfire risk and improving forest health nationwide. The Strategy was 
updated by these partners in December, 2006 and calls for increasing 
collaboration between all levels of government and interest groups, 
improving fire prevention and suppression, reducing hazardous fuels, 
restoring ecosystems and promoting community assistance. These 
important goals are only achievable through substantial and sustained 
levels of funding for the State Fire Assistance program.
    In these fiscally constrained times, effective wildland fire 
management requires partnerships between agencies and communities. 
Funding hazardous fuels reduction on Federal lands is critical, 
especially when these lands are in the WUI. However, an exclusive focus 
on Federal lands is an incomplete solution and will ultimately 
undermine success. State and private lands must be considered through a 
landscape-scale approach to reduce hazardous fuels if we are to 
effectively meet the highest priority of federal fire policy--
protecting lives and communities threatened by wildland fire.
    The President's fiscal year 2009 budget proposes cutting the USFS' 
budget by 8 percent overall and includes a drastic 58 percent cut to 
the S&PF programs. Due to the reduced capability, effectiveness and 
size of the USDA Forest Service, a viable State Fire Assistance program 
is crucial to providing funding for necessary State and community 
wildfire protection. The very programs proposed for virtual elimination 
are the programs that can help reduce the wildland fire suppression 
costs straining the USFS' declining budget. Ever increasing emergency 
wildland fire suppression costs consume a larger portion of the USFS 
budget every year, and reduce investment in key S&PF programs, such as 
SFA. The USFS emergency wildland fire suppression budget problem needs 
to be solved in order to eliminate the drain on the S&PF programs, but 
a commitment to increased financial investment must also be part of the 
solution.
    We appreciate your continued leadership and support for the State 
Fire Assistance Program and respectfully request that you consider 
increased funding for State Fire Assistance in fiscal year 2009 in line 
with the needs outlined in the 10-Year Strategy.
    Allegheny Defense Project, Alliance of Forest Workers and 
Harvesters, American Forests, American Forest Foundation, American 
Lands Alliance, Applegate Partnership & Watershed Council, California 
Fire Safe Council, Center for Biological Diversity, Colorado Firecamp, 
Colorado Wild, Conservation Northwest, Denver Water, Environmental 
Protection Information Center, Firefighters United for Safety, Ethics, 
and Ecology, Flathead Economic Policy Center, Forest Landowners 
Association, Framing Our Community, Idaho Conservation League, Idaho 
Association of Counties, Idaho Fire Chiefs Association, International 
Association of Fire Chiefs, Klamath Forest Alliance, Klamath-Siskiyou 
Wildlands Center, Lomakatsi Restoration Project, National Association 
of Counties, National Association of Forest Service Retirees, National 
Association of State Foresters, National Woodland Owners, New Mexico 
Forest Industry Association, Republicans for Environmental Protection, 
Resource Innovations, Salmon Valley Stewardship, Siskiyou Project, 
Society of American Foresters, Sustainable Northwest, Swan Ecosystem 
Center, Taos Pueblo Department of Natural Resources, The Forest Guild, 
The Lands Council, The Nature Conservancy, The Wilderness Society, 
Watershed Research and Training Center, Western Governors' Association, 
WildEarth Guardians, and WildWest Institute.
                                 ______
                                 
                    Prepared Statement of Dance/USA

    Madame Chairman and distinguished members of the subcommittee, 
Dance/USA is grateful for this opportunity to submit testimony on 
behalf of our members across the United States. We urge the committee 
to designate a total of $176 million to the National Endowment for the 
Arts (NEA) for fiscal year 2009. This testimony is intended to 
highlight the importance of the Federal investment in the arts to 
sustaining a vibrant cultural community and to our national character.
    Dance/USA, the national service organization for not-for-profit 
professional dance, believes that dance is essential to a healthy 
society, demonstrating the infinite possibilities for human expression 
and potential, and facilitating communication within and across 
cultures. Dance/USA sustains and advances professional dance by 
addressing the needs, concerns, and interests of artists, 
administrators, and organizations. By providing services and national 
leadership, Dance/USA enhances the infrastructure for dance creation, 
education and dissemination. To fulfill its mission, Dance/USA offers a 
variety of programs, including data research and regional professional 
development, and works with organizations within and outside the arts 
field with whom common goals are shared. Dance/USA's membership 
currently consists of over 350 ballet, modern, ethnic, jazz, culturally 
specific, traditional and tap companies, dance service and presenting 
organizations, artist managers, individuals, and other organizations 
nationally and internationally. Dance/USA's member companies range in 
size from operating budgets of under $100,000 to over $50 million.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The Arts Endowment has 
helped strengthen regional theater, opera, ballet and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographical limitations. The endowment embodies the ideal that no 
one should be deprived of the opportunity to have art in their lives. 
The Arts Endowment has helped the arts become accessible to more 
Americans, which in turn has increased public participation in the 
arts.
    Despite diminished resources, the NEA awards more than 1,000 grants 
annually, to nonprofit arts organizations for projects that encourage 
artistic creativity. These grants help nurture the growth and artistic 
excellence of thousands of arts organizations and artists in every 
corner of the country. NEA grants also preserve and enhance our 
Nation's diverse cultural heritage. The modest public investment in the 
Nation's cultural life results in both new and classic works of art 
reaching all 50 States.
    NEA grants are instrumental in leveraging private funding. On 
average, each NEA grant generates at least eight dollars from other 
sources. Government cultural funding plays a catalytic leadership role 
that is essential in generating private support for the arts.
The NEA is a great investment in the economic growth of every community
    The return of the Federal Government's small investment in the arts 
is striking.
    The nonprofit arts industry generates $166.2 billion annually in 
economic activity, supports 5.7 million full-time equivalent jobs, and 
returns $12.6 billion to the Federal Government in income taxes. 
Measured against direct Federal cultural spending of about $1.4 
billion, that's a return of nearly nine to one. Few other federal 
investments realize such economic benefits, not to mention the 
intangible benefits that only the arts make possible. Even in the face 
of tremendous cutbacks in recent years, the NEA continues to be a 
beacon for arts organizations across the country.
NEA Grants at Work
    NEA grants are awarded to dance organizations through its core 
programs: Access to Artistic Excellence; Challenge America: Reaching 
Every Community; Federal/State Partnerships; and Learning in the Arts, 
as well as through initiatives such as American Masterpieces: Dance. 
The following are some examples of the impact of NEA funding on dance 
programs in 2008 from the NEA's 2008 Access to Artistic Excellence 
Program:
Headlong Dance Theater
    Philadelphia, PA
    $10,000
    To support a choreographic lab with choreographer Tere O'Connor and 
the creation of a new work by Headlong Dance Theater's co-artistic 
directors. O'Connor will teach Headlong Dance Theater his strategies 
and language for composition, dance dramaturgy, and movement invention.
Jacob's Pillow Dance Festival, Inc.
    Becket, MA
    $70,000
    To support residencies and performances of dance companies. The 
project will include a Creative Development Residency, presentation of 
national and international dance companies, and audience engagement and 
educational programs.
NewArt New Mexico, Inc.
    Albuquerque, NM
    $10,000
    To support the Global DanceFest 2009, an annual festival of 
national and international contemporary dance. The 2009 festival, 
titled 60 North, will celebrate contemporary dance and dance theater 
from Scandinavia, Russia, and Canada.
Pacific Northwest Ballet Association
    Seattle, WA
    $30,000
    To support the presentation of comedic works by established and 
emerging choreographers during the Comedy Festival. There will be a 
variety of outreach events including lectures, demonstrations, and 
question-and-answer sessions with dancers and artistic staff.
The Non-Profit Professional Dance Community
    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And, yet, America can boast some of the greatest dance 
companies of the world and can take credit for birthing two indigenous 
dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970's, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. NEA programs today, 
like the National College Choreography Initiative, continue to ensure 
that the best of American dance is for all of America and a showpiece 
for the rest of the world as well. In 2005, the State Department 
collaborated with Dance/USA to replicate on a smaller, targeted scale 
the National College Choreography Initiative in five Middle Eastern 
countries. It was a great success. There are now over 600 professional 
dance companies in America as well as over 1,000 pre-professional and 
semi-professional groups. Based on recent surveys, Dance/USA estimates 
that the 81 largest and most visible non-profit dance companies in the 
United States do the following:
  --Employed over 6,000 people in a mix of full-time and part-time 
        positions;
  --Performed for total home audiences of nearly 2.9 million people;
  --Paid approximately $237.5 million in wages and benefits;
  --Had operating expense budgets totaling $452.2 million;
  --Earned $156.7 million, or 38 percent of their income, from 
        performances;
  --Earned $76.2 million from sales, tuitions and activities other than 
        performances;
  --Received $16.7 million, from state, local and government 
        contributions;
  --Received $21.6 million from corporate contributions;
  --Received $46.2 million from private foundations;
  --Received $98.7 million from individual contributions through 
        donations, benefit events, guilds, and United Arts drives; and
  --Had over 24,300 volunteers, including over 2,700 members of Boards 
        of Trustees.

                               CONCLUSION

    Despite overwhelming support by the American public for spending 
federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, and its programs are 
seriously underfunded. Dance/USA and other performing arts service 
organizations work hard each year to strengthen support for the NEA in 
Congress. As the NEA banner underscores, ``a great nation deserves 
great art.'' Last year, Congress began to lay the foundation for full 
restoration of the agency with a $20.3 million increase for the NEA. 
However, in order for there to be great art, organizations need 
stronger infrastructure and stability. Therefore, we urge you to 
increase the fiscal year 2009 NEA funding allocation to $176 million.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife

    Madam Chairman, ranking member and members of the subcommittee, 
thank you for the opportunity to submit this testimony for the record. 
I am Mary Beth Beetham, Director of Legislative Affairs for Defenders 
of Wildlife. Founded in 1947, Defenders of Wildlife has more than 1 
million members and activists across the Nation and is dedicated to the 
protection and restoration of wild animals and plants in their natural 
communities.
    Defenders continues to be greatly concerned that the U.S. Fish and 
Wildlife Service (FWS) and the wildlife related programs in other 
natural resource management agencies have reached a breaking point. The 
President's budget again cuts funding for lands and wildlife. Bright 
spots such as ``Safe Borderlands'' and ``Birds Forever'' are paid for 
by cuts in other programs, with the result a net conservation loss. We 
deeply appreciate increases provided by the subcommittee in S. 1696, 
the fiscal year 2008 Senate the Interior, Environment and Related 
Agencies appropriations bill and are also very grateful for the 
increases that were maintained in the final omnibus bill after 
negotiations with the administration reduced the subcommittee's 
allocation. Funding provided has begun to stabilize our land and 
wildlife programs. However, significant additional amounts will be 
needed in the coming years to reverse the damage to the FWS and other 
agencies, to make them once again whole and critically important, to 
equip them to deal with the growing crisis of climate change. We know 
that the subcommittee must operate within the constraints of its 302(b) 
allocation, but we ask you to do as much as possible. Defenders has 
again worked during the development of the fiscal year 2009 
congressional budget resolutions to support the environment and natural 
resources budget function, and we will continue to do so in the coming 
years.
    We urge the subcommittee to continue to rebuild the FWS workforce 
which has suffered substantial losses, nearly 800 staff from 2004-2007, 
an 8 percent reduction. We are particularly concerned about the loss of 
biological capability.
  --The endangered species program continues to experience a 30 percent 
        overall vacancy rate, yet the president's fiscal year 2009 
        budget cuts the program by $3.7 million, 2.5 percent.
  --The National Wildlife Refuge System has lost 300 staff and will 
        eliminate at least another 250 if funding increases are not 
        forthcoming. A comprehensive staffing model developed by the 
        International Association of Chiefs of Police recommended 840 
        law enforcement officers for the System which currently can 
        afford only 180 full time officers.
  --The Office of Law Enforcement (OLE) is down to 191 special agents 
        down from a high of 238 in 2002, far below the authorized level 
        of 260, and is expected to lose another 20 to 25 through 
        retirement in the next year. The OLE also is in desperate need 
        of both scientists for its world renowned wildlife crime 
        forensics laboratory and port inspectors.
  --In the International Wildlife Trade Program, under International 
        Affairs, the Division of Scientific Authority's already small 
        staff continues to be short by one third and the Division of 
        Management Authority still suffers a 15-20 percent staffing 
        shortfall. Still, the President's budget cuts International 
        Affairs by $1.2 million, 10.3 percent. In addition, the 
        important International affairs program is currently buried in 
        the General Operations Activity--Defenders recommends that it 
        be moved and given equal status with other programs such as 
        Migratory Birds and OLE.
    We urge the subcommittee to continue its effort to fully fund 
agency fixed costs which typically increase by 3-5 percent yearly and 
to restore the integrity of the National Wildlife Refuge System, one of 
the crown jewels in our Nation's conservation heritage. The fiscal year 
2007 and 2008 bills took excellent first steps in correcting the damage 
done by years of funding below fixed costs that had forced severe 
erosion of programs. We deeply appreciate the nearly $40 million 
increase provided in the final fiscal year 2008 bill which has given 
the Refuge System breathing room to put on hold plans for massive staff 
downsizing; however, with the $434.1 million level in the request, 
refuges still would slide backward. The Refuge System needs $15 million 
each year just to keep pace with fixed costs, and the inflation 
adjusted level for the peak funding achieved in fiscal year 2004, now 
totals $466 million. Moreover, even if fixed costs were fully funded, 
the FWS still would not have the resources to ensure that the System 
envisioned in the landmark 1997 National Wildlife Refuge System 
Improvement Act would be realized. Defenders supports the 
recommendation of the Cooperative Alliance for Refuge Enhancement, a 
diverse coalition of 22 national conservation, sporting, and scientific 
organizations for a yearly level of $765 million for Refuge Operations 
and Maintenance by fiscal year 2013 and, to make progress toward this 
goal, $514 million for fiscal year 2009.
    To address the needs of our Nation's most vulnerable plants and 
animals, we urge the subcommittee to rebuild the FWS endangered species 
program. The budgets of this administration have further damaged this 
most important of programs that already was suffering from chronic 
funding shortfalls. Currently, 280 candidates await proposal for 
protection under the Endangered Species Act--many have been candidates 
for years. Further, the loss of staff has left the FWS without the 
needed biological capability to oversee recovery of listed species, to 
adequately address the workload of consultations, or to effectively 
monitor hundreds of Habitat Conservation Plans covering millions of 
acres.
    We urge the subcommittee to provide increases to important FWS 
grant programs where it will not take needed funding from core 
operations, and continue to provide direction that maximizes their 
efficiency. Our highest priorities among the grant programs are the 
State and Tribal Wildlife Grants (STWGP) and the Cooperative Endangered 
Species Fund. The STWGP was established to serve the federal interest 
by conserving species before they decline to the point where they need 
Endangered Species Act protection. We appreciate the subcommittee's 
strong oversight of the implementation of the Action Plans created 
through STWGP and ask that it be continued.
    We urge the subcommittee to continue efforts to refocus the Bureau 
of Land Management (BLM) on its multiple use mission, and, in 
particular, halt the diversion of wildlife program resources to support 
energy and other programs. We appreciate language in the final fiscal 
year 2008 bill that attempts to limit the amount of appropriated 
dollars devoted to energy development on BLM lands and to address the 
diversion of resources from wildlife programs to pay for compliance 
activities of BLM's energy, grazing and other non-wildlife related 
programs, which should instead come from benefiting programs. 
Unfortunately, no information has emerged to suggest that the situation 
has been rectified. This practice significantly undermines the wildlife 
programs which already are grossly underfunded; for example, more than 
$60 million is needed annually just to implement actions assigned to 
BLM in recovery plans for listed species, and the recent court action 
overturning the FWS decision failing to list the sage grouse under the 
Endangered Species Act will likely lead to a need for substantially 
increased resources for its protection. Moreover, the diversion of 
resources has increased the importance of the Challenge Cost Share 
program, with reports that it is the primary means through which 
proactive wildlife conservation work is accomplished. In addition, we 
strongly support the Native Plant Materials Development program which 
will become more crucial in the face of the climate change threat and 
recommend that the subcommittee examine the need for a separate Plant 
Conservation Activity or Subactivity under Management of Lands and 
Resources.
    We urge the subcommittee to continue restoration of the Land and 
Water Conservation Fund (LWCF). Habitat loss is one of the main threats 
to wildlife and will be greatly exacerbated by climate change. 
According to a recent Forest Service report, ``Cooperating Across 
Boundaries--Partnerships to Conserve Open Space in Rural America,'' the 
United States loses 6,000 acres of open space a day. The administration 
has repeatedly cut LWCF funding by increasingly greater levels each 
year, and even though the unspent balance in the Fund on paper exceeds 
$16 billion, proposed just $50 million for fiscal year 2009, more than 
67 percent below fiscal year 2008.
    We urge the subcommittee to give attention to addressing impacts of 
illegal immigration and related enforcement on sensitive land and 
wildlife resources along the border. We support the administration's 
``Safe Borderlands'' initiative; however we believe greater increases 
are needed to adequately address the situation. To date, there has been 
no assessment by the land management agencies of the costs to fully 
address the situation--we ask the subcommittee to include language in 
the bill requesting this information. In addition, the Department of 
Homeland Security (DHS) is expediting plans to start construction of 
border walls in Texas that will have devastating impacts on one of the 
most biologically diverse areas in America, including the Lower Rio 
Grande Valley National Wildlife Refuge, in which approximately $90 
million and three decades has been invested purchasing land and 
restoring habitat for ocelots, jaguarundi and other rare wildlife and 
plants. Recently, DHS has begun to pursue an even more damaging 
alternative formerly dismissed in a Draft Environmental Impact 
Statement (EIS) to build a wall into the existing levee without 
revising the EIS, doing hydrologic modeling, or formally consulting on 
impacts to refuges or endangered species. On April 3, 2008, DHS 
Secretary Chertoff issued a sweeping waiver of 36 Federal laws along 
470 miles of the SW border to expedite wall construction. We ask the 
subcommittee to do everything in its power to protect its investment in 
the refuge by working with the DHS appropriations subcommittee to 
ensure that a thorough assessment to select the least harmful 
alternative and full mitigation plan is completed before any 
construction proceeds.
    We urge the subcommittee to reject the proposed cut to Forest 
Service (FS) Wildlife and Fisheries Habitat Management. Although more 
than 425 listed species and 3,200 at-risk species occur on FS lands, 
the budget proposes a 10.6 percent cut ($14 million) and reduction of 
130 staff.
    We urge the subcommittee to restore the integrity of the U.S. 
Geological Survey (USGS) Cooperative Fish and Wildlife Research Units. 
One fifth of all CFWRU scientist positions 24 are vacant due to erosion 
of funding since fiscal year 2001. The Research Units provide critical 
scientific capability to the four land management agencies, yet the 
president's budget reverses the fiscal year 2008 $1 million increase 
provided by the subcommittee.
    We are deeply grateful for the establishment of the National Global 
Warming and Wildlife Science Center (Center). We ask that you maintain 
your support for this important new initiative. The new Center will be 
a critical front in the battle to help wildlife adapt to climate 
change, supporting research needs of both federal and state agencies in 
dealing with a threat in which we have no analogous experience. While 
the subcommittee allocated up to $2.5 million for fiscal year 2008 for 
the Center, we were disappointed to find that the administration has 
allocated only $1.5 million and has requested only that amount for 
fiscal year 2009. We urge $10 million for fiscal year 2009. In 
addition, comprehensive bills are moving forward that likely will 
dedicate significant sums to the natural resource agencies for climate 
change adaptation; the agencies need to start planning now to spend 
these sums strategically and effectively. We ask the subcommittee to 
include funding and specific direction for the development of a 
national strategy to ensure a coordinated interagency framework to 
address impacts of climate change on fish, wildlife, and habitat.

           RECOMMENDED FISCAL YEAR 2009 PROGRAM FUNDING LEVELS
                        [In millions of dollars]
------------------------------------------------------------------------
                                          President's      Recommended
                Program                     request           level
------------------------------------------------------------------------
FWS Endangered Species Total..........            146.8            185.2
Candidate Conservation................              8.7             12
Listing...............................             18.2             25.2
Recovery..............................             68.4             84.8
Consultation..........................             51.6             63.2
FWS National Wildlife Refuge O&M......            434.1            514
FWS Office of Law Enforcement.........             57.4             69.5
FWS Migratory Bird Management.........             53.2             53
FWS International Affairs.............             10.3             20.4
FWS State and Tribal Wildlife Grants..             73.8            100
FWS Cooperative Endangered Species                 75.5             96.2
 Fund.................................
FWS Multinational Species Conservation              4.3             12
 Fund.................................
FWS Neo-tropical Migratory Bird Cons.               4                6
 Fund.................................
BLM Wildlife and Fisheries............             43.8             65.4
BLM Threatened and Endangered Species.             20.6             29.9
BLM Native Plants.....................              4.6             15.8
BLM Challenge Cost Share..............              9.2             19.3
FS Wildlife and Fisheries Habitat                 118              176.5
 Management...........................
USGS Coop. Fish and Wildlife Research              15.4             19.4
 Units................................
USGS National Global Warming Wildlife               1.5             10
 Ctr..................................
Land and Water Conservation Fund......             50         \1\ 403
------------------------------------------------------------------------
\1\ $278 Federal and $125 stateside.

                                 ______
                                 
        Prepared Statement of the Delaware Highlands Conservancy

    Madam Chairman and honorable members of the committee: I appreciate 
the opportunity to testify on behalf of an important Land and Water 
Conservation Fund request of $1.4 million to allow National Park 
Service acquisition of the 96-acre Santos Farm property within the 
legislated boundary of the Delaware Water Gap National Recreation Area.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    The Delaware Highlands Conservancy is a non-profit land trust 
dedicated to working with landowners, other conservation organizations 
and local and State government to conserve the natural and cultural 
heritage of the Upper Delaware River region. Specifically the 
Conservancy serves Pike and Wayne Counties in PA, as well as Sullivan 
and Delaware Counties, NY. We are members of the National Land Trust 
Alliance and follow their best management standards and practices.
    To date the Conservancy has helped landowners protect over 10,000 
acres for the benefit of future generations. Located within easy 
driving distance of the Nation's most populous metropolitan area, New 
York City, and within a 5-hour drive of one-third of the population of 
the United States, the primary industry in this area is tourism.
    Protecting our natural areas is of vital economic importance to the 
region. The Pocono Mountain Visitors Bureau (PMVB), reports that the 
travel and tourism industry produces $1.073 billion in expenditures to 
the four primarily rural counties they serve. The Bureau recently 
completed extensive research with visitors and determined that the top 
values were: preservation of the natural environment; preservation of 
the authentic small town charm; and responsible development.
    A coalition of diverse groups--including local elected officials, 
the Pike County Commissioners, local planning commissions, watershed 
groups, the Conservancy, and like-minded organizations--have identified 
key parcels in the region that need to be protected to maintain the 
scenic rural character. The Santos Farm is viewed by all to be a 
critical component of the landscape and critical for protection.
    Please allow me to provide some background on the area. After 
flowing south to Port Jervis, New York, the Delaware River turns along 
the long ridge of the Kittatinny Mountain. For 40 miles the River runs 
southwest in a valley confined by the Kittatinny Mountain in New Jersey 
and the Pocono Mountains in Pennsylvania. Just east of Stroudsburg, the 
river breaks through the Kittatinny Mountain creating a dramatic 
``water gap'' in the ridge. The forested and craggy mountains on both 
sides of the Delaware River tower over it by more than 1,200 feet.
    Geologists believe the water gap was created by separate rivers on 
both sides of the Kittatinny Mountain. For thousands of years the two 
rivers, assisted by wind and rain, eroded the mountain, carrying away 
more earthly material at weak spots in the rock than at stronger spots. 
Several million years ago, the rivers linked at a particularly weak 
spot in the mountain's geology. This action created both the water gap 
and the current Delaware River. The creation of the water gap increased 
erosion by the more powerful single river, which led to the dramatic 
chasm that is today referred to as the Delaware Water Gap.
    In the 1960s the Army Corps of Engineers planned to dam the 
Delaware River and create the Tocks Island Reservoir. Congress approved 
the proposal in 1965 and instructed the Corps and the Interior 
Department to acquire lands around the proposed reservoir for ``public 
outdoor recreation use and enjoyment of the proposed Tocks Island 
Reservoir . . . and for preservation of the scenic, scientific, and 
historic features contributing to public enjoyment of such lands and 
waters.'' This 1965 legislation created the present Delaware Water Gap 
National Recreation Area, covering nearly 70,000 acres in New Jersey 
and Pennsylvania. However, controversy over the dam blocked its 
construction for nearly 15 years. Many critics found the two purposes 
of the authorizing law, damming the River and preserving the land and 
water, contradictory.
    Congress resolved the issue by designating the portion of the 
Delaware River within the Recreation Area as a National Wild and Scenic 
River, ending the possibility of building a dam and making the 
conservation of the natural, recreational, historical, and cultural 
attributes of the water gap and the River valley the primary mission of 
the park.
    Today the Delaware Water Gap National Recreation Area is a natural 
and recreational treasure in the mid-Atlantic section of the 
Appalachians Mountains. It is the largest park unit between Maine and 
Virginia. Its proximity to the metropolitan areas of northern New 
Jersey, New York City, and Philadelphia places it within reach of tens 
of millions of people. Its accessibility to these populations--
Interstate 80 runs through the water gap--brings more than 5 million 
annual visitors. Attractions include scenic viewpoints in the water gap 
on I-80 and in the valley along US 209, waterfalls, hiking, biking, 
rock climbing, horseback riding, hunting, fishing, camping, canoeing, 
kayaking, rafting, tubing, swimming, wildlife observation, and the 
opportunity to learn about the many historical and cultural sites in 
the park. River recreation and wildlife thrive on the exceptionally 
clean waters of the Delaware River throughout the valley. Additionally 
the Recreation Area includes 27 miles of the Appalachian Trail.
    Within the legislative boundary, there are a number of privately 
owned properties that could be potentially sold for development. 
Acquisition of these inholdings from willing sellers allows the 
National Park Service to consolidate ownership and improve management 
of forest, wildlife habitat, and recreational resources. In fiscal year 
2009 the National Park Service has the opportunity to acquire the 96-
acre Santos Farm property in Milford, Pike County, Pennsylvania.
    The Santos Farm property is located along the Delaware River at the 
northern end of the National Recreation Area. The property is one of 
the last undeveloped farmland tracts in Pike County and provides 
significant wildlife habitat. Milford Borough, Township, and county 
officials have expressed strong support for protecting this property. 
If developed, the loss of scenic, recreational, and habitat resources 
would be significant.
    The Delaware Highlands Conservancy together with the Pike 
Conservation Partnership, a coalition of non-profit organizations and 
local and state agencies, and the Pike County Commissioners have 
identified the Santos Farm as a high priority property for 
conservation. And, Pike County voters recently approved the Scenic 
Rural Character Preservation Bond for the protection of natural areas 
in the County, with a yes majority of 68.2 percent. Support for the 
conservation of this land is high, but there are insufficient funds 
locally to raise the entire purchase price.
    An appropriation of $1.4 million to the National Park Service for 
the acquisition of the Santos Farm property would consolidate ownership 
and improve management of forested areas within the park, protect 
wildlife habitat, enhance local park and trail networks, and protect 
the watershed of the Delaware River within the National Recreation 
Area.
    Madam Chairman, and distinguished subcommittee members, I wish to 
thank you for this opportunity to provide testimony in support of this 
critical land acquisition funding need at the Delaware Water Gap 
National Recreation Area.
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School

------------------------------------------------------------------------
                                                           Requested
------------------------------------------------------------------------
Indian School Equalization Formula..................       $382,783,800
Administrative Cost Grants..........................         53,000,000
Student Transportation..............................             ( \1\ )
------------------------------------------------------------------------
\1\ $3.15 per mile.

    My name is Eugene Guerito. I am the President of the School Board 
which operates the Dzilth-Na-O-Dith-Hle Community Grant School on the 
Navajo Reservation in Bloomfield, New Mexico. I know that many non-
Navajos have difficulty pronouncing our School's name, so if you wish, 
you may call us the ``DCGS School.'' With me is Faye BlueEyes, our 
School's Finance Director. I asked her to address the committee with me 
because of her extensive knowledge of the financial needs of the BIA 
school system for Indian children.
    Our School offers K-8 academic programs and residential programs 
for students in grades 1-12, but the residential students in grades 9-
12 attend the local public school. Currently, 235 students are enrolled 
in our academic program, and 47 students are housed in the campus 
dormitories. Our all-Navajo Board operates the School through a Grant 
issued by the Bureau of Indian Education (BIE) under the Tribally 
Controlled Schools Act.
    Let me get right to the point. The administration's budget request 
for BIE school operations betrays us and our children. How can the 
Federal Government demand that our students make Adequate Yearly 
Progress under No Child Left Behind Act mandates yet withhold the 
financial resources we need to meet these goals? The United States also 
made a commitment to support tribal control of education through laws 
such as the Indian Self-Determination Act and the Tribally Controlled 
Schools Act. But BIA and BIE consistently violate this commitment by 
poorly funding the administrative costs we incur when we exercise the 
option to take over direct program operations under the Federal Indian 
self-determination policy.
    I urge the committee to take steps to meet the Federal Government's 
obligations to the Indian children in the school system it created for 
them. Ms. BlueEyes will describe specific parts of the BIE budget most 
in need of your attention.
    Administrative Cost Grants.--BIE seeks no increase for 
Administrative Cost Grants, the account that is supposed to provide 
funding for the administrative costs incurred in tribal operation of 
school programs. Five more schools will convert to tribal operation in 
SY 2009-2010 (the school year funded by this budget request). This 
means that instead of the 125 schools now being supported by the $43.4 
million AC Grant budget, 130 schools will have to be supported by that 
same amount. The budget request does not tell you that in the current 
school year, BIE was only able to supply 65.7 percent of the funding 
required by the formula for calculation of AC Grants set out in Federal 
law (25 USC 2008). With 5 more schools in the mix, the percentage paid 
will probably drop below 60 percent.
    Yet our administrative cost obligations continue to increase--in 
critical areas such as financial management, property management, 
insurance, grant management, auditing, legal and security. Right now we 
are only able to afford 2.25 employees for our Business Office, a 
situation which jeopardizes our internal controls system. A further cut 
could make compliance with minimum standards for internal control 
impossible.
    At the same time that BIE ignores its responsibility to supply 
proper administrative funding to tribally-operated schools, it asks you 
to provide an additional $1.5 million for its own administrative 
costs--to cover severance pay for the Federal employees who now work at 
the 5 schools that will convert to tribal operation. We think this 
additional $1.5 million should be used for AC Grants, and that BIE 
should have to do what schools have to do when they have insufficient 
funding: re-direct funds from other parts of its budget. Certainly it 
should be easier for the Department of the Interior, with its multi-
billion dollar budget, to absorb these severance costs than it is for 
small tribally-operated schools who constantly have to make do with 
less. It is so discouraging that the agency responsible for educating 
Indian children thinks only about its own needs, not the needs of the 
our school system.
    Full funding of the BIE's AC Grant obligation would require at 
least $66 million. If this is impossible to achieve in this budget 
year, please consider supplying at least $53 million to get us close to 
the 80 percent level and then close the remaining gap next year.
    Student Transportation.--We thank Congress for supplying more funds 
for student transportation last year. That was the first meaningful 
increase we've had for many years. At our School, the transportation 
budget fell short by nearly $13,000 last year. We had no choice but to 
use education funds from the ISEF to make up the shortage. If we cannot 
get students to school, we cannot educate them.
    Here again our costs are ever increasing--for fuel, bus repairs and 
bus driver salaries. In our area of New Mexico, diesel fuel now costs 
over $4/gallon. A fill-up that a year ago cost $115 now runs $200. Our 
buses travel 100 miles round-trip per day. Much of their routes are 
over very rough dirt roads which enormously increases the cost of 
vehicle maintenance. Plus, we compete with the local oil field for 
drivers with the required CDL licenses. This means we must offer 
competitive bus driver salaries or we lose the ones with needed 
credentials.
    Please do not agree to cut Student Transportation by $1 million as 
the BIE suggests. BIE estimates its request would cut the per-mile 
funding to $2.87, but we have to question whether this estimate would 
still be valid in July, 2009, when SY 2009 begins. Who can really 
predict what fuel prices will be that far in advance? Instead, please 
increase funding to a level that enables us to receive $3.15 per mile 
so that we can better cover our ever-increasing costs.
    Indian School Equalization Formula (ISEF).--The ISEF is our biggest 
and most important account. It must supply funding for teachers, 
teacher aides and all other parts of our educational program as well as 
for a full complement of personnel to supervise and safeguard children 
who live in the dormitories. Sadly, ISEF funds must also be diverted to 
make up shortages in other areas such as in student transportation, as 
I mentioned.
    We are very disappointed that the BIE request seeks additional ISEF 
funds only for ``fixed costs'' and actually shows a cut for program 
costs. The request of $364.5 million is only 5.3 percent higher than 
the appropriation for fiscal year 2003--the first budget submitted 
after the No Child Left Behind Act was passed.
    Our School Board and staff are totally committed to the goals of 
NCLBA. We want to see all of our students perform at the ``proficient'' 
level. But in the BIE system, this is merely a dream, not the reality. 
Students in the BIE-funded school system produce some of the lowest 
achievement scores in the nation. Last year, nearly 2/3 of them scored 
in the lowest achievement category--``basic''--in reading. In 
mathematics, 70 percent of BIE system students were categorized as 
``basic''.
    Our School and other tribally-operated schools face many enormous 
roadblocks in our efforts to improve student achievement:
  --Low ISEF funding puts us at the bottom of teacher pay scales which 
        means we can't effectively compete for qualified teachers with 
        public schools, and certainly cannot compete with BIE-operated 
        schools which have to pay at Federal wage rates.
  --We fund professional development opportunities for teachers, but 
        often lose this investment when the additional skills they 
        acquire qualify them for better-paying jobs at other schools. 
        Then we have to start all over again with our professional 
        development programs.
  --Teacher recruitment is also adversely impacted by the remoteness of 
        and poor housing options in reservation communities. We have to 
        supply on-campus housing for teachers, but these quarters units 
        are old, unattractive and lacking in basic comforts.
  --Many school buildings are old, in disrepair, and incapable of 
        supporting modern educational technology as they were not built 
        with computer cabling in mind.
  --Our children face many impediments to learning such as poverty, 
        poor housing, poor nutrition and long distances between home 
        and school. Many Navajo children also face the challenges of 
        learning english as a second language.
    I recite these conditions to help you understand why we need a 
significant increase in ISEF funding. We not only need better ISEF 
funding now, we need a commitment to recurring appropriate levels of 
support year after year. That's the only way we will have a chance to 
recruit high quality teachers and keep them. Student achievement occurs 
in the classroom. That means recruitment and retention of high quality 
teachers.
    Improving ISEF resources is also the only way we will be able to 
afford the professional staff needed to implement innovative teaching 
models, especially those with lower teacher-to-student ratios. For 
example, to increase focus on reading skills, our School recently 
adopted a Reading First program and incorporated components of 
``Response to Intervention'' for special education and ``Walk to 
Read'', a strategy where students walk to another classroom for 
specialized reading instruction in small, performance-level groups. It 
is too early to evaluate the results of these strategies, but both 
staff and parents are encouraged by the program. We can only continue 
it, however, if we are able to supply the additional staffing, 
instructional materials and teacher training it requires.
    We ask the Committee to increase ISEF funding by at least 5 
percent--to $382,783,800.

         FOOD SERVICES AND FACILITIES OPERATION AND MAINTENANCE

    Our costs for food services were over-budget by $84,000 this year. 
While we receive student meal funding from USDA, it is not enough to 
cover the cost of 220 lunches per day for day students and the three 
meals per day for residential students. Thus we had to take money from 
the ISEF--both education and residential budgets--to cover the 
shortfall.
    We could devote our entire testimony to facilities issues. I will 
be brief, however, and just tell you that on a daily basis we deal with 
many problems in our 40-year-old school buildings: inadequate plumbing, 
heating and cooling systems; electrical systems that are not capable of 
supporting today's educational technology; and un-safe conditions on 
sidewalks, playground and bus loading areas. For many years, the 
facilities operations funding has been so low that it is routinely 
``constrained''. This is BIE-speak for supplying only a percentage of 
the amount needed by each location. This year the budget is 
``constrained'' to 51.87 percent. Most of our facilities operations 
budget is used to pay utility bills as we must pay those at 100 
percent, not 51.87 percent.

                               CONCLUSION

    As long as woefully inadequate support for the BIE school system 
persists, the objective of NCLBA remains only a dream--and a broken 
promise. For our schools, Congress is the equivalent of the county 
government and state legislature, the two sources of basic financial 
support for public schools. We hope this Congress will produce a better 
school operations budget than the one proposed by the Bureau of Indian 
Affairs. Should you have any further questions, you may contact either 
of us via phone at 505.632.1697 or you can reach Ms. Blue Eyes via 
email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4449555b43414d42141b181d1b6c554d444343024f434102">[email&#160;protected]</a> Thank you for helping our Indian 
children.
                                 ______
                                 
   Prepared Statement of the Emissions Control Technology Association

                              INTRODUCTION

    Thank you for the opportunity to provide written testimony 
proposing fiscal year 2009 funding for EPA's Diesel Emission Reduction 
Act (DERA) program at $70 million and for the EPA's State and local 
quality grants program at $270 million.
    My name is Tim Regan. I'm the president of the Emissions Control 
Technology Association (ECTA) and an executive with Corning 
Incorporated. ECTA is a trade association that promotes public policies 
to improve air quality by reducing mobile source emissions through the 
use of advanced technologies.
    ECTA represents the companies that have been at the cutting edge of 
mobile source emissions control technology for three and a half 
decades. Our members invented and developed the core, specifically the 
substrate and the catalyst, of the catalytic converter. Our technology 
has had a profound impact on the environment both here and abroad, 
removing 1.5 billion tons of pollution from American skies and 3 
billion tons of pollution worldwide since 1975.\1\
---------------------------------------------------------------------------
    \1\ See Corning Press Release citing the Manufacturers of Emission 
Controls Association (MECA) (February 15, 2005), http://
www.corning.con/environmentaltechnologies/media-center/press-releases/
2005021501.aspx.
---------------------------------------------------------------------------
    Thirty years ago, when the catalytic converter was first 
introduced, our industry was faced with the challenge of reducing 
nitrogen oxides from the transportation sector. Today, the challenge is 
to reduce the black smoke and smell from diesel exhaust. Once again, 
our industry has risen to the challenge by developing a full range of 
devices, commonly known as ``after-treatment'' technology that remove 
fine particulate matter and other pollutants in diesel exhaust.
    Our technology is required equipment on all new on-road heavy duty 
vehicles entered into service after January 1, 2007. This will make a 
significant contribution toward cleaner air and better health. In fact, 
EPA estimated at the time the so-called 2007 Heavy Duty Rule was 
promulgated that the technology would generate $66 billion in economic 
and health benefits annually when the new vehicles significantly 
penetrated the fleet after the year 2020.\2\
---------------------------------------------------------------------------
    \2\ See Environmental Protection Agency (July 7,2005), ``2007 
Heavy-Duty Highway Final Rule,'' i.e. http://www.epa.gov/OMSWWW/
diesel.htm.
---------------------------------------------------------------------------
    Obviously, there is a cost associated with installing this 
equipment on new vehicles, but the payoff is significant. EPA estimates 
that for every dollar spent on the technology $16 of economic benefit 
will be generated.\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
                             THE CHALLENGE

    The challenge before us now is how to retrofit this new technology 
onto existing vehicles and engines that are being used today. These 
vehicles and engines do not have the emissions control technology that 
is required for new vehicles. Consequently, they are the ``dirtiest'' 
diesel devices in use, and there are a lot of them.
    EPA estimates there are currently 11 million heavy duty diesel 
engines in use today. This compares to about 500,000 new clean diesel 
engines that are normally put in to use annually. In other words, there 
are 22 existing engines in the fleet for every new clean diesel engine 
that is added each year.
    Because diesel engines are so durable, the existing equipment in 
the fleet will not be fully replaced until the year 2030.\4\ The best 
way to clean up these 11 million vehicles and engines is to retrofit 
them with the same kind of technology that is being installed in new 
ones. This retrofit equipment could include after-treatment devices, 
such as a diesel particulate filter or a diesel oxidization catalyst. 
It also could include vehicle replacement, engine replacement, engine 
rebuilds, and engine repair.
---------------------------------------------------------------------------
    \4\ See Senator Voinovich Press Release (June 16, 2005), http://
voinovich.senate.gov/news_center/record.cfm?id=238996&.
---------------------------------------------------------------------------
    Unfortunately, the cost of purchasing and installing diesel 
retrofits oftentimes does not introduce enough operational efficiency 
to generate a return on the investment. So, equipment owners are 
understandably reluctant to invest in a retrofit unless they are given 
some form of financial assistance to help defray the cost. And, it 
makes sense for the public to help finance retrofits because they 
generate benefits in the form of cleaner air for all of society.

                          CONGRESSIONAL ACTION

    To the credit of Congress, it has acted to provide the necessary 
financial assistance to promote the deployment of diesel retrofits. 
Congress started to address this problem as far back as fiscal year 
2003. At the time, Congress appropriated $5 million to provide the 
original funding for the Clean School Bus USA program.
    This program was founded to improve the health conditions of the 25 
million children who ride diesel-powered school buses every day. EPA 
estimates that 40,000 school buses have been cleaned up during the 
lifetime of the Clean School Bus USA program, reducing the exposure of 
more than 1.5 million school children to the potential harmful effects 
of diesel exhaust. It marks a good beginning, but we still have a long 
way to go to clean up over 400,000 school buses that are currently on 
the road today.
    Based on the positive experience with the Clean School Bus USA 
program, Congress took another big step in 2005 to advance the 
deployment of diesel retrofits. Specifically, as part of the Energy 
Policy Act, Congress proposed and passed the Diesel Emissions Reduction 
Act (DERA). This provision of law authorized the expenditure of $1 
billion over 5 years to finance diesel retrofits through grants and 
revolving loans. The authorization calls for the appropriation of $200 
million per year for fiscal year 2007 through fiscal year 2011.
    This subcommittee has done a valiant job in trying to find the 
resources to fund DERA in fiscal year 2008. These are difficult 
financial times. All Federal accounts are under stress, especially 
those under the jurisdiction of this subcommittee. But under your 
leadership, your subcommittee approved $50 million in funding for this 
program last year, a 40 percent increase above the President's request. 
We appreciate the subcommittee's efforts.

                              THE PROBLEM

    Unfortunately, the resources available to fund diesel retrofits far 
exceeds the demand. The best example of this is what has happened with 
the Clean School Bus USA program. During the first 3 years of the 
program, 292 grant applications for a total of $106 million were 
submitted to EPA. Because of funding constraints, only 72 awards were 
made from the 292 applications, a 25 percent grant rate. In terms of 
funding, only $17.3 million was awarded from the $106 million 
requested, a 16 percent success rate.
    This shortfall affected much of the country, and especially the 
States represented on this subcommittee. For example, applicants from 
the 17 States represented on the subcommittee filed 92 grant 
applications with EPA under the first 3 years of the school bus program 
and only 22 (or 24 percent) were funded. These grant requests amounted 
to a total of $32.1 million, of which $4.2 (or 13 percent) was funded.

                              OUR REQUEST

    In light of this strong demand for funding, we respectfully request 
that the subcommittee increase the level of funding for DERA above the 
amount requested by the President. The President proposed $49.2 
million. We urge the subcommittee to increase funding for DERA by the 
same proportion that it did last year, that is, by 40 percent to a 
total of $70 million for fiscal year 2009. Last year, the President 
requested $35 million and the subcommittee appropriated $50 million, a 
40 percent increase.

                               RATIONALE

    We believe that this proposed increased level of funding is 
reasonable and appropriate for several reasons. First, it is fully 
consistent with the action taken by the Subcommittee last year when you 
increased DERA funding by 40 percent above the President's request.
    Second, the demand for funding to purchase diesel retrofits far 
exceeds the supply of funds, as witnessed by our experience with the 
Clean School Bus USA program.
    Third, the money will be well spent because diesel retrofits have 
been proven to be one of the most cost-effective emission reduction 
strategies. Studies have shown that emission reduction strategies which 
involve the use of diesel retrofit technology can, in almost every case 
analyzed, achieve the lowest cost-per-ton of emissions reduced compared 
to a long list to other strategies for reducing emissions from the 
transportation sector.\5\ For example, installing a diesel particulate 
filter on a Class 7 heavy duty truck is 15 times more cost-effective 
than replacing a conventional bus and 46 times more cost-effective than 
building an HOV lane.\6\
---------------------------------------------------------------------------
    \5\ See ECTA comments (February 20, 2007) in Federal Highway 
Addministration Docket No FHWA-2006-26383, http://dmses.dot.gov/
docimages/p89/454896.pdf, http://dmses.dot.gov/docimages/p89/454899.pdf
    \6\ Ibid, Table 4, p.10, http://dmses.dot.gov/docimages/p89/
454896.pdf
---------------------------------------------------------------------------
    Fourth, spending on diesel retrofits generates a substantial return 
on an investment of 13 to 1. When DERA was enacted, EPA estimated that, 
if fully implemented, the program would generate $20 billion of 
economic and health benefit for $1.5 billion of cost. This cost 
includes both the Federal funding of $1 billion and anticipated State 
and private sector matching of $500 million. In other words, for every 
dollar of government money spent $13 of economic and health benefit 
would be generated.\7\
---------------------------------------------------------------------------
    \7\ See Supra, Note 4.
---------------------------------------------------------------------------
    Fifth, because DERA sets aside 30 percent of its funds for a State 
Grant Program, it can be used to help States bring their air quality in 
to conformity with Federal standards for particulate matter. Moreover, 
by providing additional Federal monies to States that match the DERA 
funds, the DERA State Grant program provides incentives to States to 
more proactively address diesel emissions in their region.
    Finally, there is a very broad base of support for DERA and a level 
of funding for the program that far exceeds the President's request. 
From the beginning, DERA enjoyed strong support from both sides of the 
aisle in Congress and from the entire range of private interests and 
non-profit public interest groups. As evidence of this, more than 250 
businesses, associations, and environmental groups cosigned a letter 
asking the President to fully fund DERA in fiscal year 2009. Few 
environmental programs enjoy such widespread support.

                   STATE AND LOCAL AIR QUALITY GRANTS

    We would also like to endorse the request for increased funding to 
support State and local air quality grants that is being requested by 
the National Association of Clean Air Agencies (NACAA). State and local 
governments hold primary responsibility for preventing and controlling 
air pollution. They rely on grants to carry out their core obligations 
under the Clean Air Act, including monitoring air quality, assessing 
emissions impacts, permitting and inspecting sources, and enforcing 
environmental regulations.
    Unfortunately, because of funding constraints, the State and air 
quality agencies grants have been on the decline. Last year, the grants 
were funded at $216 million and the President has proposed reducing 
funding to $185.6 million in fiscal year 2009. We urge the subcommittee 
to increase funding for these grants to $270 million, the level being 
proposed by NACAA.

                               CONCLUSION

    Thank you again for the opportunity to provide testimony to the 
subcommittee. We urge you to fund DERA at $70 million for fiscal year 
2009 because it consistent with the proportional increase adopted by 
the subcommittee last year and will result in the most cost-effective 
use of Federal funds to achieve emission reductions from the 
transportation sector.
                                 ______
                                 
         Prepared Statement of the Endangered Species Coalition

    On behalf of the undersigned organizations and the millions of 
members we represent nationwide, we urge you to fully fund programs of 
the Endangered Species Act at the levels outlined below during the 
fiscal year 2009 appropriations process.
    The Endangered Species Act is a safety net for wildlife, plants and 
fish that are on the brink of extinction. The act has been successful 
in preventing the extinction of many of our Nation's species, including 
Bald Eagles, Peregrine Falcons, wolves, grizzly bears and wild salmon. 
In today's era of global warming, it is needed more than ever. However, 
for years the Endangered Species Act has been under funded, making it 
increasingly difficult for the U.S. Fish and Wildlife Service experts 
to carry out their responsibilities under the Endangered Species Act. 
The funding levels outlined below are designed to be the first step in 
addressing this problem over the next 5 years.

                  CORE ENDANGERED SPECIES PROTECTIONS

    The four Fish and Wildlife Service endangered species operating 
accounts are key to effective implementation of the Endangered Species 
Act. All four program areas are currently experiencing at least a 30 
percent staffing shortage due to budget constraints, an unacceptable 
vacancy rate. To adequately implement the endangered species program, a 
total of at least $305.8 million is needed for the four main accounts 
by 2013, an increase of $155 million over fiscal year 2008.
    Listing.--This account funds the protection of new plants and 
animals under the Endangered Species Act, as well as habitat critical 
to recovery. Currently, more than 280 species sit on the candidate 
waiting list for protection, creating an estimated backlog of more than 
$160 million. Candidate species wait an average of 19 years to be 
listed and since 1975, 64 have gone extinct while waiting--seven times 
the number that have disappeared under the full protection of the ESA. 
To eliminate this backlog over the next 5 years, we request a $7.2 
million increase this year for a fiscal year 2009 appropriation of 
$25.2 million.
    Recovery.--While the Endangered Species Act has been extremely 
successful at preventing wildlife from going extinct, the purpose of 
the act is to protect and recover endangered and threatened fish, 
plants and wildlife. It is difficult to estimate the true needs for the 
recovery program--current estimates place it at approximately $100 
million. The conservation community would like to see the recovery 
program funded at no less than $121.6 million by 2013 (the increased 
level over $100 million accounts for fixed costs increases needed over 
that time period) therefore, we request recovery be funded at $84.8 
million for fiscal year 2009 as a first step, an increase of $13.8 
million.
    Consultation.--The consultation program is an important part of the 
checks and balances system to ensure that endangered fish, wildlife, 
and plants are protected on the ground. There has been a dramatic 
increase in demand for consultations recently, jumping from 40,000 in 
1999 to 67,000 in 2006. Shortage of personnel in this program area 
causes delays of project reviews thus creating conflicts between 
agencies. The consultation budget also funds the Service's work with 
non-federal entities for permitting and development of Habitat 
Conservation Plans; lack of funding prevents the Fish and Wildlife 
Service from ensuring that these plans are properly developed, 
implemented and monitored. To adequately implement the consultation 
program would require an overall program budget of $122.4 million by 
2013. We request $63.2 million for fiscal year 2009, an increase of 
$11.4 million.
    Candidate Conservation.--This program protects species before they 
are actually listed, thus in theory averting the need to ever list them 
at all. As mentioned above though, fish, plants and wildlife on the 
candidate list go extinct at a much higher rate than those with full 
protection--in part because of severe understaffing for this program. A 
doubling of this program's staff is justified to ensure adequate 
implementation. This would require $25.4 million. The conservation 
community again requests this increase be accomplished over the next 5 
years and, therefore, requests the program be funded at $12 million for 
fiscal year 2009, an increase of $2.3 million over fiscal year 2008 
levels.

               ADDITIONAL ENDANGERED SPECIES PROTECTIONS

    Cooperative Endangered Species Fund.--This fund provides grants to 
States for wildlife and habitat conservation activities on non-Federal 
lands for listed and candidate species. At least 65 percent of 
federally listed species are found on non-Federal land. Without the 
proposed increases States will fall further behind in their ability to 
independently work to protect at risk species. Crucial conservation 
activities funded by these grants include: research, species status 
surveys, habitat restoration, captive propagation and reintroduction, 
planning assistance, and land acquisition by States for Habitat 
Conservation Plans and recovery. To adequately fund State endangered 
species conservation activities a total of at least $160 million is 
needed by 2013. We therefore request an increase of $22.4 million this 
year for a total appropriation of $96.2 million in fiscal year 2009.
    Landowner Incentive and Private Stewardship Grants.--These grants 
provide funding for voluntary conservation actions taken by landowners 
to conserve at-risk plants and animals on private lands, which benefits 
us all. The Landowner Incentive program awards competitive grants to 
state and tribal conservation agencies for their work with private 
landowners and tribal lands, while the Private Stewardship program 
provides funding directly to individuals and groups implementing 
private land conservation actions. In 2007, funding was awarded to 
efforts in 46 States. Regrettably, neither program was funded in the 
fiscal year 2008 Interior appropriations bill due to budget 
constraints; these important programs should be re-started in fiscal 
year 2009. The demonstrated need for these programs has far outstripped 
available funding in the past--the amount requested for worthy projects 
on average totaled two to three times the yearly available funding. To 
support private landowners in their voluntary conservation efforts, a 
gradual increase to $77 million is needed by fiscal year 2013 in these 
two incentive programs. We request that these programs be restored to 
their fiscal year 2007 levels of $23.7 million for the private 
landowner and tribal lands grants and $7.3 million for the stewardship 
grants. However, while these voluntary incentives programs are 
important for the recovery of our Nation's imperiled species, they 
should not be funded at the expense of the Fish and Wildlife Service's 
core endangered species programs.
    BLM Threatened and Endangered Species Management.--The Bureau of 
Land Management (BLM) controls habitat that supports more than 300 
federally listed or candidate species. This program, along with their 
Fisheries and Wildlife Management program, funds inventory and 
monitoring, habitat restoration, endangered species recovery, and other 
proactive conservation activities vital to maintaining healthy, 
functioning ecosystems and fish, wildlife, and plant populations. 
Recently, an average of 30 percent of these funds have been used to pay 
for the compliance activities of the BLM's energy, grazing, and other 
non-wildlife related programs. Traditionally, funding for compliance 
work has come from benefiting programs. In addition, the programs are 
substantially understaffed. For example, the BLM has only one biologist 
per 591,000 acres of land, and more than $60 million is needed annually 
just to implement actions assigned to BLM in recovery plans for listed 
species. In addition to restoring the funds diverted to benefit other 
program areas, we request an increase of $7.6 million in fiscal year 
2009 to begin meeting this program's needs, for a total appropriation 
of $29.9 million in fiscal year 2009.
    The Endangered Species Act is a broadly supported law and has been 
very successful in preventing extinctions. But without the necessary 
funding, the act's true goal of restoring endangered species to healthy 
populations will be much more difficult to accomplish. We ask you, as a 
member of the Appropriations Committee, to fully fund Endangered 
Species Act programs this year. Thank you.
    American Bird Conservancy, American Rivers, Center for Biological 
Diversity, Defenders of Wildlife, Endangered Species Coalition, 
National Wildlife Federation, Natural Resources Defense Council, 
Wildlife Alliance of Maine, and Xerces Society for Invertebrate 
Conservation.

                               ENDANGERED SPECIES RELATED FUNDING FISCAL YEAR 2009
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   POTUS fiscal                    Green budget
                                                   Fiscal year      year 2009      Green budget     compared to
                                                  2008 enacted    recommendation   proposal \1\     fiscal year
                                                                  (vs. enacted)                    2008 enacted
----------------------------------------------------------------------------------------------------------------
Candidate Conservation.........................          $9,731          $8,659          $12,000          $2,269
                                                                        (-1,072)
Listing........................................          17,978          18,188           25,200           7,222
                                                                          (+210)
Consultation...................................          51,758          51,577           63,200          11,442
                                                                          (-181)
Recovery.......................................          71,041          68,417           84,800          13,759
                                                                        (-2,624)
                                                ----------------------------------------------------------------
      Eco Services Total.......................         150,508         146,841          185,200          34,692
                                                                        (-3,667)
                                                ================================================================
Cooperative Endangered Species Fund............          73,831          75,501           96,200          22,369
                                                                        (+1,670)
Landowner Incentive Grants.....................  ..............  ...............          23,700         ( \2\ )
Private Stewardship Grants.....................  ..............  ...............           7,300         ( \2\ )
BLM Threatened & Endangered Species Mgmt.......          22,302          20,582           29,900           7,598
                                                                        (-1,720)
----------------------------------------------------------------------------------------------------------------
\1\ The Green Budget is endorsed by 21 conservation and environmental organizations and designed to help assist
  appropriators with meeting America's most pressing environmental needs.
\2\ Equal to fiscal year 2007 levels.

                                 ______
                                 
     Prepared Statement of the Environmental Council of the States

    In this document, the States respectfully submit their budget 
proposal for the portion of the U.S. Environmental Protection Agency's 
budget that supports States, tribes, and local governments, the State 
and Tribal Assistance Grants (STAG). States request $3.867 billion for 
these purposes. These funds are used for categorical grants and 
infrastructure support.
    The States request $1.219 billion for 24 categorical program grants 
for State and tribal governments.
    We request $2.648 billion for infrastructure support to be spent on 
wastewater, drinking water, Brownfields, and other environmental 
infrastructure needed to meet the goals of the core environmental 
statutes.
    The States are integral partners and co-regulators with the U.S. 
Environmental Protection Agency (EPA) in the implementation of the 
Nation's environmental laws. States in fact conduct most of the 
permitting, enforcement, inspections, monitoring, and data collection 
required by those laws on EPA's behalf. To assist the States, Congress 
provides a portion of the States' costs through EPA's budget in STAG.
    Additionally, Congress provides Federal funding to capitalize vital 
water and wastewater infrastructure needs.
    Unfortunately, EPA has once again proposed cuts for support of the 
States' work on its behalf. These cuts reduce STAG to the levels 
received in 1998--over 10 years ago. During the period 2000-2009 EPA 
has asked (or is asking) the States to implement about 400 new rules 
with a ``State or local impact.'' These are significant rules that are 
discussed in hearings before Congress, written about by the press, and 
for which the public is counting on States to do the job entrusted to 
them by Congress.
    EPA has asked States to participate in its budget development for 
the last 3 years, and ECOS did so in the development of the 
administration's budget as it was being worked on in 2007. 
Unfortunately, our recommendations, such as those presented herein, 
were not heeded.
    The proposed cuts threaten to undermine the States' ability to 
provide the environmental protection mandated by Congress. We ask 
Congress, on behalf of the citizens of our States, not to accept the 
President's recommendations for STAG, but instead to give consideration 
to this proposal.
    This year, we also ask Congress to prohibit EPA from the pernicious 
practice seen in recent EPA budget proposals in which the agency 
interferes with the States' ability to exercise its obligations by 
stipulating that funds must be spent on specific activities. Examples 
of this include the so-called ``Permit Fees Rule,'' the 106 set-asides 
for ``probabilistic monitoring'' and the proposal to prohibit States 
from using the ``State bond match'' for the revolving loan funds. Most 
of these EPA requests have been restricted by Congress in report 
language, which the agency then interprets to its liking and, in our 
opinion, thwarts the clear will of Congress in the process.
    The States' budget proposal is based on three primary principles:
    1. In times of fiscal crisis, when resources are in short supply, 
the core mandated environmental programs funded through STAG, including 
infrastructure capitalization, must be funded first;
    2. Reductions in EPA's budget, if they must occur, should be shared 
proportionately by EPA and the States after STAG levels are returned to 
their 2004 levels; and
    3. States should be afforded the flexibility to run their core 
programs in a manner that will obtain the highest level of attainment 
with the standards set by Congress and EPA without undue hindrance from 
EPA, but within its oversight responsibilities.
    ECOS' budget does not propose cuts for the non-STAG portions of 
EPA's budget.
    1. EPA staffing can remain intact as presented in the President's 
2009 budget proposal.
    2. No non-STAG programs need be eliminated beyond those described 
in the President's 2009 budget proposal.
    3. No decrease in protection of human health or the environment 
will result--in fact, it will be improved.
    ECOS is prepared to present additional details and suggestions as 
requested, including in testimony on any hearings as might be held on 
the President's budget proposal.

                                       STATE AND TRIBAL ASSISTANCE GRANTS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                      Fiscal year                                            Percent change
                              --------------------------                               -------------------------
                                                            ECOS'                          (2008        (2004
           Programs                2004         2008       proposal    Brief rationale   enacted to   enacted to
                                 enacted      enacted        2009                           2009         2009
                                                                                         proposal)    proposal)
----------------------------------------------------------------------------------------------------------------
       Highest Priority
 
State and Local Air Quality       $237,297     $216,825     $270,300  Increase for new         24.7         13.9
 Management.                                                           requirements
                                                                       and inflation.
Public Water System                101,904       97,554      124,404  Increase for new         27.5         22.1
 Supervision (PWSS).                                                   requirements
                                                                       and inflation.
Brownfields CG...............       50,000       48,723       50,000  Increase for              2.6  ...........
                                                                       inflation.
Hazardous Waste Financial          103,689      101,734      103,768  Increase to meet          2.0          0.1
 Assistance.                                                           requirements
                                                                       and inflation.
Underground Storage Tanks \1\       11,725        2,461        2,510  Increase for              2.0        -78.6
                                                                       inflation.
Nonpoint Source (sec. 319)...      241,542      200,857      204,874  Increase for              2.0        -15.2
                                                                       inflation.
Pollution Control (sec. 106).      202,937      218,206      270,300  Increase for new         23.9         33.2
                                                                       requirements
                                                                       and inflation.
 
      Moderate Priority
 
Environmental Information....       19,474        9,844       10,000  Increase to meet          1.6        -48.7
                                                                       requirements
                                                                       and inflation.
Beaches Protection...........        8,826        9,746        9,746  Same as previous  ...........         10.4
                                                                       year.
Homeland Security............        4,051        4,873        7,000  Assists states           43.7         72.8
                                                                       in dealing with
                                                                       ``all hazards''
                                                                       approach, as
                                                                       opposed to past
                                                                       practice of
                                                                       ``biohazards''
                                                                       only, and new
                                                                       directives and
                                                                       EPA
                                                                       requirements.
Lead.........................       14,100       13,352       13,352  Same as previous  ...........         -5.3
                                                                       year.
Pesticides Enforcement.......       19,776       18,419       18,419  Same as previous  ...........         -6.9
                                                                       year.
Toxics Substances Compliance.        5,036        5,019        5,019  Same as previous  ...........         -0.3
                                                                       year.
Pesticides Program                  13,225       12,768       12,768  Same as previous  ...........         -3.5
 Implementation.                                                       year.
Pollution Prevention.........        6,150        4,863        4,863  Same as previous  ...........        -20.9
                                                                       year.
Radon........................        8,062        7,948        7,948  Same as previous  ...........         -1.4
                                                                       year.
Tribal Air Quality Management       12,385       10,769       10,769  Same as previous  ...........        -13.0
                                                                       year.
Tribal General Assistance           62,196       56,037       56,037  Same as previous  ...........         -9.9
 Program.                                                              year.
Unnderground Injection              10,800       10,721       10,721  Same as previous  ...........         -0.7
 Control (UIC).                                                        year.
Water Quality Cooperative           16,608  ...........        9,844  For program as            n/a         40.7
 Agreements.                                                           described in
                                                                       statute.
Wetlands Program Development.       17,110       16,567       16,567  Same as previous  ...........         -3.2
                                                                       year.
 
         Low Priority
 
Wastewater Operator Training.  ...........  ...........  ...........  Eliminated......  ...........  ...........
Sector Program...............        1,838        1,209  ...........  Eliminated......       -100.0       -100.0
Targeted Watersheds..........        7,472        9,844  ...........  Eliminated in          -100.0       -100.0
                                                                       favor of WQCA
                                                                       above.
                              ---------------------------------------                  -------------------------
      Subtotal, Categorical      1,176,203    1,078,339    1,219,211                           13.1          3.7
       Grants.
                              =======================================                  =========================
       Highest Priority
 
Clean Water SRF..............    1,397,785      689,080    1,500,000  Increase to             117.7          7.3
                                                                       address gap
                                                                       issues.
Drinking Water SRF...........      881,524      829,029    1,000,000  Increase to              20.6         13.4
                                                                       address gap
                                                                       issues.
 
      Moderate Priority
 
Brownfields Projects.........       87,380       93,518       93,518  Same as last      ...........          7.0
                                                                       year.
Diesel Emissions Reduction     ...........       49,220  ...........  ECOS suggests          -100.0  ...........
 Grant Program.                                                        this cost item
                                                                       be moved to the
                                                                       EPM account, as
                                                                       EPA controls
                                                                       the majority of
                                                                       these funds,
                                                                       not States.
                                                                       ECOS supports
                                                                       full funding of
                                                                       this program as
                                                                       part of the EPM
                                                                       budget.
Congressional Priorities           263,524      132,894  ...........  ( \2\ )                -100.0       -100.0
 (STAG Infrastructure Grants)
 \2\.
Infrastructure Assistance:          37,434       24,610       24,610  Previous year;    ...........        -34.3
 Alaska Native Villages.                                               no
                                                                       recommendation.
Infrastructure Assistance:          64,846       19,688       19,688  Previous year;    ...........        -69.6
 Mexico Border.                                                        no
                                                                       recommendation.
CA Reduction Project Grants..  ...........        9,844        9,844  Previous year;    ...........          n/a
                                                                       no
                                                                       recommendation.
                              ---------------------------------------                  -------------------------
      Subtotal,                  2,732,493    1,847,883    2,647,660                           43.3          3.1
       Infrastructure.
                              ---------------------------------------                  -------------------------
      Total, all items.......    3,908,696    2,926,223    3,866,871                           32.1        -1.1
----------------------------------------------------------------------------------------------------------------
\1\ In the 2008 budget, a substantial amount of the funding for this program was shifted to the LUST Trust Fund.
  We recommend retaining that approach with the same $31 million in the UST fund for UST Grants as last year.
\2\ These are included here as part of the CW SRF funds. ECOS follows EPA's practice of not budgeting these, but
  we do not oppose the use of Congressional Priorities. 2004 data is presented as a comparison because it was
  the most recent peak year of funding. All figures are post-rescission, including 2008. These are actual-year
  dollars, not adjusted.

  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. Thank you for considering our testimony on fiscal 
year 2009 Appropriations. Our Tribe occupies a 100,000 acre reservation 
in northeastern Minnesota. It is part of our aboriginal homeland and 
was established by Treaty in 1854. We provide health, education, social 
and other governmental services to 6,500 Indian people living on or 
near our Reservation. We are deeply concerned that the President's 
budget would cut funding for programs that are essential to our ability 
to educate our children, care for our elderly and infirm, prevent 
crime, and protect and manage natural resources. We urge Congress to 
restore or increase the funding for these critical programs.
    BIE: Education.--The Fond du Lac Band depends on BIE funding for 
the operation of the Band's Ojibwe School. We oppose the President's 
proposed $25.6 million reduction to funding for BIE programs as they 
are contrary to the government's trust responsibilities for the 
education of Indian people. The proposed cuts simply cannot be 
reconciled with the President's stated goal of closing the education 
achievement gap for Indian students. Nor can those cuts be reconciled 
with the BIE's own findings that for the past 3 years, 60 percent of 
BIE-funded schools have failed to achieve Adequate Yearly Progress 
(AYP) under the No Child Left Behind Act and that student performance 
at BIE-funded schools is lower than that for students at public 
schools. As Indian students are the most at-risk group of students in 
our Nation, funding for Indian education must not be further reduced. 
These programs should be funded at no less than fiscal year 2008 
levels.
    The proposed cuts include a drastic reduction in Education Program 
Enhancements even though, as BIE points out, this funding is used for 
teacher training, strengthening math and reading skills, tutoring and 
mentoring, which BIE-funded schools need if they are to achieve AYP. 
The proposed cuts also include a reduction in Early Childhood 
Development, even though, as BIE again recognizes, early childhood 
education continues to be a very effective investment providing 
comprehensive reading skills that prepare our American Indian students 
to become successful learners. The proposed cuts also include the 
complete elimination of the Johnson O'Malley program. Restoration of 
this funding is essential as JOM is critical to sustaining Native 
language and cultural education in public schools serving Indian 
students. With the demands of achieving the goals of the No Child Left 
Behind Act, it becomes more important to integrate our native culture 
and teachings into the school curriculum. Not funding JOM will 
jeopardize the public schools' ability to do this.
    The President's proposal would also reduce funds for student 
transportation, even though steadily increasing fuel costs and an 
already inadequate funding level have severely handicapped our ability 
to provide safe and reliable transportation to our students. In 
addition, the President would cut Education Construction from the 
fiscal year 2008 enacted level. We urge Congress to appropriate funds 
to support the new construction projects currently being funded, and 
ask that the proposed reduction ($27.6 million) be restored and 
allocated to facilities improvement and repair so that we can extend 
the lives of the buildings and ensure that that they are safe.
    BIA: Public Safety and Justice.--While we support the 
administration's Safe Indian Communities Initiative, the funding 
proposed for this still falls very far short of what is needed and 
should be increased. We also ask that Congress increase the Band's base 
funding by $1.5 million for court operations and law enforcement, and 
provide a one-time appropriation of $6 million to allow us to expand 
the facility that houses our law enforcement and natural resources 
departments but which is inadequate for those purposes.
    The Fond du Lac Band faces massive unmet needs for law enforcement. 
We had to assume responsibility for law enforcement after the Minnesota 
Supreme Court ruled that the State did not have jurisdiction to enforce 
traffic laws on roads within Indian reservations, State v. Stone, 572 
N.W.2d 725 (Minn. 1997). We have done this using a combination of 
tribal and Federal funds (made available through the Community Oriented 
Policing Services (COPS) program and the Bureau of Indian Affairs), and 
by cooperative agreements with local law enforcement agencies. But 
because of the insurgence of methamphetamine, alcohol, illegal 
prescription drug use, and gang-related activities on our Reservation 
our law enforcement responsibilities continue to grow. In 2007, our 
police responded to over 4,000 calls, more than any prior year. 
Prescription drug abuse is becoming an epidemic, with increasing 
numbers of our elders and others the victims of more frequent assaults, 
burglaries and robberies that are prescription drug related. We also 
face increasing numbers of juvenile offenses involving drugs, alcohol, 
thefts, assaults and burglaries.
    To address these problems, we need to increase our law enforcement 
staff so that we can station police officers in specific locations, 
such as near elderly housing, and ensure effective law enforcement 
coverage 24/7. But we do not have the funds to do this. We currently 
employ 13 officers and 3 administrative staff. Two officers are 
assigned to needed day shift duties, a School Resource Officer (to try 
and stem the tide of juvenile crime), and an investigator. Officers 
work 12-hour shifts. We try to maintain at least two officers for each 
night shift and two on the weekend day and night shifts. Ultimately, 
for officer safety and timely responses, we should schedule three 
officers per shift around the clock. However, lack of funding prevents 
us from meeting this goal. As such, there are times when only one 
officer is on duty to cover the entire Reservation. With officer backup 
from other agencies as far as a 20-30 minute drive, this becomes a 
serious safety issue for both officers and the people we need to 
protect. Our limited staff also means that we are handicapped in our 
ability to implement pro-active measures, such as youth education and 
outreach programs, and assistance to the clinics in developing means 
for identifying and preventing prescription drug abuse. We need 15 to 
20 officers, but this requires funding which we do not have.
    Federal funding is also vital for law enforcement equipment. Our 
ability to effectively address crime requires that we periodically 
upgrade patrol cars including SUV 4<greek-e>4 vehicles to respond to 
remote areas within our Reservation. Other equipment is needed as well. 
For example, because the Band does not own an intoxilyzer, our officers 
must transport persons arrested for DWI on our Reservation an hour each 
way to the St. Louis County Jail for DWI processing--pulling our 
limited number of officers away from other responsibilities for long 
periods of time. In addition, while we recently accessed the on-line 
law enforcement reporting system (NEMISIS SHEILDS) which serves seven 
area counties, it will cost us $400 per year per officer to use that 
system--a cost not previously budgeted. Further, to make effective use 
of this system, we should have a secure T-1 line (rather than the 
current key-fob system), but we do not have the funds ($20,000) for 
this. We also need substantial additional funds to buy new digital car 
radios and software to integrate the Band's dispatching system with the 
more advanced system being adopted by the counties.
    Finally, we need a new facility for our law enforcement department. 
The department is now housed in a 6-room building which has no room for 
investigative interviews, nor office space for specialty positions such 
as investigators and school resource officers. The evidence room, 
reception area, and parking lot are all inadequate, and because of the 
building's age, staff must double-up phone lines. A new building is 
essential.
    We also urge Congress to increase Tribal Court funding. As the 
demands on the Band's law enforcement have grown, so too has our Tribal 
Court docket. While the President, in his budget, recognizes that 
Tribal Courts are unable to meet needs, his proposed cut to Tribal 
Court funding will only make matters worse. Modest increases for Law 
Enforcement Programs should not come at the expense of a reduction in 
funds for historically under-funded Tribal Courts.
    BIA: Natural Resources.--We urge Congress to reject the President's 
proposal to cut funding for Natural Resources Management but to instead 
increase funds for these programs. Related to the Band's law 
enforcement work are the Band's responsibilities for enforcing 
conservation laws that protect natural resources and regulate Band 
members who hunt, fish and gather those resources within and outside 
the Reservation pursuant to rights reserved under Treaties with the 
United States. The Band is responsible for enforcing regulations over 
approximately 8,000,000 acres in northern and central Minnesota. 
Funding is essential for that work, as well as for the Band's 
management of natural resources both on and off-reservation. These 
resources provide the foundation for our culture, subsistence, 
employment and recreation. We request that $1.5 million to be added to 
our base budget for Resource Management programs, as funds for this 
program have not been increased since 1991.
    BIA: Natural Resources, Circle of Flight.--We ask Congress to 
restore the Circle of Flight Wetland/Waterfowl Enhancement Program to 
at least fiscal year 2008 levels and to consider providing $1,000,000 
to cover actual program needs. Circle of Flight has been one of 
Interior's top trust resource programs since its inception. Through 
this program, Great Lakes Tribes have restored or enhanced more than 
66,000 wetland, grassland and native prairie acres. Circle of Flight 
has invested more than $9.7 million in habitat projects, and has 
leveraged these dollars for an additional $27 million in Federal, 
State, private, and tribal funding, yielding an impressive match ratio 
of nearly 3 to 1. Because of the importance of wild rice to our members 
and to the wildlife of the area, Fond du Lac has used these funds to 
restore over 200 acres of wild rice habitat and has identified another 
550 acres of wild rice habitat that is restorable given adequate 
funding.
    BIA: Human Services.--We urge Congress to reject the 
administration's proposal to decrease Human Services funding. Although 
the President, in the proposed budget recognizes the need to increase 
funding for social services to address the impact that the 
methamphetamine epidemic has on not only public health and safety, but 
also child protection, child welfare and foster care services, his 
proposed modest increase for social service funding is far too little, 
and most certainly should not be offset by reductions in funding for 
the BIA's welfare assistance, Indian Child Welfare Act, and Housing 
Improvement programs. If Tribes are to have any realistic hope of 
protecting Indian children, preventing domestic violence, and fostering 
Indian families in the face of this crisis, funding for Social Services 
and ICWA programs must be increased.
    Indian Health Service.--We oppose the President's proposal to 
decrease total funding for Indian Health Services by $21 million from 
the fiscal year 2008 enacted level. While the proposed budget includes 
small increases for clinical health services, contract health care, 
preventive care and contract support costs, those only bring funding to 
pre-rescission fiscal year 2008 levels and still fail to address the 
high rates of medical inflation and the substantial unmet need for 
health care among Indian people. Indians at Fond du Lac, like Indians 
throughout the Nation, continue to face disproportionately higher rates 
of diabetes and the complications associated with diabetes, than the 
rest of the population. Heart disease, cancer, obesity, chemical 
dependency and mental health problems are also prevalent among our 
people. As found by Minnesota Department of Health, in its Populations 
of Color Health Status Report for 2007, diabetes among Indians is 5 
times that for Caucasians; infant mortality among Indians is more than 
twice that for Caucasians and higher than that for any ethnic group; 
and Indians are more likely than any ethnic group to die from cancer, 
cirrhosis, diabetes, and suicide. While other Federal programs, like 
Medicare and Medicaid, have seen annual increases in funding of 5-10 
percent to address inflation, the budget for IHS has never had 
comparable increases, and, as a result, IHS programs have consistently 
fallen short of meeting the actual needs. All Indian tribes should 
receive 100 percent of the Level of Need Formula (LNF), which is 
absolutely critical for tribes to address the serious and persistent 
health issues that confront our communities. The Band serves 
approximately 5,900 Indian people at our clinics, but the current 
funding level meets only 38 percent of our health care funding needs. 
In addition, the Band requests an increase in funding for substance 
abuse and mental health programs in order to combat the growing 
methamphetamine problem on our Reservation.
    EPA: Tribal Air Quality Management.--We support the President's 
proposal to increase funding for Tribal air quality management, and 
urge Congress not to offset this by cuts to other environmental 
programs. We operate an air quality monitoring program, and the demands 
on our program are increasing as industrial activity continues to grow. 
There are a number of major facilities within 60 miles of our 
Reservation that affect our air quality and which we must monitor--
including Excelsior Energy (a coal-gasification plant), Minnesota Steel 
(new taconite plant), Polymet (Cu-Ni mine), Enbridge pipeline 
expansion, Mittal Steel (taconite plant issues), and U.S. Steel-Keetac 
(taconite mine expansion)--as well as smaller local facilities which 
also impact regional haze. We collect wet deposition samples to test 
for mercury and operate ambient monitors for nitrous oxides, ozone, and 
fine particulate matter. And Fond du Lac is only one Tribe. Many other 
tribes face the same issues. Because of the critical need to protect 
reservation air quality, increased funding for tribal air quality 
programs is essential.
    In conclusion, the needs at Fond du Lac and throughout Indian 
Country remain massive. Your support on these funding issues is 
essential to our ability to maintain vitally important programs and 
improve the delivery of services to Band members. Miigwech. Thank you.
                                 ______
                                 
   Prepared Statement of the Friends of Virgin Islands National Park

    Madam Chairman and honorable members of the committee: I appreciate 
the opportunity to provide testimony on behalf of an important land 
acquisition funding need at Virgin Islands National Park. An 
appropriation of $4.5 million from the Land and Water Conservation Fund 
(LWCF) is requested in fiscal year 2009 to begin Park Service 
acquisition of the unique Maho Bay property.
    I represent the Friends of VI National Park, a 501(c)(3) non-profit 
organization, dedicated to the protection and preservation of the 
natural and cultural resources of Virgin Islands National Park and to 
promoting the responsible enjoyment of this unique national treasure. 
We have more than 3,000 members--20 percent of whom live in the Virgin 
Islands and the balance represent every state in the union.
    We carry on the rich tradition of using private philanthropy for 
the betterment of this park as well as mobilize volunteers and 
community participation. In our 19 years of work in support of Virgin 
Islands National Park we have been involved in many initiatives, 
projects and activities that help this park be a model of natural 
resource protection and cultural preservation--but none have been as 
important as our work in support of the acquisition of Estate Maho Bay 
and its incorporation within the park.
    We have played the important role of informing and motivating the 
community about the issues related to the preservation of Estate Maho 
Bay. But motivation was hardly needed; the preservation of Estate Maho 
Bay and ensuring unimpeded access to this spectacular area enjoys near 
unanimous support among native St. Johnians, residents who have moved 
here from mainland United States and visitors alike--no easy feat for a 
community that prides itself in its diversity of opinions.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place. More than 800 species of trees, 
shrubs, and flowers are found in the park, and more than 30 species of 
tropical birds breed on the island, which was designated an 
international Biosphere Reserve by the United Nations in 1976. St. John 
is also home to two species of endangered sea turtles, the hawksbill 
and the green. In addition, the park contains archeological sites 
indicating settlement by Indians as early as 770 B.C. The later 
colonial history of St. John is also represented by remnants of the 
plantations and sugar mills established by the Danes in the 18th and 
19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on earth match the breathtaking beauty of Maho Bay. A lush 
forested slope rising nearly 1,000 feet rims its crystal waters and 
soft white beaches. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green turtles and magnificent coral 
reefs. This fragile area contains large nesting colonies of brown 
pelicans, as well as the migratory warblers and terns that winter on 
St. John. In addition to its natural treasures, the largest 
concentration of historic plantations and ruins on the island is found 
within this area.
    Available within the Virgin Islands National Park boundaries in 
fiscal year 2009 is the first phase of a 207-acre acquisition at Maho 
Bay. This Maho Bay property offers spectacular views of the bay and 
includes some beachfront. It is extremely important because of their 
relationship to the whole undeveloped area and its cultural resources. 
What most people do not know about this property is that it is not 
owned by the park, even though it has every appearance of being so.
    Though the park boundaries cover a broad area of St. John, the 
National Park Service actually owns two separated blocks of land. A 
smaller block covers the northeastern shore of the island, and a 
larger, more contiguous block extends from the southern to northwestern 
side. The Maho Bay property is what divides these two section of the 
park and its acquisition would be the first step in linking these two 
blocks, ensuring future access, resource connectivity, and seaside 
protection.
    Wetlands in the lower portion of the watershed provide adequate 
sediment retention for the undeveloped nature of this area. As a result 
of long-term geological processes, the topography created by these 
processes and the historical rise of sea level during the past 5,000 
years, a large, rare and complicated freshwater dominated wetland 
developed throughout the basin. It represents a natural stage wetland 
typical of large watersheds with relatively flat basin topography. The 
Maho Bay wetland is the largest of this type on St. John and along with 
the Magens Bay wetland on St. Thomas, one of only a few of this type in 
the Territory. These wetlands provide habitat to numerous species of 
shorebirds, water fowl and other wildlife, several listed as endangered 
under the V.I. Endangered and Indigenous Species Act. Others are 
protected under various federal laws and treaties.
    To the people who live on St. John--both native St. Johnians and 
those who have chosen to make St. John their home, and the millions of 
visitors who come annually to experience and enjoy this remarkable 
place, Maho beach is the most accessible beach on the island and one of 
the most popular. Due to its close proximity to the road, the nearly 
flat beach and the shallow water it is particularly popular with 
families with small children, people with mobility concerns, non-
swimmers and, of course, those who just love a beautiful beach.
    The land was historically used during the plantation era for 
agricultural activities such as sugar cane, coconut, and cotton 
cultivation. The lands included in the Phase I area include portions of 
several historic plantation era sugar estates. The Maho Bay area 
contains the highest density of plantation era estates on St. John. 
Preservation of these sites is important in reconstructing the history 
and heritage of St. John. With increasing growth and investment 
throughout the Caribbean--including places not far from the unspoiled 
beauty of St. John--this vulnerable land has been the focus of intense 
development threats. In recent years, more than one investor envisioned 
private development along these shores, which would have jeopardized 
the natural and cultural resources of the Maho Bay area and access to 
the beach.
    The total estimated fair market value of the 207 acres is $18.6 
million. This property is being made available to the National Park 
Service for a total of $9 million over 2 years, with the balance to be 
provided through private donations of cash and land value. This year, 
an appropriation of $4.5 million is needed from the Land and Water 
Conservation Fund toward the purchase of the first phase (105 acres) of 
these valuable lands.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Madam Chairman and distinguished committee members, I want to thank 
you for this opportunity to testify on behalf of this important 
national protection effort in Virgin Islands National Park. The 
protection of Maho Bay has spurred great interest on St. John and in 
the Virgin Islands because of the multiple scenic, cultural, historic, 
and ecologic values it holds. On behalf of the Friends of Virgin 
Islands National Park and the over one million visitors to the Park 
each year, I appreciate your consideration of this funding request.
                                 ______
                                 
            Prepared Statement of the Fort River Partnership

    Madame Chairman and honorable members of the subcommittee: Thank 
you for the opportunity to present this testimony in support of an 
appropriation of $2.5 million from the Land and Water Conservation Fund 
to acquire the 66-acre Zuckerman property at Silvio Conte National Fish 
and Wildlife Refuge in Massachusetts.
    The Fort River Partnership coordinates the work of Federal, State, 
and nonprofit partners to protect wildlife habitat, working farms, and 
water quality in the Fort River region of the Connecticut River valley 
in Massachusetts. As president of the Kestrel Trust, a nine town 
regional land trust, I strongly support the efforts of the U.S. Fish 
and Wildlife Service to expand the Fort River Division of the Conte 
NFWR through land acquisitions that protect grassland bird habitat 
along and near the Fort River.
    This project is one of many worthy acquisition projects nationwide 
seeking LWCF funding. Unfortunately since fiscal year 2002, funding for 
LWCF has diminished by about 75 percent, and the fiscal year 2009 
Budget proposes further cuts. These reductions have left our national 
parks, refuges, and forests unable to acquire from willing sellers 
critical inholdings and adjacent lands that have been identified as 
necessary to the protection and enhancement of recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Silvio O. Conte was a conservationist, fisherman, and champion of 
the Connecticut River. From 1959 until his death in 1991, he served as 
a U.S. Representative for Massachusetts' 1st District. Just before he 
died, Congressman Conte introduced legislation to establish a unique 
national wildlife refuge in the Connecticut River watershed, and his 
congressional colleagues paid tribute to his conservation legacy by 
authorizing the U.S. Fish and Wildlife Service (USFWS) to establish the 
Silvio O. Conte National Fish and Wildlife Refuge in 1991.
    The refuge protects native and endangered fish, wildlife, and plant 
species and their habitats throughout the 7.2 million-acre Connecticut 
River watershed, providing opportunities for scientific research, 
environmental education, recreation, and access. In its 1995 Refuge 
Action Plan, the USFWS identified 48 special focus areas in 
Massachusetts, Connecticut, Vermont, and New Hampshire. Nearly 80,000 
acres were targeted for protection through refuge acquisition and 
partnership, including over 16,000 acres in Massachusetts. Thus far, 
over 32,000 acres have been acquired, but fewer than 400 acres are in 
Massachusetts. There is a concerted effort underway to enhance refuge 
protection efforts in critical parts of western Massachusetts where 
development pressures are increasing.
    Available for acquisition in Massachusetts in fiscal year 2009 is 
the 66-acre Zuckerman tract in Hadley, Massachusetts. This parcel is 
part of the Grasslands Complex Special Focus Area in Hadley, now 
established as the Fort River Division. The focus area is prized for 
its habitat potential for grassland bird species such as the 
grasshopper sparrow, bobolink, and upland sandpiper and its frontage on 
the Fort River. The Fort River is the longest free-flowing tributary of 
the Connecticut River in Massachusetts, and is one of the top seven 
rivers in the entire four-State watershed for freshwater mussel 
diversity, a key indicator of river habitat value. A viable population 
of the federally endangered dwarf wedgemussel was identified in the 
Fort River system in 2007, making conservation efforts all the more 
compelling. In addition to mussels, the Fort River and its riparian 
zone are home to many other rare species, including the bridle shiner 
dragonfly and several species of state-protected turtles.
    The FWS conserved 82 acres adjacent to the Zuckerman property this 
month, with funds made available by Congress in fiscal year 2008. 
Members of the Fort River Partnership are extremely grateful for this 
critical investment, as well as for an earlier purchase of 22 acres in 
2005. Unfortunately, many other properties in the area remain 
threatened by conversion to non-conservation purposes and additional 
funds are needed to ensure the success of the Fort River Division of 
the Refuge. The Zuckerman parcel has been identified by our partnership 
as the most urgent acquisition to pursue. The addition of this parcel 
to the refuge's Fort River Division will contribute strongly to the 
creation of a viable land base for grassland bird species and to the 
health of other critical Fort River species. Failure to protect it will 
inevitably lead to housing developments in this sensitive area thereby 
diminishing both the historic and natural resource values of the 
region. There have been active efforts to permit construction of 44 
homes on this parcel.
    Hadley, a traditional farming town rich in prime soils, is 
increasingly facing the challenge of losing its rural character to 
residential development. The USFWS and its partners are working closely 
with local land trusts to ensure that the refuge addition is leveraged 
through local, State, and Federal investments in farmland protection, 
creating a conservation mosaic in the focus area that preserves its 
rural, historic, and scenic character and protects the quality of the 
town's drinking water aquifer. The Hadley Board of Selectmen has stated 
its support for refuge acquisitions in this focus area.
    The estimated value of the Zuckerman tract is $2.5 million, and is 
part of a larger fiscal year 2009 need for the entire four-State 
refuge. Acquisition of this parcel will allow the Conte NFWR to 
continue to provide valuable resource protection within the Connecticut 
River Valley in Massachusetts. This amount is part of a larger $5.065 
million request to fund other conservation opportunities throughout the 
four Conte NFWR states in fiscal year 2009, including the Salmon River 
in Connecticut, the Pondicherry Division in New Hampshire, and the 
Nulhegan Division in Vermont.
    I respectfully request that you include an appropriation of $2.5 
million for the Silvio O. Conte NFWR in Massachusetts in the fiscal 
year 2009 Interior and Related Agencies Appropriations bill. I also 
support the request of the Friends of the Silvio O. Conte National Fish 
and Wildlife Refuge for a total of at least $5.065 million for the 
entire four-state refuge. This amount will help fund the current high-
priority Conte NFWR projects that are at risk of being lost in the 
Connecticut River watershed, a region comprising one sixth of New 
England's land mass and providing over 70 percent of the freshwater 
inflow to Long Island Sound. With roughly 2.3 million people in the 
Connecticut River watershed and ongoing exurbanization of the 
landscape, the threat from development poses a challenge to the mission 
of the refuge and the protection of the valley's resources.
    Thank you again for the opportunity to present this testimony in 
support of this important conservation project at Silvio Conte National 
Fish and Wildlife Refuge.
                                 ______
                                 
   Prepared Statement of Friends of Back Bay National Wildlife Refuge

    I am Molly Brown from Virginia Beach, Virginia. I am the President 
of Friends of Back Bay, a group of over 400 dedicated volunteers who 
are committed to the protection of the Back Bay National Wildlife 
Refuge. Located in southeastern Virginia Beach, Back Bay National 
Wildlife Refuge (Refuge) was established on February 29, 1938, as a 
4,589-acre refuge and breeding ground for migratory birds. We thank 
Congress for their continued support of this project. The Director of 
the U.S. Fish and Wildlife Service approved a Refuge boundary expansion 
on May 7, 1990. The expansion area includes 6,340 acres of important 
wildlife habitat. To date the Fish and Wildlife Service has been able 
to acquire 4,980 acres.
    In order to continue the Back Bay Refuge expansion project, we 
respectfully request $1.5 million for fiscal year 2009. This money will 
help to fill in the mosaic pattern of small land parcels from willing 
sellers who have been waiting patiently to sell their land to the 
Refuge.
    The enclosed map gives a visual description of the Acquisitions 
through 2007 and the remaining parcels by priority to be purchased from 
willing sellers within the Back Bay National Wildlife Refuge proposed 
acquisition boundary. Here is a brief description of each parcel.
    Priority 1--Sanford.--26 acres, much of which is valuable riparian/
wetland habitat on the northern bank of Nanney's Creek This Creek has 
been identified as one of Virginia Beach's ``impaired waterways'' by 
the State DEQ. Cooperative efforts by private landowners (mostly 
farmers), the City of Virginia Beach, the State of Virginia and Back 
Bay NWR are ongoing to restore the water quality of this tributary of 
Back Bay. Existing Refuge property is immediately adjacent to this 
tract on its east and west boundaries.
    Priority 2--Griffith.--105 acres of emergent marsh habitat on the 
east side of Back Bay This property already supports a wide variety of 
nesting and wintering migratory birds, especially waterfowl.
    Because this parcel is located on the bay side of the highly 
developed Sandbridge area of Virginia Beach, failure to acquire this 
piece could result in increased private recreational boating facilities 
by individuals who own lots/houses adjacent to this property.
    Priority 3--Van Nostrand.--15 acres of timbered wetlands on the 
west side of Back Bay This property has been cleared, and is ready for 
farming and/or development. Although the current habitat has little 
wildlife value, reforestation of this parcel, as Back Bay NWR has done 
with so many other parcels, will serve as quality habitat for a variety 
migratory birds, especially neotropical migrants. This property has an 
approved appraisal, and the landowner has been presented with an option 
to buy.
    Priority 4--Rice.--8 acres, much of which is valuable riparian/
wetland habitat on the southern bank of Nanney's Creek This Creek has 
been identified as one of Virginia Beach's ``impaired waterways'' by 
the State DEQ. Cooperative efforts by private landowners (mostly 
farmers), the City of Virginia Beach, the State of Virginia and Back 
Bay NWR are ongoing to restore the water quality of this tributary of 
Back Bay. This property is adjacent to existing Refuge property on its 
north and east boundaries.
    Good things continue to happen at Back Bay! A new educational 
project to enhance the wildlife viewing opportunities of the public is 
the ``windows on wildlife.'' This one-way glass will allow the public 
to watch migratory birds without being seen by and thus disturbing the 
waterfowl. This project opened this winter. On a recent January day, 
the pond featured a visual smorgasbord of tundra swans, Canada geese, 
black sucks, snow geese, mallards and pied-billed grebes. A red-tail 
hawk flew close to the building and landed on the branch of a near by 
tree.
    This March the Back Bay Restoration Foundation is conducting ``Back 
Bay Forum 2008''. There will be presentations on research and data 
collected within the Back Bay watershed, followed by an opportunity for 
participants to identify future research and action needed for the 
health of the bay system.
    I wish to extend my appreciation for the funding that you 
appropriated through fiscal year 2008. The $505,000 that was 
appropriated in fiscal year 2008 has purchased 47 acres of a key parcel 
along Nanney's Creek. To date we have purchased 4,980-acres of the 
proposed 6,340-acre expansion. This means that this project is over 78 
percent completed in seventeen years. Thank you for the opportunity to 
comment on this important project. Bravo to Back Bay!
                                 ______
                                 
  Prepared Statement of Friends of Blackwater National Wildlife Refuge

    Madam Chairman and members of the subcommittee: On behalf of the 
Friends of Blackwater National Wildlife Refuge located near Cambridge, 
Maryland, I am submitting testimony for the Senate Appropriations 
Subcommittee on the Interior and Related Agencies concerning the fiscal 
year 2009 budget for the National Wildlife Refuge System. We 
respectfully request that the subcommittee support the following 
funding levels:
  --$514 million in fiscal year 2009 for the U.S. Fish and Wildlife 
        Service's (FWS) National Wildlife Refuge System Operations and 
        Maintenance (O&M) account;
  --$55.1 million for the Partners for Fish and Wildlife Program, of 
        which $2 million be allocated to conduct strategic habitat 
        conservation around national wildlife refuges in strategic 
        partnerships among the FWS, refuge Friends and other national, 
        regional and local interests;
  --$1 million for the Volunteer Invasive Monitoring Program and grants 
        for invasive species work with Friends;
  --$100 million for the FWS land acquisition budget to acquire habitat 
        and marshlands from willing sellers across the country;
  --$10 million for the National Fish and Wildlife Foundation (NFWF) in 
        the FWS's Resource Management General Administration budget.
    It is necessary that the National Wildlife Refuge System budget by 
$15 to $20 million each year in order to maintain services and programs 
from the previous year. The $15 to $20 million increase accounts for 
cost-of-living increases for FWS personnel, growing rent and real 
estate costs and other cost increases, while sustaining current levels 
of visitor services and wildlife management. Funding the O&M account at 
$514 million would allow the Refuge System to avoid further employee 
layoffs and reductions in services that are important at the Blackwater 
NWR, and the over 150,000 who visit the Blackwater NWR each year, while 
also preventing the approximately $3.5 billion National Wildlife Refuge 
System O&M backlog from growing larger. While refuges received a $39 
million increase for fiscal year 2008, the National Wildlife Refuge 
System is still not funded at the level it was in fiscal year 2003 when 
adjusted for inflation. Because of this, refuges such as ours, the 
Blackwater NWR, struggle to meet their most basic wildlife conservation 
objectives.
    Refuges are also vital economic engines in the local economy, 
fueling hotel stays, restaurant patronage and much, much more. 
According to Banking on Nature, a 2007 report by the U.S. Fish and 
Wildlife Service, recreational visits to national wildlife refuges 
generate substantial economic activity. Nearly 35 million people 
visited national wildlife refuges in 2006, generated over $1.7 billion 
for local economies--including 27,000 jobs and $185 million in tax 
revenues. Eighty-seven percent of all economic activity generated by 
refuges is from non-resident visitation. These visitors contribute to 
the local economy through patronage of local hotels, restaurants, 
outfitters and gas stations to name just a few examples. We simply 
cannot afford to lose these local economic engines. Supporting our 
refuges with adequate funding is an effective method of resisting the 
possible recession with which the nation is currently struggling.
    While providing adequate funding to operate and maintain the Refuge 
System is of vital importance, most refuges are too small in size to 
achieve their conservation mission and objectives alone. Their 
integrity depends on the health of surrounding State, Federal and 
private lands and waters. Consequently, there is a growing need to 
provide funding to ensure that lands and waters beyond refuge 
boundaries are conserved. Today, the alarming rush to convert rural 
land to subdivisions and strip malls has caught wildlife managers off 
guard and requires quick action. Accordingly, for fiscal year 2009 we 
respectfully ask that the Subcommittee appropriate $55.1 million for 
the Partners for Fish and Wildlife Program, of which $2 million be 
allocated specifically to conduct strategic habitat conservation around 
national wildlife refuges that engages refuge Friends and other 
national, regional and local interests that work with States, counties 
and municipalities to identify, prioritize and implement land and water 
conservation opportunities beyond refuge boundaries. These local 
initiatives will result in strategic visions which will serve as 
blueprints for use of State, Federal, and private conservation dollars, 
and will expedite implementation of State Wildlife Action Plans.
    The Senate Appropriations Subcommittee on the Interior and Related 
Agencies should provide strong funding for Refuge System Visitor 
Services programs and Visitor Facility Enhancement Projects. Visitor 
Services funding pays for many Friends and volunteer programs. We 
depend on this funding for programs that allow us to remain effective 
stewards of our refuge.
    Recognizing invasive species as a top threat to our refuge lands, 
we also ask the Committee to continue their support by again providing 
$1 million ``for cooperative projects with Friends groups and 
volunteers on invasive species control''. This funding supports worthy 
programs like competitive grants for Friends groups and the Volunteer 
Invasives Monitoring Program. Utilizing the energy and enthusiasm of 
Friends and volunteers is a proven, effective and economical 
partnership for the National Wildlife Refuge System and U.S. Fish and 
Wildlife Service.
    We encourage the subcommittee to allocate sufficient funding to 
assess and purchase high-priority water rights and high-priority lands 
and conservation easements through the Land and Water Conservation Fund 
(LWCF), $100 million. Inadequate water quantity and quality represent 
some of the biggest obstacles for refuges to overcome and 
unfortunately, many refuges do not own the water rights on the refuge 
or they are not guaranteed an allocation of water from a river or 
stream. The FWS is currently compiling a needs-based priority database 
of where water rights need to be secured, and we urge the subcommittee 
to allocate sufficient funding to allow the FWS to acquire these 
essential rights while they are available and affordable. Also, The 
Refuge System land acquisition backlog is estimated at more than $4 
billion, with over 15 million acres remaining to be acquired within 
approved refuge boundaries. While a full suite of conservation 
strategies should be employed in working with private landowners, in 
cases where fee title acquisition is preferred by the landowner and the 
refuge has identified it as a top priority, the FWS should acquire the 
land.
    We encourage the subcommittee to allocate $10 million for the 
National Fish and Wildlife Foundation through the FWS' Resource 
Management General Administration appropriation. Each year, NFWF 
receives more project proposals than they are capable of funding. 
Adequate funding will ensure NFWF has the ability to leverage resources 
to fund projects that directly benefit diverse species in, around and 
outside of national wildlife refuges across the country.
    In this era of uncertainty related to climate change, we urge the 
Subcommittee to allocate $30 million in dedicated funding to allow the 
FWS to create a plan for how to manage refuges in such a way that would 
allow them to adapt to anticipated changes. Work currently conducted by 
scientists including Dr. Michael Scott, Senior Scientist with the U.S. 
Geological Survey and Professor of Wildlife Biology at the University 
of Idaho, show how models for individual refuges can be made that 
simulate rising water levels, increased temperatures, and how species 
are expected to react. While these innovative tools are now readily 
available, without dedicated funding, refuge staff is simply unable to 
take full advantage of it. Refuges are perhaps our best natural 
laboratories on a national level to assess impacts to wildlife and 
habitat as a result of global climate change; a small investment could 
yield valuable insights that will guide wildlife management and land 
use planning well into the future.
    Again, on behalf of the Friends of Blackwater National Wildlife 
Refuge Association, Inc., we thank you for your consideration of our 
requests. If you have any questions, we would certainly be happy to 
help in any way.
                                 ______
                                 
    Prepared Statement of Friends of the Boundary Waters Wilderness

    Madam Chairman and honorable members of the committee: I appreciate 
the opportunity to present this testimony in support of a $2.25 million 
appropriation from the Land and Water Conservation Fund for the 
acquisition of two parcels in the Superior National Forest in 
northeastern Minnesota. The tracts are the 30-acre Chainsaw Sisters 
property and the 60-acre Wolf Island property.
    As you know, Mr. Chairman, this is one among many worthy proposals 
nationwide for land acquisition funded from the LWCF. Unfortunately, 
funding of the LWCF has diminished by about 75 percent since fiscal 
year 2002, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left the agencies responsible for our national parks, 
forests and wildlife refuges unable to acquire--from willing sellers--
key parcels, within and adjoining public lands, that have been 
identified as critical to protecting these national treasures and 
enhancing their recreational, historic and conservation values. So I 
also urge the subcommittee to increase overall funding for the LWCF .
    Friends of the Boundary Waters Wilderness is devoted to protecting, 
preserving and restoring the wilderness character of the Boundary 
Waters Canoe Area Wilderness and the surrounding Quetico-Superior 
ecosystem. We are a nonprofit, membership organization formed in 1976 
to advocate for full wilderness protection of the Boundary Waters, 
which the Congress established in 1978. We have more than 2,500 members 
and a large cohort of additional supporters and allies nationwide.
    The Superior National Forest spans 150 miles along the U.S.-
Canadian border in northeastern Minnesota and features boreal forests, 
lakes, streams, bogs and rocky outcrops. Within the national forest 
lies the Boundary Waters Canoe Area Wilderness (BWCAW), a million-acre 
maze of unrivaled opportunity for seekers of solitude and wild places. 
Established by Congress in 1978, the Boundary Waters Wilderness is the 
Nation's only large lake-land wilderness outside Alaska.
    Outdoor enthusiasts can enjoy camping, canoeing, fishing, hiking, 
cross-country skiing and dog-sledding in the wilderness. The deep 
foliage and plentiful water also make homes for a wide variety of 
wildlife, including bald eagles, loons, moose, timber wolves, black 
bears, lynx and myriad migratory birds. The BWCAW draws some 250,000 
overnight visitors annually, making it the most visited of the 
wilderness areas established by Congress.
    Through the U.S. Forest Service's Minnesota Wilderness acquisition 
program, two properties are available for acquisition in fiscal year 
2009 in the Superior National Forest. Both are important to the future 
of the wilderness.
    The 30-acre Chainsaw Sisters property is on Picket Lake and Mudro 
Creek, within the Superior National Forest and at an entry point into 
the BWCAW. Such properties are in high demand for second homes and 
recreational properties; in this case, development could threaten 
public access at an especially popular entrance to the Wilderness.
    Since 1988, the Chainsaw Sisters Saloon--so named for its owners, 
two sisters who had worked on a Forest Service crew--has been a 
pilgrimage site for canoeists, snowmobilers, hunters and others. The 
Chainsaw Sisters property, where the saloon sits, has long been a 
priority acquisition for the Superior National Forest and the Friends 
of the Boundary Waters Wilderness. Maintaining public access at this 
BWCAW entryway will ensure access for up to 72 overnight campers and 
canoeists each day and an unlimited number of day-use visitors.
    The 60-acre Wolf Island property is located in Lake Vermilion, and 
is also a high priority for protection this year by the U.S. Forest 
Service. Twenty-four miles long, Lake Vermilion is one of Minnesota's 
largest vacation destination lakes. It is home to healthy populations 
of walleye, northern pike, muskie, bass and bluegill, and was once 
named by National Geographic as one of the Nation's 10 most scenic 
lakes.
    Wolf Island's location affords beautiful views of the beloved lake 
as well as the national forest. Its 60 acres are mostly high, rolling 
land that is densely forested with mature aspen, pine and maple. Its 
rich history was well documented by John Jaeger, a prominent 
Minneapolis architect who homesteaded the island after first visiting 
in 1906. Jaeger's drawings identified cultural resources, including 
burial mounds and a canoe-building workshop plaza.
    The Bois Forte Band of Chippewa and the Superior National Forest 
plan to conduct a formal cultural resource inventory of the island. The 
acquisition of the island by the Superior National Forest will bring 
into public ownership an outstanding scenic resource and access for 
paddlers, boaters and other recreational users who follow in the 
footprints of both Native Americans and the fur-trading French 
voyageurs of years gone by.
    Public acquisition of the Chainsaw Sisters property and Wolf Island 
will ensure that the attributes of the northwoods region so treasured 
by its many visitors--the solitary sound of the common loon, the 
serenity of an evening paddle, the call of the wolf--will be better 
protected in perpetuity. It will also maintain key access for thousands 
of visitors each month to the waterways of the BWCAW.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
 Prepared Statement of Friends of Buenos Aires National Wildlife Refuge

    Madame Chairwoman and members of the subcommittee: On behalf of the 
Friends of Buenos Aires National Wildlife Refuge (Friends of BANWR) and 
its membership composed of individuals who are concerned about our 
Nation's wildlife and public lands, we want to thank you for your 
leadership and strong support for the National Wildlife Refuge System 
(NWRS) including the enacted $39 million increase for fiscal year 2008.
    Thank you for the opportunity to offer comments on the fiscal year 
2009 Interior Appropriations bill.
    We strongly support the detailed testimony that was submitted by 
the National Wildlife Refuge Association (NWRA).
    Our refuge is located in Arizona on the Mexican border.
    We are aware that you cannot consider allocations to specific 
refuges. However, we wish to give specific examples on our refuge to 
corroborate a few of the comments made in the NWRA request.
  --Border issues are a particular problem here, but funding for Law 
        Enforcement has been adequate, for which we thank you.
  --Operations and Maintenance.--We have no adequate housing for staff. 
        Given the remoteness of our refuge, this causes problems in the 
        recruitment and maintenance of staff. Personnel must either 
        live in trailers or commute long distances, which takes time 
        and more and more money as the price of gasoline goes up.
    Our administration and visitor centers are inadequate.
  --Land Acquisition.--The drought in the Southwest is causing nearby 
        ranchers to begin to sell their private land. We recently 
        missed an opportunity to obtain a ranch near an important 
        wetland. Development, with its attendant polluted runoff and 
        human traffic now threatens this sensitive habitat. More such 
        sales are sure to come and we have no acquisition funds.
    These are just a few specific examples to illustrate the need for 
protecting our wonderful natural heritage. We truly appreciate the 
opportunity to offer testimony and thank you for your consideration.
                                 ______
                                 
            Prepared Statement of Friends of Congaree Swamp

    On behalf of: American Rivers, Archaeological Society of South 
Carolina, Audubon South Carolina, Carolina Bird Club, Carolinas' Nature 
Photographers Association, Columbia Audubon Society, Congaree Land 
Trust, Friends of Congaree Swamp, League of Women Voters of the 
Columbia Area, League of Women Voters of South Carolina, National 
Audubon Society, National Parks Conservation Association, Palmetto 
Conservation Foundation, Palmetto Paddlers, Inc., Richland County 
Conservation Commission, Sierra Club--John Bachman Group, South 
Carolina Coastal Conservation League, South Carolina Native Plant 
Society, South Carolina Nature-Based Tourism Association, South 
Carolina Wildlife Federation, The Sierra Club of South Carolina, The 
Trust for Public Land, and The Wilderness Society.
    Madam Chairman and honorable members of the subcommittee: We 
appreciate this opportunity to present testimony in support of an 
appropriation of $5.38 million from the Land and Water Conservation 
Fund--to enable the National Park Service to purchase the 1,840-acre 
Riverstone tract for Congaree National Park in South Carolina.
    Congaree Swamp National Monument was authorized as a National Park 
Service unit in 1976. In 2003, Public Law 108-108 elevated Congaree to 
a National Park--South Carolina's first and only National Park--and 
authorized a boundary expansion of 4,576 acres.
    Congaree National Park--on the floodplains of the Congaree and 
Wateree rivers--is recognized as an International Biosphere Reserve, a 
National Natural Landmark, a Wilderness Area, and a Globally Important 
Bird Area. All waters within the park's pre-2003 boundary have been 
designated Outstanding Resource Waters, and much of Cedar Creek within 
the park is designated Outstanding National Resource Waters.
    With more than 75 species of trees, Congaree hosts the Nation's 
largest tract of old-growth bottomland hardwood forest. The trees 
growing in this floodplain forest are some of the tallest in the 
eastern United States, forming one of the tallest temperate deciduous 
forest canopies in the world--taller than old-growth forests found in 
Japan, the Himalayas, southern South America, and eastern Europe.
    More than 195 species of birds have been observed within the park. 
Following rediscovery of the Ivory-billed Woodpecker in Arkansas, 
Congaree National Park is considered prime habitat for recovery of this 
species. The South Carolina Ivory-billed Woodpecker Working Group 
coordinates research within Congaree National Park.
    Congaree National Park also offers excellent opportunities for 
recreation. A 2.5-mile boardwalk loop provides easy access into 
Congaree's forest, and more than 20 miles of trails are available for 
hiking. Visitors enjoy canoeing and kayaking on Cedar Creek, the only 
Outstanding National Resource Waters in South Carolina. Outdoors 
enthusiasts can also enjoy fishing, camping, birding, and picnicking.
    In fiscal year 2005, Congress appropriated $6 million from the Land 
and Water Conservation Fund to purchase the 2,395-acre Bates Fork 
tract--at the confluence of the Congaree and Wateree rivers. This is 
the largest tract within the Congaree park boundary expansion 
authorized in 2003. The National Park Service completed this 
acquisition in November 2005.
    Fiscal year 2009 presents the opportunity to purchase the 1,840-
acre Riverstone tract--the second-largest tract within the park 
boundary expansion authorized in 2003. The Riverstone tract will 
connect the previously-acquired 21,786 acres of Congaree National Park 
with the recently-acquired 2,395-acre Bates Fork tract. The Bates Fork 
tract, in turn, adjoins the 16,700-acre Upper Santee Swamp Natural 
Area, owned by the South Carolina Public Service Authority. So, the 
Riverstone tract is the link to connect a conservation corridor of more 
than 42,000 acres along the Congaree, Wateree, and upper Santee rivers.
    In addition to its biological resources, the Riverstone tract has 
significant geological and hydrological resources, including Running 
Lake, Little Lake, Big Lake, Running Creek, and Bates Old River. Bates 
Old River is a 4-mile-long oxbow lake, the former channel of the 
Congaree River. This oxbow is flanked by the best-defined ridge and 
swale topography in the Congaree floodplain. No other oxbow lake in the 
Congaree floodplain can compare to Bates Old River in size, 
hydrological dynamics, accessibility, or as a recreational resource.
    The Riverstone tract also has significant cultural and historical 
resources, including a prehistoric mound from the Woodland Period (1000 
B.C. to A.D. 1000). The history of McCord's Ferry (established before 
1750 as Joyner's Ferry) is intertwined with the Riverstone tract. 
Patriot and British forces used McCord's Ferry during the American 
Revolution.
    Accordingly, acquisition of the Riverstone tract will add to 
Congaree National Park's opportunities for visitor access, education, 
recreation, and research.
    The Trust for Public Land (TPL) has committed to acquire Phase I of 
the Riverstone tract this spring 2008, and has signed an option 
agreement with the private landowner to secure the remainder of the 
tract until March 31, 2009 for Park Service acquisition. The price of 
the Riverstone property is $5.88 million, based on a federally-approved 
appraisal. Recognizing this tract as a key priority for acquisition, 
the Park Service has identified and dedicated $500,000 in existing 
funds toward Phase I.
    For the first time ever, the Park Service has the authorization and 
the opportunity--and the urgent necessity--to acquire the entire 
Riverstone tract from a single willing seller. Prompt funding is the 
key. If this opportunity is missed, the Riverstone tract would be sold 
to another buyer, or subdivided and sold to multiple buyers. The Park 
Service would have to acquire multiple parcels, thereby increasing 
total purchase cost and reducing the probability of acquiring all 
parcels.
    The 23 organizations which join in this testimony urge you to 
provide full funding this year to protect this critical tract at 
Congaree National Park. A fiscal year 2009 appropriation of $5.38 
million from the Land and Water Conservation Fund will enable the Park 
Service to complete acquisition of the Riverstone tract, thereby 
ensuring permanent protection of its outstanding natural and cultural 
resources, and connecting the 22,000 acres upriver with the 19,000 
acres downriver.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony and for your consideration of our request.
                                 ______
                                 
               Prepared Statement of Friends of Hyde Farm

    Madam Chairman and honorable members of the committee: I appreciate 
the opportunity to provide testimony on behalf of a request for a 
$3.031 million Land and Water Conservation Fund appropriation in fiscal 
year 2009 to permit the National Park Service to acquire the 95-acre 
Hyde Farm property at the Chattahoochee River National Recreation Area 
in Georgia.
    Flowing in a southwesterly direction from the Appalachian Mountains 
in northeastern Georgia, the Chattahoochee River is a significant 
recreational and ecological corridor in the Atlanta metropolitan area. 
Between Atlanta and Chattanooga a series of mountain ridges separated 
by river valleys cross the landscape. The Chattahoochee River valley is 
the southernmost in this chain. The river's length and breadth provides 
an excellent corridor for river recreation and open space for wildlife 
habitat. With substantial headwaters in the forested mountains of 
northern Georgia, the protection of the river's water quality for 
drinking water and recreation is an important regional and national 
objective.
    The Chattahoochee River National Recreation Area provides much 
needed recreational opportunities in the Atlanta metropolitan area for 
all Georgians. The park was created in 1978 to protect the watershed, 
provide opportunities for river and land recreation, and to conserve 
important tracts in the river's floodplain. The park extends along the 
river for nearly 50 miles from Buford Dam at Lake Sidney Lanier to the 
entrance of Peachtree Creek tributary by Marietta Boulevard in Atlanta. 
Annually the park averages about 2.75 million visitors; many are from 
the burgeoning Atlanta metropolitan area. In recent years, the 
population in the State of Georgia has grown rapidly to about 9 million 
residents and half of these residents live in the Atlanta area. The 
population growth has placed tremendous pressure on lands important to 
the region's water quality, recreation, and historical and agricultural 
heritage. In 1999 Congress passed Public Law 106-154 expanding the 
boundaries of the park to protect additional lands in this ``nationally 
significant'' river corridor.
    In fiscal year 2009 the National Park Service has the opportunity 
to acquire the 95-acre Hyde Farm property in Cobb County. The farm has 
been in agricultural use since the 1830s when a log cabin was built on 
the site downstream from a Cherokee village. As the Chattahoochee River 
is the last natural barrier to entering Atlanta from the northwest, the 
Confederate army established its last defensive line in front of the 
Atlanta fortifications along the river southwest of the farm before the 
advancing Union armies of General Sherman in 1864. The Hyde Family 
first became involved in the farm in the 1870s and has owned the 
property since 1919. Until his death in 2004 in his early nineties, the 
farm was cultivated for family use by J.C. Hyde and his older brother, 
Buck. J.C. Hyde had a deep attachment to his land and its cultivation, 
and he wished to see the farmland forever protected. In 1993 the Hyde 
family sold approximately 35 acres of the property directly on the 
banks of the Chattahoochee River to the National Park Service for 
inclusion into the park. The entire Hyde Farm property is within the 
authorized boundaries of the park and is located between the Gold 
Branch and Johnson Ferry units.
    If acquired for the national recreation area, Hyde Farm would 
provide visitors with a window into the traditional farming culture 
that has largely disappeared in Cobb County and the Atlanta area. The 
property is adjacent to the northern end of the Johnson Ferry unit, 
which hosts seasonal visitor services, 2.5 miles of trails, and a boat 
launching site. In the 1999 legislation, Congress stated its intention 
to ``increase the level of protection of the open spaces . . . along 
the Chattahoochee River.'' The acquisition of the Hyde Farm represents 
one of the ``dwindling opportunities to protect the scenic, 
recreational, natural, and historic values'' of the Chattahoochee River 
corridor referred to by Congress in the act.
    Private contributions will enable the National Park Service to 
acquire Hyde Farm for less than half of its estimated fair market 
value. Already, the National Park Service has $900,000 available from 
previous fiscal years and just under $2 million from a fiscal year 2008 
appropriation. Thank you for your support last year to secure this 
initial funding; it was critical to the project. In fiscal year 2009, 
the final appropriation needed from the Land and Water Conservation 
Fund is $3.031 million.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Madam Chairman, thank you for this opportunity to provide testimony 
on this important land acquisition opportunity in Georgia.
                                 ______
                                 
       Prepared Statement of Friends of the Potomac River Refuges

    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of the Potomac River Refuges, we are submitting testimony for 
the Senate Appropriations Subcommittee on the Interior, Environment and 
Related Agencies. We support a funding level of $514 million in fiscal 
year 2009 for the U.S. Fish and Wildlife Service's (FWS) National 
Wildlife Refuge System Operations and Maintenance (O&M) account and an 
add to FWS' construction budget of $750,000 for the design and 
engineering of an administrative/visitor contact building at Occoquan 
Bay National Wildlife Refuge (NWR).
    Currently, the National Wildlife Refuge System suffers from a $3.5 
billion operations and maintenance stewardship funding backlog, which 
will only grow larger if current funding levels continue. While refuges 
received a substantial $39 million increase for fiscal year 2008, the 
National Wildlife Refuge System is still NOT funded at the level it was 
in 2003, adjusted for inflation. Because of this, refuges such as ours, 
the Potomac River Complex of which Occoquan is a part, struggle to meet 
even their most basic wildlife conservation objectives. In fact, 
funding shortfalls have led to the decline of refuge habitats and 
wildlife populations, aging facilities and infrastructure, the 
cancellation of many refuge public use programs and even increased 
crime on our public lands.
    The National Wildlife Refuge System budget must increase by $15 
million each year just to maintain the same level of services and 
programs as in the previous year. The $15 million increase accounts for 
cost-of-living increases for FWS personnel, growing rent and real 
estate costs and other cost increases, while sustaining current levels 
of visitor services and wildlife management. Funding the O&M account at 
$514 million would allow the Refuge System to avoid additional employee 
layoffs and reductions in services that are important to our refuge, 
our members and the over 40,000 people who visit the refuges that make 
up the Potomac Complex each year, while also preventing the current 
$3.5 billion O&M backlog from growing larger.
    Budget reductions over the last 3 years have severely impacted the 
Potomac River Refuges in Northern Virginia. The complex is comprised of 
Elizabeth Hartwell Mason Neck NWR, Occoquan Bay NWR, and Featherstone 
NWR. This complex is approximately 20 miles from Capitol Hill. Each 
refuge was established through strong public support and effort in 
recognition of their importance as representative pieces of this 
region's distinctive, but fast disappearing, natural environment. Mason 
Neck's woodlands and Potomac shoreline has been instrumental in the 
recovery of the bald eagle, Featherstone provides sanctuary for native 
flora and fauna dependent on tidal wetlands, and Occoquan Bay includes 
unique habitats of great importance to migratory waterfowl and 
songbirds and other wildlife. Each refuge and the complex plays an 
indispensable role in preserving the natural character of Northern 
Virginia.
    As part of FWS Region 5's workforce plan the 71 national wildlife 
refuges in the Northeast region have been classified as ``stay 
strong'', targeted, or de-staffed. The region has chosen to direct 
resources to ``stay strong'' refuges to avoid ``across-the-board 
mediocrity that would result from proportionately equal budget cuts at 
each refuge.'' To our dismay the Potomac River NWR Complex is 
classified as a targeted reduction refuge.
    The Potomac River Complex was de-staffed in fiscal year 2006. The 
Complex lost its only biologist and one of the two maintenance workers. 
Staff cuts resulted in program elimination therefore impacting FWS' 
ability to manage wildlife and their habitat. Wildlife surveys, 
research and investigations, biological monitoring, and invasive 
species control have been curtailed or eliminated. The lack of a 
biological program leave invasive species unchecked adversely impacting 
native plant and animal species. In addition, maintenance and support 
of public use facilities/activities including trails, roads, and 
programs have been reduced. At this point, even if additional 
maintenance funds were made available the current staffing level 
impedes the completion of additional work projects.
    Our local refuges are also threaten by illegal activities occurring 
on them. Documented activities are: trespass, gangs including MS-13, 
drugs, felonies, and undocumented aliens establishing camps. We believe 
some of these activities can be curtailed if refuge staff had an 
increased presence on the refuges. As mothers we are concerned about 
the safety of children and other visitors. Currently, the staff is 
housed miles away from any of the refuges in a strip mall along Route 1 
in Woodbridge. Vehicles and other equipment are stored at a rented 
garage a mile away from the office. Response to habitat, wildlife or 
visitor needs can take hours given the notorious Northern Virginia 
traffic. This situation creates numerous inefficiencies and safety 
issues.
    USFWS Region 5 has acknowledged the need for an administrative/
visitor contact station at Occoquan Bay NWR by listing it as their 
number one priority for building construction funds. However, even with 
this acknowledgment there is no funding in the President's fiscal year 
2009 budget for construction of this facility. We are urging this 
subcommittee to provide $750,000 for the design and engineering of this 
facility. Locating an administrative/visitor facility on the Occoquan 
NWR is estimated to improve the efficiency of daily refuge operations 
by twenty percent. For preservation of the habitat and wildlife, safety 
of the visitors and enhancing the efficiencies of the staff, planning 
of this facility needs to occur now.
    According to Banking on Nature, a 2007 report by the USFWS, 
recreational visits to national wildlife refuges generate substantial 
economic activity. Nearly 35 million people visited national wildlife 
refuges in 2006, generated over $1.7 billion for local economies--
including 27,000 jobs and $185 million in tax revenues. Eighty-seven 
percent of all economic activity generated by refuges is from non-
resident visitation. These visitors contribute to the local economy 
through patronage of local hotels, restaurants, outfitters and gas 
stations to name just a few examples. We simply cannot afford to lose 
these local economic engines.
    In conclusion, the Potomac River Refuges provide a wonder 
environment for plants and animals that we must treat with care and 
vigilance. The flora and fauna utilizing these refuges and the entire 
Refuge System are fundamental to our Nation. When Teddy Roosevelt 
established the Refuge System in 1903, he recognized these lands and 
the creatures dependent upon them were essential to our nation's 
development and would continue to be a vital part of our children's 
futures. The Friends of the Potomac River Refuges ask you to provide 
adequate funding for this refuge complex and the entire Refuge System 
to conserve our children's natural heritage.
    Friends of the Potomac River Refuges respectfully request the 
Interior Appropriations Subcommittee to add $750,000 to USFWS's 
construction budget for the design and engineering of an 
administration/visitor facility on Occoquan River NRW and increase 
funding for the National Wildlife Refuge System in fiscal year 2009 to 
$514 million. We hope you will support the Potomac River Refuges and 
others across the country by securing strong funding for the National 
Wildlife Refuge System. On behalf of the Friends of the Potomac River 
Refuges we thank you for your consideration of our requests. If you 
have any questions, we would certainly be happy to help in any way. If 
you have any questions regarding this request please call Joan 
Patterson at 703-791-3458 or send an email to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f45404e416f5b474a5f4e5b5b4a5d5c4041494e42464356015a5c01">[email&#160;protected]</a>
                                 ______
                                 
Prepared Statement of Friends of Rachel Carson National Wildlife Refuge

    Madam Chairman and honorable members of the subcommittee: I thank 
you for the opportunity to present to the subcommittee written 
testimony in support of the acquisition of the 110-acre Timber Point 
property at the Rachel Carson National Wildlife Refuge in 
Kennebunkport, Maine. An appropriation of $3.5 million from the Land 
and Water Conservation Fund, to be matched by an equal amount of 
private funds, is needed to protect this exceptional coastal property.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best-seller The Sea 
Around Us. This landmark study, in combination with her other writings, 
The Edge of the Sea and Silent Spring, led Rachel Carson to become an 
advocate on behalf of this Nation's vast coastal habitat and the 
wildlife that depends on it. With the celebration of the 100th 
anniversary of Rachel Carson's birth in 2007, her legacy lives on today 
at the refuge that bears her name and is dedicated to the permanent 
protection of the salt marshes and estuaries of the southern Maine 
coast.
    Consisting of meandering tidal creeks, coastal upland, sandy dunes, 
salt ponds, marsh, and productive wetlands, the Rachel Carson NWR 
provides critical nesting and feeding habitat for the threatened piping 
plover and a variety of migratory waterfowl, and serves as a nursery 
for many shellfish and finfish. The salt marsh habitat found at Rachel 
Carson NWR is relatively rare in Maine, which is better known for its 
dramatic, rocky coastline. Upland portions of the landscape in and 
around the refuge host a unique, unusually dense concentration of 
vernal pools that provide habitat for several rare plant and animal 
species. Located along the Atlantic flyway, the refuge serves as an 
important stopover point for migratory birds, highlighted by shorebird 
migration in the spring and summer, waterfowl concentrations in the 
winter and early spring, and raptor migrations in the early fall. In 
fact, southern Maine contains a greater diversity of terrestrial 
vertebrates, threatened and endangered species, and woody plants than 
any other part of the State.
    Previous years' appropriations have allowed the USFWS to conserve 
several properties within the refuge at Biddeford Pool and Parson's 
Beach, providing an important buffer between the intense development 
pressure along the southern Maine coast and its fragile coastal 
estuaries. With towns in the area growing rapidly--at rates ranging 
between 11 percent and 32 percent over the next 10 years--development 
pressures continue to spiral upwards and additional coastal properties 
are under threat.
    This year, an opportunity exists to significantly enhance the 
mission of the Rachel Carson NWR and its role in protecting coastal 
natural resources. Available for immediate acquisition from a single 
willing landowner in fiscal year 2009 is the 110-acre Timber Point 
property, one of the last large undeveloped properties along the 50 
miles of coastline from Kittery to Cape Elizabeth and a longstanding 
priority for the refuge. It is being offered to the USFWS at a 
significant discount through the generosity of the landowner and the 
support of the local community.
    Located in the Little River Division of the refuge near 
Kennebunkport, Timber Point is comprised of a large peninsula and a 
small island that is effectively connected to the peninsula at low 
tide. All told, the property includes over 2.25 miles of undeveloped 
coastline, an enormous amount for southern Maine. Unlike much of the 
State's southern coastal areas, Timber Point's coastline is mostly 
rocky, making it an ideal location for eider nesting and wintering 
purple sandpipers. The Timber Point peninsula hugs the mainland, 
offering both rocky oceanfront shoreline and a sheltered, sandy cove. 
Wintering black ducks, assorted sea ducks, and migratory shorebirds 
feed and roost along the shoreline while sanderlings frequent the sandy 
cove during migration. In addition, the rocky offshore habitat serves 
as a productive lobster nursery.
    In addition to the abundant wildlife which benefits from this 
virtually undeveloped coastline, upland habitats harbor many species of 
conservation concern as well. Habitats represented on Timber Point are 
diverse and include shrubby wetlands, early successional thickets and 
grassy openings, forested wetlands, and mature white pine forests. 
Early successional habitats are home to breeding American woodcock, 
willow flycatcher, eastern towhee, chestnut-sided warblers, gray 
catbirds, and bobolink. Upland forests and forested wetland habitats 
are likely to be used by breeding scarlet tanagers, northern flickers, 
and Baltimore orioles.
    Refuge-owned lands already protect the headwaters of the Little 
River, which empties into the Atlantic at Goose Rocks Beach--a popular 
public swimming area adjacent to Timber Point. Once acquired, the 
Timber Point parcel will enhance the refuge's ability to protect water 
quality in the estuary and important wildlife habitat by linking it to 
already conserved refuge lands in the Little River Division of the 
refuge. Currently, the USFWS holds an easement on just 35 of the 110 
acres at Timber Point, this proposed acquisition would recombine the 
easement with full fee ownership and permanently protect the entire 
property--save 11 acres, which members of the family would retain with 
a conservation easement preventing any further development of the 
parcel. Located in a rapidly developing part of Maine, this acquisition 
offers the refuge an outstanding opportunity to conserve southern 
Maine's coastal landscape and further consolidate the fragile habitat 
that exists on the marshes, uplands, creeks, and the estuaries of the 
coast.
    Given the development pressures in this part of the State, the 
opportunity to permanently protect this unique coastal property exists 
only for a limited time. An appropriation of $35 million for the Rachel 
Carson NWR in fiscal year 2009 will be matched by an equal amount of 
private philanthropy, offering a once-in-a-lifetime opportunity that 
will yield enormous public benefits for generations to come.
    Thank you again, Madam Chairman, for the opportunity to present 
this testimony in support of this important project.
                                 ______
                                 
   Prepared Statement of the Friends of Virgin Islands National Park

    Madam Chairman and honorable members of the committee: I appreciate 
the opportunity to provide testimony on behalf of an important land 
acquisition funding need at Virgin Islands National Park. An 
appropriation of $4.5 million from the Land and Water Conservation Fund 
(LWCF) is requested in fiscal year 2009 to begin Park Service 
acquisition of the unique Maho Bay property.
    I represent the Friends of VI National Park, a 501(c)(3) non-profit 
organization, dedicated to the protection and preservation of the 
natural and cultural resources of Virgin Islands National Park and to 
promoting the responsible enjoyment of this unique national treasure. 
We have more than 3,000 members--20 percent of whom live in the Virgin 
Islands and the balance represent every state in the union.
    We carry on the rich tradition of using private philanthropy for 
the betterment of this park as well as mobilize volunteers and 
community participation. In our 19 years of work in support of Virgin 
Islands National Park we have been involved in many initiatives, 
projects and activities that help this park be a model of natural 
resource protection and cultural preservation--but none have been as 
important as our work in support of the acquisition of Estate Maho Bay 
and its incorporation within the park.
    We have played the important role of informing and motivating the 
community about the issues related to the preservation of Estate Maho 
Bay. But motivation was hardly needed; the preservation of Estate Maho 
Bay and ensuring unimpeded access to this spectacular area enjoys near 
unanimous support among native St. Johnians, residents who have moved 
here from mainland United States and visitors alike--no easy feat for a 
community that prides itself in its diversity of opinions.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place. More than 800 species of trees, 
shrubs, and flowers are found in the park, and more than 30 species of 
tropical birds breed on the island, which was designated an 
international Biosphere Reserve by the United Nations in 1976. St. John 
is also home to two species of endangered sea turtles, the hawksbill 
and the green. In addition, the park contains archeological sites 
indicating settlement by Indians as early as 770 B.C. The later 
colonial history of St. John is also represented by remnants of the 
plantations and sugar mills established by the Danes in the 18th and 
19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on earth match the breathtaking beauty of Maho Bay. A lush 
forested slope rising nearly 1,000 feet rims its crystal waters and 
soft white beaches. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green turtles and magnificent coral 
reefs. This fragile area contains large nesting colonies of brown 
pelicans, as well as the migratory warblers and terns that winter on 
St. John. In addition to its natural treasures, the largest 
concentration of historic plantations and ruins on the island is found 
within this area.
    Available within the Virgin Islands National Park boundaries in 
fiscal year 2009 is the first phase of a 207-acre acquisition at Maho 
Bay. This Maho Bay property offers spectacular views of the bay and 
includes some beachfront. It is extremely important because of their 
relationship to the whole undeveloped area and its cultural resources. 
What most people do not know about this property is that it is not 
owned by the park, even though it has every appearance of being so.
    Though the park boundaries cover a broad area of St. John, the 
National Park Service actually owns two separated blocks of land. A 
smaller block covers the northeastern shore of the island, and a 
larger, more contiguous block extends from the southern to northwestern 
side. The Maho Bay property is what divides these two section of the 
park and its acquisition would be the first step in linking these two 
blocks, ensuring future access, resource connectivity, and seaside 
protection.
    Wetlands in the lower portion of the watershed provide adequate 
sediment retention for the undeveloped nature of this area. As a result 
of long-term geological processes, the topography created by these 
processes and the historical rise of sea level during the past 5,000 
years, a large, rare and complicated freshwater dominated wetland 
developed throughout the basin. It represents a natural stage wetland 
typical of large watersheds with relatively flat basin topography. The 
Maho Bay wetland is the largest of this type on St. John and along with 
the Magens Bay wetland on St. Thomas, one of only a few of this type in 
the Territory. These wetlands provide habitat to numerous species of 
shorebirds, water fowl and other wildlife, several listed as endangered 
under the V.I. Endangered and Indigenous Species Act. Others are 
protected under various federal laws and treaties.
    To the people who live on St. John--both native St. Johnians and 
those who have chosen to make St. John their home, and the millions of 
visitors who come annually to experience and enjoy this remarkable 
place, Maho beach is the most accessible beach on the island and one of 
the most popular. Due to its close proximity to the road, the nearly 
flat beach and the shallow water it is particularly popular with 
families with small children, people with mobility concerns, non-
swimmers and, of course, those who just love a beautiful beach.
    The land was historically used during the plantation era for 
agricultural activities such as sugar cane, coconut, and cotton 
cultivation. The lands included in the Phase I area include portions of 
several historic plantation era sugar estates. The Maho Bay area 
contains the highest density of plantation era estates on St. John. 
Preservation of these sites is important in reconstructing the history 
and heritage of St. John. With increasing growth and investment 
throughout the Caribbean--including places not far from the unspoiled 
beauty of St. John--this vulnerable land has been the focus of intense 
development threats. In recent years, more than one investor envisioned 
private development along these shores, which would have jeopardized 
the natural and cultural resources of the Maho Bay area and access to 
the beach.
    The total estimated fair market value of the 207 acres is $18.6 
million. This property is being made available to the National Park 
Service for a total of $9 million over 2 years, with the balance to be 
provided through private donations of cash and land value. This year, 
an appropriation of $4.5 million is needed from the Land and Water 
Conservation Fund toward the purchase of the first phase (105 acres) of 
these valuable lands.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Madam Chairman and distinguished committee members, I want to thank 
you for this opportunity to testify on behalf of this important 
national protection effort in Virgin Islands National Park. The 
protection of Maho Bay has spurred great interest on St. John and in 
the Virgin Islands because of the multiple scenic, cultural, historic, 
and ecologic values it holds. On behalf of the Friends of Virgin 
Islands National Park and the over one million visitors to the Park 
each year, I appreciate your consideration of this funding request.
                                 ______
                                 
   Prepared Statement of Friends of Wallkill River National Wildlife 
                                Refuges

    Madam Chairman and honorable members of the committee: I am 
grateful to have the opportunity to submit testimony. I request that 
you approve $514,000,000 for the United States Fish and Wildlife 
Operations and Maintenance budget. In the final budget, our National 
Wildlife Refuge System received $39 million above the Presidents 
budget, and it was stated: ``Increased Funding for the refuge 
operations should be used to re-establish basic operating capacity and 
staffing shortfalls at all refuges nationwide. In addition, these funds 
should be distributed outside the Refuge Operations Needs System and 
other traditional allocation formulas.'', (page 7 of the fiscal year 
2008 budget, passed on December 27, 2007). Thank you, that increase has 
made a difference by increasing available funds throughout the refuge 
system. Unfortunately, this amount remains inadequate for the U.S. Fish 
and Wildlife Service to implement the requirements of the 1997 Refuge 
Improvement Act. My testimony will highlight a few examples of how 
underfunding the system results in the National Wildlife Refuge System 
falling short in both fulfilling the will of Congress and the needs of 
the American people. It is imperative to remember that the refuge 
system is a system and that Every Refuge Matters.

                           DE-STAFFED REFUGES

    Now, I want to share with you what has happened in a year's time, 
and provide you a reality check of how those funds are being used to 
carry out the National Wildlife Refuge System's mission. This situation 
represents only the Northeast Region; other regions have more refuges 
that have been, or will soon be, de-staffed. I cannot imagine the 
purpose of the Refuge Improvement Act was to de-staff and close 
refuges. While Service management may not call these refuge closed, in 
terms of their accessibility to the American people, they are closed; 
let's call a spade, a spade. All the refuges I stated above have been 
de-staffed, except the two whose Friends Groups I represent--Wallkill 
River, and its satellite, Shawangunk Grasslands--refuges whose staff 
have been collectively cut from six to one. The manager of that refuge 
has been told to look for another job for more than 2 years now, all 
while being charged to write the refuge's master plan and a plan to 
more than double the size of the Wallkill River refuge.
    Great Bay NWR, in New Hampshire, was de-staffed on January 31 of 
this year. It does not have a Friends organization to advocate for it. 
It is a classic case of when the System gives up on the refuge much of 
the community gives up as well. Indeed, it had a Friends group but 
there was little they could do with out a building to hold functions in 
and without the leadership of management, they disbanded.
    Sunkhaze Meadows in Maine, was also de-staffed January 31 of this 
year, it is in better shape; it still has a Friends group to advocate 
for it.
    Supawna Meadows in southwestern New Jersey, was de-staffed and its 
doors were closed 2 years ago. It has a Friends group on the struggling 
with the idea of giving up. They were told their refuge, supported by 
their tax dollars and their volunteer hours, would be the last refuge 
to be re-staffed in the region; how can a community have hope and 
continue to spend their weekends working on a refuge when they see no 
future? Volunteer hours for the nation last year were 1,489,890 hours, 
that equates to $27,785,418.00, the equivalent to 716 full time 
employees, that's some serious numbers. We Friends love our refuges and 
we can do great work but we really have to have USFWS staff to 
supervise what we do, we cannot, and should not, run these refuges 
ourselves.
    For the past several weeks, I have studied the eight Strategic 
Workforce Plans of each region of National Wildlife Refuge System. 
Rising personnel and operational costs combined with several years of 
flat budgets have triggered a nationwide 20 percent reduction in the 
workforce. As cost of living raises, energy inflation, and non-mission 
administrative workloads continue to increase, the ability to staff 
refuges to do on-the-ground work diminishes.

                               COMPLEXING

    In many cases Regional offices chose to ``Complex,'' meaning they 
combine refuges that are geographically and ecologically similar, but 
they share a staff. In most cases the ``Parent Refuge'' is hours away 
from the ``Satellite Refuges.'' Some refuges have always been Complexed 
because they were many small areas or islands. In many more recent 
cases, these Satellite Refuges have buildings that no longer have 
staff. They no long have visitor centers and community services are cut 
with no one there to administer programs. In the words of USFWS Region 
3 Workforce Plan:
    ``Experience with Complex offices in the Midwest has shown that 
staffs in complex offices are often higher graded than staffs of the 
prior stand alone refuges. Instead of Reducing costs, the complex 
office may actually be more expensive. Span of control and 
responsibility for managers can grow beyond an individual's capability, 
with a resulting loss of attention to employee and resource issues. In 
addition, as refuges are reformed into a complex, individual refuge 
units lose identity and individual recognition. And, as refuges lose 
identity, they may lose the support from local community. Volunteer and 
Friends groups, who have a loyalty and pride in their refuge, find it 
harder to support geographically anonymous complex offices.''
    Region 3 clearly recognizes the futile nature of Complexing. This 
is exactly what happens when refuges are de-staffed, and this is 
happening across the country. The community cannot reach staff on the 
phone or in person and they give up. The knowledge of local issues is 
minimal at best. Often more harm than good comes of these contacts. The 
worst thing that could happen to a refuge is when it is de-staffed and 
its community abandons hope, and let me assure you this is happening.

                      NATIONWIDE STAFF REDUCTIONS

    Region 1, The Pacific Region, will have a staff reduction of 49 
positions, 64 refuges.
    Region 2, Southwest Region, will be reduced by 38 positions, 45 
refuges.
    Region 3, Midwest Region, will be reduced by 71 positions, 54 
refuges.
    Region 4, Southeast Region, will be reduced by 79 positions, 128 
refuges.
    Region 5, Northeast Region, will be reduced by 24 field positions, 
71 refuges.
    Region 6, Rocky Mountain Prairie Region, 44. positions, 117 
refuges.
    Region 7, Alaska, 21 positions, 16 refuges, 76,774,229 acres.
    Region 8, California and Nevada, no cuts, 51 refuges, 11 complexes 
and 3 individual refuges.
    Many reductions were made in the years preceding these plans simply 
not refilling positions as staff were transferred or retired. Some were 
buy outs and early retirements.
    Some regions are more remote and there is no need to have a large 
staff. In the Northeast and Southeast there are more refuges and more 
people and a greater need for staff at these refuges. Alaska is remote 
and has a great quantity of land but the costs of maintaining there are 
higher so the need is for less manpower and more on-the-ground 
resources.
    California and Nevada, Region 8, were a newly created region and 
already at a desired ratio of staff and maintenance, reflecting its 
creation in this austere budget climate. The Southeast has many areas 
that are vulnerable to hurricanes, and as we all learned from Katrina 
and Rita sometimes extra resources are needed to address the damage 
from hurricanes.

                            LAW ENFORCEMENT

    There are 400 total Law enforcement officers nationally for 548 
refuges and 37 wetland management districts. There are 234 full time 
Law Enforcement officers and 164 dual-function, officers meaning some 
have a regular position such as biologist or refuge manager and they 
are also performing the duties of law enforcement. These officers have 
the responsibility to prevent destruction of habitat, maintain safe 
conditions for visitors and personnel. At my local refuges, we have one 
law enforcement officer for 3 refuges, each an hour apart from one 
another. Many working hours are lost on all Complexed refuges because 
staff have to drive to distant refuges that they would normally spend 
working, but now spend driving and adding to the nation's carbon 
emissions. And then there is the cost of gas. Without law enforcement 
presence there are big problems with ATV and Snowmobile damage all over 
the Nation. There is vandalism and poaching. When refuges are also 
without on site staff management there is not even anyone to report 
damage to. The public can try but the nearest staff person, might be 
reached by phone, who is hours away. Our National Wildlife Refuges are 
our National Treasures; it is quite an embarrassment to us all when a 
family goes to a refuge to see nature and instead they see beer 
bottles, condoms and drug paraphernalia. It takes dedicated on site 
staff--literally and figuratively--to display a presence, and give out 
a few tickets here and there. Simply stated, we need more law 
enforcement officers.

                              MAINTENANCE

    There is a backlog on maintenance of $3.5 billion. Specifically, 
this is for repairing buildings, other facilities, keeping vehicles 
maintained, keeping refuge assets in good condition, maintaining trials 
and other public use areas safe, maintained, and accessible. When there 
is no one to maintain equipment, it sits there unusable and decaying. 
But that doesn't really matter when there is no one to use the 
equipment does it? . . . except that these are taxpayer vehicles and 
taxpayers are losing out. Volunteers have to try and pick up the slack 
for maintenance. But again, if there are no staff to guide, supervise 
or allow access to maintenance equipment, the maintenance can't get 
done by volunteers either. All government facilities are required to be 
handicap accessible. This requires staff to regularly maintain these 
places for handicapped people's use. With out people on refuges that 
option can be totally lost, no one to open gates for parking, no one to 
make sure facilities are functioning and safe, no one to respond when 
problems arise.

                              PARTNERSHIPS

    When refuges lose management, many partnerships dissolve such as 
those with other Federal agencies, such as NASA, the Army Corps of 
Engineers, as well as state fish and wildlife and environmental 
agencies. There have been years and many manpower hours into building 
these programs. Relationships simply fall apart when the management 
positions are eliminated.
    There are hunting organizations that volunteer their manpower to do 
invasive species maintenance on refuges. In some cases, it is Ducks 
Unlimited, Audubon, Trout Unlimited, and the Ruffed Grouse society 
biologists who do biological research. Refuges need staff biologists 
who are familiar with the local area to supervise and keep data 
centralized and uniform for the research to be credible and meaningful, 
and to provide context for the biological research performed by interns 
and bio-technicians. Without a biologist on site, little, if any, 
research gets done. These are the people monitoring invasive and 
endangered species. It is much more financially prudent to keep 
invasive species under control than to have to come in later after the 
invasives have taken over and eliminated native species.
    We can not keep expecting the volunteers to pick up more and more 
of the work staff used to do. As I have stated before, when there is no 
staff to supervise the volunteers the work can not get done by them 
either. USFWS staff need to be around to make decisions about Refuge 
property; those decisions cannot and should not be made by volunteers.
    When offices are closed, the community no longer has access, and 
the only interpretive and educational programs are provided by 
volunteers if any are available and willing. This decreases services to 
hunters and other wildlife recreationalists. Un-maintained trails mean 
less birdwatching. Americans paid for these refuges, but are they 
losing more and more of their ability to participate in hunting 
fishing, wildlife observation, photography, environmental education and 
interpretation. Under these conditions, it is very easy for these 
support groups to lose hope and give up. When a refuge's community 
gives up it is the worst thing that can happen to a refuge.
    Although too dedicated and willing to admit it, many refuge staff 
know the maintenance, biological research and community services are so 
far beyond what they can do they are overwhelmed. Realistically, they 
can not begin to accomplish all the work that needs to be done. Right 
now, only a select few can see a light at the end of the tunnel.

                    LAST YEAR'S $39 MILLION ADDITION

    Last year there was $39 million added to the President's budget, 
with the statement that it was to be used to address staffing 
shortages. In the Southwest Region, they were able to stop eliminating 
positions. California and Nevada were able to meet their inflationary 
costs. The Southeast will still have to cut positions, but not nearly 
so many. In the Northeast, we had already cut many of the positions, 
and the fate for those still in delete positions remains tenuous at 
best. Included among those is the refuge manager at my local refuges. I 
was also told that two Law Enforcement officers were being added in 
Maine, a State that never had any Law Enforcement officers. Midwest was 
able to achieve 75-25 and to freeze further staff reductions. Some of 
the other regions were able to stop eliminating positions altogether, 
others were simply able to meet the ratio of 75-25. This ratio means 75 
percent salary and benefits to 25 percent management capabilities, 
considered ideal for most of the country. (Alaska is 70-30 because 
their expenses are so high, meaning they get even less staff.) the $39 
million was significant in stopping the hemorrhaging caused by previous 
years stagnant funding and increased costs. It has made big difference. 
Perhaps the system will not tread water for a year or two, whereas 
before we were in danger of drowning.
    Please support increased funding of $514 million, for the National 
Wildlife Refuge System, so that all its refuges may be adequately 
staffed and cared for, and that the American people get a fair return 
on their investment in America's natural treasures. I also ask that you 
follow up with the USFWS to ensure that Congress's desire to have lost 
positions funded not be ignored or discounted. Clearly, Congress 
intended for our Nation to have a first-class refuge system when it 
passed the Refuge Improvement Act. Now we all need to do our part, 
whether we be a Congressional Representative, Senator, Friends Group 
member, Service staff, or American citizen to visit, support, and take 
care of our National Wildlife Refuge System. Remember, Every Refuge 
Matters.

                    LAND AND WATER CONSERVATION FUND

    The Wallkill River NWR has focused its land acquisition on 
protection of the river and its major tributaries through consolidation 
of forested wetland, wetland and upland properties. In fiscal year 
2009, the Wallkill Refuge is working to acquire an 86 acre property 
contiguous to existing refuge lands. The parcel includes a small 
canyon,stream and excellent forest interior for migratory birds and 
other species. This site protects area water quality and adds 
additional recreation opportunities. An appropriation of $630,000 from 
the Land and Conservation Fund in fiscal year 2009 is needed to protect 
this important property.
    Thank you for your time and consideration.
                                 ______
                                 
   Prepared Statement of Friends of Wertheim National Wildlife Refuge

    On behalf of Friends of Wertheim National Wildlife Refuge, I am 
submitting testimony for the Senate Subcommittee on Interior and 
Related Agencies. We support a funding level of $514 million in fiscal 
year 2009 for the U.S. Fish and Wildlife Service's (FWS) National 
Wildlife Refuge System Operations and Maintenance (O&M) account, 
adequate funding for Visitor Services and $1,135,300 for phase I (total 
cost is $7.9 million) for the Long Island NWR Complex's Visitor 
Learning Center/Administrative Headquarters to be located at its 
headquarters, Wertheim NWR. The $514 million accounts for cost-of-
living increases for FWS personnel, while maintaining current levels of 
visitor services and wildlife management. Funding the O&M account at 
$514 million would allow the Refuge System to do its job of protecting 
habitat and wildlife in a much more responsible way. It is of the 
utmost importance that our Nation protects and enhances our National 
Wildlife refuge System for future generations.
    The Senate Subcommittee on the Interior and Related Agencies should 
provide strong funding for Refuge System Visitor Services programs and 
Visitor Facility Enhancement Projects. Visitor Services funding pays 
for many Friends and volunteer programs. We depend on this funding for 
programs that allow us to remain effective stewards of our refuge.
    Recognizing invasive species as a top threat to our refuge lands, 
we also ask the committee to continue their support ``for cooperative 
projects with Friends groups on invasive species control''. This 
funding supports worthy programs like competitive grants for Friends 
groups and the Volunteer Invasive Monitoring Program. Utilizing the 
energy and enthusiasm of Friends and volunteers is a proven, effective 
and economical partnership for the National Wildlife Refuge System and 
U.S. Fish and Wildlife Service.
    The $7.9 million for the Visitor .Learning Center/Administrative 
Headquarters for the Long Island National Wildlife Refuge Complex to be 
located at Wertheim NWR is a key focal point of LINWR Complex's 15 year 
Comprehensive Conservation Plan. It is important to note that 
$1,135,300 for Phase I: Planning and design would enable us to start 
this project. Phase I includes: Site work, A/E Services and Regional 
Engineering Services. The Visitor Learning Center would serve as a 
catalyst for educational opportunities, wildlife conservation 
partnerships and collaborative efforts. In an effort to reduce cost, 
time and energy consumption, the service has developed a standard 
conceptual design for the building. Designed with ``green technology'' 
(the plans are consistent with LEED certification requirements) the 
Center will be a state-of-the-art energy efficient model. The $7.9 
million includes all phases of the project: planning, site design, 
construction, and interpretive exhibits.
    Friends of Wertheim NWR feels this project deserves Federal funding 
because United States Fish and Wildlife is the Federal agency charged 
with conserving, protecting and enhancing the Nation's fish, wildlife 
and plants for the continuing benefit of the American people. Another 
top priority of the Service is connecting people with nature: ensuring 
the future of conservation. Therefore a priority of Federal funding 
must be to take action. While there is no doubt that our public lands 
need to be managed through community partnerships/community resources, 
the Federal Government should be the catalyst on Federal lands to make 
this happen.
    When the funding for the National Wildlife Refuge System is 
compared to the entire national spending it is not even a ``blip on the 
radar screen''. The National Wildlife Refuge System is one of our 
``National Treasures'' and the dedicated Refuge staff, Friends and 
volunteers do so much with so little. It is our hope that in 2009 and 
beyond there is increased funding that will do more than maintain what 
we had last year; we need your help to address the $2.7 billion O&M 
backlog. Only by being ``faithful stewards'' of all of the National 
Wildlife Refuges in the United States will we ensure that they will be 
here for our children and our children's children.
    The Refuges in the Long Island Complex may be small compared to 
others; but they are so important!! As a fifth grade science teacher in 
the local school district I took 4 science classes on field trips to 
Wertheim each year. One year one of the boys was standing on the trail 
just looking up and he stayed this way for some time. Since the rest of 
the students were eager to move on I went over to him and asked what he 
was doing. He replied, ``Look--the trees make a tunnel--I can't see the 
sky!'' What a beautiful discovery!!! This is the reason why we must 
give our Refuge System adequate funding (fiscal year 2009--$514 
million) and why the Long Island NWR Complex needs a Visitor Learning 
Center/Administrative Headquarters (fiscal year 2009--Phase 1 
$1,135,300).
    On behalf of Friends of Wertheim NWR we thank you for your 
consideration of our requests.
                                 ______
                                 
  Prepared Statement of the Friends of the Willamette Valley National 
                        Wildlife Refuge Complex

    Madame Chairwoman and members of the subcommittee: We are the 
Friends of the Willamette Valley National Wildlife Refuge Complex, a 
non-profit of local volunteers who care for the habitat and wildlife on 
the 10,625 acres within the William L. Finley, Ankeny, and Baskett 
Slough National refuges, as well as 50-acre Snag Boat Bend, operated as 
a unit of William L. Finley. The refuges of the WVNWRC are not as 
understaffed as many of the refuges, yet the limited staffing is still 
an issue during critical periods created by drought, flooding, and 
intense waterfowl use during winter. W.L. Finley NWR has attempted to 
stem small occurrences of false brome, which is widespread in native 
habitats in Benton County. Current levels of surveillance are 
inadequate to detect newly arrived species before they become firmly 
established. The impacts of nonnative species are often not well--
understood, and appropriate and cost-effective control is often by 
trial and error. Although a volunteer team is being recruited to battle 
invasive plants, no Refuge staff positions are dedicated to this major 
problem. It is a problem also for the private commercial farms 
surrounding all three refuges. A shortage of fuel and staff time to use 
and maintain existing heavy equipment owned by the Refuge is also a 
serious limitation.
    The Willamette Valley refuges are the critical wintering area for 
the Dusky Canada goose, and during winter, our refuges provide the 
major habitat areas that support their survival until the spring flight 
back to Alaska. Refuge habitat is limited, and the refuge staff have 
been pursuing a partners program with local landowners, to provide 
private lands as the additional winter habitat required by the Duskies. 
Additional staff support for this program would be a win-win for both 
the Duskies, and local agriculture, as it would prevent some of the 
depradations of wintering geese on neighboring agricultural lands.
    Road maintenance is another serious issue where funding and staff 
limitations result in deterioration of Refuge facilities. Finley Road, 
for one example, is in a state of bad disrepair and is eroding at every 
significant rain event. The runoff enters the aptly-named Muddy Creek, 
the main body of water through the refuge, causing sedimentation and 
pollution. There are also safety issues concerning the roads, including 
the lack of safe entry lanes off US 99W for entry to the Finley Refuge. 
Increased warning signs would provide a short-term solution, but 
construction of an exit lane is the only safe option.
    More signage would help also in the way of interpretation. There 
are trails on the complex that could use interpretive signage, but 
little progress has been made, largely due to lack of funding. Although 
environmental education is one of the dedicated uses of the refuge 
system, limited staff time has prevented Refuge staff from providing 
refuge tours requested by local teachers. As the Friends, we are 
organizing to develop such a program, but we need the leadership and 
expertise that only a dedicated staff member can provide, at least part 
time. Similarly, local teachers have requested tours for class groups, 
but staff workload has prevented the development of an environmental 
education program to properly handle these requests.
    In summary, the Refuge System is facing a tremendous task in 
carrying on at the funding levels being provided today. We ask that the 
subcommittee increase O&M funding for the National Wildlife Refuge 
System to $514 million in fiscal year 2009. In addition, we ask that 
the subcommittee allocate additional funds from the Land and Water 
Conservation Fund in fiscal year 2009 to allow acquisition of critical 
areas beneficial to the protection of wildlife within the Refuge 
system.
                                 ______
                                 
         Prepared Statement of the Gathering Waters Conservancy

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present testimony in support of an appropriation 
of $3.5 million to acquire more than 1,400 acres of forest inholdings 
within the Chequamegon-Nicolet National Forest in Wisconsin. The Forest 
Service has prioritized these acquisitions through its Wisconsin Wild 
Waterways program.
    As you know, this project is one of many worthy acquisition 
projects nationwide seeking LWCF funding. Unfortunately since fiscal 
year 2002, funding for LWCF has diminished by about 75 percent, and the 
fiscal year 2009 Budget proposes further cuts. These reductions have 
left our national parks, refuges, and forests unable to acquire from 
willing sellers critical inholdings and adjacent lands that have been 
identified to protect and enhance recreational access, historic sites, 
wildlife habitats, scenic areas, water resources, and other important 
features. I urge the subcommittee to increase overall funding for this 
program in fiscal year 2009.
    The Chequamegon-Nicolet National Forest, located in northern 
Wisconsin, covers more than 1.5 million acres of northern forests and 
lakes. The variety of forest types is virtually unmatched anywhere else 
in the United States, and the combination of this feature with the 
abundance of lakes, rivers, and streams ensures that the forest boasts 
some of the best recreational opportunities in the country. With its 
1,200 lakes, the national forest offers plenty of paddling, prize 
fishing, canoeing, boating, and swimming, in addition to opportunities 
afforded by its 800 miles of trails.
    The Forest Service has recognized the unique attributes of the 
Wisconsin forests by undertaking a land protection program that is 
focused on the protection of undeveloped lakefront properties and 
consolidation of publicly owned land for the benefit of recreation and 
natural resources. The Wisconsin Wild Waterways program has been 
supported through annual funding from the Land and Water Conservation 
Fund. In the past few years, over 10,000 acres of undeveloped shoreline 
along several critical lakes and streams have been protected through 
this program.
    This year, there are numerous key inholdings available for 
acquisition.
    First, in Bayfield County, there is an 881-acre assemblage of 
inholding parcels consisting of nine tracts ranging in size from 33 to 
240 acres. These inholdings are nearly surrounded by national forest 
land and share a 12.25-mile boundary with the forest. They include one 
quarter mile of creek frontage, a tributary to Trapper Lake, 40 acres 
of wetland, an entire small lake, and the remaining private ownership 
on three other small lakes. The tracts also include the territory of a 
wolf pack and are within the planned habitat range of the released 
Wisconsin elk herd. The mixture of forest and riparian areas makes 
these properties a haven for recreation as well as for wildlife, 
including important habitat for the bald eagle, goshawk, and pine 
martin.
    Ideal for multi season recreation, visitors to this area can enjoy 
hiking, camping, birding, hunting, fishing, cross-country skiing, and 
snowshoeing. Two of these inholdings are located in the Big Brook and 
Marengo semi-primitive non-motorized areas, and their protection will 
help consolidate these protected lands. Protecting these nine 
properties are critically important to maintaining the natural 
character of the area, while insuring long-term elk habitat for 
Wisconsin's growing elk herd. If these properties are not protected, 
habitat loss is imminent, as easy road access to these areas makes them 
particularly susceptible to second home development.
    Also available for acquisition are 548 acres of multiple small 
inholdings throughout the forest. Since many of these inholdings have 
good quality water frontage, the properties are highly threatened by 
development. The properties include the last privately owned parcel on 
Zarling Lake. Completely surrounded by national forest land, this 40-
acre property includes one-third mile of frontage on the 38-acre lake. 
One historic and three prehistoric archeological sites have been 
identified on adjoining Forest Service land, and it is likely that this 
parcel will also contain significant archeological resources. Another 
parcel consists of 31 acres on the western shore of Wabikon Lake and 
has 1,000 feet of shoreline, important wetland habitat, and numerous 
springs that feed the lake. Conserving these threatened inholdings 
within the boundaries of the national forest help meet Forest Service 
goals to consolidate land for better management, enhance public access 
to these resources, and protect water quality and recreational values.
    There is strong public support for public ownership of these tracts 
as part of the Chequamegon-Nicolet National Forest. An appropriation of 
$3.5 million from the Land and Water Conservation Fund in fiscal year 
2009 will continue the success of the Wisconsin Wild Waterways program 
in protecting these important properties from development while 
enhancing diversity of habitat and recreational opportunities in the 
Chequamegon-Nicolet National Forest.
    Thank you, again, for the opportunity to present this testimony in 
support of the funding needed to acquire these forest inholdings.
                                 ______
                                 
            Prepared Statement of the Georgia River Network

    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to provide testimony on behalf of an 
important land acquisition funding need in the Oconee National Forest 
in Georgia. I am supporting an appropriation of $4 million from the 
Land and Water Conservation Fund (LWCF) in fiscal year 2009 for the 
Chattahoochee/Oconee Riparian Project.
    Georgia River Network is a statewide organization working to 
protect and restore rivers across Georgia. We represent over 500 
Georgia citizens and 30+ river protection organizations. Land 
conservation is vital to our watershed conservation efforts. One of the 
organizations we work with, the Central Georgia Rivers Partnership, 
places middle Georgia land conservation as its cornerstone. A 
University of Georgia study found an area of middle Georgia 
encompassing Oconee National Forest areas to be the third wildest place 
in Georgia, behind the Okefenokee Swamp and the Chattahoochee National 
Forest. The area is also under unprecedented development pressures. 
Conserving Central Georgia rural and natural areas are important to our 
quality of life, our cultural and historic heritage and community 
economic wellbeing. From the headwaters to where they join to form the 
Altamaha, the Ocmulgee and Oconee river corridors possess natural, 
historic and prehistoric treasures and has many citizens, agency 
personnel, and businesses interested in conserving land throughout the 
area. A variety of management plans and conservation areas already 
exist in Central Georgia, and the CGRP strives to connect these areas 
and plans together in order to conserve this special place.
    As you know, Madam Chairman, these projects included in the program 
are some of many worthy acquisition projects nationwide seeking LWCF 
funding. Unfortunately since fiscal year 2002, funding for LWCF has 
diminished by about 75 percent, and the fiscal year 2009 Budget 
proposes further cuts. These reductions have left our national parks, 
refuges, and forests unable to acquire from willing sellers critical 
inholdings and adjacent lands that have been identified to protect and 
enhance recreational access, historic sites, wildlife habitats, scenic 
areas, water resources, and other important features. I urge the 
subcommittee to increase overall funding for this program in fiscal 
year 2009.
    The Chattahoochee-Oconee National Forests encompass the ridges and 
valleys of the southern Appalachians in north Georgia as well as 
significant recreational, historical, and natural resources in the 
Georgia Piedmont. These forests provide important habitat for over 500 
wildlife species, including many unique mountain species of plants, and 
contain over 1,000 miles of primary trout and warm-water streams.
    The watersheds within the Chattahoochee and Oconee National Forests 
supply the drinking water for the largest urban areas in the State of 
Georgia. These watersheds not only provide recreational opportunities, 
but also critical habitat for dozens of threatened, endangered, and 
sensitive aquatic species. The Chattachoochee-Oconee National Forests 
are featured in the 2007 Forest Service publication, National Forests 
on the Edge, a report that examines the challenges faced by the 
national forest system due to the high growth in housing density 
projected to occur on adjacent private land between 2000 and 2030. This 
area in Georgia is at very high risk for development due to its close 
location to Atlanta, Athens, and Macon. Already, the building of second 
homes threatens the forests by fragmenting wildlife habitat, 
complicating wildfire management, and increasing the amount of nonpoint 
source pollution in the area.
    Within the Oconee National Forest, the Ocmulgee River watershed is 
threatened by such growth. The Ocmulgee is one of the most productive 
and diverse fisheries in the Georgia Piedmont. There are a variety of 
microhabitats throughout its wide channel, including shoals, riffles, 
and pools. This riparian corridor provides many water-based 
recreational opportunities, which include some of the best shoal bass 
fishing in the state as well as excellent canoeing, camping, hiking, 
hunting, swimming, and horseback riding.
    Among the priorities of the Chattahoochee/Oconee Riparian Project 
is the Cedar Creek parcel. Its acquisition will further the 
consolidation of Oconee National Forest lands and protect the water 
quality of Cedar Creek and the Ocmulgee River. The Forest Service 
designated Cedar Creek as an ``outstandingly remarkable stream'' within 
the Chattahoochee-Oconee NF. Preventing the development of this land 
will also protect more habitat for wildlife such as the red-cockaded 
woodpecker, wood stork, and gray bat--all federally listed endangered 
species. The current owner of the Cedar Creek property is a timber 
company seeking to sell off its inholdings. Unless the Forest Service 
is able to acquire and protect this land, it will very likely be 
developed in the near future. In fiscal year 2009, $4 million is 
required from the Forest Service through the Land and Water 
Conservation Fund to acquire and conserve the Cedar Creek property, as 
well as other worthy land acquisition projects within the Chattahoochee 
and Oconee national forests. This acquisition will protect important 
cultural, recreational and wildlife areas, protect clean drinking 
water, and facilitate improved management of national forest lands in 
Georgia.
    Thank you, Madam Chairman, for the opportunity to present testimony 
in support of these important acquisition projects.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)

 AGENCIES--BUREAU OF INDIAN AFFAIRS AND ENVIRONMENTAL PROTECTION AGENCY

    1. BIA TREATY RIGHTS PROTECTION/IMPLEMENTATION: $4,327,000 
($452,000 above fiscal year 2008 appropriation).
    Agency/Program Line Item: Dept. of Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect GLIFWC's allocation of this 
line item that also funds the 1854 Treaty Authority.
---------------------------------------------------------------------------
    Funding Authorizations: Snyder Act, 25 U.S.C. Sec. 13; Indian Self-
Determination and Educational Assistance Act, 25 U.S.C. Sec. Sec. 450f 
and 450h; and the treaties between the United States and GLIFWC's 
member Ojibwe Tribes, specifically Treaty of 1836, 7 Stat. 491, Treaty 
of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 
10 Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities, have been affirmed 
by various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    2. EPA ENVIRONMENTAL PROGRAMS AND MANAGEMENT: $300,000 (fiscal year 
2004 enacted).
    Agency/Program Line Item: Environmental Protection Agency, 
Environmental Programs and Management (funneled through the EPA's Great 
Lakes National Program Office).
    Funding Authorizations: Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    As Congress has recognized for almost 25 years, funding for 
GLIFWC's conservation, natural resource protection, and law enforcement 
programs honors Federal treaty obligations to 11 Ojibwe Tribes and 
provides a wide range of associated public benefits. GLIFWC seeks an 
inflation-adjusted secure funding base to: (i) implement Federal court 
orders and intergovernmental agreements governing the exercise of 
treaty-guaranteed hunting, fishing and gathering rights; and (ii) 
participate in management partnerships in Wisconsin, Michigan and 
Minnesota.

                  ELEMENTS OF GLIFWC'S FUNDING REQUEST

    1. BIA TREATY RIGHTS PROTECTION/IMPLEMENTATION: $4,327,000. As its 
primary Indian Self-Determination and Educational Assistance Act 
funding base, GLIFWC seeks to:
    a. restore $227,000 \3\ in program operational costs lost to 
continually decreasing base funding over the last four years;
---------------------------------------------------------------------------
    \3\ This amount includes $151,000 in fixed pay costs that the 
Bureau has been providing but that needs to be preserved in future 
appropriations.
---------------------------------------------------------------------------
    b. provide $150,000 to sustain enhancements in conservation 
enforcement and emergency services capabilities; and
    c. provide $75,000 to retain cultural infusion programs designed to 
sustain and foster inter-generational transfer of Chippewa language, 
lifeways and traditional ecological knowledge.
    2. EPA ENVIRONMENTAL PROGRAMS AND MANAGEMENT: $300,000. As an EPA 
funding base for its primary environmental program elements, GLIFWC 
seeks to:
    a. Provide $190,000 for basic scientific/technical capabilities to: 
(i) continue participation in a number of Great Lakes initiatives 
(including the Binational Program to Restore and Protect Lake Superior 
and the Great Lakes Regional Collaboration); (ii) carry out habitat and 
human-health related research; and (iii) provide the requisite analysis 
and data to support participation in regional initiatives and to assess 
the impact of particular projects on tribal treaty rights.
    b. Provide $110,000 to undertake three habitat and human health-
related research projects regarding: (i) GLIFWC's fish consumption 
mercury advisory program; (ii) invasive species impacts on the Lake 
Superior food web; and (iii) a global climate change pilot project.

       CEDED TERRITORY TREATY RIGHTS--GLIFWC'S ROLE AND PROGRAMS

    Established in 1984, GLIFWC is a natural resources management 
agency for its eleven member Ojibwe Tribes regarding their ceded 
territory (off-reservation) hunting, fishing and gathering treaty 
rights. Its mission is to: (i) ensure that its member Tribes are able 
to exercise their rights for the purposes of meeting subsistence, 
economic, cultural, medicinal, and spiritual needs; and (ii) ensure a 
healthy, sustainable natural resource base that supports those rights. 
GLIFWC is a ``tribal organization'' within the meaning of the Indian 
Self-Determination and Educational Assistance Act (Public Law 93-638). 
It is governed by a Constitution developed and ratified by its member 
Tribes and by a board comprised of the Chairs of those Tribes.
    GLIFWC operates a comprehensive ceded territory hunting, fishing, 
and gathering rights protection/implementation program through its 
staff of biologists, scientists, technicians, conservation enforcement 
officers, policy specialists, and public information specialists. Its 
activities include: (i) natural resource population assessments and 
studies; (ii) harvest monitoring and reporting; (iii) enforcement of 
tribal conservation codes in tribal courts; (iv) funding for tribal 
courts and tribal registration/permit stations; (v) development of 
natural resource management plans and tribal regulations; (vi) 
negotiation and implementation of agreements with state, federal and 
local agencies; (vii) invasive species eradication and control 
projects; (viii) biological and scientific research, including fish 
contaminant testing; and (ix) development and dissemination of public 
information materials.

               JUSTIFICATION & USE OF THE REQUESTED FUNDS

    For almost 25 years, Congress has recognized GLIFWC as a cost-
efficient agency that plays a necessary role in: (i) meeting specific 
Federal treaty and statutory obligations toward GLIFWC's member Tribes; 
(ii) fulfilling conservation, habitat protection, and law enforcement 
functions required by Federal court decisions affirming the Tribes' 
treaty rights; (iii) effectively regulating harvests of natural 
resources shared among the treaty signatory Tribes; and (iv) serving as 
an active partner with State, Federal, and local governments, with 
educational institutions, and with conservation organizations and other 
non-profit agencies.
    Particularly relevant to the requested EPA funds, Tribal members 
rely upon treaty-protected natural resources for religious, cultural, 
medicinal, subsistence, and economic purposes. Their treaty rights mean 
little if contamination of these resources threatens their health, 
safety, and economy, or if the habitats supporting these resources are 
degraded. With the requested stable funding base, GLIFWC will:
    1. MAINTAIN ITS CORE CAPABILITIES TO CONSERVE NATURAL RESOURCES AND 
TO REGULATE TREATY HARVESTS: With the requested funds GLIFWC would: (i) 
restore program operational costs lost to continually decreasing base 
funding over the last four years; \4\ (ii) retain the knowledgeable, 
experienced staff that are relied upon to conserve natural resources, 
protect public health and safety, and promote social stability in the 
context of tribal treaty rights; (iii) solidify law enforcement and 
emergency response infrastructure improvements that have been 
instituted with a combination of BIA and U.S. Department of Justice 
COPS funds; \5\ and (iv) sustain cultural infusion programs designed to 
sustain and foster inter-generational transfer of Chippewa language, 
lifeways and traditional ecological knowledge.
---------------------------------------------------------------------------
    \4\ For example, the previously restored funding base was used to: 
(i) reinstitute fall juvenile walleye recruitment surveys to previous 
levels; (ii) restore tribal court and registration station funding 
cuts; (iii) restore Lake Superior lamprey control and whitefish 
assessment programs; (iv) restore GLIFWC's share in cooperative 
wildlife and wild rice enhancement projects; (v) replace aging 
equipment; (vi) meet expanding harvest monitoring needs; and (vii) meet 
uncontrollable increases in employee benefit costs.
    \5\GLIFWC has: (i) upgraded its patrol capabilities with new 
vehicles, boats, snowmobiles, and off-road vehicles; (ii) increased 
officer medical training and upgraded first aid equipment; (iii) 
upgraded its radio systems to be compatible with surrounding agencies; 
and (iv) established ongoing joint training with federal, state, and 
local agencies.
---------------------------------------------------------------------------
    2. REMAIN A TRUSTED ENVIRONMENTAL MANAGEMENT PARTNER AND SCIENTIFIC 
CONTRIBUTOR IN THE GREAT LAKES REGION: With the requested EPA funding 
base, GLIFWC would maintain its ability to bring a tribal perspective 
to the interjurisdictional mix of Great Lakes managers.\6\ It also 
would use its scientific expertise to study issues and geographic areas 
that are important to its member Tribes but that others may not be 
examining.\7\
---------------------------------------------------------------------------
    \6\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Regional 
Collaboration, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \7\ With the requested fiscal year 2008 EPA funds, GLIFWC would: 
(i) continue its long-standing program to collect and test fish for 
mercury and to communicate testing results through health care 
providers and GIS maps; (ii) document the diet of important species of 
Lake Superior fish in order to understand potential changes over time 
due to invasive species or other causes; and (iii) identify climate 
variables that affect the presence, health and abundance of selected 
natural resources that are harvested by GLIFWC member tribes.
---------------------------------------------------------------------------
    The lack of a secure, ongoing EPA funding base jeopardizes GLIFWC's 
role as a trusted environmental management partner and scientific 
contributor in the Great Lakes Region. The Federal Government's treaty 
obligations to GLIFWC's member Tribes compel more than the mere 
opportunity to compete for a diminishing patchwork of discretionary EPA 
grants. This is particularly true given important current initiatives 
such as the Great Lakes Regional Collaboration in which GLIFWC 
participates as a full partner.
    3. MAINTAIN THE OVERALL PUBLIC BENEFITS THAT DERIVE FROM ITS 
PROGRAMS: Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management, in emergency services networks, 
and in providing accurate information to the public. Because of its 
institutional experience and staff expertise, GLIFWC provides 
continuity and stability in interagency relationships and among its 
member Tribes, and contributes to social stability in the context of 
ceded territory treaty rights issues.
    Over the past 20 years, GLIFWC has built many partnerships that: 
(i) provide accurate information and data to counter social 
misconceptions about tribal treaty harvests and the status of ceded 
territory natural resources; (ii) maximize each partner's financial 
resources; (iii) avoid duplication of effort and costs; (iv) engender 
cooperation rather than competition; and (v) undertake projects and 
achieve public benefits that no one partner could accomplish alone.
                 other related appropriations concerns
    1. Fully Funded BIA Contract Support Costs.--GLIFWC seeks full 
funding of its contract support costs. In 2007, for the first time 
ever, GLIFWC received full funding of its indirect costs and a portion 
of its direct contract support costs. GLIFWC strives to maintain a low 
indirect cost rate, thereby enabling the majority of federally 
contracted funds to go directly toward program services, not 
administrative costs. In fiscal year 2008, GLIFWC's fixed-carry forward 
indirect cost rate is 17.59 percent.
    2. BIA Circle of Flight Tribal Wetland & Waterfowl Initiative.--
Once again, Congress should fully fund this long-standing tribal 
contribution to the North American Waterfowl Management Plan that the 
administration again proposes to eliminate.
                                 ______
                                 
             Prepared Statement of the Green Mountain Club

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present this testimony in support of an 
appropriation of $4 million from the Forest Legacy Program to protect 
the 5,727-acre Eden Forest property in Eden, Vermont.
    I also urge your support for a significant increase in funding for 
the Forest Legacy Program in fiscal year 2009 to enable the protection 
of more forest resources than are included in the President's Budget. 
The Budget for this year proposes a cut of 75 percent and sets aside 
funds for only three Forest Legacy projects nationwide out of 87 
submitted by the States. Without additional funds, the program will not 
be able to continue its successful partnerships with States, local 
communities, and landowners to protect valuable forestlands, while 
retaining, in many cases, private ownership.
    The Forest Legacy Program in Vermont seeks to achieve significant 
conservation goals for the State by protecting the following types of 
land: large contiguous and productive forest blocks, wildlife habitat 
dependent on large contiguous forest blocks, threatened and endangered 
species habitat, State fragile areas and undeveloped shoreline, 
significant wetlands, and important recreation corridors.
    The State's top Forest Legacy Program priority for fiscal year 2009 
is the 5,727-acre Eden Forest. Situated on the spine of the northern 
Green Mountains in Eden and Johnson. This large contiguous timber tract 
is truly a high-quality forest, which contains two unique natural 
communities known as red spruce hardwood swamp and semi-rich northern 
hardwood forest. The property has been managed for timber for over 50 
years and, given the excellent condition of the forest and forest 
roads, is well positioned to continue providing forest products far 
into the future.
    Eden Forest is adjacent to 24,188 acres of conserved land and 
shares a common boundary with the Long Trail State Forest and the Long 
Trail corridor itself for approximately four miles. The Long Trail is 
the Nation's oldest long-distance hiking trail and one of Vermont's 
most cherished cultural resources. The property also contains portions 
of both Bowen and Butternut Mountain summits. Its protection would 
create a 30,000-acre block of protected land, a significant 
unfragmented ``core'' forest in Vermont's northern woods.
    Eden Forest's close proximity to such ecological hotspots as the 
Babcock Nature Preserve, the Atlas Timberlands, and Green River 
Reservoir State Park coupled with the large unfragmented nature of the 
property will provide a haven for many wildlife species such as black 
bear, bobcat, gray and red fox, moose, and deer. Over 5,000 acres of 
the property is considered ``core'' habitat and has received a high 
wildlife-linkage-value rating by the Vermont Department of Fish and 
Wildlife due in part to it being a ``black bear production habitat'' 
area. These areas support a relatively high density of cub-producing 
females. This property also has 120 acres of beaver wetlands that 
provide habitat for wood ducks, wood turtles, and many species of 
warblers. A rookery for great blue herons, a rare species in Vermont, 
was found at one of the property's wetland complexes.
    The Eden Forest property encapsulates almost the entire watersheds 
of two Gihon River headwater streams, Stony Brook and Wild Brook. It 
also contains approximately one-half mile of frontage on both sides of 
the Gihon River itself, which is a tributary of the Lamoille River, and 
abuts Vermont's scenic Route 100. The property includes more than 46 
miles of streams and rivers that make up part of the Gihon River 
headwaters. The Lamoille County watershed plan recognizes the 
importance of protecting the Gihon River headwaters area for its near-
pristine natural condition, wildlife and fish habitat value, timber 
value, and location adjacent to a core of protected land. Numerous 
wetlands dot the extensive property, including the six-acre Lanpher 
Meadow.
    Historically, the Eden Forest property has also provided numerous 
recreational activities such as hiking, hunting, and cross-country 
skiing. Snowmobiling is also allowed, and the property hosts trails 
that are managed by the Vermont Association of Snow Travelers (VAST). 
Lamoille County also has the largest connected network of cross-county 
ski trails in the world, and this project could help expand that 
network in the future. These activities all make up an important part 
of the local tourist economy.
    Eden Forest is under immediate pressure from development. According 
to 2000 census data, the town of Eden has the second highest percentage 
of population growth in Lamoille County, and its projected population 
growth through 2015 is expected to continue at a higher rate than 
almost any other town in the county. Eden also had a 25 percent 
increase in the number of housing units from 1990 to 2000, indicating a 
high demand for new homes in the area. This type of sprawl is largely 
to blame for the fragmentation of Vermont's forests and farms. With its 
first-rate access to Route 100, low-elevation open meadows, well-
developed road network, southern exposure, scenic views, and proximity 
to the major cities in Vermont, Eden Forest is a prime spot for 
development.
    Thank you again, Madam Chairman for the opportunity to present this 
testimony in support of an appropriation of $4 million from the Forest 
Legacy Program in fiscal year 2009 to protect the vast 5,727-acre Eden 
Forest property.
                                 ______
                                 
Prepared Statement of the Hanover County Board of Supervisors, Hanover 
                            County, Virginia

    On behalf of the Hanover County, Virginia Board of Supervisors, I 
thank you Senator Feinstein and Senator Allard for the opportunity to 
submit testimony regarding Hanover County's efforts to protect the 
Chesapeake Bay. To further our efforts to protect the Bay, Hanover 
County respectfully requests $1.884 million through the Environmental 
Protection Agency (EPA), State and Tribal Assistance Grants (STAG) for 
the Sharon Park Septic Tank Elimination and Public Sewer Extension 
Project. Failing septic systems have been shown to be a contributor to 
the current impaired status of the Bay. Completion of this project will 
not only protect the health of Hanover County residents, but will also 
further Hanover County's efforts to protect the Chesapeake Bay.
    Hanover County, located in the east-central Piedmont and Coastal 
Plain areas of Virginia between the Chickahominy and Pamunkey Rivers, 
is part of the greater Richmond metropolitan area. The County land area 
is 471 square miles bordered by the Counties of Caroline, King William, 
New Kent, Henrico, Goochland, Spotsylvania and Louisa. Hanover County 
is a vibrant rural and suburban locality. The County has two interstate 
highways, I-95 and I-295, which are among the busiest in the eastern 
United States. The County has a population of approximately 100,000, 
and is an excellent environment in which to live, for it offers a taste 
of rural America (it is the home of the internationally renowned 
Hanover Tomato) in the greater Richmond area. Hanover County is great 
horse country and boasts some of the finest livestock farms in central 
Virginia. The County, one of the fastest growing in the state, 
continues to be an exciting community where history is preserved for 
the future.
    Hanover County is dedicated to protecting the Chesapeake Bay. The 
County was the first jurisdiction in the metro Richmond region to adopt 
the revised Chesapeake Bay Regulations, and voluntarily included 
Biological Nutrient Removal in the design of the new wastewater 
treatment plant. The County also implemented a growth management 
program (Smart Growth) well before such programs became popular. Under 
Hanover's Smart Growth program, 78 percent of the County's 471 square 
miles will remain rural in nature (agricultural, forestall and low 
density residential). The remaining 22 percent will be suburban style 
development. Hanover is managing its Smart Growth program through 
funding incentives and the construction of public water and wastewater 
facilities. Hanover's water and sewer rates are among the highest in 
the region due in part to the investment in infrastructure to support 
the growth management program.
    Hanover County requests Federal assistance in order to complete 
another important step in the County's plan to protect the Chesapeake 
Bay watershed by extending public sewer to the Sharon Park subdivision 
which currently relies on a septic system. The Sharon Park subdivision 
is located in the Chesapeake Bay watershed. Point source discharges 
such as industrial and wastewater treatment plan discharges are 
currently regulated, and managers of these entities are working to 
reduce pollutant discharges. However, septic systems are unregulated. 
To fully achieve the goals of the Chesapeake Bay 2000 Agreement, 
programs to eliminate failing septic systems, like Sharon Park, are 
necessary. The Sharon Park project provides an approach to advance the 
goals of the 2000 agreement by eliminating failing septic systems.
    Sharon Park is a mature subdivision dating back to 1950. 
Approximately 85 of the subdivision's 120 lots, which range in size 
from half an acre to one acre, are developed. Under normal conditions 
the life expectancy for a septic system is between 20 and 30 years and 
the older septic systems in Sharon Park are now failing--creating both 
health and environmental hazards. Because of the lot sizes, the Sharon 
Park residents are precluded from rectifying the problem through 
replacement of the septic systems. Because many in Sharon Park rely on 
individual wells for drinking water, the septic tank failures and their 
impact on the surrounding soil present a significant public health 
threat.
    Providing wastewater service to Sharon Park Subdivision involves 
the construction of approximately 10,500 linear feet of 8-inch gravity 
sewer, a new pump station, and an approximately 3,300 foot long force 
main. The estimated cost to retrofit Sharon Park is approximately 
$3.425 million or $28,500 per household (approximately $119 per month 
for 20 years assuming 0 percent interest loan--total sewer bill would 
be approximately 2.1 percent of median household income). Hanover 
County is requesting $1,884,000 in Federal funding, 55 percent of the 
project cost.
    The Chesapeake Bay Program has determined that nitrogen and 
phosphorous are the major contributors to the impaired status of the 
Chesapeake Bay, and septic systems are significant contributors to the 
nitrogen load. According to the 1990 Bureau of the Census data, 24.7 
percent of housing units in the Chesapeake Bay watershed rely on septic 
tanks or cesspools to treat their household wastewater. Population is 
expected to increase by 18 percent between 1997 and the year 2020 (from 
15.1 million to nearly 17.8 million). Nitrogen loads from septic 
systems are expected to increase as population increases. Because 
increase in nitrogen loads from septic systems is generally attributed 
to growth, the increase in load due to the failing systems may be even 
greater. The York River Tributary Strategy data shows nitrogen 
discharges from septic systems into the York River Basin will increase 
by 38 percent between 1985 and 2010 due to growth. This assumes all 
other septic systems are in good working order and being maintained 
properly.
    Hanover County proposes to support reduced nitrogen loads by 
eliminating the failing septic systems in the Sharon Park subdivision. 
A resident hooked to an advanced wastewater treatment plant sends about 
two pounds of nitrogen into the Chesapeake Bay waterways annually, 
whereas a septic tank produces about nine pounds annually. With 
previous support from this subcommittee, Hanover County has nearly 
completed a similar project in the Atlee Manor subdivision, a 
neighborhood very similar to Sharon Park that also lies in the 
Chesapeake Bay watershed. The completion of these projects will have a 
profound and recognizable impact on the health of the Chesapeake Bay.
    On behalf of Hanover County, I would like to thank the subcommittee 
for its commitment to protecting the Chesapeake Bay. Hanover County 
requests that this subcommittee again support the County's efforts to 
protect the Bay by providing additional support to eliminate the septic 
tanks in the Sharon Park subdivision. Thank you again for the 
opportunity to submit testimony on behalf of Hanover County. We look 
forward to continuing to work with the subcommittee to achieve our 
mutual goal of enhancing and protecting the health and beauty of the 
complex ecosystem of the Chesapeake Bay.
                                 ______
                                 
            Prepared Statement of the Hawaii Audubon Society

    Madam Chairman and honorable members of the subcommittee: Thank 
you, Madam Chairman for the opportunity to present this testimony in 
behalf of the Hawaii Audubon Society in support of an appropriation of 
$6 million for the U.S. Fish and Wildlife Service (USFWS) to continue 
the protection of an 850-acre tract at the James Campbell National 
Wildlife Refuge on O`ahu in Hawai`i.
    Founded in 1939, the Hawai`i Audubon Society is the State's oldest 
conservation organization, and it has played a proactive role in 
furthering its primary mission of fostering community values that 
result in the protection and restoration of native ecosystems and 
conservation of natural resources through education, science and 
advocacy in Hawai`i and the Pacific.
    The James Campbell National Wildlife Refuge is a strategic landfall 
for migratory birds coming from as far away as Alaska, Siberia, and 
Asia. It is also the largest of O`ahu's national wildlife refuges, 
providing both research and educational opportunities. Established in 
1976, the refuge serves as one of the last reservoirs for Hawai`i's 
four endangered waterbird species--Hawaiian coot, Hawaiian duck, 
Hawaiian moorhen, and Hawaiian stilt--and as winter haven for migratory 
waterfowl and shorebirds. A total of 117 bird species have been 
documented on the refuge since its inception. The refuge currently 
includes 260 acres in two units--Ki`i and Punamano, separated by nearly 
a mile. The Punamano unit includes a natural spring-fed pond, whereas 
the Ki`i unit, a remnant of a formerly larger marsh, has been 
drastically modified by agriculture. Due to the sensitivity and small 
acreage, access to the refuge is restricted, but guided tours 
periodically are offered to the general public and environmental 
education groups. In addition, school groups are accommodated on a 
regular basis during the non-nesting season.
    As the members of this committee know, in May 2006, Congress passed 
the James Campbell National Wildlife Refuge Expansion Act in response 
to longstanding public concerns about protecting O`ahu's natural 
resources and open space on the Kahuku coastal plain.
    This authorization allows the USFWS to acquire lands within the 
expanded refuge boundary from the Estate of James Campbell. The refuge 
expansion will protect the natural coastal wetlands and natural dune 
habitats of the Kahuku coastal area and ensure a protected haven for 
all four species of endangered Hawaiian waterbirds and a variety of 
migratory shorebirds and waterfowl that use coastal wetlands and 
surrounding lands. Protection of the dune and strand vegetation near 
the coast will conserve resting areas for the endangered Hawaiian monk 
seal, and nesting habitat for the threatened green sea turtles that use 
Kahuku beaches.
    As one of the few scattered remnants of wetland habitat that still 
exist on O`ahu, the James Campbell National Wildlife Refuge is one of 
the most productive waterbird wetlands for resident and migratory 
species. The expansion of the refuge will also provide visitors 
increased opportunities to view native Hawaiian wildlife and some of 
the last remaining pristine coastal habitat on O`ahu. Expansion will 
offer year-round wildlife viewing opportunities as well as the eventual 
establishment of an outdoor education center for students. Activities 
would focus on the importance of wetlands, their cultural significance, 
the plight of native plants and birds, and efforts to conserve and 
restore essential wetland habitat to save these species from 
extinction. Further, acquisition of this coastal site will aid in 
cultural resource protection, as it is believed the land encompasses 
ancient Hawaiian burial grounds.
    In previous fiscal years, $8 million has been appropriated to help 
implement the expansion. An appropriation of $6 million from the Land 
and Water Conservation Fund in fiscal year 2009 will bring closer to 
completion the permanent protection of 850 acres of diverse habitat 
lands within the expanded refuge boundary. This project will provide 
habitat for some of Hawai`i's most endangered species and will expand 
on existing wildlife viewing opportunities to the multitude of visitors 
who are expected to come to the James Campbell National Wildlife Refuge 
annually.
    Madam Chairwoman, I'm sure that you are well aware that this 
project is one of many worthy acquisition projects nationwide seeking 
LWCF funding. Unfortunately since fiscal year 2002, funding for LWCF 
has diminished by about 75 percent, and the fiscal year 2009 Budget 
proposes further cuts. These reductions have left our national parks, 
refuges, and forests unable to acquire from willing sellers critical 
holdings in adjacent lands that have been identified to protect and 
enhance recreational access, historic sites, wildlife habitats, scenic 
areas, water resources, and other important features. On behalf of the 
Hawai`i Audubon Society and its members I urge the subcommittee to 
increase overall funding for this program in fiscal year 2009.
    Mahalo for the opportunity to present this testimony in support of 
this important conservation project in Hawai`i.
                                 ______
                                 
             Prepared Statement of the Highlands Coalition

    On behalf of the regional Board of the Highlands Coalition, which 
includes over 180 organizations working together to conserve nationally 
important natural resources in the Highlands region of Connecticut, New 
York, New Jersey, and Pennsylvania, we would like to thank you for the 
opportunity to comment on the fiscal year 2009 Department of the 
Interior, Environment and Related Agencies Appropriations bill.
    Our top priorities for fiscal year 2009 include:
  --$11 million for the Highlands Conservation Act, including $10 
        million for land conservation partnership projects through the 
        U.S. Fish & Wildlife Service, and $1 million for USDA Forest 
        Service technical assistance and research programs in the 
        Highlands
  --$120 million in land acquisition funding for the Forest Legacy 
        program
  --$403 million for the Land and Water Conservation Fund Act Federal 
        and stateside land acquisition program.

                       HIGHLANDS CONSERVATION ACT

Priority Land Acquisition
    Just over 3 years ago, Congress enacted and President Bush signed 
the Highlands Conservation Act, recognizing the national significance 
of the 3.5 million acre Highlands region as a source of drinking water, 
productive forests and working farms, wildlife habitat and recreational 
opportunities for the 25 million people who live within an hour of its 
resources. The Highlands shadows the major metropolitan areas of the 
east coast from Harrisburg, Philadelphia, Allentown, New York City and 
Hartford. The act authorized $100 million over 10 years to assist the 
Highlands States in conserving priority lands from willing landowners, 
and $10 million over 10 years to continue vital USDA Forest Service 
research and assistance to private landowners in the Highlands. Under 
the act, the four States acquire the lands with Federal assistance and 
are required to match those Federal funds for land conservation 
partnership projects on an equal basis to greater leverage these funds. 
These lands are evaluated and identified in three separate Forest 
Service studies of the Highlands in 1992, 2002, and 2008.
    As happened in the President's budget for fiscal year 2008, no 
funding has been provided for the Highlands Conservation Act (HCA) in 
the fiscal year 2009 budget. This means that none of the analytically 
selected and prioritized land conservation partnership projects in the 
four Highland States can be accomplished in fiscal year 2009 without 
action by Congress. We strongly urge the committee to provide full 
funding for the HCA at a total of $11 million with $10 million in land 
acquisition funding for the U.S. Fish and Wildlife Service, and $1 
million for the USDA Forest Service's technical assistance program in 
the Highlands. The USDA Forest Service has been a valuable partner and 
catalyst in the region and $1 million is needed to allow the Forest 
Service to provide increased technical assistance to State agencies, 
private landowners and local communities to advance sound stewardship 
and management of important resources in the region.
    The Governors of the four Highlands States have jointly submitted 
land conservation projects totaling $10 million to the Department of 
the Interior for funding in fiscal year 2009, including:
Cooks Creek Watershed & South Mountain (PA)
    Funding for the Highlands Conservation Act program in fiscal year 
2009 would fund land acquisition efforts on 567 acres in the Cooks 
Creek area of Pennsylvania (Durham Township, Bucks County). Cooks Creek 
originates in the diabase and quartzite hills of Springfield Township 
and flows through the limestone valley at Springtown to empty into the 
Delaware River. The area's steep forested hills, unique to Bucks 
County, are due to this geology. Cooks Creek Watershed has a long 
colonial history, dating to 1698, when British settlers sought the 
area's iron deposits. Pioneer families settled by the 1730's and many 
of their historic structures along Cooks Creek, including mills, 
bridges, homes, churches and schools, still stand. Durham Mine, now 
abandoned, is the State's second largest bat hibernaculum, an Important 
Mammal Area home to six bat species. The surrounding forest is 
important bat and rare bird habitat. Cooks Creek is Bucks County's only 
viable coldwater fishery, supports naturally reproducing trout and is a 
PA DEP Exceptional Value waterway. The watershed's rural valley has 
working prime farmland and numerous rare and endangered species. The 
1999 Bucks County Natural Areas Inventory rates the area Priority 1, 
Heritage Conservancy includes Cooks Creek Watershed as part of its 
Lasting Landscapes Program, and the Highlands Coalition has designated 
it an area of special concern.
    Wildlands Conservancy, the City of Allentown, the County of Lehigh, 
Salisbury Township and Emmaus established Lehigh County's South 
Mountain-Robert Rodale Reserve, comprised mostly of Allentown's South 
Mountain Park and Wildland Conservancy's South Mountain Preserve, to 
protect the Lehigh Valley's scenic viewshed and important wildlife 
habitat, and to provide residents with nearby recreational 
opportunities. The reserve contains maturing second-growth forest, rare 
and threatened species, including two plant species of special concern, 
and nesting habitat for more than 59 bird species. Vernal pools here 
are thought to be the State's most active for salamanders, and are 
surrounded by intact forest, which is critical for amphibians. Lehigh 
County has designated the Robert Rodale Reserve site a top-priority 
natural area, and South Mountain preservation efforts have been ongoing 
for more than a decade. South Mountain is a prominent landscape within 
the Highlands of Lehigh and Northampton counties.

Wyanokie/Farny Highlands & Ramapo Mountains (NJ)
    The Wyanokie and Farny Highlands were identified as a Conservation 
Focal Area in the USDA Forest Service NY-NJ Highlands Regional Study: 
2002 Update. The Wyanokie and Farny Highlands contain critical 
watersheds that protect New Jersey's most significant and most 
threatened water supply--the Wanaque Reservoir--on which nearly two 
million people rely. The Wyanokies contain the headwaters of Burnt 
Meadow and West Brooks, waterways of exceptional ecological 
significance, which flow directly into the Wanaque Reservoir. 
Acquisition will provide essential protection for this critical water 
supply, which the U.S. Forest Service identified as highly threatened 
by development. In addition, preservation will help complete a missing 
greenway link between Norvin Green State Forest and Long Pond Ironworks 
State Park, and extend a direct connection to New York's Sterling 
Forest State Park along the route of the Highlands Millennium Trail, 
which travels 150 miles between the Hudson and Delaware Rivers. The 
Wyanokie Highlands boast an extensive network of historic hiking trails 
and dramatic scenic overlooks, as well as significant ecological 
values. The Wyanokie Highlands Project consists of 855 acres in Passaic 
County in three parcels: 400 acres on Saddle Mountain in Ringwood 
Borough and West Milford Township, 155 acres on Westbrook Mountain and 
300 acres on Buck Mountain, both in West Milford.
    The Ramapo Mountains were identified as a Conservation Focal Area 
in the USDA Forest Service NY-NJ Highlands Regional Study: 2002 Update. 
Located in Bergen and Passaic counties, the Ramapo Mountains contain 
important watersheds and outstanding parklands that protect the 
easternmost ridge of the Highlands, with its breathtaking views of 
Manhattan, for significant public recreational use Acquisition of the 
Camp Yaw Paw property will finally close a critical gap in existing 
protected lands and assure the preservation of significant unfragmented 
forest that is home to threatened and endangered species including 
barred owl, Cooper's hawk, northern goshawk, red-shouldered hawk, 
timber rattlesnake and wood turtle. Preservation of 209-acre camp Yaw 
Paw in Mahwah Township, Bergen County and Ringwood Borough, Passaic 
County will enlarge Ramapo Mountain State Forest and adjoining Ringwood 
State Park, which total 8,300+ acres, by acquiring an inholding which 
also connects to over 2,000 acres of County parklands.

Ethel Walker (CT)
    The State of Connecticut requests Highlands Conservation Act funds 
to protect Phase II of the Ethel Walker Property--91 acres of 
ecologically rich forest, streams, meadows and floodplains. Phase I, 
336 acres, is expected to close soon in a fee and conservation easement 
deal with the Town of Simsbury, which will make a $1 million non-
refundable deposit on an option to purchase the remaining 91 acres. 
Ethel Walker contains Class I watershed land and the primary recharge 
area for the Stratton Brook Aquifer which provides 10,000+ residents 
with drinking water. The property lies within Simsbury's Aquifer 
Protection Zone (APZ) and CT DEP's Preliminary APZ. There are extensive 
pubic hiking and equestrian trails here. Large stands of mature 
conifers support more than 60 forest nesting and migratory bird 
species, including a high density of northerly or higher elevation bird 
species. The American Bittern, a CT endangered species, has been 
documented here by the Hartford Audubon Society. Stratton Brook 
supports native Eastern Brook Trout, in decline throughout CT. Ethel 
Walker is contiguous with several preserved properties; if all 427 
acres here are preserved, the property would form the core of 1,400 
acres of open space. CT's 2003 Regional Plan of Development identifies 
Ethel Walker as high conservation value and a key piece to protect.
Great Swamp and Greater Sterling Forest Areas (NY)
    The Great Swamp is one of NY's most important wetland complexes and 
one of NY's largest and highest quality red maple hardwood swamps. This 
project consists of a 647-acre parcel in Putnam County's Harlem Valley, 
in the East Branch Reservoir Watershed of the NYC Croton Reservoir 
System. An Audubon Society-designated ``Important Birding Area,'' the 
Great Swamp constitutes a 63,000-acre watershed and is breeding habitat 
for more than 90 bird species and migratory habitat for more than 180 
species of waterfowl and other birds. Great blue heron, red-tailed 
hawk, marsh wren, osprey, wood duck, thrushes, vireos, warblers, and 
scarlet tanager make their home here. Located less than 70 miles from 
New York City, this vast and fragile wetland provides numerous benefits 
to residents of New York and Connecticut, including drinking water, 
flood control, recreation, open space, and wildlife habitat. The Great 
Swamp contains a south-flowing section of the East Branch Croton River, 
a critical part of New York City's water supply system, and a north-
flowing section of the Swamp River which flows into the Housatonic and, 
ultimately, to Long Island Sound. This project is a New York State Open 
Space Conservation Plan (2006) priority site.
    The Sterling Forest Fairgrounds, the Sterling Forest Ski Center, 
the Torsoe property, Arrow Park, the former Kings College property, 
Tuxedo Reserve and the Shirazi property are inholdings and adjacent to 
Sterling Forest. These lands buffer the park, which citizens have 
worked tirelessly to preserve. In close proximity to the Appalachian 
National Scenic Trail, these 1,630 acres contain scenic lakes, 
woodlands, and wetlands, as well as frontage on Orange Turnpike. The 
properties may be developed if not protected. Sterling Forest State 
Park is a great accomplishment of public-private land conservation 
between the Federal Government, the States of New York and New Jersey, 
and private organizations. Preservation of private inholdings and 
adjacent properties, such as these, will safeguard this $78-million 
investment while protecting drinking water, wildlife habitat, and 
recreational, historic, cultural, and scenic resources. This project is 
a New York State Open Space Conservation Plan (2006) priority site.
Forest Legacy Program and Projects
    In order to ensure that there is adequate program funding for these 
critical projects in the Highlands, we urge your support for funding 
Forest Legacy at $120 million in fiscal year 2009. We support this 
funding as it will serve to provide support for important Forest Legacy 
projects in the Highlands region including four exemplary projects: 
Lake Waubeeka (CT), Fishkill Ridge (NY), Passaic Ramapo Watershed (NJ) 
and Tree Farm #1--Mount Hope Tract (PA). These two represent very high 
priorities for conservation that would protect unique and critical 
forests in the eastern United States.
    The Forest Legacy Program is an outstanding example of prioritized, 
strategic Federal conservation program, and a hallmark for how the 
Federal Government can help accomplish sound partnership conservation 
projects with States, municipalities, and nonprofits. Unfortunately, 
funding for this program has decreased significantly over the past 
decade. The fiscal year 2009 President's budget includes just $12.5 
million--representing just three projects nationwide, which would 
protect only 300 acres. Clearly there is a much larger demand as 
evidenced by the States' submissions for the program, totaling over 
$200 million in demonstrated need.
Land and Water Conservation Fund
    The proposed cuts to the Land & Water Conservation Fund for fiscal 
year 2009, which continue the trend of gravely declining budget for 
this critically important program. The program is the core Federal 
conservation program enabling both the Federal and State governments to 
target and protect vitally important natural resources. While LWCF 
ought to be fully funded at its authorized amount--$900 million--we are 
requesting that this subcommittee and Congress fund LWCF at $403 
million, including $278 for Federal acquisition programs and $125 for 
State programs. This funding would include support for the critical 
acquisitions at the Wallkill National Wildlife Refuge in New Jersey.
    Without adequate funding to the Highlands Conservation Act, Forest 
Legacy Program and Land & Water Conservation Fund, precious natural 
treasures of the Highlands may be developed and lost to conservation 
forever.
    Thank you for the opportunity to submit this testimony on the 
fiscal year 2009 Interior Environment and Related Agencies 
Appropriations bill.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission

    My name is Gregory E. Conrad and I am executive director of the 
Interstate Mining Compact Commission. I appreciate the opportunity to 
present this statement to the Committee regarding the views of the 
Compact's member States on the fiscal year 2009 Budget Request for the 
Office of Surface Mining (OSM) within the U.S. Department of the 
Interior. In its proposed budget, OSM is requesting $63.7 million to 
fund Title V grants to States and Indian tribes for the implementation 
of their regulatory programs and $30.8 million to fund discretionary 
spending for the Title IV abandoned mine land (AML) program, which 
includes some State grants. Our statement will address both of these 
budgeted items.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal as well as important noncoal minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $62.6 million for Title V grants to 
States in fiscal year 2009, an amount which is matched by the States 
each year. [The figures we will use in this statement reflect grants to 
States only, not Indian tribes. The tribes have recently seen 
significant increases in their Title V grants due to the tribal primacy 
provisions contained in the 2006 Amendments to SMCRA.] As you know, 
these grants support the implementation of State regulatory programs 
under the Surface Mining Control and Reclamation Act (SMCRA) and as 
such are essential to the full and effective operation of those 
programs.
    For fiscal year 2008, Congress approved an additional $5 million 
over the President's budget request of $60.5 million for State 
regulatory programs in OSM's budget, for a total of $65.5 million. The 
States are greatly encouraged by and are most appreciative of the 
significant increase in Title V funding approved by Congress in the 
fiscal year 2008 Omnibus Appropriations bill. Even with the 1.5 percent 
rescission and the allocation for tribal primacy programs, the States 
saw a $6 million increase for our regulatory programs over fiscal year 
2007 levels. As we noted in our statement on last year's budget, State 
Title V grants had been stagnant for over 12 years and the gap between 
the States' requests and what they received was widening. This 
debilitating trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
control the impact of coal extraction operations on people and the 
environment.
    In its fiscal year 2009 budget, OSM is reversing the positive trend 
established by Congress last year. While OSM attempts to paint a 
picture of increased funding for Title V grants, its argument is 
disingenuous as the agency refers to fiscal year 2007 numbers in making 
its case. The fact is, OSM's proposed amount of $62.6 million for State 
Title V grants is $1 million less than what was allocated in fiscal 
year 2008 (after the rescission and tribal allocation). Our estimate of 
actual need for fiscal year 2009 is $68 million, leaving a difference 
of almost $6 million. This difference would be reduced by $2 million if 
Congress' approved amount for fiscal year 2008 was used as the base.
    This is not the time to reverse course and upset the effort to 
restore the efficacy of State regulatory programs. The States are 
finally in a position of seeing some meaningful recognition of their 
program expenses through the upward adjustments approved by Congress 
last year. The States are just now beginning to put last year's 
improved funding to work in their programs through the filling of 
vacant positions and the purchase of much needed equipment and supplies 
(including computers and vehicles). As States prepare their budgets for 
the next few years, there is an expectation that the amount approved by 
Congress will become the new base on which we will build into the 
future--otherwise we create a situation where layoffs would occur for 
those who were just hired. The States continue to face significant cost 
increases in their programs due to inflation, especially increased fuel 
and equipment costs. Health insurance premiums and cost of living 
adjustments are also significant factors in the annual operation of 
State programs, especially with personnel expenses representing some 80 
percent of total program costs. A new challenge has come in the form of 
retirements, where States are faced with buy-outs, paying for unused 
annual leave, and replacing an aging work force. These are substantial, 
often unanticipated, costs that are wreaking havoc on State budgets.
    It is essential that we maintain consistent funding from year to 
year in order to deploy resources for our programs. This is especially 
true with regard to hiring new staff to fill vacancies or to supplement 
under-staffed areas of the programs. We cannot afford to invest money 
in these positions and then face potential layoffs the next year 
because funding is not maintained. Sending these types of mixed signals 
to State legislatures and budget officers will undermine their ability 
to support their respective regulatory programs through matching State 
funds and may cause them to reexamine their commitment to these 
programs. A clear message from Congress that reliable, consistent 
funding will continue will do much to ensure that States can continue 
to implement these vital programs.
    As we have stated before, and as OSM notes in its budget 
justification document, the State regulation of coal production 
continues to be a tremendous bargain for the Federal Government since 
States are able to issue permits and regulate mines for far less than 
it would cost for Federal permitting and regulation. It must be kept in 
mind that State coal regulatory program permitting and inspection 
workloads are in large part related to coal mine production. In 
general, as coal production increases, the need for additional 
permitting and operational inspections also increases. State programs 
must be adequately funded and staffed to insure that permitting and 
inspection duties are both thorough and timely as States experience the 
reality of accelerating coal mine production and expansion activities. 
If program funding shortfalls continue, the Nation risks the 
possibility of delayed production of a critical energy source and 
negative impacts to the environment. Stressing existing program 
resources also results in the delay or elimination of lower priority 
program functions.
    There continues to be no disagreement about the need demonstrated 
by the States. In fact, in OSM's budget justification document, the 
agency States that: ``the States have the unique capabilities and 
knowledge to regulate the lands within their borders. Providing a 50 
percent match of Federal funds to primacy States in the form of grants 
results is the highest benefit and the lowest cost to the Federal 
government. If a State were to relinquish primacy, OSM would have to 
hire sufficient numbers and types of Federal employees to implement the 
program. The cost to the Federal Government would be significantly 
higher.'' (Page 76 of OSM's Budget Justification) For all the above 
reasons, we urge Congress to increase funding for State Title V 
regulatory grants in OSM's fiscal year 2009 budget to $68 million, as 
fully documented in the States' estimates for actual program operating 
costs. This represents a $1 million increase over our request for 
fiscal year 2008 and a $2.5 million increase over the amount approved 
by Congress last year.
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, Congressional action in 2006 to reauthorize Title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State Title IV 
grants are funded primarily by permanent appropriations. As a result, 
the States will receive mandatory funding in fiscal year 2009 of $298.4 
million for AML reclamation work. OSM also proposes to continue its 
support of the Watershed Cooperative Agreement program in the amount of 
$1.5 million, a program we strongly endorse.
    OSM also proposes an amount of $30.8 million for discretionary 
funding related to OSM operations under the Title IV program, which 
includes supplemental funding needed for minimum program States. Under 
the funding formula contained in the 2006 amendments to SMCRA, all of 
the States and tribes will receive funding increases except for minimum 
program States. They remain stagnant for the next fiscal year at $1.5 
million, a level of funding that greatly inhibits the ability of these 
States to accomplish much in the way of substantive AML work. It is 
unfair and inappropriate for these States to have to wait yet another 
year to receive funding increases when they are the States most in need 
of AML moneys. We urge Congress to fund these States at the statutorily 
authorized level of $3 million in fiscal year 2009 so as to level the 
playing field and allow these States to get on with the critical AML 
projects awaiting funding.
    We also urge Congress to approve continued funding for the 
emergency program. OSM's budget would eliminate funding for state-run 
emergency programs and also for Federal emergency projects (in those 
States that do not administer their own emergency programs). Funding 
the OSM emergency program should be a top priority for OSM's 
discretionary spending. This funding has allowed the States and OSM to 
address the unanticipated AML emergencies that inevitably occur each 
year. In States that have federally-operated emergency programs, the 
State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events.
    Section 410 of SMCRA establishes an emergency reclamation procedure 
for AML sites that pose a ``sudden danger with a high probability of 
substantial physical harm to the health, safety or general welfare of 
people before it can be abated under normal program operation 
procedures''. (OSM Directive AML-4). In a Federal Register notice dated 
March 6, 1980 (45 Fed. Reg. 14810), OSM noted that ``the Secretary of 
the Interior working through OSM has the responsibility for projects 
administered under these authorities.'' (emphasis added). Therefore, 
the authority for the implementation of the emergency program is placed 
solely on the Secretary. The same Federal Register notice States that 
emergencies are differentiated from priority one problems in section 
403 of SMCRA.
    Additionally, the funding for the emergency program is separate 
from the State and tribal non-emergency AML grant funding since it 
comes from the Secretary's ``discretionary share''. Funding for 
emergencies is provided for in section 402(g)(3) of SMCRA and is used 
for the purposes described therein and with monies remaining after the 
distributions required under sections 402(g)(1), (g)(2) and (g)(5). 
Section 402(g)(1)(C) specifically requires that the non-emergency State 
share be used only for annual reclamation project construction and 
administration costs. The non-emergency Federal share allocated to the 
States in Section 402(g)(5) is used to supplement the State share 
received under 402(g)(1) until the priorities set forth in section 
403(a)(1) and (2) are met. Emergencies do not fall under section 403, 
but are provided for only in section 410. This matter was spoken to 
very directly in a report to the Interior Subcommittee of the House 
Appropriations Committee entitled ``Cleaning Up the Damage: An Analysis 
of the Operation of the AML Program'' in 1992. Rep. Carl C. Perkins (D-
KY) stated in the report: ``The AML emergency program has existed 
separately and been run differently from normal AML programs for very 
good reason: it deals with separate types of problems. Indeed, the 
Congress recognized this distinction when it devoted a special section 
(410) of SMCRA to the Secretary of the Interior with special powers to 
cope with AML emergencies. Reversing this division of responsibility 
cannot be accomplished simply by reallocating funds. There are a number 
of other hurdles which have to be negotiated.''
    While there were several significant changes to the AML program 
under SMCRA as a result of the 2006 amendments recently passed by 
Congress, there were absolutely no changes to the emergency program 
under section 410 of the Act. In fact, significant funding increases 
were approved by Congress that would allow the States to address long 
overdue reclamation problems including landslides, contaminated 
drinking water, refuse piles, dangerous highwalls, mine fires, and 
exposed mine portals. Diverting these monies to the emergency program, 
as suggested by OSM's budget, would impede the progress the States are 
now making to address AML problems that have been awaiting funding for 
years. In this regard, new section 402(g)(1)(D)(2) requires that the 
Secretary ensure ``strict compliance'' by the States in their use of 
non-emergency grant funds for the priorities listed in section 403(a). 
For the States to do otherwise would require at the least a rulemaking 
by OSM, if not legislative adjustment. It would also reverse 30 years 
of official guidance and practice by OSM. We therefore request that 
Congress restore $21 million for the AML emergency program in OSM's 
fiscal year 2009 budget.
    We also urge the committee to support adequate funding for OSM's 
training program, including monies for State travel. These programs are 
central to the effective implementation of State regulatory programs as 
they provide necessary training and continuing education for State 
agency personnel. IMCC also urges the Committee to support adequate 
funding for TIPS, a program that directly benefits the States by 
providing needed upgrades to computer software and hardware. In this 
regard, we strongly support the proposed amounts for the training 
program and TIPS in OSM's fiscal year 2009 budget. Finally, IMCC 
requests continuing support for the Acid Draining Technology Initiative 
(ADTI), a nationwide technology development program with a guiding 
principle of building consensus among Federal and State regulatory 
agencies, universities and the coal industry to predict and remediate 
acid drainage from active and inactive coal and metal mines. We support 
continued funding for this vital initiative.
                                 ______
                                 
        Prepared Statement of the Inter-Tribal Bison Cooperative

                      INTRODUCTION AND BACKGROUND

    Chairman Feinstein, ranking minority member Allard and members of 
the subcommittee, thank you for considering this testimony of the 
Inter-Tribal Bison Cooperative (ITBC). This is submitted in conjunction 
with the request recently delivered to the subcommittee from Senators 
Bingaman, Thune, Tester, Johnson, Salazar, Coleman, Baucus, and Kohl. 
ITBC is a Native American non-profit organization, headquartered in 
Rapid City, South Dakota, comprised of 57 federally recognized Indian 
Tribes in 18 States. On behalf of the member Tribes of ITBC I would 
like to address the following issues: (1) request an appropriation of 
$4,000,000.00 for fiscal year 2009, from the Department of the 
Interior, Bureau of Indian Affairs, Operation of Indian Programs, to 
continue our bison restoration efforts; (2) explain to the Committee 
the unmet needs of the members of ITBC; and (3) update the committee on 
the present initiatives of ITBC.
    The American buffalo, also known as bison, has always held great 
meaning for American Indian people. The buffalo provided the Tribes 
with food, shelter, clothing, and essential tools. Indian people 
developed a strong spiritual and cultural relationship with the buffalo 
that has not diminished with the passage of time. It is this connection 
that caused multiple Tribes to come together to organize ITBC with the 
mission of preserving the sacred relationship between Indian people and 
the buffalo through restoring buffalo to Tribal lands. ITBC envisioned 
the restoration of buffalo on Tribal lands would foster sustainable 
economic development that would be compatible with each of the Tribal 
cultures. ITBC received funds in 1992 and began their restoration 
efforts.
    Federal appropriations have allowed ITBC to successfully restore 
buffalo to over 50 reservations, thereby preserving the sacred 
relationship between Indian people and the buffalo. The respect that 
Indian Tribes have maintained for the buffalo has fostered a very 
serious, high level of commitment by ITBC member Tribes for successful 
buffalo herd development. With healthy, viable buffalo herds, 
opportunities now exist for Tribes to utilize buffalo for prevention 
and treatment of the diet related diseases that gravely impact Native 
American populations such as diabetes, obesity, cardio-vascular disease 
and others. Viable buffalo herds also offer Tribes the opportunity to 
develop sustainable economic development projects. This will allow the 
Tribes to utilize a culturally relevant resource as a means to achieve 
self-sufficiency.

                            FUNDING REQUEST

    The Inter-Tribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2009 in the amount of $4,000,000. This 
amount would restore ITBC to the fiscal year 2006 appropriation level 
and provide for ITBC's continued growth as more Tribes join. The 
requested funding level will allow our member Tribes to continue their 
successful restoration efforts, to restore our marketing initiative and 
to restore the health initiative for the prevention and treatment of 
diet related diseases among Native American populations, while 
simultaneously building economic sustainability for the Tribal 
projects.

                    FUNDING SHORTFALL AND UNMET NEED

    In fiscal year 2006, ITBC and it member Tribes were funded through 
appropriations at $4,000,000. The President's budget in fiscal year 
2007 and fiscal year 2008 eliminated funding for ITBC. ITBC was funded 
$1,000,000 by the BIA in fiscal year 2007 and fiscal year 2008 through 
a congressional appropriation. The cuts came just as ITBC had started a 
successful Marketing Program and Health Initiative that addressed diet 
related health problems that are epidemic on most of our reservations. 
The cuts damaged the economic stability of the ongoing Tribal bison 
programs.
    Without the restoration of funding to the fiscal year 2006 level, 
new member Tribes will not receive adequate funding to begin buffalo 
restoration efforts. Tribes that have successfully restored buffalo to 
Tribal lands will not receive adequate technical assistance and 
resource development funds to ensure the sustainability of existing 
herds. Furthermore, the investment made by Congress in fiscal year 2006 
towards ITBC's health care initiative has been cut to the point of 
almost being non-existent. As indicated above, this was designed to 
utilize buffalo meat for prevention and treatment of diet related 
diseases among Native American populations.
    ITBC is structured as a member cooperative and 100 percent of the 
appropriated funds are expended on the development and support of 
Tribal buffalo herds and buffalo product business ventures. ITBC 
funding is distributed to ITBC member Tribes via a Herd Development 
Grant program developed by the consensus of the members. ITBC surveys 
member Tribes annually to determine unmet project needs and currently 
the total unmet needs for ITBC member Tribes' projects is $12,000,000. 
I have attached the Tribal Bison Project Proposal summaries that detail 
the ITBC member Tribes projects and financial needs for your review.

                       ITBC GOALS AND INITIATIVES

    The goal of ITBC is restoration of buffalo to Indian lands for 
Tribes to utilize in their day to day lives in a manner that promotes 
sustainable economic development.
Economic Development
    In 1991, seven Indian Tribes had small buffalo herds numbering less 
than 1,600 animals. The buffalo provided little or no economic benefit 
to the Tribal owners. ITBC has proven extremely successful at buffalo 
restoration in its 17 years of existence. Today, with the support and 
technical assistance of ITBC and its fellow member Tribes, 57 Indian 
Tribes are engaged in raising buffalo or developing plans to raise 
buffalo and incorporate them into their daily lives. ITBC and the 
member Tribes have restored approximately 15,000 buffalo back to Tribal 
lands for use by the Tribes and their members.
    Many of these Tribal buffalo programs have developed herds large 
enough to justify plans for marketing products as a step towards self 
sufficiency. Because of the depressed economies on the reservations, 
jobs are scarce and our buffalo restoration efforts on the reservations 
have created hundreds of direct and indirect jobs relating to buffalo 
management and production. As a result, a significant amount of revenue 
derived from buffalo products is beginning to circulate through Indian 
reservation economies.
    However, Tribes must have the resources to build solid foundations 
for this new industry to become fully self sufficient and maintain 
sustainable buffalo herds. ITBC provides critical technical assistance 
to member Tribes that have developed sustainable management and 
infrastructure development plans. Additionally, ITBC provides training 
curriculum for the newly created jobs and marketing plans as Tribal 
herds reach marketing capabilities. ITBC has begun implementation of a 
marketing initiative to provide member Tribes with viable marketing 
options for utilization of buffalo as economic development efforts. 
This marketing initiative is in an infancy stage and renewed funding is 
critical to achieve success.
Tribal Buffalo Marketing Initiative
    ITBC member Tribes face a multitude of obstacles when trying to get 
their buffalo to market. The remoteness of the reservations means 
having to transport buffalo long distances to processing plants and 
this results in higher operating costs. The quality of meat is also 
negatively impacted by introducing an increased amount of stress on the 
buffalo. Further compounding the problem is the reluctance of some 
processing plants to process range fed buffalo and the requirements of 
some buyers that animals be corn finished in a feedlot situation. Some 
buyers also require USDA certification, which means USDA inspected 
processing plants must be used, which increases transport time. ITBC 
believes this lack of a constant supply chain that is cost effective is 
what is limiting the economic development of Tribal buffalo herds.
    ITBC has assisted the Gros Ventre and Assiniboine Tribes of the 
Fort Belknap Indian Community in northern Montana with the development 
of a meat packing facility acquired by the Tribe in Malta, Montana. 
They have also begun to operate a smoke house in addition to the 
packing plant. ITBC has assisted the Cheyenne River Sioux Tribe in 
South Dakota with operation of their meat packing facility. ITBC has 
provided assistance to the Ponca Tribe of Nebraska for a tannery that 
the Tribe has started to produce brain tanned hides. ITBC has set up an 
arrangement in which the Yakama Nation of Washington supplies buffalo 
meat to a Tribal enterprise of the Confederated Tribes of Umatilla in 
Oregon. ITBC believes the creation of locally driven, regional 
marketing plans will help to overcome the remoteness of the 
reservations. ITBC will provide technical assistance in the areas of 
development of distribution and supply systems for buffalo meat and by-
products and development of a cooperative brand name with standards and 
labeling guarantees for Native American produced buffalo.
Preventive Health Care Initiative
    ITBC is committed to providing buffalo meat to Indian reservation 
families both as an economic development effort for Native American 
producers and, more critically, as a healthy food option. Current 
research indicates that the diet of most Indian reservation families 
includes large amounts of high cholesterol, processed meats that 
contribute to diabetes, obesity, cardio-vascular disease and other diet 
related illnesses.
    ITBC member Tribes were beginning to implement a preventive health 
care initiative with fiscal year 2006 funding that provided easy access 
to buffalo meat on Indian reservations and educated Indian families on 
the health benefits of range fed buffalo meat. The decrease in funding 
has led to the elimination of the majority of the program with only the 
educational program still in existence.
    Generally, buffalo meat is not sold at the reservation grocery and 
convenience stores, which leaves Indian families with few alternatives 
to the high fat, high cholesterol, processed meats stocked in 
reservation stores. ITBC seeks to remedy this concern by providing 
buffalo meat in family sized quantities to reservation markets. ITBC 
will work with federal food programs to make buffalo meat available 
through the local school systems and local community health networks 
working on addressing diabetes and other health issues.

                               CONCLUSION

    ITBC has demonstrated 17 years of success by assisting its member 
Tribes to restore buffalo to their native lands for cultural purposes 
and now is working towards economic development for herd 
sustainability. ITBC will continue to provide technical assistance and 
funding to its member Tribes to facilitate the development of 
sustainable buffalo herds.
    ITBC and its member Tribes have created a new reservation industry, 
Tribal buffalo production, resulting in new money for reservation 
economies. In addition, ITBC continues to support methods to market 
buffalo meat by providing easy access to meat on the reservations and 
education efforts about the health benefits buffalo meat can bring to 
the Native diet. The ultimate goal is to restore the Tribal herds to a 
size large enough to support the local health needs of the Tribal 
members and also generate revenue through a cooperative marketing 
effort to achieve economic self sufficiency.
    ITBC and it member Tribes are appreciative of past and current 
support from the Congress and the administration. I urge the committee 
to consider restoring ITBC funding to the fiscal year 2006 level of 
$4,000,000, which will allow ITBC to continue the restoration efforts 
and restore the marketing and health initiative program started in 
fiscal year 2006. We respectfully request that the subcommittee not 
include the type of restrictive language you inserted last year. While 
the vast majority of our funding does go directly to our member tribes, 
it is nearly impossible to operate our organization--including the many 
direct services we provide our members--without any funding. If you 
discuss this matter with the BIA, you will find that we made a number 
of administrative changes since some concerns were raised a few years 
ago and are spending these funds wisely, efficiently and in conjunction 
with all applicable regulatory requirements.
    I would like to thank this committee for the opportunity to submit 
this testimony and the members of ITBC invite the honorable members of 
the committee to visit our Tribal buffalo projects and experience first 
hand their successes. Questions and/or comments regarding any of the 
issues presented within this testimony may be directed to Mr. Ervin 
Carlson, President, or to Mr. James Stone, executive director, 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99f3eaedf6f7fcd9f0edfbfafbf0eaf6f7b7faf6f4">[email&#160;protected]</a>) at InterTribal Bison Cooperative, 2497 West 
Chicago Street, Rapid City, SD 57702; 605-394-9730.
                                 ______
                                 
            Prepared Statement of the Irrigation Association

    The Irrigation Association supports the movement to increase the 
EPA WaterSense program budget to $5 million. This program is delivering 
solid results in their mission to enhance the marketplace for water 
efficient technologies. Given the serious nature of concerns over our 
nation's water supply, one might consider this a modest investment on 
behalf of the federal government. One only need look to the 
southeastern United States to recognize how quickly and how severely a 
water crisis can impact U.S. citizens.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team

    Thank you for the opportunity to address the serious issues 
involving Tribal Courts and funding needs for the fiscal year 2009 
Budget. I am the team leader for the Independent Tribal Court Review 
Team. Our requests and recommendations for the fiscal year 2009 Budget 
for Public Safety and Justice in the Bureau of Indian Affair's (BIA) 
Budget that is included in the Department of the Interior.
Budget Priorities, Request and Recommendations--$52.46 Million
    1. +$2.461 million, restore the proposed cuts in fiscal year 2009 
President's Budget, (includes the $2.3 million fiscal year 2008 
additional appropriations)
    2. +$50.0 million new additional funds for tribal courts, through 
BIA Office of Justice Services, Division of Tribal Justice Support
    For the past 30 months, our Independent Review Team has been 
traveling throughout Indian Country reviewing Tribal and Federal Courts 
of Indian Offenses (CFR Courts). We feel safe in saying that there are 
no individuals with more awareness of the current needs of Tribal 
Courts than our Review Team. During this time, we have completed some 
34 court reviews. We have come into contact with every imaginable type 
of Tribe; large and small, urban and rural, wealthy and poor. We have 
NOT encountered any Tribe whose Court system receives adequate Federal 
funding. We have identified the following decrease in the President's 
budget.

       ITEM.--DEPARTMENT OF THE INTERIOR, BUREAU OF INDIAN AFFAIRS
------------------------------------------------------------------------
                     Fiscal year                             Amount
------------------------------------------------------------------------
President's budget:
    2008 enacted.....................................        $14,338,000
    2009 request.....................................         12,047,000
    Program change...................................         -2,461,000
------------------------------------------------------------------------

    Cuts for tribal courts of $2,461,000 are not justified in 
President's budget. This reduction will be the second such budget cut 
in two consecutive years.
    Further, our research indicates Tribal courts are at a critical 
stage in terms of financial need. Nationwide, there are 156 Tribes with 
Courts that receive Federal Funding. Those Tribes divide a mere $14.3 
million in Federal funds. It is the strong recommendation of the 
Independent Tribal Courts Review Team that the Federal Tribal Courts 
budget be substantially increased, not decreased as in the President's 
Budget. We strongly urge Congress and the Appropriations Committee to 
increase funding for Tribal Courts by at least $50 million through the 
BIA Office of Justice Services, Division of Tribal Justice Support, to 
assure funds go to tribal courts.
    A frequent observation as a result of the Tribal Court reviews is 
that Tribes and the Federal Government fund Court operations as if they 
were a program that is capable of adjusting to budget reductions and 
not as a branch of government that is required to provide services 
irrespective of budget cuts. As everyone knows, a functional, 
independent and fully funded Court system is essential to the 
dispensation of justice on reservations and everywhere. Tribal Courts 
are under funded; they have little hope of increased funding; they are 
expected to make do with too little funding; and they are depressed 
from the weight of years and even decades of funding deficiency.
    We have seen the poorest Courts in the United States. We have seen 
Courts where holding a jury trial means laying off staff. We have seen 
Courts with no criminal procedure updates for 30 years. We have seen 
Courts where 1,000 defendants a year are prosecuted, by one Judge and 
one prosecutor. We have seen Courts where a significant number of the 
staff is paid below the poverty level; as low as $14,000 per year. 
We've seen courts funded as low as $12,000 per year.
    In many cases, the common denominator is funding. These courts need 
additional funding. Yet, there are many Tribal Court funding fallacies. 
We address some of those here.
 a study of tribal courts will reveal what needs to be done to fix them
    No amount of studying these Courts will cure deficient funding. Any 
study will find Tribal Courts need the things that funding will buy, 
i.e. more staff, more resources, more computers, more training, better 
software, better facilities, etc.

TRIBES WOULD BENEFIT FROM MOVING TRIBAL JUDICIAL MATTERS TO FEDERAL OR 
                              STATE COURT

    Federal and State Courts are already overburdened. They don't want 
additional jurisdiction or cases. The Federal Courts of Indian Offenses 
are perhaps the most overburdened courts in the Country, even in a 
poorer situation than many Tribal Courts. The Public Law 83-280 states, 
Indian reservations receive the worst level of law enforcement service. 
So bad, in fact, that when the Public Law 83-280 Tribes receive gaming 
funds, the first thing they do is start local law enforcement. Finally, 
Tribal Courts exercise laws and traditions specific to their 
populations, which no non-Tribal Court could, or would do. This assists 
to keep the peace when other means are unavailable.
gaming means the federal government no longer has to fund tribal courts
    There are perhaps 25-30 Tribes in Indian Country that make 
substantial amounts of money from gaming. The remainder only make 
enough to sustain a few Tribal programs or, as we have seen, just 
barely enough to sustain gaming. The Tribes that profit from gaming do 
not need Federal Court funds and DO NOT SEEK THEM! (Our research has 
revealed several Tribes who have turned down, or will turn down, 
Federal dollars for Tribal Courts because, among other reasons, other 
Tribes have more necessity of these funds). Why put up with the 
headache and the reporting if it is easier for the Tribal government to 
simply support their Court operation out of Tribal funds?
    There are, however, many positive aspects about Tribal Courts. It 
is clear that Tribal Courts and justice systems are vital and important 
to the communities where they are located. Tribes value and want to be 
proud of their Court systems. Tribes with even modest resources tend to 
send additional funding to Courts before other programs. After decades 
of existence, many Tribal Courts, despite minimal funding, have 
achieved a level of experience and sophistication approaching, and in 
some cases surpassing, local non-Indian Courts. Tribal Courts, through 
the Indian Child Welfare Act, have mostly stopped the wholesale removal 
of Indian children from their families. Indian and Non-Indian Courts 
have developed formal and informal agreements regarding jurisdiction. 
Tribal governments have recognized the benefit of having law-trained 
Judges, without doing away with Judges who have cultural/traditional 
expertise. Some Tribal Court systems have Appellate Courts, jury 
trials, well-appointed Courthouses, and Tribal Bar listings and fees. 
Perhaps most importantly, Tribes recognize the benefit of an 
independent judiciary and have taken steps to insulate Courts and 
Judges from political pressure. No longer, in Indian Country, are 
Judges automatically fired for decisions against the legislature.
    However, Tribal Courts continue to have many needs, the greatest of 
which are funding related. We comment today to express our very deep 
concern with the Federal funding levels for Tribal Courts. In 
particular, the President's budget would devastate Tribal Justice 
Systems. We respectfully request that Congress take a close look at 
these funding levels. Our research indicates that they are extremely 
low and should be increased.
    We find these cuts unjustifiable and unsupportable. The Budget 
provides increases in Law Enforcement and Detention (which we support 
as needed and necessary costs for Tribes). How does the President 
suppose those individuals get to detention from law enforcement? The 
most probable answer is through Tribal Courts. The Budget proposes 
$6.34 million in increases in funds to fight Methamphetamine. How does 
the President propose we keep those individuals off the street after 
they are arrested? The most probable answer is through Tribal Courts. 
The Budget proposes $2.67 million in increases in funds for an IMARS 
Reporting system to track convictions. How does the President propose 
we document those convictions? The most probable answer is through 
Tribal Courts.
    There are other examples, but none are necessary to show that this 
budget simply does not make sense. It ignores Tribal Courts, which is 
the primary means for carrying out justice and enforcement of the laws 
on Indian reservations. It relegated Tribal Courts to program status . 
. . essentially stating to Courts, ``. . . we know the numbers [of 
cases] will increase but make do with what you have. Or, in this case, 
less than what you have''.
    Courts, however, are not able to make changes like Tribal programs. 
There are minimum standards that Courts must meet. And every time the 
New York Times (as has occurred) publishes a story about justice in 
Indian Country suggesting a violation of speedy trial requirements or 
bonding or adequate representation, Tribes will suffer the comparison 
with non-Indian Courts. Ideally, Courts should be funded on an 
individual basis and not compete with Tribal Programs for funds. 
Increases for law enforcement should be tied on a percentage basis to 
increases for Tribal courts. The ability of Tribal Courts to do more 
with less and adapt to this inept programmatic analogy should not be 
interpreted as meaning the analogy works.
    The Independent Tribal Court Review Team completed the Tribal & CFR 
Court Reviews Project Final Report in 2006. The report contains 132 
Findings regarding all areas involving Tribal Courts. Many of the 
Findings support the recommendations made above, including several 
indicating that Tribal Courts are under-funded. We list some of these 
below.
    Finding #38: The Federal Funds are inadequate to fund most Court 
needs.--Other Court needs, technology, supplies, travel, training, are 
usually assumed by the Tribe. These needs are often provided by 
decreasing available funds for Tribal Programs. Or, the needs are 
simply not provided and the Courts must make due without these 
services.
    Finding #32: Almost all Courts are under-funded.--Court budgets 
vary widely. When you get beyond the few Tribes with very successful 
economic development ventures, the substantial number of Courts, 
approximately 90 percent, is under-funded. They are missing staff 
positions and common items such as a safe, a Court recording systems, 
telephone systems, or security systems. Almost every Court that is 
under-funded is still mostly functional.
    Finding #33: Many are under-funded at a critical level.--Some 
contracted Courts are very poor. There are Courts with only a part-time 
Judge and a Clerk. They must rely [Tribal] Administration for simple 
items, such as printer ink. There is no training. Salaries are below 
the poverty level. We have seen Courts that operate on less than 
$25,000 per year. We have seen groups of Tribes with low Federal 
funding numbers joined into a single overworked Court system that can 
only provide limited service.
    Finding #6: A very small number of Tribes have large amounts of 
available economic development funds.--These Tribes (about 10 percent) 
are those few with very successful economic development ventures. These 
Tribes contribute 90 percent or more of the funding to their Courts. 
These Tribes pay well; they have several Attorneys on staff, including 
Attorneys on the Tribal Court staff and have fully funded law 
enforcement. These Tribes are better trained and experientially and 
financially able to deal with Court matters, including criminal 
matters, than local city, county and state governments.
    Finding #5: Most Tribal economic development funds provide jobs and 
pay for a modest amount of other governmental services.--The biggest 
fallacy about Indian Nations is that gaming has made all Tribes rich. 
(This fallacy isn't always bad. It often encourages non-Indian 
governments and law enforcement to work with the Tribe.) The vast 
majority of Tribes have limited economic development that 1) funds 
itself and 2) can modestly assist Tribal programs and the Court 
budgets. A majority of Tribes have no economic development or economic 
development that only funds itself.
    On behalf of the Independent Tribal Court Review Team, Charles D. 
Robertson Jr., Honorable Philip D. Lujan, Ralph E. Gonzales, Myrna 
Rivera, court reporter and myself, thank you again for your 
consideration. If you have any questions, please feel free to contact 
Elbridge Coochise at 602-418-8937 or Charles D. Robertson, Jr. at 605-
390-0061.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2009 for 
various agencies and programs under the jurisdiction of the 
subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have more than 35,000 members and nearly 300 community-
based chapters nationwide. Our members are committed to advancing 
common sense policies that safeguard wildlife and habitat, support 
community-based conservation, and address pressing environmental 
issues. The following pertains to programs administered primarily by 
the U.S. Fish and Wildlife Service and the U.S. Environmental 
Protection Agency.
       fish and wildlife service, national wildlife refuge system
    The League joins the Cooperative Alliance for Refuge Enhancement 
(CARE), a diverse coalition of 22 wildlife, sporting, conservation, and 
scientific organizations representing over 14 million members and 
supporters, in requesting $514 million for operations and maintenance 
of the National Wildlife Refuge System in fiscal year 2009. We 
appreciate the steps Congress took in fiscal year 2008 to boost Refuge 
System funding above the administration's request to $434 million and 
encourage it to build on this foundation in the coming fiscal year.
    National Wildlife Refuges across the country provide some of the 
most important habitat for fish, wildlife and waterfowl, and offer 
incredible recreational opportunities for hunters, anglers, 
birdwatchers and countless others who enjoy the outdoors. In addition, 
refuges contribute to local and regional economies generating $1.7 
billion in sales and supporting 27,000 private-sector jobs. In spite of 
these and other benefits, funding for essential refuge operations and 
maintenance has not kept pace with inflation and pressing 
environmental, conservation and law enforcement challenges. Today, the 
System has a $3.5 billion backlog in basic operations and maintenance 
projects. As eroding budgets have forced the Fish and Wildlife Service 
to cut hundreds of staff, visitor services at many refuges have 
declined. Moreover, the Service faces a growing number of law 
enforcement challenges, including poaching and illegal drug trafficking 
and cultivation, with too few full-time law enforcement personnel.
    In 2007, CARE released a comprehensive assessment of the funding 
needs of the Refuge System. This report documented how stagnant 
budgets, inflation and growing demands negatively impact the system as 
a whole. This analysis concluded that the Refuge System needs $765 
million in annual operations and maintenance funding by 2013 to 
properly administer nearly 100 million acres, provide educational and 
recreational programs and services, and conserve critical fish and 
wildlife populations. In order to reach this reasonable goal, we urge 
the Subcommittee to provide $514 million for the Refuge System in 
fiscal year 2009.

            FISH AND WILDLIFE SERVICE, STATE WILDLIFE GRANTS

    As a member of the Teaming with Wildlife National Steering 
Committee, the League urges the subcommittee to provide $85 million for 
the State Wildlife Grants Program in fiscal year 2009. In fiscal year 
2008, the final appropriation for Wildlife Grants totaled $73.8 
million.
    The State Wildlife Grants Program supports proactive conservation 
projects aimed at preventing wildlife from becoming endangered. 
Experience shows that efforts to restore imperiled wildlife can be 
particularly contentious and costly when action is taken only after 
species are formally listed as threatened or endangered pursuant to the 
Endangered Species Act. State Wildlife Grants support State and 
community-based efforts to safeguard habitat and wildlife before either 
reaches the tipping point. This program also provides States with an 
important source of Federal funds to address non-game species. Finally, 
the Federal investment leverages significant funding from private, 
State, and local sources.
    When Congress established the program, it required States to 
develop comprehensive Wildlife Action Plans that evaluate wildlife 
conservation needs and identify action steps to address those needs. In 
early 2007, the Fish and Wildlife Service completed the process of 
reviewing and approving plans for every State. With approved plans in 
place, State wildlife management agencies and their many partners, 
including Izaak Walton League chapters, are beginning to implement 
them. On-going Federal support, including $85 million for fiscal year 
2009, is critical to effective implementation and to conserving a wide 
array of non-game species and their habitat.

        FISH AND WILDLIFE SERVICE, NATIONAL FISH PASSAGE PROGRAM

    The League opposes the administration's proposal to reduce the 
budget for the National Fish Passage Program by nearly $6 million 
compared to the fiscal year 2008 appropriation of approximately $11 
million. We urge the subcommittee to provide at least level funding in 
fiscal year 2009.
    The National Fish Passage Program represents a highly valuable 
partnership between the Fish and Wildlife Service, States, localities 
and community groups. Local citizens and partners identify barriers 
that block access to historic habitat and, according to the Service, 
contribute approximately 60 percent of the funding and in-kind support 
for projects designed to remove or bypass those barriers. The Service 
provides technical assistance at the project level and helps to 
prioritize projects for Federal financial assistance.
    The administration's proposal to reduce funding by more than 50 
percent is clearly at odds with the well-documented need for Federal 
investment in this area. In its fiscal year 2009 Budget Justification, 
the Service States that: ``[M]ore than 2.5 million dams, and millions 
of other poorly designed culverts and other structures, impede fish 
passage across the American landscape.''(page FAR-30) Within this much 
larger universe, the Service has identified more than 460 priority 
passage projects with a total estimated cost of nearly $87.5 million. 
The Service further indicates in its Budget Justification that 
addressing these priorities would ``remove or bypass 464 barriers and 
open access to 4,831 miles and 42,143 acres of historical spawning and 
rearing habitats . . .'' (page FAR-30)
    The dramatic reduction proposed by the administration would 
undermine efforts to return many fish species to their native habitat, 
limit recreational fishing opportunities and short-circuit community-
driven conservation efforts. We applaud the subcommittee for making an 
important investment in the program in the past and urge it to continue 
this effort in fiscal year 2009.

      FISH AND WILDLIFE SERVICE, NATIONAL FISH HABITAT ACTION PLAN

    The League is a strong proponent of the National Fish Habitat 
Action Plan and regional Fish Habitat Partnerships. We support the 
administration's request for approximately $5.1 million for fiscal year 
2009, which is essentially level with the fiscal year 2008 
appropriation.
    The National Fish Habitat Action Plan provides a national framework 
for restoring critical habitat. Regional partnerships provide 
geographic focus and create opportunities for citizens and groups to 
play active and constructive roles in developing strategies to 
safeguard resources near where they live. The Fish and Wildlife Service 
is the lead Federal agency working with Fish Habitat Partnerships and 
the National Fish Habitat Board. The Service uses limited funding very 
efficiently allocating approximately 60 percent of program dollars to 
on-the-ground restoration projects and most of the remaining funds to 
supporting the regional partnerships. The League is pleased to support 
the request for this important initiative.

   ENVIRONMENTAL PROTECTION AGENCY, CLEAN WATER STATE REVOLVING FUND

    The League joins the Healing Our Waters Coalition in urging the 
subcommittee to reestablish funding for the Clean Water State Revolving 
Fund (SRF) at the historic high of $1.35 billion with $490 million 
allocated for the Great Lakes States. The Great Lakes, which provide 
drinking water to 40 million people and provide jobs and recreational 
opportunities for millions more, are at risk from combined sewer 
overflows and aging wastewater treatment plants. In fact, the EPA 
estimates that more than 150 municipalities or sewer districts in the 
United States with combined sewer systems operate on the Great Lakes or 
their tributaries--all of which are subject to overflows during 
significant storm events.
    The Clean Water SRF is a highly successful program that provides 
the funds needed to reduce sewage contamination. The administration's 
fiscal year 2009 budget includes $555 million for the SRF, which is 
$134 million below the fiscal year 2008 appropriation, and would target 
$201 million toward the Great Lakes States, which is approximately $48 
million less than current funding. The request is inadequate and would 
undermine efforts to reduce sewage contamination throughout the Great 
Lakes region and across the country. The League supports reinvigorated 
investment in the SRF in fiscal year 2009 and beyond.

       ENVIRONMENTAL PROTECTION AGENCY, TARGETED WATERSHED GRANTS

    We urge the Subcommittee to reject the administration's proposal to 
terminate Targeted Watershed Grants and to provide $35 million in 
fiscal year 2009 compared to $9 million in fiscal year 2008.
    We further recommend that $10 million of the total be allocated to 
support projects in the Chesapeake Bay watershed.
    Targeted Watershed Grants fund projects that expand collective 
knowledge on the most innovative, sustainable and cost-effective 
strategies to reduce excess nutrient loads to the Chesapeake Bay and 
other important waterways throughout the country. This program has 
helped to reduce nutrient, sediment and bacteria pollution, protect 
drinking water supplies, increase aquatic habitat and enhance 
recreational opportunities. Terminating this program would directly 
undermine successful efforts to address long-standing challenges facing 
the Bay. We encourage the Subcommittee to maintain the program and 
increase the Federal investment.

        ENVIRONMENTAL PROTECTION AGENCY, CHESAPEAKE BAY PROGRAM

    The League urges the subcommittee to increase funding for the 
Chesapeake Bay Program Office from $22.6 million in fiscal year 2008 to 
$30 million, including $3 million for Small Watershed grants, in fiscal 
year 2009.
    The Chesapeake Bay is the largest estuary on the Atlantic coast and 
one of the largest in the world. EPA's Chesapeake Bay Program Office 
(CBPO) is the primary facilitator of restoration activities by partners 
throughout the watershed. Although the Chesapeake Bay Program has made 
significant progress toward pollution reduction, habitat restoration, 
fisheries management and watershed protection goals, much more work is 
needed to restore the Bay. For example, habitat restoration efforts are 
collectively less than half way to Program goals and there is concern 
about the overall quality of habitats that remain. Achieving these 
goals will require participation from citizen groups and local 
governments. The Chesapeake Bay Program supports stakeholder 
involvement through the Chesapeake Bay Small Watershed Grants. In the 
past nine years, the Small Watershed Grants Program has provided $17.7 
million to support 544 water quality improvement and wildlife habitat 
restoration projects. These grants have been used by recipients to 
leverage an additional $50.7 million from other funding sources. The 
League supports additional investment in the Program Office with 
particular emphasis on boosting support for Small Watershed grants.

  ENVIRONMENTAL PROTECTION AGENCY, NON-POINT SOURCE MANAGEMENT PROGRAM

    The League opposes the administration's proposal to reduce funding 
for section 319, the Non-point Source Management Program, by $16 
million compared to the fiscal year 2008 funding of $200 million. We 
strongly urge the subcommittee to increase funding for this critical 
program.
    This program provides grants to States, territories and tribes for 
non-point source pollution reduction activities. Non-point source 
pollution is the leading cause of water quality problems and the 
primarily reason that approximately 40 percent of surveyed rivers, 
lakes and estuaries are not clean enough to support fishing or 
swimming. Through this program, States identify impaired waters and 
implement non-point source management programs to address these 
impairments. Since 1990, this program has improved water quality so 
dramatically that 66 watersheds in 28 States have been removed from the 
impaired waters list. In light of the importance and success of this 
program, we join with American Rivers in urging the Subcommittee to 
appropriate $250 million for section 319 in fiscal year 2009.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe

    On behalf of the Jamestown S'Klallam Tribe, I want to thank this 
subcommittee for the opportunity to submit testimony on our funding 
priorities and requests on the fiscal year 2009 Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS) budgets. We have long 
appreciated this subcommittee's support of our funding requests. 
However, we are gravely concerned that Federal funding for Indian 
programs continues to lose ground compared to spending for the general 
U.S. population at large in the majority of programs that constitute 
the trust responsibility. We believe fulfillment of these 
responsibilities through appropriations is a top priority.
    Tribal-Specific Appropriation Priorities:
    1. $1,460,000 Land Purchase for Tamanowas Rock Sanctuary Project
    2. $200,000 Increase to BIA Tribal Base Budget for Fish & Wildlife 
Management
    Local/Regional Requests and Recommendations: We support all 
requests and recommendations of:
    1. Affiliated Tribes of Northwest Indians
    2. Northwest Portland Area Indian Health Board
    3. Northwest Indian Fisheries Commission
                 national requests and recommendations
    BIA requests:
    1. Restore Johnson O'Malley funds ($21.4 million); and Housing 
Improvement Funds ($13.6 million) to Tribal base programs;
    2. Provide $25 million General Increase to BIA Tribal Priority 
Allocation for inflationary and fixed costs;
    3. Provide $45 million increase for BIA Contract Support Cost 
(CSC), including Direct CSC; and,
    4. $500,000 for BIA Data Management to fund the Office of Program 
Data Quality
    IHS requests:
    5. Provide $486 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services;
    6. $152 million increase for Contract Health Services (CHS);
    7. $160 million increase for IHS to fully fund Contract Support 
Cost (CSC), including Direct CSC;
    8. Increase $5 million to the Indian Health Service (IHS) Office of 
Tribal Self-Governance.
    We support all requests and recommendations of the National 
Congress of American Indians and National Indian Health Board.

              TRIBAL-SPECIFIC APPROPRIATION JUSTIFICATION

    $1,460,000 Land Purchase for Tamanowas Rock Sanctuary Project.--The 
purpose of the project is to preserve tribal cultural and ceremonial 
access to an important archaeological site of the S'Klallam American 
Indian people. Tamanowas Rock, located in Eastern Jefferson County on 
the Olympic Peninsula of Washington State, is of great cultural and 
spiritual significance to the Tribes in the region, and also holds 
special historical meaning for the local non-Indian community. As a 
geological formation, the estimated age of Tamanowas Rock is 43 million 
years. More importantly, the oral history among the local Tribes 
includes the era of the mastodons (extinct for 8,000 years), when 
Tamanowas Rock was used as a perch by Tribal hunters. Another story 
references a great flood (assumed to be a tsunami from around 3,000 
years ago) when people tied themselves to the Tamanowas Rock to avoid 
being swept away by the turbulent waters.
    In 1976, Tamanowas Rock was listed in the Washington Heritage 
Register as having major archaeological interest. The Tribes and local 
community have been working to protect the property where the Rock is 
located from development for more than 10 years. In February 2005, the 
Jamestown S'Klallam Tribe, acting on behalf of all the S'Klallam 
Tribes, obtained loans to purchase a 20 acre parcel and a group of 
platted properties totaling 66.32 acres in imminent threat of 
development in the vicinity of the Rock. If dedicated roads are 
vacated, the acreage is closer to 100 acres for the platted properties. 
The local community and the Tribes now seek funds to purchase the land, 
which was temporarily secured by the loans and purchase the remaining 
80 acres directly surrounding Tamanowas Rock, all of which would be 
protected in perpetuity.
    $200,000 Increase to BIA Tribal Base Budget for Fish & Wildlife 
Management.--The U.S. Government formally recognized the Jamestown 
S'Klallam Tribe in 1981. Jamestown is one of four Tribes that signed 
the Point No Point Treaty with the U.S. Government in 1855. The BIA 
began contracting with the Tribe to provide fisheries management 
services. The Point-No-Point Treaty Council (PNPTC) was serving as the 
fisheries management agency for the other Klallam and Skokomish Tribes. 
In its efforts to contract with Jamestown for basic fisheries 
management services, the BIA decided to provide only enough funding to 
slightly expand PNPTC rather than providing funding of sufficient 
quantity for Jamestown to operate a fisheries program of its own. 
Following the implementation of the Self-Governance Initiative, the 
distribution of contracted funds to each PNPTC member tribe was based 
on funding history, thus Jamestown received a significantly smaller 
portion of the PNPTC base funding. The Tribe is required to meet the 
basic fisheries and wildlife management responsibilities of U.S. v 
Washington including planning, negotiation, regulation, and 
enforcement. The $200,000 increase to our Self-Governance base is 
needed to implement these essential treaty fish and wildlife management 
services.
    Local/Regional Requests and Recommendations:
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
    National Requests and Priorities:
    The President's fiscal year 2009 budget included numerous decreases 
for Indian programs. We are deeply disappointed that once again this 
annual budget does not support strong Tribal Self-Government and Self-
Determination. The following highlights our top priorities:
    BIA REQUESTS1. Restore Johnson O'Malley funds ($21.4 million); and 
Housing Improvement Funds ($13.6 million) to Tribal base programs
  --The JOM is a critical Indian-specific education program, which 
        targets Indian students.
  --The HIP program provides much needed housing repairs for Tribal 
        citizens
  --These programs have long been part of our Tribal Self-Governance 
        base and we strongly full restoration of these programs in our 
        base budgets.
    2. Provide $25 million for General Increase to BIA Tribal Priority 
Allocation for inflationary and fixed costs.
  --For the past 10 years in a row, TPA funding has remained flat and 
        continues to lose ground to inflation. In fiscal year 2009, the 
        administration's request not only contains no general increase 
        for TPA, but TPA allocations would decline 8.3 percent.
  --This activity includes the majority of the funds used to support 
        core tribal community services and programs such as housing, 
        education, natural resources management and tribal government 
        services.
  --It is not reasonable to expect the Tribes and the Bureau to 
        maintain these critically needed services to their communities 
        when inflation continues to erode the purchasing power of the 
        dollar and these programs are already severely under funded.
    3. Provide $45 million increase for BIA to fully fund Contract 
Support Cost (CSC), including Direct CSC.
  --The BIA recently implemented a new CSC Policy, which includes 
        indirect and direct CSC.
  --This funding is required to fully fund and implement this policy.
    4. $500,000 for BIA Data Management to fund the Office of Program 
Data Quality (OPDQ).
  --A persistent problem affecting all areas of Indian Country is the 
        lack of efficient and effective data management and reporting. 
        Tribes and Federal agencies badly need to improve capacity to 
        identify existing needs and deficiencies. For instance, in the 
        Department of Interior, Indian Affairs programs do not maintain 
        collected data in a ready accessible format for instant 
        analysis and reporting, which results in weeks or months of 
        staff time to compile a report on standard program practices.
  --The Bureau's lack of data management also leads to duplicate data 
        calls, missed deadlines, and incomplete reporting. It appears 
        that all programs collect standard program data on a regular 
        basis, but fail to maintain it.
  --We strongly urge an increased investment in data management to more 
        efficiently and effectively use program funding and enhance 
        data credibility and analysis for use by decision makers in 
        critical processes (including GPRA and PART). We request 
        $500,000 to establish a centralized office within the BIA for 
        data management.

                              IHS REQUESTS

    5. Provide $486 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services.
  --Mandatory costs increases are necessary to maintain the current 
        level of services. These ``mandatories'' are unavoidable and 
        include medical and general inflation, pay costs and population 
        growth.
  --This year's President's budget proposes to cute $21.3 million in 
        funding. This will have a detrimental effect on health services 
        to Indian people and diminish any gains that the Indian health 
        system has made over the years to address health disparities.
    6. Provide $152 million increase for Contract Health Service (CHS)
  --$152 million increase is needed for contract health funding. This 
        level will allow those Tribes who are not served by an IHS 
        Hospital to provide health care services at the same level as 
        those Tribes who are served by an IHS Hospital.
    7. Provide $160 million for IHS to fully fund Contract Support Cost 
(CSC), including Direct CSC.
  --On March 1, 2005, the United States Supreme Court issued a 
        unanimous decision in Cherokee Nation and Shoshone-Paiute 
        Tribes v. Leavitt lawsuit, which powerfully reaffirms the 
        enforceability of government contracts between Indian Tribes 
        and agencies such as IHS and BIA.
  --The Court's ruling compels corrective action from Congress, where 
        historically insufficient funds have been appropriated to pay 
        government contracts with Tribes, while all other government 
        contracts are fully paid (through supplemental appropriations, 
        if necessary).
    8. Increase $5.0 million to the Indian Health Service (IHS) Office 
of Tribal Self-Governance.
  --In 2003, Congress reduced funding for this office by $4.5 million, 
        a loss of 43 percent from the previous year. In each subsequent 
        year, this budget was further reduced due to the applied 
        congressional rescissions. There are over 330 Self-Governance 
        Tribes with funding totaling approximately $1.0 billion; this 
        is 57 percent of all federally-recognized Tribes and 33 percent 
        of the overall IHS funding. Tribes continue to enter into SG 
        resulting in a need for additional OTSG staffing.
    Support all requests and recommendations of the National Congress 
of American Indians and National Indian Health Board.
    The leadership of the Jamestown S'Klallam Tribe remains actively 
involved in both NCAI and NIHB and has participated in numerous 
national forums to discuss and prioritize program funding and budgets. 
We are extremely supportive of the requests from these organizations.
    In conclusion, the treaties and legislation that Tribal governments 
have fought so hard to achieve with the United States Government remain 
the basic foundation of our unique governmental relationship. We 
strongly urge this subcommittee to honor these commitments and request 
that Tribal government operations be afforded the highest priority in 
your appropriation decisions. Thank you in advance.
                                 ______
                                 
Prepared Statement of the Kern County Valley Floor Habitat Conservation 
                                  Plan

    Mr. Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior appropriations bill for fiscal year 2009.
    First, the Coalition supports the President's budget request for 
the Department of Interior's Cooperative Endangered Species 
Conservation Fund, especially funding for HCP land acquisition.
    Second, the Coalition urges the subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President. The additional funding requested by the Coalition 
anticipates that $1 million will be needed by the Kern County program 
to be used for purposes of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP. The County's local oil and gas production 
industry and Water Districts have contributed over $500,000 to the 
development of this program. In 1997, the U. S. Fish and Wildlife 
Service allocated $500,000 of Federal Endangered Species Act Section 6 
funds to assist in program implementation. The California State 
government has authorized $1 million to augment the Federal funds. In 
order to secure the $3 million total necessary to assist in the 
implementation of the plan, we will require $1 million for fiscal year 
2009 and $500,000 for fiscal year 2010.
    The Coalition requests that the subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and urgency support this request.
    Kern County's program is unique from other regions in the Nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 11 wildlife 
species and 14 plant species covered as threatened or endangered under 
the program. The potential for conflict with the Federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities, water conveyance efforts and the urbanization that is 
occurring. Since Kern County is the top oil producing county in the 
Nation and experiencing rapid urban growth, potential conflicts with 
the ESA and their resolution through a proactive conservation program 
has significant national importance.
    In recognition of the conflicts posed to economic growth by Federal 
and State endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish and Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Division of Oil and Gas and Geothermal Resources, California Department 
of Fish and Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and Federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, water conveyance and other industry 
activities to continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, State and local government agencies, as well as the oil and 
gas industry, agricultural interests, utilities and environmental 
groups.
    Kern County's Valley Floor Habitat Conservation Plan is one of the 
largest and most diverse endangered species conservation programs under 
development in the Nation encompassing over 3,110 square miles. The 
program represents a departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it is based on an incentive-
based system of selling or trading habitat credits in an open market. 
This innovative approach, for the first time, provides landowners with 
real incentives and more importantly, the ability to choose how best to 
manage their own private property. The KCVFHCP is in the final stages 
of preparation. The HCP document is completed. An environmental impact 
statement is being prepared for public review in the near future. Final 
approval will occur in 2008.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. The KCVFHCP program will be completed in 2009, provided 
there is the necessary Federal funding for the acquisition of habitat 
to mitigate for oil and gas operations and development. Additional 
funding is critical to completing the HCP. This is one of the final 
steps necessary to implement the conservation strategy. Because of the 
extensive private, local and State government financial support that 
went into the development of this program, Federal participation in 
program implementation will demonstrate that the burden of ESA 
compliance is not being placed exclusively on private property owners. 
Program funding will also contribute to eventual species recovery.

                         PROGRAM FUNDING NEEDS

    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
State and Federal funding received in 1997) that could be funded in 
increments over the first two years of the program. The purpose of this 
funding is described as follows:
Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3.0 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.

Urban Development/County Infrastructure Issue
    The conservation program includes an Urban Development/County 
Infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws which will encourage the owners of such 
properties to offer lands for the benefit of species conservation. 
Protected species of plants and animals will benefit from a program 
that promotes private property owners to conserve permanent habitat 
preserves consistent with the objectives of the ESA.

Water District Activity Issue
    A Water District Strategy is included in the program to address 
Covered Species protection due to the construction of new facilities 
and the operation and maintenance of existing water management and 
conveyance facilities. The Covered Species will benefit from reduced 
and less intrusive operation and maintenance measures than have been 
conducted historically due to concerns for conflicts with endangered 
species laws.

Federal Funding Support will Augment Local Government and Private 
        Industry Efforts to Comply with the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and urban development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair Federal share of financial support for this 
important effort. This unique cooperative partnership involving State 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
subcommittee's consideration of this request for a fiscal year 2009 
appropriation to support implementation of this significant program.
                                 ______
                                 
   Prepared Statement of the Lac du Flambeau Tribe of Lake Superior 
                            Chippewa Indians

    As President of the Lac du Flambeau Tribe of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this testimony, 
which reflects the needs, concerns and issues of the tribal membership 
arising from the President's fiscal year 2009 Budget for BIA, IHS, EPA 
and NPS. We would like to thank the subcommittee for its past support, 
especially your support of the Lac du Flambeau Boarding School Project.
    We are alarmed by the slow erosion of funding for Indian programs 
under the Bush administration. While some proposed cuts are obvious 
(JOM, HIP, natural resource programs), the more insidious reductions 
are the result of the flat program funding and across-the-board 
rescissions that tribes are subject to every year. As the cost of 
living, the cost of fuel, and the cost of other resources rise over the 
years, these programs see little or no increases, and any increase that 
is provided is eliminated once the rescission is applied. We commend 
the subcommittee on its decision to significantly increase law 
enforcement funding in fiscal year 2008, but it is important to 
understand that other areas continue to suffer.
    Inflation, Cost of Living, and Fixed Costs.--Under the Indian Self-
Determination Act, many tribes have assumed responsibility for 
providing core services to their members. If these services were 
provided by the Federal Government, employees would receive pay cost 
increases mandated by Federal law, but Congress and Interior have 
failed to fulfill their obligation to ensure that tribes have the same 
resources to carry out these functions. For example, tribes received 
only 75 percent of the pay cost adjustment in fiscal year 2002, 15 
percent in fiscal year 2003 and 30 percent in fiscal year 2004. To make 
matters worse, the BIA and IHS have steadfastly refused to provide 
tribal contractors with full contract support costs, ensuring that when 
tribes take over these programs, they will be placed in an untenable 
position. This inequity is undermining tribal self-determination.
    The subcommittee also has to understand the impact of the 
increasing cost of health insurance on our ability to provide services 
to our tribal members. In order for us to maintain a $10/hr employee 
(approximately $20,000/yr), the Tribe faces an associated health care 
benefit cost of $20,350 for a family health insurance plan. When the 
Tribe is forced to supplement under-funded BIA and IHS programs in 
order to cover these costs, direct services to our members suffer. We 
have less money available to provide counseling to students, collect 
water samples, put more officers in the field, provide basic health 
service, etc. Without substantial increases in funding, the Tribe will 
continue to decrease services to our tribal membership because we 
cannot afford to absorb these costs. We may be forced to eliminate the 
health insurance benefit, which will seriously impact our ability to 
recruit and maintain our labor force.
    Our highest priority is to keep existing programs from failing. We 
ask that the Subcommittee provide cost of living increases and fully 
fund contract support costs.
    Rescission Exemption.--The purpose of an across-the-board 
rescission is to spread cuts across all programs, but what may seem 
like a small loss to another program can be crippling to tribes. BIA 
and IHS programs have always been severely under-funded. The small 
increases provided in previous years have been eliminated by 
rescissions. This year, the President proposes to fund BIA Indian 
programs at $100 million below last year and IHS programs at $20 
million less. A rescission would take us back even further. Tribes 
simply cannot afford to have our limited funding chipped away like 
this. We ask that the Bureau of Indian Affairs and the Indian Health 
Service be exempted from any rescissions applied in the fiscal year 
2009 bill.

                    BUREAU OF INDIAN AFFAIRS PROGAMS

    Education.--Because the Tribe's member children attend public 
schools, Johnson O'Malley funding forms the core of the Tribe's 
education program. The JOM program provides funding for supplemental 
education programs for Indian students attending public schools. At Lac 
du Flambeau, JOM money funds a counselor/mentor position at the local 
high school. Most of our children attend an elementary school that is 
over 90 percent Indian, and transition to a high school in which they 
are a minority. The counselor/mentor provides academic support and 
assistance with this transition. The administration attempts to justify 
the cut by claiming that the Department of Education provides enough 
funding for all youth attending public school, including Indian 
children, so JOM funding is ``duplicative.'' This is not true. The 
Department of Education provides some funds for Indian students under 
Title VII, but the Department has not increased funding for Indian 
student programs for several years. If the JOM program were eliminated, 
we would lose our counselor/mentor. We urge the subcommittee to restore 
full funding to the JOM program and to reject the proposed $5.9 million 
cut to higher education scholarships.
    Road Maintenance.--The BIA proposes an inexplicable cut to road 
maintenance funding for fiscal year 2009, slashing the program in half. 
As Congress well knows, roads in Indian country are unsafe and in 
dismal condition. At least $120 million per year is required to address 
the deplorable state of these roads. As with JOM and HIP, the 
administration justifies this cut by pointing to funding available from 
another agency--here the Department of Transportation. When SAFETEA-LU 
was passed, Congress permitted tribes to use up to 25 percent of DOT 
road construction funding for road maintenance in recognition of the 
BIA's terrible track record and consistent failure to request enough 
road maintenance funds. Congress also made it clear these funds were 
intended to supplement, not replace BIA Road Maintenance Program 
dollars and placed the choice of whether to use these funds for 
maintenance purposes squarely with the Tribal government, not the BIA, 
stating that the agency ``shall continue to retain primary 
responsibility, including annual funding request responsibility, for 
road maintenance programs on Indian reservations.'' 23 U.S.C.  204(c). 
We ask the subcommittee to reject the proposed $13 million cut to road 
maintenance.
    Housing Improvement Program.--HIP is a critical program for Tribes 
like Lac du Flambeau, providing much-needed money to renovate 
dilapidated housing. This is an especially critical need in Northern 
Wisconsin, where substandard housing can have serious health and safety 
consequences in the winter. Lac du Flambeau typically receives about 
$38,000--enough to improve a single home. Because of limited funding, 
the waitlist for HIP services is long. This year, our funding will be 
used to provide a new roof and siding for an elderly and disabled 
tribal member. The administration justifies its proposed elimination by 
claiming that the Department of Housing and Urban Development will 
provide housing assistance. However, the administration also proposes 
to cut funding for Indian housing within HUD. This will only increase 
the need for HIP resources. If HIP funding is eliminated, this woman 
will have no alternative source of funding. Her home and the homes of 
the others on the waiting list will remain in disrepair. We ask the 
subcommittee to restore HIP funding to the fiscal year 2007 level of 
$19 million.
    Natural Resources.--Tribes are leaders in natural resource 
protection and BIA natural resource funding is essential to maintain 
our programs. Lac du Flambeau has a comprehensive Natural Resources 
Department and dedicated staff with considerable expertise in natural 
resource and land management. Our activities include raising fish for 
stocking, conservation law enforcement, collecting data on water and 
air quality, developing well head protection plans, conducting wildlife 
surveys and administering timber stand improvement projects on the 
86,000-acre Reservation. Unfortunately, natural resource programs have 
been cut or flat-funded for many years now, and tribes have been forced 
to lay off staff and shut down programs, leaving critical resources in 
jeopardy. Worse yet, this year's cuts are proposed in order to fund 
internal BIA programs like the proposed $900,000 increase to Integrated 
Resource Information Program, taking limited funding from tribes in 
order to fund more agency bureaucracy. We ask the subcommittee to use 
this funding instead to restore cuts and provide cost of living 
increases for natural resources programs so that these programs can 
continue to operate.
    We are especially concerned about the administration's proposal to 
eliminate the Circle of Flight program. Congress has restored this 
funding when it was targeted in past years, and the Tribe would like to 
thank the subcommittee for understanding how important this program is 
in restoring and preserving wetlands and waterfowl populations, which 
are vital to the culture and economy of the Great Lakes region. We urge 
the subcommittee to restore $600,000 for the Tribal Wetland and 
Waterfowl Enhancement Initiative (Circle of Flight).
    Another area of concern is Water Management, Planning & Development 
funding, which supports tribes in their efforts to establish Clean 
Water Act standards. The Tribe was recently granted ``Treatment as a 
State'' status under the Clean Water Act, and this funding is essential 
to us. The program has seen more than $2 million in cuts over the past 
several years, which severely impacts tribes. We ask the Subcommittee 
to restore this program to fiscal year 2005 levels ($7.4 million). We 
also ask that you add language preventing the BIA from transferring 
Water Resources money to fund Water Rights Litigation. This practice 
has created a severe drain on the budget for water management. It is 
important that the subcommittee understand that protecting the quality 
of water resources is as important as securing the right to those 
resources--rights are of little use if the resource is contaminated.
    The Tribe also supports the Great Lakes Indian Fish and Wildlife 
Commission (GLIFWC) request for $4,327,000. The Tribe is a member of 
the Commission, which assists the Tribe in protecting and implementing 
its treaty-guaranteed hunting, fishing and gathering rights.
    Law Enforcement.--Conservation law enforcement officers are a 
significant part of the Tribe's police force. These officers are 
primarily responsible for enforcing hunting and fishing regulations 
related to the exercise of treaty rights, but they also have a much 
larger role in law enforcement. They are often first to respond to an 
emergency situations, and would be the first line of defense for any 
meth labs found on or near the Reservation. Our conservation officers 
are now 100 percent dependent on tribal funds. This costs the Tribe 
$343,000 annually, in addition to the $893,000 the Tribe pays for its 
non-conservation law enforcement programs. We appreciate the increase 
provided for law enforcement in fiscal year 2008. We ask that the 
Subcommittee direct a portion of any increases in law enforcement 
funding to conservation officers.
    Indian Land Consolidation.--This program received a significant cut 
last year and the President proposes to eliminate the program entirely 
this year. For the Lac du Flambeau Tribe, this program has been very 
successful. With ILCA funding, we were able to purchase over 200 acres 
of fractionated land. This helps keep land in trust and expedites 
natural resource activities such as timber sales and forest development 
projects. We ask the subcommittee to restore this program to the fiscal 
year 2007 level ($34 million).

                ENVIRONMENTAL PROTECTION AGENCY PROGRAMS

    Clean Water Program.--The Clean Water Program provides grants to 
tribes under Section 106 of the Clean Water Act to protect water 
quality and aquatic ecosystems. The Lac du Flambeau Clean Water program 
maintains and improves water quality as development continues for the 
tremendous amount of surface water within the exterior boundaries of 
the Reservation. According to the 2000 Census, the Lac du Flambeau 
Reservation includes nearly one-half of all of the water area (56.34 
square miles) within Wisconsin Indian Reservations. The Tribe's GIS 
Program indicates that there are 260 lakes covering 17,897 acres, 71 
miles of streams, and 24,000 acres of wetlands cover within the 
Reservation. Surface waters cover nearly one-half of the Lac du 
Flambeau Reservation. We received $171,000 in fiscal year 2005, the 
minimum required to support the Tribe's program. In fiscal year 2008, 
we will receive $161,000. We request restoration of full funding to the 
Clean Water Program, including restoration of $171,000 from this fund 
for the Tribe's Water Resources Program.
    Indian Environmental General Assistance Program.--We support the 
Administration's proposed $1 million increase to the Indian 
Environmental General Assistance Program (GAP). GAP funding is the 
primary federal mechanism available for tribes to protect our lands. 
These funds enable tribes to assume environmental responsibilities 
delegated by EPA. We ask the subcommittee to support this increase and 
to further increase funding to $68.3 million. We also ask you to 
clarify that GAP funding can be used for development, implementation 
and continued support of tribal environmental programs, not merely 
``capacity building.''

                     NATIONAL PARK SERVICE PROGRAMS

    Historic Preservation.--In 1995, Congress began encouraging tribes 
to assume historic preservation responsibilities as part of self-
determination. There are currently 76 tribes in the United States--
eight in Wisconsin--approved by the Secretary to administer historic 
preservation programs. These programs conserve fragile places, objects 
and traditions crucial to tribal culture, history and sovereignty. As 
was envisioned by Congress, more tribes qualify for funding every year. 
In fiscal year 2001, there were 27 THPOs with an average award of 
$154,000; in fiscal year 2006 there were 58 THPOs, and Lac du Flambeau 
received $57,374. Paradoxically, the more successful the program 
becomes overall, the less each tribe receives to maintain professional 
services, ultimately crippling the programs. We thank the subcommittee 
for the $1 million increase provided to THPOs last year, but more 
funding is needed. We ask that $13.7 million be provided for Tribal 
Historic Preservation Officers (THPOs), which would provide a modest 
base funding amount of $180,000 per THPO program.

                     INDIAN HEALTH SERVICE PROGRAMS

    Contract Health.--Federal funding for health services has fallen 
dramatically behind the rising cost of health care over the past 5 
years. We anticipate the fiscal year 2009 shortfall to be in excess of 
$3 million. A much more substantial increase is needed to address the 
need across Indian county. We urge the subcommittee to significantly 
increase funding for Contract Health Services, and not to limit this 
increase to emergency CHEF funding, which can be difficult for tribes 
to access.
    Contract Support Costs.--HS estimates that it has a $107 million 
shortfall in contract support costs, yet it continues to request only 
minimal increases. We ask the subcommittee to consider making a portion 
of any unobligated balances available for contract support costs.
    Contacts.--Mary J. Pavel or Addie C. Rolnick at Sonosky, Chambers, 
Sachse, Endreson & Perry, LLP 1425 K Street NW, Ste. 600, Washington 
D.C. 20005; 202-682-0240 (tel); 202-682-0249 (fax) <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b667b6a7d6e674b7864656478607225686466">[email&#160;protected]</a>; 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e3f2c313230373d351e2d3130312d3527703d313370">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the Lamoille County Natural Resources 
                Conservation District and Nature Center

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present this testimony in support of an 
appropriation of $4 million from the Forest Legacy Program to protect 
the 5,727-acre Eden Forest property in Eden, Vermont.
    I also urge your support for a significant increase in funding for 
the Forest Legacy Program in fiscal year 2009 to enable the protection 
of more forest resources than are included in the President's budget. 
The budget for this year proposes a cut of 75 percent and sets aside 
funds for only three Forest Legacy projects nationwide out of 87 
submitted by the States. Without additional funds, the program will not 
be able to continue its successful partnerships with States, local 
communities, landowners and grassroots organizations like the Lamoille 
County Natural Resources Conservation District & Nature Center to 
protect valuable forestlands, while retaining, in many cases, private 
ownership.
    The Forest Legacy Program in Vermont seeks to achieve significant 
conservation goals for the State by protecting the following types of 
land: large contiguous and productive forest blocks, wildlife habitat 
dependent on large contiguous forest blocks, threatened and endangered 
species habitat, State fragile areas and undeveloped shoreline, 
significant wetlands, and important recreation corridors.
    The State's top Forest Legacy Program priority for fiscal year 2009 
is the 5,727-acre Eden Forest. Situated in Lamoille County on the spine 
of the northern Green Mountains in Eden and Johnson, this large 
contiguous timber tract is truly a high-quality forest, which contains 
two unique natural communities known as red spruce hardwood swamp and 
semi-rich northern hardwood forest. The property has been managed for 
timber for over 50 years and, given the excellent condition of the 
forest and forest roads, is well positioned to continue providing 
forest products far into the future. Because the Forest Legacy Program 
allows for and encourages sustainable stand management the Eden Forest 
represents a potential balance of preservation and utilization. Funding 
of the Eden Forest, and other similar Forest Legacy Projects, bring 
together ecological and egalitarian needs of communities.
    Eden Forest is adjacent to 24,188 acres of conserved land and 
shares a common boundary with the Long Trail State Forest and the Long 
Trail corridor itself for approximately 4 miles. The Long Trail is the 
Nation's oldest long-distance hiking trail and one of Vermont's most 
cherished cultural resources. The property also contains portions of 
both Bowen and Butternut Mountain summits. Its protection would create 
a 30,000-acre block of protected land, a significant unfragmented 
``core'' forest in Vermont's northern woods.
    Eden Forest's close proximity to such ecological hotspots as the 
Babcock Nature Preserve, the Atlas Timberlands, and Green River 
Reservoir State Park coupled with the large unfragmented nature of the 
property will provide a haven for many wildlife species such as black 
bear, bobcat, gray and red fox, moose, and deer. Over 5,000 acres of 
the property is considered ``core'' habitat and has received a high 
wildlife-linkage-value rating by the Vermont Department of Fish and 
Wildlife due in part to it being a ``black bear production habitat'' 
area. These areas support a relatively high density of cub-producing 
females. This property also has 120 acres of beaver wetlands that 
provide habitat for wood ducks, wood turtles, and many species of 
warblers. A rookery for great blue herons, a rare species in Vermont, 
was found at one of the property's wetland complexes.
    The Eden Forest property also encapsulates almost the entire 
watersheds of two Gihon River headwater streams, Stony Brook and Wild 
Brook. It also contains approximately one-half mile of frontage on both 
sides of the Gihon River itself, which is a tributary of the Lamoille 
River, and abuts Vermont's scenic Route 100. The property also includes 
more than 46 miles of streams and rivers that make up part of the Gihon 
River headwaters. The Vermont Department of Environmental 
Conservation's draft Lamoille Basin Plan recognizes the importance of 
protecting the Gihon River headwaters area for its near-pristine 
natural condition, wildlife and fish habitat value, timber value, and 
location adjacent to a core of protected land. Numerous wetlands dot 
the extensive property, including the six-acre Lanpher Meadow. 
Protection of the Eden Forest property and associated waters directly 
contributes to the water quality of Lake Champlain which is already 
impacted by elevated phosphorus levels associated with developed and 
mismanaged sub watersheds. Lake Champlain is often called ``North 
America's most historic lake'' in addition to offering an abundance of 
recreational and natural features.
    Historically, the Eden Forest property has also provided numerous 
recreational activities such as hiking, hunting, and cross-country 
skiing. Snowmobiling is also allowed, and the property hosts trails 
that are managed by the Vermont Association of Snow Travelers (VAST). 
Lamoille County also has the largest connected network of cross-county 
ski trails in the world, and this project could help expand that 
network in the future. These activities all make up an important part 
of the local tourist economy.
    Eden Forest is under immediate pressure from development. According 
to 2000 census data, the town of Eden has the second highest percentage 
of population growth in Lamoille County, and its projected population 
growth through 2015 is expected to continue at a higher rate than 
almost any other town in the county. Eden also had a 25 percent 
increase in the number of housing units from 1990 to 2000, indicating a 
high demand for new homes in the area. This type of sprawl is largely 
to blame for the fragmentation of Vermont's forests and farms. With its 
first-rate access to Route 100, low-elevation open meadows, well-
developed road network, southern exposure, scenic views, and proximity 
to the major cities in Vermont, Eden Forest is a prime spot for 
development.
    The Lamoille County Natural Resources Conservation District & 
Nature Center, incorporated in 1945 to represent landholders, is 
committed to maintain and improve the natural resources of Lamoille 
County and to provide our cooperators with resources and tools, like 
the Forest Legacy Program, to encourage responsible and sustainable 
management and development of natural spaces within our communities. 
Since the District's incorporation over 60 years ago, the greatest 
change has been in land use; no longer are our cooperators agricultural 
producers and the forestry sector despite the fact that much of the 
Lamoille County economy is based on the natural environment. To respond 
appropriate, the Lamoille County Natural Resources Conservation 
District & Nature Center has prioritized all projects that support the 
traditional working landscape of agriculture and forestry. Protection 
of working forest lands like the Eden Forest will ensure the 
continuation of the rural character and wild flavor that the local 
communities of Lamoille County depend on.
    Thank you again, Madam Chairman for the opportunity to present this 
testimony in support of an appropriation of $4 million from the Forest 
Legacy Program in fiscal year 2009 to protect the vast 5,727-acre Eden 
Forest property.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras

    The League of American Orchestras urges the subcommittee to approve 
fiscal year 2009 funding for the National Endowment for the Arts (NEA) 
at a level of $176 million. Congressional support for the NEA has 
strengthened in recent years, evidenced by meaningful funding 
increases, particularly in fiscal year 2008 when Congress approved a 
$20.3 million restoration of NEA funds. Still, the NEA has never fully 
recovered from a 40 percent budget cut in fiscal year 1996 and the 
current level of funding for the NEA is still well below the 1992 
appropriation of $176 million.
    Founded in 1942, the League of American Orchestras is the national 
service organization for symphony, chamber, youth, and collegiate 
orchestras. Orchestras exist in all 50 states, in virtually every 
community. We estimate that there are approximately 1,800 orchestras in 
the United States, with annual budgets ranging from less than $12,000 
to more than $77 million. Orchestras in this country are supported by a 
network of citizens that advance the presence of music in their 
communities--instrumentalists, conductors, managers, board members, 
volunteers, staff members, and business partners.
    The arts are essential to life in American communities nationwide. 
From small towns to urban centers, communities look to the arts to 
generate economic activity and educate our Nation's citizenry. Most 
significantly, as a Nation we also turn to the arts for their unique 
capacity to offer comfort in times of distress, provide meaning amidst 
uncertainty, spark unity during conflict, and to mark many of our most 
historically significant moments. More than 40 years of support from 
the National Endowment for the Arts has fostered the development of 
many orchestras and has increased the capacity of the arts to serve and 
strengthen communities across our country.
    A significant increase in funding will expand the NEA's ability to 
serve the American public through grants supporting and promoting the 
creation, preservation, and presentation of the arts in America through 
the NEA's core programs--Access to Artistic Excellence, Challenge 
America: Reaching Every Community, Learning in the Arts for Children 
and Youth, and Federal/State partnerships--and through important 
national initiatives.
    In the most recently completed grant year, fiscal year 2007, the 
NEA's Grants to Organizations included 127 grants to orchestras and the 
communities they serve, supporting arts education for children and 
adults, preserving great classical works, fostering the creative 
endeavors of contemporary classical musicians, composers, and 
conductors, and expanding public access to performances.

        NEA FUNDING LEADS TO INCREASED PUBLIC ACCESS TO THE ARTS

    The NEA, together with the arts organizations that receive Federal 
support, is committed to improving public access to the arts. NEA 
grants reach every Congressional district in the country. Grants 
awarded to orchestras through the Access to Artistic Excellence program 
support educational activities, concerts, festivals, professional 
development, and residencies in communities across the country. With 
Federal support, orchestras are extending the reach of their activities 
beyond their home cities, bringing music to communities in surrounding 
towns and regions.
  --The New Mexico Symphony Orchestra, assisted by an NEA grant, has 
        been able to bring its touring program to rural and underserved 
        communities. The audiences for the public and school 
        performances included first-time attendees and reflected the 
        diversity of the local communities, which are predominantly 
        Native American and Hispanic. The orchestra is committed to 
        continuing to provide the diverse population of New Mexico with 
        the highest quality live performances of symphonic music, to 
        present a broad repertoire in a variety of venues, and to be an 
        important educational force. NEA funding lends credibility to 
        their ongoing efforts to secure critical operating funds, and 
        the orchestra was able to attract funding from community 
        partners, the Mellon Foundation, and helped persuade New Mexico 
        legislature to re-institute touring funds for the orchestra's 
        next fiscal year.
  --An NEA grant supports the Vermont Symphony Orchestra's (VSO) annual 
        ``Made in Vermont Music Festival'' statewide tour, which takes 
        a chamber orchestra to nine small, rural communities across the 
        state during foliage season. The VSO also partners with the 
        Vermont State College (VSC) system, with three of the concerts 
        taking place on VSC campuses. Because several of the 
        performances take place on college campuses, there is always a 
        new audience in attendance, year to year. Further, an expanded 
        ``Green Room Program,'' which reaches local high school 
        students, draws new student attendees. Support from the NEA is 
        critical and irreplaceable to this project and assists in the 
        orchestra's application to the Vermont Council on the Arts for 
        state arts support. The ``Made in Vermont Music Festival'' will 
        embark on its 15th annual tour September 25-October 5, 2008, 
        with Music Director Jaime Laredo conducting and performing as 
        violin soloist.
  --An NEA grant will enable the Nashville Symphony to perform for 
        children and adults through outdoor concerts and participate in 
        community-wide events in different communities, drawing many 
        new audience members who are not usual attendees of symphony 
        concerts in Nashville. The Nashville Symphony has been a 
        grateful recipient of NEA support for almost 20 years, and the 
        community engagement program has doubled over the last 6 years. 
        The orchestra is asked by new communities on a regular basis to 
        perform, and it makes every effort to accommodate these 
        requests. In 2007-2008, the Nashville Symphony will visit seven 
        counties in Middle Tennessee. NEA awards are matched by 
        community sponsorships, and community engagement concerts are 
        offered free of charge to the public, or are offered for a 
        minimal fee that the communities themselves charge so that 
        funds raised go to local arts programs and initiatives.

   NEA-FUNDED ARTS PROGRAMS NURTURE THE CREATIVE POTENTIAL OF YOUNG 
                                LEARNERS

    Arts education is proven to boost the capacity of young people to 
succeed in school, work, and life. Children gain the ``arts advantage'' 
through NEA-funded projects that engage them in the creative process, 
spark their skills of imagination, and develop their capacity for self-
discipline, perseverance, and teamwork. Young people benefit from 
participating in the vibrant network of youth orchestras in America.
    The youth orchestra field is growing--among reporting orchestras, 
the average number of students participating in conducted ensembles 
increased by 25.9 percent between the 1989-1990 and the 2004-2005 
seasons. We look to youth orchestras as a place where young people come 
together from a wide variety of backgrounds--from countries all over 
the world, and from a variety of economic, social, religious and ethnic 
backgrounds. Music is a positive force for teaching people to work 
creatively together. Among America's orchestras our youth orchestras 
are the most diverse.
    Orchestras are essential and active partners in increasing access 
to lifelong music education, improving the quality of life in their 
communities by collaborating with school systems and other local 
partners to deliver a wide array of education and community programs.
  --The Dubuque Symphony Orchestra received its first NEA grant to 
        support a series of concerts featuring Gareth Johnson, a winner 
        of the International Sphinx Competition that recognizes young, 
        ethnically diverse string instrumentalists. This support from 
        the NEA enabled the orchestra to support young talent and 
        promote artistic diversity as part of a city-wide Multicultural 
        Festival organized by the Dubuque Symphony Orchestra to 
        commemorate Black History Month. Furthermore, the orchestra was 
        able to engage underserved groups in the community while 
        inspiring and educating audiences, many of whom experienced 
        classical music for the very first time.

    NEA GRANTS UNIQUELY SUPPORT CREATIVITY IN COMMUNITIES NATIONWIDE

    The NEA identifies and supports projects that connect the arts--and 
artists--to their broader communities, encouraging creative 
collaboration and building artistic strength. Projects supported by the 
NEA must demonstrate artistic excellence and a strong capacity to reach 
new audiences. Audiences across the country are currently experiencing 
an NEA-funded project that exhibits the hallmarks of the agency: 
reaching new audiences, attracting additional financial support, and 
providing access to the arts to communities nationwide.
  --An NEA grant to the Reno Chamber Orchestra supports the second 
        round of the ``Ford Made in America'' project, a collaborative 
        commissioning, performance, and outreach project that involves 
        60 smaller-budget orchestras, including at least one from each 
        of the 50 States, providing an opportunity to achieve together 
        what no one of them could afford to do on their own. For 
        orchestras with smaller budgets, commissioning and presenting a 
        major new work by a nationally recognized composer can be 
        difficult, due to budget constraints and limited staff 
        resources. The largest consortium commission ever planned by 
        American orchestras, Ford Made in America gives ensembles in 
        smaller communities the capacity to premiere a new work by 
        Joseph Schwantner, one of the most frequently performed 
        composers in the United States. Alongside the NEA, the Ford 
        Motor Company Fund has again contributed major funding, and the 
        program is a partnership of the League of American Orchestras 
        and Meet the Composer. On the local level, Ford Made in America 
        has opened up new potential funding streams for participating 
        orchestras.
    Thank you for this opportunity to illustrate the value of NEA 
support for orchestras and communities across the nation. The 
Endowment's unique ability to provide a national forum to promote 
excellence, both through high standards for artistic products and the 
highest expectation of accessibility, remains one of the strongest 
arguments for a federal role in support of the arts. We urge you to 
support creativity and access to the arts by approving $176 million in 
funding for the National Endowment for the Arts.
                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe

    Thank you for allowing the Lower Elwha Klallam Tribe an opportunity 
to submit our written testimony that lists the funding needs for fiscal 
year 2009 before this highly esteem committee.
    My name is Frances Charles and I am the chairwoman of the Lower 
Elwha Klallam Tribe. Our Reservation is located on and near the mouth 
of the Elwha River on the North Coast of the Olympic Peninsula, about 5 
miles west of the City of Port Angeles, Washington. I am here today to 
request full funding for the Indian Health Service in Fiscal 2009, 
including :
  --a $486,000,000 increase to cover mandatory, inflation, and 
        population growth;
  --a $152,000,000 increase for Contract Health Services;
  --a $160,000,000 increase to fully fund Contract Support Costs;
  --a $5,000,000 increase for IHS' Office of Self-Governance;
  --restoration of $21,000,000 for Health Care Facilities Construction; 
        and
  --continued annual funding of the Special Diabetes Program for 
        Indians at $150,000,000 until new authority is enacted.
    Increased funding levels are needed to maintain existing health 
care services; meet unmet health care needs in our growing population; 
and support Tribal Self-determination efforts.
    The Elwha Tribe also supports restoration of Johnson-O'Malley 
($21,400,000) and Housing Improvement ($13,600,000) funds to the Bureau 
of Indian Affairs base programs, along with a $25,000,000 increase in 
the BIA's Tribal Priority Allocation, a $45,000,000 increase for BIA 
Contract Support Costs, and $500,000 for BIA Data Management. In 
addition, we welcome the subcommittee's support of funding for 
restoration of freshwater and marine fisheries habitat in the Port 
Angeles region. Our Tribe is a partner with the State and Federal 
governments in both Elwha River Restoration and Port Angeles Harbor 
Cleanup. But I want to focus my testimony today on health care issues.
    Prior to entering Self-Governance in the Indian Health Service in 
2002, we took over our Tribe's Health Services from IHS' Neah Bay 
Service Unit in March 1995. Our clinic, located just west of Port 
Angeles on U.S. Highway 101, is better situated to provide health care 
services in the Port Angeles Region. The clinic serves about 1000 
member and non-member Indians, including 416 individuals who lack 
insurance. Ours is also the only clinic in the Port Angeles area 
accepting new Medicare and Medicaid patients, including non-Indians. In 
addition, under a recently negotiated Memorandum of Understanding with 
the Veterans Administration, our clinic will soon begin serving both 
Indian and non-Indian veterans.
    Unfortunately, our Contract Health Services Program remains 
seriously under-funded. For fiscal year 2007, that program received 
$517,175 to serve 642 eligible Native Americans living on reservation 
land. After using $197,800 to buy prescription drugs for this 
population, we had just $319,380 remaining for all of fiscal year 2007. 
We do not collect contract support costs from our Contract Health 
Service allocation and are forced to use third-party revenues to 
attempt to make up this shortfall.
    Ever-increasing medical costs are affecting the criteria we use to 
select treatment options. For example, in fiscal year 2007 the Contract 
Health Service budget was severely impacted by two cancer patients. 
Because of the high cost of the medical treatment for one of the 
patients--$200,000 per month just for cancer center care, not including 
hospital and physician fees or medication--the Tribe was forced to go 
into Priority I, meaning all medical referrals were stopped except for 
patients requiring hospitalization or at risk for life and limb. As you 
can see, the medical needs of just one tribal member can put a 
substantial strain on the yearly budget, leaving other tribal 
households in jeopardy. We need more realistic funding levels.
    Increased funding would also facilitate the purchase of diagnostic 
equipment, such as lab and x-ray equipment, as well as essential 
medical supplies. Our veteran, eldercare and pediatric caseloads are 
all increasing. We need to keep pace in our clinic. And, as our service 
population ages, we hope to construct and operate an assisted living 
facility serving veterans and tribal elders. We especially honor and 
care for our veterans. We are proud that such a high proportion of 
Indian people have served, and continue to serve, in the Armed Forces. 
We want to provide them with the best medical facilities possible.
    As we enter fiscal year 2008 our Tribe is faced with many 
challenges regarding health care. The greatest challenge will be to 
provide Contract Health Care. We are told that program will only 
receive $500,000 for fiscal year 2008. That funding will be 
insufficient to cover our increasing medical costs for eldercare, 
emergency room visits, surgeries, orthopedics, diabetic management, 
cancer care, health and prevention programs.
    Mr. Chairman, you can see that we have the same health care 
problems as the country at large: increasing uninsured or under-insured 
veteran, eldercare and pediatric caseloads. If anything, our service 
population has greater health-care needs than the general population. 
But because of cuts, rather than growth, in the Indian Health Services 
budget, and because IHS requires us to subsidize contract support 
costs, we are actually forced to treat our children, elders and 
veterans with diminished funding. This is causing a health-care crisis, 
for our Tribe and for our region. We hope that your subcommittee will 
not let this happen, that Congress will be able to provide health care 
funding at more realistic levels in the coming years.
    Finally, Mr. Chairman, I want to express my Tribe's appreciation 
for Senates' efforts toward reauthorizing the Indian Health Care 
Improvement Act. Much has been done, and much remains to be done, to 
improve health care for our people. We know that there are many demands 
made upon the Federal Budget; and, we hope that the Senate, present and 
future, will continue to give high priority to Indian Health Care.
                                 ______
                                 
             Prepared Statement of the Lummi Indian Nation

    On behalf of the Lummi Indian Nation, I would like to thank the 
chairman and the distinguished committee members for the opportunity to 
share with you the funding priorities and requests of the Lummi Indian 
Nation for the fiscal year 2009 Budgets for the Bureau of Indian 
Affairs and the Indian Health Service.
    The Lummi Indian Nation is located on the northern coast of 
Washington State, and is the third largest tribe in Washington State 
serving a population of over 5,200. The Lummi Indian Nation is a 
fishing Nation. We have drawn our physical and spiritual sustenance 
from the marine tidelands and waters, which as surrounded us for 
hundreds of thousands of years. Now the abundance of wild salmon is 
gone. The remaining salmon stocks do not support commercial fisheries. 
Our fishers have trying to survive with shellfish products. In 1999 we 
had 700 licensed fishers who supported nearly 3,000 tribal members. 
Today, we have about 350 remaining. This means that over 400 small 
businesses in our community have gone bankrupt in the past 9 years. 
This is the basic inescapable reality of the Lummi Indian Nation. We 
are culturally a fishing society. Our people have contracted diseases 
that were unknown to us at the beginning of the 20th Century. Our 
people are seeking a return to traditional health and to practice our 
traditional healthy lifestyles. Our families are struggling to hold 
traditional values against the onslaught of poverty, drug abuse, mental 
and physical illness. Domestic violence among our people is three times 
the rate experienced by our non-Indian neighbors. Our children and 
elders go without the food clothing, shelter and community support that 
they desperately need.
                        tribal specific requests
Bureau of Indian Affairs
  --+$5 million--BIA General Assistance Program
  --+$500,000--Tribal Community Safety Center
  --+$850,000--Water Resources Protection
  --+$1.5 million--Wetland and Habitat Mitigation Bank Land Acquisition
  --+$1.6 million--Salmon Hatchery Program Maintenance
  --+$1 million--BIA Realty
  --+$2.5 million--Slater Road Bridge Project
Indian Health Service
  --+$2 million--Contract Health Funds
  --+$600,000--Lummi Dental Facility Staffing and Equipment
    lummi indian nation specific requests--bureau of indian affairs
+$5 million.--BIA General Assistance Program
    The Lummi Indian Nation worked with the BIA General Assistance 
Staff to develop a plan for emergency services for our fishers. This 
assistance did help some fishers make the transition from salmon to 
other commercial fisheries, until the BIA administrative decision was 
made not to allow Tribes to seek assistance for economic disaster, even 
though it is allowable under the program regulations. Lummi Indian 
Nation is requesting that the Committee direct the Bureau to reverse 
this decision and provide the BIA General Assistance Program with an 
additional $5million to address the needs of those Tribes impacted by 
economic distress, such as the economic disaster facing the Lummi 
Indian Nation.
+$500,000.--Tribal Community Safety Center (Office of Indian Services)
    The Lummi Indian Nation has been able to organize eight federally 
recognized Tribal governments to support the development and operation 
of a Community Public Safety Center, which would serve as a regional 
alternative jail. The facility would feature a variety of incarceration 
services from the least restrictive forms of community-based services 
through limited maximum-security incarceration services. With proper 
planning and contract obligations the Tribes could support this 
operation.
+$850,000.--Water Resources Protection (Division of Water)
    Pursuant to the 1855 Treaty of Point Elliot, an adequate quantity 
and quality of water is needed both on the Lummi Reservation to support 
an economically viable homeland for the Lummi People and in the 
Nooksack River watershed to support a sustainable, harvestable surplus 
of salmon and shellfish. In November 2007 the Federal judge approved 
the negotiated settlement to the lawsuit United States, Lummi Nation v. 
Washington State Department of Ecology, et al, Civil Action No. C01-
0047Z (U.S. District Court, Western District of Washington). The 
negotiated settlement resolved water rights conflicts for only a 
portion of the Lummi Indian Reservation; it did not resolve on-going 
conflicts for the northern half of the Reservation and it did not 
resolve on-going conflicts over water allocation in the Nooksack River 
watershed, which discharges through the Reservation. In addition, the 
negotiated settlement created obligations on the parties including 
paying for a Federal water master, metering all water uses, and 
performing additional monitoring and reporting. The Lummi Indian Nation 
is requesting $150,000 to pay the cost of these obligations due the 
Lummi Indian Nation. Efforts to resolve the water rights conflicts have 
been underway for many years and additional technical, legal, and 
policy support is needed to resolve these conflicts. The estimated 
additional annual cost for this support is $700,000.
+$1.5 million--Wetland and Habitat Mitigation Bank Land Acquisition
    The Lummi Indian Nation is developing a wetland and habitat 
mitigation bank on the Reservation to restore high-value and relatively 
rare saltwater marsh habitat and to ensure no net loss of wetland areas 
or functions as a result of residential, commercial, municipal, and 
industrial growth on the Reservation and in surrounding areas. Although 
the Lummi Indian Nation already owns about half of the land that will 
be used in the wetland and habitat mitigation bank, individual tribal 
members own the remainder of the targeted land in the Lummi River flood 
plain. Purchasing this land, at fair market value, which has marginal 
value for agricultural purposes due to saline soils and brackish water 
supplies, will consolidate ownership and allow the land to be used for 
a purpose that provides a substantial benefit to the ecosystem and 
supports the residential and economic development of the Lummi Indian 
Nation and surrounding communities.
+$1.6 million.--Salmon Hatchery Program Maintenance (Hatchery 
        Maintenance & Rehabilitation)
    The Lummi Indian Nation currently operates three salmon hatcheries 
that support tribal and other fisheries in the region. The tribal 
hatchery facilities were originally constructed in the early 1970's. 
The original infrastructure needs to be repaired or replaced as it 
approaches the end of its useful life and other infrastructure needs to 
be developed or modified to ensure compliance with the Clean Water Act 
and/or the Endangered Species Act. The existing pump station along the 
Nooksack River needs to be upgraded at a cost of approximately $600,000 
and the existing approximately 4 mile long, 10-inch diameter asbestos-
cement water supply line needs to be replaced with a 12-inch diameter 
pipeline at a cost of approximately $1 million.
+$1 million.--BIA Realty (Division of Realty)
    Funding is requested to support BIA processing the backlog of 
Tribal fee to trust applications that have been accumulating for nearly 
20 years. This backlog is a significant barrier to Tribal development 
today.
+$2.5 million.--Slater Road Bridge Project (Division of Transportation)
    The Lummi Indian Nation is partnering with the Federal Emergency 
Management Agency and neighboring Whatcom County to elevate a 
frequently flooded section of Slater Road. When this section of Slater 
Road is flooded, access to the Lummi Reservation, Lummi Island, the 
Cherry Point heavy impact industrial zone, and the City of Ferndale are 
severely limited, which threatens public health and safety and has 
substantial economic impacts. The FEMA provided a $3 million grant for 
the project through the Pre-Disaster Mitigation Program (the maximum 
grant allowable) and Whatcom County has committed $3.66 million to the 
project based on initial project cost estimates. The design for the 
project has been completed but, due to unforeseen costs and increase 
material costs, the engineer's cost estimate based on the 100 percent 
design is approximately $2.5 million greater than the available budget. 
Value engineering efforts did not substantially lower the costs and 
would have a greater environmental impact. An additional $2.5 million 
is needed to construct this important project, from Indian Reservation 
Roads (IRR) Road and Bridge funds.
      lummi indian nation specific requests--indian health service
+$2 million.--Contract Health Funds
    The Lummi Indian Nation has endured a shortage of contract health 
care funds for many years due to constantly increasing health care and 
health care administrative costs and a budget that does not keep pace. 
The Lummi Indian Nation is requesting that the Committee direct the IHS 
to develop an allocation plan for contract health care funds that 
recognizes that Tribes who are not served by an IHS Hospital incur 
greater contract health costs than those tribes who are provided 
services by such a facility. The Lummi Indian Nation has incurred 
approximately $2 million annually in costs that are not covered by the 
current allocation level.
+$600,000.--Lummi Indian Nation Dental Facility Staffing and Equipment
    In 2008 the Lummi Indian Nation is completing the process of 
expanding is dental clinic facility and services. Funding for this 
project was generated through a combination of IHS facility and tribal 
funds. The Tribal Health Planner has determined that the Dental Clinic 
needs at least 12 chairs. Currently there are only four chairs and a 4 
month waiting list for both youth and adult to see the dentists even 
though the Lummi Indian Nation has prioritized dental services for 
school age children. Lummi Indian Nation funds have been used to create 
dental clinic space sufficient for 12 chairs. The Lummi Indian Nation 
is requesting that the Committee direct the IHS to provide the Lummi 
Indian Nation with additional equipment (4 operatories at $100,000 
each) and staffing (two dentists at the rate of $100,000 annually 
each).
        requests and recommendations supporting all tribal needs
BIA Requests
  --Restore Johnson O'Malley funds ($21.4 million); and Housing 
        Improvement Funds ($13.6 million) to Tribal base programs
  --Provide $25 million General Increase to BIA Tribal Priority 
        Allocation for inflationary and fixed costs
  --Provide $45 million increase for BIA Contract Support Cost (CSC), 
        including Direct CSC
  --$500,000 for BIA Data Management funding of Office of Program Data 
        Quality
IHS Requests
  --Provide $486 million for IHS mandatory, inflation and population 
        growth increase to maintain existing health care services 
        (President's budget proposes a cut of $21.3 million)
  --$152 million increase for Contract Health Services (CHS)
  --$160 million increase for IHS to fully fund Contract Support Cost 
        (CSC), including Direct CSC
  --Increase $5 million to the Indian Health Service (IHS) Office of 
        Tribal Self-Governance
  --Restore $21 million for health care facilities construction
  --Maintain annual funding for Special Diabetes Program for Indians 
        (SDPI) at $150 million until new authority is enacted (Current 
        extended authority for Special Diabetes Program for Indians 
        will expire in 2009.)
The Lummi Indian Nation Supports the Regional Requests and 
        Recommendations for
    Affiliated Tribes of Northwest Indians
    Northwest Portland Area Indian Health Board
    Northwest Indian Fisheries Commission
The Lummi Indian Nation Supports the National Requests and 
        Recommendations for
    National Congress of American Indians
    National Indian Health Board
                                 ______
                                 
       Prepared Statement of the Mother Lode Chapter, Sierra Club

    The Mother Lode Chapter of the Sierra Club supports an 
appropriation of $5 million from the Land and Water Conservation Fund 
to the U.S. Forest Service to purchase lands in Tahoe National Forest, 
California. Some of these lands are in the canyon of the Middle Yuba 
River, and the remainder are in the canyon of the North Yuba River.
    The Mother Lode Chapter also urges the subcommittee to recommend 
total appropriations from the Land and Water Conservation Fund much 
larger than the miniscule appropriations in the President's budget. 
Increased appropriations are urgently needed to reduce the enormous 
nationwide backlog of critical private inholdings that should be 
acquired.
    Land grants to the Central Pacific Railroad created an irrational 
square-mile checkerboard pattern of public and private lands around the 
railroad's route across the Sierra Nevada. The checkerboard pattern of 
ownership makes efficient and effective management of public lands in 
the checkerboard to enhance forests, water quality, wildlife habitat, 
and recreation impossible. There are numerous areas in the checkerboard 
with exceptional wildlife, recreation, and scenic values. Consolidation 
of public ownership in these exceptional areas will prevent degradation 
of their values by development on the intervening private lands.
    Consolidation of public ownership of areas with exceptional values 
in the checkerboard has been a high priority of the Mother Lode Chapter 
for decades.
    Thanks to the foresight of past Congresses, thousands of acres of 
private land in the exceptional checkerboard areas--for example, the 
Castle Peak area and the North Fork American Wild River--have been 
acquired by LWCF appropriations. The Chapter urges you to build on 
these achievements by recommending the requested appropriation for 
fiscal year 2009.
    Checkerboard parcels along the Middle Yuba River and parcels in the 
watershed of the North Yuba River with a total area of 3,700 acres are 
available for acquisition in fiscal year 2009.

                        MIDDLE YUBA RIVER LANDS

    These lands lie along 12 miles of the canyon of the Middle Yuba 
River, a deep rugged canyon that includes three sheer-walled inner box 
canyons. This 12-mile stretch is the upstream end of the 39 miles of 
the Middle Yuba that Tahoe National Forest has found eligible for 
designation in the Wild and Scenic River System by virtue of its 
exceptional scenic qualities. Most of the parcels are on the lower 
slopes and in the bottom of the canyon.
    Bald eagles and northern goshawks reside in the canyon, which is a 
critical wildlife corridor. The canyon contains nesting and foraging 
areas for California spotted owls. Most of the national forest lands in 
the canyon are included in Tahoe National Forest's Carnivore Network, 
lands that are to be managed to benefit habitat for marten and Pacific 
fisher.
    The entire 39 mile stretch of the Middle Yuba is considered to be a 
good to excellent trout stream. The first 4 miles downstream from 
Milton Reservoir are more accessible than the canyons further 
downstream, and acquisition of lands along this stretch would help 
ensure public access to almost all of it. The available lands include a 
stretch of Macklin Creek, which contains a self-sustaining population 
of Lahontan cutthroat trout, a federally-listed threatened species. 
Macklin Creek is an important contributor to California's Lahontan 
cutthroat trout recovery program.
    The Middle Yuba canyon offers excellent opportunities for 
fishermen, hikers, and canyon explorers who enjoy solitude, strenuous 
adventure, and highly scenic primitive settings. There are several 
historic trails into the canyon. Some of them are presently usable, and 
others could be reconstructed to provide additional access.
    Acquisition of the available Middle Yuba River lands would 
significantly increase and consolidate public ownership within the 
canyon, facilitating coordinated management to preserve the canyon's 
important wildlife habitat, watershed, and wild river values. If these 
lands are not acquired, some parcels might be sold to individuals 
desiring unusually isolated second-home sites. Development of these 
sites would gravely damage the pristine canyon.

                         NORTH YUBA RIVER LANDS

    Most of the 11 scattered parcels lie on the middle and upper slopes 
of the canyon of the North Yuba River, a few miles upstream from the 
town of Downieville. These parcels are in the middleground and 
background views from the North Yuba River canyon and heavily traveled 
State Highway 49, which is designated as a California Scenic Highway. 
The North Yuba River canyon is also a very popular recreation area. 
Protection of the highly scenic views from the canyon and highway is a 
significant public benefit.
    Acquisition of the North Yuba River parcels will substantially 
consolidate public ownership in several drainages tributary to the 
North Fork and facilitate coordinated management to preserve the 
scenic, watershed, and wildlife habitat values of these drainages, 
which are included in Tahoe National Forest's Carnivore Network.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs

    As the president of the National Association of Abandoned Mine Land 
Programs I submit this statement on the proposed fiscal year 2009 
Office of Surface Mining budget.
    The NAAMLP is a tax-exempt organization consisting of 31 States and 
Indian tribes with a history of coal mining and coal mine related 
hazards. These States and tribes are responsible for 99.5 percent of 
the Nation's coal production. A majority of the States and tribes 
within the NAAMLP administer abandoned mine land (AML) reclamation 
programs funded and overseen by the Office of Surface Mining (OSM) 
pursuant to Title IV of the Surface Mining Control and Reclamation Act 
(SMCRA, Public Law 95-87). Since the enactment of the SMCRA by Congress 
in 1977, the AML program has reclaimed thousands of dangerous sites 
left by abandoned coal mines, resulting in increased safety for 
millions of Americans. Specifically, more than 285,000 acres of 
abandoned coal mine sites have been reclaimed through $3.5 billion in 
grants to States and tribes under the AML program. This means hazards 
associated with more than 27,000 open mine portals and shafts, 2.9 
million feet of dangerous highwalls, and 16,000 acres of dangerous 
piles and embankments have been eliminated and the land reclaimed. 
Despite these impressive accomplishments, $3 billion priority 1 and 2 
problems threaten public health and safety and remain unreclaimed. 
These hazardous sites require safeguarding by State and tribal AML 
programs.
    The 2006 Amendments to Title IV of the (SMCRA extended the Interior 
Department's authority to collect Abandoned Mine Land (AML) fees 
through September 30, 2021 and made the majority of the funding 
available to States and Tribes mandatory and without further 
appropriation by Congress. The 15-year extension coupled with increased 
funding will provide the States and tribes with the ability to carryout 
the remaining AML reclamation work. It is the intention of the States 
and tribes to continue to focus on the protection of the public health 
and safety to ensure restoration of abandoned mines.
    Beginning with fiscal year 2008, State Title IV grants are funded 
primarily by permanent appropriations. States will receive mandatory 
funding in fiscal year 2009 of $298.4 million for AML reclamation work. 
With the funding off-budget, this will finally allow the States and 
tribes to make staffing decisions and in turn begin planning for long 
range design and reclamation activities.
    However, several issues remain unresolved and these items from the 
OSM proposed budget are of a concern to the NAAMLP.

                        MINIMUM PROGRAM FUNDING
 
   OSM proposes an amount of $30.8 million for discretionary funding 
related to OSM operations under the Title IV program, which includes 
funding needed for minimum program States. Under the new funding 
formula, all of the States and tribes will receive funding increases 
except for minimum program States. Under the 2006 Amendments to SMCRA 
all States and tribes will receive increases in AML funding beginning 
in fiscal year 2008 (29 percent to 269 percent increases), while 
Minimum Program States will receive limited funding for fiscal year 
2008 and fiscal year 2009. The Minimum Program States are Alaska, 
Arkansas, Iowa, Kansas, Maryland, Missouri, and Oklahoma. For the last 
14 years, Minimum Program States have been critically under funded in 
respect to the number of Priority 1 and Priority 2 AML hazards that 
need to be reclaimed. For 3 years (fiscal year 1992, fiscal year 1993, 
and fiscal year 1994) the Minimum Program States received $2 million 
annually, the amount mandated by SMCRA. Since that time the Minimum 
Program States have been limited to an annual allocation of only $1.5 
million, except for a very small increase of $60,000 to $345,000, 
depending on the State. The 2006 amendments increased the Minimum 
Program distribution to $3 million annually, a move supported by the 
NAAMLP. OSM has interpreted the 2006 amendments in a manner that holds 
the Minimum Program distribution to the previous level of $1.5 million 
per year. We urge Congress to fund these States at the statutorily 
authorized level of $3 million in fiscal year 2009 and allow these 
States to get on with the critical AML projects awaiting funding.

                       EMERGENCY PROGRAM FUNDING

    Continuation of the OSM Emergency program fulfills the promise to 
ensure the highest response from Federal and State AML programs for 
protecting the public against the most serious and hazardous problems 
associated with abandoned mines. Many States and tribes continue to 
have AML emergencies that annually cost millions of dollars; between 
2003-2007, $92.4 million was spent on funding for emergency projects in 
19 States. OSM's 2009 budget would eliminate funding for State-run 
emergency programs and also for Federal emergency projects (in those 
States that do not administer their own emergency programs). The AML 
program is first and foremost designed to protect public health and 
safety. The majority of State and tribal AML projects specifically 
correct AML features that threaten someone's personal safety or 
welfare. While State and tribal AML programs do complete significant 
projects that benefit the environment, the primary focus has been on 
eliminating health and safety hazards. Acting as an unfunded Federal 
mandate, the elimination of Federal funding for the AML emergency 
program would require State and tribal AML programs to fund emergencies 
from non-emergency and waterline project grant funding. Because of the 
2006 Amendments, States will be receiving significant funding increases 
that would allow the States to address long overdue reclamation 
problems including landslides, contaminated drinking water, refuse 
piles, dangerous highwalls, mine fires, and exposed mine portals. 
Coupled with the prior loss of funding for the Appalachian Clean 
Streams Initiative, diverting these monies to the emergency program, as 
suggested by OSM's budget, would impede the progress the States are 
about to make in addressing AML problems that have been awaiting 
funding for years. This diversion of funding will have a significant 
and disproportionately harmful effect on minimum program States that 
are currently being funded at a lower level.
    Prior to the proposed Federal fiscal year 2009 budget, the Federal 
Office of Surface Mining has complied with section 410 and funded all 
AML emergency program reclamation since the inception of SMCRA. Section 
410 of SMCRA establishes emergency reclamation procedures for AML sites 
that pose a high risk of physical harm to the public health and safety 
and recognizes the difference between an AML problem and an AML 
Emergency. Also, the funding for the emergency program is separate from 
the State and tribal non-emergency AML grant funding since it comes 
from the Secretary's ``discretionary share''. Funding for emergencies 
is provided for in section 402(g)(3) of SMCRA. It is unclear whether 
non-emergency funds received by the States can be used to fund 
emergency projects due to funding stipulations found in section 402(g). 
Furthermore, the 2006 SMCRA Amendments (Public Law 109-432) did not 
include any language that would mandate or authorize the States and 
tribes to fund and/or take sole responsibility for the AML Emergency 
Program. And finally, the 2006 SMCRA Amendments (Public Law 109-432) 
mandate the continued collection of sufficient revenue by OSM to cover 
necessary expenditures under section 402(g)(3), including emergencies. 
So, at the same time OSM proposes to eliminate emergency funding it 
continues to collect sufficient revenue to fund the emergency program. 
If OSM is not going to distribute the collected revenue to the States 
to fund the emergency program, it should discontinue collecting the 
revenue.
    The NAAMLP urges Congress to once again include at least $21 
million for the AML Emergency Program in OSM's fiscal year 2009 budget 
and to direct the agency to continue this funding into the future in 
order to address the AML emergencies that require immediate action to 
abate the threat to the public health and safety. (Attached is a 
Resolution passed by the NAAMLP in support of this funding)

                        TECHNOLOGY AND TRAINING
 
   The NAAMLP continues to support funding for OSM's National 
Technical Training Program (NTTP) and the Technical Innovation 
Professional Services Program (TIPS). The NTTP has been very successful 
in pooling resources from OSM, States and tribes to provide the 
necessary technical expertise and training needed to enhance the skills 
of State and tribal abandoned mine reclamation program staffs. TIPS is 
another successful partnership between OSM, States and tribes that 
provides the needed upgrades to computer software and hardware along 
with training and expertise in the computer technology field. Both of 
these programs need continued funding. The States and tribes also need 
funding in order to travel to training and to technology transfer 
events.
    Thank you for the opportunity to present the NAAMLP perspective. 
Please contact me if the NAAMLP can provide more information in any 
way.

 A RESOLUTION CONCERNING RESTORATION OF FUNDING FOR THE AML EMERGENCY 
                                PROGRAM

    WHEREAS, The passage of the Surface Mining Control and Reclamation 
Act of 1977, Public Law 95-87 (Title IV--Section 410) provided the 
Secretary of the U.S. Department of the Interior the authorization to 
expend moneys from the Abandoned Mine Land (AML) Reclamation fund for 
AML emergencies; and
    WHEREAS, many States and tribes continue to have AML emergencies 
that annually cost millions of dollars; and
    WHEREAS, prior to the proposed Federal fiscal year 2009 budget, the 
Federal Office of Surface Mining has complied with section 410 and 
funded all AML emergency program reclamation since the inception of 
SMCRA; and
    WHEREAS, the President's proposed fiscal year 2009 budget 
eliminates all funding for the AML Emergency Program and anticipates 
the elimination of AML Emergency Program funding in the future; and
    WHEREAS, the elimination of Federal funding for the AML emergency 
program would necessitate that State and tribal AML programs divert 
funding from non-emergency reclamation and AML waterline projects to 
fund emergencies; and
    WHEREAS, the passage of the 2006 SMCRA Amendments (Public Law 109-
432) did not include any language that would mandate or authorize the 
States and tribes to fund and/or take sole responsibility for the AML 
Emergency Program; and
    WHEREAS, the 2006 SMCRA Amendments (Public Law 109-432) mandate the 
continued collection of sufficient revenue to cover necessary 
expenditures under section 402(g)(3), including emergencies;
    NOW THEREFORE BE IT RESOLVED, that the National Association of 
Abandoned Mine Land Programs urges Congress to restore at least $21 
million for the AML Emergency Program in OSM's fiscal year 2009 budget 
and to direct the agency to continue this funding into the future in 
order to address the AML emergencies that require immediate action to 
abate the threat to the public health and safety.
    Signed this 28th day of February, 2008
    LORETTA PINEDA, President
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies

    The National Association of Clean Air Agencies (NACAA) represents 
the State and local air quality agencies in 53 States and territories 
and over 165 metropolitan areas across the country. NACAA appreciates 
the opportunity to provide testimony on the fiscal year 2009 proposed 
budget for the United States Environmental Protection Agency (EPA), 
particularly Federal grants for State and local air pollution control 
agencies under sections 103 and 105 of the Clean Air Act, which are 
part of the State and Tribal Assistance Grant (STAG) program. NACAA 
recommends that grants within the STAG program for State and local air 
pollution control agencies under sections 103 and 105 of the Clean Air 
Act be increased in fiscal year 2009 by $84.7 million above the 
President's request, for a total of $270.3 million. This represents a 
restoration of the $31.2-million cut contained in the President's 
request, along with an increase of $53.5 million. Additionally, NACAA 
requests that grants for the fine particulate matter monitoring program 
not be shifted from section 103 authority to section 105 authority, as 
the administration's budget proposal recommends. The increase NACAA is 
recommending would not be an earmark because these expenditures are 
authorized under the Clean Air Act and the funds would be awarded to 
State and local air pollution control agencies in all 50 States.
    Thank you very much for restoring in fiscal year 2008 the grants 
for State and local air agencies that were targeted for a reduction in 
the President's request last year. The members of NACAA were extremely 
gratified by your commitment to clean air and public health and hope 
you will again restore the grants that would be cut under the 
President's request and provide an increase above last year's amount to 
support important air quality activities that are described below.

  RESTORATION OF STATE AND LOCAL AIR GRANTS IS ESSENTIAL TO CLEAN AIR 
                                EFFORTS

    For the third straight year, the administration's budget request 
calls for $185.6 million for grants to State and local air quality 
agencies, which is a significant reduction compared to the fiscal year 
2008 appropriated level--a cut of over 14 percent. These grants, 
provided under sections 103 and 105 of the Clean Air Act, are critical 
to State and local agency efforts to implement the many complex 
requirements of our Nation's clean air program. Reductions of this 
magnitude would have a devastating effect on our clean air efforts 
across the country.
    When EPA proposed similar cuts in each of the last 2 years, NACAA 
members analyzed the specific impacts the reductions would have on 
their programs and reported very disturbing results (see 
www.4cleanair.org/StateandLocalExamplesofImpactsofCuts.pdf and 
www.4cleanair.org/documents/FY2008budgetanalysisfinal022607.pdf). 
Because the proposed budget for fiscal year 2009 is the same, similar 
negative impacts would be expected. For example, most State and local 
air agencies reported that the reductions would force them to lay off 
valuable staff or leave current vacancies unfilled. Many agencies would 
shut down existing monitors or otherwise curtail monitoring programs. 
Many inspection and enforcement activities would be impaired. Permits 
for minor sources would take longer to process and customer service 
would diminish. Some smaller local agencies might even be forced to 
cease operations entirely--a loss with significant negative 
consequences for those areas. Finally, the proposed cuts would deprive 
the Regional Planning Organizations of necessary tools and resources to 
help State and local agencies carry out technical activities related to 
regional haze that they have done so successfully for years.
    The impact of the proposed decreases would be exacerbated by the 
proposal to shift grants for the fine particulate matter 
(PM<INF>2.5</INF>) monitoring program from section 103 authority (which 
does not require a 40-percent match from State and local recipients) to 
section 105 authority and reduce them by the amount of the 40-percent 
match. Because of the inability of some State and local air agencies to 
provide matching funds specifically dedicated to PM<INF>2.5</INF> 
monitoring, there would be significant cuts to this important program, 
and some agencies could be forced to turn away much-needed grant funds 
and cease monitoring efforts for this pollutant. PM<INF>2.5</INF> is 
very damaging to public health, even leading to thousands of premature 
deaths. The air quality monitoring program is the foundation of State 
and local air agencies' efforts to understand the nature of the 
PM<INF>2.5</INF> problem and address it. Dedicated funding under 
section 103 has enabled States and localities to build a strong 
PM<INF>2.5</INF> monitoring program. NACAA urges you to retain the 
PM<INF>2.5</INF> monitoring program under section 103 authority.

     ADDITIONAL FUNDS ABOVE FISCAL YEAR 2008 LEVELS ARE NEEDED FOR 
                     CONTINUING AND NEW ACTIVITIES

    In addition to restoring the proposed cuts, NACAA recommends that 
Federal funding for State and local air programs be increased. While 
the need for additional funding for air programs is great, we recognize 
that there are many competing claims on Federal resources and that full 
funding is not possible in the current economic climate. Therefore, 
NACAA is requesting only a portion of the optimal amount. However, the 
following information is provided as context, to illustrate that the 
amount NACAA is requesting is truly a fraction of what is needed.
    Section 105 of the Clean Air Act authorizes the Federal Government 
to provide grants for up to 60 percent of the cost of State and local 
air quality programs, while States and localities must provide a 40-
percent match. In reality, the Federal Government provides only about 
25 percent of the total (not including Title V permit fees, which State 
and local agencies collect from major sources and can use to fund only 
permit-related activities). The total amount needed to fund State and 
local efforts to implement the Clean Air Act is estimated at over $1 
billion each year. If the Federal Government were to provide 60 percent 
of that amount, as the Clean Air Act envisions, Federal grants would 
equal approximately $600 million annually. However, Federal grants have 
been only about one-third of this total in recent years. To make 
matters worse, over the past 15 or 20 years, Federal grants for State 
and local air pollution control agencies to operate their programs have 
decreased by approximately one-third in terms of purchasing power.
    While significant grant increases are needed to carry out State and 
local agencies' existing obligations, they are facing several important 
new responsibilities that will even further strain their budgets. For 
example, State and local agencies are in the midst of developing State 
Implementation Plans for haze, PM<INF>2.5</INF> and ozone, requiring 
new activities for each program, all of which are time-consuming, labor 
intensive and costly. These include, among others, emission inventory 
development, emissions and air quality modeling to determine what 
reductions are needed, development of strategies to decrease emissions, 
adoption of regulations, stakeholder outreach, and coordination with 
EPA to ensure the plans are acceptable.
    Additionally, EPA has just tightened both the PM<INF>2.5</INF> and 
ozone standards. The new standards will require States and localities 
to greatly expand their ambient monitoring networks, necessitating 
additional equipment and staff. With regard to ozone, over 250 
additional counties are expected to violate the just-promulgated 
primary health standard. Additional monitors will be needed in these 
areas, as well as in numerous counties across the country where there 
is currently no data being collected. Further, as a result of the lower 
standard, a month has been added to the ozone season in many areas, 
meaning that more staff and resources will be needed to sample during 
the longer season. It is estimated that an additional $15-20 million 
will be needed for these ozone monitoring activities. The existing 
PM<INF>2.5</INF> network is also inadequate, especially in light of the 
recently tightened daily standard. An estimated $10-15 million in 
additional funds are needed to ensure that the PM<INF>2.5</INF> 
monitoring network is sufficient.
    Another example of additional workload is the implementation of 
standards for smaller--or ``area''--sources of hazardous air pollutants 
(HAPs), many of which have not been regulated before. Pursuant to a 
court order, EPA is issuing 50 standards to reduce HAP emissions from 
area sources that, in the aggregate, are responsible for significant 
emissions. For State and local agencies that will implement the 
standards, locating facilities, providing compliance assistance and 
outreach, permitting and enforcing requirements will be labor 
intensive. Because most of these sources are too small for the Title V 
permit program, they will not pay permit fees. Thus, State and local 
agencies will need additional grant funds to take delegation of this 
new program.

                    WHY IS AIR POLLUTION A CONCERN?

    With all the competing requests facing Congress, it is appropriate 
to ask why air pollution activities should receive additional funding. 
The answer is that dirty air poses a significant risk; tens of 
thousands of people die prematurely every year and many more suffer 
ill-health as a result of air pollution. In fact, it would be fair to 
say that more people die from exposure to air pollution than from 
almost any other problem that this subcommittee addresses.
    While great progress has been made under the Clean Air Act, 
millions of people in this country continue to breathe unhealthful air. 
Over 150 million people live in areas that violate at least one of the 
six health-based National Ambient Air Quality Standards (NAAQS). 
Exposure to these pollutants causes a host of problems including 
aggravation of existing respiratory and cardiovascular disease, damage 
to lung tissue, impaired breathing, irregular heart beat, heart 
attacks, lung cancer and death. The pollutants covered by the NAAQS are 
not the only problems this country faces. EPA's own data on toxic air 
pollution estimate that more than 270 million people in this country 
live in census tracts where the combined upper-bound lifetime cancer 
risk exceeds 10 in 1 million (1 in 1 million is generally considered 
``acceptable''). Further, over 92 percent of the population lives in 
areas with ``hazard index'' values for respiratory toxicity above 1.0--
the level above which adverse effects to the respiratory system occur.

              DIESEL RETROFIT FUNDING SHOULD BE INCREASED

    NACAA is a member of a broad coalition of over 200 groups, 
representing public-interest, environmental, business and governmental 
organizations, among others. The coalition recognizes the importance of 
adequate funding for State and local air quality agencies and 
recommends that Federal grants to them be increased. The coalition also 
recommends that Congress provide $70 million in fiscal year 2009 for 
programs authorized by the Diesel Emissions Reduction Act (DERA). The 
DERA programs are intended to decrease the amount of harmful 
microscopic particles in the ambient air resulting from diesel exhaust. 
NACAA urges Congress to provide this funding to these important 
efforts. Additionally, because the funds provided for the DERA 
activities will support more than just State and local air agencies, 
NACAA recommends the program be funded through an EPA account other 
than STAG.

       EPA SHOULD OBTAIN STATE AND LOCAL CONCURRENCE FOR EARMARKS

    NACAA believes Congress' intention in providing grant funds is to 
support the activities of State and local air agencies. Accordingly, 
EPA should not dictate precisely how these funds must be spent without 
considering the recommendations of State and local air agencies and the 
fact that each area may have different air quality priorities. When EPA 
earmarks new or existing grant funds for very specific projects or 
initiatives without first consulting with State and local agencies, the 
result can be an allocation of resources that is inefficient and 
ineffective. It would be helpful if this subcommittee reminded EPA of 
the need to discuss with and obtain prior concurrence from State and 
local air agencies on any earmarks for specific activities or programs.

                               CONCLUSION

    The President's budget request calls for a significant decrease in 
grants to State and local air agencies at a time when these entities 
are required to take on significant new responsibilities. This would 
make it difficult, if not impossible, for many State and local clean 
air agencies to carry out the tasks that are essential to their 
mission, which is protecting public health by achieving and maintaining 
improvements in air quality. Not only would budget decreases at this 
time be intolerable, but air agencies require additional resources to 
meet their responsibilities.
    NACAA recommends that the fiscal year 2009 budget for Federal 
grants to State and local air quality agencies under sections 103 and 
105 of the Clean Air Act be increased above the President's request by 
$84.7 million (from $185.6 million to $270.3 million). This represents 
a restoration of the $31.2 million cut contained in the President's 
request, along with a modest increase of $53.5 million. Additionally, 
grants for the PM<INF>2.5</INF> monitoring program should not be 
shifted from section 103 authority to section 105 authority.
    Thank you for this opportunity to provide testimony on this 
important issue and for your careful consideration of the impacts that 
deficient funding will have on air quality and public health.
                                 ______
                                 
   Prepared Statement of the National Association of Forest Service 
                            Retirees (NAFSR)

    The following recommendations relate to all programs of the U.S. 
Forest Service. In developing these recommendations, we used the fiscal 
year 2008 Omnibus appropriation, as enacted, as the starting point. We 
find the administration's fiscal year 2009 budget proposals for the 
Forest Service to be irresponsible. We believe the base funding for all 
programs should be the fiscal year 2008 appropriation level adjusted 
for pay act and other uncontrollable costs (an increase of $77 million 
across all program areas). We recommend the following increases to the 
base funding level:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Wildland Fire Management: Fully fund implementation of the   ...........
 National Fire Plan........................................
National Forest System:
    Land Management Planning...............................           10
    Inventory and Monitoring...............................           10
    Recreation, Wilderness, and Heritage Management........           20
    Wildlife and Fisheries Management......................           10
    Forest Products........................................           10
    Vegetation and Watershed Management....................           15
    Land Ownership Management..............................  ...........
Research:
    Resource Management and Use............................           10
    Water, Air, Soil.......................................           10
State and Private Forestry:
    Forest Stewardship.....................................           10
    Forest Health--Federal Lands...........................           10
    Forest Health--Coop Lands..............................            5
Capital Improvements and Maintenance.......................           25
------------------------------------------------------------------------

                        WILDLAND FIRE MANAGEMENT

Fire Operations--Suppression
    The most critical issue that needs to be addressed in the Forest 
Service budget is the funding of fire suppression. The current 
procedure of including the 10-year average cost of fire suppression 
within the agency's discretionary budget is destroying the capability 
of the Forest Service to carryout the remainder of its statutory 
missions. From 25 percent in fiscal year 2000, fire funding is now 
approaching 50 percent of the budget. The suppression cost trend means 
the 10-year average is going to continue to grow, further cannibalizing 
funding for other programs. While the overall Forest Service budget has 
increased 9 percent over the last 6 years, the diversion of funds to 
fire suppression has had a major impact on the workforce available to 
carry out the multiple-use mission of the agency. The number of 
foresters, biologists, and other resource specialists, along with 
supporting technicians, is a good measure of the capability of a 
resource management agency to carry out its mission. As illustrated in 
the following table, the capability of the Forest Service has been 
seriously compromised.

                                        FOREST SERVICE STAFF LEVEL (FTE)
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal year
                                                                 --------------------------------     Percent
                                                                       2002            2008          reduction
----------------------------------------------------------------------------------------------------------------
Research........................................................           2,494           2,283              -9
State and Private Forestry......................................             909             739             -19
National Forest System..........................................          17,094          11,156             -35
----------------------------------------------------------------------------------------------------------------

THE NATIONAL ASSOCIATION OF FOREST SERVICE RETIREES (NAFSR) RECOMMENDS 
THAT FIRE SUPPRESSION COSTS BE SEGREGATED FROM THE OTHER DISCRETIONARY 
 PROGRAMS OF THE FOREST SERVICE. NAFSR RECOMMENDS FULL FUNDING OF THE 
                           NATIONAL FIRE PLAN

National Forest System
            Land Management Planning
    The National Forest Management Act requires that all activities on 
the National Forests be conducted in accordance with approved Land 
Management Plans. It requires revision of these plans at 10 to 15 year 
intervals in order to reflect changing conditions, new knowledge, and 
changing public needs and desires. Revisions of 60 percent of the Plans 
are overdue. Revisions must be completed to comply with the law, avoid 
legal challenges, and to keep National Forest management relevant to 
the needs of the people.

    NAFSR RECOMMENDS AN INCREASE OF $10 MILLION FOR LAND MANAGEMENT 
                                PLANNING

Inventory and Monitoring
    Regular monitoring of forest resource conditions and the results of 
management activities is fundamental to sound forest management. It is 
particularly important during this period of climate change. Further 
implementation of ecosystem management and use of adaptive management, 
key to obtaining public acceptance of vegetation management projects, 
cannot be accomplished without assurance of appropriate inventory and 
monitoring of resources and project outcomes. The number of resource 
specialists and technicians available for inventory and monitoring 
declined by 44 percent between fiscal year 2002 and fiscal year 2008.

     NAFSR RECOMMENDS AN INCREASE OF $10 MILLION FOR INVENTORY AND 
                               MONITORING

Recreation, Wilderness, and Heritage Management
    The National Forests include some of the most scenic, historic, and 
culturally important recreation areas of our country. Some 192 million 
visitors enjoy camping, hiking, fishing, hunting, skiing, visits to 
cultural sites and visitor centers, and other activities each year. But 
the quality of facilities is declining and access to recreation 
opportunities is being lost. Personnel available to administer and care 
for recreation facilities and resources dropped by 28 percent between 
2002 and 2008. The capacity of recreation sites managed to standard 
declined from 93,600,000 PAOT in fiscal year 2002 to 70,230,000 in 
fiscal year 2008. Priority Heritage Sites managed to standard declined 
from 8,112 to 2,294, and the miles of trail maintained to standard has 
declined 30 percent in this period.

NAFSR RECOMMENDS AN INCREASE OF $20 MILLION FOR RECREATION, WILDERNESS, 
                        AND HERITAGE MANAGEMENT

Wildlife and Fisheries Habitat Management
    The National Forest System includes some of the most important 
wildlife and fish habitat in the nation. There are thousands of miles 
of streams, millions of acres of big game habitat, and thousands of 
species of plants and animals. Proper stewardship of these resources 
requires on the ground management by biologists and technicians. But 
while the pressure on these important resources continues to grow, the 
personnel available to care for the habitat has declined. From 2002 to 
2008 the wildlife and fisheries staff was reduced by 39 percent.

NAFSR RECOMMENDS AN INCREASE OF $10 MILLION FOR WILDLIFE AND FISHERIES 
                               MANAGEMENT

Forest Products
    There is wide spread recognition of the need to thin our 
overstocked forests to reduce their vulnerability to fire, insects, and 
disease. Funding for hazardous fuel reduction is important and must be 
continued, but it is only scratching the surface. Annual growth on the 
currently roaded portion of the timberlands on the National Forests is 
about 4 billion cubic feet. Not all of the material that needs to be 
removed has economic value, but portions are suitable for conventional 
wood products. Much more is suitable for energy production, including 
ethanol. Capturing these economic values is essential for making real 
progress in improving the conditions of our forests. It can also 
contribute to meeting our energy needs.

 NAFSR RECOMMENDS THE FOREST SERVICE ASSESS THE OPPORTUNITY TO MARKET 
MATERIAL THAT NEEDS TO BE REMOVED FROM THE FOREST FOR CONVENTIONAL WOOD 
 PRODUCTS, ENERGY, AND OTHER USES. NAFSR RECOMMENDS AN INCREASE OF $10 
 MILLION FOR CONVENTIOAL SALES OR STEWARDSHIP CONTRACTING FOR MATERIAL 
   THAT NEEDS TO BE REMOVED FROM THE FOREST TO PROMOTE FOREST HEALTH

Vegetation and Watershed Management
    One of the primary purposes for which the National Forests were 
established is to provide favorable conditions of water flow. Our 
forested watersheds provide much of the water that meets the needs of 
our growing population, particularly in the West. Resource management 
specialists and supporting technicians available to protect and enhance 
our watersheds have declined by 44 percent in the last 6 years. This 
decline must be reversed.
    With the serious fire seasons of recent years, the backlog of 
reforestation needs is growing, but the reforestation program is 
shrinking. The Forest Service estimates the backlog of needed 
reforestation at more than one million acres, but reporting is not up 
to date. The capacity to monitor reforestation needs, maintain adequate 
nursery capacity, and operate a program to eliminate the backlog in a 
reasonable time must be redeveloped and maintained.

NAFSR RECOMMENDS THAT THE CONGRESS REQUIRE THE FOREST SERVICE TO REPORT 
    REGULARLY ON ITS CAPACITY TO MONITOR REFORESTATION NEEDS AND TO 
  PROMPTLY REFOREST AREAS FOLOWING DEFORESTATION. NAFSR RECOMMENDS AN 
    INCREASE OF $15 MILLION FOR VEGETATION AND WATERSHED MANAGEMENT

Land Ownership Management
    The National Forest System is a vast estate. Millions of acres of 
land share thousands of miles of property boundaries with other 
agencies, small, and large property owners. Proper stewardship of this 
Federal estate requires maintenance of property lines, monitoring for 
trespass, and administering thousands of special use permits. The 
National Forests should be good neighbors to adjacent landowners and 
communities. With a 19 percent reduction in staffing for this activity 
in the last 6 years, it is instead becoming an unresponsive, absentee 
landlord.

    NAFSR RECOMMENDS AN INCREASE OF $10 MILLION FOR LAND OWNERSHIP 
                               MANAGEMENT

Research
    Quality management of our forest resources requires up to date 
scientific knowledge. Forest research in this country has declined 
substantially as major forest product companies have divested ownership 
of their timberlands and terminated their research efforts. Funding for 
research at universities has declined. With retrenchment elsewhere, the 
9 percent reduction in research scientists and support personnel in the 
Forest Service research organization has been particularly untimely. We 
urgently need more information on the response of forest resources to 
changing climate and the refinement of management practices to respond 
to these changes. We urgently need to develop forest products that use 
the immense volume of small material that needs to be removed from our 
forests to reduce their vulnerability to fire, insects, and disease. 
Economically viable uses for this material for energy, such a 
cellulosic ethanol, would permit treatment of the thousands of acres 
that need thinning and at the same time help meet the energy needs of 
our country.

NAFSR RECOMMENDS AN INCREASE OF $20 MILLION FOR RESEARCH WITH EMPHASIS 
 ON RESPONSE TO CLIMATE CHANGE AND DEVELOPING ECONOMIC USES FOR SMALL 
                           DIAMETER MATERIAL

State and Private Forestry
    Two-thirds of our Nation's forests are in small non-industrial 
ownerships. This land is vital to meeting our Nation's needs for wood 
products and for providing other forest values. The importance of 
proper management of these forest lands is growing as the forest 
industry continues to divest its timberlands. The continued 
fragmentation of ownership of these lands presents serious challenges 
to assuring proper stewardship and sustainable management. The State 
and Private Forestry program, in cooperation with State Foresters, has 
a proven record in helping to promote sustainable forest practices on 
these lands. Continuing drought conditions have increased fire, insect, 
and disease problems on private lands, just as they have for Federal 
lands. Continued attention is needed so that private owners can be 
encouraged to make long-term investments in the management of these 
lands.

 NAFSR RECOMMENDS AN INCREASE OF $10 MILLION FOR THE STATE AND PRIVATE 
FORESTRY PROGRAM FOR FOREST STEWARDSHIP. NAFSR RECOMMENDS FULL FUNDING 
FOR THE NATIONAL FIRE PLAN. NAFSR RECOMMENDS AN INCREASE OF $10 MILLION 
  FOR FOREST HEALTH ON FEDERAL LANDS AND $5 MILLION FOR FOREST HEALTH 
                        MANAGEMENT ON COOP LANDS

Capital Improvements and Maintenance
    Over the years the Congress has made substantial investments in 
developing the infrastructure necessary for the protection and use of 
the National Forests and Grasslands. Unfortunately, funds have not been 
provided to maintain these facilities adequately. The public is losing 
access and use through deterioration of roads, trails, campgrounds, and 
visitor centers. One-third of the recreation facilities are in poor 
condition. Inadequately maintained roads and other facilities result in 
damage to watersheds and fisheries habitat. Inadequate access increases 
the cost of management activities.

 NAFSR RECOMMENDS AN INCREASE OF $25 MILLION FOR CAPITAL IMPROVEMENTS 
                            AND MAINTENANCE

Miscellaneous
            NAFSR Recommends that Restrictions on Contracting out be 
                    Retained
    The National Association of Forest Service Retirees believes that 
the National Forests and Grasslands should be managed so they are an 
asset to the communities within and adjacent to these lands. In too 
many instances, rather than being an asset, the overstocked, insect-
infested, poorly maintained, understaffed Forests are becoming a 
liability. We believe the funding increases recommended above will 
begin the process of restoring the capability of the Forest Service to 
provide proper stewardship for these national treasures.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Madam Chair and members of the subcommittee, I am Dub Taylor of 
Texas, and Chair of the National Association of State Energy Officials 
(NASEO). NASEO represents the energy offices in the States, territories 
and the District of Columbia. NASEO is submitting this testimony in 
support of funding for the Energy Star program (within the Climate 
Protection Division of the Office of Air and Radiation) at the U.S. 
Environmental Protection Agency (EPA). NASEO supports funding of at 
least $103 million, including specific report language directing that 
the funds be utilized only for the Energy Star program. We were 
extremely disappointed with the $44.2 million fiscal year 2009 request 
and the $48.2 million funding level established in fiscal year 2008. At 
the present time, Congress is seriously considering climate 
legislation. The Energy Star programs are successful and cost-
effective. They should be expanded, not reduced. With oil prices at 
$117/barrel, gasoline prices nearing $4/gallon, and large spikes in 
natural gas, heating oil and propane, Energy Star can help consumers 
quickly.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and over 40 States are Energy Star Partners. In 2005, EPA and NASEO 
announced a new Clean Energy and Environment State Partnership program, 
which already has almost 20 State members, including California. We are 
working closely with EPA on the new National Action Plan for Energy 
Efficiency, the Energy Star Challenge, Home Performance with Energy 
Star, etc. We worked with EPA to have over half the States declare 
``Change a Light'' Day. With very limited funding, EPA's Energy Star 
program works closely with the State energy offices to give consumers 
and businesses the opportunity to make better energy decisions, without 
regulation or mandates.
    Energy Star focuses on energy efficient products as well as 
buildings. In 2006, 300 million Energy Star products were purchased. 
The Energy Star label is recognized across the United States. It makes 
the work of the State energy offices much easier, by working with the 
public on easily recognized products, services and targets. In order to 
obtain the Energy Star label a product has to meet established 
guidelines. Energy Star's voluntary partnership programs include Energy 
Star Buildings, Energy Star Homes, Energy Star Small Business and 
Energy Star Labeled Products. The program operates by encouraging 
consumers, working closely with State and local governments, to 
purchase these products and services. Marketplace barriers are also 
eradicated through education.
    In addition to the State partners, the program has more than 9,000 
company partners. More than 750,000 families now live in Energy Star 
homes, saving $170 million annually. The ``Home Performance with Energy 
Star'' activity allows us to focus on whole-house improvements, not 
simply a single product or service. This will be extremely beneficial 
to homeowners. Pilots have already been undertaken in New York, 
Illinois, Maryland, Texas and Wisconsin. A Mid-Atlantic regional effort 
has just started. We are also working closely with EPA in the 
implementation of the Energy Star Challenge, which is encouraging 
businesses and institutions to reduce energy use by 10 percent or more, 
usually through very simple actions. We are working with the building 
owners to identify the level of energy use and compare that to a 
national metric, establish goals and work with them to make the 
specified improvements. Again, this is being done without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. This expansion will continue. EPA has been expanding the 
technical assistance work with the State energy offices in such areas 
as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.

                             STATE EXAMPLES

    Considering Alaska's extreme climate, Energy Star has been a very 
helpful tool in promoting energy efficiency. Approximately 11,400 
Alaska homes have earned Energy Star. In Alaska the penetration rate of 
Energy Star homes for single-family site-built housing is 20 percent, 
well above the 12 percent national average. 12 million square feet of 
buildings have also been rated utilizing the EPA performance rating 
system and the Alaska Housing Finance Corporation has utilized its 
rating software to qualify more than 10,000 Energy Star homes.
    In California, residents and businesses are projected to save over 
$14 billion through the Energy Star investments that have already been 
made. Approximately 110,000 California homes have earned the Energy 
Star. California also has a tax credit for the construction of a new, 
or purchase of an existing, Energy Star Home. The State Green Building 
Action Plan requires State agencies to only lease Energy Star space and 
purchase Energy Star equipment. The State also has an Energy Star 
Residential Fixture promotion program.
    In Colorado, Energy Star investments in qualified products, homes 
and buildings are projected to save over $2 billion over the life of 
these efforts. 9,000 homes in the State have earned the Energy Star and 
another 900 buildings (over 130 million square feet) have been rated 
utilizing the performance rating system. Eighty-six Colorado companies 
are now building Energy Star rated homes. Aggressive Energy Star 
efforts are occurring in Stapleton, Jefferson County Public Schools, 
Poudre School District, Colorado Springs School District and Falcon 
School District. With the passage of new State legislation and actions 
by the Governor, aggressive new Energy Star promotion activities have 
had a significant impact.
    Maryland has just passed a group of major energy bills promoted by 
the Governor. The Maryland Energy Administration is tasked with leading 
the charge to promote energy efficiency and reduce energy consumption 
quickly. 140 companies and public entities are participating in Energy 
Star in the State. 130 million square feet of buildings in Maryland 
have been rated for energy efficiency. Tax incentives are also 
available to consumers for the purchase of Energy Star qualified 
products.
    Thirty companies and public entities in Mississippi are 
participating actively in Energy Star product promotions. 11 million 
square feet of buildings have been rated for energy efficiency. The 
State is also working with other southeastern States to promote energy 
efficiency in commercial buildings through the Southeast Rebuild 
Collaborative. The State Energy Office (Mississippi Development 
Authority) has been providing training to schools and government 
agencies in Energy Star tools.$600 million will be saved in the Energy 
Star investments that have already been made in Nebraska. 21 million 
square feet of buildings in the State have been rated using energy 
performance rating system tools. The Nebraska Energy Office has also 
been promoting the program and sponsored an energy-efficient prototype 
home in Lincoln that is demonstrating affordable yet energy-efficient 
housing techniques. The Energy Office provides loans to finance 
residential energy efficient improvements. 22 companies are now 
building Energy Star homes in the State.
    Seventy-eight companies and public entities in New Hampshire have 
been actively promoting Energy Star. 2,000 homes so far have earned the 
Energy Star and 14 million square feet of buildings have been rated. 
The Governor announced (Executive Order 2005-4) a specific State 
commitment to encourage the purchase of Energy Star products and 
participation in the Energy Star challenge. Forty-three New Hampshire 
companies are building Energy Star homes and the first three residence 
halls in the country to earn the Energy Star are located on the 
University of New Hampshire campus in Durham.
    In New Mexico, businesses and residents will save more than $500 
million through Energy Star investments that have already been made. 
This will reduce emissions by 1 million metric tons. Thirty-nine 
companies participate in Energy Star and over 3,300 homes are Energy 
Star compliant. New Mexico has 63 buildings with over 9 million square 
feet that have been rated for energy efficiency, with 6 buildings 
earning the Energy Star for superior efficiency. Public Service Company 
of New Mexico offers cash rebates for water heater wraps and Energy 
Star programmable thermostats.
    Rhode Island businesses and residents will save more than $390 
million through Energy Star investments they have already made. 
Approximately 2,000 homes have been rated utilizing Energy Star tools. 
The State has held a sales tax holiday for Energy Star labeled 
products. The State, in cooperation with National Grid, has been 
promoting Home Performance with Energy Star.
    Five million square feet of building space in South Dakota has been 
rated for energy efficiency utilizing EPA's performance rating system. 
The State has been aggressively promoting a variety of Energy Star 
efforts, including Energy Star Change a Light Day. Two of the entities 
that have taken advantage of energy savings through Energy Star, 
include Yankton Public Schools and Watertown Middle School.
    In Tennessee, 120 companies and public entities, including 
significant numbers of small businesses, have been participating in 
Energy Star. Businesses and residents are projected to save $2 billion 
through Energy Star investments that have already been made. The State 
Energy Office has taken the lead in promoting the Energy Star Challenge 
and the Change a Light campaign, urging consumers to shift to CFLs. 
Participants in the program range from Nashville Habitat for Humanity 
to Clayton Homes, Inc.
    Utah residents and businesses will save $700 million through 
investments they have already made in Energy Star products, homes and 
buildings. 120 companies are actively participating in the Energy Star 
program. 7,500 Utah homes have earned the Energy Star and over 17 
million square feet has been rated for energy efficiency in the State. 
Energy Star success stories have included Ence Homes, Rocky Mountain 
Power, the Cottonwood Corporate Center, etc.
    Vermont has aggressively promoted energy efficiency for many years 
and 58 public entities and companies have been involved in the program. 
4,600 homes in the State have earned Energy Star, which is a high 
percentage. In addition, 120 buildings covering 8 million square feet 
have been rated for energy efficiency utilizing EPA's energy 
performance rating system. As a result of an Executive Order (14-03), 
State agencies are only permitted to purchase Energy Star products.
    Residents and businesses in West Virginia will save over $400 
million as a result of Energy Star investments that they have already 
made. Over 13 million square feet of building space has been rated 
utilizing EPA's energy performance rating system. The State Energy 
Office (West Virginia Development Office) has been helping county 
school systems throughout the State by providing both Energy Star 
benchmarking tools and other financial mechanisms to help implement 
improvements. Giant Eagle and Food Lion have been Energy Star leaders 
in the State.
    Wisconsin has 490 companies and public entities that have been 
promoting Energy Star. 8,000 homes have earned Energy Star and 180 
million square feet of building space, across 1,500 buildings, have 
been rated for energy efficiency. Energy Star is now part of the 
State's procurement guidelines. A 2005 study found that Wisconsin 
Energy Star new homes utilize 23 percent less energy per square foot 
for heating than older Wisconsin homes, even though the new homes are 
generally 22 percent larger.
    We can provide a myriad of other State examples at your request.

                               CONCLUSION

    Significant increases in funding for the Energy Star programs are 
justified. NASEO endorses these activities and the State energy offices 
are working very closely with EPA to cooperatively implement a variety 
of critical national programs.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
  and Land-Grant Colleges (NASULGC), Board on Natural Resources (BNR)

    On behalf of the NASULGC Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the United 
States Geological Survey (USGS) and the Environmental Protection Agency 
(EPA). We appreciate the opportunity to provide detailed 
recommendations for: $1.3 billion for the USGS and $781 million for the 
EPA Science and Technology budget. Within USGS, we ask for support of 
$8.8 million for the Water Resources Research Institutes, $32.1 million 
for the National Cooperative Geologic Mapping Program, and $61 million 
for the Mineral Resources Program, including $5 million for a Mineral 
Resources External Grants program. Within EPA, we ask for support of 
$100 million for the EPA Science to Achieve Results competitive grants 
and $10 million for the STAR Graduate Fellowships.
    NASULGC Recommends $1.3 Billion for the United States Geological 
Survey.--The fiscal year 2008 enacted level was $1.01 billion while the 
President's fiscal year 2009 request is $969 million. This increase is 
necessary to cover inflation and rising fixed costs such as salaries 
and rent and to accomplish core tasks that have been under-funded for 
years.
    NASULGC supports this amount in coordination with the USGS 
Coalition, an alliance of organizations united by a commitment to the 
continued vitality of the unique combination of biological, 
geographical, geological, and hydrological programs of the USGS.
    In the wake of Hurricane Katrina, the USGS was praised for quickly 
arriving on the scene and providing reliable data that assisted 
recovery teams. As members of academic community that have partnered 
with the USGS for the past several decades, we were very pleased with 
their performance during this catastrophe.
    We have worked with the USGS to provide the public and private 
sector, as well as policymakers, with crucial information about natural 
resources, natural hazards and wildlife diversity. Furthermore, the 
USGS provides geospatial data, from maps to satellite images, for 
improved land and wildlife management. The USGS plays a key role in 
assessment of global climate change. Our universities provide necessary 
expertise to complement the USGS workforce. We further recommend that 
part of the $1.3 billion request be used to support the following 
requests:
    The NASULGC BNR Requests $8.8 Million for the Water Resources 
Research Institutes (WRRI).--The fiscal year 2008 enacted level is 
$6.404 million and the President's fiscal year 2009 request is $0. The 
NASULGC BNR request is based on the following: $7,000,000 in base 
grants for the WRRI as authorized by section 104(b) of the Water 
Resources Research Act, including state-based competitive grants; and 
$1,500,000 to support activities authorized by section 104(g) of the 
act, and a national competitive grants program.
    The administration's proposal to eliminate funding for this 
excellent partnership with State governments and universities is 
unjustified. Federal funding for the WRRI program is the catalyst that 
moves States and cities to invest in university-based research to 
address their own water management issues. State WRRI take the 
relatively modest amount of Federal funding appropriated, match it 2:1 
with State, local, and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $15 in other funds for every $1 funded through 
this program.
    The added benefit is that often research to address State and local 
problems helps solve problems that are of regional and national 
importance. Many of the projects funded through this program provide 
the knowledge for State or local managers to implement new Federal laws 
and regulations. Perhaps most important, the Federal funding provides 
the driving force of collaboration in water research and education 
among local, State, Federal, and university water professionals.
    This program is essential to solving State, regional, and inter-
jurisdictional water resources problems. Institutes in Louisiana, 
California, and North Carolina, for example, made major contributions 
in emergency planning and hurricane recovery, protecting groundwater 
aquifers from sea water intrusion and reducing water treatment costs. 
The institutes also train the next generation of water resource 
managers and scientists.
    The NASULGC Board on Natural Resources also supports funding at a 
level of $32.1 million for the National Cooperative Geologic Mapping 
Program (NCGMP) within the USGS budget.--The fiscal year 2008 enacted 
level is $26.6 million while the President's fiscal year 2009 request 
is $27.4 million. The mission of the NCGMP is to provide accurate 
geologic maps that help sustain and improve the quality of life and 
economic vitality of the United States and mitigate geologic hazardous 
events and conditions. Universities are involved in this program in two 
ways. First, universities participate through the production of new 
geologic maps to meet needs in stewardship of water, energy, and 
mineral resources; risk reduction from natural hazards such as 
earthquakes and landslides; and environmental protection. Second, 
through EDMAP, universities train the next generation of geologic 
mappers through a competitive matching-fund grant program. Since 
EDMAP's inception in 1996, more than $5 million from the NCGMP have 
supported geologic mapping efforts of more than 600 students working 
with more than 220 professors at 136 universities in 44 States plus 
Puerto Rico and the District of Columbia. A 2007 survey by NCGMP 
demonstrated that students who participated in EDMAP (1) fall well 
above the national average for pursuing advanced academic degrees in 
the geoscience field, (2) easily obtain geoscience positions due to the 
knowledge gained through EDMAP, and (3) frequently use the skills 
gained through EDMAP.
    The NASULGC Board on Natural Resources supports $61 million for the 
Mineral Resources Program (MRP).--The fiscal year 2008 enacted level is 
$50.8 million, while the administration's fiscal year 2009 request is 
$26.3 million. The 2008 National Research Council's (NRC) report 
``Minerals, Critical Minerals, and the U.S. Economy'' clearly lays out 
the danger of continuing cuts to the services this program provides to 
our nation's economy. Items such as LCDs, catalytic converters, 
rechargeable batteries, and other electronics all use minerals 
designated as ``critical'' based on the risk that they may become 
unavailable for any number of reasons. The role of minerals information 
is becoming ever more vital as the Nation works to remain competitive 
and searches for emerging technologies to solve some of our most 
pressing environmental issues.
    The administration's fiscal year 2009 request cuts by 63 percent 
(210 FTE) the number of professionals in the MRP. This is on top of 
substantial cuts to this program since 1996. At the same time, the NRC 
report cited above calls for the ``need to maintain adequate, accurate 
and timely information and analysis on minerals at a national level in 
the Federal Government with additional, not fewer, professionals having 
appropriate backgrounds to perform the work.'' For example, as society 
pushes toward sustainability, the importance of experts designing 
products with an eye toward recycling minerals will only increase. 
Currently, only a few formal training programs have emerged to train a 
new generation in the field. For this reason, we request support for 
Mineral Resources External Grants programs of at least $5 million. The 
USGS committed $1,000,000 toward Mineral Resources External Research 
for fiscal year 2006, but cut the program to $0 in fiscal year 2007 and 
committed only $250,000 in fiscal year 2008. The administration again 
proposes to cut the program to $0 for fiscal year 2009. Sustained and 
additional funds are needed to expand upon the first step in fiscal 
year 2006. Apart from this small program, there is virtually no funding 
to sustain applied science research and education related to mineral 
resources.
    Furthermore, the establishment of a consistently well-funded 
Minerals Resources External Grants program would follow the 
recommendations of three recent NRC reports and would help arrest the 
dramatic decline of minerals expertise in the United States. Funding 
levels of $5 million in fiscal year 2009, and $8 million in fiscal year 
2010, is an appropriate ramp-up for the external grants program, which 
ideally should reach a level of $20 million per year. Modest levels of 
external research funding by the MRP in fiscal year 2006 ($1,000,000) 
to 15 universities and in fiscal year 2008 ($250,000) to 3 universities 
supported graduate student research and education.
    With regard to EPA, NASULGC supports a request of $809 million in 
fiscal year 2009 for Science and Technology (S&T).--The fiscal year 
2008 enacted level is $785.7 million while the administration's fiscal 
year 2009 request is $790 million. The BNR requested amount provides an 
increase of 3 percent to maintain ongoing programs and keep up with 
inflation. Without sound science, EPA will be unable to correctly 
identify and develop sound management and mitigation strategies for 
critical environmental problems.
    NASULGC recommends that the Committee restore STAR funding to $100 
million for competitive grants and $10 million for STAR graduate 
fellowships.--The fiscal year 2008 enacted levels are $54.7 million and 
$7.3 million respectively, while the President's fiscal year 2009 
budget request is $55.3 million and $5.9 million respectively. One of 
the most effective programs for improving the agency's science 
capabilities is the Science to Achieve Results (STAR) program. In 2003, 
the National Research Council strongly endorsed STAR in its report, 
``The Measure of STAR.'' The investment EPA ORD makes in STAR is 
especially significant and effective, because STAR is not a stand-alone 
grants program. It is coordinated with EPA program and regional 
offices, and targeted at high-priority needs that support the agency's 
mission. The program is leveraged by the participation of other Federal 
agencies and the private sector, and involves thousands of research 
scholars in universities.
    NASULGC universities have used STAR extramural research funding to 
accomplish the following: develop evaluations of U.S. estuarine and 
coastal water quality degradation; analyze ecosystem health and 
impairment; establish effective multi-university research 
collaborations; and develop techniques to assess the risks to fish in 
the Great Lakes associated with exposure to endocrine disrupting 
chemicals
    STAR graduate fellowships are also an excellent investment in the 
next generation of scientists and engineers, and provide opportunities 
for some of the brightest minds to develop the skills to enhance and 
replenish this Nation's environmental science expertise. Moreover, 
these grants are often a way to get minority graduate students engaged 
in high-level scientific research. STAR funding is a very important 
tool in the effort to address the future workforce needs of EPA. These 
investigator-initiated research grants are significantly expanding the 
number of scientists conducting EPA-related research and enhancing the 
overall quality of EPA S&T.
    Thank you for the opportunity to share our views with the 
committee.

                             ABOUT NASULGC

    NASULGC is the Nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all 50 
States. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.
                  about the board on natural resources
    The Board's mission is to promote university-based programs dealing 
with natural resources, wildlife, ecology, energy, and the environment. 
Most NASULGC institutions are represented on the Board. Present 
membership exceeds 500 scientists and educators, who are some of the 
Nation's leading research and educational expertise in environmental 
and natural-resource disciplines.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

                                REQUEST

  --$50,000,000 for State Historic Preservation Offices, and
  --$5,000,000 for competitive grants to States for historic site 
        survey fieldwork and digitization of documents.
    The programs are funded through the U.S. Department of the 
Interior's, National Park Service Historic Preservation Fund and 
authorized by the 1966 National Historic Preservation Act.
    The National Conference of State Historic Preservation Officers 
(NCSHPO) appreciates the opportunity to submit this statement for the 
record regarding the funding request for State Historic Preservation 
Offices and for historic site survey fieldwork and digitization. NCSHPO 
is the professional association of the State government officials who 
carry out the national historic preservation program as delegates of 
the Secretary of Interior pursuant to the National Historic 
Preservation Act of 1966 (NHPA). The NCSHPO acts as a communications 
vehicle among the State Historic Preservation Offices (SHPOs) and their 
staffs and represents the SHPOs with Congress, Federal agencies and 
national preservation organizations.

   NATIONAL HISTORIC PRESERVATION ACT--NPS LEADERSHIP RESPONSIBILITY

    In 1966 Congress recognized the importance of preserving our past 
by passing the National Historic Preservation Act (NHPA16 USC 470), 
which established today's Historic Preservation program. The NHPA 
directs State Historic Preservation Offices (SHPOs) to carry out the 
Federal preservation program: (1) Locate and record historic resources; 
(2) Nominate significant historic resources to the National Register of 
Historic Places; (3) Foster historic preservation programs at the local 
government level and the creation of preservation ordinances; (4) 
Provide funds for preservation activities; (5) Comment on federal 
preservation tax projects; (6) Review all federal projects for their 
impact on historic properties; and (7) Provide technical assistance to 
Federal agencies, State and local governments, and the private sector.

                    SHPO FUNDING--DOLLARS WELL SPENT

    For such a small program, SHPOs have extensive and wide ranging 
support--from within Congress, to State and local governments, 
community organizations and individuals across the country. Brent Warr, 
Mayor of Gulfport Mississippi said that through the Historic 
Preservation Fund's hurricane Relief Grant Program, ``The historical 
character of our community is being renewed, distinguishing us from 
others and preserving our heritage so that it can be shared with future 
generations.''
    Historic preservation is a sound investment and as an economic tool 
has proved its worth. Since 1981, rehabilitation activities in Colorado 
have created almost 29,000 jobs and generated a total of over $2 
billion in direct and indirect economic impacts. In Florida, an 
examination of the assessed values of mainly residential property in 
eighteen historic districts found that in at least 15 cases, property 
in historic districts appreciated greater than comparable, targeted 
non-historic districts and that there was no case where historic 
district designation depressed the property values. In 2007, HPF 
programs such as the Rehabilitation Tax Credit stimulated $4.35 Billion 
in private investment and at the same time produced 6,553 low and 
moderate income housing units, a 17 percent increase over 2006, and 
created an estimated 40,755 jobs.
    Though often unglamorous, SHPOs work is fundamentally essential to 
the preservation of our heritage. From 2002 to 2007, the number of 
section 106 reviews conducted increased 104 percent to 129,200 while 
SHPO funding decreased by nearly 5 percent over the same time period. 
In 2007, SHPOs also provided nearly 82,000 National Register 
eligibility opinions, assisted in creating 58 new Certified Local 
Governments and provided technical assistance and preservation policy 
guidance to hundreds of thousands of communities and individuals 
nationwide.

              INVENTORY FUNDING--NPS STEPS UP TO THE PLATE

    Many of the programs discussed above could be done much more 
effectively and efficiently if States had an accurate inventory of 
their historic resources in a digitized format. Knowing what you have 
and defining the location and significance of the Nation's historic 
assets, is fundamental for all historic preservation activity. Further, 
having electronic access to that data is essential for Federal project 
planning. We are pleased and encouraged that the NPS is ``stepping up 
to the plate'' and fulfilling its 40-year old commitment to find 
America's historic places by acknowledging and responding to the strong 
recommendations of the 2006 Preserve America Summit and by requesting 
inventory funding in fiscal year 2008 and for fiscal year 2009.
    While, a select few SHPOs have made remarkable progress assembling 
a patchwork of funding to initiate digital access to inventory 
information, other SHPOs around the country are not as fortunate. After 
40 years of the national preservation program we, as a Nation, still 
don't know the location of hundreds of thousands of our historic 
resources.
    Support for inventory funding exists within Congress, State and 
local governments, and the private sector and while we are pleased that 
the Administration has requested funding we are disappointed in the 
proposed amount of $2 million. We believe a minimum of $5 million (the 
administration's fiscal year 2008 unfulfilled request) a year for 5 
years is needed.
    Specifically, inventory funds would be used for two purposes (1) to 
conduct inventory fieldwork, filling in the current patchwork of 
identified sites which is essential for Federal project review (section 
106) and lays a foundation of every future preservation activity, e. 
g., National Register) and (2) to convert existing paper records to 
electronic formats (data bases, GIS).
    Recent natural disasters have also exposed the adverse consequences 
of the void in historic resources information. In the Gulf, in 2005 aid 
to victims and FEMA responses were delayed because digitized historic 
site locations were not available. The NPS detailed staff to do after 
the fact digitization of the location of historic places. The result of 
the work--on line access to maps of historic sites--led to a dramatic 
reduction in project review, from weeks to hours.

   NATIONAL ACADEMY OF PUBLIC ADMINISTRATION REPORT--CONFIRMS NCSHPO 
                                REQUEST

    Federal funding for SHPOs is money well spent. Under the 
administration's Program Assessment Rating Tool, management of Historic 
Preservation Programs received a score of 89 percent indicating 
exemplary performance of mandated activities. Reinforcing this finding 
is the December 2007 National Academy of Public Administration (NAPA) 
report ``BACK TO THE FUTURE: A Review of the National Historic 
Preservation Program.''
    NAPA, a non-profit, independent coalition of top management and 
organizational leaders, found that the National Historic Preservation 
Program ``stands as a successful example of effective Federal-State 
partnership and is working to realize Congress' original vision to a 
great extent. And while the program's basic structure is sound, it 
continues to face a number of notable challenges.'' The Panel concluded 
``that a stronger Federal leadership role, greater resources, and 
enhanced management are needed to build upon the existing, successful 
framework to achieve the full potential of the NHPA on behalf of the 
American people.'' \1\
---------------------------------------------------------------------------
    \1\ NAPA, ``BACK TO THE FUTURE: A Review of the National Historic 
Preservation Programs'' December 2007, p. 29.
---------------------------------------------------------------------------
    Report recommendations specific to SHPOs included the following:
  --the NPS request funding and FTE increases sufficient to address the 
        increased workload since fiscal year 1981 in National Register 
        eligibility opinion, tax credit reviews, section 106 reviews, 
        and HPF grants administration and to redress, at least in part, 
        the significant decline in inflation adjusted funding;
  --the NPS build upon the National Preservation program's success by 
        providing a stronger national leadership role in consultation 
        with the Advisory Council on Historic Preservation (ACHP) and 
        other national partners as appropriate;
  --the NPS expand its mission to make building the capacity of State 
        Historic Preservation Officers and Tribal Historic Preservation 
        Officers a top priority and that it pursue this goal 
        aggressively in cooperation with its national partners;
  --the Department of the Interior and the NPS strengthen the 
        performance of the National Historic Preservation program and 
        expand resources based on its demonstrated effectiveness in 
        cooperation with the ACHP; and
  --the NPS improve the efficiency of national historic preservation 
        efforts by taking full advantage of information technologies.
    On behalf of the States, NCSHPO is working in concert with the NPS 
to strategize on implementing the recommendations. However, Congress 
ultimately decides funding levels and without additional funding, many 
of these recommendations are unattainable.
  conclusion--hpf: a wise federal investment and the right thing to do
    Congress stated in 1966 that ``The spirit and direction of the 
Nation are founded upon and reflected in its historic heritage.'' 
Historic preservation recognizes that was common and ordinary in the 
past is often rare and precious today, and what is common and ordinary 
today may be extraordinary, 50, 100 or 500 years from now.
    NCSHPO thanks the committee for the opportunity to provide 
testimony and for their commitment to historic preservation. The 
Federal Government plays an invaluable role in preserving our Nation's 
history and through our partnership, State Historic Preservation 
Officers stand committed to identify, protect, and maintain our 
Nation's historic heritage.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians

    On behalf of the tribal nations of the National Congress of 
American Indians (NCAI), we are pleased to present our recommendations 
on the administration's fiscal year 2009 budget for Indian programs. At 
the recent State of Indian Nations address, NCAI President Joe Garcia 
spoke about the special place of honor children hold in American Indian 
and Alaska Native cultures. He discussed the community's sacred 
obligation to instill in them the traditional knowledge of past 
generations so their innocence and laughter may develop into wisdom as 
they become the leaders of the future. He stressed our belief that 
every Indian child should have the right to community-based, culturally 
appropriate services that help them grow up safe, healthy, and 
spiritually strong--free from abuse, neglect, and poverty. 
Unfortunately, all too often Native children are born into 
circumstances that may be rich in culture and love, but fail to meet 
their basic needs of health, shelter, safety, and education. Our 
communities have a vision of a restored, safer, healthier Indian 
Country for our children, but the President's budget request fails to 
move us in the direction of that vision and will leave Indian children 
in poverty and at risk.
    This NCAI fiscal year 2009 testimony highlights key aspects of the 
vision tribal leaders have expressed to create a safe, healthy Indian 
Country for our children. In developing these recommendations we 
recognize that chipping away at the years of under-funding and backlogs 
that plague Indian Country will be accomplished over time. The requests 
that follow do not reflect the full need in Indian Country, but rather 
are achievable first steps that we believe Congress and the President 
should be able to support this year.

                       PUBLIC SAFETY AND JUSTICE

    The administration of justice in Indian Country is clearly in 
crisis. Across the Nation, tribal leaders have called for more 
resources, making public safety and justice the top priority in budget 
consultations over the years. The current lack of resources for public 
safety poses a direct threat to Native children and the future of 
Indian Country.
    Recent media attention has highlighted the unconscionable breakdown 
in public safety in tribal communities. Although U.S. attorneys have 
the sole authority to prosecute felony crime on most reservations, the 
Denver Post's article, ``Lawless Lands,'' details how U.S. attorneys 
declined to prosecute 65 percent of all reservation cases between 1997 
and 2006, twice the rate of declination for all other federally 
prosecuted crime.\1\ Federal agents focus on terrorism and organized 
crime, while the investigation of serious crimes on reservations sits 
for years, leaving suspects free to commit other crimes. Tribal leaders 
point out that Federal prosecutors respond least to the kinds of crime 
that most affect Indian reservations: aggravated assault, domestic 
assault, sex crimes, and drug crimes. The Department of Justice simply 
is not meeting its responsibilities to Indian Country. Hundreds of 
these serious cases are sent through tribal misdemeanor courts instead, 
over-taxing the tribal courts and jails.
---------------------------------------------------------------------------
    \1\ Riley, M. (2007, November 11-14). Lawless Lands. The Denver 
Post. Retrieved February 11, 2008, from www.denverpost.com.
---------------------------------------------------------------------------
    Law Enforcement.--Although tribal law enforcement officers have 
limited authority under Federal law, they are often the first 
responders to reservation crime. Yet, according to the Bureau of Indian 
Affairs, Indian Country has a 42 percent unmet staffing need for police 
departments. To put this in perspective, 2,555 Indian country law 
enforcement officers make up about 0.004 percent of the total 675,734 
State, city, and county law enforcement officers in the United States, 
yet they patrol approximately 2 percent of the landmass of the United 
States and 1 percent of the population.
    In fiscal year 2008, the Department of Interior (DOI) launched a 
Safe Indian Communities initiative, with much needed increases for law 
enforcement funding. DOI States it proposes to continue this initiative 
for fiscal year 2009, however, the actual funding overall for the BIA 
public safety and justice category would decline by $882,000. 
Meanwhile, at the Department of Justice, the President's proposal would 
eliminate all of the tribal set-asides that currently exist in any of 
the DOJ grant programs and would effectively zero out a number of 
programs critical to tribal governments including: COPS, Byrne Grants, 
Grants to Tribal Governments under the Violence Against Women Act, 
incarceration on tribal lands, and tribal courts funding. NCAI urges 
Congress to include a 10 percent increase for BIA law enforcement in 
fiscal year 2009 and in the future until the gap in law enforcement 
funding for tribal communities is closed.
    Tribal Courts.--Tribal courts are overwhelmed with hundreds of 
serious cases declined by U.S. attorneys as well as increasing meth and 
drug crimes. Tribal courts have been level funded for at least the last 
five years. The fiscal year 2008 Omnibus spending bill increased tribal 
court funding by $2.3 million. However, the fiscal year 2009 budget 
request would eliminate $2.3 million. NCAI urges Congress to reject 
this cut to tribal courts and add 10 percent to this item.
    Detention Facilities.--In September 2004, the U.S. Department of 
Interior Inspector General's Office issued a report, Neither Safe Nor 
Secure: An Assessment of Indian Detention Facilities, which outlined 
the deplorable and life-threatening conditions of Indian jails. The 
report detailed the stark realities: 79 percent of facilities fall 
below minimum staffing levels on a regular basis; poorly maintained 
facilities that provide ample opportunity for escape are common; 
unusually high rates of suicide, a trend that generally correlates with 
reduced staff supervision and the influence of drugs and alcohol; and 
jails dilapidated to the point of condemnation. Recent testimony by the 
BIA suggests that as many as 90 percent of tribal detention facilities 
operated by the BIA may need to be closed because of their condition. 
Indian tribes report having to let dangerous criminals go free because 
of a lack of bed spaces in tribal jails. NCAI urges adequate funding to 
address the backlog of detention facility construction and staffing in 
Indian Country. To address the DOJ-documented crisis in Indian Country 
detention facilities, funding for at least 15 new facilities, including 
both tribal and BIA facilities, should be provided in the upcoming 
year.
    Johnson O'Malley.--Once again, the President proposed to completely 
eliminate the JOM program at the BIA. JOM provides supplemental funds 
to address the unique educational and cultural needs of Native children 
attending public school. What is different about JOM is that its 
``special and unique needs'' are determined not by the school boards, 
but instead through parent committees that each JOM program is required 
to have, as well as completing need assessments where parents have a 
say in what their children need to complete for the school year. NCAI 
urges full restoration of JOM to $21.4 million in fiscal year 2009, 
including the self-governance compacts and Consolidated Tribal 
Government Program contracts that fund JOM.
    Tribal Colleges.--Funding for the United Tribes Technical College 
(UTTC) and Navajo Technical College (NTC) were eliminated entirely from 
the budget. The BIA funding (eliminated from the President's budget 
since fiscal year 2003) and the Carl Perkins funds (Section 117 for 
Tribally Controlled Postsecondary Career and Technical Institutions) 
are eliminated from the President's budget for fiscal year 2009. These 
funds form the core of the operating budgets for both UTTC and NTC. 
Taken together, the funds eliminated from the budget represent the 
entire core operating budgets for UTTC and NTC. This is the first year 
the Carl Perkins funds were also eliminated for UTTC and NTC. NCAI 
urges Congress to work out how to restore funding for these two 
colleges. NCAI also supports the requests of the American Indian Higher 
Education Consortium for tribal colleges and universities.
    Bureau of Indian Education.--NCAI recommends Congress restore $5.9 
million reduction proposed for scholarships as well as restore $5.9 
million for the Scholarships and Adult Education in the BIE budget.
    Indian Health Service.--The 2008 budget request for IHS is $4.3 
billion, maintaining fiscal year 2008 levels. The administration's 
budget proposes $21 million reduction in construction costs due to the 
completion of project stages funded in fiscal year 2008. NCAI urges 
Congress to fund the IHS at a level in fiscal year 2009 to maintain 
existing services and accommodate population growth.
    Facilities Construction.--This section of the budget includes 
construction of new facilities, such as inpatient hospitals, outpatient 
hospitals, staff quarters for health professionals, regional treatment 
centers and joint venture construction programs. It also includes the 
small ambulatory program and the construction of dental facilities. 
These elements constitute the entire physical infrastructure of the 
health care delivery system in American Indian and Alaska Native 
communities. NCAI urges Congress to restore the facilities construction 
funding.
    Contract Support Costs.--An increase in contract support costs 
(CSC) is necessary as tribal governments continue to assume control of 
new programs, services, functions, and activities under Self-
Determination and Self-Governance. Tribal programs have increased the 
quality and level of services in their health systems under these 
policies. Failure to adequately fund CSC defeats the very programs that 
appear to be helping improve health conditions for American Indians and 
Alaska Natives. NCAI urges Congress to fully fund BIA and IHS contract 
support costs in fiscal year 2009.
    Urban Indian Health.--Urban Indian Health Programs have a profound 
effect on their communities by providing culturally sensitive, non-
duplicative services. They promote good family living essential to the 
prosperity of Native children. They help to educate local health care 
providers about the needs and the cultural conditioning of the urban 
Indian population. The President once again proposes to eliminate this 
program in fiscal year 2009. NCAI urges Congress to restore the program 
and provide $40 million in fiscal year 2009 to help close the gap in 
funding for Urban programs.
    Indian Land Consolidation: One of the most disappointing proposed 
cuts in the President's fiscal year 2009 budget for Indian programs is 
the proposal to eliminate the budget for Indian land consolidation. 
Land consolidation is critical for addressing the problem of 
fractionation, which creates an accounting nightmare for the Federal 
Government and enormous difficulties for Indian land owners in putting 
land to economic use. Land consolidation improves Federal 
administration and management, and saves substantial Federal dollars 
that currently go to tracking tiny land interests. The investment in 
land consolidation will do more to save on future trust administration 
costs than any other item in the trust budget.
    It is particularly surprising that the administration would propose 
to completely eliminate this budget. Over the past decade, even in 
years when there was little attention paid to land consolidation, the 
budget always received $8 to $13 million annually. But during the 
passage of the American Indian Probate Reform Act (AIPRA) in 2004, the 
administration realized the importance of land consolidation and agreed 
to significantly increased budgets. Both Interior and the Office of 
Management and Budget negotiated and agreed to authorizations of 
$75,000,000 for fiscal year 2005, $95,000,000 for fiscal year 2006, and 
$145,000,000 for each of fiscal year 2007 through fiscal year 2010. The 
increased commitment to land consolidation was a part of the agreement 
to AIPRA, where tribes and individual land owners have also taken on 
increased responsibility for land consolidation.
    But the increases came for only 2 years--$34.5 million in fiscal 
year 2006 and the same in fiscal year 2007. The land consolidation 
funding did a great deal of good in those years, buying back millions 
of fractionated interests, and the program was scaling up its efforts 
in anticipation of increased budgets in the future. During the 
formation of the fiscal year 2008 budget, Indian country was in serious 
negotiations with the administration and Congress for settlement of the 
Cobell trust fund accounting litigation, and it was widely anticipated 
that land consolidation funds would be included in the settlement--
perhaps a billion or more. This was the rationale we were given for the 
decrease in the fiscal year 2008 land consolidation budget to $10 
million--a sufficient amount to keep the program operating while the 
new funds from the settlement were negotiated.
    But the settlement did not materialize, and now the administration 
wants to eliminate the program. We have not seen any analysis by the 
administration which warrants a drastic change in direction from the 
AIPRA agreement. We also do not believe that a tribal effort at land 
consolidation will be supported unless there is a commitment from the 
Federal Government to do its part in addressing fractionation. We 
strongly urge Congress to return to the levels anticipated under AIPRA, 
and fund land consolidation at $50 million for fiscal year 2009.
    BIA Rights Protection Implementation.--This program in the BIA 
budget supports the exercise of off-reservation hunting, fishing, and 
gathering rights for 49 tribes located in the Pacific Northwest and 
Great Lakes regions and their 5 umbrella inter-tribal fish and wildlife 
organizations. Despite the critical role tribes play in managing the 
resources on tribal land and surrounding areas, BIA resources have 
eroded in recent years. The administration proposed reducing this item 
by $3.5 million in fiscal year 2009. NCAI urges Congress to restore the 
base funding for Rights Protection Implementation.
    Endangered Species.--The President proposed reducing Endangered 
Species Act funding by nearly $1 million. Funding for Endangered 
Species Act compliance must be increased to $6.6 million so the BIA can 
meet its otherwise unfunded mandates under the ESA.
    BIA Indian Reservation Roads.--The Department of Interior intends 
to reduce the Bureau of Indian Affairs Road Maintenance budget by $13 
million, or 50 percent. The justification for this reduction is that 
``Tribes could use about $100 million in Department of Transportation 
funds for Indian Reservation Roads.'' As Congress and the President 
consider how to stimulate our economy, providing more funds--not less--
to address the multi-billion dollar BIA road maintenance backlog will 
increase jobs in often impoverished reservation economies and will 
allow the BIA and Tribal governments to replace inefficient and 
antiquated road maintenance equipment. By cutting the budget request 
for the BIA Road Maintenance Program in half--and by justifying the 
reduction by reference to Tribal authority to use IRR Program 
construction funds for maintenance--the President's budget ignores a 
Congressional mandate and seeks to shift responsibility for maintaining 
Indian reservation roads to the overburdened Highway Trust Fund. As far 
back as 2003, the BIA formally acknowledged that at least $120 million 
per year was needed to maintain BIA-owned roads and bridges to a safe 
standard and $50 million per year was needed for bridge rehabilitation 
and replacement. This estimate does not take into account the millions 
needed to address the road maintenance backlogs that have accumulated 
as a result of the BIA's inability to meet existing need under its 
current budget. NCAI urges Congress to at least restore the $13 million 
to IRR funding in the fiscal year 2009 budget.

                               CONCLUSION

    The NCAI has gathered the input of tribal leaders and native 
organizations in the creation of these budget recommendations and we 
are honored to submit this document on their behalf. Native peoples 
have endeavored to live and work along side non-native peoples as well 
as defend our freedoms and communities in this diverse nation. We are 
determined to address the long-standing challenges in our communities 
and provide for the health, education, public safety and economic 
development needs of our tribal citizens.
                                 ______
                                 
       Prepared Statement of the National Cooperators' Coalition

    Madam Chairwoman and Senator Allard: We write to ask that you 
increase the fiscal year 2009 funding for the U.S. Geological Survey's 
Cooperative Fish and Wildlife Research Units (CFWRUs) $8 million above 
the budget request. The continued austere budget requests by USGS and 
the administration for the system are inadequate to maintain this 
highly valued partnership.
    The CFWRUs are crucial to successfully addressing the natural 
resource management challenges posed by climate change, energy 
development needs, invasive species, infectious diseases, wildfire, and 
increased demand for limited water resources. These challenges also 
include replacing the unprecedented number of natural resource 
professionals who will be retiring over the next 10 years. CFWRU's have 
established a record of educating new natural resource professionals 
who are management-oriented, well-versed in science, grounded in State 
and Federal agency experience, and able to assist private landowners 
and other members of the public.
    As you know, each of the CFWRUs in 38 States is a true Federal-
State-university-private partnership among the U.S. Geological Survey, 
a State natural resource agency, a host university, and the Wildlife 
Management Institute. The CFWRUs build on these partner contributions 
to leverage more than three dollars for every dollar appropriated to 
the program by Congress.
    Finding workable solutions to our natural resource challenges 
requires the CFWRU's management-oriented, community-based approach to 
research, which relies on interdisciplinary efforts, collaborations and 
accountability. The role of the Cooperative Research Unit System in 
facilitating these kinds of solutions and training the wildlife 
managers of tomorrow, who will be leading the way, should not be 
compromised. The Unit's contribution to natural resource agencies 
through its scientific capabilities, expertise, technical assistance 
and the training of personnel is required for responsive, science based 
management.
    To begin meeting these high priority research and training needs in 
fiscal year 2009, we ask that you establish a competitive, matching 
fund program within existing CFWRU legislative authority that would 
make available $5 million annually in new funds beyond base operational 
costs. These new funds would support future cooperative, high priority 
research efforts and essential training of new natural resource 
professionals to replace the large number who will retire within the 
next decade.
    We greatly appreciate the addition by Congress of nearly $1 million 
to the fiscal year 2008 USGS requested funding level. Those added funds 
are making it possible to begin the process of filling current 
scientist vacancies and restoring seriously eroded operational funds 
for each CFWRU. Unfortunately, the fiscal year 2009 USGS budget request 
fails to retain this increase, which jeopardizes the continued 
integrity of the CFWRUs. Approximately one fifth of all Coop Unit 
scientist positions are vacant due to erosion of funding since fiscal 
year 2001. To restore the necessary capacity in the CFWRU program for 
it to meet the Nation's research and training needs, the fiscal year 
2009 USGS appropriation needs to provide approximately $3 million more 
than the fiscal year 2008 appropriated level. An increase in funding 
also would ensure that the Interior Department provides the Federal 
scientist staffing agreed to with partners so that the return on their 
continuing investment in the CFWRUs is realized and fully leveraged.
    We urge you to make greater use of this important research and 
training partnership, which already brings together State fish and 
wildlife agencies, State universities, and Federal agencies around a 
local, applied research agenda. With your assistance, the Cooperative 
Fish and Wildlife Research Units can make the best use of Federal 
funds, becoming even more effective in using science and collaboration 
to address the natural resources challenges facing the Interior 
Department, other Federal, State, local agencies and this country's 
citizens.
    Thank you for consideration of our request.
                                 ______
                                 
Prepared Statement of the National Environmental Services Center, West 
                  Virginia University, Morgantown, WV

    Chairwoman Feinstein, ranking member Allard, and members of the 
subcommittee: We request an appropriation of $2 million in fiscal year 
2009 to assist small communities in meeting their wastewater treatment 
needs under the programs of the National Small Flows Clearinghouse and 
the National Environmental Training Center for Small Communities. Both 
programs are administered by the U.S. Environmental Protection Agency 
(EPA) under the Environmental Programs and Management (EPM) account.

                              INTRODUCTION

    My name is Richard Bajura and I serve as executive director of the 
National Environmental Services Center. Our center is home to both EPA 
and USDA funded programs that provide comprehensive environmental 
services to small communities and rural areas. Our work is focused 
mainly on drinking water, wastewater, and municipal solid waste. Two of 
our major programs, the National Small Flows Clearinghouse 
(Clearinghouse) and the National Environmental Training Center for 
Small Communities (Training Center) are the subjects of this testimony. 
These first two pages outline the need and justification for our 
request; the last two pages of our testimony provide background 
information about the Clearinghouse and Training Center programs.

                                  NEED

    According to EPA's Clean Watersheds Needs Survey 2004 Report to 
Congress, small communities in the United States (populations less than 
10,000) need $17 billion for wastewater services. However, State and 
Federal funds available to help meet these needs have decreased, and 
competition among the communities for these monies has intensified. 
Small and rural communities require assistance in developing, 
maintaining, and managing infrastructure for municipal wastewater 
treatment facilities that protect public health and meet environmental 
regulations. These communities are most often characterized as being 
rural, having few financial resources, and as being overseen by elected 
officials who have limited time and support personnel to make decisions 
in these matters.
    Given the limited funding available to assist communities, our 
programs provide information, services, and access to expertise that 
enable these communities to maximize the benefits from their available 
funds. The congressionally directed funding requested in our testimony 
will enable us to help these communities with services they will not 
otherwise obtain.
    EPA is charged with developing implementation and management 
strategies and technical assistance services for decentralized 
wastewater treatment systems for small and rural communities. However, 
EPA has an insufficient number of staff to carry out this 
responsibility. EPA has relied on the Clearinghouse and the Training 
Center to provide information services, technical assistance, and 
training for small communities and for service providers. While 
Congress has charged the EPA with these responsibilities, the 
administration routinely does not provide financial support for such 
programs and congressional action is required each year to support 
Clearinghouse and Training Center services.

                  SUPPORT FOR EPA NATIONAL PRIORITIES

    As part of a Memorandum of Understanding (MOU) initiated by EPA, 
the National Environmental Services Center, which houses both programs, 
joined with 7 other national organizations to assist the agency in 
meeting its strategic goals under its Decentralized Treatment Program. 
Services provided by both programs are the underpinning for the 
activities of many of the MOU partners in achieving their respective 
goals in the MOU partnership. Continued support for the Clearinghouse 
and the Training Center is important to EPA in meeting its national 
goals under its water programs.

                                REQUEST

    Congressional support to continue the work of the Clearinghouse and 
Training Center is imperative because the State agencies and 
communities these programs assist cannot pay on a fee-for-service basis 
to obtain assistance. By virtue of the congressional appropriation, we 
are able to offer most of our services free of charge.
    Without congressional support, the Clearinghouse and Training 
Center programs will be unable to attain sufficient funding to continue 
in the near term. In the longer term, the Clearinghouse can be 
supported under the funding formula provided for the Clearinghouse 
through renewal of the State Revolving Loan Fund (SRF) financing 
section of the Clean Water Act [H.R. 720] that was passed by the House 
in March of 2007. While EPA has a mandate to protect drinking water and 
manage wastewater discharges, the administration budget request 
typically does not include funding for water programs that serve small 
and rural communities. Given the absence of funding in the President's 
budget, Congress regularly adds funds each year to the EPA budget to 
continue service provider programs to meet the goals established by 
EPA. In the past, funding for the Clearinghouse and Training Center has 
been included among the congressional priorities for water-related 
programs such as the National Rural Water Association, Rural Community 
Assistance Partnership, Groundwater Protection Council, and similar 
organizations. The Clearinghouse and the Training Center are national 
programs that serve the same constituencies as the aforementioned 
programs by providing complementary services and should be similarly 
supported.
    We are requesting funding at a total of $2.0 million for the 
National Small Flows Clearinghouse and the National Environmental 
Training Center for Small Communities programs to support our work 
until the Clean Water SRF legislation is reauthorized and enacted. 
Thank you for considering our request.
                                 ______
                                 
  Prepared Statement of the National Federation of Federal Employees 
                               Local 1957

    As officers of the National Federation of Federal Employees (NFFE) 
Local 1957, we are once again writing on behalf of the bargaining unit 
for the Minerals Information Team (MIT), Geologic Division, U.S. 
Geological Survey (USGS), Reston,VA. We are concerned that the 
President's proposed fiscal year 2009 budget for the USGS includes a 
$5.1 million cut (33 percent) to the MIT's current funding level of 
$15.4 million, and $25.5 million (48 percent) from the entire Mineral 
Resource Program (MRP), of which we are a part.
    NFFE is concerned that the proposed MRP budget cut would 
irrevocably harm MIT through a Reduction in Force and elimination of 
valuable information for analysis of global mineral supply. This is a 
50 percent slash from fiscal year 2006 levels. The USGS could not 
fulfill its mandate by Congress to assure there is an adequate and 
reliable supply of mineral materials for national defense, as 
established by The Defense Production Act of 1950, as amended (1980 and 
1992).
    MIT is relied upon as an objective source of minerals information 
and expertise by Federal, State, and Local Governments, as well as by 
private, academic, and nongovernmental organizations. MIT produces more 
than 500 publications per year covering most nonfuel minerals, 
including Mineral Commodity Summaries for the Congressional Offices. 
Our web site provides approximately 1.4 million publication downloads 
per year and nearly double the number of hits.
    The proposed fiscal year 2009 budget would decimate MIT and MRP by 
eliminating at least 210 of 334 occupied scientific positions from 
across the country, about 43 of which would be from MIT. MIT would have 
to severely reduce its core function--the collection and dissemination 
of data on domestic and international production and consumption of 
mineral commodities--and cease research on mineral and material life 
cycles, flows, and future demand and uses.
    MIT is already laboring under a severely constrained budget that 
has declined by about 27 percent in real dollars to $11.6 million since 
1996, the year the group was moved to the USGS. The proposed fiscal 
year 2009 budget would reduce MIT funding 51 percent from that of 
fiscal year 1996 to $7.8 million (real dollars). Compounding the 
problem, MIT has had to absorb mandated increases in salaries and cost 
of living adjustments. Not surprisingly, filled FTE positions have 
fallen by about 27 percent (47). Quite frankly, MIT is now at the point 
that even flat levels of funding will prevent the group from fully 
accomplishing its mission.
    All this is occurring at a time of increasing globalization and 
materials competition from developing countries such as China and India 
that has led to global supply constraints, record-high metals prices, 
and increasing concern over the adequacy of mineral materials necessary 
to fuel technological innovation. Currently, the United States import 
dependence for most strategic and critical nonfuel minerals exceeds 75 
percent, which is greater than the country's dependence on foreign oil. 
Information and analysis of domestic and international markets is 
increasingly important to assure an adequate supply of minerals for the 
Nation's economic and defense needs. In 2006, MIT found that the Nation 
relied more than 50 percent on imports to meet their needs for 45 of 81 
nonfuel mineral commodities essential to the economy, and of those, was 
100 percent import reliant for 17 and 80 percent for another 13.
    The administration's continuous lack of support is summed up by the 
Office of Management Budget's (OMB) position ``. . . if the work of the 
MRP is truly of great value another non-Federal entity will pick up the 
work. The expertise does exist within state geological surveys and 
universities to conduct this work, however the funding does not. OMB 
believes that other entities can find the money to conduct the research 
through partnerships with private industry. Some say that this may call 
the impartiality of the research into question.''
    We are puzzled by OMB's reasoning. Like other Federal agencies that 
collect and analyze statistical information, MIT provides a fundamental 
service to the Nation that cannot be duplicated in the private sector 
or by other levels of government. It takes a Federal organization to 
coordinate and analyze mineral surveys data on a national level, 
including that from foreign sources. Mineral companies and foreign 
governments would understandably be reluctant to report proprietary or 
business sensitive data to private sector organizations.
    MIT's mission is similar to that of the Energy Information 
Administration (EIA) under the Department of Energy (DOE). EIA was, in 
fact, part of MIT prior to its creation in 1977. Like MIT, the EIA has 
become a recognized provider of data and value-added analysis on the 
Country's and the world's supply of energy minerals. Unlike MIT, 
however, EIA has had increased funding from $78 million in fiscal year 
2001 to $95.5 million in fiscal year 2008 (22.4 percent).
    The National Academies of Sciences (NAS) in an October 2007 report 
``Minerals, Critical Minerals, and the U.S. Economy'' recommended that 
``the Federal Government should enhance the types of data and 
information it collects, disseminates, and analyzes on minerals and 
mineral product, especially as these data and information relate to 
minerals or mineral products that are or may become critical. . . . 
Decision makers in both the public and private sectors need continuous, 
unbiased, and thorough information on the uses and possible supply 
restrictions of nonfuel minerals. The U.S. Geological Survey's Minerals 
Information Team is the most comprehensive source for this sort of 
information.'' The NAS further recommended ``that the Federal 
Government give the necessary authority and funding to USGS or 
whichever agency will ultimately be responsible to collect minerals 
information.''
    In 2006, Congress rejected a similar reduction proposed by the 
administration. In rejecting that proposed cut, the congressional joint 
committee wrote ``[we] strongly disagree with the administration's 
proposed reductions to the mineral assessment program and believe it 
irresponsible for the administration to decrease or eliminate funding 
for what is inherently a Federal responsibility.'' NFFE now urges 
Congress to do the same in fiscal year 2009, and restore the group's 
ability to function effectively by further increasing MIT's budget to 
$23 million.
    We thank you for your consideration of these issues that affect 
both our Union's and the Nation's interests.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Madam Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2009 Department 
of Interior Appropriations and funding for the National Fish and 
Wildlife Foundation (Foundation). We appreciate the subcommittee's past 
support and respectfully request your approval of funding at the 
following levels:
  --$10 million through the U.S. Fish and Wildlife Service's Resource 
        Management General Administration appropriation;
  --$3 million through the U.S. Fish and Wildlife Service's Resource 
        Management Endangered Species appropriation to conserve and 
        restore Pacific salmon in Washington State;
  --$4 million through the Bureau of Land Management's Management of 
        Lands and Resources appropriation; and
  --$4 million through the Forest Service's National Forest System 
        appropriation.
    This funding request for fiscal year 2009 is well within the 
authorized levels and would allow the Foundation to uphold our mission 
and expand our successful partnerships with the U.S. Fish and Wildlife 
Service (FWS), Bureau of Land Management (BLM), and Forest Service 
(FS). Madam Chairman, I want to make one very important point: we are 
asking for your support of well-established conservation programs with 
national significance. The Foundation is an honest broker for the 
Federal agencies and we have a remarkable track record of bringing 
private partners together to leverage Federal funds and maximize 
conservation impacts.
    Since the Foundation's establishment by Congress in 1984, the 
Foundation has built strong partnerships with the FWS, BLM, and FS by 
convening cooperative efforts to further the conservation of fish, 
wildlife and plants. The Foundation continues to excel in grant-making 
while providing thought leadership, accountability and sustainable 
conservation outcomes. Our unique ability to organize Federal agencies 
and private partners to work together to achieve mutual conservation 
goals through on-the-ground and in-the-water grant programs is notable 
and there is significant potential to advance these efforts in fiscal 
year 2009 and beyond.
    In addition to FWS, BLM and FS, the Foundation works closely with 
other Department of Interior agencies, the Environmental Protection 
Agency (EPA), National Oceanic and Atmospheric Administration (NOAA), 
and USDA's Natural Resources Conservation Service (NRCS), among others. 
On average, every Federal dollar is leveraged with three or more 
matching dollars from the non-Federal sector. Therefore, an 
appropriation of $21 million in fiscal year 2009 would turn into a 
minimum of $42 million, according to the Foundation's Congressional 
Charter which requires a minimum of a 1:1 match, and have the potential 
to turn into $84 million or more for on-the-ground conservation. Funds 
appropriated by this subcommittee are exclusively dedicated to grants 
and are not spent on overhead expenses of the Foundation.
    This subcommittee's funding has been critical to our success in 
attracting additional funding for conservation through corporate 
sponsorship, legal settlements, and direct gifts. Through our targeted 
grants, the Foundation strategically invests the Federal funds 
entrusted to us to achieve measurable success in ``moving the needle'' 
on collaborative conservation objectives over the next 5- to 10-year 
period.
    In fiscal year 2007, the Foundation awarded $12.2 million of our 
FWS, FS, and BLM appropriations to support 267 projects. FWS, BLM and 
FS funds were leveraged with $41 million in other Foundation Federal 
funds, corporate contributions, and matching funds. The remaining $1.7 
million in appropriated funds will be obligated for our spring 2008 
projects. When these projects are approved, the FWS, BLM and FS 
appropriations of $13.9 million for fiscal year 2007 will have been 
leveraged into more than $65 million in on-the-ground projects.

             CONSERVING FISH, WILDLIFE, PLANTS AND HABITATS

    Fiscal year 2009 appropriations through FWS, BLM and FS will be 
focused on mutually agreed upon projects across the country according 
to our Keystone Initiatives and the objectives of the Foundation's 
Special Grant Programs, which are specific to a geographic area, group 
of species, or conservation concern. The Keystone Initiatives represent 
the new core portfolio of the Foundation's grant making with clearly 
defined long-term goals, well-articulated strategies, and defined 
budgets to reach desired outcomes. In 2007 the Foundation continued 
implementing a new strategic plan and developing targeted Keystone 
Initiatives, with the goal of achieving sustainable and measurable 
conservation impacts.
    Four Keystone Initiatives were launched by the Foundation in 2007: 
(1) Birds (2) Wildlife and Habitats (3) Fish and (4) Marine and Coastal 
Conservation. Each grant approved under a Keystone Initiative will be 
designed to provide a measurable outcome that brings us one step closer 
to the final long-term conservation goal of the Initiative. Achieving 
success through our Keystone Initiatives will also help to fulfill the 
objectives of the National Fish Habitat Action Plan, North American 
Waterfowl Management Plan, and Partners in Flight, among others.
    With continued support through FWS, BLM, and FS appropriations, the 
Foundation can accelerate our collaborative efforts to achieve long-
term conservation impacts for fish and wildlife through our Keystone 
Initiatives. Increased funding in fiscal year 2009 will also help to 
strengthen the Foundation's Special Grant Programs, a few of which are 
highlighted below:
  --The Washington State Community Salmon Fund was established in 2000 
        to award community-based grants to assist rural communities, 
        farmers, ranchers and other private landowners with salmon 
        habitat conservation projects. With continued support from this 
        subcommittee, the program has expanded to include funding and 
        participation from the Washington Salmon Recovery Funding 
        Board, the Washington Conservation Commission, King County, WA 
        and Pierce County, WA. More than 300 grants have been awarded 
        through the partnership to benefit every major salmon-bearing 
        watershed across Washington. The program helps to implement 
        local salmon recovery projects identified as priorities in 
        Federal and State agency approved recovery plans. Projects also 
        provide numerous benefits for other aquatic and riparian 
        wildlife species as well as improved water quality.
  --The Great Lakes Watershed Restoration Fund is a partnership between 
        FWS, FS, EPA, NOAA and NRCS to promote ecosystem restoration in 
        the Great Lakes watershed. Since 2005, the Foundation has 
        leveraged $1.9 million in Federal funds with $3.8 million in 
        partner contributions and matching funds to support 36 projects 
        throughout the watershed. In 2008, the program is anticipated 
        to award an additional $1.5 million to restore and enhance fish 
        and wildlife habitat in the Great Lakes Basin. In January, the 
        Foundation announced a new corporate partnership with 
        ArcelorMittal, an international steel company, who will provide 
        an additional $2.1 million over the next 3 years for grants in 
        the watershed and help to implement the habitat objectives of 
        the Great Lakes Regional Collaboration.
  --The International Sea Turtle Conservation Fund supports projects 
        for the six species of sea turtles found in the Western 
        Hemisphere, all of which are considered endangered or 
        threatened. Since 1998, grants have been awarded for more than 
        100 projects in over 25 countries, representing a total of $6.2 
        million in funding from both Federal and non-Federal sources. 
        Projects focus on key nesting and foraging areas for species 
        survival as well as local capacity building and outreach with 
        fisherman to increase awareness and minimize damage caused by 
        certain fishing techniques to marine turtle populations. This 
        collaborative effort with NOAA and FWS is the leading source of 
        funding for sea turtles in the Western Hemisphere.
    Other Special Grant Programs, including Bring Back the Natives, 
Pulling Together Initiative, Long Island Sound Futures Fund, Delaware 
Estuary Watershed Grants Program, and Chesapeake Bay Stewardship Fund, 
continued positive results in 2007 with grantee requests far exceeding 
available funds. The Foundation strongly supports collaborative efforts 
that integrate conservation practices on agricultural, ranching, and 
forestry operations, with the goal of improving the ecological health 
of working lands. fiscal year 2009 appropriations through FWS, BLM and 
FS will allow the Foundation to continue our investment in common-
sense, innovative, cooperative approaches that directly benefit diverse 
habitats and a wide range of fish and wildlife species.

         A TRADITION OF SUCCESSFUL AND ACCOUNTABLE PERFORMANCE

    Since 1984, the Foundation has awarded nearly 9,500 grants to over 
3,000 organizations in the United States and abroad and leveraged--with 
our partners--more than $400 million in Federal funds into over $1.3 
billion for conservation. NFWF is recognized by Charity Navigator with 
a 4-star rating for efficiency and effectiveness.
    The Foundation has taken important strides to improve our grant 
review and contracting process to ensure we maximize efficiency while 
maintaining strict financial and evaluation-based requirements. 
Interactive tools through our website have improved communication with 
our stakeholders and helped to streamline our grant-making process. We 
expect that as of spring 2008, the Foundation will be operating under a 
paperless application system.
    Grant-making through our Keystone Initiatives and Special Grant 
Programs involves a thorough internal and external review process. Peer 
reviews involve Federal and State agencies, affected industry, non-
profit organizations, and academics. Grants are also reviewed by the 
Foundation's Keystone Initiative staff, as well as evaluation staff, 
before being recommended to the Board of Directors for approval. In 
addition, according to our Congressional Charter, the Foundation 
provides a 30-day notification to the Members of Congress for the 
congressional district and State in which a grant will be funded, prior 
to making a funding decision.
    Once again, Madam Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the 
Foundation in fiscal year 2009.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance

    Chairwoman Feinstein and members of the subcommittee: On behalf of 
the National Humanities Alliance and its 93 member organizations and 
institutions, I am pleased to testify for the record in support of the 
National Endowment for the Humanities (NEH). Our members, and the 
thousands of teachers, scholars, humanities organizations and 
institutions they represent, use NEH grants to maintain a strong system 
of academic research, education and public programs in the humanities. 
The Alliance respectfully urges the subcommittee to support funding of 
$177 million for NEH in fiscal year 2009, an increase of about $32 
million above the fiscal year 2008 appropriation and the President's 
request.

                                SUMMARY

    The President's fiscal year 2009 budget requests $144.4 million for 
NEH in fiscal year 2009, approximately the same amount as in fiscal 
year 2008. The President would offset increases for overhead costs and 
administration priorities with nearly $7 million in cuts to two of 
NEH's core programs, Preservation & Access and Challenge Grants. NEH's 
other core programs, which include Education, Public Programs, 
Research, and the Federal-State Partnership, would receive level 
funding in the President's Budget. We strongly oppose the President's 
proposed cuts and urge increased funding for all core programs.
    As the single largest source of humanities funding in the United 
States, NEH plays a pivotal leadership role in the education of our 
Nation's citizens; the creation and dissemination of new knowledge; and 
the preservation and enrichment of American intellectual and cultural 
life. Our Nation's schools and universities are falling behind in 
almost every aspect of humanities education and research. A serious 
reinvigoration of the Nation's investment in the humanities is 
desperately needed if we are to keep pace with the rapidly transforming 
global environment, and its pressures on our economy, citizens and 
civic institutions.
    Increased NEH funds will enable the agency to sustain its core 
programs, while extending the reach of its two major initiatives: We 
the People (along with a new WTP program, Picturing America), and the 
Digital Humanities Initiative. The Alliance applauds the agency's 
responsiveness to national needs. We support the increased funding for 
special initiatives included in the President's fiscal year 2009 
Budget. However, we believe funding for these initiatives should be in 
conjunction to, not in competition with, NEH's core programs. We are 
extremely concerned about the proposed elimination of a critical 
Preservation grant competition, Stabilizing Humanities Collections, and 
urge Congress to instruct the agency not to terminate or substantially 
reduce this program in fiscal year 2009.

                            FUNDING ANALYSIS

    NEH is funded at a level of $144.7 million in fiscal year 2008, an 
increase of $3.6 million over the previous fiscal year (a 2.6 percent 
increase over fiscal year 2007), including an additional $2.5 million 
for program funds and $1.1 million for administration. The humanities 
community deeply appreciates this increase. The combined impacts of 
inflation and budget cuts over the last two decades have seriously 
eroded NEH's ability to carry out its congressional mandate. NEH 
reached its nominal funding peak of $177.5 million in fiscal year 1994, 
the benchmark set by the humanities community to begin restoration of 
the agency's budget. However, NEH reached its real historical peak in 
fiscal year 1979; if funded at the 1979 level, NEH today would have a 
budget of more than $400 million.
    The NEH's current funding level is not adequate to meet the needs 
of humanities practitioners and the communities they serve. There is 
significant, unmet demand in this country for new knowledge and 
programming in the humanities--from history and literature, to world 
cultures, foreign languages, philosophy, and ethics. In fiscal year 
2007, NEH was only able to make $118 million in new awards, but it 
received more than $440 million in funding requests.

                         NATIONAL CORE PROGRAMS

    The NEH's national, core program competitions are at the center of 
the agency's mission to create, preserve, and disseminate knowledge in 
the humanities. However, since 1994, these programs have suffered 
disproportionately from budget cuts and inflation. In fiscal year 1994, 
appropriations for the national NEH core program divisions (Research, 
Education, Preservation & Access, Public Programs and Challenge Grants) 
totaled $116.3 million. In fiscal year 2008, appropriations for these 
divisions totaled only $66.0 million--a 43 percent decline in nominal 
funding.
    Preservation and Access Programs.--The NEH Preservation and Access 
Division supports the preservation of materials important to research, 
education, and public programming, including: books, journals, 
newspapers, manuscript and archival collections, maps, photographs, 
films, sound recordings, oral histories, and objects of material 
culture. NEH works with the community to preserve these resources and 
supports the creation of reference materials and new methods to 
increase access to them.
    The President's fiscal year 2009 budget requests $13.9 million for 
the Preservation and Access Division, a decrease of $4.5 million from 
the fiscal year 2008 level. In addition, the administration proposes to 
eliminate an important grant competition, Stabilizing Humanities 
Collections--a program funded at a level of $3.6 million in fiscal year 
2007. We are extremely concerned about the President's proposal, and 
ask for Congress' assistance in restoring funds to the Preservation & 
Access Division, and in ensuring that the Stabilization grants are not 
cancelled in fiscal year 2009.
    The President's proposed reduction is an inappropriate response to 
documented needs for the preservation and dissemination of our Nation's 
cultural heritage. In fiscal year 2007, the Preservation Division 
reviewed 564 applications, representing more than $100 million in 
requested funding. Of these requests, 56 applications were submitted 
for Stabilization grants, totaling more than $15.7 million (only 11 
were funded). Stabilization grants provide libraries, museums, and 
historical societies with hard-to-raise funds necessary to improve 
housing and storage, environmental conditions, security, lighting, and 
fire protection of collections. According to the Heritage Health Index, 
a 2004 survey conducted by Heritage Preservation, only 37 percent of 
collecting institutions in the United States report adequate storage 
and over one-half report damage to collections due to poor 
environmental conditions for their collections.
    Challenge Grants.--The Challenge Grant program helps local, State 
and national institutions secure their humanities resources and 
activities for the long term through fundraising as a means of building 
permanent resources for the future. Grant uses include: establishing or 
augmenting an endowment to pay for humanities staff and programming, 
renovation or construction of facilities, purchase of capital 
equipment, upgrade of technology, and additions to collections. 
Challenge grants are a cost-effective investment of taxpayer dollars. 
First-time challenge grant recipients must match every $1 Federal with 
$3 non-Federal; recipients of subsequent awards must raise $4 non-
Federal for every $1 Federal. Since the program started, NEH Challenge 
grants have leveraged $1.58 billion in non-Federal support.
    Over the years, Challenge Grants have made an extraordinary 
contribution toward strengthening the institutional base of the 
humanities. Unfortunately, the President's fiscal year 2009 Budget 
requests $7.1 million in funding for Challenge Grants, a decrease of 
$2.2 million from the fiscal year 2008 level. In fiscal year 2009, the 
administration plans to decrease both the number (reduced to 10) and 
size of challenge grants, particularly de-emphasizing endowment grants. 
We oppose these cuts. Challenge Grants are among the most valued NEH 
grants by our members. In fiscal year 2007, NEH received 113 
application requests for this division totaling more than $63 million 
(20 were funded)--nearly nine times the amount recommended by the 
administration.
    We also strongly disagree with the administration's assessment that 
endowment-building grants ``consume a significant amount of Federal 
resources in their first few years while returning only modest benefits 
as the endowment accumulates earnings''. Endowment building allows 
institutions to realize years of return on an initial investment, as 
opposed to a one-time expenditure. Moreover, the increased 
organizational capacity afforded by the annual return on endowment 
funds often allows institutions to further expand humanities 
programming and activities well beyond the scope of the original 
challenge grant.
    Research.--NEH Research grants are among the most coveted and 
prestigious awards for scholars. They support fellowships, stipends, 
collaborative research, and scholarly editions. Investing in humanities 
research yields new knowledge, consumed by the public in the form of 
books, TV/radio documentaries, museum exhibits, course materials, and 
web resources. The President's fiscal year 2009 Budget requests level 
funding of $13.0 million for Research. Research has been among the 
hardest hit areas of the Endowment. In fiscal year 1994 NEH made 1,054 
research awards, including fellowships and stipends, totaling $31.6 
million. In fiscal year 2007, the NEH Research Division made only 309 
new awards totaling $15.6 million (including additional We the People 
funds). NEH research grants are the most competitive offered by NEH, 
with demand far outstripping supply. In fiscal year 2007, NEH 
considered 2,537 research applications representing over $107 million--
a 12 percent success rate. By comparison, in fiscal year 2006, the 
National Science Foundation made awards to 25 percent of proposals.
    Education.--The Division of Education Programs supports 
professional development opportunities for teachers and faculty 
members, model curricula, and classroom resources for the humanities. 
Education grants strengthen teaching and learning in the humanities 
through all grade levels, from kindergarten to graduate level 
education. The President's fiscal year 2009 Budget requests level 
funding of $12.6 million for Education programs. In contrast, the 
fiscal year 1994 budget allowed NEH to award $29.1 million for 352 
education projects, including seminars and institutes. In fiscal year 
2007, NEH was only able to make 104 new education awards totaling $13.3 
million (including additional We the People funds). The division 
received 429 applications in fiscal year 2007 for $54 million in 
requested funds.
    Public Programs.--It is through NEH-funded public humanities 
programs that the Endowment works most directly with the American 
public. From traveling exhibits in local museums and libraries to film, 
television and radio productions, NEH public programs reach literally 
millions of Americans each year. The President's fiscal year 2009 
Budget requests level funding of $12.7 million for Public Programs. In 
contrast, the fiscal year 1994 budget allowed NEH to award $27.5 
million for 201 public program projects. In fiscal year 2007, NEH was 
only able to make 113 new public program awards totaling $13.7 million 
(including additional We the People funds). The division received 494 
applications in fiscal year 2007 representing more than $70 million in 
requests.
    We support significantly increased funding for NEH's competitive, 
peer-reviewed grant programs through each of the agency's national core 
programs.

                             STATE PROGRAMS

    Federal/State Partnership.--The NEH Federal/State Partnership is a 
collaborative effort of the NEH and the 56 State humanities councils to 
ensure the delivery of high-quality humanities programming to 
communities throughout the country. State councils are nonprofit 
501(c)(3) organizations governed by local volunteer boards; every 
Federal dollar received by a council for operating support is matched 
equally by local contributions of cash, goods, or services. The 
President's fiscal year 2009 Budget requests flat funding for the 
Federal/State Partnership at $31.7 million. We support significantly 
increased funding for the State councils through NEH.

                        NEH PROGRAM INITIATIVES

    Digital Humanities Initiative (DHI).--Launched in fiscal year 2007, 
DHI offers grants to support the use of digital technologies in 
conducting research and presenting scholarship. This area has been 
identified as a high priority by the National Humanities Alliance 
membership. The President's fiscal year 2009 Budget recommends 
essentially flat funding of $2 million for the newly renamed Office of 
Digital Humanities. We support the agency's modest request for this 
initiative and encourage further investment in the digital humanities 
throughout NEH.
    We the People (WTP).--We the People is an NEH initiative 
established in 2002 to boost the teaching, study, and understanding of 
American history and culture. Over the last 5 years, We the People 
funds have been used largely to support grants made through the 
agency's regular program divisions. The President's fiscal year 2009 
budget requests an additional $5 million to support We the People and 
allow full implementation of the NEH's new Picturing America 
initiative--an agency-directed program to distribute reproductions of 
American masterpieces to schools and libraries nationwide beginning in 
2008. We support the requested increase for We the People, but urge 
that new funds be found without drawing resources away from other NEH 
programs.

                        INTERNATIONAL EDUCATION

    The well-being of this country depends now, as perhaps never 
before, on our ability to understand the history, cultures and 
languages of the world's diverse societies. We appreciate Congress' 
request last year for an evaluation by NEH of its global society 
activities. We look forward to the release of the agency's report, and 
to working with Congress and the NEH on the future enhancement of the 
agency's international education programs.
    We recognize that Congress faces difficult choices this year. We 
are asking the subcommittee to recommend a significant funding increase 
for the National Endowment for the Humanities of $32 million in fiscal 
year 2009, as a necessary investment in the Nation's education and 
research infrastructure. We appreciate the subcommittee's outstanding 
support for the arts and humanities in America. Thank you for your 
consideration of our request.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance (NSC Alliance) encourages 
Congress to provide the United States Geological Survey (USGS) with at 
least $1.3 billion for fiscal year 2009. From this amount, we encourage 
you to provide at least $230 million for the programs and functions of 
the Biological Resources Discipline (BRD).
    The NSC Alliance is a nonprofit association that supports natural 
science collections, their human resources, the institutions that house 
them, and their research activities for the benefit of science and 
society. Our members are part of an international community of museums, 
botanical gardens, herbariums, universities and other institutions that 
house natural science collections and utilize them in research, 
exhibitions, academic and informal science education, public service, 
service to governmental entities such as public health, agriculture, 
homeland security, defense, natural resource conservation, and outreach 
activities for the betterment of society.
    The USGS provides independent research, data, and assessments 
needed by public and private sector decision-makers. A unique 
combination of biological, geographical, geological, and hydrological 
research programs enable USGS scientists to utilize innovative 
interdisciplinary research techniques to answer important questions. 
For instance, USGS data are essential to informing our understanding of 
how species and ecological systems may respond to climate change and 
how ecological systems may be able to help ameliorate the effects of 
environmental change. Moreover, the USGS collects data that other 
Federal agencies and nongovernmental scientists do not collect. We 
cannot afford to sacrifice this information; rather, we should increase 
our investments in this work for it is vital to scientific, social, and 
commercial advancement.
    Natural resource managers demand reliable, relevant, and timely 
information. The Biological Informatics Program develops and applies 
innovative technologies and practices to the management of biological 
data, information, and knowledge. For instance, the NSC Alliance has 
worked with USGS personnel to try to identify barriers to the 
digitization of data associated with the tens of millions of specimens 
in natural science collections. Such specimens become increasingly 
valuable each year as new techniques permit the vast storehouse of 
information locked in these specimens to be accessed for scientific 
research. These efforts offer the potential for USGS and academic 
researchers to use these data to improve our understanding of the 
distribution and habitat requirements of species, thus improving our 
ability to efficiently and effectively develop conservation and 
management policies.
    Increased funding for the USGS would enable the Biological 
Informatics Program to continue on-going activities and begin to 
implement initiatives that the resource management and research 
communities have identified as priorities. For example, the National 
Biological Information Infrastructure (NBII) program within the 
Biological Informatics office provides scientists and managers access 
to existing data. In the President's fiscal year 2009 budget request, 
NBII was cut by $2.9 million. This cut will have a significant negative 
impact on this important program. Full funding for NBII would permit 
the establishment of a more interconnected and accessible information 
system and would provide for the continued operation of important 
efforts, such as the National Framework for Early Detection, Rapid 
Assessment, and Rapid Response to Invasive Species (EDDR). The National 
EDDR framework would assist scientists and resource managers in 
correctly identifying invasive species, which are estimated to cost the 
United States $138 billion each year in health care, lost income, and 
environmental consequences.
    USGS scientists work collaboratively and are vital members of the 
research community. Through offices and science centers located in 
every State and through partnerships with more than 2,000 Federal, 
State, local, tribal, and private organizations, the USGS has built the 
capacity to leverage additional research expertise. For example, 
through the Cooperative Research Units program USGS scientists are 
stationed at many universities. This proximity to academic researchers 
heightens the intellectual and technical resources devoted to answering 
biological and natural resource questions. Moreover, Cooperative 
Research Units are a vital component of our Nation's education and 
training infrastructure, helping to develop the skills that graduate 
students need to become the natural resource professionals that 
government agencies require.
    Biological science programs within the USGS gather long-term data 
not available from other sources. Such data have contributed in a 
fundamental manner to our understanding of bird migratory patterns and 
the status and dynamics of biological populations, and have improved 
our understanding of how ecosystems function. This array of research 
expertise not only serves the core missions of the Department of the 
Interior, but also contributes to management decisions made by other 
agencies and private sector organizations. In short, we need to 
increase our investments in these important research activities.
    The USGS is uniquely positioned to address many of the Nation's 
biological and environmental challenges, including energy independence, 
climate change, water quality, endangered species, introduced pest 
species, emerging diseases, and conservation of biological diversity. 
USGS research in biology and ecosystem science provides data on the 
potential impacts to ecosystems that could result from global climate 
change or from particular land management practices. Additional studies 
conducted by the USGS related to global change indicate that sea-level 
rise will continue to impact coastal areas. These studies will provide 
critical data for resource managers as they develop adaptive management 
strategies for restoration and long-term use of the Nation's natural 
resources, including its coastlines.
    Funding for the USGS has remained flat for nearly a decade. The 
situation is even more critical when the budget is adjusted for 
inflation. The President's fiscal year 2009 budget request for the USGS 
is $969 million, $38 million below the fiscal year 2008 enacted budget 
and more than $6 million below the fiscal year 2008 operating plan. 
Despite inadequate budget requests from the present and prior 
administrations, Congress has demonstrated its recognition of the 
importance of USGS science by restoring proposed cuts. In response, the 
USGS has made every effort to be responsible stewards of public funds 
and has sought to leverage its limited human and financial resources to 
the greatest extent possible.
    There is growing concern from within the government and from 
outside that funding for the USGS must improve if it is to continue to 
serve its mission. Without an increased investment in USGS science, 
core missions and national priorities will suffer. Thus, any effort 
that Congress can make to fundamentally improve funding for the USGS 
will be appreciated.
    Thank you for your thoughtful consideration of this request. If you 
require additional information, please contact us at 202-628-1500 x 
250.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association

    Madam Chairwoman and members of the subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, 154 refuge 
Friends organization affiliates and thousands of concerned citizens 
throughout the United States, thank you for your leadership and strong 
support for the National Wildlife Refuge System (NWRS) including the 
enacted $39 million increase for fiscal year 2008. Thank you for the 
opportunity to offer comments on the fiscal year 2009 Interior 
Appropriations bill. Specifically, we respectfully request that the 
subcommittee support the following:
  --An overall funding level of $514 million for the operations and 
        maintenance (O&M) budget of the National Wildlife Refuge 
        System, managed by the U.S. Fish and Wildlife Service (FWS);
  --An allocation of $55.1 million for the Partners for Fish and 
        Wildlife Program, of which $2 million be allocated to conduct 
        strategic habitat conservation around national wildlife refuges 
        through partnerships among the FWS, refuge Friends and other 
        national, regional and local interests that work with States, 
        counties and municipalities to identify, prioritize and 
        implement land and water conservation opportunities beyond 
        refuge boundaries;
  --An allocation of $1 million to continue to support the Volunteers 
        and Invasives Program which utilizes Friends and volunteers to 
        identify and eradicate invasive species on and in connection 
        with refuges;
  --An allocation of $100 million in the FWS land acquisition budget 
        through the Land and Water Conservation Fund (LWCF) to acquire 
        vital habitat from numerous willing sellers across the country;
  --An allocation of $25 million for the NWRS construction budget to 
        prevent further degradation of Refuge System infrastructure;
  --An allocation of $85 million for the State and Tribal Wildlife 
        Grants Program;
  --An allocation of $10 million for the National Fish and Wildlife 
        Foundation (NFWF) in the FWS' Resource Management General 
        Administration appropriation;
  --Include language prohibiting use of funds for a land exchange at 
        the Izembek NWR in Alaska;
  --An allocation of $30 million for Climate Change Planning for 
        refuges.
    The NWRA is the chair of the Cooperative Alliance for Refuge 
Enhancement (CARE), a diverse coalition of 22 wildlife, hunting, 
fishing, conservation, and scientific organizations representing more 
than 14 million members and supporters. A comprehensive analysis by 
CARE determined that the Refuge System needs $765 million in annual 
operations and maintenance funding by 2013 to properly administer its 
nearly 100 million acres and provide the full spectrum of wildlife 
dependent recreation identified in the Refuge Improvement Act of 1997. 
To reach this reasonable goal, we respectfully request that you provide 
$514 million in fiscal year 2009 for Refuge System Operations and 
Maintenance (O&M).
    Recent years of stagnant budgets have caused the System O&M backlog 
to rapidly escalate to more than $3.5 billion. This huge backlog has 
forced the FWS to initiate plans for a dramatic 20 percent workforce 
downsizing. Visitors often show up to find roads and visitor centers 
closed, parking lots and boat launches in disrepair, and habitat 
restoration projects put ``on-hold'' or eliminated. Invasive plant 
species continue to encroach on the Refuge System lands and undermine 
their ability to fulfill their mission. In addition, a serious staffing 
deficiency in biologists and law enforcement officers has caused 
biological monitoring and habitat management to diminish and allowed 
illegal activities such as poaching and trespassing to increase. All of 
these shortcomings have reduced the opportunity for wildlife dependent 
recreational opportunities on Refuge System lands. Creating and 
enhancing these opportunities is critical to connecting people to our 
natural resources. We are grateful for the much-needed budget increase 
that Congress provided the Refuge System for the current fiscal year, 
and we respectfully urge the Congress to build upon this important step 
toward restoring the Refuge System by carefully considering our request 
in the fiscal year 2009 budget.
    While providing adequate funding to operate and maintain the Refuge 
System is of vital importance, most refuges are too small in size to 
achieve their conservation mission and objectives alone. Their 
integrity depends on the health of surrounding State, Federal, and 
private lands and waters. Consequently, there is a growing need to 
provide funding to ensure that lands and waters beyond refuge 
boundaries are conserved. Today, the alarming rush to convert rural 
land to subdivisions and strip malls has caught wildlife managers off 
guard and requires quick action. In response, NWRA launched Beyond the 
Boundaries, a campaign designed to identify and prioritize crucial 
additions to the nation's conservation estate, improve connectivity 
between refuges and other conservation lands, and protect buffer zones. 
Beyond the Boundaries employs sound conservation science to integrate 
State Wildlife Action Plans (SWAP), refuge Comprehensive Conservation 
Plans (CCP) and other conservation planning tools, and engages diverse 
stakeholders at the State and local levels to develop bold strategies 
for protecting critical wildlife habitat. All while strengthening 
economies through improved quality of life, clean water and outdoor 
recreation and appreciation.
    Accordingly, for fiscal year 2009 we respectfully ask that the 
subcommittee appropriate $55.1 million for the Partners for Fish and 
Wildlife Program, of which $2 million be allocated specifically to 
conduct strategic habitat conservation around national wildlife refuges 
that engages refuge Friends and other national, regional and local 
interests that work with States, counties, and municipalities to 
identify, prioritize and implement land and water conservation 
opportunities beyond refuge boundaries. These local initiatives will 
result in strategic visions which will serve as blueprints for use of 
State, Federal, and private conservation dollars, and will expedite 
implementation of State Wildlife Action Plans.
    We also encourage the subcommittee to continue its strong support 
``for cooperative projects with [F]riends groups on invasive species 
control'' in the Volunteers and Invasives Program by again 
appropriating $1 million for this valuable program. With annual 
allocations by Congress since fiscal year 2003, more than 207 separate 
refuges have taken actions to control invasives, and the Refuge System 
has identified approximately $166 million of invasive species projected 
needs. A competitive grants program for cooperative invasive species 
projects with refuge Friends and volunteers constitutes the majority of 
previous allocations. Over the past 3 years, funding awarded to refuges 
through this program for engaging volunteers in invasive species 
management has enabled 2,750 volunteers to contribute more than 49,000 
hours to the treatment, inventory, and restoration of over 211,000 
acres of refuge lands. In fiscal year 2006, a total of 917 volunteers 
contributed 22,239 hours and participated in the treatment, inventory 
and restoration of 73,909 refuge acres.
    Likewise, the Cooperative Volunteer Invasives Monitoring Program 
has demonstrated powerful results at the 32 participating refuges. A 
partnership among the NWRA, FWS, United States Geological Survey (USGS) 
and The Nature Conservancy, the program trains refuge volunteers to 
identify invasives and collect extensive data using inexpensive but 
sophisticated global positioning system (GPS)/geographic information 
system (GIS) data-collection equipment. To date, an estimated 24,000 
acres of refuge lands, in addition to hundreds of water bodies, have 
been inventoried and mapped by a corps of nearly 200 trained volunteers 
contributing 8,000 hours. Refuges participating in the program have 
used the data to engage an additional 887 volunteers in invasive plant 
management actions such as control and restoration measures. 
Importantly, the Chairs and Vice-Chairs of the Wildlife Refuge Caucus 
have recognized the value of this program, including it as a component 
of the House passed ``REPAIR Act'' (H.R. 767) that directs the 
Secretary to establish a Cooperative Volunteer Invasives Monitoring and 
Control Program to document and combat invasive species in and near 
national wildlife refuges.
    The NWRA encourages the subcommittee to allocate sufficient funding 
to assess and purchase high-priority water rights and high-priority 
lands and conservation easements through the Land and Water 
Conservation Fund (LWCF). Inadequate water quantity and quality 
represent some of the biggest obstacles for refuges to overcome and 
unfortunately, many refuges do not own the water rights on the refuge 
or they are not guaranteed an allocation of water from a river or 
stream. The FWS is currently compiling a needs-based priority database 
of where water rights need to be secured, and we urge the subcommittee 
to allocate sufficient funding to allow the FWS to acquire these 
essential rights while they are available and affordable. In some 
cases, if we fail to act, refuges will be left high and dry.
    The Refuge System land acquisition backlog is estimated at more 
than $4 billion, with over 15 million acres remaining to be acquired 
within approved refuge boundaries. While a full suite of conservation 
strategies should be employed in working with private landowners, in 
cases where fee title acquisition is preferred by the landowner and the 
refuge has identified it as a top priority, the FWS should acquire the 
land. The NWRA believes that $100 million should be allocated toward 
Refuge System land acquisition, yet even at that annual rate, it would 
take at least 40 years to acquire priority lands. Within this request, 
the NWRA encourages the subcommittee to provide funding for the 
following projects which have willing sellers and are immediately 
available for purchase: $5.6 million for Crystal River NWR (FL); $6 
million for Stewart B. McKinney NWR (CT); $2.15 million for 
Rappahannock River Valley NWR (VA); $1 million for Lake Umbagog NWR 
(NH); $2.5 million for Silvio O. Conte NFWR (MA); $1.1062 million for 
Bayou Sauvage NWR (LA); $3.5 million for Rachel Carson NWR (ME); $2 
million for Pelican Island NWR (FL) and $6 million for James Campbell 
NWR (HI).
    We encourage the subcommittee to resist the zeroing out of the 
Refuge System's construction budget proposed in the president's fiscal 
year 2009 budget request and instead allocate $25 million. The FWS has 
identified over $1 billion in construction projects, which in many 
cases will result in replacement of quickly deteriorating structures 
that are becoming more expensive to maintain.
    The NWRA urges the subcommittee to appropriate at least $85 million 
for the State and Tribal Wildlife Grants Program in fiscal year 2009 to 
implement statewide conservation plans, supporting projects to keep 
common species common and develop partnerships. These State-based plans 
can dovetail with refuge Comprehensive Conservation Plans (CCPs) and 
help fulfill the shared Federal/State responsibility for keeping our 
Nation's wildlife from becoming endangered.
    We encourage the subcommittee to allocate $10 million for the 
National Fish and Wildlife Foundation through the FWS' Resource 
Management General Administration appropriation. Each year, NFWF 
receives more project proposals than they are capable of funding. 
Adequate funding will ensure NFWF has the ability to leverage resources 
to fund projects that directly benefit diverse species in, around and 
outside of national wildlife refuges across the country.
    The NWRA is strongly opposed to a proposed land exchange at the 
Izembek NWR on Alaska's peninsula, which would allow a road to be built 
through the biological heart of the refuge. This exchange is in the 
President's fiscal year 2009 budget justification and has also been 
introduced as legislation in both the House and Senate (H.R. 2801 and 
S. 1680).
    And perhaps most importantly in this era of uncertainty related to 
climate change, we urge the subcommittee to allocate $30 million in 
dedicated funding to allow the FWS to create a plan for how to manage 
refuges in such a way that would allow them to adapt to anticipated 
changes. Work currently conducted by scientists including Dr. Michael 
Scott, Senior Scientist with the U.S. Geological Survey and Professor 
of Wildlife Biology at the University of Idaho, show how models for 
individual refuges can be made that simulate rising water levels, 
increased temperatures, and how species are expected to react. While 
these innovative tools are now readily available, without dedicated 
funding, refuge staff is simply unable to take full advantage. Refuges 
are perhaps our best natural laboratories on a national level to assess 
impacts to wildlife and habitat as a result of global climate change; a 
small investment could yield valuable insights that will guide wildlife 
management and land use planning well into the future.
    In conclusion, the National Wildlife Refuge Association believes 
the National Wildlife Refuge System can meet its important conservation 
objectives only with strong and consistent funding leveraged by the 
valuable work of refuge volunteers. We extend our appreciation to the 
Subcommittee for its ongoing commitment to our National Wildlife Refuge 
System.
                                 ______
                                 
    Prepared Statement of the New Mexico Department of Game and Fish

    Madam Chairman and honorable members of the subcommittee: On behalf 
of the New Mexico Department of Game and Fish (Department), I 
appreciate the opportunity to present this testimony in support of a 
$2.6 million appropriation from the Land and Water Conservation Fund 
for critical land protection efforts by the Forest Service in the 
Cibola National Forest near Gallup, New Mexico.
    The Department completed the Comprehensive Wildlife Conservation 
Strategy for New Mexico in 2005, combing input from over 125 public, 
private, and tribal interests, as a guide to collaborative and 
coordinated conservation activities in the State. Identified through 
the planning process were Species of Greatest Conservation Need and key 
wildlife habitats throughout New Mexico. One of those Species of 
Greatest Conservation Need is Zuni bluehead sucker, a species listed as 
endangered by the State of New Mexico and a candidate for Federal 
listing under the Endangered Species Act. Zuni bluehead sucker is found 
only in about 9 miles of habitat in the headwaters and isolated springs 
of the upper Zuni River watershed. Preservation of existing habitat and 
reduction of threats to the population from habitat destruction, 
fragmentation, and demands on the water supply to the river and springs 
are critical to keeping this species from extinction.
    The Department, under the guidance of the Comprehensive Wildlife 
Conservation Strategy for New Mexico and the Zuni Bluehead Sucker 
Recovery Plan, is working closely with State, Federal, and Tribal 
agencies and private organizations and individuals to forward our 
common wildlife conservation initiatives. The partnerships that have 
formed to protect habitat in the headwaters of the Zuni River are some 
of the broadest and most diverse in the State, including The Nature 
Conservancy, U.S. Fish and Wildlife Service, U.S.D.A Forest Service, 
and the Pueblo of Zuni. Priorities include restoration of the watershed 
and protecting habitat by purchase to prevent imminent threats of water 
and housing development. Among ongoing efforts, the Department is 
working with The Nature Conservancy to acquire 440 acres of land along 
the Rio Nutria, the major tributary to the Zuni River. This purchase, 
using the State Natural Lands Protection Act and funded by a special 
land conservation appropriation and the Duke Foundation, will add to 
the 1,300-acre Rio Nutria Preserve previously acquired by the State of 
New Mexico and The Nature Conservancy. Additionally, the Pueblo of 
Zuni, The Nature Conservancy, and the Department are working to restore 
and manage habitat for protection of the sucker on both the Preserve 
and within Zuni tribal lands. This is a unique opportunity to engage 
tribal government in support of the State's Comprehensive Wildlife 
Conservation Strategy.
    The proposed Forest Service acquisition will continue the partners' 
efforts to acquire and preserve habitat for the Zuni bluehead sucker 
and other important species. The two sections of land that make up the 
proposed Forest Service acquisition are important tributary drainages 
in the Zuni River watershed. Tampico Draw bisects the section that 
would be acquired in the first phase of the acquisition and drains 
directly into the Rio Nutria. The second section is on the headwaters 
of Grasshopper Canyon that also drains into Rio Nutria. Protection of 
these areas will help to protect downstream habitat occupied to by Zuni 
bluehead sucker.
    In fiscal year 2009, $2.6 million is required for the Forest 
Service from the Land and Water Conservation Fund to acquire and 
conserve the first 640 acres of the 1,280-acre Tampico Spring property. 
This will preserve critical wildlife habitat, protect an important 
watershed, and facilitate improved management of national forest lands 
in New Mexico.
    Thank you again, Madam Chairman, for the opportunity to present 
this testimony in support of this important Land and Water Conservation 
Fund project in New Mexico.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This statement is submitted in support of fiscal year 2009 
appropriations for Colorado River Basin salinity control program 
activities of the Bureau of Land Management. I urge that $5,900,000 be 
appropriated for the Bureau of Land Management for activities that 
benefit the control of salinity in the Colorado River Basin, and of 
that amount, $1,500,000 be marked specifically for the Colorado River 
Basin Salinity Control Program. In addition, I support the President's 
requested appropriation of $34,029,000 for the Land Resources 
Subactivity: Soil, Water, and Air Management, but request an increase 
of $700,000 in that amount to provide for the needed Colorado River 
Basin salinity control activities of the Bureau of Land Management for 
a total appropriation of $34,729,000.
    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined all of the features needed to control the salinity of the 
Colorado River. Those features include activities by the cooperating 
States, the Bureau of Reclamation, the Department of Agriculture, and 
the Bureau of Land Management (BLM). The salinity control program has 
been adopted by the seven Colorado River Basin States and approved by 
the EPA as a part of each State's water quality standards. Also, water 
delivered to Mexico in the Colorado River is subject to Minute 242 of 
the United States treaty with Mexico that sets limits on the salinity 
of the water.
    About 75 percent of the land in the Colorado River basin is owned, 
administered or held in trust by the Federal Government. BLM is the 
largest landowner in the Colorado River Basin, and manages public lands 
that are heavily laden with salt. When salt-laden soils erode, the 
salts dissolve and remain in the river system, affecting the quality of 
water used from the Colorado River by the Lower Basin States and 
Mexico. BLM needs to target the expenditure of at least $5.9 million 
for activities in fiscal year 2009 that benefit salinity control in the 
Colorado River Basin. In addition, BLM needs to target the expenditure 
of $1,500,000 of the $5.9 million specifically for salinity control 
projects and technical investigations. Experience in past years has 
shown that BLM projects are among the most cost-effective of the 
salinity control projects.
    As 1 of the 5 principal Soil, Water and Air Management program 
activities, BLM needs to specifically target $5.9 million to activities 
that benefit the control of salinity on lands of the Colorado River 
Basin. In the past, BLM has allocated $800,000 of the Soil Water and 
Air Management appropriation for funding specific project proposals 
submitted by BLM staff to the BLM salinity control coordinator. 
However, some of that funding has been eliminated in recent years by 
budget rescissions or transfers to other uses to balance budget needs. 
Consequently, the $800,000 allocated by BLM from the Soil, Water and 
Air Management Subactivity for Colorado River Basin salinity control 
has been reduced, limiting the implementation of needed salinity 
control efforts. The recently released annual report of the federally 
chartered Colorado River Basin Salinity Control Advisory Council 
reports that BLM has identified projects that could utilize funding in 
the amount of $1.5 million for fiscal year 2008. Consequently, I 
request that $1.5 million of the Soil, Water and Air Management 
Subactivity be marked specifically for Colorado River Basin salinity 
control activities. Achieving this level of appropriation for the 
critically needed cost effective salinity control work by BLM requires 
an increase of $700,000 in the BLM budget request of $34,029,000 for 
the Soil, Water and Air Management Subactivity.
    I believe and support past Federal legislation that finds that the 
Federal Government has a major and important responsibility with 
respect to controlling salt discharge from public lands. Congress has 
charged the Federal agencies to proceed with programs to control the 
salinity of the Colorado River Basin with a strong mandate to seek out 
the most cost-effective solutions. BLM's rangeland improvement programs 
can lead to some of the most cost-effective salinity control measures 
available. In addition, these programs are environmentally acceptable 
and control erosion, increase grazing opportunities, produce dependable 
stream run-off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $330 million per 
year. Unquantified damages increase the total damages significantly. 
For every increase of 30 milligrams per liter in salinity concentration 
in the waters of the Colorado River, an increase in damages of $75 
million is experienced by the water users of the Colorado River Basin 
in the United States. Control of salinity is necessary for the Basin 
States, including New Mexico, to continue to develop their compact-
apportioned waters of the Colorado River. The Basin States are 
proceeding with an independent program to control salt discharges to 
the Colorado River, in addition to up-front cost sharing with Bureau of 
Reclamation and Department of Agriculture salinity control programs. It 
is vitally important that BLM pursue salinity control projects within 
its jurisdiction to maintain the cost effectiveness of the program and 
the timely implementation of salinity control projects to avoid 
unnecessary damages in the United States and Mexico.
    At the urging of the Basin States, BLM has created a full time 
position to coordinate its activities among the BLM State offices and 
other Federal agencies involved in implementation of the salinity 
control program. The BLM's Budget Justification documents have stated 
that BLM continues to implement on-the-ground projects, evaluate 
progress in cooperation with the U.S. Bureau of Reclamation and the 
U.S. Department of Agriculture and reports salt retention measures to 
implement and maintain salinity control measures of the Federal 
salinity control program in the Colorado River Basin. BLM is to be 
commended for its commitment to cooperate and coordinate with the Basin 
States and other Federal agencies. The Basin States and I are pleased 
with the BLM administration's responsiveness in addressing the need for 
renewed emphasis on its efforts to control salinity sources and to 
comply with BLM responsibilities pursuant to the Colorado River Basin 
Salinity Control Act, as amended. While it is commendable that BLM's 
budget focuses on ecosystems and watershed management, it is essential 
that funds be targeted on specific subactivities and the results of 
those expenditures reported. This is necessary for accountability and 
effectiveness of the use of the funds.
    I request the appropriation of at least $5.9 million in fiscal year 
2009 for Colorado River salinity control activities of BLM, and that 
$1,500,000 of that amount be marked specifically for the Colorado River 
Basin Salinity Control Program, including projects and technical 
investigations. In addition, I request the appropriation of a minimum 
of $34,029,000 for the Land Resources Subactivity: Soil, Water, and Air 
Management as requested by the President. However, I request that 
$34,729,000 be appropriated for the Land Resources Subactivity: Soil, 
Water, and Air Management to provide for the increase of $700,000 
needed for a total of $1.5 million marked specifically for Colorado 
River salinity control activities without causing any reduction of 
other activities funded from the Soil, Water and Air Management 
appropriation. I very much appreciate favorable consideration of these 
requests. I fully support the statement of the Colorado River Basin 
Salinity Control Forum submitted by Jack Barnett, the Forum's Executive 
Director, in request of appropriations for BLM for Colorado River 
salinity control activities.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    Mr. Chairman and the other honorable members of the committee, I am 
Billy Frank, Jr., chairman of the Northwest Indian Fisheries Commission 
(NWIFC). It is indeed a privilege and an honor to be able to submit 
written testimony of our present funding requests to this committee on 
behalf of Native American people. On behalf of the membership of the 
NWIFC, our natural resource management funding requests for the fiscal 
year 2009 Budget for the Bureau of Indian Affairs (BIA) and the 
Environmental Protection Agency (EPA) are as follows:

           SUMMARY OF NWIFC SPECIFIC APPROPRIATIONS REQUESTS

  --Secure and Enhance Western Washington Fisheries Management Base 
        Funding
    --$7.50 million Enhancement of Western Washington Fisheries 
            Management Base Funding: BIA/Natural Resource Management/
            Rights Protection
    --$1.8 million--restore reduction incurred in the President's 
            fiscal year 2009 Budget: BIA/Natural Resources Management/
            Rights Protection
    --$.075 million--Salmon & Steelhead Habitat Inventory Assessment 
            Program (SSHIAP): BIA/Natural Resource/Forestry Projects
  --Maintain the Timber-Fish-Wildlife Program
    --$1.74 million Timber-Fish-Wildlife (TFW) Program: BIA/Natural 
            Resource Management/Rights Protection
  --Maintain the Mass Marking Program
    --$2.4 million Mass Marking Program: BIA/Natural Resource 
            Management/Rights Program
  --Protect Marine Resources of Puget Sound and Co-manage Natural 
        Resources
    --$2.0 million: EPA/National Estuaries Program/Puget Sound 
            Partnership
  --Recover Salmon through Hatchery Maintenance/Rehabilitation and 
        Reform
    --$1.5 million Hatchery Maintenance/Rehabilitation: BIA Hatchery 
            Maintenance/Rehabilitation & Reform
    --$2.43 million Hatchery Reform Implementation: BIA/Natural 
            Resource Management/Fish and Wildlife Projects
  --Strengthen Tribal Wildlife Management and Assure Treaty-Protected 
        Hunting Rights
    --$5 million Tribal Wildlife Management--Treaty Hunting Rights: 
            BIA/Natural Resource Management/Rights Protection
               support of national tribal appropriations
  --Support Tribal requested funding levels within BIA for Trust 
        Responsibility, Tribal Priority Allocation (TPA) and Self-
        Governance that pertains to Fisheries Management and 
        Implementation of the U.S.-Canada Pacific Salmon Treaty
  --$160 million to fully fund BIA Contract Support Cost
  --Provide necessary pay cost adjustments for existing and emerging 
        programs
  --Support full funding of EPA's Indian General Assistance Program 
        (GAP)

               THE NORTHWEST INDIAN FISHERIES COMMISSION

    Indian tribes have always inhabited the watersheds of western 
Washington, their cultures based on harvesting fish, wildlife, and 
other natural resources in the region. In the mid-1850s, when the 
United States Government wanted to make Washington a State, a series of 
treaties were negotiated with tribes in the region. Through the 
treaties, the tribes gave up most of their land, but also reserved 
certain rights to protect their way of life. The promises of the 
treaties were quickly broken in the decades that followed as the tribes 
were systematically denied their treaty-protected rights by the State 
of Washington. The struggle to obtain recognition of those rights 
climaxed in the ``Fish Wars'' of the late 1960s and early 1970s, when 
tribal members were arrested and jailed for fishing in defiance of 
State law. In 1974, the tribes won a major victory in U.S. v. 
Washington (Boldt Decision), which reaffirmed their treaty-protected 
fishing rights. The ruling--which has been upheld by the U.S. Supreme 
Court--established the tribes as co-managers of the resource were 
entitled to 50 percent of the harvestable number of salmon returning to 
Washington waters. Following the ruling, the tribes created the 
Northwest Indian Fisheries Commission (NWIFC) to assist them in 
conducting orderly and biologically sound fisheries. More recent 
Federal court rulings upholding treaty-reserved shellfish harvest 
rights have further expanded the role and responsibilities of the 
tribes as natural resource managers. Those rulings, combined with the 
interconnectedness of all natural resources, mean that tribal 
participation is today necessary in nearly all aspects of natural 
resource management in the region.

   REQUESTS JUSTIFICATION NARRATIVE BUREAU OF INDIAN AFFAIRS/NATURAL 
                 RESOURCE MANAGEMENT/RIGHTS PROTECTION

  --$1.8 MILLION RESTORATION OF CUT IN THE PRESIDENT'S BUDGET.--This 
        reduction, which targeted the U.S.-Canada Pacific Salmon 
        Treaty, would affect the Northwest Indian Fisheries Commission, 
        as well as the Columbia River Inter-Tribal Fish Commission and 
        the Metlakatla Indian Community. The NWIFC portion of this cut 
        is about 67 percent, or a reduction of $1.2 million. Tribes 
        receive important value from the PST monies through direct 
        contracts from the BIA for research and monitoring work, as 
        well as from NWIFC policy coordination, technical assistance, 
        and personnel contract support. These monies are critical for 
        the successful renegotiation of portions of the treaty that are 
        set to expire.
  --$7.5 MILLION ENHANCEMENT OF WESTERN WASHINGTON FISHERIES MANAGEMENT 
        BASE FUNDING.--The Tribes and the NWIFC request an increase of 
        $4.0 million for the base program funding due to increased 
        management obligations and costs. Base funding levels for 
        Tribal Natural Resources was initially set more than 30 years 
        ago. Funding declines in recent years are attributable to many 
        reasons; inflationary costs, rescissions and the overall 
        appropriations climate. Hence, today we are receiving less 
        funding than we did three decades ago but the level of 
        management responsibility has dramatically outpaced the level 
        of funding. There have been occasional cost of living 
        adjustments and some new monies have been added to core base, 
        level funding over the years.
      The tribes request an increase of $2.0 million for base program 
        funding to support increased shellfish management needs. In 
        1999, the Supreme Court denied cert. and let stand the 
        favorable decision of the 9th Circuit Court which included 
        guaranteed Tribal rights to harvest and gather shellfish for 
        their commercial, ceremonial and subsistence needs. Tribes need 
        monies to implement this right, in much the same way as they 
        did after the original U.S. v. Washington case was decided. 
        Several dozen regional shellfish management plans have been 
        successfully negotiated with Tribal and State agencies, and 
        Tribes have redirected efforts to conduct the minimum 
        management needed for their fisheries. Tribes need new 
        resources to collect information to assess treaty/non-treaty 
        sharing arrangements, to implement the shellfish sanitation 
        consent decree and to better monitor and enforce Tribal 
        regulations on deep-water fisheries. Without new resources our 
        current successful implementation of the agreement will be 
        short-lived.
      The tribes request an increase of $1.5 million for base program 
        funding to support increased groundfish management needs. This 
        appropriation would fund groundfish management activities for 
        the four coastal Treaty Tribes who do not currently receive 
        funds for these activities such as data collection, analysis 
        and monitoring. These activities are funded from other existing 
        fishery program funds which are inadequate and pose challenges 
        to Tribes to meet their management needs and responsibilities. 
        The transition to greater regional- and species-specific 
        management increases the demand for information and staff. 
        Groundfish biologists, technicians and enforcement personnel 
        are all critical for an effective groundfish management 
        program.
  --$1.74 MILLION TO MAINTAIN TIMBER-FISH-WILDLIFE (TFW) PROGRAM.--TFW 
        has served as the cornerstone-funding source for Tribal habitat 
        management capabilities for almost 20 years. Since 2000, 
        Congress has provided an allocation for additional Tribal 
        participation in TFW and the Forest and Fish Report (FFR) 
        development. Originally at $3.08 million, this level was 
        decreased in fiscal year 2006, but has been supplemented by a 
        special request for funds from the State of Washington. In an 
        effort to make the TFW program whole and allow Tribes to 
        continue to implement TFW and the adaptive management provision 
        in the FFR plan, which has been adopted as a HCP under the 
        Endangered Species Act, an additional $1.74 million is needed 
        to supplement the funds received by the Tribes from the State 
        of Washington.
  --$2.4 MILLION TO MAINTAIN THE MASS MARKING PROGRAM.--These funds are 
        needed to fully mark salmon at tribal hatcheries and to use 
        these marked fish to scientifically monitor salmon populations 
        and watersheds in Western Washington. Federal requirements to 
        mass mark Pacific Salmon raised in facilities funded in whole 
        or in part by Federal dollars require program funding for 
        Tribes. Tribes have agreed to mark salmon at their facilities, 
        but require necessary funding to do so. It is also critically 
        important to scientifically monitor salmon populations through 
        spawning escapement studies to determine how the marking 
        program and marked selective fisheries may be affecting 
        existing data and assumptions. New plans to implement more 
        extensive selective fisheries require additional funding and 
        the cost for this task has increased since initial funding 
        levels, and is expected to be at least $2.4 million in fiscal 
        year 2009.
  --$5.0 MILLION TRIBAL WILDLIFE MANAGEMENT--TREATY HUNTING RIGHTS.--
        Wildlife Management is a new initiative. Existing sources 
        within the BIA to address wildlife management issues have been 
        eliminated at the same time Tribal treaty rights to hunt are 
        being constantly challenged either through unfriendly legal 
        processes or through loss of important habitat and access to 
        open and unclaimed lands. An appropriation of $5.0 million 
        would provide each of the member Tribes with a basic 
        infrastructure to deal with Tribal wildlife management and 
        treaty hunting rights. We also recognize that the USFWS Tribal 
        Wildlife Grants, by themselves, are neither adequately funded 
        nor are they designed to support long-term tribal staff 
        infrastructure. This package supports basic infrastructure at 
        each tribe and the NWIFC, as well as provides a pool of project 
        monies for competitive grants. Further, the continued 
        elimination of $320,000 from the Unresolved Hunting and Fishing 
        Rights line item will impact the Tribes ability to develop in-
        common and co-management databases with the State of Washington 
        to work through hunting and wildlife management issues.
      bureau of indian affairs/natural resource/forestry programs
  --$75,000 SALMON & STEELHEAD HABITAT INVENTORY ASSESSMENT PROGRAM 
        (SSHIAP).--We are requesting an increase of $75,000 for a total 
        of $475,000 for the Salmon and Steelhead Habitat Inventory 
        Assessment Program (SSHIAP). The SSHIAP program is an 
        integrated data base/GIS program that allows tribes, the State 
        and local governments, and other partners with real time 
        information to make critical decisions regarding watershed 
        restoration, funding priorities, etc. This collaborative 
        program with the Washington Department of Fish and Wildlife and 
        other agencies, such as Department of Energy, Puget Sound 
        Partnership, U.S. Geological Service, National Information 
        Network and Environmental Protection Agency is funded within 
        the BIA Natural Resources Management--Forestry--Special 
        Projects account. The SSHIAP has become the basic habitat 
        management tool of choice in salmon and watershed recovery, 
        water quality and quantity issues and resource monitoring 
        efforts in the State of Washington.
 bureau of indian affairs/hatchery maintenance/rehabilitation & reform
  --$1.5 MILLION SALMON HABITAT RESTORATION.--BIA HATCHERY MAINTENANCE 
        & REHABILITATION
  --$2.43 MILLION SALMON HABITAT RESTORATION.--BIA/NATURAL RESOURCE 
        MANAGEMENT/FISH AND WILDLIFE PROJECTS HATCHERY REFORM 
        IMPLEMENTATION OR NOAA/PACIFIC SALMON/PACIFIC COASTAL SALMON 
        RECOVERY FUND [PCSRF]
    This package includes coordinated efforts underway addressing 
salmon recovery. It supports Hatchery Maintenance and Rehabilitation 
and Hatchery Reform Implementation. Funding for the tribal hatcheries 
has, in recent years, come from both the BIA/Fish Hatchery Repair and 
the NOAA Fisheries/PCSRF accounts. The level of funding from within the 
BIA/Fish Hatchery Repair account is very small and shared with other 
tribes nationally. The NOAA Fisheries/PCSRF account funds not only 
hatchery reform efforts, but is also the overall account from which 
tribes directly receive salmon recovery monies and indirectly compete 
through the State of Washington Salmon Recovery Fund process. It is 
necessary to identify and access additional funding sources to allow 
Tribes to continue in the recovery efforts.

ENVIRONMENTAL PROTECTION AGENCY/NATIONAL ESTUARIES PROGRAM/PUGET SOUND 
                              PARTNERSHIP

  --$2.0 MILLION PUGET SOUND PARTNERSHIP.--Marine resources are 
        essential to all NWIFC tribes. Two geographical areas help 
        define this package--the Pacific Coast and Puget Sound. In 
        Puget Sound, the emerging Puget Sound Partnership conveniently 
        brings together key marine issues requiring salmon recovery, 
        management and regulatory changes, and the need for additional 
        funding. Tribes will need to be funded so that they can 
        participate in the necessary scientific work and process and 
        policy discussions that this partnership entails.
    environmental protection agency/general assistance program (gap)
  --We support full funding of EPA's Indian General Assistance Program 
        (GAP) as this funding is critical to the tribes' ability to 
        sustain their important water resources programs.
    Again, thank you for allowing me to submit these requests to you 
today.
                                 ______
                                 
                  Prepared Statement of OPERA America

    Madam Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its board of directors, and its 114 American member companies. 
We strongly urge you to support an increased appropriation of $176 
million for the National Endowment for the Arts. This testimony and the 
funding examples described below are intended to highlight the 
importance of Federal investment in the arts so critical to sustaining 
a vibrant cultural community throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. Seventy percent of the opera companies in 
existence today have been established since 1960. The growth of the 
field corresponds to the establishment and growth of the NEA. Over the 
last 20 years, a rich repertoire of American operas has been created by 
composers who communicate the American experience in contemporary 
musical and dramatic terms. The growth in the number and quality of 
American operas corresponds directly to the investment of the NEA in 
the New American Works program of the former Opera-Music Theater 
Program.
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools, and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities, indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    The following are some examples of the impact of NEA funding on 
opera programs in 2008 from the NEA's 2008 Access to Artistic 
Excellence Program:
    Amarillo Opera, Inc.
    Amarillo, TX
    $7,500
    To support a production of Carlisle Floyd's Cold Sassy Tree. The 
work will be conducted by James Lowe who worked with the composer on 
the original production.
    Cedar Rapids Opera Theatre
    Cedar Rapids, IA
    $10,000
    To support a production of Verdi's Aida. An admission-free 
performance will be presented for youth and adult participants of three 
nonprofit organizations that support underserved communities; Big 
Brothers Big Sisters, Osada, and the McAuley Center for Women.
    Central City Opera House Association
    Denver, CO
    $17,500
    To support a new production of Britten's The Rape of Lucretia. The 
opera will take place during the National Performing Arts Convention, a 
convening of the national service organizations and their memberships 
of arts professional from across the performing arts, including opera, 
music, dance, and theater.
    Intermountain Opera Association of Bozeman
    Bozeman, MT
    $10,000
    To support performances of Bizet's Carmen and related educational 
activities. Three performances will take place at Willson Auditorium 
utilizing a core group of professional singers, augmented by local 
instrumentalists and singers.
    Michigan Opera Theatre
    Detroit, MI
    $35,000
    To support a revival of Margaret Garner by composer Richard 
Danielpour and librettist Toni Morrison. The three-act opera is based 
on the true story of a slave woman's quest for freedom.
    Opera Company of Philadelphia
    Philadelphia, PA
    $25,000
    To support the East Coast premiere of Cyrano by composer David 
DiChiera and French librettist Bernard Uzan. The project is a 
collaboration among the Opera Company of Philadelphia, Michigan Opera 
Theatre, and Florida Grand Opera.
    Opera Omaha, Inc.
    Omaha, NE
    $12,500
    To support a new production of Verdi's Aida. As part of the 
company's 50th anniversary season, the production will be designed by 
local sculptor and installation artist Catherine Ferguson.
    Pensacola Opera, Inc.
    Pensacola, FL
    $18,000
    To support the commissioning and premiere of The Widow's Lantern by 
composer and librettist David Ott and based on Florida history. 
Collaborations with. West Florida History Preservation, the University 
of West Florida, and Okaloosa-Walton College will provide performance 
venues and production support.
    Pittsburgh Opera, Inc. (Consortium)
    Pittsburgh, PA
    $25,000
    To support the creation of a new production of Saint-Saens' Samson 
and Delilah. Co produced with Minnesota Opera, the project will draw 
upon the shared expertise of both companies and will provide a creative 
opportunity that will strengthen both organizations.
    Portland Opera Association Inc.
    Portland, OR
    $10,000
    To support the Portland Opera Studio Artists (POSA) and the POSA 
Chamber Opera. The training program provides education and performance 
opportunities for young artists while the chamber ensemble presents 
more intimate chamber operas.
    San Francisco Opera Association
    San Francisco, CA
    $100,000
    To support the world premiere of The Bonesetter's Daughter by 
composer Stewart Wallace and librettist Amy Tan. Education and outreach 
programs will include a panel discussion with members of the cast and 
the creative team, preview lectures at Bay Area locations, pre-
performance lectures.
    Seattle Opera
    Seattle, WA
    $45,000
    To support a production of Bellini's I Puritan. Performances of the 
opera will be accompanied by preview talks, lectures, and radio 
broadcasts.
    Tacoma Opera Association
    Tacoma, WA
    $10,000
    To support performances of Rossini's Il Barbiere di Siviglia (The 
Barber of Seville). Educational outreach to the community includes 
teacher workshops and Student Night at the Opera.
    Union Avenue Opera Theatre
    St. Louis, MO
    $7,500
    To support productions of Donizetti's L'Elisir d'Amore, Massenet's 
Werther, Puccini's Il Tabarro, and Gilbert and Sullivan's The Sorcerer. 
The first two works will be fully staged and orchestrated operas, and 
the latter two works will be minimally staged with piano accompaniment.
    Virginia Opera Association, Inc.
    Norfolk, VA
    $12,500
    To support a new production of Tchaikovsky's Eugene Onegin to be 
part of Virginia Celebrates Russia, an initiative to encourage 
collaborative programming state-wide during an event celebrating the 
200th anniversary of the establishment of U.S.-Russia relations.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, and its programs are 
seriously underfunded. With a $20.3 million increase for the NEA in 
fiscal year 2008, Congress began to lay the foundation for full 
restoration of the agency. We urge you to continue towards restoration 
and increase the NEA funding allocation to $176 million for fiscal year 
2009.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

    I am Anita Winkler, executive director, Oregon Water Resources 
Congress. This testimony is submitted to the United States Senate 
Appropriations Committee, Subcommittee on Interior and Related 
Agencies, regarding the fiscal year 2009 budget for the Department of 
Interior Fish and Wildlife Service.
    The Oregon Water Resources Congress (OWRC) was established in 1912 
as a trade association to support member needs to protect water rights 
and encourage conservation and water management statewide. OWRC 
represents non-potable agriculture water suppliers in Oregon, primarily 
irrigation districts, as well as other special districts and local 
governments that deliver irrigation water. The association represents 
the entities that operate water management systems, including water 
supply reservoirs, canals, pipelines, and hydropower production.

  RE: FRIMA PROGRAM--U.S. FISH AND WILDLIFE SERVICE FISCAL YEAR 2009 
                                REQUEST

Request
    The Oregon Water Resources Congress is requesting $25 million for 
the full funding in fiscal year 2009 for the U.S. Fish and Wildlife 
Service Fish Restoration Irrigation Mitigation program as authorized in 
the Fish Restoration Irrigation Mitigation Act (FRIMA) in November 2000 
as Public Law 106-502 (H.R. 1444). The administration has not requested 
any funding in the fiscal year 2009 Budget submission for this program.
    FRIMA created a new Federal partnership fish screening and passage 
program in the Pacific Ocean drainage areas of Idaho, Oregon, 
Washington and western Montana, administered by the Fish and Wildlife 
Service and partnered through State fishery agencies.
    The original legislation was supported and requested by the Pacific 
Northwest Partnership, a coalition of local governmental entities in 
the four Northwest States. As one of the members of that coalition, we 
appreciate your consideration of this request.

Need
    Our association has represented irrigation districts in Oregon 
since 1912. About half of those districts are affiliated with the U.S. 
Bureau of Reclamation. The remainder of the districts were not 
developed under the Reclamation program. There are over 200 irrigation 
districts in Oregon that provide water supplies to over one million 
acres of cropland in the State. Almost all of these districts are 
affected by either State or Federal Endangered Species Act listings of 
Salmon and Steelhead, Bull Trout or other sensitive, threatened or 
endangered species.
    Fish passage and fishscreen needs have become critical to fishery 
protection:
  --to keep protected fish species out of water canals and delivery 
        systems;
  --to allow fish to be safely bypassed around reservoirs and facility 
        structures; and
  --to eliminate water quality risks to fish species.
    Oregon irrigation districts anticipate no less than $500 million in 
funding will be required to develop fish passage and fishscreen needs. 
Limited cost-share funds are available from the Oregon Watershed 
Enhancement Board (OWEB) program in Oregon, but primarily the cost 
share for passage and screening needs has been provided by the 
districts and their water users. Although many districts already have 
screening facilities in place, requirements for screening have changed 
to meet Federal agency requirements of the NOAA Fisheries Service and 
the Fish and Wildlife Service, driven by implementation of the Federal 
Endangered Species Act (ESA) so that existing facilities must be 
upgraded at significant cost.

Background of Public Law 106-502
    FRIMA was enacted November 2000, creating a voluntary cost-share 
fish screen construction program for water withdrawal projects in 
Idaho, Oregon, Washington and western Montana. The Fish and Wildlife 
Service is to implement this program through the fishery agencies in 
the four States. The funding is to go to local governments for 
construction of facilities. Irrigation districts and other local 
governments that divert water for irrigation, can access the funding; 
individual irrigators can access funding through their local Soil and 
Water Conservation District. (SWC Districts are local governments 
affiliated with the Natural Resources Conservation Service).

Funding
    The legislation calls for $25 million annually, to be divided among 
the four States, from 2001 forward. The Service has never included 
funding in its budget requests since passage of the legislation. 
Congress provided the first funding in 2001 through a write-in of $4 
million to be shared among the four States. The agency did not get the 
program up and running until late 2002, so the first monies were 
distributed then. In the following years, funding for FRIMA was 
provided as a congressional write-in in each year. OWRC appreciates 
Congress' continued funding for the FRIMA program each year. That 
funding has begun to address the need for fish screens and fish 
passages to protect sensitive, threatened, and endangered fish species 
in the States in the Northwest, but there is still significant need.
    In 2000, in its report accompanying the legislation, the 
Congressional Budget Office (CBO) estimated outlays of $70 million 
between 2001 and 2004. The actual appropriation was only $8.8 million 
during that time period and all of the money was a write-in. For fiscal 
year 2005, Congress provided $2 million for the program in the 
Consolidated Appropriations Act and, $2 million in fiscal year 2006. 
The fiscal year 2007 funding of $1 million was part of an appropriation 
to the Fish and Wildlife Service but was not a separate, designated 
appropriation. As you can see from the total amount of money that 
Congress has written in for the program, such amounts are woefully 
inadequate for what was anticipated for the program, yet still 
appreciated. The Administration did not request funding for the program 
for fiscal year 2009, consistent with its past budget submittals, 
despite widespread benefits from the money that Congress has provided.
    A recently produced report by the U.S. Fish and Wildlife Service 
covering the program years fiscal year 2002-2004 provides State-by-
State coverage of how the congressionally provided funding has been 
used in the program. The program has been extremely beneficial in the 
State of Oregon.
    Funding funneled through the Service to State fishery agencies is 
distributed on the basis of an application and approval process that is 
based on a ranking system implemented uniformly among the States, 
including the following factors:
  --fish restoration benefits;
  --cost effectiveness; and
  --feasibility of planned structure
    Each State is allocated 25 percent of the annual program funding. 
Agency administrative costs cannot exceed 6 percent of the funding.
Project Benefits
    The project must provide improved fish passage or fish protection 
at water diversion structures and must benefit fish species native to 
and present in the area, including those listed on State or Federal 
endangered species or conservation lists.
    The project must meet applicable State and Federal requirements for 
project construction and operation. Projects will increase the survival 
of many native fish species in a relatively short period of time. 
Compared to other recovery strategies, the risks posed by these 
activities are low and the assurance of success in increasing numbers 
of fish is high. Dislocation of existing social and economic activities 
is minor. Screening and passage can make a very substantial 
contribution utilizing existing implementation mechanisms and methods 
well accepted by landowners and rural communities.

Cost Share
    FRIMA provides for a maximum Federal cost-share of 65 percent. The 
applicant's cost-share is 35 percent plus the on-going maintenance and 
support of the structure for passage or screening purposes. Applicants 
operate the projects and the State agencies monitor and review the 
projects. For more information, see the Service's Fishery Resources 
website for the Pacific Region at http://www.fws.gov/pacific/Fisheries/
FRIMA. This program is headquartered in the Portland, Oregon regional 
office of the Service.

Oregon's Project Benefits
    Twenty-five fish screens or fish passage projects in Oregon have 
been funded using funding from FRIMA for part of the project since the 
start of the FRIMA program. In addition, the Oregon Department of Fish 
and Wildlife has used some of the FRIMA funding to develop an inventory 
of need for fish screens and passages in the State. In that time, the 
local match has averaged 51.5 percent, well over the amount required 
under the act. In other words, each Federal $1 invested in the FRIMA 
program generates a local investment of just over $1 for the protection 
of fish species in the Pacific Northwest.
    The following are examples of how Oregon has used some of its FRIMA 
money:
    Santiam Water Control District Project.--Fishscreen project on a 
large 1050 cfs multipurpose water diversion project on the Santiam 
River (Willamette Basin) near Stayton, Oregon. Partners are the Santiam 
Water Control District, Oregon Department of Fish and Wildlife, Marion 
Soil and Water Conservation District, and the City of Stayton. Approved 
FRIMA funding of $400,000 leverages a $1,200,000 project. Species 
benefited include winter steelhead, spring Chinook, rainbow trout, and 
cutthroat trout.
    South Fork Little Butte Creek.--Fishscreen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding of 
$372,000 leverages a $580,000 total project cost. Species benefited 
include listed summer and winter steelhead, coho salmon, and cutthroat 
trout.
    Running Y (Geary Diversion) Project.--Fishscreen project on a 60 
cfs irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, Oregon 
Department of Fish and Wildlife, and Jeld-Wen Ranches. Approved FRIMA 
funding of $44,727 leverages a $149,000 total project cost. Species 
benefited included listed red-band trout and short-nosed sucker.
    Lakeshore Gardens Project.--Fishscreen project on a 2 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Lakeshore Gardens Drainage District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding of 
$5,691 leverages a $18,970 total project cost. Species benefited 
include red-band trout, short-nosed sucker and Lost River sucker.
    Oregon Department of Fish and Wildlife Inventory Project.--An 
inventory to be conducted by Oregon Department of Fish and Wildlife to 
identify FRIMA-eligible passage and screening projects within the Rogue 
and Klamath basins of southwestern Oregon. Approved FRIMA funding is 
$76,000. Estimated total project cost is $125,000.

                              WHY FUND NOW

    Dollar-for-dollar, providing screening and fish passage at 
diversions is one of the most cost-effective uses of restoration 
dollars, creating fishery protection at low cost, with low risk and 
significant benefits. That is why it is important that this program be 
funded now. We urge the full authorization funding of $25 million for 
fiscal year 2009 and urge Congress' oversight in encouraging the 
Service to budget for this successful program in the future.
    Thank you for the opportunity to provide this statement for the 
hearing record.
                                 ______
                                 
         Prepared Statement of the Outdoor Industry Association

    On behalf of the Outdoor Industry Association I would like to thank 
the committee for the opportunity to present this written testimony. 
Outdoor Industry Association respectfully recommends the following 
funding levels for fiscal year 2009:
  --The U.S. Forest Service's Recreation Management, Heritage and 
        Wilderness programs should be funded at $285 million; Capital 
        Improvement and Maintenance/Trails program at $85 million; and 
        fire suppression should be taken ``off-budget'' so that Forest 
        Service leadership can undertake strategic planning for other 
        important programs managed by the agency, including placing a 
        needed focus on the Recreation and Travel planning that is 
        occurring in forests across the nation
  --Fund the Land and Water Conservation Fund (LWCF) State Assistance 
        program at $125 million
  --Fund the Bureau of Land Management National Landscape Conservation 
        System (NLCS) at $70 million
  --Support the proposed operating increase ($161 million) for the 
        National Park Service under the Centennial Initiative
    Outdoor Industry Association (OIA) is a national trade association 
whose mission is to ensure the growth and success of the outdoor 
industry. OIA's members include the leading manufacturers and retailers 
of outdoor recreation equipment and services such as The North Face, 
Columbia Sportswear, Timberland, Patagonia, WL Gore, Cabela's, REI, LL 
Bean and many more.
    Active outdoor recreation plays a large role in the lives of 
Americans. Three out of four Americans participate in active outdoor 
recreation each year. Popular outdoor activities such as hiking, 
biking, camping and wildlife viewing generate enormous economic power.
    The numbers tell the story. Active outdoor recreation:
  --Contributes $730 billion annually to the U.S. economy
  --Supports 6.5 million jobs across the United States
  --Generates $88 billion in annual State and national tax revenue
  --Rings up $289 billion annually in direct retail sales and services.
    In summary, active outdoor recreation touches more than $1 in every 
$12 circulating in the economy.

                          U.S. FOREST SERVICE

    The vast majority of outdoor recreation occurs on our magnificent 
public lands and in order for the recreation economy to continue to 
grow as well as for Americans to enjoy the health and spiritual 
benefits of outdoor recreation, we as a nation must invest in the 
management of these wonderful resources.
    One of USDA Forest Service's seven goals in its fiscal year 2009 
budget proposal is to ``Sustain and Enhance Outdoor Recreation 
Opportunities.'' Unfortunately, the administration's budget fails to 
provide the resources required to meet this important goal. Although 
recreation generates the greatest use and economic product of U.S. 
Forest System lands, the Recreation Program continues to be chronically 
under funded.
    The administration's budget recommends a 10 percent decrease for 
recreation which amounts to a reduction of $25.6 million. This includes 
the elimination of 296 employees.
    The Forest Service trails program is slated to be cut by 34 percent 
from $76 million to $50 million. This proposed cut will further 
increase the maintenance backlog as the Forest Service struggles to 
keep up with the 140,000 miles of trails it manages.
    Finally, the Forest Service will once again face uncertainty and an 
inability to undertake meaningful long-term planning as fire 
suppression costs dominate the budget, making planning difficult and 
distracting the leadership of the Forest Service.
    Appropriate funding will ensure that forests such as the Allegheny 
National Forests in Pennsylvania, the George Washington National Forest 
in Virginia, as well as the Mark Twain National Forest in Missouri will 
receive the proper maintenance so citizens will be able to enjoy these 
special places for years to come.
    Outdoor Industry Association strongly urges Congress to fund the 
U.S. Forest Service's Recreation Management, Heritage and Wilderness 
programs at $285 million; the Capital Improvement and Maintenance/
Trails program at $85 million; and fire suppression taken ``off 
budget'' so that leadership can manage other programs more efficiently.

       LAND AND WATER CONSERVATION FUND STATE ASSISTANCE PROGRAM

    The Stateside Land and Water Conservation program is the 
government's primary investment tool for ensuring that kids and 
families have access to close-to-home recreation. The LWCF stateside 
program has funded over 41,000 projects including sports fields, 
outdoor recreation facilities and trails. Outdoor Industry Association 
is working to rejuvenate the program as part of its goal to bring 
quality parks and trails within 15 minutes of every child in the United 
States.
    The Land and Water Conservation Fund (LWCF) was established by 
Congress in 1964 to meet America's needs for outdoor recreation 
opportunities, wildlife habitat conservation and open space. The LWCF 
Act directed Congress to allocate royalties from offshore oil and gas 
development for the purchase of land, waterways, wetlands, and other 
resource lands and to provide matching grant assistance for State and 
community open space and recreation projects.
    Despite this strong record of success, our Nation's need for 
recreation infrastructure continues to grow. In its 2007 Annual Report 
on the LWCF State assistance program, the National Park Service 
reported that States estimated their unmet need for outdoor recreation 
facilities and parkland acquisition at $15.6 billion. Additionally, 42 
of 50 States meet only 20 percent or less of their total estimated need 
for local outdoor recreation facilities and parkland acquisition. 
Clearly the need for matching Federal investment is profound.
    The bottom line is that Congress still has a responsibility to 
dedicate funding for stateside LWCF through the annual appropriations 
process.
    The stateside LWCF program is authorized by Congress to receive 
$450 million annually in funding, a level that has been met only once 
in its 30 year history despite a designated funding source.
    Between 2002 and 2005, the President requested, and Congress 
appropriated between $89 million and $140 million per year for the LWCF 
stateside program. In contrast, between 2006 and 2008, funding averaged 
only $27 million. Therefore we find the elimination of all funding for 
this program, as called for in the President's fiscal year 2009 budget, 
completely unacceptable.
    A few examples of successful recreational areas that were a direct 
result of the LWCF Stateside Program include: Reid Park in Riverside 
County, California; the Rio Grand Trail in Eagle County, Colorado; Sand 
Hill Park Sprayground in Chittenden County, Vermont; Harborside Park in 
Rockingham County New Hampshire; Rolling Mill Farm in Baltimore County, 
Maryland; Grand Vue Park in Marshall County, West Virginia; and Henry 
Horton State Park in Marshall County, Tennessee.
    Outdoor Industry Association strongly urges Congress to fund the 
Land and Water Conservation Fund State Assistance Program at $125 
million for fiscal year 2009.
    bureau of land management national landscape conservation system
    Over the past 50 years, recreation has clearly emerged as a major 
use of Bureau of Land Management lands. Unfortunately, staffing and 
funding for recreation doesn't match up to this reality.
    In June 2000, the National Landscape Conservation System was 
established to encompass the crown jewels of these BLM lands. The 26 
million acres that comprise the NLCS represent just 10 percent of BLM 
lands, yet account for one-third of BLM's total recreation use and 
generate one-half of the BLM's total recreation fees. However, less 
than 4 percent of BLM's funding is invested back into the Conservation 
System. A lack of funding means that vandalism, unmanaged recreation, 
increasing energy development, and neglect are harming these special 
places.
    Legislation has been recently introduced to give the NLCS 
congressional recognition which will ensure these lands remain a high 
priority for BLM and the Department of Interior. Unfortunately the 
legislation does not address budget shortfalls. The proposed funding 
level for fiscal year 2009 is set at $51.8 million, which if enacted, 
would be the lowest funding for the Conservation System since its 
creation in 2000.
    With 11 of the 15 fastest growing States in the country in the 
west, the NLCS is a new backyard for recreation and should be 
adequately funded.
    While the Conservation system is exclusively found in the Western 
part of the United States they are some of our most beautiful places. 
They include California Coastal National Monument in California; as 
well as the El Camino Real de Tierra Adentro National Historic Trail, 
the Old Spanish National Historic Trail, the Continental Divide 
National Scenic Trail, and the Kasha-Katuwe Tent Rocks National 
Monument in New Mexico.
    Outdoor Industry Association strongly urges Congress to fund the 
Bureau of Land Management National Landscape Conservation System at $70 
million for fiscal year 2009.

                         NATIONAL PARK SERIVCE

    OIA supports the administration's proposed increase of $161 million 
for the operations of the National Park Service. However, we are 
concerned that the proposed operations increase is offset by cuts to 
other important NPS programs such as recreation and preservation, land 
acquisition and maintenance.
    Outdoor Industry Association strongly urges Congress to increase 
funding for the National Park Service at the administration requested 
$161 million for fiscal year 2009.
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission

    Mr. Chairman, and honorable members of the committee, my name is W. 
Ron Allen and I serve as an Alternate Commissioner on the Pacific 
Salmon Commission (PSC) and as the Chair of the U.S. Section's Budget 
Committee. The U.S. Section prepares an annual budget for 
implementation of the Treaty. The integrated budget details program 
needs and costs for Tribal, Federal, and State agencies involved in the 
Treaty. Under the Bureau of Indian Affairs budget, the U.S. Section 
recommends that Congress:
    Fund the tribes' program at a restored funding level of $4,800,000 
for tribal research projects and participation in the U.S.-Canada 
Pacific Salmon Treaty process, an increase of $730,500 over fiscal year 
2008, plus pay-cost adjustments for the U.S./Canada Salmon Treaty line 
item, a subcategory under the Rights Protection Implementation, 
Wildlife and Parks, Other Recurring Programs Area.
    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
recommends that Congress:
    Provide base funding of $445,000 for USFWS participation in the 
Treaty process, and provide funding of $250,000 for the Pacific States 
Marine Fisheries Commission's Regional Mark Center.
    This base funding for the U.S. Fish and Wildlife Service will pay 
for the critically important on-going work. The funding for Pacific 
States Marine Fisheries Commission's Regional Mark Center is utilized 
to meet Treaty requirements concerning data exchange with Canada. These 
program recommendations are integrated with those of the State and 
Federal agencies to avoid duplication of effort and provide for the 
most efficient expenditure of scarce funds.
    A copy of the integrated U.S. Section Budget Justification has been 
made available to the Committee. The budget summary justifies the 
funding we are recommending today. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation of the Treaty and are used in cooperative programs 
involving Federal, State, and Tribal fishery agencies and the 
Department of Fisheries in Canada. The monetary commitment of the 
United States is matched by the commitment of the Government of Canada.
    The U.S. Section of the Pacific Salmon Commission is recommending a 
substantial adjustment to the funding for the work carried out by the 
twenty-four treaty tribes' that participate in the implementation of 
the Treaty. Programs carried out by the tribes are closely coordinated 
with those of the States and Federal agencies, but the tribes' efforts 
are now being hampered by forced staff reductions due to continuing 
reductions in funding for the Treaty program.
    We are strongly recommending maintaining base funding of $445,000 
for the U.S. Fish and Wildlife Service so the United States can 
maintain the critical database to implement the Treaty. We also 
strongly recommend funding of $250,000 to allow continuation of work 
carried out by the Regional Mark Processing Center. This work, 
maintaining and updating a coastwide computerized information 
management system for salmon harvest and catch effort data as required 
by the Treaty, has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission. The U.S. Fish and Wildlife Service will contract with the 
PSFMC to provide this service.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than 20 years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver Bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal coho salmon. In the Northern Boundary area between 
Canada and Alaska, fish from both countries are intercepted by the 
other country in large numbers. The Commission provides a forum to 
ensure cooperative management of salmon populations. In 1999, the 
United States and Canada successfully concluded lengthy negotiations to 
improve this management, including the adoption of coastwide abundance-
based management for Chinook salmon and a framework for abundance based 
management for southern coho populations. That agreement expires at the 
end of 2008 and negotiators are diligently working to complete a 
revised agreement.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The combination of these efforts is integral to achieving 
success in rebuilding and restoring healthy, sustainable salmon 
populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the twenty-four treaty tribes in Washington, Oregon, 
and Idaho goes far beyond their monetary value, to the cultural and 
religious lives of Indian people. A significant monetary investment is 
focused on salmon as a result of listings of Pacific Northwest salmon 
populations under the Endangered Species Act. Given the resources, we 
can continue to use the Pacific Salmon Commission to develop 
recommendations that help to ensure solutions that minimize impacts on 
listed stocks, especially if we are allowed to work towards the true 
intent of the Treaty: mutually beneficial enhancement of the shared 
resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your Committee. I want to thank the Committee for the 
support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section, through the 
Office of the U.S. Section Coordinator to answer any questions you or 
Committee members may have regarding the U.S. Section of the Pacific 
Salmon Commission budget.

      SUMMARY OF TRIBAL AND FISH AND WILDLIFE SERVICE PROGRAMS UNDER THE U.S.-CANADA PACIFIC SALMON TREATY
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal year
                                                        --------------------------------------
                                                            2008 actual            2009          Base increase
                                                           appropriation      recommendation
----------------------------------------------------------------------------------------------------------------
               Department of the Interior
 
Bureau of Indian Affairs, Wildlife and Parks, Rights
 Implementation:
    BIA................................................         $4,069,500         $4,800,000           $730,500
                                                        --------------------------------------
                                                            2006 actual                  2007
                                                           appropriation       recommendation
                                                        --------------------------------------
U.S. Fish and Wildlife Service, Anadroumous Fisheries:
    USFWS..............................................           $445,000            695,000           $250,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System

    Madame Chairwoman and members of the subcommittee: The Partnership 
for the National Trails System appreciates your support over the past 
14 years, through operations funding and dedicated Challenge Cost Share 
funds, for the national scenic and historic trails administered by the 
National Park Service. We also appreciate your increased allocation of 
funds to support the trails administered and managed by the Forest 
Service and your support for the trails in the Bureau of Land 
Management's National Landscape Conservation System. To continue the 
progress that you have fostered, the Partnership requests that you 
provide annual operations funding for each of the 25 national scenic 
and historic trails for fiscal year 2009 through these appropriations:
  --National Park Service.--$14.546 million for administration of 20 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction: $2.095 million for the 
        Appalachian, Ice Age, Overmountain Victory, Continental Divide 
        and Pacific Crest Trails. Feasibility Studies & Plans: $1.061 
        million for the Lewis & Clark, Overmountain Victory, and North 
        Country Trails.
  --USDA Forest Service.--$4.49 million to administer four trails and 
        $1 million to manage parts of 16 trails administered by the NPS 
        or BLM; Construction: $2.505 million for the Continental Divide 
        Trail, $1.35 million for the Florida Trail, and $1 million for 
        the Iditarod Trail.
  --Bureau of Land Management.--To coordinate its National Trails 
        System Program: $250,000; to administer the Iditarod National 
        Historic Trail: $648,000, the Camino Real de Tierra Adentro 
        National Historic Trail: $230,000, the Old Spanish National 
        Historic Trail: $331,000 and $2.379 million to manage portions 
        of 10 trails administered by the Park Service or the Forest 
        Service; $1,640,000 for operating five National Historic Trail 
        interpretive centers; Construction: $300,000 for the 
        Continental Divide and $200,000 for the Pacific Crest Trails.
  --We ask that you appropriate $4.5 million for the National Park 
        Service Challenge Cost Share Program and continue to direct 
        one-third ($1,500,000) for national scenic and historic trails 
        or create a separate $1.5 million National Trails System 
        Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and allocate it for the national 
        scenic and historic trails it administers or manages.
  --We ask that you appropriate $1.253 million to the National Park 
        Service Conservation and Outdoor Recreation office to support 
        the second year of a five-year interagency project to develop a 
        consistent system-wide National Trails System Geographic 
        Information System (GIS).
    We ask that you appropriate from the Land and Water Conservation 
Fund for land acquisition:
  --to the Forest Service: $16.25 million for the Pacific Crest Trail, 
        $7 million for the Florida Trail; $10.645 million for the 
        Appalachian Trail; $8.25 million for three National Forests for 
        the North Country Trail;
  --to the Bureau of Land Management: $5 million for the Oregon Trail 
        in Oregon and $2 million for the Nez Perce Trail in Montana;
  --to the Park Service: $4.75 million to grant to the State of 
        Wisconsin to match state funds for the Ice Age Trail and $2 
        million to grant to 7 states for the North Country Trail; 
        $4.275 million for the Appalachian Trail; $1 million for the 
        Overmountain Victory Trail.

                         NATIONAL PARK SERVICE

    We request $1.253 million to fund the second year of a 5-year 
interagency effort to develop a consistent GIS for all 25 national 
scenic and historic trails as described in the August 2001 report 
(requested by Congress in the fiscal year 2001 appropriation) ``GIS For 
The National Trails System.'' This builds upon work underway on the Ice 
Age, Appalachian, Florida, Oregon, California, Mormon Pioneer and Pony 
Express Trails to develop consistent information gathering and mapping 
that can be applied across the National Trails System. This funding 
will be shared with the Bureau of Land Management and the Forest 
Service.
    We support the administration's proposed $837,000 for the Connect 
Trails to Parks project to enhance the public's understanding of the 
National Trails System and its relationship to the National Park 
System.
    The $14.546 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the $975,000 funding increase provided for 
nine of the trails in fiscal year 2001, the $500,000 increases provided 
in fiscal year 2004, fiscal year 2005, and fiscal year 2006, and the 
$2,421,000 increase in fiscal year 2008--all provided by Congress.
    We request an increase of $727,000 to continue and expand Park 
Service efforts to protect cultural landscapes at more than 200 sites 
along the Santa Fe Trail, to develop GIS mapping, and to fund public 
educational outreach programs of the Santa Fe Trail Association. An 
increase of $826,000 for the Trail of Tears will enable the Park 
Service to work with the Trail of Tears Association to develop a GIS to 
map the Trail's historical and cultural heritage sites to protect them 
and to develop interpretation of them for visitors. Our requested 
increase of $298,000 for the Ala Kahakai Trail will enable the Park 
Service to work with E Mau Na Ala Hele and other community 
organizations to care for resources on the land and with the University 
of Hawaii to conduct archaeological and cultural landscape studies 
along the trail.
    The $921,000 we request for the 4,200 mile North Country Trail will 
enable the Park Service and Forest Service to collaborate more 
effectively while also providing greater support for the regional GIS 
mapping, trail building, trail management, and training of volunteers 
led by the North Country Trail Association, hastening the day when our 
nation's longest national scenic trail will be fully opened for use.
    The $898,000 we request includes an $110,000 increase to enable the 
Park Service to develop and begin to implement an Interpretive Plan for 
the Ice Age Trail. The other ongoing funding will help further 
development of the Trail GIS and continue to assist the Ice Age Park & 
Trail Foundation to better equip, train and support the volunteers who 
build and maintain the Trail and manage its resources.
    Feasibility and Planning Studies.--We request $250,000 to study the 
feasibility of an eastern extension of the Lewis & Clark Trail and 
$200,000 for a feasibility study of the location for a headquarters and 
visitor contact site for the Overmountain Victory Trail. We also 
request $611,000 for route planning, NEPA compliance work, a natural 
and cultural resource inventory, and community economic impact studies 
for the North Country Trail.
    Construction.--We request that you appropriate for construction and 
land stewardship projects $1.39 million for the Appalachian Trail, 
$250,000 for the Ice Age Trail, $100,000 for the Overmountain Victory 
Trail, $155,000 for the Continental Divide Trail, and $200,000 for the 
Pacific Crest Trail.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $4.5 million in Challenge 
Cost Share funding to the Park Service for fiscal year 2009 as a wise 
investment of public money that will generate public benefits many 
times greater than its sum. We ask you to continue to direct one-third 
of the $4.5 million for the national scenic and historic trails to 
continue the steady progress toward making these trails fully available 
for public enjoyment. We suggest, as an alternative to the annual 
allocating of funds from the Regular Challenge Cost Share program, that 
you establish a separate National Trails System Challenge Cost Share 
program with $1.5 million funding.

                          USDA--FOREST SERVICE

    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 16 other trails. We ask you to appropriate $4.49 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Full-time managers have been assigned 
for each of these trails by the Forest Service. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 650 miles of the North Country 
Trail, and sections of the Ice Age, Anza, Caminos Real de Tierra 
Adentro and de Tejas, Lewis & Clark, California, Iditarod, Mormon 
Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony Express, Trail 
of Tears and Santa Fe Trails, we ask you to appropriate $1 million 
specifically for these trails. We also request$1 million for the 
Chugach National Forest to begin to develop the Southern Trek of the 
Iditarod National Historic Trail.
    Work is underway, supported by funds you provided over the past 
seven years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association has built 100 miles of new Trail 
across Eglin Air Force Base, in the Ocala National Forest, Big Cypress 
National Preserve and along Lake Kissimmee and the Choctawahatchee 
River. FTA volunteers helped clear trees and other debris scattered 
across 850 miles of trail by four hurricanes in 2004. The Partnership 
requests an additional $1.35 million for trail construction in fiscal 
year 2009 to enable the Forest Service and FTA to build 21 more miles 
and to manage 3,418 acres of new Florida Trail land.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3,200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction needed to complete the Trail. To continue 
new CDT construction, begun with fiscal year 1998 funding, we ask you 
to appropriate $2.505 million to build or reconstruct 220 more miles.

                       BUREAU OF LAND MANAGEMENT

    While the Bureau of Land Management has administrative authority 
only for the Iditarod, El Camino Real de Tierra Adentro, and the Old 
Spanish National Historic Trails, it has on-the-ground management 
responsibility for 641 miles of three scenic trails and 3,115 miles of 
seven historic trails administered by the National Park Service and 
U.S. Forest Service. The significance of these trails was recognized by 
their inclusion in the National Landscape Conservation System and, for 
the first time, in fiscal year 2002, by provision of specific funding 
for each of them. The Partnership applauds the decision of the Bureau 
of Land Management to include the national scenic and historic trails 
in the NLCS and to budget specific funding for each of them. We request 
that you provide funding for the Bureau to begin to implement its 10 
Year ``National Scenic & Historic Trails Strategy and Work Plan.''
    We ask that you increase funding by $18.2 million to provide$70 
million as new permanent base funding for the National Landscape 
Conservation System and that you appropriate as new permanent base 
funding $250,000 for National Trails System Program Coordination, 
$648,000 for the Iditarod Trail, $230,000 for El Camino Real de Tierra 
Adentro Trail, $331,000 for the Old Spanish Trail, and$2,379,000 for 
management of the portions of the 10 other trails under the care of the 
Bureau of Land Management. We request $300,000 for construction of new 
sections of the Continental Divide Trail, $200,000 for maintenance of 
the Pacific Crest Trail; $1,640,000 to operate five historic trails 
interpretive centers and $1,500,000 for exhibits for the new California 
Trail Center in Elko, Nevada.
    We ask you to add $500,000 to the Challenge Cost Share program and 
direct the money for the National Trails System as you have done for 
many years with the Park Service's Challenge Cost Share program.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2008 and to direct the 
Bureau to include unit-level allocations by major sub-activities for 
each of the scenic and historic trails, and wild and scenic rivers--as 
the Bureau is proposing to do for the monuments and conservation 
areas--within a new activity account for the National Landscape 
Conservation System in fiscal year 2009. Existing accounts for 
Wilderness Areas and Wilderness Study Areas should also be included in 
this new National Landscape Conservation System activity account. The 
Bureau's lack of a unified budget account for National Trails prevents 
the agency from efficiently planning, implementing, reporting, and 
taking advantage of cost-saving and leveraging partnerships and 
volunteer contributions for every activity related to these national 
resources.

                    LAND AND WATER CONSERVATION FUND

    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the Land and Water 
Conservation Fund and that you make the specific appropriations for 
national scenic and historic trails detailed at the beginning of this 
statement, below, and in Attachment #2.
    Forest Service.--The $16.25 million we request for the Pacific 
Crest Trail will continue to support the work and acquisition underway 
by the Forest Service Lands Team and the Park Service National Trail 
Land Resources Program Center, protecting 12 miles of PCT in Washington 
and taking 34 miles off of roads in southern California. The $7 million 
requested for the Florida Trail will continue another successful 
collaboration between these two agencies to protect another 13 miles of 
Trail and the $10.645 million requested will protect sections of the 
Appalachian Trail in three national forests in two States. The $8.25 
million requested for the Ottawa, Superior, and Chequamegon-Nicolet 
National Forests will protect areas adjoining the North Country Trail 
in Michigan, Minnesota, and Wisconsin.
    Bureau of Land Management.--The $5 million requested for the Sandy 
River project will also preserve a section of the Oregon National 
Historic Trail in Oregon and the $2 million requested for the Upper 
Missouri River Breaks National Monument in Montana will preserve a 
significant site along the Nez Perce National Historic Trail.
    Park Service.--The National Trails System Act encourages States to 
assist in the conservation of the resources and development of the 
national scenic and historic trails. Wisconsin has matched $12.3 
million of fiscal year 2000 fiscal year 2006 and fiscal year 2008 LWCF 
funding with $18 million to help conserve the resources of the Ice Age 
National Scenic Trail by purchasing 35 parcels totaling 6,539 acres. 
Another 40 parcels are under negotiation, appraisal or option to 
purchase. All of the LWCF funds appropriated for the Ice Age Trail have 
been spent. The requested $4.75 Million Land and Water Conservation 
Fund grant to Wisconsin will continue this very successful Federal/
State/local partnership for protecting land for the Ice Age Trail.
    We also request $2 million to provide similar grants to the seven 
states along its route to close gaps in the North Country Trail and 
$4.275 million for the Park Service to acquire one parcel in New 
Hampshire and two in Virginia for the Appalachian Trail. The $1 million 
requested for the Overmountain Victory Trail will protect key links and 
sites in North Carolina, Tennessee, and Virginia.
    The essential funding requests to support the trails are detailed 
in Attachment #2.

         PRIVATE SECTOR SUPPORT FOR THE NATIONAL TRAILS SYSTEM

    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2007 the trail organizations fostered 720,935 
hours--an increase of 5 percent over 2006--of documented volunteer 
labor valued at $13,540,396 to help sustain the national scenic and 
historic trails. The organizations also raised private sector 
contributions of $8,064,293 to benefit the trails. These contributions 
are documented in Attachment #1.

 ATTACHMENT 1.--CONTRIBUTIONS MADE IN 2007 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                             Estimated  value
                      Organization                        Volunteer  hours    of  volunteer        Financial
                                                                                  labor          contributions
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference...........................            196,620         $3,690,557         $3,856,000
Camino Real Trail Association..........................              1,717             32,228              3,104
Continental Divide Trail Society.......................          \1\ 1,500             28,155              3,000
Continental Divide Trail Alliance......................             37,490            703,687            641,877
Florida Trail Association..............................             69,900          1,312,023            374,296
Ice Age Park & Trail Foundation........................             48,188            904,489            382,842
Iditarod National Historic Trail, Inc..................              1,900             35,663         \1\ 80,000
Amigos De Anza & others................................              6,789            127,430  .................
Anza Trail Coalition of Arizona........................              3,232             60,665  .................
Lewis & Clark Trail Heritage Foundation................             24,038            451,193            227,404
Mormon Trails Association..............................              3,164             67,835              7,318
Iowa Mormon Trails Association.........................                750             14,078          \1\ 1,820
Nebraska Mormon Trails Association.....................                125              2,346          \1\ 2,580
National Pony Express Association......................             34,275            643,342            146,180
Nez Perce Trail Foundation.............................              8,250            154,852             12,256
North Country Trail Association........................             44,000            825,880            273,000
Old Spanish Trail Association..........................             23,718            445,187            110,024
Oregon-California Trails Association...................             56,400          1,058,628            729,500
Overmountain Victory Trail Association.................              8,960            168,179             19,324
Pacific Crest Trail Association........................             62,515          1,173,406            867,000
Potomac Heritage Trail Association.....................              3,686             69,186                820
Santa Fe Trail Association.............................             47,115            884,349            277,626
Trail of Tears Association.............................             36,603            687,038             48,322
                                                        --------------------------------------------------------
      TOTALS...........................................            720,935         13,540,396          8,064,293
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.


                               ATTACHMENT 2.--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM REQUESTED FISCAL YEAR 2009 APPROPRIATIONS FOR THE NATIONAL TRAILS SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal year
                                             ------------------------------------------------
                Agency/Trail                       2008            2009                                                Project/programs possible with increased funding
                                               Congressional  Administration  2009  Partners
                                               appropriation      request         request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                PARK SERVICE
 
Ala Kahakai.................................        $420,000        $422,000        $720,000  Work with community partners to preserve resources; archaeological & cultural studies;
Appalachian.................................       1,327,000       1,481,000       1,719,000  Support ``A Trail to Every Classroom'' project with teachers and children, resource monitoring
                                                                                               through AT Mega-Transect project, & Comprehensive Facility Management;
Natchez Trace...............................          29,000          29,000          29,000  Planning & building new trail & bridges; backlog maintenance with SCA;
El Camino Real Tejas........................         176,000         176,000         176,000  Start up administration for new national historic trail;
El Camino Real Tierra.......................         271,000         271,000         271,000  Full-time administrator; implement CMP with Bureau of Land Management
California..................................         323,000         323,000         323,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
Captain John Smith..........................         349,000         351,000         351,000  Begin administration & Comprehensive Management Plan for new national historic trail;
Ice Age.....................................         788,000         796,000         898,000  Develop and begin to implement a Trail-wide Interpretive Plan;
Juan Bautista de Anza.......................         505,000         510,000         510,000  Trail site protection, interpretation & development projects; Outreach to schools;
Lewis & Clark...............................       2,026,000       2,036,000       2,036,000  Planning, coordination & support for local L&CNHT projects after the Bicentennial;
Mormon Pioneer..............................         205,000         205,000         205,000  Prepare & print Four Trails Auto Tour Route Guide for Wyoming, Utah/Idaho, Nevada;
North Country...............................         873,000         869,000         921,000  Provide regional services, GIS, and technical assistance for volunteers and partners;
Old Spanish.................................         227,000         227,000         227,000  Full-time administrator; continue preparing CMP with Bureau of Land Management;
Oregon......................................         378,000         387,000         387,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
Overmountain Victory........................         273,000         275,000         275,000  New route signs & interpretive exhibits; Historic Preservation Study of Gilbertown;
Pony Express................................         229,000         229,000         229,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
Potomac Heritage............................         278,000         397,000         397,000  Assistance to local agencies & organizations for planning & educational projects;
Santa Fe....................................         935,000         974,000       1,701,000  Preserve cultural resources; GIS mapping; produce interpretive media with SFTA;
Selma to Montgomery.........................         584,000         699,000         699,000  Trail interpretation in collaboration with citizen support organizations & local agencies;
Trail of Tears..............................         424,000         424,000       1,250,000  Develop GIS mapping, interpret Trail sites & provide new visitor facilities with TOTA;
National Trails to Parks....................         837,000         837,000         837,000  Projects to connect National Scenic or Historic Trails to National Parks.
NTS-Washington Office.......................         366,000         371,000         385,000  Program coordination and funding for special projects and training for staff & partners.
                                             ------------------------------------------------
      National Trails System................      11,823,000      12,289,000      14,546,000  Total National Trails System operations funding
                                             ================================================
Challenge Cost Share........................       2,343,000       2,380,000       4,500,000  One-third of $4.5 million for the National Trails System
Feasibility Studies, Plans & Projects.......  ..............  ..............       1,061,000  Feasibility Studies: Lewis & Clark NHT--$250,000; Overmountain Victory NHT--$200,000; Route
                                                                                               Planning, NEPA, Studies: North Country NST--$611,000
Trail Construction..........................  ..............  ..............       2,095,000  Appalachian NST--$1.39 million; Ice Age NST--$250,000; Overmountain Victory NHT--$100,000;
                                                                                               Continental Divide NST--$155,000; Pacific Crest NST--$200,000;
Interagency GIS Project.....................  ..............  ..............   \2\ 1,253,000  Development of GIS for National Trails System;
 
                     BLM
 
Iditarod Trail..............................         599,000         248,000         648,000  Collaborative management with other Federal agencies, Iditarod Trail organizations and State of
                                                                                               Alaska; bridges and cabins; Interpretive Plan; Iditarod Centennial activities;
El Camino Real de Tierra Adentro............          15,000          15,000         230,000  Collaborative administration and management with National Park Service; Full-time Trail
                                                                                               Administrator; Site certification and protection;
Old Spanish.................................         331,000         325,000         331,000  Full-time Trail Administrator; Collaborative administration and management with National Park
                                                                                               Service; Comprehensive Management Plan; Site interpretation;
Continental Divide..........................         383,000         280,000         450,000  Planning 71 miles of CDNST in Idaho, Montana and New Mexico; Full-time Liaison;
Pacific Crest...............................         189,000          65,000         100,000  PCNST maintenance in California and Oregon; Interagency management collaboration;
Juan Bautista de Anza.......................         116,000          76,000         100,000  Interpretive exhibits for Anza Trail in Arizona and California;
California..................................         179,000         126,000         179,000  California NHT resource inventories in Utah, Nevada and California;
Lewis & Clark...............................         620,000         647,000         750,000  Revise Comprehensive Management Plan; Coordinate with Nez Perce NHT & CDNST;
Mormon Pioneer..............................         307,000         227,000         250,000  Mormon Pioneer NHT resource inventories in Utah and Wyoming;
Nez Perce...................................         179,000          76,000         190,000  Revise Comprehensive Management Plan; Develop Interpretive Plan for Trail;
Oregon......................................          40,000          24,000         210,000  Interagency management collaboration and Oregon NHT resource inventories;
Pony Express................................         115,000         105,000         147,000  Marking Pony Express Trail in Utah and Nevada;
Potomac Heritage............................           3,000           3,000           3,000  ..................................................................................................
NTS--Coordinator............................  ..............  ..............         250,000  Program coordination and funding for special projects and training for staff & partners;
                                             ------------------------------------------------
      National Trails System................       3,076,000       2,216,000       3,838,000  Total National Trails System operations funding
                                             ================================================
Challenge Cost Share........................  ..............  ..............         500,000  Projects along the various national scenic and historic trails;
Interpretive Centers........................       2,628,000       1,240,000       3,140,000  Operating California, Casper, Oregon, and Sacajawea Interpretive Centers; Includes $1.5 million
                                                                                               for exhibits for California NHT Center in Elko, Nevada;
Construction of:
    Pacific Crest Trail.....................  ..............  ..............         200,000  Funding for maintenance and re-construction of Pacific Crest NST in California;
    Continental Divide Trail................  ..............  ..............         300,000  Funding for construction and re-construction of 71 miles of Continental Divide NST in Idaho,
                                                                                               Montana, and New Mexico;
 
               FOREST SERVICE
 
Continental Divide..........................       2,000,000       1,200,000       1,200,000  Continued support for full administrative responsibility and for consistent interagency
Florida.....................................       1,500,000       1,000,000         650,000   collaboration for each trail; support for consistent management with trail organization and local
Pacific Crest...............................       2,000,000       1,200,000       2,000,000   agency partners; trail brochures, signs, project planning etc.; Also $250,000 to administer new
Nez Perce Trails............................         640,000         300,000         640,000   miles of CDT; $200,000 for work of full-time Trail administrator and $100,000 for Optimal
                                                                                               Location Planning for PCT and $100,000 to increase Trail maintenance by volunteers coordinated by
                                                                                               PCTA; $650,000 to certify 150 miles of the Florida Trail and continue collaboration with Florida
                                                                                               Trail Association to inventory 430 miles and further develop Trail GIS; $92,000 for Nez Perce
                                                                                               Trail Foundation education and public outreach work and other projects;
                                             ------------------------------------------------
      Total.................................   \3\ 6,140,000   \3\ 3,700,000   \3\ 4,490,000
                                             ================================================
Appalachian, North Country, Ice Age,               1,015,000         300,000       1,000,000  Improved trail maintenance, marking, interpretation, archaeological studies, historic site
 Iditarod, California, Juan Bautista de                                                        protection and trailhead facilities for trail segments in National Forests; $200,000 to address
 Anza, Caminos Real Tierra Adentro & Tejas,                                                    deferred maintenance, remove blowdown trees on 30 miles of trail, make improvements and provide
 Lewis & Clark, Oregon, Old Spanish, Mormon                                                    liaison for collaborative management of the North Country Trail with National Park Service; Re-
 Pioneer, Overmountain Victory, Pony                                                           location and reconstruction of sections of the Appalachian Trail, replacement of major bridges
 Express, Santa Fe, Trail of Tears.                                                            and installation of toilets at shelters;
Construction of:                                                                              New trail construction and re-construction throughout these national trails.
    Continental Divide Trail................  ..............  ..............       2,505,000  Trail construction projects along the Continental Divide Trail: reconstructing or building 220
                                                                                               miles of trail in Montana, Idaho, Wyoming, Colorado and New Mexico;
    Florida Trail...........................  ..............  ..............       1,350,000  Trail construction projects totaling 21 miles of new trail, three bridges and boardwalks, two
                                                                                               trailheads and management of 3,418 acres in 33 tracts acquired by the Forest Service for the
                                                                                               Florida National Scenic Trail;
    Iditarod Trail..........................  ..............  ..............       1,000,000  Construction of the Southern Trek of the Iditarod NHT in the Chugach National Forest;
                                             ------------------------------------------------
      National Trails System................       7,155,000       4,000,000      10,345,000  Total: National Trails System funding.
                                             ================================================
Nat. Forest System Capital Improvement &          76,365,000      50,041,000      85,000,000  Trail maintenance and new trail construction throughout the National Forest System.
 Maintenance--Trails.
LWCF grant--FS Pacific Crest................       1,600,000  ..............      16,250,000  Forest Service acquisition of lands in southern California (Tejon Ranch & Agua Dulce), Oregon, and
                                                                                               Washington to preserve the scenic integrity of the Pacific Crest Trail.
LWCF grant--FS Florida......................         580,000  ..............       7,000,000  Forest Service acquisition of lands in the Northwest Florida Greenway near Eglin Air Force Base,
                                                                                               along Suwannee River, and adjacent to St. Marks National Wildlife Refuge.
LWCF grant--FS Appalachian..................       3,100,000  ..............      10,645,000  Forest Service acquisition of 10,020 acres in the Cherokee NF in Tennessee, 442 acres of Roan
                                                                                               Highlands in the Pisgah NF in North Carolina, and 75 acres at Wesser Bald in North Carolina.
LWCF grant--NPS Appalachian.................  ..............  ..............       4,275,000  Park Service acquisition of 4,772 acres at Mahoosucs Gateway in New Hampshire, 485 acres at New
                                                                                               River Crossing and the 170 acre Nelson Tract in Virginia.
LWCF grant--FS North Country................       1,000,000  ..............       8,250,000  Forest Service acquisition of 2,000 acres in the Sturgeon River Gorge Wilderness Area in the
                                                                                               Ottawa NF in Michigan; 90 acres at Chainsaw Sisters/Wolf Island in the Superior NF in Minnesota;
                                                                                               and 1,429 acres in the Chequamegon-Nicolet NF in Bayfield County, Wisconsin will protect
                                                                                               viewsheds along the North Country Trail.
LWCF grant--NPS North Country--States.......  ..............  ..............       2,000,000  Assistance provided to the States of Wisconsin, Michigan, Minnesota, New York, North Dakota, Ohio,
                                                                                               and Pennsylvania to protect threatened North Country Trail corridor and connect trail segments
                                                                                               across private land.
LWCF grant--NPS Ice Age--Wisconsin \4\......       1,378,000  ..............       4,750,000  Assistance provided to State of Wisconsin to protect threatened Ice Age Trail corridor and connect
                                                                                               trail segments across private land in Dane, Chippewa, Kewaunee, Langlade, Lincoln, Manitowoc,
                                                                                               Marathon, Polk, Portage, Sheboygan, Taylor, Washington, Waupaca and Waushara Counties.
LWCF grant--BLM Oregon......................  ..............  ..............       5,000,000  BLM acquisition of land along the Sandy River and Oregon Trail in Oregon.
LWCF grant--NPS Overmountain Victory........  ..............  ..............       1,000,000  Park Service acquisition of land to protect key links in the Overmountain Victory Trail near North
                                                                                               Cove in North Carolina and other sites in Tennessee and Virginia.
LWCF grant--BLM Nez Perce...................  ..............  ..............       2,000,000  BLM acquisition of land at Cow Island (a major site along the Nez Perce Trail) in the Upper
                                                                                               Missouri Breaks National Monument in Montana.
                                             ------------------------------------------------
      Total.................................       7,658,000  ..............      61,170,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes $261,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Funding request reflects budget detailed in Park Service GIS report delivered to Congress in January 2002.
\3\ Appropriation includes: funding for administration of the Continental Divide, Florida, and Pacific Crest National Scenic Trails and the Nez Perce National Historic Trail by full-time
  administrators for each trail and land acquisition teams for the Florida and Pacific Crest Trails.
\4\ This would be a grant to the State of Wisconsin to be matched at least 1:1.

     Prepared Statement of the Pelican Island Preservation Society

                                REQUEST

    (1) Increase operations and maintenance funding for the National 
Wildlife Refuge System to $514 million in fiscal year 2009
    (2) Provide $2 million of LWCF funding for land acquisition at the 
Pelican Island National Wildlife Refuge in fiscal year 2009 The Pelican 
Island Preservation Society, an all volunteer friends group with over 
350 members, mission is to support the Pelican Island National Wildlife 
Refuge. Our organization is greatly concerned about the major funding 
deficit for operations and maintenance (O&M) facing the National 
Wildlife Refuge System (NWRS), and the severe impact this is having on 
the Pelican Island National Wildlife Refuge and other refuges in the 
System. Our request is that O&M funding for the NWRS be increased to 
$514 million in fiscal year 2009, an increase of $80 million over the 
fiscal year 2008 funding level.
    The Fish and Wildlife Service reacted to the current funding crisis 
by developing workforce management plans last year. That process 
identified a total of 565 positions within the Refuge System which 
would either be left vacant or eliminated by 2009. Staff reductions of 
this magnitude are of special concern since most refuges were already 
understaffed when the process began. As an example of local impacts, 
the comprehensive conservation plan for the Pelican Island Refuge calls 
for a staff of nine permanent full time employees. As part of the build 
up to the 2003 centennial celebration of the establishment of the NWRS, 
and the Pelican Island Refuge, the staff was increased to six. Since 
then two positions have been lost. The workforce plan calls for the 
elimination of two more positions by 2009. In total, this represents a 
loss of 66 percent of the staff positions since 2003, and will leave 
only two employees to manage two urban refuges (the Pelican Island 
staff also manages the Archie Carr National Wildlife Refuge). Also, as 
part of the workforce plan, these refuges have been complexed under the 
Merritt Island Refuge which is located 50 miles to the north--not an 
effective management arrangement. No one on the Pelican Island Refuge 
staff has law enforcement authority.
    These kinds of personnel losses, plus the general lack of O&M 
funding, has resulted in major impacts on the protection and management 
of our magnificent wildlife refuges. Refuges cannot absorb personnel 
reductions of the magnitude being experienced and be expected to meet 
their wildlife objectives and their obligations to the American public. 
For example, public use programs will be reduced on many refuges, and 
eliminated on others. Environmental education programs for our children 
will be reduced. Habitat management needed to improve conditions for 
wildlife will be severely diminished. Surveys needed to monitor 
wildlife populations will be reduced. The control of invasive species 
will be cut back, resulting in the degradation of wildlife habitat. The 
ability to enforce regulations concerning trespass, dumping, boundary 
encroachment, etc., will be diminished.
    We are concerned regarding the inequitable distribution of resource 
management dollars among the four major Federal land management 
agencies. On a per acre basis, funding to manage national wildlife 
refuges is significantly lower than that allocated to manage national 
forests, national parks, and BLM lands. For example, The NWRS receives 
slightly over $4 per acre while the National Parks are allocated about 
five times that amount. We are not suggesting that the funding level 
should be the same, as the missions vary; however, the current 
disparity is totally unreasonable and the Congress should restore some 
equity as it contemplates future allocations.
    Invasive species are a major continuing problem facing refuge 
managers. Despite added emphasis on identification and control, 
valuable wildlife habitat continues to be lost. We urge the 
subcommittee to continue its strong support for the control of 
invasives. There is a critical need for land acquisition at the Pelican 
Island National Wildlife Refuge. In the late 1990's the integrity of 
the refuge was threatened by the proposed development of approximately 
300 acres of private lands which were surrounded by refuge and other 
public lands. In response to the emergency, the Congress, beginning in 
fiscal year 1999, appropriated sufficient funds to acquire most of the 
acreage. Unfortunately, one key tract of 47 acres was purchased by a 
developer and could not be acquired at that time. Fortunately, the 
tract has not been developed and is now available. In its comprehensive 
conservation plan, the refuge ranked the property as its highest 
priority for land acquisition. Containing 1,500 feet of natural 
mangrove shoreline along the Indian River Lagoon, the tract will serve 
as an important wildlife corridor to other refuge and public lands. The 
property has a high potential for habitat restoration based on work on 
similar properties. A contribution of Federal and nonfederal sources 
will be used to protect the 47 acres in its entirety. A $2 million 
appropriation from the Land and Water Conservation Fund in fiscal year 
2009 will begin the acquisition of this important property.
    In summary, the NWRS is facing a severe funding crisis which must 
be addressed quickly. We ask that the Subcommittee increase O&M funding 
for the NWRS to $514 million in fiscal year 2009. Further, we ask that 
the subcommittee support the goal of reaching an O&M funding level of 
$765 million by fiscal year 2013. Also, we ask that the subcommittee 
allocate $2 million from the LWCF in fiscal year 2009 to begin 
acquisition of a key parcel adjacent to the Pelican Island National 
Wildlife Refuge.
                                 ______
                                 
      Prepared Statement of the Penobscot River Restoration Trust

    The Penobscot River Restoration Trust, a not-for-profit 
organization whose members include the Penobscot Indian Nation and six 
conservation organizations, respectfully seeks your support for the 
request from Senator Snowe (ME) and Senator Collins (ME) for $1,000,000 
from the USFWS Recovery Resource Management Account and $1,000,000 from 
the National Fish Passage Program. As part of this request, we urge you 
to restore the Fish Passage Program to its fiscal year 2008 level of 
$11 million and reject the administration's attempt to cut $6 million 
from this successful program for fiscal year 2009.
    The Penobscot River Restoration Project is a nationally 
significant, large-scale, private-public collaboration to vastly 
improve migratory access to nearly 1,000 miles of historic habitat for 
sea-run fish. Working together, industry, the Penobscot Indian Nation, 
State and Federal Government, conservation groups and a diversity of 
public and private interests seek to restore the Nation's last, 
struggling runs of Atlantic salmon and 10 other species of sea-run fish 
to the Penobscot River. The project is designed to both maintain 
hydropower generation and restore native sea run fisheries, with 
benefits to fish, people and wildlife throughout the river ecosystem to 
the sea.
    To date, more than $10 million in private funds and $15 million in 
public funds (NOAA, USFWS) have been raised for dam purchase. The 
Penobscot Trust aims to exercise its option to purchase the dams as 
soon as possible, then implement the project by removing two dams and 
installing a fish bypass around a third as key steps to open up access 
to key fisheries habitat.
    A 2004 National Academy of Sciences report specifically mentioned 
the Penobscot Project as a key step towards restoring endangered 
Atlantic salmon. The project also promises to diversify and improve 
river-based recreation and related economic opportunities, and has 
received strong support from the public, communities and businesses 
within the Penobscot watershed. This project provides the USFWS and 
other Federal partners, with an effective plan to restore Atlantic 
salmon by opening up vast amounts of their blocked spawning habitat in 
the Penobscot.
    The project will also provide unique benefits to the Penobscot 
Indian Nation; a federally recognized sovereign tribe whose Reservation 
literally consists of islands and surrounding waters in the river. The 
project will render meaningful the Tribe's federally recognized 
sustenance fishery rights and reinvigorate river-dependent cultural and 
spiritual practices.
    The Penobscot River Restoration Project was recently awarded the 
Department of Interior's 2008 Cooperative Conservation Award and has 
been hailed as a landmark project of national significance. Given its 
potential use as a national model and its far reaching benefits, we 
urge the committee to continue its strong support for the project by 
funding it in fiscal year 2009.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the committee for past support of many tribal issues 
and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 25,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Interior--Bureau of Indian Affairs.--The 
Puyallup Tribe has analyzed the President's fiscal year 2009 budget and 
submits the following detailed written testimony to the U.S. Senate 
Subcommittee on the Interior, Environment and Related Agencies. We look 
forward to working with Congress to insure that funding levels for 
programs necessary for the Puyallup Tribe to carry-out our sovereign 
responsibility of self-determination and self-governance for the 
benefit of the 3,705 Puyallup tribal members and the members from 
approximately 355 federally recognized Tribes who utilize our services 
are included in the fiscal year 2009 budget.
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 25,000+ Native Americans from over 355 Tribes and Alaskan 
Villages. The Puyallup Nation Law Enforcement Division currently has a 
Chief of Police, 26 commissioned officers and two reserve officers to 
cover 40 square miles of reservation in addition to the usual and 
accustomed areas. Due to limited federal funding for law enforcement in 
Indian Country, only two officers are funded with Public Law 93-638 
funds. The officers are charged with the service and protection of the 
Puyallup Reservation seven days a week, 24 hours a day. With the 
continuing increase in population, increase in gang related activities 
on the Puyallup Reservation and the impact of the manufacturing of 
methamphetamines in the region, the services of the Puyallup Nation Law 
Enforcement Division are exceeding maximum levels.
    A major area of concern is the status of the Tribe's Detention 
Facility. Due to damages from the February 2001 Nisqually earthquake, 
we have had to relocate to modular/temporary facilities. Operated as a 
``regional detention facility'' the Puyallup Tribe was able to provide 
detention service to surrounding Tribes. Since the relocation to 
modular facilities the Tribe's ability to effectively and safely 
incarcerate detainees has been compromised due to the condition of the 
temporary detention facilities. These and other issues regarding the 
deplorable conditions existing in Indian Detention facilities are 
documented in the September 2004 report issued by the U.S. Department 
of Interior Inspector General's Office. In an effort to protect the 
safety and welfare of the native community the Puyallup Tribe has 
initiated the design and construction of a 28,000 square foot ``Justice 
Center'' to be located on the Puyallup Indian Reservation. The Justice 
Center will provide necessary facilities for the delivery of judiciary 
services including a Tribal Court, Court Clerk, Prosecution, Probation, 
Public Defender and Law Enforcement services including Police 
Headquarters and a 7,000 square foot, 28 cell ``Adult Detention 
facility''. As stated earlier, the current facility is inadequate in 
size/number of beds, was designed as a temporary facility and was not 
built to any Federal/State or tribal health or construction standards. 
The pre-planning phase for this project has been completed, an 
architectural firm has been hired to perform design services and it is 
anticipated that the Puyallup Justice Center will be completed in 
October 2009.
  --Request subcommittee support to fund the BIA Public Safety and 
        Justice Law Enforcement activities at the $229 million level 
        proposed in the fiscal year 2009 budget to operate law 
        enforcement services. While this amount only funds 60 percent 
        of law enforcement needs in Indian Country, the Subcommittee is 
        encouraged to issue directive language to the BIA to include 
        additional funding for law enforcement staffing in the fiscal 
        year 2010 budget;
  --Support from the subcommittee on the Tribes request to the 
        subcommittee on Commerce, Justice and Science for funding in 
        the amount of $5.25 million to construct the ``detention'' 
        portion of the Justice Center. The Tribe has committed $9.75 
        million in tribal revenue to construct the remainder of the 
        facility;
  --Support from the subcommittee to restore proposed funding cuts to 
        the Tribal Courts budget in the amount of $2.4 million for a 
        total fiscal year 2009 budget of $14,447,000 and at a minimum, 
        request that the Subcommittee issue directive language to the 
        BIA to include this amount as line item funding for the Tribal 
        Courts in the fiscal year 2010 budget.
    Fisheries & Natural Resources Management.--The Puyallup Tribe as 
steward for land and marine waters in the Usual and Accustomed fish and 
shellfish areas has treaty and Governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
regional community. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Indian and 
Non-Indian fisherman, and surrounding communities. Our Resource 
Management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish and shellfish 
resources. Existing levels of support are inadequate to reverse the 
trend of resource/habitat degradation. Resource management is 
constrained due to funding shortfalls. We seek support and endorsement 
in the following areas:
  --Tribal Fisheries Resource Management, Hatchery Operation and 
        Maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on numerous species. This 
        demand is increased due to the urbanized setting of the Tribe's 
        Usual and Accustomed treaty areas in the Pacific Northwest 
        Tribe. We request Committee support to increase base contract 
        funding in the amount of $350,000 for additional fisheries 
        staff. We further support the existing BIA hatchery maintenance 
        budget be increased to $1.5 million per year for the next 
        decade to meet basic infrastructure maintenance costs for 
        tribal hatcheries;
  --Washington Timber-Fish-Wildlife Program.--U.S./Canada Pacific 
        Salmon Treaty. The TFW and the U.S./Canada Pacific Salmon 
        Treaty programs has allowed for the expansion of tribal 
        participation in the state forest practice rules and 
        regulations and participate in inter-tribal organizations to 
        address specific treaties and/or legal cases which relate to 
        fishing rights, harvest and management. Tribes bring a high 
        level of skills and technical capabilities that if 
        appropriately funded, would greatly facilitate and enhance a 
        successful outcome in forest practices, regulations and greater 
        fisheries protection. However, base funding for these programs 
        are eliminated in the President's fiscal year 2009 budget. We 
        request Committee support to restore base funding of $1,713,000 
        for TFW and $1,772,000 for U.S./Canada Pacific Salmon Treaty 
        fiscal year 2009 budget. We further support the Northwest 
        Indian Fisheries Commission's request that the Subcommittee 
        issue directive language to the Bureau of Indian Affairs to 
        include this amount in their fiscal year 2010 budget;
  --Unresolved Hunting and Fishing Rights Program.--The Medicine Creek 
        Treaty secured the Puyallup Tribe and other tribes the right to 
        hunt on open and unclaimed lands. This treaty right is reserved 
        in the same paragraph that also reserved the right to fish and 
        gather shellfish. Unfortunately, the BIA program that is 
        designed to support this treaty activity has not received 
        adequate, if any, appropriations in the last several years. 
        Funds that were made available to tribes have been on a 
        competitive basis with a maximum amount per program due to 
        limited funding. The Puyallup Tribe has established a Hunting-
        Wildlife Management program that works cooperatively with 
        signatory Tribes to the Medicine Creek Treaty, Washington 
        Department of Fish and Wildlife, U.S. Forest Service and the 
        National Park Service. For further development and 
        participation in unresolved hunting issues, the Puyallup Tribe 
        is requesting Committee support to establish annual base 
        funding of $95,000 for the Hunting-Wildlife Management Program.
    Operation of Indian Programs & Contract Support Costs.--The 
President's fiscal year 2009 budget calls for $2.2 billion to be 
allocated to the Bureau of Indian Affairs, which is $100 million less 
than the fiscal year 2008 enacted level. Specifically for the Operation 
of Indian Programs, the Budget provides $1.98 billion, which is an 
overall decrease of $60 million from current levels. For the fiscal 
year 2009 budget, the Department of Interior reformulated its 
presentation of the Operation of Indian Programs funding. Previous 
formulations were based on Tribal Priority Allocations (TPA). The 
Interior's new format groups program funding according to functions 
which are; Tribal Government; Human Services; Trust-Natural Resources 
Management; Trust-Real Estate Services; Education; Public Safety and 
Justice; Community and Economic Development; and Executive Direction 
and Administrative Services. These budget functions include the 
majority of funding used to support on-going services at the ``local 
tribal'' level, including; law enforcement, natural resources 
management (fisheries), child welfare, housing, tribal courts and other 
tribal governmental services. These functions, as detailed in previous 
``TPA'' allocations have not received adequate funding to allow tribes 
the resources to fully exercise self-determination and self-governance. 
Further, the small increases ``TPA'' has received over the past few 
years has not been adequate to keep pace with inflation. At a minimum, 
we request your support and endorsement in the following;
  --Support by Congress to fund the Operation of Indian Programs fiscal 
        year 2009 request, at a minimum, at the enacted level in fiscal 
        year 2008 of $2,047,809, an increase of $59,519,000 over the 
        fiscal year 2009 President's request;
  --Support by Congress to restore funding for the Johnson O'Malley 
        Program in the amount of $16 million.
    Another concern the Puyallup Tribe has with the fiscal year 2009 
budget request is the on-going issue of contract support costs. The 
President's fiscal year 2009 budget request for contract support is for 
$147,294,000 which is the same as the enacted level in fiscal year 
2008. At a minimum, we request your support and endorsement in the 
following;
  --The Puyallup Tribe requests support by Congress to fund BIA 
        Contract Support Costs for fiscal year 2009 at $186,628,000, a 
        $39,334,000 increase over the President's fiscal year 2009 
        budget request. Full funding of Contract Support is a mandate 
        towards the full realization of Self-determination and Self-
        governance.
    DHHS Indian Health Service.--Funding for the Indian Health Service 
fails to meet the needs of health services for Native Americans. The 
Puyallup Tribe has been operating their health care programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to an expanding population in Tacoma and Pierce 
County, Washington. There are no IHS hospitals in the Portland Area so 
all specialties and hospital care have been paid for out of our 
contract care allocation. In recent years our Health Authority has had 
the highest patient visits in both medical and dental services in the 
Portland Area of Washington, Oregon and Idaho. It is operating at twice 
the capacity it was designed and staffed for. The Puyallup Tribe is now 
faced with having to subsidize the Puyallup Tribal Heath Authority when 
it's own tribal members constitute only 14 percent of the patient 
population. Because of the excessive demand for service we have added 
staff without the IHS funding to match the workload. An additional 
$5,317,945 million is needed to operate at this rate. The IHS Budget 
request is for $4.3 billion, an overall decrease of $21 million from 
the fiscal year 2008 enacted level. Budget analysis by the Northwest 
Portland Area Indian Health Board indicate that it will take an 
increase of $455 million to maintain current facilities and services in 
fiscal year 2009. We request congressional support for the fiscal year 
2009 IHS budget in the following areas;
  --Fund IHS Contract Support Costs at 100 percent. While the 
        President's budget includes an increase of $4.238 million for 
        Contract Support Costs funding, this will not fund tribe's 
        actual contract support costs. It is estimated that Contract 
        Support Costs shortfall has accumulated over the years in the 
        amount of $158.3 million. Support from the subcommittee is 
        requested to eliminate the Contract Support Costs shortfall in 
        the amount of $158.3 million and fund IHS Contract Support 
        Costs at $280.8 million;
  --We oppose the proposed elimination of the Urban Indian Health 
        Program, which was funded at $34.547 million in fiscal year 
        2008. We urge the subcommittee to restore funding in the fiscal 
        year 2009 budget for the Urban Indian Health Program, at a 
        minimum $34.547 million, and issue directive language to the 
        Indian Health Service to include this amount in their fiscal 
        year 2010 budget;
  --Fund the Puyallup Tribal Health Authority contract health care fund 
        an additional $5,317,945 to match documented expenditures paid 
        with Puyallup Tribal resources;
  --Index Contract Care to population growth and the medical inflation 
        rate. Contract care is most vulnerable to inflation since 
        services are provided by vendors constrained by IHS guidelines. 
        There are no IHS hospitals in the Pacific Northwest which makes 
        our clinic dependent on Contract Care for necessary specialty 
        referrals and hospital care. Contract Health Services should be 
        funded at $605.7 million for fiscal year 2009;
  --We oppose the elimination of the Diabetes Grant program and request 
        the Subcommittee to restore funding for this important and 
        effective program in the fiscal year 2009 budget in the amount 
        of $150 million;
  --The Indian Health Care Improvement Act (Public Law 94-437) provides 
        funding for the Indian Health Services and has been pending re-
        authorization since fiscal year 2000. Recently, the U.S. Senate 
        passed their version of the IHCIA and the U.S. House has 
        pledged to pass a companion bill this session. The Puyallup 
        Tribe of Indians supports all efforts by Congress and the 
        administration to pass the Indian Health Care Improvement Act 
        during the 110th session of Congress.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation

    As the President of the Quinault Indian Nation, I am submitting the 
priorities and funding requests for the 2009 Bureau of Indian Affairs 
and Indian Health Services Budgets as identified by my Tribal 
membership.
       summary of quinault indian nation tribal specific requests
  --$2.21 Million McBride Road Maintenance and Emergency Reservation 
        Exit Route BIA/Roads Maintenance Program
  --$762,000 for Blueback Restoration--BIA/Natural Resource Management/
        Rights Protection
  --$529,500 Methamphetamine Initiative/Prescription Drugs--BIA/Office 
        of Indian Services and IHS/Office of Behavioral Health
          regional and national requests and recommendations:
    BIA Requests:
    1. Restore Johnson O'Malley funds ($21.4 million); and Housing 
Improvement Funds ($13.6 million) to Tribal base programs,
    2. Provide $25 million General Increase to BIA Tribal Priority 
Allocation for inflationary and fixed costs,
    3. Provide $45 million increase for BIA Contract Support Cost 
(CSC), including Direct CSC,
    4. $500,000 for BIA Data Management funding of Office of Program 
Data Quality, and
    5. Support increases in the Office of Self-Governance for IT and 
Staffing.
    IHS Requests:
    6. Provide $486 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services (President's 
budget proposes a cut of $21.3 million),
    7. $152 million increase for Contract Health Services (CHS),
    8. $160 million increase for IHS for 100 percent Contract Support 
Costs (CSC), including Direct CSC,
    9. Restore $21 million for health care facilities construction, and
    10. Maintain annual funding for Special Diabetes Program for 
Indians (SDPI) at $150 million until new authority is enacted (Current 
extended authority for Special Diabetes Program for Indians will expire 
in 2009.)

                    THE QUINAULT INDIAN NATION (QIN)

    Located on the southwestern corner of the Olympic Peninsula, the 
Quinault Reservation is a land of magnificent forests, swift flowing 
rivers, gleaming lakes and 23 miles of unspoiled Pacific coastline. Our 
boundaries enclose over 208,150 acres of some of the most productive 
conifer forest lands in the United States. We were once sustained by 
the abundance of salmon runs, the land and trade with neighboring 
Tribes. The pride of our Nation is our people, our youth and our 
elders. We are the ``Canoe People'', the people of the cedar tree. The 
Quinault Indian Nation consists of the Quinault and Queets Tribes and 
descendants of five other coastal Tribes: Quileute, Hoh, Chehalis, 
Chinook and Cowlitz. There are 2,782 enrolled members of the Quinault 
Indian Nation and 1,929 living with the service area. Nearly 700 
people, both Indian and non-Indian, are employed by the Nation and its 
enterprises.

                 TRIBAL SPECIAL REQUESTS JUSTIFICATION

$2.21 Million McBride Road Maintenance and Emergency Reservation Exit 
        Route BIA/Roads Maintenance Program
    The Quinault Reservation is located in Grays Harbor County in the 
village of Taholah, Washington; a rural isolated and economically 
deprived area. The village of Taholah lies in a tsunami danger zone. 
The site of the village is barely above sea level and experts have 
determined that the sea level is rising because of global warming 
patterns. For Taholah, tsunami is a health and safety risk factor that 
we must live with everyday. The Quinault Reservation is interlaced with 
thousands of miles of roads that are left over from large logging 
contracts that ended in about 1980. Most of these roads do not have the 
required right-of-way and do not receive funding for maintenance.
    The village of Taholah is accessible via SR 109 that parallels the 
Pacific Ocean. The McBride Road, a single forest road, is the only 
escapement route available to the 1,000 community members of the 
Quinault Indian Nation living in the village of Taholah. Its state of 
disrepair necessitates that immediate action be taken to bring the road 
up to a Class B gravel road status to be used in cases of emergency. 
The cost for this project is $876,500 to repair 10.75 miles and could 
be accomplished within a 3-month time frame during dry weather 
conditions. The Project will create four new jobs in right-of-way 
acquisition and road engineering. And will impact about 400 jobs of 
timber workers, fishermen, and fishing guides that rely on these roads 
for their livelihood.
    Major portions of this route are at sea level. What is particularly 
important to understand is that the portions of this road above sea 
level are susceptible to mudslides. Two such mudslides have occurred in 
the past 2 years; the most recent occurrence was early December 2007. 
The road blocked access for 3 days. Medical needs for village people 
became an issue, while those in need of kidney dialysis were 
particularly affected. Some tribal members were able to evacuate the 
village by using another, longer alternate route. Still, this 
application is unsafe for use by the general public because the forest 
roads are not patrolled, well maintained, have limited signage and cell 
reception.
    The President's proposed budget for fiscal year 2009 has a huge 
reduction in the BIA Roads Maintenance Program indicating that Roads 
Maintenance is within the Indian Reservation Roads (IRR) provisions of 
the SAFETEA-LU. The funding for roads maintenance of the BIA Roads 
System is severely inadequate and only 25 percent of the needed IRR 
Road Construction funds can be used.

$762,000 for Blueback Restoration--BIA/Natural Resource Management/
        Rights Protection
    The Quinault River Blueback (Sockeye Salmon) Restoration Initiative 
is planned and designed to restore the production of sockeye (blueback) 
salmon in the Quinault River to historic levels. This unique and 
valuable stock of salmon is near collapse due mostly to degraded 
habitats in the upper Quinault River basin and in Lake Quinault. This 
habitat loss has occurred over the past century due to historic timber 
harvesting, property development, and infrastructure construction. 
Natural processes on the floodplain began unraveling in the late 1800s 
and the deterioration is continuing in the present time.
    An important and necessary component to the Blueback Restoration 
Initiative is the construction and development of a wastewater and 
water treatment facility at Amanda Park, a community where Lake 
Quinault meets the headwaters of the Quinault River. The system will 
serve tribal and surrounding community residents and eliminate raw 
sewage disposed into Quinault Lake/River.
    Currently, the conditions of exposed raw sewage in Amanda Park pose 
substantial and significant health and safety risks to our natural 
resources, the residents and our children. Last year, we closed a 
portion of Lake Quinault and the Quinault River to all swimming and 
water activities due to dangerous levels of e coli. Residents have had 
to clear their sidewalks and driveways of exposed raw sewage.
    In the final analysis, the Blueback Restoration Initiative is 
designed to halt the current habitat loss and deterioration and to 
repair and restore natural habitat forming processes and sockeye 
production on the Quinault floodplain. The project will help to restore 
the natural beauty and productivity of the Quinault River Valley, thus 
making it a more attractive tourism destination. Conditions that will 
result from implementation of this program will benefit other salmon 
stocks in the system and will serve to protect private property and 
public infrastructure. In addition, the program will provide local 
construction jobs during its implementation phase, and the restoration 
program will result in conditions that will improve and sustain 
commercial and sport fishing on the Quinault River.
    The project will also benefit local residents and businesses by 
reducing the likelihood of flooding. Implementation of the restoration 
program will help to avoid the burdensome and restrictive consequences 
of having the Quinault sockeye listed as threatened or endangered under 
provisions of the Endangered Species Act. It will protect and restore 
livelihoods of 100 commercial fishermen and 25 sport fishing guides in 
Grays Harbor County and the Quinault Indian Reservation. The program 
will also contribute partial support for approximately 20 jobs in the 
fish processing industry in western Washington. The program will 
provide employment for 10-30 laborers and equipment operators in Grays 
Harbor and Jefferson counties during construction phases of individual 
projects.
    The program plan calls for formation of public and private 
coalitions and partnerships to implement restoration actions. These 
relationships are being formed with the U.S. Forest Service other 
Federal and State agencies, North American Salmon Stronghold 
Partnership, and private property owners.
    This funding request is for implementation of current habitat 
restoration program plans and will include project design, engineering 
and construction, nutrient application to selected habitat areas, 
acquisition of data and materials for further planning and 
construction.

$529,500 Methamphetamine Initiative/Prescription Drugs--BIA/Office of 
        Indian Services and IHS/Office of Behavioral Health
            QIN Facts:
  --In 2004, tribal youth accounted for more than 40 percent of the 
        drug and alcohol related arrests
  --80 percent of students miss school because of alcohol or drug abuse 
        problems in the home
  --An Estimated 2 of every 5 children experiment with drugs or alcohol 
        by the age of 10 years old
  --The youngest self admitted user of Meth on our Reservation was 14 
        years old
    The QIN is designing a methamphetamine initiative to be responsive 
to the needs of the community it serves. This project will integrate 
and strengthen existing services that help to prevent and treat 
addiction, as well as coordinate and intensify efforts to reduce the 
access to and use of methamphetamine; thus reducing the harms 
associated with drug abuse. Approximately 227 activities are scheduled 
for this project and will effectively leverage the resources of 
existing service providers in our community. Activities will occur 
within six domains including: Prevention, Education, Treatment, Support 
Services, Law Enforcement and Supply Interdiction. New programs, that 
are culturally competent, will be introduced in our community to help 
those in treatment, children affected by meth, family members and 
elders, who are often mistreated and abused by addicted family members. 
Similarly, revised tribal codes are in place to support supply 
interdiction and drug trafficking on the reservation.
    The Quinault Nation Public Safety Division is partnering with 
multiple departments within the Nation to further develop the 
methamphetamine strategic plan. To date, they are drafting a Community 
Action Plan (CAP) that will incorporate local media, local departments, 
and the justice programs to educate members about the dangerous effects 
of drugs and alcohol. In addition, the Quinault Nation Public Safety is 
planning a mass mailing to its local members with regard to Turn- In-a-
Pusher (TIP).
    In closing, I thank you for the opportunity to submit our national 
priorities and requests. We truly appreciate the difficult position 
you're in when evaluating competing interests. We also recognize that 
you work very hard to meet the needs of every community and we trust 
that during your deliberations, you will do right by Indian Country and 
give the right level of deference to our needs. Thank you for this 
opportunity.
                                 ______
                                 
      Prepared Statement of the Red River National Wildlife Refuge

    Chairman Feinstein, ranking member Allard, and members of the 
subcommittee: I wish to thank you for providing the opportunity to 
testify regarding the fiscal year 2009 appropriations for the National 
Wildlife Refuge System. On behalf of the over 100 members of the Red 
River Refuge Alliance, the friends organization that supports the Red 
River National Wildlife Refuge in northwestern Louisiana, we request 
that the subcommittee support an overall funding level of $514 million 
for the operations and maintenance budget of the National Wildlife 
Refuge System.
    The National Wildlife Refuge System (NWRS) is vitally important to 
our Nation's wildlife and provides unparalleled opportunities to hunt, 
fish, watch wildlife, and educate children about the environment. Our 
548 refuges encompass almost 100 million acres; without increased 
funding, wildlife conservation and public recreation opportunities will 
be jeopardized. The NWRS suffers from a $3.5 billion operations and 
maintenance funding backlog. This backlog will only grow larger if 
current funding levels continue. While refuges received a substantial 
$39 million increase for fiscal year 2008, this funding level when 
adjusted for inflation still does not equal that of the refuge system 
centennial year of 2003. Because of this, refuges such as Red River 
struggle to meet basic wildlife conservation objectives. Funding 
shortfalls have led to downsizing of the refuge system workforce, the 
decline of refuge habitats and wildlife populations, aging facilities 
and infrastructure, the cancellation of many of the refuge system's 
public use programs, and increased crime on our public lands. Some 
refuges have been forced to close their doors to the public. Others 
have lost their onsite refuge managers. In many cases, one refuge 
manager has the responsibility for managing the operations and 
maintenance of multiple, often far-flung, refuges.
    According to the U.S. Fish and Wildlife Service's 2007 Banking on 
Nature report, nearly 35 million people visited national wildlife 
refuges in the lower 48 States in fiscal year 2006, generating over 
$1.7 billion of sales in regional economies and $185 million in tax 
revenues and supporting over 27,000 private sector jobs and almost $543 
million in employment income. This economic benefit is almost four 
times the amount appropriated to the Refuge System in fiscal year 2006. 
Eighty-seven percent of all refuge visitors travel from outside the 
local area. These visitors contribute to the local economy through 
patronage of local hotels, restaurants, outfitters, and gas stations, 
to name just a few examples. Refuges as local economic engines are 
especially important in Louisiana, the sixth poorest State in the 
Nation, according to the most recent information from the U.S. Census 
Bureau.
    Our refuges are much more than economic engines and their value 
can't be measured in purely economic terms. In a world where 
development continues to encroach on what remains of our wild places, 
refuges provide havens for wildlife and places of peace and beauty 
where people can go to renew their spirits.
    Our own refuge, the Red River National Wildlife Refuge, was created 
by Congress at the request of local citizens and the act creating it 
was signed into law on October 13, 2000. The refuge was established on 
August 22, 2002. According to the legislation, the refuge shall consist 
of approximately 50,000 acres of Federal lands and waters. To date, 
only one fifth of the total area authorized, or approximately 10,000 
acres, has been acquired. These lands were made unprofitable for 
agriculture due to the construction of the Locks and Dams on the Red 
River which raised the water table in low-lying adjacent farms. 
Continuation of the land acquisition process seems the fair thing to do 
for the land owners who are willing sellers to the refuge system. Tax 
increases were imposed on land owners adjacent to the waterway to fund 
many waterway improvement projects, due to the increased value of the 
land. The longer funding is delayed for the remaining authorized 
acreage, the more costly these acquisitions will be.
    Situated at the confluence of the Central and Mississippi Flyways, 
Red River NWR is the only refuge located in northwestern Louisiana, 
serving an area with a population of over 500,000 people. The 
congressionally mandated purpose of the Red River NWR is to provide for 
the restoration and conservation of native plant and animal communities 
on suitable sites in the Red River basin; provide habitat for migratory 
birds; and provide technical assistance to private land owners in the 
restoration of their lands for the benefit of fish and wildlife.
    Currently, the refuge consists of four management units: 
Headquarters in Bossier Parish, Bayou Pierre in Red River Parish, and 
Spanish Lake Lowlands and Lower Cane River in widely separated corners 
of Natchitoches Parish. These four separate noncontiguous units are 
spread out along 100 miles of the Red River. The North Louisiana 
Refuges Complex that provides additional support for our refuge is 100 
miles from the closest refuge unit of the Red River NWR and 200 miles 
from the farthest unit. All this presents major logistical and 
maintenance challenges for Red River's refuge manager, challenges that 
have been magnified by the lack of funding for any additional personnel 
for the refuge. Recently, our refuge manager took a position in the FWS 
Southeast Regional Office and Red River Refuge currently has no staff 
at all until a new manager is selected. This situation, coupled with 
the limited resources of the Complex, which must provide support for 
four other refuges in the northeastern part of Louisiana, means that 
needed wildlife habitat maintenance and restoration, infrastructure 
maintenance, and visitor services projects are suffering.
    The Red River Refuge Alliance, which I am honored to serve as 
President, is one of more than 230 refuge Friends groups, representing 
over 40,000 individuals throughout the United States who provide 
volunteer support for the U.S. Fish and Wildlife Service (FWS) and the 
National Wildlife Refuge System. The Alliance's members are dedicated 
wholeheartedly to the Red River National Wildlife Refuge and its 
mission. Our former refuge manager often worked many hours above and 
beyond what was required of him, including working weekends and on his 
day off, to carry out the mission of the refuge. We supported him in 
his efforts in any way we could as we will continue to do with his 
successor. To that end, we have contributed major financial support and 
manpower for the complete renovation of a building on the refuge for 
use as a temporary office and visitor center at the Headquarters unit 
of the refuge. We have contributed significant volunteer hours cleaning 
and landscaping a farm house on the Bayou Pierre unit of the refuge. We 
conduct bird surveys on the refuge; conduct outreach and environmental 
education in the local community on behalf of the refuge, and sponsor 
and staff public events on the refuge. One of our members spent many 
hours last year repairing and maintaining the irrigation system, water 
control structures, and refuge moist-soil impoundments that provide 
resting areas for waterfowl and wading birds.
    Friends groups can only do so much; the refuge cannot operate 
efficiently if it is too dependent on volunteer labor and outside 
funding. In order to provide the support and management needed to 
provide visitor services and wildlife protection at Red River, there is 
currently a need to secure sufficient, permanently assigned personnel. 
The personnel needs of the refuge include an administrative assistant, 
an assistant refuge manager, an outdoor recreation specialist, a 
wildlife biologist, a refuge law enforcement officer, an engineering 
equipment operator, and a maintenance worker. In contrast with its 
needs, Red River has been operating with a staff of one, the refuge 
manager, who has had the sole responsibility for caring for the 
refuge's widely distributed 10,000 acres.
    Because of this, many programs necessary to carry out the mandates 
of the refuge have not been possible or have not been able to be 
implemented on a timely basis. For example, active moist-soil 
management for the benefit of wintering waterfowl and other birds that 
utilize this type of habitat has not been attainable to date. 
Currently, grain production is used to address the shortages to 
effectively manage moist-soil habitat on the Lower Cane River unit. 
Under current funding/staffing limitations, cooperative farming is the 
only option available to the refuge to produce crops. Cooperative 
farmers for the Spanish Lake Unit and the Bayou Pierre Unit have not 
been located. These units both have moist-soil impoundments and the 
refuge does not have the funding to plant without assistance from local 
farmers. .
    The earliest explorers of the Red River Valley characterized the 
area as a floodplain forest rich in biological diversity. Over a period 
beginning in the late 1700's and early 1800's, some of this forest was 
gradually cleared. Then, in the 1960's and 1970's, mass clearing of 
marginal bottomlands took place to make way for agriculture, mostly 
soybeans. Most of the land that is now part of the Red River NWR 
consists of these degraded former agricultural lands, some of which 
have already been replanted in bottomland hardwood trees through carbon 
sequestration partnerships. This renewed forest on refuge lands will 
remove carbon from the atmosphere, providing cleaner air, in addition 
to providing shelter and food for refuge wildlife. New funding is 
necessary to continue the reforestation where appropriate and to 
restore other types of natural habitat on refuge land, including native 
prairies, which once grew in lush abundance.
    Invasive species control has been instituted but without personnel 
and funding for adequate and consistent control, invasive species, such 
as Chinese tallow trees and kudzu, will continue to crowd out native 
vegetation, resulting in habitat degradation. Ongoing biological 
monitoring is needed to protect and preserve native species of flora 
and fauna on the refuge and the FWS has partnered with local 
universities to conduct biological studies on the refuge.
    The Red River National Wildlife Refuge is located at the confluence 
of the Central and Mississippi Flyways and, as such, is part of a 
corridor of public and private lands and waters throughout Louisiana 
that provides critical stopover habitat for migrating birds. It is 
estimated that as many as half of all land birds that breed in eastern 
North America pass through Louisiana during migration. Habitat loss is 
the primary factor in the decline of both migratory and resident birds. 
Without funding for native plant community restoration and preservation 
and control of invasive species, the refuge might fail in its mission 
to provide habitat for these birds.
    Refuge roads and the area around buildings must be mowed regularly 
and hundreds of acres of moist-soil impoundments must be mowed and/or 
bush hogged annually so that willows will not grow up in the 
impoundments; in 2007 this was able to be accomplished only with the 
major assistance of a volunteer and the impoundments had to be flooded 
for the fall influx of wintering waterfowl area with an incomplete job. 
This will make the 2008 maintenance work more difficult because the 
willows are capable of surviving flooding and will be a year older.
    There are currently no facilities open for public use on Red River 
NWR; however, funding has been secured to build an education and 
visitor center at the Headquarters unit. This facility will be located 
within the Shreveport-Bossier metropolitan area with an estimated 
population of almost 400,000 people, and has the ability to attract 
thousands more annually because of its convenient location near the 
convergence of two interstate highways. The center is planned to be an 
educational resource for all visitors and especially school children to 
learn about, experience, and appreciate the unique Red River Valley and 
the natural world. The center with associated nature trails and other 
visitor amenities is expected to be completed by late 2010. Without 
increased funding for operations and personnel, including educational 
and outdoor recreation staff, there will be no way to serve the 
thousands of visitors expected when the center opens.
    Additional staff, equipment, and funding is also needed to 
adequately maintain existing needs and develop future infrastructure 
for public use activities and habitat management, including maintenance 
and construction of new roads and trails, construction of observation 
platforms, maintenance of water control structures, levees and refuge 
facilities, and maintenance of equipment and vehicles. Some refuge 
boundaries remain unmarked, which has created a law enforcement 
problem. At a minimum, roads must be maintained for access for FWS 
personnel for habitat maintenance and law enforcement. Although 
additional funding and personnel have been allocated by the North 
Louisiana Refuges Complex in years past for very minimal maintenance, a 
total of $20,000 a year, it is far from what is needed to meet FWS 
management goals. Routine maintenance jobs go undone for the simple 
lack of anyone to oversee them.
    The Red River National Wildlife Refuge although unique in several 
ways among refuges is not unique in its struggle to survive and thrive 
with insufficient staff and funding. On behalf of the Alliance, the Red 
River National Wildlife Refuge, and the entire National Wildlife Refuge 
System, I respectfully request that members of the Subcommittee will 
agree with us and increase funding for the NWRS in fiscal year 2009 to 
$514 million. This funding is so very vital for conserving and 
maintaining America's beautiful wildlife and natural resources not only 
for our generation to enjoy, but for future generations as well. Thank 
you for all that you do to ensure this.
                                 ______
                                 
 Prepared Statement of the Rock Point Community School, Navajo Nation, 
                                Arizona
    Rock Point Community School asks you to fund the following Bureau 
of Indian Education Programs at the levels noted:

------------------------------------------------------------------------
                                                           Requested
------------------------------------------------------------------------
Indian School Equalization Formula (ISEF)...........       $382,783,800
ISEF Program Enhancements...........................         12,000,000
Administrative Cost Grants..........................         66,000,000
Student Transportation..............................             ( \1\ )
Facilities Operations...............................         67,000,000
------------------------------------------------------------------------
\1\ $3.15 per mile.

    On behalf of the Rock Point Community School Board, I appreciate 
the opportunity to submit these views on the fiscal year 2009 budget 
request for the Bureau of Indian Education. Rock Point is a K-12 school 
responsible for the education of more than 400 Navajo children. Rock 
Point is a small community near Chinle in a remote part of the vast 
portion of the Navajo Reservation located in Arizona. For over 30 years 
the school has been operated by an elected all-Navajo school board 
through an Indian Self-Determination Act contract issued by the Bureau 
of Indian Affairs. Rock Point relies exclusively on Federal 
appropriations as the school is not part of the Arizona public school 
system.

               INDIAN SCHOOL EQUALIZATION FORMULA (ISEF)

    The ISEF appropriation funds our educational program. But year 
after year the amount supplied is insufficient to enable our school to 
provide the quality education program we want for Navajo children. It 
was most discouraging to learn that the fiscal year 2009 request--which 
will fund our SY2009-2010 programs--does not request any boost in 
program funding; its only increase is to cover ``fixed costs.'' 
Compared with the funding supplied 6 years ago, the fiscal year 2009 
request of $364.5 million is a mere 5.3 percent higher. This means that 
we are not even keeping up with inflation, so the allotment we will get 
for SY2009-2010 will effectively be less than the amount supplied 6 
years ago. Our costs, on the other hand, steadily increase. Quite 
frankly, it's as if the Federal officials who prepared this budget are 
saying that Indian children do not matter.
    Rock Point has not made Adequate Yearly Progress for the last 6 
years. The biggest impediment in our drive to meet AYP goals is our 
inability to attract and hold on to experienced, high quality teachers, 
as academic achievement must occur in the classroom or it does not 
occur at all. Without a sizeable increase in ISEF funding, we cannot 
hope to compete for staff with BIA-operated schools and public schools 
which pay far higher salaries than we are able to afford.
    For us, teacher recruitment is made even more difficult by our 
remote location. The small Rock Point community offers no housing 
market. Fortunately, some of our teachers come from Rock Point or 
nearby communities, but for those who do not we must provide housing in 
the Federally-owned quarters units on our campus. These rental units 
are very old and badly in need of repairs and upgrades, but they are 
all we have to offer. The housing units are literally crumbling and 
have become severe health hazards, as they were constructed using 
asbestos-containing materials. By most of today's construction codes, 
these units would be condemned. The substandard condition of our 
housing and the remoteness of the school from the amenities offered by 
even a small town compound our recruitment issues. Why do we continue 
to stay here despite these deplorable conditions? We believe that 
Indian children do matter. Please don't mistake the dedication we hold 
to our students as complacency with or acceptance of our situation, 
though. We continue despite our conditions because our children are 
important to us. We firmly believe that we should not be subjected to 
and persist with the conditions under which we currently live and work. 
We cannot do justice to either our staff or our students under the 
current budget constraints.
    Even a modest increase of 5 percent to the ISEF would greatly help 
Rock Point and other schools in the BIE system to meet their obligation 
to offer challenging academic programs, provide remedial education 
services for children who need extra help, and enable our students to 
achieve at the high levels we know they are capable of. We can put 
every additional dollar to use immediately--to fill chronic vacancies 
in the teaching staff, reduce staff turnover, and provide our students 
with modern educational tools.
    Our request.--We hope this committee will heed our prayers by 
increasing the ISEF budget by at least 5 percent this year and in the 
coming years as well. We need the Federal Government to make a firm 
commitment to the education of Indian children and to sustain that 
commitment over the long term. Please do not send the message that 
Indian children do not matter to you.

                       ISEF PROGRAM ENHANCEMENTS

    Rock Point applauds the committee for the ``education program 
enhancements'' funds it has supplied and strongly urges you to continue 
this funding. We cannot understand why BIE seeks to cut these 
enhancement funds by more than 50 percent.
    Our School received $150,000 in enhancement funds this year. With 
these resources and with the support of BIE program personnel, we are 
developing a Navajo reading program for our K-3 classes. Our theory is 
that by enhancing Navajo reading and literacy skills and fostering a 
love of reading in young children, their ability to become proficient 
readers in both Navajo and English will be enhanced. We hired a reading 
coach/translator who is translating reading materials into Navajo, and 
the teachers selected for the program are receiving professional 
development in the Reading First model. We are very excited about 
launching this innovative approach. But if funding for it is not 
continued in the new budget, we cannot offer the program and the 
investment we and you have made in it will have been wasted!
    Our request.--Please continue to fund ``educational program 
enhancements'' at least at the $12 million level set in the fiscal year 
2008 budget.

       ADMINISTRATIVE COST GRANTS AND BIA EMPLOYEE SEVERANCE PAY

    Once again, the BIA budget ignores the Federal law that requires 
the agency to fund the administrative costs of tribal organizations 
such as the Rock Point School Board who have taken over operation of 
schools under the Indian Self-Determination Act. The agency requests 
only level funding for these Grants--$43.4 million--despite the fact 
that five more schools will be taken over by tribes next year. This 
means that the agency thinks it is acceptable to support 130 schools 
next year with the same amount used to support 125 this year.
    As it is, BIA is only paying AC Grants at 65 percent of the level 
Federal law directs. See 25 USC Sec. 2008. When five more schools have 
to be supported from the same amount of money, the percentage supplied 
will likely fall below 60 percent. On the one hand the Indian Self-
Determination Act encourages tribes to have direct, hands-on 
responsibility for program operations, but on the other hand, and in 
defiance of the law, BIA consistently refuses to supply administrative 
funds to make those program operations possible. This is 
unconscionable.
    It is ironic that the only budget impact the agency mentions about 
the five schools that will convert to tribal operation is the need to 
pay the severance costs of the Federal employees at those schools who 
will be laid off. The $1.5 million BIA seeks for this is an 
administrative cost to the agency. How discouraging it is that BIA 
expects full funding for its administrative obligations, but pays no 
heed to the administrative cost needs of tribes and tribal 
organizations who operate the agency's programs. We hope you will move 
the $1.5 million requested for employee severance to the AC Grant 
account instead.
    AC Grant funding is supposed to cover all aspects of administering 
the school program, such as executive direction; accounting; auditing; 
financial, personnel and property management; and contract compliance. 
Our administrative budget is already at a bare-bones level. The further 
reductions the budget request would produce will severely compromise 
tribal schools' ability to properly administer programs and maintain 
prudent internal controls.
    Our request.--Please increase the AC Grant appropriation and 
require BIA to pay our administrative costs at 100 percent. Full 
funding will require at least $66 million so we ask you to consider 
that figure.

                         STUDENT TRANSPORTATION

    We don't understand how the BIA can ask to cut $1 million from 
student transportation when it knows that the cost of vehicle fuel 
continues to escalate and it will be even higher next year when SY2009-
2010 begins. Rock Point school buses travel approximately 600 miles 
every day; 60 percent of those miles are over rough, unpaved roads 
which means we have constant bus maintenance issues. When we do not 
receive sufficient resources to cover our transportation costs, we have 
to make up the shortfall out of our education dollars from the ISEF.
    Please increase student transportation funding to a level that 
enables us to receive $3.15/mile for our bus routes. We should not have 
to use our scarce education funds to help cover bus fuel, maintenance 
and driver salary costs.

                         FACILITIES OPERATIONS

    This is another account where BIA provides far less than the amount 
of calculated need. In the SY07-08 constrained budget, Rock Point 
received only 52 percent of the amount the facilities formula says we 
need to properly operate the buildings on our campus. Nearly every 
dollar we receive must be used to pay utility costs--which leaves very 
few dollars for other facilities operations, maintenance, and repairs. 
We are unable to conduct preventative maintenance, which poses great 
risk, as our boilers and other essential equipment are also old. We are 
so far behind in our upkeep and preventative maintenance, and we are 
getting further behind with each passing year because of insufficient 
funding and the OFMC backlog. Our school buildings, like our housing 
units, were constructed with asbestos-containing materials. We have had 
two incidents with asbestos being released at school, the most recent 
occurring the summer of 2006. Although the U.S. EPA determined in the 
90s the health risk that asbestos poses in most Navajo schools, the 
issue persists still to this day.
    We urge the committee to give this long-ignored facilities 
operations account renewed attention. It has had no meaningful increase 
in many years. Our schools are Federally-owned buildings and were built 
with Federal funds. They should be as safe, clean, well-maintained and 
comfortable for our occupants as any other Federally-owned building, 
including the Department of the Interior and Congressional office 
buildings.
    Our request.--Our suggestion is to add $10 million to the 
Facilities Operations item and fund it at $67 million.

                               CONCLUSION

    We at Rock Point do not take pleasure in having to beg Congress for 
funding year after year. But since the BIA school system is the 
exclusive responsibility of the United States (not of any State), it is 
our obligation to tell you what our true needs are since the BIA does 
not do so. Please carry out the United States' responsibility through 
its treaty obligations and its ethical duty to properly fund this 
school system so Indian children have an equal chance as that of their 
peers to learn and succeed in their educational pursuits and compete in 
the job market.
                                 ______
                                 
        Prepared Statement of Shoreline Education for Awareness

    The United States Fish and Wildlife Service needs a minimum 
operating budget of $514 Million for the National Wildlife Refuge 
System. This funding is essential for implementing the National 
Wildlife Refuge System Workforce Plan. Many refuges are critically 
understaffed. The ability of individual refuges to deal with research, 
wildlife habitat restoration and protection, invasive species, 
encroachments, and a multitude of other issues has been greatly 
compromised due to past years budget cuts. As a result, wildlife 
populations are under stress with limited ``safe havens'' to recover.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State

    My name is Dave Hererra, I serve as the Fish and Wildlife Policy 
Representative for the Skokomish Tribe. I am here to present testimony 
on behalf of Denese LaClair, Chair of the Skokomish Tribe of Washington 
State. The Skokomish Indian Reservation is a rural community located at 
the base of the Olympic Peninsula with a population of over 1,000 
people. The 5,300 acre Reservation is a fraction of the 2.2 million 
acre of the Tribe's Treaty area. The Skokomish Tribe appreciates the 
work of the Subcommittee and asks that you provide increased funding in 
areas that are key to the continuing development of tribal communities.

                   BUREAU OF INDIAN AFFAIRS PROGRAMS

    Indian Reservation Road Maintenance.--While many of the cuts in the 
President's fiscal year 2009 Budget proposal we have seen in the past, 
for the first time the administration has proposed a 50 percent 
reduction in the BIA road maintenance funds, from $26 million to $13 
million. The administration's justification for this cut is that 
SAFETEA-LU provided that 25 percent of the funding available to tribes 
for construction can now be used for road maintenance. Not only is the 
administration's proposal contrary to SAFETEA-LU but to the 
overwhelming statistics regarding the State of roads in Indian country. 
For the period between 1975-2002, while the incident of fatal crashes 
on Federal highways decreased by 2.2 percent, the number of fatal 
crashes on Indian reservations increased by 52.4 percent. The National 
Congress of American Indians has asked for the IRR maintenance program 
to be funded at $100 million. While this may not be possible, it 
certainly illustrates the absurdity of the administration's cut.
    For Skokomish, we have made road improvements and maintenance a 
high priority, because we know too well the impacts of having unsafe 
roads. Just last month, a 10-year-old boy was hit by a car riding his 
bicycle. If we had a shoulder and a sidewalk where the little boy 
entered the road, it is very likely that he would not have been hit by 
the car. However, under the administration's proposal instead of making 
these important road improvements, we will be forced to use these 
limited resources for road maintenance.
    Law Enforcement.--The Skokomish Tribe respectfully requests 
increased funding for our law enforcement programs within the Bureau of 
Indian Affairs. We commend the BIA's requested increase of $2.9 million 
for law enforcement services, but more needs to be done.
    In the last 11 years, the Skokomish Department of Public Safety has 
grown from 1 untrained officer, to a force of 10 Washington State 
certified/Washington State equivalency trained or BIA certified law 
enforcement officers. To be fully staffed at a baseline minimum for the 
area and scope of service that the Skokomish Department of Public 
Safety is tasked with, we need a total of 18 officers. Thus, we are 
almost 50 percent below what is needed to safely serve our community.
    To address this, we join in the Senate Committee on Indian Affairs' 
request for a $10 million increase over the fiscal year 2008 funding 
level. We also join the Senate Committee on Indian Affairs in its 
request that this funding be allocated proportionately to BIA and 
Tribal law enforcement agencies. Currently, the BIA proposes to use any 
increase to fill BIA law enforcement personnel positions, while the 
majority of law enforcement activity (78 percent) is undertaken by 
tribally operated police agencies. Thus, we propose that at least 78 
percent of any increase should be allocated to tribal law enforcement 
agencies.
    Tribal Courts.--The administration's proposed increase for 
policing, comes at the cost of Tribal Courts. The administration 
proposes a $2.5 million cut to the tribal court program. Having a fair 
and qualified judiciary is the bedrock of any government's justice 
system. Skokomish has long understood this. In 1963, the Skokomish 
Tribe was the first Tribe in the Northwest (and one of the first in the 
country) to institute a tribal court to address fishing violations on 
the Skokomish River. The first Tribal Judge was a 33 year old nurse and 
mother of five (at that time), Anne Pavel. Mrs. Pavel was not law 
trained nor had she received any judicial training. She was simply a 
dedicated tribal member, who understood the importance of regulating 
fishing on the Skokomish River. She held her first hearing in a 
building heated by a coal stove, with her brother as her court 
reporter.
    While the responsibility and scope of tribal courts have greatly 
increased in the 45 years since Mrs. Pavel's first hearing, the Bureau 
of Indian Affairs has not provided these important institutions with 
the commensurate level of funding. Today, Tribal Courts handle huge 
criminal, civil and juvenile dockets, which could not be handled by the 
already over burdened State and Federal courts. It is a sad reality 
that many tribal courts are still housed in ramshackle buildings. Most 
of our courts cannot afford to provide public defenders and many do not 
have law trained prosecutors. Fortunately, through the dedicated work 
our Tribal leaders most of our judges are now law trained. 
Nevertheless, the administration proposes a $2.5 million cut to this 
program. We urge the committee to reject this cut and to fund this 
program to at least $15 million--which is $700,000 more than last 
year's level.
    Education.--We remain disappointed by the administration's repeated 
proposed cuts to critical education programs like Johnson O'Malley and 
Higher Education. The Johnson O'Malley program provides funding to 
local public schools to provide outreach and academic assistance to 
Indian children attending these schools. The Skokomish Tribe is equally 
disappointed that the administration proposes a $6 million cut to 
scholarships and adult education. For any of our people who are lucky 
enough to be accepted into a 4 year college or a community college, it 
is important that the Tribe have some resources to help them succeed.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Skokomish Tribe would like to thank the committee for your 
commitment to maintaining funding for key environmental programs and in 
particular for the State Tribal Assistance Grant provided to the 
Skokomish Tribe for the development of our wastewater system. This 
effort is the linchpin to our collaborative efforts to the restore the 
health of the Hood Canal, the jewel of the Puget Sound. The Tribe, the 
County and the PUD are now working on an amendment to our historic tri-
party agreement, which will facilitate the implementation of the STAG 
grant.
    The Hood Canal is threatened by the Low Dissolved Oxygen levels 
(LDOL), which means this vital ecosystem is essentially suffocating. 
LDOL is caused by many things, but primarily the cause is the sewage 
that is discharged directly into the Hood Canal. LDOL has caused a 
number of fish kills in the Hood Canal and the Hood Canal to be closed 
to other seafood harvesting throughout the year. This impacts the 
economy of not only the Skokomish Tribe but the entire region. But to 
the Skokomish, it is much bigger than our economy it is our culture. 
The Hood Canal is the place where we have for centuries gathered and 
prayed. In recent times this has not always been possible. Just this 
year, one of our ceremonial women leaders had to step over dead fish to 
enter the water to pray. This is unconscionable and the dedicated 
effort to address this issue must continue.
    We urge the committee to reject the administration's proposed $134 
million cut to the Clean Water State Revolving Fund. Again, the 
Skokomish Tribe greatly appreciates the State Tribal Assistance Grant 
provided by the committee, but we have encountered a great deal of red 
tape at EPA in seeking to implement this grant, in particular with 
regard to the matching funds requirement. EPA requires that all the 
matching funds be in as we expend the EPA grant on a dollar for dollar 
basis. We would urge that that this requirement be changed so that the 
matching funds requirement be shown to have been met by the end of the 
grant. In alternative, the Tribe and the County have expended more than 
$600,000 to date in funds in planning and design of the wastewater 
system, which we would like EPA to consider as fulfilling the matching 
fund requirements.

                         INDIAN HEALTH SERVICE

    The need for increased funding for health care throughout Indian 
country is well known. Yet the administration proposes an overall net 
decrease of $21.3 million in funding for the Indian Health Service. 
This overall decrease does not even reflect the true cut that tribal 
programs will experience as a result of inflation and population 
increases. The Indian Health Service estimates that it needs a $144.1 
million increase to provide for IHS and tribal pay costs, medical 
inflation and population growth. This shortfalls will result in 
reductions in health services to patients and the reduction in health 
status for Indian people overall.
    At Skokomish, like Indian people throughout the Nation, we face 
disproportionately higher rates of diabetes and the complications 
associated with diabetes. Heart disease, cancer, obesity, chemical 
dependency and mental health problems are also prevalent among our 
people. We supports the unified tribal effort to increase funding so 
that all tribes receive 100 percent of the Level of Need Formula (LNF), 
which is absolutely critical for tribes to address the serious and 
persistent health issues that confront our communities. We understand 
that an additional $800 million is necessary to bring tribes to this 
level.

                         CONTRACT SUPPORT COSTS

    For both the Bureau of Indian Affairs and the Indian Health Service 
it is critical for the committee to fully fund Contract Support Costs. 
Currently IHS is facing a $110 million shortfall in Contract Support 
Cost funding and the Bureau of Indian Affairs is facing a $40 million 
backlog. This backlog has resulted in IHS refusing to enter into any 
new Indian Self-Determination Act contracts, which a Federal court has 
found to be illegal. The Indian Self-Determination Act, which allows 
tribes to take over BIA and IHS programs, is the only Federal program 
that has truly worked in Indian country. Study after study has shown 
that tribal governments operate these programs more efficiently and 
more effectively than the Federal Government. A key to this success is 
full funding for Contract Support Costs, which is to afford a tribe all 
the resources that the Federal Government would have to operate a 
program. Unfortunately year after year, Contract Support Costs are not 
fully funded and tribal programs are forced to absorb these costs 
through cuts in programs.

                 TRIBAL HISTORIC PRESERVATION PROGRAMS

    In 1995, Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. There are 
currently 76 tribes in the U.S. approved by the Secretary to administer 
historic preservation programs. These programs conserve fragile places, 
objects and traditions crucial to tribal culture, history and 
sovereignty. As was envisioned by Congress, more tribes qualify for 
funding every year. In fiscal year 2001, there were 27 THPOs with an 
average award of $154,000; there are now more than 50 THPOs, with the 
average now receiving approximately $50,000. Paradoxically, the more 
successful the program becomes, the less each tribe receives to 
maintain professional services, ultimately crippling the programs. We 
thank the Subcommittee for the $1 million increase provided to THPOs 
last year, but more funding is needed. We ask that $13.7 million be 
provided for Tribal Historic Preservation Officers (THPOs), which would 
provide a modest base funding amount of $180,000 per THPO program.

                               CONCLUSION

    I want to thank the subcommittee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    The Society of American Foresters (SAF), with over 14,000 forestry 
professionals located across the country in all segments of the 
profession, believes in sound and scientifically-based management and 
stewardship of the nation's public and private forests. Funding for the 
Department of the Interior (DOI) and the USDA Forest Service (USFS), 
both contained within the Interior, Environment, and Related Agencies 
Appropriations bill, play particularly important roles in maintaining, 
conserving, and improving the Nation's forests.
    The 755 million acres of forests in the United States are 
undergoing constant pressures from wildfires, insect infestations, and 
other catastrophic disturbances, conversion to competing non-forest 
land uses, and the effects of climate change on forest types and 
health, as well as on wildlife habitat. Simultaneously, our Nation's 
forests are expected to provide recreational opportunities (more than 
137 million annual visits to national forests alone), as well as supply 
the economic services and goods demanded by society. However, the 
direction in which Federal budgets are moving makes resisting these 
pressures and delivering these forest goods all the more difficult--in 
large part due to the increasing percentage of the agencies' budgets 
consumed by wildfire preparedness and suppression.
    The SAF remains concerned and committed to the sustainability of 
our Nation's forests. Such sustainability implies and demands a balance 
of the social, environmental and economic values realized from 
forests--a balance that is presently at risk of being upset. To help 
resist these pressures, to ensure the sustainable delivery of forest-
related goods and services, and to ensure the future of this critical 
natural resource, the SAF urges a focus in three funding areas and the 
range of programs within the DOI and USFS budgets that address these 
key areas (as outlined below). The SAF's key priorities are:
    1. Forest health on both public and private forests
    2. Forest research and inventory
    3. Private forest conservation

                             FOREST HEALTH

    Today, more than 190 million acres of Federal forests and over 90 
million acres of non-federal forests are threatened by a potent 
combination of wildfire, insects, diseases, invasive species, and other 
factors. To address these ongoing threats, sufficient resources must be 
allocated to management programs capable of preparing and mitigating 
for their effects. To adequately address these issues, the SAF urges 
funding levels above the administration's fiscal year 2009 proposed 
budgets for the forest health programs and wildland fire accounts in 
both the Forest Service and the Department of the Interior as outlined 
in detail below.
    Wildfire Suppression.--The SAF remains deeply concerned over the 
rising costs of wildfire suppression efforts, and more importantly, the 
increasing percentage of the agencies' budgets devoted to that 
activity.
    The borrowing of funds from non-wildfire accounts during the course 
of each fire season presents severe challenges to the agencies' other 
programs. This leads directly to the inability to deliver the goods and 
services demanded by society, and that are crucial to the agencies' 
missions. This is no more apparent than in the case of the Forest 
Service: the percentage of the agency's budget dedicated to wildland 
fire suppression has risen to 43 percent for fiscal year 2009. 
Suppression costs in the Forest Service alone are nearly $1 billion, up 
from less that $600 million only 7 years ago. This trend is forcing the 
agency to retreat to what it considers its ``core'' missions--which 
will in turn force undesirable effects on a large portion of the 
agency's programs, and on the forests that depend on those programs. 
Congress must, therefore, both address the consumption of critical 
agency programs by the ever-expanding wildfire budget, as well as 
continue to urge the agencies to adopt cost-containment measures and 
increased accountability for wildfire suppression activities.
    Reducing Hazardous Fuels.--Any effort to address wildfire threats 
mandates addressing the accumulation of hazardous fuels on the forested 
landscape. The USFS and the DOI programs to do so are critical 
components to ensuring forest health and reducing suppression costs 
over the long-term. Efforts by the agencies to treat such fuels should 
be prioritized to focus on Condition Class 3 lands, on restoring 
natural fires regimes, on mitigating and adapting to the anticipated 
effects of climate change on fire hazards, and on protecting at-risk 
communities where appropriate. The agencies should also be encouraged 
to better coordinate the expanded use of wildland fire to meet fuel 
reduction goals where suitable. The SAF supports the fiscal year 2008 
enacted levels for hazardous fuels accounts for both the USFS and DOI, 
and suggests fiscal year 2009 funding at or above those levels.

                     FOREST RESEARCH AND INVENTORY

    With 58 million acres of forest at significant risk for insect or 
disease mortality and with the available dollars for forest-related 
research falling nationwide, it is imperative that the funding for 
research provided by both the USFS and DOI not likewise diminish. 
Investments in forestry research are investments in the future health 
and suitability of both public and private forests nationwide. The 
Nation's forestry research is conducted by a number of entities, 
including Federal agencies, universities and private industry, with the 
majority of the Federal funding focused within the USDA Forest Research 
and Development Program. USFS R&D conducts essential research on 
pressing topics such as climate change, insect infestations and 
pathogen treatments, renewable energy development and woody biomass 
conversion technology, forest products research to maintain the 
competitiveness of the U.S. industry, and in areas such as social 
science to better understand how to improve the agency's relationship 
with the public and to better meet the public's needs. SAF urges a 
moderate elevation in funding to a level of $290 million for the USFS 
Research and Development program.
    Forest Inventory and Analysis.--Though now included within the 
broader Inventory and Monitoring R&D, the USFS Forest Inventory and 
Analysis (FIA) program is the backbone of forestry knowledge in the 
United States providing the only national census of forests across all 
forest ownerships. The program forms the foundation of much of the 
analysis that is occurring on national trends affecting forest lands, 
including forest fragmentation, forest health, and climate change 
effects. Through FIA, the USFS partners with State forestry agencies 
and the private sector in a unique data sharing relationship whereby 
the Nation as a whole truly benefits from this research. We strongly 
urge Congress to fully support the administration's proposed increase 
of $1.9 million and fully fund the FIA program at $73 million in fiscal 
year 2009--any FIA decreases resulting from proposed decreases in State 
and Private Forestry should be considered so that the FIA program does 
not see a net decline in funding.

                      PRIVATE FOREST CONSERVATION

    Private forests comprise some 427 million acres in the United 
States. All of these forests face a suite of challenges: forest health 
concerns, pressures to convert to non-forest uses as land values rise, 
and changing markets for forest products and overseas competition. 
Forty-four million acres of these forests are at substantial risk of 
increases in housing density in the next 30 years. In many ways these 
private forest are some of the nation's most important, as they can be 
managed for the broadest array of outputs--they are the source of the 
majority of the nation's wood supply, and provide recreational 
opportunities, wildlife habitat, and are a source of clean air and 
water, as well as an important aesthetic component to urban, suburban, 
and exurban regions. Programs within the USFS State and Private 
Forestry help encourage private forest landowners to continue to manage 
their lands as forests, and in a sustainable fashion. Maintaining these 
forests is becoming even more critical in light of the role of forests 
in carbon sequestration, and the resultant carbon emissions when those 
forests are lost. We are deeply concerned that the administration 
proposes such a drastic cut in the programs critical to private 
landowners within the State and Private area. The SAF strongly urges 
restoring the State and Private forest program to $207.5 million.

                                         U.S. DEPARTMENT OF THE INTERIOR
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal years
                                                                 -----------------------------------------------
                             Program                                                                 2009 SAF
                                                                   2008  enacted  2009  proposed  recommendation
----------------------------------------------------------------------------------------------------------------
DOI Wildland Fire Management Total..............................           808.0           850.1           941.1
                                                                 -----------------------------------------------
Preparedness....................................................           276.5           277.7           300.7
Suppression.....................................................           289.8           335.2           350.2
Hazardous Fuels.................................................           199.6           202.8           250.8
Joint Fire Science..............................................             5.9  ..............             5.0
                                                                 ===============================================
BLM Public Domain Forest Management.............................            10.6             9.5            10.6
                                                                 ===============================================
BLM OR and CA Grant Lands Total.................................           108.5           108.3           109.0
                                                                 ===============================================
Forest and Rangeland Research (R&D).............................           285.9           263.0           290.9
                                                                 ===============================================
State and Private Forestry......................................           262.8           109.5           207.5
                                                                 -----------------------------------------------
Forest Health Management--Fed...................................            54.1            45.0            50.0
Forest Health Management--Coop..................................            44.5            10.0            40.0
State Fire Assistance...........................................            32.6            25.0            30.0
Volunteer Fire Assistance.......................................             5.9             5.0             5.0
Forest Stewardship..............................................            29.5             5.0            20.0
Forest Legacy...................................................            52.3            12.5            45.0
Urban and Community Forestry....................................            27.7             5.0            15.0
Economic Action Programs........................................             4.2  ..............  ..............
International Forestry..........................................             7.4             2.0             2.0
                                                                 ===============================================
      National Forest System Total..............................         1,469.6         1,344.5         1,358.5
                                                                 -----------------------------------------------
Land Management Planning........................................            48.8            52.6            52.6
Inventory and Monitoring........................................           166.6           146.5           160.5
Recreation, Wilderness & Heritage...............................           262.6           237.0           237.0
Forest Products.................................................           322.5           322.7           322.7
Vegetation and Watershed Management.............................           177.4           165.3           165.3
                                                                 ===============================================
      Wildland Fire Management Total............................         1,943.5         1,976.6         2,107.6
                                                                 -----------------------------------------------
Preparedness....................................................           665.8           588.4           675.4
Suppression.....................................................           845.6           993.9           993.9
Hazardous Fuels.................................................           310.1           297.0           325.0
Rehab & Restoration.............................................            10.8  ..............            10.0
Fire Research and Development...................................            23.5            22.0            23.0
Joint Fire Sciences Program.....................................             7.9             8.0             8.0
NFP Forest Health--Fed..........................................            14.0            14.3            14.3
NFP Forest Health--Coop Lands...................................             9.9            10.0            10.0
NFP State Fire Assistance.......................................            50.0            35.0            40.0
NFP Volunteer Fire Assistance...................................             7.9             8.0             8.0
                                                                 ===============================================
      Capital Improvement & Maintenance.........................           488.8           405.8           410.8
                                                                 -----------------------------------------------
Facilities......................................................           121.8           119.6           119.6
Roads...........................................................           227.9           227.0           227.0
Trails..........................................................            76.4            50.0            55.0
Deferred Maintenance............................................             9.0             9.1             9.1
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of the Southern Appalachian Highlands Conservancy

    Madam Chairman and honorable members of the subcommittee: As a 
Trustee of the Southern Appalachian Highlands Conservancy I appreciate 
the opportunity to provide testimony on behalf of an important land 
acquisition funding need in the Pisgah National Forest in North 
Carolina. I am supporting an appropriation of $1.875 million from the 
Land and Water Conservation Fund (LWCF) in fiscal year 2009 to acquire 
the 290-acre Roan/Atria parcel in the Roan Highlands.
    As you know, Mr. Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    Modern American forestry began in what is now the Pisgah National 
Forest. This ``Cradle of Forestry'' came into being when the Biltmore 
Forest School--the first American school of forestry--was opened in 
1898 on property owned by George Vanderbilt. After Vanderbilt's death 
in 1914, the area was sold to the Federal Government and became one of 
the first portions of the Pisgah National Forest. The first forest 
supervisor was Gifford Pinchot, who later became the first chief of the 
U.S. Forest Service.
    The Toecane Ranger District of the Pisgah National Forest lies 
north of Asheville between the Blue Ridge Parkway just and the 
Tennessee State line. Its name is a combination of the names of the two 
main rivers in the area, the Toe River and the Cane River. With its 
spectacular wildflowers, the Toecane Ranger District contains some of 
the most beautiful mountain scenery in the east. Some of the main 
identifying features of the district are Roan Mountain, which straddles 
the North Carolina-Tennessee border, and Mt. Mitchell, the highest 
point in North Carolina.
    The Appalachian National Scenic Trail is the Nation's oldest and 
most revered long-distance trail. Established in 1925, it was 
designated the Nation's first national scenic trail in 1968. The 
Appalachian Trail crosses six national parks, eight national forests, 
14 States, and numerous State and local forests and parks. Recreation 
opportunities along the trail include hiking, camping, hunting, 
fishing, observing wildlife, rock climbing, and picnicking. The trail 
as a whole includes lands containing more than 2,000 rare, threatened, 
endangered, and sensitive plant and animal species. The Appalachian 
Trail covers 17 miles over the Roan Highlands, which include Roan 
Mountain in the Toecane Ranger District of the Pisgah National Forest. 
This section of the trail over the Roan Highlands contains some of the 
most scenic views on the entire trail.
    The Roan Highlands are home to the best remaining examples of three 
endangered high-elevation ecosystems: grassy balds, red spruce/Fraser 
fir forests, and granite outcrops and cliffs. On the Roan massif there 
are more nationally or regionally ranked rare species then at any other 
site in the Southern Appalachians. The Roan Highlands also contains the 
world's largest natural rhododendron garden, covering 600 acres.
    The 290-acre Roan/Atria tract on Big Yellow Mountain is located 
within the Roan Highlands and makes up fifty-percent of the viewshed 
from the Appalachian Trail's Overmountain Shelter. Additionally, it is 
within the viewshed--and joins the corridor--of the Overmountain 
Victory National Historic Trail, which follows the Revolutionary War 
route of Patriot militiamen. The tract comprises much of the east slope 
of Roaring Creek Valley, which was identified as the ``Prettiest Valley 
in America'' by Backpacker Magazine in October 2007. The Roan/Atria 
tract is comprised of northern hardwood forest, old-growth beech and 
oak groves, and includes portions of the globally imperiled Southern 
Appalachian Grassy Bald ecosystem. Home to black bear, ruffed grouse, 
wild turkey, the tract is part of a critical wildlife corridor 
identified in the State Wildlife Action Plan. It also contains Sandbank 
Creek, which holds the native Southern Appalchian Brook Trout, and 
hosts the upper watershed of the North Toe River, a high quality trout 
stream. The entire tract is identified as an Audubon IBA (Important 
Bird Area.) The Roan/Atria acquisition would join 17,000 acres of 
already protected lands, including adjacent Pisgah National Forest 
lands, the Nature Conservancy's Big Yellow Mountain Preserve, and 
preserves owned by the Southern Appalachian Highlands Conservancy.
    This subject land is under immediate threat of development into 
vacation homes. The landowner has already received county approval on 
plans for 107 home lots. In fiscal year 2009, $1.875 million from the 
Land and Water Conservation Fund directed to the Pisgah National Forest 
is needed to permanently acquire and protect the Roan/Atria tract and 
preserve the Appalachian Trail viewshed for future generations. These 
funds will be matched by $1.85 million in private donations, 
significantly reducing the cost of acquisition to the federal agency. 
In addition, the funds will leverage a 150 acre donated conservation 
easement from the landowner, bringing to 442 acres the area under 
protection. The contract agreement, which is currently being reduced to 
writing, secures the site until December 31, 2008.
    Thank you again, Madam Chairman, for the opportunity to present 
this testimony in support of protecting this important property in 
western North Carolina.
                                 ______
                                 
                  Prepared Statement of Marie Springer

    Madam Chairman and Honorable Members of the Committee: I am 
grateful to have the opportunity to submit testimony for public witness 
on Department of the Interior agencies. I write to you in support of 
$1,006,500,000.00 last year's level and $38 million more than the 
$968,500,000.00 of the Presidents budget for the United States 
Geological Survey, fiscal year 2009. Their focus is on research as a 
priority for fiscal year 2009. I would like to see the Biological 
Information Management and Delivery Department be funded at $22,596,000 
at last years level with a staff of 72, this department is suffering 
staffing cuts as every other department in the USGS is. The information 
these people produce is essential to the overall well being of the 
citizens of this country, just as the Centers for Disease Control is 
essential to the health an well being of the American public. The USGS 
is the one Federal Agency that conducts and maintains data in a uniform 
consistent system available for all agencies and the general public.
    I am a Beekeeper. By now, I am sure you have all heard of Colony 
Collapse Disorder, of the Honey Bee. There have been many hearings on 
this issue and some funds have been awarded for research on this 
matter. The Honey Bee is only one pollinator of many in our country. 
Many researchers feel they are all in decline.
    Bees and wasps are a linchpin species in the ecological system, 
meaning the rest of the food chain depends on them for their food 
sources. Seventy five percent of all human food sources are pollinated 
by bees or wasps. Honey bees are just one of about two dozen introduced 
species of bees to this continent. Besides the honey bees there are 
about 800 native bees on the Eastern side of the United States and more 
than 2,000 on the West coast of our country. Wasps are another family 
that also pollinate and serve a beneficial purpose in the food chain. 
We need accurate counts on all these pollinators, in order to fully 
understand declines in populations and their influence on pollination 
of crops.
    The United States Geological Survey, with many partners, is 
conducting a Native Bee Survey, nationwide. This research sampling 
collecting and compiling is being done by the USGS, the United States 
fish and Wildlife Service, national Parks Service Army Scientists, 
Smithsonian, the American Museum of Natural History many Universities 
and their Graduate and Doctoral students, Interns as well as average 
Joe-citizen volunteers, like me.
    This research requires individuals going out into the field every 
few weeks to trap and collect bee specimens. After cleaning drying and 
pinning the specimens there are hours of identification under a 
microscope. The USGS, with its partners, have held and continue to hold 
Bee Identification courses for free in order to have enough researchers 
with the skills to identify the many bee species.
    The research is not only significant to the over all environment 
but also specifically to agriculture industry. Honey Bees will always 
be vulnerable to pathogens and parasites because they are not native 
and their immune systems are more vulnerable than native species. CCD 
has made it clear we must ready our selves with alternative sources for 
pollinating crops. The USGS is conducting that research in coordination 
with other agencies. We must perform more research on the types of bees 
and the quantities of native bee species. We need accurate numbers to 
determine if we have lost species since the last studies were performed 
40 years ago. With this information we can begin to chart what bees 
pollinate what plants. There are plant species that are also 
diminishing, we can begin to look at whether or not those plant species 
are loosing their pollinators. We also need this data to determine what 
invasive plant species are being pollinated by which bee species.
    The USGS is charged with performing Surveys and data collection 
that are used by other Federal agencies such as United States Fish and 
Wildlife, Department of Agriculture, Department of Forestry, National 
Parks, Army Corp of Engineers, Department of Defense, the Bureau of 
Land management, Department of Commerce, NASA, Water Resources, many 
non-governmental environmental organizations as well as State and local 
governments and private industry. Just as the bees are a linchpin 
species in the environment, the USGS is a linchpin in Federal Agencies 
and the source for scientific data. The USGS data collection is the 
basis for much of the scientific and environmental priorities in our 
Nation. This country is completely dependent on the research and data 
collection of the USGS. Please take this into consideration in your 
funding priorities.
    Thank you for taking the time and consideration.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe

    Thank you distinguished members of this subcommittee for allowing 
me to submit my testimony on behalf of the Squaxin Island Tribe for our 
funding requests in the fiscal year 2009 Budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS).
                        tribal specific requests
    1. 12 percent increase in Contract Health Service in the IHS to 
address inflation and shortfall in the IHS Operating Plan.
    2. $750,000 for Public Health and Safety of the Squaxin Island 
Community in the BIA.
    3. Fulfill Puget Sound Regional Shellfish Settlement Commitment in 
the BIA.

             SUPPORT REGIONAL REQUESTS AND RECOMMENDATIONS

    1. Northwest Portland Area Indian Health Board
    2. Affiliated Tribes of Northwest Indians
    3. Northwest Indian Fisheries Commission
   support self-governance and national requests and recommendations
Indian Health Service
    1. $160 million increase for 100 percent full funding for IHS 
Contract Support Cost
    2. $486 million increase for IHS mandatory, inflation and 
population
    3. $152 million increase for Contract Health Service in IHS to 
support total request of President and House/Senate Indian Affairs 
Committees of Jurisdiction
    4. Increase $5 million to the Indian Health Service Office of 
Tribal Self-Governance
    5. Restore funding for Urban Indian Health Program
Bureau of Indian Affairs
    1. $25 million increase for Tribal Priority Allocations (TPA)--
general increase for core programs
    2. $50 million increase for 100 percent full funding of direct and 
indirect contract support costs
    3. Tribal Government--Self-Governance: Restore $13.6 million in 
Housing Improvement Program (HIP) in BIA-Tribal Priority Allocation 
Account and $21.4 million in Johnson O'Malley Assistance Grants (JOM)
    4. Address 45 percent unmet need for Law Enforcement officers and 
provide annual increases in Tribal Public Safety and Health programs 
for Tribal communities
    5. Support all requests and recommendations of the National 
Congress of American Indians and National Indian Health Board
    The Squaxin Island Tribe, a signatory of the 1854 Medicine Creek 
Treaty, is located in Kamilche, Washington in SE Mason County. The 2008 
year-end Tribal member enrollment was of 930. Squaxin has an estimated 
service area population of 2,767, a growth rate of about 10 percent, 
and an unemployment rate of about 30 percent, according to the BIA 
Labor Force Report. According to the Mason County Economic Development 
Council, Squaxin is the largest employer in Mason County.

               RESCISSIONS ON FUNDING FOR INDIAN PROGRAMS

    The Squaxin Island Tribe requests that the Committee includes 
language in the appropriations bill that will direct the Bureau of 
Indian Affairs and the Indian Health Service not to impose rescissions 
on funds for Indian programs. Funds that are already inadequate to 
address the level of need of the Tribal beneficiaries should not be 
subjected to additional reductions. However, if a mandatory rescission 
is applied to all Federal programs, we ask that Indian programs not be 
required to absorb a disproportionate loss of funds with a double 
rescission on these funds.

                TRIBAL SPECIFIC REQUESTS JUSTIFICATIONS:

    1. 12 percent increase in Contract Health Service in the IHS to 
address inflation and shortfall in the IHS Operating Plan.--The Squaxin 
Island Tribe's Sally Salvage Clinic serves approximately 2,000 patients 
every year. Twenty-three percent of the patients are children under 18 
and about 20 percent are over age 55. The President's budget proposes a 
$9.0 million increase over the 2008 enacted level, which is still 
insufficient to address the need that exists and continues to rise in 
Indian Country. For contract health-dependent areas like the Northwest 
with no IHS hospitals in the area, we have to purchase specialists' 
services, laboratory and radiological services and hospital care at 
undiscounted rates. The proposed increase for 2009 will be less than an 
$11,000 increase in our Contract Health Services budget will not cover 
our increased costs for radiology or labs, much less the increases we 
expect to pay for hospital care.
    The Squaxin Island Tribe, despite redirecting own-source revenues 
to its health program, continues to defer needed medical care for its 
tribal members and other Indian patients. Despite innovative practices 
and the addition of a one day a week Indian Medical Doctor this year, 
the Tribe's contract health services budget is insufficient to pay for 
needed care. The Tribe would much prefer to provide care through its 
IHS program, but the reality is that many will have to forgo needed 
care, apply for hospital charity care, or see their hospital bills go 
to collections. The main reason is the 7 year deterioration in funding 
for the IHS budget, particularly the underfunding of the Contract 
Health Services line item. It is this line item that pays for the care 
we do not provide in our clinic. The Tribe supports the recommendations 
of the Northwest Portland Area Indian Health Board in its fiscal year 
2009 IHS Budget Analysis and Recommendations. That analysis finds that 
a $355 million increase is needed to maintain current services. Our 
Tribe supports that level of funding as the minimum required in fiscal 
year 2009.
    2. $750,000 for the Squaxin Island Department of Public Health and 
Safety to hire six (6) additional FTE officers for 24-hour coverage in 
order to ensure the safety of the community and a Public Defender.--
Public Safety is a high priority for the Squaxin Island Tribe. The 
Squaxin Island Tribal Public Safety and Justice Department is dedicated 
to protecting lives, maintaining peace and ensuring that the property 
and resources of the Squaxin Island Tribe are protected through the 
enforcement of the laws and regulations set forth by the Squaxin Island 
Tribal Council. Law enforcement officers patrol the reservation, South 
Puget waterways and usual and accustomed hunting areas, protecting 
human life and natural resources upon which Tribal members rely on for 
cultural and economic sustenance.
    The Squaxin Island Public Safety and Justice Department has 
continued to operate on funding levels insufficient to meet the needs 
of this Department and our community. This has resulted in operating a 
program at minimum capacity, which has placed a negative impact on the 
service level provided to the Squaxin Island Community. The process of 
protecting the public is hampered by the lack of officers to provide 
the 24-hour coverage, which is very critical in life and death 
situations.
    The Public Safety Department successfully manages Squaxin Island 
Tribal Court, which consists of three divisions: a tribal court, an 
appeals court and an employment court. The Department also manages a 
shellfish and geoduck harvesting monitoring program. Officers are 
trained in scuba diving and assist with compliance and safety issues.
    A Public Defender is needed for the justice program. Currently the 
Tribe is under contract to provide legal representation to the 
community members. The court caseload and number of police calls 
continue to grow at an increasing rate. Current funding is inadequate 
to meet the needs of the growing community, protect natural resources 
and to fully participate in regional and homeland security programs and 
initiatives.
    The Tribe is enhancing the shellfish habitat and production 
programs, which has increased the demand on the water enforcement 
program to address issues of illegal harvesting. With current funding 
and staffing levels, it will be almost impossible to adequately protect 
the Tribe's investment in enhancing natural resources. The Squaxin 
Island Tribe is seeking both long-term and immediate assistance.
    In the long term, BIA funding for law enforcement and public safety 
programs needs to be significantly increased. According to a gap 
analysis performed by the BIA in 2006 based on the FBI's 2004 Uniform 
Crime Report (UCR), there is a 42 percent unmet need of law enforcement 
officers in Indian Country. And, the Community Oriented Policing 
Services (COPS) grant program that has benefited Tribal communities and 
law enforcement hiring and staffing needs is recommended for 
termination under the PART fiscal year 2008 Performance Budget.
    3. $5 million to fulfill Puget Sound Regional Shellfish Settlement 
Commitment.--The BIA Indian Land and Water Claim Settlements Account 
must include $7 million for the Puget Sound Regional Shellfish 
Settlement. The Federal Government is committed under terms of recently 
enacted legislation to fully fund the shellfish settlement. To complete 
the Federal obligation, $7 million is due in fiscal year 2008 and $5 
million for fiscal year 2009--fiscal year 2011.
Squaxin Island Tribe Supports Regional Requests and Recommendations
    1. Northwest Portland Area Indian Health Board
    2. Affiliated Tribes of Northwest Indians
    3. Northwest Indian Fisheries Commission

SQUAXIN ISLAND TRIBE SUPPORTS SELF-GOVERNANCE AND NATIONAL REQUESTS AND 
                            RECOMMENDATIONS

Bureau of Indian Affairs
    1. Restore Johnson O'Malley funds ($21.4 million); and Housing 
Improvement Funds ($13.6 million) to Tribal base programs
    2. Provide $25 million General Increase to BIA Tribal Priority 
Allocation for inflationary and fixed costs
    3. Provide $45 million increase for BIA Contract Support Cost 
(CSC), including Direct CSC
    4. $500,000 for BIA Data Management funding of Office of Program 
Data Quality
Indian Health Service
    5. Provide $486 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services (President's 
budget proposes a cut of $21.3 million)
    6. $152 million increase for Contract Health Services (CHS)
    7. $160 million increase for IHS to fully fund Contract Support 
Cost (CSC), including Direct CSC (recent increases have been dedicated 
for new and expended Public Law 93-638 programs and will require Tribes 
to waive their rights to CSC as a condition to the award of any new 
Self-Determination or Self-Governance agreements. It is because of this 
waiver requirement that Tribes have refrained from assuming programs 
under Public Law 93-638. Further such a requirement is contrary to the 
intent of Congress and the principles of ISDEAA. We request that 
Congress intervenes and prohibits the IHS new waiver policy and address 
the funding of CSC for new initiatives)
    8. Increase $5 million to the Indian Health Service (IHS) Office of 
Tribal Self-Governance (Restore $4.7 million decrease in fiscal year 
2002 and $.3 million in shortfalls, pay costs increases and inflation. 
Self-Governance serves as a model initiative for Federal outsourcing, 
which supports the strengthening of Tribal infrastructure and provides 
quality health services to Tribal members.)
    9. Restore $21 million for health care facilities construction (Due 
to the completion of project construction stages for health care 
facilities, the administration proposes to reduce the 2008 level of $37 
million by $21 million in fiscal year 2009. These funds are critical to 
address the health facilities construction priority system that has 
been under a moratorium since 1992. Until the existing listing is 
updated and completed, the new facility construction requests comprise 
a plethora of health facilities construction needs in Indian Country.)
    10. Maintain annual funding for Special Diabetes Program for 
Indians (SDPI) at $150 million until new authority is enacted (Current 
extended authority for Special Diabetes Program for Indians will expire 
in 2009)
    On behalf of the Squaxin Island Tribal Council and Tribal members, 
thank you for this opportunity.
                                 ______
                                 
            Prepared Statement of Standing Rock Sioux Tribal

    My name is Ron His Horse Is Thunder. I am the chairman of the 
Standing Rock Sioux Tribe. I am honored to report on the conditions of 
the Standing Rock Sioux Tribe as they relate to the programs of the 
Bureau of Indian Affairs (BIA) in the president's fiscal year 2009 
budget. I want to thank this subcommittee, its chairman and members, 
for their steadfast support of Indian tribes. We need your continued 
vigilance to ensure that the Federal Government honors its trust 
responsibility to the Nation's First Americans.
    The Standing Rock Sioux Tribe is situated in North and South 
Dakota. The Reservation comprises 2.3 million acres, of which 1.4 
million acres is Tribally owned and Tribal owned allotted lands. About 
10,000 Tribal members and non-members reside on the Reservation in 
eight communities and in smaller towns. The Tribe's primary industry is 
cattle ranching and farming. We operate the Standing Rock Farms, two 
Tribal casinos, and a sand and gravel operation which help us 
supplement services and programs for our nearly 14,000 enrolled 
members. We are a ``direct service'' Tribe for the delivery of health 
care services from the Indian Health Service and law enforcement 
services from the BIA. While the Tribe is making its best effort to 
remediate the social and economic challenges we face, we continue to 
lag behind every national standard which measures health and prosperity 
of Americans.
    We have persistent unemployment, a high drop out rate among our 
high school students, and over 40 percent of Indian families on our 
reservation live in poverty. In 2007, over 1,000 member households on 
Standing Rock had family income of 30 percent-80 percent of median 
family income in the area. The majority of our Tribal elders suffer 
from diabetes, heart disease and hypertension. Less than 4 percent of 
our members are above the age of 65. Accidents are the leading cause of 
death among our members. Despite the well documented needs in Indian 
country for basic governmental services, the president's fiscal year 
2009 budget further reduces the Federal Government's commitment and 
trust responsibility to Native people. It is time to reverse this 
harmful trend so that Indian Tribes and our members can compete in 
today's global economy. During economic downturns, it is rural America, 
and Indian reservations in particular, which are hit especially hard.
    I will focus my remarks on my Tribe's needs in the areas of Public 
Safety, Education, Economic Development, and Natural Resources 
Development.

                          PUBLIC SAFETY NEEDS

    Last month, I traveled to Washington, D.C. with members of the 
Tribal Council to meet with our elected representatives and officials 
of the BIA to request funding to combat the breakdown in public safety 
on our Reservation. At Standing Rock, we have 10 staffed, full time 
police officers to patrol our 2.3 million acre reservation and 2,500 
miles of roads. That averages to about 2-3 officers per eight-hour 
shift. Nearly one-half of our resident Tribal members are under the age 
of 25. There is no effective law enforcement for youth offenders at 
Standing Rock, who are released if there are no facilities to house 
them. Violent crime rates are increasing. From January to June 2006, 
BIA police documented the commission of 1,247 offenses on our 
reservation, the vast majority involving alcohol and drugs. We are a 
rural community, but our crime rate parallels that of a major city.
    We sought from the BIA: (1) their assurance to increase the number 
of law enforcement officers on our Reservation, (2) funds to supplement 
Tribal and Justice Department monies to complete construction of an 18-
bed juvenile detention center for young offenders where individual and 
family counseling can reverse destructive behavior, and (3) funds to 
conduct a staffing and a spacing needs assessment to assist us design 
and build a modern Tribal Justice Center to house Tribal Courts, the 
BIA police department, and an adult detention center. There is simply 
no money within the BIA for these programs. If the BIA will not ask for 
adequate funding, Congress must step in.
    The administration is not implementing the recommendations of a 
2006 ``Gap Analysis'' the BIA commissioned to identify and review 
current policing and detention capacity in Indian Country and to 
compare what is available to what is needed. The results are shocking. 
The report found that BIA District 1, which encompasses an eight State 
region including North and South Dakota, had 108 Law Enforcement 
Officers (LEOs), but needs over four times that amount (483 LEOs). A 
1997 Justice Department study found that Indian Country had 1.3 
officers for every 1,000 inhabitants, versus 2.9 officers in non-Indian 
jurisdictions. BIA District 1 is among the areas with the greatest 
need.
    Between 2004 and 2007, United States attorneys declined to 
prosecute 62 percent of reservation criminal cases referred to their 
offices and there has been a 27 percent decrease in Indian Country 
criminal investigations by the FBI from 2001-2006, during the period 
when violent crimes in reservation communities are increasing. This 
must change.
    We recommend that BIA Criminal Investigations and Police Services 
should be funded at $162.275 million, $25 million over the fiscal year 
2008 enacted level. BIA Detention/Corrections should be increased to 
$89 million, a $25 million increase over the fiscal year 2008 enacted 
level. We recommend the BIA Public Safety and Justice Facilities 
Improvement and Repair program be funded at $50 million above the 
fiscal year 2008 level, and we request $20 million in annual funding 
for the Tribal Justice Support program to improve Tribal Courts. These 
increases should continue each year until the recommendations of the 
Gap report are met.

                            EDUCATION NEEDS

    According to NCAI, Native Americans attain bachelor and higher 
education degrees at half the rate of their non-Indian counterparts. At 
Standing Rock, our Tribe has provided $3 million over 3 years to 
support a scholarship program to provide over 300 students with grants 
of between $3,000-$3,500/semester which allow them to pursue degrees 
from accredited colleges, universities and vocational schools. BIA 
financed scholarships total about $500,000 per year (meeting 25 percent 
of need).
    By providing scholarships to our students, they are able to remain 
in school and obtain a degree and education that can open doors to 
life-time careers. We want to break the cycle of joblessness that 
exists on our reservation. With scholarships, we monitor the progress 
of each recipient as they pursue their degree, review student degree 
plans and provide guidance if a student is not progressing toward their 
degree. We cannot do this alone and require increased funding for this 
vital program.
    We oppose the administration's fiscal year 2009 BIA education 
budget, which proposes $33.85 million in cuts for Indian education: a 
$5.9 million reduction in Scholarships and Adult Education (TPA), the 
elimination of all $5.9 million for the Tribal Technical Colleges, flat 
lining funding for Special Higher Education Scholarships; a $10.8 
million reduction in elementary and secondary BIA programs, including 
cuts in Early Childhood Development ($2.75 million reduction); and 
elimination of Johnson O'Malley funds.
    We recommend fully restoring and increasing, by an additional $50 
million, BIA funding for education as well as seeking increased funding 
for construction, operation, maintenance and repair of BIA schools. You 
cannot start early enough to instill in a child a love of learning. The 
future of Indian communities rests on their young shoulders. As the 
past president of Sitting Bull College, I know how hard Indian students 
work to succeed. They face many obstacles to achieve and excel; they 
live in two worlds--one Indian and one non-Indian. They need to succeed 
in both if they are to live up to their full potential and lead healthy 
lives. They deserve our full support.

                       ECONOMIC DEVELOPMENT NEEDS

    When Indian Tribes can provide basic governmental services to their 
reservation communities--law enforcement and courts, housing, adequate 
infrastructure, including roads, potable water, electricity, and health 
services--they make possible the conditions for economic development.
    We recommend restoring the Administration's $13 million proposed 
cut and adding $10 million to the BIA Community and Economic 
Development Program, add $10 million above last year's level for the 
BIA's ``477'' Job Placement and Training Program and Economic 
Development Program so that these programs achieve their goals--to 
increase educational levels, job readiness skills, job placement, and 
to promote economic growth in Indian country.
    We also oppose reducing by half, to $13 million, funding for the 
BIA Road Maintenance Program. As a rural community, whose main industry 
is agriculture and ranching, our farmers and ranchers also need safe 
roads to get their goods to markets. The Administration's justification 
for the reduction, to reflect the increased assumption of the BIA Road 
Maintenance Program by Indian tribes, is incorrect. Tribes assume the 
``Secretarial amount,'' the amount available to the Secretary of the 
Interior to carry out the program under the Indian Self-Determination 
Act. We contracted the program in 2007 and now face losing half our BIA 
funding. Maintaining roads is common sense.
    Standing Rock testified last summer before the Senate Indian 
Affairs Committee regarding the unacceptable high rate of traffic 
accidents and deaths on Indian Reservation Roads caused in part by poor 
road maintenance. Statistics from the Center for Disease Control (CDC) 
and the National Highway Traffic Safety Administration (NHTSA) show 
that injury and death rates among Native American motorist and 
pedestrians are two and three times the national average. We support 
the request by NCAI to increase funding for the BIA Road Maintenance 
Program to at least $100 million annually.

                        NATURAL RESOURCES NEEDS

    We are working with the Bureau of Reclamation to extend irrigation 
systems to cover 1,550 acres of 2,380 eligible acres as part of the 
Garrison Diversion Unit Reformulation Act. We have received about one-
half of the $20 million in BOR funds required to construct irrigation 
lines for all 2,380 acres. With more lines, however, our operation, 
maintenance and repair (OM&R) costs increase. The BIA provides no funds 
for our annual OM&R costs ($750,000). Standing Rock Farms is becoming 
one of North Dakota's premier agricultural producers with a multi-
million dollar impact on the economy. It is a producer of jobs and 
revenues on our reservation.
    The Tribe would also like to be part of a demonstration program in 
Indian Country to use satellite imaging technology to assist the Tribe 
inventory and manage Tribal resources. Using Geographic Information 
System (GIS) technologies, our Tribe would like to access satellite 
data to identify and catalogue Tribal resources to improve land 
management programs on our reservation. BIA maps are outdated 
(sometimes by decades). As revenues are generated from the increased 
use of Tribal resources, the Tribe can assume a greater share of the 
program's cost.
    As with other programs intended to benefit Native Americans, the 
Administration proposes further reductions to the BIA's Natural 
Resources Management programs. We encourage Congress to expand funding 
for BIA programs such as Natural Resources, Irrigation Operation and 
Maintenance, Agriculture and Range, Tribal Management/Development 
Program, Integrated Resources Management Plans, Water Resources, and 
Minerals and Mining Program, to improve Tribal management of our 
natural resources and promote economic development of these resources. 
We support the full restoration of the administration's proposed budget 
cut of $7 million and recommend an increase of $50 million over last 
year's funding level for these programs so that more Indian tribes can 
improve resource management techniques and practices.
    Working with Tribal governments, the United States needs to attend 
to the basics--ensure safe communities free from crime, safe homes with 
clean drinking water where children grow and learn from their parents 
and Tribal elders in a healthy environment, preventive health care to 
promote longer and healthier lives, safe roads so we do not lose 
members to preventable accidents, and modern schools where our children 
are eager to learn and where they are given the resources they need to 
succeed. If we can promote Indian family-friendly programs that help us 
maintain and strengthen the social fabric of our reservations, we will 
create a strong foundation to build upon.
    Thank you for affording me this opportunity to present my Tribe's 
views on the fiscal year 2009 budget for the Department of Interior, 
Environment, and Related Agencies.
                                 ______
                                 
  Prepared Statement of the State of Colorado, Office of the Governor

    The State of Colorado is an active participant in Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River Basin 
Recovery Implementation Program, both of which are recognized 
throughout the country as models for endangered species conservation 
and recovery. These Programs have developed collaborative solutions to 
pursue endangered species recovery while allowing water development to 
continue in our arid Rocky Mountain States.
    I am requesting your support for appropriations in fiscal year 2009 
to the Fish and Wildlife Service (FWS) for both of these Programs. The 
President's recommended budget for fiscal year 2009 includes FWS 
funding for these programs at the levels I am requesting. I request 
support and action by the Subcommittee that will provide the following, 
as authorized by Public Law 106-392, as amended.
    1. Appropriation of $697,000 in ``recovery'' funds (Resource 
Nianagement Appropriation; Ecological Services Activity; Endangered 
Species Subactivity; Recovery Element; $697,000 within the $68,067,000 
item entitled ``Recovery Program'') to the U.S. Fish and&ldlife Service 
(FWS) for fiscal year 2009 tp allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program. This is the same level of funding provided to the Recovery 
Program in fiscal years 2004 through 2008.
    2. Appropriation of $475,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries and Aquatic Resource 
Conservation Activity; National Fish Hatchery System Operations Sub 
activity; $475,000 within the $45,147,000 item entitled ``National Fish 
Hatchery Operations'') to support theongoing operation of the FWS' Our-
ay National Fish Hatchery in Utah during fiscal year 2009.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2009 to meet FWS's Region 2 expenses in managing the San Juan Program's 
diverse recovery actions.
    Substantial non-federal cost-sharing funding exceeding 50 percent 
is embodied in both of these programs.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of Colorado, New Mexico, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The Programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act. These recovery programs 
have become national models for collaboratively working to recover 
endangered species while addressing water needs to support growing 
western communities. Since 1988, these programs have provided ESA 
compliance for over 1,600 Federal, tribal, state and privately managed 
water projects depleting more than 3 million acre-feet of water per 
year.
    The Upper Colorado and San Juan Programs bring a diverse group of 
people and interests together to resolve potential conflicts over 
endangered species recovery and water development. The endangered fish 
species are returning, and water development is proceeding in 
accordance with State law and interstate compacts. These arc the kinds 
of programs that I support.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs--I 
thank you for that support and request the subcommittee's assistance 
for fiscal year 2009 funding to ensure FWS' continuing financial 
participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the State of New Mexico, Office of the Governor

    Chairman Feinstein and Senator Allard: I am requesting your support 
for appropriations in fiscal year 2009 to the Fish and Wildlife Service 
(FWS) for the Upper Colorado River Endangered Fish Recovery Program and 
the San Juan River Basin Recovery Implementation Program. The 
President's recommended budget for fiscal year 2009 includes FWS 
funding for these programs at the levels I am requesting. The State of 
New Mexico requests support and action by the subcommittee that will 
provide the following:
    1. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2009 to meet FWS's Region 2 expenses in managing the San Juan Program's 
diverse recovery actions.
    2. Appropriation of $697,000 in ``recovery'' funds (Resource 
Management Appropriation; Ecological Services Activity; Endangered 
Species Subactivity; Recovery Element; within the $68,417,000 item 
entitled ``Recovery'') to the FWS for fiscal year 2009 to allow FWS to 
continue its essential participation in the Upper Colorado River 
Endangered Fish Recovery Program. This is the same level of funding 
appropriated to the Recovery Program for this purpose in fiscal years 
2004 through 2008.
    3. Appropriation of $475,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries and Aquatic Resource 
Conservation Activity; National Fish Hatchery System Operations 
Subactivity; within the $43,507,000 item entitled ``National Fish 
Hatchery Operations'') to support the ongoing operation of the FWS 
Ouray National Fish Hatchery in Utah during fiscal year 2009.
    These highly successful cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies, and water, power and 
environmental interests. The programs continue to meet their objectives 
of working to recover endangered fish species while water use and 
development proceeds in compliance with the Endangered Species Act. The 
Department of the Interior has recognized the Upper Colorado and San 
Juan recovery programs as national models for collaboratively working 
to recover endangered species while addressing water needs to support 
growing western communities. These programs have provided ESA 
compliance (without litigation) since 1988 for over 1,600 Federal, 
tribal, State, and privately managed water projects depleting more than 
3 million acre-feet of water per year. Substantial non-federal cost-
sharing funding exceeding 50 percent is embodied in both of these 
programs as authorized by Public Law 106-392, as amended.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. On 
behalf of the citizens of New Mexico, I thank the Subcommittee for your 
past assistance and again seek the subcommittee's assistance this year 
to ensure adequate FWS funding for the upcoming Federal fiscal year.
                                 ______
                                 
   Prepared Statement of the State of Wyoming, Office of the Governor

    Chairman Feinstein and Senator Allard: I am requesting your support 
for appropriations in fiscal year 2009 to the Fish and Wildlife Service 
(FWS) for the Upper Colorado River Endangered Fish Recovery Program and 
the San Juan River Basin Recovery Implementation Program. The 
President's recommended budget for fiscal year 2009 includes FWS 
funding for these programs at the levels I am requesting. The State of 
Wyoming requests support and action by the subcommittee that will 
provide the following.
    1. Appropriation of $697,000 in ``recovery'' funds (Resource 
Management Appropriation; Ecological Services Activity; Endangered 
Species Subactivity; Recovery Element; within the $68,417,000 item 
entitled ``Recovery'') to the U.S. Fish and Wildlife Service (FWS) for 
fiscal year 2009 to allow FWS to continue its essential participation 
in the Upper Colorado River Endangered Fish Recovery Program. This is 
the same level of funding appropriated to the Recovery Program for this 
purpose in fiscal years 2004 through 2008.
    2. Appropriation of $475,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries and Aquatic Resource 
Conservation Activity; National Fish Hatchery System Operations 
Subactivity; within the $43,507,000 item entitled ``National Fish 
Hatchery Operations'') to support the ongoing operation of the FWS' 
Ouray National Fish Hatchery in Utah during fiscal year 2009.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2009 to meet FWS's Region 2 expenses in managing the San Juan Program's 
diverse recovery actions.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies, and water, power and 
environmental interests. The programs continue to be meeting their 
objectives of working to recover endangered fish species while water 
use and development proceeds in compliance with the Endangered Species 
Act. The Department of the Interior has recognized the Upper Colorado 
and San Juan recovery programs as national models for collaboratively 
working to recover endangered species while addressing water needs to 
support growing western communities. Since 1988, these programs have 
provided ESA compliance (without litigation) for over 1,600 Federal, 
Tribal, State, and privately managed water projects depleting more than 
3 million acre-feet of water per year. Substantial non-Federal cost-
sharing funding exceeding 50 percent is embodied in both of these 
programs as authorized by Public Law 106-392, as amended.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. We 
in Wyoming gratefully thank you for that support and request the 
subcommittee's assistance for fiscal year 2009 funding to ensure FWS' 
continuing financial participation in these vitally important programs.
                                 ______
                                 
            Prepared Statement of the Swan Ecosystem Center

    Madam Chairman and honorable members of the committee: Thank you 
for the opportunity to testify in support of continued Federal 
investment in the Swan Valley, Montana and to specifically urge a 
fiscal year 2009 appropriation of $1.92 million to the State of Montana 
from the Forest Legacy Program (FLP) and an $8.0 million appropriation 
to the U.S. Forest Service from the Land and Water Conservation Fund 
(LWCF) for the Swan Valley conservation effort. The Swan Valley is 
unique in Montana because the land is exceptionally good at growing 
trees, the rich and diverse habitat provides for a diversity of 
species, and the scenic and recreation amenities are superb. The people 
in the Swan Valley care deeply about this place and need your help 
protecting it.
    Swan Ecosystem Center formed in 1996 as an inclusive 501(c)(3) 
nonprofit watershed group in the Swan Valley of northwest Montana. 
Anyone who lives in the Swan Valley and participates is a member. Swan 
Ecosystem Center has an office and visitor center in the U.S. Forest 
Service Condon Work Center through a partnership with the Forest 
Service. According to surveys, most people in the Swan Valley want to 
protect forests, wildlife and public access. This request is for 
funding to fulfill a multi-stakeholder conservation strategy, in 
keeping with the Swan Ecosystem Center Mission: We, citizens of the 
Upper Swan Valley, Montana, have a self-imposed sense of responsibility 
to maintain a strong, vital community, one involved in setting its own 
destiny through partnerships that encourage sustainable use and care of 
public and private land.
    The Swan Valley conservation effort is a cooperative venture among 
private landowners, public land management agencies, public resource 
management agencies, the community, and non-governmental organizations. 
These groups are working to protect the significant ecological and 
recreational resources of the Swan Valley, while promoting the 
sustainable management of the valley's forest resources. This process 
has included a science-based assessment of wildlife and fisheries 
resources, timber productivity, and recreational activities, as well as 
considerable input from a broad base of Swan Valley residents. 
Conservation strategies include:
  --Land and Water Conservation Fund program to protect critical 
        habitat and public recreation opportunities through Forest 
        Service acquisitions.
  --Forest Legacy Program to protect working timberlands with multiple 
        resource values through conservation easements and limited 
        acquisitions by the State of Montana.
  --Residential land conservation easement program through local land 
        trusts.
  --Habitat Conservation Plan program and other mitigation programs to 
        protect core habitat for threatened or endangered species.
  --Special conservation areas to be managed by a nonprofit community 
        group with a broad representation of interests and backgrounds.
  --Private foundation funding and investment capital to further 
        conservation objectives.
    This year, three properties totaling 1,222 acres are available for 
acquisition through the Land and Water Conservation Fund to continue 
the conservation efforts in the Swan Valley. The parcels are located 
within grizzly bear habitat and are important for species recovery. 
Some parcels also contain stream reaches important for bull trout 
habitat and other native species, important habitat for elk and other 
big game, and/or recreation resources important to Montana residents 
and visitors alike. These acquisitions will prevent further 
fragmentation of forestland ownership and land uses, and improve 
coordinated land management through blocking up of public ownership in 
areas of checkerboard ownership. This proposal was ranked third 
priority by the USFS--Northern Region.
    The Swan Forest Legacy Program conservation easements and 
acquisitions will promote a sustainable working forest in the Swan 
Valley in order to maintain the forest-based economy of the Valley by 
protecting the most productive forestlands from conversion to non-
forest uses. This year's proposal helps to protect access to public 
lands, maintain traditional outdoor recreation activities and conserve 
important wildlife and fisheries habitats. The proposal includes 
acquisition of 446 acres of Plum Creek lands within the Swan River 
State Forest checkerboard area, which would be conveyed to the State of 
Montana for on-going forest management. This proposal was ranked first 
by the State of Montana ranking committee and ninth by the USFS 
national ranking committee.
    It should be noted that private investment and commitment to 
conservation in the Swan Valley plays a significant role alongside the 
public conservation efforts. There is growing recognition that the 
conservation resources of the area blanket much of the Swan Valley, 
regardless of land ownership boundaries and that effective resource 
protection requires a multi-faceted approach. The efforts of private 
landowners, the Swan Ecosystem Center, other organizations, and private 
foundations are all contributing toward successful implementation of 
the conservation strategy.
    The funding this committee has most generously provided for fee and 
easement acquisitions in the Swan Valley in previous fiscal years has 
reduced the checkerboard ownership pattern in the area, protected 
sensitive habitat and recreation lands from development, and protected 
forestlands from conversion to non-forest uses. We are extremely 
grateful for those past appropriations, and we ask you for your 
continued support as the committee considers the fiscal year 2009 
Interior, Environment and Related Agencies Appropriation bill.
    Please support the Swan Valley conservation effort. Thank you for 
the opportunity to present this request.
                                 ______
                                 
       Prepared Statement of the Tamarac Interpretive Association

    Madam Chairman and members of the subcommittee: On behalf of the 
Tamarac Interpretive Association, the friend's organization of the 
Tamarac National Wildlife Refuge in Minnesota, I am submitting 
testimony for the Senate Appropriations Subcommittee on Interior, 
Environment and Related Agencies. We support a funding level of $514 
million in fiscal year 2009 for the U.S. Fish and Wildlife Service's 
(FWS) National Wildlife Refuge System Operations and Maintenance (O&M) 
account and adequate funding for Visitor Services.
    Last year Congress responded to years of inadequate funding with an 
increase of $39 million, bringing funding to the National Wildlife 
Refuge System to $434 million. The Presidents proposed budget for 
fiscal year 2009 of $434.1 million represents the same level of funding 
as the current fiscal year. In order to maintain services and programs 
from the previous year, the National Wildlife Refuge System budget must 
increase by $15 million each year. The $15 million amount is derived 
from increases for cost-of-living for FWS personnel, growing rent and 
real estate costs, increasing energy prices, and other cost increases, 
while sustaining current levels of visitor services and wildlife 
management. The crisis that the Refuge System faces is that multiple 
years of stagnant budgets prior to fiscal year 2007 have resulted in a 
$3.5 billion Operations and Maintenance backlog. Backlogs, and what 
amounted to budget cuts prior to fiscal year 2007, have forced plans 
for a 20 percent downsizing of the workforce. Across the Refuge System, 
refuge visitors often show up to find roads and visitor centers closed, 
observation platforms and hiking trails in disrepair, and habitat 
restoration and school education programs eliminated. Invasive plant 
species are taking over and with a deficiency of more than 500 law 
enforcement officers, illegal activities such as poaching and trespass 
are on the rise. The $514 million target includes the required annual 
$15 million increase plus begins to address the backlog crisis so that 
the Refuge System can fulfill its responsibility to administer nearly 
100 million acres, nature programs, habitat restoration projects, and 
more.
    Focusing on the challenges in the Midwest region, a year ago, the 
20 percent workforce reductions required 71 positions to be cut, 
including 27 in Minnesota. These Minnesota lost positions included 9 
managers/resource specialists, 6 park rangers, 6 biologists/biology 
technicians, 3 maintenance workers, and 3 administrative staff. In 
addition to position cuts in the field, reductions also included Region 
Office management divisions. Minnesota's 15 refuges alone have 441 
unfunded, yet essential projects, totaling $51.5 million. In the 
maintenance area of operations for Minnesota overall, the backlog 
exceeds $64.0 million, which severely impedes refuge staff from 
protecting wildlife habitat and providing for recreational 
opportunities.
    The impact of this budgetary operations and maintenance backlog is 
also felt at Tamarac National Wildlife Refuge. The loss of one of the 
station's maintenance positions (that has yet to be refilled), has 
resulted in creating a backlog of repairs and regular maintenance of 
facilities, vehicles, refuge roads, parking areas, and hiking trails. 
Since the remaining maintenance position is seasonal, there has been 
reduced snow removal on refuge roads, parking areas, and at the Refuge 
Headquarters/Visitor Center. With public lake accesses not being plowed 
on a regular bases, ice fishermen have had a more difficult time 
getting out on the ice to fish. During the muzzleloader deer season 
some hunters were unable to access portions of the refuge because of 
snow-blocked roads where no one was available to plow. Deer hunting on 
the refuge is not just a recreational opportunity, but it is critical 
for management of the deer population and conserving a healthy habitat. 
Maintenance backlogs include the need to repave our Visitor Center 
parking lot and our Chippewa picnic area restrooms need to be updated. 
At our Visitor Center/Refuge Headquarters, continuing water leakage has 
caused an assortment of damage and problems, including the lost 
productivity from moping up water after each heavy rain.
    Our wider community, with Detroit Lakes, Minnesota, as its 
commercial and population center, is also host to Hamden Slough 
National Wildlife Refuge and the Detroit Lakes Wetland Management 
District. The budget crisis has resulted in the lost of one staff 
position at the nearby Detroit Lakes Wetland Management District 
causing the elimination of biological surveys used to influence 
wildlife habitat restoration and land protection activities. Local 
partnerships have been strained due to lack of staff. In addition, the 
entire staff of Hamden Slough National Wildlife Refuge was reassigned 
to Detroit Lakes Wetland Management District along with the elimination 
of the Hamden Slough's refuge manager position. This transfer of refuge 
staff has resulted in a diminished capacity to intensively manage 
Hamden Slough habitats. These staff reductions and reorganizations have 
also impacted Tamarac National Wildlife Refuge. Not only must Tamarac 
refuge staff deal with backlog and reduced operational funding, but 
their duties frequently now included those of Hamden Slough and the 
Detroit Lakes Wetland Management District, further decreasing wildlife 
management at Tamarac.
    Tamarac National Wildlife Refuge was established in 1938 to serve 
as a breeding ground and sanctuary for migratory birds and other 
wildlife. Tamarac Refuge's 42,724 acres lies in the heart of one of the 
most diverse vegetative transition zones in North America, where tall 
grass prairie, northern hardwood and boreal forests converge. These 
transitional habitats provide a haven for a diversity of wildlife 
species and some, such as the timber wolf, are at the extreme edge of 
their range in Minnesota. While the needs of wildlife are the first 
priority, Tamarac Refuge also provides many opportunities for visitors 
to enjoy and learn about our natural world through wildlife-compatible 
activities. These six priority public uses, set by legislation, include 
hunting, fishing, wildlife observation and photography, environmental 
education and interpretation.
    Banking on Nature 2006: The Economic Benefits to Local Communities 
of National Wildlife Refuge Visitation, found that national wildlife 
refuges are major economic engines for their communities. Tamarac 
National Wildlife Refuge generated final demand totaling nearly $1.6 
million with associated employment of 24 jobs, $491,200 in employment 
income and $235,600 in total tax revenue. Put another way, for every $1 
of budget expenditure there was a $2.5 economic effect.
    Public visitation at Tamarac National Wildlife Refuge continues to 
rise, going from 58,500 in fiscal year 2006 to 63,000 visitors in 
fiscal year 2007. Our Visitor Center received 6,950 visitors in fiscal 
year 2007. While the number of ``visitors'' are the actual count of 
people, the number of ``visits'' indicates the number of times people 
participate in an activity. The total estimated visits for the refuge 
in fiscal year 2007 were 87,146. Available data from fiscal year 2006, 
show 3,800 people visited the refuge for big game hunting, 1,300 for 
small game, 1,525 for migratory bird hunting, 4,000 for fishing, 31,700 
for wildlife observation, 15,000 for birding, and 6,000 for hiking 
nature trails. The Banking on Nature 2006 study determined that this 
visitation resulted in $1,211,700 of recreation expenditures, of which 
$1,045,700 were from non-residents.
    The lakes area in Northwestern Minnesota, like the areas around 
other refuges near populated areas, has been rapidly developing with 
lakeside and rural seasonal and year-round homes. With diminishing 
habitat, Tamarac's 42,724 acres are a key ``refuge'' for migratory bird 
and other wildlife production. Due to the same developmental pressures, 
the Tamarac NWR is also increasingly an island of relatively natural 
forests, lakes, marshes, and prairie. Development and ``No trespassing 
or hunting'' signs proliferating across the landscape also make Tamarac 
NWR an important remaining public hunting area. Several lakes on the 
refuge are open to fishing, providing a fishing experience on a more 
pristine lake. Tamarac NWR also has an active visitor services and 
education program, with interpretive trails, observation decks, guided 
tours, special weekend interpretive opportunities, and a visitor 
center. Last year, Tamarac staff provided programs for over 4,000 
students and adults. With the refuge's primary purpose of migratory 
bird and wildlife production, these additional and sometimes competing 
uses are managed well. Tamarac NWR, as all refuges, is completing a 
Refuge Comprehensive Conservation Plan with input from public hearings, 
to better balance public use while maintaining its first priority of 
the protection of wildlife and habitat. Increasing visitation makes the 
job of balancing wildlife and people evermore important; a critical 
time for needing staff and resources.
    Tamarac National Wildlife Refuge is also a key resource for area 
schools and science education. In fiscal year 2007, 4,100 school 
children participated in environmental education programs at Tamarac 
and 2,795 off-site. Other educational programs for families in 2007, 
accounted for 2,636 additional participants. For example, first graders 
from Frazee, Minnesota, come each May to plant trees, finding the 
funding themselves for the seedlings. Aida wrote back to the refuge the 
following: I learned about planting pine trees. I heard the male frogs 
singing a song to the lady frogs in the pond. I learned about ant 
hills. I learned how trees grow. I also learned about deer scat. I saw 
ducks in the pond. Last year, third graders visited Tamarac NWR from 
Moorhead, Minnesota, saw Eagles and Osprey for the first time, and 
marveled at a giant nine foot high beaver dam. The most creative were 
teachers and students from Detroit Lakes (Minnesota) Middle School that 
combined multiple subjects in completing several global positioning 
system exercises at the refuge. In addition to math, science, and 
technology, their work included writing, two examples follow: Tamarac, 
By Levi Johnson: As I stepped off the bus. To my wonder. Bright red and 
golden leaves hanging from the trees. Sun so bright. Crisp fall air. 
Crisp, crunchy leaves under my feet. Friends laughing as they walk. 
Back to the bus we go. Tamarac, By Rheanna Lind. I slowly strolled 
through the tall grasses; Hoping not to trip and fall, Listening to the 
leaves crack under my feet, watching a mouse, my heart skips a beat. I 
gaze around watching the grass sway; My director yells it's time to go 
away; I look around one last time; goodbye wildlife, goodbye Tamarac. 
Without needed refuge funding that deals with the operational deficit 
and maintenance backlog, for school groups, it could be a more 
permanent goodbye.
    The Tamarac Interpretive Association, the friends group of the 
Tamarac National Wildlife Refuge, was founded in 1992. Our mission is 
to facilitate activities and programs that interpret, protect and 
restore the natural and cultural resources of the refuge. We work to 
support the refuge in any way we can and that is requested. We have 
been involved in assisting with interpretive and educational programs, 
improving of visitor center exhibits, assisting with special events, 
developing a library of educational materials, and we support the 
refuge's volunteer program. We operate a gift shop of wildlife and 
nature themed books, clothing, and other items. All proceeds, along 
with friends' group dues and other contributions, go to help us in our 
refuge supporting mission. With the mounting pressure on refuge budgets 
and staff, our friends group wrote and received a grant that helped to 
equip our friend's office with needed technology and upgraded our gift 
shop cash register and inventory system, all with the goal of enabling 
to do more.
    Our friends group has no paid employees; all our time is volunteer 
time. In fiscal year 2007, 109 volunteers at the Tamarac National 
Wildlife Refuge donated 4,584 hours, up from 3,860 the year before. 
Forty-eight people volunteered regularly. Individuals assist the refuge 
with biological field studies, environmental education, facility 
maintenance, visitor center hosts, leading tours, and many other 
functions. In 2006, a FWS funded observation deck was totally 
constructed with volunteer labor. With the savings, binoculars and 
spotting scopes were purchased for the visitor services program. Last 
fiscal year, I was able to provide 1,376 volunteer hours and this 
fiscal year I have 978 to date. I've only been volunteering a few 
years, but then there are others who have been volunteering for many 
years. Ruth Dienst, for example, has volunteered leading refuge tours 
since 1992, and organized refuge tours from area resorts starting 16 
years earlier. Health almost stopped her volunteering, but last summer 
she was driven to the refuge for each week's refuge tour. She delights 
visitors with her knowledge of plants and wild edibles, and she always 
brings her wild jams and teas for visitors to sample. There are many 
individual stories of commitment from dozens of hours a year to 
hundreds a year. Across the refuge system in 2006, 36,169 volunteers 
contributed 1,447,421 hours with a value of $26,111,475.
    We as volunteers and we as refuge friends groups can only do so 
much. Refuge system funding that amounts to annual cuts have not only 
eliminated any slack, but has produced maintenance and program 
backlogs. The refuge system faces a crippling budget backlog of more 
than $3.5 billion. Funding pressures on our Nation's wildlife refuge 
system are no longer a matter for refuge staff doing more with less, 
simply, less will be accomplished. As volunteers and members of friends 
groups, this situation severely stresses us. Our role is not to fill in 
staff and budget shortfalls. Yet, we try and do what we can.
    We are exceedingly grateful for the subcommittee's support of $451 
million for fiscal year 2008. As dedicated friends groups and 
volunteers, there is no greater affirmation of our work and our shared 
commitment to our Nation's refuges. We urge funding our refuge system 
in fiscal year 2009 at the $514 million level.
                                 ______
                                 
   Prepared Statement of the Teaming With Wildlife National Steering 
                               Committee

    On behalf of the Teaming with Wildlife National Steering Committee, 
we urge you to support funding in the amount of $85 million for the 
State Wildlife Grants Program in the fiscal year 2009 Interior, 
Environment, and Related Agencies Appropriations Act.
    Teaming with Wildlife is a coalition of more than 5,500 
organizations, agencies and businesses who support increased funding 
for State-level wildlife programs of conservation, education, and 
recreation aimed at keeping wildlife from becoming endangered. The 
Teaming with Wildlife coalition includes wildlife biologists, hunters & 
anglers, birdwatchers, hikers, visitors' bureaus, nature-based 
businesses and other conservationists who believe that working together 
to advance proactive wildlife conservation will save both wildlife and 
tax dollars over the long term.
    The State Wildlife Grants Program supports proactive on-the-ground 
conservation projects aimed at declining fish and wildlife species and 
their habitats. State Wildlife Grants is not just a grants program. It 
is the Nation's core program for preventing wildlife from becoming 
endangered in every State. As a coalition of conservation 
organizations, wildlife management professionals, outdoor enthusiasts, 
and other supporters of wildlife conservation we have seen the tangible 
benefits of these projects in the communities where we live and work. 
Now, in response to a charge from Congress, the State wildlife agencies 
and their many conservation partners have worked together to complete 
Wildlife Action Plans for every State and territory. These plans were 
all officially approved by the U.S. Fish and Wildlife Service in 
January 2007. Organizations like ours and the State wildlife agencies 
we work with are eager to take the next step and begin implementation, 
but we are counting on funding from the State Wildlife Grants Program 
to help us put these plans into action. It is the only funding 
nationwide that is dedicated for this purpose.
    We understand the difficult decisions you have to make during this 
time of tight budgets. Now more than ever, Congress should be focusing 
limited resources on this kind of smart, proactive conservation 
investment. Experience shows that efforts to restore imperiled wildlife 
are difficult and costly. State Wildlife Grants enable States to be 
proactive and avert such conservation catastrophes, concurrently saving 
wildlife and taxpayer dollars, and improving our quality of life by 
conserving wildlife for the benefit of millions of Americans. The 
program also leverages significant funding from private, State, and 
local sources to magnify the impact of Federal dollars. The Wildlife 
Opportunities Action Fund is one such effort that has helped support 
over 35 initiatives in 2006 and 2007 and disbursed more than $3.2 
million to projects across all States and territories. Thanks to the 
Doris Duke Foundation and the Wildlife Conservation Society, efforts of 
this kind help to honor the commitment of the Federal Government to 
support projects on the ground in every State and territory.
    Since the beginning of the State Wildlife Grants Program, almost 
$500 million has flowed to the States for the development of their 
wildlife action plans and for on-the-ground projects to benefit native 
wildlife and their habitats. Projects providing benefits for both 
wildlife and people are underway in every State across the Nation. This 
work could not be done without support from the State Wildlife Grant 
program.
  --Henslow's sparrows and other grassland wildlife are species of 
        greatest conservation need in Arkansas' wildlife action plan. 
        Thanks to a State Wildlife Grants project, several unknown 
        populations of breeding Henslow's sparrows were revealed in 
        northwest Arkansas, with the largest in Cherokee Prairie 
        Natural Area. This vital information will help biologists, land 
        stewards, and conservation planners conserve important 
        grassland habitat and wildlife before they become more rare and 
        more costly to protect.
  --Most of the freshwater mussels in Virginia are listed as species of 
        greatest conservation need in the State wildlife action plan. 
        The health of freshwater mussels is often an early indicator 
        for disease and pollution that affect us all. Of the 81 species 
        of mussels that live in Virginia, half are federally or State 
        listed as endangered or threatened species and others are 
        declining at an alarming rate. State Wildlife Grants are being 
        used to propagate mussels in a hatchery and then release them 
        into streams to bolster and restore these declining 
        populations. This is a proactive approach that will prevent 
        more mussels from becoming endangered, and benefit the health 
        of wildlife and people while saving taxpayer money.
    We are very pleased that the President has recognized the 
significance of this program and supported $73.8 million for State 
Wildlife Grants, which matches the level of funding provided in the 
final budget for fiscal year 2008. A funding level of $85 million would 
help bring this program back up to the highest level of funding it has 
ever received, in fiscal year 2002, and would send an important message 
about the Congress's commitment to following through on providing the 
support needed to implement the State wildlife action plans. By 
restoring funding to this program at this critical juncture in the 
program, the Congress would help protect the foundation of the 
investment it has made in this program to date. We are pleased that 62 
Senators have formally signed on to this commitment in the form of a 
letter to the subcommittee and we hope you will match that strong 
demonstration of support.
    We are very grateful for your leadership in funding this program 
over the last several years. You have helped make this program and its 
emphasis on preventive conservation a priority for the U.S. Fish and 
Wildlife Service. Although the budget is tight, we look forward to the 
U.S. Congress continuing to provide reliable and adequate funding to 
ensure the continued success of the State Wildlife Grants Program.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2009 appropriations. My name is Thomas J. Cassidy, Jr. and 
I am Director of Federal Programs at the Conservancy.
    The Nature Conservancy is an international, non-profit conservation 
organization working around the world to protect ecologically important 
lands and waters for nature and people. Our mission is to preserve the 
plants, animals and natural communities that represent the diversity of 
life on Earth by protecting the lands and waters they need to survive. 
We are best known for our science-based, collaborative approach to 
developing creative solutions to conservation challenges. Our on-the-
ground conservation work is carried out in all 50 States and more than 
30 foreign countries and is supported by approximately 1 million 
individual members. We have helped conserve nearly 15 million acres of 
land in the United States and Canada and more than 102 million acres 
with local partner organizations globally.

                          USGS--CLIMATE CHANGE

    The Conservancy appreciates the subcommittee's leadership in 
highlighting the need for increased investments in climate change 
science through the National Global Warming and Wildlife Science 
Center. We support a robust increase in funding for this and other 
programs that will guide science-based investments necessary to meet 
the critical needs of fish and wildlife adaptation in a world whose 
climate is changing. We look forward to working with the subcommittee 
as it addresses this increasingly vital conservation challenge.

                LAND AND WATER CONSERVATION FUND (LWCF)

    Thank you for your action last year to reverse the decline in 
funding for key conservation programs, including LWCF. We look forward 
to the subcommittee providing far greater support for this program than 
is proposed in the President's budget, one of the lowest requests for 
Federal land acquisition funding in decades.
    We recommend a funding level of $278 million for the Federal side 
of LWCF. This year, the Conservancy is specifically recommending 18 
biologically rich land acquisition projects totaling $39 million. 
Priorities include completing the BLM's portion of a large multi-year 
project in Montana's Blackfoot River Watershed and continuing large-
scale projects in New England's Silvio O. Conte NFWR and Montana's 
Rocky Mountain Front Conservation Area. We are also supporting projects 
in Hawaii's James Campbell NWR, Washington's Willapa NWR, Georgia's 
Chattahoochee NF, New Jersey's Delaware Water Gap National Recreation 
Area, Idaho's Henry's Lake ACEC and Iowa's Driftless Area NWR. We also 
urge the subcommittee to restore funding for the State-side of LWCF.

                             FOREST LEGACY

    For fiscal year 2009, 87 projects were submitted by States to the 
Forest Service with a total funding request of $200.5 million to 
protect nearly 400,000 acres. The huge potential of this program to 
achieve conservation goals while maintaining sustainable use of private 
lands requires a significant funding increase. We strongly support $120 
million for this program, and are specifically proposing 16 projects 
totaling $39 million. The 127,000 acre Northern Cumberlands project is 
the largest conservation deal in Tennessee since the creation of Great 
Smoky Mountains National Park. The State has provided $82,000,000 
towards this 127,000 acre project, while private equity investers and 
philanthropy have leveraged an additional $45,000,000. Other priority 
projects include California's Chalk Mountain Area, West Virginia's 
South Branch, Michigan's Northern Great Lakes Forest Maine's Machias 
River project.

                        WILDLAND FIRE MANAGEMENT

    Wildfire costs continue to rise with continued residential growth 
in forested and fire-prone areas, coupled with a lengthening fire 
season in a warmer climate. The Conservancy recommends focused 
investments in four Forest Service and Department of the Interior fire 
programs. First, increase Hazardous Fuel Reduction to $560 million to 
address the accumulation of forest fuels (USFS: $341.1 million; DOI: 
$219.6 million). Second, increase State Fire Assistance to $42.4 
million to address the need for planning, treatments, education, and 
efficient fire response in the WUI (USFS: $35.9 million; DOI RFA:$6.5 
million). Third, increase Rehabilitation and Restoration to $38.5 
million to assure native seed supplies and prevent non-native plant 
invasions in burned areas (USFS: $11.9 million; DOI: $26.6 million). 
Fourth, develop market incentives to reduce the cost of mechanical 
treatments, including $7 million for biomass utilization grants. 
Finally, the Conservancy recommends setting clear priorities for 
hazardous fuel reduction and biomass utilization funding and focusing 
mechanical treatments where fuel loads and large populations intersect 
and to use managed fire to reduce fuels where it can be managed safely.

                        FOREST HEALTH MANAGEMENT

    America's forests face a growing number of non-native pests and 
diseases. The Conservancy appreciates the subcommittee's leadership in 
consistently providing funding significantly above the President's 
request. The Forest Health Management program should receive at least 
last year's enacted level of $122.5 million so that it may effectively 
address economically and ecologically damaging pests, including the 
Asian Longhorned Beetle, Emerald Ash Borer, Hemlock Woolly Adelgid, 
Sudden Oak Death and Laurel (or Redbay) Wilt.

                    FOREST SERVICE RESEARCH PROGRAM

    We recommend an increase of $3 million above the request for the 
``Invasives R&D'' line item within the Forest Service Research program. 
This would permit maintaining at current levels research to improve 
detection and control methods for the Emerald Ash Borer, Hemlock Woolly 
Adelgid and other non-native forest pests and diseases.

                           ENDANGERED SPECIES

    The Conservancy supports an increase for the FWS's Cooperative 
Endangered Species Conservation Fund (CESCF) to at least $96.2 million. 
Our requested increase reflects the unmet public funding needs of the 
CESCF, and recognizes the important role States, municipalities, and 
non-Federal partners play in conserving threatened, endangered and at-
risk species on non-federal lands. The Conservancy and its partners, 
including multiple State and county governments, have used the Habitat 
Conservation Plan (HCP) and Recovery Land Acquisition Programs to 
secure key habitat for numerous threatened, endangered and at-risk 
species. In recent years, CESCF funds have been used to provide 
permanent habitat protection for California's Ramona Grasslands, 
ensuring intact habitats remain in place for numerous listed species. 
Washington's Tieton River Canyon and Montana's Blackfoot Valley have 
also been the focus of attention for fee-title and conservation 
easements under the CESCF program. The Conservancy has also worked with 
States to develop and implement HCP Plans funded by this program, 
including an ongoing multi-partner HCP effort in North Carolina's 
coastal region to protect the red-cockaded woodpecker and other native 
species. We also support the Administration's proposed funding for the 
Upper Colorado River Endangered Fish Recovery Program, recovery funds 
for the San Juan River Basin Recovery Implementation Program, and 
$475,000 for fish hatchery needs associated with the recovery plans in 
this region. We also support funding for the Platte River Recovery 
Implementation Program.

                         STATE WILDLIFE GRANTS

    The Conservancy strongly endorses the Teaming with Wildlife 
Coalition's funding recommendation of $85 million. This continues to be 
a critical phase for implementation of the 56 approved Wildlife Action 
Plans. Strong Federal investments remain essential to ensure strategic 
actions are undertaken by State and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats. We also support the continuation of a $5 million competitive 
grant program as a subset of the State Wildlife Grant Program. We 
encourage the subcommittee to provide direction to the Service on the 
use of these funds, including on-the-ground habitat restoration work on 
private lands, as well as climate change resiliency and adaptation 
needs identified as priorities by the States in their comprehensive 
wildlife conservation plans.

                    NATIONAL WILDLIFE REFUGE SYSTEM

    The Conservancy applauds the subcommittee's significant increases 
in last year's budget for operations and maintenance of the National 
Wildlife Refuge System, a cornerstone of our commitment to fish and 
wildlife resources throughout the Nation. We urge sustained investments 
in these key accounts to reverse the loss of permanent refuge staff 
positions and capacity to maintain the refuge system. We also strongly 
support the $400,000 increase in the Refuge budget for the Palmyra 
Atoll National Wildlife Refuge and Palmyra Atoll Research Consortium.

                        MIGRATORY BIRD PROGRAMS

    The Conservancy supports increasing funding for the North American 
Wetlands Conservation Act (NAWCA) to $50 million. NAWCA is one of the 
Nation's most successful conservation programs prompting more than 
3,500 partners to match $836 million in Federal funds by leveraging 
$2.5 billion in partner contributions in order to protect 23 million 
acres of wetlands and associated upland habitats. The Conservancy also 
supports $15.1 million in funding for the Joint Ventures. We also 
support the Administration's Birds Forever proposal, particularly 
increases in funding to the Joint Ventures and Migratory Bird 
Management Program with an emphasis on reversing declines in bird 
populations through conservation and monitoring of focal bird species.

                        COOPERATIVE CONSERVATION

    We support the fiscal year 2008 funding levels, at least, for both 
the FWS Coastal Program ($14 million) and the Partners for Fish and 
Wildlife Program ($50 million). The Conservancy supports the 
Administration's request of $5.2 million for the National Fish Habitat 
Initiative and the continued work of the Service to facilitate the 
development of Fish Habitat Partnerships and implementation of high-
priority projects. Further, the Conservancy encourages the Subcommittee 
to increase funding for the FWS Fisheries Program to implement the Open 
Rivers Initiative/Fish Passage Program at the fiscal year 2008 enacted 
level of $11 million.

                         INTERNATIONAL PROGRAMS

    The Conservancy, as part of an alliance of major international 
conservation groups, supports the International Conservation Budget, 
which calls for $12 million to the FWS' Multinational Species 
Conservation Fund. This includes funds for the African and Asian 
Elephant funds, the Great Apes fund, the Marine Turtle fund, and the 
Rhinoceros/Tiger fund. We and the alliance also strongly support $20.4 
million for the FWS office of international affairs which includes 
Wildlife Without Borders; $6 million for the FWS' Neotropical Migratory 
Bird Conservation Fund; and $12 million for the U.S. Forest Service's 
International Programs.

                        HEALTHY LANDS INITIATIVE

    The Conservancy supports funding equal to or greater than the 
President's request of $21.9 million to be used by BLM, FWS and USGS to 
landscape scale planning initiatives to improve wildlife habitat, water 
quality, invasive species control, and more informed management and 
planning activities. Agencies should be encouraged to use existing data 
sets so that funding can be focused on data gaps rather than creating 
duplicitous data sets.

                         USGS--WATER RESOURCES

    We support $34 million for the National Streamflow Information 
Program and $70 million for the Cooperative Water Program. These 
programs provide scientific data needed by multiple public and private 
water managers and their partners. We support the administration's 
Water for America Initiative, however, we urge restoration of funding 
to programs reduced to enhance the Initiative. As climate change, 
drought and population growth increase the demands on our Nation's 
water resources, it is critical to invest in the integration of State 
and Federal water resource data and to better understand the water 
needs of both human communities and the environment. We recommend that 
$3 million be provided to support improved management of Federal 
reservoirs by increasing the scientific understanding of downstream 
river ecosystem needs.

                       OFFICE OF INSULAR AFFAIRS

    We support $1 million for the Coral Reef Initiative.

                    ENVIRONMENTAL PROTECTION AGENCY

    The EPA Geographic programs provide critical leadership, technical 
support and funding for on-the-ground actions to improve water quality 
and restore ecosystems. In particular, we support $10 million for the 
EPA Gulf of Mexico Program, which has been a catalyst in efforts to 
restore the Gulf of Mexico, as well as the President's request for the 
Great Lakes and Chesapeake Bay programs. We also support $30 million to 
support development and implementation of the Puget Sound Partnership's 
Action Agenda for restoration efforts in the Puget Sound. We strongly 
support restoring funding, at a level of $20 million, for the Targeted 
Watersheds Grants program proposed for elimination by the 
administration. Finally, we support $800 million for the Clean Water 
State Revolving Fund.
    Payments in Lieu of Taxes and Refuge Revenue Sharing programs 
provide payments to counties where land has been taken off the local 
property tax rolls and put into Federal ownership. In some counties, 
protection of significant natural resources impacts the tax base that 
funds local government services, including schools and public safety. 
We urge the Committee to provide full funding for these programs and 
honor the Federal commitment to local communities.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the Interior, Environment and Related Agencies 
appropriations bill.
                                 ______
                                 
            Prepared Statement of The Trust for Public Land

    Chairman Feinstein, ranking member Allard, and distinguished 
members of the subcommittee: Thank you for this opportunity to present 
this testimony. My name is Alan Front, Senior Vice President of The 
Trust for Public Land (TPL), a national nonprofit land conservation 
organization. I am pleased to offer our views on a number of critical 
land conservation programs that the subcommittee will be considering as 
you draft your fiscal year 2009 bill.
    We recognize that the subcommittee will face a variety of big-
picture challenges, including a scarcity of dollars, in meeting the 
broad range of priority needs in the Interior and Environment bill this 
year. Recognizing as well the longstanding leadership and vision of 
Chairmen Byrd and Feinstein--and the effective balance that they, 
Ranking Member Allard, and other members of the subcommittee have 
managed in the past--we remain very hopeful that the fiscal year 2009 
bill will provide enhanced funding for conservation programs.

             LAND CONSERVATION IN AMERICA--OUR PERSPECTIVE

    From our Nation's threatened national parks, wildlife refuges, and 
forests to our vital State and local parklands and natural areas, The 
Trust for Public Land has seen firsthand just how important these 
programs are. Since 1972, TPL has worked in communities across the 
country to assist national, State, and local public agencies, private 
landowners and concerned citizens working to protect our country's 
heritage of natural, cultural, recreation and other vital resource 
lands. Our work runs the spectrum of conservation initiatives: creating 
community gardens to help revitalize urban neighborhoods; preserving 
working forests with public and private partners; maintaining wildlife 
corridors and enhancing public recreation opportunities in State parks; 
and acquiring critical inholdings in the magnificent landscapes that 
lie within Federal boundaries.
    In total, TPL has completed more than 3,500 land conservation 
projects that together have protected some 2.3 million acres in 47 
States. Roughly one-third of these special places were conserved either 
through outright Federal acquisition of lands or easements, or through 
critical Federal assistance to State and local governments. Given the 
importance of non-Federal public dollars for conservation, since 1994, 
TPL has helped States and localities craft and pass over 300 ballot 
measures, generating almost $25 billion in new conservation-related 
funding.
    In partnership with concerned civic groups, willing seller 
landowners and public lands agencies, TPL brings practical conservation 
real estate expertise to help achieve land and resource protection. 
Given the limited public conservation funding at all levels of 
government, these transactions often require a creative blending of 
funding sources. TPL works to leverage limited Federal land acquisition 
dollars, bringing to bear private philanthropic support as well as 
State and local funding sources to forge workable solutions to complex 
conservation funding challenges.
    But for the remarkable and gratifying efforts of many members of 
this Committee and other conservation leaders in Congress to maintain 
funding for land acquisition programs--and in particular to fund 
specific `now-or-never' projects--successful land protection simply 
would not be possible. As we continue that work, and as the committee 
drafts its fiscal year 2009 bill, TPL respectfully requests that you 
maintain your commitment to Federal land conservation accounts. 
Specifically, we urge an increase in funding levels for the Land and 
Water Conservation Fund (LWCF) and the Forest Legacy Program, two key 
programs that have lost ground in recent years and that the President's 
Budget woefully underfunds in fiscal year 2009, and a renewed 
commitment to land conservation funding through the Cooperative 
Endangered Species account, the North American Wetlands Conservation 
Act, and the State and Tribal Wildlife Grants account.

                    LAND AND WATER CONSERVATION FUND

    The subcommittee is of course well aware of the imminent threat to 
our Federal public lands from incompatible development. Each day the 
news media reports on development encroaching upon our national parks, 
or subdivisions being built on checkerboard timberlands, contributing 
to dramatically escalating fire hazard and suppression costs. In our 
experience, private landowners within or adjoining our Federal public 
lands often are amenable to a conservation solution. Faced with 
uncertainty about the availability of Federal land acquisition dollars, 
however, they often determine that they cannot afford to pursue that 
win-win public disposition. The reasonable expectation of Federal land 
acquisition funding is critical to the ability to protect the nation's 
public lands heritage when these time-sensitive opportunities arise.
    For over 40 years, LWCF has been the cornerstone that sustains our 
Federal public lands heritage. To preclude the loss of key inholdings, 
TPL, as part of the broad coalition of national, State and local groups 
working together as the Land and Water Conservation Task Force, 
recommends that you fund the annual Federal LWCF program at $278 
million, with an additional $125 million for the LWCF State grants. 
These figures obviously fall far below LWCF's $900 million annual 
authorization, but they represent the minimum required to secure 
crucial inholdings that might otherwise be lost to private sale and 
development this year.
    Among these immediate conservation needs is an historic opportunity 
to connect the two disjointed halves of Virgin Islands National Park by 
acquiring 207 acres of historic Estate Maho Bay, a magnificent expanse 
of white sand beach and forested hillsides. In the Sierra Nevada in 
California, TPL is working to consolidate the fragmented checkerboard 
ownership pattern to preserve recreational access and mountain wildlife 
habitat. Securing access for river recreation along the Arkansas River 
in central Colorado is a focus of an effort between TPL and the Bureau 
of Land Management. In New Mexico, BLM and TPL have joined with local 
landowners to acquire the sensitive Canyon River Ranch within the La 
Cienega Area of Critical Environmental Concern. Lakefront inholdings 
within the Chequamegon National Forest in northern Wisconsin have been 
prioritized for acquisition by the Forest Service's Wisconsin Wild 
Waterways program. These are just a few of the many urgent land 
acquisitions that must be funded this year to stave off incompatible 
development.
    In these and other areas, TPL is proud to join forces with 
extraordinary partners who dedicate significant resources to protection 
of the places of their hearts and heritage. In Maine's Rachel Carson 
National Wildlife Refuge, a coalition of land trusts, public agencies, 
and advocacy groups is working to protect 110 acres at Timber Point; in 
fiscal year 2009 this coalition is requesting $3.5 million in LWCF 
funds and is raising $3.5 million in private matching funds that will 
be donated to the Federal acquisition effort. Groups including the 
Association for the Preservation of Cape Cod are working with us to 
protect the last large-acreage inholding at that National Seashore, 
where $2 million in fiscal year 2009 will complete funding of a key 
campground property whose public-spirited owner has endured financial 
hardship for 3 years while waiting for purchase funds to be assembled. 
In North Carolina a key tract in the beautiful Roan Highlands along the 
Appalachian Trail can be protected with just $1.875 million in LWCF 
funds, to be matched by almost $3 million in private funding and land 
value, thanks to a partnership that includes a generous landowner, the 
Appalachian Trail Conservancy, the Southern Appalachian Highlands 
Coalition and others.
    LWCF's stateside program also faces an array of conservation 
opportunities and threats in fiscal year 2009. Since 1965, the 
stateside program has provided 41,000 grants to States and local 
communities for park protection and development of recreation 
facilities. This program reaches deep into communities across our 
nation, supporting citizen-led efforts to conserve places of local 
importance, many with TPL's help. In 2006, LWCF stateside funding 
contributed to the protection of the 225-acre tidal estuarine park on 
Hawaii's Ka'u Coast. Last year, a stateside LWCF grant helped the Town 
of Dunstable, MA to protect 149 acres of rolling forestland and an 
adjoining historic home. Stateside funds also were essential to a 
conservation easement over 37,000 acres of Maine's famed 100-Mile 
Wilderness, the northernmost and wildest stretch of the Appalachian 
Trail. To meet needs such as these as they continue to arise in all 50 
States and in U.S. territories, we urge the restoration of funding to 
this program at the $125 million level.

                         FOREST LEGACY PROGRAM

    The U.S. Forest Service Forest Legacy Program has provided 
extraordinary assistance to States and towns seeking to preserve 
working forests in their communities. Each Forest Legacy project tells 
a story of land or resource protection and collaboration among Federal, 
State, and local partners. Each also includes significant State, local 
and/or private matching funds and a long-term commitment to non-Federal 
management. Since its inception in 1990, the Forest Legacy Program has 
protected over 1.5 million acres of forestland. Despite this 
subcommittee's best efforts, the funding trend for this program is 
incrementally downward. For fiscal year 2009, 82 conservation projects 
were submitted (by 41 States and three territories) to the Forest 
Service; the requests total $202 million in Forest Legacy Program need 
to protect 400,000 acres of forestlands valued at almost $400 million. 
Yet the President's budget recommends only $12.5 million for three 
projects. Our continued inability to meet demand has a long-term impact 
on the multiple public benefits that derive from forests--clean water, 
wildlife protection, public access to recreation, economic development 
and sustainable forestry.
    In fiscal year 2009, Forest Legacy project requests include 
checkerboard forestlands in Montana's north Swan Valley that are 
threatened with conversion to subdivision. Another project will protect 
almost 20,000 acres of Katahdin Forest adjacent to Maine's Baxter State 
Park and within the viewshed of the Appalachian Trail, ensuring 
wildlife habitat protection and access for snowmobilers and other 
recreationists. A third initiative--Eden Forest--seeks to protect 5,000 
acres of prime wildlife and recreation lands that represent the missing 
puzzle-piece in a 30,000-acre block of conserved land near the Long 
Trail Corridor in Vermont's Northern Forest. Yet another project will 
ensure the conservation of working ranchlands in Utah. To support these 
and other important fiscal year 2009 project needs, I urge your support 
for this important program at the level of $120 million in fiscal year 
2009.

      FISH AND WILDLIFE SERVICE--LAND CONSERVATION GRANT PROGRAMS

    We are grateful for the subcommittee's continuing efforts to 
support U.S. Fish and Wildlife Service grant programs. While funding 
has remained relatively stable in recent years, these conservation 
programs are consistently oversubscribed and unable to meet the 
overwhelming demand for cooperative grants. Through your continuing 
leadership and commitment, funding for the Cooperative Endangered 
Species Conservation Fund--leveraged by State and private funds--has 
protected threatened and endangered species habitat across the nation. 
Support provided through the Fund's Habitat Conservation Plan (HCP) 
Land Acquisition grants are allowing for huge gains in habitat 
consolidation. In Washington State, for instance, these grants were key 
to the protection of lands along Interstate 90 that provide a wildlife 
corridor for five federally listed land species and help conserve the 
Yakima River's bull trout and steelhead populations. Also supported 
through the Fund, Recovery Land Acquisition grants are fostering 
resource-saving partnerships and are leveraging considerable non-
Federal funds. In Arizona, for example, $2.25 million in grants were 
matched by over $4 million in non-Federal funds to allow the State to 
protect 4,300 acres of the most ecologically significant habitat on the 
historic Salero Ranch, sparing these sensitive lands from imminent 
development. We urge your support for funding of this program at the 
increased level of $96.2 million in fiscal year 2009.
    Regarding other FWS grant programs, the North American Wetlands 
Conservation Act (NAWCA) provides much-needed matching grants to carry 
out wetlands conservation, restoration and enhancement projects in the 
United States, Canada, and Mexico. Since 1990, over $836 million in 
grants has leveraged about $1.6 billion in matching funds and $946 
million in additional support to protect approximately 23.8 million 
acres of wetlands and associated uplands. TPL joins our many partners 
in utilizing these funds for wetlands conservation across the country. 
We commend your leadership in supporting continued level funding for 
this program at $42.6 million, as included in the President's budget. 
Finally, we urge you to consider an increase for the State and Tribal 
Wildlife Grants Program to a funding level of $85 million in fiscal 
year 2009. This strategic funding program supports grants aimed at 
preventing wildlife from becoming threatened and endangered through 
strategic conservation investments in every State and territory.

                         FOR THE FUTURE'S SAKE

    These programs determine the fate of our most treasured public 
lands. Just as much, they make a real difference in the lives of 
countless Americans. Whether we walk in a local park, cross-country ski 
through a national forest, or canoe across a lake or a bayou, our daily 
lives are healthier and reinvigorated by the public land experiences 
these programs foster. Those experiences span the generations. A South 
Carolina middle school student, working with his classmates and teacher 
to create an outdoor classroom at Congaree National Park, put it this 
way: ``I would like some day to maybe take my grand kids there. I would 
love to see their faces when they see that beautiful forest.''
    The Trust for Public Land continues to invest its resources, in 
concert with the Subcommittee, to protect our Nation's natural, 
cultural and recreational heritage. As ever, we are deeply thankful for 
the subcommittee's recognition of the importance of these efforts. We 
urge you to renew the investment in these programs and stand ready to 
work with you to accomplish great things. Thank you for help and 
support, and for your consideration of our requests.
                                 ______
                                 
       Prepared Statement of the Town Manager, Millinocket, Maine

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity, Madam Chairman, to present this written testimony 
in support of the appropriation of $5.1 million from the Forest Legacy 
Program to conserve more than 19,600 acres of forestland in north 
central Maine.
    I also urge your support, Madam Chairman, for a significant 
increase in funding for the Forest Legacy Program in fiscal year 2009 
to enable the protection of more forest resource projects than are 
identified in the President's Budget. The Budget for this year proposes 
a cut of 75 percent and sets aside funds for only three Forest Legacy 
projects nationwide out of 82 submitted by the states. Without 
additional funds, the program will not be able to continue its 
successful partnerships with States, local communities, and landowners 
to protect valuable forestlands, while retaining, in many cases, 
private ownership.
    With over 15 million acres of forestland, Maine remains one of this 
Nation's most heavily forested States. The white pine, spruce, fir, and 
northern hardwoods that characterize the Maine woods are a critical 
component in two of Maine's largest industries--forestry and tourism. 
They provide incredible recreational opportunities, including hiking, 
hunting, snowmobiling, fishing, camping, boating, and numerous other 
activities. This landscape also sustains valuable fish and wildlife 
habitat for many different animal species.
    One of the greatest challenges facing Maine's forests is the 
fragmentation of ownership and the conversion of lands to non-forest 
uses. With most of Maine's woods being privately owned, the State of 
Maine and its nonprofit partners have been working to protect critical 
areas using a combination of Federal, State, local, and private funding 
to purchase targeted fee lands and large-scale conservation easements. 
In the past 8 years, these efforts have resulted in the conservation of 
almost 2 million acres of forestlands, providing Maine with permanent 
protection of valuable natural resources, public access to renowned 
recreation lands, and continued harvesting of timber resources in a 
sustainable fashion.
    Continuing its focus on protecting strategically important lands 
for recreation, the State of Maine has proposed the 19,647-acre 
Katahdin Forest Expansion project for Forest Legacy Program funding in 
fiscal year 2009. The Katahdin Region, which is anchored by Baxter 
State Park, contains Maine's largest block of contiguous conservation 
lands: over 500,000 acres, stretching from the north end of Seboeis 
Lake, along the 100-Mile Wilderness, across Baxter State Park, and up 
the Allagash Wilderness Waterway. This project seeks to add five 
critical parcels to these conservation holdings. All five properties 
have traditionally been under active commercial forest management and 
are key contributors to the local wood-products industry, upon which 
nearby communities, such as Millinocket and Brownville, are heavily 
dependent. In addition, the properties contain critical wildlife 
habitat, including nesting areas for 29 loons on Seboeis Lake and a 
major deer-wintering area west of Northwest Pond. There is also 
extensive wading bird and waterfowl habitat both along the lakeshore as 
well as in open wetlands away from the lake. Recreation has always been 
a focus on these properties, and protection through the Forest Legacy 
Program would ensure not only recreational opportunities for sportsmen 
and anglers, but also opportunities for those who enjoy motorized 
recreation, including snowmobiling. Maine's popular snowmobile trail, 
ITS 85, runs across the properties and would otherwise be closed if 
this project falls through. These lands are also critical because they 
are part of the viewshed from the peak of Mount Katahdin, the northern 
terminus of the Appalachian Trail, and spectacular views of that iconic 
mountain can be seen from these properties as well.
    The three northern tracts (Millinocket Forest, Lookout Mountain, 
and Hunt Farm) total over 11,600 acres and are located east of Baxter 
State Park on or near the East Branch of the Penobscot River. The East 
Branch has been described as the most spectacular wilderness river in 
the Northeast, having falls and gorges interspersed with majestic views 
of the Baxter Park mountains. In addition to protecting uplands along 
this popular whitewater river, acquisition of the East Branch tracts 
will secure critical portions of ITS 85.
    The landmark 1982 Maine Rivers Study found that the East Branch had 
high ecological, hydrologic, scenic, and recreational resource values. 
The Maine Department of Environmental Protection also classified it as 
AA, its top water-quality rank. The East Branch supports fisheries for 
brook trout, landlocked salmon, and smallmouth bass, offering many 
different fishing experiences. The Millinocket Forest property has an 
expansive wetland with diverse cover types, such as spruce-fir swamp, 
dwarf shrub bog, mixed fern, alder swamp, and emergent marsh. 
Additionally, there are two major stream drainages, Sandy Stream and 
Mud Brook. One-third of the property is inland wading bird and wildlife 
habitat, home to species like Virginia rails, black ducks, American 
bitterns, and great blue herons. Lookout Mountain includes uplands that 
command a spectacular view of Mount Katahdin and offers opportunities 
for both motorized and non-motorized recreation.
    The two other tracts, totaling over 8,000 acres, are on the 
southern edge of the protected Katahdin Region lands surrounding 
Seboeis Lake, which is a wilderness lake with outstanding views of 
Mount Katahdin. The Seboeis tracts, Seboeis South and West, include 19 
miles of shore and island frontage and will complete Maine's 
conservation ownership around Seboeis Lake. Five of the 19 miles of 
shoreline are wetlands that have been determined to be of ``special 
significance'' by the Maine Department of Inland Fisheries and 
Wildlife. Maine's ``Wildlands Lake Assessment'' rated Seboeis Lake to 
be of ``statewide significance'', the highest ranking, due to its 
significant fisheries, wildlife, scenery, and cultural values. In terms 
of wildlife habitat, there are two known bald eagle nesting sites 
located just off the Seboeis West tract, and the protection zone around 
one of the nests extends onto the property.
    The Katahdin Forest Expansion project area is under critical threat 
of development or other conversion to non-forest uses. As recently as 5 
years ago, most land in townships bordering the east side of Baxter 
State Park was owned by two industrial forest owners, but there have 
since been more than a half-dozen transactions that have left these 
lands fragmented and sold to non-forest interests. All the available 
properties have access to I-95 and Bangor International Airport. They 
are emblematic of the Maine wilderness experience that is in such high 
demand in today's market. While Seboeis Lake is still remarkably 
pristine, Schoodic Lake, immediately to the west of Seboeis, has over 
400 camps, illustrating the demand for shorefront in the area. The 
current owner of the northern properties has indicated that barring 
acquisition by the State, future management will exclude forestry, 
hunting, and motorized access (including snowmobiling). This would have 
a significant negative impact on the local economy, which depends in 
large degree on forestry and tourism.
    In fiscal year 2009, $5.1 million in needed from the Forest Legacy 
Program to protect the Katahdin Forest Expansion properties from 
conversion to non-forestry uses. Supporting parties include the 
Appalachian Mountain Club, the Millinocket Town Council, Katahdin Area 
Working Group--Connect ME Committee, the Millinocket Town Manager, the 
Northern Timber Cruisers, The Wilderness Society, the Katahdin Area 
Chamber of Commerce, and the Natural Resources Council of Maine.
    Thank you again, Madam Chairman, for the opportunity to submit this 
testimony in support of the Katahdin Forest Expansion project.
                                 ______
                                 
           Prepared Statement of the Town of Ophir, Colorado

    Madam Chairman, Senator Allard, and honorable members of the 
subcommittee: Thank you Ms. Chairman for the opportunity to present 
public testimony in support of continued funding for the Ophir Valley 
Project and protection of important Federal lands. As the Mayor of the 
Town of Ophir, I am respectfully requesting the allocation of $2.5 
million to the U.S. Forest Service's fiscal year 2009 budget from the 
Land and Water Conservation Fund for the Ophir Valley Project. These 
funds will be used for the third phase of public acquisition of 1,200 
acres of privately owned forest service in-holdings in the Ophir 
Valley.
    The Ophir Valley Project represents an enthusiastic partnership of 
private land owners, regional communities, not-for-profit 
organizations, State and Federal agencies, and most importantly, the 
general public. Located on the San Juan Skyway Scenic Byway, Ophir 
Valley offers pristine alpine scenery, abundant recreational 
opportunities, and valuable habitat for threatened and endangered 
species. Easy public access is currently available for hiking, biking, 
rock climbing, hunting, camping, skiing, jeep touring, motorized 
recreation, and wildlife viewing. Due to the checkerboard pattern of 
privately owned patented mining claims, the Ophir Valley Project seeks 
to acquire these private in-holdings and consolidate U.S. Forest 
Service lands to insure permanent public access to Federal lands.
    The Town of Ophir has actively pursued a comprehensive, valley-wide 
land conservation program since 1992. Besides acquiring over 230 acres 
of mining claims and investing over $500,000.00 locally, the Town of 
Ophir has nurtured important relationships with private land owners and 
State and Federal agencies. The Pauls family has proven to be an 
invaluable resource and visionary partner with the Town of Ophir by 
supporting Ophir's land conservation goals and working with the Trust 
for Public Land. Now, after 16 years of dedicated land conservation 
efforts, the Pauls family is offering the last significant private land 
holdings in Ophir Valley for U.S. Forest Service acquisition.
    The Ophir Valley Project protection effort is the natural extension 
of the successful Red Mountain project, located just to the north and 
east of Ophir Valley. Federal funding for the Ophir Valley Project is 
complementing many regional projects along the 236 mile San Juan Skyway 
Scenic Byway (one of only 27 All American Roads in the National Scenic 
Byway program). The State's Great Outdoors Colorado Legacy Project 
program has pledged $5.7 million in grant funding to match local 
efforts to improve recreational opportunities and protect important 
lands along the San Juan Skyway.
    The requested funding for the Ophir Valley Project will produce the 
following benefits:
    1. Protect public access to many thousands of acres of U.S. Forest 
Service lands for diverse recreational opportunities;
    2. protect habitat for the Canadian Lynx, a federally listed 
threatened species; protect the endangered Uncompahgre Fritillary 
butterfly; and protect the headwaters for the San Miguel River, which 
sustains native cutthroat trout;
    3. improve U.S. Forest Service land management by consolidating 
ownership;
    4. leverage Federal funding support with over $10 million in State 
and local funding for regional recreation and land protection projects 
along the San Juan Scenic Byway;
    5. protect the historic character of this 1881 mining camp-town; 
and,
    6. protect the rugged alpine scenery of this pristine mountain 
valley.
    Thank you for your support and leadership in conserving Colorado's 
land and water resources. Land and Water Conservation Funding for the 
Ophir Valley Project will ensure future generations can enjoy this very 
special place in Colorado.
    Thank you for your consideration of this request.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to provide 
comments on the proposed fiscal year 2009 budget for the Department of 
Interior, Environment, and Related Agencies. The Wildlife Society 
represents nearly 8,000 professional wildlife biologists and managers 
dedicated to excellence in wildlife stewardship through science and 
education.

                     U.S. FISH AND WILDLIFE SERVICE

    Funding assistance for State wildlife agencies is one of the 
highest priority needs for wildlife, providing essential resources to 
conserve wildlife, fish, and habitat, and to prevent further declines 
in at-risk wildlife populations in every State. We appreciate the 
administration's recognition of the importance of the State Wildlife 
Grants Program through the $73.8 million request, but we strongly 
encourage even greater funding to achieve species conservation. States 
have recently completed their comprehensive wildlife conservation plans 
as mandated by Congress. These Wildlife Action Plans detail each 
State's species of greatest concern, their remaining habitats, 
limitations, and needed conservation actions. With the completion of 
all 56 State and territorial Wildlife Action Plans, it is critical this 
program receive increased funding to assist States with the 
implementation of on-the-ground actions associated with the plans. As 
part of the Teaming with Wildlife coalition, we recommend that $85 
million be appropriated for State Wildlife Grants in fiscal year 2009.
    Equally essential for Wildlife Action Plan implementation is the 
Landowner Incentive Program (LIP), which acts in a unique way to bring 
a source of funds to landowners This program is both an essential tool 
for wildlife conservation and a cost-saving mechanism that institutes 
actions on the ground that prevent wildlife species from becoming 
threatened or endangered. Funds invested in LIP today mean potential 
savings of millions in the future, by preventing species from declining 
to a point that requires listing under the Endangered Species Act. 
Maintaining funding for LIP is essential to sustaining the investment 
in delivery infrastructure already in place at State agencies, as well 
as supporting participation by private landowners in cooperative 
conservation. TWS urges you to restore the Landowner Incentive Program 
to $23.7 million, the fiscal year 2007 enacted level.
    The Wildlife Society is an active member of the Cooperative 
Alliance for Refuge Enhancement (CARE), a diverse coalition of 22 
wildlife, sporting, conservation, and scientific organizations 
representing over 14 million members and supporters. A comprehensive 
analysis by CARE determined that the National Wildlife Refuge System 
needs $765 million in annual operations and maintenance funding by 2013 
to properly administer its nearly 100 million acres, educational 
programs, habitat restoration projects, and much more. Many years of 
stagnant budgets have increased the Operations and Maintenance backlog 
to $3.5 billion, and forced plans for a dramatic 20 percent downsizing 
of the workforce. Refuge visitors often show up to find roads and 
visitor centers closed, observation platforms and hiking trails in 
disrepair, and habitat restoration and education programs eliminated. 
Invasive plant species are taking over and with a deficiency of more 
than 500 law enforcement officers, illegal activities such as poaching 
and trespass are on the rise. We are grateful for the much-needed 
budget increase that Congress provided the Refuge System for the 
current fiscal year, and we urge the Congress to build upon this 
important step in the fiscal year 2009 budget. We request that you 
provide $514 million in fiscal year 2009 for the Operations and 
Maintenance of the National Wildlife Refuge System.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. We are pleased by the administration's support of this 
program through its $42 million request, but recommend that you 
appropriate $50 million for the North American Wetlands Conservation 
Fund in fiscal year 2009.
    The Neotropical Migratory Bird Conservation Act provides a broad-
spectrum approach to bird conservation. The Wildlife Society recommends 
that Congress fund the Neotropical Migratory Bird Conservation Act at 
its full authorization of $6 million in fiscal year 2009.
    The Wildlife Society supports adequate funding levels for all 
subactivities within the Endangered Species Program, and is concerned 
with the proposed 2 percent budget reduction. Endangered species 
recovery efforts can ultimately lead to delisting actions that result 
in significant benefits to species through State management efforts. 
Currently, all subactivities are understaffed, as the costs for 
management of listed species continue to rapidly escalate. We recommend 
that Congress restore this program to the fiscal year 2008 level of 
$150.5 million.
    The Wildlife Society is very disappointed that funding for the 
Science Excellence Initiative has zeroed out for a second year in a 
row. Discontinuing funding for this office will prevent FWS from 
expanding its on-the-ground scientific capacity in adaptive resource 
management (ARM), structured decision analysis, and conservation 
genetics. We are concerned that the elimination of these programs will 
reduce the Service's capacities in these key areas and prevent the 
expansion of these programs to other regions of the Service. The 
Wildlife Society strongly recommends that Congress reinstate the 
Science Excellence Initiative at $493,000 in fiscal year 2009.
    A detailed peer review of the Draft Spotted Owl Recovery Plan by 
The Wildlife Society indicated the plan does not adequately avail 
itself of the depth and breadth of the extensive information available 
upon which to build a scientifically credible recovery plan. The result 
is a seriously flawed plan for recovery that weakens virtually every 
provision already in place for northern spotted owls. The Society 
recommends that FWS start over with a fundamental commitment to using 
the best available science and find real solutions to threats faced by 
spotted owls and their habitats. In doing so, FWS should reconstitute 
the membership of the recovery team so that it emphasizes biologists 
and ecologists with extensive expertise in the biology of the spotted 
owl and the ecology and management of Pacific Northwest forests.

                       BUREAU OF LAND MANAGEMENT

    The Bureau of Land Management (BLM) manages more public land than 
any other Federal agency. However, its programs to manage fish and 
wildlife are chronically understaffed: BLM has only one biologist per 
591,000 acres. The agency needs at least $60 million annually to simply 
keep up with actions assigned to it by recovery plans for listed 
species.
    The proposed budget for BLM's Wildlife Management Program is 
$31.443 million, a $719,000 increase over fiscal year 2008. However, 
this includes $6.0 million for the Healthy Lands Initiative. Therefore, 
an increase of $5.281 million is required to simply maintain the 
program at fiscal year 2008 levels. However, given the significant 
underfunding of the BLM's wildlife programs, combined with the 
tremendous expansion of energy development across the BLM landscape, an 
increase to $52.086 million for the BLM Wildlife Management Program is 
warranted. This will allow BLM to maintain and restore wildlife and 
habitat by monitoring habitat conditions, conducting inventories of 
wildlife resources, and developing cooperative management plans.
    BLM's Threatened and Endangered Species Management Program would 
suffer a significant cut under the administration's request of $20.552 
million in fiscal year 2009. The current budget is woefully inadequate 
for BLM to meet its conservation responsibilities in endangered species 
recovery plans that identify more than $300 million of recovery tasks 
to be accomplished by BLM in the next 5 years. In addition, the 
administration's request ignores the agency's March 2001 report to 
Congress which called for a doubling of the current Threatened and 
Endangered Species budget to $48 million and an additional 70 staff 
positions over 5 years. In view of this gross inequity between resource 
needs and funding levels, we strongly encourage Congress to increase 
overall funding for the BLM endangered species program to $33.453 
million.

                         U.S. GEOLOGICAL SURVEY

    As a member of the USGS Coalition, The Wildlife Society supports 
$1.3 billion in funding for USGS in fiscal year 2009. This would enable 
USGS to meet new challenges while continuing to provide essential data 
for land-use management, sustainable natural resource development, and 
enhanced security from natural and manmade hazards. More investment is 
needed to strengthen USGS partnerships, improve monitoring networks, 
produce high-quality digital geospatial data and deliver the best 
possible science to address critical environmental and societal 
challenges.
    The Wildlife Society is concerned that the proposed budget includes 
only 82 percent of uncontrollables for the Biological Resources 
Discipline (BRD). We strongly recommend that Congress increase the 
fiscal year 2009 budget for BRD to a level that fully funds 
uncontrollables in order to prevent further erosion to essential 
programs and services.
    We are also concerned about the proposed $2,940,000 reduction to 
NBII funding and the impacts that this reduction may have on research 
focused on the critical issues of wildlife disease, invasive species, 
fire ecology, and migratory birds. The Wildlife Society recommends that 
Congress fund NBII at the fiscal year 2008 enacted level of $22.422 
million.
    We also support increased funding for the Cooperative Fish and 
Wildlife Research Units (CFWRUs). The CFWRUs are a jointly funded 
Federal/State partnership, where the Federal Government provides the 
funding for personnel and States provide funding to establish the units 
at a university. At funding levels proposed for fiscal year 2009, the 
Federal Government will not be able to meet its commitments outlined in 
existing agreements with States, and closure of one or more CFWRUs is a 
distinct possibility. fiscal year 2001 was the last time Congress fully 
funded the CFWRUs, allowing unit productivity to rise to record levels. 
Since then, budgetary shortfalls have caused an erosion of available 
fiscal resources, resulting in a current staffing vacancy of 23 
researcher positions, nearly one quarter of the professional workforce. 
In order to fill current scientist vacancies, restore seriously eroded 
operational funds for each CFWRU, and enhance national program 
coordination, the fiscal year 2009 budget for the CFWRUs should be 
increased to $19.174 million. This would restore necessary capacity in 
the CFWRU program and allow it to meet the Nation's research and 
training needs. It would also ensure that the Interior Department 
provides the Federal scientist staffing agreed to with partners, so 
that the return on their continuing investment in the CFWRUs is 
realized and fully leveraged.
    The CFWRUs are crucial to successfully addressing the natural 
resource management challenges posed by climate change, energy 
development needs, invasive species, infectious diseases, and wildfire. 
These challenges also include replacing the unprecedented number of 
natural resource professionals who will be retiring over the next 10 
years. To begin meeting these high priority research and training needs 
in fiscal year 2009, we ask that you establish a competitive, matching 
fund program within existing CFWRU legislative authority that would 
make available $5 million annually in new funds beyond base operational 
costs.
    The Wildlife Society appreciates the funding for the National 
Global Warming and Wildlife Science Center, which in fiscal year 2008 
provided up to $2.5 million for the Center's establishment. This center 
will play a pivotal role in addressing the impacts of climate change on 
fish and wildlife. Additional funding is needed in fiscal year 2009 to 
continue establishment of the Center, begin to fund key research 
priorities, and enable USGS and its partners to develop a plan for 
moving forward. The Wildlife Society recommends that the National 
Global Warming and Wildlife Science Center be funded at $10 million in 
fiscal year 2009.

                          U.S. FOREST SERVICE

    The Wildlife Society is deeply concerned that the President's 
budget proposes a 10 percent reduction for the Wildlife and Fisheries 
Habitat Management Program. We urge Congress to restore $36.4 million 
to this program, for a total of $154 million in fiscal year 2009.
    Thank you for considering the recommendations of wildlife 
professionals. We are available to work with you and your staff 
throughout the appropriations process.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

    The Wilderness Society (TWS) appreciates this opportunity to 
provide recommendations and comments on the fiscal year 2009 
appropriations for wildfire management for the Department of the 
Interior and the U.S. Forest Service in the Department of the Interior 
and Related Agencies Appropriations bill. There are four areas we will 
address: (1) Wildfire Suppression Funding; (2) Wildland Fire Use (WFU) 
and Appropriate Management Response; (3) insufficient funding for 
community fire assistance programs and (4) Hazardous Fuels funding 
language.

                      WILDFIRE SUPPRESSION FUNDING

    Federal fire suppression costs have increased significantly in 
recent years, exceeding $1 billion in five of the last 7 years. The 
increasing cost of suppression is a result of a number of factors, 
including prolonged drought, past suppression policy (resulting in the 
build-up of hazardous fuels) and the explosive growth of communities 
into wildlands. As suppression activities continue to increase, so does 
the suppression budget since it is based on a 10-year rolling average. 
Because the agencies' budgets are essentially flat year to year, to 
off-set these increases funding for critical programs has been 
significantly reduced and more and more of the land management 
agencies' budgets are being used for wildland fire management (the 
largest component of which is suppression). For example, the Forest 
Service's fire funding has gone from 13 percent of their budget in 
fiscal year 1991 to a staggering 48 percent projected for fiscal year 
2009. This has severely compromised the agencies' ability to carry out 
their other mission duties.
    While appropriated suppression funds are significant, they have 
still fallen far short in recent years. To make up the difference, the 
agencies have depended on Congress to provide them additional emergency 
funding through supplemental appropriations and they have had to borrow 
money from other programs, often those very programs--hazardous fuels 
reduction and community assistance--that help bring down the costs 
associated with wildland fire. Recognizing that past borrowing caused 
project cancellations, strained relationships with partners, and 
disruptions in management, Congress has provided funding for a 
suppression reserve account for both the Forest Service and the 
Department of the Interior in prior years. The reserve account has 
helped reduce the negative impacts associated with transferring funds 
and, while TWS has appreciates the subcommittee's leadership in 
securing these funds, it is a short-term solution; a long-term solution 
to dealing with this problem is needed.
    TWS recommends a three-prong approach: (1) agency commitment to 
cost containment; (2) investment in 21st century fire management and 
forest restoration; and (3) fixing fire suppression funding. While some 
of the factors that have contributed to increasing suppression costs 
will be largely unaffected by cost containment strategies, the Federal 
agencies still can, and should, take measures to bring suppression 
costs down. The agencies have taken important steps in the right 
direction by pursuing numerous cost containment strategies, the most 
important of which is a new way of managing fires, called ``risk-based 
suppression'' or ``Appropriate Management Response (AMR)''--an approach 
to firefighting that treats each fire individually, accounting for 
threats to lives and property first, but also weighing factors like 
ecology and landscape and then applying the appropriate response--which 
can include the full range of tactical responses from monitoring to 
aggressive attack. The Wilderness Society applauds the agencies for 
undertaking cost containment measures and embracing the AMR approach 
and encourages the subcommittee to support them as they continue to 
make this difficult transition in fire management. It is important to 
recognize, however, that, while important, cost control measures alone 
will not be enough to solve this problem. As such, it's critical that 
the agencies not only strive to contain costs where they can, but also 
fully invest in 21st century fire management and forest restoration. 
That means maintaining their commitment to an AMR fire management 
strategy and fully implementing the 1995 Federal Fire Policy and its 
2001 Update, which includes a recognition that natural fire is 
important in maintaining our natural ecosystems and that natural fire, 
through the Wildland Fire Use (WFU) tool, should be used to protect, 
maintain, and enhance resources and, as nearly as possible, be allowed 
to function in its natural ecological role. That also means pursing all 
of the goals of the 10-Year Comprehensive Strategy, including community 
fire assistance and restoration of fire-adapted ecosystems. These 
changes will lead to healthier landscapes and less costly fire seasons 
in the future. To accomplish these goals, Congress and the agencies 
must invest in a 21st Century fire management force and invest in 
forest restoration--investments that must be on par with the one made 
in hazardous fuels reduction. A key aspect of this investment must be 
funding designated specifically for training and staffing in Wildland 
Fire Use. TWS recommends designating at least $10 million specifically 
for increasing staffing for and training in Wildland Fire Use.
    Unfortunately, skyrocketing suppression costs will not be 
completely alleviated by these actions. A new long term funding 
strategy is also needed. A new suppression funding structure that 
creates a separate flexible suppression spending account (usually 
referred to as ``partitioning'') for unanticipated large fire events 
from the already constrained Federal wildland fire budgets is required 
to free up funds to be invested in other key agency mission areas. The 
partition should be based on the true cost driver of suppression 
expenditures, extremely large fires. In general, a small percentage of 
wildfires burn most of the acres and consume a majority of total 
suppression funds. These fires are truly above and beyond normal 
budgeting processes, truly ``emergencies'' and should be paid for 
differently. Two key complements to this separate account are 
necessary: first, the agencies' normal suppression budgets must remain 
robust, reflecting current suppression needs for the remainder of fires 
and the fact that increased suppression costs are here to stay; and 
second, funds must be redistributed back into those programs that have 
been reduced because of increasing suppression costs (programs like 
land acquisition, recreation and wilderness, wildlife and fisheries, 
and inventory and monitoring). This ``partitioned'' suppression budget 
must also be closely tied to appropriate sideboards, cost containment 
controls, and line officer incentives to ensure that the agencies 
continue momentum to streamline costs and maintain their commitment to 
21st century fire management. This means there must be requirements the 
agencies must meet before they can access the account. These 
requirements should include, for example, that the fires for which this 
account is used meet certain minimum criteria--like size, severity, and 
values at risk. In addition, the agencies must be able to demonstrate 
that they remain committed to cost containment, that they are 
continuing to pursue an AMR fire management strategy, and that they are 
expanding their WFU programs before they can access this account. In 
addition, incentives should be put in place to limit the use of this 
account and to reward the agencies for not drawing down the account. 
Lastly, to ensure accountability, the agencies should annually report 
to Congress on how they spend the funds in this separate account. While 
it is important to alleviate the extreme budgetary pressures that have 
been placed on the agencies in the last few years due to escalating 
suppression costs, it is just as important that the agencies continue 
to demonstrate cost containment and accountability and movement towards 
a robust fire management strategy that includes incorporating fire back 
into its natural place on the landscape, as is required by the Federal 
Fire Policy.

                        WILDLAND FIRE USE (WFU)

    The default response to most fires, even those burning in remote 
areas, has been to fight them; contributing to skyrocketing suppression 
costs. It's clear that something needs to change--a mandate for 
restoration is needed. To put us on a path towards restoration, fire 
must be returned to the landscape, where safe and where appropriate. A 
tool that land managers can use to accomplish this is WFU, the practice 
of actively managing naturally-ignited fires in designated sections of 
forests to accomplish resource management goals.
    WFU is widely accepted by scientists and practitioners alike as an 
important tool to help restore forests, and reduce fire suppression 
costs. For example, in 2006 the Sequoia National Monument completed a 
9,000 acre WFU fire in the South Sierra Wilderness for only $149 an 
acre. The USDA IG recently recommended that the Forest Service expand 
its WFU program and other policy initiatives, including the National 
Fire Plan (NFP), the 10-year Strategy, and the Healthy Forests 
Restoration Act (HFRA), have endorsed the use of fire to improve 
ecosystem health. The Forest Service pledges to continue to pursue an 
expanded WFU program in their fiscal year 2009 Budget. They are also 
taking an important step forward by proposing a change in the way they 
``count'' hazardous fuels treatment acres. As a follow-up to a 
recommendation made by the USDA IG, the agency will develop a 
``science-based methodology to evaluate non-catastrophic acres burned 
in wildfire incidents as acres treated toward desired conditions.'' The 
agency notes that this change will ``encourage the cost-effective 
practice of using unplanned wildfires to reduce hazardous fuels when 
appropriate.'' TWS applauds the agency for taking this step forward and 
hopes the subcommittee will support this change. While we recognize 
that these are promising changes, institutional shifts like this one 
require resources and the right incentives to be successful and 
measurable milestones to mark progress. Currently, the agencies have 
inadequate funding and staffing to expand WFU, and internal policies 
act as disincentives. It is critical that Congress engage to both 
increase opportunities for the application of WFU as well as provide 
the additional resources necessary to capitalize on these 
opportunities. As such, we recommend that the subcommittee: (1) 
designate at least $10 million in funding from the suppression or 
preparedness line items to increase training and staffing for WFU at 
DOI and USFS; (2) monitor the agencies as they move forward in making 
fire policy changes that allow a wildland fire to be managed for both 
suppression and WFU and ensure these changes are finalized.

                       COMMUNITY FIRE ASSISTANCE

    To successfully reduce suppression costs and restore forests, we 
must approach fire management on the terms dictated by fire itself--
across ownership boundaries. Safe communities and healthy landscapes go 
hand-in-hand. In 2001, the USFS and the Department of the Interior 
identified over 11,000 communities adjacent to Federal lands that are 
at risk from wildland fire; State Foresters estimate over 51,000 
communities at risk. The scope of the problem is clearly enormous--and 
growing. Experts predict that almost 8 million new homes will be built 
in the wildland-urban interface (WUI) between 2005 and 2010. Increased 
population in the WUI is one of the primary reasons suppression costs 
have skyrocketed to over $1 billion per year. Communities that are 
``firesafe'', or well-prepared for fire, are key to reducing these 
suppression costs--and ultimately restoring functional, and fire-
resilient, wildlands. However, funding for the programs that help 
communities meet this goal has trended downward since fiscal year 2001 
and that trend continues with the administration's fiscal year 2009 
Budget request, which proposes to slash these programs even further--by 
27 percent. One of the most important community assistance programs is 
State Fire Assistance (SFA). It is a key part of a long-term strategy 
to reduce suppression costs because it funds proactive fire risk 
reduction activities, fire prevention campaigns, public education, and 
most critically, Community Wildfire Protection Planning (CWPP). This 
program has significant and wide-ranging support; last year TWS joined 
with over 40 diverse groups, ranging from the Society of American 
Foresters to the Idaho Conservation League, to ask for increased and 
sustained funding for SFA. Unfortunately, the President's fiscal year 
2009 Budget proposes reducing the already woefully underfunded State 
Fire Assistance program by 25.5 percent (from $80.6 million to $60.0 
million). Volunteer Fire Assistance, which targets rural communities 
with populations under 10,000, is proposed for a 6 percent reduction--
from $13.8 million to $13 million. The BLM's Rural Fire Assistance 
program was also once again proposed for elimination. Compounding these 
cuts is a drastic 58 percent reduction to the State and Private 
Forestry budget as a whole, an additional blow to private landowners. 
The National Association of State Foresters estimates SFA funding needs 
at a minimum of $145 million--the program's fiscal year 2009 proposed 
budget is less than half that. We appreciate that the subcommittee has 
consistently provided stable SFA appropriations responsive to on-the-
ground realities. We again request your leadership to restore and 
enhance SFA funding. TWS recommends no less than 20 percent of the 5-
year average of NFP appropriations be allocated to State and Local 
Assistance Programs generally, and 50 percent of that be targeted 
specifically to SFA, through a steady increase over 3 years. The first 
year should reflect an 80 percent increase above the historic average 
for SFA, resulting in a $144 million appropriation that would meet 
projected needs. TWS also recommends that BLM's Rural Fire Assistance 
program be restored to $10 million.

                    HAZARDOUS FUELS FUNDING LANGUAGE

    As already noted, fire management must take place across 
jurisdictions, at a landscape scale, to be successful. An important 
tool for accomplishing this has been the ability of the Forest Service 
to use up to $15 million of its Hazardous Fuels funding on non-Federal 
lands directly adjacent to active hazardous fuels treatment projects on 
National Forests to mitigate risks of hazardous fuels conditions on 
non-Federal lands in the WUI. This legislative language has been in 
place since it was added to the 2002 the Interior and Related Agencies 
Appropriations bill. Numerous agency partners on the ground have 
emphasized the importance of these funds in helping them carry out 
projects, in concert with the Forest Service, that help them build 
defensible space around their communities. In the President's fiscal 
year 2009 Forest Service Budget this previous authorization is proposed 
for deletion. TWS recommends that the subcommittee retain this 
language.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

    The Wilderness Society (TWS) represents more than 310,000 members 
and supporters across the United States who support our mission to 
protect wilderness and inspire Americans to care for our wild places. I 
thank the committee for the opportunity to submit comments on the 
fiscal year 2009 Department of the Interior and Related Agencies 
Appropriations bill.
    Last year, the Federal allocations reversed the near decade-long 
pattern of severe funding cuts to numerous conservation programs. We 
applaud Congress for increasing appropriations for essential public 
land conservation activities, particularly the boosts for wildlife 
refuges and national parks. Despite this progress, these and other 
indispensable conservation programs continue to suffer from years of 
under-funding. To avoid the slow, steady collapse of our public land 
conservation systems, we ask that you take bold, immediate action in 
making additional investments for fiscal year 2009. As a minimum step 
toward adequate funding of our public land programs and to meet new 
challenges associated with climate change, TWS recommends:

                    LAND AND WATER CONSERVATION FUND

    As a Federal side program with a State matching grant program, the 
Land and Water Conservation Fund (LWCF) has been this Nation's single 
most effective tool for creating new parks and open spaces, protecting 
wild lands and wetlands, preserving wildlife habitat, and enhancing 
recreational opportunities. The Federal program provides funds to 
purchase land and water resources for national parks, forests, wildlife 
refuges, and other public lands. The State matching grants program 
provides funds to assist in the acquisition of urban open space and 
creation of local recreation facilities. For fiscal year 2009, the 
administration's budget proposal slashes LWCF funds by more than $110 
million, reducing the funding level to nearly $43 million. TWS' fiscal 
year 2009 recommendation for the LWCF is $403 million ($278 million for 
Federal and $125 million for stateside), an increase of $248.7 million 
over fiscal year 2008 enacted level of $154.3 million.
    A Sampling of TWS LWCF and Forest Legacy Acquisition Priorities for 
fiscal year 2009:
  --AZ--Las Cienegas National Conservation Area. LWCF Request: $550,000
  --CA--California Desert Wilderness. LWCF Request: $500,000; Santa 
        Rosa and San Jacinto Mountains National Monument. LWCF Request: 
        $2.58 million
  --CO--Canyons of the Ancients National Monument. LWCF Request: $3 
        million
  --GA--Silver Lake--Forest Legacy Request: $4.5 million
  --ID--Idaho Wild & Scenic River--Morgan Ranch. LWCF Request $2.2 
        million; Upper Snake/South Fork Snake River ACEC/SRMA. LWCF 
        Request: $300,000
  --NC--Appalachian National Scenic Trail--Roan Highlands. LWCF 
        Request: $1.8 million
  --MN--Upper Mississippi River NWR (includes WI, IA, and IL). LWCF 
        Request $500,000
  --NH--Lake Umbagog NWR. LWCF Request: $1 million
  --NM--Kasha-Katuwe Tent Rocks National Monument. LWCF Request: 
        $502,000
  --OR--Cascade Siskiyou National Monument. LWCF Request: $3.6 million
  --SC--Congaree National Park--1,840 acres Riverstone tract. LWCF 
        Request: $5.3 million
  --TN--Rocky Fork, 10,000 acres located along the Appalachian Trail 
        Corridor on the NC-TN line. LWCF Request: $9 million; North 
        Cumberland Conservation Area. Forest Legacy Request: $8.1 
        million
    Bureau of Land Management (BLM).--Once again, the President's 
budget makes oil and gas drilling its top priority, funding a $22 
million increase in the program, while reducing allocations for such 
programs as fisheries management, cultural resources management, 
threatened and endangered species management, and resource protection 
and law enforcement. In addition, the administration has asked that 
Congress delete the prohibition on use of appropriations to finalize a 
commercial oil shale leasing program and on holding commercial oil 
shale lease sales. We recommend a reduction in the allocation for the 
oil and gas program, the imposition of a ``due diligence fee'' on the 
more than 30 million acres of idle onshore Federal oil and gas leases, 
similar to section 7224 of H.R. 3221 passed by the House last year, and 
a reallocation of funds to programs such as fisheries management, 
cultural resources management, threatened and endangered species 
management, and resource protection and law enforcement. We also 
strongly urge retention of the prohibition on the use of funds to 
finalize a commercial oil shale leasing program because the BLM simply 
does not have enough information upon which to design and implement an 
appropriate commercial oil shale leasing and development program at 
this time.

              BLM'S NATIONAL LANDSCAPE CONSERVATION SYSTEM

    The Bureau of Land Management's (BLM) National Landscape 
Conservation System, comprising some 26 million acres of 
congressionally and presidentially designated lands and waters, such as 
national monuments and national conservation areas, represents some of 
the best places where one can experience the history and wild beauty of 
the West. The System provides innumerable recreational opportunities, 
critical wildlife habitat, clean water, wilderness, and open space near 
fast-growing cities. The President's budget request represents a needed 
$2.6 million increase over his 2008 request, though it is still more 
than $3.5 million below last year's enacted level of $55.3 million. 
This year, the President's budget did add a budget category for the 
System's national monuments and national conservation areas, providing 
more transparency and improving managers' ability to plan for and track 
funding; however, additional clarity is still needed. TWS' fiscal year 
2009 recommendation is $70 million for the Conservation System, an 
increase of $14.7 million over fiscal year 2008 enacted level.

                          NATIONAL PARK SYSTEM

    Our National Park System, comprised of 387 units, includes some of 
our Nation's most beautiful landscapes and culturally significant 
areas. Increased funding for operations of the National Park System can 
help ensure that visitors have safe, enjoyable, and educational 
experiences in the park system. The President's budget provides $2.4 
billion for the Park Service and would increase the operations budget 
by $161 million to $2.1 billion. This money can be invested in 
interpretation, enforcement, and natural resource protection staff. 
Unfortunately, this increase comes at the expense of other critical 
Park Service funding, including a $46 million cut from the construction 
account. The request of $172 million for construction is a mere half of 
what was provided 5 years ago. These construction funds are badly 
needed to help the Park Service reduce its staggering parks maintenance 
and construction backlog.

                    NATIONAL WILDLIFE REFUGE SYSTEM

    The National Wildlife Refuge System, with its 548 refuges on nearly 
100 million acres of land, helps protect critical wildlife habitat, 
ensuring that wildlife protection remains a priority of these lands. 
There is a wildlife refuge in every State and within an hour's drive of 
most American cities. More than 35 million people visit refuges 
annually, generating nearly $1.7 billion for local economies and 
supporting almost 27,000 private sector jobs. Last year's operations 
and maintenance appropriation increase of nearly $39 million brought 
funding to a level that is close to what the Refuge System needed to 
keep pace with inflation costs over the past 5 years. This significant 
investment helped stem severe staff losses and program cuts. But years 
of stagnant funding fueled a spiraling backlog of $3.5 billion in 
operations and maintenance projects and a loss of more than 300 
positions since 2004. The Refuge System needs $765 million in annual 
funds to adequately address its operations and maintenance needs of the 
Refuge System. The President's budget request of $434 million fails to 
take into account annual inflation adjustments, which will cost the 
system nearly $15 million. TWS' fiscal year 2009 recommendation for the 
Refuge System is $514 million. This represents an increase of $79.9 
million over the fiscal year 2008 enacted level of $434.1 million.

                         NATIONAL FOREST LANDS

    We believe a proposed cut of 2,707 full time employees in the 
Forest Service, with almost 1,200 cuts in the National Forest System 
alone, could jeopardize many key functions that the Forest Service 
normally performs. In particular, TWS believes the potential 
elimination of the wilderness director and other leadership positions 
from the Forest Service program that manages 35 million wilderness 
acres would result in an inadequate organizational and management 
structure.
    Although the Forest Service cites the loss of open space as one of 
its top tier concerns, the President's proposed budget ignores this 
worry entirely. A proposed 58 percent cut to the State and Private 
Forestry program from the fiscal year 2008 enacted level of $262.6 
million--requesting just $109.5 million for fiscal year 2009--would 
jeopardize the Forest Service's ability to protect open spaces. Under 
the State and Private Forestry program, Forest Legacy would receive a 
drastic 76 percent cut from its fiscal year 2008 enacted level of $52.3 
million to $12.5 million under the President's budget. The Urban and 
Community Forestry program would also be cut to $5 million, which is an 
82 percent drop from last year's enacted level of $27.7 million. TWS' 
recommendation for fiscal year 2009 is that Forest Legacy be funded at 
$125 million and Urban and Community Forestry be funded at minimum $30 
million.
    In addition, TWS is concerned that the Forest Service has not moved 
toward a more serious and consistent approach to managing its 
increasingly deteriorating road system. The Forest Service should not 
only work to limit the construction of new roads, until it reaches a 
sustainable level of miles, but also prioritize decommissioning roads 
that are unneeded and causing environmental problems. The Forest 
Service can begin reaching this goal by maintaining and funding the 
Legacy Road and Trail Remediation Program at TWS' recommended level of 
$75 million. Additionally, the Roads Maintenance Program should be 
funded at a level that will help to maintain necessary roads. The 
Forest Service estimates a need of $649 million to meet its annual road 
maintenance needs. TWS recommends this program receive $325 million, 
half of these funds should be allocated to roads maintenance in those 
forests where a roads analysis, identifying the unnecessary and 
problematic roads that should be decommissioned, is completed.
    Recreation is the largest of the forest uses, making it critical 
that the Forest Service encourage recreation that is environmentally 
sound, including actions to help Americans adapt to a more climate-
responsible method of recreation. The Forest Service's ``travel 
management rule'' requires designating roads and trails that minimize 
impacts to visitors, waterways, and wildlife habitats. Although the 
Forest Service was instructed to pull dollars from several programs to 
fund the travel management projects, all of the funds to date have been 
derived from the Recreation program, thus constraining other Recreation 
programs. Therefore, TWS recommends a $115.8 million increase to the 
Recreation, Heritage and Wilderness program for travel management 
planning and implementation for fiscal year 2009. An additional 
increase of $30 million is recommended for the Wilderness and Wild & 
Scenic Rivers program.

                    STATE AND LOCAL FIRE ASSISTANCE

    In 2001, the Forest Service and the Department of the Interior 
identified over 11,000 communities adjacent to Federal lands that are 
at risk from wildland fire. State Foresters conservatively estimate 
45,000 communities at risk. The scope of the problem is enormous--and 
growing. Experts estimate that almost eight million new homes will be 
built in the wildland-urban interface (WUI) between 2005 and 2010. 
Increased population in the WUI is one of the main reasons suppression 
costs are skyrocketing. State Fire Assistance is the primary Federal 
program that helps communities prepare for fire by funding firefighter 
training, hazardous fuels reduction near communities, and Community 
Wildfire Protection Planning. TWS' fiscal year 2009 recommendation for 
State Fire Assistance is $144 million, an increase of $63.4 million 
over the fiscal year 2008 enacted level of $80.6 million.

                      WILDFIRE SUPPRESSION FUNDING

    Wildland fire will account for 48 percent of the Forest Service's 
budget in fiscal year 2009, overwhelming other agency mission areas. 
Moreover, experts are predicting that a changing climate will only 
increase the length of the fire season. To address this problem, 
Congress must: (1) fix the suppression funding structure; and (2) 
invest in a 21st century fire management force. A new suppression 
funding structure should create a separate fund for unanticipated large 
fire events, freeing up constrained Federal wildland firefighting 
budgets to be invested in the goals of the National Fire Plan and the 
10-Year Comprehensive Strategy. A robust commitment to new fire 
management strategies, like risk-based suppression and Wildland Fire 
Use, is also needed. This change will lead to healthier landscapes and 
less costly fire seasons in the future. TWS recommends implementing a 
new budget funding structure for wildland fire suppression and 
designating $10 million from suppression funding to increase Wildland 
Fire Use staffing and training.

                     LAND SALES AND ARCTIC DRILLING

    The administration once again proposes to sell BLM lands and to 
drill in the Arctic National Wildlife Refuge for deficit reduction and 
other purposes. Similar proposals included in previous administration 
budgets have been rejected by Congress. We urge the subcommittee to 
once again omit from its bill and report any language that would amend 
existing law to provide for such land sale and drilling provisions.
                                 ______
                                 
                Prepared Statement of the USGS Coalition

                                SUMMARY

    The USGS Coalition appreciates the opportunity to submit testimony 
in support of increased appropriations for the United States Geological 
Survey (USGS) for fiscal year 2009. We continue to believe that the 
USGS budget request is below the amount required to ensure the long-
term vitality of the agency. The USGS Coalition urges Congress to 
increase the budget of the U.S. Geological Survey to $1.3 billion in 
fiscal year 2009.
    The USGS Coalition is an alliance of 70 organizations united by a 
commitment to the continued vitality of the unique combination of 
biological, geographical, geological, and hydrological programs of the 
United States Geological Survey. The Coalition supports increased 
Federal investment in USGS programs that underpin responsible natural 
resource stewardship, improve resilience to natural and human-induced 
hazards, and contribute to the long-term health, security and 
prosperity of the Nation.
    The USGS plays a crucial role in protecting the public from natural 
hazards such as floods and earthquakes, assessing water quality, 
providing emergency responders with geospatial data to improve homeland 
security, analyzing the strategic and economic implications of mineral 
supply and demand, and providing the science needed to manage our 
natural resources and combat invasive species that can threaten 
agriculture and public health. The USGS is working in every State and 
has nearly 400 offices across the country. To aid in its 
interdisciplinary investigations, the USGS works with over 2,000 
Federal, State, local, tribal and private organizations.

                           FUNDING SHORTFALL

    The President's fiscal year 2009 budget request for the USGS is 
$969 million, which is $38 million or 4 percent below the fiscal year 
2008 enacted budget. The USGS budget has declined in real dollars for 7 
consecutive years and it would decline for an eighth year if the fiscal 
year 2009 budget request were enacted (Figure 1).
    In real terms, funding for the USGS is currently at its lowest 
level since fiscal year 1996, when the National Biological Service was 
integrated into the USGS (Figure 1). The decline in funding for the 
USGS during this time period would have been greater if Congress had 
not repeatedly restored proposed budget cuts. By contrast, overall 
Federal funding for research and development has increased 
significantly in real terms since fiscal year 1996.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Over the past several years, natural hazards have negatively 
affected communities across the country, including flash floods and 
forest fires in California, and hurricanes in Florida and the Gulf 
Coast region. Forest fires burned a total of 9,321,326 acres of land in 
the United States in 2007. These fires are not limited to western 
States. Virginia experienced a 16 percent rise in wildfires. Since an 
earthquake generated a tsunami that caused approximately 230,000 
fatalities near the Indian Ocean in 2004, people around the globe have 
a greater awareness and appreciation of the need to improve 
environmental monitoring, forecasting, and warning systems that can 
prevent natural hazards from becoming natural disasters
    Providing the information necessary to mitigate the impacts of 
natural disasters is a core function of the USGS. It operates seismic 
networks and conducts seismic hazard analyses that are used to 
formulate earthquake probabilities and to establish building codes 
across the Nation. The USGS monitors volcanoes and provides warnings 
about impending eruptions. Data from the USGS network of stream gages 
enables the National Weather Service to issue flood warnings. The USGS 
and its Federal partners monitor seasonal wildfires, provide maps of 
current fire locations and the potential spread of fires. Research on 
ecosystem structure and function assists forest and rangeland managers 
with forecasting fire risk and managing natural systems following 
fires. The USGS plays a pivotal role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year.
    Equally important, the USGS plays a critical role in bioinformatics 
and managing natural resources, essential to our economy, security, and 
environment. Baseline data about our Nation's biology and how it is 
changing is needed to understand and address climate change. The USGS 
provides fundamental scientific data that informs management of natural 
resources (e.g., data for Fish and Wildlife Service on polar bear 
populations), control of invasive species (e.g., snakehead fish, zebra 
mussels, and tamarisk) and monitoring of wildlife diseases (e.g., 
Highly Pathogenic Avian Flu, Chronic Wasting Disease) that can cause 
billions of dollars in agricultural losses.
    The USGS is uniquely positioned to address many of the Nation's 
environmental and security challenges, including energy independence, 
climate change, water quality, and conservation of biological 
diversity. Efforts to make the Nation more energy-independent requires 
recurring USGS assessments of previously unexploited mineral and 
emerging energy resources, including geothermal resources, and 
renewable energy sources such as biofuels.
    USGS research that spans the biological, geological, geographical, 
and hydrological sciences are essential for understanding potential 
impacts that could result from global climate change or from land 
management practices. These studies provide critical information for 
resource managers as they develop adaptive management strategies for 
restoration and long-term use of the Nation's natural resources.
    Greater investment in the USGS is required. This investment could 
be used to strengthen USGS partnerships, improve monitoring networks, 
produce high-quality digital geospatial data and deliver the best 
possible science to address societal problems and inform decision-
makers.

                          USGS BUDGET REQUEST

    The USGS Coalition urges Congress to increase the budget of the 
U.S. Geological Survey to $1.3 billion in fiscal year 2009, which is 
necessary for the agency to continue providing critical information to 
the public and to decision-makers at all levels of government. The 
budget increase recommended by the Coalition would enable the USGS to 
restore the science cuts proposed in the budget request (e.g., 
substantial reductions in the Mineral Resources program, Water 
Resources Research Institutes, National Water-Quality Assessment 
Program, earthquake hazards research grants, Toxic Substances Hydrology 
program, and National Biological Information Infrastructure), 
accelerate the timetable for deployment of critical projects (e.g., the 
National Streamflow Information Program and the multi-hazards 
initiative), and launch science initiatives that address new 
challenges.
    The President's fiscal year 2009 budget request would cut funding 
for the USGS by approximately $38 million or 4 percent to $969 million 
compared with the fiscal year 2008 enacted budget of $1.006 billion. 
The USGS budget request would provide funding for several initiatives, 
including Water for America, Ocean and Coastal Frontiers, Healthy 
Lands, and Birds Forever. These initiatives deserve the support of 
Congress.
    The USGS budget request would cut $24.6 million from the Mineral 
Resources program, a decrease of 48 percent that would decimate the 
program and necessitate buyouts of hundreds of Federal workers. The 
budget request would also eliminate all funding ($6.3 million) for the 
Water Resources Research Institutes, which are located in all 50 
States. Congress has repeatedly rejected similar proposed cuts to these 
programs in recent years and we urge Congress to reject these proposed 
cuts again this year.
    The President's budget request for fiscal year 2009 also proposes 
large cuts in other programs, including a $9.8 million reduction in the 
National Water-Quality Assessment Program, a $3 million cut in 
extramural research grants on earthquake hazards, a $3 million 
reduction in the Toxic Substances Hydrology program, and a $2.9 million 
cut in the National Biological Information Infrastructure (NBII). The 
proposed cut in the NBII would result in a 70 percent reduction over 3 
years, significantly impairing the agency's core capacity to provide 
access to high quality, integrated biological data that informs 
resource management decisions. The budget request also includes many 
smaller budget cuts. We encourage Congress to restore these cuts, but 
this funding should not come at the expense of other high priority 
programs elsewhere in the USGS budget.
    The USGS Mineral Resources program is an essential source of 
unbiased research on the Nation's mineral resources. This guidance is 
important to reduce the environmental impacts of mining and to maintain 
the growing value of processed materials from mineral resources that 
account for approximately $500 billion in the U.S. economy. The 
proposed cuts would terminate multidisciplinary research that has 
important implications for public health (such as studies on mercury, 
arsenic and other inorganic toxins), environmental protection, 
infrastructure, economic development, and national security.
    In addition to restoring proposed program cuts, we encourage 
Congress to consider additional increases that would enable the USGS to 
meet the tremendous need for science in support of public policy 
decision-making. More investment is needed to strengthen USGS 
partnerships, improve monitoring networks, implement important 
bioinformatics programs, produce high-quality digital geospatial data, 
and deliver the best possible science to address societally important 
problems. The USGS has a national mission that directly affects all 
citizens through natural hazards monitoring, water resource studies, 
biological and geological resource assessments, and other activities.
    The USGS Coalition is grateful to Congress for its leadership in 
restoring past budget cuts and strengthening the U.S. Geological 
Survey. Thank you for your thoughtful consideration of our request. For 
additional information or to learn more about the USGS Coalition, 
please visit www.USGScoalition.org or contact co-chairs Robert Gropp of 
the American Institute of Biological Sciences (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6d4c1d4c9d6d6e6c7cfc4d588c9d4c1">[email&#160;protected]</a>) or 
Craig Schiffries of the Geological Society of America 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197a6a7a71707f7f6b707c6a597e7c766a767a707c6d6037766b7e">[email&#160;protected]</a>).
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

    For 39 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training and family 
services to some of the most impoverished Indian students from 
throughout the Nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We have consistently had excellent 
results, placing Indian people in good jobs and reducing welfare rolls. 
Bureau of Indian Education (BIE) funds constitute about half of our 
operating budget and provide for our core instructional programs. We do 
not have a tax base or State-appropriated funds on which to rely. The 
requests of the United Tribes Technical College Board for the fiscal 
year 2009 BIE budget are:
  --$4.5 million in BIE funds for UTTC, which is $500,000 over the 
        fiscal year 2008 level.
  --We ask for the committee's continued support for a Memorandum of 
        Understanding between the BIA and UTTC concerning training and 
        certification of BIA law enforcement officers.
  --A requirement that the BIA/BIE place more emphasis on funding and 
        administrative support for job training and vocational/
        technical education. The administration's fiscal year 2009 
        request for Job Placement and Training is $8,864,000 with an 
        additional $2,011,604 under TPA adult education for a total of 
        $10.9 million. This is a $429,396 reduction from fiscal year 
        2008. The fiscal year 2009 amount is far less than the fiscal 
        year 1970 appropriation of $60 million for this program. There 
        is little BIA/BIE leadership or advocacy for job training or 
        vocational/technical education at the central or regional 
        office levels.
    The administration, for the seventh straight year, has requested no 
funding for United Tribes Technical College or for Navajo Technical 
College. Thankfully, Congress understands the value of investing in 
tribal postsecondary education and has restored the funding each year.
    This crass, outrageous and irresponsible proposal, if carried out, 
would irreparably harm Indian students who often have no other chance 
for improving their lives but through UTTC and Navajo Technical 
College. The administration's request represents a failure to 
understand our educational mission and the nature of the populations we 
serve.
    Our students are disadvantaged in many ways. They often come from 
impoverished backgrounds or broken families. They may be overcoming 
extremely difficult personal circumstances as single parents. They 
often lack the resources, both culturally and financially, to go to 
mainstream institutions. UTTC provides a set of family and culturally-
based campus services, including: an elementary school for the children 
of students, housing, day care, a health clinic, a wellness center, 
several on-campus job programs, student government, counseling, 
services relating to drug and alcohol abuse and job placement programs 
that enable our students to start on the road to realizing their 
potential.
    The administration states that UTTC has other sources of funding to 
carry out its mission. This is not correct. Our present Bureau of 
Indian Education and Perkins funds (also cut entirely from the 
President's fiscal year 2009 budget) provide for nearly all of our core 
postsecondary educational programs. Almost none of the other funds we 
receive can be used for core career and technical educational programs; 
they are supplemental and help us provide the services our students 
need to be successful. Moreover, these other programs are competitive, 
which means we have no guarantee that such funds will be available to 
us in the future. We cannot continue operating without BIE funds.
    The administration's stated view that because there other tribal 
colleges in North Dakota and that the Navajo Nation has Dine College 
that UTTC and NTC do not need BIE funding is specious at best. We 
educate Indian students from throughout the Nation, many from tribes 
which do not have tribal colleges. We need more capacity at UTTC and 
NTC and the other tribal colleges, not less, because the demand from 
Indians for higher education is there.
    Below are some important facts about United Tribes Technical 
College.
    UTTC Performance Indicators. UTTC has:
  --An 81 percent retention rate
  --A placement rate of 94 percent (job placement and going on to 4-
        year institutions)
  --A projected return on Federal investment of 20-to-1 (2005 study 
        comparing the projected earnings generated over a 28-year 
        period of UTTC Associate of Applied Science and Bachelor degree 
        graduates of June 2005 with the cost of educating them.)
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also the only tribal college 
        accredited to offer accredited on-line (Internet based) 
        associate degrees.
  --More than 20 percent of our students go on to 4-year or advanced 
        degree institutions.
    Law Enforcement Training.--We ask for the continued support of 
Congress in obtaining a Memorandum of Understanding with the BIA's 
Police Academy in New Mexico that would allow our criminal justice 
program to be recognized for the purpose of BIA and Tribal police 
certification, so that Tribal members from the BIA regions in the 
Northern Plains, Northwest, Rocky Mountain, and Midwest areas would not 
have to travel so far from their families to receive training. While we 
have received assurances from the Assistant Secretary for Indian 
Affairs that the MOU is under consideration, we need to know that this 
effort will continue into the next administration. We appreciate the 
language regarding the MOU in the fiscal year 2008 Senate 
appropriations report and ask that this language be included in the 
fiscal year 2009 committee report.
    The committee is concerned about the need for additional law 
enforcement officers in Indian country and to that end supports an 
articulation agreement between the BIA and United Tribes Technical 
College that would establish reciprocity between UTTC and the Bureau 
for training and certification of BIA law enforcement officers. (S. 
Rpt. 110-91, p. 38).
    We are also interested in developing training programs that would 
assist the BIA in the area of provision of trust services. We have 
several technology disciplines and instructors that are capable of 
providing those kinds of services with minimum of additional training
    The demand for our services is growing and we are serving more 
students. For the 2007-2008 year we enrolled 1,122 students (an 
unduplicated count), nearly four times the number served just 6 years 
ago. Most of our students are from the Great Plains, where the Indian 
reservations have a jobless rate of 76 percent (Source: 2003 BIA Labor 
Force Report), along with increasing populations. The need for our 
services will continue to increase at least for the next 5 to 10 years.
    In addition, we are serving 248 students during school year 2007-
2008 in our Theodore Jamerson Elementary school and 252 children, birth 
to 5, are being served in our child development centers.
    UTTC course offerings and partnerships with other educational 
institutions. We offer 15 vocational/technical programs and award a 
total of 15 two-year degrees (Associate of Applied Science (AAS)) and 
six 1-year certificates, as well as a 4 year degree in elementary 
education in cooperation with Sinte Gleska University in South Dakota. 
We are accredited by the North Central Association of Colleges and 
Schools for the longest accrediting period provided of ten years.
    Licensed Practical Nursing.--This program has one of the highest 
enrollments at UTTC and results in the greatest demand for our 
graduates. Our students have the ability to transfer their UTTC credits 
to the North Dakota higher educational system to pursue a 4-year 
nursing degree.
    Medical Transcription and Coding Certificate Program.--This program 
provides training in transcribing medical records into properly coded 
digital documents. It is offered through the college's Exact Med 
Training program and is supported by Department of Labor funds.
    Tribal Environmental Science.--Our Tribal Environmental Science 
program is supported by a National Science Foundation Tribal College 
and Universities Program grant. This 5-year project allows students to 
obtain a 2-year AAS degree in Tribal Environmental Science.
    Community Health/Injury Prevention.--Through our Community Health/
Injury Prevention Program we are addressing the injury death rate among 
Indians, which is 2.8 times that of the U.S. population, the leading 
cause of death among Native Americans ages 1-44, and the third leading 
cause of death overall. This program has in the past been supported by 
the Indian Health Service, and is the only degree-granting Injury 
Prevention program in the Nation.
    Online Education.--We are continuing to create increased 
opportunities for education by providing web-based and Interactive 
Video Network courses from our North Dakota campus to American Indians 
residing at other remote sites as well as to students on our campus. 
Online courses provide the scheduling flexibility students need, 
especially those students with young children. We offer online fully 
accredited degree programs in the areas of Early Childhood Education, 
Community Health/Injury Prevention, Health Information Technology, 
Nutrition and Food Service and Elementary Education. Over 50 courses 
are available online. We are currently teaching 30 online courses with 
170 course seats, including those in the Medical Transcription and 
Coding program.
    Another significant online course is suicidology--the study of 
suicide: its causes, prevention and the behavior of those who threaten 
or attempt suicide. Suicide in Indian country dramatically affects our 
communities, particularly our youth. According to the IHS, suicide 
rates in Indian Country are 6-8 times the national rate. We also 
provide an online Indian Country Environmental Hazard Assessment 
program, offered through the Environmental Protection Agency. This is a 
training course designed to help mitigate environmental hazards in 
reservation communities.
    Computer Information Technology.--This program is at maximum 
student capacity because of limitations on resources for computer 
instruction. In order to keep up with student demand and the latest 
technology, we need more classrooms, equipment and instructors. We 
provide all of the Microsoft Systems certifications that translate into 
higher income earning potential for graduates.
    Nutrition and Food Services.--UTTC helps meet the challenge of 
fighting diabetes in Indian Country through education. Indians and 
Alaska Natives have a disproportionately high rate of type 2 diabetes, 
and have a diabetes mortality rate that is three times higher than the 
general U.S. population. The increase in diabetes among Indians and 
Alaska Natives is most prevalent among young adults aged 25-34, with a 
160 percent increase from 1990-2004. (Source: fiscal year 2009 Indian 
Health Service Budget Justification).
    As a 1994 Tribal Land Grant institution, we offer a Nutrition and 
Food Services AAS degree in order to increase the number of Indians 
with expertise in nutrition and dietetics. Currently, there are very 
few Indian professionals in the country with training in these areas. 
Our degree places a strong emphasis on diabetes education, traditional 
food preparation, and food safety. We have also established the United 
Tribes Diabetes Education Center that assists local tribal communities, 
our students and staff to decrease the prevalence of diabetes by 
providing educational programs, training and materials. We publish and 
make available tribal food guides to our on-campus community and to 
tribes.
    Business Management/Tribal Management.--Another critical program 
for Indian country is business and tribal management. This program is 
designed to help tribal leaders be more effective administrators and 
entrepreneurs. As with all our programs, curriculum is constantly being 
updated.
    Job Training and Economic Development.--UTTC continues to provide 
economic development opportunities for many tribes. We are a designated 
Minority Business Development Center serving South and North Dakota. We 
administer a Workforce Investment Act program and an internship program 
with private employers in the region.
    We cannot survive without the core career and technical education 
funds that come through the Department of Interior. These funds are 
essential to the operation of our campus. Our programs at UTTC continue 
to be critical and relevant to the welfare of Indian people throughout 
the Great Plains region and beyond. Thank you for your consideration of 
our request.
                                 ______
                                 
      Prepared Statement of the Weber County Commission, Ogden, UT

    Madam Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present this testimony in support of an 
appropriation of $1.5 million for the Forest Service to acquire the 
150-acre North Ogden property for the Bonneville Shoreline Trail.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I urge the subcommittee to increase overall 
funding for this program in fiscal year 2009.
    For years, the residents of Salt Lake, Weber, Davis, Utah, and 
Cache Counties have benefited from their unique geographical location 
along the slopes of the Wasatch Range, which provides recreational 
opportunities, an escape from urban pressures, and a sense of community 
pride and identity. Development pressure poses the most serious threat 
to this valuable resource and will increase as the Wasatch Front 
population doubles within the next 10 to 25 years. This population 
growth and increased public use of these lands have raised issues of 
landowner liability and put pressure on these property owners either to 
sell their land or to restrict access to the trails, raising the 
possibility that this vital public recreational system could be 
impaired or lost.
    In 1990, representatives of the Wasatch-Cache National Forest, 
Weber County, the City of Ogden, the Boy Scouts, the Girl Scouts, the 
Convention Bureau, and other citizens groups concerned about the 
fragile thread that holds the trail system together, began meeting in 
an effort to protect and expand the trail corridor along the foothills 
of the Wasatch Mountain Range. As a result, the Bonneville Shoreline 
Trail (BST) project was developed, with a broad goal of extending the 
existing but threatened trail corridor already in place in the city of 
Ogden south to Provo, following the prehistoric shoreline of Lake 
Bonneville within the national forest. This partnership has been so 
successful that the communities in Cache and Box Elder County have 
worked to extend the trail north.
    Available for acquisition in fiscal year 2009 is the 150-acre North 
Ogden property in Weber County, a high priority for protection by the 
U.S. Forest Service. The property serves as important habitat for deer 
and elk and as an important buffer for fire protection for the rapidly 
developing area along the Wasatch Front. The property also provides 
watershed protection for neighboring areas in addition to key 
recreational resources.
    The North Ogden program is a partnership effort to provide a new 
stretch of the BST along the northern boundaries of North Ogden and 
Pleasant View, within the boundaries of the national forest. In 2005, a 
5-mile stretch of the BST along North Ogden and Pleasant View was 
secured through a trail easement along an existing utility corridor 
granted to the nonprofit Weber Pathways. The property available for 
protection this year is critical to the North Ogden program because it 
will bring Forest Service ownership to this stretch of the BST and add 
critical trail access to the citizens in this area of the State. 
Protection of this property will also protect beautiful views of the 
foothills of the Wasatch Front and Ben Lomond Peak, one of Weber 
County's most important landmarks, while conserving important wildlife 
habitat and winter range along this rapid growth area.
    In fiscal year 2009, $1.5 million is needed to acquire this BST 
property that is critically important to furthering the goals of the 
trail. If not protected, this area will be developed. Public access to 
this portion of the BST could be lost forever, and adjacent forest and 
wilderness lands would also be put at risk.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
       Prepared Statement of the Western Coalition of Arid States

    The Western Coalition of Arid States (WESTCAS) is submitting this 
testimony regarding the Presidents fiscal year 2009 budget request for 
the United States Environmental Protection Agency.
    WESTCAS is a coalition of approximately 125 water and wastewater 
districts, cities and towns and professional organizations focused on 
water quality and water quantity issues in the States of Arizona, 
California, Colorado, Idaho, Nevada, New Mexico, Oregon and Texas. Our 
mission is to work with Federal, State, and Regional water quality and 
quantity agencies to promote scientifically-sound laws, regulations, 
appropriations and policies that protect public health and the 
environment of the arid West.
    Protection of the public health and the environment is a high 
priority of citizens of the United States from all walks of life. As 
water services providers and professionals we hear from our citizens 
every day regarding the importance of safe drinking water, protecting 
habitat and wildlife and being stewards of the environment. The 
projects we work on and activities we conduct are driven by rules, 
programs and policies that have been developed due to past 
environmental legislation and appropriations that have accompanied 
them. As examples, we acknowledge the successes of the Safe Drinking 
Water Act, Clean Water Act, Clean Air Act, the Resource Conservation 
Recovery Act and others. As the lead agency for developing and 
implementing the programs and policies needed to achieve the goals of 
environmental legislation, The U.S. Environmental Protection Agency 
(EPA) conducts research, establishes monitoring and reporting programs, 
establishes mechanisms to enforce rules and allocates funds to assist 
the regulated community in meeting requirements.
    The arid West is the fastest growing region in the United States. 
The combined challenges of constructing and maintaining the 
infrastructure and treatment facilities necessary to meet new demands 
for water and wastewater services, rehabilitating and replacing aging 
infrastructure, and meeting increasingly stringent regulations will be 
insurmountable without local, State, and Federal commitments to 
financing the necessary infrastructure. WESTCAS, is concerned about the 
19 percent ($134 million) decrease in the Clean Water State Revolving 
Fund from the fiscal year 2008 enacted budget, being proposed in the 
President's fiscal year 2009 Budget. Increased construction costs have 
further eroded the value of the funding levels. WESTCAS supports 
funding the CWSRF to greater than the fiscal year 2008 level.
    Water Pollution Control (Clean Water Act section 106) Grants 
provide funding for States to carry out many programs including the 
development of water quality standards and Total Maximum Daily Loads. 
It also provides funding for monitoring activities. WESTCAS supports 
funding these programs at no lower than the fiscal year 2008 proposed 
levels rather than the fiscal year 2008 enacted levels. WESTCAS 
supports funding for enhanced monitoring activities, as this monitoring 
provides the basic data for the water quality standards and assessment 
programs.
    Primary enforcement authority for safe drinking water and clean 
water programs has been delegated by EPA to most of the WESTCAS States. 
With severe budget constraints, the ability of State agencies to 
respond to existing and emerging public health and environmental issues 
is becoming more challenging. Inspections, permitting and enforcement 
activities will be adversely impacted by decreases in Federal support. 
Without additional funding, inaccurate EPA databases that are critical 
for evaluating compliance and providing information to the public will 
continue to hinder EPA's ability to enforce regulations, create 
potential conflict between the regulatory agencies and the regulated 
community, and lower public confidence in both utilities and regulatory 
agencies. WESTCAS supports increasing State grant programs from the 
fiscal year 2008 levels in order to maintain regulatory programs and to 
bolster public confidence by eliminating inaccuracies in EPA's 
databases.
    WESTCAS has long been a proponent of sound science in developing 
water quality standards, especially for ephemeral and effluent 
dependent waters in the arid West. Water quality standards should be 
based on the characteristics of the specific aquatic communities that 
exist in the water bodies and public health-based uses of those waters. 
Therefore, WESTCAS is concerned about the almost $3 million reduction 
in the Clean Water Research Program and requests that those funds be 
restored.
    There has been recent media attention regarding pharmaceutically 
active compounds, personal care products and endocrine disrupting 
compounds in the Nations' waters. Response to the news articles by 
water utilities has been challenging in the face of little information 
on environmental impacts and especially human health effects. In the 
West, water supply and drought plans continue to grow increasingly 
dependent on the direct and indirect reuse of reclaimed water, making 
the need for additional research on the health effects of these 
compounds more urgent. WESTCAS requests that the approximate $3.6 
million in reductions to research on human health and ecosystems and 
toxics review and prevention associated with endocrine disruptors in 
the proposed fiscal year 2009 budget be restored and enhanced to 
include research associated with long-term exposure of humans to very 
low levels of pharmaceuticals and personal care products. Funding for 
the development of analytical methods to accurately and reliably 
determine the concentrations of these compounds is also critical. 
Finally, if health effects are identified, research is needed on 
treatment technologies capable of reducing these compounds to safe 
levels.
    WESTCAS appreciates the difficulty that Congress faces in providing 
funding for the many needs of the Nation and appreciates your 
consideration of these requests. We hope you agree that we as a nation 
cannot afford to compromise protection of public health and the 
environment in response to fluctuating economies.
                                 ______
                                 
       Prepared Statement of the Western Pennsylvania Conservancy

    Ms. Chairman, Senator Feinstein, and distinguished members of this 
subcommittee, I am grateful for the opportunity to submit testimony 
today on behalf of the board of directors, staff, and members of 
Western Pennsylvania Conservancy.
    Western Pennsylvania Conservancy (WPC) is Pennsylvania's oldest 
regional 501(c)3 non-profit conservation organization. During the past 
76 years, we have partnered with hundreds of community groups, 
conservation organizations, government agencies and individuals in more 
than 45 counties stretching from Pennsylvania's western reaches across 
the State to Harrisburg and beyond. We have approximately 9,400 member 
households and involve more than 5,000 volunteers every year in 
community conservation initiatives.
    In accordance with our mission, WPC conserves land of ecological, 
scenic, and recreational significance. We seek to use science-driven 
land conservation planning supported by engagement with communities, 
businesses and government partners to develop conservation approaches 
that work for all involved.
    WPC's land conservation initiatives have had a significant impact 
on the communities and landscapes of western Pennsylvania. Our work has 
enabled the permanent protection and stewardship of important natural, 
scenic and recreational assets. Since 1932, we have protected 225,000 
acres. Most of that land is now publicly owned and makes up some of our 
State's premiere parks, forests, game lands, and natural areas. They 
include lands integral to and within Allegheny National Forest in north 
central Pennsylvania, over 40 miles of riverbank land along the Clarion 
River now designated scenic and recreational under the National Wild 
and Scenic Rivers Act, numerous scenic and recreational areas in the 
Laurel Highlands of southwestern Pennsylvania, and six of 
Pennsylvania's State parks. These assets are enjoyed by millions of 
residents and tourists, and will be permanently preserved for enjoyment 
by future generations of Pennsylvanians.
    Today, our work is perhaps more urgent and necessary than ever 
before. The past four decades of suburban sprawl have changed our 
natural landscapes and reduced our open spaces. We are now beginning to 
clearly witness the negative repercussions of wholesale land use 
changes. In 2005, the U.S. Forest Service cast a spotlight on these 
threats in its Forests on the Edge report, which identified the top 15 
watersheds in the United States that would see the most serious 
development pressure over the coming decades. The publication predicts 
that 44 million acres of private forest nationwide will be converted to 
non-forest uses in the next 22 years.
    Given these stresses, it is concerning that less than 20 percent of 
eastern forests are permanently conserved or protected for future 
generations. Without a robust investment of both private and public 
funding, our landscapes will very likely transform and become 
unrecognizable in a very short time.
    This year were were alarmed to learn of the drastic cuts to two 
important land conservation programs in the President's fiscal year 
2009 budget request. The Land and Water Conservation Fund and Forest 
Legacy Program, our Nation's two flagship programs for investment in 
land conservation, are recommended for funding at irresponsibly low 
levels.
    Established in 1965, the Land and Water Conservation Fund has 
served the national interest as the primary source of funding for 
Federal land conservation efforts. Through this fund, every State has 
preserved critically important lands comprising our national forests, 
wilderness areas, historic and cultural sites, significant battlefields 
and recreation areas. In addition, the stateside portion accounts for 
the creation of thousands of local park and recreation projects such as 
ballfields and community parks.
    Established in the 1990 farm bill, the Forest Legacy Program is a 
partnership program which, according to the USFS web site,``protects 
`working forests' . . . those that protect water quality, provide 
habitat, forest products, opportunities for recreation and other public 
benefits.'' As of February 2008, Forest Legacy Program has suceessfully 
protected over 1.5 million acres of forestland in 37 States. Moreover, 
every Federal dollar spent is matched by private or non-Federal 
Government funding, making it a sound use of public resources.
    In every State in the Nation, LWCF or Forest Legacy Program funds 
have ensured that all Americans have access to lands where they can 
hunt, fish, play ball, hike, bird watch, paddle a canoe or ride a bike. 
Working only with landowners who are willing sellers, Federal, State, 
and local agencies are attempting to protect the best of what remains 
so that future generations can also reap the benefits of access to 
outdoor recreation, America's unique historic and cultural sites and 
protected wildlife.
    As a proud member of the Eastern Forest Partnership, the Western 
Pennsylvania Conservancy supports all of the specific projects named in 
their fiscal year 2009 publication, Open Space for America.
    Quoting from this report, these include:

              FISCAL YEAR 2009 FOREST LEGACY OPPORTUNITIES

    Highlands.--The forested ridgelines of the 3 million-acre Highlands 
region form a greenbelt from Philadelphia to Hartford that is also the 
water supply for more than 15 million Americans. Tree Farm, Adams 
County (PA) will conserve 2,500 highly threatened acres adjacent to 
State lands and the Appalachian Trail. Passaic/Ramapo Watershed II (NJ) 
will conserve 1,400 acres of critical watershed and recreation lands 
that provide missing links among 18,000 acres of existing State land.
    Northern Forest.--Northern Forest communities and non-profit 
organizations have formed creative partnerships to conserve key forest 
tracts. Machias River, Phase III (ME) will conserve 33,000 working 
forest acres around the existing Farm Cove Community Forest, connecting 
key pieces of a 1.3 million-acre conservation area. Eden Forest (VT) 
will conserve 5,700 acres of working forest within a 30,000-acre forest 
block adjacent to Vermont's famed Long Trail.
    Quabbin to Cardigan (Q2C).--The Quabbin to Cardigan Partnership is 
a landmark bi-state effort to conserve 600,000 interconnected acres. 
Crotched Mountain (NH) will help the Crotched Mt. Rehabilitation Center 
conserve lands and universally accessible forest trails that are key to 
its nationally recognized programs. Southern Monadnock Plateau, Phase 
II (MA) will conserve important interior forest tracts along the 
Monadnock to Metacomet Trail that traces the Q2C corridor.
    Southern Forests.--Southern forests have the Nation's most diverse 
and globally significant forest types. Cumberland Plateau (TN) will 
match $135 million in State and private funding to conserve 130,000 
acres of highly productive forestland across this ecologically rich 
landscape. Triple H (NC) will complement new Uwharrie NF acquisitions 
to conserve interior forests and recreation lands in the Piedmont 
region, one of the Nation's fastest growing areas. Chowan River 
Headwaters (VA) will conserve over 4,000 acres of rare coastal forest 
types and important riparian lands as part of the bi-state Southern 
Rivers Conservation Area.

    FISCAL YEAR 2009 LAND AND WATER CONSERVATION FUND OPPORTUNITIES

    Northern Forest.--The Connecticut River watershed and Mahoosuc 
region are top landscape conservation priorities in the Northern 
Forest. Silvio Conte NWR (VT/NH/MA/CT) will enable conservation of 
vital habitat areas throughout the 7.2 million-acre CT River watershed, 
including the refuge's first major acquisition in CT. Success Twp/
Appalachian NST (NH) will protect 4,000 acres along the most 
challenging and famed section of the entire Appalachian Trail as it 
passes through Mahoosuc Notch.
    Highlands.--The Highlands Conservation Act authorized $10 million 
of Federal funding annually for Highlands conservation projects 
selected by the four Highlands States. In fiscal year 2009, PA, NJ, NY, 
and CT are seeking HCA matching funds to conserve seven priority areas, 
including Ethel Walker Woods (CT) and Sterling Forest/Great Swamp (NY) 
that protect water supplies for Hartford and New York City, 
respectively.
    Southern Appalachians.--Recent LWCF funding shortfalls have created 
a backlog of historic conservation opportunities in the Southern 
Appalachians. Cherokee NF (TN) will conserve the Rocky Fork tract, 
10,000 acres of pristine watershed lands and scenic mountains adjacent 
to the Sampson Mt. Wilderness. Chattahoochee/Oconee NF (GA) will 
conserve key water supply lands around Macon and Atlanta at a time when 
drinking water supplies are under pressure across the South. Pisgah NF 
(NC) will conserve a Roan Highlands tract that contains three 
endangered high-elevation ecosystems adjacent to the Appalachian Trail. 
Talladega NF (AL) will conserve rare pine forests on Rebecca Mt. and 
complete the Pinhoti Trail within the forest.
    Southern Coastal Forests.--The rich bottomland hardwoods and 
diverse softwood forests of the southern coast are an economic and 
ecological treasure. Congaree NP (SC) will conserve almost 2,000 acres 
of the largest remaining bottomland hardwood forest in the Nation. 
Rappahannock River NWR (VA) will conserve important riparian lands and 
migratory bird habitat on a major Chesapeake Bay tributary.
    We would like to express and convey our strongest support for the 
Land and Water Conservation Fund and the Forest Legacy Program. As you 
continue the process of creating the fiscal year 2009 Interior, 
Environment and Related Agencies Appropriations bill, we urge you to 
provide $120 million for the LWCF State grants program, $278 million 
for the Federal LWCF program and $120 million for the Forest Legacy 
Program. While these numbers may appear large, especially when compared 
with the President's budget request, they truly represent the best 
levels required to meet the outstanding need and urgent demand.
    All across our country, communities, organizations and individuals 
are stepping up to identify and protect priceless lands from 
conversion. This challenge will require partnerships and programs that 
can provide the necessary tools and matching funds. The Federal 
commitment expressed through the Forest Legacy and LWCF programs is 
essential to their success.
    We understand the difficult decisions that the subcommittee faces 
in a tough budget climate. However, we are confident you will agree the 
LWCF and Forest Legacy Program are wise investments of our taxpayer 
dollars, providing a return on investment through invaluable 
recreational opportunities, water quality, wildlife habitat and open 
space.
                                 ______
                                 
       Prepared Statement of the Wyoming State Engineer's Office

    This statement is sent in support of fiscal year 2009 funding for 
the Bureau of Land Management (BLM) for activities directly benefiting 
the Colorado River Salinity Control Program. The activities needed to 
control salts reaching the Colorado River system from lands managed by 
the BLM fall within that agency's Land Resources Subactivity--Soil 
Water and Air Management Program. We request $5,900,000 be directed to 
enhancing Colorado River water quality and to engage in land management 
activities that will accomplish salt loading reduction in the Basin.
    Wyoming is a member State of the seven-State Colorado River Basin 
Salinity Control Forum, established in 1973 to coordinate with the 
Federal Government to assure maintenance of basin-wide Water Quality 
Standards for Salinity that have been in place for more than three 
decades. The Forum is composed of gubernatorial representatives who 
interact with the involved Federal agencies on the joint Federal/State 
efforts to control the salinity of the Colorado River. The Forum 
annually makes funding recommendations, including the amount believed 
necessary to be expended by the Bureau of Land Management for its 
Colorado River Basin Salinity Control Program. Overall, the combined 
efforts of the Basin States, the Bureau of Reclamation, the Bureau of 
Land Management and the Department of Agriculture have resulted in one 
of the nation's most successful non-point source control programs.
    The basin-wide water quality standards for salinity consist of 
numeric water quality criteria established and maintained at three 
Lower Colorado River points (Below Hoover Dam, Below Parker Dam and At 
Imperial Dam) and a plan of implementation describing the Program's 
components, including specific salinity control projects to remove salt 
from the River system. Pursuant to the Clean Water Act, the water 
quality standards for salinity are reviewed at least once each 3 years. 
At those intervals, the plan of implementation is jointly revised by 
the States and involved Federal agencies, including representatives of 
the Bureau of Land Management, to ensure that the planned actions are 
sufficient to maintain continuing compliance with the basin-wide Water 
Quality Standards for Salinity's numeric criteria.
    Successful implementation of land management practices by the 
Bureau of Land Management to control soil erosion and the resultant 
salt contributions to the Colorado River system is essential to the 
continued success of the Colorado River Basin Salinity Control Program. 
The BLM's fiscal year 2009 Budget Justification document reports that 
the agency continues to implement on-the-ground projects, evaluate 
progress in cooperation with the Bureau of Reclamation and the 
Department of Agriculture and report salt-retaining measures in 
furtherance of implementing the plan of implementation. As noted in the 
testimony of the Colorado River Basin Salinity Control Forum (as 
submitted by Jack A. Barnett, the Forum's Executive Director), the 
Forum's member States, including the State of Wyoming, believe that 
fiscal year 2009 Soil, Water and Air Management Program funds should be 
used, in part, to continue efforts that will directly reduce salt 
contributions from BLM-managed lands within the Colorado River Basin, 
consistent with BLM's fiscal year 2009 Budget Justification document. 
At its recent October 2007 meeting, the Forum, in consultation with BLM 
officials, recommended that the U.S. Bureau of Land Management should 
expend $5,900,000 in fiscal year 2009 for salinity control. 
Accordingly, we request that the BLM be directed to expend from Soil, 
Water and Air Management Program funds not less than $5,900,000 for 
activities to reduce salt loading from BLM-managed lands in the 
Colorado River Basin in fiscal year 2009.
    As one of the five principal Soil, Water and Air Program priorities 
identified by the BLM, projects directly accomplishing Colorado River 
salinity loading reductions should be funded. In the past, the BLM has 
used Soil, Water and Air Program funding for specific salinity control 
project proposals submitted to BLM's salinity control coordinator by 
BLM staff in the seven Colorado River Basin States. Through this 
competitive proposal consideration process, funds have been awarded to 
those projects having the greatest merit (as measured by their salt 
loading reduction and ability to quantify the salinity reduction that 
would be accomplished). The Colorado River Basin Salinity Control 
Forum's testimony to this subcommittee requests designation of 
$1,500,000 for this purpose. As Wyoming's Forum members, we wish to 
advise that the State of Wyoming concurs in that request.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, the collaborative efforts of the collective 
State/Federal agencies and organizations working through the auspices 
of the Colorado River Basin Salinity Control Forum have selected 
several watersheds where very cost-effective salinity control efforts 
can be implemented without additional delay or study. In keeping with 
the Congressional mandate to maximize the cost-effectiveness of 
salinity control, the State of Wyoming joins with the Forum in 
requesting that the Congress appropriate and the Administration 
allocate adequate funds to support the BLM's portion of the Colorado 
River Salinity Control Program as described in the adopted Plan of 
Implementation.
    The State of Wyoming appreciates the subcommittee's funding support 
of the Bureau of Land Management's statutorial responsibility to 
participate in the basin wide Colorado River Salinity Control Program 
in past years. We continue to believe this important basin-wide water 
quality improvement program merits funding and support by your 
subcommittee.
                                 ______
                                 
          Prepared Statement of the Wyoming Water Association

    On behalf of the members of the Wyoming Water Association, I am 
requesting your support for appropriations in fiscal year 2009 to the 
Fish and Wildlife Service (FWS) for the Upper Colorado River Endangered 
Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. The President's recommended budget for fiscal 
year 2009 includes FWS funding for these programs at the levels we are 
requesting. We request support and action by the subcommittee that will 
provide the following, as authorized by Public Law 106-392, as amended.
    1. Appropriation of $697,000 in ``recovery'' funds (Resource 
Management Appropriation; Ecological Services Activity; Endangered 
Species Subactivity; Recovery Element; within the $68,417,000 item 
entitled ``Recovery'') to the U.S. Fish and Wildlife Service (FWS) for 
fiscal year 2009 to allow FWS to continue its essential participation 
in the Upper Colorado River Endangered Fish Recovery Program. This is 
the same level of funding appropriated to the Recovery Program for this 
purpose in fiscal years 2004 through 2008.
    2. Appropriation of $475,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries and Aquatic Resource 
Conservation Activity; National Fish Hatchery System Operations 
Subactivity; within the $43,507,000 item entitled ``National Fish 
Hatchery Operations'') to support the ongoing operation of the FWS' 
Ouray National Fish Hatchery in Utah during fiscal year 2009.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2009 to meet FWS's Region 2 expenses in managing the San Juan Program's 
diverse recovery actions.
    Founded in 1933, the Wyoming Water Association is a Wyoming non-
profit corporation and voluntary organization of private citizens, 
elected officials, and representatives of business, government 
agencies, industry and water user groups and districts. The 
Association's objective is to promote the development, conservation, 
and utilization of the water resources of Wyoming for the benefit of 
Wyoming people. The WWA provides the only statewide uniform voice 
representing all types of water users within the State of Wyoming and 
encourages citizen participation in decisions relating to multi-purpose 
water development, management and use.
    The Wyoming Water Association is a participant in the Upper 
Colorado River Endangered Fish Recovery Program. That program, and its 
sister program within the San Juan River Basin, are ongoing 
partnerships among the States of Colorado, New Mexico, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Federal Endangered Species Act. The Department of 
the Interior continues to recognize these programs as national models 
demonstrating that collaboratively partnerships can successfully work 
to recover endangered species while addressing water needs to support 
growing western communities in a manner that fully respects State water 
law and interstate compacts. Since 1988, these programs have provided 
ESA Section 7 compliance (without litigation) for over 1,600 Federal, 
tribal, State, and privately managed water projects depleting more than 
3 million acre-feet of water per year.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. On 
behalf of the members of the Wyoming Water Association, thank you for 
that support and request the subcommittee's assistance for fiscal year 
2009 funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
             Prepared Statement of Yavapai County, Arizona

    Madam Chairman and honorable members of the subcommittee: Thank 
you, Madam Chairman, for the opportunity to present this testimony in 
support of an appropriation from the Land and Water Conservation Fund 
to enable the Forest Service and the Coconino National Forest to 
acquire the 139-acre Packard Ranch property in Yavapai County.
    As you know, Madam Chairman, this project is one of many worthy 
acquisition projects nationwide seeking LWCF funding. Unfortunately 
since fiscal year 2002, funding for LWCF has diminished by about 75 
percent, and the fiscal year 2009 Budget proposes further cuts. These 
reductions have left our national parks, refuges, and forests unable to 
acquire from willing sellers critical inholdings and adjacent lands 
that have been identified to protect and enhance recreational access, 
historic sites, wildlife habitats, scenic areas, water resources, and 
other important features. I respectfully request the subcommittee to 
increase overall funding for this program in fiscal year 2009.
    Within the boundaries of the Coconino National Forest is the 
56,000-acre Sycamore Canyon Wilderness area. This protected area is 
noted for the variety of its scenic landscapes--colorful cliffs, pine 
and fir forests, and a rare desert riparian area. The canyon winds for 
over 20 miles along Sycamore Creek, stretching seven miles from rim to 
rim at some places. Carved walls reveal layers of spectacular red 
sandstone, stark white limestone, and rugged brown lava. The water of 
the creek allows a rich habitat to flourish, including sycamores, 
walnuts, and cottonwoods.
    Adjacent to the Sycamore Canyon Wilderness and available for 
acquisition is the 139-acre Packard Ranch property, located upstream 
from the towns of Clarkdale and Cottonwood. The Verde River and 
Sycamore Creek are perennial streams that provide habitat for several 
endangered and threatened fish species and are important sources of 
drinking water for the Phoenix Metropolitan area. Both flow through the 
property. Existing nests of breeding bald eagles can be found nearby 
while other key wildlife (including the yellow-billed cuckoo, common 
black-hawk, peregrine falcon, and many bat species) are found on the 
property.
    Both Sycamore Creek and a section of the Verde River have been 
identified as potentially eligible for listing as wild and scenic 
rivers. The property contains portions of the area's desert riparian 
ecosystem and provides scenic views of red rock vistas in Sycamore 
Canyon. The area in which this property is located also has 
archeological resources of national and international importance.
    Packard Ranch includes an important trailhead providing access to 
the Sycamore Canyon Wilderness. Both the Parson's and Packard hiking 
trails are entered exclusively from this property. Although the public 
has traditionally been permitted to use this trailhead, there is no 
permanent guarantee of access. Properties with riparian frontage in 
Arizona are at a premium for development, and without permanent 
protection, it is conceivable that Packard Ranch could be developed. If 
this were to happen, the character of the landscape could change 
dramatically, and the public could lose access to the trails and 
wilderness area.
    With its strategic location within the Coconino National Forest, 
the acquisition of the Packard Ranch property will protect vital 
habitat, ensure continued public access to trails, and preserve the 
unique scenic vistas of Sycamore Canyon.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
       Prepared Statement of the Yellowhawk Tribal Health Center

    Honorable Chairwoman Dianne Feinstein, ranking member Wayne Allard, 
and members of the committee: I am Shawna Gavin, Chair of the 
Yellowhawk Tribal Health Center Health Commission, Confederated Tribes 
of the Umatilla Indian Reservation (CTUIR). Thank you for the 
opportunity to testify on the very important issues related to tribal 
health funding and the Administration's proposed decreases in the 
Indian Health Service Budget.
    Once again the proposed Indian Health Services budget falls far 
short of providing adequate health care for our people. In fact, the 
proposed budget does not live up to meeting the trust responsibilities 
the federal government has to Tribes.
    Yellowhawk Tribal Health Center currently manages an active Compact 
with the Federal government. In that, we have assumed the government of 
the United States' responsibility to provide health care and wellness 
services to the people of the CTUIR. For us to accomplish this in an 
effective, efficient and responsible manner we must be appropriately 
funded. We currently are unable to provide all necessary critical 
services let alone basic preventative care. Federal spending for Indian 
health care continues to lose ground compared to spending for the U.S. 
population at large. Tribal health care facilities are forced to 
prioritize care delivery and compete for non-existent funds to address 
facility shortcomings. Furthermore, Indians living on reservations 
still suffer the health effects of poverty at a much higher level than 
the national average. Incidences of diabetes, HIV, substance abuse, 
addiction and suicide continue to far exceed that of the rest of the 
country. While we work to address these shortcomings as a self-
governance facility, we cannot succeed without adequate funding. 
Passage and funding of the long neglected Indian Health Care 
Improvement Act reauthorization would go a long way toward this end and 
sets the stage for improving the health and wellness of our people now 
and into the future. Our people and all Indian people deserve access to 
high quality health care.
    With respect to the Indian Health Services budget, the Health 
Commission would like to address issues beyond the total amount of 
funds that are being proposed. These include:
  --Contract Health Services funding shortfalls,
  --Perpetual under funding of Contract Support Costs,
  --Extension of the Special Diabetes Program for Indians,
  --Decreases in Annual Funding Agreement, and
  --Lack of funding for new facility construction.
    The Health Commission recommends that the IHS budget be increased 
by $455 million in order to maintain current services. This is based on 
an early analysis of the 2009 budget by the Northwest Portland Area 
Indian Health Board, which indicates a proposed $21.3 million cut to 
the 2009 IHS budget.
    Specific concerns include:

              CONTRACT HEALTH SERVICES FUNDING SHORTFALLS

    Funding for services purchased outside of Tribal and Indian Health 
facilities have continually failed to keep pace with industry standard, 
medical inflation and the true need for delivery of adequate 
preventative and diagnostic health care. A major issue of concern is 
the proposed decreases to Alcohol and Substance Abuse funding. These 
cuts would not only reduce the number of treatment beds available to 
our Tribal members but reduce the funding available to pay for those 
beds at other facilities. Also of major concern are continued 
Catastrophic Health Emergency Fund (CHEF) shortfalls. These funds 
continue to be exhausted long before the budget year ends. This forces 
proactive Tribal facilities to protect these funds in order to account 
for the inevitable high dollar cases that present between the time the 
CHEF funds run out and the beginning of the next fiscal year. When 
forced to protect ourselves against this funding shortfall we have no 
choice but to prioritize and ration necessary, but routine health care. 
Many times we are left to fund only life saving health care procedures. 
This cycle will never allow a proactive approach to early disease 
detection, prevention or long term health and wellness.

           PERPETUAL UNDER PAYMENT OF CONTRACT SUPPORT COSTS

    In 1996 Yellowhawk Tribal Health Center, in good faith, contracted 
with the Federal Government to assume the responsibilities of health 
care delivery for the CTUIR: In 2004 we negotiated and completed a 
compacted agreement to continue this business arrangement. Since the 
inception of this agreement with the federal government we have been 
under funded. In fact, to date, the amount owed to the Yellowhawk 
Tribal Health Center as we make good on the responsibilities of the 
Federal Trust, exceeds $3.1 million and continues to increase. Fiscal 
year 2008 demonstrates a more than $16,000 decrease in contract support 
funding from fiscal year 2007. Again, these funding shortfalls put the 
quality of our health care delivery at risk by compromising our ability 
to recruit and retain quality employees and our ability to purchase and 
maintain modern health care equipment.

      EXTENSION OF THE SPECIAL DIABETES PROGRAM (SDPI) FOR INDIANS

    Inadequate past and present funding have left the Yellowhawk Tribal 
Health Center dependent on grant funding to address diabetes treatment 
and prevention. The SDPI Grant is scheduled to expire in the summer of 
2009. If it is not extended the impact on the Umatilla Reservation 
community, diabetic and non-diabetic, will be considerable. If we were 
to lose the more than $160,000 a year we receive from SDPI, we would 
have no choice but to eliminate many diabetes prevention initiatives 
that are just now demonstrating their benefit to our community's health 
and wellness. Further, the loss of the SDPI Grant would eliminate 
funding of approximately $80,000 currently committed to diabetic 
pharmaceutical purchases. Our pharmacy program cannot sustain this 
expense in addition to all other necessary pharmaceutical costs. Again 
we will be forced to prioritize treatment delivery perpetuating a cycle 
where preventative and diagnostic care models will be deemed of a 
lesser priority so that critical health care needs can be met.

                 DECREASES IN ANNUAL FUNDING AGREEMENT

    Annual funding agreements under our Compact with the Federal 
government have failed to keep pace with medical inflation, cost of 
living and increases in patient demand. Consequently we have no choice 
but to access reserve funds to maintain any level of quality care 
delivery and to meet the payroll for a skilled and talented staff 
Because we are expending every dollar of our annual funding agreement 
and significant dollars from reserve accounts, our future health care 
delivery is jeopardized. We cannot sustain augmentation of our annual 
funding agreement with reserve funds. We must do more to protect our 
community's health and wellness future and will be forced to scale back 
spending which will ultimately impact access to preventative and 
diagnostic health care services. Reauthorization of the long overdue 
Indian Health Care Improvement Act legislation is a necessity to assure 
adequate funding of critical needs as well as industry standard 
diagnostic and preventative health care.

             LACK OF FUNDING FOR NEW FACILITY CONSTRUCTION

    The CTUIR is in need of a new health care facility. The current 
structure has existed since 1976 and has been remodeled, modified and 
enlarged no less than seven times since then. Our patient demographic 
continues to age and grow and has resulted in an exponential increase 
in demand for health care services. Unfortunately there is no more 
ability for facility expansion. The facilities HVAC systems cannot keep 
up with facility demands as it is currently configured and has become 
so substandard that architects and engineers recommend against any 
additional expansion or renovation. This inability to grow severely 
impacts access to care, patient flow and the way in which health care 
is delivered. It also significantly effects recruiting and retention of 
quality employees. This is particularly the case with physicians and 
dentists. Again, the reauthorization of the Indian Health Care 
Improvement Act legislation is our only hope for a near term solution 
to our critical need for a suitable facility with modem treatment and 
health care delivery spaces.
    To reiterate, we are recommending at a minimum, a $455 million 
increase in Indian health care funding to address unavoidable increases 
in medical and general inflation, salary costs, additional staffing, 
and population growth. Minimum funding should also be provided to 
prevent the elimination of Urban Indian Health Programs.
    More importantly, this committee would do well to advance any and 
all Indian health care legislation and initiatives. These many years of 
funding shortfalls reflect political neglect and it is within your 
authority to address this in a proactive fashion.
    Thank you for your serious consideration.

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alamo Navajo School Board, Inc., prepared statement..............   221
Aleutian/Pribilof Islands Association, Inc., prepared statement..   222
Alexander, Senator Lamar, U.S. Senator from Tennessee............    53
Allard, Senator Wayne, U.S. Senator from Colorado:
    Opening statements.......................................2, 50, 161
    Questions submited by.......................................45, 203
Alliance:
    For Community Trees, prepared statement......................   224
    To Save Energy, prepared statement...........................   225
American:
    Association of Petroleum Geologists, prepared statement......   227
    Forest:
        Foundation...............................................   224
        Paper Association, prepared statement....................   229
    Forests, prepared statement..................................   224
    Geological Institute, prepared statement.....................   232
    Hiking Society, prepared statement...........................   234
    Indian Higher Education Consortium, prepared statement.......   237
    Institute of Biological Sciences, prepared statement.........   240
    Nursery & Landscape Association, prepared statement..........   224
    Society:
        For Microbiology, prepared statement.....................   244
        Of Agronomy, prepared statement..........................   241
Animal Welfare Institute, prepared statement.....................   247
Appalachian:
    Mountain Club, prepared statement............................   253
    Trail Conservancy, prepared statement........................   251
APS a Subsidiary of Pinnacle West Capital Corporation, Colorado 
  River District, prepared statement.............................   256
ASME Environmental Protection Agency (EPA) Task Force of the ASME 
  Environmental Engineering Division, prepared statement.........   260
Association:
    Of State:
        And Interstate Water Pollution Control Administrators, 
          prepared statement.....................................   259
        Drinking Water Administrators, prepared statement........   256
    To Preserve Cape Cod, prepared statement.....................   250
Audubon:
    Connecticut, prepared statement..............................   264
    Society of New Hampshire, prepared statement.................   265

Bennett, Senator Robert F., U.S. Senator from Utah...............   120
Blue Goose Alliance, prepared statement..........................   267
Bodine, Susan Parker, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, Environmental Protection Agency..     1
Bonneville Shoreline Trail Committee, prepared statement.........   269
Bristol Bay Area Health Corporation, prepared statement..........   270

California State Coastal Conservancy, prepared statement.........   273
Cascade Land Conservancy, prepared statements..................275, 276
Cason, James, Associate Deputy Secretary, Office of the 
  Secretary, Department of the Interior..........................   159
Center for Plant Conservation, prepared statement................   277
Central Utah Water Conservancy District, prepared statement......   256
Choctaw Nation of Oklahoma, prepared statement...................   279
Chugach Regional Resources Commission, prepared statement........   281
Citizens Committee to Complete the Refuge, prepared statement....   283
Clark, Michael S., prepared statement............................   284
Cochran, Senator Thad, U.S. Senator from Mississippi, questions 
  submitted by...................................................   218
Colorado River:
    Basin Salinity Control Forum, prepared statement.............   286
    Commission of Nevada, prepared statement.....................   288
Confederated Tribes of the:
    Colville Reservation, prepared statement.....................   288
    Umatilla Indian Reservation, prepared statement..............   290
Cooperative Alliance for Refuge Enhancement, prepared statement..   299
Corps Network, prepared statement................................   301
Council of:
    Energy Resource Tribes, prepared statement...................   304
    Western State Foresters, prepared statement..................   305
Craig, Senator Larry, U.S. Senator from Idaho....................    54
Crop Science Society of America, prepared statement..............   241

Dance/USA, prepared statement....................................   307
Defenders of Wildlife, prepared statement........................   309
Delaware Highlands Conservancy, prepared statement...............   312
Denver Water, prepared statement.................................   256
Domenici, Senator Pete V., U.S. Senator from New Mexico:
    Questions submitted by.......................................    46
    Statement of.................................................    52
Dzilth-Na-O-Dith-Hle Community Grant School, prepared statement..   313

Emissions Control Technology Association, prepared statement.....   316
Endangered Species Coalition, prepared statement.................   319
Environmental Council of the States, prepared statement..........   321

Feinstein, Senator Dianne, U.S. Senator from California:
    Opening statements.......................................1, 49, 159
    Questions submitted by......................................41, 142
Fond du Lac Band of Lake Superior Chippewa, prepared statement...   325
Fort River Partnership, prepared statement.......................   329
Friends of:
    Back Bay National Wildlife Refuge, prepared statement........   330
    Blackwater National Wildlife Refuge, prepared statement......   331
    Boundary Waters Wilderness, prepared statement...............   333
    Buenos Aires National Wildlife Refuge, prepared statement....   334
    Congaree Swamp, prepared statement...........................   335
    Hyde Farm, prepared statement................................   336
    Potomac River Refuges, prepared statement....................   337
    Rachel Carson National Wildlife Refuge, prepared statement...   339
    Virgin Islands National Park, prepared statements..........327, 340
    Wallkill River National Wildlife Refuges, prepared statement.   342
    Wertheim National Wildlife Refuge, prepared statement........   345
    Willamette Valley National Wildlife Refuge Complex, prepared 
      statement..................................................   346

Gathering Waters Conservancy, prepared statement.................   347
Georgia River Network, prepared statement........................   348
Great Lakes Indian Fish and Wildlife Commission (GLIFWC), 
  prepared statement.............................................   349
Green Mountain Club, prepared statement..........................   352
Gregg, Senator Judd, U.S. Senator from New Hampshire, question 
  submitted by...................................................   158
Grumbles, Benjamin H., Assistant Administrator, Office of Water, 
  Environmental Protection Agency................................     1

Hanover County Board of Supervisors, Hanover County, Virginia, 
  prepared statement.............................................   353
Hawaii Audubon Society, prepared statement.......................   354
Haze, Pam, Director, Office of Budget, Office of the Secretary, 
  Department of the Interior.....................................   159
Highlands Coalition, prepared statement..........................   355

Independent Tribal Courts Review Team, prepared statement........   364
Inter-Tribal Bison Cooperative, prepared statement...............   361
Interstate Mining Compact Commission, prepared statement.........   358
Irrigation Association, prepared statement.......................   364
Izaak Walton League of America, prepared statement...............   366

Jamestown S'Klallam Tribe, prepared statement....................   369
Jicarilla Apache Nation, prepared statement......................   256
Johnson, Hon. Stephen L., Admininstrator, Environmental 
  Protection Agen- 
  cy.............................................................     1
    Prepared statement...........................................     5
    Summary statement............................................     4

Kempthorne, Hon. Dirk, Secretary, Office of the Secretary, 
  Department of the Interior.....................................   159
    Prepared statement...........................................   166
    Summary statement............................................   163
Kern County Valley Floor Habitat Conservation Plan, prepared 
  statement......................................................   372
Kimbell, Abigail, Chief, Forest Service, Department of 
  Agriculture....................................................    49
    Prepared statement...........................................   112
    Summary statement............................................   111

Lac du Flambeau Tribe of Lake Superior Chippewa Indians, prepared 
  statement......................................................   374
Lago, Lenise, Budget Director, Forest Service, Department of 
  Agriculture....................................................    49
Lamoille County Natural Resources Conservation District and 
  Nature Center, prepared statement..............................   377
League of American Orchestras, prepared statement................   378
Lower Elwha Klallam Tribe, prepared statement....................   380
Lummi Indian Nation, prepared statement..........................   382

Michigan United Conservation Clubs, prepared statement...........   224
Mother Lode Chapter, Sierra Club, prepared statement.............   384

National:
    Association of:
        Abandoned Mine Land Programs, prepared statement.........   386
        Clean Air Agencies, prepared statement...................   388
        Forest Service Retirees (NAFSR), prepared statement......   391
        State:
            Energy Officials, prepared statement.................   394
            Foresters, prepared statement........................   224
            Universities and Land-Grant Colleges (NASULGC), Board 
              on Natural Resources (BNR), prepared statement.....   397
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   399
    Congress of American Indians, prepared statement.............   401
    Cooperators' Coalition, prepared statement...................   405
    Environmental Services Center, West Virginia University, 
      Morgantown, WV, prepared statement.........................   406
    Federation of Federal Employees Local 1957, prepared 
      statement..................................................   407
    Fish and Wildlife Foundation, prepared statement.............   408
    Plant Board, prepared statement..............................   224
    Wildlife Refuge Association, prepared statement..............   415
Natural Science Collections Alliance, prepared statement.........   413
Navajo Nation, prepared statement................................   256
Nelson, Senator Ben, U.S. Senator from Nebraska, questions 
  submitted by...................................................   203
New Mexico:
    Department of Game and Fish, prepared statement..............   417
    Interstate Stream Commission, prepared statement.............   418
Northern Colorado Water Conservancy District, prepared statement.   256
Northwest Indian Fisheries Commission, prepared statement........   420

Ohio State University, Department of Entomology, prepared 
  statement......................................................   224
OPERA America, prepared statement................................   423
Oregon Water Resources Congress, prepared statement..............   425
Outdoor Industry Association, prepared statement.................   427

Pacific Salmon Commission, prepared statement....................   430
Partnership for the National Trails System, prepared statement...   431
Peacock, Marcus C., Deputy Director, Environmental Protection 
  Agency.........................................................     1
Pelican Island Preservation Society, prepared statement..........   440
Penobscot River Restoration Trust, prepared statement............   441
PNM/San Juan Generating Station, Tri-County Water Conservancy 
  Distict, prepared statement....................................   256
Pueblo Board of Water Works, prepared statement..................   256
Purdue University, Department of Entomology, prepared statement..   224
Puyallup Tribe of Indians, prepared statement....................   441

Quinault Indian Nation, prepared statement.......................   444

Red River National Wildlife Refuge, prepared statement...........   447
Reed, Senator Jack, U.S. Senator from Rhode Island, questions 
  submitted by...................................................    43
Reid, Senator Harry, U.S. Senator from Nevada, questions 
  submitted by...................................................    47
Rey, Hon. Mark E., Under Secretary for Natural Resources and 
  Environment, Forest Service, Department of Agriculture.........    49
    Prepared statement...........................................   108
    Summary statement............................................    56
Rock Point Community School, Navajo Nation, Arizona, prepared 
  statement......................................................   450

San Juan Water Commission, prepared statement....................   256
Shoreline Education for Awareness, prepared statement............   452
Skokomish Tribe of Washington State, prepared statement..........   452
Society of American Foresters, prepared statements.............224, 455
Soil Science Society of America, prepared statement..............   241
Southern:
    Appalachian Highlands Conservancy, prepared statement........   458
    Ute Indian Tribe, prepared statement.........................   256
Southwestern Water Conservation District, prepared statement.....   256
Springer, Marie, prepared statement..............................   459
Squaxin Island Tribe, prepared statement.........................   460
Standing Rock Sioux Tribal, prepared statement...................   462
State of:
    Colorado, Office of the Governor, prepared statement.........   465
    New Mexico, Office of the Governor, prepared statement.......   466
    Wyoming, Office of the Governor, prepared statement..........   466
Swan Ecosystem Center, prepared statement........................   467

Tamarac Interpretive Association, prepared statement.............   468
Teaming With Wildlife National Steering Committee, prepared 
  statements...................................................471, 472
The:
    Conservation System Alliance, prepared statement.............   292
    Hardwood Federation, prepared statement......................   224
    Nature Conservancy, prepared statement.......................   224
    Wildlife Society, prepared statements.................481, 484, 487
Town:
    Manager, Millinocket, Maine, prepared statement..............   479
    Of Ophir, Colorado, prepared statement.......................   480

Union of Concerned Scientists, prepared statement................   224
United Tribes Technical College, prepared statement..............   493
University of Georgia, Center for Invasive Species & Ecosystem 
  Health, prepared statement.....................................   224
USGS Coalition, prepared statement...............................   490
Utah Water Users Association, prepared statement.................   256

Weber County Commission, Ogden, UT, prepared statement...........   495
Western:
    Coalition of Arid States, prepared statement.................   496
    Pennsylvania Conservancy, prepared statement.................   497
Wyoming:
    State Engineer's Office, prepared statement..................   500
    Water Association, prepared statement........................   501

Yavapai County, Arizona, prepared statement......................   502
Yellowhawk Tribal Health Center, prepared statement..............   502

 
                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page

Appropriate Management Response (AMR)--Success Stories...........    64
Aviation Efficiencies and Contracting............................    66
    Success Story................................................    67
Capital Improvement & Maintenance................................   115
    Current PART Rating--Results Not Demonstrated................   140
Chief's:
    Initiative...................................................    77
    Principle Representative (CPR)...............................65, 66
Cohesive Fuels Strategy..........................................   139
Continuing Transitional Support to Rural Communities through 
  Extension of Secure Rural Schools Payments.....................   109
Draft Fire and Aviation Management Year Review--Fiscal Year 2007.    57
Educational Requirement for Firefighters.......................124, 126
Effects of Vegetation Treatments on the Vincent Fire, Apache-
  Sitgreaves National Forest, Arizona............................    70
Energy Current PART Rating--Adequate.............................   141
Federal Wildland Fire Policy.....................................    62
Fire:
    And Aviation Management:
        International Activities.................................    76
        Recruitment and Retention Analysis.......................    96
    Preparedness Funding.........................................   122
Firefighter:
    Attrition in California......................................   116
    Responsibilities in Southern California......................   125
    Retention in Southern California.............................   142
Firefighting Fund................................................   126
Focus Areas......................................................    77
Forest & Rangeland Research......................................   114
Forest:
    Legacy Program Current PART Rating--Moderately Effective.....   142
    Planning Rule................................................   123
Fuels/Use of Healthy Forest Restoration Act Authorities..........   153
Grazing..........................................................   131
Hazardous Fuels Accomplishments..................................    68
    Prioritization and Allocation System.........................    68
    Success Stories..............................................    69
    Treatment Program............................................   121
Healthy Forests..................................................   113
Illegal Drug Operations in National Forests......................   117
Invasive Species Current PART Rating--Adequate...................   141
Issues Examined..................................................    96
Land Acquisition Current PART Rating--Adequate...................   142
Letter From Director Tom Harbour.................................    57
Line Officer Certification.......................................    66
Management Controls and Efficiencies.............................    61
Marijuana Eradication Efforts in California......................   117
National:
    Forest System................................................   115
    Incident Management System (NIMS) Support....................    75
Response Plan....................................................    75
        Success Stories..........................................    75
OPM Firefighter Credentials......................................   157
Organizational Efficiency and Transformation.....................   114
Part:
    I.--2007 Fire Season Discussion..............................    58
    II.--Major Accomplishments...................................    60
    III.--Looking Ahead for 2008.................................    76
PART Ratings That Several Forest Service Programs Received for 
  Nonperformance.................................................   140
Partnership:
    Accomplishments..............................................    70
    Success Stories..............................................    71
Pay Scales, Cost of Living, and Personnel Policies...............    98
Planned Activities...............................................    77
Potential Move of Forest Service to Department of the Interior...   136
Preparation Spares Community During Grass Valley Fire, San 
  Bernardino National Forest, California.........................    69
Program Assessment Rating Tool...................................   140
Proposed Actions.................................................   100
Recognizing Integrated Program and Partnership Accomplishments...   114
Recreation Current PART Rating--Moderately Effective.............   142
Restoring Fire Adapted Ecosystems: A Forest Service, Department 
  of the Interior and Nature Conservancy Partnership.............    73
Secure Rural Schools Funding.....................................   128
State and Private Forestry.......................................   114
    Funding......................................................   127
    Forestry Program Redesign....................................   110
Tahoe:
    Area Community Fire Protection Plans.........................   130
    Regional Planning Agency.....................................   118
Timber Budget....................................................   133
Travel Management Rule...........................................   155
VFA Success......................................................    72
Watershed Current PART Rating--Results Not Demonstrated..........   140
Wildland:
    Fire.........................................................   108
        Management...............................................   113
            Current PART Rating--Adequate........................   141
    Outlook......................................................   136
    Urban Interface Fire Program.................................    73
Williams Trail Fuel Break Tested During the Galion Fire, Huron-
  Manistee National Forest, Michigan.............................    69

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

2009 Budget....................................................163, 195
    Request......................................................   160
Abandoned Mines..................................................   178
Administrative Fees on Onshore Leases............................   206
Alaska Funding...................................................   192
Applications for Permits to Drill................................   181
Bakken Shale.....................................................   193
Birds Forever....................................................   171
    Initiative.................................................165, 212
BLM/National Landscape Conservation System.......................   206
Bureau of:
    Indian Affairs/Detention Facilities..........................   216
    Land Management--Roan Plateau................................   199
Canyon of the Ancients...........................................   198
Colorado Oil and Gas Rules.......................................   199
Detention Centers................................................   193
Duck Stamp.......................................................   166
Earmarks.........................................................   185
Energy:
    Costs........................................................   191
    Security.....................................................   166
Fish and Wildlife/ESA Polar Bear Listing.........................   207
FWS:
    Law Enforcement/Import and Export of Threatened Species......   210
    Upper Colorado River Endangered Fish Recovery Program and San 
      Juan River Basin Recovery Implementation Program...........   211
Great Smokey Mountains National Park.............................   188
Healthy Lands Initiative..................................164, 170, 212
Heritage Areas...................................................   189
Hurricane Katrina Barrier Island Rebuilding......................   189
Improving Indian Education.....................................165, 171
Indian:
    Initiatives..................................................   164
    Trust Litigation/Cobell v. Kempthorne........................   215
Initiatives......................................................   184
Interior's Accomplishments.......................................   168
Kerr McGee Case/Deepwater Offshore Leases........................   205
Land and Water Conservation Fund.................................   187
Legislative Proposals............................................   176
Marijuana in Parks...............................................   202
Marine Mammals...................................................   190
Minerals Management Service:
    Information Technology Increase..............................   196
    Minerals Revenue Management..................................   196
National:
    Park Service/Park Police.....................................   203
    Parks Centennial......................................161, 163, 199
    Wildlife Refuge System/Impacts on Colorado Refuges...........   208
Naval Oil Shale..................................................   180
    Reserves.....................................................   162
Ocean and Coastal Frontiers......................................   172
    Initiative...................................................   165
Office of the Special Trustee/Indian Land Consolidation..........   215
Operating Budgets................................................   163
Other Budget Priorities..........................................   174
Overview of the 2009 Budget......................................   167
Payments in Lieu of Taxes........................................   162
Platte River Recovery Program....................................   182
Polar Bears......................................................   197
Preparedness.....................................................   185
Revenue Sharing..................................................   190
Revenues.........................................................   192
Roan Plateau.....................................................   198
Royalty Policy Report............................................   197
Rural Fire Assistance............................................   177
Safe:
    Borderlands..................................................   209
        Initiative........................................166, 173, 200
    Indian Communities...........................................   170
        Initiative...............................................   164
Salmon.........................................................179, 186
Species Conservation on Private Lands............................   183
Stewardship......................................................   186
Supporting the Department's Mission..............................   173
The:
    Challenges Ahead.............................................   167
    National Parks Centennial....................................   169
U.S.:
    Geological Survey:
        Landsat Program..........................................   214
        Ocean and Coastal Frontiers Initiative...................   213
        Water for America Initiative.............................   211
    Park Police...........................................179, 180, 201
United Tribes Technical College..................................   194
Water for America................................................   171
    Initiative...................................................   165
Wildland Fire Outlook For This Year..............................   206

                    ENVIRONMENTAL PROTECTION AGENCY

Abandoned Mines..................................................    17
Advancing Clean, Affordable and Safe Energy......................     6
Air Pollution in National Parks..................................    43
Alaska Native:
    Village Grants...............................................    33
    Villages.....................................................    35
Anti-Earmark Syndrome............................................    34
Arsenic:
    Levels.......................................................    14
    Standards and Community Assistance...........................    46
Bluegrass:
    Field-Burning................................................    22
    Seed Burning.................................................    23
Brownfields and Land Revitalization..............................    10
California Waiver................................................11, 24
    Greenhouse Gas Regulation....................................    41
Clean:
    Air:
        Act......................................................    25
        Mercury Rule.............................................    28
    Water........................................................    30
        State Revolving Fund.....................................    36
Climate Change...................................................     7
Cooperative Programs.............................................     7
Decrease of Clean Water State Revolving Funds....................    23
Delay in Implementing a Solution to the Leadville Mine Drainage 
  Tunnel.........................................................    45
Determine Whether Carbon Dioxide Contributes to Climate Change...    13
Diesel Emissions Reduction.......................................    30
Earmarks Eliminated..............................................    28
Emission Reduction...............................................    27
Energy Development...............................................    16
Enforcement......................................................    10
Grants to States.................................................     2
Greenhouse Gas:
    Emissions....................................................    12
    Registry.....................................................    38
Homeland Security................................................     6
Land Protection and Restoration..................................    39
Leadville Mine Drainage Tunnell..................................     3
Marine Diesel and Locomotive Emission Control Rule...............    32
Mercury Pollution................................................    18
New Standards for Large Animal Confined Operations...............    22
Perchlorate Contamination........................................    31
Renewable Fuel Standard..........................................    26
State Mercury Programs...........................................    20
Stonewalling.....................................................    27
Stronger EPA:
    Performance and Management...................................    11
    Sound Science................................................    10
Superfund Remediation of Highly Contaminated Hazardous Waste 
  Sites..........................................................     9
Sustainable Ports Initiative.....................................    32
Water Infrastructure.............................................     4
    And Programs.................................................     8
Working With Federal Partners....................................     7

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
